<html>
<title> - NOMINATIONS OF THE 110TH CONGRESS</title>
<body><pre>[Senate Hearing 110-777]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-777
 
           NOMINATIONS OF THE 110TH CONGRESS--SECOND SESSION 

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               ----------                              

                 JANUARY 30 THROUGH SEPTEMBER 24, 2008

                               ----------                              



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




































           NOMINATIONS OF THE 110TH CONGRESS--SECOND SESSION
























                                                        S. Hrg. 110-777

           NOMINATIONS OF THE 110TH CONGRESS--SECOND SESSION

=======================================================================

                                HEARINGS



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               __________

                 JANUARY 30 THROUGH SEPTEMBER 24, 2008

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-281 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





























                COMMITTEE ON FOREIGN RELATIONS          
                110th CONGRESS--FIRST SESSION          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          

CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire*
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Pennsylvania        JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

*Note: Reassigned to Committee on Finance January 24, 2008.

                          ----------          

                COMMITTEE ON FOREIGN RELATIONS          
                110th CONGRESS--SECOND SESSION          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          

CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Pennsylvania        DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming*
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

*Note: Appointed February 12, 2008.

                                  (ii)

  




















                            C O N T E N T S

                              ----------                              

    [Any additional material relating to these nominees may be found
              at the end of the applicable day's hearing.]

                              ----------                              
                                                                   Page

                      Wednesday, January 30, 2008

Ameri, Goli, to be Assistant Secretary of State for Educational 
  and Cultural Affairs...........................................     3
Glassman, James, to be Under Secretary of State for Public 
  Diplomacy......................................................     7
Kramer, David, to be Assistant Secretary of State for Democracy, 
  Human Rights, and Labor........................................     4
                                 ------                                

                      Wednesday, February 6, 2008

Jones, Deborah, to be Ambassador to Kuwait.......................    62
Moriarty, to be Ambassador to Bangladesh.........................    58
Scobey, Margaret, to be Ambassador to Egypt......................    52
                                 ------                                

                       Thursday, February 7, 2008

Grieco, Jeffrey, to be an Assistant Administrator of the U.S. 
  Agency for International Development...........................    89
Guevara, Ana, to be the Alternate Executive Director of the World 
  Bank...........................................................    93
Morales, Hector, to be the Permanent Representative to the 
  Organization of American States................................    87
Walther, Larry, to be the Director of the Trade and Development 
  Agency.........................................................    94
                                 ------                                

                         Tuesday, April 8, 2008

Barrett, Barbara McConnell, to be Ambassador to the Republic of 
  Finland........................................................   119
Ghafari, Yousif Boutrous, to be Ambassador to the Republic of 
  Slovenia.......................................................   123
McEldowney, Nancy, to be Ambassador to the Republic of Bulgaria..   136
Urbancic, Frank, to be Ambassador of the Republic of Cyprus......   133
Volker, Kurt, to be the U.S. Permanent Representative on the 
  Council of NATO................................................   127
                                 ------                                

                        Wednesday, April 9, 2008

Haslach, Patricia M., to be United States Senior Coordinator for 
  the Asia-Pacific Economic Cooperation (APEC) Forum.............   178
Marciel, Scot A., to be United States Ambassador for ASEAN 
  Affairs........................................................   175
Stephens, D. Kathleen, to be the Ambassador to the Republic of 
  Korea..........................................................   165
Todd, William E., to be Ambassador to the State of Brunei 
  Darussalam.....................................................   172
                                 ------                                


                                 (iii)
                       Wednesday, April 16, 2008

Callahan, Robert, to be the Ambassador to the Republic of 
  Nicaragua......................................................   221
Cianchette, Peter, to be the Ambassador to the Republic of Costa 
  Rica...........................................................   243
Hodges, Heather, to be the Ambassador to the Republic of Ecuador.   219
Llorens, Hugo, to be the Ambassador to the Republic of Honduras..   216
McFarland, Stephen, to be the Ambassador to the Republic of 
  Guatemala......................................................   224
Speck, Samuel, to be the Commissioner for the United States on 
  the United States-Canadian--United States-Canada International 
  Joint Commission...............................................   246
Stephenson, Barbara, to be the Ambassador to the Republic of 
  Panama.........................................................   239
                                 ------                                

                         Monday, April 28, 2008

Burns, William J., to be Under Secretary of State for Political 
  Affairs........................................................   279
Jacobs, Janice L., to be Assistant Secretary of State for 
  Consular Affairs...............................................   281
McMahan, Vance, to be the U.S. Representative on the Economic and 
  Social Council of the United Nations...........................   282
                                 ------                                

                         Thursday, May 1, 2008

Beecroft, Robert Stephen, to be Ambassador to Jordan.............   327
Cunningham, James, to be Ambassador to Israel....................   329
Hoagland, Richard, to be Ambassador to the Republic of Kazakhstan   332
LeBaron, Joseph Evan, to be Ambassador to Qatar..................   336
                                 ------                                

                         Wednesday, May 7, 2008

Bernicat, Marcia Stephens Bloom, to be Ambassador to the Republic 
  of Guinea-Bissau...............................................   372
Bodde, Peter W., to be Ambassador to the Republic of Malawi......   395
Booth, Donald E., to be Ambassador to the Republic of Zambia.....   398
Hawkins, Patricia McMahon , to be Ambassador to the Togolese 
  Republic.......................................................   383
Milovanovic, Gillian Arlette, to be Ambassador to the Republic of 
  Mali...........................................................   374
Myles, Marianne Matuzic, to be Ambassador to the Republic of Cape 
  Verde..........................................................   403
Nolan, Stephen James, to be Ambassador to the Republic of 
  Botswana.......................................................   400
Thomas-Greenfield, Linda, to be Ambassador to the Republic of 
  Liberia........................................................   381
Tritelbaum, Donald Gene, to be Ambassador to the Republic of 
  Ghana..........................................................   377
                                 ------                                

                        Wednesday, June 18, 2008

Ayalde, Liliana, to be Ambassador to the Republic of Paraguay....
Boswell, Eric J., to be Assistant Secretary of State for 
  Diplomatic Security............................................
DiCarlo, Rosemary Anne, to be Alternate U.S. Representative to 
  the Sessions of the General Assembly and the Alternate U.S. 
  Representative for Special Political Affairs in the United 
  Nations........................................................
Jones, John Melvin, to be Ambassador to the Cooperative Republic 
  of Guyana......................................................
                                 ------                                

                        Thursday, June 19, 2008

Beyrle, John R., to be Ambassador to the Russian Federation......   462
Chaudhry, Asif, to be Ambassador to the Republic of Moldova......   465
Culbertson, James, be Ambassador to the Kingdom of The 
  Netherlands....................................................   447
Girard-diCarlo, David F., to be Ambassador to the Republic of 
  Austria........................................................   450
Kaidanow, Tina S., to be Ambassador to the Republic of Kosovo....   469
Reeker, Phillip Thomas, to be Ambassador to the Republic of 
  Macedonia......................................................   473
Silverberg, Kristen, to be the U.S. Representative to the 
  European Union.................................................   454
Yovanovitch, Maria L., to be Ambassador to the Republic of 
  Armenia........................................................   477
                                 ------                                

                        Thursday, July 17, 2008

Alemayehou, Mimi, to be the United States Director of the African 
  Development Bank...............................................   549
Durkin, Patrick, to be a member of the board of directors of the 
  Overseas Private Investment Corporation........................   554
Peel, Ken, to be the U.S. Director of the European Bank for 
  Reconstruction and Development.................................   552
San Juan, Miguel, to be the U.S. Director/Executive Director of 
  the Inter-American Development Bank............................   556
                                 ------                                

                         July 23, 2008--morning

Eastham, Hon. Alan W., to be Ambassador to the Republic of Congo.
Simon, John, to be Ambassador to the African Union...............
Swan, James, to be Ambassador to the Republic of Djibouti........
Symington, Hon. W. Stuart, to be Ambassador to Rwanda............
                                 ------                                

                        July 23, 2008--afternoon

Gfoeller-Volkoff, Tatiana C., to be Ambassador to Kyrgyzstan.....
Olson, Richard G., Jr., to be Ambassador to the United Arab 
  Emirates.......................................................
Pearce, David D., to be Ambassador to the People's Democratic 
  Republic of Algeria............................................
Sison, Hon. Michele J., to be U.S. Ambassador to Lebanon.........
                                 ------                                

                     Wednesday, September 10, 2008

Kim, Sung, to be Special Envoy for the Six Party Talks...........   577
McGann, Steven, to be Ambassador to the Republic of the Fiji 
  Islands, the Republic of Nauru, the Kingdoms of Tonga and 
  Tuvalu, and the Republic of Kiribati...........................   583
Rodley, Carol Ann, to be Ambassador to the Kingdom of Cambodia...   587
                                 ------                                

                      Thursday, September 11, 2008

Hook, Brian, to be Assistant Secretary of State for International 
  Organization Affairs...........................................   596
Lebedev, Gregori, to be Representative of the United States to 
  the United Nations for U.N. Management and Reform, and to be 
  Alternate Representative of the United States to the Sessions 
  of the General Assembly of the United Nations..................   598
Reynolds, Matthew, to be Assistant Secretary of State for 
  Legislative Affairs............................................   600
                                 ------                                

                     Wednesday, September 24, 2008

Cretz, Gene A., to be Ambassador to Libya........................   000
Jeffrey, James F., to be Ambassador to the Republic of Turkey....   000


                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, JANUARY 30, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

Ameri, Goli, to be Assistant Secretary of State for Educational 
        and Cultural Affairs
Glassman, James, to be Under Secretary of State for Public 
        Diplomacy
Kramer, David, to be Assistant Secretary of State for 
        Democracy, Human Rights, and Labor
    The committee met, pursuant to notice, at 11:15 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bill Nelson, 
presiding.
    Present: Senators Bill Nelson, Feingold, Menendez, Cardin, 
and Lugar.
    Also present: Senators Lieberman and Smith.

             OPENING STATEMENT OF HON. BILL NELSON,
                   U.S. SENATOR FROM FLORIDA

    Senator Bill Nelson. We're here to consider the nominations 
of the Honorable Goli Ameri to be Assistant Secretary of State 
for Educational and Cultural Affairs, and the Honorable James 
Glassman to be Under Secretary of State for Public Diplomacy, 
and Mr. David Kramer to be Assistant Secretary of State for 
Democracy, Human Rights, and Labor.
    We've been joined by our colleague, Senator Smith, and I 
want to extend the courtesies of the chair to you for your 
statement.

               STATEMENT OF HON. GORDON H. SMITH,
                    U.S. SENATOR FROM OREGON

    Senator Smith. Thank you, Senator Nelson. I'm honored to be 
back in the Foreign Relations Committee. I miss this committee 
very much and I thank you and Ben for your service on this 
committee. I hope you enjoy it as much as I did in my first 
term.
    It is for me both a privilege and a pleasure to be here to 
speak on behalf of Goli Ameri. She is one of the most 
remarkable Oregonians that it is my privilege to know. She's a 
long-time friend, she's been a supporter, she has been a public 
servant, she has been a distinguished businesswoman. She has a 
lovely family and a great husband in Jim.
    But her story really is much richer than that. Goli was 
born in Iran and came to the United States under very difficult 
circumstances, made her way through Stanford University, and 
distinguished herself academically. Moreover, she took that 
knowledge and built a very successful business. She's the 
founder and president of eTinium, which is an international 
consulting and marketing research company specializing in 
telecommunications. Her opinions are regularly sought by 
business magazines, journals, and newspapers.
    Before starting eTinium, she served as a director of U.S. 
Leasing, a former division of the Ford Motor Credit, and Fleet 
Bank. She has recently completed service, played a valuable 
role in representing the United States internationally as a 
public delegate to the 61st session of the United States 
Commission on Human Rights in Geneva, Switzerland.
    In addition to that, she is a supporter of the Iran 
Democracy Project at the Hoover Institution, which seeks to 
study democracy and how to aid it, its development, in Iran.
    I believe she truly embodies all the best in the American 
spirit and I'm very excited at this nomination and I urge your 
support. She certainly has mine, because she has earned it over 
many, many years with a distinguished career in public service 
and mostly just as a great human being.
    So thank you, Mr. Chairman.
    Senator Bill Nelson. Thank you, Senator Smith.
    Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Mr. Chairman, I would like to just make a 
short statement of greeting, if I may, this morning. I'm very 
pleased to welcome three very distinguished nominees. I have 
often spoken of the need to draw talented individuals from the 
private sector into public service. Given the potential loss of 
privacy, the reduction in pay, financial restrictions, other 
complications, government service sometimes holds little 
attraction for men and women who have built careers in the 
private sector. Many nominees make personal and financial 
sacrifices to pursue difficult assignments in the service of 
our country.
    I am grateful that Mr. Glassman, Mr. Murray, and Mr. Kramer 
have stepped forward to serve their country at this critical 
time. Understandably, during an election year the country 
begins to look ahead to the possibilities of a new 
administration. But irrespective of the upcoming election, the 
important business of our Government continues on, and this is 
especially true in the State Department, which is contending 
with numerous diplomatic challenges.
    With less than a year remaining in this administration, 
it's essential that the Foreign Relations Committee move with 
dispatch to confirm qualified nominees so they can provide 
leadership as soon as possible. Similarly, I would urge the 
Bush administration to make decisions about vacant posts at an 
early date so the State Department does not experience gaps in 
its diplomatic or managerial leadership.
    I congratulate the nominees before us today. I look forward 
to your discussion with them and support of them as we try to 
expedite this procedure.
    I thank you, Mr. Chairman, for chairing this meeting.
    Senator Bill Nelson. Thank you, Senator Lugar.
    Would each of you introduce your families that might happen 
to be joining you today?

    STATEMENT OF HON. GOLI AMERI, NOMINATED TO BE ASSISTANT 
    SECRETARY OF STATE FOR EDUCATIONAL AND CULTURAL AFFAIRS

    Ms. Ameri. Good morning, Mr. Chairman. I'd like to 
introduce my husband, Jim Ameri, who is sitting over there, and 
my oldest son, Darius Ameri, who is here today.
    [The prepared statement of Ms. Ameri follows:]

    Prepared Statement of Hon. Goli Ameri, Nominee to be Assistant 
        Secretary of State for Educational and Cultural Affairs

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I would also like to thank 
Senator Smith of the great State of Oregon for being here today and for 
his kind words of introduction.
    I would like to begin by recognizing the members of my family who 
are sitting behind me for their love and support. Joining me here today 
are my husband, Jim, and my son, Darius. My second son, Sherwin, could 
not be here and I am proud to say that he is in New Orleans building 
homes for the victims of Hurricane Katrina. My parents are both elderly 
and unfortunately could not be here either, but I want to thank them 
for their ever-present love and support and their foresight in sending 
me to the United States for my higher education.
    It is also a great pleasure to be seated before the committee today 
with David Kramer to be Assistant Secretary of State for Democracy, 
Human Rights, and Labor, as well as a gentleman who I've gotten to know 
well in the last few weeks and who I will have the pleasure to work 
with in the coming year, Jim Glassman, nominated to be Under Secretary 
of State for Public Diplomacy and Public Affairs.
    I am honored by the trust and confidence shown to me by President 
Bush and Secretary Rice in putting my name forward to be Assistant 
Secretary of State for Educational and Cultural Affairs.
    I believe that my background and experience will enable me to carry 
on the proud tradition of excellence at the Bureau.
    First and foremost, there is who I am--an American by choice. I was 
born and raised in Tehran, Iran, and came to the United States to 
attend Stanford University--one of the 100,000 international students 
who embarked for the United States in 1974. When the revolution in Iran 
happened in 1979, there were thousands of us studying in America whose 
futures were put in doubt. But even in our gloomiest moments, we knew 
there was a light at the end of the tunnel because we were armed with a 
first-class education we had gained right here in the United States. 
Our education not only propelled us to success, but it also taught us 
many valuable life lessons. Among the myriad of things I learned and 
they are too numerous to list, was the value of freedom and democracy, 
the fundamentals of critical thinking, the questioning of ideas, and a 
profound sense of empowerment. I learned that in America there are no 
constraints to one's desire to achieve. That it's ok to be a woman, its 
ok to be an immigrant, and most importantly its ok to be a dreamer.
    Where else in the world would an immigrant, a woman of Iranian 
heritage, be nominated as an Assistant Secretary and have the privilege 
to sit in front of this distinguished panel?
    The idea of America is alive and well and as strong as ever. 
Education and culture are among America's greatest soft power assets--
assets recognized around the world. These programs allow us to 
demonstrate American values, not just assert them. I am delighted that 
President Bush and Secretary Rice have emphasized that public diplomacy 
and exchanges are top priorities for the State Department and for 
foreign affairs, in general.
    I understand both personally and professionally what Secretary Rice 
means when she speaks of the transformational power of education and 
exchange. I have experienced it firsthand and, if confirmed, it would 
be not only be a tremendous privilege to lead the Bureau of Educational 
and Cultural Affairs but to have firsthand responsibility to promote 
these values overseas.
    If confirmed, I am committed to strengthening the many achievements 
of the Department's educational and cultural exchanges. I intend to 
expand our people to people exchanges and introduce (1) more 
opportunities for engagement with key countries like Iran and North 
Korea where we seek better relations between our citizens, and (2) 
reach out to the more disadvantaged segments of the population around 
the world. I will encourage more women and girls to participate in our 
exchange programs and I would like to make sure that we 
institutionalize successful and powerful programs like the Middle East 
Breast Cancer Initiative and the Fortune Women's Mentorship program.
    Coming from the private sector, I know that the challenges of the 
21st century cannot be addressed by the government alone. I have been 
delighted to see that public-private collaboration is a significant 
part of the organizational culture at ECA with hundreds of partners 
among NGOs, businesses, and academic institutions. ECA has made 
significant progress in creatively expanding these public-private 
partnerships with impressive new undertakings, such as with the Edward 
R. Murrow Program for Journalists, the Global Cultural Initiative, 
American Public Diplomacy Envoys, and engagement with America's higher 
education community. My goal is to engage and enlist the private sector 
and private foundations more fully to expand our No. 1 public diplomacy 
tool--exchanges and teaching English abroad.
    I would also like to expand our outreach to ethnic communities in 
the United States to listen to their ideas about expanding our 
exchanges and finding creative ways to have them represent us overseas. 
If confirmed, I will also be looking for effective ways to engage the 
800,000-plus strong alumni of ECA programs who are often America's best 
friends.
    Having two young sons and coming from a technology background, I 
have come to understand the incredible power of this industry in 
attracting youth around the world and one of my goals is to further 
harness this power in achieving the goals of the ECA. Our challenge is 
to build mass in reaching out to the world and today the Internet is 
our most significant ally.
    And, of course, last but not least, I am committed to investing in 
and recognizing the hard work and expertise of all PD professionals who 
are responsible for much of the success of our programs, and coming 
from the private sector, my commitment to you will be to ensure that 
the resources allocated to ECA are spent wisely, effectively, and with 
maximum impact.
    Ladies and gentlemen, we all know that these are challenging times 
for public diplomacy. But I am hopeful about our activities, because 
after all what we are promoting is the idea of America--our people's 
commitment to freedom and democracy, to honesty and integrity, to 
trust, and most of all to tolerance. There is still not a day that goes 
by that I don't feel a surge of joy, a thankfulness for being a part of 
this commitment. It is indeed a joy worth sharing with others. I look 
forward to working with all of you and your staff to spread the 
powerful message of our values all over the world. Mr. Chairman, I 
thank you for the opportunity to appear before you today and look 
forward to your questions.

    Senator Bill Nelson. Welcome.
    Mr. Kramer.

    STATEMENT OF DAVID J. KRAMER, NOMINATED TO BE ASSISTANT 
   SECRETARY OF STATE FOR DEMOCRACY, HUMAN RIGHTS, AND LABOR

    Mr. Kramer. Mr. Chairman, I'd like to introduce my oldest 
brother, Steven Kramer, who has joined us today. Thank you.
    [The prepared statement of Mr. Kramer follows:]

    Prepared Statement of David J. Kramer, Nominee to be Assistant 
       Secretary of State for Democracy, Human Rights, and Labor

    Mr. Chairman, members of the committee, I am honored to appear 
before you today to seek confirmation as Assistant Secretary of State 
for Democracy, Human Rights, and Labor. I am grateful to Secretary Rice 
for recommending me and to President Bush for nominating me for this 
position--a position central to the pursuit of the President's global 
freedom agenda.
    If confirmed, I will devote my utmost energy and effort to serving 
as our Government's lead representative in the worldwide defense and 
advancement of human dignity and democracy. Should you afford me the 
opportunity to serve, I know that my work will be strengthened, as that 
of my predecessors has been, by the active, bipartisan support of this 
committee, and indeed, of the entire Congress.
    Let me also take this occasion to say, Mr. Chairman, that if 
confirmed, I will be fortunate to inherit an impressive Democracy, 
Human Rights, and Labor Bureau from my distinguished colleague and good 
friend, Barry Lowenkron.
    The advancement of human rights and democratic freedoms reflects 
the core values of the American people. As President Bush said during 
his visit to Prague last summer, ``[F]reedom is the nonnegotiable right 
of every man, woman, and child, and the path to lasting peace in our 
world is liberty.''
    In his Prague speech, the President spoke about the great promise 
that has emerged with the rebirth of freedom in many parts of what used 
to be the Soviet Union, and Central and Eastern Europe. That region for 
many years has been the primary focus of my professional efforts, both 
during my time in government and before that when I worked in the 
foundation world, helping to establish one of the first independent 
public policy think tanks in post-Soviet Russia, the Carnegie Moscow 
Center.
    My commitment to promoting human rights and democratic principles 
is long-standing. Relatives on my father's side were the victims of 
Soviet totalitarian brutality. Only one family member in Riga, my 
father's first cousin, survived--after 17 harrowing years of forced 
labor in Siberia. She died 5 years ago. What happened to her and 
countless millions like her is seared upon my memory. And so I am 
personally, as well as professionally, committed to do all I possibly 
can to help other innocent men and women who are caught in the cruel 
grip of oppression--from Belarus to Burma, Zimbabwe to Cuba, North 
Korea to Iran, and Eritrea to Syria. And, if confirmed, I also will use 
every tool available to me as Assistant Secretary to support those in 
every region of the world who are working to help their countries make 
the transition to accountable, democratic government.
    President Bush's second inaugural address in January 2005 struck a 
deep chord with me and reminded me why I wanted to serve in government 
in the first place. Early in this administration, I had the privilege 
of serving as senior advisor to Under Secretary for Democracy and 
Global Affairs, Paula Dobriansky--and I would look forward, if 
confirmed, to the pleasure of working with her in my new capacity. I 
worked intensively on democracy and human rights issues. I pressed, for 
example, for more attention to be focused on the tragic situation in 
Chechnya. I also played a role in developing the President's 
unprecedented HIV/AIDS initiative--a vivid demonstration of the good 
that our compassionate country can do. This experience also impressed 
upon me the need not just to promote democracy, but also to strengthen 
the capacities of democracies so that they can deliver a better life to 
their people. Human rights and democracy assistance is not the same as 
development aid--both are important and they are mutually reinforcing.
    Similarly, advancing democracy cannot be pursued to the exclusion 
of important security interests, such as combating terrorism and 
extremism and promoting nonproliferation. At the same time, cooperation 
with the United States on strategic matters of mutual interest should 
not win a country a pass on pushing forward with political 
liberalization and reform. As President Bush said during his recent 
trip to the Middle East: ``. . . the best way to defeat the extremists 
in your midst is by opening your societies, and trusting in your 
people, and giving them a voice in their nation.''
    In my current position as Deputy Assistant Secretary for Russia, 
Ukraine, Belarus, and Moldova, I have made sure that democracy and 
human rights issues are at the top of the agenda. The collapse of the 
oppressive Soviet empire opened the possibility for nearly 400 million 
people to live in freedom, many for the first time in their lives. This 
opportunity, I know, has not yet been realized for all in this region. 
Time and again, Mr. Chairman, my colleagues and I have been deeply 
moved by the courage of human rights defenders, independent 
journalists, NGOs, religious and minority rights advocates, and labor 
activists striving--some even sacrificing their lives--to secure the 
blessings of liberty for their fellow citizens. Indeed, much of my work 
and that of my colleagues has been focused on the defense of human 
rights and democratic processes in this part of the world.
    I have been told that I am not allowed into Belarus anymore because 
of my advocacy for freedom in that country and my leadership in 
imposing sanctions against that dictatorial regime due to its human 
rights abuses. I guess I have been doing something right.
    For the first time in a long time, there may be some reason for 
hope in Belarus. In the past 2 weeks, the government has released 
several political prisoners--a cause that my colleagues and I in the 
U.S. Government have been pressing for years. While the Government of 
Belarus needs to do much more, we may be seeing our policy of 
pressuring the regime through sanctions combined with support for the 
democratic opposition finally paying off. If confirmed, I will continue 
to press hard for reform in Belarus.
    When governments veer from the democratic path, it is our 
responsibility to speak up for the people who are being denied their 
rights, to urge the governments to return to the path of democracy, 
and, when necessary, to take appropriate punitive action. As the 
President said in his speech last summer in Prague, ``Freedom can be 
resisted, and freedom can be delayed, but freedom cannot be denied.''
    Mr. Chairman, the goal of the Bush administration's democracy 
promotion efforts is not to impose America's ways on others, it is to 
encourage adherence to international principles and help others effect 
positive change so that they have the freedom to choose. As Secretary 
Rice has said, we seek ``to expand the circle of well-governed states 
that enshrine liberty under the rule of law, that provide for their 
people, and that act responsibly in the international system. America 
cannot do this for other countries. Nor should we. It must be their 
choice, and their initiative. But we can help and we must help. This is 
partnership, not paternalism.''
    If confirmed as Assistant Secretary, I will continue to concentrate 
DRL's diplomacy and programs on the core components of democracy that 
must be present in countries around the globe if human rights are to be 
effectively exercised and protected: (1) Free and fair electoral 
processes, with a level playing field to ensure genuine competition; 
(2) good governance, with representative, transparent and accountable 
institutions operating under the rule of law, including independent 
legislatures and judiciaries; and (3) robust civil societies, including 
independent media and labor unions.
    These components are central to our efforts to help the people of 
Afghanistan and Iraq to assume their rightful places in the global 
democratic community. As the President said in his State of the Union 
speech on Monday, over the past 7 years, ``We've seen Afghans emerge 
from the tyranny of the Taliban and choose a new president and a new 
parliament. We've seen jubilant Iraqis holding up ink-stained fingers 
and celebrating their freedom. These images of liberty have inspired 
us.''
    At the regional level, we will continue to deepen work with the 
Organization for Security and Cooperation in Europe, the African Union, 
the Organization of American States, and the Association of South East 
Asian Nations. These bodies already have established or are in the 
process of establishing human rights and democracy standards, 
institutions, and mechanisms. At the global level, we seek to 
strengthen the institutional capacity of the Community of Democracies. 
And we will continue to work in partnership with like-minded countries 
at the United Nations to defend human rights and democratic principles, 
for example by marshalling international efforts to press for 
democratic reform in Burma and an end to the Darfur crisis.
    Partnerships with NGOs--indigenous and international--are essential 
to the development and success of free societies and play a vital role 
in ensuring accountable government and peaceful, democratic change. If 
confirmed as Assistant Secretary for Democracy, Human Rights, and 
Labor, I will regularly reach out to civil society representatives here 
and abroad for their valuable ideas and insights. There also is much 
that we can do in partnership with the private sector, for example, to 
promote corporate social responsibility and uphold international labor 
standards.
    Mr. Chairman, outstanding, dedicated men and women serve in the 
Bureau for Democracy, Human Rights, and Labor. I see my job, if 
confirmed by the Senate, as helping them to do their vital work by 
ensuring that DRL has a strong voice at the policy table and that 
issues of human rights and democracy are fully integrated into the 
decision making process here in Washington and at our foreign posts.
    Mr. Chairman, if this committee and the Senate see fit to confirm 
me, I will make the most of each and every day as Assistant Secretary. 
The brave men and women around the world who are striving against great 
odds, often at great risk, to advance human rights and democracy 
deserve nothing less. I am acutely aware that this is a time when NGOs, 
the independent press, labor activists, and other human rights and 
democracy defenders are under siege in every region of the world in 
countries as various as China, Russia, and Zimbabwe. In many countries, 
those in power wield unjust laws like weapons, or dispense with all 
pretense of legality and employ brutal extrajudicial measures against 
people who try to peacefully exercise their rights. As long as men and 
women around the globe are deprived of their most fundamental freedoms 
of belief, expression, association, assembly and movement, we, who live 
in liberty, can never do enough.
    Mr. Chairman, if confirmed, I look to work closely with this 
committee and with your other congressional colleagues on the full 
range of human rights and democracy concerns in furtherance of the 
goals set forth in the Advancing Democratic Values Act. I also am 
determined to ensure that when my term is ended, I will leave the DRL 
Bureau in strong shape for my successor in the next administration. 
Working for freedom's cause transcends politics. It is part of what it 
means to be an American, and that is why I would be deeply honored to 
serve the American people as Assistant Secretary of State for 
Democracy, Human Rights, and Labor.
    And now, Mr. Chairman and members of the committee, I will be happy 
to try to answer any questions you may have.

    Senator Bill Nelson. Welcome.
    Mr. Glassman.

  STATEMENT OF HON. JAMES K. GLASSMAN, NOMINATED TO BE UNDER 
            SECRETARY OF STATE FOR PUBLIC DIPLOMACY

    Mr. Glassman. Mr. Chairman, I'd like to introduce my uncle, 
Bernard Glassman, who's seated behind me. Unfortunately, my 
wonderful wife, Beth, is recovering from emergency surgery on 
Monday. She's doing well, but she couldn't be with us.
    Thank you.
    [The prepared statement of Mr. Glassman follows:]

   Prepared Statement of Hon. James K. Glassman, Nominee to be Under 
       Secretary of State for Public Diplomacy and Public Affairs

    Mr. Chairman and members of the committee, on October 1, 2003, the 
Advisory Group on Public Diplomacy in the Arab and Muslim World, 
mandated by Congress and chaired by Ambassador Edward Djerejian, 
produced a powerful report that concluded, ``At a critical time in our 
nation's history, the apparatus of public diplomacy has proven 
inadequate.''\1\
---------------------------------------------------------------------------
    \1\ Changing Minds, Winning Peace: A New Strategic Direction for 
US. Public Diplomacy in the Arab & Muslim World, Report of the Advisory 
Group on Public Diplomacy for the Arab and Muslim World, Oct. 1, 2003, 
submitted to the Committee on Appropriations, U.S. House of 
Representatives, p. 8.
---------------------------------------------------------------------------
    The report pointed to our ``unilateral disarmament in the weapons 
of advocacy that has contributed to widespread hostility toward 
Americans and left us vulnerable to lethal threats to our interests and 
our safety.''\2\
---------------------------------------------------------------------------
    \2\ Ibid, p. 13.
---------------------------------------------------------------------------
    I was one of the 13 members of the Djerejian Group, and it is not 
hard to sum up our conclusions: get serious and strategic about public 
diplomacy, rebuild the institutions, modernize them, provide 
interagency leadership and coordination, increase resources, get the 
President and the Congress fully behind the effort.
    That was 2003. Times have changed. There is today a broad, 
bipartisan consensus that soft power, smart power, public diplomacy--
that is, the arsenal of persuasion--are absolutely critical to counter 
and defeat the violent extremists who threaten America and the freedom 
of people around the world.
    The will is there. The President and Congress are more engaged. 
Many of the recommendations of the Djerejian Group have been adopted 
over the past 2 years under Secretary of State Condoleezza Rice and 
Under Secretary Karen Hughes--not only programs but what the report 
called a ``culture of measurement,'' a rigorous examination of how well 
public diplomacy is ``moving the needle''--that is, enhancing 
understanding and changing minds.
    The rebuilding is well underway. Indeed, I believe that American 
public diplomacy, after a bipartisan period of neglect in the 1990s, is 
now poised to move beyond the successes of the cold war, beyond 
anything envisaged by the Djerejian Group.
    This is the background, Mr. Chairman, for today's hearing. I am 
honored by the nomination of President Bush and the support of 
Secretary Rice, and I seek your confirmation as Under Secretary of 
State for Public Diplomacy and Public Affairs.
    I am proud to introduce my wife, Beth Glassman. Much of the rest of 
the family is far-flung: My daughter, Zoe Miles, and her two children, 
Violet and James, live in New Orleans; my daughter, Kate Bennett, and 
her daughter, Tess, live in Las Vegas; and my stepchildren are in 
college: Michael Rocks at the University of Virginia and Hilary Rocks 
at Vanderbilt. My mother is nursing a knee injury. I want also to 
recognize the support of my stepmother, Betty Glassman; my brother and 
sister, Peter and Betsy; and my uncle, Bernard. My father, Stanley, who 
died in 2005, would have loved to have seen this day.
    I also want to take this time to thank Senator Lieberman for his 
kind introduction. I have been an admirer of Joe Lieberman even before 
he was elected to the United States Senate. He is a man of principle 
and vision.
    Just 8 months ago, this committee and the United States Senate 
confirmed me as chairman of the Broadcasting Board of Governors, which 
oversees taxpayer-funded international radio, television, and Internet 
networks. This remarkable electronic platform, built over 65 years, now 
directly touches the lives of 155 million people each week in 57 
languages.\3\ In Arabic alone, BBG radio and TV broadcasts reach 35 
million people--more than 10 times as many as were reached in 2002. In 
recent months, our broadcasters have provided a lifeline to people 
seeking the truth in such places as Somalia, Syria, Burma, North Korea, 
Russia, Cuba, Tibet, and Pakistan.
---------------------------------------------------------------------------
    \3\ See http://www.bbg.gov/bbg_aboutus.cfm.
---------------------------------------------------------------------------
    As just one example, one in every five Iranians watches VOA Persian 
television at least once a week. U.S. taxpayer-funded broadcasting 
beams 7 hours of TV a day into Iran, including a popular call-in show 
that allows Iranians to talk directly with American policymakers and 
Iranian exile dissidents. Taken as a whole, U.S. international 
broadcasting--including such venerable institutions as Voice of America 
and Radio Free Europe/Radio Liberty--is our largest single civilian 
public diplomacy program by far.\4\ If I am confirmed, I will, of 
course, step down as chairman of the Broadcasting Board of Governors, 
but I will remain on the board as the Secretary of State's 
representative.
---------------------------------------------------------------------------
    \4\ The budget of the BBG is greater than that of all educational 
and cultural exchange programs supervised by the State Department, but 
the total public diplomacy budget of the State Department is greater 
than that of the BBG by about $200 million for fiscal 2008.
---------------------------------------------------------------------------
    In addition to my service on the Djerejian Group and on the 
Broadcasting Board, I have spent nearly 40 years as a professional 
communicator--a writer, publisher, editor, TV public-affairs show 
moderator, and Web site host. I have founded two media businesses and 
rejuvenated two others. My respect and admiration for this institution 
was nurtured during the time I was editor of Roll Call, the 
congressional newspaper, in the late 1980s and early 1990s.
    Additional preparation came from a deep immersion in the world of 
ideas, which began when I was publisher of The New Republic and 
president of The Atlantic Monthly and continued through my 11 years in 
the think-tank world, at the American Enterprise Institute, where I am 
now a senior fellow and editor of AEI's magazine of economics, The 
American.
    If I am confirmed, it is my intention to focus on three areas: 1) 
Leading the war of ideas, 2) building on our current public diplomacy 
strengths in educational and cultural exchanges, and 3) bringing fresh 
and vital technologies to bear on all of our efforts.
                         lead the war of ideas
    The war against al-Qaeda and other extremist threats to peace, 
freedom, and justice is not only military. It is a war of ideas. 
Secretary of Defense Gates made just this point when he extolled ``soft 
power'' in a lecture at Kansas State University in November.\5\ As the 
9/11 Commission put it: Eliminating al-Qaeda requires ``prevailing in 
the longer term over the ideology that gives rise to Islamist 
terrorism.''\6\
---------------------------------------------------------------------------
    \5\ Robert Gates, Landon Lecture, Nov. 26, 2007. See http://
www.defenselink.mil/speeches/speech.aspx?speechid=1199.
    \6\ The 9/11 Commission Report: Final Report of the National 
Commission on Terrorist Attacks Upon the United States (W.W. Norton & 
Co., 2004), p. 363.
---------------------------------------------------------------------------
    In this war of ideas, the White House in April 2006, gave the State 
Department--and specifically the Under Secretary for Public Diplomacy--
the lead. The Under Secretary is charged with ``leading our strategic 
communications efforts to promote freedom and democracy and to counter 
extremism.''\7\
---------------------------------------------------------------------------
    \7\ Stephen Hadley, Memorandum, ``Establishment of the Public 
Diplomacy and Strategic Communications Policy Coordination Committee,'' 
April 8, 2006.
---------------------------------------------------------------------------
    If I am confirmed, this will be the main focus of my attention: The 
war of ideas--perhaps better expressed as global ideological 
engagement. ``Al-Qaeda,'' as Michael Doran, a scholar of Middle East 
politics at Princeton and now a Pentagon official, has written, ``is 
the ideological organization par excellence.''\8\ The organization 
disseminates its messages through mass media and the Internet, and our 
job is not merely to explain and advocate American values and policies 
but to counter the disturbingly persuasive ideology of the enemy.
---------------------------------------------------------------------------
    \8\ Michael Doran, ``The Pragmatic Fanaticism of al Qaeda,'' 
Political Science Quarterly (Summer, 2002), p. 187. Quoted by William 
Rosenau in The McGraw-Hill Homeland Security Handbook (2005), p. 1132.
---------------------------------------------------------------------------
    Let me give you an idea of what we are up against. A poll last 
April by WorldPublicOpinion.org, a project of the University of 
Maryland, found that about four out of five respondents in Muslim 
nations surveyed agreed with the proposition that the goal of the 
United States, in its global policies, is to ``weaken and divide the 
Islamic world.''\9\ Roughly two-thirds of those polled in Muslim 
countries said that a U.S. goal was to ``spread Christianity to the 
Middle East.''\10\
---------------------------------------------------------------------------
    \9\ WorldPublicOpinion.org, Program on International Policy 
Attitudes, University of Maryland, ``Muslim Opinion on US Policy, 
Attacks on Civilians and al Qaeda,'' April 24, 2007. A press release 
summarizing the study began, ``An in-depth poll of four major Muslim 
countries has found that in all of them large majorities believe that 
undermining Islam is a key goal of US foreign policy.'' See http://
worldpublicopinion.org.
    \10\ Ibid.
---------------------------------------------------------------------------
    A Pew survey found that 80 percent of Indonesians were ``very'' or 
``somewhat'' worried that the United States could be a military threat 
to their country.\11\
---------------------------------------------------------------------------
    \11\ America's Image in the World: Findings from the Pew Global 
Attitudes Project, Testimony of Andrew Kohut, Pew Research Center, 
before the Committee on Foreign Affairs, U.S. House of Representatives, 
March 14, 2007.
---------------------------------------------------------------------------
    Where do such notions come from? Straight from the doctrine that is 
at the foundation of al-Qaeda ideology.
    The fact that so many people adhere to these beliefs is testimony 
to the effectiveness of the radicals, who, as Mary Habeck, a historian 
at Yale who now is with the National Security Council, writes, comprise 
a ``faction--generally called `jihadi' or `jihadist'--[that] has very 
specific views about how to . . . return Muslims to political power and 
what needs to be done about its enemies, including the United States. 
The main difference between the jihadis and other Islamists is the 
extremists' commitment to the violent overthrow of the existing 
international system.''\12\
---------------------------------------------------------------------------
    \12\ Mary Habeck, Knowing the Enemy: Jihadist Ideology in the War 
on Terror (Yale University Press, 2006), p. 4.
---------------------------------------------------------------------------
    Certainly, the many millions in the Muslim world who believe that 
the United States seeks to destroy their religion do not themselves 
adhere to jihadist ideology. But that they buy into major tenets of the 
ideology presents an enormous challenge to our national security.
    How do we counter such notions? How do we counter the widespread 
misperception that America does not allow mosques on its soil? Or that 
we are not a religious or family-oriented people? Part of the answer 
lies in ideological engagement--directly entering the conversation to 
confront lies and distortions with truth. At the time of the Djerejian 
Report, that was barely happening. Now, the efforts is gaining 
momentum, through institutions that Ambassador Hughes inaugurated, like 
the State Department's media hubs in London, Brussels, and Dubai, which 
rapidly deliver voices that advocate for United States policy on Arabic 
and other important international media, and the Digital Outreach Team, 
which began engaging with Arabic Internet sites in November of 2006, 
and expanded to include Persian and Urdu sites in December of 2007.
    What makes the current war of ideas so difficult is that jihadist 
ideology is built on a religious base--which means that non-Muslim 
Americans are not the best messengers in countering its appeal. As 
President Bush has said, ``The war on terrorism is not a clash of 
civilizations. It does, however, reveal a clash inside a civilization, 
a battle for the future of the Muslim world. This is a struggle of 
ideas, and this is an area where America must excel.''\13\
---------------------------------------------------------------------------
    \13\ The National Security Strategy of the United States of 
America, 2002. See http://www.whitehouse.gov/nsc/nss9.html
---------------------------------------------------------------------------
    Ideological engagement is the job, of course, not only of the State 
Department. Other agencies of government are hard at work. If 
confirmed, my intention will be to coordinate closely with these 
agencies and with our allies--especially in Europe, where the 
traditions of the Enlightenment and critical thinking were born and 
where the extremist threat today is intense.
                  build on the foundation of exchanges
    Another way to counter the ideas of the extremists is personal 
engagement through educational and cultural exchange programs. Funding 
for these programs has more than doubled since fiscal 2003 \14\--and 
with good reason. Exchanges are the crown jewels of public diplomacy. 
We are fortunate that a talented Iranian-born American, Goli Ameri, has 
been nominated by the President to head these programs as Assistant 
Secretary of State.
---------------------------------------------------------------------------
    \14\ From $244 million in fiscal 2003 to $501 million in fiscal 
2008.
---------------------------------------------------------------------------
    We should never forget that, to the rest of the world, education is 
America's great brand. In my preparation over the past few weeks, I 
have learned that the total number of international students in the 
United States is on track to rise to a record high in the 2007-2008 
academic year. This is big news, and welcome.
    We will also look for new ways to spread the benefits of 
educational and cultural exchanges to less advantaged youth to study in 
the United States. In particular, we will work to fulfill the 
President's vision to expand the Partnership for Latin American Youth, 
a program which will increase access to English language teaching and 
provide thousands of young people in our own hemisphere a greater 
chance to study here in the United States.
                     bring new technologies to bear
    The truth is that ordinary Americans are superb citizen 
ambassadors. They live our values: Generosity, tolerance, compassion. 
The problem is that the vast majority of people in the world have never 
met an American. The challenge is how to amplify our exchange programs. 
Research shows that the Fulbright program is highly effective. Through 
video technology and the Internet we can magnify the life-changing 
experiences of nearly 7,000 Fulbrighters and 2,000 Flex and YES high 
school students who come here each year so that such experiences are 
shared not simply by the families and friends but by millions.
    New technologies also will play a larger and larger role in the war 
of ideas, through innovations such as the Digital Outreach Team.
    After I was nominated, I read a great deal in the press about my 
job. People speculated on what I would do to burnish America's image, 
to increase our popularity ratings--as if the United States were a 
brand of soft drink or an entrant in ``American Idol'' seeking global 
votes.
    Let me offer a different perspective. Public diplomacy's role is to 
help achieve the national interest by ``informing, engaging, and 
influencing people around the world.''\15\ It is a tool, a means, to 
achieve specific ends. One of those ends--the first goal as defined by 
President Bush's National Security Strategy in March 16, 2006, is 
``promoting freedom, justice and human dignity--working to end tyranny, 
to promote effective democracies, and to extend prosperity.''\16\ And 
why do we do that? Not just for moral reasons, but because free 
governments, since they are accountable to their people, tend not to 
attack other free nations. ``Peace and international stability,'' says 
this National Security Strategy, ``are most reliably built on a 
foundation of freedom.''
---------------------------------------------------------------------------
    \15\ Changing Minds, Winning Peace, op. cit., p. 13.
    \16\ The National Security Strategy of the United States of 
America, 2006. See http://www.whitehouse.gov/nsc/nss/2006/intro.html.
---------------------------------------------------------------------------
    What does all this have to do with popularity? It matters that 
people in other parts of the world trust us and respect us. Their 
leaders are sensitive to public opinion, and when we ask nations to 
support our aims in the world--to send troops, to impose sanctions, to 
assist in humanitarian relief--those nations are more apt to respond if 
their publics are favorably disposed toward the United States.
    On the other hand, isn't it better that more and more people in the 
Arab and Muslim world today reject suicide bombing as a tactic \17\--
even if their love for America has not necessarily increased?
---------------------------------------------------------------------------
    \17\ ``Islam and the West: Searching for Common Ground,'' Testimony 
of Andrew Kohut, Pew Research Center, before the Committee on Foreign 
Relations, U.S. Senate, July 18, 2006. For example, in Jordan, the 
proportion saying that suicide bombing against civilian targets is 
``often'' or ``sometimes'' justified dropped from 57 percent in 2005 to 
29 percent in 2006. See http://pewglobal.org/commentary/
print.php?AnalysislD=1009.
---------------------------------------------------------------------------
    I have spent a good deal of time since my nomination in an attempt 
to gain a deeper understanding of the data on attitudes toward the 
United States. I met for 2 hours with Andy Kohut of the Pew Research 
Center and have conferred with experts at the State Department and read 
practically all the surveys. Here are some conclusions:

          1. Animosity toward the United States is real, and it must 
        concern us.
          2. Different countries have different views of the United 
        States. In Africa, Japan, and India, for example, most people 
        favorably disposed toward the United States.\18\ In much of 
        Western Europe and nearly all the Arab and Muslim world, they 
        are not.
---------------------------------------------------------------------------
    \18\ For example, proportions of those with favorable views of the 
United States, according to a June 2007 Pew Global Attitudes Project 
Survey, were 88 percent in the Ivory Coast, 80 percent in Ghana, 59 
percent in India, 61 percent in Japan, 30 percent in Germany, and 21 
percent in Egypt. In Nigeria a majority of Muslims views the United 
States favorably.
---------------------------------------------------------------------------
          3. Much of the animosity is not deep. Even people who say 
        they dislike us want to have strong bilateral relations with 
        us, and attitudes are not set in stone.\19\ As Secretary Rice 
        said last year, the United States is ``still the place where 
        people like to send their kids to school, where people want to 
        start a new life. Sometimes we overstate the degree to which 
        America is not popular, even if sometimes our policies are 
        not.''\20\
---------------------------------------------------------------------------
    \19\ See, for example, a study conducted between November 30 and 
December 5 by Terror Free Tomorrow: The Center for Public Opinion and 
D3 System. It found that 40 percent of respondents in Saudi Arabia had 
a favorable opinion of the United States, compared with just 11 percent 
in May 2006. See http://www.terrorfreetomorrow.org/
template.php?section=WN.
    \20\ ``A Resolute Condoleezza Rice,'' by Maria Bartiromo, 
BusinessWeek, July 23, 2007. See http://www.businessweek.com/magazine/
content/07_30/b4043101.htm.
---------------------------------------------------------------------------
          4. The animosity of foreigners has three sources:
                  a. They understand that we are a powerful nation and 
                will ultimately set policies with our own interests in 
                mind, but they believe we do not listen to them, do not 
                act as a reliable partner, and do not respectfully take 
                their views into account.\21\
---------------------------------------------------------------------------
    \21\ This is the finding of many surveys. For example, in the June 
2007 survey cited in the footnote above, respondents were asked how 
much the United States ``takes into account the interests of 
countries'' like yours in ``making international policy decisions.'' 
The total proportion answering ``not too much'' or ``not at all'' was 
79 percent in the Czech Republic, 75 percent in Turkey, 79 percent in 
South Korea, and 61 percent in Chile.
---------------------------------------------------------------------------
                  b. In the Arab and Muslim world, especially, they 
                have major misconceptions about America, our aims, and 
                our policies. Remember the examples I cited before, 
                such as a belief that we want to supplant Islam with 
                Christianity in the Middle East.
                  c. They disagree with our policies, especially our 
                presence in Iraq and what they see as our bias in the 
                matter of Israel and the Palestinians.

    The first two sources of animosity, I believe, we can address 
effectively through public diplomacy. We can listen better and more 
respectfully and through exchanges, information programs, and 
ideological engagement, we can address and rectify the lies and 
misconceptions.
    As for policy: Edward R. Murrow, when he was USIA director, 
famously said that public diplomacy should be in on the takeoffs, not 
just the crash landings.\22\ In other words, public diplomacy should 
have a place at the table, to advise policymakers of the potential 
reaction of foreign publics to policies. But never, in my view, should 
global public opinion polls determine the foreign policy of the United 
States.
---------------------------------------------------------------------------
    \22\ See http://usinfo.state.gov/products/pubs/murrow/snow.htm.
---------------------------------------------------------------------------
    Can we do a better job explaining our policies? Yes. Will those 
policies be universally embraced? No.
    In the early 1980s, the United States and our allies agreed on the 
placement of cruise and Pershing missiles in Europe. It was a decision 
that was aggressively opposed by much of Europe's public opinion, but 
it was a policy that helped bring down communism.
    Consider Muslim Americans. A Pew study in May found that foreign-
born American Muslims, by a 70 to 3 percent majority, have an 
unfavorable view of al-Qaeda.\23\ By 78 to 18 percent, they are happy 
with their lives in America. They are optimistic, by a four-to-one 
margin, that a way will be found for Israel and the Palestinians to 
coexist. In all of these measures, Muslim Americans differ not only 
from Muslims in the Middle East and much of Asia but from Muslim 
immigrants in Europe.
---------------------------------------------------------------------------
    \23\ These results and those that follow are from ``Muslim 
Americans: Middle-Class and Mostly Mainstream,'' published by the Pew 
Research Center on May 22, 2007. See http://pewresearch.org/pubs/483/
muslim-americans.
---------------------------------------------------------------------------
    Yet American Muslims, by a margin of more than six to one, say that 
the war in Iraq was wrong. That compares to a split of roughly 50-50 at 
the time among the entire U.S. public.
    In other words, Muslims in America embrace U.S. values and 
participate actively in U.S. society, yet they differ with other 
Americans and with the U.S. government on policy. That is to say, 
policy is not the determining factor in their view of America. This is 
precisely the condition we should strive for in the world. People in 
other countries will not agree with our policies all the time, but we 
want them to have an accurate picture of those policies and the 
motivations behind them, and we want the disagreements to be 
constructive.
    Since I was nominated as Under Secretary on December 11, many 
friends have congratulated me and perhaps just as many have offered 
condolences. They were half-joking, I suppose, in their reference to 
how difficult this job must be.
    Public diplomacy requires seriousness, dedication, imagination, and 
hard work, but no condolences are in order. This is a position for 
which I have prepared all my life. My focus will be leading the war of 
ideas, building on the strong foundation provided by Karen Hughes, 
especially in the area of educational exchanges, and bringing new 
technologies to bear, in large part to amplify the effects of our 
programs.
    The task ahead is to tell the world the story of a good and 
compassionate nation and, at the same time, to engage in the most 
important ideological contest of our time--a contest that we will win.
    In closing, I want to thank the men and women working in the area 
of Public Diplomacy around the world. This includes our Foreign Service 
officers, Civil Service colleagues, and Foreign Service Nationals. I am 
honored to have you consider my confirmation and I look forward to 
working closely with the committee and your staff. Thank you.

    Senator Bill Nelson. We wish her a speedy recovery.
    Mr. Glassman. Thank you, sir.
    Senator Bill Nelson. Senator Lieberman.

             STATEMENT OF HON. JOSEPH I. LIEBERMAN,
                 U.S. SENATOR FROM CONNECTICUT

    Senator Lieberman. Thank you, Mr. Chairman, and good 
morning. I am honored to be here with my colleagues Senator 
Lugar and Senator Nelson. Thank you for giving me the 
opportunity to introduce James K. Glassman formally--I think 
you've already met him--to this committee and urge its members 
to favorably consider his nomination to be Under Secretary of 
State for Public Diplomacy.
    I'm pleased to make this recommendation based on my great 
admiration for the work that Jim Glassman has done and, beyond 
that generic interest, I have a more parochial interest because 
Jim has been a long-time resident of the great State of 
Connecticut.
    The Under Secretary of State for Public Diplomacy is the 
closest thing in the United States Government to what might be 
called a supreme allied commander in the war of ideas, 
responsible for rallying our Nation's resources so that we can 
prevail in the most critical and unconventional of 
battlefields. It is therefore one of the most important posts, 
I believe, in Washington and in our worldwide struggle against 
the forces of Islamist extremism and terrorism.
    I believe that the members of this committee will find Jim 
Glassman to be a highly qualified person to lead this fight. He 
brings considerable knowledge and depth of experience about 
this particular area of activity, public diplomacy. In 2003, he 
served as a member of the congressionally mandated Advisory 
Group on Public Diplomacy for the Arab and Muslim World, which 
was chaired by our very respected Ambassador Edward Djerijian. 
For the last 7 months, Jim has served with great effect and 
energy as chairman of the Broadcasting Board of Governors. 
Unanimously confirmed in that position by Congress last year, 
Jim has overseen all U.S. nonmilitary international 
broadcasting, covering 57 languages and producing for more than 
150 million viewers and listeners.
    I believe that the committee will be especially encouraged 
as it looks into Jim's record of leadership at the BBG, the 
Broadcasting Board of Governors, and the spirit of nonpartisan, 
not just bipartisan but nonpartisan, cooperation and consensus 
that he brought to his decisionmaking. I know that he will 
bring the same qualities of leadership to his work at the 
Department of State and to his dealings with this Congress if 
confirmed in this position.
    Because the mission of this position is, of course, in no 
sense partisan, it is a quintessentially American mission, and 
for that reason I very much hope that you will favorably report 
on the nomination of Jim Glassman to lead us in the war of 
ideas.
    Thank you very, very much.
    Senator Bill Nelson. Thank you, Senator Lieberman.
    I will submit my statement for the record, as we will for 
each of you. We're going to get right into questions, so I turn 
to the Senator from Maryland.
    [The prepared statement of Senator Bill Nelson follows:]

                Prepared Statement of Hon. Bill Nelson,
                       U.S. Senator From Florida

    This hearing of the Committee on Foreign Relations will now come to 
order. Today, the committee meets to consider the nomination of three 
individuals for key leadership positions in the administration.
    The President has nominated James Glassman to be the Under 
Secretary for Public Diplomacy, Goli Ameri to be the Assistant 
Secretary for Educational and Cultural Affairs, and David Kramer to the 
Assistant Secretary for Democracy, Human Rights, and Labor.
    I want to congratulate each of you on your nomination and welcome 
you and your families here today.
    I also welcome our colleagues, Senator Lieberman and Senator Smith, 
who have joined us to introduce two of the nominees today.
    Mr. Glassman has been asked to manage the critical effort of public 
diplomacy for our Nation. An integral part of state-to-state relations, 
public diplomacy is a way to engage foreign audiences about the United 
States on a personal level: It involves people-to-people programs like 
educational, cultural, and sports exchanges.
    America's public diplomacy has been widely criticized since the 
attacks of September 11, 2001. Within months of those attacks, 
international opinion of this country changed from one of admiration, 
respect, and empathy to one of distrust and misunderstanding. Our 
damaged image abroad, even among our closest friends, has hindered our 
ability to work with allies toward our shared objectives, and it is 
imperative that we correct international misperceptions about America.
    If confirmed, Mr. Glassman would be responsible for this monumental 
task.
    As Under Secretary of State for Public Diplomacy, he would be the 
principal adviser to the Secretary of State for shaping the 
international community's perception of this country. Mr. Glassman 
would oversee and manage three important bureaus within the Department 
of State: The Bureaus of Information Programs, Educational and Cultural 
Affairs, and Public Affairs.
    One of those three bureaus, the Bureau of Educational and Cultural 
Affairs would be directed by Ms. Ameri. Her primary responsibility 
would be implementation and oversight of international exchange 
programs.
    We are all familiar with the importance of public diplomacy, and 
specifically cultural exchanges, especially in times of great 
misperception and misunderstanding. As a young boy during the cold War, 
I myself had the opportunity to participate in public diplomacy by 
representing the youth of America and going to the Iron Curtain at the 
German-Czechoslovakian border.
    There in the little village of Tillyschanz in the midst of the cold 
war, I got to speak over Radio Free Europe to the young people behind 
the Iron Curtain. At the age of 17, what I saw at that border made a 
lasting impression on me not until then could I have understood what it 
means for a people to be enslaved and shut off from the world behind 
machine gun nests, guard towers, and mine fields.
    Although the times have changed, the importance of interacting with 
people throughout the world has only increased.
    We also consider today the nomination of Mr. David Kramer to be 
Assistant Secretary of State for Democracy, Human Rights, and Labor.
    In this position, Mr. Kramer would lead U.S. efforts to promote 
democracy, protect human rights and international religious freedom, 
and advance labor rights around the world.
    He would report to the Secretary of State on countries' human 
rights records. Because a country's human rights record is considered 
in the decision to provide U.S. foreign and security assistance, 
vigilant reporting is enormously important to our foreign policy.
    I look forward to a thorough discussion with all of the nominees 
about their plans for providing leadership to our efforts to shape 
America's global image and pursue the highest standards of democracy 
and human rights. Again, I would like to recognize each of them for 
their distinguished careers and thank them for the continued personal 
commitment necessary to undertake these challenging assignments.

             STATEMENT OF HON. BENJAMIN L. CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you very much, Mr. Chairman. 
Let me thank you for convening this hearing, and I want to 
thank all three of the nominees for their willingness to serve 
in the public sector. I agree with Senator Lugar, it's really 
helpful to our Nation when people with strong backgrounds in 
the private sector are willing to come forward and help their 
government in the public sector. It's not easy. It's not easy 
on you as far as your rights of privacy. It's not easy on your 
families. And we thank you for being willing to serve your 
country. Quite frankly, I'm impressed by all three of your 
backgrounds.
    I just want to spend one moment, if I might, with Secretary 
Kramer, who is no stranger to me because of his close 
association with the Helsinki Commission. I am honored to be on 
this committee, but I'm also honored to be the Senate chairman 
of the Helsinki Commission. It's interesting, the Helsinki 
Commission predates the Bureau of Human Rights and Humanitarian 
Affairs, and it's been an unusual entity in that it's a 
cooperative effort between the Executive and Legislative 
Branches.
    Your position, once confirmed, will be most likely the 
designee of your agency to the Helsinki Commission. So, first, 
I want to thank you for your past help. You testified before 
our committee on Belarus. You've been very helpful to our 
staff. And really an invitation to work very closely with us in 
the Helsinki Commission so that we can advance the portfolio 
that comes under the position that you're seeking confirmation 
and we can work closer together, the Members of Congress and 
the administration, to advance U.S. interests internationally 
in human rights. I welcome your comments in that regard.
    Mr. Kramer. Senator Cardin, thank you very much for that 
invitation to continue to work very closely with the Helsinki 
Commission. I have valued my opportunities to engage with you 
and certainly the staff members, with whom I worked very 
closely on a range of issues. In addition to testifying before 
the commission on Belarus, I also testified on the negotiations 
and discussions we've had with Russia on the Conventional Armed 
Forces in Europe Treaty, and appreciated very much your 
comments and thoughts during that session.
    I certainly pledge to you, sir, that if confirmed, I look 
forward very much to a close working relationship with the 
commission.
    Thank you.
    Senator Cardin. Well, I thank you for that, and I do look 
forward to your confirmation and I look forward to having the 
full complement within the commission, and I think you can add 
tremendous strength to our work. I know I speak for all the 
members.
    Mr. Chairman, this is one area where there has been no 
partisan differences at all. It's a commission that works in 
very close harmony. It's interesting, it's also one where there 
is virtually no division between the executive branch and the 
legislative branch. We work in very close unity, which has 
made, I think, our effectiveness within an organization which 
is basically Europe and Central Asia--it includes North 
America; don't get me wrong--but it's given us an extraordinary 
impact in that organization to advance the causes, our 
interests in Europe and Central Asia.
    So I thank you for that answer and I look forward to 
working with you.
    Mr. Chairman, I thank you for recognizing me.
    Senator Bill Nelson. Senator Lugar.
     Senator Lugar. Thank you very much, Mr. Chairman.
    Mr. Glassman, during the last few years of this 
administration, we've had numerous hearings about public 
diplomacy and in due course people have been sent forth to do 
that work, the most recent being Karen Hughes. At the same 
time, those who come into our hearings from the outside world 
keep pointing to surveys that indicate that the United States 
is held in less and less regard by more and more countries. 
Sometimes it's in support of a particular cause or position 
they have, to indicate that we're on the wrong foot. But on the 
other hand, the pervasive nature of these adverse surveys is 
certainly dispiriting to committee members.
    You've watched all of this from various vantage points for 
many years and now have an opportunity to make a substantial 
difference. What strategies do you intend to employ or what 
kind of program, or at what point could the committee be 
apprised of how you will make a difference in this situation?
    Mr. Glassman. Thank you for that question, Senator Lugar. 
I've actually spent the last 6 weeks poring over a lot of the 
data on exactly this subject. I've met with Andrew Kohut of the 
Pew Center and I've looked at his surveys as well as internal 
surveys that have been done by the State Department, and I've 
come to a number of conclusions.
    The first is that the animosity toward the United States is 
real, it should concern us, but it's not monolithic. For 
example, in Africa we do quite well in the surveys. In parts of 
Latin America that's also true; in India, Japan. But there is a 
great deal of animosity, especially in the Arab and Muslim 
world and in Europe.
    What are the sources of that animosity? I think there 
really are three. One is that there is a perception that we are 
not listening and respectfully taking the views of other people 
into account. People seem to understand in the rest of the 
world that we're the big dog, that we are ultimately going to 
make decisions in our national interest, as we should. But they 
feel that they're not being heard.
    The second thing is that there are a lot of misperceptions 
and, frankly, outright lies that are being told about us. Some 
of them are based on a particular framework that the ideology 
on which al Qaeda's doctrine is based comes from. Those are 
serious. For example, majorities of people in the Middle East, 
in the Arab world, believe that our engagement in that area is 
to destroy Islam and to supplant it with Christianity. I mean, 
that is just wrong and we have to address that.
    Finally, there are people who just don't agree with our 
specific policies, such as those in Iraq, and we need to do a 
better job of explaining those policies, but global public 
opinion should absolutely not set our foreign policy.
    So my feeling is that the first two areas are ones that we 
can absolutely work on, and I believe we can work on the third 
one as well and explain our policies better. But this is a 
major concern of mine. I believe that we are making headway 
already and I am very happy to report back to this committee 
after a few months of work and tell you where we stand.
    Senator Lugar. Well, that would be very helpful, because 
clearly this is a crucial area which you've discovered. Mr. 
Kohut and the Pew Foundation have done a lot of work in this 
area and sort of flood us with material of this sort, all of 
which is pretty sad news.
    Do you have any particular strategies in terms of changes 
in broadcasting or in contacts with newsmen? Or really, how 
would you proceed, having noted these deficiencies?
    Mr. Glassman. One of the things I think we need to do 
better is amplify what we're doing in our exchange programs. 
These are fabulous programs. They're really the crown jewels of 
what we do in public diplomacy. But you take a program like the 
Fulbright programs, which are great. Currently 7,000 people a 
year are participating in Fulbrights and that's a good number 
historically. But how do we get the rest of the world to know 
about these programs and, let's say electronically, come into 
contact with more Americans?
    Most people in the world have never met an American and 
ordinary Americans are our best ambassadors. So one of the 
things that I want to try to do, especially in concert with 
Goli because both of us have a background in telecommunications 
and Internet, is to amplify what we're doing.
    The second thing is quite simply to engage in a much more 
vigorous way. We're already doing that, but we need to do more 
of it in the war of ideas, explaining what we're doing, pushing 
back against the lies and misperceptions.
    Senator Lugar. That leads me to a question for Ms. Ameri, 
because clearly the exchange programs are an extraordinary 
aspect of public diplomacy, but they're really much more than 
that. Now, one of the problems that you will face, I suspect, 
although you may be more optimistic, is the Congress has not 
increased the ECA budget and so rapidly you're going to come up 
against barriers, which you may already have discovered even as 
you begin to move into this thing.
    Have you given any thought just creatively as to how the 
Department of Defense budget or other budgets might be 
utilized? I mean that sincerely, not as an invasion into their 
territory, but again and again our committee is trying to think 
through in the constructive work, for instance in Iraq, how if 
we are going to be successful in nation-building defense funds 
could be utilized. Secretary Gates is very much in favor of 
this sort of collaboration.
    It just occurs to me that some good diplomacy on your part, 
given the short framework here, would be important. But have 
you thought about, how do you do the Lord's work with exchanges 
with very little money and what kind of plans do you have?
    Ms. Ameri. Thank you, Senator, for that question. Actually, 
the President's $501 million budget for ECA in 2008 will 
certainly allow the bureau to expand exchanges, and 
particularly its English language programs and international 
visitors. Clearly, the President and the Secretary of State 
have mentioned on a number of occasions their support for all 
the exchanges that the bureau does.
    In addition, I would actually like to extend my gratitude 
to Congress and yourself in particular for having always been 
such a big supporter of the programs of the ECA.
    Having said that, as you mentioned, we can always clearly 
use more funds. One of the ideas that I had, which Jim and I 
have discussed, is, No. 1, we need to get the private sector 
more involved and more engaged. Both of us coming from that 
kind of background, we've talked about it. I've talked to a 
couple of NGOs regarding this, talked to a couple of contacts, 
just briefly, to kind of get some feedback and ideas. If 
confirmed, that will be one of the main items on my agenda--to 
make sure that we bring the private sector in to fund more of 
our exchanges, more of our incredibly successful English 
language teaching programs, English Access Microscholarship 
Program, which has taught English to 32,000 young kids, 
especially in Muslim countries.
    We've done, ECA has done, an evaluation on this and the 
results are phenomenal--close to 90 percent say that they have 
a more favorable view of the United States. Ninety-six percent 
of parents, for example, say if they had another child they'd 
put them through the program. This is a program that clearly 
moves the needle.
    On your question regarding the Defense Department, this was 
a very brief conversation that Jim Glassman and I had 
yesterday. I know he's had a meeting over there, and that is 
certainly an issue that I think we both need to take into 
consideration, concerning Secretary Gates' recent announcement 
on this subject. We welcome your input on that as well, 
Senator.
    Senator Lugar. Well, thank you very much. I came to this 
hearing from a wonderful meeting with 10 students from St. 
Petersburg University. These are all future diplomats, and they 
are deeply interested and very sophisticated about foreign 
policy in our country. These things occur every day in 
Washington, thank goodness. I hope for many more, because I was 
telling them about a group of young Georgians that came here 15 
years ago, including the now-President, Mr. Shakashvili. They 
were graduate students then. They went back to Georgia and a 
while later the Rose Revolution occurred. Thus, this is serious 
business in terms of our public diplomacy and likewise the 
right outcomes of history.
    So I appreciate very much your leadership and your 
collaboration with Mr. Glassman.
    Ms. Ameri. Thank you, Senator.
    Senator Bill Nelson. Thank you, Senator Lugar.
    Senator Feingold.
    Senator Feingold. Thank you so much, Mr. Chairman, for 
holding this hearing. I want to thank all the witnesses for 
their commitment to public service. Your dedication to 
supporting U.S. foreign policy goals is commendable, 
particularly since you would be taking on these positions with 
only a year left in the current administration.
    Let me just ask a few questions. First for Mr. Glassman. In 
our meeting earlier this week you mentioned your intent to work 
to improve the structure of the Bureau of Public Diplomacy and 
Public Affairs, and I appreciate your attention to 
strengthening this Bureau, particularly since it has undergone 
many changes since the U.S. Information Agency was folded into 
the Department of State operations.
    To your predecessor's credit, she undertook a difficult 
task when accepting this assignment in 2005 and she should be 
recognized for her accomplishments. As you are well aware, 
however, this Bureau has been criticized for having a weak 
communications strategy, which obviously raises questions about 
its ability to meet its important mission.
    I'd like to hear from you if you have spoken with your 
predecessor first about the development of a communications 
strategy and how you'll work to improve it; and secondly, how 
you see the communications strategy fitting into the broader 
``structural'' changes you intend to implement?
    Mr. Glassman. Thank you very much for the question, 
Senator. I have indeed spoken at length with Karen Hughes and I 
agree with you, I think she did a superb job in her 2\1/2\ 
years as Under Secretary and, frankly, just speaking 
personally, I don't think she received credit, at least in the 
media, for all that she did. I think people within the 
Department understand it, people who know public diplomacy 
understand it.
    She did a number of very important things. One of the 
things she did was really help to liberate ambassadors and 
other public officials throughout the State Department to get 
out and advocate for American policies and American principles. 
You know, many of them are looking at their own careers and 
worried that they might say something wrong. And in fact when 
somebody might--in one case did say something a little bit 
wrong, she backed that person up and said that we all make 
mistakes. That was a very important signal to send.
    I want to, if I'm confirmed, continue on that same path. 
The fact is that we need a multiplicity of voices out 
advocating for United States policy and for American principles 
in the long term.
    Two other things that she did that are tremendously 
important, I think. One was establishing media hubs in London, 
Brussels, and Dubai. In fact, when I was in Dubai 2 months ago 
I met with the people there. It's a very small staff. There are 
really only six people throughout the world who are doing this. 
But what they're doing is getting out into the Arabic language 
media as well as other media on a very fast, very quick 
response basis and engaging.
    When I was on the Djerijian group 4\1/2\ years ago, one of 
the points that we made was we need to get into the 
conversation. Four and one-half years ago we were not in it. 
We're now in it more and more.
    Finally--and I got an impressive demonstration of this the 
other day--the digital outreach team, which is now I believe 
eight or nine people who are blogging, identifying themselves 
as U.S. Government representatives. They are on blogs, they're 
on Web sites in the Arabic language, Farsi, Persian, and Urdu, 
again trying to get the facts out, because that's the big 
problem.
    So I am deeply committed to a program of vigorous 
communication. In that sense I will be following in Karen's 
footsteps, and I think my entire career of 40 years in 
communications is background for that, sir.
    Senator Feingold. Thank you very much, Mr. Glassman.
    Mr. Kramer, I'd like to just ask you a question about 
Russia as we just touched on it briefly when we met. I'm 
concerned, as I'm sure you are, by the significant weakening 
we've seen in Russia's democratic institutions. Promoting the 
rule of law and strengthening democratic institutions are an 
important part of United States foreign policy and we cannot 
afford to see Russian democracy backslide.
    I'd be interested to hear what you've done in your current 
position to address this backsliding and, should you be 
nominated, how would you promote democracy and the rule of law 
in Russia?
    Mr. Kramer. Senator, thank you very much for the question. 
It is an issue that has occupied me both in my service in 
Government and before I joined the Government, working in the 
think-tank community. I would note that while working at the 
Carnegie Endowment in the 1990s I played a key role in setting 
up the first independent think tank in Moscow, the Carnegie 
Moscow Center, which continues to this day as a vibrant 
institution of free expression.
    In my Government service, have tried to draw attention, 
particularly when the Chechen War flared up again in 1999, to 
the plight of Chechens and what was happening there. In my 
current capacity as Deputy Assistant Secretary responsible for 
Russia, Ukraine, Belarus, and Modova, I've also been outspoken 
on the problems that you've identified--the backsliding and the 
internal situation in Russia--even to the point where my public 
criticism of last December's Duma election earned me a 
condemnation from the Russian Ministry of Foreign Affairs.
    My intent is not simply to speak out from on high, but to 
actually try to make a difference. I think we have to be 
realistic about our ability to influence the situation in 
Russia these days. It's a different Russia than what we saw 
emerge from the initial period of the breakup of the Soviet 
Union, but it doesn't mean that we give up and let Russia 
continue without drawing attention to the democratic 
backsliding that you've identified. So Russia will remain a key 
challenge for us as we continue to try to address the problems 
there.
    Senator Feingold. Thank you.
    Finally, as we discussed briefly yesterday, there are many 
countries across sub-Saharan Africa that require assistance in 
consolidating recent democratic gains. A good example is 
Nigeria, which is an important United States ally and a leader 
on the continent. But the last Presidential election there was 
the latest in a line of troubled elections, with this most 
recent one heavily, if not completely, rigged in favor of the 
ruling party. More recently, the Nigerian President has deposed 
the head of the country's anticorruption commission, 
undermining a previous commitment to fight corruption that 
plagues this resource-rich country.
    So although the administration has certainly paid lip 
service to democracy and good government in both cases, the 
State Department's response to these inexcusable actions was, 
in my view, seemingly little more than a slap on the wrist and 
then back to business.
    If confirmed, how would you in your role as head of DRL 
seek to address the significant discrepancies between our 
government's actions and words?
    Mr. Kramer. Senator, I greatly appreciate your involvement 
and interest in matters dealing with Africa. It is a continent 
of enormous importance to the United States. If confirmed in 
this new position, I pledge to you a great deal of attention 
will be focused on Africa by me and by the bureau.
    I also am aware of the letter you sent to Secretary Rice 
drawing attention to the concerns you have with the situation 
in Nigeria. I know when the Nigerian President came for 
meetings and met with President Bush that concerns were raised 
at the highest levels. Certainly the issues that need to be 
addressed include corruption, the problems facing democratic 
institutions, and the ability for people to associate in 
opposition parties.
    I would also just add that countries don't deserve a pass 
just because they may be important because of energy resources 
or because they may contribute to peacekeeping operations. 
Nigeria is very important on both scores, but that doesn't mean 
that Nigeria or any other country, for that matter, should earn 
a pass when it comes to being held up to democratic standards.
    Senator Feingold. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. Mr. Kramer, is Putin the next czar of 
Russia?
    Mr. Kramer. Mr. Chairman, the question of where Mr. Putin 
is going has perhaps been clarified by his statement saying he 
would be willing to serve as prime minister following the March 
2 election. The expectation, and I think it seems more and more 
clear, that Dmitri Medvedev will be Russia's next president. 
His standings are above 80 percent and given the difficulties 
of registering opposition candidates, the way seems fairly 
paved for Mr. Medvedev to become president.
    Mr. Putin has said on numerous occasions in the past that 
he would not stay as president. He now does in fact seem to be 
living up to that. But I think, in responding to Senator 
Feingold's question, we have seen significant rollback on 
democratic progress in Russia in the centralization of power, 
the elimination of gubernatorial elections, the crackdown on 
NGOs, the harassment of journalists, even the murder of several 
journalists, including Paul Klebnikof, an American citizen. All 
of these things point to disturbing trends in Russia and 
President Putin has been President during that time.
    It is my hope, whether from my current position or if 
confirmed as Assistant Secretary for the Bureau for Democracy, 
Human Rights, and Labor, that we would be able to engage in a 
productive and effective and serious way with new Russian 
leadership on how to get Russia back on the right democratic 
path.
    Senator Bill Nelson. As prime minister, do you think he 
will be the power behind the throne?
    Mr. Kramer. Now you're asking me to look into my Kremlin 
crystal ball, Mr. Chairman.
    Senator Bill Nelson. I'm asking your opinion.
    Mr. Kramer. Indeed. I would say, and President Putin has 
said himself, that he plans to remain an influential figure in 
Russian politics. I would not question that statement in the 
least. I think that will remain the case.
    Senator Bill Nelson. Tell me what you think about human 
rights in Cuba.
    Mr. Kramer. Cuba stands out in the Western Hemisphere. 
There are other countries in the hemisphere that have their 
problems, but Cuba has for decades. Our policy, the U.S. focus, 
has been on getting ready for the post-Castro transition. We've 
been ready for quite a while, but the day is getting closer. So 
we want to help forces in Cuba that are fighting for democracy, 
for respect for human rights, for release of political 
prisoners.
    If confirmed in this new position I would work very closely 
with colleagues, through the inter-agency process, to make sure 
we are ready to help Cuba once it reaches that phase.
    Senator Bill Nelson. Waiting until that point or acting 
now?
    Mr. Kramer. Acting now.
    Senator Bill Nelson. Doing what now?
    Mr. Kramer. Providing the necessary support for NGOs, 
speaking out when there are human rights abuses and 
transgressions against democratic freedoms, and also trying to 
reach out to support democratic groups for when that day comes.
    Senator Bill Nelson. Do you support humanitarian assistance 
to family members in Cuba?
    Mr. Kramer. Mr. Chairman, I would. Humanitarian assistance 
would fall beyond the purview of the Democracy, Human Rights, 
and Labor Bureau, but whenever humanitarian assistance is 
needed that appeals to the hearts of the American people. So my 
instinct would be to provide humanitarian support wherever it's 
needed.
    Senator Bill Nelson. How do you grade the new president of 
Nigeria and his record of human rights?
    Mr. Kramer. Mr. Chairman, the problems in Nigeria are 
serious--human rights abuses and corruption, the lack of 
ability of people to speak out and to organize in opposition 
parties. When the Nigerian president came to Washington last 
December, these issues were raised. So it is my intention if 
confirmed in the new position to continue a dialog.
    We want to see Nigeria succeed. It's critically important, 
given Nigeria's place in Africa and, frankly, on the global 
scene that Nigeria become a success story. So we want to do 
what we can to help Nigeria develop in a more democratic 
fashion.
    Senator Bill Nelson. It's ironic that some of our best 
international friends are also some of the greatest abusers of 
human rights, and yet we support these allies for other 
reasons. So tell the committee, how do we strike the balance 
between the security interest and seeing that our commitment 
toward human rights is adhered to in those countries?
    Mr. Kramer. Mr. Chairman, that's a key question that you've 
asked. My approach, if given the opportunity to serve as 
assistant secretary, would be to avoid tradeoffs and even avoid 
trying to balance things. My approach would be to try to push 
on all cylinders on all issues. Security interests, economic 
interests, democratic interests all work for the same ultimate 
goal, which is promoting a more secure, stable, democratic 
global community.
    So, while some issues may rise on the priority list given 
certain exigencies, it would be my goal to try to push 
countries to become more democratic, not in a lecturing or 
hectoring way, but in a way that tries to demonstrate to them 
it is in their own interest to do so. Countries that crack down 
on opposition forces or on religious minority groups run the 
risk of producing the very kinds of extremist activities that 
we don't want to see. So to me these interests go hand in hand. 
If given the opportunity, it would be my goal to push and work 
very closely with my colleagues in the regional bureaus in the 
State Department, as well as in the inter-agency process.
    In my current capacity, I am coming from a regional bureau 
so I bring that experience. I can work to make sure that the 
Bureau for Democracy, Human Rights, and Labor has the same 
relationship with all the bureaus in the State Department.
    Senator Bill Nelson. What would you do differently than the 
previous assistant secretaries?
    Mr. Kramer. If confirmed, I would inherit a bureau that is 
in extremely good shape, and if confirmed, I thank my 
predecessors, Lorne Craner, Glen Davies, Mike Kozak, and Barry 
Lowenkron of course, and old dear friend of mine. They have 
positioned the bureau to become an effective vehicle for 
providing money to those in need, to support NGOs who are 
promoting democratic activities.
    Barry Lowenkron, the immediate predecessor, has left a 
bureau that's in very good shape. Perhaps I would speak out a 
little more publicly on some issues, but I think Barry also has 
a very strong and proud record on that. I'm not known in the 
State Department as a shy person and, if confirmed, I don't 
plan to become shy in this new job.
    Senator Bill Nelson. Well, kudos to you on that. Other than 
speaking out publicly, any other changes?
    Mr. Kramer. Mr. Chairman, if confirmed in this job, I would 
have less than a year, and I think it would probably be not the 
wisest thing for me to do to try to turn the bureau upside 
down. I also don't feel there's a need to do so. My interests 
would be to ensure that focus on democracy, human rights, and 
labor rights remain an issue for the next presidency, the next 
administration. To me, support for democracy and human rights, 
freedom, liberty, justice, labor rights, those issues transcend 
politics. There's bipartisan support for that. And so I'd want 
to ensure that the bureau would be in the best shape possible 
for the next team, and also make sure we focus on some of the 
crises right now that we're looking at, whether it's in Darfur, 
focusing on the issue of Burma, dealing with problems in 
Belarus or Zimbabwe or Cuba, as you mentioned, Mr. Chairman.
    Senator Bill Nelson. Will you cooperate with your 
successor?
    Mr. Kramer. Absolutely.
    Senator Bill Nelson. Regardless of party?
    Mr. Kramer. Yes, sir.
    Senator Bill Nelson. Do you have a history of that?
    Mr. Kramer. I've only been serving in the Government since 
the start of the Bush administration, but I certainly had 
extensive contacts and dealings with people in the Clinton 
administration when I worked in the think-tank community, and 
many of those friendships and relationships have carried over 
into the current administration.
    Senator Bill Nelson. Well, tell me what you think about the 
United Nations human rights organizations?
    Mr. Kramer. Mr. Chairman, you raise a very important point 
here. The Human Rights Council has been a serious 
disappointment. Its predecessor was not a great organization 
and the current institution is not a good one either. When you 
have countries like Saudi Arabia and China and Russia on the 
commission, that's a problem.
    We work with other U.N. mechanisms, the third committee, as 
it's called, in trying to bring attention to problems, whether 
it's in Belarus or in Cuba. I will say that the Human Rights 
Commission did draw attention to the problem in Sudan last 
fall. But there has been an extremely unhealthy focus on Israel 
in the current Human Rights Council.
    So we try to work with it, make the best of it. We're not a 
voting member, as you know. We also look to the possibility 
when universal periodic reviews start in a few months to use 
that as a mechanism to focus some attention where it so far has 
not occurred.
    Senator Bill Nelson. What do you think it takes to stop 
them being an Israel-bashing club?
    Mr. Kramer. A sense of shame. They seem to focus on Israel 
to an unhealthy degree, while overlooking problems elsewhere in 
the world. I would hope that there would be a greater sense of 
balance brought to the agenda of the HRC. So far, alas, I have 
not seen that.
    Senator Bill Nelson. If we make some progress in the 
settlement in a two-stage solution, should that help?
    Mr. Kramer. I would hope that would contribute to a more 
productive HRC, Mr. Chairman. I'm not sure it will, but 
certainly that would be a positive step in and of itself, 
regardless of the impact it may have on the Human Rights 
Commission.
    Senator Bill Nelson. Who do you think in the State 
Department or elsewhere ought to make the decision about 
whether or not the United States would join the Human Rights 
Council?
    Mr. Kramer. Mr. Chairman, that would be a matter decided at 
the highest levels of our building, I'm sure in full 
consultation with our colleagues at the NSC and the White 
House. I think we have not been hindered by the decision not to 
be a full voting member. We have participated in informal 
meetings as well as formal meetings. We have an opportunity to 
speak out in those.
    So it's my intent, Mr. Chairman, if confirmed, to continue 
to do what we can while recognizing that we're dealing with an 
institution that does not have a good track record at all.
    Senator Bill Nelson. Do you recall who was the most recent 
country to be put on the council?
    Mr. Kramer. I don't, Mr. Chairman. I'd be happy to get back 
to you on that. I apologize; I don't have that answer.
    Senator Bill Nelson. No, I should have that answer, and 
maybe we'll have it here in a minute.
    Last November, the Secretary of Defense made a very 
insightful statement, Mr. Glassman. Secretary Gates said, 
quote, that ``The U.S. is miserable at communicating to the 
rest of the world what we are about as a society and a culture, 
about freedom and democracy, about our policies and our goals. 
It's just plain embarrassing that al Qaeda is better at 
communicating its message on the Internet than America.'' End 
of quote.
    Do you agree with that assessment?
    Mr. Glassman. I think that assessment's a little on the 
extreme side, but I generally agree with its spirit. I think 
there's an important history here, which is that in the 1990s 
this country unilaterally disarmed [our public diplomacy 
apparatus], for reasons that I think were understandable. We 
had won the cold war, so why did we need the greatest public 
diplomacy apparatus in the world any more? And we got a rude 
awakening 6 years ago, and since then we have been rebuilding 
[our public diplomacy apparatus].
    I think that absolutely in the last 2 years that there is a 
new spirit and I think a successful beginning at rebuilding 
that apparatus so that it can do the kinds of things that 
Secretary Gates and I myself and many others want it to do is 
underway.
    Senator Bill Nelson. Well, this is January and that was 2 
months ago that the Secretary of Defense said that. You think 
that it's been fixed. What else would you do to fix it?
    Mr. Glassman. I think it's on the way to being fixed. What 
else would I do? Well, in many parts of the Government, 
including the Department of Defense, including the intelligence 
community, there is an effort under way in ideological 
engagement or the war of ideas. That effort, however, is not 
coordinated and it is not led to the degree that it should be. 
The President has given the lead to the Under Secretary for 
Public Diplomacy and Public Affairs and my main focus will be 
to lead the war of ideas.
    So it's not just a matter of getting the right words or the 
right messages. It's a matter of leadership and getting that 
out, and I think if I'm confirmed in the year that I have that 
will be my focus.
    Senator Bill Nelson. Well, let me tell you one thing that 
Secretary Gates said ought to fix it. When he made that 
statement, he called for increased funding for the foreign 
affairs budget and diplomacy. Do you support that suggestion?
    Mr. Glassman. In the past 5 years the budget for Education 
and Cultural Affairs has doubled, and I think that is an 
excellent indication of the concern that the Congress and the 
administration have.
    My general feeling is this, and I certainly expressed it 
when I was on the Djerijian group. Resources are important, 
absolutely; no doubt about that. But we need the leadership and 
the structure to put those resources to work properly. I think 
we're there now. I don't think we were there 4 years ago or 
maybe even 2 years ago. Absolutely the Department of Defense 
has a great deal of resources and they're spending some of 
their resources, and certainly they have a great deal more 
resources than the Department of State.
    Senator Bill Nelson. So when I see Secretary Gates next 
week, do you want me to tell him that he should fund it?
    Mr. Glassman. No, I want you to give us his money and we'll 
take care of it.
    Senator Bill Nelson. Well, that's what I mean. So you want 
the DOD to fund DOS?
    Mr. Glassman. No, I don't want DOD to fund DOS. However, 
DOD does provide some funding that is very important in the 
overall ideological engagement struggle, and that money is 
very, very useful. Let's put it that way.
    Senator Bill Nelson. All right, we'll leave it that way. 
But I'm going to ask him to talk to you.
    Mr. Glassman. Absolutely.
    Senator Bill Nelson. Because he's torqued up about this.
    Mr. Glassman. Absolutely. I want to talk to him. I've read 
his Landham Lecture that you referred to at Kansas State 
University last November. I thought it was an excellent speech. 
He extolled soft power. I agree with that. He also understands 
the roles that the different parts of government have. He knows 
that the State Department has been given the lead in the war of 
ideas, and there may be some concern at DOD, in the 
intelligence community, and in other areas of government, about 
the commitment to the war of ideas by the State Department. I 
can tell you that if I'm confirmed there won't have to be any 
doubts about that, and I want to work very closely with DOD and 
the other participants. I've already spent the 6 weeks since my 
nomination talking to many of the key players in that area.
    Senator Bill Nelson. The Pew Charitable Trust did a survey 
between 2002 and 2007. They found that favorable views of the 
United States fell and fell considerably. For example, in 
Germany--this is from 2002 to 2007--fell from 60 percent to 30 
percent; in Indonesia, fell from 61 to 29; in Turkey fell from 
30 to 9; and in Egypt three out of four Egyptians and Turks and 
Palestinians all express unfavorable opinions of the United 
States.
    Now, you say that what has happened in the past couple of 
years has improved, but that being a difference over that 5-
year period of 2002 to 2007, what are you going to do to try to 
change that?
    Mr. Glassman. Favorable views of the United States are 
tremendously important. Our job in public diplomacy is to help 
achieve the goals, the national interest goals of the United 
States of America, and that's a lot easier to do if people are 
favorably disposed to us. Now, I don't know if it's a question 
of liking us or loving us. It's more trust and respect. You're 
absolutely right, Senator. Those numbers are disturbing.
    A lot of the numbers are quite unstable. You know, we've 
seen, for example--I'm looking at the same table--in Jordan in 
2002 there was 25 percent approval for the United States. Then 
it dropped to 1 percent the next year. Now it's back up to 20 
percent. These numbers are low, but they are somewhat unstable. 
It's also true that in other parts of the world, such as 
Africa, Latin America, parts of Europe, we do have much more 
favorable ratings, if you want to call them that.
    Senator Bill Nelson. Would you agree that Germany 
definitely has fallen?
    Mr. Glassman. Germany has definitely fallen, as has most of 
Europe. Italy is still 53 percent.
    Senator Bill Nelson. Okay, what can you do? You've only got 
a year to do this.
    Mr. Glassman. I think there are a number of things we can 
do. No. 1, as I said earlier, I think it is important that this 
perception that the United States doesn't care or does not take 
into account the views of people of other nations really needs 
to be dispelled or worked on. I think there are a lot of ways 
we can do that and show that we're listening more. So that's 
No. 1.
    No. 2, we have got to fight back against the lies that are 
being told about us. That is more in the Arab and Muslim world. 
That's not so much in Europe. But there are a lot of 
misconceptions in Europe as well.
    Finally, there's the policy question. If you look at the 
Europe numbers, you see that they took a dive when the Iraq war 
began. They don't like the Iraq war. I'm not telling you 
anything you don't know. But policies come, policies go. I 
support the administration's policy in Iraq. Lots of people in 
Europe clearly do not. We need to explain those policies 
better, but we also have to understand that people will 
disagree with our policies.
    Let me just give you one example from another Pew survey. 
In May Pew looked at Muslim Americans, especially at foreign-
born Muslim Americans. Here's what they found. Muslim Americans 
do not like the Iraq war by a 6-to-1 or seen to one margin. 
There is huge opposition to the war, compared at the time to 
about 50-50 view within the United States. However, Muslim 
Americans completely support American values, American 
principles. A majority of them are optimistic about the 
settlement of the Palestinian-Israeli conflict. They are ideal 
citizens.
    That seems to me to be the paradigm that we need to go for 
throughout the rest of the world. People will disagree with our 
policies and we should never set policies based simply on 
global public opinion. But people need to understand what those 
policies are and also have the kind of feelings about American 
principles that Muslim Americans have. That should be our goal.
    Senator Bill Nelson. The war aside, what new tools would 
you use to improve our image in the Muslim world?
    Mr. Glassman. I think that a lot of the new tools have to 
be through technology. As Secretary Gates said, to some extent 
our enemies are--and this is my term--eating our lunch when it 
comes to getting their word out on the Internet. But we are 
coming back and we are coming back forcefully. The digital 
outreach team that I talked about earlier, where actually we 
are, as far as we can tell, the only government that's actually 
participating in blogging, is going online and saying, here's 
the truth, we're pushing back. We need to do that more and 
more.
    YouTube is being used at the Broadcasting Board of 
Governors. We're using more and more of the tools that exist on 
the Internet to get our word across. That will be a major focus 
of my attention, as well as, if I'm confirmed, as well as if 
she is confirmed, Goli Ameri's attention, because both of us 
have a background in the Internet and in telecommunications.
    Senator Bill Nelson. One of the problems that this Senator 
sees is that a bastardized version of Islam is being promoted 
by folks like al Qaeda. What should we do to show that for what 
it is?
    Mr. Glassman. Senator, that's a tremendously important 
question and it raises a difficult problem. The ideology of al 
Qaeda is based on a distorted view of a religion, and it's very 
difficult for us as Americans or as non-Muslims to say to them 
or to their followers, you know, this is what the Koran really 
says, it's not what you say it says. We're not particularly 
credible in that sphere.
    It's important to have credible Muslim voices. I believe 
that is an area that we need to do better in, in encouraging 
Muslim voices to step forward and say exactly what you're 
saying, that [al-Qaeda has] built an ideology--which is a 
violent and vicious ideology--on top of a religion that is not 
like that at all.
    Senator Bill Nelson. So have we identified one of your new 
tools?
    Mr. Glassman. That is definitely a tool, absolutely.
    Senator Bill Nelson. All right, tell me about Cuba? How are 
you going to increase communication with Cuba?
    Mr. Glassman. Our major means of communication with Cuba is 
through what's being done at Radio Marti and TV Marti. I'm 
proud to say that this is a major--and as far as we can tell, 
successful--effort of the Broadcasting Board of Governors. We 
are beaming into Cuba through shortwave, through medium wave, 
and by television, now 6 hours a day, the truth about not only 
what the rest of the world is saying and the United States is 
saying about Cuba, but what's going on within that island 
itself, because the people who live there have no way of 
finding out what the truth is.
    So we're doing that and we're doing it very vigorously. I 
think that's the most important thing we can be doing.
    Senator Bill Nelson. What do you think about the visits of 
family members as a means of communication?
    Mr. Glassman. I have to say, Senator, that this is not an 
area of knowledge that I have, and I will look into that 
certainly. But I'm really not up to date on exactly what the 
policies are in that regard.
    Senator Bill Nelson. Do you think that TV Marti gets 
through?
    Mr. Glassman. As far as we can tell, TV Marti definitely 
gets through. We can't do the kind of research that obviously 
we can do in many other parts of the world. We gather as 
extensive research as we possibly can from people who have left 
Cuba, from help that we have within Cuba, and we have anecdotal 
evidence that people are watching TV Marti. As I think you 
know, one of the first things that I did when I became chairman 
of the Broadcasting Board of Governors was to go down to Key 
West and see our operation there, which is quite impressive. We 
put up a plane that is able to beam signals from United States 
waters into Cuba much more effectively than previous means, and 
we believe that people are watching.
    Senator Bill Nelson. How frequently does that plane fly?
    Mr. Glassman. The plane flies, I believe, every night. 
There may be one day that it doesn't fly. I'm not sure. But I 
think it's every night, from 6 to 11 p.m., or maybe 6 p.m. to 
midnight. I've been in the plane although I haven't been up in 
it. You know, people in corporate life like to brag about their 
G4s and G5s. This is a G1. This is the first Gulfstream. It's a 
two-engine plane. It's a very impressive operation, done very 
much on a shoestring.
    Senator Bill Nelson. Well, at least it's not a Piper Cub.
    Mr. Glassman. No, at least it's not a Piper Cub. It's a 
very well equipped and very well maintained plane and, from 
what we can tell, it's effective.
    Senator Bill Nelson. I wish you would provide for the 
committee, please, the frequency of the flight and the estimate 
of the degree of penetration, along with the hours of 
broadcast, the estimate of the penetration, because that's been 
the problem on the TV Marti in the past, is ability to 
penetrate his jamming.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, I have two short questions for 
Mr. Kramer.
    Senator Coleman of our committee has visited with me 
specifically about the decision of Canada not to send 
representation to the Second World Conference on Racism, which 
is now scheduled for 2009, to be held in Durbin, South Africa. 
We note that the United States cast the lone ``no'' vote 
against the latest proposed United Nations budget, specifically 
because it included costs for the 2009 Durbin conference.
    Obviously, the Durbin conference in 2001 failed to live up 
to its potential. The United States walked out. I'm just simply 
curious. Canada has already decided not to attend. We 
apparently have not made that decision at this point, although 
we walked out of the last one.
    What is your overview of the Durbin conference, the 2009 
affair?
    Mr. Kramer. Senator, I appreciate your flagging this issue. 
As you rightly point out, there were huge problems with the 
first Durbin conference, to the point where we certainly made 
the right decision in walking out. From what I understand so 
far, we have similar concerns about how the second one is 
shaping up and certainly, if confirmed, would take a very close 
look at this issue and the question of attendance and would be 
happy to discuss this matter further with you at the 
appropriate time.
    Senator Lugar. Well, good. It would be good to keep the 
committee informed, because questions will be raised, for 
obvious reasons, given the previous experience and our vote on 
the U.N. budget.
    My second question concerns legislation that I offered a 
while back, which has passed, fortunately, to establish the 
Center for International Media Assessment, CIMA, as a part of 
the National Endowment for Democracy. Your Department, the 
Department of Human Rights and Labor, made a grant to CIMA, and 
they have had I think very good success during the past year, 
and have reported to all stakeholders on their remarkable 
results.
    So I am hopeful as another grant request comes from CIMA to 
your Department that you would give it high priority in terms 
of consideration. It appears to me, having witnessed some of 
the meetings, press conferences, and what have you, that they 
have done a good job on behalf of their mission in terms of 
public diplomacy.
    Mr. Kramer. Senator, I appreciate your raising this issue 
and I think as of now I wouldn't be in much of a position to 
give you a response, but certainly if confirmed on the job 
would pledge to you to give this very serious consideration.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Bill Nelson. Yes, sir. Thank you, Senator Lugar.
    Ms. Ameri, in this fiscal year, Congress is providing a 
little over a half a billion dollars for exchanges, and that 
was an increase of some $75 million in the last 2 years. How 
much of that money would you like to see for educational and 
cultural exchanges for next year, 2009?
    Ms. Ameri. Senator, are you asking what is the increase 
that we'd like to see?
    Senator Bill Nelson. In the past 2 years we've had a 17 
percent increase.
    Ms. Ameri. Right.
    Senator Bill Nelson. Now, of that total amount of money for 
exchanges, how much of it would you like to see go into 
educational programs?
    Ms. Ameri. Right now, Senator, in the 2008 budget, which is 
about $501 million if I remember correctly, about $280 million 
is spent on academic programs, of which the majority is 
Fulbright. What I would like to see happen more this year, 
Senator Nelson--and that's why I brought the help and support 
of the private sector in--is for us to be able to increase our 
sponsorship and activities in these very successful micro-
access scholarship in the English language programs that we 
have overseas, especially in the Muslim world.
    The evaluation of ECA clearly shows that that's a program 
that moves the needle. So I want to make sure that we put a 
tremendous amount of emphasis on that. Of course, you know our 
international visitor leadership program, the ECA's 
international visitor leadership program, is incredibly 
successful. And as you very well know, as Senator Lugar 
mentioned at the beginning of the hearing, over 270 heads of 
state, current or former heads of state, have been a part of 
that program, including Hamid Karzai, Tony Blair--you're aware 
of the names--and about 1500 cabinet-level ministers. Forty-
four alumni of this Department are Nobel Prize winners.
    So we need to make sure that that's an area that we focus 
on as well. That's why I brought up the topic of getting more 
help and support from the private sector to make sure that we 
can really create a certain level of mass in these activities.
    Senator Bill Nelson. How would that work, over and above 
the Federal money?
    Ms. Ameri. Well, if confirmed, Senator, I've given a bit of 
thought to this issue and we've had some discussions with Jim 
Glassman--we would like to be able to reach out to the private 
sector, to corporate America, to other NGOs, possibly to the 
U.S. Chamber. These are all preliminary thoughts, Senator. We 
haven't done any of those right now. Possibly to the rotaries 
and to local organizations. The Rotary Club, for example, 
already sponsors some exchange programs. We'd like to really--
I'd like for us to really go all out and to reach out to a 
large segment of the private sector and potentially bring them 
together in a summit to be able to announce a significant 
program by which the private sector becomes involved in a big 
way in all our exchange and English language activities.
    In addition, Senator, one of the ideas that I have--and I 
certainly welcome the committee's feedback on this--is getting 
some of the private sector involved overseas. For example, with 
our Fulbright programs right now the governments provide 40 
percent of our contribution to these programs. That's one of 
the reasons that our Fulbright programs are as successful as 
they are.
    In my conversations with some private sector individuals, 
particularly in the Arab world--these are folks that are doing 
a lot for their communities right now. They've done well in 
life. The majority of them have been educated in the United 
States. They understand that spirit of philanthropy that is so 
prevalent in this country and they like to do more of that. And 
they are interested in Fulbright, and they are interested in 
the English language.
    So one of my ideas, with feedback from you, of course, and 
making sure that we follow all the rules and regulations that 
we need to, is to reach out to them and to see if we can make a 
partner with them as well.
    Senator Bill Nelson. Now, one of the problems with some of 
these exchanges is that there's been a lot more of the 
exchanges with European and Asian countries and less so with 
Africa, the Middle East, various Muslim countries. Tell me what 
you think that we can do about that? You mentioned you want to 
reach out to the Muslim world.
    Ms. Ameri. Absolutely, Senator. That's definitely another 
one of the top items on my agenda. Let me just tell you a 
little bit about what ECA has done up to now with the Muslim 
world. We have more than 700 students from the Muslim world, 
high school students, that are in the United States todayu and 
are staying with wonderful, generous host families here. Our 
Fulbright scholarships have tripled in the last few years. 
Pakistan, for example, is one of our largest programs. The 
Government of Turkey has doubled their sponsorship of our 
Fulbright scholars.
    Our international visitors have increased from the Muslim 
world. In fact, I had the privilege to meet with four Muslim 
scholars/leaders from Africa. When I was in Oregon, I served on 
the board of trustees of the World Affairs Council of Oregon. 
They were very interested in Islam in America and they were 
interested in learning more about the whole electoral process 
in America. I guess I was sort of a natural candidate for them 
to meet with.
    I tell you, after that meeting was over, that was a good 
meeting. I had a much better understanding of some of the 
issues that they brought up. To them, it was just amazing that 
a person of Iranian heritage, of Islamic heritage, can--has 
been able to accomplish what this country has allowed me to 
accomplish in this country. So we sort of had a moment of 
enlightenment on both our parts.
    These are very powerful programs. But clearly we need to do 
even more in Islamic countries. I think you asked some very 
good questions from my colleague, Jim Glassman. One of the 
issues that I see, Senator, is that the American people are a 
very humble people. Despite the great accomplishments of this 
country, we are not very good at talking about the wonderful 
things that this country does for the rest of the world. I 
think we need to talk a little bit more about that.
    I think my nomination in itself, Senator, sends a 
tremendous message to the rest of the world about the level of 
tolerance and open-mindedness that exists in this country. We 
need to take advantage of this. We need to talk to the rest of 
the world about this, especially to the Islamic world.
    Senator Bill Nelson. Well, and that's why I ask about the 
Islamic world. You're only going to have a year, so what can 
you do about it, to rev it up, to increase these, what has been 
imbalanced in the past?
    Ms. Ameri. You know, Senator, I'm actually painfully aware 
of the fact that I only have 11 months to do the job that I 
want to do. So clearly, as Jim said, one of the first things 
that we need to do is to build upon the successful programs 
that we already have. Our English access micro-scholarship 
programs work. It moves the needle. I gave you some statistics 
at the beginning. Close to 90 percent of the participants, 
their attitude changes about the United States.
    If we want to increase that, we have to create mass. The 
way we create mass is to bring in partners, so private sector 
is one important thing.
    We need more technology. We live in the Internet age and, 
as Jim said, both he and I have a technology background. We 
need to bring our activities into the 21st century. We need to 
be able to get more on YouTube. Jim and I have talked on a very 
preliminary basis on how can we put some of our English 
language programs for free on the Internet. This is just in the 
talk phase. I don't really know about the logistics yet. But 
it's a program that worked, that moves the needle, that changes 
values. We need to do that.
    My goal is to reach out more to the Muslim American 
community because I know they are our best friends. Just like 
Jim said, they understand and like and admire American values. 
We need to get more of them to go overseas. We need to reach 
out more to our alumni, which are our very good friends, 
because these folks have understood what's happening.
    If I may, Senator, just to give you a very brief anecdote 
here. I had the opportunity to meet with a couple of our 
Fulbright teaching language folks that have been brought here, 
about 300 of them. These were Iranians. One of them teaches at 
Emory, the other one teaches at Portland State University. I 
had an opportunity to meet with both of them, and one of them 
was this wonderful young lady, practicing Muslim, fashionably 
dressed, who clearly did not have a lot of information about 
the United States, and here she was in Portland, OR, teaching 
Farsi at Portland State.
    I wish you were there, Senator, and heard the things that 
she was saying. She has seen nothing but kindness and 
graciousness from her American hosts. She's blown away by our 
election process. She loves what she's learning. Needless to 
say, it's been a life-altering experience for her.
    I know it's been the other way around as well, because her 
colleagues, her students, the people around her, are seeing 
this young Islamic woman that is very different from the image 
that they see from al Qaeda.
    So these exchanges work. We just need to find a mechanism 
to make more of them happen.
    Senator Bill Nelson. Well, one of the problems you're going 
to encounter is that there are 63 separate entities that run 
these exchange and training programs and there are 243 of them. 
Now, I don't expect you to have an answer for that now. But 
since you only have a little less than a year, would you try to 
get your arms around that?
    Ms. Ameri. Senator, are you referring to the private sector 
entities or are you referring to the different programs at the 
bureau?
    Senator Bill Nelson. The different programs at the bureau, 
the U.S. Government.
    Ms. Ameri. Right. In fact, Senator, that's an excellent 
question. Indeed there are 60 different programs at the bureau, 
and I have asked that question as well. The thing that I know 
is that clearly the bureau reaches out to a very diverse 
audience. That's a fact. Having said that, and coming from the 
private sector, Senator, I'm very focused on making sure that 
we only commit resources to programs that move the needle. You 
have my commitment that that will be an important item on my 
agenda.
    Senator Bill Nelson. Thank you.
    Ms. Ameri. Thank you, Senator.
    Senator Bill Nelson. Mr. Kramer, just to complete that 
question of the recent appointees, paragons of virtue and human 
rights such as Bolivia and Nicaragua are recent appointees to 
the U.N. Human Rights Council.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me welcome you all. I want to start off with Mr. 
Glassman. First of all, I want to acknowledge your service on 
the board of governors, the Broadcasting Board of Governors. I 
do believe, in response to the chairman's questions on Cuba, I 
think we have made progress on using a process that penetrates 
into giving the Cuban people an opportunity for an outlet to 
the rest of the world, and I want to salute you on the work 
that's been done in that regard.
    I want to raise the concern--this past December, Senator 
Reid--the Majority Leader--I, and a few other Members took a 
trip to Latin America, including some countries that in fact 
had not received delegations from the Senate in the past. One 
of the things that we heard in the five countries that we 
visited overwhelmingly was the incredulousness of the leaders 
of those countries as to how difficult it is to have students 
from Latin America come to the United States, particularly when 
Cuba invites their students to come in very significant numbers 
to study, when Chavez is doing the same thing.
    It is a tremendous challenge to us in a hemisphere in which 
we have invested so much money and effort in Central America, 
to now see many countries moving in the opposite direction, 
where they do not believe that democracy brings good things to 
life.
    I had been enthused when I read the President's comments in 
March of last year about the Partnership for Latin American 
Youth. However, I am disappointed in having information that 
basically says that that wasn't submitted for funding and 
therefore we are doing relatively very little in that regard. 
The goal was to have $75 million for 5,000 Latin American young 
people to improve their English and study in the United States.
    If you are approved by the committee and by the Senate, 
confirmed by the Senate, will you be an advocate within the 
administration to try to move some of our resources to ensure 
that the President's own initiative becomes a priority and 
making sure that we see more Latin American youth come to the 
United States?
    Mr. Glassman. Thank you, Senator Menendez. You know, one 
thing that I want to say to everyone on this committee is that 
we've been concentrating on the Arab and Muslim world to a 
great degree, but we can't forget our own backyard. I'm very 
happy that you brought this issue up.
    I also thank you for the kind words about broadcasting into 
Cuba. We're also broadcasting through Voice of America 40 hours 
a week into Latin America in general, and we are doing our 
darnedest to get into Venezuela. We are broadcasting in 
Venezuela, but it's an extremely difficult environment, as you 
can imagine, including television.
    As for your question about the Partnership for Latin 
American Youth, I have taken a look at the initiative and I 
know the President's commitment to it, and it appears to be 
exactly the kind of thing that we should be doing. I will do my 
best to get this program rolling. We already have, I've been 
told, the initial funding for fiscal 2008. If I'm confirmed, 
this is definitely the kind of thing that we should be doing 
and that I will dedicate myself to.
    I can also tell you probably more broadly that if I'm 
confirmed I will look at the regional allocations of all of our 
public diplomacy money. I realize that it's possible that this 
is a job that if I'm confirmed I'll only have for 11 months to 
do, but we're going to hit the ground running and this is what 
we have to do. Job one is to make sure the money is being 
allocated to the right places and also, as Goli Ameri said, to 
make sure that we apply a ``culture of measurement''--my mantra 
when I was on the Djerijian group, to every program that we 
have and only use and focus the resources on the ones that 
work.
    But Latin America has been a focus of attention certainly 
in the past year of this administration. The President took a 
five-country trip there with the First Lady. We had the naval 
hospital ship COMFORT in Latin America. We are doing our best 
on exchanges.
    The visa situation is difficult. I'm happy to say, though, 
that this year, the academic year 2007-2008, we will almost 
certainly set a record of 600,000 foreign students coming to 
the United States to learn. Education is our best brand.
    Senator Menendez. Well, let me follow up on your answer. 
First of all, I would urge you, when we speak about Latin 
America in the future as part of public diplomacy, I like to 
think of it as our front yard, not as our backyard, and you 
might want to consider that phrasing.
    But the bottom line is, you know, our problem is there's a 
difference between words and actions. That's our problem in 
Latin America. We have seen an occasional blip on the radar 
screen over the last 7 years about some words, but we haven't 
seen a hell of a lot of action outside of narcotics 
interdiction, which is important, and some trade agreements, 
which are important. But when you only deal with Latin 
Americans in that context, you run a great risk of having them 
believe that they are marginalized to those issues.
    So therefore it is nice to have the COMFORT down there, but 
it almost seems like we're chasing Cuban doctors at the end of 
the day. What is real, what will be real, is if the President's 
words are matched with action. So when we talked about $75 
million over 3 years, that would have been approximately $25 
million a year or so. The reality is from the information that 
we finally received from the Department we're talking about 
that, since this wasn't pursued as part of the 2008 fiscal year 
budget request, that there may be the moving of some money 
around.
    I hope, even though you have a short period of time, that 
we can begin to move on the road in which Latin Americans 
understand that we are fully engaged with them. This is 
probably--of all those things those presidents said, that they 
could have said to us in terms of our engagement with them, 
it's interesting that so many of them raised the issue of 
having their students be able to come to the United States. So 
I hope you'll be a strong advocate of that.
    We have challenges in this hemisphere--Venezuela, Bolivia, 
Nicaragua, Ecuador, just to name a few. So while I know we are 
engaged in the rest of the world, here in our own front yard we 
have a real challenge.
    I appreciate both your comments and Ms. Ameri's comments 
about the Internet and that is very important. But there is no 
substitution for person to person, people to people engagement. 
The reality is that's why members of the Congress seek to visit 
both leaders and civil society in other parts of the world. We 
could have teleconferences, but we in fact seek to engage 
people in a direct context. So while that's a good dimension, I 
don't want to undercut the very essence of what I hope will be 
more people to people diplomacy as a critical soft power tool 
of the United States, and I hope that you will be a strong 
advocate, as well as Ms. Ameri will be a strong advocate, in 
that respect.
    Let me ask you an overarching question, if I may, about 
public diplomacy, in general. It seems to me that to a certain 
extent there's a simple fundamental question in almost any 
discussion of public diplomacy. Put simply, do we put a 
priority on developing a following for the United States or do 
we tell it like it is? In effect, do we broadcast what people 
want to hear or what they need to hear? Are we in fact honest 
in our engagements with others in the world or are we willing 
to move from that direct honesty on both what our positions are 
and our expectations are and therefore move from there?
    I'm wondering, how is it that you view it in terms of 
public diplomacy and how would you--well, let me start there. 
How do you view it?
    Mr. Glassman. Well, that's an excellent question, Senator.
    Senator Menendez. I'm waiting for an excellent answer.
    Mr. Glassman. You'll have to judge the excellence.
    The answer is that we have to be honest. We live in a world 
in which people are very sophisticated. They have numerous 
sources of information. If we tell them lies they're going to 
figure that out pretty quickly.
    You know, Edward R. Murrow famously said when he was the 
head of USIA: ``The news may be good, the news may be bad; we 
shall tell you the truth.'' That has been the watchword of the 
Broadcasting Board of Governors. We don't do propaganda. We're 
not allowed to do propaganda, but one of the reasons we don't 
do it is it's not particularly effective. People have more than 
one source of information. We can't really fool them very well.
    I think part of the big problem in public diplomacy, in 
fact, has been that we have not aggressively enough countered 
the lies that our enemies have been telling. So I don't think 
it's a question of twisting the truth. It is a matter of being 
honest, but being aggressively honest, being advocates that are 
out there unabashedly telling our story, which is a good story.
    Senator Menendez. So in that respect, let's talk about a 
challenging part of the world for us--I think the chairman 
referenced it--the Middle East. Should we be talking about the 
need for civil society, for democratization, civil rights for 
women, minority groups and their rights in that society? Should 
we convey our views of those who support terrorism and 
incitement?
    Mr. Glassman. We should and we do. Maybe we should do more 
of it, but we absolutely should. We should never shrink from 
advancing our--they're not only our own and the global 
principles of democracy and freedom. We should be out there 
doing that.
    Now, sometimes in an official diplomatic sense that becomes 
difficult. That may be difficult in certain circumstances. 
Public diplomacy is different. Public diplomacy is people to 
people. There's no need for us to shrink from advocacy of our 
own principles.
    Senator Menendez. So to the extent that we have, for 
example, in the Arab world talked about our interest in having 
good relationships with the Arab world, but also talking about 
how very often those, several of those countries are 
undemocratic, face autocratic regimes, and do not respond to 
the aspirations of the Arab street and its people, you feel we 
should be direct about that, as well?
    Mr. Glassman. I do, absolutely, in public diplomacy we 
should be direct. At the Broadcasting Board of Governors we had 
a big problem in Egypt in that we can't get a radio station to 
broadcast Radio Sawa, an Arabic language radio network which is 
quite effective. We've been doing our best to try to get that. 
There's no reason in the world for us to back down on that or 
not to support--and I was recently in Egypt--not to support 
people who are advocating for freedom there.
    Senator Menendez. Thank you.
    If I may, Mr. Chairman, one more line of questions, to Mr. 
Kramer.
    I have a great interest in, as the chair of the 
subcommittee that deals with all of our foreign assistance, as 
to how effective we are about that foreign assistance. In 
September of 2007, the GAO issued a report that found that--and 
I'm going to quote from it--that ``The State Department did not 
have an accurate picture of the number and type of staff 
responsible for overseeing and monitoring foreign assistance 
responsibilities.''
    The amount of money that the Democracy, Human Rights, and 
Labor Bureau has available to program has increased 
substantially over the last several years, and since DRL 
provides grants, not contracts, from Washington instead of from 
the field, how does the Department manage these programs and 
ensure that they are coordinating with other parts of the U.S. 
Government? If you were to be confirmed, what would you do to 
improve the coordination with other parts of the U.S. 
Government, particularly USAID, in the implementation of these 
grants, and what would you do to improve the Department's 
ability to monitor these grants when they are all managed from 
Washington, DC?
    Mr. Kramer. Senator, thank you for raising this issue, and 
I am aware of the GAO report. As you rightly point out, sir, 
the amount of money that has been provided for the Democracy, 
Human Rights, and Labor Bureau has increased significantly. My 
sense, in talking with folks and colleagues in the bureau, is 
that the bureau is in a position to handle those moneys 
appropriately.
    My hope, if confirmed, would be to ensure that the bureau 
is an organization that can provide money in a timely fashion, 
that can get money out, do it quickly, provide support to the 
vital work that NGOs and activists are doing. Obviously, the 
bureau would need to ensure proper oversight and management of 
the funds, and grant oversight is a major responsibility.
    Coordination within the Department and with other agencies 
is vital. We want to avoid duplication. We want to ensure that 
we are covering the issues that really matter. Funds are not 
limitless and so we want to make sure we get the biggest bang 
for the buck.
    As I mentioned to the chairman when he asked me, I 
currently work in a regional bureau in the Department, and I 
think the European and Eurasian Bureau is a perfect example 
where there is assistance money available through the 
assistance office in that regional bureau, but it's a bureau 
that also works very effectively with the Democracy, Human 
Rights, and Labor Bureau. I would, if confirmed, work very hard 
to ensure that that continues throughout the Department and 
maintain the EUR, the European and Eurasian Bureau, as a good 
example of that. We should all be working for the greater good 
here, and it's my view that the Bureau for Democracy, Human 
Rights, and Labor should be the bureau that many organizations 
go to for the necessary support they need to carry out the work 
they do.
    Senator Menendez. Well, let me just close on that and say 
that I understand there's no one in the bureau's chain of 
command that works in these embassies. So the bureau needs to 
rely on informal or ad hoc assistance to ensure that programs 
are being implemented in the best possible way. I'm not sure 
that that's a good way to manage what is rather complex and 
context-specific programs.
    It seems to me that one of our challenges is making sure 
that your staff in Washington and any staff that helps you 
overseas are qualified to manage these kinds of programs. It's 
just like, a little bit I guess, what we do in a Senate office. 
We've got so many things going on that we grab the staff 
assistant and before you know it they're writing letters and 
everybody else is doing something else.
    The question is, when we are talking about large amounts of 
money, for which there is a purpose in terms of foreign 
diplomacy of the United States, that to ad hoc grab somebody at 
an embassy for the purposes because you have no person in your 
bureau who is in the line there at the embassy on the ground 
where these grants are being implemented--it seems to me if 
that's going to continue to be the case for the next year, 
there needs to be an alignment at least of those individuals 
who have within the embassy context the best expertise to be 
able to pursue that specific grant. I often find that isn't the 
case. It's something that I hope you will pay attention to 
should you be confirmed.
    Mr. Kramer. Senator, I certainly promise to you that, if 
confirmed, that is an issue I will look at very closely. To 
state the obvious, I would want to assure that there are no 
problems with oversight and monitoring of grant moneys. So I 
would be happy to engage with you and your staff on how that 
looks, if confirmed, once I would be in the job.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Bill Nelson. We want you to be successful and so we 
want to encourage you as you tackle this task within a short 
period of time. So within a few months, what I'd like is to 
have a visit with you personally, without staff, privately, and 
find out how your progress is coming along. Will you do that, 
Mr. Glassman?
    Mr. Glassman. Yes, sir.
    Senator Bill Nelson. Mr. Kramer?
    Mr. Kramer. Without hesitation, sir, yes.
    Senator Bill Nelson. Ms. Ameri?
    Ms. Ameri. It would be a pleasure, Senator.
    Senator Bill Nelson. We are going to keep the record open 
for 2 days so that members of this committee can submit further 
questions for the record, and the meeting is adjourned.
    [Whereupon, at 12:52 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


          Responses of David J. Kramer to Questions Submitted
                    by Senator Joseph R. Biden, Jr.

                                 labor
    Question. What is your view of the role of labor in our democracy 
promotion agenda? How can the Department best advance labor rights? 
What measures do you think are necessary, if any, to strengthen labor 
diplomacy?

    Answer. Like any other freedoms such as association for political 
parties, the freedom of association for worker organizations is 
essential to building grassroots democracy. Supporting worker 
organizations is not just a matter of supporting democracy, it is a 
matter of human rights.
    The Department of State can best advance labor rights by continuing 
to engage governments, worker organizations, and employers, 
individually and collectively, on issues such as freedom of 
association, prohibitions on child labor and forced labor, and the 
promotion of acceptable working conditions.
    The Democracy, Human Rights, and Labor Bureau (DRL) already engages 
governments on labor rights in bilateral human rights dialogs, such as 
those with Vietnam and Azerbaijan, as well as in multilateral forums 
like the International Labor Organization. DRL also provides technical 
assistance to worker organizations and NGOs dealing with labor rights 
in countries where they can open up democratic space. DRL has 
consistently committed to use a portion of its Human Rights and 
Democracy Fund to provide this assistance to build the capacity of 
worker organizations to advocate for and protect their rights.
    DRL's Office of International Labor and Corporate Social 
Responsibility engages multinational corporations in promoting the 
respect of labor rights throughout their supply chain, including in 
operations which they outsource. DRL also engages these stakeholders 
collectively through multi-stakeholder dialogs that bring 
representatives from government, NGOs, and companies together to 
determine how to address specific labor issues in a country.
    The Department also works through labor rights mechanisms signed in 
conjunction with Free Trade Agreements; trade preference programs, such 
as the Generalized System of Preferences; OPIC financing; and ExIm Bank 
financing to promote greater respect for internationally recognized 
worker rights.
    Labor attaches have a long and distinguished record in the Foreign 
Service. The Department's Labor officers and other Foreign Service 
officers with labor responsibilities are critical to labor diplomacy. 
It is important that the Department has these positions at posts where 
labor diplomacy can most effectively contribute to the promotion of 
democracy and human rights. Last year, the Department undertook a 
review of labor-designated positions overseas, and 45 labor-designated 
positions were formally recognized by the Human Resources Bureau and 
the regional bureaus. The review also resulted in new operating 
procedures regarding the labor function; it formalizes the need for 
officers assigned to labor-designated positions to take the Foreign 
Service Institute's Labor officer skills course and ensures DRL a role 
in filling all labor-designated positions.
    I noted the importance of labor rights in my statement to the 
committee, and at the January 30 hearing I pledged that, if confirmed, 
I would take an active role in the promotion of labor issues. The ``L'' 
in ``DRL'', after all, is just as important as the first two letters.

    Question. In recent years, the Congress has repeatedly expressed 
concern that the Department of State does not adequately reward, train, 
and promote officers who chose to serve in the DRL Bureau or to 
otherwise place a high priority on human rights and democracy. Will you 
make it a priority to address these concerns? If so, how? Do you 
believe that there is a need for expanding Foreign Service training 
programs in human rights and democracy promotion tradecraft?

    Answer. The Department is committed to excellence in democracy and 
human rights training. Improving the incentives and rewards for service 
in the Democracy, Human Rights, and Labor Bureau (DRL) and 
strengthening training in Human Rights and Democracy promotion has been 
a DRL priority, and I will continue to make this a priority, if 
confirmed.
    DRL has been working with the Foreign Service Institute (FSI) on an 
ongoing basis. FSI has been steadily expanding the number and content 
of Human Rights and Democracy training modules and courses to ensure 
the integration of human rights, religious freedom, labor rights, 
democracy building, and conflict resolution into a broad range of FSI 
courses and seminars.
    DRL is working with FSI now to increase training on grants 
management for program officers. Special training for Labor officers 
was introduced last year, in conjunction with the annual DRL Human 
Rights officers conference. The Department recently submitted a report 
to Congress on Democracy and Human Rights training. Finally, DRL has 
established a Democracy and Human Rights Training Working Group, along 
with FSI, USAID's Bureau for Democracy, Conflict, and Humanitarian 
Assistance, and the Office of the Director of U.S. Foreign Assistance, 
to review, assess, and recommend further strengthening of our training.
    If confirmed, I will work with the Under Secretary for Democracy 
and Global Affairs and the Director General's office to review 
promotion and performance pay criteria with an eye toward increasing 
the incentives for Foreign Service officers to take on these 
challenging issues.

    Question. In passing the Advance Democracy Act, Congress strongly 
urged the Department to work to increase the percentage of Foreign 
Service officers serving in the Bureau. While the civil servants in the 
Bureau are talented and dedicated, an effective Bureau needs a good mix 
of employees, including a substantial percentage of Foreign Service 
officers who have served abroad and are familiar with counterparts and 
processes in other Bureaus. Do you agree that it is an important 
priority to increase the number of Foreign Service officers serving in 
the Bureau? What steps will you take to encourage talented FSOs to 
serve in the DRL Bureau, if confirmed?

    Answer. A good mix of Foreign Service and Civil Service officers is 
important for a strong and effective Democracy, Human Rights, and Labor 
Bureau (DRL). For the first time ever, DRL has two overseas positions, 
established last September and located in Baghdad. Other functional 
bureaus such as the Bureau of Populations, Refugees, and Migration, the 
Bureau of International Narcotics and Law Enforcement Affairs, and the 
Bureau of Oceans and International Environmental Scientific Affairs 
have overseas positions and this has proved to be an effective way to 
attract more Foreign Service officers to serve in these bureaus 
domestically. I expect the new overseas positions for DRL will have a 
similarly positive effect for the Bureau. Changing the ratio of Civil 
Service to Foreign Service in DRL will be a long-term effort, 
especially given the resource constraints under which DRL operates. 
Unfortunately, since the Foreign Service has a shortage of employees in 
relationship to the demand for positions, and the Department has 
critical foreign policy priorities and mandates requiring service 
abroad, the Department's emphasis has been on filling overseas 
positions.
    If confirmed, I will work with the Office of the Under Secretary 
for Democracy and Global Affairs and the Director General's office, as 
well as with other bureaus, to identify additional measures to attract 
Foreign Service officers into the valuable work of the bureau. I want 
DRL to be as competitive and sought-after a bureau in the Foreign 
Service bidding process as any other bureau in the Department.

    Question. Prison conditions in many countries around the world are 
far below acceptable minimum humane standards. Do you agree that this 
is a serious problem? If so, what will you do to insure that the Bureau 
places an appropriately high priority on investigating inhumane prison 
conditions and working to ameliorate them?

    Answer. Yes, inhumane and life threatening prison conditions around 
the world are a serious problem. The attention of the Bureau of 
Democracy, Human Rights, and Labor (DRL) to prison and detention center 
conditions is ongoing and is an inseparable part of U.S. efforts to 
promote democracy and respect for human rights.
    Prison conditions are highlighted in section 1.c of the annual 
Country Reports on Human Rights Practices, where DRL describes prison 
conditions in each country in straightforward language. In requiring 
this information from all posts, it is clear that many embassy 
officials visit prisons personally, meet with prison officials, talk 
with released prisoners, their families and attorneys, and consult with 
local and international NGOs to closely track conditions and put 
together a complete picture.
    DRL plays an essential role in ensuring that the United States 
remains active on this issue bilaterally. DRL works to ensure U.S. 
representatives consistently encourage governments to grant access to 
our embassy personnel and to international experts such as the ICRC. 
For example, DRL last year raised the issue of prison overcrowding and 
poor sanitation during its Human Rights dialog with Vietnam, and urged 
that members of the diplomatic community be allowed the opportunity to 
visit prisons. Subsequently, United States political officers were able 
to visit two prisons in southern Vietnam. So it is important that DRL 
continue to raise the issue in future bilateral dialogs with Vietnam 
and other countries.
    In multilateral fora, the United States supports the work of the 
Human Rights Committee and the Committee Against Torture, the treaty 
bodies charged with monitoring implementation of the International 
Covenant on Civil and Political Rights, and the Convention Against 
Torture and Other Cruel, Inhuman, or Degrading Treatment of Punishment, 
respectively. We follow closely reports from the Working Group on 
Arbitrary Detention which last year visited Angola, Equatorial Guinea, 
and Norway.
    DRL is also funding a successful program in Morocco designed to 
enhance the ability of the Moroccan Observatory of Prisons, a local 
NGO, to process and monitor prisoner complaints, raise awareness of the 
treatment of prisoners, and conduct advocacy on behalf of prisoner 
rights.
    While there are other bureaus (such as the Bureau of International 
Narcotics and Law Enforcement and the Bureau of Consular Affairs), 
departments (such as the Department of Justice), and organizations 
(such as OSCE and the Council of Europe) involved in work to improve 
prison conditions, DRL should remain at the forefront of U.S. efforts 
to promote improved prison conditions.
               country reports on human rights practices
    Question. Section 116(d) of Foreign Assistance Act of 1961 provides 
that the Secretary of State ``shall transmit'' the annual human rights 
report to the ``Speaker of the House of Representatives and the 
Committee on Foreign Relations of the Senate by February 25 of each 
year.'' The committee has been informed by the Department that it does 
not intend to meet this statutory deadline this year.
    a) Is that in fact the case? If so, please elaborate why that is 
so.
    b) Do you think it makes sense for the bureau charged with 
promoting adherence to the rule of law abroad to ignore a statutory 
requirement in U.S. law?

    Answer. The annual Country Reports on Human Rights Practices is a 
document important not only for the information it contains. Its value 
lies also in the manner in which it is presented to the press, the NGO 
community, and to the many worldwide readers of the report. To have 
full impact, the Secretary of State in recent years personally has 
presented the report, followed by a press conference that is reported 
prominently in the local press of many diverse countries abroad. 
Secretary Rice believes fervently in the advancement of human rights 
worldwide, and she is determined to use the presentation of the report 
as a tool to help the United States Government achieve this goal.
    The Secretary's launching of the human rights report and 
highlighting those cases of severe abuses, and the cases where progress 
has occurred serves as a powerful message to world leaders that we will 
not compromise on human rights to advance our other national interests, 
and that human rights abusers will be held to account for their 
actions.
    The Bureau for Democracy, Human Rights, and Labor takes statutory 
requirements very seriously and acknowledges that it would miss the 
statutory deadline of February 25 by delaying the rollout until March 
11, the closest date possible to the statutory deadline when the 
Secretary will be available to preside over the rollout.
                                 ______
                                 

          Responses of David J. Kramer to Questions Submitted
                     by Senator Russell D. Feingold

                               indonesia
    Question. I have been informed that the administration has ended 
prohibition on training and other assistance to Indonesia's special 
forces, the ``Kopassus,'' and the Brigade Mobil (BRIMOB). These forces 
continue to abuse human rights and senior officials of both continue to 
evade justice for past crimes, as noted by the State Department's 
annual human rights reporting. Why has this policy changed? How can the 
State Department justify such cooperation with an organization whose 
record of abuse amounts to state sponsored terrorism directed against 
peaceful political dissidents and human rights advocates?

    Answer. Our goal, working with the Government of Indonesia, is that 
United States interaction with the Indonesian military would promote 
the adoption of democratic norms such as greater transparency, respect 
for human rights, and increased civilian control of the military, as 
well as build capacity to address immediate threats such as terrorism 
and natural disasters.
    As the elite units within their respective forces, KOPASSUS and 
BRIMOB must be part of this transformation. The Department is currently 
considering on what terms and how to best engage both KOPASSUS and 
BRIMOB, and looks forward to consulting with Congress so that we can 
accomplish our twin goals of advancing our human rights interests and 
professionalizing these key parts of the Indonesian security forces. 
Indonesia's human rights record has improved in recent years as the 
Indonesian Government has sought to reform its security forces. Reform 
of the security forces has been an important part of Indonesia's 
overall reform of the military. We share your concerns regarding 
ongoing challenges Indonesia faces in bringing past human rights 
violators to justice. The Department continues to raise accountability 
as an important element of our bilateral relationship.

    Question. When Secretary Rice in November 2005 exercised a national 
security waiver to resume full military cooperation with the Indonesian 
military despite the absence of significant reform, she noted that 
future assistance would be ``calibrated'' on the basis of measurable 
reforms. Human rights groups have raised concerns that the military 
continues to commit abuses and are concerned that the assistance has 
not been ``calibrated'' to address the lack of reform. What criteria 
does the administration use in evaluating the provision of military 
assistance to Indonesia? What steps are in place to monitor the impact 
this assistance has on human rights and reform in Indonesia? What 
military assistance is currently being withheld because of human rights 
concerns?

    Answer. All Indonesian soldiers now receive human rights training. 
In recent years, the Indonesian military has made progress in reform. 
The military is under greater civilian control and out of politics. 
However, there is still much to be done in professionalizing the 
Indonesian military and accounting for past abuses.
    All Indonesian security forces who receive United States training 
are checked for allegations of past human rights abuses, in compliance 
with the Leahy law. Individuals with credible allegations of past human 
rights abuses do not receive training. In the past 3 years, the 
Department has denied training for 122 Indonesian applicants after 
finding credible allegations of past human rights abuses.

                                  lgbt
    Question. I have supported greater equality for the LGBT population 
in the United States [and] am pleased that the State Department has 
taken steps to identify human rights abuses committed against the LGBT 
community throughout the world in its annual Human Rights Report. I am, 
therefore, interested in what further actions you intend to take to 
address violence and discrimination against LGBT communities across the 
globe.

    Answer. Several years ago, the Democracy, Human Rights, and Labor 
Bureau (DRL) took the initiative to add information to its annual 
Country Reports on Human Rights Practices regarding discrimination and 
violence against the LGBT community worldwide. The information in the 
reports has been praised by representatives from the community in 
meetings with DRL. At our request, in the past year, the LGBT community 
has compiled for DRL information from authoritative sources on 
discrimination and violence on a country-by-country basis. We will 
consult with the community as we develop more precise instructions to 
pass to our embassies in garnering information on this subject.
                          human rights general
    Question. Just over a year ago, Secretary Rice reaffirmed that 
protecting and supporting human rights defenders is a ``central 
component'' of U.S. foreign policy and announced a set of Guiding 
Principles on Non-Governmental Organizations and a fund to support 
defenders. How have the Principles guided DRL decisions? How has the 
fund supported human rights defenders? What steps can the Bureau of 
Democracy, Human Rights, and Labor take to ensure that these measures 
have an impact on the ground and that support for human rights 
defenders is integrated into foreign policy more broadly?

    Answer. Last year, amid crackdown on human rights and democracy 
NGOs and human rights activists in various parts of the world, 
Secretary Rice responded in several specific ways to defend these NGOs 
and individuals.
    First, she announced 10 core NGO Principles which guide our own 
treatment of NGOs. We actively encourage other governments to respect 
these principles, which distill and complement existing U.N. and 
European Union documents.
    Second, the Secretary established a $1.5 million emergency fund to 
protecting and assisting human rights defenders who advance democracy 
and promote human rights, women's rights, fair labor, anticorruption, 
independent media and journalism, rule of law, and other issues where 
defense of such issues might result in personal and safety risks. The 
fund became operational in October 2007 and thus far has provided 
assistance to over 30 defenders.
    DRL routinely uses the NGO Principles as a foundation for 
discussions with foreign governments, and indeed, President Uribe of 
Colombia has publicly embraced the NGO Principles. Another good example 
of the use of the NGO Principles took place at the last OSCE Human 
Dimension (HDIM) meeting in October when Acting Assistant Secretary 
Jonathan Farrar made an intervention on the need for NGOs to operate 
freely, to participate in open dialog with each other and governments, 
and to be recognized as an essential component of any free society.
    Also in preparation of this year's Country Reports on Human Rights 
Practices we asked posts, in particular, to report on restrictions and/
or repression of NGOs and other human rights defenders.
    These principles will continue to be an important tool for the 
United States and other governments in measuring governmental treatment 
of NGOs. I also hope they will also be a useful tool for civil society 
groups and the media as they monitor the treatment of NGOs across the 
globe.
                                 ______
                                 

          Responses of Hon. Goli Ameri to Questions Submitted
                     by Senator Russell D. Feingold

    Question. Cultural Property Protection: On May 27, 2004, China 
submitted a request to the United States that we restrict the import of 
artifacts and archaeological materials subject to looting in China 
under the Cultural Property Implementation Act (CPIA). In July 2005, 
the State Department's Cultural Property Advisory Committee made its 
recommendation to Assistant Secretary of State for Educational and 
Cultural Affairs Dina H. Powell with regard to China's request. It is 
my understanding that, to date, the State Department has not made a 
final decision with regard to China's request. What do you consider an 
appropriate timeframe in which to render a final decision in cases such 
as these to ensure that delays within the State Department do not 
result in the loss of invaluable cultural material?

    Answer. I have not yet had the opportunity to look into this 
question in detail, but I have been apprised of this matter and 
understand that the China request remains under review at this time.
    Any issue involving the bilateral relationship between the United 
States and the People's Republic of China is of utmost significance.
    If confirmed, I will begin discussions of this matter with the 
relevant bureaus, including the Undersecretary for Public Diplomacy, 
and the Bureau of East Asian and Pacific Affairs.

    Question. Cultural Property Protection: CPAC was created to 
represent a diverse group of interests, including those of museums, 
archaeologists, collectors, art dealers, and the general public. I have 
heard from a number of constituents of mine who are concerned that all 
of these groups were not fairly represented in the recent State 
Department decision to impose import restrictions on ancient coins of 
Cyprus. Please explain the standards your office uses to determine that 
the diverse group of interests have been represented during the 
decisionmaking process.

    Answer. The Cultural Property Advisory Committee (CPAC), appointed 
by the White House, plays a vital role in our efforts to preserve the 
world's cultural heritage from pillaging and looting. The members, as 
you point out, represent a variety of interests. They provide their 
input at the outset of any consideration of a bilateral agreement so 
that their deliberations can inform the entire onward process.
    In addition to the statutory composition of the committee and the 
representation it provides for diverse views, the Department has taken 
a number of steps over the past several years to increase the access of 
members of the general public to the process. These steps include 
sessions that allow members of the public to present their viewpoints 
directly to the committee and the committee staff; solicitation of 
written comments; advance notification of such sessions on the cultural 
property Web site inclusion of all such comments in the documents 
provided to the decisionmaker, and a Web site that posts public 
summaries of incoming requests.
    The current committee includes a member who is a coin collector and 
dealer and whose views were expressed and considered. Also, a public 
session of the CPAC was held during which the views of others 
concerning coins were also expressed. In addition, the Department took 
the extraordinary step of proactively seeking further public comment 
from organizations representing the coin collecting community and 
others representing the scholarly community.
    If confirmed, I assure you I will pay close attention to this 
matter.

    Question. Exchanges: I am a strong supporter of ECA's work and 
believe that education and cultural exchanges are critical to 
strengthening our public diplomacy programming. I would like to know 
your plans to increase ECA programming in the next year.

    Answer. First and foremost, if confirmed, I am committed to 
expanding and creating scale for the many achievements of the 
Department's educational and cultural exchanges. My plan is to:

          1. Engage and enlist the private sector more fully in our 
        public diplomacy efforts to ascertain that we can reach a 
        greater audience for our successful programs including, but not 
        limited to, the English Access Microscholarship Program, Youth 
        Exchange Programs, and programs for women.
          2. Use new trends in technology and the Internet to expand 
        the reach of ECA's programs to youth and youth influencers and 
        to create a connected community amongst our alumni so they can 
        sustain a dialog years after the formal end of their program.
          3. Find creative ways of engaging ECA alumni and leveraging 
        their goodwill and the knowledge and experience they gained 
        during their exchange experience.

    Other than these top three priorities, I will also be focused on 
the following activities:

  <bullet> Encouraging more women and girls to participate in our 
        exchange programs; and
  <bullet> Exploring more opportunities for engagement with the Muslim 
        world and with countries like Iran and North Korea (when the 
        time is right), where we seek to better relations between our 
        citizens. Exchanges and outreach promise lasting relationships 
        and have such extraordinary potential for positive relationship 
        building and mutual understanding.

    I would, of course, be in close touch with you and your staff as 
any new program initiatives are developed and would welcome feedback 
from the committee.
                                 ______
                                 

          Responses of Hon. Goli Ameri to Questions Submitted
                    by Senator Joseph R. Biden, Jr.

    Question. What are your top three priorities for this position, if 
confirmed? On the assumption that you may only serve until the start of 
the next administration, what do you hope to report to the committee 
next January that you have achieved during your tenure?

    Answer. First and foremost, if confirmed, I am committed to 
expanding and creating scale for the many achievements of the 
Department's educational and cultural exchanges. My plan is to:

          1. Engage and enlist the private sector more fully in our 
        public diplomacy efforts to ascertain that we can reach a 
        greater audience for our successful programs including, but not 
        limited to, the English Access Microscholarship Program, Youth 
        Exchange Programs, and programs for women.
          2. Use new trends in technology and the Internet to expand 
        the reach of ECA's programs to youth and youth influencers and 
        to create a connected community amongst our alumni so they can 
        sustain a dialog years after the formal end of their program.
          3. Find creative ways of engaging ECA alumni and leveraging 
        their goodwill and the knowledge and experience they gained 
        during their exchange experience.

    Other than these top three priorities, I will also be focused on 
the following activities:

  <bullet> Encouraging more women and girls to participate in our 
        exchange programs; and
  <bullet> Exploring more opportunities for engagement with the Muslim 
        world and with countries like Iran and North Korea (when the 
        time is right), where we seek to better relations between our 
        citizens. Exchanges and outreach promise lasting relationships 
        and have such extraordinary potential for positive relationship 
        building and mutual understanding.

    I would, of course, be in close touch with you and your staff as 
any new program initiatives are developed and would welcome feedback 
from the committee.

    Question. The Bureau has received substantial additional resources 
in recent years. Has the Bureau allocated sufficient resources to 
financial systems and grants management to assure accountability and 
oversight of these additional resources? Please provide specific 
examples.

    Answer. The Bureau has allocated sufficient resources to financial 
and grants management systems to assure accountability and oversight 
over its resources. Over the past 3 years, ECA has integrated three 
distinct databases into a single system housed in ECA's Office of the 
Executive Director. The system links ECA's congressionally mandated 
pre-award grants process with both the budget and grants offices and 
allows for the effective integration with the Department's financial 
management system and Grants.gov. The system allows ECA staff members 
to more effectively monitor and manage ECA institutional grant awards 
through all phases of implementation and closeout. It also provides the 
ability to reconcile program and administrative budgets bureau-wide and 
provide congressional, departmental, and OMB-mandated reporting on 
bureau activities and expenditures.
    Additionally, I understand the Bureau is building an integrated 
information management, analysis, and reporting capability that will 
track the full life-cycle of ECA programs and provide an executive/user 
dashboard for data retrieval and reporting. This system will then be 
linked to the Executive Office System so that Bureau grant, financial, 
and program data can be centrally monitored and reports tying resources 
to program activities can be more quickly and easily produced. This 
initiative will result in a fully Integrated Management System (IMS) 
for key ECA program, grant, and financial activities.
    Coming from the private sector and with a strong background in 
technology I know what is possible and necessary to effectively manage 
a complex organization and budget. If confirmed, I will devote my focus 
and expertise to accelerate the implementation of the Bureau's internal 
management systems to ensure that the Bureau spends its resources 
wisely, effectively and with maximum impact.

    Question. Do you believe there are any existing exchange programs 
that are unjustified, and therefore should be discontinued?

    Answer. I have been pleased to learn in the last several weeks that 
the Bureau of Educational and Cultural Affairs (ECA) is a leader in the 
area of evaluation and performance measurement. ECA has an office 
staffed by professional evaluators and social science researchers. It 
oversees independent in-depth evaluations of major exchange programs, 
such as Fulbright and the International Visitors Leadership Program. 
Coming from the private sector, this is particularly important to me.
    The Bureau recently completed an evaluation of the English Access 
Microscholarships Program--a groundbreaking new program for high school 
students in underserved communities--that showed, among other findings, 
that:

  <bullet> Eighty-seven percent of Access students reported a more 
        favorable view of the American people due to their 
        participation in the program;
  <bullet> Ninety-six percent of parents said they would encourage 
        their other children to participate in the Access Program; and
  <bullet> Fifty-four percent of Access students reported more 
        favorable views of the U.S. Government due to their 
        participation in the Access Program.

    Moreover, the Bureau constantly innovates with its proven, tested 
models to achieve current objectives. The Fulbright Program, 
International Visitor Leadership Program, English Language Program, and 
Youth Exchange Programs remain flagship programs of the Bureau, but 
they are constantly changing as the world changes and as foreign policy 
challenges evolve.
    Here are a few specific examples:

  <bullet> The Fulbright Program now offers Fulbright's Science and 
        Technology awards that are designed to provide top-level 
        students in science and technology with the U.S. Government's 
        most prestigious and valuable scholarship.
  <bullet> The International Visitor Leadership Program brought over 
        100 Iranian professionals, academics, and cultural figures to 
        the United States last year--the first International Visitors 
        since 1979.
  <bullet> Our English Language Office pioneered the groundbreaking 
        English Access Microscholarship program which provides a 
        foundation of English language skill to high school students 
        from disadvantaged sectors in their countries.
  <bullet> The Bureau's Youth Exchange Office conducts the highly 
        successful Youth Exchange and Study (YES) program, the U.S. 
        Government's first-ever program designed for secondary school 
        students from the Arab and Muslim world.

    There is more that can be done. You have my full commitment that, 
if confirmed, I intend to review the effectiveness of all of our 
programs.

    Question. The Hague Convention for the Protection of Cultural 
Property in the Event of Armed Conflict (the ``Hague Convention''), and 
the Hague Protocol, concluded on May 14, 1954, were submitted to the 
Senate for advice and consent by President Clinton on January 6, 1999. 
This administration has urged the Senate to act on the Hague 
Convention, but not the Protocol. Please provide your views on the 
Hague Convention, including whether in your view it should be a 
priority for the committee and if so, why.

    Answer. Thank you for bringing this to my attention. While I am not 
personally familiar with the 1954 Hague Convention, I have looked into 
the matter and learned that the Department has identified ratification 
of the Convention as a priority, and also supports removal of the First 
Protocol from consideration for ratification at this time, leaving open 
the possibility of resubmission for ratification at a future date.
    If confirmed, I will look into this matter further and would be 
pleased to work with the committee.

    Question. The United States ratified the 1970 Convention on the 
Means of Prohibiting and Preventing the Illicit Import, Export, and 
Transfer of Ownership of Cultural Property on February 9, 1983 (the 
``1970 Convention''). Under Article 9 of the Convention, a state party 
``whose cultural patrimony is in jeopardy from pillage of 
archaeological or ethnological materials'' may call upon other states 
parties who are affected. Each state concerned is to take provisional 
measures to the extent feasible to prevent irremediable injury to the 
cultural heritage of the requesting state. How many requests has the 
United States received in the last 10 years (through 2007) pursuant to 
Article 9 of the 1970 Convention? Please provide details, including the 
date of such requests and the country making the request.

    Answer. Since 1997, under Article 9 of the 1970 Convention, the 
United States has received 9 new requests for import restrictions (from 
Bolivia, Cambodia, China, Colombia, Cyprus, Guatemala, Honduras, Italy, 
and Peru) and 13 requests for extensions of existing restrictions, 
including those imposed as a result of a bilateral agreement or of an 
Emergency Action (Bolivia, Cambodia, Colombia, Cyprus, El Salvador, 
Guatemala, Honduras, Italy, Mali, Nicaragua, and Peru). An Emergency 
Action differs from an agreement in that it is meant to address an 
emergency condition, entails action only on the United States' side, 
and may be extended only once. Please see the attached chart for the 
details.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                        Date of Request to USG       Memorandum of         Date of Extension(s)
                              Country                                 Emergency Action Date    Emergency Action Date    under Article 9 of the   Understanding Date in     (with amendments) of
                                                                             in Force                 Extended          1970 UNESCO Convention           Force                     MOU
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Bolivia............................................................                Mar. 1989  .......................                Sep. 1999                Dec. 2001                Dec. 2006
Cambodia...........................................................                Dec. 1999  .......................                 May 1999                Sep. 2003  .......................
Canada.............................................................  .......................  .......................           Oct 1985, with      Apr 1997 (currently  .......................
                                                                                                                             supplemental info                 expired)
                                                                                                                             provided Jan 1988
China..............................................................  .......................  .......................                 May 2004  .......................  .......................
Colombia...........................................................  .......................  .......................                Apr. 2004                Mar. 2006  .......................
Cyprus Ethnological................................................                Apr. 1999                Aug. 2003                Sep. 1998                Jul. 2007                Jul. 2007
Cyprus Archaeological..............................................  .......................  .......................                Sep. 1998                Jul. 2002                Jul. 2007
El Salvador........................................................                Sep. 1987                Mar. 1992                Jan. 1995                Mar. 1995     Mar. 2000, Mar. 2005
Guatemala..........................................................                Apr. 1991                Sep. 1994                 May 1997                Oct. 1997     Sep. 2002, Sep. 2007
Honduras...........................................................  .......................  .......................                Aug. 2001                Mar. 2004  .......................
Italy..............................................................  .......................  .......................                Sep. 1999                Jan. 2001                Jan. 2006
Mali...............................................................                Sep. 1993  .......................                Sep. 1992                Sep. 1997     Sep. 2002, Sep. 2007
Nicaragua..........................................................  .......................  .......................                Nov. 1995                Oct. 2000                Oct. 2005
Peru...............................................................                 May 1990                Jun. 1994                Jan. 1997                Jun. 1997     Jun. 2002, Jun. 2007
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. In accordance with the implementing legislation for the 
1970 Convention, the President, upon making certain determinations, may 
enter into an agreement with a state party that has made a proper 
request under Article 9 of the 1970 Convention, in order to apply 
certain import restrictions. Please provide a list of the agreements 
that have been concluded as of today's date under the authority 
provided for in the implementing legislation. See 19 U.S.C. Sec.  2602.

    Answer. Under Article 9 of the 1970 Convention, the United States 
currently has bilateral agreements with Bolivia, Cambodia, Colombia, 
Cyprus, El Salvador, Guatemala, Honduras, Italy, Mali, Nicaragua, and 
Peru.

    Question. In 2004, the Office of Inspector General (OIG) issued an 
extensive report of inspection of the Bureau of Educational and 
Cultural Affairs. Have you read the report, or been briefed on its 
findings? What major recommendations remain to be implemented?

    Answer. Thank you for bringing this to my attention; I have now 
read and been briefed on the report. It is my understanding that the 
Bureau responded positively and quickly to the findings of this report. 
All changes/actions necessary to comply with the Inspector General 
recommendations were completed, and as a result, the OIG closed the 
inspection report in July 2006.
                                 ______
                                 

          Responses of Hon. Goli Ameri to Questions Submitted
                         by Senator Bill Nelson

    Question. What is your position on United States sanctions and 
multilateral sanctions against Iran?

    Answer. I fully support administration policy on Iran including 
current United States sanctions on Iran, and the need for multilateral 
sanctions. We must maintain pressure on the current regime.

    Question. Have you ever advocated that sanctions against Iran 
imposed by the United States, any other country, or the United Nations, 
be lifted or reduced in some way?

    Answer. I have opposed lifting or reducing sanctions imposed by the 
United States, the United Nations, or any country against Iran.
    As U.S. Representative to the 60th Session of the U.N. General 
Assembly in 2005 and the senior diplomat at the U.S. Desk in the 
chamber, I rose and walked out of the General Assembly Hall in protest 
against the policies of the Iranian regime as Iranian President 
Ahmadinejad took the podium.

    Question. What is your position on dialog with the Iranian regime?

    Answer. I fully support the administration's position on direct 
dialog with Iran. Secretary Rice stated on January 23, ``Should Iran 
suspend its uranium enrichment and reprocessing activities--which is an 
international demand, not an American one--we could begin negotiations, 
and we could work over time to build a new, more normal relationship--
one defined not by fear and mistrust, but growing cooperation, 
expanding trade and exchange, and the peaceful management of our 
differences.'' The ball is in Iran's court. Tehran must halt its 
current activities that violate its international obligations under the 
Nuclear Non-Proliferation Treaty and come clean on its past nuclear 
work before we can engage in further talks on nuclear and other issues.
    I support the President's call to reestablish regular educational, 
professional, athletic, and cultural exchange programs with the Iranian 
people for the first time since 1979. Through these programs, we are 
promoting dialog between the citizens of our two countries. The 
Department sent the United States National Wrestling Team to compete in 
Iran in January 2007; we have also brought well over a hundred Iranian 
professionals to the United States since the Department restarted these 
people-to-people exchange programs in late 2006. In testimony before 
the Senate Foreign Relations Committee in March, 2007, Under Secretary 
Nicholas Burns said, ``Part of charting a new course for U.S.-Iranian 
relations is intensifying our engagement with the Iranian people. While 
it is now not feasible for us to have formal diplomatic relations with 
Iran, it is within our grasp to bridge the divide between our 
peoples.''

    Question. Have you ever advocated that the United States engage in 
direct talks with the Iranian regime on any matter?

    Answer. I have not advocated direct talks between the United States 
Government and the Iranian regime.
    My record on this issue is clear and was stated most concisely in a 
2004 ``open letter'' to Secretary of State Colin Powell. In that 
letter, I cautioned the Secretary that ``any such dialog with the 
ruling clerics will only lead to more deceit and reinforce their belief 
that they can pursue their radical agenda without consequences.''
    At the same time, I support efforts by the President and Secretary 
Rice to reach out in appropriate ways to the Iranian people. It is 
important that we reinforce the message sent by President Bush in his 
historic 2002 radio address to the people of Iran that ``if Iran 
respects its international obligations and embraces freedom and 
tolerance, it will have no better friend than the United States of 
America.''

    Question. Please provide the committee with a complete copy of the 
``prospectus'' of the Public Affairs Alliance of Iranian-Americans.

    Answer. A copy of the June 2007 prospectus of the Public Affairs 
Alliance of Iranian-Americans (PAAIA) is attached. As far as I know, it 
is the final version.

    [Editor's Note.--The prospectus mentioned above was too voluminous 
to include in this hearing. It will be retained in the permanent record 
of the committee.]

    As the prospectus indicates, PAAIA is a bipartisan, nonsectarian, 
national organization open to all Iranian-Americans regardless of 
ethnicity, religion, or political belief.

    Question. If confirmed, what steps will you take to ensure that the 
Cultural Property Advisory Committee, established under the 
implementing legislation of the 1970 Convention on the Means of 
Prohibiting and Preventing the Illicit Import, Export and Transfer of 
Ownership of Cultural Property, conducts its work in an appropriately 
transparent manner?

    Answer. The Cultural Property Advisory Committee (CPAC), appointed 
by the White House, plays a vital role in our efforts to preserve the 
world's cultural heritage from pillaging and looting. The members 
represent a variety of interests. They provide their input at the 
outset of any consideration of a foreign government request for 
assistance so that their deliberations can inform the entire onward 
process.
    In addition to the statutory composition of the committee and the 
representation it provides for diverse views, the Department has taken 
a number of steps over the past several years to increase the access of 
members of the general public to the process. These steps include a Web 
site that posts public summaries of incoming requests; sessions that 
allow members of the public to present their viewpoints directly to the 
committee; advance notification of such sessions on the cultural 
property Web site; solicitation of written comments, and inclusion of 
all such comments in the documents provided to the decisionmaker.
                                 ______
                                 

          Responses of Hon. Goli Ameri to Questions Submitted
                        by Senator Norm Coleman

    Question. I commend the Department for their leadership on the 
National Security Languages Initiative (NSLI), and urge continued 
consideration of innovative ways to teach foreign languages to children 
at a young age. If confirmed, will you commit to working with 
innovative programs to this end, such as those offered by Concordia 
Language Villages in northern Minnesota, which offers intensive 
training in 15 languages?

    Answer. Please let me assure you, that if confirmed, I will be a 
strong advocate of all programs that improve the opportunities for our 
young people to master foreign languages. This is a critical strategic 
need that I fully support. I know that through its NSLI exchanges, the 
Bureau is supporting opportunities for American high school students, 
teachers, and undergraduate and graduate students to study critical 
languages abroad, and is strengthening foreign language teaching in the 
United States by placing native speakers as teachers and teaching 
assistants in elementary through post-secondary classrooms. 
Participants and alumni of Concordia Language Villages are encouraged 
to apply for summer, semester, and year-long programs abroad for high 
school students, supported by the Office of Citizen Exchanges, and for 
university level study in the future through the Critical Language 
Summer Institutes, Gilman and Fulbright Scholarship Programs. The 
Bureau can also work with Concordia to determine whether some Fulbright 
Foreign Language Teaching Assistants might extend their academic year 
programs in the United States, and serve as teaching assistants at the 
Concordia Language Villages during the following summer, before 
returning home. The Bureau is also developing a study abroad program 
for high school students in certain countries in Africa, the Near East, 
and East Asia. The Bureau will be looking to organizations like 
Concordia for qualified participants for these exchanges. In this 
sense, Concordia and other programs that encourage instruction of 
critical (nontraditional) foreign languages may be seen as important 
potential ``feeder'' programs for the NSLI youth exchange.
                                 ______
                                 

              Response of Goli Ameri to Question Submitted
                        by Senator Barbara Boxer

    Question. Senator Feinstein and I support innovative public 
diplomacy initiatives like the Global Perspectives Project, a media 
exchange program funded by the State Department and run by the 
congressionally mandated Independent Television Service that promotes 
the international exchange of documentary films made by independent 
producers. The United States Ambassador to Indonesia has said that this 
program has been opening minds in my country about the America behind 
the headlines. I am convinced that documentary film has an important 
role to play in advancing cultural exchange and international civic 
dialog.
    What kind of impact do you think innovative media strategies such 
as the Global Perspectives Project can have on improving America's 
image and standing throughout the world?

    Answer. Although I am not familiar with this project, I believe 
that such efforts can be very helpful in helping us improve the United 
States' image abroad. As I noted in my testimony, one of the reasons 
behind the decline of America's image is that we are not perceived as 
paying attention to the concerns of foreign governments and people. As 
we know from decades of experience, when we are able to put foreigners 
in direct contact with Americans, or aspects of America, their 
attitudes toward our principles become more favorable. To the extent 
that such projects as the Global Perspectives Project can become two-
way exchanges that not only bring insight about America to foreign 
publics, but also information about other countries to U.S. audiences, 
this helps show that America is listening--and worth listening to.
                                 ______
                                 

       Responses of Hon. James K. Glassman to Questions Submitted
                     by Senator Russell D. Feingold

    Question. I would like to follow up on a question I asked during 
the nominations hearing relating to strengthening the structure of the 
PD bureau. As you are aware, the GAO released a report in May 2006 
titled, ``State Department Efforts Lack Certain Communication Elements 
and Face Persistent Challenges (GAO-06-707T).'' tactics. The report, in 
part, found that, ``posts' public diplomacy efforts generally lack 
important strategic communication elements found in the private sector 
. . . These elements include having core messages, segmented target 
audiences, in-depth research and analysis to monitor and evaluate 
results, and an integrated communication plan to bring all these 
elements together.'' I am interested to know what the Bureau has done 
to address these concerns, particularly the creation of an integrated 
communications plan, and what you will do to improve upon the work done 
thus far in response to this report.

    Answer. I am aware of the GAO report and its recommendations. As 
you know, the U.S. National Strategy for Public Diplomacy and Strategic 
Communication put in place by my predecessor includes a planning model 
for strategic communications, the so-called ``ABCDE'' model, which is 
intended for posts to use in preparing communication plans. At this 
point I cannot say whether this model--or any other model that includes 
the critical steps of research, evaluation, and assessment--is being 
implemented in the field, but if confirmed, I will certainly be 
examining this question.
    If confirmed, I also plan to issue implementation guidance that 
would flow from the national strategy already in place, to ensure that 
strategic communication planning--whether in Washington or the field--
is consistent with strategic objectives.

    Question. You stated in your testimony that the main focus of your 
attention will be ``global ideological engagement'' and that part of 
the answer to successfully fighting the ``war of ideas'' involves 
``directly entering the conversation to confront lies and distortions 
with truth.'' You identify the media hubs in London, Brussels, and 
Dubai and the Digital Outreach Team as part of this movement toward 
direct engagement. While improving our efforts to counter incorrect 
information is important, I also believe that direct engagement 
involves more than monitoring and improving media reporting. What other 
initiatives do you support to improve the U.S. Government's direct 
engagement with people and institutions overseas?

    Answer. I agree with you that direct engagement entails much more 
than monitoring media reporting and responding to distortions and 
inaccuracies. I believe that we must engage with foreign publics and 
elites using the broad array of programs and capabilities at our 
disposal, including academic and professional exchanges, broadcasting, 
technology-based information programs, speakers, citizen ambassadors, 
binational centers, libraries, American Corners, and English teaching 
and other youth enrichment programs to reach so-called ``marginalized'' 
or ``underserved'' youth populations, to name just a few. I plan to use 
research, including polling and attitude surveys, to help determine 
which tools make sense in different programming environments, and as I 
indicated, I also intend to use evaluation to measure the impact of 
these efforts, and to refine them as necessary to maximize their effect 
on our strategic objectives.

    Question. Your predecessor succeeded in increasing the number of 
participants in exchanges and increasing both the public diplomacy and 
education and cultural exchange budgets. How will you work to protect 
these advancements?

    Answer. The President's fiscal year 2009 budget request includes 
$522.444 million for the educational and cultural exchange programs of 
the U.S. Department of State, the fourth year in a row the President 
has proposed an increase for these programs. Within the State 
Department's budget request, $394.806 million is included for public 
diplomacy international information programs, an increase of $33.9 
million over the $360.905 million provided in fiscal year 2008.
    I support the request and hope that the Congress approves it. As I 
have stated, I believe it is crucial that we gain a very solid 
understanding about the impact of these programs. To this end, if 
confirmed, I intend to stress evaluation and measurement, not just of 
program ``outputs,'' but also of ``outcomes.'' If it appears that a 
particular program is not meeting its objectives, is too costly for the 
results it achieves, or fails to address the strategic goals we have 
outlined for our communication and public diplomacy efforts, then I 
will not hesitate to recommend changes. If we are successful in 
evaluating our efforts and the impact they are having, then I believe 
we will be in a much stronger position, in future budget cycles, to 
recommend continuing the trend of increasing these resources.
                                 ______
                                 

        Response of Hon. James K. Glassman to Question Submitted
                        by Senator Barbara Boxer

    Question. Senator Feinstein and I support innovative public 
diplomacy initiatives like the Global Perspectives Project, a media 
exchange program funded by the State Department and run by the 
congressionally mandated Independent Television Service that promotes 
the international exchange of documentary films made by independent 
producers. The United States Ambassador to Indonesia has said that this 
program ``has been opening minds in my country about the America behind 
the headlines. I am convinced that documentary film has an important 
role to play in advancing cultural exchange and international civic 
dialog.''
    What kind of impact do you think innovative media strategies such 
as the Global Perspectives Project can have on improving America's 
image and standing throughout the world?

    Answer. Although I am not familiar with this project, I believe 
that such efforts can be very helpful in helping us improve the U.S. 
image abroad. As I noted in my testimony, one of the reasons behind the 
decline of America's image is that we are not perceived as paying 
attention to the concerns of foreign governments and people. As we know 
from decades of experience, when we are able to put foreigners in 
direct contact with Americans, or aspects of America, their attitudes 
toward our principles become more favorable. To the extent that such 
projects as the Global Perspectives Project can become two-way 
exchanges that not only bring insight about America to foreign publics, 
but also information about other countries to U.S. audiences, this 
helps show that America is listening--and worth listening to.
                                 ______
                                 

        Response of Hon. James K. Glassman to Question Submitted
                         by Senator Bill Nelson

    Question. What is the frequency of AeroMarti flights to broadcast 
television into Cuba? What are its hours of broadcast? What is your 
estimate of the Marti signals' penetration into Cuba?

    Answer. The Office of Cuba Broadcasting (OCB) has several methods 
to deliver TV Marti signals to the people of Cuba.
    AeroMarti flies its broadcast missions 6 days a week, Monday 
through Saturday, from 6 p.m.-11 p.m. Cuban authorities usually attempt 
to jam these broadcasts.
    TV Marti is carried on Hispasat 24 hours a day, 7 days a week, with 
each 5-hour programming block repeated throughout the day. TV Marti is 
also carried on DirecTV's ``TV Azteca,'' which carries two 30-minute 
newscasts, Monday through Saturday, at 6 p.m. and 11:30 p.m. DirecTV is 
available to about 30,000-40,000 households that have dishes, according 
to estimates that OCB has received and that they deem credible. Neither 
of these satellite broadcasts are jammed by the Cuban Government.
    Although OCB does not have the ability to carry out research inside 
Cuba to measure TV Marti's viewership, some surveys have been conducted 
by telephone. The most recent showed a penetration rate of 0.3 percent, 
in a survey of 28 percent of Cuban households with telephones. Other 
methods of measurement include personal interviews with Cuban emigres. 
In 2007, 410 respondents were asked about TV Marti viewership, and 
their responses suggest that TV Marti's market share may be as much as 
17 percent on the island.
    Neither of these methods is necessarily representative or reliable.
    OCB also gets considerable anecdotal feedback from Cuba that the TV 
Marti programs can be seen, including e-mails, call-ins to TV Marti 
talk shows, and other sources. For example, a Cuban governmental 
document presented to the International Telecommunications Union dated 
June 22, 2007, shows the AeroMarti TV signal strength to be in a range 
of 64 dB u-v/m to 74 dB u-v/m in Central Havana. In this case, the 
AeroMarti signal was about equal to or stronger than local Cuban 
television signals. This suggests that the signal is getting through 
despite Cuban efforts to jam it.


                              NOMINATIONS

                              ----------                              


                      WEDNESDAY, FEBRUARY 6, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Jones, Ms. Deborah, to be Ambassador to Kuwait
Moriarty, to be Ambassador to Bangladesh
Scobey, Margaret, to be Ambassador to Egypt
                              ----------                              

    The committee met, pursuant to notice, at 1:07 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John Kerry, 
presiding.
    Present: Senator Kerry.

             OPENING STATEMENT OF HON. JOHN KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Good afternoon. I apologize for being late. 
This hearing will come to order.
    I want to thank you all for coming before the committee 
today. Why don't I invite you to each, individually, introduce 
your family, if you can.
    Ms. Jones. Mr. Chairman, I'm joined here today by my 
daughter, Ana, who is a sophomore at the Madeira School, here 
in Virginia.
    Senator Kerry. Here? At Madeira?
    Ms. Jones. At the Madeira School.
     Senator Kerry. Great school.
    Ms. Jones. And my husband, Ricole Olson, is also a Foreign 
Service officer. He is serving as Deputy Chief of Mission at 
U.S. NATO right now. And our 12-year-old daughter, Isabella, is 
serving with him there.
    Senator Kerry. Thank you, very much.
    Ambassador Moriarty. I would like to introduce my wife, 
Laura Moriarty.
    Senator Kerry. How are you? Welcome.
     Ambassador Moriarty. A recently-retired Foreign Service 
officer who hopes to accompany me out to Bangladesh.
    Senator Kerry. Great.
    Ambassador Moriarty. Our two children are off working in 
the West, my son is at U.H. Law School, and my daughter is 
working for UCLA.
    Senator Kerry. Fantastic.
    Ambassador Scobey.
    Ambassador, nice to see you again.
    Ambasssador Scobey. Nice to see you again, sir
    I'm very happy to introduce my brother, Jim, who came up 
from Winter Springs, FL, today, to attend the hearing. He and 
my brother, Marty, have been a real great moral support in 
providing a home away from home for me.
    Senator Kerry. Fantastic, he came up from where?
    Ambassador Scobey. Winter Springs, Florida.
    Senator Kerry. Winter Springs, Florida. Florida--about 7 
days from pitchers and catchers, right? We're all thirsty. We 
need to recoup, back in New England, you understand.
    All right, well thank you.
    Ambassador Scobey. Thank you.
    Senator Kerry. Very much.
    Well, let me just say, on behalf of the committee that we 
are really blessed to have three such highly experienced, 
qualified individuals to serve in these positions, and we 
really appreciate what you all bring to the table.
    Ambassador Margaret Scobey, nominee to be ambassador to 
Egypt, has had a very distinguished career with challenging 
assignments in Kuwait, Saudi Arabia and Jerusalem, Pakistan, 
Yemen, and Syria. And I had the pleasure of spending time with 
Ambassador Scobey during my trip to Syria in 2005, during which 
time I saw her to be a capable diplomat, and a gracious host, 
and I thank you for that visit.
    Ambassador Moriarty, nominee to be Ambassador to 
Bangladesh, brings also considerable experience to this task, 
and particularly in Asian affairs. And he has served in 
Islamabad, Beijing, Taiwan, and most recently as the American 
Ambassador to Nepal. I'm also particularly pleased, he's a 
native of Massachusetts, and has received several honors, 
including a Presidential Meritorious Service Award.
    And Ms. Deborah Jones, the nominee to be Ambassador to 
Kuwait, comes to us from the U.S. Consulate General in Turkey. 
Before that, she has had several overseas postings, including 
the United Arab Emirates, Ethiopia, Syria, and Iraq. And I 
would congratulate you, Ms. Jones, on your first nomination to 
be an ambassador, a much-deserved honor for a distinguished 
record, and we welcome you here.
    Obviously, the relationships between the United States and 
Egypt, Kuwait, and Bangladesh are particularly significant, 
given the 21st century challenges that we're finding with 
respect to that part of the world, Islam, and radical extreme 
religious fervor, and so forth. So, these pose real challenges 
for our policymakers and for our ambassadors.
    We have long counted on Egypt as one of our strongest 
allies in this difficult region. I have visited with President 
Mubarak frequently over the course of some 20 years, and 
consider that a friendship, and I have enjoyed the 
conversations that we have had.
    But, while we've maintained a strong personal partnership 
with President Mubarak, there's a growing consensus emerging 
that that relationship with Egypt is not at its highest point, 
and faces some challenges right now.
    There are obviously concerns from some here in Congress 
about the aid package. Those have been raised, particularly 
over on the House side, but here in the Senate, too. That aid 
averages about $2 billion a year, and there are concerns that 
it may not have been as targeted as effectively as it might be, 
particularly in the effort to try to promote reform.
    We all understand that Egypt faces internal challenges. And 
these are conversations that I and others have had with them. 
We also need to continue to encourage our friends to respect 
human rights, and move toward greater democratization. It's 
very important for the Congress and the administration to work 
closely together to craft an aid program that strengthens our 
relationship, at the same time that it delivers the maximum 
benefit to Egypt, and Egyptian people, by fostering programs 
that strengthen the civil society and the rule of law.
    And I might add, both Egypt and other countries in the 
region--I'm not sure what the figures are for Bangladesh, but I 
know Saudi Arabia and Jordan, I think about 60 percent of the 
population is under the age of 25, and 50 percent is under the 
age of 21, and 40 percent is under the age of 18. And so the 
issue of education and jobs and disenfranchisement looms large 
in a world where people are waiting to snatch up fertile minds, 
and idle minds, and put them to other uses. And we need to 
think hard about that.
    We welcomed Egypt's participation in the recent Annapolis 
Peace Conference, and look to them to make significant 
contributions in moving that process forward in the coming 
months. And nothing could be more important for our security 
interests or for stability in the region.
    One key element of the peace process is controlling the 
flow of arms into Gaza. And for quite some time, we've heard 
concerns over the lack of enforcement at the Rafah border 
checkpoint. These fears were validated in the last days, when 
tens of thousands of Palestinians overran the border--a 
troubling development that may even have contributed to the 
first suicide bombing in Israel in over a year.
    We know that $100 million in United States foreign military 
financing is currently suspended until the Secretary of State 
certifies that Egypt has cracked down on smuggling and tunnels 
into Gaza. So, this is a big issue in the relationship and will 
be going forward.
    This is also a trying and troubling time for Bangladesh, 
now having been ruled by the military for over a year. We have 
a very strong interest in maintaining strong relations with 
Bangladesh, but we also hope that Bangladesh is going to 
continue as a moderating voice in the Islamic world.
    We also can't lose sight of the fact that we need to 
restore full civil and political rights to all the citizens of 
Bangladesh. In May of 2007, I wrote a letter with Senators 
Biden, Lugar, and others, urging Chief Advisor Ahmed, the 
civilian head of the current caretaker government, to 
immediately lift emergency rule, and announce a timeline for 
free and fair elections. And although emergency rule is still 
in place, the government has announced elections by the end of 
2008. It's very important these be transparent and held as 
scheduled.
    And instituting reforms to end the country's notorious 
corruption is also a challenge, and vital to restoring popular 
confidence in the government.
    We have a very strong bilateral relationship with Kuwait 
that dates back over 20 years. In early 2004, we designated 
Kuwait as a major, non-NATO ally.
    Today Kuwait hosts some 50,000 United States military 
personnel as they rotate in and out of Iraq, and some 10,000 
are permanently based there. That raises important questions 
about the role that Kuwait may or may not play, as our military 
redeploys from Iraq. And particularly, as a staging point, for 
an over-the-horizon presence that many of us here in the 
Congress envision.
    Kuwait also remains a key strategic partner in fighting 
Islamic extremists, countering the influence of Iran, and 
promoting stability in the region. And we've shown our desire 
to further strengthen this partnership with significant new 
arms sales.
    We also must express concern over the fact that Kuwait did 
not participate in the Annapolis conference. And, to date, they 
have provided only $135 million out of $500 million that they 
pledged for Iraqi reconstruction. These will be important 
issues for our ambassador to address.
    So, with that, I invite each of you to make your opening 
statements. If you could mostly summarize them, the full 
statements will be placed in the record in full, and I think 
you know that procedure, and we'll look forward to then having 
a chance to question.
    Thank you very much.
    Do you want to begin, Ambassador Scobey?

STATEMENT OF HON. MARGARET SCOBEY, NOMINEE TO BE AMBASSADOR TO 
                   THE ARAB REPUBLIC OF EGYPT

    Ambassador Scobey. Mr. Chairman, I'm deeply honored to 
appear before the committee as President Bush's nominee as the 
new United States Ambassador to the Arab Republic of Egypt. I'm 
mindful of the confidence and the trust placed in me by the 
President and the Secretary and, if confirmed, will do my 
utmost to fulfill my responsibilities.
    I've had the privilege of representing the United States in 
many Middle Eastern capitals, and look forward to doing so 
again in a country where we have built a vital strategic 
partnership based on many mutually shared goals of peace, 
security, and prosperity--not just for the United States and 
for Egypt, but for the entire region.
    Sir, Egypt, as you know, is the most populous Arab country 
in the world. Its leaders promote peace and stability in a 
region that has often known conflict. Its forces protect the 
canal, combat terrorism, and participate in important 
peacekeeping operations. Its press and cultural vitality 
influence the entire Arab world, and it's the only Arab country 
with a global diplomatic reach.
    Egypt's regional role has clear implications for United 
States policy. The United States must sustain and strengthen 
the bilateral security cooperation that we have depended upon 
for years, and the United States must encourage Egypt to take 
the lead in economic and democratic political reform in the 
region.
    Successive administrations with Congressional support have 
recognized Egypt's role with significant military and economic 
assistance that underlies the relationship between the United 
States and Egypt today.
    The United States Ambassador to Egypt oversees a broad 
range of important activities, including the protection of our 
citizens, outreach to all sectors of Egyptian society, and 
management of a very large mission.
    I'd like to highlight three of the most important elements 
as I see it: The search for peace and countering extremism; the 
promotion of democracy and human rights; and the advancement of 
United States-Egyptian economic ties and continued development 
assistance.
    Egypt's contributions to shared regional objectives, such 
as the establishment of a Palestinian state, living in peace 
and security with Israel, their support for our aims in Iraq 
and Afghanistan, their countering of terrorism and support for 
the U.N. mission in Sudan, are no less important today than the 
signing of the Camp David Accords in 1979.
    Recent breaches in the Gaza-Egyptian border have posed new 
challenges. If confirmed, I will seek to maintain and deepen 
our ability to cooperate in all of these areas, and more, with 
a much-appreciated partner.
    Egypt's strong economic performance and reform measures are 
transforming an economic relationship from one based on 
assistance, to one based on trade. Gains in literacy, life 
expectancy, access to clean water and electricity have all been 
advanced by U.S. assistance, and the administration believes a 
strong need remains for some continued U.S. assistance to 
support essential work in health and education.
    If confirmed, I will work to expand United States and 
Egyptian trade, and work with you, other agencies of the United 
States Government and the Egyptian Government to develop the 
most constructive use of continued United States economic and 
military assistance.
    Mr. Chairman, I know the members of Congress share the 
administration's serious concerns about the condition of human 
rights in Egypt and the limitations placed on political 
activity and freedom. Egypt has taken important steps over many 
years in opening its society with a vibrant press and civil 
society, and many advancements in Egypt in women's rights.
    However, the government's respect for human rights remains 
poor, and serious abuses continue. Progress on political reform 
has slowed, with limitations on political pluralism, and major 
obstacles to opposition parties taking their rightful place in 
the political life of Egypt. Recent indictments against 
newspaper editors, the continued incarceration of Ayman Nour, 
private lawsuits against Saad Eddin Ibrahim, the prosecution in 
military tribunals, rather than civilian courts of some Muslim 
Brotherhood members, and restrictions on NGOs illustrates some 
of these limits that have been placed on political freedom.
    Sir, I fully understand the importance of Egypt moving 
forward with meaningful democratic political reform that does 
reflect Egypt's culture and traditions. The administration is 
committed to pressing Egypt on reform, and if confirmed, I will 
take every opportunity to support and advance civil and 
political liberties in Egypt.
    I look forward to working with the government and to 
meeting, learning from, and working with, leaders of Egypt's 
civil society. I will do all in my power to assure that U.S. 
support is both coordinated and available to all of those who 
are working for the advancement of democracy and human rights, 
and who would welcome our encouragement.
    Thank you, sir.
    [The prepared statement of Ambassador Scobey follows:]

       Prepared Statement of Hon. Margaret Scobey, Nominee to be 
                Ambassador to the Arab Republic of Egypt

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before the Senate Foreign Relations Committee as President 
Bush's nominee as United States Ambassador to the Arab Republic of 
Egypt. I am mindful of the confidence placed in me by the President and 
Secretary Rice and will do my utmost to fulfill my responsibilities. I 
have had the privilege of representing the United States in many Middle 
Eastern capitals and look forward to doing so again in a country where 
we have built, over the past three decades, a vital strategic 
partnership based on mutually shared goals of peace, security, and 
prosperity, not only for our own citizens but also for the people of 
the entire region.
    I am also happy to introduce my brother, Jim, who came from Winter 
Springs, FL, to attend the hearing. He and my brother, Marty, who could 
not be here, have always provided me moral support and a home in 
between my assignments.
    Egypt is the most populous Arab country in the world. Its leaders 
promote regional peace and stability throughout the Middle East and 
Africa; its security forces assure free navigation through the Suez 
Canal and combat terrorism; its press and cultural vitality influence 
the entire Arab world; and it is the only Arab country with global 
diplomatic reach. The implications for United States policy are clear: 
Continue to strengthen the United States-Egyptian partnership in 
advancing peace, and encourage Egypt to take the lead in economic and 
political reform in the region.
    We recognize that reform must follow an Egyptian vision and proceed 
in an Egyptian manner. President Bush expressed in Sharm el Sheikh his 
firm hope that, ``Egypt can play a role in the freedom and justice 
movement . . .'' and that the Egyptian Government would build on its 
economic and democratic reforms to its people to give them ``a greater 
voice in [their] future.''
    During the President's recent visit to Sharm Al Shaykh where he met 
with Egyptian President Mubarak, he also recalled the longstanding 
friendship between the United States and Egypt and the respect we have 
for the Egyptian people, their culture, history, and traditions. Above 
all else, this friendship has been strengthened by our shared objective 
of concluding a comprehensive peace between Israel and all its Arab 
neighbors in a manner that advances the interests of all and that 
liberates the human potential of this region by removing the fear of 
war. No Arab nation has done more to advance this fundamental goal. 
Egyptian courage opened the door to peace in 1979. Since then President 
Mubarak has persistently worked with us, the Israelis, and other Arab 
states in search for a just and lasting peace. Most recently, Egypt 
played a central role in the Annapolis conference, and now continues to 
seek ways to facilitate its aims.
    Egyptian-United States cooperation on regional security and its 
contributions to regional stability go beyond the Israeli-Arab 
conflict. In recognition of this, successive administrations have made 
significant investments in security and economic assistance to Egypt, 
including $1.3 billion a year in military assistance. The United 
States-Egyptian military partnership is a powerful force for regional 
stability in the Middle East and Africa. Our current military 
operations in the Middle East would not be possible without the 
overflight rights and facilitated Suez Canal passages afforded by the 
Egyptian Ministry of Defense.
    Egypt is the largest contributor of peacekeeping troops to UNAMID--
the U.N. peacekeeping force in Darfur. Egyptian diplomatic leadership 
helped persuade the Sudanese Government that this force would be in its 
best interest.
    Egypt does face challenges. On January 24, Hamas operatives 
destroyed the border wall separating Gaza from Egypt and encouraged an 
influx of tens of thousands of Gazans into Northern Sinai. Egypt has 
sought to manage this difficult situation with a minimum of violence. 
Senior United States officials have remained in regular contact with 
Egyptian, Israeli, and Palestinian leaders who are consulting on ways 
to find a solution that will restore order at the Rafah border. Egypt 
is also spending FMF assistance to procure equipment to help combat 
smuggling via tunnels beneath the Egypt-Gaza border.
    The United States benefits from Egypt's regional diplomatic 
leadership. Egypt hosted the first expanded neighbors' conference with 
Iraq in Sham Al Shaykh and supports continued United States military 
engagement in Iraq until the Iraqi military can safely handle its 
security duties. Egypt is at the very center of seeking to resolve the 
impasse over Lebanese presidential elections.
    Like the United States, Egypt has suffered terrible human and 
economic losses from terrorism and has long been a stalwart ally in the 
war against terror. United States-Egyptian security cooperation has 
saved lives throughout the region and will continue to do so.
    The President and the administration will continue to seek Egypt's 
advice and support; if confirmed, I will do everything possible to 
facilitate communication and collaboration.
    Much has changed in the decades since Camp David. The United States 
can be very proud of its contribution to economic and social 
development in Egypt at all levels, thanks to efforts and investment of 
USAID and its Egyptian partners. As a result of United States 
assistance programs, 99 percent of all Egyptians now have access to 
reliable electricity; 22 million Egyptians in 11 governorates have 
access to clean water and sanitary sewage collection, greatly reducing 
infant and child diseases. Since 1975, infant mortality has decreased 
from 132 per thousand to just 33; child mortality has decreased 80 
percent. Polio has been eradicated, and life expectancy has been 
extended from 55 to 70 years old. Similarly, adult literacy has grown 
from 39 percent in 1975 to 60 percent now. Girls attending school has 
risen from 56 percent to 95 percent.
    Egyptian economic reform is another success story. Prime Minister 
Nazif's economic team, has reformed and streamlined Egypt's economy--
retiring many vestiges of the old statist economy--to achieve record 
levels of growth--reaching nearly 7 percent in 2007. Egypt is 
attracting increased levels of foreign direct investment--$11.1 billion 
in 2007, up from just $5.3 billion in 2005. The World Bank in 2007 
declared Egypt the ``top reformer'' in the world. Now the government is 
eyeing strategies for redistributing the benefits of nearly $8 billion 
in annual subsidies on food and fuel to the poorest poor.
    Again, the United States is playing a central role in Egypt's 
economic expansion. The United States is Egypt's No. 1 trading partner: 
United States foreign direct investment in Egypt exceeds $5 billion and 
trade is sharply up--nearly 50 percent in 3 years. United States' 
exports to Egypt increased 33 percent in 2007; United States' 
agricultural exports to Egypt doubled.
    The Qualified Industrial Zone program, which allows certain exports 
to enter the United States tariff and duty free, provided they contain 
11.7 percent Israeli content, has produced more than $700 million in 
exports in 2007 and sustains more than 100,000 jobs. Exports from these 
zones grew 141 percent from $266 million in 2005 to $643 million in 
2006, and the impact of this unilateral trade benefit now exceeds the 
economic impact of our economic assistance.
    But much work remains to be done. Forty percent of Egypt's 
population lives on less than $2 per day. The government has identified 
major challenges in education and health reform. The United States 
intends to support these efforts in order to ensure a prosperous and 
stable future for this crucial Middle Eastern state.
    As Egypt's economy has grown and matured, United States economic 
assistance has gradually declined, from $815 million a year in the 
1980s to just over $400 million in fiscal year 2008. And in the current 
budget situation we can anticipate further adjustment. I look forward 
to working with you, other interested agencies of the United States 
Government, and our Egyptian counterparts to continue to develop the 
most productive and constructive use of United States assistance.
    The transformation of Egypt's economy required patience and 
political courage. The gains we see today reflect the Egyptian 
leaderships' willingness to look beyond the needs of today to position 
Egypt to meet the needs of its people in the 21st century.
    Mr. Chairman, I know that Members of Congress share the 
administration's serious concerns about the condition of human rights 
in Egypt and the limitations placed on political activity.
    Egypt has taken important steps over many years in opening its 
society. Egypt's press, including new independent newspapers and 
television stations, engage in serious political debate, and Egyptian 
civil society, with countless NGOs, provide Egyptian citizens the 
opportunity to address many of the problems facing Egypt. In 2007, for 
the first time in Egyptian history, 30 female judges took their place 
on the bench. The Egyptian Government has acted to eliminate female 
genital mutilation--outlawing it in state hospitals and working at the 
grass roots to discourage this dangerous and debilitating practice. 
First Lady, Suzanne Mubarak has personally undertaken this campaign as 
a priority for the protection of young girls. In the second half of 
2007, the state prosecuted three police officers for physical abuse of 
detainees.
    However, as documented in our annual report, the government's 
respect for human rights remains poor and serious abuses continue. 
Progress on political reform has slowed, with limitations on political 
pluralism and major obstacles to opposition parties taking their 
rightful place in the political life of Egypt and to debate freely, 
government policy and actions. The recent indictment against seven 
newspaper editors, the continued incarceration of Ayman Now, the many 
private lawsuits pending against Saad Eddin Ibrahim, the prosecution in 
a military tribunal, rather than civilian court, of some 40 members of 
the Muslim Brotherhood, and restrictions on NGO's illustrate the ways 
in which the government limits political freedom.
    Mr. Chairman, I fully understand the importance of Egypt moving 
forward with meaningful political reform. The administration is 
committed to pressing Egypt on reform, and if confirmed, I will take 
every opportunity to support and advocate the advancement of civil and 
political liberties in Egypt. I look forward both to working with the 
government and to meeting and learning from the leaders of Egypt's 
civil society. I will do all in my power to assure that U.S. support is 
both coordinated and available to all those who are working for the 
advancement of democracy and human rights and who would welcome our 
encouragement.
    Over 200,000 Americans visited Egypt last year for business, 
education, and tourism. No embassy has a more important duty than 
extending protection and service to our citizens overseas, and I 
promise to make this a high priority. Likewise, over 45,000 Egyptians 
sought visas last year to visit the United States for similar reasons. 
While fully implementing necessary screening for all visitors, I want 
every Egyptian visitor to our embassy to feel welcomed and to 
anticipate the hospitality and positive experience he or she would have 
in the United States. We can also do more to encourage Egyptians 
students to study in the United States. Nothing can replace the 
opportunity to live and study in the United States. And we all know 
that the students who return to their home countries after that 
experience, come home with an admiration and affection for America that 
no overseas program can instill. I pledge to make this a personal 
priority.
    If confirmed, I promise that the mission staff and I will give the 
great attention to getting our message out to the widest possible 
Egyptian audiences. Egypt enjoys a vibrant press and its opinion makers 
influence thinking far beyond Egypt's borders. Getting out to meet 
Egyptians throughout the country, promoting people-to-people exchanges, 
especially for students, academics, and religious leaders, bringing 
distinguished Americans to talk to Egyptian audiences, and engaging the 
Egyptian public at every opportunity and by every means possible will 
contribute to the improved mutual respect and understanding that we 
seek.
    The United States' mission in Egypt is one of the largest in the 
world. If confirmed, I will have the great privilege of leading a team 
of talented Americans and Egyptians, from many different United States 
agencies but working together to advance our interests. I pledge to 
maintain the highest standards of accountability for the resources 
given to us and to assure that the U.S. mission takes care of its 
people.
    Mr. Chairman, members of the committee, if confirmed, I would hope 
to welcome you and many of your colleagues from the Senate, as well as 
the House of Representatives, to visit. Your sustained interest in and 
oversight of our mission in Egypt is one of the most critical elements 
of any success we may have and helps assure that we are truly 
representing the American people in a country not only of strategic 
importance to us, but also one where we have enjoyed and benefited from 
great friendship.

    Senator Kerry. Thank you very much, Madame Ambassador.
    Ambassador Moriarty.

 STATEMENT OF HON. JAMES F. MORIARTY, NOMINEE TO BE AMBASSADOR 
             TO THE PEOPLE'S REPUBLIC OF BANGLADESH

    Ambassador Moriarty. Thank you very much.
    Mr. Chairman, it is a great honor to appear before you 
today as President Bush's nominee to serve as the Ambassador to 
Bangladesh. I deeply appreciate the trust that President Bush 
and Secretary Rice have shown in nominating me for this 
position.
    I also want to thank the State Department desk officers for 
Bangladesh, Sandeep Paul, Marcella Szymanski, and their 
administrative assistant, Alexis Olive--for all that they have 
done to help me prepare for my proposed assignment.
    Would you stand up?
    Senator Kerry. Thank you all very much.
    Ambassador Moriarty. Thank you.
    I want to note the attendance here today of an old friend, 
the Ambassador of Bangladesh, Dr. Humayun Kabir.
    Senator Kerry. Welcome, Mr. Ambassador, thank you.
    Ambassador Moriarty. And most importantly, I wish to 
express my personal gratitude to my wife of 25 years, Lauren. 
In addition to being my soul mate, she was the best Foreign 
Service officer I have ever met. She has made a heavy 
sacrifice, oh--current company, you know. [Laughter.]
    She has made a heavy sacrifice in deciding to retire in 
order to accompany me to Bangladesh, if I am confirmed.
    Mr. Chairman, I have served my country as a Foreign Service 
officer for more than three decades--in South Asia, Africa, the 
Near East, and East Asia. Most recently, I spent 3 exciting 
years as chief of mission in Nepal, as that country attempted 
to return to democracy.
    My tour in Nepal followed a stint as Special Assistant to 
the President and Senior Director for Asian Affairs at the 
National Security Council. If confirmed, I will rely on the 
experience gained throughout my career to advance United States 
interests in Bangladesh.
    I look forward to what promises to be a challenging 
assignment. In Bangladesh, our interests revolve around three 
intertwined D's--democracy, development, and denial of space to 
terrorism. The seventh most populous country in the world, 
Bangladesh, is overwhelmingly Muslim, and has--in the recent 
past--been grindingly poor.
    If, under such conditions, it succeeds in building a 
tolerant, prosperous democracy, it will serve as a shining 
beacon for much of the world. If it fails in these tasks, it 
could become a nation of ungoverned space, and a potential safe 
haven and crossroads for international terrorism.
    Mr. Chairman, over the years, the people of Bangladesh have 
overcome many daunting obstacles in their search for better 
lives. I feel strongly that it is in the United States' 
national interest to work with them, to help build a Bangladesh 
where democracy flourishes, where no child goes to bed hungry, 
and where no terrorist can find safe haven. If confirmed, I 
will work closely with Congress in pursuit of these goals.
    Let me also assure you that, if confirmed, I will zealously 
protect the welfare and safety of American citizens and 
interests in Bangladesh.
    Thank you, again, for the opportunity of addressing you 
today. I would be happy to answer any questions later on.
    [The prepared statement of Ambassador Moriarty follows:]

Prepared Statement of Hon. James F. Moriarty, Nominee to be Ambassador 
                 to the People's Republic of Bangladesh

    Mr. Chairman and members of the committee, it is a great honor to 
appear before you as President Bush's nominee to serve as Ambassador to 
Bangladesh. I deeply appreciate the trust President Bush and Secretary 
Rice have shown in nominating me and, if confirmed, I will serve to the 
best of my abilities. I also wish to express my personal gratitude to 
my wife of 25 years, Lauren. In addition to being my soul mate, she was 
the best Foreign Service officer I ever met and her wise counsel has 
helped shape my career. She has made a heavy sacrifice in deciding to 
retire in order to accompany me to Bangladesh, if I am confirmed.
    Mr. Chairman, I have served my country as a Foreign Service officer 
for more than three decades in South Asia, Africa, the Near East, and 
East Asia. Most recently, I spent 3 exciting years as chief of mission 
in Nepal, as that country attempted to return to democracy. My tour in 
Nepal followed a stint as Special Assistant to the President and Senior 
Director for Asian Affairs at the National Security Council. If 
confirmed, I will rely on the experience gained throughout my career to 
advance United States' interests in Bangladesh.
    I look forward to what promises to be a challenging assignment. 
Bangladesh is a country in transition in an area of the globe vital to 
United States' interests. In Bangladesh, our interests revolve around 
three inter-twined ``D's'': Democracy, development, and denial of space 
to terrorism. The seventh-most populous country in the world, 
Bangladesh is overwhelmingly Muslim and has in the recent past been 
grindingly poor. If, under such conditions, it succeeds in building a 
tolerant, prosperous democracy, it will serve as a shining beacon for 
much of the world. If it fails in these tasks, it could become a nation 
of ungoverned space and a potential safe haven and crossroads for 
international terrorism.
                               democracy
    Since winning independence from Pakistan in 1971, Bangladesh has 
struggled to build a viable democracy. Its democratic performance has 
been mixed, and its brief history has included periods of military rule 
and civil disorder. On January 11, 2007, Bangladesh's President 
declared a state of emergency in the face of an opposition boycott of 
scheduled national elections and widespread political violence. In 
accordance with Bangladesh's constitution, the President appointed a 
caretaker government comprised of 11 nonpartisan advisers; that 
caretaker government in turn embarked upon an ambitious agenda to rid 
the country of endemic corruption, reform institutions necessary for a 
sustainable democracy, and hold free, fair, and transparent elections. 
In a country that Transparency International described in recent years 
as ``perceived to be the most corrupt in the world,'' the 
anticorruption campaign quickly led to the arrests of a number of 
prominent individuals--politicians and businessmen alike. At present, 
two of Bangladesh's former Prime Ministers are in prison facing 
corruption charges.
    Bangladesh's state of emergency continues today, more than a year 
after the current caretaker government assumed power. Under the state 
of emergency, the Bangladesh Government placed a ban on freedom of 
expression and the right to engage in political activity. In August 
2007, the caretaker government received a jarring wake-up call when the 
country erupted in violent protests. The government, with the strong 
support of the military, quickly restored order by imposing a curfew in 
the areas hit by rioting. But the demonstrations showed what can happen 
when legitimate means of expressing grievances are unavailable.
    Before and after the protests, the United States has consistently 
urged Bangladesh's caretaker government to lift the restrictions on 
basic rights, and on September 9, 2007, Chief Adviser Fakhruddin Ahmed 
announced a partial relaxation of the ban on political activity. The 
United States has welcomed this announcement and urged the caretaker 
government to move as quickly as possible to take additional steps to 
restore civic freedoms and democracy. In particular, the United States 
has called upon Bangladesh's caretaker government to adhere to the 
electoral roadmap it announced in July 2007. That roadmap promises 
national elections by the end of 2008.
    I am heartened by indications that the electoral roadmap remains on 
track. In an address to the nation on the anniversary of January 11, 
the chief adviser reiterated his commitment to hold elections that will 
restore, not replace, Bangladesh's democracy. Bangladesh's Chief of 
Army staff has underscored that the military supports the caretaker 
government and that he does not personally seek political office. 
Bangladesh's efforts to register 90 million voters remain on track 
despite disruptions from cyclone Sidr that left much of the southern 
part of the country in ruins last November. There are encouraging signs 
that the caretaker government is cracking down on human rights abuses. 
Meanwhile, though, the United States continues to insist the Bangladesh 
Government investigate allegations of extrajudicial actions by the 
security forces, mistreatment of members of ethnic and religious 
minorities, or wrongful detention of individuals. The anticorruption 
campaign remains popular, although the government must carefully follow 
due process.
    Meanwhile, reformers within Bangladesh's major political parties 
are pushing to democratize the parties. The caretaker government has 
also responded positively to the parties' call for dialog. While these 
are ultimately matters for the Bangladeshi people to decide, the United 
States is actively following these developments. We also continue to 
monitor the court cases brought against those detained during the state 
of emergency, including the two former Prime Ministers. The United 
States--along with like-minded partners--has advised Bangladesh's 
caretaker government that it must meet international standards for due 
process, transparency, and respect for human rights in all cases.
                              development
    With respect to the United States goal of fostering development, 
Bangladesh has enjoyed several years of strong economic growth, despite 
perennial struggles against flooding, overpopulation, and poverty. 
Bangladesh needs sustained growth, if it is to escape from the jaws of 
debilitating and destabilizing poverty. The caretaker government has 
attempted to take some positive economic steps. Encouragingly, the 
Bangladesh Government has worked to expand power generation and to 
improve infrastructure. For example, the government has streamlined 
operations of Bangladesh's largest port, cutting transit times through 
the port from 9 or 10 days to 3 or 4 days, and reducing cargo handling 
costs by at least 40 percent. In the near-term, the caretaker 
government faces the daunting task of reducing inflation: Prices have 
soared due to high international commodity prices, devastating 
monsoonal floods and widespread crop damage from cyclone Sidr. Recent 
surveys and anecdotal evidence show that the people of Bangladesh worry 
more about feeding themselves than about political reforms.
    This is one reason why foreign assistance plays such a vital part 
of United States Government efforts to promote stability and 
development in Bangladesh. We have provided roughly $5 billion in 
assistance to Bangladesh since its independence. That assistance has, 
among other accomplishments, contributed to a 50 percent drop in 
Bangladesh's population growth, provided electricity to scores of 
millions of villagers, helped save the lives of hundreds of thousands 
during the most recent severe cyclone, and helped establish the 
conditions for three consecutive free and fair national elections. It 
has also built for the United States a degree of goodwill among the 
populace virtually unmatched in any other Muslim-majority country.
    Currently, the U.S. Agency for International Development manages a 
large food aid program that targets the poorest of the poor, especially 
in the countryside where the effects of floods and other disasters are 
most severe. USAID also manages a broad-based program focusing on 
democracy and governance, public health, education for the country's 
poor, and expanded economic opportunity and competitiveness. These 
programs help provide a basic social safety net and a way out of 
poverty for their beneficiaries.
    Late last year, the U.S. Government provided emergency relief to 
the millions of people whose livelihoods cyclone Sidr destroyed. USAID 
immediately provided $19.5 million in aid and the U.S. military 
immediately provided desperately needed airlift to deliver food, water, 
and clothing to remote areas during Operation Sea Angel II. The United 
States' response to the crisis received widespread and exceedingly 
favorable media coverage in Bangladesh. This has helped cement the 
friendly ties between our two countries.
    The damage from cyclone Sidr has been estimated at billions of 
dollars, and the Bangladesh Government has asked donors to help rebuild 
agriculture and aquaculture industries, to reconstruct rural 
electrification networks, and to mitigate future disasters. Bangladesh 
also needs help from donors to ensure that the most vulnerable of its 
citizens have adequate food security. The nation's grain stockpiles 
could be dangerously low by spring as Bangladesh struggles to meet the 
needs of its cyclone victims.
                     denial of space to terrorists
    Mr. Chairman, I would like to turn now to the United States 
interest in denying terrorists the use of Bangladesh's territory. 
Despite a long and admirable history of religious tolerance, Bangladesh 
has become a target of extremists in recent years. Poverty and 
political turmoil have provided some space for terrorists. Home-grown 
terrorists called the Jamaatul Mujahideen Bangladesh (JMB) 
simultaneously exploded over 400 small bombs throughout Bangladesh in 
August 2005; shortly thereafter, the JMB embarked on a terror campaign 
of suicide attacks against judges, other prominent figures, and crowded 
markets. The subsequent execution of six JMB leaders appears to have 
left the terrorist organization on the run.
    A number of press reports also indicate, however, that Pakistan-
based militant groups are using Bangladesh as a staging area and 
transit point to facilitate attacks directed at targets in India, and 
at least one of these groups, Lashkar-e-Tayyiba (LT), has been able to 
tap into resources provided by local militant groups such as Harkat-ul-
Jihad-al Islami, Bangladesh (HUJI-B) to support their operations. 
Indian press reports allege that Bangladeshi HUJI-B members and 
individuals affiliated with the LT are involved in an active terrorist 
network, operating from Pakistan and Bangladesh. Press reports also 
suggest that this particular network is responsible for a string of 
attacks in India, including the October 2005, May 2007, and August 2007 
bombings in Hyderabad and probably the October 2007 bombing of a shrine 
in Ajmer, Rajasthan as well.
    That said, Bangladesh is committed to partnership with the United 
States in the global war on terror, and the vast majority of 
Bangladesh's citizens appear to have little sympathy for the 
terrorists. The caretaker government has identified counterterrorism as 
a top priority and has actively pursued extremists. If confirmed, I 
will make it a priority to work with Bangladesh to help it counter the 
internal terrorist threat, while strengthening control of its borders 
and various ports of entry.
                               conclusion
    Mr. Chairman, in closing let me say that I look forward very much 
to the challenges I will face if confirmed as United States Ambassador 
to Bangladesh. Over the years, the people of Bangladesh have overcome 
many daunting obstacles in their search for better lives. I feel 
strongly that it is in the United States' national interest to work 
with them to help build a Bangladesh where democracy flourishes, where 
no child goes to bed hungry, and where no terrorist can find safe 
haven. If confirmed, I will work closely with Congress in pursuit of 
these goals.
    Let me also assure you that, if confirmed, I will zealously protect 
the welfare and safety of American citizens and American interests in 
Bangladesh.
    Thank you again for the opportunity of addressing you today. I 
would be happy to answer any questions you might have.

    Senator Kerry. Thank you very much, Ambassador.
    Ms. Jones.

STATEMENT OF DEBORAH K. JONES, NOMINEE TO BE AMBASSADOR TO THE 
                        STATE OF KUWAIT

    Ms. Jones. Mr. Chairman, I also welcome this opportunity to 
appear before you today as the President's nominee to be the 
next United States Ambassador to the State of Kuwait. I am also 
deeply honored by the confidence shown in me by the President 
and Secretary Rice in making this nomination and, if confirmed 
by the Senate, I look forward to working closely with this 
committee and with others in Congress to continue to advance 
the vital interests of the United States in Kuwait, and in the 
broader Middle East region.
    I'm also grateful today for a number of friends who have 
joined me from various countries in the region, as well as my 
daughter. I'm so proud of my husband, my family, and grateful 
for their steadfastness and encouragement as we have often 
served, particularly in later years, at different posts, not 
necessarily together as a family, in the world.
    Mr. Chairman, as you've already noted, the State of Kuwait 
has been a reliable partner and friend in a turbulent and 
transitional region of utmost importance to United States' 
interests. Because of this, as you noted, Kuwait was designated 
a major non-NATO ally in 2004.
    Since Kuwait's 1991 liberation from Saddam Hussein's brutal 
occupation, whose painful remnants remain visible to this day, 
United States military forces and our coalition partners have 
relied on Kuwait's indispensable material and logistical 
support for our policy priorities in Iraq, Iran, and the global 
war on terror.
    If confirmed, I will work to consolidate and expand that 
support into broader political, social, and economic arenas, to 
build and sustain a stable and democratic Iraq, and Iraq at 
peace with its neighbors, and also to maintain throughout the 
region.
    We share with the Government of Kuwait a common interest in 
combating the spread of extremist ideologies, and in rooting 
out terrorist elements that threaten our peace and security.
    If confirmed, I will seek to build even stronger and more 
robust counterterrorism cooperation to ensure the best possible 
force protection for our troops in Kuwait, as well as the 
safety of our mission employees, our family members, and the 
larger American community.
    Kuwait continues to build positively on a proud indigenous 
tradition of boisterous political discourse, somewhat unusual 
in that region. In 2005, women were granted the right to vote, 
and subsequently, nearly 60 percent of those eligible to do so 
participated in their June 2006 parliamentary and municipal 
elections.
    Since then, Kuwait has witnessed further democratic 
advancements, including increased press freedoms, and a much-
needed redistricting law. If confirmed, I will endeavor to help 
Kuwait consolidate and expand those democratic gains, 
consistent with Kuwait's own goals and with the President's 
freedom agenda, to include supporting the development of 
additional civil society groups in advancing the rights and 
protections of vulnerable populations living within Kuwait's 
borders.
    On the economic front, we must seek to create new paradigms 
of partnership, both within and beyond the energy sphere. The 
potential for dynamic synergies between Kuwait and the United 
States, combining capital, technology, and expertise to advance 
global development compatible with current environmental and 
other concerns, is enormous. Constructive, bilateral engagement 
on trade and investment-related issues through tools such as 
the Trade and Investment Framework, will support needed reforms 
and cement our committed partnership.
    If confirmed, I will pursue ongoing policies that promote 
increased investment, trade, and project development between 
our two countries.
    Finally, if confirmed, I will expand U.S.-sponsored 
exchange and English language programs to build stronger 
bilateral ties, and thus counter the negative extremist 
influences found all too often in regional media.
    Mr. Chairman, I've served my country as a Foreign Service 
officer for more than 25 years, most recently as principal 
officer at the Consulate General in Istanbul, Turkey--another 
vital ally of the United States undergoing dynamic transition 
in a volatile region.
    Prior to that, I served in Washington as Country Director 
for Arabian Peninsula Affairs, and the lead up to the March 
2003 engagement in Iraq.
    My experience with the region includes overseas postings in 
Baghdad, Tunas, Damascus, Riyadh, and the United Arab Emirates, 
and I look forward to continuing to serve the American people 
in Kuwait.
    If confirmed as ambassador, I will work with persistence, 
with enthusiasm, and with stamina to protect American citizens 
and promote U.S. interests, while consolidating and augmenting 
the close ties between our leaders and our peoples.
    Again, Mr. Chairman, I'm honored by this nomination and the 
opportunity to appear before you today, and I would be pleased 
to answer any questions you may have.
    Thank you.
    [The prepared statement of Ms. Jones follows:]

             Prepared Statement of Deborah K. Jones to be 
                   Ambassador to the State of Kuwait

    Mr. Chairman and members of the committee, I welcome this 
opportunity to appear before you today as the President's nominee to be 
the next United States Ambassador to the State of Kuwait. I am deeply 
honored by the confidence shown in me by President Bush and Secretary 
Rice in making this nomination. If confirmed by the Senate, I look 
forward to working closely with this committee, and others in Congress, 
to continue to advance the vital interests of the United States in 
Kuwait and in the region. I am joined today by my daughter, Ana, a 
sophomore at the Madeira School here in Virginia. My husband, Rick 
Olson, also a Foreign Service officer, is serving as Deputy Chief of 
Mission at USNATO, and our 12-year-old, Isabella, is happily serving 
with him there. I am so proud of them and grateful for their 
steadfastness and their encouragement.
    Mr. Chairman, the State of Kuwait has been a reliable partner and 
friend in a turbulent and transitional region of utmost importance to 
United States' interests; because of this, the President designated 
Kuwait a major non-NATO ally in 2003. Since Kuwait's 1991 liberation 
from Saddam Hussein's brutal occupation, whose painful remnants remain 
visible to this day, United States military forces and our coalition 
partners have relied on Kuwait's material and logistical support for 
our policy priorities in Iraq, Iran, and the global war on terror. If 
confirmed, I will work to consolidate and expand that support into 
broader political, social, and economic arenas to build and sustain a 
stable and democratic Iraq at peace with its neighbors, and to maintain 
security throughout the region.
    We share with the Government of Kuwait a common interest in 
combating the spread of extremist ideology and rooting out terrorist 
elements that threaten peace and security in the region. If confirmed, 
I will seek to build even stronger and more robust counterterrorism 
cooperation to include increased information sharing, intensified 
training efforts, and the careful evaluation of existing cooperative 
programs to ensure the best possible force protection for our troops in 
Kuwait, as well as our mission employees, family members, and the 
larger American community.
    Kuwait continues to build positively on a proud, indigenous 
tradition of boisterous political discourse. In 2005, women were 
granted the right to vote; subsequently, nearly 60 of those eligible to 
so do participated in their June 2006 parliamentary and municipal 
elections. Also in 2006, the Government of Kuwait respected 
constitutionally mandated procedures in appointing its new leader, Amir 
Sheikh Sabah Al-Ahmed Al-Jaber Al Sabah. Since then, Kuwait has 
witnessed further democratic advancements, including increased press 
freedoms and a much needed redistricting law. If confirmed, I will 
endeavor to help Kuwait consolidate and expand those democratic gains, 
consistent with the President's Freedom Agenda, to include supporting 
the development of fledgling, grassroots women's organizations, civil 
society groups and other activists, and advancing the rights and 
protections of vulnerable populations living within Kuwait's borders.
    In addition to deepening our security cooperation and advancing 
President Bush's Freedom Agenda, we must seek to create new paradigms 
of economic partnership, both within and beyond the energy sphere. The 
recent historic deal between DOW Chemical and the Kuwaiti Government, 
the largest of its kind in Kuwait's history, exemplifies the kind of 
creative initiatives that are possible. The potential for dynamic 
synergies between Kuwait and the United States, combining capital, 
technology, and expertise to advance global development compatible with 
current environmental concerns, is enormous. Constructive bilateral 
engagement on trade and investment-related issues, through tools such 
as the Trade and Investment Framework (TIFA), will help support needed 
reforms and cement our committed partnership. If confirmed, I will 
pursue ongoing policies that promote increased investment, trade, and 
project development between our two countries.
    Finally, if confirmed, I will expand U.S.-sponsored exchange and 
English language programs and utilize Middle East Partnership 
Initiative (MEPI) funds to reach a broad spectrum of young citizens and 
future leaders throughout Kuwaiti society. These programs ensure 
stronger bilateral ties and thus counter the negative extremist 
influences found all too often in regional media.
    Mr. Chairman, I have served my country as a Foreign Service officer 
for more than 25 years, most recently as principal officer at our 
Consulate General in Istanbul, Turkey, another vital ally of the United 
States undergoing dynamic transition in a volatile region. Prior to 
that, I served in Washington as Country Director for Arabian Peninsula 
Affairs in the lead up to the March 2003 engagement in Iraq. My 
experience with the region includes four Washington assignments 
directly related to the Near East and overseas postings in Baghdad, 
Tunis, Damascus, Riyadh (as a dependent spouse) and the United Arab 
Emirates. I look forward to continuing to serve the American people in 
Kuwait.
    If confirmed as ambassador, I will work with persistence, 
enthusiasm, and stamina to protect American citizens and promote U.S. 
interests, while consolidating and augmenting the close ties between 
our leaders and our peoples. Again, I am honored, Mr. Chairman, by this 
nomination and the opportunity to appear before you today. I will be 
pleased to answer any questions you may have.
    Thank you

    Senator Kerry. Well, thank you very much, each of you, for 
good, solid statements.
    But, you just mentioned, Ms. Jones, in your statement, 
working to deal with this issue of the radical challenge, and 
so forth. Can you each share with me, based on your experience 
in these countries and this region, and just watching what's 
going on, what you think the most advisable and important steps 
are for us to take that would have an impact, in your 
judgment--not just in the country you're going to serve in, but 
speak to that specifically--and also, this is a larger issue 
regionally, and if you could address your sense of how we could 
best contribute in our policies to facilitate that minimization 
of radicalization?
    Ms. Jones. Obviously, we have a lot of programs that are 
funded right by the Middle East Partnership Initiative that 
involve exchanges and a lot more outreach. My sense, and my 
experience based in Turkey and elsewhere, is that we are 
perfectly capable of competing in the vast world of ideas, and 
similar to what happened prior, previously with the cold war, 
the United States can honestly debate in public fora, what the 
choices are.
    I think some of the choices may not appear to some people 
to be as stark as they were during the cold war, in the sense, 
then, that we had clear--no freedom of religion and a broken 
economic system. Now the challenge is much more subtle. But my 
sense and my experience is that, when people participate in the 
free dialog that is in our society, within our own society--
when they come and study in the United States, when they see 
us, here, and see the variety that is here, it assists them in 
putting into broader context and more accurate perspective--the 
freedoms that we enjoy, the excesses that they may observe 
coming--what they perceive to be excesses coming out of our 
society--and where that really fits in the broader scheme of 
human freedom and personal choice.
    I think it's in large part an educational issue. And our 
being comfortable and open about speaking to all of the issues 
and not shying from it. Maybe that sounds simplistic, but 
that's what I've seen work in Turkey.
    Senator Kerry. So, your biggest single thing, you think, is 
on the cultural exchange side?
    Ms. Jones. I would go beyond that to even say, I think that 
whenever we bring a young person to the United States, or 
whenever they engage with us, they become a force multiplier, 
particularly in the age of blogging, when they can go back and 
say, ``This is what I saw, this is what it really was.''
    I think right now, in fact, the best advertisement we have 
for our system is our elections. I know so many young people 
throughout the Middle East who are watching, fervently, what 
happens in the United States elections, watching the debates, 
and watching democracy in practice. And when they see that, 
that has a far greater impact on them then any kind of pamphlet 
we could ever issue. I think that's the advantage we have, 
actually, with the Internet right now, and with global 
communication.
    Senator Kerry. Ambassador Moriarty.
    Ambassador Moriarty. I'd like to endorse what Deborah has 
said. I would also point out, though, that the issue in South 
Asia is actually a little bit different from the issue in the 
gulf and points further west.
    Basically, in South Asia, you traditionally have had 
relatively little support for the more extreme forms of Islam. 
So, when terrorism does come into places like Bangladesh or 
India, it's usually an imported ideology. And why does it come 
in? It comes in because of poverty, it comes in because of a 
lack of options. I've actually been told that in Bangladesh, 
the United States has about its highest reputation in any 
Muslim majority country in the world. Why is that so? Frankly, 
it's so because we have stayed engaged with Bangladesh since 
independence in 1971.
    I look at other places where we come in, then come out, and 
our reputation is not as strong. So, I think it's important 
that we remain engaged--when I say remain engaged, I do 
heartily endorse the concept of as many exchanges as possible, 
but in the grindingly poor countries of South Asia and other 
impoverished parts of the Muslim world, that also has to have a 
very strong economic component.
    Senator Kerry. Ambassador Scobey.
    Ambassador Scobey. Mr. Chairman, again, I would agree with 
my colleagues as well, but in addition, I think we need to also 
realize, and again, based on my experience in the last several 
years, even though the challenge of extremism is keen and very 
real to Americans, I think we also need to realize that the 
societies in the region have also been, in some ways, taken by 
surprise and shocked by the violence that has emerged from 
their societies.
    And one of the most important parts of the response to 
extremism, I believe, is taking place in these countries 
themselves, through voices of moderation, moderate clerics, 
government leaders, political leaders--they're all speaking out 
and working together. I think it is our challenge to make sure 
that we have outreach to these opinion makers inside countries, 
to assure that they understand what the United States stands 
for, what our principles are, because they are the true--they 
have the true ability to get out into their own communities, 
and to affect the views of the youth of today, and the 
attitudes that they will shape, then.
    Senator Kerry. Just following up--can aid policy, and 
cultural policy, exchange policy, overcome the hurdles of 
perceptions of our larger foreign policy? In other words, how 
an administration is perceived in a region because of larger 
decisions, like Iraq, or Abu Ghraib, Guantanamo, things like 
that? Do you think you can fender through, notwithstanding, or 
do those other things have a serious impact on your ability to 
achieve your goals on a more implementation/practical level?
    Ambassador Scobey. Sir, I think that the U.S. aid policies, 
our economic programs in countries, our cultural programs and 
exchanges are some of the tools that we have. There is also an 
ongoing need for continued speaking out, publicly and 
frequently to--as I said--to make clear what our values are, 
what the United States stands for, and often to explain our 
policies. We may not always find agreement with our policies 
overseas, but I think that our honest effort to explain, and to 
reach out, and to listen, to respond, does maintain the kinds 
of ties that we will need to eventually overcome the challenge 
of extremism throughout the region and the world.
    Senator Kerry. What do you think, and with respect to the 
current relationship with Egypt--visiting Senators, visiting 
Secretaries of State, visiting Presidents--have had 
conversations about human rights, opening the democracy, 
accountability, et cetera. But last year, even, our own State 
Department's report was pretty tough on what's happening in 
Egypt.
    You know, we are grateful for Egyptian support in a lot of 
respects. And, I think they know that, and I hope they know 
that. And they have, and can, play a very constructive role 
with respect to the peace process. So, are we the prisoners of 
those other needs in that you can't leverage anything? Or is it 
that we've made a more pragmatic decision here about what we 
can do?
    Ambassador Scobey. Sir, I believe that our goals and 
objectives in Egypt, our strong strategic cooperation are not 
in conflict with our goal, and our encouragement for a 
democratic reform, and respect for human rights. The visits of 
Senators, of senior administration officials, the work of our 
diplomats in the field--keep these issues to the front. And I 
would say that other parts of the world have also brought these 
issues to Egyptian attention.
    We have, as you know, a number of other efforts underway to 
work with civil society directly, to work with trying to build 
the rule of law and institutions of government that will help 
Egyptians form opinions about what good governance is. I don't 
believe that this is an issue, as I said, where our goals are 
in conflict, but I agree that it is a work of--that may take 
time, so that all Egyptian voices will eventually be able to be 
heard.
    The government--the leaders in the government themselves 
have, over time, acknowledged and pointed to areas where they 
need reform to take place. That hasn't happened. I think it is 
our goal--I know the President has made clear, even on his last 
trip--that he would like to see the Egyptians take a more 
leading role in the region, to promote democratic reform and 
justice.
    We believe it is, certainly, a capability, and we will 
continue to encourage that, as we can. But, I don't believe 
that there is a conflict in our goals here.
    Senator Kerry. And, do you have a view with respect to the 
linking of aid and human rights progress?
    Ambassador Scobey. Well, sir, as you know, the 
administration very strongly opposed the conditionality element 
of the security assistance, economic assistance package. And, 
on the belief that it does, it will not help leverage or move 
Egypt toward specific changes that we have articulated for 
them.
    Senator Kerry. The President and the Secretary, as I've 
said, have repeatedly urged the Egyptian Government to ``show 
the way'' toward democracy in the Middle East. But the most 
recent State Department human rights report called the record 
on human rights ``poor.'' And there are many who are certain 
that Egypt has regressed on democratic reform. What would you 
say about that?
    Ambassador Scobey. I would say that the path toward 
democratic reform that many voices inside Egypt and many 
international observers, including our own observers--both from 
NGOs and from our embassy--have clearly pointed out that the 
government has not taken enough steps toward genuine, 
democratic, political reform. There are certain issues out 
there now that have been particularly noteworthy, and in the 
press the detention of Ayman Nour has been a particularly 
difficult action for us to understand, as to why he remains in 
detention, and it is our--I will certainly, if confirmed--
continue to promote, and to urge that the Egyptians release 
him.
    And there are other examples, as well, of what--where their 
actions have not matched what we had understood of their intent 
to be. If confirmed, I will continue to promote these issues, 
and we will continue to work directly with civil society, and 
other Egyptians who are really also seeking further reform 
within Egypt.
    Senator Kerry. And what is your interpretation of the 
current state of threat of the Muslim Brotherhood?
    Ambassador Scobey. Well, as you know, the Muslim 
Brotherhood, as an organization, is illegal in Egypt. And I 
don't think I have really good data as to what its ultimate 
strength is. But it is a potent force throughout the region, it 
has been attractive to a number of publics throughout the 
Middle East. It--although it did not run in elections because 
it could not--there are a number of independent candidates in 
the Egyptian parliament that most experts believe are, in fact, 
affiliated with the Muslim Brotherhood and they captured a good 
number of votes in the last parliamentary elections.
    Senator Kerry. What's your attitude about the political 
banning with respect to them? I mean, obviously the 
experience--and I've heard this from President Mubarak, and 
we've all seen it--our pressure for an election in the West 
Bank, against President Abbas is--well, then Abu Mazan's pleas, 
and the Israeli pleas--resulted in the election of Hamas. And 
one of those things that people often talk about is, if you 
push that process too fast to a place you don't know, you 
better look out what you get as a result. Do you think there is 
that threat? That if you sort of open it up and the Muslim 
Brotherhood were legitimate, that you would in fact have a more 
radical outcome, and greater instability in Egypt?
    Ambassador Scobey. Sir, I think that Egypt can open up its 
political system to greater political pluralism, it will be a 
question for Egyptians to be able to define that. But what we 
see now, is that there are many, many obstacles to the 
registration of new parties and their ability to act.
    Of course, as I said, the Muslim Brotherhood--although 
illegal--there are many in Egypt that are drawn to its ideas, 
and I think we believe that if the political process were 
opened up so that other political parties could emerge, 
Egyptians would be able then, to have their choice of possible 
solutions to some of the political challenges that they 
currently face.
    Senator Kerry. Would you agree that there is some 
sensitivity in the Egyptian population about foreign 
interference, particularly American interference in their 
political system?
    Ambassador Scobey. Sir, I can't answer specifically, 
because I have not really be able to test this in Egypt, but 
certainly from my experience in the region, I think it is a 
fairly standard sensitivity, of the appearance of any foreign 
power telling them what to do.
    Senator Kerry. Is there the possibility that, as we promote 
political reform, we can also alienate the secular reformists 
and as well as frustrate the ruling elite?
    Ambassador Scobey. Well, sir, I think if we couch our goals 
and objectives in terms that are consistent with international 
standards for political pluralism and political freedom, I 
think that we, at the end of the day, we will be able to defend 
our position, in that we will win more friends in Egypt.
    Senator Kerry. Have you been given any specific 
instructions, with respect to enforcement on the Gaza border 
and the arms trafficking and tunnels?
    Ambassador Scobey. Well, sir, as you know, I'm not yet 
confirmed, so I haven't. But my understanding of where the 
situation is----
    Senator Kerry. Well, the process of prepping up for this 
and for everything----
    Ambassador Scobey [continuing]. Yes, yes. Yes, sir.
    Senator Kerry [continuing]. Have they----
    Ambassador Scobey. It's clearly a--has been even before the 
January 23rd breach--been a topic of a lot of concern, both to 
Egyptians, clearly to the Government and people of Israel and 
to others--it is a vulnerability. On the 23rd, the Egyptians 
were overwhelmed with the number of people pushing through, and 
an operation appears to have been coordinated by Hamas. The 
Egyptian Government was extremely sensitive to the possibility 
of civilian injuries, and were very, very careful to try to 
prevent violence from breaking out.
    They have gradually pushed most people--encouraged most 
people--to get back into Gaza, and have tried to reseal the 
border. I think they are looking, talking--I think the good 
element here is that they are talking very closely, I 
understand, with the Israelis, with the Palestinian authority 
to try to find a way to improve the situation on the Rafah 
border. And as you know, with regard to the tunneling and 
smuggling problem that preexisted, the Egyptians have already, 
I think, submitted requests for some specialized technical 
equipment that will help them monitor the terrain, and try to 
mitigate the problems of these tunnels that have been there for 
30 years.
    Senator Kerry. Ambassador Moriarty, what would you define 
as the principal challenges right now, with respect to 
Bangladesh? You mentioned the Muslim issue in your comments, 
also.
    Ambassador Moriarty. I look upon the three issues that I 
raised as intertwined. We have to address all of them, they 
have to be addressed together--one is democracy----
    Senator Kerry. Development, the----
    Ambassador Moriarty [continuing]. The move back toward 
democracy, the other is development, increasing prosperity. The 
third, which sort of overlays both of the other two, is the 
desire to deny space to international terrorists.
    Senator Kerry. How do you think we best do that?
    Ambassador Moriarty. Well, I think we have to----
    Senator Kerry. With that kind of populace, with that kind 
of order, movement, et cetera?
    Ambassador Moriarty. In terms of denying space to the 
terrorists, I think we have to play on the already considerable 
suspicion of extreme Islam on the part of most of the 
Bangladeshi people. I think we do that by encouraging a 
return--as quickly as possible--to democracy. And I think we do 
that by encouraging steady development of the economy.
    You remember that they were hit very hard by a cyclone in 
November--set back years of development progress down in the 
south. We are looking at a package to help with that, and I 
would hope that we will be bringing it to Congress in the 
coming weeks.
    Senator Kerry. So, is it your judgment or the judgment of 
the administration, I suppose I should ask, that the military 
is resolved to withdraw from the political domain, and 
facilitate transition?
    Ambassador Moriarty. They continue to say so, sir. The 
chief advisor who, of course, is the chief civilian official, 
has repeated his commitment to this timetable of elections by 
the end of this year. The Chief of Army Staff has reiterated 
his determination to see this process move forward. He has 
consistently said he has no desire for political office, and he 
want to see the Army go back to the barracks by the end of this 
year.
    Senator Kerry. Have we identified factions that are opposed 
to that action? That prefer to--
    Ambassador Moriarty. Within the Army? No, sir. In fact, I 
think that what happened was, after a few months of relative 
calm last year, there were riots at the universities. I think 
they looked at the--the military looked at the situation in 
Pakistan, and I think there was a decision reached at some 
point last year that, ``Gee, we really do have to make this 
work. There is no alternative to marching back toward 
democracy.''
    Senator Kerry. How would you assess the influence and 
relationship that we have with their military?
    Ambassador Moriarty. I think it is strong. We have had 
training programs for a long time. A lot of their senior 
officers have studied in U.S. courses. We do have a big 
question, a human rights question related to something called 
the ``Rapid Action Battalions''--that is the elite group that 
was set up to fight terrorism, to fight crime within the 
country. Up to now, we don't really have a formal relationship 
with them. We want to improve their human rights record as a 
precondition for any sort of improved engagement with them.
    Senator Kerry. And how would you assess regional 
relationships with Bangladesh?
    Ambassador Moriarty. Well, again, I would rather let those 
kind of speak----
    Senator Kerry. Has the political change, the military 
government altered that balance in any way? Our relationship?
    Ambassador Moriarty. Well, I think right now, Bangladesh's 
neighbors are willing to give the current government the 
benefit of the doubt and say, ``Okay, you have a timetable, 
move on it.'' I don't think any of the neighbors would be 
comfortable if, as you suggested, there might be further 
military moves in the future. That would isolate the 
Bangladeshis.
    Senator Kerry. And how has the political turmoil impacted 
the status of the Islamist radicals in the country at this 
time?
    Ambassador Moriarty. Well, you hear--oh, excuse me. I was 
going to say, you hear varying things on that issue. Some 
people assert that they are making progress because they have 
not had as many of their leaders arrested in the anticorruption 
campaign.
    Others assert that there is no evidence of any groundswell 
of support for the Islamic parties. I would remind you, in the 
last election they gained something like 6 percent of the total 
vote.
    Senator Kerry. You mentioned the cyclone, natural disaster, 
et cetera--this is an ongoing thing. We seem to always have a 
setback, whether it's a tidal wave, or you know, whatever. Are 
you aware of whether or not they are currently focused on 
taking steps, both in terms of their development policies and 
other policies, to deal with the potential of climate change 
having a profound impact on them?
    Ambassador Moriarty. They are extremely worried by climate 
change. Their fears are that Bangladesh, which is very, very 
low, would end up being one of the countries worst affected by 
climate change in the future.
    Much of what we've been doing with the Bangladeshis, in 
terms of trying to improve their structure--infrastructure, to 
protect against cyclone, to protect against tsunami--does, of 
course, actually help out with respect to that, too.
    They do need, they assert, a lot of help in improving the 
infrastructure down south, much of which was hit very hard by 
this latest cyclone.
    Senator Kerry. When you say ``a lot of help,'' what are you 
talking about?
    Ambassador Moriarty. They estimated that the economic 
damage and infrastructure damage was about $2 billion that need 
to be repaired.
    Senator Kerry. Have commitments been made with respect to 
that?
    Ambassador Moriarty. Yeah, there have been--we're still 
looking at exactly what we need to do. In fact, we have teams 
out in the field in Bangladesh right now, including from the 
military, looking at what sort of infrastructure projects are 
necessary.
    Senator Kerry. And what about the--do you have an 
assessment from the administration, anticipation as you 
approach this--about the prospect for elections, i.e., that 
they will be held? That they will be accountable and open? 
What's your take on that at this point?
    Ambassador Moriarty. Well, we are encouraged by the steps 
that are being taken, to date. Basically this roadmap, just--
included the final goal, it laid out the steps that needed to 
be taken to get to that goal.
    Probably the most important is coming up with a revamped 
voters list that is much more foolproof than what they've had 
in the past. They're doing that pretty well, and progress to 
date is encouraging.
    So, I would say that we have seen nothing to indicate that 
they're going to back off or shy away. And we, of course, are 
out there. And I, of course, if I get confirmed, will go out 
there to drive home the message that they need to make 
progress, and they need to hold the election on time.
    Senator Kerry. Your confidence level about that?
    Ambassador Moriarty. Reasonably high. I mean, not having 
set foot in the country yet, but again, everything we've seen 
indicates that they are headed in the right direction.
    Senator Kerry. Thank you.
    Ms. Jones, Kuwait is an interesting and complicated place. 
I remember, I was there with Strom Thurmond and Pat Moynihan, 
literally, the day the al-Sabah family returned to their palace 
after the invasion had been repelled. And I remember having a 
long conversation with them about their gratitude, and our 
interests and mutual interests and so forth.
    We've had some hiccups in between then and now, that sort 
of raise some questions about that. On the other hand, they are 
a very important staging area for us, and we couldn't be doing 
a lot of things we're doing, or pose some of the strategic 
positioning that we do without their supports. How would you 
characterize that relationship right now? Where do you see 
those strategic interests? And how would you describe the 
relationship?
    Ms. Jones. Mr. Chairman, I would say that Kuwait's 
relationship with the United States remains the bedrock of its 
security strategy. And the mutual benefits of that relationship 
remain pretty clear and compelling, as evidenced by the amount, 
the support--both material and logistical--that Kuwait provides 
for us, as well, which is something to the tune of a billion 
dollars a year.
    And that doesn't necessarily include the fuel arrangements 
we have, and other things. The generous support they've given--
of course, in their interest, as well.
    But because Kuwait sits at this nexus of very critical--in 
a very critical area, but of a unique set of political and geo-
political circumstances, I think that relationship is going to 
continue, I have no doubt of that. And in that sense, there's 
an advantage for us.
    It's also a small and wealthy and relatively agile society 
in some respects. It's a young society. As you've commented 
earlier, Mr. Chairman, the--as with most of these populations, 
more than 60 percent of the society is under the age of 30, 
more than 40 percent is under the age of 15, in fact, I 
believe, in Kuwait.
    They do have an active and vociferous, sometimes, 
parliament, and they do deal with other dynamics internally 
that some of these other countries do not deal with in the 
region, which can, at times, make them appear to be less 
forthcoming.
    You mentioned Annapolis, for example. The fact is that as 
their foreign minister later explained, Kuwait is not a member 
of the Arab Peace Initiative Committee that did attend 
Annapolis and did represent a number of countries that were not 
part of that committee. But they had already agreed, in 
advance, to follow the lead of the committee in providing 
support, and they all subsequently pledged $300 million in 
assistance to the Palestinians.
    I think the issue with Kuwait on the three--on the areas of 
importance for us, for example, with Iraq, sustaining their 
support, but--and expanding that support into commercial 
investment, and other areas that will solidify and stabilize 
Iraq's ability to function as an independent and a good 
neighbor-good, stable, democratic neighbor. Obviously, Kuwait 
has historical concerns about Iraq, which are somewhat 
justified in many people's minds there.
    I would say that the same goes with the peace process--
there have been a number of commitments that we need to work 
with them to follow up on, in terms of their support for the 
Palestinians, for the Palestinian authority.
    Frankly, their record in terms of compliance is not quite 
as good as a number of our other gulf friends has been--beyond 
the initial commitment. Moving back to Iraq, I think you had--
someone had commented on that earlier--the level of support, 
what--Kuwait has made a number of commitments for project 
assistance, and I think part of the question there is waiting 
for Iraqis to direct--to decide themselves, the Government of 
Iraq--which are the projects that merit the assistance. And my 
understanding was that this month, someone was coming from the 
Ministry in Iraq to talk to the Kuwaitis about specific 
assistance.
    There's no question that we need to work, and if confirmed, 
these will be areas that I will press on, to push for that 
support, and to be forthcoming with it.
    On the freedom agenda--and this is, again, where Kuwait has 
a unique environment, it's gone back and forth over the years--
but in fact the march has been fairly steadily forward in terms 
of women's rights and other issues--there's a large problem 
that remains with the treatment of domestic workers in Kuwait.
    This is an area of concern for us. Recently, they did open 
a shelter, for example, for domestics. But more needs to be 
done to ensure that, again, those vulnerable populations are 
protected within Kuwait, and that's one of, if confirmed, that 
one of the areas that I will work with them on.
    Because as they--because they know it's the right thing to 
do, too. As Kuwait moves forward and continues to progress as a 
full player in the modern world, with international standards, 
they know that's the right thing to do.
    Senator Kerry. Do you have any sense of whether or not 
rivalries within the al-Sabah family for succession may or may 
not complicate that relationship that you've described? The 
strategic relationship we have?
    Ms. Jones. Well, I--obviously I'm not in a position right 
now, Mr. Chairman, to comment on a lot of those. However, I 
would only note that in the transition, I mean, as the current 
emir was selected, they followed their constitutional processes 
and I think that was a very encouraging thing.
    Again, and I don't mean to be Pollyannaish, but I think 
with increased transparency, and with the transparency that 
comes with their young population not only observing what 
happens here and, amongst their own society and their 
communication with each other--they do, I think, feel and 
understand that they have an obligation to play according to 
established rules, and they do have a constitution, and they 
have followed that.
    Senator Kerry. To what extent are there, is there evidence 
of Kuwait citizens and/or organizations who finance terrorist 
activities?
    Ms. Jones. This is, I think, the challenge of tracking and 
countering the flow of terror financing, is a huge challenge, 
one that I've dealt with quite a bit in previous assignments. 
And it certainly remains an item of concern in Kuwait. It's a 
place where a lot of cash does flow in and out of the country, 
and obviously, therefore, it's a place that people who want to 
exploit these avenues will seek to exploit, given its location.
    The Kuwaitis have taken a number of steps over the past 
several years to increase the monitoring and tracking of money, 
primarily that's been given through charitable organizations, 
which is hard to track. They have put in place with their 
central bank and other things, systems for tracking. Obviously, 
more can be done, and that's certainly an area where we seek to 
work more intensely with them to improve the mechanisms, not 
only for the flow of the money itself, but for surveillance, et 
cetera, of individuals who might be involved with that.
    Senator Kerry. Are you aware of--how would you describe al-
Qaeda influence, and/or presence in Kuwait?
    Ms. Jones. I am aware that are some who are very concerned 
about the growing influence and presence of al-Qaeda in Kuwait, 
perhaps in the sense of the Whack-A-Mole effect. As the Saudis 
have clamped down, and al-Qaeda looks for more fertile grounds 
where they might feel that they aren't under the same level of 
observation or monitoring.
    The Kuwaitis feel--share this concern with us, deeply--and 
it is a small society, which gives them a certain advantage in 
the sense that they can monitor. Obviously, there's more to be 
done on that side, as well, but it's probably something that's 
best discussed in another venue.
    Senator Kerry. What about infiltrators from Iraq and/or 
Iran, and Iran's regional policies? How do those impact Kuwait?
    Ms. Jones. Well, obviously, on the Iraq side, of course, 
Kuwait is deeply concerned about flows back and forth over the 
border. And I think that's one of the reasons that they've been 
so receptive to having us there as a presence, and would hope 
to have us there for a time to come.
    With respect to Iran, it's obviously--I would have to, 
honestly, Mr. Chairman, look more in terms of infiltration. I'm 
not aware that that is a big problem, per se, infiltration from 
Iran.
    I do know that the Kuwaitis have a regular dialog with 
Iran. The Foreign Minister was there, recently. They have 
assured us that the purpose of this dialog is to convey our 
concerns, and to convey their own concerns to Iran about 
Iranian activities in the region.
    Senator Kerry. So, what do you understand to be the like 
strategic interests here, between Kuwait and us? And are there 
different strategic interests that conflict with that?
    Ms. Jones. Quite honestly, I don't see that we vary. 
Perhaps I'm lucky in this sense, but I don't see that we have 
great--that there's a great deal of light between our strategic 
interests, and Kuwait's, frankly.
    I think we want the same things--we don't want a 
weaponized, an Iran that has nuclear weapons. We don't want an 
Iraq that is unstable, and a playing field for al-Qaeda. We 
don't want al-Qaeda active in the region, and extremism. We 
want development, we want a peace in the Middle East. I think 
Kuwait has been extremely supportive of the Arab Peace Plan, 
certainly, and others in support for the Palestinian Authority, 
as well as--I am, I think at the right time there will be--I 
don't think there will be problems in coming to full peace with 
Israel--although I'm probably stepping out of my role here, I'm 
speculating, obviously, which I shouldn't do--but I don't see 
any impediment to that. They are as concerned as we are about 
instability in the region.
    And I think, at the same time, they have undertaken, on 
their own, not only in response to pressure from us, but their 
own society is undergoing important democratic transition and 
changes and development, and they have the luxury of being able 
to afford a lot of that, as well.
    So, I think that we're actually, pretty much in step with 
each other, strategically.
    Senator Kerry. The arms sales that we currently have on the 
table with respect to the region--how do see that affecting 
that relationship?
    Ms. Jones. Again, with Kuwait, it's largely--I think it's 
about a $1.4 billion package, that it's mostly kits to upgrade 
with missile defense system, it's the PAC-3. And again, I think 
that Kuwaitis would agree with us, and the famous American 
poet, that ``good defenses make good neighbors.'' Especially in 
that part of the world.
    Senator Kerry. So, coming back to, again, all three of 
you--is there any--and two of you have now served as 
ambassadors, and you've been in the region a considerable 
amount of time. Is there anything that you would say to us, in 
the Congress, that we ought to be doing on this committee, or 
in the Congress as a whole, more effectively, in order to 
facilitate what you have to try to achieve out there?
    Ambassador Scobey.
    Ambassador Scobey. Sir, I think the continuing interest and 
oversight of our mission, our roles out there, is continuing--
is a valid, very great interest and important to us. I welcome 
visits from you, from your colleagues in the Senate and the 
House, to get out and to see for yourselves, and talk to the 
leadership there. Obviously, the administration has put forward 
requests for assistance packages, certainly, for Egypt that we 
would want to work with the Senate and Congress on, in terms of 
assuring that--answering questions to try to get these 
approvals needed for this, because we believe these to be very, 
very important elements of advancing our interests in Egypt.
    Senator Kerry. Yes, sir.
    Ambassador Moriarty. Well, unfortunately, Ambassador Scobey 
stole almost all my thunder.
    Senator Kerry. That's okay, we're happy to have nonanswers 
here. [Laughter.]
    Ambassador Moriarty. But I would also stress that as a 
country goes through transition, as Bangladesh is going to be 
going through transition, I think it's important that we have 
as many codels and staffdels out as possible. Not just to 
inform the Congress of what's going on out there, but more 
importantly, to let the Bangladeshis hear that there is a 
united message here--that we do support development, that we do 
oppose the spread of terrorism, and that we do want to see that 
democratic transition completed by the end of the year.
    Another item I raised is, I think you will be getting a 
Cyclone Sidr package coming up in the coming weeks and months, 
and I hope that the Congress will look at that seriously and 
will be as supportive as possible.
    Ms. Jones. Mr. Chairman, I think that the Kuwaitis have 
been gratified that, increasingly, Congressional delegations 
who usually have used Kuwait just as a stopping point to refuel 
or change planes, en route either to Iraq or Afghanistan, have 
actually taken the time to stop in Kuwait and meet with the 
leaders there and hear some of their concerns. I think the most 
important thing we can do with Kuwait is to reassure them again 
and again that we'll be there, and that we are there, and we 
intend to be there for the long run.
    Senator Kerry. Do you foresee any logistical issue with 
respect to the potential of increased force presence there for 
over-the-horizon purposes?
    Ms. Jones. I think the Kuwaitis have shown that they're 
ready to accommodate us as we need, in fact.
    Senator Kerry. Do any of you have any potential conflict of 
interest that might arise in the conduct of your 
responsibilities in each of your posts?
    Ambassador Scobey.
    Ambassador Scobey. Sir, I've been advised by the legal 
office in State that I will have to divest myself of a few 
investments, if confirmed, and I'm prepared to do that.
    Senator Kerry. Ambassador Moriarty.
    Ambassador Moriarty. No, not that I'm aware of.
    Senator Kerry. Ms. Jones.
    Ms. Jones. No. I was required to recuse myself from 
activity in my family's business in the State of Arizona--don't 
ask me why because we have careful lawyers at State--but other 
than that, I have no other issues.
    Senator Kerry. And with respect to recusal, either of you, 
otherwise, is there any issue from which you'd have to recuse 
yourself?
    Ambassador Scobey. No, sir.
    Senator Kerry. None? Okay.
    Well, I appreciate your testimonies today. We're going to 
truly want to try to get you out there as fast as possible, 
obviously. And I'm confident that we'll move expeditiously here 
in the Senate.
    And again, I repeat, and particularly in the case of the 
two of you, Ambassador Moriarty and Ms. Jones, we're--you know, 
we hate for you to have given up your position, and respect the 
decision that you've made, and appreciate your mutual affection 
for the Foreign Service, and for your service to the country.
    And we appreciate all of you in this willingness to do it. 
It is not the glamorous, glorious job that once many people 
thought an ambassadorship was. It's hard work, and in some 
cases hardship, and sometimes dangerous. And so, we have 
enormous gratitude to all of you, and to your families, for 
your willingness to undertake this.
    And, we look forward to getting you confirmed, and get out 
there and get on the job.
    One last question, just quickly--you got any idea whether 
we're ever going to have an ambassador back in Syria again?
    Ambassador Scobey. Sir? Somehow I thought you might ask 
that.
    As you saw, Syria, it's a fascinating country with a 
wonderful feeling, and wonderful people who deserve good 
governance and prospects for their future, but I've had to, 
sadly, conclude that the choices the Government of Syria has 
made over the past 2 years since I've left have not increased 
confidence that an ambassador is going there very soon.
    Senator Kerry. Well, this hearing is not about Syria, it's 
another topic, but I appreciate your telling us that, and I 
thank you all very, very much for being here.
    Good luck, Godspeed, thank you.
    [Whereupon, at 2:12 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                Prepared Statement of Daniel K. Inouye,
                        U.S. Senator From Hawaii

    Today, the Senate Foreign Relations Committee will consider the 
nomination of James Moriarty to serve as the United States Ambassador 
to Bangladesh. I am pleased and honored to express my strong support 
for his nomination.
    Ambassador Moriarty has had a long and distinguished record of 
public service beginning in 1975, immediately after graduating from 
Dartmouth College, when he joined the Foreign Service as a political 
officer. His many assignments have included posts at the U.S. Embassies 
in Morocco, Swaziland, and Pakistan, as well as tours in Beijing and 
Taipei. In addition, he speaks Chinese, Nepali, Urdu, French, and is 
learning Bangla. His various posts have earned him numerous awards for 
his vital role in shaping U.S. foreign policy. Furthermore, these 
recognitions are a reflection of his command and knowledge of the 
issues that affect Asia, and his effectiveness as a diplomat of the 
United States.
    Most recently, Ambassador Moriarty served as the United States 
Ambassador to Nepal from 2004 to 2007, where he has been dedicated to 
end the Maoist insurgency, and to establish peace and democracy. In 
this capacity, Ambassador Moriarty has demonstrated his understanding 
of the complex issues of establishing a prosperous, democratic nation.
    Ambassador Moriarty's experience demonstrates an enduring 
commitment to advocating American foreign policy and interests, and I 
am certain that his record of public service has well qualified him to 
take on the responsibilities of serving as the United States Ambassador 
to Bangladesh.
    On a more personal note, I have had the pleasure of knowing 
Ambassador Moriarty for many years. He comes from a family dedicated to 
public service. His father-in-law, David M. Peters, served as my 
executive assistant and for 14 years, and his wife, Lauren Moriarty--a 
native Hawaiian--is a former U.S. Ambassador and career Foreign Service 
officer.
    I am confident Ambassador Moriarty is well aware of the enormous 
responsibilities that await him, if confirmed, and I have no doubt that 
he will fulfill those responsibilities with great distinction. I 
respectfully urge my colleagues on the Senate Foreign Relations 
Committee to favorably support Ambassador Moriarty's nomination.
                                 ______
                                 

        Responses of Hon. Margaret Scobey to Questions Submitted
                    by Senator Joseph R. Biden, Jr.

    Question. What is your assessment of the state of political reform 
and human rights in Egypt? What are the most important steps you expect 
to take, if confirmed, to promote human rights and democracy in Egypt? 
What do you hope to accomplish through these actions?

    Answer. According to the latest country report on human rights, the 
Egyptian Government's respect for human rights is poor, and serious 
abuses continue in many areas. The government limits the democratic 
rights of citizens and has resisted political reform.
    The administration has been committed to promoting democracy and 
human rights in Egypt. Senior United States Government officials have 
raised serious concerns about the path and pace of political reform, 
human rights, and democracy in Egypt at the highest levels and will 
continue to do so. If confirmed, this will be a high priority for me as 
ambassador to Egypt. I hope to establish a constructive dialog with the 
government and with civil society advocates as both are necessary to 
the expansion of political freedom and democratic pluralism, respect 
for human rights, and rule of law that we seek. We intend to sustain 
existing programs and create additional initiatives to assist in 
democratic development in Egypt.

    Question. Despite personal pleas from President Bush and the 
cancellation of a trip to Egypt by Secretary Rice, opposition leader 
Ayman Nour remains in jail. What will you do to try to secure his 
release?

    Answer. The administration remains troubled by the continued 
imprisonment of Ayman Nour. His conviction and imprisonment raises 
serious concerns about Egypt's commitment to democracy, freedom, and 
the rule of law and is inconsistent with the Egyptian Government's 
professed commitment to increased political openness and dialog within 
Egyptian society.
    If confirmed, I will continue to press the highest levels of the 
Egyptian Government to release Mr. Nour under Egyptian law. His release 
would be an important step in human rights promotion in Egypt, and one 
that I will try to encourage.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Egypt in advancing 
human rights and democracy in general?

    Answer. The conditions in Egypt for advancing human rights, 
including specific cases, present both opportunity and challenge. The 
citizens of Egypt, both within the government and outside, are 
searching for ways to address the country's future needs--economic, 
social, and political. They have not reached consensus. The challenge 
for any foreign person or entity is to find a balance between providing 
support and encouragement, while not interfering in domestic matters.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
post activities? If confirmed, what steps will you take to ensure that 
Foreign Service officers who engage in human rights activities are 
encouraged and professionally rewarded for superior service?

    Answer. Embassy Cairo's Mission Performance Plan (MPP) explains in 
detail post's human rights objectives. If confirmed, I will use the MPP 
as a framework to ensure that the embassy's country team promotes our 
human rights and democracy agenda. All agencies and offices at the 
embassy are represented in the country team and it affords an 
opportunity to discuss how every office can contribute to our reform 
plan.
    As a career Foreign Service officer, I understand the importance of 
recognizing and rewarding the work of outstanding officers. If 
confirmed, I will use the evaluation process and award system to 
recognize superior performance.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and Egypt, including those facing 
internal political pressure, who are working to promote human rights?

    Answer. If confirmed, I plan to meet regularly with nongovernmental 
organizations (NGOs) in the United States and Egypt who would welcome 
such meetings.
    The United States Agency for International Development (USAID) in 
Egypt has provided $3.1 million to the National Democratic Institute 
(NDI), $2.8 million to the International Republican Institute (IRI) and 
$3.9 million to International Foundation for Electoral Systems (IFES) 
to promote domestic election monitoring; provided training and 
technical assistance to Egyptian political parties; and worked with 
civil society organizations advocating for political and electoral 
reform. Since 2006, USAID has provided $800,000 to Freedom House to 
link Egyptian civil society advocates with counterparts throughout the 
Arab world through training, technical assistance, mentoring, 
professional fellowships, small grants and regional coalition building, 
and protection strategies. Also, the Middle East Partnership Initiative 
is providing $2 million to the International Labor Organization to 
undertake efforts to strengthen independent labor unions. If confirmed, 
I will continue to support these programs.
    In addition to support for United States' NGOS, USAID provides 
direct support for Egyptian NGO's that foster civil society. These 
programs have already produced a large cadre of several hundred 
election monitors. Through grants to Egyptian NGOs, we continue to 
support innovative Egyptian reform initiatives in political and 
electoral reform, increased political participation, civil society 
strengthening, civic education, human rights, women's rights, community 
development, independent media, and transparency.

    Question. If confirmed, how would the United States embassy monitor 
Egypt's compliance with the Leahy Law prohibiting United States 
assistance to foreign military units if there is credible evidence of 
human rights violations? Will you affirm that any Egyptian security 
force unit that is credibly alleged to be engaged in gross human rights 
violations is ineligible to receive United States assistance or to 
train with United States forces?

    Answer. If confirmed, I will continue to ensure that the United 
States embassy in Egypt continues to fully comply with the Leahy Law. 
Currently, all prospective training participants are rigorously vetted 
for suitability by the embassy, and appropriate offices at the State 
Department, including the Bureau of Near Eastern Affairs, the Bureau of 
Democracy, Human Rights and Labor, and the Political-Military Bureau 
review the names. If any Egyptian security force unit is credibly 
alleged to be engaged in gross human rights violations, it is 
ineligible to receive United States assistance under the Foreign 
Assistance Act or Arms Export Control Act.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What was the 
impact of your actions?
    Answer. As a political officer in Jerusalem, Kuwait, and Iraq, as 
Deputy Chief of Mission in Yemen and Riyadh, and Chief of Mission in 
Syria, the advancement of human rights and democracy has been a 
significant priority in all of my assignments.
    As Deputy Chief of Mission in Yemen, I found an environment open to 
United States assistance with democratization. I worked closely with 
the National Democratic Institute (NDI) and the International 
Foundation for Electoral Systems (IFES) to prepare Yemen for the 1997 
parliamentary elections. I encouraged women's groups to focus on voter 
registration and turnout--with higher numbers of women voting in 1997 
than in 1993. I supported NDI's successful international election 
monitoring program and approached election commission officials to pave 
the way and facilitate their cooperation with IFES. In advance of the 
presidential elections in 1999, I made the rounds of political 
opposition parties to persuade them to field candidate for president.
    In Syria, I did not find an environment open to United States 
support and assistance to democracy and human rights. Nonetheless, 
during my year there, I met with a wide range of civil society 
activists, including those calling for political reform. I pressed the 
government to allow Iraqi refugees in Damascus to participate in U.N.-
sponsored out-of-country voting for the Iraqi parliament in January 
2005. To no avail, I urged the government to release well-known 
political prisoners such as Riad Seif. I also advocated on behalf of 
the rights of Syrian Kurds.
    In Saudi Arabia, most of our human rights efforts focused on 
religious freedom and women's rights. Both the Ambassador and I 
frequently raised with senior Saudi officials at the Ministries of 
Interior and Foreign Affairs specific cases where the Saudi policy of 
allowing non-Muslims to practice their religion in private was not 
respected in practice. In addition to having Saudi authorities reaffirm 
this policy, in all cases that I recall, those Christians incarcerated 
as a result of their religious activity were ultimately released. 
Regarding women's rights, as the first woman Deputy Chief of Mission in 
Riyadh, I promoted a number of large-scale women's events that allowed 
Saudi women to network more broadly. I advocated frequently, with some 
success, on behalf of American women who could not depart the Kingdom 
without their husband's consent.
    Progress in human rights and democratization in countries where I 
have served has been cumulative. I take satisfaction in noting that 
although it did not happen on my watch, Kuwaiti women now vote and 
serve in the cabinet, local elections have occurred in Saudi Arabia, 
and several candidates contested the last Yemeni presidential election.
                                 ______
                                 

          Responses of Deborah K. Jones to Questions Submitted
                    by Senator Joseph R. Biden, Jr.

    Question. What are the most important actions you have taken in 
your career, to date, to promote human rights and democracy? What was 
the impact of your actions?

    Answer. I have held a variety of positions throughout my 25 year 
career, not all of them dealing with policy. I have striven, however, 
in every aspect of my foreign service work--whether processing Somali 
refugees in Ethiopia, ensuring fair, multiethnic hiring practices when 
reopening our embassy in Baghdad in 1984, ensuring fair and equal 
treatment to both Lebanese and Syrian visa applicants when we had no 
visa facilities in Beirut and the Lebanese had to come to Damascus, 
where I was consular chief, or overseeing a staff of over 16 different 
nationalities while Deputy Chief of Mission in Abu Dhabi and allowing 
them a voice in choosing between available programs or benefits--to 
adhere to bedrock American principles of fairness based on equal 
treatment under the law and participatory governance, when appropriate.
    More specifically, and in more senior positions as Country Director 
for the Arabian Peninsula and principal officer at our Consulate 
General in Istanbul, Turkey, I was a forceful advocate with foreign 
government officials for addressing serious human trafficking issues, 
such as the treatment of young South Asian ``camel jockeys'' in the GCC 
countries (specifically, the UAE and Qatar, where the practice has now 
been largely criminalized and/or abolished in favor of robots), as well 
as their treatment of foreign laborers in general; I have pressed 
foreign governments, particularly the Saudis, to adhere to 
international accords governing child custody and the right of the 
(often female) custodial parent to take back her abducted children, 
despite the constraints of Shari'a law, with significant success; and I 
have marched publicly in Turkey--following the assassination of 
Armenian activist, Hrant Dink, who was a personal acquaintance and good 
contact of the Consulate General--in support of tolerance and religious 
freedom. In addition I have spoken out openly and appeared frequently 
in public with His All Holiness the Ecumenical Patriarch Bartholomeo, 
whose diminishing Greek Orthodox community has suffered under unfair 
property confiscations and other actions at the hands of the Government 
of Turkey. I hosted, inter alia, a major Alliance of Civilizations 
gathering at the official residence as well as mixed gatherings of 
various political and religious groups who had previously avoided 
interaction; when I departed Istanbul, it was written in the press that 
I had been a very positive force for tolerance and change in a society 
undergoing a difficult transition from its secularist, Kemalist roots 
to a more democratic, albeit Islam-oriented political reality.

    Question. What are the most pressing human rights issues in Kuwait? 
Will you commit to make legal protections for the ``bidun jinsiya''--
the stateless people of Kuwait--and foreign domestic laborers a 
priority? What are the most important steps you expect to take, if 
confirmed, to promote human rights and democracy in Kuwait? What do you 
hope to accomplish through these actions?

    Answer. The most pressing human rights issues in Kuwait include 
strengthening democracy, increasing protections to combat trafficking 
in persons, assisting stateless individuals, and supporting civil 
society and women's empowerment. The United States Embassy in Kuwait 
continues to encourage democratic reform and development through 
exchange and visitor programs in addition to United States Government-
funded democratic reform programming. MEPI currently funds programs 
aimed at improving the professionalism of Kuwaiti journalists, 
empowering student activists, increasing women's involvement in the 
political system, and training political and civil society groups.
    If confirmed, I will continue United States efforts to encourage 
sustained Kuwaiti commitment to improve the rights of victims of 
trafficking and to clarify the status of stateless individuals while 
working to improve their fundamental rights. The Government of Kuwait 
has taken some steps to address the needs of vulnerable population 
within its borders. In September 2007, the Kuwaiti Government opened a 
shelter for victims of trafficking in persons and in late 2007 the 
government announced plans to study the legal issues surrounding the 
bidun jinsiya in an effort to create lasting solutions to their 
grievances. Unlike in previous years, the MOI issued a limited number 
of passports to Bidoon that they were allowed to keep. Recently, the 
Government of Kuwait announced plans to issue a list of bidoon who will 
receive Kuwaiti citizenship. We eagerly await the publication of this 
list and additional protections for the bidoon. These are noteworthy 
efforts; however, much more needs to be done to support the needs of 
both victims of trafficking and Kuwait's stateless population, and if 
confirmed I will continue to raise these issues with appropriate 
Kuwaiti interlocutors.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Kuwait in advancing 
human rights and democracy in general?

    Answer. If confirmed, I will endeavor to help Kuwait consolidate 
and expand those democratic gains to include supporting the development 
of fledgling, grassroots women's organizations, civil society groups 
and other activists, and advancing the rights and protections of 
vulnerable populations living within Kuwait's borders. Kuwait continues 
to serve as a regional leader on political reform and has developed 
somewhat accountable democratic institutions, as illustrated by its 
robust Parliament. Kuwait has enjoyed a number of recent democratic 
successes including the successful transition of government following 
the January 2006 death of Amir Sheikh Jaber Al-Ahmed Al-Jaber Al Sabah, 
the enfranchisement and participation of women in the political 
process, and the expansion of media and press outlets. Nonetheless, 
further reform is critical for Kuwait's long-term stability, and 
Kuwaiti progress on democratic reform and human rights will serve as a 
powerful example to the gulf region. Kuwaitis themselves must be 
encouraged to drive this process toward democratic development, and 
campaigning for increased participation by women, civil society and the 
rights of Kuwait's vulnerable populations will remain one of my most 
challenging obstacles. If confirmed, I will look for outlets to 
continue United States partnership with Kuwaitis to expand and solidify 
Kuwait's democratic institutions. Critical human rights issues, 
including the exploitation of expatriate workers, will continue to be a 
focus of embassy efforts under my leadership and guidance.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
post activities? If confirmed, what steps will you take to ensure that 
Foreign Service officers who engage in human rights activities are 
encouraged and professionally rewarded for superior service?

    Answer. Kuwait is a positive model of United States 
transformational diplomacy efforts in the gulf. If confirmed, I will 
work to solidify the groundwork on democratic reform and human rights 
laid by my predecessors, and I will work to promote United States human 
rights goals and objectives as an integral part of Embassy Kuwait's 
activities.
    A key element of these efforts will include the use of MEPI and 
public diplomacy programs and exchanges to energize Kuwaiti citizens 
toward proactive engagement on critical human rights issues. Embassy 
Kuwait enjoys a number of robust and effective programming options at 
its disposal. Examples of current MEPI programming options include the 
following:

The Women's Advocacy and Political Participation program launched by 
        the National Democratic Institute for International Affairs 
        (NDI) to support Kuwaiti women's organizations and help them to 
        work as a coalition and increase their political participation.
The Gulf States Civil Society Organization Law Reform Initiative (ICNL) 
        works with regional and international experts to examine the 
        role of civil society in democratic societies, and the legal 
        framework necessary to enable and protect it. A regional 
        workshop examines samples of existing and draft laws governing 
        civil society from the region, Europe, and the United States, 
        and common components of effective legislative frameworks.

    These two programs are examples of the broad range of programming 
tools available for incubating and developing democratic reform and 
human rights objectives in Kuwait. If confirmed, I will continue to 
work with Congress, the Government of Kuwait, as well as international 
and domestic civil society organizations to support reform efforts in 
Kuwait.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Kuwait who are working to 
promote human rights?

    Answer. If confirmed as Chief of Mission at U.S. Embassy Kuwait, I 
will endeavor to strengthen support for Kuwait democratic institutions 
as well as encourage further progress on human rights issues. I will 
work hard to encourage the Government of Kuwait to ease restrictions on 
nongovernmental organizations and enhance opportunities for the 
international community to engage with local human rights 
organizations.
    The use of United States-funded programs, while an important tool, 
must be partnered with regular exchange and dialog with Kuwaiti leaders 
and activists in order to promote positive change and reform in support 
of democratic reform and the development of civil society in Kuwait.


                              NOMINATIONS

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Grieco, Jeffrey, to be an Assistant Administrator of the U.S. 
        Agency for International Development
Guevara, Ana, to be the Alternate Executive Director of the 
        World Bank
Morales, Hector, to be the Permanent Representative to the 
        Organization of American States
Walther, Larry, to be the Director of the Trade and Development 
        Agency
                              ----------                              

    The committee met, pursuant to notice, at 2:36 p.m., in 
room SD-419, Dirksen Senate Office Building, Senator Robert 
Menendez presiding.
    Present: Senator Menendez.
    Also present: Senators Hutchison and Lincoln.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. This hearing of the Committee on Foreign 
Relations will now come to order.
    Today, the committee meets to consider the nominations of 
four individuals for key leadership positions in the 
administration. The President has nominated Hector Morales to 
be the Permanent Representative to the Organization of American 
States; Larry Walther to be the Director of the Trade and 
Development Agency; Jeffrey Grieco to be an Assistant 
Administrator of the U.S. Agency for International Development; 
and Ana Guevara to be the Alternate Executive Director of the 
World Bank.
    We congratulate you all on your nominations, and we look 
forward to hearing from each of you this afternoon.
    And we also welcome our colleagues, Senator Hutchison and 
Senator Lincoln, who are, shortly, going to introduce Mr. 
Morales and Mr. Walther today.
    The United States plays a critical role in promoting 
economic and social development, trade, political stability, 
and poverty alleviation around the world. The Organization for 
American States, the U.S. Agency for International Development, 
the World Bank, and the U.S. Trade and Development Agency are 
parts of the toolkit the United States has to address these 
challenges.
    Each nominee before us, if confirmed, would be expected to 
play a key role in these organizations' missions and the 
overall U.S. Government strategy overseas, something that I 
personally take very seriously.
    I look forward to the witnesses' testimonies, and hearing 
how they might contribute to the U.S. goals in these areas.
    Mr. Morales, in--your position, if confirmed, will be to 
represent the U.S. interests in the premier multilateral forum 
in the Western Hemisphere. You would be in a unique position to 
communicate and advance U.S. priorities for the region and 
represent the United States in an important process of 
developing consensus among member states. The Americas is a 
region which, unfortunately, has gone somewhat unnoticed by our 
efforts in the last several years, at least I've viewed it that 
way, and, having just taken a trip to Latin American with 
several of our colleagues, heard much of that throughout our 
trip. In addition, the OAS is not without its own challenges: 
management capacity, budget shortfalls, and internal tension 
over respecting state sovereignty. I look forward to hearing, 
today, how you would work to reconcile these challenges while 
advancing our priorities in the region, especially in light of 
the upcoming Summit of the Americas in 2009.
    Mr. Grieco, as I have said before, we are at a decisive 
moment for the future of USAID, and I strongly believe that, 
until we get serious about rebuilding USAID, we are not going 
to get the results that the world's poor and marginalized 
deserve. A mediocre effort will, at best, yield such results. 
USAID should be the backbone of our foreign assistance, and be 
viewed as a heavyweight agency both in Washington and in the 
field. The Bureau for Legislative and Public Affairs has a key 
role in making the case that USAID is a serious player with 
serious people who demand serious results.
    One good way to weaken an agency in Washington, and in the 
eyes of Congress, is to give them a weak legislative affairs 
shop. USAID has a strong tradition of weak legislative affair 
shops, and I won't, personally, as the subcommittee chairman 
that handles all of our foreign affairs--foreign--international 
assistance, I certainly don't want to see that happen.
    And so, I believe USAID has a story to tell, and they have 
a case to make. Of course, if one fails at telling their story, 
you will lose--but, more importantly, millions of poor and 
marginalized around the world will lose--and the United States 
will lose one of the most important tools of soft, but 
important, diplomacy. So, I look forward to hearing how you 
intend to proceed to stand in the face of that tradition and 
make the Bureau of Legislative and Public Affairs the bureau 
that it can be and that it needs to be.
    Ms. Guevara, as we talked about America's role in 
international development, we need to recognize that our 
foreign assistance extends to supporting multilateral 
institutions, such as the World Bank. I know that this 
administration's use of the term ``multilateral'' is often used 
either in vain or out of necessity, but rarely by choice. They 
should be using it as a way of strengthening a unified effort, 
rather than as a last resort. That's why I believe that America 
must continue to play a leading role in the multilateral 
financial institutions. Your position, if confirmed, would be 
partly responsible for setting the tone of the relationship 
between the United States and the World Bank, a relationship 
that is not without challenges. The World Bank needs help, and 
it needs to be reformed. I look forward to hearing how you 
propose to work to advance these goals in this--current 
challenges that the World Bank faces in the areas of 
corruption, incentives, and results.
    Finally, Mr. Walther, the U.S. Trade and Development Agency 
is one of several agencies that the United States uses to fill 
an important niche in the mix of programs that we carry out. 
Just because the agency's budget is not as large as some of the 
other agencies that this committee has jurisdiction over 
doesn't mean that that work isn't vitally important, and 
doesn't mean that Congress doesn't expect to see the same 
results from USTDA as from those agencies to which we 
appropriate billions of dollars per year.
    So, for all four of you, if confirmed, you would play a 
vital role in institutions whose work is not trivial and not 
extracurricular, but work that is at the core of the United 
States effort to combat the world's most intractable problems--
problems that merit our undivided attention. In short, this 
work matters.
    In that spirit, I look forward to hearing your testimony 
today, and I'll end my comments there.
    Seeing no other member before the committee now, please let 
me turn, then, to Senator Hutchison, who will introduce Mr. 
Morales.
    Senator.

            STATEMENT OF HON. KAY BAILEY HUTCHISON,
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman. 
Appreciate your holding this hearing, because, as you have 
said, these are very important posts to which I hope we can 
send American representatives.
    I'm particularly pleased to introduce an outstanding Texan, 
Hector Morales. He has been an advisor and friend to me for 
many years. And it is for the position of U.S. Ambassador to 
the Organization of American States. This, too, is a very 
important organization for our country and for our initiatives, 
to try to bring in Central and South America to our trade base 
and our friendships, and to support democracies in Central and 
South America.
    Hector is certainly qualified for this position. He's been 
confirmed twice by the Senate, as a member of the board of the 
Inter-American Foundation, in June of 2007, and as an alternate 
executive director of the Inter-American Development Bank, in 
December of 2007.
    His impressive biography includes a bachelor of arts degree 
in history from Columbia University in New York, a law degree 
from the University of Texas at Austin School of Law. He's 
practiced law in both Houston and Austin, and had a long tenure 
with Reliant Energy, one of our largest utilities in Texas. He 
was first an attorney in the International Law Department, and 
rose to president and general manager of Reliant Energy 
Argentina, and then as director of project development for 
Latin America and the Caribbean. Today, he serves as executive 
director of the Inter-American Development Bank.
    He certainly knows this area, and, I think, would be a 
wonderful representative for America. He also has given so much 
in service to our country. I think, if there's one thing that 
stands out, it is that he has been willing to leave the private 
sector to give, in public service.
    This is going to be a hard job. As you mentioned, the 
Summit for the Americas is going to be in 2009, and I think it 
would be wonderful to have him there to help in the planning 
for that very important summit.
    So, I hope that the committee will act expeditiously for 
his confirmation. And, since he has been confirmed by the 
Senate before, I hope that it is uneventful.
    Thank you very much. [Laughter.]
    Senator Menendez. As do all nominees. [Laughter.]
    Thank you, Senator Hutchison.
    Senator Hutchison. Thank you very much.
    Senator Menendez. Let me turn to my friend and colleague, 
who I'm proud to be back with, since I was with her in the 
House, and now I get to be with her in the Senate.
    Senator Lincoln.

             STATEMENT OF HON. BLANCHE L. LINCOLN,
                   U.S. SENATOR FROM ARKANSAS

    Senator Lincoln. Thank you so much, Mr. Chairman. And it's 
great to have you in the Senate, that's for sure. We're 
delighted to be working with you again.
    I am proud to be here today to introduce Larry Walther, 
who's a fellow Arkansan and a nominee to be the Director of the 
U.S. Trade and Development Agency.
    As you know, and have very ably described, USTDA has an 
impact beyond promoting growth and developing in middle-income 
countries. They also help American businesses to export their 
products and services overseas; and, in doing so, they create 
U.S. jobs.
    We, in Arkansas, understand small business. Small business 
is the engine of the economy for us in this great country, and 
certainly in States like ours. We also understand that small 
businesses grow. We have what used to be a very small business 
in Arkansas that's grown--WalMart comes to mind, but there's 
many of them--that start as small businesses, and grow 
tremendously.
    Larry brings to this position an abundance of relevant 
private- and public-sector work experience that will help him 
pursue USTDA's objectives.
    In the private sector, Larry worked for over 30 years for 
Southwestern Bell Telephone Company, and during that time he 
worked in many positions; among them, he worked closely with 
governmental and regulatory agencies at the State and Federal 
level. Larry's also served as the director of the Arkansas 
Department of Economic Development. It's a position that has 
clear relevance to the work that he would be doing over at 
USTDA.
    As director of the Arkansas Department of Economic 
Development, Larry oversaw efforts to encourage business 
investment in the State from across the world, making many 
connections in that arena. This is no small order, and the 
Arkansas economy has made impressive gains in recent time.
    This is, in no small part, due to the success of Arkansas's 
homegrown Fortune 500 companies--I mentioned WalMart; there's 
also Alltel and Tyson Foods, Axiom--that have benefited from a 
favorable business environment.
    Given his past professional experiences in the private 
sector and the work he has done for my home State of Arkansas, 
I believe Larry has a great understanding of the latent 
potential that many emerging economies have for companies that 
are looking for new consumers abroad.
    So, I hope you will look favorably upon Larry Walther's 
nomination for director at USTDA, Mr. Chairman. And I thank you 
for inviting me, allowing me to come today, to introduce yet 
another great Arkansan for an opportunity to serve this 
country.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you very much, Senator Lincoln. For 
a moment there, I thought you were trying to tell me WalMart 
was a small business, so----
    [Laughter.]
    Senator Lincoln. Used to be.
    Senator Menendez. Yeah, used to be. Okay.
    Senator Lincoln. Started that way.
    Senator Menendez. All right. Thank you very much.
    Senator Lincoln. Thank you.
    Senator Menendez. And I know that you have a busy agenda, 
so that if you need, at some point, to excuse yourself, we 
appreciate you coming before the committee and sharing your 
insights on Mr. Walther.
    As we set you up there, let me just say it's time to turn 
to the nominees.
    We ask that you summarize your statements. Certainly, your 
full statements, each and every one of you, will be included 
for the record in its totality.
    And we invite you, if you wish, to introduce any members of 
your family that may be here with you today. We welcome all of 
them.
    And we'll start with you, Mr. Morales.

 STATEMENT OF HON. HECTOR E. MORALES, NOMINEE TO BE PERMANENT 
REPRESENTATIVE TO THE ORGANIZATION OF AMERICAN STATES, WITH THE 
                       RANK OF AMBASSADOR

    Mr. Morales. Thank you, Mr. Chairman and the members of the 
committee, for the opportunity to appear before you today.
    I am honored that President Bush has nominated me to serve 
as the United States Permanent Representative to the 
Organization of American States, and I am grateful to have the 
support of the President, Secretary Rice, and the privilege of 
your consideration.
    And, with your indulgence and the committee's indulgence, I 
would like to accept your offer and introduce the members of my 
family that are here with me today.
    First, my wife, Selden Wallace Morales, my sister, Ann 
Michel Morales, and my brother-and sister-in-law, David and 
Manar Morales.
    For the last 4 years, I have had the honor of representing 
our country at the Inter-American Development Bank; first, as 
the alternate executive director, and, for the last 3 years, as 
the executive director. I have also been honored to serve on 
the board of the United States agency, the Inter-American 
Foundation.
    The Inter-American Development Bank's mission is to help 
accelerate economic and social development individually and 
collectively among the region's countries. During my tenure at 
the bank, there have been notable accomplishments, including 
the $150 million replenishment of the Multilateral Investment 
Fund, the participation of this fund and the Inter-American 
Investment Corporation with OPIC, and the creation of a $200 
million financing initiative for small and medium businesses in 
Latin America and the Caribbean, and, less than a year ago, a 
$3.4 billion debt relief package to the poorest countries of 
the region.
    I've also been a strong advocate for greater transparency 
and accountability. While I've been at the IDB, an Office of 
Institutional Integrity was implemented, and the board now has 
an audit committee to improve the vigilance and fiduciary 
oversight of bank operations.
    Latin America and the Caribbean are regions with great 
economic potential, but they face the formidable challenges 
that confront most developing countries. We must take advantage 
of the opportunities that effective multilateralism offer to 
the United States, working through institutions like the IDB 
and the OAS, as we pursue goals in key strategic areas, 
including the promotion of democracy, human rights, economic 
prosperity, and security.
    As we do so, we recognize and reaffirm our commitment, 
expressed in the Inter-American Democratic Charter, that 
democracy is essential for social, political, and economic 
development of the peoples of the Americas.
    I've had the opportunity to work multilaterally in the 
Inter-American system in development. I hope this experience, 
if I am confirmed, will help the United States in our 
commitment to work with our partners multilaterally to advance 
our common interests and values, and to ensure that the OAS 
remains true to the core principles upon which it was founded, 
now enshrined in the Inter-American Democratic Charter.
    Over recent decades, the Western Hemisphere has undergone 
profound and positive changes. Democracy prevails in all 
countries but one--Cuba--and respect for human rights is the 
norm, not the exception. People throughout the region have made 
enormous sacrifices to strengthen their democracies, and must 
now consolidate these gains in the face of very serious 
challenges. These include poverty, inequality, social 
exclusion, and the inability of institutions to deliver the 
goods and services that people need, to take advantage of the 
benefits of democracy and economic opportunity.
    It is also important that the United States remain 
committed to the summit process, which has enjoyed bipartisan 
support since its inception, in 1994, under the Clinton 
administration. President Bush has attended three summits, 
which have brought significant accomplishments in the areas of 
democracy, job creation, HIV/AIDS, infrastructure, development, 
education, and competitiveness. The fifth Summit of the 
Americas, which will take place in Trinidad and Tobago in the 
first half of 2009, will be an early opportunity for the next 
President to build on the accomplishments of prior 
administrations, and also engage many of the region's leaders 
for the first time. It is critical that the OAS remain engaged 
and proactive. And, from the U.S. standpoint, this means 
enterprising, multilateral engagement in the Americas to ensure 
that the OAS and the Summit of the Americas continue to enhance 
their important catalytic role in advancing our shared 
hemispheric agenda.
    If confirmed, I look forward to working with you to address 
these issues and to continue to promote U.S. multilateral 
diplomacy in the Americas at the Organization of American 
States. If given the opportunity to serve, I would approach my 
role as U.S. Permanent Representative with the benefit of 
having traveled, worked, and lived in the region. I would also 
bring to this position my deeply held belief in the importance 
of a robust U.S. engagement with our regional partners to 
advance freedom, economic prosperity, and social justice for 
all the peoples of the Americas.
    Thank you, Mr. Chairman, for the privilege of appearing 
before the committee, and I would be pleased to answer any 
questions you or the other members of the committee might have.
    [The prepared statement of Mr. Morales follows:]


 Prepared Statement of Mr. Hector E. Morales, Jr., Nominee to be U.S. 
    Permanent Representative to the Organization of American States

    Thank you, Mr. Chairman and members of the Committee for the 
opportunity to appear before you today. I am honored that President 
Bush has nominated me to serve as the United States Permanent 
Representative to the Organization of American States (OAS), and I am 
grateful to have the support of the President and Secretary Rice and 
the privilege of your consideration.
    With the Committee's indulgence, I would like to introduce the 
members of my family here today: my wife, Selden Wallace Morales, my 
sister Ann Michele Morales, and my brother and sister-in-law, David and 
Manar Morales.
    For the last four years, I have had the honor of representing our 
country at the Inter-American Development Bank; first as the Alternate 
Executive Director and for the last three years as the Executive 
Director. I also have been honored to serve on the board of a United 
States agency, the Inter-American Foundation.
    The Inter-American Development Bank's mission is to help accelerate 
economic and social development, individually and collectively among 
the region's countries. During my tenure at the Bank, there have been 
notable accomplishments, including: the $150 million replenishment of 
the Multi-lateral Investment Fund; the participation of the MIF and the 
Inter-American Investment Corporation with OPIC in the creation of a 
$200 million financing initiative for small and medium businesses in 
Latin America and the Caribbean; and less than a year ago a $3.4 
billion debt relief package to the poorest countries of the Region. I 
have also been a strong advocate for greater transparency and 
accountability. While I have been at the IDB, an office of 
institutional integrity was implemented, and the Board now has an audit 
committee to improve the vigilance and fiduciary oversight of Bank 
operations.
    Latin America and the Caribbean are regions with great economic 
potential, but they face the formidable challenges that confront most 
developing countries. We must take advantage of the opportunities that 
effective multilateralism offer to the United States, working through 
institutions like the IDB and the OAS, as we pursue goals in key 
strategic areas, including the promotion of democracy, human rights, 
economic prosperity, and security. As we do so, we recognize and 
reaffirm our commitment, expressed in the Inter-American Democratic 
Charter, that democracy is ``essential for the social, political, and 
economic development of the peoples of the Americas.''
    I have had the opportunity to work multilaterally in the Inter-
American system in the area of development. I hope this experience, if 
I am confirmed, will help the United States and our commitment to work 
with our partners multilaterally to advance our common interests and 
values, and to ensure that the OAS remains true to the core principles 
upon which it was founded, now enshrined in the Inter-American 
Democratic Charter.
    Over recent decades, the Western Hemisphere has undergone profound 
and positive changes: Democracy prevails in all countries but one, 
Cuba; and respect for human rights is the norm, not the exception. 
People throughout the region have made enormous sacrifices to 
strengthen their democracies, and must now consolidate these gains in 
the face of very serious challenges. These include poverty, inequality, 
social exclusion, and the inability of institutions to deliver the 
goods and services that people need to take advantage of the benefits 
of democracy and economic opportunity.
    It is also important that the United States remain committed to the 
Summit Process, which has enjoyed bipartisan support since its 
inception in 1994 under the Clinton Administration. President Bush has 
attended three Summits, which have brought significant accomplishments 
in the areas of democracy, job creation, HIV/AIDs, infrastructure 
development, education and competitiveness. The fifth Summit of the 
Americas, which will take place in Trinidad & Tobago in the first half 
of 2009, will be an early opportunity for the next President to build 
on the accomplishments of prior Administrations, and also engage many 
of the region's leaders for the first time.
    It is critical that the OAS remain engaged and proactive. And from 
the U.S. standpoint, this means enterprising multilateral engagement in 
the Americas to ensure that the OAS and the Summit of the Americas 
continue to enhance their important catalytic role in advancing our 
shared hemispheric agenda.
    If confirmed, I look forward to working with you to address these 
issues and to continue to promote U.S. multilateral diplomacy in the 
Americas at the Organization of American States. If given the 
opportunity to serve, I would approach my role as U.S. Permanent 
Representative with the benefit of having traveled, worked, and lived 
in the region. I would also bring to this position my deeply held 
belief in the importance of robust U.S. engagement with our regional 
partners to advance freedom, economic prosperity, and social justice 
for all the peoples of the Americas.
    Thank you, Mr. Chairman, for the privilege of appearing before the 
Committee. I would be pleased to answer any questions you and the other 
members of the Committee may have.

    Senator Menendez. Thank you very much, Mr. Morales.
    Mr. Grieco.

    STATEMENT OF JEFFREY J. GRIECO, NOMINEE TO BE ASSISTANT 
 ADMINISTRATOR OF THE U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Grieco. Thank you, Mr. Chairman, members of the 
committee. Thank you for the opportunity to appear before you 
today.
    On January 22nd, 2008, the President nominated me for the 
position of Assistant Administrator for Legislative and Public 
Affairs at the U.S. Agency for International Development. I'm 
deeply honored by his confidence in me, and I'm most 
appreciative of the support that's been given to me during the 
nomination process.
    I would also like to acknowledge and thank my family for 
their support. Without their love and encouragement, I, 
frankly, wouldn't be here today. And, with your permission, I'd 
like to be able to ask my family just to stand up, briefly, if 
I could: my wife, Susie, of 15 years plus, and my four great 
kids, Grant, Alexandra, Danielle, who's probably asleep by now, 
and Joseph, as well. And they're very appreciative for being 
out of school today, Senator. [Laughter.]
    Senator Menendez. They all look real sharp, too. So----
    [Laughter.]
    Mr. Grieco. Thank you.
    I would also like to express my appreciation to my parents, 
Joseph and Theresa Grieco, of Orchard Park, New York, and my 
brother, Dave, whose wisdom and love and guidance throughout 
all the years has been very helpful to me.
    I'm a long-time student of international affairs. I've 
received degrees from the Elliott School of George Washington 
University, as well as the Edmund Walsh School of Foreign 
Service at Georgetown, where I received my master's in Foreign 
Service. In addition, I have studied at the American University 
in Paris, as well as a short stint at Oxford University's 
Templeton College on Comparative International Management.
    I knew pretty early on that I wanted to get engaged in a 
career in international affairs. I joined the administration 
following 9/11, and I've taken this opportunity to serve my 
country with the utmost of seriousness and respect for those 
who serve. It's been exhilarating. It's been highly educational 
for me, not the least because of what I've learned from my 
responsibilities dealing with Congress and the American public 
on behalf of the agency.
    Throughout my service as the senior deputy assistant 
administrator for public affairs within the LPA Bureau, and 
during the past 9 months as the acting assistant administrator 
at the agency for LPA, I've been struck by the emerging broad 
consensus for America's international development and foreign 
assistance activities, and, in particular, about the mission of 
USAID.
    The humanitarian development mission of the United States 
has, and will continue to be, a moral imperative for this 
country. Post-9/11, it is also a national security imperative. 
And, among the most effective means by which this Nation brings 
about transformational change in the world is through its use 
of soft power. If confirmed as USAID administrator for 
legislative--assistant administrator for legislative and public 
affairs, I will hold the position that is central to the 
ongoing conversation between the executive and legislative 
branches, essential to the effective formulation of U.S. 
foreign and national security policy.
    If confirmed by this position, I see my responsibility as 
helping to explain USAID's missions, USAID's goals, USAID's 
programs to the Congress and to the American public, and to 
foreign audiences, as well as to help ensure a timely flow of 
information between the Congress and the agency.
    I intend to ensure that you are fully informed, in a timely 
manner and with a measurable fashion, about all of our USAID 
matters that merit your attention, and that your advice, 
concerns, and questions are immediately conveyed to our 
agency's senior leadership, including our administrator, 
Henrietta Holsman Fore, and our Acting Deputy Administrator, 
James Kunder.
    I'm very proud of our LPA team, several of which are here 
today. They've received three favorable audits in the last 4 
years from the Government Accounting Office, recognizing our 
innovation and our communications techniques and our 
competencies. More specifically, these reports have highlighted 
how USAID's overseas public diplomacy activities and the first 
coordinated use of targeted paid media campaigns, primarily in 
GWOT countries, have helped to improve the impact of our 
programming.
    We've also received top honors from the League of American 
Communications Professionals for our Development, Outreach, and 
Communications Initiative now being implemented at more than 70 
USAID missions abroad.
    The combination of broad public affairs experience and, 
during the past half-dozen years, serving at the agency, of 
legislative experience and work on U.S. foreign assistance, has 
prepared me for the added responsibilities that I will assume, 
if confirmed, as assistant administrator for legislative and 
public affairs.
    Should the Senate choose to confirm me for this position, 
it would be an honor to serve side by side with the 8,000 
dedicated USAID employees who, at great risk and personal 
sacrifice, answer the development challenges around the world.
    Just this past month, I helped to supervise the return of 
the remains of a USAID Foreign Service officer, John Granville, 
who was murdered in Khartoum, Sudan, on New Year's Day. John 
was from the town that I was born and raised in--Buffalo, New 
York. And the sense of outpouring from Buffalonians for the 
service that John provided to our country and for the service 
that USAID provides to the poor, the starving, and the hopeless 
throughout the developing world, was truly inspiring for me.
    As I committed to John in my prayers at his funeral, and to 
his family, we will endeavor to serve them with the same 
distinction and purpose that John served our country and that 
our committed USAID employees do for the American people every 
day at over 80 missions and offices around the developing 
world.
    In closing, I want the committee to know that, if 
confirmed, I intend to make myself fully available to consult 
with any interested staff and members on any and all issues at 
AID that may fall within your purview. It's my strong belief, 
and my firm conviction, that full and ongoing communications 
among all of our major stakeholders are critical within our 
system of government if the U.S. national interest is to be 
effectively served. I will dedicate myself to carrying out that 
principle, Mr. Chairman.
    This concludes my formal public statement. I now welcome 
any questions that you or other Senators here today may have 
for me.
    Thank you.
    [The prepared statement of Mr. Grieco follows:]

   Prepared Statement of Jeffrey J. Grieco, Nominee to be Assistant 
     Administrator of the U.S. Agency for International Development

    Mr. Chairman, Ranking Member Hagel, and other Senators of the 
Foreign Relations Committee, thank you for the opportunity to appear 
before you today.
    On January 22, 2008, President Bush nominated me for the position 
of Assistant Administrator for Legislative and Public Affairs at the 
U.S. Agency for International Development. I am deeply honored by his 
confidence in me and am most appreciative of the support that has been 
given me during the nomination process.
    I would also like to acknowledge and thank my family for their 
support. Without their love and encouragement, I would not be here. 
With your permission Mr. Chairman, I would like to recognize my wife of 
15 years, Suzie, and our four great-children--Grant, Alexandra, Joseph, 
and Danielle. I would also like to express my deep appreciation to my 
parents, Joseph and Theresa Grieco of Orchard Park, NY, and my brother, 
David Grieco, whose wisdom, love, and guidance has helped me so much 
over the years.
    I am a long time student of international affairs, having received 
degrees from the Elliott School of International Affairs at George 
Washington University and the Edmund A. Walsh School of Foreign Service 
at Georgetown University. In addition, I studied at the American 
University in Paris, and also for a short time at Oxford University, 
Templeton College. I knew early on that I wanted a career in 
international affairs.
    Indeed, I have been very fortunate to have had many experienced and 
well-known mentors and professors over the years including Dr. Jeanne 
Kirkpatrick, former Secretary of State Madeline Albright, Dr. Gaston 
Sigur, Dr. Alan Goodman, and former USAID Deputy Administrator, Dr. 
Carol Lancaster.
    I joined the administration following September 11, 2001, and I 
have taken this opportunity to serve my country with utmost seriousness 
and respect for those who serve. It has been exhilarating and highly 
educational, not the least because of what I have learned from my 
responsibilities in dealing with the Congress and public on behalf of 
USAID.
    Throughout my service as the Senior Deputy Assistant Administrator 
for Public Affairs in the Bureau of Legislative and Public Affairs 
(LPA), and during the past 9 months as the Acting Assistant 
Administrator, I have been struck by the broad political consensus for 
America's international development and foreign assistance activities 
and, in particular, about the mission of USAID.
    In his National Security Strategy of 2002, the President stated 
that ``including the world's poor in an expanding circle of 
development--and opportunity--is one of the top priorities of U.S. 
international policy.'' Since then, the administration has nearly 
tripled official development assistance (ODA) worldwide, doubled 
assistance to Latin America, and nearly quadrupled assistance to 
Africa. Secretary Rice has reaffirmed his mandate to elevate 
development. It now plays a key role in our national security 
architecture as part of the three ``D's''--defense, diplomacy, and 
development--and it is vital to her vision of ``transformational 
diplomacy.''
    The humanitarian and development mission of the United States has 
been and will continue to be a moral imperative of this country. Post 
9-11, it is also a national security imperative and among the most 
effective means by which this Nation brings about transformational 
change in the world through its ``soft power.''
    If confirmed as USAID Assistant Administrator for Legislative and 
Public Affairs, I will hold a position that is central to the ongoing 
conversation between the executive and legislative branches essential 
to the effective formulation of U.S. foreign and national security 
policy.
    If confirmed for this position, I see my responsibilities as 
helping to ``explain'' USAID missions, goals, and programs to the 
Congress and to the American people and foreign audiences, as well as 
to ensure a complete and timely flow of information between the 
Congress and the Agency. I intend to ensure that you are fully informed 
in a timely and measurable fashion about all USAID matters that merit 
your attention, and that your advice, concerns, and questions are 
immediately conveyed to the Agency's senior management including the 
Administrator of USAID, Henrietta Holsman Fore, and Acting Deputy 
Administrator James Kunder.
    In my professional career, prior to joining the administration, I 
have had substantial experience in international and public affairs, 
working in major public affairs firms and managing major international 
accounts. This has equipped me to participate in and help lead the 
public diplomacy and outreach efforts of the U.S. Agency for 
International Development.
    I am very proud of our LPA team for receiving three favorable 
audits by the Government Accounting Office (GAO), recognizing our 
innovative communications techniques and competencies. More 
specifically these reports highlighted USAID's overseas public 
diplomacy activities and the first coordinated use of targeted paid 
media campaigns combining tailored message targeting and pre- and post-
campaign audience impact measurements. We have also received top honors 
from the League of American Communications Professionals for our new 
Development Outreach and Communications Initiative (DOC), now being 
implemented in more than 70 USAID missions abroad.
    The combination of broad public affairs experience and, during my 
past half dozen years service in the U.S. Agency for International 
Development, legislative experience on U.S. foreign assistance has 
prepared me for the added responsibilities I would assume as Assistant 
Administrator for the Bureau for Legislative and Public Affairs.
    Should the Senate choose to confirm me for this position, it would 
be an honor to serve side by side with the 8,000 dedicated USAID 
employees who, at great risk and personal sacrifice, answer the 
development challenges around the world. Just this past month, I helped 
to supervise the return of the remains of a USAID Foreign Service 
officer, John Granville, who was murdered in Khartoum, Sudan on New 
Years Day. John was from the town that I was born and raised, Buffalo, 
NY, and the sense of outpouring from Buffalonians for the service that 
John and USAID provide the poor, the starving and the hopeless 
throughout the developing world, was inspiring. As I committed to John 
in my prayers at his funeral and to his family, we will endeavor to 
serve them with the same distinction and purpose that John and our 
committed USAID employees do for the American people everyday at over 
80 missions and offices around the world.
    In closing, I want the committee to know that, if confirmed, I 
intend to make myself fully available to consult with interested staff 
and members on any and all matters at USAID that may fall within your 
purview. It is my strong belief that full and ongoing communications 
among all major stakeholders are required within our system of 
Government if the U.S. national interest is to be effectively served, 
and I will dedicate myself to carrying out that principle.
    Mr. Chairman, this concludes my statement before the committee. I 
now welcome any questions that you and the other Senators here today 
may have for me.
    Thank you.

    Senator Menendez. Thank you very much. And I apologize, I 
thought I had your name--surname right. It's Grieco.
    Mr. Grieco. Grieco, that's right.
    Senator Menendez. Grieco. Okay. Thank you very much for 
your opening statement.
    Ms. Guevara.

STATEMENT OF ANA M. GUEVARA, NOMINEE TO BE ALTERNATE EXECUTIVE 
   DIRECTOR OF THE INTERNATIONAL BANK FOR RECONSTRUCTION AND 
                          DEVELOPMENT

    Ms. Guevara. Mr. Chairman, I'm grateful for the opportunity 
to appear before you today.
    I'd like to recognize my little godchild, Ian Carr, who is 
in the back of the room with his little sister, Mary, and my 
little niece and nephew, who are in Californian history class, 
watching this on the Internet. I also have a large group of 
supporters, here, of very good friends and colleagues. And, 
especially, I'd like to recognize my current boss, Assistant 
Secretary of Commerce Admiral Sutton, the tall one in the back 
of the room, and two very good friends and mentors, Ex-Im Bank 
board member Bijan Kian, and former Congressman Henry Bonilla, 
from the great State of Texas.
    I am honored to have been nominated to serve--
    Senator Menendez. That's all? [Laughter.]
    Ms. Guevara. I am honored to have been nominated to serve 
as U.S. Alternate Executive Director at the International Bank 
for Reconstruction and Development.
    President Bush said, in his State of the Union Address, 
that America is leading the fight against global poverty, 
hunger, and disease, and that America is a force of hope in the 
world, because we are a compassionate people. I share this 
belief. And as compassionate people with a unique leadership 
role in the World Bank, the United States must engender strong 
partnerships to ensure programs meant to eradicate poverty and 
create inclusive economic growth are not squandered by 
corruption and mismanagement. If confirmed, I will have the 
great privilege and responsibility to represent the United 
States at the World Bank. I look forward to the opportunity to 
work with Secretary of the Treasury Paulson and others in our 
Government, as well as with our partners at the World Bank, to 
improve its effectiveness and impact.
    Catalyzing prosperity in the developing world and post-
conflict countries is not just a moral imperative; it helps 
create local stability and peace, and it creates new markets 
for America entrepreneurs. Indeed, our prosperity and security 
is tied to those whom we endeavor to help.
    For the past two decades, whether as a businesswoman or a 
government official, I have gained extensive experience forging 
strong partnerships and formal agreements with governments and 
international institutions in Asia and Latin America. If 
confirmed, I will apply these skills to build coalitions that 
will foster broad support for U.S. priorities with member 
countries of the World Bank.
    My professional life has focused on increasing trade and 
developing economic competitiveness, whether by opening new 
markets, providing capacity-building for modern supply chains, 
customs procedures, and cultural and heritage tourism, or by 
protecting U.S. countries from unfair and corrupt practices 
overseas, or even by promoting venture capital and 
entrepreneurism. I have also served as ex-officio board member 
of the Export-Import Bank, worked with the board of the 
Overseas Private Investment Corporation, and overseen the 
Department of Commerce's participation in the Interagency 
Working Group on Multilateral Aid.
    The most gratifying experience of my professional life, 
however, has been the community education projects--in Mexico, 
China, Poland, Ukraine, and rural America--that I was fortunate 
to be involved with while in the private sector.
    In Mexico, I developed a 10-year educational development 
program, where I learned, firsthand, about the many challenges 
in implementing a results-oriented project. It allowed me to 
see how, given the right tools, proper food and nutrition, warm 
clothes, and a little hope and encouragement, that even the 
poorest child facing the greatest odds can flourish, exceeding 
his or her own expectations and transforming a community's 
quality of life, and, more important, quality of spirit.
    In working with the community projects, I also learned how 
corruption can hurt these programs and the people they are 
meant to help, when I was forced to turn away one of the 
communities under consideration because I was not convinced 
local officials would enforce proper fiduciary controls for 
project funds.
    Mr. Chairman, if confirmed, I will use the combination of 
my experience with the private sector, public sector, and 
community service to build support for U.S. priorities, such as 
anticorruption, governance and accountability, transparency, 
debt sustainability, environmental safeguards, and to improve 
results. I will seek to help developing countries capitalize on 
the benefits of globalization and trade, and to promote an 
inclusive and sustainable prosperity through private-sector 
development in these countries.
    Thank you, Mr. Chairman. I would be pleased to answer the 
committee's questions.
    [The prepared statement of Ms. Guevara follows:]


    Prepared Statement by Ana M. Guevara, Nominee for United States 
      Alternate Executive Director of the International Bank for 
Reconstruction and Development, Before the Senate Committee on Foreign 
                               Relations

    Mr. Chairman and Members of the committee, I am grateful for the 
opportunity to appear before you today. I am honored to have been 
nominated to serve as U.S. Alternate Executive Director at the 
International Bank for Reconstruction and Development. President Bush 
said in his State of the Union Address that America is leading the 
fight against global poverty, hunger and disease; and that ``America is 
a force for hope in the world because we are a compassionate people.'' 
I share this belief. And as compassionate people with a unique 
leadership role in the World Bank, the United States must engender 
strong partnerships to ensure programs meant to eradicate poverty and 
create inclusive economic growth are not squandered by corruption and 
mismanagement.
    If confirmed, I will have the great privilege and responsibility to 
represent the United States at the World Bank. I look forward to the 
opportunity to work with Treasury Secretary Paulson and others in our 
government--as well as with our partners at the World Bank--to improve 
its effectiveness and impact. Catalyzing prosperity in the developing 
world and post-conflict countries is not just a moral imperative. It 
helps create local stability and peace. And it creates new markets for 
American entrepreneurs. Our prosperity and security is tied to those 
whom we endeavor to help.
    For the past two decades, whether as a businesswoman or government 
official, I have gained extensive experience forging strong 
partnerships and formal agreements with governments and international 
institutions in Asia and Latin America. If confirmed, I will apply 
these skills to build coalitions that will foster broad support for 
U.S. priorities with member countries of the World Bank. My 
professional life has focused on increasing trade and developing 
economic competitiveness, whether by opening new markets or providing 
capacity building for modern supply chains, customs procedures and 
cultural and heritage tourism or by protecting U.S. companies from 
unfair and corrupt practices oversees, or even by promoting venture 
capital and entrepreneurism. I have also served as ex-officio board 
member of the Export Import Bank, worked with the board of the Oversees 
Private Investment Corporation and overseen the Department of 
Commerce's participation in the Interagency Working Group on 
Multilateral Aid.
    The most gratifying experience of my professional life, however, 
has been the community education projects in Mexico, China, Poland, 
Ukraine, and rural America that I was fortunate to be involved with 
while in the private sector. In Mexico I developed a 10-year 
educational development program where I learned first hand about the 
many challenges in implementing a results oriented project. It allowed 
me to see how given the right tools, proper food and nutrition, warm 
clothes--and a little hope and encouragement--that even the poorest 
child facing the greatest odds can flourish, exceeding his or her own 
expectations and transforming a community's quality of life and more 
importantly, quality of spirit. In working with the community projects, 
I also learned how corruption can hurt these programs and the people 
they are meant to help when I was forced to turn away one of the 
communities under consideration because I was not convinced local 
officials would enforce proper fiduciary controls for project funds.
    Mr. Chairman, if confirmed I will use the combination of my 
experience with the private sector, public sector and community service 
to build support for U.S. priorities such as anti-corruption, 
governance and accountability, transparency, debt sustainability, 
environmental safeguards, and to improve results. I will seek to help 
developing countries capitalize on the benefits of globalization and 
trade, and to promote inclusive and sustainable prosperity through 
private sector development in these countries.
    Thank you, Mr. Chairman. I would be pleased to answer the 
committee's questions.

    Senator Menendez. Thank you, Ms. Guevara.
    Mr. Walther.

 STATEMENT OF LARRY WOODROW WALTHER, NOMINEE TO BE DIRECTOR OF 
                THE TRADE AND DEVELOPMENT AGENCY

    Mr. Walther. Thank you, Mr. Chairman.
    I'd like to introduce my wife and soulmate of almost 38 
years now, Janice Walther. She's over there. Janice and I have 
two children, Bill and Mandy. And Bill is a mechanical engineer 
who works for other Department of Army in Pine Bluff, Arkansas, 
and he and his wife have two children under--let's see, 7 and 
under. My daughter--her husband is a college professor; they 
have four children, 8 and under. And so, it was a little 
difficult for them to travel from central--you know, from 
Arkansas and from Missouri to be here, but they really wanted 
to be here.
    It is a pleasure to appear before you today as President 
George W. Bush's nominee to be director of U.S. Trade and 
Development Agency. If confirmed, I look forward to making a 
direct impact on the economic growth and development of middle-
income and developing countries around the world through the 
promotion and export of U.S. technology and ingenuity. My 
career has taught me many things that are relevant to the 
success leading USTDA, but none may be as important as the 
impact of the expansion of infrastructure and its impact on 
economic development and growth.
    Before being selected as the President's nominee for USTDA 
director, I enjoyed a wonderful career in the private sector. I 
started as a switching engineer with Southwestern Bell 
Telephone Company in 1970, and was fortunate to achieve success 
throughout my career. Ultimately, I concluded 30 years of 
service with SBC, with is now AT&T, as the vice president for 
corporate services and chairman of the SBC Foundation. In that 
capacity, I oversaw a philanthropic organization that managed 
$67 million in community and charity giving.
    More recently, I had the honor of serving as director of 
the Arkansas Department of Economic Development. As the 
director of ADED, I was responsible for the overall direction 
and management of the department and for representing the 
governor and the State on all matters concerning statewide 
issues of economic development. In so doing, I provided 
direction and policy advice to the governor, to his cabinet, to 
the legislature, and regional and local leaders on key issues 
affecting the economic development and business climate in the 
State of Arkansas.
    As a result of this background, I have a deep appreciation 
for the essential role of infrastructure, both physical and 
institutional, in establishing the ideal environment for the 
private sector to serve as a catalyst for growth. I also 
understand the role of government in promoting and assisting 
growth. USTDA trade and development missions reflect this 
focus. If confirmed, I will look forward to applying my 
experience in building the--on the agency's outstanding record 
of success.
    As you well know, USTDA's activities position U.S. firms to 
play key roles in the priority projects in developing 
countries. Through the strategic use of foreign assistance 
funds, USTDA seeks to create an environment favorable for 
trade, investment, and sustainable economic development. The 
agency accomplishes its mission by assisting early project 
planning activities designed to promote trade capacity and 
sector development. In engaging U.S. private-sector expertise 
early in the project planning process, USTDA helps to ensure 
that U.S. firms will be competitive during the implementation 
phase. This model of foreign assistance has created successful 
mutual economic benefits to both U.S. industry and our partner 
countries in emerging economies.
    On a more personal note, the agency already has a 
significant focus on promoting the development of information 
and communications technology around the world. Given my 
background and the capacity of this sector to serve as a 
catalyst in the development of other sectors, I would like to 
reinforce the agency's commitment in this area. More broadly, 
this unique trade and development mission is one that I am 
committed to successful leading.
    Mr. Chairman, I am eager to undertake the role of USTDA 
director. If confirmed, I will build upon the agency's 
outstanding reputation of responsiveness, flexibility, and 
success with the U.S. business community. I intend to continue 
the agency's long track record of partnerships with exceptional 
projects, sponsors overseas to foster commercial solutions for 
their developmental goals. I am deeply honored and humbled that 
the President has nominated me to serve as USTDA director, and 
I look forward to working with you and your staff in the 
future.
    I want to thank you, again, very much for holding this 
hearing today, and I'd be happy to answer any questions.
    Thank you.
    [The prepared statement of Mr. Walther follows:]


Prepared Statement of Larry W. Walther, Director-Designate, U.S. Trade 
                         and Development Agency

    Thank you very much Chairman Menendez, Senator Hagel and the 
Members of the Committee.It is a pleasure to appear before you today as 
President George W. Bush's nominee to be the Director of the U.S. Trade 
and Development Agency (USTDA). If confirmed, I look forward to making 
a direct impact on the economic growth and development of middle income 
and developing countries around the world through the promotion and 
export of U.S. technology and ingenuity. My career has taught me many 
things that are relevant to successfully leading USTDA, but maybe none 
as important as the impact that the expansion of infrastructure has on 
economic growth.
    Before being selected as the President's nominee for USTDA 
Director, I enjoyed an accomplished career in the private sector. I 
started as a Switching Engineer for Southwestern Bell Telephone Company 
in 1970 and was fortunate to have achieved success throughout my 
career. In my professional capacities, a significant potion of my 
career with SBC was spent in a leadership role in the area of 
governmental and regulatory relations. Specifically, I had the pleasure 
of representing the company before all levels of government, the 
majority of which was working with state regulatory commissions and the 
legislative and executive branches. I also had a major role within the 
company in economic analysis and marketing oriented business 
development.
    Ultimately, I concluded 30+ years of service with SBC as the Vice 
President for Corporate Services and Chairman of the SBC Foundation. In 
that capacity, I oversaw a philanthropic organization that managed 
$67.4 million in community and charity giving. As Chairman of the 
Foundation, I was charged with the responsibility for developing and 
refining the Foundation's strategic plan, implementing that vision, and 
ensuring it met the goals of the SBC Foundation's directors and the 
Chairman of SBC. In supporting various philanthropic organizations, I 
had to evaluate and identify those programs that best met the goals of 
the Foundation, and had a high likelihood of success, ensuring I was a 
good steward of the Foundation's funds.
    More recently, I had the honor of serving as Director of the 
Arkansas Department of Economic Development (ADED). As the Director of 
the ADED, I was responsible for the overall direction and management of 
the Department and for representing the Governor and the State on all 
matters concerning statewide issues of economic development. In so 
doing, I provided direction and policy advice to the governor and his 
cabinet, the legislature, and regional and local leaders on key issues 
affecting the economic development and business climate of Arkansas. I 
formed significant relationships with top level management within the 
private sector, addressing the economic conditions and business and 
investment opportunities in the State. In addition, I led numerous 
economic and trade development missions to the Far East and Europe, 
actively pursuing investment by foreign companies into the Arkansas 
economy.
    As a result of this background, I have a deep appreciation for the 
essential role of infrastructure, both physical and institutional, in 
establishing the ideal environment for the private sector to serve as a 
catalyst for growth. I also understand the role of government in 
promoting and assisting growth. USTDA's trade and development missions 
reflect this focus. If confirmed, I look forward to applying my 
experience in building on the agency's outstanding record of success.
    As you well know, USTDA activities position U.S. firms to play a 
key role in priority projects in developing countries. Through its 
strategic use of foreign assistance funds, USTDA seeks to create an 
environment favorable for trade, investment, and sustainable economic 
development. The agency accomplishes its mission by assisting early 
project planning activities designed to promote trade capacity and 
sector development.
    Fundamentally, USTDA provides access to U.S. technology, expertise 
and ingenuity in meeting developmental challenges. This access serves 
as the basis of the public-private partnerships that are a hallmark of 
the agency's success. Often, USTDA investments are matched by 
contributions from U.S. firms that share the agency's and project 
sponsor's commitment to a development priority.
    By engaging U.S. private sector expertise early in the project 
planning process, USTDA helps to ensure that U.S. firms will be 
competitive during the implementation phase. This model of foreign 
assistance has created successful mutual economic benefits for both 
U.S. industry and our partner countries in emerging economies. USTDA 
has an impressive record of achievement in carrying out this mission. 
Since 1981, USTDA has been associated with more than $28 billion in U.S 
exports. This amounts to approximately $39 in U.S. exports for every $1 
invested by the agency.
    USTDA also has a strong record of support for U.S. small 
businesses. In fact, the agency contracts exclusively with small 
businesses in evaluating the funding proposals that the agency 
receives. These contracts help to provide small businesses with 
important international experience that they can apply in competing for 
other business opportunities.
    In recent years, the agency has placed considerable emphasis on 
activities that advance U.S. policy objectives. Priority areas have 
included the promotion of global energy security, the application of 
environmental technologies, ensuring secure and safe trade, and 
enhancing regional integration. In doing so, I believe the agency has 
significantly leveraged its resources, and magnified its impact, by 
focusing on areas that complement efforts by other U.S. Government 
agencies.
    In addition, USTDA has targeted its program on developing 
countries' trade capacity. This area now accounts for half of the 
agency's obligations worldwide. Recognizing the capacity of trade to 
unleash the dynamic power of the private sector as an engine for 
growth, these activities are designed to enhance countries' ability to 
efficiently and effectively participate in the global economy.
    In these ways, USTDA rightly recognizes that for the infrastructure 
to reach its fullest potential, the institutional capacity also must be 
in place for the private sector to succeed. By helping to create both 
the infrastructure and the environment for U.S. firms to compete 
overseas, USTDA is opening new markets to U.S. goods and services 
around the world.
    USTDA has a unique trade and development mission, and I am 
committed to that mission. I am also interested in exploring additional 
efforts that the agency can make as an integral part of advancing 
larger U.S. policy priorities. I seek and welcome the guidance and 
support of the Congress in these efforts. The agency already has a 
significant focus on promoting the development of information and 
communications technology around the world. Given my background and the 
capacity of this sector to serve as a catalyst for the development of 
other sectors, I would like to reinforce the agency's commitment in 
this area.
    Mr. Chairman, I am eager to undertake the role of USTDA Director. 
If confirmed, I will build upon the agency's outstanding reputation for 
responsiveness, flexibility and success with the U.S. business 
community. I intend to continue the agency's long track record of 
partnerships with exceptional project sponsors overseas to foster 
commercial solutions to their development goals. Moreover, I will 
consult regularly with this committee and its counterpart in the U.S. 
House of Representatives. I also plan to continue USTDA's close 
coordination with other U.S. Government agencies through the Trade 
Promotion Coordinating Committee, and with other agencies that possess 
technical expertise and other resources that can be applied in 
increasing the effectiveness of USTDA's programs.
    I am deeply honored and humbled that the President has nominated me 
to serve as USTDA Director and look forward to working with you and 
your staff in the future. Thank you very much for holding this hearing 
today. I am happy to answer any questions that you have.

    Senator Menendez. Thank you, Mr. Walther.
    Thank you all.
    And let me start a first round of questioning. We'll put up 
7 minutes, and, unless we get other members, I'll continue 
thereon.
    So, let me start with you, Mr. Morales. I appreciated what 
you said in your opening statement. I want to know what you 
think the role of the OAS should be. I know what it is, but I 
want to know what you think the role of the OAS should be in 
the Americas.
    Mr. Morales. Mr. Chairman, I think the role of the OAS is 
extremely important. I mean, clearly its mission to help 
promote and consolidate democracy is fundamental. I think that 
we need to continue to support that. But it also does quite a 
bit in the area of development. Both of these are critical if 
we're going to have the kind of stability, I think, that we 
want to see in the region. I believe that you have to have 
democracy in order to really have effective programs that are 
going to alleviate the challenges that I outlined in my 
statement--poverty, social exclusion--because that--hopefully, 
that will lead to economic and social development. They 
mutually reinforce one another. So, the role of the OAS is 
critical to that, and that's what I believe.
    Senator Menendez. Let me ask you. We are the largest 
contributor to the OAS. How do you see our role in the process 
of developing consensus among member states? And, before you 
answer that, you know, we have a challenge in the hemisphere. I 
spent a lot of time on focusing in the hemisphere when I was in 
the House, as well as now, in the Senate, and just came from a 
visit there, of five countries. You know, we have a challenge 
in the hemisphere. We see authoritarian--what I consider to be 
authoritarian rule, guised under the cloak of constitutions, 
such as in Venezuela. We see a movement toward the populace of 
many countries who do not believe that democracy has brought 
good things to life and/or open markets. And we see a rising 
tide of anti-Americanism.
    In that context, how do you see us working with the other 
countries of the OAS to bring common cause to what you describe 
as your own vision of what the role should be?
    Mr. Morales. I think that consensus-building is very 
difficult. I--the work that I've had the pleasure to do at the 
Inter-American Development Bank--while not similar to the OAS 
in terms of ``one vote, one country,'' the work there is very 
much based on a consensus spirit. So, what that means is, 
advocacy, a willingness to listen, and a willingness to 
engage--and I think that that is--I would imagine--I don't know 
what the OAS is like, but I have spoken to colleagues who have 
worked there and are working there, and it is, I think, 
critical that we send a signal that--one, that we care about 
the institution. I think the regional members have--and the 
observers--have a real interest in the success of the OAS. So, 
I think our active participation is a way of manifesting our 
commitment to the goals of the--to the OAS, as well as our 
commitment, more broadly, to the region.
    So, I think that--while there are clearly many different 
voices, I think what we have to signal is that, if these are 
democratic governments, we need to be prepared to work with 
them across ideological lines, across party lines, and that's 
the signal that we should send. Hopefully, they'll want to work 
with us, but I think we have to be willing to say that this is 
what we're prepared to do.
    I think, in terms of the budget, we do offer more than 60 
percent of the budget, but we're also providing assistance in a 
number of other programs. I think that the fact that it's not 
percentage-based allows, I think, the other countries to feel 
that their vote is just as important. And it is. Every vote in 
that institution is important. But, it also means that we have 
to be very active and engaging, and be strong advocates.
    Senator Menendez. What do you think is the biggest 
challenge the OAS has? And, after defining it, how would you 
work to meet that challenge, to overcome that challenge?
    Mr. Morales. The--clearly, I think, the challenges--among 
the largest challenge is how democracies can help to provide 
the benefits and goods that people expect that type of 
government to offer. And I think that the OAS, through many of 
its programs, whether it's through the human rights--the work 
of the Human Rights Commission, whether the electoral 
observation missions that it's doing--all of these programs, I 
think, are designed to show that a democratic and pluralistic 
form of government is the best way to ensure that these 
challenges that exist can be addressed, and addressed 
effectively.
    I think that how I would go about it, if I were to be 
confirmed, would be to continue to underscore the importance of 
the Inter-American Democratic Charter, to work, not only on the 
reinforcement of democracy, but, as I said earlier, also on the 
development program. Economic and social programs are 
critically important to the--to democracy. So, that, if I were 
to be confirmed, would be how I would approach the position.
    Senator Menendez. Thank you for your answer. If you are to 
be confirmed, I would urge you to look at legislation, that 
Senator Martinez and I have, creating a fund for the Americas. 
I think it's incredibly important. And we certainly would be 
looking for some vigorous advocacy at the OAS. We think our 
country needs it in the hemisphere, and this is our front yard, 
our closest neighbors. And--many of us believe that the only 
time we pay vigorous attention is when we have a problem--and 
when we have a problem, it's late in the process. We need to 
engage, early on. So, I'm happy to hear some of your answers.
    Mr. Grieco, let me ask you--you and I had a chance to talk, 
in private, about some of the challenges of the department, as 
you know. I know that both AID and the State Department have 
complained about a number of congressional directives, about 
limitations, about holes on reprogramming. And, as I talk to my 
colleagues, that happens because they feel they don't get the 
right consultation--not information, not notification, because 
that's just telling me what--something is happening; doesn't 
engage me in the process of working toward a decision. So, 
notification is one thing. A lot of that is by statute, and 
necessary, so it's not a question of whether you have the 
discretion. Engagement and consultation is another. And so, 
hence, I think you've seen a rise of congressional directives 
on limitations and holes in the reprogramming.
    How would you, in your role--now, you've been acting in 
this role for 9 months. So, now the question is--now--and, I 
believe, largely, you've had authority, but now, with the 
absolute confirmation of the Senate, presuming that happens, 
how would you work to improve this relationship with Congress, 
number one? And, number two, would you commit--responsiveness 
is part of our challenge, getting responsiveness to questions 
posed, both orally and in written form--how would you commit--
would you commit to a timeline for responsiveness to 
congressional inquiries? And, if so, what would that timeline 
be?
    So, first, how would you seek to make the relationship more 
constructive, more engaging, more responsive? And, certainly, 
in terms of inquiries, what would you be willing to commit 
yourself to?
    Mr. Grieco. Well, I think--if I can start with the latter, 
I think what we'd like to try to do--since I've been involved 
in--as an acting assistant administrator in the bureau right 
now, we've gotten our congressional response rates for written 
requests down to 90 percent, or at a 2-to 3-week average right 
now. I think we can improve that even more, frankly.
    In addition to those written responses, what we have talked 
about within the agency--and we've had several new assistant 
administrators now confirmed, that have now joined us in our 
African Bureau, Latin America Bureau, and so forth--there is a 
big interest on behalf of our assistant administrators to come 
up and do more regular consultations on our programming, with 
the committee and with our appropriators committees, as well. 
We're anxious to do that.
    We are seeing, now, I think, a more active approach from 
our assistant administrators to come out to Congress and 
testify on various issues. We just had an assistant 
administrator, Kate Almquist, up, this week, on Kenya. We hope 
to have more assistant administrators in our functional bureaus 
also testifying in the next few weeks, as well. And I think 
we'd like to see an aggressive positioning of the agency, 
especially on its programming budget, on its operating-expense 
budgets, to come up and talk to Congress, and get Congress's 
ideas, too.
    We talked, yesterday, a little bit about the congressional 
budget justification, some of the frustrations that you've 
experienced with that, and I think we're more committed than 
ever, and we're fairly optimistic, that the long version of 
that CBJ, which you're doing to receive, hopefully, in the next 
few weeks, is going to have much greater detail for your 
requests. We'll offer datasets from us to you, providing 
greater congressional interest----
    Senator Menendez. So, I'm going to get country----
    Mr. Grieco. You're going to get countries----
    Senator Menendez [continuing]. Or the committee----
    Mr. Grieco [continuing]. And sectors.
    Senator Menendez [continuing]. Country-by-country projects?
    Mr. Grieco. Plus sectors, as well. And I'm--if I can just--
if you would oblige me for one second, we also added to the CBJ 
this year, specifically at this committee and other committees' 
request, you will receive sector and element representations in 
charts that break it out, not just by the countries, but also, 
now, by some of the biggest issue areas that you've raised with 
us--trafficking in persons; maternal and child health will now 
have its own page; HIV/AIDS, malaria, and TB will be broken 
out; family planning and reproductive health; and basic ed--
just to name a few. So, that--we believe that it's going to be 
better than last year's version. We're listening to Congress, 
and we're responding to Congress. We think we can make it 
better. We're in the middle of a process in this, and we hope 
that, with your guidance and your consultation, that it can be 
what you want it to be.
    Senator Menendez. How about performance data?
    Mr. Grieco. Performance data is based on a separate system, 
so we have FACTS, which is a new foreign assistance measurement 
system, which is tied to our performance analysis, and that 
is--we're going to be offering the staff a briefing on that, I 
understand, within the next week or so. That's a newer system, 
and it's ready to roll out formally, I believe, to the Hill, 
and we're looking forward to doing that.
    Senator Menendez. Well, I see no other member before the 
committee, so I'm going to continue. If a member comes in, I 
will yield to them.
    How does the budget of the Bureau of Legislative and Public 
Affairs compare to that of the H Bureau at the Department of 
State and the legislative shop at the Millennium Challenge 
Corporation?
    Mr. Grieco. AID is fairly small, sir, in comparison. AID's 
got about eight leg officers. My understanding is State's got 
approximately 100, with admin staff included; MCC, I think, 
between four and six on the leg side. Our bureau has about 80 
people, total, when you add----
    Senator Menendez. Millennium Challenge has between four and 
six?
    Mr. Grieco. Just on the leg side, yeah.
    Senator Menendez. And you have what?
    Mr. Grieco. I have about eight leg liaison officers, for 
us. And we----
    Senator Menendez. What's your budget, compared to the 
Millennium Challenge budget?
    Mr. Grieco. I've never been asked, or privy to, the MCC's 
budget on their leg side, but I--if the committee requests, I'd 
be happy to try to provide that information.
    Senator Menendez. Yeah, well, we would like to see it. AID 
has a very important role, and I appreciate what the Millennium 
Challenge Corporation does, but it sounds like that's a 
disproportionate leg shop, compared to what you do.
    Let me ask you this. How would you describe the overall 
capacity of the Legislative and Public Affairs Bureau at AID?
    Mr. Grieco. Compared to MCC----
    Senator Menendez. Just--the overall--your overall----
    Mr. Grieco. Oh, I think----
    Senator Menendez [continuing]. Capacity.
    Mr. Grieco. I think that we have tremendously dedicated 
people. Several of our staff--career staff have been in the 
bureau for more than 20 years, and are experts--really, I 
think, the U.S. Government's experts--on an appropriations 
process on our foreign assistance budgets. Our public affairs 
staff is equally dedicated, and we--as I said, the GAO reports 
have validated that we have unique competencies here that, I 
think, can be expanded. We're looking--the administrator, when 
she arrived, the first thing she did was, we need to rebuild 
LPA staffing. She's getting us several more legislative 
staffers, that are in process now. We have several more public 
affairs staffers coming in. A new chief of public liaison just 
arrived yesterday. And we're doing aggressive replanning on 
both the staffing and resource side for us. And we have a very 
small program budget within the bureau, which we implement the 
strategic ad campaigns, which we talked about in our doc 
program overseas.
    But, there is some program money that we received previous, 
under the Biden Pell Grant, for domestic education, about what 
development does for U.S. interests, for us to talk about to 
the domestic audience. And, unfortunately, that's been capped 
at only about $25,000 a year. We would love to see that cap 
removed, so that we could do more aggressive outreach to the 
American public about what foreign assistance does for their 
own security and does for U.S. national interests.
    Senator Menendez. You're capped at 25,000?
    Mr. Grieco. 25,000.
    Senator Menendez. To communicate to the American people 
why----
    Mr. Grieco. Yes.
    Senator Menendez [continuing]. We spend what we spend, and 
what's their----
    Mr. Grieco. For development----
    Senator Menendez [continuing]. Interest in it?
    Mr. Grieco [continuing]. Education portion, yes. Now, I 
have a $1.7 million budget for the whole bureau, which includes 
my staffing, my leg staff, my public affairs staff, and 
outreach activities, generally.
    Senator Menendez. Okay. Well, that answers part of that 
question I was going to provide to you. If you had more money, 
what you do differently, in terms of the public perception, 
here domestically, about the importance of AID and our foreign 
assistance, in general?
    Mr. Grieco. This would be program money, so the program 
money that we would receive for that purpose would have to--you 
know, I'm very cognizant that, in the past, Congress has had a 
number of problems with the agency, over many decades, with 
some of that money being provided for domestic audience 
education that was used for other purposes. And I think that's 
one of the problems, in the past, that's put some constraints 
on the agency.
    Since I've been there, more 7 years, we're very focused on 
targeting our work, providing Congress with initial analyses of 
what we're trying to achieve, and then doing post-event 
performance reviews, and providing you with the information 
show what our audience reach was, did we move the audience 
awareness ticker? And I think we can show you a model that 
works, because we're doing it now throughout the developing 
world, as well.
    Senator Menendez. Now, let me--before I turn away from 
you--I would like to pursue that a little bit more, but--okay.
    State wants the record to reflect that they only have 70, 
not 100 employees. [Laughter.]
    Mr. Grieco. Sorry. I stand corrected, and I'm sure I'll 
hear from Mr. Bergner later about that. [Laughter.]
    Senator Menendez. No, no, no. You were giving your best 
estimate. You didn't have the numbers before you. We can't hold 
you responsible for it. I just wanted to get proportionality, 
here----
    Mr. Grieco. All right.
    Senator Menendez [continuing]. Get a sense.
    So, the record is reflected, now, for the State Department, 
that they don't have 100, they have 70. [Laughter.]
    Senator Menendez. Which means that I'm still going to get 
my requests a lot quicker, now that I know they have 70. Let me 
just----
    [Laughter.]
    Senator Menendez. Let me just ask you one thing. You were 
very good in giving me an answer about how you're trying to 
improve the timelines, but you didn't make a commitment to what 
the timelines would be, in terms of responding to inquiry--
congressional inquiries. Is it 2 weeks? Is it 3 weeks? What 
would it be?
    Mr. Grieco. Here is the issue, that we spoke about a little 
bit, briefly. If the request requires us to go out to our 
missions overseas, it automatically adds time for us, because 
our staffing at the missions is so tight, and they're doing, 
many of them, two and three different jobs at the mission, and 
with----
    Senator Menendez. So, let's bifurcate it.
    Mr. Grieco. So----
    Senator Menendez. Let's say it doesn't go out----
    Mr. Grieco. If it doesn't require----
    Senator Menendez [continuing]. The request doesn't 
require--go outside. What would you commit yourself to?
    Mr. Grieco. I'll commit myself, sir, to 2 weeks, at the 
outset; and if we can improve upon that, in practice, that's my 
goal.
    Senator Menendez. And if it is outside--or you have to go 
through the bureaus outside, what would you think would think 
would be an appropriate timeframe?
    Mr. Grieco. Again, it's going to depend on whether the 
information is going to require us, in the field, to undertake 
actions to extract the information from our local partners or 
our local NGOs or host governments, but----
    Senator Menendez. What do you think is a reasonable 
timeframe?
    Mr. Grieco. Within a month?
    Senator Menendez. Okay.
    Ms. Guevara, let me ask you a couple of questions. You're 
going to be--you know, ``alternative executive director'' 
sometimes sounds like, well, doesn't really matter, until--it's 
like being Vice President, you know, you're there and waiting. 
I look at the alternative executive director in a little bit 
different way, much more proactively, and have--and certainly, 
as we have seen--if Mr. Morales gets confirmed, he's going to 
be leaving a position that the all--you know, there's going to 
be alternatives to--alternates to. So, you know, it can--you 
can ultimately function in the position, itself. So, I'd look 
at the alternate as very important in our decisionmaking.
    And so, the World Bank--there's an area--two areas that I 
want to explore with you. One is, middle-income countries can 
now borrow from the private capital markets at pretty 
competitive interest rates. So, what's the incentive for poor 
countries to borrow from the World Bank? And, in essence, how--
what do you see the comparative advantage is for the World 
Bank--to borrow from the World Bank versus--you know, from 
middle-income countries versus, largely, the market that they 
can achieve in the private marketplace, without the World 
Bank's constraints?
    Ms. Guevara. Thank you, Mr. Chairman.
    The World Bank has a mission that is not only just to loan 
money, but one of the things that it brings is its ability to 
have capacity-building and provide technical assistance. This 
is the one thing that it has over a regular bank that might be 
lending money to developing countries or to middle-income 
countries, is that the World Bank could provide capacity-
building, could help with helping countries meet their 
environmental safeguards and other social safeguards.
    Senator Menendez. So, you think that that is the singular 
nature--that it's the capacity-building essence of it, that 
gives the bank the desirability--the people the desirability--
countries, I should say--the desirability to go to the bank?
    Ms. Guevara. I certainly think it's one of the best 
incentives. If the countries can go to the private sector and 
don't need that help, then there's no need to go to the bank.
    Senator Menendez. So, how do you think the bank should 
charge for those activities?
    Ms. Guevara. I think the poorest countries--if we're 
looking at Africa, those services should not be charged, 
necessarily, for those countries. If you're looking at more 
middle-income countries, depending on the service, then you 
could look at what that capacity-building and technical 
assistance would be.
    Senator Menendez. Is that--well, what does the bank do now 
in that regard, do you know?
    Ms. Guevara. I don't have a lot of information on that, 
but----
    Senator Menendez. Let me ask----
    Ms. Guevara [continuing]. I'll be glad to find out.
    Senator Menendez [continuing]. You this. What do you think 
is the main mission of the bank? Is it economic expansion or is 
it poverty alleviation?
    Ms. Guevara. It's eradication of poverty. And to the extent 
that it's promoting economic growth, it should do it in an 
inclusive manner.
    Senator Menendez. Okay. You gave me the words ``inclusive 
manner.'' Give me a little bit of meat on that bone.
    Ms. Guevara. Yes, sir. We've heard a lot about global 
prosperity, especially in the last years, and globalization, 
and the point is that not everybody has been able to partake in 
that growth and in that prosperity. And what the World Bank 
does is ensure that this prosperity includes all people, even 
those that perhaps don't have the natural ability to partake in 
it.
    Senator Menendez. And the reason I pursue that with you is 
because we can have economic expansion, but that does not 
guarantee poverty alleviation or elimination.
    Ms. Guevara. I agree.
    Senator Menendez. And so, we look forward to seeing our 
leadership on the bank move in a direction that, maybe, can 
have economic expansion, but is also about significant poverty 
alleviation, at the end of the day.
    Let me ask you this. The World Bank, as with so many 
institutions, particularly of this size, has--suffers from some 
of the problems that plague large bureaucracies: it has 
entrenched interests, it has turf wars, it has competing 
ideologies, power, and, of course, money. In my mind, the most 
obvious, and, frankly, in my view, the most absurd, tradition 
at the World Bank is the instinctive structure--the way in 
which the bank promotes its recognition for bank personnel is 
based on pushing money out of the door, rather than on the 
results their programs demonstrate. I know that--from your 
discussion of your private-sector experience, I'm sure you 
didn't achieve success by pushing--just simply pushing money 
out the door. If you did, I--tell me the company, so, when I 
retire, I can go try to work there. [Laughter.]
    Senator Menendez. So, point is, Do you think that's a good 
way to run an agency?
    Ms. Guevara. I think it's vitally important for the 
effectiveness of the World Bank to have a focus on results-
based measurements, and that it's not just about how much money 
you pushed out the door, but following that project and making 
sure that results on the ground were made, and, further, in 
having incentive to countries who show that they are showing 
results in the way that their loans and their credits are given 
to them.
    Senator Menendez. What would you do to--then, if you are 
confirmed, would you do to change that present standard at the 
bank?
    Ms. Guevara. Well, if I was confirmed, I would work with 
the USCD. Again, I think, coalition-building and building 
support from different countries is very important, and working 
with President Zoellick to see what sorts of internal policies 
could be changed to move in that direction.
    Senator Menendez. Let me ask you one last set of questions. 
Give me a sense of the governance structure of the bank. Who 
has the power within the bank? And who makes the majority of 
the funding decision? Who decides where the money goes and what 
it's used for?
    Ms. Guevara. The bank is run by the board of directors that 
are representatives of the member states, and it's the board 
that votes on where the funding will go.
    Senator Menendez. And how does that directorship--is it 
weighted, or is it--is it equal votes?
    Ms. Guevara. Yes, sir, it's weighted, depending on how 
large a share the member has.
    Senator Menendez. So, therefore, it's not just that the 
directors have a vote, but, since it's weighted, there's 
obviously a universe in that structure that has a pretty big 
say about where that funding goes, right?
    Ms. Guevara. Yes, sir.
    Senator Menendez. Mr. Walther, let me ask you--I thought I 
heard this in your opening statement. I think it's a good 
thing, but I just--let me ask you. Many people, when they're 
confirmed at the late stage of an administration, try to 
scramble and put their mark on the agency, and sometimes 
propose changes, reorganizations, a refocusing of the mission. 
Sometimes they can be good, sometimes it can be chaotic, 
because it cannot be executed within the timeframe of the 
appointment. So, how--what would be your agenda for the next 10 
months or so, if you were to be confirmed by the Senate?
    Mr. Walther. That's very--a very good question, Mr. 
Chairman.
    I have observed----
    Senator Menendez. I'm looking for a very good answer. 
[Laughter.]
    Mr. Walther. I'm going to get----
    Senator Menendez. You have to have some humor in this 
process, I think. [Laughter.]
    Mr. Walther. Touche.
    I have observed this agency from afar for some time. I've 
had friends--two people who were former directors, and people 
that have worked within the agency--so, I've observed it for 
some time. And this agency is very unique. It's small. It's 
very nimble. It uses its resources very conservatively and 
wisely. And the staff, from my observation, is very 
professional. I have had some discussions with the senior 
staff, only. But, I am very, very encouraged and very--the 
level of expertise and the way they conduct themselves is 
extremely professional. I can see no changes like that at all. 
They've got a wonderful mission. They're accomplishing their 
mission. And I would like to continue to aid them in doing 
that, and in aiding these countries, also.
    Senator Menendez. Good. Let me ask you--you just described 
a very nimble agency. It's a niche agency, as well.
    Mr. Walther. Right.
    Senator Menendez. It requires its interrelationship with 
other agencies, to some degree, to perform its mission. How do 
you see yourself working to facilitate that coordination?
    Mr. Walther. I have a history, in jobs that I've had in the 
past, including as director of the Department of Economic 
Development, of being a team player. I like to work with other 
agencies. I've always done that. And there's a--when you can 
work together for the same goal, you can pool your resources 
and really accomplish more together than you can apart. And so, 
I see us working with the State Department, with the U.S. Trade 
Representative, with other agencies, with the Ex-Im Bank and 
others. And I will--they do that--I will continue to do that, 
and I will look forward to those relationships.
    Senator Menendez. One final question. The agency aims to 
promote U.S. enterprise and support at the same time--economic 
development in developing countries, through its activities. Of 
the two--export promotion or development assistance--which do 
you believe should be prioritized at TDA?
    Mr. Walther. The notion is that they should be balanced 
equally. And there's a--there is, actually, a third thing, and 
that is the United States trade policy or foreign policy. So, 
we need to balance all three of those.
    I'm--I've always been involved in economic development. I 
like to see the creation of jobs. And so, I am anxious to see 
our results in the area of creating jobs within the United 
States. But, on the other side, this is a unique way of 
providing international aid to developing and middle-income 
countries, where we both are partners, and we will equally 
benefit, and we should--in both the jobs, the exports, and the 
infrastructure in the foreign country.
    So, I would hope that it would be a balanced approach to 
aid to foreign countries.
    Senator Menendez. Equal parts----
    Mr. Walther. Equal parts.
    Senator Menendez [continuing]. At every TDA event?
    Mr. Walther. That's the objective. We--you--I mean, and you 
can't--it's hard to measure that. I mean, you know, you put--
you help them--convince them that a power plant's the right 
thing to do, and then we get the--we get the export, they get 
the infrastructure. So, it's--you know, hopefully, they think 
that they get a fair result from our partnership, and so do we.
    Senator Menendez. Mr. Morales, one last question. The--you 
mentioned it, and I think it's incredibly important, and we 
talked about it privately; I just want to get you on the record 
on this--the Inter-American Democratic Charter. In recent 
years, the member states have debated whether to more clearly 
define what constitutes--what conditions constitute a violation 
of the charter, and what automatic responses might be included 
in the charter to help the OAS deal with violations of its 
principles. How do you believe we can work to strengthen the 
charter?
    Mr. Morales. Mr. Chairman, the charter is not a treaty, 
it's not a convention; so, it doesn't have, for example, 
sanctions associated with noncompliance. There are provisions 
in the charter that call for the review--for example, if there 
are conditions going on in one of the member states that raises 
concern, that those can be looked into, but they do require 
consent of the country.
    Having said that, the--these issues can be raised to the 
Permanent Council; and, in fact, there have been a number of 
initiatives that have been presented, I believe, in the last 
three general assemblies, to try to help countries implement 
the principles that are enshrined in the Inter-American 
Democratic Charter. And, I believe, as recently as last year, 
Secretary Insulza has presented different--or, some initiatives 
to try to strengthen the charter. So--but, clearly--because 
it's not a treaty, it doesn't have those sanctioning 
provisions; but, ultimately, I think, the force of the charter, 
the strength of it, depends on the ability for all of the 34 
member countries of the OAS to believe in it, to try to 
implement it in their countries and in their democracies.
    Senator Menendez. Wasn't Venezuela recently an example of 
which, just by saying no, the will of the OAS was largely 
aborted, in terms of having--I don't know if it was observers 
are in certain violations, or a rapporteur, or something to 
that effect?
    Mr. Morales. The case that you're referring to is with 
regard to RCTV, and there was a concern raised about the 
ability for freedom of expression. And, in fact, this is an 
issue that Secretary Rice raised at the general assembly in 
Panama. Our Alternate Permanent Representative sent a letter to 
Secretary Insulza, requesting that the matter be looked into 
under, I believe, it's article 18 of the charter. But, as I 
indicated earlier, the charter also provides that--to be able 
to do that, it requires the consent of the country in question, 
and Venezuela did not provide its consent.
    Senator Menendez. It seems to me that if the charter is 
going to be meaningful, at the end of the day, other than an 
aspirational document, we need to get the member states to come 
around, to have some teeth to it; otherwise, it's--it is a fine 
aspirational document, but it just remains that, at the end of 
the day. It would be something I would look forward to, when 
you're there, hearing about what ground exists for moving in 
that direction.
    Let me--we've tried to explore, on behalf of the committee, 
both your views as--on some of the critical issues, your 
capabilities to perform the job. Let me thank all of you for 
testifying, for your willingness to serve our country in these 
important positions.
    However, the record will remain open until the end of the 
day tomorrow so that committee members may submit additional 
questions for the record.
    I ask that each nominee respond expeditiously these 
questions. Obviously, we need your answers to them before we 
can move--the Chairman can move, when he chooses to do so, to a 
final business committee meeting.
    And since I have no other members here and no additional 
comments, this hearing is adjourned.
    [Whereupon, at 3:45 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Responses of Ana Guevara to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Corruption and lack of transparency in the natural 
resource sector severely hampers development and poverty alleviation in 
less developed countries. The World Bank has made a commitment to 
combat corruption through adoption of the Governance and Anti-
Corruption Strategy. What should the U.S. Government do to ensure that 
this strategy is meaningfully implemented and mainstreamed into World 
Bank interventions?

    Answer. Fighting corruption has become a top priority for the Bank. 
In March of 2007, the board approved the Governance and Anti-Corruption 
(GAC) Strategy, and in September the Bank released its final 
implementation plan. Implementation of the GAC will likely have 
tremendous resource and operational implications for how the Bank does 
business, and it is still developing appropriate ways to integrate 
governance and anticorruption efforts into all levels of Bank 
engagement. The United States has actively engaged management on the 
implementation of this strategy at the policy, country strategy, and 
project levels. Moving forward, it will be important to provide 
incentives to Bank staff to (1) engage more proactively on the ground, 
(2) incorporate concrete good governance objectives in projects, (3) 
develop stronger results frameworks, (4) increase early involvement of 
a broad range of stakeholders, and (5) strengthen synergies with other 
international actors at the global level, such as it has with the 
Extractive Industry Transparency Initiative (EITI). If confirmed, I 
will commit to strongly pursue this top priority of the United States.

    Question. What actions should be taken to ensure that the World 
Bank effectively tackles natural resource corruption and adopts a more 
focused and coherent approach to natural resource management?

    Answer. The World Bank has adopted several initiatives to tackle 
the natural resource corruption issue. For example, it is a strong 
supporter of the Extractive Industries Transparency Initiative, which 
promotes transparency in resource rich countries through the reporting 
and publication of company payments and government revenues from oil, 
gas and mining. It has also worked on a set of indicators that can be 
used to measure and track countries' overall fiscal transparency. But 
more could be done to encourage a broader comprehensive and systemic 
approach for natural resource management. Among other initiatives, the 
Bank could (1) incorporate the GAC implementation principles 
consistently into all natural resource Bank projects, (2) ensure 
natural resource programs are supported on the ground by governance and 
law enforcement programs specific to its sector as well as with those 
that are nationally focused, (3) incorporate strategic partners, civil 
society, and indigenous people in project development and oversight to 
ensure human rights, economic, and environmental goals are 
strategically met, (4) develop projects that promote equitable economic 
and social development, and (5) strengthen synergies with other 
international actors at the global level, particularly those that fight 
money laundering. If confirmed, I would have the opportunity to obtain 
more information about these challenges once inside the World Bank, and 
would urge the World Bank management to strengthen its efforts.

    Question. The forestry sector is at particularly high risk for 
corruption, with a long history of illegal logging fueling conflict and 
poor governance from Cambodia to Liberia. The World Bank has funded 
several failed forestry projects, for example with the Bank's 
inspection panel reporting last month that its forestry initiative in 
the Democratic Republic of Congo broke several internal procedures and 
ignored the rights of local people living in the forest areas. What 
concrete benchmarks to combat corruption in the forestry sector will be 
developed so that the Bank does not repeat these mistakes? How should 
the United States promote these efforts?

    Answer. Good governance in the forestry sector is critically 
important because it can help improve the livelihoods of hundreds of 
millions of poor people in developing countries and because forests 
provide a global public good supplying carbon storage services.
    As part of its efforts to attack corruption and consistent with the 
broader U.S. Government's results agenda, the Bank should consider 
applying governance benchmarks for the forest sector. While it would be 
necessary for me to have access to more detailed information at the 
Bank before making specific recommendations on benchmarks in the DRC, 
or other countries, benchmarks could generally focus on ensuring Bank 
projects include (1) transparent practices and engagement with local 
communities and civil society groups in project development, management 
and oversight, (2) participatory and sustainable land use planning that 
includes environmental and social safeguards, and (3) strengthened law 
enforcement capacity and improved management of artisanal logging. The 
United States has been engaged on the Bank's forest sector activities, 
as reflected in the U.S. statement on the inspection panel case. If 
confirmed, I look forward to opportunities to engage with Bank 
management to underscore the seriousness that the United States 
attaches to this issue, and to work closely with Treasury and other 
U.S. Government agencies to make sure that the U.S. interests in forest 
sector governance reflected in that statement are fully addressed by 
the Bank in its future operations.

    Question. How should the World Bank actively support the efforts of 
civil society groups, including their ability to operate freely and 
without intimidation?

    Answer. Unfettered input from civil society is an important 
component of the development process. It plays an especially crucial 
role in post-conflict countries. The World Bank has several mechanisms 
to actively support the efforts of civil society groups both at the 
country programming and project levels. It also holds hundreds of 
learning programs for civil society each year. Inclusion of civil 
society in Bank activities often gives the poorest people a voice 
without fear, and the ability to hold the Bank and local governments 
accountable. While the Bank cannot control the policies of host 
governments, these mechanisms lend legitimacy to civil society groups 
and help create political space for their activities. If I am 
confirmed, I will use my voice on the board to encourage the Bank to 
maintain and strengthen its mechanisms for engaging with civil society.

    Question. The Governance and Anti-Corruption strategy highlights 
the importance of meaningful civil society engagement and consultation 
in World Bank efforts to combat corruption--what steps should the World 
Bank take to build up the capacity of civil society groups to monitor 
the natural resource sector and public financial management and to hold 
governments to account on these issues?

    Answer. Civil society groups can provide an important check on 
government abuse and Bank projects, as we recently saw in the DRC 
Inspection Panel. In its March GAC report and the September 
implementation plan, the Bank committed to working with a wide array of 
stakeholders, including civil society groups, to combat corruption. A 
fundamental course of action for success that the Bank has identified 
is to strengthen transparency so the groups can be better informed. The 
Bank should also continue its trend of increasing civil society 
participation in country programming and projects, as well as its 
capacity-building seminars on building strong civil society 
organizations. These activities will be essential for holding 
governments accountable in the natural resource sector and public 
financial management. If confirmed, I will work with the U.S. Executive 
Director, other Bank Executive Directors and key Bank staff to 
strengthen civil society engagement and consultation as part of the 
overall effort to combat corruption.
                                 ______
                                 

          Responses of Ana M. Guevara to Questions Submitted 
                       by Senator Robert Menendez

    Question. Relationships with other development partners: Do you 
currently have relationships with senior officials at USAID, the 
Department of Treasury, and the other multilateral financial 
institutions in Washington like the Inter-American Development Bank and 
the International Monetary Fund? If so, please describe the nature of 
these relationships. If confirmed how will you build upon and draw on 
these relationships to help advance the United States's role at the 
World Bank?

    Answer. Yes, I do have relationships with senior officials at 
USAID, the Department of the Treasury, Department of Commerce, Inter-
American Development Bank, Export-Import Bank, and Oversees Private 
Investment Corporation. The nature of the relationships vary from 
professional to personal. If confirmed, I will build upon and draw on 
these relationships in three ways:

  <bullet> Learn from their personal experience what strategies have 
        been most successful.
  <bullet> Leverage their relationships to build new strategic 
        partnerships at the World Bank.
  <bullet> Pursue opportunities to create greater synergy with those 
        institutions to help advance U.S. priorities.

    An example might be working with USAID to create greater 
coordination with educational projects like the Education for All Fast 
Track Initiative, which is a World Bank initiative, but for which USAID 
has the lead in the U.S. Government. Another example might be working 
with IADB to garner ``bloc'' support for U.S. positions at the World 
Bank. Or even, to use the Department of Commerce's broad global network 
to promote U.S. priorities by urging Bank members in their capitals to 
adopt strong procurement practices.

    Question. U.S. reputation with the World Bank: The World Bank has 
tremendous convening power, with the decrease of the United State's 
reputation for ``playing fair'' in multilateral environments, how are 
you going to improve the United State's credibility inside an 
institution whose staff increasingly views the United State's role with 
skepticism rather than optimism?

    Answer. Improving U.S. relationships within the World Bank is 
essential for attaining desired results and will be my priority. I will 
work with the U.S. Executive Director and other U.S. Government 
colleagues to strengthen American leadership and advance our country's 
interests, while demonstrating consistent respect for multilateral 
engagement. I hope to achieve this by focusing on five key strategies:

  <bullet> Identifying far-sighted strategies where the United States 
        can take the lead and shape the agenda. This is important in 
        order to shape consensus early prior to country positions being 
        solidified;
  <bullet> Incorporating other country's national interests into the 
        justification of our position. This requires research up front 
        to use hard data to relieve their concerns and invalidate their 
        alternatives. It will also allow them to support U.S. positions 
        without appearing to be submitting to U.S. pressure.
  <bullet> Building broad coalitions by cultivating bilateral 
        relationships with our key allies and developing countries that 
        play influential roles. This will require head-to-head 
        advocacy, including visits with key decision makers in 
        capitals, and officials from small countries that are well 
        respected and wield extensive personal influence. This is 
        important in order to avoid opposition simply because an 
        initiative appears to be American made.
  <bullet> Promoting the importance of multilateral diplomacy and the 
        work of the Bank through think tanks, educational institutions, 
        policy makers, Congress, and young people. This will build 
        public support for continued engagement.
  <bullet> Ensuring that colleagues at the Bank understand the 
        reasoning when the United States must take a position on its 
        own. And ensure that others do not misrepresent the U.S. 
        position.

  <bullet> By being part of the process and the solution, the United 
        States can foster increased respect and optimism. Engaging in 
        consistent multilateral diplomacy will expand our influence and 
        make it easier when we have to stand alone.
                                 ______
                                 

         Responses of Jeffrey J. Grieco to Questions Submitted 
                       by Senator Robert Menendez

    Question. If confirmed, would you commit to a timeline for 
responsiveness to congressional inquiries? If so, what would that 
timeline be for written inquiries? What would the timeline be for phone 
calls placed to USAID?

    Answer. I would like to affirm the response I provided during my 
SFRC hearing that, should I be confirmed, LPA will commit to timelines 
for written Congressional member inquiries as a measure of our 
responsiveness. These timelines would be:

  <bullet> Standard correspondence: Two weeks should be a reasonable 
        standard for correspondence which can be answered in 
        Washington.
  <bullet> Field input correspondence: One month for letters that 
        require major inquiry or research in the field involving our 
        missions, in-country partners, and/or host governments. 
        Needless to say, if confirmed, I intend to strive to do better 
        in both cases.
  <bullet> Interim response commitment: I also recognize that in some 
        rare cases we may have no choice but to exceed those standards 
        for a complete or comprehensive response. In those cases I 
        commit to a timely interim response and/or other appropriate 
        communication with the subject congressional office.

    Receipt and processing of congressional correspondence: We would 
also like to affirm that all correspondence is time stamped upon date 
of receipt by our congressional correspondence unit. This is important 
since all USAID mail is routed via a terrorist screening center and 
there are some significant delays in receipt of correspondence sent via 
regular mail. For this reason, we also maintain a direct facsimile 
capability for member letters to be transferred to USAID at (FAX) 202-
216-3237. Lastly, to speed up response times, we encourage members to 
call us directly to arrange pick-up. Upon receipt of this call to our 
congressional correspondence unit at 202-712-4462, a USAID legislative 
liaison officer will come by and pick up the letter.

    Question. If confirmed, what improvements would you suggest for the 
management of staff and communications of the Bureau of Legislative and 
Public Affairs?

    Answer. As noted at my hearing, I would like to focus on two sets 
of improvements critical to the Bureau--one set operational and one set 
strategic. My first set of improvements would be ``operational'' to 
support LPA mandated activities including:

  <bullet> Staffing improvements: In helping to make the Agency better 
        informed about the role, responsibilities, and needs of the 
        Congress, it is valuable for us to find ways in which we can 
        communicate more systematically and proactively to the Congress 
        on Agency plans, programs, and issues. To do significantly 
        better on this objective is conceptually easy, but harder in 
        practice. With currently only seven congressional liaison 
        officers and potential impending departures, to address the 
        usual high demand for information from congressional members 
        and staff, it is difficult to sustain significantly proactive 
        communications efforts to Congress. I am already hard at work 
        improving the staffing/hiring of open personnel positions 
        within the Bureau, both of a career and noncareer nature. I 
        will continue to make the case for further legislative staff in 
        Washington and more targeted communication (specialists) 
        staffing both in Washington and the field.
  <bullet> Maintaining resources: We have been able to maintain the LPA 
        operating expense budget at consistent levels but we need 
        further support for improving our program allocations for (a) 
        domestic development education activities so as to build a 
        wider constituency for U.S. foreign assistance and development 
        activities abroad (e.g., by removing the cap on Biden-Pell 
        grants), and (b) encouraging wider program support for our 
        successful targeted country-based ad campaigns which show 
        dramatic and specific increases in host country awareness of 
        USAID implemented foreign assistance activities.
  <bullet> Better information sharing with congressional staff: We will 
        further this through continued improvements to our 
        correspondence unit and more assistance with CODELs and 
        StaffDels. Note, USAID does not receive directly any list of 
        CODELS and StaffDels to our more than 80 countries--this being 
        very important to our efforts to improve support for member 
        trips and planning. If these lists are provided to me I commit 
        that we would secure the information on a classified system 
        only.
  <bullet> Intra-agency communications about legislative affairs:

    <all> There are numerous measures we have undertaken and will 
            undertake to improve internal communication, including 
            frequent and regular staff meetings, more systematic 
            linkages between congressional liaison officers and press 
            and public affairs officers, Bureau and office off sites 
            for team building and communication, the creation and 
            maintenance of an online congressional calendar and it's 
            continual cross checking with the administrator's strategic 
            scheduling activity; the weekly Strategic Communications 
            Group (SCG) meetings.
    <all> Among the ways in which we have sought to improve sharing 
            congressional priorities with our Agency staff is to assign 
            congressional liaison officers and press officers to 
            support specific Bureaus, and expect their close and 
            intimate participation in the work of those Bureaus, beyond 
            simply attending their staff meetings.
<all>In addition, we have asked the Bureaus to designate, and intend to 
            strengthen, a roster of ``gate keepers'' whose principal 
            function is a close liaison with LPA.
<all>We also plan to expand our LPA provided training to the rest of 
            the Agency on congressional operations, and possibly to 
            expand opportunities for USAID employees to perform details 
            and other Hill assignments as a firsthand way of 
            familiarizing more Agency employees with how the Congress 
            works.

    My second set of improvements would be Agency-wide imperatives or 
``strategic improvements'' which may have a significant impact or 
reliance on LPA including the following:

Operating expense plus up for USAID staffing: LPA will continue to seek 
        approval from Congress for the operating expense increase for 
        USAID which would allow 300 plus new Foreign Service officers 
        and civil servants each year for next 3 years and would 
        dramatically improve our training float for the Agency. This 
        initiative, spearheaded by the administrator, is entitled the 
        ``Development Leadership Initiative'' which LPA has already 
        briefed some SFRC staff on its importance in revitalizing 
        USAID.
Focus on new diversity recruitment strategies: At the administrator's 
        initiative, USAID is reformulating it's new human capital 
        resources strategy for 2009-2013: LPA serves on the 
        administrator's new diversity recruitment working group and is 
        especially active in seeking new strategies to increase 
        Hispanic and underrepresented minority recruitment.
Securing agreement from Congress for the President's program budget 
        request for USAID: LPA will work closely with Congress on the 
        fiscal year 2009 proposed budget, as well as in consideration 
        of any future action on the fiscal year 2008 supplemental and 
        future fiscal year 2009 supplemental. We recognize the 
        supplemental(s) are very important to Congress, especially in 
        consideration of humanitarian assistance priorities contained 
        therein.
GDA and Administrator Fore's commitment to major expansion of USAID's 
        public-private partnerships: In fiscally tight budget 
        circumstances increased use of public-private partnerships only 
        makes sense in order to maximize use and leverage of limited 
        foreign assistance budget dollars. Today, of total resource 
        flows to the developing world the vast majority are private--a 
        reversal from 20 years ago. USAID needs to take advantage of 
        this and LPA needs to help communicate the importance of this 
        trend to key audiences.


                              NOMINATIONS

                              ----------                              


                         TUESDAY, APRIL 8, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Barrett, Barbara McConnell, to be Ambassador to the Republic of 
        Finland
Ghafari, Yousif Boutrous, to be Ambassador to the Republic of 
        Slovenia
McEldowney, Nancy, to be Ambassador to the Republic of Bulgaria
Urbancic, Frank, to be Ambassador of the Republic of Cyprus
Volker, Kurt, to be the U.S. Permanent Representative on the 
        Council of NATO
                              ----------                              

    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barack Obama 
presiding.
    Present: Senators Obama, Menendez, Cardin, Casey, Lugar, 
Voinovich, and Barrasso.
    Also Present: Senator Kyl.

            OPENING STATEMENT OF HON. BARACK OBAMA,
                   U.S. SENATOR FROM ILLINOIS

    Senator Obama. This hearing of the Committee on Foreign 
Relations will now come to order. Today, the committee meets to 
consider the nomination of five important diplomatic positions.
    The President has nominated Barbara McConnell Barrett to be 
Ambassador to the Republic of Finland, Yousif Boutrous Ghafari 
to be Ambassador to the Republic of Slovenia, Frank Urbancic--
did I say that correctly?--to be Ambassador of the Republic of 
Cyprus, Nancy McEldowney to be Ambassador to the Republic of 
Bulgaria, and Kurt Volker to be the U.S. Permanent 
Representative on the Council of NATO.
    I want to congratulate all of you on your nomination. I 
look forward to hearing from each of you this afternoon, or 
this morning.
    I also want to welcome my colleague Senator Kyl, who has 
joined us to introduce Ms. Barrett today. And I understand that 
Senator Casey will be joining us a little later to introduce 
Mr. Volker.
    Senator Levin, who regrets he cannot be here, he has got 
this little thing he has got to do right now, chairing the 
Armed Services Committee hearing of General Petraeus and 
Ambassador Crocker. But he asked me to note his support for Mr. 
Ghafari's nomination to be Ambassador of Slovenia. His 
statement of support will be included in the record.

    [Senator Levin's statement appears at the end of this 
hearing in the ``Additional Material Submitted for the Record'' 
section.]

    And I just want to welcome our esteemed colleague and the 
ranking member on the Senate Foreign Relations Committee, 
Richard Lugar.
    I am very pleased to welcome each of our nominees today. 
Without exception, you bring an impressive range of talents and 
experience to your assignments, and I look forward to 
discussing the challenges you are likely to encounter and how 
you intend to strengthen our Nation and its allies in the 
course of your service.
    Your nominations come at a critical moment in the history 
of American diplomacy. The challenges we face are formidable--
securing our country, revitalizing our alliances, bolstering 
young democracies, and confronting the common threats of the 
21st century, including terrorism and nuclear weapons 
proliferation, climate change and poverty, genocide and 
disease.
    Turning these challenges into opportunities will require 
renewed American leadership. It will also require ambassadors 
who exemplify the principles that make our Nation great. Upon 
confirmation, each of you will work with countries that are 
close partners of the United States and share our common faith 
in the value of self-determination, accountable governments, 
collective security, and human rights.
    And Mr. Volker, if confirmed, will serve as the United 
States Permanent Representative to the North Atlantic Treaty 
Organization. NATO is the most powerful and most successful 
military alliance in the history of the world. No organization 
has done more to promote peace and stability in Europe or to 
create the protective shield that has allowed the democracies 
of the North Atlantic to grow into a free and prosperous 
community.
    But as we saw at last week's summit in Bucharest, NATO is 
not as strong, as capable, or as united as I believe it should 
be. Afghanistan, NATO's first major mission beyond the borders 
of Europe, has been overlooked and undermanned by many members 
of the alliance, including the United States. Success in 
Afghanistan, I believe, is critical to American national 
security and to the security of the entire world. And a failure 
there would not only endanger our Nation and global stability, 
it would cast serious doubt on the ability of NATO's military 
and political architecture to uphold our security in the 21st 
century.
    Some new troop commitments to Afghanistan were made in 
Bucharest, and that is good news. But neither the 
administration nor our allies have yet done enough to muster 
the resources that would win the war there and prevent 
Afghanistan from reemerging as a safe haven for the Taliban and 
al-Qaeda. The Bucharest summit also left out one of three 
candidates for membership and failed to provide the young 
democracies of Georgia and Ukraine with membership action 
plans.
    Mr. Volker, you are a professional diplomat of the first 
order, and I have confidence that you will represent the United 
States ably in Brussels. However, ensuring that NATO retains 
its rightful place as the cornerstone of the Euro-Atlantic 
alliance will require that we do more to enlarge NATO to 
include worthy European democracies and focus more resources on 
the fight against the Taliban and al-Qaeda.
    Doing so will require adroit diplomacy at NATO 
headquarters, but it will also mean making the case directly to 
the citizens of Europe that we must all increase our commitment 
to global security. We succeeded in coming together to confront 
the greatest challenges of the second half of the 20th century. 
We cannot succeed in confronting the challenges of the 21st 
century unless we do so together.
    Mr. Urbancic, if confirmed, you will be serving in Cyprus 
at a time of new optimism in the long struggle to bring an end 
to the estrangement of the Greek and Turkish Cypriot 
communities. After three decades, last Thursday's opening of 
the Ledra Street crossing in downtown Nicosia was a tangible 
indication of goodwill on both sides of the island to forge a 
settlement between two peoples who share a common home, a 
common history, and a common destiny.
    I hope that the day of Cypriot reunification comes in the 
course of your ambassadorial service and that you will do 
everything in your power to help the Republic of Cyprus and the 
Turkish Cypriot community reach a just and lasting peace.
    Slovenia has been on the cutting edge of democratic change 
in Eastern Europe. Since its early success gaining membership 
in NATO and the European Union, it has been a model for the 
progress of the Balkans. Despite its small size, Slovenia 
currently leads the nations of the European Union while it 
occupies the EU's Presidency. Its citizens are helping to set 
the agenda for an entire continent.
    Slovenians are focusing Europe's attention on the 
unfinished business of bringing peace and prosperity to the 
Balkans. The people and Government of Slovenia will need the 
help of the United States and other partners as they 
consolidate their democratic gains and seek to extend those 
gains throughout the region.
    Mr. Ghafari, as an immigrant who has truly lived the 
American dream, you represent the strength found in our 
country's diversity. Similar strengths should characterize life 
in the Balkans. In some parts of the region, including 
Slovenia, it already does. I hope your story and your service 
will resonate with people throughout the former Yugoslavia.
    After a difficult transition from communism and setbacks in 
the 1990s, Bulgaria has made impressive economic strides in 
recent years. As a potential hub for oil and gas distribution, 
the country could play an important role in Europe's future 
energy security. However, Bulgaria continues to struggle with 
corruption and the corrosive influence of organized crime. Any 
failure to address these challenges could jeopardize the 
country's future cooperation with the European Union and, with 
it, much of the progress that has occurred in the recent past.
    Ms. McEldowney, you will need to work aggressively to 
assure that the democratic backsliding, which has happened in 
some other parts of Eastern Europe, does not occur in Bulgaria. 
The country's institutions and judicial system will need your 
support and assistance in order to help Bulgaria remain on 
course toward full Euro-Atlantic integration.
    In recent years, the United States has dramatically reduced 
its financial assistance to Bulgaria, so you will have to be 
creative. But your exemplary record as a member of the Foreign 
Service bodes well for your work on these critical tasks.
    And finally, Ms. Barrett, you have a different task, as you 
will represent America in a country that has traveled further 
down the path of democracy and prosperity. Finland is a world 
leader in technology and innovation and even outranks the 
United States in some measures of development. But it still 
faces challenges in its relationship with Russia and its long-
standing position outside of the Euro-Atlantic security 
institutions.
    At some point soon, Finland may move toward membership in 
NATO. Should the Finnish people and Government choose to pursue 
that objective, I hope you will be their biggest booster.
    All of you are coming before this committee at a defining 
moment in America's story. Now is not a time for half-hearted 
diplomacy. We need to raise the bar for our allies, and that 
must begin with raising the bar for ourselves. Together, with 
our partners in Europe, I am confident that we can make whole a 
world that is in need of repair. And I look forward to a more 
detailed discussion of the challenges and opportunities that 
await you.
    I want to acknowledge that Senator Voinovich has joined us, 
as well as Senator Cardin. I will now turn it over to Senator 
Lugar for his opening statement, and I will then allow for 
brief opening statements from Senator Voinovich and Senator 
Cardin. We will then turn it over to Senator Kyl for his 
introduction of Ms. Barrett, and I know he has other things to 
do as well.
    So, Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman.
    I would like unanimous consent that a statement by our 
Ranking Member, Senator DeMint, be placed in the record at this 
point.[Senator DeMint's statement appears at the end of this 
hearing in the ``Additional Material Submitted for the Record'' 
section.]
    Senator Obama. Without objection.
    Senator Lugar. Mr. Chairman, I thank you very much for 
calling and chairing this timely hearing. The need for 
ambassadors in each of the posts that are represented here 
today is imperative, and the timeliness of this hearing is 
extremely important. And we are delighted that our colleague, 
Senator Kyl, is here today to introduce a candidate, Ms. 
Barrett, for Finland.
    Let me just focus short remarks and really in the spirit in 
which you have addressed the Bucharest summit, Mr. Chairman. I 
am disappointed about the lack of progress made at the summit. 
While additional troop commitments for Afghanistan were 
secured, it is unclear if any of the national caveats that 
constrain troop deployment were removed at this point.
    And while agreement was found on missile defense, it 
appears that the cost included the refusal to proceed with 
membership action plans for Ukraine and Georgia. Lastly, the 
Greek veto of Macedonia's membership bid is extremely 
unfortunate and a strategic blunder for European security, in 
my judgment.
    Mr. Volker, you will bear the brunt of many of these 
questions as we come to you in the lineup at this point. And 
you are a veteran of the trail, having spent a lot of time with 
Members of Congress thinking about summits in the past. But I 
would just say that I have enjoyed working with you over the 
years. You will make a great ambassador to NATO, but I still am 
concerned about the progress of the 2006 summit at Riga as well 
as last summit, and I just will query what lessons were learned 
at Bucharest that can be applied to next year's 60th 
anniversary summit.
    It appeared to those of us in the Senate the diplomatic 
spade work got started very late in the process this year, and 
that by the time the President gauged on the matter, most 
issues may have been decided by some members. In hindsight, I 
will query whether you believe it was a wise decision for 
President Putin to be invited to the summit. He accused the 
alliance at that point of demonizing Russia. Imagine what he 
would have said if the alliance had supported Ukraine and 
Georgia's MAP plans.
    I read some press accounts about President Putin's refusal 
to sign the NATO-Russia communique. Is it your understanding 
this refusal was linked to NATO's pledge that Ukraine and 
Georgia will one day join NATO?
    I have concluded that Germany's opposition to Ukraine and 
Georgia's receiving of the MAP plan has been largely based upon 
Russia and energy. A number of NATO members are currently 
dependent on Russia for energy. Do Russia's energy reserves 
provide a de facto veto of NATO's activities?
    And I will pose a question to Ms. McEldowney about Bulgaria 
in due course. Sofia's January 2008 agreement with Russia to 
host a portion of the South Stream energy pipeline was truly a 
setback to an independent and secure European security 
strategy. What was Bulgaria's motivation in concluding this 
deal? And what role do you believe the lack of progress on the 
Nabucco pipeline played in the South Stream decision?
    Do you believe that there is time or opportunity to 
convince friends in Bulgaria to change course or, for that 
matter, for those of you who are serving in Europe to be 
instrumental in reviving Nabucco as opposed to South Stream?
    Mr. Chairman, I appreciate the opportunity for a preview of 
some of the issues and questions, and I look forward to 
participating in this vital hearing.
    Senator Obama. Thank you very much.
    I would like to acknowledge that we have been joined by 
Senator Casey, as well as Senator Menendez. What I would like 
to do is let them, let all of the other members of the 
committee make a brief opening statement, and then turn it over 
to Senator Kyl so that he can provide his introduction of Ms. 
Barrett.
    Let us start in the order of people who showed up, with 
Senator Voinovich.

             STATEMENT OF HON. GEORGE V. VOINOVICH,
                     U.S. SENATOR FROM OHIO

    Senator Voinovich. Thanks, Mr. Chairman. We appreciate your 
holding this committee meeting and thank Chairman Biden for 
putting all of these people before us so that we can get on 
with their appointments.
    My first observation is, Mr. Urbancic, you should be going 
to Slovenia. [Laughter.]
    Although, Mr. Ghafari, you and I have met, and you will do 
well in Slovenia. Slovenia has a role. It is president of the 
European Union, and it is very much engaged, as you know, in 
what is going to happen in Kosovo and really understands the 
need to make sure that it gets done right.
    Mr. Volker, you are going on to NATO, and NATO has got some 
real challenges with operations in Afghanistan, and whether the 
members are going to come onboard and send troops or lie back. 
How is that going to work? You have got the KFOR forces in 
Kosovo right now, the relationship with that, and also the 
issue that the chairman just brought up about NATO enlargement.
    I would be interested to know if our Government is going to 
take the position of trying to work things out between Greece 
and Macedonia, and where you think that issue is going, if 
anywhere.
    And Finland--Ms. Barrett, Finland is now in charge of the 
OSCE ministerial lines, and there are a couple of members of 
this Foreign Relations Committee that are very interested in 
the OSCE, particularly in the Office of Democratic Institutions 
and Human Rights. Because that is the organization that deals 
with the issue of Muslim xenophobia and also deals with anti-
Semitism.
    And right now, the OSCE is at a crucial point because it is 
going to be appointing a new person to head up ODIHR, and we 
really would like to make sure that this new person really 
knows what he or she is doing and is committed--particularly to 
our issue of anti-Semitism, they call it ``the tower 
incident,'' and on discrimination.
    Mr. Urbancic, you have got to face the issue of Cyprus and 
Turkey and how is that all going to work out with the prospect 
of Turkey joining the European Union?
    And, of course, Bulgaria. How is that issue coming? We were 
successful in getting Bulgaria into NATO. We felt that that 
would move things along. How are the Bulgarians doing in terms 
of their niche capabilities, and how are some of the human 
rights and other changes that need to be made going in there?
    Thank you, Mr. Chairman.
    Senator Obama. Thank you very much, and thank you, Senator 
Voinovich, for setting a good example of brevity.
    Let me turn it over to Senator Cardin, and if we can try to 
keep our remarks to 5 minutes or less so that Senator Kyl is 
not too further delayed and that we have an opportunity to ask 
as many questions as possible.

             STATEMENT OF HON. BENJAMIN L. CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, thank you. And I thank you 
for your convening this hearing so that we can move forward on 
these important positions for the United States in Europe.
    I first want to just thank all of the nominees for their 
public service, their willingness to serve, and I thank your 
families for allowing this participation and helping our 
country. And we know it is a family sacrifice. So we thank you 
all for that.
    Europe is very important to the United States. I want to 
follow briefly on what Senator Voinovich said in regard to the 
OSCE. I have the honor of being the Senate chair of the OSCE, 
and there are several issues of concern within the countries 
that are represented by the nominations today on OSCE issues. 
You have already mentioned Kosovo, which is--I would be 
interested in pursuing that.
    We have minority issues. In Bulgaria particularly, there is 
a concern about the Roma population, as well as the Turkish 
minority. I would be interested to hear your perspective on 
that. We have the concerns of human trafficking in several of 
the countries that are represented here. So I look forward to 
those questions.
    And then NATO, I am concerned about the Bucharest summit as 
to the influence Russia has on the expansion of our NATO 
allies, and I would be interested in pursuing that during the 
question period.
    Thank you, Mr. Chairman.
    Senator Obama. Thank you.
    Senator Menendez.

               STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. I will be even 
briefer.
    I appreciate the service of all of the nominees. My 
particular questions, when we get to that point, will be for 
Mr. Volker and Mr. Urbancic as it relates to Greece and the 
Macedonia, the firearm issue, as well as Cyprus. And they are, 
I think, in my view, important countries. There are some 
significant issues that are outstanding there, and I will be 
looking to see your insights on them as it relates to my 
support for your nominations.
    With that, Mr. Chairman, I think I have had the greatest 
model of expediency.
    Senator Obama. You have done outstanding.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much. I am 
going to be very brief. I am going to be offering, in a few 
moments, opening remarks by way of introduction to Mr. Volker. 
So I will defer until then.
    But thank you very much.
    Senator Obama. Good. Well, it is now time to turn to the 
nominees. I will ask that each of you deliver your statements 
in the order that you were introduced. You will each have 5 
minutes for your statements, and if you are summarizing a 
statement, the text of your entire presentation will be 
included in the hearing record.
    Also, if you would like, please feel free to introduce any 
members of your family that are with you here today because, as 
Senator Cardin noted, I know that this is a family affair, and 
we are extraordinarily grateful for their service, as well. And 
we would like to welcome them all to the committee. I know this 
is a great occasion for them.
    So what I would like to do is to allow Senator Kyl to 
introduce Ms. Barrett. And then, Ms. Barrett, we will go with 
your statement.
    Senator Casey, I am sorry. Who were you going to be 
introducing?
    Senator Casey. Mr. Volker.
    Senator Obama. Mr. Volker. So, Mr. Volker, you are down at 
the end. So I will make sure that Senator Casey has occasion to 
introduce you before your testimony.
    Senator Kyl, please proceed.

                   STATEMENT OF HON. JON KYL,
                   U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you, Mr. Chairman and members of the 
committee.
    Got it. Thank you very much for your courtesy in allowing 
me to formally introduce Ms. Barbara Barrett to you. I want to 
assure you that mine is more than the obligatory introduction 
of a constituent.
    I calculated that I have known Barbara Barrett for almost 
40 years, and we have been good friends during that entire 
time. And I would also note that Senator McCain strongly 
endorses her nomination and confirmation, and we have submitted 
a statement for the record from Senator McCain, as well.
    [Senator McCain's statement appears at the end of this 
hearing in the ``Additional Material Submitted for the Record'' 
section.]
    Ms. Barrett has a resume, which I can't do justice to, and 
frankly, in the interest of time, I am just going to highlight 
a couple of matters from it. But I think it is important to 
also get a measure of the individual, and I will really close 
with what I think are her most important attributes in terms of 
representation of the United States in an important country 
abroad.
    She has served as--nationally, for example, as vice 
chairman of the Civil Aeronautics Board here in Washington, 
Deputy Administrator of the Federal Aviation Administration. In 
Phoenix, she was a partner in a prominent law firm there. She 
has served in our community in numerous ways, and I do 
encourage you to look at the resume to see the breadth of her 
experience there.
    She has also represented interests in Washington, DC, and 
internationally, as well. She has been a teacher as a fellow at 
Harvard's John F. Kennedy School of Government. She served as 
president of the International Women's Forum. She was Chairman 
of the U.S. Advisory Commission on Public Diplomacy, which 
looked very hard at U.S. efforts at public diplomacy and had 
some significant recommendations to make in that regard. She 
was senior advisor to the U.S. mission to the United Nations.
    One of her current passions, which I really admire--and 
incidentally illustrates that her travel schedule is, frankly, 
more robust than mine, and I go home almost every weekend--is 
working with the Thunderbird School of Management and the U.S. 
Afghan Women's Council on a program to work with and mentor and 
train Afghan women as entrepreneurs and effective members of 
their communities. I know this is a passion because I have 
talked to her about it on numerous occasions.
    I could go on about her resume, but I really want to just 
tell you about the kind of person that Barbara Barrett is. I 
can't think of anyone who could more effectively represent the 
interests of the United States Government in a foreign embassy. 
She is obviously highly intelligent, has a broad background of 
experience, great skills, a tremendous personality, huge 
energy. I talked about her travel schedule. She will work at it 
very hard. But most importantly, she has the diplomatic skills 
to represent the United States in an important post abroad.
    And so, I urge you to take as quick action as you can in 
this committee to confirm these nominees and enable full 
representation of the United States in these important posts 
around the world, beginning with my long-time friend, Ms. 
Barbara Barrett.
    Senator Obama. Well, that is a wonderful introduction, and 
I would note that my understanding is it is colder in Finland 
than in Phoenix. So I don't know if you have gone shopping yet, 
but----
    Senator Kyl. Anything to sacrifice for the United States. 
Thank you, Mr. Chairman.
    Senator Obama. Thank you. Thank you very much, Senator Kyl, 
for the very gracious introduction.
    Ms. Barrett, please proceed.

  STATEMENT OF HON. BARBARA McCONNELL BARRETT, NOMINEE TO BE 
             AMBASSADOR TO THE REPUBLIC OF FINLAND

    Ms. Barrett. Mr. Chairman and members of the committee, I 
consider it an extraordinary privilege to appear before you 
today as the President's nominee to the United States 
ambassador role to Finland. I am grateful to President Bush and 
to Secretary Rice for their trust.
    If confirmed, I intend to demonstrate that their trust is 
well placed by building upon the excellent existing 
relationships between our countries and by advancing American 
interests in Finland.
    I thank Senator Jon Kyl for introducing me today and 
Senator McCain for his written record.
    I recognize that it is a demanding responsibility to serve 
the public as an ambassador of the United States of America. 
Thirty-three years ago this spring, I began my journey in 
public service as an intern at the Arizona State legislature. 
My respect and admiration for government leadership was 
inspired by observing then-Senate Majority Leader Sandra Day 
O'Connor. She was a leader among her colleagues, an advocate 
for transformative legislation, and a champion of meaningful 
causes.
    During my legislative experience, I learned the importance 
of serving constituents and making practical improvements to 
people's lives through public service. Meanwhile, in business, 
I was an executive of two Fortune 500 companies, chairman of 
the board of a small bank, CEO of the American Management 
Association, a fellow at Harvard's Institute of Politics, and 
on the boards of two aircraft manufacturers and an airline. 
Tangential to business, I learned to fly a plane and shoe a 
horse.
    Mr. Chairman and members of the committee, if confirmed as 
ambassador, I will advance the priorities of the United States 
mission to Finland. The first priority of our embassy is 
continuing high-level bilateral cooperation with Finland to 
combat terrorism. In 2006, Finland was one of the first 
countries to sign the Global Initiative to Combat Nuclear 
Terrorism, an effort co-established by the United States and 
the Russian Federation. Additionally, Finland has actively 
participated in counterterrorism and nonproliferation 
initiatives sponsored by the United Nations and the European 
Union.
    The Finnish civil aviation authority has fully implemented 
the U.S. Federal Aviation Administration's security directives 
regarding air carriers operating to the United States. I 
understand the sensitivity of these aviation cooperation 
efforts because I am a pilot, and I served on the Phoenix 
airport boards and the Civil Aeronautics Board and was second-
in-command at the FAA.
    Serving today at the governance level in defense, 
technology, and engineering companies, I work with some of the 
world's most pressing national security issues, starting with 
terrorism. Ensuring the welfare and safety of American citizens 
at home and abroad would be among my highest priorities. So, if 
confirmed, I will continue to advance our high level of 
coordination between Finland and the United States to deter, 
detect, and defeat terrorism.
    A second mission priority is our cooperation with Finland 
on peacekeeping and regional stability, especially in Kosovo 
and Afghanistan. Finland, a long-time advocate for Kosovo, has 
been instrumental in mustering international support for this 
new nation and has deployed more than 400 troops with NATO 
forces there.
    In Afghanistan, too, Finns are part of NATO's International 
Security Assistance Force. Finland demonstrates its long-term 
commitment to Afghanistan, not just by contributing troops, but 
also through development assistance, poppy eradication, and 
other counternarcotics efforts.
    My work with the U.S. Afghan Women's Council inspired 
Thunderbird's Artemis Project, a program, as Senator Kyl 
mentioned, that trains and mentors Afghan women entrepreneurs. 
Working with Afghan students, doctors, business leaders, and 
American troops on the ground in Afghanistan makes me respect 
and profoundly appreciate Finland's support.
    Having observed circumstances, both in the Balkan States 
and in Afghanistan, and having met with government officials in 
both places, Mr. Chairman, if confirmed, I will work to ensure 
that Finland's important contributions to peace and stability 
in Kosovo and Afghanistan continue and receive our recognition.
    The missions third priority is promoting pro-growth 
innovation for energy security and the environment. During 
2008, as was mentioned, Finland is chairing the OSCE, the 
Organization for Security and Cooperation in Europe. And 
Finland is also a global leader in biofuels and renewable 
energy with a quarter of its total energy consumption derived 
from renewable resources.
    As a sister of a liquefied natural gas supertanker captain, 
I understand the disparate distribution of petroleum and other 
fuel reserves and the resultant urgency of diversifying fuel 
sources. On this and many other topics, Finland and the United 
States will mutually benefit from an exchange of information 
gained from research, innovation, and thoughtful leadership.
    Through the years, I have instigated, organized, and 
chaired countless international symposia, large and small. If 
confirmed, energy and environment will be topics of my focused 
attention.
    Another priority for the mission is to enhance mutual 
understanding and protect and promote U.S. interests. Finland 
is a true friend of the United States and a transatlantic 
advocate for beliefs that we share. As Chairman of the U.S. 
Advisory Commission on Public Diplomacy, chairman of 
Thunderbird School for Global Management, and past chairman of 
the International Women's Forum, I have led delegations to 
China, Russia, South Africa, Israel, Jordan, and a number of 
other important nations. I have lectured at the Moscow School 
of Politics. I have spoken at college campuses and visited 
medical clinics and elementary schoolrooms in rural villages on 
six continents.
    I know the importance of academic, scientific, and cultural 
exchanges. And if confirmed, I will foster and sustain our 
relationship with Finland by energetically engaging personally 
with the Government and people of Finland to advance our shared 
values and interests. And I will do my utmost to lead by 
example and support our embassy's efforts to expand 
communication and engagement through vigorous public diplomacy.
    Mr. Chairman and distinguished members of the committee, my 
personal interest, my professional experience in defense, 
international business, aviation, and public policy and law 
prepare me well for ambassadorial duties. My life experience 
has been strengthening political and economic ties with other 
nations and achieving results through mutual understanding, 
communication, and collaboration--in short, diplomacy.
    If confirmed, I pledge to do everything I can to lead the 
embassy that represents the finest values of the United States, 
and I will do my level best to advance American interests by 
strengthening the bonds between the United States and Finland.
    Thank you for the opportunity to appear before you.
    [The prepared statement of Ms. Barrett follows:]

  Prepared Statement of Hon. Barbara McConnell Barrett, Nominee to be 
                 Ambassador to the Republic of Finland

    Mr. Chairman and distinguished members of this committee, I 
consider it an extraordinary privilege to appear before you today as 
the President's nominee to be the United States Ambassador to Finland. 
I am grateful to President Bush and Secretary Rice for their trust. If 
confirmed, I intend to demonstrate that their trust is well placed, by 
building upon the excellent existing relationships between our 
countries and by advancing American interests in Finland.
    I thank Arizona Senator Jon Kyl for introducing me today.
    I recognize that it is a demanding responsibility to serve the 
public as an Ambassador of the United States of America. Thirty-three 
years ago this spring, I began my journey in public service as an 
intern in the Arizona State Legislature. My respect and admiration for 
governmental leadership was inspired by observing then-Senate Majority 
Leader Sandra Day O'Connor. She was a leader among her colleagues, an 
advocate of transformative legislation, and a champion of meaningful 
causes. During my legislative experience, I learned the importance of 
serving constituents and making practical improvements to people's 
lives through public service.
    Meanwhile, in business, I was an executive of two Fortune 500 
companies, chairman of the board of a small bank, CEO of the American 
Management Association, a fellow at Harvard's Institute of Politics and 
on the boards of two aircraft manufacturers and an airline. Tangential 
to business, I have learned to fly a plane and shoe a horse.
    Mr. Chairman and members of this committee, if confirmed as 
Ambassador, I will advance the priorities of the United States mission 
in Finland. The first priority of our embassy is continuing high-level 
bilateral cooperation with Finland to combat terrorism. In 2006, 
Finland was one of the first countries to sign the Global Initiative To 
Combat Nuclear Terrorism, an effort coestablished by the United States 
and the Russian Federation. Additionally, Finland has actively 
participated in counterterrorism and nonproliferation initiatives 
sponsored by both the United Nations and the European Union. The 
Finnish Civil Aviation Authority has fully implemented U.S. Federal 
Aviation Administration security directives regarding air carriers 
operating to the United States.
    I understand the sensitivity of their aviation cooperation because 
I am a pilot and served on the Phoenix airports board and the U.S. 
Civil Aeronautics board and was second in command at the FAA. Serving 
today at the governance level of defense, technology, and engineering 
companies, I work with some of the world's most pressing national 
security issues, starting with terrorism. Ensuring the welfare and 
safety of American citizens at home and abroad would be among my 
highest priorities. So, if confirmed, I will continue to advance our 
high level of coordination between Finland and the United States to 
deter, detect, and defeat terrorism.
    A second mission priority is our cooperation with Finland on 
peacekeeping and regional stability, especially in Kosovo and 
Afghanistan. Finland, a long-time advocate for Kosovo, has been 
instrumental in mustering international support for this new nation, 
and has deployed more than 400 troops with NATO forces there. In 
Afghanistan too, Finns are part of NATO's International Security 
Assistance Force (ISAF). Finland demonstrates its long-term commitment 
to Afghanistan not just by contributing troops, but also through 
development assistance, poppy eradication, and other counternarcotic 
efforts.
    My work with the U.S. Afghan Women's Council inspired Thunderbird's 
Project Artemis, a program that trains and mentors Afghan women 
entrepreneurs. Working with Afghan students, doctors, business leaders, 
and American troops on Afghan soil makes me respect and profoundly 
appreciate Finland's support. Having observed circumstances both in the 
Balkan states and in Afghanistan and having met with government 
officials in both places, Mr. Chairman, if confirmed, I will work to 
ensure that Finland's important contributions to peace and stability in 
Kosovo and Afghanistan continue--and receive our recognition.
    The mission's third priority is promoting pro-growth innovation for 
energy security and the environment. During 2008 Finland is chairing 
the Organization for Security and Cooperation in Europe. Finland is 
also a global leader in biofuels and renewable energy with a quarter of 
its total energy consumption derived from renewable sources. As a 
sister of an LNG supertanker captain I understand the disparate 
distribution of petroleum and other fuel reserves and the resultant 
urgency of diversifying fuel sources. On this and many other topics 
Finland and the United States will mutually benefit from an exchange of 
information gained from research, innovation and thoughtful leadership. 
Through the years I have instigated, organized, and chaired countless 
international symposia, large and small. If confirmed, energy and the 
environment will be topics of my focused engagement.
    Another priority of the U.S. mission is to enhance mutual 
understanding and protect and promote U.S. interests. Dating back to 
John Morton, a United States immigrant from Finland and a signer of the 
Declaration of Independence, the Finnish people have proven that they 
understand and share our core values, including an abiding belief that 
all people deserve freedom, democracy, and human rights. Finland has 
been recognized for its lack of corruption, respect for democracy, and 
its consistently high quality, universal education. Finland is a true 
friend of the United States and a transatlantic advocate of beliefs we 
share.
    As Chairman of the U.S. Advisory Commission on Public Diplomacy, 
Thunderbird School of Global Management, and the International Women's 
Forum, I have led delegations to China, Russia, South Africa, Israel, 
Jordan, Ireland, Chile, El Salvador, Colombia, Peru, Argentina, 
Ecuador, and other important nations. I have lectured at the Moscow 
School of Politics, spoken on college campuses, and visited medical 
clinics and elementary schoolrooms in rural villages on six continents. 
I know the importance of academic, scientific, and cultural exchanges. 
If confirmed, I will foster and sustain our relationship with Finland 
by energetically engaging personally with the Government and the people 
of Finland to advance our shared values and interests. And I will do my 
utmost to lead by example and support our embassy's efforts to expand 
communication and engagement through vigorous public diplomacy.
    A final priority element for the United States mission in Finland 
that I will mention is expanding economic opportunities for bilateral 
trade and investment. The potential is vast for enhanced economic 
cooperation between the United States and Finland and through Finland 
to other parts of the European Union, the Baltic States, and Russia. 
Finland is a leader in research and development with leading edge 
advancements in technology, biotechnology, telecommunications, and 
equipment. While practicing law in Arizona, I was Chairman of the 
Arizona District Export Council, the Arizona World Affairs Council, and 
the U.S. Secretary of Commerce's Export Conference. I worked to advance 
the market for American goods and services by hosting and leading trade 
missions, seminars, and other trade advancement efforts. During the 
Uruguay round of GATT, I was a trade advisor involved in efforts to 
improve global protection of intellectual property. At the Civil 
Aeronautics board, I participated in bilateral and multilateral 
negotiations between the United States and nations in Europe, Asia, and 
Latin America. If confirmed, I will continue Ambassador Ware's efforts 
to create opportunities for U.S. companies by expanding our trading and 
investment relationships.
    Mr. Chairman and distinguished members of the committee, my 
personal interest and my professional experience in defense, 
international business, aviation, public policy, and law prepare me 
well for ambassadorial duties. My life experience has been 
strengthening political and economic ties with other nations and 
achieving results through mutual understanding, communication, and 
collaboration--in short, diplomacy. If confirmed, I pledge to do 
everything I can to lead an embassy that represents the finest values 
of the United States, and I will do my level best to advance American 
interests by strengthening the bonds between the United States and 
Finland.
    Thank you for the opportunity to appear before you.

    Senator Obama. Thank you very much, Ms. Barrett.
    Next, Mr. Ghafari.

   STATEMENT OF HON. YOUSIF BOUTROUS GHAFARI, NOMINEE TO BE 
             AMBASSADOR TO THE REPUBLIC OF SLOVENIA

    Mr. Ghafari. Thank you, Mr. Chairman. Thank you for 
recognizing my immigrant status, and with that, I disclose 
forgive me for my accent.
    I would also like to acknowledge this morning the presence 
of my wife, Mara Ghafari, for 30 years, the mother of our three 
children; our son, Peter Ghafari, who is here today. Our two 
daughters are graduating very shortly from college. They could 
not be here, and you would be happy to know, Senators, they 
both will be taxpayers very shortly, with a smile.
    Mr. Chairman, members of the committee, thank you for 
allowing me to appear before you today as President Bush and 
Secretary Rice's nominee to represent the United States in 
Slovenia. I am privileged that they have selected me to 
represent our country as Ambassador to Slovenia and honored 
that this committee is willing to consider my nomination.
    I believe that my presence here today is a testament to the 
power of American democracy. I can think of no other country in 
which the opportunities for education, economic success, and 
personal accomplishments are so great. I have been 
extraordinarily fortunate. I came here as a young man with very 
little means and no family connections. Yet I had the 
opportunity to receive a good education and establish 
successful businesses. We are living the American dream. And 
now I have come to that point in my career where I hope to be 
granted the privilege of serving my country.
    Our bilateral relationship with Slovenia is strong and 
vibrant, particularly now since Slovenia holds the European 
Union presidency for the first half of 2008. It is a 
relationship enriched by generations of Slovene Americans and 
the enduring ties they maintain with their land of origin, 
including your honorable colleague, Senator George Voinovich. 
Thank you for being here, Senator.
    As the first of the former Yugoslav republics to gain 
independence, Slovenia plays a key role in the Western Balkans. 
It has worked long and hard to stabilize the entire Southeast 
Europe region, was the first of the former Yugoslav States to 
gain membership in NATO and the European Union, and actively 
contributes to regional security by deploying more than 350 
troops to Kosovo.
    In its role as European Union president, Slovenia played a 
remarkable role in coalescing European support for resolution 
of Kosovo's status and recognized Kosovo soon after its 
declaration of independence. The United States and Slovenia 
share the goal of European Union expansion in the Balkans, 
believing that it will further regional stabilization and 
development. As a strong, stable, and economically prosperous 
member of the Union, Slovenia recognizes that it has both a 
responsibility and an interest in aiding Western Balkan nations 
to move toward greater European and transatlantic integration 
and has undertaken several initiatives to achieve this goal.
    One of Slovenia's notable initiatives is the International 
Trust Fund for demining and mine victims assistance, ITF. Since 
its inception in 1998, the ITF has raised more than $220 
million in donations, and as of October 2006, the fund had 
cleared nearly 70 million square meters of mines and aided more 
than 900 mine victims.
    We have also worked side-by-side with Slovenia in the 
struggle against terrorism. Slovenia has contributed forces to 
the international missions in Iraq, Afghanistan, Lebanon, and 
elsewhere, recently deployed more than 11 percent of its armed 
forces abroad. It recently increased its troop contribution in 
Afghanistan and has contributed equipment and ammunition to the 
Afghani Armed Forces.
    If confirmed, one of my top priorities will be to promote 
continued strong bilateral cooperation in the fight against 
terror and to encourage the Slovene Government to increase its 
participation in NATO missions.
    Slovenia's strong economy presents many opportunities for 
United States businesses. There are approximately 40 United 
States companies with investments and/or sales offices in 
Slovenia, and it is estimated that United States investment 
totals more than $490 million. We should continue to encourage 
the Slovenian Government to strengthen its market economy 
through privatization and increase foreign direct investment.
    If confirmed, I will work to increase opportunities for 
U.S. companies and further expand our trade and investment, 
resulting in benefits to both our peoples.
    Finally, if confirmed, one of my top priorities will be to 
continue to foster and sustain our close relationship by 
personally reaching out to the Slovene Government, people, and 
media to explain the United States perspective, to promote 
United States policy interests, to remind young people of 
America's constant support for peace, freedom, and human rights 
in Southeastern Europe and throughout the world. I will 
continue to support our embassy's efforts to expand academic, 
scientific, and cultural exchanges, all of which will serve to 
bring our peoples closer together.
    Mr. Chairman, members of the committee, the people of 
America are diverse in origin, religion, and education. Yet 
they are almost universally inclusive and generous. Our way of 
government, even in the harsh light of an imperfect reality, is 
fair and welcoming and enables its citizens to live in safety 
and prosperity.
    I hope, as a personal mission, even in a small way to serve 
as a testament to the inclusive and generous spirit of the 
American people and our way of life. I thank you again for this 
opportunity to appear before you.
    [The prepared statement of Mr. Ghafari follows:]

   Prepared Statement of Hon. Yousif Boutrous Ghafari, Nominee to be 
                 Ambassador to the Republic of Slovenia

    Mr. Chairman, members of the committee, thank you for allowing me 
to appear before you today as President Bush and Secretary Rice's 
nominee to represent the United States in Slovenia. I am privileged 
that they have selected me to represent our country as ambassador to 
Slovenia, and honored that this committee is willing to consider my 
nomination.
    I believe that my presence here today is a testament to the power 
of American democracy. There is a reason the opportunities that are 
possible in this great country are referred to as the ``American 
dream.'' I can think of no other country in which the opportunities for 
education, economic success, and personal accomplishments are so great. 
I have been extraordinarily fortunate; I came here as a young man with 
very little means and no family connections, yet I had the opportunity 
to receive a good education, establish successful businesses, marry, 
and raise a family. We are living the American dream. And now, I have 
come to that point in my career where I hope to be granted the 
privilege of serving my country.
    Our bilateral relationship with Slovenia is strong and vibrant, 
particularly now since Slovenia holds the European Union Presidency for 
the first half of 2008. It is a relationship enriched by generations of 
Slovene-Americans and the enduring ties they maintain with their land 
of origin.
    As the first of the former Yugoslav Republics to gain independence, 
Slovenia plays a key role in the Western Balkans. It has worked long 
and hard to stabilize the entire Southeast Europe region, was the first 
of the former Yugoslav states to gain membership in NATO and the 
European Union, and actively contributes to regional security by 
deploying more than 350 troops to Kosovo. In its role as European Union 
President, Slovenia played a remarkable role in coalescing European 
support for resolution of Kosovo status and recognized Kosovo soon 
after its declaration of independence.
    The United States and Slovenia share the goal of European Union 
expansion in the Balkans, believing that it will further regional 
stabilization and development. As a strong, stable and economically 
prosperous member of the Union, Slovenia recognizes that it has both a 
responsibility and an interest in aiding Western Balkan nations to move 
toward greater European and transatlantic integration and has 
undertaken several initiatives to achieve this goal.
    One of Slovenia's notable initiatives is the International Trust 
Fund for Demining and Mine Victims Assistance (ITF). Since its 
inception in 1998, the ITF has raised more than $220 million in 
donations from various countries, the European Union, the U.N. 
Development Program and more than 70 private companies. More than $100 
million of this total has come from the U.S. Government as part of a 
program mandated by Congress that matches nearly all donations made by 
other governments, individuals, and corporations. As of October 2006, 
the fund had cleared nearly 70 million square meters of mines and aided 
more than 900 mine victims, most of them coming from Bosnia-
Herzegovina. Both the Slovene Embassy in Washington and the United 
States Embassy in Ljubljana have been involved in fundraising efforts 
for ITF.
    We have also worked side-by-side with Slovenia in the struggle 
against terrorism. Slovenia has contributed forces to the international 
missions in Iraq, Afghanistan, Lebanon, and elsewhere, and recently 
deployed more than 11 percent of its armed forces abroad. It recently 
increased its troop contribution in Afghanistan and has contributed 
equipment and ammunition to the Afghani Armed Forces. If confirmed, one 
of my top priorities will be to promote continued strong bilateral 
cooperation in the fight against terror and to encourage the Slovene 
Government to increase its participation in NATO missions, particularly 
in Afghanistan, where it could offer an Operational Mentoring and 
Liaison Team.
    Slovenia's strong economy presents many opportunities for United 
States businesses. There are approximately 40 United States companies 
with investments and/or sales offices in Slovenia and it is estimated 
that United States investment totals more than $490 million. We should 
continue to encourage the Slovenian Government to strengthen its market 
economy through privatization and increased foreign direct investment. 
If confirmed, I will work to increase opportunities for U.S. companies 
and further expand our trade and investment, resulting in benefits to 
both our peoples.
    Finally, if confirmed, one of my top priorities will be to continue 
to foster and sustain our close relationship by personally reaching out 
to the Slovene Government, people and media to explain the United 
States perspective, to promote United States policy interests, to 
remind young people of America's constant support for peace, freedom, 
and human rights in Southeastern Europe, and throughout the world. I 
will continue to support our embassy's efforts to expand academic, 
scientific, and cultural exchanges, all of which will serve to bring 
our peoples closer together.
    Mr. Chairman, the people of America are diverse in origin, 
religion, and education, yet they are almost universally inclusive and 
generous. Our way of government, even in the harsh light of an 
imperfect reality, is fair and welcoming, and enables its citizens to 
live in safety and prosperity. I hope, as a personal mission, even in a 
small way, to serve as a testament to the inclusive and generous spirit 
of the American people and our way of life. I thank you again for this 
opportunity to appear before you.

    Senator Obama. Thank you very much, Mr. Ghafari.
    Mr. Urbancic and Ms. McEldowney, Senator Casey, I think, 
may be constrained by his schedule. So I hope you don't mind if 
we go a little bit out of order, allow Senator Casey to 
introduce Mr. Volker and allow Mr. Volker to go ahead and make 
his statement. And then we will go back to you guys. Okay.
    Senator Casey.

            STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. Mr. Chairman, thank you very much, and I do 
want to thank the other nominees who are here for this 
courtesy.
    Mr. Chairman, it is my distinct pleasure this morning to 
introduce Mr. Kurt Volker to the committee. Kurt with his 
family appears before the committee as the nominee for one of 
our most important diplomatic postings, the United States 
Permanent Representative to the North Atlantic Treaty 
Organization, we know as NATO.
    The NATO alliance just completed a major summit in 
Bucharest, Romania, where the alliance agreed to accept two new 
members, Croatia and Albania, and took action on other issues, 
including bolstering force levels in Afghanistan. NATO, almost 
60 years old following its founding, remains the anchor of the 
relationship between the United States and Europe. I believe 
Kurt Volker is the right person to represent the United States 
at our NATO mission in Brussels.
    Kurt was born and raised in Hatboro, PA. He is a proud 
graduate of Hatboro-Horsham Senior High School. Following high 
school, he chose to remain in Pennsylvania and attended Temple 
University in Philadelphia. Following college graduation, he 
moved to Washington, DC, to earn a master's degree in 
international relations from the George Washington University.
    Kurt then entered the United States Foreign Service as a 
career officer in 1988, where he served with honor and 
distinction ever since. I want to note that Kurt is married to 
Karen Volker, another Foreign Service officer, and is the proud 
father of two daughters, Sonja and Katja. Did I pronounce those 
correctly?
    Mr. Volker. Very close.
    Senator Casey. Okay. [Laughter.]
    Help me.
    Mr. Volker. Sonja and Katja.
    Senator Casey. Sonja and Katja. Thank you very much.
    Mr. Chairman, you have Kurt's CV in front of you, as well 
as other members of the committee, so I won't recite every 
detail. But I want to quickly run through some of the 
highlights of his career, which demonstrate how rapidly Kurt 
has risen through the ranks of the Foreign Service.
    First of all, he served as a special assistant to the 
United States envoy for negotiations in Bosnia during the 
1990s; then as the deputy political counselor at the United 
States embassy in Budapest, Hungary, from 1994 to 1997; the 
senior advisor to then-NATO Secretary General Lord Robertson at 
the beginning of this decade; next, the director on the 
National Security Council responsible for NATO in Western 
Europe from 2001 to 2005; and today, Mr. Volker serves as the 
Principal Deputy Assistant Secretary for Europe and Eurasian 
Affairs at the State Department.
    He serves as second-in-command for this key regional bureau 
at State and is focused on U.S. relations with NATO, the 
European Union, and key European States. Looking at his 
background, you recognize that Kurt's entire career has helped 
prepare him for this moment, to serve as the U.S. Ambassador to 
NATO. He recognizes that NATO retains an enduring value, even 
though the cold war is a distant memory and that when NATO acts 
in a unified manner, the entire world benefits.
    I am also proud that Kurt represents the very best of the 
U.S. Foreign Service. A seasoned diplomat who advances the 
interests of his country without regard to politics or 
partisanship, Kurt has proudly served four presidential 
administrations during his career. He played a valuable role in 
helping Hungary prepare for NATO accession during the Clinton 
administration, but also was instrumental in spearheading 
NATO's next two rounds of expansion during the Bush 
administration.
    Mr. Chairman, for all these reasons, I heartily endorse 
Kurt Volker, a distinguished native of the State of 
Pennsylvania, to be confirmed as the U.S. Permanent 
Representative to NATO, and I thank you for allowing me to 
speak this morning on his behalf.
    Senator Obama. Thank you very much, Senator Casey.
    Given that wonderful introduction, I think it is best if, 
Mr. Volker, you go ahead and proceed. And if you want to 
introduce--as a father of two daughters, I am a little biased 
here. But feel free to introduce those exceptional young 
ladies, as well.

   STATEMENT OF KURT D. VOLKER, NOMINEE TO BE U.S. PERMANENT 
  REPRESENTATIVE ON THE COUNCIL OF THE NORTH ATLANTIC TREATY 
      ORGANIZATION, WITH THE RANK AND STATUS OF AMBASSADOR

    Mr. Volker. Thank you, Mr. Chairman, and thank you, 
Senator. After an introduction like that, I think it is best if 
I don't say anything at all.
    But I would like to introduce my wife, Karen, who is here, 
and my two daughters, Sonja and Katja. Karen--Mr. Chairman, you 
will be interested--attended Occidental College from 1979 to 
1981.
    Senator Obama. We overlapped.
    Ms. Volker. We had friends in common.
    Senator Obama. That is wonderful.
    Mr. Volker. Friends in common. And my oldest daughter, 
Sonja, began school in Brussels when I was working for Lord 
Robertson at NATO and was born there.
    Senator Obama. Wonderful.
    Mr. Volker. It is an honor to be here before this committee 
as the President's nominee to serve as Permanent Representative 
to the North Atlantic Treaty Organization, and a particular 
honor also to be introduced by Senator Casey from my home 
State, Pennsylvania. And I am grateful that you would take the 
time and offer such words of encouragement. Thank you.
    I am also delighted, I should say, to see so many friends 
from the Diplomatic Corps from European countries here today, 
and I just want to point out Ambassador Gianni Castellaneta 
from Italy, who is a good friend. Thank you for being here and 
for your support.
    I have a longer statement I would like to enter into the 
record. Mr. Chairman, I am especially pleased to be nominated 
to serve as Ambassador to NATO because I have dedicated my 
career to building a healthy, secure, democratic transatlantic 
community. In 20 years in the Foreign Service, I have served 
four administrations working on our NATO alliance from many 
angles--the executive branch, I spent a year here in the Senate 
as a legislative fellow, and at NATO in some of our allied 
countries.
    I have worked closely with this committee and its staff on 
a variety of issues over the years. And I am grateful for the 
close cooperation that we enjoy today between the committee and 
the Bureau of European and Eurasian Affairs, which I represent. 
This career-long commitment to NATO and to our transatlantic 
partnership with Europe stems from my commitment to the 
founding principles of our Nation--the values of individual 
liberty, democracy, market economy, human rights, and the rule 
of law--which transcend our national borders and define the 
best hopes of humanity.
    We and the other members of NATO are part of a single 
transatlantic democratic community based on these shared 
values. We view challenges in the world from this shared 
perspective, and we need to work together if we are to deal 
with these challenges effectively and advance these values in 
the world.
    The fact that the cold war is over does not mean that 
threats to our democratic community have gone away. They have 
changed from the threat of ground attack in Europe to threats 
such as terrorism, proliferation of weapons of mass 
destruction, the consequences of failed States. And NATO has 
done a remarkable job securing the freedom of this community 
for nearly 60 years while transforming itself as threats have 
changed. It has added new members, taken on critical 
operational missions, built partnerships with nations around 
the globe. NATO is now a frontline alliance dealing with the 
challenges of the 21st century.
    The just-concluded Bucharest summit further advanced the 
transformation of NATO, renewing our commitment to operations 
in Afghanistan and in Kosovo, inviting new members, 
strengthening partnerships, and focusing on the defense 
capabilities needed for the future. We got a lot done at 
Bucharest. I think we have a lot more to do as well, and I 
think we need to keep working on some of the issues that you 
and the other Senators have raised.
    The United States is deeply committed to the effort in 
Afghanistan and to all NATO missions. We have made enormous 
investment, suffered serious losses. I honor the service of our 
men and women in uniform, as well as our diplomats and 
civilians in the service of NATO.
    And I also want to pay tribute to the contributions and 
sacrifices of our allies and partners. Several allies are 
fighting hard in Afghanistan and have suffered fatalities. 
Denmark and the U.K. in recent days. Canada, in particular, has 
suffered significant losses. And the Netherlands, Poland, 
Spain, Italy, Germany, and Australia as a non-NATO ally. 
Indeed, all 26 members of NATO and 14 partners have made 
sacrifices and are making meaningful contributions in 
Afghanistan.
    Though we still need more forces and greater flexibility in 
the deployments of some, it is important to stress that we 
respect and honor all of these contributions to our common 
efforts. At the Bucharest summit, allies and partners such as 
France, Poland, the Czech Republic, Georgia, Azerbaijan, and 
others came forward with contributions to our operations.
    NATO faces serious challenges on the ground in Afghanistan, 
but also in maintaining the political solidarity and the 
defense contributions needed for a strong and healthy alliance. 
If confirmed as U.S. Ambassador to NATO, I will focus my 
efforts on strengthening support and understanding in Europe 
for two fundamental ideas. That the prosperity and well-being 
of our democratic societies still depends critically on 
security, so we must invest in security. And that the security 
of Europe and North America remain fundamentally linked, so we 
must face our modern-day security challenges together. These 
are the challenges NATO must tackle in the coming years.
    Mr. Chairman, thank you for the opportunity to be here 
today. If confirmed, I will do my very best to serve my country 
with distinction, and I look forward to working closely with 
you and this committee in the process. I would be pleased to 
hear your views and answer any questions.
    [The prepared statement of Mr. Volker follows:]

  Prepared Statement of Kurt D. Volker, Nominee to be U.S. Permanent 
      Representative on the Council of the North Atlantic Treaty 
          Organization, With the Rank and Status of Ambassador

    Thank you, Mr. Chairman and members of the committee.
    It is an honor to come before this committee as the President's 
nominee to serve as the United States Permanent Representative to the 
North Atlantic Treaty Organization. I am grateful for the confidence 
expressed by President Bush and Secretary Rice through this nomination.
    I am joined here today by my wife, Karen, also a career member of 
the Foreign Service. I am also delighted to see friends here from the 
diplomatic corps and others with whom I have worked to transform NATO. 
Their support means a great deal to me, and I thank them for being 
here. I am also grateful for the support of my family and others who 
cannot be here today.
    Mr. Chairman, I am especially pleased to be nominated to serve as 
Ambassador to NATO because I have dedicated my career to building a 
secure transatlantic community, based on shared democratic values.
    In 20 years in the Foreign Service, I have served four 
administrations, advancing our agenda for NATO--at our embassies in the 
United Kingdom and Hungary; as a legislative fellow here in the United 
States Senate; at the U.S. Mission to NATO and in the NATO Secretary 
General's Private Office; at the National Security Council; and 
currently as Principal Deputy Assistant Secretary of State for the 
Bureau of European and Eurasian Affairs. In this latter capacity, I am 
proud to have worked closely with this committee on a variety of issues 
and am grateful for the close relationship between the committee and 
the European Bureau.
    I am committed to NATO and to our transatlantic partnership because 
I am committed to the founding principles of our Nation--the values of 
individual liberty, democracy, market economy, human rights, and the 
rule of law. These are principles which transcend our national borders 
and define the best hopes of humanity. We and the other members of NATO 
are part of a single transatlantic community, based on these shared 
democratic values.
    Those of us who are a part of this community view security 
challenges in the world from the shared perspective of our values. We 
know that we need to work together if we are to deal with these 
challenges effectively, and to continue to advance these enduring 
values in the world.
    NATO's defense of freedom helped to end the cold war. Yet the end 
of the cold war did not mean the end of threats to our democratic 
community. The strategic landscape has changed and NATO has changed 
with it. To be sure, NATO's core mission remains the collective defense 
of its members. But the means by which NATO goes about this mission 
have changed dramatically over time.
    NATO is now in the process of learning how to defend our 
transatlantic community against new threats and challenges that are 
often global in scope--threats such as terrorism, the proliferation of 
weapons of mass destruction, and the consequences of failed states.
    In its nearly 60-year history NATO has served as:

  <bullet> Our defense of freedom against the Soviet threat, leading 
        eventually to the collapse of the Iron Curtain and the birth of 
        a Europe whole and free.
  <bullet> The military force that ended ethnic cleansing in the 
        Balkans and kept the peace so democratic governance could 
        emerge.
  <bullet> The driver for democratic progress in Central Europe, 
        admitting 10 new allies since the fall of the Berlin wall--and 
        deciding to admit still more at the Bucharest Summit last week.
  <bullet> A core security organization building partnerships with 
        dozens of nations around the world.
  <bullet> A front-line alliance in dealing with the 21st century 
        challenges of terrorism and extremism--for example, by 
        conducting counterterrorism operations in the Mediterranean, or 
        running the International Security Assistance Force (ISAF) 
        mission in Afghanistan.

    The Bucharest Summit further advanced NATO's transformation, by 
renewing our commitment to operations in Afghanistan and Kosovo, 
inviting new members, setting a vision of future membership for others, 
strengthening partnerships across the globe, and focusing on the 
defense capabilities needed for the future, including missile defense.
    NATO's most important operational challenge is in Afghanistan. The 
United States is deeply committed to the long-term effort in 
Afghanistan. We have made enormous investments in blood and treasure. I 
honor the service of our men and women in uniform, as well as our 
diplomats and civilians. I respect enormously the families who 
sacrifice so their loved ones can contribute to meeting these important 
challenges.
    I also want to pay tribute to the contributions and sacrifices of 
our allies and partners in Afghanistan. They are fighting hard, 
especially in the East and South, and have suffered significant 
casualties--Denmark and the U.K. in recent days, but also Canada, the 
Netherlands, Australia, and others. All 26 allies, along with 14 non-
NATO partners, have troops in Afghanistan. All are playing a vital 
role, and all are determined to see this mission through to success.
    At the Bucharest Summit, allies endorsed a strategic vision for 
Afghanistan that reaffirms their long-term commitment to build an 
enduring, stable, secure, prosperous, and democratic Afghan state, free 
from the threat of terrorism. Many allies backed up these words with 
deeds by announcing new force contributions.
    Most notably, though by no means alone, President Sarkozy announced 
that France will send a new battalion to Eastern Afghanistan, freeing 
some United States troops to do more to help allies in the South. In 
addition to the French contribution and the temporary addition of 3,500 
United States Marines, United Kingdom, Polish, Czech and other 
additions bring the total to about 6,000 new forces so far in 2008.
    That said, all allies must do still more to provide the combat 
troops, helicopters, and trainers crucial to winning this 
counterinsurgency fight. Allies must also make serious efforts to 
ensure their citizens understand that the mission matters, success is 
within reach, and humanitarian assistance is possible only in a secure 
environment.
    NATO faces real challenges, operationally on the ground, as well as 
politically in Europe. Violence levels are up, particularly in southern 
Afghanistan where opium production is also largest. Many Europeans are 
skeptical about the Afghanistan mission--people either believe it does 
not matter to them, that success is out of reach, or that humanitarian 
assistance alone should be enough. We are working with our NATO 
partners to clarify the mission and its importance. As agreed in the 
common vision statement issued at the Bucharest Summit, we are building 
a shared NATO counterinsurgency strategy that provides for population 
security, real economic development, and progress in governance. Civil-
military coordination can and should be better, and we welcome the 
naming of a new U.N. Special Representative, Kai Eide, who will bring 
greater coherence to our international civilian efforts. The narcotics 
trade fuels the insurgency and fosters corruption, making all other 
efforts an uphill struggle. NATO allies can do more to help the Afghans 
lead their own counternarcotics strategy.
    In acknowledging the serious challenges, we also must recognize our 
achievements. Working with our Afghan allies, NATO forces thwarted the 
Taliban's much-hyped ``spring offensive'' last year. Allies and 
partners are helping the Afghans build capacity so they can improve 
good governance and increasingly stand themselves at the forefront of 
security operations.
    It is easy to forget the gains made since 2001. Under the Taliban, 
there were only 900,000 kids in school--none of them girls, because it 
was illegal. Only 8 percent of the population had access to medical 
care. There were only 50 kilometers of paved roads. The Taliban imposed 
a dark and severe regime on the people of Afghanistan, while terrorists 
were allowed to train and export their violence and extremism to other 
countries.
    Today, there are nearly 6 million kids in school--over 1.5 million 
of them girls. Over 65 percent of the population has access to medical 
care, and there are over 4,000 kilometers of paved roads. The 
government was elected by 8 million Afghan voters, on the basis of a 
constitution approved through an open process, a Loya Jirga.
    To be sure--the challenges in Afghanistan are great, and success 
will take time. But we are doing the right thing in Afghanistan, we are 
making progress, and we should continue.
    NATO's other major operation is in Kosovo, where NATO's Kosovo 
Force (KFOR) remains the ultimate guarantor of peace and stability for 
all people in Kosovo, with nearly 16,000 personnel from 35 allied and 
non-NATO troop contributing nations. It was NATO that ended ethnic 
cleansing not only in Kosovo but in the wider Balkans, and it has kept 
the peace that has enabled democratic governance to emerge.
    At the recently concluded Bucharest Summit, NATO recommitted itself 
to helping ensure a safe and secure environment and declared its 
intention to play a key role in the establishment of a new, multiethnic 
Kosovo Security Force and a civilian agency to oversee it.
    NATO has played, and will continue to play other vital operational 
roles-from its role in securing peace in Bosnia (which has now been 
passed on to the European Union), to counterterrorist naval operations 
in the Mediterranean, to offering support for African Union forces in 
Darfur and transporting humanitarian supplies to Pakistan after a major 
earthquake, and Louisiana after Hurricane Katrina.
    One of the fundamental principles of the alliance is that the door 
to membership is open to those European democracies who wish to pursue 
it. The enlargement process has been and remains a driving force for 
countries to focus on difficult reforms. The United States must 
continue to provide leadership and clarity of purpose in expanding the 
alliance to advance the goal of a Europe whole, free, and at peace.
    NATO enlargement has been a historic success--securing freedom, 
democracy, and burgeoning prosperity for 100 million people in Central 
and Eastern Europe, and strengthening NATO in the process.
    In Bucharest, allies reiterated the importance and success of 
NATO's open door policy. Membership invitations were issued to Albania 
and Croatia, marking an historic occasion for security and stability in 
the Balkans. Allies also determined that Macedonia is ready to receive 
an invitation as soon as the name issue is resolved. We hope this is 
done as quickly as possible. We look forward to working in close 
cooperation with the Senate as we seek its advice and consent to the 
ratification of the protocols of accession for each of the invitees, 
which are to be signed by July 2008.
    Allies provided an unprecedented commitment to Ukraine and Georgia, 
stating unequivocally that these countries will become members of NATO. 
They welcomed their request to participate in the Membership Action 
Plan (MAP). Allies recognized that the MAP process will benefit reform 
efforts and authorized foreign ministers to review and take decisions 
on their MAP participation in December 2008. We must continue to 
support their aspirations.
    Allies also invited Bosnia and Herzegovina, and Montenegro, to 
begin an intensified dialog relating to their membership aspirations 
and conveyed their desire to develop a closer relationship with Serbia. 
NATO's cooperation with these countries will further increase stability 
in the western Balkans.
    To further secure freedom and democracy, NATO is also strengthening 
its relationships with partners across the globe and the developing of 
new capabilities, such as missile defense, energy security, and cyber 
defense.
    When the wall fell in 1989, NATO was an alliance of 16 members and 
no partners. Today, NATO has 26 members--with 2 new invitees, 
prospective membership for others, over 20 partners in Europe and 
Eurasia, 7 in the Mediterranean, 4 in the Persian Gulf, and others from 
around the globe.
    Through the creation of the Euro-Atlantic Partnership Council and 
the Partnership for Peace, NATO provided the political and practical 
cooperation necessary to help the newly independent nations of Europe 
integrate into the transatlantic community.
    NATO has also established the Mediterranean Dialog and Istanbul 
Cooperation Initiative to reach out to the Middle East, and reached out 
to new partners around the world on the basis of shared security 
interests and democratic values. Australia, Japan, New Zealand, South 
Korea, and now Singapore are making valuable contributions to NATO 
operations, especially in Afghanistan, and the alliance decided at 
Bucharest to remain open to developing relationships with additional 
countries.
    It is also vital that NATO work effectively with international 
organizations such as the European Union and United Nations. A capable 
and united European Union is in NATO's interest. We recognize the value 
that a stronger and more capable European defense brings, providing 
capabilities to address common challenges, and support NATO and the 
European Union working closely together. We also need to work as 
closely as possible with the United Nations, particularly in U.N.-
mandated, NATO-led operations as in the Balkans and Afghanistan.
    In Iraq, NATO provides leadership training to Iraqi Security Forces 
to help establish a more secure environment. The NATO training mission 
in Iraq is looking to broaden its training mission in response to Prime 
Minister Maliki's requests. Allies have also agreed to proposals for a 
structured cooperation framework to develop NATO's long-term 
relationship with Iraq.
    NATO is committed to building a relationship where NATO and Russia 
can work together to address common interests such as nonproliferation, 
counterterrorism, and border controls and counternarcotics with respect 
to Afghanistan. We welcomed Russia's most recent offer of a mechanism 
for transiting nonmilitary freight through Russian territory in support 
of ISAF.
    On other issues such as Kosovo, missile defense, and the 
Conventional Armed Forces in Europe Treaty (CFE), serious differences 
remain. On CFE, NATO has endorsed the U.S. parallel actions package, 
which we believe can ensure the viability of this important security 
regime.
    We are working hard to develop the capabilities needed for a new 
century-the NATO Response Force, the C-17 consortium, the Special 
Forces coordination, and steps toward NATO missile defenses. At 
Bucharest, allies recognized that ballistic missile proliferation poses 
an increasing threat; that missile defense forms part of a broader 
response to counter this threat; and that the U.S. system will make a 
substantial contribution to protecting alliance territories and 
populations. NATO will continue its work on missile defense, and also 
with Russia as well, in order to provide more effective defenses for 
all alliance territory.
    A NATO Cyber Defense Policy, endorsed at Bucharest, enhances our 
ability to protect our sensitive infrastructure, allows pool 
experiences, and come to the assistance of an ally whose infrastructure 
is under threat. I thank Senators on this committee for focusing 
attention on this issue following the cyber attacks against Estonia.
    NATO's role in energy security, noted at Bucharest, will help 
address threats to energy infrastructure and in order to better 
safeguard the security interests of the allies. I appreciate the 
leadership of Senators on this committee for their involvement in 
energy security and believe NATO is building a response to the concerns 
you have raised.
    NATO faces genuine challenges, as it always has. The strength and 
enduring character of the alliance comes from our ability to face these 
challenges together. As Winston Churchill said, ``the only thing worse 
than fighting with allies is fighting without them.''
    If confirmed as U.S. Ambassador to NATO, I will work to strengthen 
support and understanding in Europe for two fundamental ideas:

That the prosperity and well-being of our democratic societies still 
        depends critically on security, so we must invest in security.
That the security of Europe and North America remain fundamentally 
        linked, so we must face our modern-day security challenges 
        together.

    Mr. Chairman, thank you for the opportunity to be here today. If 
confirmed, I will do my very best to serve my country with distinction 
and to work closely with you and this committee.
    I look forward to listening to your views, and to responding to any 
questions you and the members of the committee may have.

    Senator Obama. Thank you very much.
    Mr. Urbancic.

 STATEMENT OF FRANK URBANCIC, JR., NOMINEE TO BE AMBASSADOR TO 
                     THE REPUBLIC OF CYPRUS

    Mr. Urbancic. Thank you, Mr. Chairman.
    And let me say, too, that I today am honored to be 
supported here by my wife and lifetime partner, Michelle; our 
two children, Frank and Arlette; and most importantly perhaps, 
my father and mother from Indianapolis, who have driven here to 
join us today. So we are very honored to have the presence of 
Senator Lugar.
    It is also a great privilege for me to be nominated by the 
President to serve as the next Ambassador of the United States 
to the Republic of Cyprus. And if confirmed, I will do 
everything in my power to justify that trust as well as that of 
Secretary Rice in sending forward my nomination.
    At the outset, I would also note my intention to heed an 
admonishment of the ancient stoic philosopher from Cyprus, Zeno 
of Kition, who said famously that the reason we have two ears 
and one mouth is that we may listen more and speak less. I will 
keep my comments brief.
    May I also say that I am honored to be here Mr. Chairman, 
and thank you very much for calling us here to speak about our 
countries.
    I personally have spent 27 years in the Foreign Service, 
deepening my understanding of the issues in the basin of the 
East Mediterranean and the risks that its people face. I have a 
deep and abiding interest in Cyprus, and from this background, 
I have a keen awareness of the role that the United Nations in 
Cyprus can play and that what a positive role multilateral 
diplomacy can play in bringing about healing of deep political 
divides.
    In graduate school, I specialized in Byzantine studies, 
with a particular interest in Orthodox Church history. From 
that study, as well as my work in the region, I have come to 
understand the unique position that Cyprus has always held 
throughout its own history.
    There was a time when I could translate Aristotle. Those 
days are gone, unfortunately, but I will try to get them back. 
And my time in Istanbul has also given me the opportunity to 
speak another great language of this region. If confirmed, I 
intend to use this familiarity with the languages of both the 
Greek Cypriot and Turkish Cypriot communities to support 
efforts to reunite the island.
    We need to establish there and--we need to work with the 
leadership of that island to create a bizonal, bicommunal 
federation. Reunification of Cyprus under these long-agreed 
principles will allow its communities to realize the full 
potential of their own history.
    If confirmed, I look forward to working with all members of 
the committee, and your views are very important to me. And I 
would like to work closely with you in the future to deepen 
United States-Cypriot--the United States-Cypriot relationship, 
building upon the work of my predecessors, of course.
    The United States and Cyprus have many shared interests and 
ties. I have learned that Cyprus, for example, is one of the, 
if not the largest per capita participant in the Fulbright 
program anywhere in the world. Cyprus was the first European 
Union country to sign a shipboarding agreement with the United 
States under the Proliferation Security Initiative.
    Our countries are working together to safeguard Cypriot 
cultural heritage, prevent pillaging, and stop the illegal 
trafficking in the sale of antiquities. I look forward to 
seeking new opportunities to expand our partnerships and to 
further our mutual understanding.
    If confirmed, I realize I will be accredited to one 
government. That is the Government of the Republic of Cyprus. 
The United States does not recognize any other state on the 
island. That said, we need to engage the Turkish Cypriot 
community. We need to help them prepare for reunification by 
strengthening their NGOs and reducing economic disparities 
across the island. We also need to urge them to combat money 
laundering and to counter possible terrorist threats. If 
confirmed, I will ensure the U.S. assistance program continues 
to support one overarching aim, and that is reconciliation 
between the two communities and reunification.
    If confirmed, I will pursue one of the administration's 
policy priorities--a comprehensive Cyprus settlement. The de 
facto division of that country pains Greek Cypriots and it 
pains Turkish Cypriots, and it damages United States strategic 
interests in the region. The dysfunctional and unacceptable 
status quo also threatens effective NATO-European Union defense 
cooperation, and it remains an obstacle for Greek-Turkish 
relations.
    Currently, though, there is room for guarded optimism. Many 
see 2008 as a year of opportunity for Cyprus. Both community 
leaders state that they want the same thing. They have the same 
goal. They want a bizonal, bicommunal federation, and the U.N., 
with strong American support, is considering reinvigorated 
settlement efforts.
    Negotiating the details of a bizonal, bicommunal federation 
will be a difficult task, of course. Both sides will need 
strong leadership, and they undoubtedly will have to make hard 
decisions and settle for some probably painful compromises. A 
federation, however, with a single international sovereignty 
enjoying European Union membership, peace, and prosperity is 
achievable, and I hope to help advance it, if confirmed.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Urbancic follows:]

Prepared Statement of Frank Urbancic, Jr., Nominee to be Ambassador to 
                         the Republic of Cyprus

    Mr. Chairman and members of the committee, thank you for giving me 
the opportunity to be with you here today. It is my great honor to be 
nominated by President Bush to serve as the next Ambassador of the 
United States to the Republic of Cyprus, and, if confirmed, I will do 
everything in my power to justify that trust, as well as that of 
Secretary Rice in sending forward my nomination.
    At the outset, I would note my intention to heed an admonishment of 
the ancient Stoic philosopher from Cyprus, Zeno of Kition, who said, 
``The reason we have two ears but only one mouth, is that we may learn 
more and speak less.'' I will keep my comments brief. May I also say 
that I am honored to be supported here today by my wife and lifetime 
partner, Michelle, our two children, Frank and Arlette, and my parents 
visiting us from Indiana.
    Mr. Chairman, I have spent 27 years in the Foreign Service, 
deepening my understanding of issues in the basin of the east 
Mediterranean and the risks that its people face. I have a deep and 
abiding interest in Cyprus, its people, and the politics and history of 
the region. I served at the U.S. mission to the United Nations during 
the first gulf war, and, in addition, I was Senior Adviser in that 
mission for Eastern European Affairs after my return to the United 
States from the second gulf war. From those experiences, I have a keen 
awareness of the role of the United Nations in Cyprus and the role that 
multilateral diplomacy can play in bridging deep political divides.
    In graduate school, I specialized in Byzantine studies, with a 
particular interest in Orthodox Church history. Because of that study, 
as well as my work in the region, I have come to understand the unique 
position that Cyprus has always held throughout its history. Cyprus has 
long played a role as a multicultural crossroad of history and 
civilization, and this remains true today. There was a time when I 
could translate Aristotle, and my time in Istanbul has also given me 
the opportunity to speak another great language of this region. I 
intend to use this familiarity with the languages of both the Greek 
Cypriot and Turkish Cypriot communities to support efforts to reunite 
the country into a bizonal, bicommunal federation. Reunification of 
Cyprus under these long-agreed principles will allow its communities to 
realize the full potential that history has long foreseen for this 
beautiful and historically rich island.
    If confirmed, I look forward to working with all members of the 
committee. Your views are important to me, and I would like to work 
closely with you to deepen the United States-Cypriot relationship, 
building upon the work of my predecessors.
    The United States and Cyprus have many shared interests and ties. I 
was pleased to learn that more than 3,000 Cypriots have studied in the 
United States under U.S. Government-sponsored academic exchange 
programs, including the Fulbright Program--one of the largest, if not 
the largest, per capita rate in the world. Cyprus was the first 
European Union country to sign a ship boarding agreement with us under 
the Proliferation Security Initiative--a significant provision given 
that Cyprus has the eleventh largest merchant fleet in the world. Our 
countries are working together to safeguard Cypriot cultural heritage, 
prevent pillaging, and stop the illegal trafficking and sale of 
antiquities. I also expect that the nearly 15,000 American citizens who 
transited Cyprus in the summer of 2006, as they were evacuated from 
Lebanon, will long remember the generosity and gracious reception they 
were given by the Cypriot people. I look forward to seeking new 
opportunities to expand our partnerships and further our mutual 
understanding.
    If confirmed, I realize I will be accredited to one government, 
that of the Republic of Cyprus. The United States does not recognize 
any other state on the island. That said, we need to engage the Turkish 
Cypriot community. We need to help them prepare for reunification by 
strengthening their NGOs and reducing economic disparities across the 
island. We also need to urge them to combat money laundering and 
counter possible terrorist threats. For all our programs, I will ensure 
U.S. assistance continues to support one overarching aim--
reconciliation and reunification.
    If confirmed, I will pursue one of the administration's policy 
priorities--a comprehensive Cyprus settlement. The de facto division of 
the country pains Greek Cypriots and Turkish Cypriots and damages 
United States strategic interests in the region. The dysfunctional and 
unacceptable status quo also threatens effective NATO-European Union 
defense cooperation and remains an obstacle for Greek-Turkish 
relations. Furthermore, I am sure both communities would agree that 
Turkey, a key NATO ally, would be better off anchored to Europe through 
European Union membership. Yet the continued impasse on Cyprus 
negatively affects all these considerations. Many outside observers 
have increasingly asserted that in the absence of a settlement in the 
near future, the world will accept a de facto division ad infinitum. 
This would be a bad outcome, and one we should all strenuously seek to 
avoid.
    Currently, though, there is room for guarded optimism. Many see 
2008 as a year of opportunity for Cyprus. Both community leaders state 
they want the same goal--a bizonal, bicommunal federation, and the 
U.N., with strong American support, is considering reinvigorated 
settlement efforts. Negotiating the details of a bizonal, bicommunal 
federation, such as governmental structure, administrative and 
territorial jurisdictions, security considerations, and property 
disputes will be a difficult task. Both sides will need strong 
leadership and undoubtedly have to make hard decisions and settle for 
some possibly painful compromises, but the goal will be worthwhile--a 
federation, with a single international sovereignty, enjoying European 
Union membership, peace, and prosperity. That goal is achievable, and I 
hope to help advance it, if confirmed.
    Thank you, Mr. Chairman. I look forward to answering any questions.

    Senator Obama. Thank you.
    Ms. McEldowney.

 STATEMENT OF NANCY E. McELDOWNEY, NOMINEE TO BE AMBASSADOR TO 
                    THE REPUBLIC OF BULGARIA

    Ms. McEldowney. Good morning. I am very pleased to state 
that I am joined today by family members who have traveled to 
visit me all over the world in the course of my Foreign Service 
career. They have also traveled here to Capitol Hill from 
Philadelphia today. My sister and brother-in-law, Heidi Hayes 
and Richard Johnson, their son, Nicolas Johnson, as well as 
family friend, Elaine Jones.
    Mr. Chairman, members of the committee, I am deeply honored 
to appear before you today as the President's nominee to be the 
next American Ambassador to Bulgaria. I am grateful for the 
confidence expressed by President Bush and Secretary Rice 
through this nomination, and I ask today, with respect and 
humility, for your confidence, as well.
    If I am confirmed, I pledge to validate your trust by 
advancing our Nation's interests in Bulgaria and throughout the 
region. I also pledge to work closely with this committee and 
your congressional colleagues in pursuing our common objectives 
and shared agenda.
    My appearance before this committee today is the 
culmination of more than two decades of public service as an 
American diplomat. Patriotism and service to Nation have shaped 
my life and the lives of my entire family. My father was a 
member of the United States Marine Corps. My husband served 26 
years as a pilot in the United States Air Force. And my younger 
brother, now a lieutenant colonel in the Air Force, recently 
concluded a deployment to Afghanistan.
    I have spent my entire adult life working to protect and 
advance our country's interests as a professional diplomat. I 
have served overseas in Europe, the Middle East, and the former 
Soviet Union. Here at home, I have worked in the Department of 
State, the Department of Defense, and on the staff of the 
National Security Council.
    I have served as deputy chief of mission in two embassies 
and have frequently functioned as acting chief of mission. 
These experiences have helped prepared me for the 
responsibilities and challenges that I will face if confirmed 
for this position.
    Since this committee voted 3 years ago to confirm our 
current ambassador, a number of important developments have 
taken place. Bulgarian and American soldiers are now exercising 
together inside Bulgaria, and we are now deployed side by side 
in Iraq, Afghanistan, Bosnia, and Kosovo. Bulgaria is now a 
member of both the European Union and the NATO alliance, 
following the achievement of important domestic reforms and 
sustained economic growth, fueled in part by the generous 
assistance allocated by this Congress as well as by the active 
involvement of United States companies.
    These are impressive accomplishments, and they illustrate 
the vibrancy and potential of our bilateral relationship. But 
as many members of this committee have noted, there is still 
more to be done. Bulgaria still suffers from pervasive 
corruption and organized crime that undermines public 
confidence in its institutions. The Balkan region is still 
burdened with instability. European energy supplies still lack 
sufficient diversity and security. And there is still more that 
the United States and Bulgaria can do together to advance our 
common strategic interests.
    Mr. Chairman, if confirmed, my top priority will be to 
protect the security of the United States and our citizens, 
including American facilities and personnel in Bulgaria. I will 
work together with a talented team of civilian and military 
professionals at our embassy in Sofia to advance American 
interests in five key areas.
    We will deepen our cooperation in combating terrorism, 
proliferation, and other forms of transnational crime. We will 
advance stability throughout the Balkans to help this long-
troubled region enjoy peace and prosperity as part of an 
undivided Euro-Atlantic community. We will promote the security 
and diversity of energy supplies, building upon Bulgaria's 
strategic location as a key transit route across the European 
continent. We will catalyze unfinished legal and judicial 
reforms, supporting the Bulgarian Government's own efforts to 
combat corruption and promote the rule of law. And finally, we 
will expand our trade and economic cooperation, increasing 
commercial opportunities for U.S. companies.
    This is an ambitious agenda. But I believe it is one that 
can be achieved through concerted effort and joint action. 
Bulgaria is a government that is firmly committed to the 
principles and practices of democracy and free market economy. 
It has made significant progress in domestic reform in 
international engagement and is determined to continue these 
efforts.
    As a bilateral partner, a NATO ally, and a genuine friend 
to the United States, Bulgaria is a country of great importance 
and bright promise. Mr. Chairman, if confirmed, I will do my 
utmost to maintain the distinguished record of service by the 
men and women who held this position before me. I will strive 
unceasingly to advance American interests and promote American 
values.
    I thank you again for the honor of appearing before you 
today, and I look forward to answering any questions that you 
may wish to pose.
    [The prepared statement of Ms. McEldowney follows:]

Prepared Statement of Nancy E. McEldowney, Nominee to be Ambassador to 
                        the Republic of Bulgaria

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as the President's nominee to be the next American 
Ambassador to Bulgaria. I am grateful for the confidence expressed by 
President Bush and Secretary Rice through this nomination. I ask today, 
with respect and humility, for your confidence as well. If I am 
confirmed, I pledge to validate your trust by advancing our Nation's 
interests in Bulgaria and throughout the region. I also commit myself 
to work closely with this committee and your congressional colleagues 
in pursuing our common objectives and shared agenda.
    Mr. Chairman, my appearance before this committee today is the 
culmination of more than two decades of public service as an American 
diplomat. Patriotism and service to the Nation have shaped my life and 
my family. My father was a member of the United States Marine Corps. My 
husband served 26 years as a pilot in the United States Air Force. And 
my younger brother, now a lieutenant colonel in the Air Force, recently 
concluded a tour of duty in Afghanistan.
    I have spent my entire adult life working to protect and advance 
our country's interests as a professional diplomat. I have served 
overseas in Europe, the Middle East, and the former Soviet Union. Here 
at home, I have worked in the Department of State, the Department of 
Defense, and on the staff of the National Security Council. I have 
served as Deputy Chief of Mission in two embassies and have frequently 
functioned as Acting Chief of Mission. These diverse experiences have 
helped prepare me for the responsibilities and challenges that I will 
face if confirmed for this position.
    Since this committee voted 3 years ago to confirm our current 
ambassador, a number of important developments have taken place:

  <bullet> In April 2006, the United States and Bulgaria signed a 
        defense cooperation agreement authorizing United States 
        military units to train at specified Bulgarian bases. The first 
        exercise under this agreement took place in September 2007. 
        This summer, approximately 1,000 United States and Bulgarian 
        land forces will train together. Over the next 12 months, the 
        U.S. Air Force will conduct three training events with 
        approximately 250 U.S. service members each.
  <bullet> In January 2007, Bulgaria became a member of the European 
        Union. This followed Bulgaria's entry into the NATO alliance in 
        March 2004. Taken together, these represent the culmination of 
        a process of democratization and reform that began over 19 
        years ago with the fall of communism and single party rule in 
        1989.
  <bullet> Bulgaria is a member of the coalition in Iraq and a 
        contributor to the NATO effort in Afghanistan. Bulgarian 
        soldiers are deployed side by side with us at Camp Ashraf in 
        Iraq; and in ISAF operations in Kandahar, Kabul and Herat, 
        Afghanistan. Bulgarian soldiers also participate in NATO, 
        European Union and U.N. peacekeeping operations in Bosnia, 
        Kosovo, Liberia, and Ethiopia.
  <bullet> With the support of United States assistance monies 
        generously allocated by this Congress, Bulgaria has 
        accomplished important reforms in economic development, local 
        governance, and national institutions, including the 
        establishment of the American University in Bulgaria and the 
        National Institute of Justice, one of the premier Eastern 
        European training centers for judges and prosecutors.
  <bullet> Trade and investment between the United States and Bulgaria 
        has surged, as the Bulgarian economy has grown more than 5 
        percent annually for the past 5 years. In 2007, bilateral trade 
        totaled almost $1 billion and cumulative investment by American 
        companies is estimated at more than $5.5 billion.

    These are impressive accomplishments that illustrate the vibrancy 
and vast potential of the bilateral partnership between our two 
countries. But there is still more to be done. Bulgaria still suffers 
from pervasive corruption and organized crime that undermines public 
confidence in its institutions. The Balkan region is still burdened 
with instability, as we have seen recently in Serbia and Kosovo. 
European energy supplies still lack sufficient security and diversity. 
And there is still more that the United States and Bulgaria can do 
together to advance our common strategic interests.
    Mr. Chairman, if confirmed, my top priority will be to protect the 
security of the United States and our citizens, including American 
facilities and personnel in Bulgaria. I will work together with the 
talented interagency team of civilian and military professionals at our 
embassy in Sofia to advance American interests in key areas:

We will broaden and deepen our cooperation in combating terrorism, the 
        proliferation of weapons of mass destruction, trafficking in 
        persons and narcotics, and other forms of transnational crime.
We will work to advance stability and security throughout the Balkans, 
        to help this long-troubled region enjoy peace and prosperity as 
        part of an undivided Euro-Atlantic community.
We will promote the security and diversity of energy supplies, building 
        upon Bulgaria's strategic location as a key transit route 
        across the European continent.
    We will catalyze unfinished legal and judicial reforms, supporting 
the Bulgarian Government's own efforts to combat corruption and 
organized crime, and to promote good governance, public trust, and the 
rule of law.
We will expand our trade and economic cooperation, increasing 
        commercial opportunities for United States companies and 
        stimulating sustainable growth in the Bulgarian economy.

    This is an ambitious agenda but one that can be achieved through 
concerted effort and joint action. Bulgaria is a country that is firmly 
committed to the principles and practices of democracy and free market 
economy. It has made significant progress in both domestic reform and 
international engagement, and the government is determined to continue 
these efforts. As a bilateral partner, a NATO ally and a genuine friend 
of the United States, Bulgaria is a country of importance and promise.
    Mr. Chairman, if confirmed, I will do my utmost to maintain the 
distinguished record of service by the men and women who held this 
position before me. I will strive unceasingly to advance American 
interests and promote American values.
    I thank you again for the honor of appearing before you today. I 
would be delighted to answer any questions that you may wish to pose.

    Senator Obama. Thank you very much, all of you, for your 
opening statements.
    What I would like to do now, we have approximately an hour, 
and we have six Senators present. So what I would like to do is 
allocate 7-minute rounds to each Senator. And if we have 
sufficient time afterwards, then we can maybe go to a second 
round, if that is agreeable to other members of the committee.
    Well, let me start with you, Mr. Volker. Obviously, a lot 
of your work is in the newspapers or will be in the newspapers. 
People are paying a lot of attention to what is happening in 
NATO right now.
    Secretary Gates said in February that lingering European 
anger over Iraq has undermined our efforts to marshal allied 
support to win the war against the Taliban and al-Qaeda in 
Afghanistan. Obviously, we made some--the President was able to 
make some progress in Bucharest, but as Senator Lugar noted, 
some of the constraints that continue to be placed on the 
operations there are of continuing concern.
    Certainly, we appreciate all the work that has been done by 
our NATO allies. But it does appear as if we continue to be 
resource-strapped in Afghanistan. I am curious, do you agree 
with the assessment of Secretary Gates that Iraq still is 
causing turbulence within the NATO alliance and our actions in 
Afghanistan? If so, do you have any thoughts on how we might 
correct that?
    Mr. Volker. Thank you, Senator. Yes, I share Secretary 
Gates's view that public opinion in Europe, I think, has in 
some ways conflated the conflict in Iraq and the conflict in 
Afghanistan. They see the violence. They see the extremists, 
the terrorist attacks, IEDs, suicide bombers, and they do see 
that this is a terrible thing to be involved in. And I think 
that it is difficult for many of our European allies and their 
governments to build and sustain public support for their 
participation in Afghanistan.
    That said, I would say the resources dedicated to 
Afghanistan have grown considerably as NATO has expanded the 
mission. In 2003, NATO took over ISAF when it was only in Kabul 
and only about 4,000 people. We currently have ISAF throughout 
the whole country with about 47,000 people. So every time we 
have expanded the mission, we have expanded the requirements, 
and then NATO allies have contributed more toward meeting those 
requirements. We have never made 100 percent, but we have seen 
a significant progress over time.
    I think that what is critical is to remind people that 
Afghanistan has its own storyline that is an important and 
compelling one, and that the security and the well-being of our 
societies actually depends upon what we do in Afghanistan. And 
the Afghan people want us there and want us to help. The last 
poll I saw showed 75 percent of Afghans supporting the presence 
of foreign troops there to help provide security so they can 
get on with the business of building a stronger, more stable 
country.
    And then, finally, we are making progress in Afghanistan, 
and I think that is visible. So when you look at health care, 
education, road building, the economy, there has been a lot of 
progress made in Afghanistan since the Taliban was in power. We 
faced daunting challenges in Afghanistan with the insurgency, 
with narcotics, with governance. We have to focus on these, and 
we do need more resources and to work more with the allies. But 
I think we need to recapture and reexplain the storyline a 
little bit about what is going on with Afghanistan and why it 
is critical that our mission there succeed.
    Senator Obama. While I think that Senator Lugar is probably 
going to pursue this further, because I know he mentioned it in 
his opening statement, I would like for you also to just 
comment on the apparent or potential influence, at least, of 
Russia in putting a pause button on MAP for two important 
actors in the region. Can you comment at this point in terms of 
how you see that playing itself out? Do you get an impression 
that the other NATO members will be more open to the moving 
forward of those two countries next year?
    Mr. Volker. Well, let me state clearly up front that we 
strongly support a membership action plans for Ukraine and 
Georgia and work very hard within the alliance to try to gain 
consensus on that. There wasn't consensus in NATO. There were 
some allies who objected to that, and we were concerned about 
the very issue that you and Senator Lugar are raising, that 
Russia somehow is either exercising a veto or at least 
intimidating NATO out of making decisions.
    So there were two things that NATO did, I think, to make 
clear that we reject that idea of a Russian veto. The first was 
in the NATO communique that was issued at Bucharest. There was 
a clear statement that decisions on enlargement are for NATO 
itself to make and made that very clear. The second thing is 
that while not offering a Membership Action Plan, NATO made an 
unprecedented statement simply to say that Ukraine and Georgia 
will become members of NATO.
    And as someone who has worked on previous rounds of NATO 
enlargement--the Madrid summit in 1997, Prague in 2002--we had 
always reserved our position about invitations until the actual 
moment. And in order to make clear that Russia is not 
exercising that kind of influence, the alliance decided that it 
would state very forthrightly that Ukraine and Georgia will 
become members.
    Senator Obama. Good. My final question I am going to direct 
to you, Ms. Barrett. And that is, as we noted, Finland--
although there is extraordinary cooperation between the two 
countries and they are a strong ally--is one of the few 
countries that is in the European Union, but not in NATO. And I 
am wondering if you want to comment on where the NATO debate in 
Finland stands now? Should the United States be trying to move 
or encourage Finland's membership in NATO or off the status 
quo? What is your take on that?
    Ms. Barrett. The Americans with great respect for NATO, we 
think it would be beneficial for Finland and for NATO for 
Finland to be a part of it. But it will be a choice of Finland 
and the people of Finland whether or not they would become a 
part of NATO.
    It is something that the Finns have demonstrated some 
attention to. We think it would bring greater strength to NATO 
if they were a part of it.
    Senator Obama. Okay. Mr. Volker, do you have any comments 
on that?
    Mr. Volker. I would just add to what my colleague said. 
Finland is making substantial contributions to NATO missions 
already. They are very valuable contributions. I think if the 
Finns chose to become allies, they would make great allies. But 
it is a choice for the people and Government of Finland to 
make.
    Senator Obama. Good. Okay. I will actually give up 15 
seconds just to set a good example.
    Let me turn it over to Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Mr. Urbancic, I am delighted that you have strong Hoosier 
representation here today and great Hoosier roots. And 
therefore, I will direct my first questions to you.
    You are a veteran of service on Cyprus. You very carefully 
in your statement said that you were accredited to one 
government there. But at the same time, you pointed out the 
imperative that you would pursue the administration's goal of 
trying to bring about a comprehensive Cyprus settlement.
    Since this is not a new subject for you and your entire 
career has informed you, really, of the dilemmas here, how do 
you intend to proceed? Really, what are the avenues that might 
lead you to optimism that during your tenure these objectives 
might advance?
    Mr. Urbancic. Thank you, Senator. And yes, I am a very 
strong Hoosier, and we still live there, and I am really glad 
that my parents were able to join us. We take the kids back as 
often as we can.
    I think that the great thing is that we are truly at a 
point where there may be a true opportunity for a final 
settlement of this terrible problem. Yes, there is one 
government, which is recognized internationally, and that is 
the government that the United States deals with. But there are 
two communities, and it is those two communities that have to 
overcome their own estrangement, one from the other.
    The truly great story is that they are doing that. They are 
doing that on their own because it is important to them and 
because reunification is something that they think is in their 
interests. And I think that the best that we can do and what I 
would certainly do, if confirmed, is to continue to support 
that effort, them directly, then the United Nations supporting 
them. And the United Nations is, as you know, undertaking an 
assessment right now to see how the U.N. can best contribute. 
And then us, with our other allies, supporting that U.N. 
effort.
    But the most important thing is that the two sides 
themselves are intimately engaged. There will be times when our 
own good offices, I think, will be valuable. And at those 
points, I will hope to have established good relationships with 
the leadership on both sides to allow them to make the tough 
decisions that they are certainly going to have to make on 
behalf of their two communities.
    Senator Lugar. Well, I hope in those good offices that you 
will encourage appropriate citizens in the United States to be 
helpful to you, obviously including the State Department, 
Members of Congress, and others. This is an important 
objective, both for Cyprus as well as for our ongoing 
relationships with Greece and with Turkey.
    This is well known to you, but I just wanted to take this 
opportunity at the confirmation hearing to underline the 
importance for all three countries--Cyprus, Greece, and Turkey. 
We look forward to your leadership in that regard.
    I wanted to ask you, Mr. Ghafari, to follow up on an 
important point that you made, and that is that recently 
Slovenia has deployed more than 11 percent of its armed forces 
abroad. This is an abnormal percentage for most European 
countries. As a matter of fact, many of us have visited with 
NATO allies and regretted that they have such a small 
expeditionary force. And therefore, even as we exhort them to 
do more in Afghanistan or elsewhere, the wherewithal to do so 
in terms of personnel quite apart from logistics is not 
present.
    What explains this? Why this boost to 11 percent? And is 
this a special reach-out to the rest of Europe, to the United 
States, or how would you explain this activity?
    Mr. Ghafari. Senator, thank you for this question. I 
believe that the reason Slovenia--and that is my understanding 
at this point, is that they really want to be a good example 
for the rest of the region. And I think they have demonstrated 
that economically and fiscally, and what they have done with 
the armed forces, I think, is just an extension of that.
    They are a strong ally of ours. They believe in the global 
agenda, the issues we face as it relates to terror and what 
that has to do with the world. And I think that is what they 
have tried to do with expanding their troops to the 11 percent 
that you just mentioned, Senator.
    Senator Lugar. A year ago, the Aspen Institute 
congressional seminar was held in Slovenia. We had an 
opportunity to note the point that you have made that 40 United 
States companies are now operating in Slovenia. While it is a 
fairly small country in terms of population and size, $490 
million ha been invested there as you mentioned. Has there been 
a special outreach either way by Slovenia to Americans or 
Americans to finding very talented people there in that 
country?
    Mr. Ghafari. If I am confirmed, that would be one of my top 
priorities.
    Senator Lugar. Yes.
    Mr. Ghafari. I understand that there is some reform that 
has taken place. There is more to be done in that regard, and I 
understand that now that they are preoccupied with the European 
Union Presidency, that maybe had they waited a little from that 
economic reforms. They have elections coming up this fall, and 
hopefully that will become an agenda item that we as an embassy 
and myself can work on to help expand the business entry 
between our two nations.
    I have to date, in preparing for my departure, talked to my 
colleagues in the business, and I said we have this wonderful 
friendly country. What can we do together? And they all are 
expressing interest and are impressed by the success they have 
made to date. They are impressed by the quality of the people, 
the Slovenian people, and their technical capabilities. So that 
would be something that I will definitely put on the top of my 
list to do.
    And at the same time, I think I am going to encourage and 
we have got some--actually some leads on there that the 
Slovenes are willing to come here and invest, as well. With the 
strength of the euro, they need to manufacture in this country 
for some of their customers. So that would be a two-way deal 
that, hopefully, we can work on together.
    Senator Lugar. Well, I think we all hope with your business 
background, you will be very successful.
    Mr. Ghafari. Thank you very much.
    Senator Lugar. And we applaud that.
    Mr. Ghafari. Thank you.
    Senator Lugar. Ambassador Volker, let me ask you a quick 
question. You mentioned that NATO's commitment in the Bucharest 
Communique that Georgia and Ukraine will join NATO at some 
point in the future has led to some speculation that action 
extending membership action plans to Tbilisi and Kyiv at the 
upcoming foreign ministers meeting of NATO representatives. 
Describe really how that procedure works so that Americans 
understand how that type of momentous decision could occur.
    Mr. Volker. That is correct, Senator. The summit leaders, 
when they got together and agreed a formal NATO statement 
expressing NATO's position, said not only that Georgia and 
Ukraine will become members of NATO, they also welcomed their 
aspirations for participating in the membership action plans 
and stated in the declaration from NATO itself that the foreign 
ministers are authorized to decide on this issue when they meet 
in December of 2008.
    Senator Lugar. And so, December of 2008 is the approximate 
time in which all of this might arise again?
    Mr. Volker. Yes, indeed. We will be certainly pursuing and 
encouraging their aspiration for Membership Action Plans, and 
we hope that we can reach a consensus within NATO to grant that 
to them.
    Senator Lugar. Well, we will be cheering you on at that 
point.
    Mr. Volker. Thank you.
    Senator Lugar. Thank you, Mr. Chairman.
    Senator Obama. Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    Mr. Ghafari, you mentioned that you had some concern about 
the investment by the United States in Slovenia. My suggestion 
to you would be to spend some time with the Slovene Diaspora 
here to try and get them involved, and they have talked about 
it, but they really have never done it.
    I brought Goodyear to Slovenia a long time ago, and since 
that time, the government has been reluctant about privatizing 
some of their--in fact, they are slower than most in that 
region. And it might be something that you could try to nudge 
them on.
    Mr. Ghafari. Thank you, Senator. One of my things I would 
like to do before I leave to Slovenia is to visit with the 
American Slovenian community in Cleveland and maybe a couple of 
other places around the country just to get the pulse of what 
is going on there and get a better understanding of what they 
would like to do with that country, as well. Thank you.
    Senator Voinovich. Bulgaria is in an area that is right 
now, I think, most people are not aware, will be affected if 
the election goes the wrong direction in May in Serbia. That 
would be a real setback for the whole region.
    One of the things that I suggested is to--and hopefully, 
you will be there--is to try to get Bulgaria and Romania and 
some others that belong to the European Union to get over to 
Serbia to talk about how important European Union membership is 
to the future of Slovenia. Are you updated on that issue on 
where we are and how thin the situation is?
    Ms. McEldowney. Thank you very much, Senator. I have, 
indeed, been following the issue and, in particular, have been 
watching the Bulgarian Government try hard to work both with 
the Serbs, as well as with other neighbors in the region, to 
try to moderate Serbian policy, to try to bring about an 
outcome that will advance stability throughout the region.
    If confirmed, this is one of the issues that I look forward 
to making a priority as we go forward and face this very key 
election, and as Kosovo's independence proceeds and Bulgaria 
continues to serve as a moderating, stabilizing force 
throughout the region.
    Senator Voinovich. And Mr. Volker, one of our problems in 
Afghanistan is that many of the countries that are involved 
have these national caveats, and many of us are concerned that 
they are still in effect. Some of our allies are saying that if 
some of those countries don't remove take them, then they will 
be more reluctant to participate. We have taken a position, I 
think, of publicly knocking some of them that haven't done what 
they are supposed to do.
    I would be interested to know your perspective and how you, 
through your great diplomatic skills, are going to try and work 
this out.
    Mr. Volker. Well, thank you, Senator. We are very concerned 
about the issue of caveats on the forces deployed in 
Afghanistan and anywhere in NATO operations. That is a matter 
that we raise privately with the governments concerned and also 
we have discussed publicly.
    I do want to say that the contributions that allies make 
are valuable, all of them. So those countries that have caveats 
are, nonetheless, performing important roles where they are in 
Afghanistan or elsewhere. But it does create problems.
    It creates problems for the commander on the ground, who 
has less flexibility in his ability to use forces where they 
are most needed. And it creates political dissension within 
NATO. Those countries who are taking on the hardest burdens and 
fighting and facing casualties, and those countries that are 
operating in relatively safer areas with limitations on the 
deployments that will keep them in safer areas.
    So we have to chip away at this problem. We have been 
working at it. We have seen, around the time of the Riga 
summit, some caveats lifted. We have not seen much more 
progress on it since then. It is something we need to stay 
focused on.
    I would say in terms of addressing this there is one 
critical thing that we need to do, and this is what I discussed 
when answering the chairman's question about getting the story 
right in Afghanistan. Reassuring European publics that we are 
there for the right reasons and doing the right things, and 
that their forces that are contributing in Afghanistan are in a 
good cause and, therefore, should be fully part of the NATO 
mission and fully contributing as equal allies, sharing the 
burdens equally.
    Senator Voinovich. Do you share the opinion that we need to 
bring more of our troops into Afghanistan to help out?
    Mr. Volker. I do. I do. I know that Secretary Gates and the 
President, have announced our intention to deploy about 3,500 
Marines, and that was announced in advance of the Bucharest 
summit. We are the leader of NATO. We need to be making a 
substantial contribution to alliance operations to ensure their 
success. And in doing so, we need to encourage other allies to 
increase their contributions as well.
    We currently have a situation where of about 47,000 troops 
within ISAF, the United States is contributing less than half 
of that. I think we need to be doing our share in leading the 
charge and then encouraging the allies to make their 
contributions.
    Senator Voinovich. Thank you.
    Ms. Barrett, you--I mentioned that you are working with 
Finland, and you know that the Ahtisaari plan, he was president 
of Finland, and so they are real interested in Kosovo.
    Ms. Barrett. Absolutely.
    Senator Voinovich. But the issue that I am concerned about 
is the issue of this Office of Democratic Institutions and 
Human Rights. I don't know whether you are familiar with it, 
but I will tell you this, that there are many people here in 
this Congress that worked very hard to get the Office of 
Nondiscrimination and Tolerance on the core budget of the OSCE.
    And right now, we are in the midst of hiring someone to 
take the place of a man by the name of Christian Strohal, and I 
would really appreciate your looking into it. And I would like 
to spend some time with you on the phone talking about perhaps 
a role that you might play because Finland is in charge of that 
ministerial effort right now. I think if we don't do that, we 
may lose a wonderful opportunity to continue to make a 
difference in the area of dealing with discrimination.
    Ms. Barrett. Mr. Chairman, Senator Voinovich, I would look 
forward to working with you on that. I also consider it an 
urgent matter in the limited time during which the Finns will 
be in the leadership role would be an important time to make 
good things happen there.
    Senator Voinovich. Thank you.
    Senator Obama. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Volker, let me follow up a little bit on first 
Afghanistan and then Georgia and Ukraine. In regards to 
Afghanistan, OSCE does have a mission there. And NATO, of 
course, is the lead group as far as international involvement 
with the United States, but we do have OSCE. There is an 
important mission on the border. And of course, Afghanistan is 
a partner within OSCE.
    Just curious as to your views as to whether we cannot--
couldn't expand OSCE's mission, which would broaden European 
participation in dealing in Afghanistan?
    Mr. Volker. Thanks, Senator. Yes, we agreed with the other 
members of the OSCE to launch the border training and 
development effort that the OSCE is putting in Afghanistan. We 
deliberately decided to start small to make sure that it could 
get in there effectively, that it could operate in the 
environment in Afghanistan, and to see whether it could bring 
about a success in its developments training on the border.
    And presuming that that is successful, then we would look 
toward expanding the mission depending on the resources that 
nations are able to bring. But we do think that is a 
possibility based on success in the initial phases.
    Senator Cardin. And I look forward to continuing to work 
with you on that. I do think it is just in our interests, the 
United States interests to broaden the participation, and OSCE 
gives us an opportunity to do that.
    I do want to compliment you on your diplomatic skills and 
your response on the question regarding Georgia and Ukraine. I 
was only aware of two steps that could be taken. One was the 
membership action plan. The other was being admitted. You have 
now given us a third level, I guess, of moving forward.
    I would just be interested as to whether you see a change 
that we can get NATO expansion in countries such as Georgia and 
Ukraine without a changed position with some of our NATO allies 
on Russia's influence here?
    Mr. Volker. Well, clearly, we did not succeed in getting a 
membership action plan approved for Ukraine and Georgia, 
something that we sought. Membership action plan, you will 
recall, was launched at the Washington summit in 1999 at a 
point when NATO was not ready to offer invitations to countries 
in Central and Eastern Europe, and so we said, well, we are not 
going to just say no. We are going to help you. We are going to 
create a plan to work with you so that you can present a 
stronger candidacy in the future.
    What happened----
    Senator Cardin. Which seems to be what should have been 
offered as the U.S. position was----
    Mr. Volker. Yes.
    Senator Cardin [continuing]. With regard to Georgia and 
Ukraine. I guess my question is, will we be able to get to that 
point with countries such as Ukraine and Georgia without a 
changed relationship between our NATO allies and Russia?
    Mr. Volker. I believe that we can. I believe that the 
statement that was made about these countries will become 
members of NATO--a very forceful, clear statement--sort of cuts 
right through the heart of the membership action plan question. 
It is kind of ironic that the debate about offering a MAP was, 
well, is this going too far? And then we make a strong 
political commitment that goes even further.
    So I think that, based on that, we should be able to do the 
diplomatic work underneath, then proceed with the Membership 
Action Plan and get a consensus within NATO for that.
    Senator Cardin. I thank you, and again, I look forward to 
working with you on that.
    Let me follow up on Senator Voinovich's point in regards to 
the OSCE's mission not just in fighting discrimination, but 
also on the human rights agenda. The four countries that are 
represented at the table all have important issues involving 
commitments to the OSCE.
    In regards to Bulgaria, as I mentioned earlier, the issues 
concerning minorities, whether it is the Turkish or the Roma 
population, is a major concern to us. On human trafficking, 
there are--Bulgaria is a Tier 2 country. There is a problem in 
Cyprus. They are on the watch list because of concerns as a 
recipient state to human trafficking. Slovenia has a problem 
with the Muslim community that just recently mushroomed. And of 
course, as pointed out, Finland has the chair in office.
    I would welcome brief responses as to your concerns in 
regards to these issues, and I certainly look forward to 
working with each of you in making progress in these countries. 
Who would like to start?
    Ms. McEldowney. I would be happy to start. Thank you very 
much, Senator.
    I appreciate you highlighting those issues. Those are 
issues of concern--both human rights and the issue of 
vulnerable populations. You mentioned the Turkish minority. The 
Turkish minority in Bulgaria, which represents just under 10 
percent of the population, is well represented in the political 
process, but there are still concerns. The Roma, which you 
mentioned, is a smaller minority, approximately 4 to 5 percent. 
This is a vulnerable population. It is a group that much of the 
U.S. Government's assistance monies have been focused on trying 
to provide services to, but we still need to do more.
    Human trafficking is also an issue of great concern. The 
Bulgarian Government has taken a number of steps, including the 
establishment of a national antitrafficking commission as well 
as some targeted efforts to set up centers in the tourist areas 
along the Black Sea coast where trafficking is most prevalent. 
But we need to do more. And we are working in partnership with 
the Bulgarian Government to try to do that. I welcome your 
advice and the involvement of members of the committee as we go 
forward and try to make those things happen.
    Senator Cardin. And I think we do have now regional 
strategies to deal with this, and we look forward to your 
active work in that regard.
    Ms. McEldowney. Yes. Excellent. Thank you very much.
    Mr. Urbancic. Senator, the same thing for the United States 
role in dealing with Cyprus. Cyprus is more on the receiving 
end, but it is a country where trafficking in persons is 
something of very great concern. We have engaged the Cypriots 
on this, and certainly, if confirmed, I will continue to make 
it a priority.
    They understand U.S. law, and they understand the 
implications that this has for them. So it is a human rights 
question, which is of very great interest and profound concern 
for us.
    Senator Cardin. The issues in Slovenia are a little bit 
different. There is some concern about lack of sensitivity with 
the Muslim community, and I would just urge you to be mindful 
of this as we go forward.
    Mr. Ghafari. Thank you, Senator. I look forward to working 
with you on that. And I am very sensitive. With my ethnic 
background, I think I could help in that regard.
    Senator Cardin. I think so.
    We already talked a little bit about Finland, and Finland 
has had a real leadership role in regards to the OSCE, and we 
look forward to continuing to work with you in that regard.
    Thank you, Mr. Chairman.
    Senator Obama. Senator Casey.
    Senator Casey. Thank you, Mr. Chairman. I will be rather 
brief.
    I did want to note something I should have mentioned 
before--that Barbara McConnell Barrett is also a Pennsylvania 
native. I appreciate that, and I also heard that in Ms. 
McEldowney's reference to her family, we have got family from 
Philadelphia here today.
    I hate to keep coming back to a commercial for my State, 
but I think it is important to do that. But I will be very 
brief.
    I wanted to direct my broader general question to Mr. 
Volker. With regard to the relationship between NATO and 
Russia, you spoke to it before. I wanted to broaden that a 
little bit.
    The NATO-Russia Council, which was established in 2002 and 
is the principal forum for NATO to engage Russia. But we know 
from the recent history and the news just in the last couple of 
months, that the relationship faces a lot of challenges when 
you think about democracy and human rights, missile defense, 
energy, Kosovo, or the CFE treaty--all of those.
    I guess I wanted to ask you, though, just in a broad sense, 
can you give us a sense of the state of play between Russia and 
NATO and anything you think we could do constructively to 
engage and to be cognizant of that important relationship?
    Mr. Volker. Thank you for the question, Senator. We have 
been disappointed in the NATO-Russia Council ourselves. We 
launched this in 2002 with hopes of overcoming suspicions, 
division, sense of concern, mutual concern between NATO and 
Russia, and it has not developed in the positive, cooperative, 
strong way that we had hoped at the time.
    I think the most important thing that we can do is to 
undermine, to cut, to remove any kind of zero sum mentality 
that still exists. The idea that there is a zone of, sphere of 
influence in Europe, this is part of the Russian fear of 
influence or any gain for NATO, that any NATO enlargement is 
somehow a threat to Russia or that missile defense is somehow a 
threat to Russia.
    We need to put aside these kind of cold war notions within 
Russia, within Europe, and instead say that the fundamentals--
building democratic societies, market economies, rule of law, 
integration of countries into a larger community--these don't 
threaten anybody. And they build a healthier community and they 
are good neighbors and good neighbors for Russia.
    So if we can develop that sense that we are actually 
creating a common good through NATO enlargement, through 
security, through missile defense--we want to work together 
with Russia. We certainly don't want to be putting ourselves in 
a position of confrontation and conflict with Russia, even 
though we have serious disagreements with Russia. What we want 
to do is try to work together on areas where we find common 
ground.
    Senator Casey. Thank you very much.
    I will conclude with this. I want to commend all of the 
nominees who are here for your service prior to this and your 
willingness to take on another assignment. And we wish you all 
of Godspeed in your families as well.
    Thank you.
    Senator Obama. Senator Menendez
    Senator Menendez. Thank you, Mr. Chairman.
    Again, I appreciate all of your service. And now that I 
know that in order to be an ambassador you have to live in 
Pennsylvania----
    [Laughter.]
    Senator Menendez [continuing]. I will maybe cross the 
border in the future. Who knows?
    Let me focus my questions on a certain line that I am 
interested. Mr. Volker, I have seen that Greece has always 
taken a position that they seek to find a mutually acceptable 
solution before NATO accession. And I am glad to see, at least 
as I read it, that the NATO summit communique basically has 
that same position as well. Is that a fair statement?
    Mr. Volker. Yes, sir.
    Senator Menendez. It is. Let me ask you with reference to 
that, what do you see the role of NATO in trying to--working, 
of course, with our own U.S. ambassador in the region, but what 
do you see the role of NATO in trying to bridge that gulf and 
come to a successful resolution?
    Mr. Volker. In the first instance is the United Nations. 
The U.N. negotiator, Matt Nimitz, has the lead in trying to 
reach a negotiated settlement to the issue of the name. Beyond 
that, we have tried, as the United States and through our 
ambassador to NATO and through Assistant Secretary Fried and 
through others, to encourage both countries to work together 
and try to reach some solution.
    We did some fairly extensive diplomatic work in advance of 
the Bucharest summit, trying to get the point where they could 
reach an agreement. They were unable to reach an agreement, and 
so NATO did leave the issue open, as you indicated, hoping that 
they would reach a mutually acceptable solution as quickly as 
possible, at which point Macedonia could then be invited.
    NATO itself I don't see playing an active role in trying to 
facilitate negotiations. I see that as something we can do 
diplomatically, and I see that as something the U.N. has the 
lead on.
    Senator Menendez. Let me ask you a different question. 
There has been some reports that as it relates to Afghanistan, 
NATO--some of our NATO allies have been less than willing to 
engage in a way that makes me concerned about picking and 
choosing.
    My understanding of one of the strengths of NATO is that 
upon its decision to enter into an engagement, all member 
countries are committed. And yet in Afghanistan, we have seen 
reports of some of the member countries balking at that 
commitment. That is a slippery and dangerous slope, is it not?
    Mr. Volker. It is. I agree with that, Senator. This is the 
issue of caveats that has come up repeatedly. Every NATO ally 
is contributing in Afghanistan. Every contribution is 
important. We need the forces there, whether it is in the 
north, the west, and so on.
    But we are concerned that some allies place limitations on 
the use of their forces, which has, in the first instance, an 
operational effect. It reduces the flexibility of the forces 
and puts the commander in a more difficult position and 
actually increases the requirement for more forces if he needs 
them in places where those forces won't go.
    It also has an effect of creating political dissension 
within NATO, as allies are concerned that the burdens aren't 
being shared equally. And some allies, who are fighting hard in 
the south of Afghanistan have had casualties, look at others 
who have not done that and say that this is not fair. And they 
want to see greater solidarity.
    So our effort, as we work on this, and we will need to 
continue to work on this, is to increase the political 
solidarity that allies put into the mission--that is one 
mission for all of us--and to increase the operational 
flexibility that they give their forces on the ground so they 
could be used most effectively.
    Senator Menendez. That is critical if the alliance is to 
truly achieve its goals.
    Mr. Urbancic, let me ask you a couple of questions about 
Cyprus. First of all, I appreciated your opening statement, and 
it was very diplomatic. I understand about listening more than 
speaking, and I guess it served you well. Let me try to explore 
with you a little bit more some of your thoughts in that 
regard.
    You know, since 1974 when Cyprus was invaded and has been 
divided, since then, we have sought to promote a bicameral, 
bizonal federation. I want to get a sense from you whether you 
think the solution--and I know there is a lot of optimism right 
now, a new administration in Cyprus. But do you believe that 
solution emanates from the Cypriots or emanates from the U.N.? 
How do you see that happening?
    Mr. Urbancic. I think it emanates from a history of 
experience between the two communities, and I think that this 
is their realization that this is where they best think that 
their island can become a fully functioning, reunified state. 
It is not from the U.N. in that the U.N. is imposing it. It 
certainly is not from the United States in that we are imposing 
it, but I think it is where they realize they are going to have 
to find that common ground.
    Senator Menendez. Well, so there are those who believe in 
Cyprus and received an overwhelming rejection that the Annan 
plan was an imposition versus a negotiated agreement between 
the parties that deserved support. So is it our view, as an 
American Government, that we are seeking to have this solution 
come from the Cypriots?
    Mr. Urbancic. Yes, sir. Absolutely.
    Senator Menendez. Let me ask you this. In that respect, we 
have an incredible militarized element in Cyprus. Yet we have 
had nearly 13 million crossings since 2003, back and forth 
without incident. There was an attempt recently in good faith 
to open the Ledra Street crossing, and it ended up being closed 
on the same day it was opened because of the Turkish military 
intervened in the occupied zone, and the agreement was not to 
do that.
    Are we going to be more direct? If we want to have a 
solution here, we can't have the Turkish military imposing 
itself between Greek and Turkish Cypriots?
    Mr. Urbancic. Senator, I think the good news is that that 
crossing is open. And there are going to be hiccups no matter 
what happens and no matter who goes forward and whose plan it 
is, but they will do it themselves. They were able to do it 
themselves. They have done it themselves. And I think that is 
where we have to focus from now into the future.
    Senator Menendez. But clearly, the Turkish military has 
engaged here in a way that is beyond the civilian powers that 
exist. Is that a concern for us?
    Mr. Urbancic. The military presence is a concern for 
everybody, and it is going to have to be part of a 
comprehensive solution that they are going to work out among 
themselves, first of all, the Cypriots. But of course, they 
have partners, and they have supporters, and they will have to 
be part of that solution.
    Senator Menendez. Finally, there is, as you aptly put when 
you would be accredited if you were to be approved by this 
committee and by the Senate, only one country for which we 
both, as a Nation as well as the international community 
recognizes, which is the Government of Cyprus. And in that 
respect, there is a concern, and as the subcommittee chair on 
all of our foreign assistance, I am concerned about our 
engagement of foreign assistance, particularly on the Turkish 
Cypriot side, without the appropriate consultations of the 
Government of Cyprus.
    Do you not believe that it is appropriate--now consultation 
doesn't mean that the Government of Cyprus dictates anything as 
far as I am concerned. No one dictates anything to us in terms 
of our assistance abroad. But do you not believe that 
significant consultation in order to pursue the ultimate goal 
of reunification with the Government of Cyprus is appropriate?
    Mr. Urbancic. Yes, sir, I do. I think that the entire aid 
program is designed to support reunification and to support the 
establishment of a single state. I absolutely agree that our 
aid program must be transparent to both sides. There should be 
no surprises in this subcommittee. There should be no surprises 
on the Hill. And there should be no surprises to the Government 
of Cyprus or to Turkish Cypriots.
    Senator Menendez. Well, I personally believe that we should 
have a memorandum of understanding with the Greek Cypriots, and 
I will be pursuing that in the days ahead with the States 
Department. As the very possible next ambassador there, I hope 
that you will engage actively with us in that regard.
    Mr. Urbancic. Senator, I am always available. Thank you.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Obama. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    I want to congratulate each and every one of you on these 
nominations. I would like to follow up with Senator Menendez's 
questions, specifically Mr. Volker. Senator Menendez talked 
about the picking and choosing that goes on by our NATO allies 
in Afghanistan.
    I have just returned from Afghanistan. I wanted to thank 
the Wyoming troops who are there. We heard from them exactly 
how they felt things were going and also talked to our own 
ambassador as well as other leaders.
    In your statement, you mentioned that many Europeans are 
skeptical about the Afghanistan mission, and my question is 
what can you tell them to demonstrate that Afghanistan is very 
important in this war against terrorists?
    Mr. Volker. Yes, thank you, Senator. I think that is a 
critical issue, in fact, to build public support and 
understanding for the mission in Afghanistan. Several things, I 
think, are important to lay out. One of them is that the 
security and the well-being of our societies depends on success 
there.
    If you look at the September 11 attacks on the United 
States, they were applauded in Afghanistan. If you look at the 
bombers who were arrested in Barcelona in January of this year, 
they had their financing and their training on the Afghanistan-
Pakistan border area, and they were planning to spread out 
throughout Europe to attack buses and subway systems. So there 
is a direct impact on our own security.
    There is also a drug impact, so that 90 percent of opium 
reaching Europe is coming out of Afghanistan. So there is a 
direct interest in that.
    I think one of the things that they see is the images of 
twisted metal and bloody bodies that they see in the media of 
the fighting in Afghanistan and terrorist bombers and 
improvised explosive devices. We need to make sure that they 
see the other images of Afghanistan.
    In 2001, there were 900,000 kids in school. Now it is over 
5 million. In 2001, it was illegal for girls to go to school. 
And now it's over 1.5 million. There is greater access to 
healthcare. There is road building. There is an economy. There 
is a democratically elected government.
    So I think if the European public gets the whole picture of 
what we are doing in Afghanistan, we can broaden support for 
that. And that is critical for then empowering the governments 
to be more forthcoming with the contributions and the way that 
their forces are used.
    Senator Barrasso. Because it did seem that there were 
different rules of engagement from one nation to another 
instead of a unified rules of engagement for all of our NATO 
allies, when troops are deployed in various provinces. Do you 
want to comment?
    Mr. Volker. Sure. In terms of there is a joint operational 
plan, there is a common operational plan that NATO has agreed. 
There are also rules of engagement that apply with that plan.
    But on top of that, some nations have applied political 
limitations on their forces. You know, a caveat that says we 
don't have night vision goggles so we won't go do things at 
night. Well, that is understandable. But a caveat that says we 
won't allow our forces to move from this part of the country to 
that part of the country because there is fighting there or 
they can't engage in certain combat roles, well, that is 
damaging to the political solidarity of NATO. It makes the 
commander's job on the ground harder. So we have to keep 
working away at it to try to strengthen the operational 
flexibility and the political solidarity of NATO.
    Senator Barrasso. Thank you.
    Ms. Barrett, if I could, I noted that you had been a member 
of the Defense Advisory Committee on Women in the Services, and 
I am wondering if you could tell me a little bit about your 
work there and if there is anything you have learned that we 
can apply, both in Iraq and in Afghanistan?
    Ms. Barrett. Thank you, Senator. One of the things that we 
learned was that women, as well as men, can contribute 
significantly to our defense and that women as well as men are 
sacrificed for their country and women as well as men can 
perform great duty for their country. And I note that among the 
Senators on our panel, there are fathers of daughters, and it 
is often fathers of daughters who are most aggressive in 
realizing the capability that women bring to military as well 
as other roles.
    So through the Defense Advisory Committee on Women in the 
Services, we learned a great deal about unfairness and 
opportunity at that point, inchoate opportunity that we could 
open new job roles and new privileges to women, and it was an 
extraordinary eye-opener to me.
    Senator Barrasso. If I could now ask specifically about 
your comments about Finland. You mentioned that Finland is a 
global leader in biofuels and renewable energy. I think 25 
percent of the energy there is renewable. And you talked a 
little bit about some of Finland's cooperation with other 
countries in this area.
    How do you see that unfolding from an energy state, given 
that we have lots of renewables as well as unrenewable 
resources? How is it that you see us working in a more 
cooperative way?
    Ms. Barrett. I think that their research, their 
development, their efforts so far have produced results. Just 
about 100 percent of their forest products, industry is fueled 
by the byproducts of the industry. So woodchips, for instance, 
are fueled by their own product. And we can learn a lot from 
that.
    They are looking at biofuels, as I indicated, but also at 
alternate resources. They also have a close link to the 
pipeline ideas that would bring fuel from Russia into Europe. 
So they are looking at technologies and also transport issues 
in fuels. We can learn from them, and they can learn from us. I 
think it is an opportunity for nuclear alternate fuels as well 
as transportation in fuels.
    Senator Barrasso. Thank you. Thank you very much, Mr. 
Chairman.
    Senator Obama. Thank you.
    Senator Barrasso, we had said that we were going to do a 
second round. Do you have any further questions?
    Senator Barrasso. No, thank you, Mr. Chairman.
    Senator Obama. Okay. If not, I just have one last question 
that I have for you, Mr. Volker, and I wanted to get a sense of 
whether you could characterize the transit agreements that we 
concluded with Russia at the Bucharest summit and whether there 
is some overlap there in terms of what that will facilitate or 
allow NATO to do? In what way does it enhance NATO's forces' 
abilities to send supplies and so forth?
    Mr. Volker. Thank you, Mr. Chairman.
    The idea of working together with Russia on logistical 
support for Afghanistan is one that we supported for over a 
year. Just before the Bucharest summit, the Russians came 
forward and said, okay, we can do something on this. What was 
agreed at the Bucharest summit was for ground transport of 
nonlethal supplies. So we are talking about logistical support 
for the forces in Afghanistan. It is not air transit. It is not 
lethal materials.
    Is it a help? Yes, it is a help. It is good for our forces 
and others there to have multiple routes of access, multiple 
ways to go. Cross-road transport through Russia is helpful. 
There is more that could be done, and as I mentioned, we could 
open up to other areas if we had agreement with Russia to do 
that, and it is something we could continue to talk about.
    It is an example of something that is being done positively 
in the NATO-Russia Council, the ability to look at what we can 
do together on something such as supporting the effort in 
Afghanistan.
    Senator Obama. Good. Okay, well, I thank all of you for 
your responses, for your service, and for your testimony here 
today in these important positions.
    The record will remain open for 2 days so that the 
committee members may submit additional questions for the 
record. I ask that each nominee respond expeditiously to any of 
these queries.
    And I again want to thank the members of the families of 
all of you because I know that it is an extraordinary burden 
that is placed on them, and they are providing a service to 
this country, as well.
    If no one has any additional comments, then this hearing is 
adjourned.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                Prepared Statement of Hon. John McCain,
                       U.S. Senator From Arizona

    Thank you, Mr. Chairman, for holding today's hearing. I would like 
to express my strong support for the swift confirmation of Barbara 
McConnell Barrett as United States Ambassador to the Republic of 
Finland. I commend the President for nominating such an outstanding 
candidate for this important post.
    Barbara has a long history of service to Arizona and our Nation. 
During her professional career, she has amassed an impressive and 
diverse resume, ranging from serving as the first female deputy 
administrator of the Federal Aviation Administration and acting as 
chairwoman of the U.S. Advisory Commission on Public Diplomacy, to 
being an executive at two Fortune 500 companies. Throughout this time, 
Barbara has distinguished herself as a respected leader in both the 
civic and business communities.
    Her professionalism, thoughtfulness, and diverse experience will 
make her an effective diplomat and representative of the United States 
abroad. I have every confidence that, if confirmed, Barbara will 
contribute greatly to the continuation of our warm relations with the 
Republic of Finland.
    I urge the committee's expeditious action in moving this nomination 
to the full Senate and ask my colleagues to support her prompt 
confirmation.
                                 ______
                                 

Prepared Statement of Hon. Jim DeMint, U.S. Senator From South Carolina

    Mr Chairman, thank you for holding this hearing today so we could 
move forward with these ambassadorial nominations. To our nominees and 
your families, thank you for taking the time to serve. Public service 
is never easy and I wanted to let you know how appreciative we are that 
you would be willing to take on the tasks for which you have been 
nominated.
    As we all know, Europe is filled with our closest allies and 
friends in the world. While friends sometimes disagree, we find ways to 
overcome these challenges through our long history together.
    However, all of your countries of assignment share a role in the 
strategic security of Europe. Obviously, Bulgaria and Slovenia are 
members of NATO, Cyprus is the reason Turkey pulled out of NATO's 
military council, and Finland borders on the Russian Federation, which 
is trying to dictate terms to NATO.
    I was discouraged by Russia's influence to prevent even larger 
efforts to expand NATO. I do not believe their posturing should stand 
in the way of NATO's efforts to expand freedom to countries that want 
an opportunity to side with the West, that is the countries sovereign 
choice. Mr. Volker, I hope you will work diligently to correct this 
situation.
    Despite this disappointment, I was encouraged by NATO's endorsement 
of missile defense and its willingness to move forward with providing a 
blanket of protection for all of Europe--not just NATO members. It is a 
strong signal that the United States is still intimately concerned with 
European security.
    I was also pleased by NATO's renewed pledge to the long-term fight 
in Afghanistan. Afghanistan is the first military engagement outside 
Europe's boundaries. Europe has experienced more terrorist attacks than 
the United States, and the threat of Islamic extremism throughout 
Europe is just as large as the risk to America.
    However, while European leaders may understand the importance of 
Afghanistan and the threats posed by terrorism, the citizens of these 
nations do not. It will be important for all of you to talk with the 
people of your countries and help them understand the crucial link and 
why it is important that all of Europe support and remain engage in 
NATO's activities in Afghanistan.
    Many European nations want to play a larger role in the affairs of 
Africa, but success in Afghanistan is critical to the future of NATO 
and if the alliance cannot succeed there, then the hopes of more 
engagement in Africa will never become a reality.
    While these many not seem like issues for your individual concerns, 
they are at the heart of Europe's position in the world and each of 
your countries will play a part. All of you will have to tackle these 
daunting tasks, and you will be in very crucial positions to help 
foster the trans-Atlantic relationship. Your willingness to listen and 
be passionate advocates is vital.
    Often European leaders express how the United States and Europe 
share a common set of values. It will be important to remind them that 
we have a long history of common values that include the ideals of 
freedom and economic opportunity, and that these values serve as the 
foundation to our prosperity. American culture is loved in Europe, but 
the same is not always true of American policy. However, the two cannot 
be conveniently separated.
    As a final note, I encourage you to spend more time outside of the 
embassy and government offices in your respective capitals than inside. 
Successful diplomacy is no longer an activity just between heads of 
state, but between the people of each nation. If you are committed to 
fostering even stronger relations and want to be successful American 
advocates, you will need to deliver your messages directly to the 
people of your countries.
    I look forward to working with each of you.
                                 ______
                                 

      Prepared Statement of Carl Levin, U.S. Senator From Michigan

    I want to begin by thanking the Chairman and ranking member of this 
committee for holding this hearing today.
    I regret that I am not able to deliver these remarks in person. I 
am chairing a hearing before the Armed Services Committee with 
Ambassador Crocker and General Petraeus. I thank the Foreign Relations 
Committee for taking up this nomination so quickly, and I am pleased to 
support the nomination of Yousif Ghafari to serve as Ambassador to 
Slovenia.
    Born in Lebanon in 1952, the eldest of seven children, Mr. Ghafari 
immigrated to the United States in the early 1970s to pursue his 
education at Wayne State University in Detroit. He successively earned 
three degrees from Wayne State--a bachelor of arts degree in 
mathematics in 1974, a master of arts in applied mathematics and 
computer applications in 1975, and a master of science in chemical 
engineering in 1977. In 1992, he returned to school to receive his 
master of business administration from the Michigan State University 
Advanced Management Program.
    Soon after leaving Wayne State, Mr. Ghafari founded GHAFARI, Inc., 
a highly successful global architectural, engineering, and consulting 
firm. Established in 1982, he built GHAFARI, Inc., on a foundation of 
responsive client services and the utilization of the latest technology 
in order to improve quality. The success of his business has been 
acknowledged by national trade publications such as INC. magazine and 
Engineering News Records.
    Mr. Ghafari has done a tremendous amount of work to give back to 
the communities he has come from. As a founding partner of the United 
States-Lebanon Partnership Fund, he has helped to raise money and 
awareness of the effort to provide resources and infrastructure repair 
to parts of Lebanon damaged by war. In 1995, he was named one of the 
top 100 ``executive heroes'' in southeastern Michigan, and is a member 
of the International Institute of Metropolitan Detroit's ``Hall of 
Fame.'' In 2005, Wayne State University acknowledged his longtime 
generosity and support by renaming a residence building Yousif B. 
Ghafari Hall. Mr. Ghafari also currently serves on the board of 
trustees of the College for Creative Studies and Oakwood Healthcare, 
Inc. He additionally is on the board of directors for the Automobile 
Club of Michigan, Dura Automotive Systems, Inc., the Economic Club of 
Detroit, and the Wayne State University Foundation.
    If confirmed, this would not be the first time that Mr. Ghafari has 
served the United States in the international arena. In 2004-2005, he 
served as a public delegate designate at the U.S. mission to the United 
Nations for the 59th United Nations General Assembly. He has served on 
the J. William Fulbright Foreign Service Scholarship board since 2005, 
being elected vice chair this year.
    Mr. Ghafari is a prominent member of the Detroit community and a 
successful businessman who will serve as an excellent representative of 
our Government in Slovenia. I thank the committee for allowing me to 
enter this introduction into the record.
                                 ______
                                 

        Responses of Nancy E. McEldowney to Questions Submitted 
                      by Senator Christopher Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes, I have read this cable concerning Peace Corps-State 
Department Relations.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand and, if confirmed, will abide by the 
guidelines as conveyed in 04 STATE 258893.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. I agree that the Peace Corps, in order to effectively carry 
out its mandate, needs to be distinct from the United States mission in 
Bulgaria, as in other countries.

    Questions. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. In line with Secretary Rice's guidance on this issue, if 
confirmed, I intend to allow the Peace Corps to operate with as much 
autonomy as possible, bearing in mind my responsibility to provide for 
the safety and security of the volunteers and to coordinate United 
States objectives and policy in Bulgaria.
                                 ______
                                 

            Responses of Kurt Volker to Questions Submitted 
                         by Senator Jim DeMint

    Question. Have you been briefed on all of the negotiations from the 
Bucharest Summit last week?

    Answer. Yes, I have been fully briefed on all of the negotiations 
from the Bucharest Summit.

    Question. Did the United States offer France anything in return for 
their pledge of increased forces for the Afghanistan mission?

    Answer. In our diplomatic exchanges with France, the United States 
urged France to increase its contributions in Afghanistan, but we did 
not offer anything in return.

    Question. Has the State Department entered into formal discussions 
with Paris regarding the possible entry of France into NATO's 
integrated command structure?

    Answer. The State Department has not entered into formal 
discussions with Paris regarding the possible entry of France into 
NATO's integrated command structure. French President Sarkozy has made 
general statements about France's intention to reintegrate fully into 
the NATO integrated military structure by the time of the April 2009 
NATO Summit meeting. The French have not, however, followed up with 
detailed proposals at NATO or bilaterally with the United States. The 
French have indicated that they prefer to use the term 
``normalization'' rather than ``reintegration'' when discussing 
France's rejoining NATO's integrated military structure.

    Question. If so, what is France requesting from the United States 
in return?

    Answer. We have not entered into formal discussions with Paris 
regarding possible French reintegration into NATO's military structure.

    Question. What is your opinion about how the United States should 
respond if France formally requests United States support for an 
independent European Union defense structure within NATO?

    Answer. We do not support an independent European Union defense 
structure within NATO. We support stronger European defense 
capabilities, which can support NATO or European Union operations. In 
supporting stronger European defense capabilities, we must avoid the 
creation of duplicative or competing structures that could waste 
resources, divide the United States and Europe politically, undercut 
NATO, or impede the development of effective military forces.
    In his speech in advance of the Bucharest Summit, President Bush 
said, ``Building a strong NATO Alliance also requires a strong European 
defense capacity. So at this summit, I will encourage our European 
partners to increase their defense investments to support both NATO and 
European Union operations. America believes that if Europeans invest in 
their own defense, they will also be stronger and more capable when we 
deploy together.''
                                 ______
                                 

           Responses of William Todd to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. What are the primary United States foreign policy 
objectives related to Brunei?

    Answer. Our foreign policy objectives in Brunei mirror those for 
the Asia-Pacific region in general:

  <bullet> Regional Security: Strengthening regional security by 
        garnering Brunei's support for enhanced United States relations 
        with ASEAN and encouraging expansion of its contributions to 
        peacekeeping operations in the region and to other multilateral 
        undertakings;
  <bullet> Stability: Safeguarding Brunei's long-term stability by 
        helping to improve its counterterrorism and defense 
        capabilities through law enforcement and military-to-military 
        cooperation and by encouraging broader popular participation in 
        the political process through development of the country's 
        legislative council;
  <bullet> Outreach: Improving perceptions of the United States among 
        Brunei's largely Muslim population and its decisionmakers 
        through outreach, exchange programs, and promotion of United 
        States education;
  <bullet> Sustainable Development: Increasing opportunities for United 
        States firms to compete in Brunei through an expanding trade 
        dialog focused on improving protection of intellectual property 
        rights and opening markets for United States goods and 
        services, while contributing to sustainable development through 
        conservation of Brunei's tropical forests.

    Question. How many students from Brunei have studied in the United 
States during the past 7 years? Does the United States Government, or 
American colleges and universities, actively recruit Brunei students?

    Answer. There have been approximately 136 students who have studied 
in the United States during the past 7 years. The year-by-year 
breakdown is given below.

------------------------------------------------------------------------
                                                                No. of
                            Year                               students
------------------------------------------------------------------------
2006/07....................................................           24
2005/06....................................................           12
2004/05....................................................           18
2003/04....................................................           13
2002/03....................................................           17
2001/02....................................................           27
2000/01....................................................           25
------------------------------------------------------------------------
Source: International Institute of Education (IIE) Open Doors
  statistics.

    The embassy in Bandar Seri Begawan actively promotes United States 
higher education as part of our foreign policy objective of creating a 
greater understanding of United States society and policies by Brunei's 
majority-Muslim population. Embassy officials often speak to target 
audiences of prospective students to encourage study in the United 
States. They and other State Department officials also helped arrange a 
visit in 2007 by Brunei's Deputy Minister of Education to several 
leading United States universities to establish contact with Islamic 
studies programs. The Minister of Education plans to visit the United 
States in 2008 to build partnership relations between United States 
universities and the University of Brunei Darussalam, which the embassy 
expects will result in increased student exchanges--both short and long 
term--between the United States and Brunei.
    The embassy in Bandar Seri Begawan worked to place United States 
institutions of higher learning on a list of Ministry of Defense-
recommended schools, as part of the embassy's campaign to promote 
United States schools to Bruneians, who historically have looked to the 
United Kingdom and Australia for foreign study. As a result, five 
students entered U.S. universities through this new track for the 
current academic year and our embassy anticipates four more will enter 
in the 2008/09 academic year. The embassy is also working with the 
Ministry of Education to allow students to use other Brunei Government 
scholarship programs to attend United States educational institutions.
    In the past year, the embassy also assisted the following American 
colleges or universities visiting Brunei to recruit students:

  <bullet> Tufts University (Fletcher School)
  <bullet> Upper Iowa University
  <bullet> Portland State University
  <bullet> State University of New York--Binghamton
  <bullet> Creighton University
  <bullet> University of Denver
  <bullet> Eckerd College
  <bullet> Herkimer Community College

    Question. What is the present level of Brunei investment in the 
United States? Do you anticipate an increase in such investment in the 
future?

    Answer. Exact figures for the present level of Brunei's investment 
in the United States are difficult to obtain, because the United States 
does not require the registration of investments and the level of 
Bruneian direct investment flows are small.
    According to industry estimates, Brunei holds substantial foreign 
assets globally, estimated at $30 billion dollars, through its Brunei 
Investment Agency (BIA), a sovereign wealth fund. Brunei's investments 
in the United States include luxury hotels in New York and California. 
Other financial assets are believed to be managed by U.S. financial 
institutions.
    The current value of the United States dollar would appear 
conducive to growing Bruneian investment in United States equities and 
bonds, but we are not aware of any plans for Brunei to acquire 
controlling interests or direct equity stakes in additional United 
States companies. Traditionally, the BIA has preferred passive, 
indirect investments to direct equity investments.

    Question. During the past 5 years, what cabinet or subcabinet level 
United States officials have visited Brunei? What United States 
military leaders have visited Brunei during the same time period?

    Answer. Assistant United States Trade Representative Barbara Weisel 
visited Brunei in May 2007. In December 2002, the Sultan of Brunei met 
with President Bush at the White House, and with Secretary Powell. In 
addition, the President has met the Sultan of Brunei every year at the 
annual APEC leaders meeting. Brunei hosted APEC in 2000, which 
President Clinton attended, and the ASEAN Regional Forum in July 2002, 
which Secretary Powell attended.
    The following United States military leaders have visited Brunei in 
the last five years:

April 2008: Pacific Commander Admiral Keating
May 2006: Deputy Under Secretary for Defense Lawless
March 2006: Pacific Commander Admiral Fallon
March 2005: U.S. Army Pacific Commander LTG Brown
                                 ______
                                 

       Response of Hon. Barbara M. Barrett to Question Submitted 
                     by Senator George V. Voinovich

    Question. The issue that I am concerned about is the issue of this 
Office of Democratic Institutions and Human Rights. And I don't know 
whether you are even familiar with it. But I will tell you this, that 
there are many people here in this Congress that worked very hard to 
get the Office of Nondiscrimination and Tolerance on the core budget of 
the OSCE.
    And right now, we are in the midst of hiring someone to take the 
place of a man by the name of Christian Strohal, and I would really 
appreciate your looking into it. And I would like to spend some time 
with you on the phone talking about perhaps a role that you might play 
because Finland is in charge of that ministerial effort right now. And 
I think if we don't do that, we may lose a wonderful opportunity to 
continue to make a difference in the area of dealing with 
discrimination.

    Answer. Finland's OSCE Chairman-in-Office has actively promoted the 
work of the ODIHR's tolerance and nondiscrimination unit, which is 
funded by the OSCE core budget. If confirmed as the United States 
Ambassador to Finland, I look forward to working closely with the OSCE 
Chairman-in-Office to support Mr. Strohal and his successor. I would 
welcome the opportunity to discuss this further with you and to hear 
your views on how we can improve our antidiscrimination efforts in the 
OSCE.


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, APRIL 9, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Haslach, Patricia M., to be United States Senior Coordinator 
        for the Asia-Pacific Economic Cooperation (APEC) Forum
Marciel, Scot A., to be United States Ambassador for ASEAN 
        Affairs
Stephens, D. Kathleen, to be the Ambassador to the Republic of 
        Korea
Todd, William E., to be Ambassador to the State of Brunei 
        Darussalam
                              ----------                              

    The committee met, pursuant to notice, at 3:15 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
presiding.
    Present: Senators Boxer, Webb, and Murkowski.
    Also Present: Senator Kennedy.

            OPENING STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Good afternoon, everybody. Today, the full 
Senate Foreign Relations Committee meets to consider four 
distinguished nominees for ambassadorial posts.
    As chair of the Subcommittee on East Asian and Pacific 
Affairs, I am extremely pleased to welcome our nominees, and I 
am also pleased to welcome our colleague and my dear friend, 
Senator Kennedy, who has come today to say a few words about 
Ms. Kathleen Stephens. And how lucky you are to have his 
support.
    Ms. Stephens, the President's nominee to be the ambassador 
to the Republic of Korea, has served her country as a career 
member of the Foreign Service for 30 years, most recently 
serving as the political advisor in the Bureau of East Asian 
and Pacific Affairs. Ms. Stephens has had an expansive career 
throughout Europe and Asia, but I understand this post will 
bring her back to where she served as a Peace Corps volunteer 
before joining the Foreign Service. That is a really wonderful 
circle.
    Mr. Scot Marciel, sir, the President's nominee for the rank 
of ambassador for the Association of South Asian Nations 
Affairs, has served his country as a member of the Foreign 
Service for more than 22 years. If confirmed, Mr. Marciel will 
serve as the ambassador while also serving his current post as 
the Deputy Assistant Secretary of State for East Asian and 
Pacific Affairs. Mr. Marciel has extensive experience in Asia, 
having served in Hong Kong, Thailand, Vietnam, and the 
Philippines.
    Ambassador Patricia Haslach--hello--is the President's 
nominee to be the U.S. senior coordinator for the Asia-Pacific 
Economic Cooperation Forum, with the rank of ambassador. 
Ambassador Haslach has served as the U.S. senior coordinator to 
APEC since last year.
    During today's hearing, we will consider the Honorable 
Patricia Haslach for promotion and nomination to the rank of 
ambassador. Prior to her current post, she served as the 
director for the Office on Afghanistan in the Bureau of South 
Asian Affairs and the U.S. Ambassador to Laos.
    And finally, Mr. William Todd is the President's nominee to 
be the U.S. Ambassador to Brunei. Mr. Todd is a member of the 
Senior Executive Service. He currently serves as the Deputy 
Inspector General for the Department of State. Prior to this 
assignment, he served as the Deputy Assistant Secretary for 
Civilian Police, Rule of Law, Asia, Africa, and Europe in the 
Bureau of International Narcotics and Law Enforcement Affairs. 
Mr. Todd has served the U.S. Government in a variety of other 
posts since beginning his career in 1983.
    I want to thank all of you for your amazing dedication to 
our country. It goes without saying that we are considering a 
number of very important posts today, as we look to define the 
future role of the United States in Asia and the Pacific 
region. While that role has yet to be fully shaped, for many of 
us, one thing is clear. The 21st century will be defined as 
much by the Pacific and Asia--by the Pacific and by Asia as it 
will be by our traditional relationships in the Atlantic region 
and Europe.
    And of course, coming from California, I particularly know 
that I am right on that point. Not only--and I am sure that I 
speak for Senator Murkowski, too, given her representation of 
Alaska.
    Not only do we have an extensive and growing economic 
relationship in Asia and the Pacific, but all of the major 
transnational challenges faced by the United States today have 
a place there, including terrorism, nuclear proliferation and 
arms trafficking, climate change, epidemic diseases such as 
avian flu and HIV-AIDS, the flow of refugees, and human 
trafficking.
    One place where a number of these challenges continue to 
play out is on the Korean peninsula, and one of the places 
where climate change could have a particularly harsh impact is 
Brunei, a country where 70 percent of the territory is primal 
tropical rain forest and whose economy is looking toward 
ecotourism to help sustain it into the future.
    Our success or failure at addressing these challenges will 
be defined by the extent of the cooperation we can get from 
this region of the world. And so it is important that we seek 
comprehensive and sustained engagement with all of the 
countries in East Asia and the Pacific.
    As we seek to advance human rights in Burma and bring 
meaningful pressure to bear on the Burmese regime, we must ask 
more of our friends and allies in Asia, and this must be done. 
The Burmese regime must be held accountable for its continued 
failure to afford its people the fundamental rights and 
freedoms they deserve and they have demanded.
    The United States also faces challenges with China. We all 
know this. As China asserts itself in the region, we need to 
press the Chinese to play a constructive role and to abide by 
international standards and norms, particularly on the issue of 
human rights that we know was in the news today regarding 
Tibet.
    So, to do that, we need people like those in front of us 
here--dedicated, experienced people. And so, you certainly have 
your work cut out for you.
    Now the way we are going to proceed is I am going to turn 
to Senator Murkowski for her opening statement, if she has one. 
Then we are going to turn to Senator Kennedy. And at that time, 
we will then turn to Senator Webb for his opening statement, 
and we will go from there.
    Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI,
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Madam Chairman, and thank you 
for holding the hearing here this afternoon.
    You have touched on the relationship, but when we think 
about the United States relationship with our Asia-Pacific 
neighbors, truly the four individuals that we have before us 
today, who have been nominated to these posts, these are truly 
very key posts within that region.
    APEC, with its significant economic and a growing 
noneconomic role, the importance of the ASEAN nations as they 
move forward politically and economically. I am pleased that 
the administration agreed with the Congress on the need to 
appoint an ambassador to the ASEAN nations. Brunei, certainly 
despite its very small geographic size, can play a very 
significant role as a moderate Islamic nation in helping the 
United States standing with other Islamic nations. Of course, 
South Korea, our seventh-largest trading partner. We have got 
quite a significant military presence in country, and of 
course, Seoul plays a very instrumental role in the Six-Party 
Talks on North Korea's nuclear program.
    I would like to put on the record that I am very hopeful 
that South Korea will soon be able to participate in our Visa 
Waiver Program. I believe that we are close in meeting the 
requirements to be eligible for this program or that Korea is 
close to being eligible, and I certainly support their 
inclusion in that.
    Each post is very key, very important, and will have a 
vital role in shaping U.S. policy in the region. I look forward 
to the hearing from the nominees on what action they 
individually will take to promote the United States interests 
in the region and am delighted to have the four of you before 
us this afternoon and your willingness to serve.
    Thank you, Madam Chair.
    Senator Boxer. Senator Kennedy, why don't you introduce 
your friend.
    Senator Kennedy. Yes.
    Senator Boxer. And then after that, we will call on her.

              STATEMENT OF HON. EDWARD M. KENNEDY,
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kennedy. Thank you very much, Senators Boxer, 
Murkowski, and Senator Webb. I am very grateful for the 
opportunity to make some brief comments this morning, Madam 
Chairman and members of the committee, to introduce Kathleen 
Stephens, who has been nominated to be the Ambassador to the 
Republic of Korea.
    I first met Kathy in Northern Ireland in 1998, when she was 
counsel general to the United States consulate in Belfast. 
Previously, she had served in the National Security Council 
under President Clinton. At that time, the situation in 
Northern Ireland was very different from what it is today. But 
by 1998, significant progress was taking place. In fact, 
tomorrow, April 10, we celebrate a dramatic milestone of the 
10th anniversary of the Good Friday agreement, peace agreement.
    As Kathy and all of us remember so well, ending the decades 
of hatred, violence, and bloodshed in Northern Ireland and 
achieving a peaceful resolution of the conflict was an 
enormously difficult challenge. But today, we see the people of 
Northern Ireland living in peace and prosperity and fulfilling 
their dreams and pursuing a promising future.
    Through her work on the National Security Council and at 
the consulate in Belfast, Kathy was significantly involved in 
the peace process. I was impressed with her diplomatic skills 
and her positive ties with the principal political leaders on 
both sides. She knew the many complex details involved in the 
peace negotiation. She offered perceptive insights about the 
complicated political process taking place.
    Her son, James, who was with her in Belfast, is now here 
today at Olin College of Engineering in Needham, MA.
    Kathy's work on the Balkans has been impressive. As Deputy 
Assistant Secretary for Burma--for the Bureau of European and 
Eurasian Affairs from 2003 to 2005, she worked on Kosovo's 
future status and the integration of the Western Balkan nations 
in Europe. She ably managed our policy with countries in the 
region to see that America's interests were protected and 
promoted, and her work has left a lasting imprint. And I am 
sure she is very pleased, as I am, by the recent independence 
of Kosovo and by last week's announcement that Albania and 
Croatia have been invited to join NATO.
    More recently, as political advisor and Principal Deputy 
Assistant Secretary for the Bureau of East Asia and Pacific, 
Kathy has been closely involved in strengthening our relations 
with the nations in that region as well, particularly Japan and 
Korea. And it is fitting that she is now being nominated to be 
Ambassador to Korea, a country that she has lived in and has 
known well for many years, beginning in 1975, when she was a 
Peace Corps volunteer there, teaching English to young Korean 
students.
    She returned to Korea in 1983 as a political advisor and 
human rights officer at the American Embassy, and she is a 
strong advocate for human rights and equality for all. I am 
delighted that the administration has selected such a talented 
and dedicated diplomat to represent us. She will be the first 
woman to serve as an American Ambassador in Korea, the first 
American Ambassador there to be fluent in Korean, and the first 
American Ambassador who was once a Peace Corps volunteer in 
Korea.
    She is a consummate diplomat with ability, experience, and 
vision to represent the United States extremely well in a 
nation vital to our foreign policy in today's world. I strongly 
support Kathleen Stephens's nomination as our next Ambassador 
to Korea.
    Senator Boxer. Senator, thank you so much. I know you have 
a busy schedule. We so appreciate your coming.
    And before we call on Ms. Stephens to introduce her family 
and make her statement, I know Senator Webb had some comments, 
in general, that he would like to share.

                  STATEMENT OF HON. JIM WEBB,
                   U.S. SENATOR FROM VIRGINIA

    Senator Webb. Thank you, Madam Chairman.
    I wanted to come here today just to express my support for 
all the nominees. They are obviously extremely qualified and to 
especially express my gratefulness that we are nominating 
people like Kathleen Stephens and Scot Marciel, both of whom I 
have known at some level. And everything that Senator Kennedy 
just pointed out, I think is illustrative of the incredible 
qualifications that we have in the person that we are sending 
to South Korea at a time when relations with that country and 
on the Korean peninsula are in such a period of change. It is 
kind of a remarkable set of credentials to be bringing to the 
table at this key time.
    And also, as someone who has spent a great deal of my life 
in and out of Southeast Asia, I would like to reiterate what 
other people are saying about how important it is that we have 
created this position that Scot Marciel is going to be 
occupying. We tend to look at so many of our relationships in 
Southeast Asia as bilateral relationships at a time when the 
region itself is coming together in a more collective way to 
try to deal with problems, and I think it is very important for 
our country that we have this sort of representation at ASEAN.
    And quite frankly, we need new solutions in Southeast Asia, 
and the Burmese situation is a good example of that. The ways 
that we have been trying haven't really worked in terms of 
solving the problem. And there are other ideas that we can work 
on with other nations maybe to come to a better solution there 
and in other places. And we have the right person to be doing 
that. I have got a great deal of confidence in him and look 
forward to seeing our relationships in Southeast Asia mature 
and move forward with this new position.
    Thank you very much.
    Senator Boxer. Thank you so much, Senator Webb.
    So now, Ms. Stephens, would you like to introduce some 
folks you may have brought with you? And I will offer that to 
all of the nominees.

STATEMENT OF D. KATHLEEN STEPHENS, NOMINEE TO BE AMBASSADOR TO 
                     THE REPUBLIC OF KOREA

    Ms. Stephens. Yes, thank you very much. It is a great 
privilege to be here today, and I do want to thank Senator 
Kennedy so much for his very, very generous introduction. If I 
look a little flushed, it is not just the excitement of the 
moment. I am blushing a bit because it was very, very generous.
    And thank you for recalling our work together, and I do 
thank you for our work together and the work that I have 
enjoyed doing throughout my 30-year career with all of the 
members of Congress in promoting U.S. ideals and interests 
abroad. I look forward to doing the same if I am confirmed.
    My son, as mentioned, is here. He is 21 years old. James, 
studying engineering at Olin College.
    Senator Boxer. James, why don't you stand up so we can say 
hi to you? Thank you for being here for your mom.
    Ms. Stephens. James is studying engineering, but he had to 
be a bridge builder before that because he is a Foreign Service 
kid, and I am very proud of him.
    If I may, Madam Chairman, I wanted to also introduce two 
great mentors of mine.
    Senator Boxer. Sure.
    Ms. Stephens. Ambassador James Lilley, who was my boss in 
the Republic of Korea during some very exciting times in the 
1980s and, of course, was also United States Ambassador to the 
People's Republic of China. I learned so much from him.
    Senator Boxer. Ambassador, will you stand, please, so we 
can recognize you? Thanks. It is very nice to see you again.
    Ms. Stephens. And Mr. Jon Keeton, who was Peace Corps Korea 
director in the 1970s. Both of these men have done so much for 
our country, and I thank them for their example.
    Senator Boxer. Thank you both.
    Okay, we will start the clock going now at 7 minutes, and 
we will move forward. Yes. Go ahead.
    Ms. Stephens. Oh, I am sorry.
    Senator Boxer. This is your turn. [Laughter.]
    Ms. Stephens. Okay. This is my first time doing this.
    Senator Boxer. Well, so far, you are doing well.
    Ms. Stephens. Thank you.
    Madam Chairman, I wanted to start by saying it has been 
mentioned that I lived in Korea many years ago, and in the 
years ago, I used to hear a phrase from Koreans quite often, 
even when I didn't speak much Korean. When they talked about 
the United States-Korean relationship, they would talk about 
``Hyal Maeng Gwan-gei.'' And literally, that is an alliance 
forged in blood.
    I am not sure that is said so much these days, but over a 
60-year history of our relationship, the United States and the 
Republic of Korea have faced many challenges. There have, of 
course, been immense changes in both countries and in the world 
around us. But the partnership between our two countries has 
remained vital.
    I think this is the time to reinvigorate our partnership 
and to take it to a new level. Many of the goals the United 
States and Korea have been pursuing together for many years are 
within our grasp--a more mature and balanced military 
partnership, tariff-free trade, and the prospect of positive 
change in the North. So I believe that the most important work 
and the best days of the United States-Korean partnership are 
still ahead of us.
    Madam Chairman and Senator Murkowski, I have submitted a 
written statement, which is rather lengthy. It goes into more 
detail than time allows me here, and it is lengthy because we 
have a very big agenda with Korea. But you know, in Korea, 
there is always breaking news. And even though I submitted my 
statement yesterday, it doesn't include comment on some 
important events that actually have occurred in the last 24 
hours.
    And to name just a few as a sample, the National Assembly 
elections concluded in Korea today, given the time difference. 
Ambassador Chris Hill's meeting earlier today in Beijing with 
his Republic of Korea counterpart in the Six-Party Talks. And 
my favorite, the first Korean astronaut in space, a woman, Yi 
So-yeon, by the way.
    Each of these events reflects the breadth and vitality of 
Korea itself and the potential for our future cooperation 
together. So, if confirmed, I look forward to working with this 
committee and with other members of Congress on a number of 
goals, which I will very briefly enumerate.
    First, working with my military colleagues and the Republic 
of Korea in adjusting our military forces on the peninsula. 
This includes moving our main United States military base out 
of downtown Seoul and preparing for the transfer of wartime 
operational control of Korean forces to the Republic of Korea 
in 2012.
    And expanding our global partnership with the Republic of 
Korea and deepening our cooperation in the kinds of areas that 
Senator Murkowski mentioned, from climate change to energy 
security and many, many more.
    And third, promoting open markets, fair trade, and U.S. 
economic leadership in the region. This includes ensuring that 
the Republic of Korea follows international guidelines and 
fully reopens its market to United States beef. It also 
includes the consideration by legislatures in both countries of 
the free trade agreement we have signed. This is a 
comprehensive, high-quality agreement between two democracies 
with advanced economies. It will open South Korea's growing 
market of 49 million consumers to the full range of United 
States goods and services from agriculture to autos to 
telecommunications services.
    It will also strengthen our relationship with Korea and 
send a strong message of continued United States leadership in 
Asia. If confirmed as ambassador, upon FTA ratification, I am 
committed to working closely with the U.S. trade representative 
to ensure that all the provisions of the agreement are enforced 
across the board.
    Another key item on our agenda already mentioned is our 
effort to implement fully the September 2005 Statement of 
Principles agreed to the in Six-Party Talks. The full 
implementation of these principles envisions not only the 
denuclearization of the Korean peninsula, but transformed 
relations on the peninsula and beyond and more secure and 
better lives for all Koreans.
    We have made progress, but much remains to be done, and it 
hasn't been easy, as I know this committee well knows. Working 
closely with our allies in Seoul is vital. Ambassador Hill has 
just completed a round of meetings in Singapore and Beijing and 
will be reporting to Secretary Rice when he arrives back this 
evening.
    Issues related to North Korea will be on the agenda when 
President Lee and President Bush meet next week at Camp David. 
If confirmed, I will also work closely and energetically with 
the South Korean Government to promote an improved human rights 
situation in North Korea and to seek sustainable solutions to 
the plight of North Korean asylum seekers.
    I also hope we can deepen the people-to-people ties between 
our two countries. Congress has provided legislation allowing 
us to work with the Republic of Korea on the steps needed to 
facilitate entry into our Visa Waiver Program, and I thank 
Senator Murkowski for her mention of this.
    If confirmed, I will work with the Koreans and our own 
authorities toward this end. In my own activities and those of 
the embassy, I will put a strong emphasis on outreach, on 
building our ability to communicate in Korean as well as in 
English, in cyberspace as well as face-to-face with Koreans 
from all walks of life, from all generations, and every part of 
the country.
    Madam Chairman, Senator Murkowski, thank you very much for 
the honor of appearing before you, and I look forward to your 
questions.
    [The prepared statement of Ms. Stephens follows:]

       Prepared Statement of D. Kathleen Stephens, Nominee to be 
                  Ambassador to the Republic of Korea

    Madame Chairman and members of the committee, it is a privilege to 
appear before you today as the President's nominee to serve as U.S. 
Ambassador to the Republic of Korea. I am honored by the confidence 
that President Bush and Secretary Rice have placed in me. I want to 
thank the committee and the other Members of Congress with whom I have 
had the pleasure of working during my career for your support for the 
Foreign Service and your dedication to advancing U.S. ideals and 
interests abroad. If confirmed by the Senate, I look forward to working 
with this committee and with other members of Congress to strengthen 
our partnership with the Republic of Korea and to work together for the 
kind of peace and stability in which democracy and economic opportunity 
can flourish, not only on the Korean peninsula, but also throughout the 
world.
    I am joined today by my son, James, who is a student at Franklin W. 
Olin College of Engineering in Needham, MA. James was born in Korea. 
Like all Foreign Service family members, he learned to be a bridge-
builder, even before he decided to study engineering.
    I am also grateful to my friends and colleagues from the Peace 
Corps and the Foreign Service who have joined me today, including the 
dedicated men and women of the Department of State who have been so 
helpful as I have prepared for this new assignment. I also want to 
recognize Ambassador James Lilley, former U.S. Ambassador to the 
Republic of Korea and the People's Republic of China, and Mr. Jon 
Keeton, former Peace Corps/Korea director. Both have represented the 
United States brilliantly in Korea and elsewhere, and both have 
contributed hugely to United States-Korean relations. I have benefited 
from their mentorship, encouragement, and example.
    I have been a U.S. Foreign Service officer for 30 years. Early in 
my career, I spent 8 memorable years at United States diplomatic posts 
in China and Korea. With the fall of the Berlin Wall, I turned to post-
cold war Europe with assignments abroad and in Washington focused on 
the Balkans, the search for peace in Northern Ireland, and the changing 
transatlantic relationship. In 2005, I returned to the United States 
diplomatic agenda in East Asia. As this committee knows well, it is a 
huge agenda on which success is vital to the peace and prosperity of 
this country and indeed of the world. I believe we are making good 
progress.
    Madame Chairman, if we consider the history of American engagement 
in East Asia since the Second World War, if we examine the flowering of 
economic opportunity and democratic expression in much of East Asia in 
recent decades, if we identify the key security, human rights, and 
other issues yet to be resolved, it is clear--the 60-year-old 
partnership between the United States of America and the Republic of 
Korea has been and remains a remarkably successful and vital one. South 
Korea emerged from a catastrophic half-century of occupation, division, 
and war to join within the space of only decades the top ranks of the 
world's free and prosperous nations. This stunning achievement is 
testimony to the talent, determination, and sacrifices of several 
generations of Koreans, and to the power of free markets and democracy 
to unleash extraordinary human potential. It is also rightly viewed in 
the context of the sacrifice of the more than 35,000 Americans who lost 
their lives in the Korean War, and to the many thousands who have 
served side by side with our Korean allies to secure an uneasy peace 
since then. With the Republic of Korea serving today as a model and a 
catalyst for economic growth and democratic development elsewhere, in 
Iraq, Afghanistan, and in its own neighborhood, I believe the best days 
of the United States-Korean partnership are still ahead of us.
    One reason I am an optimist about Korea's future, and about the 
still-untapped potential of the United States-Republic of Korea 
partnership, is because I was fortunate enough to live and work in 
Korea during periods of amazing economic and political transformation. 
In the Korean countryside that was my home as a Peace Corps volunteer 
from 1975 to 1977, the memory and threat of war was the backdrop to a 
life that was harsh for many, not easy for any. The political 
atmosphere was stifling. But an economic and social transformation was 
happening before my eyes. I could see the way people's standards of 
living were improving in small but crucial ways day by day, and the way 
new opportunities--for education, for a brighter future--were being 
created and energetically grasped.
    When I returned to Korea in 1983 as a political officer at the U.S. 
Embassy in Seoul, burgeoning economic growth had been joined with 
increasing urgency by a growing insistence by Koreans that economic 
development should be matched with political reform, with human rights 
standards and democratic institutions that reflected the aspirations 
and maturity of the Korean people. It was a difficult period, at times 
for United States-Korean relations, but especially for the patriotic 
Koreans who took risks in the cause of Korea's democratization. By 
1987, the tide had turned. Just as an earlier generation of Koreans had 
against all odds turned their country from an economic disaster zone 
into a powerhouse, so did Koreans in the 1980s take Korea across the 
democratic threshold.
    Koreans have never looked back. The twin engines of a dynamic 
economy and a vibrant democracy have lifted Korean accomplishments to 
new heights and new fields. We see it in Korea's status as Asia's 
``most wired country,'' in its innovative mobile phone industry that 
made South Korea the first to launch digital TV to cell phones in 2005, 
in its cutting-edge, globally-recognized film and art scene, and in its 
full participation in the international community, epitomized by the 
election of its distinguished former Foreign Minister, His Excellency 
Ban Ki-moon, as the Secretary General of the United Nations.
    Madame Chairman, Senate Resolution 444, which passed unanimously on 
February 14, marked another milestone in Korea's recent history, that 
of the election of the Republic of Korea's new President, Mr. Lee 
Myung-bak. The resolution describes the ever-growing areas in which the 
Republic of Korea and the United States work together closely in our 
alliance partnership, and highlights the opportunities before us to 
expand further our areas of cooperation. In that spirit, it is fitting 
that President Lee's first overseas trip in his new role is to the 
United States. President and Mrs. Bush will host President Lee and his 
wife, Mrs. Kim Yoon-ok, at Camp David next week for discussions that 
will focus on ways in which the United States and the Republic of Korea 
can continue to work together to advance our shared values of freedom, 
security, and prosperity in East Asia and beyond.
    This year, 2008, marks the sixtieth anniversary of the founding of 
the Republic of Korea as well as the sixtieth anniversary of the United 
States-Republic of Korea relationship. As we reflect on our shared 
history of sacrifice and success, and as we examine the regional and 
global opportunities and challenges we face, the time is right to 
reinvigorate and maximize the mutual benefits of our partnership. If 
confirmed, I look forward to working with Congress to realize this 
goal. There are several major areas in which I intend to concentrate my 
efforts.
           adapting our longstanding security alliance with 
             south korea to address contemporary realities
    The United States and the Republic of Korea have agreed to adjust 
the size and strategic stance of our respective military forces on the 
peninsula to reflect better the challenges we face today and the 
changes in the Republic of Korea itself. We are working with our Korean 
counterparts to move the main United States military base out of 
downtown Seoul, and to consolidate United States troops in the Republic 
of Korea overall to fewer hubs further south. We have agreed to 
transition our command relationships such that beginning in 2012, the 
Republic of Korea will exercise wartime operational control over Korean 
troops. These steps are sensible and timely. The changes overall will 
reflect Korea's economic and military strength, and its place in the 
world and the region. The changes will also strengthen the U.S. 
military's operational efficiency and deterrent capability. If 
confirmed, I will work closely with the Korean Government, my military 
colleagues, and with the Congress to accomplish this transformation.
    The core mission of deterring aggression from the North will remain 
the principal priority. But we should continue to deepen our 
cooperation with the Republic of Korea as we address other regional and 
global challenges. We should build on the work we have done together in 
Iraq, Afghanistan, and Lebanon. In Iraq's Irbil province, the Koreans 
have been successful not only in developing local infrastructure and 
maintaining security, but also in providing a vision for a more 
democratic and peaceful future. The Republic of Korea has made 
substantial contributions to international peacekeeping efforts, from 
Somalia to Georgia to Timor-Leste. The Republic of Korea currently has 
some 350 troops in southern Lebanon supporting the U.N. peacekeeping 
mission. The South Korean National Assembly is considering legislation 
to allow even greater participation in peacekeeping missions. We should 
also continue to expand our cooperation on a range of global and 
transnational issues, such as nonproliferation, pandemics, 
counterterrorism, climate change, and democracy promotion.
         promoting open markets, fair trade, and u.s. economic 
                 and strategic leadership in the region
    The Republic of Korea has gone from a per capita income of $67 in 
1953 to roughly $20,000 today. In the past several years, South Korea 
has demonstrated a growing willingness to move to greater market 
openness. It has demonstrated its resolve to participate in free and 
fair trade by making the strategic decision to negotiate and sign a 
comprehensive, high-quality free trade agreement with the United 
States. Upon approval by the legislatures of both countries, the KORUS 
FTA will open South Korea's growing market of 49 million consumers to 
the full range of United States goods and services, from agriculture to 
autos to telecommunications services.
    The KORUS FTA is the most commercially significant free trade 
agreement the United States has concluded in over 15 years. Just taking 
into account the benefits of eliminating tariff barriers alone, this 
trade agreement has the potential to boost U.S. exports by more than 
$10 billion annually, according to the recent International Trade 
Commission report on the expected impact of the FTA. The benefits are 
even more significant when the elimination of nontariff barriers is 
factored in. It will accelerate and lock in Korea's economic reforms. 
The FTA will provide new opportunities for American companies to export 
to and invest in the Korean market. It will strengthen our relationship 
with a key democratic ally in a critical part of the world, and send a 
strong message of continued United States leadership in Asia. If 
confirmed as ambassador, and upon FTA ratification, I will make it a 
top priority to work with the United States Trade Representative to 
ensure that the provisions of the agreement are enforced across the 
board. This includes enhancing our current cooperation with the South 
Koreans on environment and labor standards.
    Moreover, we must ensure that the Republic of Korea follows 
international guidelines and fully reopens its market to United States 
beef. If confirmed, and as the progeny of Texas ranchers, you can be 
assured I will do all I can to ensure that our safe and delicious beef 
has unrestricted access to the South Korean market.
 working closely with our south korean allies to achieve the complete, 
 verifiable denuclearization of the korean peninsula, better lives for 
the long-suffering people of north korea, and a peace settlement on the 
      peninsula that reflects the aspirations of the korean people
    Strategically situated between China and Japan, the Korean 
peninsula remains of critical geopolitical importance to the region and 
to the United States. Despite the prosperity and freedom that has come 
to define the Republic of Korea, the situation on the peninsula as a 
whole remains unpredictable. On a human level, the disparity between 
the lives of the ordinary citizens of North and South Korea is greater 
than ever. The United States seeks through the Six Party Talks to 
complete the denuclearization of the Korean peninsula and to implement 
fully the vision set out in the Joint Statement of Principles agreed to 
by all six parties in September 2005. Our close coordination with the 
Republic of Korea in that process has been instrumental to the progress 
made to date, and if confirmed, I will seek to ensure that we continue 
that vital cooperation. With successful denuclearization, the joint 
statement commits the United States and the other parties to the 
normalization of relations, to economic and energy assistance to North 
Korea, and to achieving a permanent peace arrangement in Korea, along 
with a peace and security mechanism for the region. It is an ambitious 
agenda. The United States and the Republic of Korea will need to work 
closely together to succeed.
    As democratic societies, the United States and South Korea also 
share a deep interest in promoting an improved human rights situation 
in North Korea. This interest is particularly keen among the many 
Koreans whose families were tragically separated by the Korean War. 
President Lee and his government have made clear the importance the 
Republic of Korea attaches to this issue. The United States has equally 
deep resolve. If confirmed, I will work closely with the South Korean 
Government on the issue of human rights in North Korea, including in 
seeking sustainable solutions to the plight of North Korean asylum 
seekers.
     enhancing the people-to-people ties between our two countries 
                   and deepening mutual understanding
    The people-to-people ties between the United States and Korea 
continue to grow exponentially. The 2 million Korean-Americans in the 
United States and Korea play a positive and ever-growing role in 
strengthening the ties between our two countries. Tourism from the 
Republic of Korea is on the rise, topping 800,000 visitors last year. 
Over 100,000 Korean students are studying in the United States. South 
Korean investment and business interests are also growing. In 2006, 
South Korea was our 7th largest trading partner and the 18th largest 
source of foreign direct investment in the United States.
    These facts, combined with Korea's stable democracy and our strong 
alliance partnership, make South Korea a natural candidate for the Visa 
Waiver Program. If confirmed, I will work with the Government of the 
Republic of Korea to address the legislative requirements for entry 
into our Visa Waiver Program, including increased information sharing, 
greater law enforcement cooperation, and the timely production of a 
South Korean electronic passport. I will work with the Department of 
Homeland Security and with Korean authorities to ensure that, 
consistent with congressional and administration requirements, the 
security, immigration, and law enforcement interests of our Nation are 
strengthened by the inclusion of the Republic of Korea in the Visa 
Waiver Program.
    I also look forward to leading our embassy's efforts to communicate 
our ideas and priorities as a Nation to the South Korean people. Much 
has changed since I last lived in Korea. I will need to do a lot of 
listening and learning. I will ask the forbearance of my audiences as I 
attempt to improve my Korean language ability and to use it to 
understand better a culture and people I respect so deeply.
    I will build on the embassy's reputation of being on the leading 
edge of United States diplomatic missions in the use of innovative 
technologies to reach out to South Korea's plugged-in public. I look 
forward to supporting programs such as the Korean-American Educational 
(Fulbright) Commission. This year alone, there are 114 United States 
grantees in Fulbright programs in Korea, and 82 Korean grantees in 
programs in the United States. Just last week, the Asia Society, 
devoted to improving ties between Americans and the diverse people of 
Asia, opened a new regional center in Korea. The American Chamber of 
Commerce in Korea, or Amcham Korea, has an impressive record of 
bringing American and Korean business people together. These 
organizations and the multitude of other United States-Korea 
educational, cultural, spiritual, and artistic exchanges epitomize the 
breadth and depth of the United States-Korean relationship in the 21st 
century.
         leadership of the embassy community; partnering with 
                       our colleagues in uniform
    If confirmed, I will lead a complex diplomatic mission in the 
Republic of Korea consisting of 575 employees, including staff in the 
United States Embassy in Seoul and the American Presence Post in Busan. 
Of that number, 184 are U.S. citizens representing 15 U.S. Government 
agencies and offices, and 391 are locally hired United States and 
Korean citizen staff. All the staff serve our country in a mission that 
is categorized by the State Department as ``historically difficult to 
staff'' due to unique linguistic and other challenges. Among the U.S. 
citizen employees currently at post, 44 possess a working to fluent 
level of Korean language skills. I look forward to rounding out that 
number to 45, if confirmed. I will do my best to ensure that all 
members of the diverse community at Embassy Seoul and their families 
have the leadership, security, and support they need to get their jobs 
done, serving and representing the American people, and strengthening 
our partnership with South Korea. One high priority will be to hasten 
the day when we are able to move into a new embassy building that 
better represents the modern United States-Republic of Korea 
partnership. It will also be my privilege to serve with the committed, 
hard-working men and women of United States Forces Korea. I have had 
the pleasure of getting to know here in Washington, Lieutenant General 
Walter Sharp, who has been nominated to be Commander of United States 
Forces Korea. If we both are confirmed, I look forward to a close and 
productive service together in Korea.
    Thank you very much. I look forward to your questions.

    Senator Boxer. Thank you so much, Ms. Stephens.
    And now it is my pleasure to introduce Mr. William Todd to 
be Ambassador to the State of Brunei. And sir, if you have 
anyone you would like to introduce, please do so. And then we 
will start the clock, give you 7 minutes.

 STATEMENT OF WILLIAM E. TODD, NOMINEE TO BE AMBASSADOR TO THE 
                   STATE OF BRUNEI DARUSSALAM

    Mr. Todd. Thank you, Madam Chairman.
    My wife, Ann.
    Senator Boxer. Ann, you want to stand, please.
    Mr. Todd. She has put up with a heck of a lot while I have 
been getting ready for this hearing. So I owe her public thanks 
and thank her for her love and support.
    Senator Boxer. Very good.
    Mr. Todd. Thank you. Madam Chairman and Senator Murkowski, 
members of the committee, I deeply am honored to come before 
you today as President Bush's nominee to be the next American 
Ambassador to Brunei Darussalam, which is known as the abode of 
peace.
    I want to thank Secretary Rice and the President for their 
confidence in nominating me for this position. If confirmed by 
the Senate, I will work closely with the committee, interested 
Members of Congress, and other Americans to further advance 
United States interests in Brunei.
    Madam Chairman, a little over a year after 9/11, the Sultan 
of Brunei came to Washington and met with the President. At 
that meeting, the President and the Sultan agreed to four goals 
and objectives. The first were closer counterterrorism 
cooperation. The second were more military-to-military visits 
and collaboration. The third, expanded trade and investment. 
And lastly, the fourth, expanded educational opportunities for 
Bruneians to study in America.
    I am happy to report that both of our governments have made 
progress in all four of these areas, and if confirmed, I will 
continue to vigorously pursue these goals.
    Madam Chairman, I also wanted to add two or three very 
important goals for my team and I to focus on, if confirmed. 
First, the last few years have been a challenging time for 
America's image in some parts of the world. I think we have an 
opportunity to regain some of the ground we lost through more 
public diplomacy, outreach, engagement with this moderate 
Muslim nation.
    Second, I hope to be able to expand on the environmental 
programs in Brunei, like the Heart of Borneo Initiative, which 
was created to safeguard the future of Brunei's tropical 
rainforests. This program has only been around for 
approximately a year, but it is showing great promise.
    Last, I will aggressively manage the construction of the 
new Embassy in Brunei, ensuring that it becomes a model for 
safe, secure, environmentally friendly new small embassies.
    Madam Chairman, I believe the broad range of experience I 
have gained during my 25-year career in the Federal Government 
will assist me in accomplishing these goals. I have served in 
the Senior Executive Service for more than 10 years. I am 
currently the Acting Inspector General for the State Department 
and the Broadcasting Board of Governors. In this capacity, I 
oversee all OIG activities, both domestically and abroad.
    Previously, I directed the day-to-day global operations in 
the State Department's Bureau of International Narcotics and 
Law Enforcement, spearheading programs to combat illicit 
narcotics, international crime and terrorism, and to strengthen 
rule of law institutions and law enforcement capabilities all 
over the world, including in Southeast Asia.
    During the mid 1990s, I worked in a senior position in the 
United States and Foreign Commercial Service, helping to 
promote U.S. trade and investment abroad. In this capacity, I 
helped create and implement the big and emerging market 
strategy that was designed to maximize exports to countries 
like China and create jobs in the United States. As part of 
this program, I also built, staffed, and opened a number of 
United States commercial centers abroad, including three in 
Asia--one in China, one in Vietnam, and one in Indonesia.
    In closing, Madam Chairman and members of the committee, if 
confirmed, I will dedicate all of my energy and experience to 
advancing United States foreign policy objectives in Brunei. I 
will be glad to respond to your questions and thank you for 
today.
    [The prepared statement of Mr. Todd follows:]

         Prepared Statement of William E. Todd, Nominee to be 
              Ambassador to the State of Brunei Darussalam

    Madam Chairman, Senator Murkowski, and members of the committee, I 
am extremely honored to be here before you today as President Bush's 
nominee to become our next ambassador to the nation of Brunei 
Darussalam. I am also honored by the confidence the President and 
Secretary Rice have shown in me in making this nomination. If confirmed 
by the Senate, I will work closely with the committee, interested 
Members of Congress, and other Americans to advance United States 
interests in Brunei Darussalam.
    Although a small country, Brunei exerts a greater influence in the 
region than its size would suggest. Brunei's location, its status as a 
significant provider of hydrocarbons, its stance against terrorism, and 
its membership in a number of important regional and multilateral 
organizations, such as the Association of Southeast Asian Nations 
(ASEAN), the Asia-Pacific Economic Cooperation (APEC) forum, the World 
Trade Organization (WTO), and the Organization of the Islamic 
Conference (OIC), makes it an important partner and a valued friend of 
the United States.
    Since the Sultan of Brunei met with President Bush in the White 
House in December 2002, our ties with Brunei Darussalam, which means 
the ``abode of peace'' in Malay, have expanded and deepened. If 
confirmed, I therefore will be building on a strong foundation of 
growing cooperation in a number of areas, including security and 
military-to-military relations, economic-commercial ties, environmental 
protection, and people-to-people contacts.
    In considering our economic relations, we have common interests 
with Brunei. Brunei shares with us a desire and strong support for free 
markets, secure global shipping lanes to ensure smooth passage of 
exports and imports, and a stable financial system. Brunei is an 
important provider of liquefied natural gas to the region and also 
provides oil to the world market. The United States had a little over 
half a billion dollars of two-way trade with Brunei in 2007. U.S. 
exports surged last year due to sales of aircraft and other 
manufactured items. If confirmed, I will do all I can to support U.S. 
businesses in order to continue this trend. We have a bilateral Trade 
and Investment Framework Agreement (TIFA) with Brunei, which enables us 
to raise with Brunei officials our concerns and suggestions to expand 
our trade and investment relationship. Brunei is a member of what is 
called the Trans-Pacific Strategic Economic Partnership, also known as 
the P-4 Free Trade Agreement, along with Singapore, New Zealand, and 
Chile. The U.S. Government has joined negotiations with those countries 
on the investment and financial services chapters of that Free Trade 
Agreement. We are also exploring whether it will be in the United 
States interest to participate in the full FTA. I look forward to 
increasing our economic relationship with Brunei through the P-4 and 
other means.
    I also hope to do all I can to support Brunei's partnership with 
Malaysia and Indonesia in the ``Heart of Borneo Initiative'' to 
preserve and sustainably manage the treasure of biodiversity that is 
found in the tropical rain forests of the island of Borneo. Although 
Brunei possesses just a fraction of the total area included in the 
initiative, approximately 240,000 square kilometers, Brunei has put at 
least 58 percent of its territory under the conservation protection 
called for in the Heart of Borneo Initiative, which has the strong 
support of the Government and the people of Brunei.
    Brunei Darussalam strives to maintain its well-deserved reputation 
as an ``abode of peace.'' The United States has found Brunei to be a 
valuable partner in promoting regional stability and security. Brunei 
and the United States coordinated relief to Aceh following the 2004 
tsunami, and for several years Brunei has contributed forces to the 
international monitoring team on the Philippine island of Mindanao. 
Brunei welcomes the United States military presence in Southeast Asia, 
viewing it as essential to regional stability and prosperity. Our 
militaries cooperate closely in exercises and exchanges, and an 
increasing number of United States ships have visited Brunei's port. 
Brunei's first cadet at West Point is due to graduate in 2009, and two 
other officers are currently on shorter-term study in the United 
States. Our Department of Defense is working with the Government of 
Brunei to improve the latter's abilities in military procurement, and 
we hope to sign a Mutual Acquisition and Cross Servicing Agreement to 
improve the ability of our military to work with its Bruneian 
counterparts in many areas, such as exercises and disaster assistance. 
If confirmed, I will seek to further enhance these ties. I will also 
work to improve our information sharing on terrorist threats.
    Madam Chairman, Brunei is an absolute monarchy. If confirmed, I 
will share with Bruneians the benefits of our democratic system and 
political openness, and look for ways we can further promote Brunei's 
move toward a more participatory government.
    I also believe it is very important to promote greater people-to-
people ties, and I especially want to increase the number of Bruneian 
students studying in or visiting the United States. While we have a 
friendly and constructive relationship with Brunei, I am confident that 
increased direct exposure to America would deepen understanding of our 
country by Bruneians and overcome stereotypes common in the global 
media. I am a firm believer in the value of public diplomacy and will 
work hard to ensure that Bruneians, the majority of whom are Muslim, 
are aware of the many qualities that make America such a great nation, 
and a nation of religious tolerance for all faiths.
    Madam Chairman, if confirmed to lead our embassy in Brunei, I will 
be responsible for the protection of United States citizens and our 
employees and facilities. Fortunately, the United States and Brunei 
recently agreed on the acquisition of land in order to build a new 
embassy compound that, when completed, will provide a secure working 
environment for our dedicated diplomats and local employees. This will 
be a great improvement over the current embassy location.
    Madam Chairman, the experience I have gained in government service 
for nearly 25 years has prepared me well to serve as our next 
Ambassador to Brunei Darussalam. I have had a life-long interest in 
Asia, and I am looking forward with great enthusiasm to putting all of 
my experience and skill to use in order to advance United States 
interests in Brunei.
    I am currently the Acting Inspector General of the Department of 
State and the Broadcasting Board of Governors. I direct all Office of 
Inspector General activities, domestically and abroad.
    Previously, in the Department of State's Bureau of International 
Narcotics and Law Enforcement Affairs (INL), over a 4-year period I 
served as Principal Deputy Assistant Secretary (PDAS), as Deputy 
Assistant Secretary for International Civilian Police and Rule of Law 
Programs and Asia, Africa, Europe, and the Middle East, as well as 
Executive Director/Controller. As PDAS, I was the Chief Operating 
Officer for global programs, including all post-conflict activities, 
and at the forefront of our international programs for police training, 
rule of law, and counternarcotics efforts in some of the most hostile 
places on earth, including Iraq, Afghanistan, and Colombia. I managed 
approximately 4,000 employees and contractors in more than 75 theatres 
of operation. As INL's Executive Director/Controller, I was in charge 
of about one-sixth of the State Department's budget (over $3.5 
billion), and about one-fourth of its assets.
    Finally, as Director of Planning and Resource Management for the 
Department of Commerce's U.S. and Foreign Commercial Service, I built, 
staffed, and opened U.S. Commercial Centers around the world, including 
three in Asia.
    Madam Chairman, members of the committee, thank you again for your 
consideration of my nomination. I would be happy to respond to your 
questions.

    Senator Boxer. Thank you, sir.
    And next we go to Mr. Scot Marciel for the rank of 
Ambassador for Association of Southeast Asian Nations. Sir, go 
right ahead. If you have anyone to introduce, feel free.

     STATEMENT OF SCOT A. MARCIEL, NOMINEE FOR THE RANK OF 
 AMBASSADOR FOR ASSOCIATION OF SOUTHEAST ASIAN NATIONS (ASEAN) 
                            AFFAIRS

    Mr. Marciel. Thank you. Unfortunately, the combination of 
work, school, and studying for exams made it impossible for my 
wife and my daughters to join me today. But I would like to 
take this opportunity to express appreciation for all the 
support they have shown me over the years.
    Senator Boxer. Good.
    Mr. Marciel. Madam Chairman, Senator Murkowski, and members 
of the committee, I am deeply honored to appear before you 
today to seek confirmation of President Bush's nomination of me 
as United States Ambassador for ASEAN affairs. I would like to 
begin by acknowledging the key role that the U.S. Senate played 
in creation of this position.
    Madam Chairman, just over a year ago, you and Senator 
Murkowski and other members of this committee cosponsored 
Senate Resolution 110, which urged, among other things, the 
United States to appoint an ambassador for ASEAN affairs. That 
resolution and the administration's decision to put forth my 
nomination highlight our shared belief that ASEAN is playing a 
growing role in the region and that the United States should 
increase its engagement with ASEAN. In that spirit, and if 
confirmed, I look forward to the opportunity to work with you 
and other members to advance our interests in Southeast Asia.
    Southeast Asia is a dynamic region of great importance to 
us. ASEAN's 10 member nations have a combined population of 
almost 600 million people and together constitute our fourth-
largest export market. ASEAN members include two treaty allies, 
the world's third-largest democracy, and many partners and 
friends.
    Our fundamental interest in Southeast Asia is that the 
region's nations remain strong and independent, that they enjoy 
increased prosperity and freedom, and that they work with us in 
addressing regional and global issues. It is also in our 
interest to see a successful ASEAN, which can be a positive 
force for peace, stability, and progress. ASEAN members have 
worked to bolster their organization recently, including by 
signing a charter last year that provides a legal basis for the 
organization and offers the possibility for it to play a more 
significant and positive role in the future.
    We have responded by ramping up our own cooperation with 
ASEAN. An appointment of an ambassador for ASEAN affairs will 
add to the momentum in the relationship.
    Madam Chairman, nearly half of my 23 years in the Foreign 
Service has been devoted to working in or on the ASEAN region. 
I have served in the Philippines and Vietnam as director of the 
two offices responsible for Southeast Asia and in my current 
position as Deputy Assistant Secretary responsible for 
Southeast Asia in which I am also responsible for relations 
with ASEAN.
    I have developed a broad network of contacts in the region 
and a healthy appreciation for its diversity, its challenges, 
and its many opportunities. If confirmed, I pledge to use that 
experience to expand United States engagement with ASEAN in 
support of our national interests. I will work to ensure the 
United States maintains a significant presence in the region 
and to erase any doubt about the United States commitment to 
Southeast Asia.
    I intend to urge ASEAN to set and to meet high standards, 
whether on economic issues or on democracy and human rights. I 
also look forward to expanding our cooperation with ASEAN in 
key areas such as health, education, and the environment.
    Finally, one of my highest priorities, if confirmed, will 
be to work with ASEAN and with other countries in the region to 
convince Burma's rulers to end their brutal repression and to 
begin a genuine dialog leading to a democratic transition. 
Burma represents one of ASEAN's biggest challenges, but it is 
also an opportunity. If we and ASEAN, along with other members 
of the international community, can help bring about a reversal 
of Burma's dangerous downward spiral, it will be of great 
benefit not only to the Burmese people, but to ASEAN and to our 
interests in Asia.
    Madam Chairman, we are doing a lot of good work in 
Southeast Asia, and there is more that we can do. I would 
consider it a privilege and an honor to be part of that effort 
by serving my country as the first United States Ambassador for 
ASEAN affairs.
    Thank you for considering my nomination, and I welcome your 
questions.
    [The prepared statement of Mr. Marciel follows:]

    Prepared Statement of Scot A. Marciel, Nominee For the Rank of 
 Ambassador for Association of Southeast Asian Nations (ASEAN) Affairs

    Madam Chairman, Senator Murkowski, and members of the committee, I 
am deeply honored to appear before you today to seek confirmation of 
President Bush's nomination of me as U.S. Ambassador for ASEAN Affairs. 
I appreciate the confidence that the President and Secretary Rice have 
shown in me by this nomination.
    The creation of the position of U.S. Ambassador for ASEAN Affairs 
reflects our recognition of the growing importance of ASEAN as an 
institution. I would like to acknowledge the important role the United 
States Senate played in the creation of this post. Madam Chairman, just 
over a year ago, you joined nine other Senators in cosponsoring Senate 
Resolution 110, sponsored by Senator Lugar, expressing the sense of the 
Senate that, among other important actions, the United States should 
appoint an ambassador for ASEAN affairs. That resolution and the 
administration's subsequent move to nominate such an ambassador 
highlight our shared belief that the United States should increase its 
engagement and cooperation with ASEAN. In that spirit, and if 
confirmed, I look forward to the opportunity to work with you and other 
members to advance United States interests in Southeast Asia and within 
ASEAN in particular.
    Southeast Asia is a dynamic region of great importance to our 
country. ASEAN's 10 member nations have a combined population of nearly 
600 million, and together constitute our fourth largest export market. 
ASEAN members include two treaty allies, the world's third-largest 
democracy, and many long-time partners and friends.
    Our fundamental interest in Southeast Asia is that the region's 
nations remain strong and independent, that they enjoy increasing 
prosperity and freedom, and that they work with us as partners in 
addressing a wide range of regional and global challenges.
    We are pursuing these interests, both by bolstering our already 
strong bilateral relations with most ASEAN members and, increasingly, 
by building a fuller relationship with ASEAN itself. Because I have 
been nominated to be Ambassador for ASEAN Affairs, I would like to 
focus my comments on our relationship with ASEAN as a whole, rather 
than on our bilateral relations with individual members.
    ASEAN was established in 1967. The United States became a dialog 
partner, ASEAN's term for those nations with which it has established 
regular formal discussions, in 1977. Throughout those 31 years, we have 
developed closer relations between our governments, our businesses, 
nongovernmental organizations, education institutions, and individuals.
    In recent years, ASEAN members have worked to bolster the 
organization and to promote economic integration and a greater sense of 
community. ASEAN governments understand these changes are essential if 
they are to compete internationally and ASEAN is to maintain its 
relevance. ASEAN leaders took a very important step along these lines 
last November when they signed the ASEAN Charter, which provides a 
legal basis for the organization and offers the possibility for it to 
play a much more significant and positive role in the future.
    It is in our interests to see a strong and successful ASEAN, which 
can be a positive force for peace, stability, and prosperity, and which 
also can set high standards for its members in areas such as rule of 
law and human rights. That is why we have responded to ASEAN's recent 
efforts by ramping up our engagement. The ASEAN-United States Enhanced 
Partnership, announced by the President and ASEAN leaders in 2005, set 
a clear framework for boosting cooperation. The action plan signed by 
Secretary Rice and her ASEAN counterparts in 2006 laid out a series of 
concrete areas of cooperation. More recently, the Department of State 
and USAID have developed a program, called ADVANCE, to support these 
efforts, and to help ASEAN achieve its ambitious goals.
    Much of our initial work has focused on supporting ASEAN's economic 
integration efforts, in large part because ASEAN itself is moving 
fastest in building its economic pillar. However, we also are advancing 
our political, security, social, and cultural interests with ASEAN. We 
have been very active on the environment, supporting projects such as 
the successful ASEAN Wildlife Enforcement Network, the Coral Triangle 
Initiative, and the Heart of Borneo program. We are rapidly increasing 
our cooperation on climate change, clean energy, pandemic preparedness, 
and avian influenza. I am very pleased that we recently launched the 
first ASEAN Fulbright program.
    We want to work with ASEAN to promote democracy and freedom. We are 
pleased that the fundamental principles embodied in the ASEAN Charter 
include commitments to ``strengthen democracy, enhance good governance 
and the rule of law, and to promote and protect human rights and 
fundamental freedoms.'' We welcome the decision to create a human 
rights body--and as the structure and functions of that body take 
shape, we will urge ASEAN to give it the means to promote and protect 
fundamental human rights throughout the region.
    Madame Chairman, nearly half of my 23 years in the Foreign Service 
has been devoted to working in or on the ASEAN region, including 
assignments in the Philippines and Vietnam, as director of the two 
offices responsible for Southeast Asia, and as desk officer for Laos. I 
have developed a strong network of contacts in the region, as well as a 
healthy appreciation for its diversity, challenges, and opportunities.
    If confirmed, I pledge to use that experience and my firm belief in 
the value of a strong United States role in Southeast Asia to expand 
United States engagement with ASEAN in support of our national 
interests. I will do all I can to ensure the United States maintains a 
strong presence in the region, and to eliminate any doubt about the 
United States commitment to Southeast Asia. I intend to urge ASEAN to 
set and to meet high standards, whether on economic issues such as 
intellectual property rights protection or on democracy and human 
rights, including by making the human rights body a credible and 
meaningful entity. I also look forward to enhancing United States-ASEAN 
cooperation in other areas, such as health, energy, and the 
environment.
    One of my highest priorities, if confirmed, will be to work with 
ASEAN and its member nations--as well as with other countries in the 
region and around the globe--to convince Burma's rulers to end their 
brutal repression and begin a genuine dialog leading to a democratic 
transition. The problem of Burma represents one of ASEAN's biggest 
challenges, but also an opportunity. If we and ASEAN, together with 
others in the international community, can help bring about a reversal 
of Burma's dangerous downward spiral, it will be of enormous benefit 
not only to the Burmese people, but to the region, to ASEAN, and to our 
interests in East Asia.
    I would like to conclude with a few comments on how I hope to carry 
out this new role as Ambassador for ASEAN Affairs, while continuing my 
work as Deputy Assistant Secretary for Southeast Asia. First, I intend 
to travel extensively throughout the region, and to use every stop to 
talk about both bilateral and ASEAN issues. I believe the title of 
Ambassador for ASEAN Affairs will give me good access, and many 
opportunities to talk about our concerns--and the positive role the 
United States is playing in the region--both privately and publicly. 
Second, I intend to engage extensively with the ASEAN Secretary General 
and his staff in Jakarta to support ambitious ASEAN goals and to find 
concrete ways in which we can work together. Finally, I need to do a 
lot of work here to ensure that we have a clear, coherent, and 
coordinated approach to Southeast Asia that combines the traditional 
focus on bilateral relations with recognition that our challenges and 
opportunities in that part of the world increasingly need to be pursued 
regionally, particularly through close cooperation with ASEAN.
    Madam Chairman, I would consider it a great privilege to serve my 
country as the first U.S. Ambassador for ASEAN Affairs.
    Thank you for considering my nomination. I welcome your questions.

    Senator Boxer. Thank you, sir.
    And now we turn to the Honorable Patricia Haslach for the 
rank of ambassador during her tenure of service as United 
States senior coordinator for the Asia-Pacific Economic 
Cooperation Forum. Welcome.

STATEMENT OF HON. PATRICIA M. HASLACH, NOMINEE FOR THE RANK OF 
AMBASSADOR DURING HER TENURE OF SERVICE AS UNITED STATES SENIOR 
 COORDINATOR FOR THE ASIA-PACIFIC ECONOMIC COOPERATION (APEC) 
                             FORUM

    Ambassador Haslach. Thank you, Madam Chairman.
    I would first like to take this opportunity to thank my 
mother, also named Patricia Haslach, who is here with me today.
    Senator Boxer. Why don't you stand up, Mrs. Haslach.
    Ambassador Haslach. And to my father, who has recently 
passed away and who was always an inspiration to me. I would 
also like to thank my husband, David, who is serving as a 
Foreign Service officer in Austria, and to our two daughters, 
Shereen and Kiran, who are unable to join us today.
    Madam Chairman, I note that Shereen is a student at Santa 
Clara University, which gives me the chance to visit your State 
quite frequently.
    Senator Boxer. Wonderful. Well, we welcome you.
    Ambassador Haslach. Thank you.
    Madam Chairman, Ranking Member Murkowski, and members of 
the committee, I am honored to appear before you to seek 
confirmation as United States Ambassador to APEC. I appreciate 
the confidence that President Bush and Secretary Rice have 
shown in me by this nomination. If confirmed, I look forward to 
working with you to advance United States interests through 
APEC.
    The Asia-Pacific Economic Cooperation Forum, APEC, is the 
premier venue for United States engagement with the Asia-
Pacific region on economic and other issues. The 21 members of 
APEC together account for 60 percent of U.S. exports, 60 
percent of global GDP, 50 percent of world trade, and nearly 3 
billion consumers. APEC is the only trans-Pacific forum that 
includes the United States and meets annually at the head of 
State level.
    While these facts alone demonstrate the significance of the 
forum, APEC is more than the sum of its statistics. APEC is a 
vibrant organization that works to enhance the well-being of 
the United States and the Asia-Pacific in practical and 
tangible ways.
    With little fanfare, APEC is playing a vital role in 
promoting prosperity, opening markets, and ensuring our 
security. For example, APEC is at the forefront of regional 
economic integration. A key component of this effort is APEC's 
exploration of a free trade area of the Asia-Pacific as a long-
term vision, which would allow Americans to compete on a level 
playing field in the region.
    APEC also helps to facilitate increased regional commerce. 
This includes promoting the development of high-quality free 
trade agreements, protecting intellectual property rights, 
expediting business travel, and reducing the costs of 
conducting trade.
    America must participate constructively in the process of 
economic integration that is already transforming the Asia-
Pacific or risk becoming disadvantaged and isolated. If 
confirmed as ambassador, I will work to utilize the tools and 
opportunities provided by APEC to ensure that America will be 
part of the region's extraordinary dynamism and in a way that 
benefits all Americans.
    At the same time, addressing economic issues alone does not 
guarantee growth. We must also foster an overall environment 
where prosperity can occur. This is why APEC is helping to 
build institutions, combat corruption, and promote education. 
Madam Chairman, you might be interested to know that APEC is 
committed to women's economic empowerment and has made it an 
important criterion in the approval of APEC projects.
    In addition, APEC is helping to address energy security and 
climate change. It is also helping to improve port security, 
counterterrorism, and confront avian influenza. I note that 
APEC is accomplishing these things in partnership with the 
region's private sector.
    This year, Peru's hosting of the forum enables us to tackle 
emerging challenges while highlighting ties between Latin 
America and Asia. APEC will work to enhance protections against 
unsafe food and other products. APEC is uniquely suited for 
addressing this issue since our key regional trade partners, 
including China, are active members.
    APEC will also work to address concerns about 
globalization, including access to the skills needed to succeed 
in the global economy. Furthermore, I want to highlight that in 
2011, the United States will be hosting APEC for the first time 
in 18 years. This is a tremendous opportunity for our country, 
and I look forward to working with Congress to make this event 
successful.
    During my 22 years in the Foreign Service, I have developed 
an intimate knowledge of Asia. If confirmed as ambassador to 
APEC, I promise to work to strengthen the organization as an 
engine of growth and opportunity in the Asia-Pacific.
    Thank you for considering my nomination, and I look forward 
to your questions.
    [The prepared statement of Ambassador Haslach follows:]

     Prepared Statement of Hon. Patricia M. Haslach, Nominee to be 
    Ambassador During Her Tenure of Service as United States Senior 
   Coordinator for the Asia-Pacific Economic Cooperation (APEC) Forum

    Madam Chairman, Ranking Member Murkowski, and members of the 
committee, I am deeply honored to appear before you today to seek 
confirmation as U.S. Senior Official for APEC with the rank of 
Ambassador. I appreciate the confidence that President Bush and 
Secretary Rice have shown in me by this nomination. If confirmed, I 
look forward to the opportunity to work with you to advance U.S. 
interests through APEC.
    The Asia-Pacific Economic Cooperation forum (APEC) is strategically 
important to the United States. It is the premier venue for engaging 
the Asia-Pacific region on economic and other issues. The 21 members of 
APEC together account for 60 percent of U.S. exports, 60 percent of 
global GDP, 50 percent of world trade, and nearly 3 billion consumers. 
APEC is the only trans-Pacific forum that includes the United States 
and meets annually at the head of state level, with President Bush 
having attended every APEC leaders meeting since taking office. It also 
brings together other top officials throughout the year to address an 
array of important issues.
    While these facts alone demonstrate the significance of the forum, 
APEC is more than the sum of its statistics. APEC is a vibrant 
organization that works to enhance the well-being of the United States 
and the Asia-Pacific in practical and tangible ways. With little 
fanfare, APEC is playing an important role in promoting economic 
growth, opening markets for U.S. business, and ensuring our security. 
If confirmed as U.S. Senior Official for APEC with the rank of 
Ambassador, I will work vigorously to strengthen the organization, 
particularly as the United States prepares to host APEC in 2011.
                promoting u.s. trade and economic growth
    Madam Chairman, APEC has made real progress in breaking down 
barriers to American goods and services, as well as addressing an array 
of issues that are important to U.S. manufacturers, service providers, 
workers, farmers, and ranchers.

  <bullet> Over the years, APEC has offered strong support to 
        concluding the Doha Round of multilateral trade talks, 
        especially at critical junctures. In March, at their first 
        meeting of 2008, APEC senior officials issued a strong 
        statement noting the recent positive developments in the Doha 
        Round and committing to work toward an ambitious and balanced 
        outcome that delivers real commercial gains.
  <bullet> APEC is also at the front-and-center in the trend toward 
        economic integration in the Asia Pacific, a critical ingredient 
        for building prosperity and stability in the region. A key 
        component of this effort is APEC's work to actively explore the 
        long-term vision of a free trade area of the Asia-Pacific 
        (FTAAP), which would allow Americans to compete on a more level 
        playing field in the world's most dynamic economic region.
  <bullet> In addition, APEC has made important progress in addressing 
        an array of issues to further facilitate trade and economic 
        growth in the Asia Pacific. This includes establishing 
        guidelines to promote the development of high-quality FTAs in 
        the region, increase protection of intellectual property 
        rights, and reduce the costs of conducting trade that hinder 
        American businesses--especially small businesses--from fully 
        participating in the regional marketplace.
  <bullet> APEC also expedites the travel of senior business people and 
        government officials throughout the region using the APEC 
        Business Travel Card program. This program provides eligible 
        individuals with speedier processing at airport immigration 
        lines in participating APEC economies.

    There is still unfulfilled potential in our trade relationship with 
Asia. America must participate constructively in the process of 
economic integration that is already transforming the region, or risk 
becoming disadvantaged and isolated. If I am confirmed with the rank of 
ambassador, I will work to utilize the tools and opportunities provided 
by APEC to ensure that our country will be a part of the extraordinary 
dynamism of the Asia-Pacific, and in a way that benefits all Americans.
               building and securing prosperous societies
    At the same time, addressing economic issues alone does not 
guarantee growth. We must also foster an overall environment where 
prosperity can occur.

  <bullet> This is why APEC is helping economies to construct 
        transparent regulatory institutions, combat corruption, and 
        promote education. It is also why APEC is working to ensure 
        that all members of society can prosper from regional trade and 
        investment. Madam Chairman, you might be interested to know 
        that APEC members, including the United States, are 
        particularly committed to women's economic empowerment and have 
        made it an important criterion in the approval of APEC-
        sponsored projects.
  <bullet> APEC is also contributing to the global response to energy 
        security and climate change. Utilizing its strengths as the 
        region's preeminent economic forum, APEC is working to achieve 
        regional goals in such areas as improving energy efficiency, 
        promoting alternative energy sources, and fostering the 
        development and trade of clean technologies. These activities 
        include an effort in APEC to promote trade of environmental 
        goods and services.
  <bullet> Furthermore, APEC has made important contributions to 
        protect the region from security threats that could harm 
        economic growth. With the United States in the lead, APEC has 
        helped to improve the security of airports and seaports, 
        counterterrorism, and confront avian influenza.

    I want to emphasize that APEC is not just a forum for talking about 
policy solutions to economic challenges; it also works in practical 
terms to translate ideas into action. In particular, APEC undertakes 
technical cooperation programs that help our trade partners to 
implement their commitments and improve the economic life of people 
throughout the region. This is one of the main reasons why President 
Bush committed in 2006 to augment U.S. funding for APEC. With financial 
contributions from the United States and other members, APEC is 
implementing projects in a wide range of areas, including education, 
energy, emergency preparedness, anticounterfeiting, and economic 
reform. APEC's partnership with the region's private sector, including 
many of its leading companies, also ensures that its initiatives are 
focused, constructive, and of tangible benefit to U.S. businesses.
                        peru 2008 and the future
    Peru's hosting of the forum in 2008 underscores the trans-Pacific 
nature of APEC and enables us to tackle emerging challenges while 
highlighting the growing economic ties between Latin America and Asia.

APEC will be working to increase economies' capacity to protect against 
        unsafe food and other products, an issue of immense concern to 
        U.S. consumers. The United States believes that APEC is 
        uniquely suited for addressing this issue, since our key 
        regional trade partners--including China--are active members. 
        APEC will implement a major program this year to identify 
        strategies for improving food safety and is looking to pursue 
        more initiatives that will strengthen regional capabilities to 
        protect consumers.
APEC will focus on ways to address concerns in both developed and 
        developing economies about globalization, including access to 
        education and workplace skills needed to succeed in the global 
        economy.
APEC will also work to promote corporate social responsibility in the 
        Asia-Pacific, since we know that good corporate citizenship has 
        a positive impact for both the people of the region as well as 
        for the business community.

    Madam Chairman, I also want to highlight that in 2011 the United 
States will be hosting APEC for the first time in 18 years. This is a 
tremendous opportunity for our country. As the host economy, it will be 
an excellent chance to promote U.S. business and investment 
opportunities and define an agenda for regional prosperity that 
reflects our values. This will be a major undertaking, and I look 
forward to working with Congress to make this important event 
successful.
                               conclusion
    If I am confirmed with the rank of Ambassador, I promise to put my 
experience and enthusiasm to work in advancing United States interests 
in the Asia-Pacific. During my 22 years in the United States Foreign 
Service, I have developed an intimate knowledge of Asia, having served 
as Ambassador to Laos between 2004 and 2007, and in the economic 
section of the United States Embassy in Indonesia during the 1990s. 
Together with my other experience working on economic issues in South 
Asia, Africa, and Europe, I am prepared to tackle the broad range of 
economic issues with our fellow APEC members.
    Madam Chairman, it would be a great privilege to serve my country 
as U.S. Senior Official for APEC with the rank of Ambassador. APEC is a 
truly unique and irreplaceable asset to the American people, and I am 
ready to help the United States strengthen the organization as an 
engine of growth and opportunity in the Asia-Pacific.
    Thank you for considering my nomination. I look forward to your 
questions.

    Senator Boxer. Thank you all. Excellent panel, and I will 
just ask a few questions and then turn it over to my colleague. 
And I don't have any need to go any extra rounds, I don't 
think. So, hopefully, this will be short and sweet for you.
    Ms. Stephens, while South Korea remains an important ally 
of the United States, it is safe to say that the United States-
South Korean relationship has faced a number of challenges over 
the past few years. At times, anti-Americanism has reached 
alarming levels, particularly after the tragic death of two 
South Korean girls, who were hit by a United States tank on its 
way to a training exercise in 2002.
    The election of President Lee in South Korea is being 
touted as an opportunity to strengthen our relations. President 
Lee has himself set rebuilding ties with the United States as 
one of the objectives of his presidency. How will you work to 
strengthen the relationship between the United States and South 
Korea, and how will you specifically address the issue of anti-
Americanism?
    Ms. Stephens. Madam Chairman, thank you very much for that 
question.
    As I said in my opening statement, I look at the United 
States-Korea relationship in a historical context. This is the 
60th anniversary of the establishment of the Republic of Korea. 
It is the 60th anniversary of the United States-Republic of 
Korea diplomatic relations. And as you point out, we have had a 
lot of challenges.
    When Ambassador Lilley and I were serving in Korea in the 
1980s, there was not democracy there. And so, I would have to 
say that I see some of the events of the past few years as a 
sign of a democratic society as it develops and matures. And as 
that society has developed and matured, so has the United 
States-Republic of Korea relationship.
    Polling suggests today that there is strong support across 
the board for a United States-Korea security relationship. The 
fact that we have a Korean-American community that now numbers 
some 2 million--about 1.5 million in the United States, a half 
a million in the United States--gives the relationship, I 
think, the kind of foundation perhaps and resilience that 
perhaps it did not have some years ago. And I think there are a 
number of areas in which we can work to build on this 
relationship.
    When President Lee comes to the United States next week, I 
know that he and President Bush will be looking at a number of 
these. And without repeating what I said in my opening 
statement, I would again highlight in terms of the embassy our 
outreach in Korea itself. Korean is a very hard language. We 
are very proud of the fact that about a third or almost a 
third----
    Senator Boxer. Oh, wait. I don't want to get off the 
question.
    Ms. Stephens. Yes.
    Senator Boxer. So you don't think there is anti-Americanism 
in South Korea?
    Ms. Stephens. No, I do think that there has been, and there 
remains critical voices about the alliance, about what has 
happened in the past. But I think there is generally a sense 
that as Korea looks to its own interest, to its own future, 
that it needs to have a mature relationship with the United 
States.
    Senator Boxer. Good. Well, I think we need to build on 
that.
    I understand that the United States Government has 
repeatedly asked South Korea to contribute forces to assist 
with the international effort to help stabilize Afghanistan, 
but that South Korea has been nonresponsive to date. Is there 
an overarching reason as to why South Korea does not want to 
assist the United States and its allies in Afghanistan? And do 
expect that there might be a change of heart because of 
President Lee's new tenure?
    Ms. Stephens. Well, Madam Chairman, I do think that we--
this is an issue we can discuss and should discuss with the 
Koreans. I would note that the Republic of Korea has 
contributed not only to our efforts in Iraq, where for a while 
they were the third-largest coalition contributor, but also in 
Afghanistan, where they did have a presence of, I think, some 
engineers and some other experts.
    Senator Boxer. But mine was--I was talking about forces.
    Ms. Stephens. Yes. I think this is a discussion that we 
should have with the new government, and I think we need to 
make--to discuss what the needs are in Afghanistan and to see 
how they can contribute. They have certainly made clear they 
would like to contribute to more peacekeeping operations 
worldwide.
    Senator Boxer. Well, I think it is very important because, 
of course, I have been to the zone there. I have looked across, 
and you know, South Korea understands the need to have 
stability at its border. Afghanistan deserves to have a country 
free of the Taliban, and I would hope that in this new 
opportunity that we have with you and the new President that we 
will make that case for Afghanistan. It is a very different 
case than Iraq. And so, I am looking forward to hearing from 
you on that.
    Mr. Marciel, what steps will you take to urge the ASEAN 
members to do more to let Burma know that its behavior is 
reprehensible and will not be tolerated in the future? How will 
you work with ASEAN to pressure the Burmese Government to 
reconsider the referendum it is planning to hold on a new 
constitution in May of this year?
    As you know, the referendum is facing widespread opposition 
in Burma, particularly because it will bar Aung San Suu Kyi 
from running for office. Now the Philippines has asked that she 
be released before it will ratify the new charter. Will you 
encourage other nations to follow suit?
    Mr. Marciel. Thank you, Madam Chairman.
    We have been working extensively and intensively with all 
of the ASEAN countries to try to get them to push the Burmese 
regime to take a number of steps, including releasing political 
prisoners, beginning a genuine dialog, and most recently, 
making the upcoming referendum an inclusive process that is 
credible.
    We have had, I would say, mixed success. On the one hand, 
you can look at ASEAN's response compared to our response and 
say it has been somewhat meek. On the other hand, given ASEAN's 
history and precedent, it has been remarkably strong. A very 
strong statement, as you know, last September expressing the 
sense of ASEAN of being appalled and expressing repulsion at 
the crackdown.
    ASEAN is a little bit split on this. I think all of the 
ASEAN countries would like to see change in Burma. They see 
that it is going downhill, and it is hurting ASEAN. Some, like 
the Philippines, have been most outspoken. We are continuing to 
weigh in diplomatically with all of them, and we just need to 
keep doing that.
    Part of what is happening in places like Indonesia is that 
civil society in Indonesia is actually increasing pressure on 
the government to step in. The ASEANs are interested in working 
with us. They are opposed to sanctions, as you know. I don't 
anticipate that will change. Frankly, we just need to continue 
working with them diplomatically and pointing out that the 
Burma problem is not going to go away on its own.
    Senator Boxer. As you know, because you have testified here 
before, this is an issue of great concern to members of the 
committee. So we will be working with you on this.
    I have one more question for you, Mr. Marciel. Then I will 
yield, and then I will come back with just two quick questions 
for our other panelists.
    In January of this year, Singapore's defense minister said 
the United States should place some hot energy and effort in 
Southeast Asia, and I think he was relating to the fact that we 
have been so focused on Iraq. What initiatives are necessary to 
reassure our friends and allies in Asia that we are committed 
to an active and engaged presence in the region?
    Mr. Marciel. Senator, I think one of the challenges that we 
face is actually making sure that people in the region 
understand all the many things that we are doing in the region. 
The fact is that we have an incredible level of engagement. I 
would say overall, with the exception of a place like Burma, 
bilateral relations with the ASEAN members are at an all-time 
high, and we are doing more with ASEAN by far than ever before, 
with the enhanced partnership, assistance, et cetera.
    But as you said, the perception is still out there that 
somehow we are not engaged, we are not committed. Part of, I 
think, the beauty of creating an ambassador for ASEAN affairs, 
and I don't want to sound arrogant here at all about my future 
role, if confirmed. But I think having an ambassador for ASEAN 
affairs allows us to raise the profile, and when we talk 
publicly in the region to emphasize the things we are doing and 
to look for more opportunities, including continuing high-level 
visits.
    So it is both a substantive challenge, but more 
importantly, I would say a public diplomacy challenge. 
Southeast Asians want more of us.
    Senator Boxer. Well, I think you make a good point, and 
that was one of the reasons we did support the creation of this 
position. So we are glad that you are willing to take it on.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman.
    Mr. Marciel, we will just keep you on the seat for a moment 
longer. With regard to Burma again, following up on Senator 
Boxer's question, we recognize that the economic ties that 
Burma has with India and China and the significance of those. 
How much influence do the members of ASEAN have then with the 
military regime, given how China and India factor in? And where 
I am going is what is their leverage?
    Mr. Marciel. Thank you, Senator Murkowski. It is actually a 
question that we ask ourselves all of the time.
    I think it is--we believe and most people believe that 
China probably has the most influence over Burma of any other 
nation, although I wouldn't exaggerate even that influence. The 
Burmese generals don't seem to take advice particularly well, 
either from outsiders or even from their own people. So I would 
say China has the most influence.
    ASEAN as a whole seems to have relatively limited 
influence, surprisingly. I think the greatest ASEAN influence 
is that when ASEAN speaks out strongly on Burma, it makes it 
harder for other nations in the region not to speak out, as 
well. I mean, I think in some ways it is a bit of an indirect 
influence. And so, we urge the ASEANs, as a result, to continue 
to speak out.
    But I think the experience over the last several months 
shows that the Burmese generals have not been particularly 
responsive. That said, ASEAN needs to keep raising this and 
pushing any way they can.
    Senator Murkowski. What is the status of the trade 
agreements that are being negotiated currently? This is the 
ASEAN Plus Three and the ASEAN Plus Six and the East Asia 
Economic Group. And in terms of the U.S. involvement on these 
trade agreements, do you know where we are?
    Mr. Marciel. We are not part of those. Senator, we are not 
part of those agreements. ASEAN is negotiating a series of 
agreements, I think, with Korea, China, and Japan. Yes, and 
they are all different--I think as well as with India, although 
that one is not moving ahead as fast.
    I don't--I am afraid I don't have a very good update for 
you, but I would be pleased to come back and give you more 
details.
    Senator Murkowski. Okay. If there is an update, that is 
what I was looking for.
    Mr. Marciel. Okay.
    Senator Murkowski. Let me ask you, Ms. Haslach, the--you 
mentioned the administration's proposal for a free trade area 
within the Asia-Pacific. What has been the reaction of the APEC 
members to the proposal? I am assuming this is something that 
is meeting with a level of support or endorsement?
    Ambassador Haslach. Thank you, Senator Murkowski.
    This is actually an aspirational goal. In everything in 
APEC, we have to reach consensus, and all the 21 members have 
agreed to a path looking at what is called a free trade area--
not an agreement, a free trade area of the Asia-Pacific. And 
the focus is on building economic integration, and we can do 
this in many different ways, and we haven't actually defined 
what the path will be.
    But currently, what we are trying to do is come up with 
model measures for free trade agreements, and we are looking at 
high-quality free trade agreements similar to the one that we 
have recently negotiated with Korea.
    Senator Murkowski. Good. What about the sentiment that is 
out there that this administration just has not paid close 
enough attention to what is going on in the Asia-Pacific 
region? There were some issues recently where we didn't stay at 
the meeting as long as we would have liked.
    And I guess the question is whether that sentiment is still 
out there, that the Bush administration is just not giving 
enough, attaching enough significance to the region and to the 
APEC members? And if that sentiment is still out there, how do 
you counteract that as ambassador to APEC?
    Ambassador Haslach. Well, I think we have been able to 
actually counteract it by announcing that the United States 
will be hosting APEC in 2011, and I think that really speaks 
out for our commitment to APEC. Also, we fully are engaged in 
all of the different APEC meetings, hundreds of them that take 
place over the year. And President Bush has attended every 
single one of the leaders meetings, and Secretary Rice has 
attended all the ministerials. Yes.
    Senator Murkowski. So that sentiment is changing then with 
the passage of time?
    Ambassador Haslach. Absolutely. And we cooperate in many, 
many tangible ways.
    Senator Murkowski. Good. Let me ask you, Ms. Stephens, and 
again, kind of sticking with some of the trade issues. Given 
Alaska's relationship with South Korea and the fact that South 
Korea is our third-largest trading partner ahead of our 
neighbor, Canada, I am supportive of the United States-South 
Korea free trade agreement. But we recognize that there is some 
opposition to that agreement here in the United States.
    But can you speak to the agreement's chances of success or 
how that is being received within South Korea's National 
Assembly and what concerns they might have specifically?
    Ms. Stephens. Well, thank you, Senator. As you know, the 
agreement was signed in June of 2007 between our trade 
representative and her counterpart. The Republic of Korea is on 
a little bit of a different track in its timing, and it was 
introduced into the Korean National Assembly, I believe, last 
September.
    Now since then, Korea has had a presidential election and 
transition and then today the National Assembly election. But 
there has been a great deal of discussion--debate. In the early 
days of the negotiations, quite a bit of very vocal opposition 
to the idea of a free trade agreement. So they have been 
through quite a process there.
    And I think where they have come out, according again to 
polling, is with very strong support for it as a strategic 
decision by the Republic of Korea. As it looks at its very 
large neighbors in the region it works in and its need to be 
competitive in this global economy, I think for Korea they look 
at it as a key strategic move to not only deepen its ties with 
the United States, but as I said, to really kind of reform its 
economy.
    The benefits are different for our two countries. For us, 
we get a lot more access, as you know, because the tariffs go 
down. We don't have so many tariffs on our products. So, for 
the Koreans, it is a little bit different. But it is about 
deregulating the Korean economy, making it more investor 
friendly, including to foreign investors, and making it more 
competitive.
    And it seems to me--I haven't been to Korea recently. But 
from what I see in the polling and the discussion, President 
Lee's party supports the agreement. The outgoing government, of 
course, is the one that negotiated it. I don't know what the 
timing will be, but we hope that it will go before the National 
Assembly and that they will consider it and ratify it.
    Senator Murkowski. Let me ask you a little bit more 
parochial question. But you mentioned one of your goals was 
just the outreach. The Korean Government has applied to open a 
consulate office in Anchorage, and I understand that the 
progress has been some slow--just hasn't been at the speed that 
we would like. Do you have any update on what is happening with 
approval of that application?
    Ms. Stephens. Yes, Senator, happily, I do.
    Senator Murkowski. Good.
    Ms. Stephens. And we do regret that it has been a bit slow, 
but I understand that the approval was sent through diplomatic 
channels to the Korean Embassy here and that they can move 
forward with opening that consulate in Anchorage.
    Senator Murkowski. Good. Good, good. Well, that--you talk 
about the level of outreach, and that is highly significant. So 
I am pleased to hear that.
    And then just very quickly, we have been working--the State 
of Alaska has been working with the embassy there in Seoul to 
establish this Alaska Explorer Visa Program, and this provides 
the visa interviews for the Korean travelers. It has been very 
successful in encouraging tourism into Alaska from our Korean 
visitors, and I would just ask for your support to continue 
this program. I think it has been very helpful for both sides.
    Ms. Stephens. Thank you very much for highlighting that for 
me. I will certainly pay great attention to that, and we hope 
to get more and more Koreans visiting Alaska.
    Senator Murkowski. Good. Madam Chairman, my time has 
expired. I have one quick question for Mr. Todd.
    Senator Boxer. Go ahead. Please, go ahead.
    Senator Murkowski. And it is really very general. Mr. Todd, 
you had ticked off four specific items in terms of the foreign 
policy objectives that the United States has with regard to 
Brunei, and the first on your list related to the 
counterterrorism initiative. And you bring to this post a 
degree of background, you indicated, with international 
narcotics and law enforcement department.
    Can you speak to the issue of counterterrorism and what 
specifically you would look to do in Brunei to work with the 
United States foreign policy objectives on that issue?
    Mr. Todd. Thank you, Senator. That is an important 
question.
    The current state of play in Brunei is that there are not 
any active terrorist organizations in Brunei itself. However, 
there are three active terrorist organizations in the 
surrounding countries. Many of the top leaders have basically 
been dealt with, and they are not part of those organizations 
at this point in time. But the organizations still exist.
    In terms of Brunei itself, we share data with them. We 
share information. We know who is coming and going. It has been 
a very informative relationship. One of the things that we do 
do and what I did when I was in INL, which is the Bureau of 
International Narcotics and Law Enforcement, is we would do 
training and equipping and assistance in the form of teaching 
and training people what to do and what not to do.
    And we have--the department has an ILEA, an International 
Law Enforcement Academy, in Bangkok, which I funded and ran 
that last--I think in 2006 trained, I think, 21 Bruneians in 
various forms of enforcement, some of which included 
antiterrorism activities.
    So if I am confirmed, I would continue to get people 
trained. I also would continue and encourage more information 
sharing. And as long as these three terrorist groups are still 
active in the region, my goal is to make sure that all 
Americans and American assets are protected. Thank you.
    Senator Murkowski. Thank you. Appreciate your response.
    In looking at Brunei--I have never had the opportunity to 
go there, but in looking at your economy reminds me a lot of 
what we have up north in Alaska and the dependence on oil, your 
desire to seek some diversification with your economy, some of 
your environmental issues. We differ a little bit in terms of 
size, but maybe one of these days I will have an opportunity to 
come visit for myself.
    Mr. Todd. I would love for you to come visit, ma'am.
    Senator Murkowski. Thank you.
    Madam Chairman, I appreciate the opportunity to ask the 
questions of these individuals. They certainly appear to be 
well prepared for their appointed tasks and I look forward to 
seeing them move through the process.
    Senator Boxer. I absolutely agree. And I was going to say 
while, future Ambassador Stephens, you are looking after 
Alaska, we have six----
    [Laughter.]
    Senator Boxer [continuing]. We have 600,000 Korean 
Americans in California. And----
    Senator Murkowski. She trumps me every time.
    Senator Boxer. We trump each other, but anyway. So, anyway, 
just don't forget. That is all.
    I have just a couple of questions. Ambassador Haslach, in 
recent weeks, China's treatment of the Tibetan people has 
focused the world's attention on China's commitment to the rule 
of law and human rights. Obviously, this scrutiny is growing as 
we get closer to the Olympics. I understand in San Francisco 
today I forget how many people came out, but thousands and 
thousands of peaceful demonstrations. It has touched people's 
hearts.
    And in the months leading up to the Olympics, how, if at 
all, can APEC be used as a forum to urge China to responsibly 
handle the crisis in Tibet?
    Ambassador Haslach. Well, thank you, Madam Chairman.
    APEC is largely an economic organization, but certainly 
there are many opportunities we have during the year at the 
Secretary of State level, at the leaders level. For example, 
last year in Sydney, President Bush did meet with many of our 
APEC partners to discuss issues that were not economic, human 
rights issues with regard to Burma.
    I much expect that Tibet will be on the agenda this year, 
as well as the bilateral meetings that we conduct with the 
economies whenever we meet, and we always bring up other 
subjects. And so, we use APEC for that. It presents yet another 
opportunity for us to dialog with China.
    Senator Boxer. Good. I am glad you see it that way because, 
you know, we have a lot of States in our Union that will act 
unilaterally sometimes and say we are going to boycott this, 
that, or another from our State government purchases. And you 
look at my State, we have got 37 million people. We would be 
the fifth-largest economy in the world. So, in many ways, I 
think you are right to use it as an opportunity because you 
never know what State could all of a sudden decide to say we 
are done.
    So I hope you use every opportunity that you can to raise 
this issue. It is such a sad one, and it seems to me we can 
resolve it. It could be resolved without independence, just 
with some autonomy, and I just would press you on that. And I 
am glad that you intend to raise it.
    So, in conclusion, I have just a couple of quick questions 
for Mr. Todd. Why should he get away from my questions?
    [Laughter.]
    Senator Boxer. And so, Mr. Todd, Brunei--and this really 
follows Senator Murkowski's question about the economy in 
Brunei.
    Brunei is one of the most prominent economic success 
stories in Southeast Asia, thanks in large part to its natural 
resources. However, it is reported that Brunei's oil and gas 
reserves, which account for 90 percent of its exports and one 
half of its GDP, are declining to the point where they will be 
exhausted in the relative near future. Oil is expected to dry 
up in 15 years and natural gas in 30.
    The Government of Brunei has reportedly tried to pursue 
alternative development strategies, but with limited success. 
As the Ambassador to Brunei, what will you do to help ensure 
that Brunei remains an economic success story in Asia? And I 
think you do have some unique qualifications to do this. So why 
don't you discuss that as well?
    Mr. Todd. Thank you, ma'am. In terms of Brunei, as you 
said, it is a very wealthy country. It is about the size of 
Delaware. It has 383,000 people. And at one point, the Sultan 
was the richest man in the world before the tech boom.
    Senator Boxer. Oh, I feel so sorry for him. [Laughter.]
    Mr. Todd. He still owns quite a bit, though. But in terms 
of it all, there seems to be a recent surge on the part of the 
several of the ministers in the Bruneian Government, where this 
is bothering them. One minister recently wrote an article that 
was in the Associated Press that talked about the complacency 
on the part of Bruneians and the fact that the per capita 
income in Brunei is one of the highest in the world. It is 
approximately $32,000 per person. And depending on whose 
numbers you believe, the oil and gas are going to run out 
somewhere between 15 and 40 years.
    In this article, this minister talked about alternatives to 
the current economy and diversifying. And I found it quite 
interesting because one of the things that it talked about was 
the wasteful use of energy in Brunei and how the country needed 
to learn how to be more economic and efficient in terms of how 
they use gas and oil, how they basically look at other 
alternative energy sources.
    And so, in terms of your question, if I am confirmed, I 
would like to look at U.S. firms promoting trade for 
alternative energy sources, looking at things that are more 
efficient in terms of cars and buses and their manufacturing 
base. The other thing that I have thought about that actually 
is very popular in the rest of ASEAN is aqua farming. There 
have been talks about the Bruneians looking at cultivating 
shrimp and other things.
    Lastly, the--if I am confirmed, one other thing that has 
been recently brought to the attention of this specific 
minister is Brunei does have the Heart of Borneo Initiative, 
which basically is a huge ecological reserve that basically 
walls off approximately 50 percent of the country. One of the 
things that has been talked about is increasing ecotourism and 
making it kind of a new base of the economy.
    Currently, Brunei is a dry country. The expenses--or the 
hotels are extremely expensive. So there aren't many tourists, 
but I see it as a place that American businesses could flourish 
in.
    Senator Boxer. Interesting. Well, let me say that as you 
talked about moving toward energy efficiency, that is exactly 
what we are doing here. We have a lot of steps we have to take 
right here in America. So that is good timing because we are 
all going to be looking toward this as we face global warming 
challenges.
    So my last question is really a human rights question to 
you, Mr. Todd. While the citizens of Brunei appear to enjoy a 
relatively high quality of life, Brunei is an absolute monarchy 
that restricts freedoms of speech, assembly, and the press. 
According to the 2007 Reporters Without Borders annual report, 
journalists working for privately owned publications in the 
sultanate--and this is a direct quote--can be punished by 
prison sentences of up to 3 years for publishing ``false 
news.'' And self-censorship is commonplace, and freedom of 
expression is limited.
    In June of 2006, three men were sentenced to 1 year in 
prison for having sent seditious and insulting mobile phone 
messages to the family of the leader. I was just thinking about 
how many people send insulting messages to me and the 
consequences that could----
    [Laughter.]
    Senator Boxer [continuing]. But I think they are wrong. 
People should have the right to insult their leaders. I would 
die for that right. So, if confirmed, what will you do to 
encourage Brunei to increase freedom of the press?
    Mr. Todd. Thank you, Senator. That is an excellent 
question.
    Right now, political freedoms are very limited--freedom of 
the press, religion, the right to congregate. There has been an 
emergency act that has been in place that gives the Sultan 
almost ultimate power since 1962. There is something called an 
Internal Security Act, which basically gives the Sultan and his 
ministries the ability to pick up people and to hold them 
without due process for up to 2 years. That is on one hand. 
That is the bad news story.
    The good news story is that the Government of Brunei and 
the Sultan have made some very positive changes over the last 
few years. The first is that they have enacted, the Sultan 
enacted in 2004 the legislative council. A number of the people 
on the legislative council are actually elected, which is a 
new, novel thing in Brunei.
    The second is that government and the Sultan ratified 2 of 
the 12 human rights conventions, basically protecting the 
rights of women and children. And in terms of human rights, and 
if I am confirmed, my goal is through engagement and through 
staying true to our principles, focusing on these issues with 
the government and the Sultan and when--monitor, engage, and 
report. When I am done, report it up the food chain to DRL at 
the State Department and to the Hill and continue to press 
things that we believe in.
    Thank you.
    Senator Boxer. Well, thank you. And I think that is true 
that we have seen some movement in the right direction, and I 
am sure that you will encourage that.
    Well, I would like to again thank our nominees for their 
willingness to serve our country. I also, and I know Senator 
Murkowski joins me fully in this, not only thanking our 
nominees, but their families. We certainly know the sacrifices 
that families do make.
    Of course, there are opportunities and pluses that go with 
our lifestyle in government, but there is a lot of sacrifice 
involved. So we want to thank you all. We want to thank some of 
you who were here who have been mentors to our outstanding 
panel.
    And I just wanted you to know that it is my understanding 
that Senator Biden will schedule a business meeting in the 
upcoming weeks so that these nominees can be considered and 
reported to the full Senate, and I want you all to know that 
you have my full support. I think I speak for Senator Murkowski 
and certainly Senator Webb, who said that.
    So we are really just glad you have stepped forward and 
accepted these new responsibilities, and much luck. And we 
stand adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of D. Kathleen Stephens to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. Depending upon the report, there are varying degrees of 
anti-American sentiment in the Republic of Korea. What contributes to 
reportedly significant levels of anti-American perspective among the 
people of South Korea? As ambassador, how will you work to improve 
perceptions and attitudes of South Koreans toward the United States?

    Answer. Most Koreans support the alliance with the United States, 
and older Koreans especially view that alliance as having been forged 
in blood during the Korean War. The most current opinion poll conducted 
by the State Department (in September 2007) revealed that 60 percent of 
South Koreans have an overall favorable opinion of the United States. 
Sixty-five percent also said the United States-South Korean security 
alliance was in good shape. Three-fourths of South Koreans consider the 
presence of United States forces in Korea important for their country's 
security, and 68 percent feel that South Korea should maintain the 
security alliance with the United States even after North-South 
reunification. Other indicators, including the number of South Korean 
students who come to study in the United States and Korea's strong 
interest in the Visa Waiver Program, also highlight the strength of the 
relationship.
    That said, given the many challenges the United States and the 
Republic of Korea have faced together in our 60 years of bilateral 
relations, it is no surprise that there has long been some anti-
American sentiment in South Korea, or at least ambivalence and 
misunderstanding about the United States role in Korea at various 
historical junctures. I saw this personally, both as a Peace Corps 
volunteer in Korea in the 1970s and while there on diplomatic 
assignment in the 1980s. In my discussions during those decades, 
Koreans from all walks of life almost unanimously affirmed their desire 
to see a healthy United States-Korea relationship, but were also 
critical of aspects of our shared history and of United States policies 
past or present. Part of that criticism stems from the division of the 
Korean Peninsula after World War II. Part is also rooted in the varying 
perceptions Koreans have of their process of democratization and of the 
role of the United States in those years. Incidents relating to the 
U.S. military presence have also inflamed anti-American feeling, such 
as after the tragic deaths in 2002 of two schoolgirls during a training 
exercise.
    I believe the best way to improve perceptions and attitudes of 
South Koreans toward the United States is to engage in a genuine dialog 
across the board, on all the issues. If confirmed as ambassador, I 
would seek first of all to listen to Korean voices and to understand 
better the many ways in which Korea has changed since I last lived 
there. I will put a strong emphasis in my own activities on outreach, 
on building our ability to communicate in Korean as well as in English, 
and on communicating in cyberspace as well as face-to-face. I will seek 
ways to engage more actively the large and influential Korean-American 
community, which now numbers some 2 million people, of whom about one-
fourth reside in South Korea.
    Progress on our shared policy objectives is also key. I will work 
for early implementation of the consolidation of United States forces 
south of the Han River, which will reduce the United States footprint 
in central Seoul. I will seek to support, as well as explain publicly, 
why the implementation of our shared vision for the Korean peninsula's 
future outlined in the September 2005 Joint Statement of Principles is 
so important to Americans as well as Koreans. I will work to streamline 
business, tourism, and educational travel to the United States, 
important to improving public perceptions of the United States.

    Question. If confirmed as ambassador, you will be challenged with 
important issues to the Alliance, that have necessarily occupied 
Ambassador Vershbow's time. These include the Free Trade Agreement, the 
Visa Waiver program, the North Korean nuclear issue, and the United 
States military presence in the Republic of Korea, among others. Please 
describe some new and innovative ways of growing the United States-
Republic of Korea relationship, that you consider notable and that you 
envision pursuing, if confirmed and in Seoul.

    Answer. As the question suggests, the groundwork has been laid to 
achieve an upgrade in the United States-Republic of Korea relationship 
in the coming years. Much work still remains to be done in adjusting 
our security presence on the peninsula in achieving denuclearlization 
of the peninsula and full implementation of our shared vision for its 
future as outlined in the September 2005 Joint Statement of Principles, 
and in implementing the Free Trade Agreement upon ratification. If 
confirmed, I will be focused on advancing this work, and to working 
with Korean authorities as they aim to enter the Visa Waiver Program.
    I would continue the effort to adjust our longstanding security 
alliance with South Korea to address contemporary realities. The United 
States and the Republic of Korea have agreed to adjust the size and 
strategic stance of our respective military forces on the peninsula to 
reflect better the challenges we face today and the changes in the 
Republic of Korea itself. We are working with our Korean counterparts 
to move the main United States military base out of downtown Seoul and 
to consolidate United States troops in the Republic of Korea, overall, 
to fewer hubs further south. We have agreed to transition our command 
relationships such that beginning in 2012 the Republic of Korea will 
exercise wartime operational control over Korean troops. These steps 
are sensible and timely. The changes overall will reflect Korea's 
economic and military strength and its place in the world and the 
region. The changes will also strengthen the U.S. military's 
operational efficiency and deterrent capability. If confirmed, I will 
work closely with the Korean Government, my military colleagues, and 
with the Congress to accomplish this transformation.
    I would also seek to ensure that we continue our vital cooperation 
with the Republic of Korea in the Six-Party talks to complete the 
denuclearization of the Korean peninsula and to implement fully the 
vision set out in the Joint Statement of Principles agreed to by all 
six parties in September 2005. With successful denuclearization, the 
Joint Statement commits the United States and the other parties to the 
normalization of relations, to economic and energy assistance to North 
Korea, and to achieving a permanent peace arrangement in Korea, along 
with a peace and security mechanism for the region. It is an ambitious 
agenda. The United States and the Republic of Korea will need to work 
closely together to succeed.
    As democratic societies, the United States and South Korea also 
share a deep interest in promoting an improved human rights situation 
in North Korea. This interest is particularly keen among the many 
Koreans whose families were tragically separated by the Korean War. 
President Lee and his government have made clear the importance the 
Republic of Korea attaches to this issue. The United States has equally 
deep resolve. If confirmed, I will work closely with the South Korean 
Government on the issue of human rights in North Korea, including in 
seeking sustainable solutions to the plight of North Korean asylum 
seekers.
    The United States-Korea Free Trade Agreement would, upon approval 
by the legislatures of both countries, open South Korea's growing 
market of 49 million consumers to the full range of United States goods 
and services, from agriculture to autos to telecommunications services. 
The KORUS FTA is the most commercially significant free trade agreement 
the United States has concluded in over 15 years. If confirmed as 
ambassador, and upon FTA ratification, I will make it a top priority to 
work with the United States Trade Representative to ensure that the 
provisions of the agreement are enforced across the board. This 
includes enhancing our current cooperation with the South Koreans on 
environment and labor standards.
    Moreover, we must ensure that the Republic of Korea follows 
international guidelines and fully reopens its market to United States 
beef. If confirmed, and as the progeny of Texas ranchers, you can be 
assured I will do all I can to ensure that our safe and delicious beef 
has unrestricted access to the South Korean market.
    South Korea is a natural candidate for the Visa Waiver Program, 
and, if confirmed, I will work with the Government of the Republic of 
Korea to address the legislative requirements for entry, including 
increased information sharing, greater law enforcement cooperation, and 
the timely production of a South Korean electronic passport. I will 
work with the Department of Homeland Security and with Korean 
authorities to ensure that, consistent with congressional and 
administration requirements, the security, immigration, and law 
enforcement interests of our Nation are strengthened by the inclusion 
of the Republic of Korea in the Visa Waiver Program.
    Continued progress on all these fronts will indeed grow the United 
States-Republic of Korea relationship in important ways. I believe we 
have the opportunity to take the alliance to a new level. While I hope 
my long experience in Korea in the 1970s and the 1980s, as well as more 
recently working on Korean issues from Washington, will be useful, I am 
mindful that, particularly in the beginning, I must be careful to 
observe, listen, and learn. I am concentrating my efforts, at present, 
on improving my Korean language skills. If confirmed, I will be the 
first United States Ambassador to Korea able to speak directly to the 
Korean people in their own language. I believe that using Korean myself 
in speeches, with the press, and in engaging in a dialog with Koreans 
from all walks of life, and supporting and encouraging other embassy 
officers to do the same, will enhance our own understanding of Korea as 
well as get our message out better. I also want to look at our exchange 
programs, such as the range of educational, technical, and business 
efforts ongoing, and think about how we might expand or use them 
better. We should ensure our educational and cultural exchange programs 
provide expanded opportunities for participation to groups that have 
been traditionally underrepresented but who are now becoming important 
voices in Korean society. I understand how Koreans, at every level of 
society, look to the Internet for information and news and how 
important it is to shape opinion. And I understand the critical role 
our Korean employees have in the success of our mission operation in 
Korea, and I would make sure embassy management continued to nurture 
this important resource.

    Question. As you are aware, the Republic of Korea is often the 
destination of North Korean refugees, some of whom spend years making 
their way through China and elsewhere in the region, hoping to 
eventually arrive in Seoul. Challenges of assimilation to a new life in 
South Korea are genuine.
    In recent weeks, the Government of Thailand has reportedly signaled 
its interest in sending a few hundred North Koreans presently detained 
in Bangkok, on to Seoul. How does the United States Government 
presently assist South Korea on matters related to North Korean 
refugees, and is the United States encouraging the South Korean 
Government to make necessary arrangements so that the North Koreans 
presently in Thailand may be moved on to Seoul?

    Answer. The United States Government, since the passage of the 
North Korean Human Rights Act has expanded its efforts to protect and 
assist North Korean refugees, including working, quietly if necessary, 
with other governments and international organizations, to help North 
Korean asylum seekers obtain protection and permanent resettlement.
    We are in close and frequent communication with the South Korean 
Government on issues related to North Korean asylum seekers, and if 
confirmed I will seek to expand our work together to find sustainable 
solutions for this vulnerable population. Numerous United States 
Government and embassy officials, including Ambassador Vershbow earlier 
this month, have visited the Hanawon resettlement center and discussed 
these issues with Republic of Korea Government authorities. Also, 
earlier this month, four North Koreans who have resettled in the 
Republic of Korea and are active in NGOs in Seoul, visited the United 
States as part of the State Department International Visitor Program to 
study programs in the United States to assist and resettle refugees 
here. When resettlement in the United States is desired by North 
Koreans and we are able to obtain needed host government cooperation, 
we actively seek to ensure this option is available. Forty-six North 
Koreans have been resettled in the United States as refugees in recent 
years. We would be happy to provide a classified briefing on our 
efforts in specific countries, including those referenced in your 
question.
                                 ______
                                 

           Responses of William Todd to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. What are the primary United States foreign policy 
objectives related to Brunei?

    Answer. Our foreign policy objectives in Brunei mirror those for 
the Asia-Pacific region in general:

  <bullet> Regional Security: Strengthening regional security by 
        garnering Brunei's support for enhanced United States relations 
        with ASEAN and encouraging expansion of its contributions to 
        peacekeeping operations in the region and to other multilateral 
        undertakings;
  <bullet> Stability: Safeguarding Brunei's long-term stability by 
        helping to improve its counterterrorism and defense 
        capabilities through law enforcement and military-to-military 
        cooperation and by encouraging broader popular participation in 
        the political process through development of the country's 
        legislative council;
  <bullet> Outreach: Improving perceptions of the United States among 
        Brunei's largely Muslim population and its decisionmakers 
        through outreach, exchange programs, and promotion of United 
        States education;
  <bullet> Sustainable Development: Increasing opportunities for United 
        States firms to compete in Brunei through an expanding trade 
        dialog focused on improving protection of intellectual property 
        rights and opening markets for United States goods and 
        services, while contributing to sustainable development through 
        conservation of Brunei's tropical forests.

    Question. How many students from Brunei have studied in the United 
States during the past 7 years? Does the United States Government, or 
American colleges and universities, actively recruit Brunei students?

    Answer. There have been approximately 136 students who have studied 
in the United States during the past 7 years. The year-by-year 
breakdown is given below.

------------------------------------------------------------------------
                                                                No. of
                            Year                               students
------------------------------------------------------------------------
2006/07....................................................           24
2005/06....................................................           12
2004/05....................................................           18
2003/04....................................................           13
2002/03....................................................           17
2001/02....................................................           27
2000/01....................................................           25
------------------------------------------------------------------------
Source: International Institute of Education (IIE) Open Doors
  statistics.

    The embassy in Bandar Seri Begawan actively promotes United States 
higher education as part of our foreign policy objective of creating a 
greater understanding of United States society and policies by Brunei's 
majority-Muslim population. Embassy officials often speak to target 
audiences of prospective students to encourage study in the United 
States. They and other State Department officials also helped arrange a 
visit in 2007 by Brunei's Deputy Minister of Education to several 
leading United States universities to establish contact with Islamic 
studies programs. The Minister of Education plans to visit the United 
States in 2008 to build partnership relations between United States 
universities and the University of Brunei Darussalam, which the embassy 
expects will result in increased student exchanges--both short and long 
term--between the United States and Brunei.
    The embassy in Bandar Seri Begawan worked to place United States 
institutions of higher learning on a list of Ministry of Defense-
recommended schools, as part of the embassy's campaign to promote 
United States schools to Bruneians, who historically have looked to the 
United Kingdom and Australia for foreign study. As a result, five 
students entered U.S. universities through this new track for the 
current academic year and our embassy anticipates four more will enter 
in the 2008/09 academic year. The embassy is also working with the 
Ministry of Education to allow students to use other Brunei Government 
scholarship programs to attend United States educational institutions.
    In the past year, the embassy also assisted the following American 
colleges or universities visiting Brunei to recruit students:

  <bullet> Tufts University (Fletcher School)
  <bullet> Upper Iowa University
  <bullet> Portland State University
  <bullet> State University of New York--Binghamton
  <bullet> Creighton University
  <bullet> University of Denver
  <bullet> Eckerd College
  <bullet> Herkimer Community College

    Question. What is the present level of Brunei investment in the 
United States? Do you anticipate an increase in such investment in the 
future?

    Answer. Exact figures for the present level of Brunei's investment 
in the United States are difficult to obtain, because the United States 
does not require the registration of investments and the level of 
Bruneian direct investment flows are small.
    According to industry estimates, Brunei holds substantial foreign 
assets globally, estimated at $30 billion dollars, through its Brunei 
Investment Agency (BIA), a sovereign wealth fund. Brunei's investments 
in the United States include luxury hotels in New York and California. 
Other financial assets are believed to be managed by U.S. financial 
institutions.
    The current value of the United States dollar would appear 
conducive to growing Bruneian investment in United States equities and 
bonds, but we are not aware of any plans for Brunei to acquire 
controlling interests or direct equity stakes in additional United 
States companies. Traditionally, the BIA has preferred passive, 
indirect investments to direct equity investments.

    Question. During the past 5 years, what cabinet or subcabinet level 
United States officials have visited Brunei? What United States 
military leaders have visited Brunei during the same time period?

    Answer. Assistant United States Trade Representative Barbara Weisel 
visited Brunei in May 2007. In December 2002, the Sultan of Brunei met 
with President Bush at the White House, and with Secretary Powell. In 
addition, the President has met the Sultan of Brunei every year at the 
annual APEC leaders meeting. Brunei hosted APEC in 2000, which 
President Clinton attended, and the ASEAN Regional Forum in July 2002, 
which Secretary Powell attended.
    The following United States military leaders have visited Brunei in 
the last five years:

  <bullet> April 2008: Pacific Commander Admiral Keating
  <bullet> May 2006: Deputy Under Secretary for Defense Lawless
  <bullet> March 2006: Pacific Commander Admiral Fallon
  <bullet> March 2005: U.S. Army Pacific Commander LTG Brown
                                 ______
                                 

          Responses of Scot A. Marciel to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. It has been expressed to the committee that congressional 
passage of additional sanctions against Burma could contribute to 
Thailand turning more toward China in the future. What is the 
Department's perspective on this issue? Why might Thai officials be 
concerned by additional Burma sanctions?

    Answer. We would not expect legislation authorizing additional 
sanctions on Burma to significantly affect Sino-Thai relations.
    Economic sanctions are an important tool for pressuring the Burmese 
regime to respect the desire of the Burmese people for a peaceful 
transition to a democratic government that respects their human rights. 
It is crucial, however, that sanctions laws preserve sufficient 
flexibility for the United States Government to use sanctions as an 
effective tool to influence the regime's behavior without unduly 
jeopardizing other U.S. foreign policy interests. By authorizing, 
rather than mandating, a prohibition on the importation of Burmese-
origin gemstones from third countries, such as Thailand, for example, 
sanctions legislation would allow the President the necessary degree of 
flexibility.
    During remarks at the Center for Strategic and International 
Studies on March 20, Thai Foreign Minister Noppadon Pattama reiterated 
his government's opinion that sanctions will be counterproductive in 
Burma, and that Thailand is better placed to argue for democratization 
there in the context of neighborly engagement than it would be were it 
to adopt or support sanctions. He also noted that as Burma's neighbor, 
Thailand needs Burmese cooperation on critical cross-border issues like 
trafficking in narcotics and persons and migration, and therefore must 
maintain a working relationship with the Burmese regime.
    Thailand may also be concerned about the impact on the Thai economy 
of additional sanctions on Burma. Bangkok is a major center for cutting 
and polishing colored gemstones and Burma exports almost all of its 
high quality rubies there. Restrictions on importing finished items to 
the United States that incorporate Burmese stones could negatively 
affect Thailand's jewelry industry, which reportedly earned $938.8 
million from exporting precious stones and jewelry to the United States 
in 2006.

    Question. What is the present status of the military-to-military 
relationship with Thailand? What changes, if any do you project with 
the military-to-military relationship over the next 5 years?

    Answer. United States-Thailand military relations have returned to 
full strength following the removal of legal restrictions on assistance 
and policy restrictions on other military cooperation imposed after the 
September 2006 coup. Upon the installment of a democratically elected 
Thai Government on February 6, Thailand is again eligible to receive 
Foreign Military Financing, International Military Education and 
Training, 1206, and Peacekeeping Operations (as a Global Peace 
Operations Initiative partner) assistance. The Departments of State and 
Defense are working to resume those programs expeditiously using 
available funds. The administration's fiscal year 2008 budget and 
fiscal year 2009 request both feature military assistance for Thailand.
    Our military-to-military relationship with our long-time treaty 
ally goes far beyond assistance. Thailand hosts more exercises annually 
with the United States than any other country in Southeast Asia, 
including our signature Cobra Gold multinational exercise. Thailand has 
contributed forces to our highest priority military missions in Iraq 
and Afghanistan and has pledged a battalion of peacekeepers for the 
U.N. mission in Darfur. Access to Thai military facilities was critical 
to United States regional humanitarian relief efforts following the 
tsunami in 2004. Continued access is key to our long-term regional 
security interests. We also recognize the region's security 
challenges--natural disasters, maritime security, counterterrorism, and 
piracy--and work closely with Thailand to ensure Thailand obtains and 
maintains the necessary capabilities to contribute to the region's 
security and stability.
    We expect the current high level of cooperation to exist well into 
the future, and communicate regularly with our Thai allies on how to 
deepen and strengthen our military ties to meet future challenges. We 
expect Thailand's enthusiastic participation in peacekeeping operations 
to continue, and its contribution to regional maritime security efforts 
to increase. The Thai military is also pursuing an ambitious defense 
reform project, having already completed the assessment phase of a 
United States-sponsored Defense Resource Management Study, focusing and 
tailoring existing Theater Security Cooperation tools to improve 
training and educational institutions.
    We anticipate hosting a round of strategic dialog talks later this 
year that will include discussion of the military relationship. These 
talks will build upon the recent visits of Pacific Command's Admiral 
Keating to Thailand and the Thai Deputy Supreme Commander's visit to 
Washington, both of which followed Thailand's return to elected 
government and the accompanying reengagement of our militaries at 
senior levels.

    Question. What is the status of Thailand' military relationship 
with China? What agreements of any kind, have been finalized between 
Thailand and China during the last 6 years?

    Answer. China and Thailand's military relationship has continued to 
improve over the last several years. Following the September 2006 Thai 
military coup, many countries, including the United States, imposed 
restrictions on various military-to-military programs. At the same 
time, China intensified its engagement with the Thai military.
    China continues to offer seats in its military schools to Thai 
personnel and is supporting Chinese language classes in Thai military 
academies in order to increase the number of Thais able to train in 
China. In addition, in 2006-2007, China sent a Major to the Royal Thai 
Army Command and General Staff College, a first in China-Thailand 
military relations.
    China has also used senior visits and offers of assistance to 
cultivate stronger ties with the Thai military. The extent to which the 
Thai have accepted assistance is unclear, but it is widely believed 
that the two countries made commitments to future military cooperation 
during senior-level official exchanges over the past 2 years. According 
to Chinese state media, Thailand and China staged a joint search and 
rescue exercise in December 2005. Following an early 2007 visit by 
then-Thai Prime Minister Surayud Chulanont to China, the first ever 
Thai-Chinese Special Forces bilateral training exercise took place in 
Guangzhou, China, in July 2007; a follow-on exercise is scheduled to 
take place in Thailand this summer. Thailand has also invited the PRC 
to send official observers to the annual COBRA GOLD multinational 
military exercise held in Thailand in 2008.

    Question. Given the diplomatic and economic reemergence of China 
throughout Southeast Asia, what are your recommendations for the United 
States toward providing a balance in the region consistent with our 
foreign policy objectives?

    Answer. China's growing presence in Southeast Asia does not mean 
that the United States will play a smaller role. We do not see this as 
a zero-sum game. More trade between Southeast Asia and China does not 
necessarily mean less trade between Asia and the United States. And a 
more capable China acting as a responsible stakeholder in the region 
may benefit the United States as well as other countries.
    The United States strongly supports ASEAN's integration efforts as 
its member states work to realize the vision of a dynamic, outward 
looking ASEAN, living in peace, stability, and prosperity. We seek to 
be a part of and contribute to the successful political, economic, and 
social integration of the ASEAN community. The United States will 
remain a partner valued by our friends in Southeast Asia by continuing 
our deep bilateral and multilateral involvement with the region.
    In fact, the United States is increasing its engagement with the 
Asia-Pacific region in line with our growing interests there. Our 
engagement is developing through our work with individual countries, 
the enhanced partnership with ASEAN, new cooperation in the ASEAN 
Regional Forum, and our leadership role in APEC.
    As we develop our increasing engagement with Southeast Asia, in 
particular, we are drawing on America's unique strengths. No other 
country enjoys the depth and breadth of engagement we have with that 
region through the work of numerous U.S. Government agencies, programs 
undertaken by our individual states, the deep commercial ties developed 
by our businesses, the cooperation built up by numerous educational 
institutions and organizations outside of government, and the ties of 
millions of families and individuals that span the Pacific. We are 
involving them all in our programs with ASEAN.

    Question. Recent news reports state that North Korea has been 
selling multiple rocket launchers to Burma. What is the projected 
dollar amount and description of annual military--related transfers 
from North Korea to Burma since and including 2000?

    Answer. We have seen these press reports. We closely monitor 
reports of North Korean weapons sales to Burma, keeping in mind that 
U.N. Security Council Resolution (UNSCR) 1718, adopted unanimously on 
October 14, 2006 after the DPRK announced it had conducted a nuclear 
test, remains in effect and is legally binding on all member states of 
the U.N.
    As we proceed with denuclearization efforts in the Six-Party Talks 
process, all U.N. member states should continue in parallel to 
cooperate to ensure the full and effective implementation and 
enforcement of UNSCR 1718, which includes a prohibition on the 
procurement of large caliber artillery systems from the DPRK.
    While we cannot provide specific information in an unclassified 
response, we would be pleased in a classified setting to brief the 
committee on the question of military related transfers from North 
Korea to Burma since 2000.

    Question. What is the perspective of the U.S. Department of State 
regarding the reported presence of North Korean military personnel in 
Burma?

    Answer. Given that U.N. Security Council Resolution (UNSCR) 1718 
bans certain kinds of military trade and cooperation involving North 
Korea for all U.N. member states, and that the Burmese military 
continues to repress citizens of Burma, we are following closely and 
with serious concerns the reports of military cooperation between Burma 
and North Korea.

    Question. When did U.S. officials last meet with Aung San Suu Kyi? 
When was she last allowed to meet with her physician?

    Answer. U.S. officials have been unable to meet with Aung San Suu 
Kyi since she was placed under house arrest following the assault on 
her and her National League for Democracy colleagues at Depayin in May 
2003. The last senior U.S. official to travel to Burma to meet Aung San 
Suu Kyi was then Deputy Assistant Secretary Matthew Daley in April 
2003.
    The Burmese regime allows Aung San Suu Kyi's physician to visit her 
periodically. We understand that he has visited her earlier this year.

    Question. How do United States officials incorporate issues related 
to Burma in our bilateral discussions with India, China, Japan, 
Singapore, and other countries that actively engage with the Burmese 
military junta?

    Answer. U.S. officials regularly raise Burma with our interlocutors 
in these countries. We consistently encourage these and other foreign 
governments to use the influence that they have with the Burmese 
military regime to press the regime to begin a genuine dialog with 
democratic and ethnic minority representatives on a transition to a 
civilian, democratic government.

    Question. On an individual country basis, please provide the 
committee with a list of economic, military, and all other agreements 
finalized between the People's Republic of China and ASEAN countries, 
since and including 2000.

    Answer. China has likely concluded hundreds of agreements with 
individual ASEAN countries since 2000. There is no comprehensive 
register of such agreements. Attached is a list of those currently 
known to the Department.
    China has also concluded at least 17 agreements with ASEAN, which 
are also noted in the attachment.
         attachment--agreements between the people's republic 
                      of china and asean countries
Agreements between China and Brunei
    1. Seventeen bilateral agreements are mentioned, but no list or 
dates are available.
    2. Agreement on Investment Mutual Encouragement and Mutual 
Protection, November 2000.
    3. China International Petroleum and Chemical Industries Joint 
Company and Brunei's Shell Petroleum Company signed Long-Term Contract 
on Champion Crude Oil, November 2000.
    4. Agreement on Cooperation between the Supreme People's 
Procuratorate of China and Procuratorate-General of Brunei, 2002.
Agreements between China and Cambodia
    1. Agreement on Cooperation between the Government of the People's 
Republic of China and the Government of the Kingdom of Cambodia in 
Combating Transnational Crime, April 8, 2006.
    2. Memorandum of Understanding between the Ministry of Health of 
the People's Republic of China and the Ministry of Health of the 
Kingdom of Cambodia on Cooperation in the Field of Health, April 8, 
2006.
    3. Memorandum of Understanding on the Construction of Greater 
Mekong Subregion Information Superhighway Network Cambodian Section 
between the Ministry of Information Industry of People's Republic of 
China and the Ministry of Posts and Telecommunications of the Kingdom 
of Cambodia, April 8, 2006.
    4. Agreement on Economic and Technical Cooperation between the 
Government of the People's Republic of China and the Royal Government 
of Cambodia (80 Million Yuan Grant), April 8, 2006.
    5. Agreement on Economic and Technical Cooperation between the 
Government of the People's Republic of China and the Royal Government 
of Cambodia (80 Million Yuan Noninterest Loan. April 8, 2006.
    6. Exchange of Notes on the Provisions of 30 Fire Trucks to the 
Royal Government of Cambodia by the Government of the People's Republic 
of China, April 8, 2006.
    7. Exchange of Notes on the Provision of One Unit of THSCAN Mobile 
Container Scanning System to the Royal Government of Cambodia by the 
Government of the People's Republic of China, April 8, 2006.
    8. Exchange of Notes on the Survey Study of the Project of 
Establishment of National Botanical Garden in Cambodia, April 8, 2006.
    9. The General Loan Agreement Regarding the Utilization of 200 
Million U.S. Dollar Preferential Buyer's Credit from the Government of 
the People's Republic of China to the Government of the Kingdom of 
Cambodia between the Export and Import Bank of China and the Ministry 
of Economy and Finance of the Kingdom of Cambodia, April 8, 2006.
    10. Government Concessional Loan Agreement between the Export and 
Import Bank of China as Lender and the Ministry of Economy and Finance 
of the Kingdom of Cambodia as Borrower on the Project of Upgrading 
Cambodian National Telecom Network, April 8, 2006.
    11. Agreement between the State Administration of Cultural Heritage 
of the People's Republic of China and the Authority for the Protection 
and Management of Angkor and the Region of Siem Reap of the Kingdom of 
Cambodia on the Second-Phase Project of the Joint Protection of Angkor 
Temples, April 8, 2006.
Agreements between China and Indonesia
    1. Exchange of notes in regard with the setup of Indonesian 
consulates general in Guangzhou and Shanghai, March 2002.
    2. Air Transport Agreement, Investment Protection Agreement, Sea 
Transportation Agreement, Agreement on Avoiding Dual Taxation, 
memorandum for understanding of cooperation in the fields of mining, 
forestry, tourism, fishery, transportation, agriculture and finance, 
etc., dates not available.
    3. Agreement on mutually granting judicial assistance, July 2000.
    4. Agreement on Conducting Chinese Examination in Indonesia, May 
2000.
    5. Agreement for Cultural Cooperation, November 2001.
    6. Joint statement on the direction of the development of bilateral 
relations in the future, May 2000.
    7. Memorandum of understanding about putting in place a joint 
committee on bilateral cooperation, May 2000.
Agreements between China and Laos
    1. Joint Statement on the Bilateral Cooperation, November 2000.
    2. Seven cooperation agreements in the sectors of economy, 
technology, energy and e-governance, March 8, 2008.
    3. Comprehensive agreement to boost all-round cooperative relations 
to strengthen bilateral ties, March 30, 2008.
Agreements between China and Malaysia
    1. More than 10 agreements on economic and trade cooperation such 
as Agreement on Avoidance of Double Taxation, Trade Agreement, 
Agreement on Investment Protection, Shipping Agreement, and Air 
Transport Agreement. (Dates not available.)
    2. Agreement between the Chinese People's Bank and the National 
Bank of Malaya on Bilateral Exchange of Currencies. October 20002.
    3. Memorandum of Understanding on Aviation Cooperation between 
China and Malaysia, 2002.
Agreements between China and Burma
    1. Seven documents on bilateral cooperation, including Sino-Burmese 
Agreement on Fishery Cooperation, and Sino-Burmese Agreement on 
Investment Protection, and agricultural, natural cum human resources 
development as well as infrastructural construction, December 12-15, 
2001.
    2. Intergovernmental Agreement on China's remittal of Part of 
Myanmar's overdue debt, January 2003.
    3. Agreement on investment promotion and protection, (date not 
available).
    4. Joint Statement Concerning Framework Document on Future 
Cooperation in Bilateral Relations between the People's Republic of 
China and Federation of Myanmar, June 6, 2000.
Agreements between China and the Philippines
    1. Joint Statement between the Government of the Republic of the 
Philippines and the Government of the People's Republic of China on the 
Framework of Bilateral Cooperation in the 21st Century. Signed in 
Beijing on 16 May 2000.
    2. Memorandum of Understanding between the Philippine Council of 
Young Political Leaders (PCYPL) Foundation, Inc. and Chinese 
Association for International Understanding (CAFIU). Signed in Beijing 
on 5 July 2005.
    3. Memorandum of Understanding on Defense Cooperation between the 
Department of National Defense of the Republic of the Philippines and 
the Ministry of National Defense of the People's Republic of China. 
Signed in Beijing on 8 November 2004.
    4. Agreement between the Department of National Defense of the 
Republic of the Philippines and the Ministry of National Defense of the 
People's Republic of China on China's Provision of Military Aid Gratis 
to the Philippines. Signed in Beijing on 8 November 2004.
    5. Agreement between the Department of National Defence of the 
Republic of the Philippines and the Ministry of National Defence of the 
People's Republic of China on China's Provision of Military Aid Gratis 
to the Philippines. Signed in Beijing on 10 October 2006.
    6. Memorandum of Understanding between the Government of the 
Republic of the Philippines and the Government of the People's Republic 
of China on Cooperation against Illicit Traffic and Abuse of Narcotic 
Drugs, Psychotropic Substances, and Precursor Chemicals. Signed in 
Beijing in October 2001.
    7. Memorandum of Understanding between the Government of the 
Republic of the Philippines and the Government of the People's Republic 
of China on Cooperation in Combating Transnational Crime. Signed in 
Beijing in October 2001.
      (8. Agreement on Cooperation between the National Prosecution 
Service of the Department of Justice of the Republic of the Philippines 
and the Supreme People's Procuratorate of the People's Republic of 
China. Signed in Beijing in October 2000.
    9. Treaty on Extradition between the Republic of the Philippines 
and the People's Republic of China. Signed on 30 October 2001.
    10. Letter of Intent between the Philippine National Oil CO. 
Exploration Corp. and the China National Offshore Oil Corp. (CNOOC). 10 
November 2003.
    11. An Agreement for Joint Marine Seismic Undertaking on Certain 
Areas in the South China Sea By and Between Philippine National Oil 
Company and China National Offshore Oil Corporation. Signed in Beijing 
on 1 September 2004.
    12. An Agreement for Joint Marine Seismic Survey in Certain Areas 
in the South China Sea by the Philippine National Oil Company (PNOC), 
the China National Offshore Oil Company (CNOOC), and the Vietnam Oil 
and Gas Corporation (PETROVIETNAM). Signed on 14 March 2005.
    13. Memorandum of Understanding between Bangko Sentral ng Pilipinas 
and the People's Bank of China on the Establishment of Banking 
Institutions in Each Other's Territories. Signed on 17 May 2000.
    14. Cooperation Agreement between the Philippine Chamber of 
Commerce and Industry (PCCI) and China Council for the Promotion of 
International Trade (CCPIT). Signed in October 2001.
    15. Bilateral Swap Agreement between the Bangko Sentral ng 
Pilipinas and the People's Bank of China. Signed in Manila on 30 August 
2003.
    16. Memorandum of Understanding on Mining Cooperation between the 
Department of Trade and Industry (DTI) and China's Ministry of Commerce 
(MOFCOM). Signed in 18 January 2005.
    17. Memorandum of Understanding between the Government of the 
Philippines and the Government of the People's Republic of China on the 
Promotion of Trade and Investment Cooperation. Signed in Manila on 27 
April 2005.
    18. Agreement on Economic and Technical Cooperation between the 
Government of the Republic of the Philippines and the Government of the 
People's Republic of China. Signed in Manila on 27 April 2005.
    19. Memorandum of Understanding between the Government of the 
Republic of the Philippines and the Government of the People's Republic 
of China on the Early Harvest Program under the Framework Agreement on 
Comprehensive Economic Cooperation between the Association of South 
East Asian Nations and the People's Republic of China. Signed in Manila 
on 27 April 2005.
    20. Framework Agreement between the Government of the Republic of 
the Philippines and the Government of the People's Republic of China on 
Provision of Concessional Loan by China to the Philippines. Signed in 
Manila on 27 April 2005.
    21. Framework Agreement on Expanding and Deepening Bilateral 
Economic and Trade Cooperation between the Government of the Republic 
of the Philippines and the Government of the People's Republic of 
China. Signed in Manila on 15 January 2007.
    22. Memorandum of Understanding between the National Economic and 
Development Authority and the Department of Trade and Industry of the 
Republic of the Philippines and the Ministry of Commerce of the 
People's Republic of China on Establishing the Economic Working Group. 
Signed in Manila on 15 January 2007.
    23. Memorandum of Understanding between China Export & Credit 
Insurance Corporation and Philippine Government Agencies. Signed in 
Manila on 15 January 2007.
    24. Agreement on Economic and Technical Cooperation between the 
Government of the Republic of the Philippines and the Government of the 
People's Republic of China. Signed in Manila on 15 January 2007.
    25. Framework Agreement between the Government of the Republic of 
the Philippines and the Government of the People's Republic of China on 
Provision of Concessional Loan by China to the Philippines. Signed in 
Manila on 15 January 2007.
    26. Memorandum of Understanding between the Department of Trade and 
Industry of the Republic of the Philippines and the General 
Administration of Quality Supervision, Inspection, and Quarantine of 
the People's Republic of China on Cooperation on Industrial Products 
Safety and TBT Measures. Signed in Manila on 15 January 2007.
    27. Memorandum of Understanding regarding the Utilization of US$500 
million Preferential Buyer's Credit Between the Department of Finance 
of the Republic of the Philippines and the Export and Import Bank of 
China. Signed in Manila on 15 January 2007.
    28. Understanding on the Cooperation in the Fields of Agriculture, 
Irrigation, and Other Related Areas between the Government of the 
Republic of the Philippines and the Government of the People's Republic 
of China. Signed on 16 May 2000.
    29. Agreement between the Department of Finance and the China 
National Construction and Agricultural Machinery Import and Export 
Corporation on a US$100 million credit facility to finance agricultural 
development projects in the Philippines. Signed on 20 December 2000.
    30. Memorandum of Understanding between the Department of 
Agriculture of the Republic of the Philippines and the Ministry of 
Agriculture of the People's Republic of China on Fisheries Cooperation. 
Signed in Beijing on 1 September 2004.
    31. Memorandum of Understanding on the Special Treatment for Rice 
between the Governments of the People's Republic of China and the 
Republic of the Philippines. Signed in Manila on 27 April 2005.
    32. Memorandum of Understanding on Expanding and Deepening 
Agriculture and Fisheries Cooperation. Signed in Manila on 15 January 
2007.
    33. Memorandum of Understanding between the Department of 
Agriculture of the Republic of the Philippines and the General 
Administration of Quality Supervision, Inspection, and Quarantine of 
the People's Republic of China in the field of Sanitary and 
Phytosanitary Measures. Signed in Manila on 15 January 2007.
    34. Agreement on the Development of 1 million Hectares of Land for 
Hybrid Corn, Hybrid Rice, and Hybrid Sorghum Farming. Signed in Manila 
on 15 January 2007.
    35. Agreement on the Leasing of 40,000 Hectares of Agri-Business 
Lands for Sugarcane and Cassava Plantation. Signed in Manila on 15 
January 2007.
    36. Agreement on the Provision of a 5,000-Square Meter Space for 
Philippine Tropical Fruits in the Jiangnan Fruit and Vegetable 
Wholesale Market. Signed in Manila on 15 January 2007.
    37. Agreement for the Establishment of a 150,000 Liter per Day-
Capacity Bio-Ethanol Plant in Palawan. Signed in Manila on 15 January 
2007.
    38. Joint Venture Agreement for the Manufacture of Bio-Ethanol 
(B.M.S.B). Signed in Manila on 15 January 2007.
    39. Joint Venture Agreement for the Manufacture of Bio-Ethanol 
(Negros Southern). Signed in Manila on 15 January 2007.
    40. Joint Venture Agreement for the Establishment of a 150,000 
Liter per Day-Capacity Bio-Ethanol Plant. Signed in Manila on 15 
January 2007.
    41. Memorandum of Agreement on the Provision of Small Mobile Ice 
Plant and Transport Facilities to Municipal Fishery Cooperatives and 
Associations. Signed in Manila on 16 January 2007.
    42. Memorandum of Agreement on the Establishment of a 35-Hectare 
Demonstration Farm for Sweet Corn. Signed in Manila on 16 January 2007.
    43. Memorandum of Agreement on the Construction of Ship Yard, 
Establishment of a Cold Storage Facility, and Upgrading/Rehabilitation 
of Certain Facilities at the Navotas Fish Port Complex (NFPC). Signed 
in Manila on 16 January 2007.
    44. Agreement on the Development of Candaba Swamp Resource Project 
as a Source of Water for Irrigation. Signed in Manila on 16 January 
2007.
    45. Memorandum of Agreement on Cooperation By and Between the 
Bureau of Fisheries and Aquatic Resources (BFAR) and Guandong Ocean 
Fisheries Administration (GDOFA). Signed in Manila on 16 January 2007.
    46. Memorandum of Agreement on the Breeding and Culture of Grouper 
and Other High Value Species. Signed in Manila on 16 January 2007.
    47. Joint Venture Agreement on Fisheries. Signed in Manila on 16 
January 2007.
    48. Agreement on Breeding and Culture of Abalone, Sea Cucumbers, 
Sea Urchins, and Scallops. Signed in Manila on 16 January 2007.
    49. Visa Agreement allowing Filipino diplomatic and consular 
personnel to receive multiple-entry entry visas from the Chinese 
Government for a maximum validity period of 5 years. Signed on 3 July 
2002 and entered into force on 19 December 2002.
    50. Agreement Between the Government of the Republic of the 
Philippines and the Government of the People's Republic of China on 
Mutual Visa Exemption for Holders of Diplomatic and Official (Service) 
Passports. Signed in Beijing on 1 September 2004.
    51. Memorandum of Understanding on air services. Signed in Beijing 
on 2 March 2004.
    52. Memorandum of Understanding Between the Philippine National 
Railways and China National Technical Import Export Corporation and 
China National Machinery and Import & Export Corp. Signed in Manila on 
15 November 2002.
    53. Memorandum of Understanding Regarding the Utilization of the 
US$400 million Preferential Buyers' Credit from China to the 
Philippines between the Export-Import Bank of China and the Department 
of Finance of the Philippines. Signed in Manila on 30 August 2003.
    54. Supplemental Memorandum of Understanding between North Luzon 
Railways Corporation and China National Machinery and Equipment 
Corporation (Group). Signed in Beijing on 1 September 2004.
    55. Memorandum of Understanding between the Department of Trade and 
Industry of the Republic of the Philippines and the Ministry of 
Commerce of the People's Republic of China on Infrastructure 
Cooperation. Signed in Manila on 27 April 2005.
    56. Memorandum of Understanding Regarding the Utilization of US$500 
million Preferential Buyer's Credit from the Government of the People's 
Republic of China to the Government of the Republic of the Philippines 
between the Export-Import Bank of China and the Department of Finance 
of the Republic of the Philippines. Signed in Manila on 27 April 2005.
    57. Loan Agreement on the Provision of US$500 million Preferential 
Buyer's Credit Loan for the Northrail Project Phase 1, Section 2. 
Signed in Manila on 15 January 2007.
    58. Concessional Loan Agreement on Nonintrusive Container 
Inspection System Project Phase 2. Signed in Manila on 15 January 2007.
    59. Contract Agreement between North Luzon Railways Corporation and 
China National Machinery Industry Corporation for the Northrail Project 
Phase 1, Section 2. Signed in Manila on 15 April 2007 (originally 
signed in Beijing on 15 November 2006).
    60. Engineering, Procurement, and Construction Contract for the 
Rehabilitation and Upgrading of the Philippine Mainline South Railway 
Project Phase 1, Section 1. Signed in Manila on 15 January 2007 
(originally signed in Manila on 5 December 2006).
    61. Memorandum of Understanding concerning Tourism Cooperation. 
Signed in Beijing on 11 September 2002.
    62. Implementation Program of the Memorandum on Tourism Cooperation 
between the Department of Tourism and the China National Tourism 
Administration. Signed in Beijing on 1 September 2004.
    63. Memorandum of Understanding between the Department of 
Transportation and Communications of the Republic of the Philippines 
and the Ministry of Communications of the People's Republic of China on 
Maritime Cooperation. Signed in Manila on 27 April 2005.
    64. Agreement on the Protection of Cultural Heritage. Signed in 
Manila on 15 January 2007.
    65. Agreement on the Prevention of Theft, Clandestine Excavation, 
Illicit Import and Export of Cultural Property between the Republic of 
the Philippines and the Government of the People's Republic of China. 
Signed in Manila on 15 January 2007.
    66. Memorandum of Understanding on Sports Cooperation. Signed in 
October 2001.
    67. Supplemental Memorandum of Understanding between the Philippine 
Sports Commission and the General Administration of Sports of the 
People's Republic of China. Signed on 8 April 2005.
    68. Agreement between the National Youth Commission of the Republic 
of the Philippines and the All-China Youth Federation of the People's 
Republic of China on Youth Affairs Cooperation. Signed in Manila on 27 
April 2005.
    69. Memorandum of Understanding on Further Development of Sino-
Filipino Youth Exchange between the All-China Youth Federation and the 
National Youth Commission of the Philippines. Signed in Beijing on 13 
July 2005.
    70. Letter of Intent on Friendly Exchanges and Cooperation between 
the Office of the Press Secretary of the Republic of the Philippines 
and the State Council Information Office of the People's Republic of 
China. Signed in Beijing on 3 September 2004.
Agreements between China and Singapore
    1. Memorandum of Understanding on Air Services between Singapore 
and China, November 28 to December 2, 2005.
    2. Several MOUs to promote closer bilateral cooperation in areas 
such as human resource development, high-tech cooperation, and 
agricultural products, September 19-21, 2005.
    3. MOU on the establishment of the Singapore-China Joint Investment 
Promotion Committee, May 17-19, 2005.4. Defense Agreement formalizing 
existing exchanges between Republic's Ministry of Defense (MinDef) and 
the People's Liberation Army (PLA) and pledged to work together on 
humanitarian assistance and disaster relief, January 8, 2008.
Agreements between China and Thailand
    1. Memorandum of Understanding on Cooperation in Drug Prohibition 
(2000).
    2. Thai-China Agreement on Bilateral Currency Exchange (2001).
    3. Thai-China Agreement on Cultural Cooperation (2001).
    4. Memorandum of Understanding on Strengthening Cooperation in 
Drug-Prohibition, 2000.
    5. Agreement on Cultural Cooperation, 2001.
    6. Treaty on Assistance in Criminal Judicature, 2003.
Agreements between China and Vietnam
    1. Memorandum of Understanding on the Hanoi-Naning corridor and the 
Huu Nghi Quan border gate, March 30, 2008.
    2. Nearly 40 documents on cooperation in the diplomatic, public 
security, trade, economic, scientific, technological, cultural, and 
legislative areas have been signed between the departments concerned of 
the two countries, dates not available.
    3. Treaty on the land Boundary between China and Vietnam on 
December 30, 1999 in Hanoi and exchange of instruments of ratification, 
July 6, 2000.
    4. Agreement on the Demarcation of the Beibu Gulf Territorial 
Waters, Exclusive Economic Zones and Continental Shelf, and Agreement 
on Fishing Cooperation in the Beibu Gulf, December 25, 2000.
Agreements between China and ASEAN
    1. Accession to the Treaty of Amity and Cooperation in Southeast 
Asia by China, October 8, 2003.
    2. Joint Statement of ASEAN-China Commemorative Summit, ``Towards 
an Enhanced ASEAN-China Strategic Partnership,'' October 30, 2006.
    3. Joint Declaration of the Heads of State/Government of the 
Association of Southeast Asian Nations and the People's Republic of 
China on Strategic Partnership for Peace and Prosperity, October 8, 
2003.
    4. Memorandum of Understanding Between the Association of Southeast 
Asian Nations and the Government of the People's Republic of China on 
Strengthening Phytosanitary Cooperation, November 20, 2007.
    5. Memorandum of Understanding between the Association of Southeast 
Asian Nations (ASEAN) Secretariat and the Ministry of Agriculture of 
the People's Republic of China on Agricultural Cooperation, January 14, 
2007.
    6. Plan of Action to Implement the Beijing Declaration on ASEAN-
China ICT Cooperative Partnership for Common Development, January 14, 
2007.
    7. Agreement on Trade in Goods of the Framework Agreement on 
Comprehensive Economic Cooperation between the Association of Southeast 
Asian Nations and the People's Republic of China, November 29, 2004, 
plus Annexes.
    8. Agreement on Dispute Settlement Mechanism of the Framework 
Agreement on Comprehensive Economic Cooperation between the Association 
of Southeast Asian Nations and the People's Republic of China, November 
29, 2004.
    9. Protocol to Amend the Framework Agreement on Comprehensive 
Economic Cooperation Between the Association of Southeast Asian Nations 
and the People's Republic of China, October 6, 2003.
    10. Framework Agreement on Comprehensive Economic Cooperation 
between ASEAN and the People's Republic of China, November 5, 2002.
    11. Joint Declaration of ASEAN and China on Cooperation in the 
Field of Nontraditional Security Issues, November 4, 2002.
    12. Joint Statement on ASEAN-China Port Development, China, October 
29, 2007.
    13. Memorandum of Understanding between the Governments of Member 
Countries of the Association of Southeast Asian Nations and the 
Government of the People's Republic of China on Transport Cooperation, 
November 27, 2004.
    14. Memorandum of Understanding between the Governments of Member 
Countries of the Association of Southeast Asian Nations and the 
Government of the People's Republic of China in the Field of 
Nontraditional Security Issues, January 10, 2004.
    15. Plan of Action to Implement the Joint Declaration on ASEAN-
China Strategic Partnership for Peace and Prosperity, October 8, 2003.
    16. Memorandum of Understanding between the Association of 
Southeast Asian Nations (ASEAN) Secretariat and the Ministry of 
Agriculture of the People's Republic of China on Agriculture 
Cooperation, November 2, 2002.
    17. Declaration on the Conduct of Parties in the South China Sea, 
November 4, 2002.

    Question. Japan has actively promoted nonproliferation efforts in 
Asia, such as hosting the Asian Senior-Level Talks on Nonproliferation 
(ASTOP). Do you view ASTOP as a viable means of regional discussion on 
matters related to the development of nuclear energy for peaceful 
purposes?

    Answer. The United States appreciates the leadership that Japan 
shows in the Asian Senior-Level Talks on Nonproliferation (ASTOP). 
Since the first meeting in November 2003, Japan has used this forum as 
a way to engage the 10 ASEAN countries, as well as others in the Asia 
Pacific region on nonproliferation. At the talks, Tokyo encourages 
political support for nonproliferation objectives, including the 
Additional Protocol, the Hague Code of Conduct on Ballistic Missiles, 
strengthening of strategic trade controls, and implementation of 
nonproliferation-related resolutions of the United Nations Security 
Council.
    This forum helps to further develop international norms on 
nonproliferation in East Asia, which will help engender a climate of 
compliance with the international nuclear nonproliferation regime.
    This norm-strengthening work will pay dividends in the future as 
countries in the region turn increasingly to peaceful nuclear power to 
meet rising energy needs.

    Question. Philippines' officials, namely Foreign Secretary Albert 
Romulo, have taken the lead on encouraging implementation of an ASEAN 
energy security plan. How do you envision the United States working 
with ASEAN on matters related to energy security?

    Answer. The Joint Vision Statement on the ASEAN-U.S. Enhanced 
Partnership provides for cooperation on energy issues, including energy 
security. Under the Enhanced Partnership, the United States already has 
sponsored workshops on policies and financing needed for energy 
security, as well as on the use of coal, best practices in energy 
efficiency, and energy efficiency labeling that will contribute to 
energy security. We will continue to work with ASEAN to promote the 
adoption of policies and best practices in this area.
    In addition, the larger ASEAN Regional Forum (ARF) is venturing 
into the field of energy security. Its work includes maritime security 
exercises, assessing the physical security of energy stockpiles and 
certain infrastructure, and examining how militaries in the region 
approach this new issue. The United States has also engaged the ASEAN 
members in APEC on a variety of energy security issues, including 
preparation for energy supply disruptions through such measures as sea 
lane security, real-time emergency information sharing, oil supply 
emergency response, promotion of energy investment, and cooperation in 
various energy sectors.

    Question. The ASEAN-U.S. Enhanced Partnership, as you have noted, 
sets ``a clear framework for boosting cooperation.'' Please outline 
specific steps of cooperation and benchmarks achieved since the 
partnership's announcement in 2005?

    Answer. The United States and ASEAN have made good progress in 
implementing the Enhanced Partnership, which supports plans to create 
an ASEAN Community by 2015 with political/security, economic and 
social/cultural pillars. Training, technical assistance, and other 
cooperative programs are being implemented with ASEAN in all three 
areas.
    When President Bush met ASEAN leaders at APEC in November 2006, the 
U.S. and ASEAN cited eight areas as priorities in the Enhanced 
Partnership: economics (including good governance and combating 
corruption), health, scholarships, information and communications 
technology, transport, energy, disaster management, and the 
environment.
    An important benchmark under the Enhanced Partnership was the 
signing of the Plan of Action by Secretary Rice and ASEAN Foreign 
Ministers in July, 2006. The Plan of Action calls for the development 
and implementation of 164 actions and programs between ASEAN and the 
United States. Work has been completed or is ongoing on 127 of these 
items that are of importance to both ASEAN and the United States, such 
as:

The establishment of the ASEAN Wildlife Enforcement Network, which has 
        provided training to rangers, the judiciary, and policy 
        officials. Last month alone, five major seizures in ASEAN 
        countries of illegal wildlife and forestry products have 
        resulted from this training.
The first four participants in the ASEAN Fulbright Visiting Scholars 
        Program will begin their work in the United States in 
        September.
By the end of December 2007, 3,500 parliamentarians, prosecutors, 
        lawyers, judges, policy makers, regulators, enforcement 
        officers, and business persons from ASEAN have participated in 
        25 capacity-building and other training activities to improve 
        intellectual property rights administration and enforcement.
Workshops on industrial standards to increase understanding and 
        cooperation on this issue, which is of growing interest to both 
        governments and our private sector.
Training on disaster management which will help ASEAN officials respond 
        to natural and man-made disasters throughout the region.

    Another benchmark in the Enhanced Partnership and the Plan of 
Action was the conclusion of a Trade and Investment Framework 
Arrangement (TIFA) between the United States and ASEAN. USTR Ambassador 
Susan Schwab and ASEAN Economic Ministers signed the TIFA in August 
2006. The TIFA includes a work program to assist in developing the 
economic pillar of ASEAN's Community that is supported by USAID and the 
Department of State.


                              NOMINATIONS

                              ----------                              


                       WEDNESDAY, APRIL 16, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Callahan, Robert, to be the Ambassador to the Republic of 
        Nicaragua
Cianchette, Peter, to be the Ambassador to the Republic of 
        Costa Rica
Hodges, Heather, to be the Ambassador to the Republic of 
        Ecuador
Llorens, Hugo, to be the Ambassador to the Republic of Honduras
McFarland, Stephen, to be the Ambassador to the Republic of 
        Guatemala
Speck, Samuel, to be the Commissioner for the United States on 
        the United States-Canadian--United States-Canada 
        International Joint Commission
Stephenson, Barbara, to be the Ambassador to the Republic of 
        Panama
                              ----------                              

    The committee met, pursuant to notice, at 2:45 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
Dodd presiding.
    Present: Senators Dodd, Feingold, Menendez, Corker, 
Voinovich, and Isakson.
    Also Present: Senators Snowe, Collins, and Martinez.

         OPENING STATEMENT OF HON. CHRISTOPHER J. DODD,
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd. My apologies to our witnesses and others in 
the room. The voting gods always arrange for a vote to occur 
just about the time a hearing is supposed to start.
    So, I see my colleagues are here, as well, to introduce 
some of our witnesses. And I'll share a few opening comments 
quickly, and turn to my colleague from Tennessee, and then 
welcome our guests here, as well.
    So this morning, or this afternoon rather, this hearing on 
the Committee on Foreign Relations will come to order, and the 
committee meets to consider the nomination of seven individuals 
to assume key leadership positions of the administration in 
this hemisphere. There will be two panels at today's hearing.
    On the first panel we have four nominees. The President has 
nominated Robert Callahan to be the Ambassador to the Republic 
of Nicaragua, Heather Hodges to be the Ambassador to the 
Republic of Ecuador, Hugo Llorens to be the Ambassador to the 
Republic of Honduras, and Stephen McFarland to be the 
Ambassador to the Republic of Guatemala.
    On the second panel we have three nominees. The President 
has nominated Peter Cianchette--is that the correct 
pronunciation? Thank you very much--to be the Ambassador to the 
Republic of Costa Rica, Samuel Speck to be the Commissioner for 
the United States on the United States-Canadian--United States-
Canada International Joint Commission, and Barbara Stephenson 
to be the Ambassador to the Republic of Panama.
    So, I want to congratulate all of our nominees on your 
willingness to serve and congratulate you on being nominated by 
the President to be an ambassador.
    I also welcome my colleagues, Senator Collins, Senator 
Snowe, Senator Martinez--my good friend, as well, from 
Florida--who've joined us to introduce Mr. Cianchette and Mr. 
Llorens. In addition, I understand Mr. Voinovich will be here 
to introduce Mr. Speck.
    You are here, thank you, George. I'm sorry, I didn't see 
you there.
    Since the end of the cold war, United States foreign policy 
toward Central and South America has tended to focus narrowly 
on three issues: elections, trade, and drug programs. And while 
I understand and accept that these three focuses will need to 
remain very much components of any policy in the region, I 
believe that alone they have never been sufficient for bringing 
about the real holistic change that the hemisphere requires, 
that its people demand, and that serves the interest of the 
United States, as well.
    In the broadest sense, we need to see political development 
to include civil society, institution-building, social 
contracts, and of course, the rule of law. We must see beyond 
free trade as a panacea to Latin America's social and economic 
woes, and instead work as well to embrace holistic development, 
which should include not only trade, but also investment in 
infrastructure, education, public health, foreign aid, and 
direct investment. And we must no longer stay the course in our 
failed policies of drug eradication and demand reduction, 
rather we must create smarter, targeted antidrug programs, work 
to replace black-market economies with legitimate investment, 
and strengthen civilian law enforcement and justice 
institutions.
    I credit the administration with proposing the Merida 
Initiative to respond to concerns voiced by our neighbors and 
their request for aid in combating increasing drug trafficking 
and violence in Mexico and Central America. I support the 
spirit of Merida and I hope to work closely with our allies to 
make sure that we tackle these collective concerns.
    But in my view, the Merida Initiative will never fully 
succeed if we don't also work to put in place adequate 
institutions that can systematically address civil society 
institution-building, as well as corruption and the rule of 
law. Our Central America neighbors will need well-trained and 
equipped military forces to confront the most violent 
criminals. But I would strongly argue that the region also 
needs equally well-trained and equipped police and civilian 
authorities operating in a fair and impartial judicial system, 
to enforce and uphold the rule of law.
    And joining with our neighbors to combat these increasing 
problems, we must recognize that our neighbors are taking 
important steps to respond to the needs of their citizens, and 
they are doing so because they are closer than ever to 
completing the transition to stable, democratic, civil 
societies, one with social contracts who are tackling some of 
their society's most difficult problems.
    With the exception of Cuba, every nation in the Western 
Hemisphere has a democratically elected government. But many 
problems still persist as we all know, and inequality plagues 
our hemisphere, income and wealth disparities in Latin America 
are the worst in the world. Nicaragua, for example, is the 
second poorest country in our hemisphere. In the region, social 
and economic exclusion are rampant, fostering conditions in 
which political radicalism thrives and crime rates soar to six 
times greater than the rest of the world. As a result of these 
debilitating conditions, millions of Latin Americans have 
emigrated from the region to seek better opportunities for 
themselves and their families. Nearly 100 million people have 
left Latin America since World War II.
    Many countries, such as Guatemala and El Salvador, are 
struggling with impunity. Now given this duality, on the one 
hand, continuing challenges we face with poverty, impunity, 
crime, and violence, and on the other hand, democratic 
governments responding to their people's needs, the question 
seems to be how we in the United States will work to promote 
our mutual interest in partnership with our neighbors to the 
South, because a renewed relationship with a stronger, more 
prosperous, and democratic Latin America, that can handle its 
own political, social, and economic affairs is in everyone's 
interest, especially those of the United States.
    Nicaragua, Costa Rica, Ecuador, Honduras, Guatemala, and 
Panama are diverse countries with proud histories. Some face 
serious challenges with poverty and inequality, others with 
crime and violence, but all of these countries have democratic 
governments, and the United States must take the lead in 
engaging these neighbors, working in a respectful manner toward 
advancing our mutual interest in the broader sense.
    So I welcome all of you to the committee this afternoon, 
congratulate you again on being selected by our President to 
serve in these important posts. And I look forward to engaging 
and a good discussion with you this afternoon, along with my 
colleagues on these critical manners.
    Now, let me turn to my ranking subcommittee chair members, 
Senator Bob Corker of Tennessee for his opening statement, and 
then we'll turn to our fellow Senators who are here to present 
their witnesses.

                 STATEMENT OF HON. BOB CORKER,
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, thank you.
    And I too want to welcome, not only these public servants, 
but their families, who I can see have gathered in large 
numbers, and certainly our colleagues from the Senate who know 
them well and want to speak on their behalf. And as I look at 
where they're going, except for Mr. Speck, who I know is going 
to a different part of the world, I wonder how we functioned in 
Central and South America, but we're glad that, hopefully, your 
leadership is going to be in place. I certainly thank you for 
your dedication.
    There are a lot of challenges, as Chairman Dodd just 
alluded to, that are occurring right now in Central and South 
America. Both poverty, as was alluded to--we have a huge food 
crisis that's brewing because of, in some cases our own 
policies here--HIV/AIDS, certainly while there's been greater 
cooperation on the narcotics, certainly more progress needs to 
be made. Our Federal--our trade agreements, our free trade 
agreements, certainly we have some that need to be approved, 
and hopefully will take us even further down the road towards 
prosperity in South America.
    But there's no question, while there are challenges, it's a 
time of great opportunity, and I'm excited for each of you. I 
can see it in your eyes, you're excited about the task in front 
of you.
    I have just recently come from two trips to the part of the 
world you're going to be representing, and look forward to 
coming down many more times while you're in service. And again, 
I think we have a tremendous opportunity into the future in 
Central and South America. I'm thrilled to have people of your 
quality serving us there, and look forward to your testimony 
and confirmation.
    Senator Dodd. Thank you very, very much, Senator.
    We now have the opportunity to hear from our colleagues who 
are here this afternoon. I thank them for coming over. And what 
I want to do is ask all of our colleagues who are here to 
introduce their nominees, including the second panel as well. 
So, I know you have very busy afternoons in front of you here, 
I won't make you wait for the second panel as well to do that.
    So we'll begin with you, Senator Snowe, welcome, we're 
delighted to have you here with the committee, and the 
introduction of Peter Cianchette.

              STATEMENT OF HON. OLYMPIA J. SNOWE,
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you. Thank you, Mr. Chairman.
    Senator Dodd. That's good, the microphone works.
    Senator Snowe. Thank you very much, Mr. Chairman and 
Ranking Member Corker. And I want to express my appreciation, 
and I know along with my colleague Senator Collins, first of 
all for scheduling this timely hearing on the consideration of 
the President's nominee Peter Cianchette to be Ambassador to 
Costa Rica.
    It's certainly my distinct pleasure to be here, along with 
Senator Collins, to introduce Peter Cianchette as the next 
Ambassador to Costa Rica. He has been a good friend of mine for 
many years and is someone who I've had the utmost regard and 
highest esteem. I also want to welcome his family who's here 
today, his wonderful family, his exceptional wife, Carolyn, 
their two children, Evan and Maria, his parents, Bud and 
Priscilla, and his brother, Earl. I know that this is a proud 
moment for them as they look forward to a new chapter in 
Peter's dedication to his country.
    Mr. Chairman, and members of the committee, indisputably, 
Costa Rica is a pivotal ally of the United States in a vital 
and critical region. And we've had a history of close, 
friendly, and supportive relations based on respect for a 
democratic government, shared values, and human rights. The 
nomination of Peter Cianchette to serve as a preeminent 
diplomat in a Central American nation is an appropriate 
reflection of his intellect, his ability, and his commitment to 
public and private service.
    Peter brings a wealth of experience in solving problems and 
securing results, from both his tenure in the service in the 
Maine State Legislature from 1996 to 2000, and his extensive 
business background, both as--including his tenure as a senior 
executive of one of Maine's top manufacturing companies, as 
well as his leadership at the helm of his own company, 
Cianchette Enterprises.
    Peter comes from a tradition of public service. He's part 
of a family that has contributed tremendously to the State of 
Maine over the years. And Peter's own stellar record of 
combined public and private sector service speaks to his 
ability to ably and well represent the interest of the United 
States in Costa Rica.
    The United States and Costa Rica share growing concerns for 
the environment and seek to preserve Costa Rica's important 
tropical resources. Indeed, Costa Rica's primary foreign policy 
objective is the promotion of environmental sustainability, 
which is a lynchpin of United States-Costa Rican relations that 
resulted in 2007, the largest debt for nature swap to date, in 
which the United States forgave its debt in exchange for Costa 
Rica's pledge to preserve large swaths of wilderness.
    Peter brings an appreciation for these issues as our 
natural assets are a vital component of Maine's quality of 
life, with 90 percent of our land deforested, probably the only 
difference is that their forests weren't covered with more than 
180 inches of snow this winter, but I'm sure Peter could adapt 
to that. Moreover, Peter's understanding and appreciation of 
travel and tourism issues, as they are the life-blood of 
Maine's economy, are especially applicable in a country that is 
host up to 50,000 expatriate American citizens, including many 
retirees, as well as 700,000 American visitors annually.
    As someone who's devoted himself to the empowerment and 
well-being of young people in Maine, whether it's Director of 
the Greater Portland Big Brother/Big Sister of America, member 
of the Southern Maine Community College Foundation, or Director 
on the Board of the Make-A-Wish Foundation, or Yes to Youth, 
which is a charitable organization to prevent at-risk behavior 
in our young people, Peter will be right at home in a country 
whose emphasis on education has produced a remarkable 96 
percent literacy rate in universal public education.
    So, Mr. Chairman, Ranking Member Corker, and members of 
this committee, I know Peter is an individual of tremendous 
energy, enthusiasm, and dedication to our country and its 
finest principles, he's a person of the highest caliber, and I 
believe there is no question he will skillfully represent our 
nation's interest in this neighboring and critical region. So I 
want to commend the committee for his consideration. Thank you, 
Mr. Chairman.
    Senator Dodd. Thank you very much, Senator Snowe. That was 
a very generous introduction, and thank you for being with us.
    Senator Collins.

              STATEMENT OF HON. SUSAN M. COLLINS,
                    U.S. SENATOR FROM MAINE

    Senator Collins. Thank you, thank you, Mr. Chairman, 
Senator Corker. It's my privilege today to join Senator Snowe 
in presenting Peter Cianchette to this committee. We're very 
proud that he has been nominated to be our next Ambassador to 
Costa Rica.
    As Senator Snowe indicated, the United States and Costa 
Rica have a long history of friendship and cooperation. Mr. 
Cianchette is an outstanding choice to strengthen this 
relationship. With more than 20 years of business experience 
and public service, he has a proven ability to work 
cooperatively with others to achieve progress. As a dedicated 
community leader and civic activist, he has a long and 
distinguished record of using his talents to benefit others.
    As Senator Snowe mentioned, Peter served two terms in the 
Maine Legislature, he ably represented the people of South 
Portland and Cape Elizabeth. He has a long business record as 
well. He's been a partner in the Maine private investment firm 
known as CHK Capital Partners, and he's president of one of its 
portfolio companies. He's also the owner and president of the 
Cianchette Group, a public affairs management and business 
consulting firm. Prior to this, Peter served as the COO and 
executive vice president of Pierce Atwood Consulting. He 
previously had founded Cianchette Enterprises, which owned and 
operated a successful employee staffing, recruiting, and 
placement company. He also served, previously, as senior 
executive in one of Maine's manufacturing firms, the Dragon 
Products Company, a leading manufacturer of cement and 
concrete, and a subsidiary of the largest cement producer in 
Spain.
    I mention this, in particular, because I know the chairman 
is always concerned about language capabilities and skills. In 
that position, Mr. Cianchette participated in meetings 
conducted in Spanish, and he is continuing to perfect his 
command of that language. I know that skill's going to be an 
invaluable asset in the position to which he's been nominated.
    Mr. Cianchette's impressive business resume is exceeded 
only by his commitment to community service. I won't repeat the 
long list of community organizations, which Senator Snowe has 
already alluded to. But suffice it to say, that whenever a 
community group needs a strong leader, they turn to Peter 
Cianchette, and he always answers the call.
    He is also a graduate of the University of Maine, and with 
his wife Carolyn, the proud parents of two children. There's 
one particular aspect of Peter's public service that I believe 
deserves special mention. His service in the Maine Legislature 
and his political campaigns have always been marked by 
civility, decency, and integrity. He is one of those rare 
elected officials who has opponents, but does not have enemies. 
He is able to work with people across party lines. These 
character traits have been evident in his business endeavors 
and in his community service, and they will serve our nation 
well if he is confirmed for this diplomatic position.
    Mr. Chairman, Senator Corker, members of the committee, I 
strongly endorse Peter Cianchette's nomination to be our next 
Ambassador to Costa Rica, and I join Senator Snowe in 
enthusiastically recommending him for your favorable 
consideration.
    Thank you very much.
    Senator Dodd. Thank you very much, Senator Snowe.
    You've got a very high bar to climb over now, Peter. I tell 
you, you better be very good in your remarks, given that 
wonderful introduction. And truth in advertising, of course I 
think both Senator Snowe and Senator Collins are where my 
brother Tom was the Ambassador of Costa Rica a number of years 
ago and had the privilege of visiting him on numerous 
occasions, and so it's more than just a passing familiarity 
with the country. And so, we look forward to hearing from you 
shortly.
    Senator Martinez, welcome.

                STATEMENT OF HON. MEL MARTINEZ,
                   U.S. SENATOR FROM FLORIDA

    Senator Martinez. Thank you, Mr. Chairman, thank you, 
Senator Corker, and members of the committee. I'm really 
delighted today to have the opportunity to be here to introduce 
Hugo Llorens, the former Deputy Chief of Mission to the United 
States Embassy in Madrid, and a Floridian.
    Hugo, like myself, shares an immigrant background to this 
country, and in one of those poignant coincidences that I like 
to think as, only in America, he came to the United States 46 
years ago precisely today, on April 16th of 1962.
    The President nominated him to serve as Ambassador to 
Honduras, and I know he's got a long list of accomplishments, 
but I want to speak about Mr. Llorens in terms of my own 
experience with him. I've been in Madrid when he was DCM there 
and I've also been to Buenos Aires when he was DCM there. And I 
have had the opportunity to work with him and see his work 
firsthand and up and close and personal.
    I know he could play a key role in our strong relations 
with Honduras during his critical time there. Through a $215 
million compact with the Millennium Challenge Corporation, the 
United States is supporting Honduras' efforts to reduce poverty 
and improve its citizens' quality of life. Successful 
implementation of this compact will help to consolidate the 
gains already made with the help of the Central America Free 
Trade Agreement.
    And I totally agree with the chairman's comments about 
having to have a much broader approach to Latin America than 
free trade and democratic institutions. Those are great and we 
have to continue that commitment, but it is broader than that 
and I think the MCC is one great way to broaden that. I think 
that Mr. Llorens has that kind of understanding of the balance 
that we have to bring in our foreign policy to all of those 
issues.
    He has a long--life-long commitment to serving our Nation 
and serving our Nation's interest abroad. He's been in four 
different continents and I just want to note that he has, in 
fact, received some wonderful accolades for his work. He has 
earned three superior and six meritorious awards. He is a past 
recipient of the prestigious Cobb Award for excellence in 
promoting of U.S. business and trade policy, and was runner-up 
for the Saltsman Award for distinguished performance in 
advancing U.S. international economic interest, and was also 
the runner-up for the James Baker Award for the best DCM.
    Hugo, I know, as all of the folks here today, not only does 
this job, but they do it as a team with family members. 
Lisetee, his wife, is here. She has been with him through all 
the steps of his distinguished career in the Foreign Service of 
our Nation.
    And so, I am delighted to be here today. And with a total 
passion and endorsement of Hugo Llorens to be Ambassador to the 
Republic of Honduras, and commend him to the committee, and 
thank you for allowing me this opportunity.
    Senator Dodd. Thank you very much, Senator, and appreciate 
your being at the table to introduce Mr. Llorens.
    George Voinovich, our colleague from Ohio, has got a 
statement to make.
    Senator Voinovich. Mr. Chairman----
    Senator Dodd. Thank you all very much, and Senators are 
excused. We won't have any questions for you here today. 
[Laughter.]
    Tempting, tempting, but----
    [Laughter.]

             STATEMENT OF HON. GEORGE V. VOINOVICH,
                     U.S. SENATOR FROM OHIO

    Senator Voinovich. Thank you, Senator Dodd, Senator Corker. 
I'm pleased to be here today, especially because Dr. Sam Speck 
has been nominated to the International Joint Commission.
    Sam has an outstanding academic record, graduated from 
Harvard, got his Ph.D. from Harvard, and the was the President 
of Muskingum College for many years, served as a State 
Representative, State Senator, and his last position was the 
position as Director of the Department of Natural Resources in 
Ohio.
    Sam and I met when we were State reps together and worked 
on the creation of the Ohio Environmental Protection Agency, 
and passed the Mine Reclamation Act that served as a model to 
many States throughout the country. And during the years since 
then, we've stayed in touch with each other, and more recently 
we've spent a lot more time together when he was Director of 
the Department of Natural Resources.
    In that position, as Director of the Ohio Department of 
Natural Resources, he served as chairman of the Council of 
Great Lakes Governors Water Management Working Group, which 
helped lead the development of the Great Lakes Annex Agreement 
and the Great Lakes Water Management Compact. This effort 
brought together the eight Great Lake States and Canadian 
provinces of Ontario and Quebec to devise a strategy to 
cooperatively manage the waters of the Great Lakes. Sam's work 
on the Great Lakes Water Management Initiative exemplifies his 
ability to work impartially for the best outcome to manage and 
protect our waters.
    He's committed to preserving the Great Lakes and has served 
on a variety of Great Lakes commissions and councils. He works 
well with and is respected by a variety of interests to use our 
waters, with his more than 30 years of public service as well 
as his commitment to making our State of Ohio a better place to 
work and live. I believe that Sam would bring a great deal of 
knowledge, background, and expertise to the commission.
    I'd like to also, Mr. Chairman, ask that two statements, 
one from Governor Strickland from Ohio and one from Senator 
Sherrod Brown, be submitted for the record.[The statements 
referred to above appear in the ``Additional Material Submitted 
for the Record'' section at the end of this hearing.]
    Senator Dodd. They'll be included.
    Senator Voinovich. They both strongly support Sam's 
nomination to the Great Lakes Commission.
    [The prepared statement of Senator Voinovich follows:]

            Prepared Statement of Hon. George V. Voinovich,
                         U.S. Senator From Ohio

    Good morning. I am pleased that this committee is holding today's 
hearing on all of these nominees, and I am particularly pleased to see 
Dr. Sam Speck's here today. I have worked with Sam for many years on 
projects in Ohio, and I strongly support his nomination to the 
International Joint Commission.
    Many rivers and lakes lie along or across the border between the 
United States and Canada. The 1909 Boundary Waters Treaty had the 
foresight to establish the International Joint Commission to help solve 
problems and resolve disputes in these shared waters. Canada and the 
United States recognized that each country is affected by the other's 
actions on boundary waters. Our two countries cooperate to manage these 
waters wisely and to protect them for the benefit of both of our 
citizens and future generations. Commissioners are governed by the 
requirements of the Boundary Waters Treaty. They are impartial and work 
toward the interests of the shared boundary waters.
    Sam has had a long history of working on a portion of the United 
States and Canadian boundary waters--the Great Lakes. In his most 
recent position as the Director of the Ohio Department of Natural 
Resources, Sam served as the Chair of the Council of Great Lakes 
Governors' Water Management Working Group which helped to lead the 
development of the Great Lakes Annex Agreement and the Great Lakes 
Water Management Compact. This effort brought together the eight Great 
Lakes States and Canadian Provinces of Ontario and Quebec to devise a 
strategy to cooperatively manage the waters of the Great Lakes. Sam's 
work on the Great Lakes Water Management initiative exemplifies his 
ability to work impartially for the best outcome to manage and protect 
our waters.
    He is committed to preserving the Great Lakes and has served on a 
variety of Great Lakes commissions and councils. He works well with and 
is respected by the variety of interests who use our waters. With his 
more than 30 years of public service, as well as his commitment to 
making our State of Ohio a better place to work and live, I believe 
that Sam would bring a great deal of knowledge, background, and 
expertise to the commission.

    Senator Dodd. Well, thank you very, very much.
    You are welcome, if you want to spread out a little bit. I 
know you're all going to be close to each other in the years 
ahead, but if you want breathing room there.
    And then what I'll do is, Mr. Llorens, I want to begin with 
you and then go to Ms. Hodges and Mr. Callahan and Mr. 
McFarland. If you could, I'd like you to try and keep you 
remarks to about 5 minutes or so. I'm not going to bang down 
the gavel, obviously, but you understand that. I know the 
members would like to maybe raise some questions with you. And 
any other supporting documents or information you think would 
be helpful for the committee to consider during the nomination 
process--we're happy to include those in the record as well.
    And I know they've done this already to some degree, but I 
thought, Mr. Llorens, I think these are special moments, and 
I'm sure you'll make reference, all of you will, to your family 
and friends who've gathered here as well, but I always like to 
welcome them to the committee. This is a very important moment, 
to be nominated to be an ambassador to represent our country, 
is a very special moment.
    I've been involved in this committee for 27 years and I 
still find that one of the best jobs of all is to have a 
confirmation hearing for people to serve. And I always love the 
fact that people bring their families with them, as well. I 
don't know if you have any here, and if you do, we're happy to 
have them recognized.

  STATEMENT OF HUGO LLORENS, NOMINEE TO BE AMBASSADOR TO THE 
                      REPUBLIC OF HONDURAS

    Mr. Llorens. Yeah, I'd like to--thank you, Mr. Chairman, 
Ranking Member Corker, Senators. I'm truly honored to appear 
before you as President Bush's nominee to serve as United 
States Ambassador to Honduras. I'm deeply grateful for the 
trust and confidence President Bush and Secretary Rice have 
placed in me. If confirmed, I look forward to working with 
members of this committee and Congress, as appropriate, to 
advance United States interests in Honduras.
    I would like to take a moment, Mr. Chairman, to acknowledge 
my wife, Lisetee. She has been my life partner for 25 years----
    Senator Dodd. Would you stand up and be recognized. 
Welcome.
    Mr. Llorens [continuing]. And she has been a dedicated 
representative of our country in seven overseas postings. My 
son, Andrew, a student at Loyola University in New Orleans, and 
Dirk, who is living with us in Madrid, could not be here today. 
But I consider myself fortunate to have my family's constant 
love and support.
    I came to this great Nation with my family 46 years ago as 
a 7-year-old Cuban refugee. We arrived with a suitcase in hand 
and a buffalo nickel in our pocket, but we knew we were richly 
blessed by America's freedoms. We worked hard and an 
unquenchable faith in America, as the land where dreams come 
true. It is difficult to convey in words how proud I am to have 
been given an opportunity to serve my adopted land these many 
years, and what a profoundly humbling experience it is to be in 
the presence of this committee today.
    I've been a career Foreign Service officer----
    Senator Dodd. The record wants to know, as I heard, it was 
46 years ago today.
    Mr. Llorens. Today, today.
    Senator Dodd. What better way to celebrate that 
anniversary.
    Mr. Llorens. Thank you, Mr. Chairman.
    I've been a career Foreign Service officer for 27 years. 
I'm a Latin American hand by trade, having served in 
challenging assignments in Bolivia, Paraguay, El Salvador, 
Honduras, and most recently as DCM in Argentina. In the 4 years 
I served in Honduras, I traveled the length and breadth of the 
country and I know the land and its people. I've had the 
privilege of working Latin American issues in Washington at the 
State Department and at the NSC. In my current posting as DCM 
in Spain, our embassy coordinates actively on Latin America 
with our Spanish counterparts.
    If confirmed, I will bring both the regional and executive 
experience to lead our diplomatic team in Honduras.
    Honduras has been a faithful and long-standing friend of 
the United States. This year, Honduras will celebrate its 28th 
year of unbroken civilian and constitutional rule, and will 
hold elections for a new president in November 2009. The U.S. 
mission I hope to lead will work closely with the current and 
future government in the spirit of friendship, cooperation, and 
respect.
    Our hemispheric policy is based on consolidating democracy, 
promoting prosperity, investing in people, and protecting the 
security of the democratic state. Our key issues in Honduras 
include the rule of law and good governance, regional security, 
and economic development.
    If I am confirmed, I will make the safety and security of 
United States citizens living and visiting Honduras a top 
priority. I will support our common efforts to dismantle 
narcotics and human trafficking organizations. I will work to 
increase economic opportunities and enable democracy to address 
the dramatic social obstacles Honduras faces, especially 
poverty and marginalization, which contribute to insecurity. 
Criminal organizations and gangs threaten our neighbors, and it 
is in our national interest to strengthen the capabilities of 
the Honduran police and security forces.
    If approved, the Merida Initiative will be a multifaceted 
tool to partner with our Central American allies to build a 
regional strategy against crime and terrorism. In addition, I 
will support Honduran initiatives to revitalize the judicial 
system and ensure that the fight against lawlessness and 
impunity is done in full adherence to the law and respect for 
individual human rights.
    If confirmed, I will support the Millennium Challenge 
Corporation's compact, signed in 2005, that provides Honduras 
$215 million for building roads and enhancing rural 
development. I will also seek to deepen two-way trade and 
investment derived from CAFTA, promote U.S. business, and 
protect U.S. property rights.
    We have a strong record of programs with the Honduran 
people thanks to the work of USAID and the Peace Corps, as well 
as many public/private partnerships with United States 
organizations. I will vigorously support these supports and all 
efforts to deepen our engagement with the Government and people 
of Honduras.
    I would also encourage committee members and staff to visit 
Honduras. When U.S. Senators and staff travel overseas, we're 
given an enormous opportunity to advance our bipartisan agenda 
with our democratic partners. If confirmed, I look forward to 
welcoming the members of this committee and other Senators and 
Congresspersons.
    Mr. Chairman, members of the committee, thank you again for 
granting me the honor of appearing before you today, and 
respectfully ask for you favorable consideration of my 
nomination. I pledge to you that I will work hard and to the 
best of my ability in Honduras to represent our great Nation. 
Thank you very much.
    [The prepared statement of Mr. Llorens follows:]

           Prepared Statement of Hugo Llorens, Nominee to be 
                 Ambassador to the Republic of Honduras

    Mr. Chairman, Ranking Member Lugar, Senators, I am truly honored to 
appear before you as President Bush's nominee to serve as United States 
Ambassador to Honduras. I am deeply grateful for the trust and 
confidence President Bush and Secretary Rice have placed in me. If 
confirmed, I look forward to working with the members of this committee 
and the Congress as appropriate to advance United States interests in 
Honduras.
    I would like to take a moment, Mr. Chairman, to acknowledge my 
wife, Lisett. She has been my life partner for 25 years and a dedicated 
representative of our country in seven overseas postings. My son, 
Andrew, a student at Loyola University in New Orleans, and Dirk, who is 
living with us in Madrid, could not be here today. I consider myself 
fortunate to have my family's constant love and support.
    I came to this great Nation with my family 46 years ago as a 7-
year-old Cuban refugee. We arrived with a suitcase in hand and a 
buffalo nickel in our pocket, but knew we were richly blessed by 
America's freedoms. We worked hard and had an unquenchable faith in 
America as the land where dreams come true. It is difficult to convey 
in words how proud I am to have been given an opportunity to serve my 
adopted land these many years and what a profoundly humbling experience 
it is to be in the presence of this committee today.
    I have been a career Foreign Service officer for 27 years. I am a 
Latin America hand by trade, having served in challenging assignments 
in Bolivia, Paraguay, El Salvador, Honduras, and most recently as DCM 
in Argentina. In the 4 years I served in Honduras, I traveled the 
length and breadth of the country and I know the land and its people. 
I've had the privilege of working Latin America issues in Washington at 
State and the NSC. In my current posting as DCM in Madrid, I am well 
grounded on European perspectives on Latin America and our embassy 
cooperates on these issues with our Spanish counterparts. If confirmed, 
I will bring both the regional and executive experience to lead our 
diplomatic team in Honduras.
    If I am confirmed, a top priority will be the security of the 7,000 
American residents in Honduras and the 60,000 who travel to the country 
each year. This begins with the safety of our embassy staff and their 
families and the service men and women who work with our Honduran hosts 
at the Soto Cano air base.
    Honduras has been a faithful and longstanding friend of the United 
States. This year, Honduras will celebrate its 28th year of unbroken 
civilian and constitutional rule and will hold elections for a new 
President in November 2009. The U.S. mission I hope to lead will work 
closely with the current and future government in a spirit of 
friendship, cooperation, and respect.
    Our hemispheric policy is based on consolidating democracy, 
promoting prosperity, investing in people, and protecting the security 
of the democratic state. Our key issues in Honduras include the rule of 
law and good governance, regional security, and economic development.
    If confirmed, I will support our common efforts to dismantle 
narcotics and human trafficking organizations. I will work to increase 
economic opportunities and enable democracy to address the dramatic 
social obstacles Honduras faces, especially poverty and marginalization 
that contribute to insecurity. Criminal organizations and gangs 
threaten our neighbors and it is in our national interest to strengthen 
the capabilities of the Honduran police and security forces. If 
approved, the Merida Initiative will be a multifaceted tool to partner 
with our Central American allies to build a regional strategy against 
crime and terrorism. In addition, I will support Honduran initiatives 
to revitalize the judicial system and ensure that the fight against 
lawlessness and impunity is done in full adherence to the law and 
respect for individual human rights.
    If confirmed, I will support Honduran efforts to take full 
advantage of the Millennium Challenge Corporation's compact signed in 
2005 that provides $215 million for building roads, as well as 
promoting rural development. I also will seek to deepen the two-way 
trade and investment flows derived from the CAFTA-DR. We have a solid 
record of programs with the Honduran people thanks to the work of USAID 
and the Peace Corps, which has one of the largest programs in the world 
in Honduras. We also have many public-private partnerships with U.S. 
organizations. I will vigorously support these programs and all efforts 
to deepen our engagement with the Government and people of Honduras.
    I would also encourage committee members and staff to visit 
Honduras. When U.S. Senators and staff travel overseas, we are given an 
enormous opportunity to advance our bipartisan agenda with our 
democratic partners. If confirmed, I will look forward to welcoming the 
members of this committee and other Senators and Congresspersons to 
Tegucigalpa.
    Mr. Chairman, members of the committee, thank you again for 
granting me the honor of appearing before you today and respectfully 
ask for your favorable consideration of my nomination. I pledge to you 
that I will work hard and to the best of my ability in Honduras to 
represent our great Nation.
    Thank you very much.

    Senator Dodd. Thank you very much.
    Ms. Hodges, welcome, good to have you with us.

STATEMENT OF HEATHER M. HODGES, NOMINEE TO BE AMBASSADOR TO THE 
                      REPUBLIC OF ECUADOR

    Ambassador Hodges. Mr. Chairman and members of the 
committee, I'm honored and privileged to appear before you 
today to consider my nomination as Ambassador of the United 
States to Ecuador. I deeply appreciate the confidence and trust 
that President Bush and Secretary Rice have placed in me.
    If confirmed by the Senate, I would look forward to working 
closely with this committee, along with your colleagues in the 
full Congress, to advance United States interest in Ecuador.
    I bring to this assignment nearly 28 years of Foreign 
Service experience. Much of my career has been spent in 
countries dealing with the challenges of developing and 
strengthening democracies. At the moment, I am honored to serve 
as Principal Deputy Assistant Secretary in the Office of the 
Director General of the Foreign Service and Bureau of Human 
Resources in Washington, DC. Previously, I served as United 
States Ambassador to Moldova and worked overseas in Venezuela, 
Guatemala, Nicaragua, Peru, and Spain.
    Historically, the United States and Ecuador have been close 
partners in combating narcotics trafficking, fighting 
corruption, and fostering economic development. We share a 
common vision of a democratic and prosperous hemisphere that 
provides opportunities for all its citizens.
    Ecuador is known as a nation of great natural beauty, a 
nation of tremendous natural resources and biodiversity, a 
country of peace whose people and diverse cultures are its 
greatest strengths.
    The people of Ecuador are committed to building stronger, 
more transparent institutions. The United States stands ready 
to assist them in reaching that goal through continued 
engagement that reinforces our hemispheric commitment to 
constitutional democracy, strong and inclusive institutions, 
respect for the rule of law, the war on drugs, and greater, 
more widely shared economic prosperity. If confirmed, 
supporting these objectives would be among my highest 
priorities.
    The United States is concerned about the destabilizing 
effects of the revolutionary armed forces of Columbia, FARC, on 
the Andean region. Ecuador's fight against drug trafficking and 
FARC incursions along the northern border, combined with its 
efforts to bolster alternative development in the region is 
crucial for United States interests.
    Another priority in the United States-Ecuador relationship 
is support for economic development and poverty reduction. 
United States trade and economic growth assistance to Ecuador 
focuses on technical assistance, training, outreach, financial 
support for free and open markets, and poverty reduction.
    As in most countries, Ecuador also holds both challenges 
and opportunities for United States investors. I was pleased to 
learn that Ecuador and Occidental Petroleum recently reached an 
agreement on payment of an arbitral award in a long-standing 
investment dispute, and are together addressing another 
dispute. If confirmed, I look forward to continuing our efforts 
to promote United States exports and commercial interests, 
while encouraging Ecuadorian economic development.
    Lastly, there are approximately 20,000 American citizens 
living in Ecuador and another 150,000 visit the country every 
year. Protecting U.S. citizens is the first responsibility of 
any ambassador and, if confirmed, I will ensure that the 
embassy in Quito and our Consulate General in Guayaquil 
continue to provide a high level of service and attention to 
our citizens.
    I thank you for the opportunity to share my thoughts about 
the United States relationship with Ecuador and I'm happy to 
answer to answer any questions.
    [The prepared statement of Ambassador Hodges follows:]

        Prepared Statement of Heather M. Hodges, Nominee to be 
                 Ambassador to the Republic of Ecuador

    Mr. Chairman and members of the committee, I am honored and 
privileged to appear before you today to consider my nomination as 
Ambassador of the United States to Ecuador. I deeply appreciate the 
confidence and trust that President Bush and Secretary Rice have placed 
in me. If confirmed by the Senate, I would look forward to working 
closely with this committee, along with your colleagues in the full 
Congress, to advance United States interests in Ecuador.
    I bring to this assignment nearly 28 years of Foreign Service 
experience. Much of my career has been spent in countries dealing with 
the challenges of developing and strengthening democracies. At the 
moment, I am honored to serve as Principal Deputy Assistant Secretary 
in the Office of the Director General of the Foreign Service and Bureau 
of Human Resources in Washington, DC. Previously, I served as United 
States Ambassador to Moldova and worked overseas in Venezuela, 
Guatemala, Nicaragua, Peru, and Spain. I have been especially 
privileged to work for and with extremely talented people at the 
Department of State in the Foreign and Civil Service, as well as with 
our very committed locally employed staff. I would also like to point 
out that I completed a Pearson Fellowship in the Senate 20 years ago, 
an experience I still remember fondly and for which I will always be 
grateful. If confirmed, I hope that all of these experiences and 
influences in my life will make me an effective ambassador to Ecuador.
    Historically, the United States and Ecuador have been close 
partners in combating narcotics trafficking, fighting corruption, and 
fostering economic development. We share a common vision of a 
democratic and prosperous hemisphere that provides opportunities for 
all its citizens. The United States is the most important source of 
Ecuador's imports and in turn the primary market for Ecuador's exports. 
Furthermore, Ecuador is known as a nation of great natural beauty, a 
nation of tremendous natural resources and biodiversity, and a country 
of peace whose peoples and diverse cultures are its greatest strength.
    These are challenging yet promising times for Ecuador. Since the 
election of President Rafael Correa in 2006, the country's eighth 
president in 10 years, there has been strong popular support for a new 
constitution. A constituent assembly was elected in September of last 
year and has taken up the charge of creating a new constitution, and 
the people of Ecuador are committed to building stronger, more 
transparent institutions. The United States stands ready to assist them 
in reaching that goal through continued engagement that reinforces our 
hemispheric commitment to constitutional democracy, strong and 
inclusive institutions, respect for the rule of law, the war on drugs, 
and greater, more widely shared economic prosperity. If confirmed, 
supporting these objectives will be among my highest priorities.
    The United States is concerned about the destabilizing effects of 
the Revolutionary Armed Forces of Colombia (FARC) on the Andean region, 
and we support regional efforts to eliminate narco terrorism and 
achieve a lasting peace. Ecuador's fight against drug trafficking and 
FARC incursions along the northern border, combined with its efforts to 
bolster alternative development in that region, is crucial for U.S. 
interests. As a result of an increased presence on the northern border, 
Ecuador in 2007 was able to destroy three multi-ton cocaine 
laboratories, eradicated several multi-hectare coca plots near the 
Colombian border, and reported a record number of land-based drug 
seizures. Also in 2007, Ecuador unveiled ``Plan Ecuador,'' which is an 
integrated approach to northern border security and development aimed 
at countering the influence of Colombian terrorists and 
narcotraffickers on Ecuador. If confirmed, I will continue our robust 
support for Ecuador's counternarcotics efforts.
    Another priority in the United States-Ecuador relationship is 
support for economic development and poverty reduction. Supported by 
favorable global conditions, Ecuador's economic performance in recent 
years has been strong. Between 2000 and 2007, per capita GDP more than 
doubled to $3,270, while poverty rates fell. United States trade and 
economic growth assistance to Ecuador focuses on technical assistance, 
training, outreach, and financial support for free and open markets, 
competitiveness and poverty reduction. Among our projects is one 
focusing on microenterprises. Approximately one million people in 
Ecuador--nearly 25 percent of the workforce--work in microenterprises. 
Helping microenterprises grow contributes to poverty reduction and 
economic growth. Thanks in large part to United States assistance, 
Ecuador now has the fastest growing microfinance sector in all of Latin 
America. The Andean Trade Preference Act (ATPA), enacted in 1991 and 
extended three times by the Congress in the last year-and-a-half, 
remains a powerful tool. It has strengthened economic ties between our 
two countries and helped Ecuador create new, world-competitive 
businesses such as its flower industry. The Government of Ecuador 
estimates ATPA has generated over 300,000 jobs.
    Ecuador is an important trading partner for the United States. As 
in most countries, Ecuador also holds both challenges and opportunities 
for United States investors. I was pleased to learn that Ecuador and 
Occidental Petroleum recently reached agreement on payment of an 
arbitral award in a long-standing investment dispute and are together 
addressing another dispute. If confirmed, I look forward to continuing 
our efforts to promote United States exports and commercial interests 
while encouraging Ecuadorian economic development.
    Lastly, there are approximately 20,000 American citizens living in 
Ecuador, and another 150,000 Americans visit every year. Protecting 
United States citizens is the first responsibility of any ambassador, 
and, if confirmed, I will ensure that the Embassy in Quito and our 
Consulate General in Guayaquil continue to provide a high level of 
service and attention to our citizens. Our diplomatic representation in 
Ecuador includes 11 United States agencies with 155 Americans and 266 
locally employed staff. In addition, the Peace Corps has a contingent 
of over 150 volunteers throughout the country. Providing an appropriate 
and secure work place for our employees is a critical requirement. To 
that end, the State Department will soon be opening a new chancery in 
Quito, a notable accomplishment under Ambassador Jewell's leadership.
    I thank you again for the opportunity to share my thoughts about 
the United States relationship with Ecuador. If confirmed, I look 
forward to working with you closely, and welcome the opportunity to 
host you and other interested members of Congress in Quito. I am happy 
to answer any questions you may have.

    Senator Dodd. Thank you very, very much, Ms. Hodges.
    Mr. Callahan, welcome.
    I should have said Ambassador Hodges, by the way. I 
apologize.

 STATEMENT OF ROBERT J. CALLAHAN, NOMINEE TO BE AMBASSADOR TO 
                   THE REPUBLIC OF NICARAGUA

    Mr. Callahan. Thank you, Mr. Chairman.
    If I may, I'd like to begin by introducing a few of my 
family members who are here. My wife of 31 years, Debbie, who 
has been my closest confidante in 28 years in the Foreign 
Service, our younger son, Emmett, his older brother, our oldest 
son, Andrew, is living and working in New York and couldn't be 
here today, my nephew, Tim Morrison, is also here, as are a few 
of my students from George Washington University, all of them 
very bright young men and women who are keenly interested in 
the government and in foreign policy.
    Senator Dodd. Why don't they stand up and be recognized, 
you probably got half the room here. [Laughter.]
    The Callahans. Welcome all of you, nice to have you with 
us.
    Mr. Callahan. Thank you, Mr. Chairman, members of the 
committee. It is an honor to appear before you today as the 
President's nominee to be the United States Ambassador to 
Nicaragua. I am profoundly grateful to President Bush and 
Secretary of State Rice for the confidence they have placed in 
me. If confirmed, I look forward to working with the members of 
this committee and your colleagues in the Congress to promote 
our policies in Nicaragua and when appropriate, throughout the 
region.
    Should I be confirmed, this will be my eighth overseas 
assignment and my fourth posting to Latin America, but my first 
since I left Bolivia in 1992. As someone who has developed a 
keen appreciation of Latin American culture, the Spanish 
language, and the profession of diplomacy, I eagerly welcome 
the assignment.
    I also think that my varied career with the State 
Department, which has taken me from the diverse cultures of 
Bolivia to the center of the former Muslim Caliphate in 
Baghdad, from the enduring charms of San Jose and Tegucigalpa 
to the imperial legacies of London, Athens, and Rome, has 
provided me with the experience to lead effectively our mission 
in Managua, should the Senate confirm me.
    I am no stranger to challenging assignments and I do think 
that Nicaragua will prove to be just that. There is, to begin 
with, what T.S. Eliot called ``the persistence of memory,'' 
which of course, is not unique to Nicaragua. I would never 
suggest that we should ignore history, just that our thought 
and actions should not become hostage to the past. There are 
too many common interests between the United States and 
Nicaragua, too many problems that require our mutual attention, 
resources, and energy, to dwell on what we might have done to 
each other decades or even centuries ago. Acknowledge to be 
sure, and learn from it, but then move on.
    Every member of this committee and every American who reads 
the paper or watches the news has recently come across 
intemperate words directed against the United States from 
certain Latin American countries, and unfortunately, Nicaragua 
has, at times, been among them. This kind of rhetoric can 
sting, even wound, and national leaders should always be 
prudent in their language and measured in their criticism. That 
said, and much to our credit, the United States has paid more 
attention to Nicaraguan deeds than words, and this would seem 
to be the right approach.
    Our commitment to the Western Hemisphere, to help in 
consolidating democracy, promoting prosperity, investing in 
people, and protecting the security of the democratic state is 
no where more in evidence than in Nicaragua. Working closely 
with Nicaraguans from the government, police, and military, 
from business and labor, and from charitable and religious 
organizations, we have achieved some notable successes on a 
range of issues. Through the Millennium Challenge account, our 
bilateral aid, the Central American Free Trade Agreement, and 
other initiatives, we have helped Nicaraguans develop their 
economy.
    When Hurricane Felix devastated the country's north coast 
last year, we provided over $15 million in immediate 
assistance. In the fight against drugs, our two countries have 
worked together to seize more than 3 metric tons of cocaine so 
for this year, which follows a seizure of 13 metric tons last 
year. If confirmed, I will continue to support our efforts to 
build a strong, sustainable, and mutually beneficial 
partnership with Nicaragua, and I will regard as my most 
important responsibility, the protection of American citizens.
    Our official presence in Nicaragua includes representatives 
from a dozen agencies of the Federal Government, as well as 165 
Peace Corps volunteers, all doing extraordinary work under 
difficult conditions. I will endeavor, as my predecessors have 
done, to provide a high level of service to American citizens 
living in and visiting Nicaragua. In addition, and should I be 
confirmed, I would eagerly welcome your visiting, which would 
provide excellent opportunities to engage Nicaraguans at every 
level.
    Mr. Chairman, members of the committee, I recognize that 
there are many challenges in further developing our 
relationship with Nicaragua. If confirmed, I will work to 
promote U.S. interest and develop a partnership with the 
government and people of that beautiful country. Thank you for 
this opportunity to appear before your committee. I would be 
pleased to answer any questions you might have.
    [The prepared statement of Mr. Callahan follows:]

        Prepared Statement of Robert J. Callahan, Nominee to be 
                Ambassador to the Republic of Nicaragua

    Mr. Chairman and members of the committee, it is an honor and 
pleasure to appear before you today as the President's nominee to be 
the United States Ambassador to Nicaragua. I am profoundly grateful to 
President Bush and Secretary of State Rice for the confidence they have 
placed in me. If confirmed, I look forward to working with the members 
of this committee and your colleagues in the Congress to promote our 
policies in Nicaragua and, when appropriate, throughout the region.
    If I may, I would like to take a moment to introduce several 
people. First, my wife, Debbie, who has been my life partner for over 
30 years and my closest confidante during 28 years in the Foreign 
Service and who, if I am confirmed, will give up her job and accompany 
me once again on a foreign assignment; next, my younger son, Emmett, 
who spent all but 3 years of his youth abroad as I served in various 
cities on two continents, as did his older brother, Andrew, who is 
living in New York and couldn't be here today; and, finally, a number 
of my current and former students from George Washington University, 
who have come to the hearing to witness this committee discharge its 
constitutional responsibilities.
    If confirmed, this will be my eighth overseas assignment and my 
fourth posting to Latin America, but my first since I left Bolivia in 
1992. As someone who has developed a keen appreciation of, and a 
genuine affection for, Latin American culture, the Spanish language, 
and the profession of diplomacy, I eagerly welcome the assignment.
    I also think that my varied career with the State Department, which 
has taken me from the diverse cultural expressions of Bolivia to the 
former center of the great Muslim caliphate in Baghdad, from the 
enduring charms of San Jose and Tegucigalpa to the imperial radiance of 
London, Athens, and Rome, has provided me with the experience and 
knowledge to lead effectively our mission in Managua, should the Senate 
confirm me.
    I am no stranger to challenging assignments, and I do think that 
Nicaragua will prove to be just that. There is, to begin with, what 
T.S. Elliot called ``the persistence of memory,'' which of course is 
not unique to Nicaragua. I would never suggest that we should ignore 
history; just that our thoughts and actions should not become hostage 
to the past. There are too many common interests between the United 
States and Nicaragua, too many problems that require our mutual 
attention, resources, and energy, to dwell on what we might have done 
to each other decades or even centuries ago. Acknowledge it, to be 
sure, and learn from it, but then move on.
    Every member of this committee, and every American who reads a 
paper or watches the news, has recently come across intemperate words 
directed against the United States from certain Latin American 
countries, and unfortunately Nicaragua has at times been among them. 
This kind of rhetoric can sting, even wound, and national leaders 
should be prudent in their language, measured in their criticism. That 
said, and much to our credit and forbearance, the United States has 
paid more attention to Nicaraguan deeds than words, and this would seem 
to be the right approach.
    Our commitment to the Western Hemisphere--consolidating democracy, 
promoting prosperity, investing in people, and protecting the security 
of the democratic state--is nowhere more in evidence than in Nicaragua.
    Working closely with Nicaraguans from the government, police, and 
military, from business and labor, and from charitable and religious 
organizations, we have achieved some notable successes on a range of 
issues. Through the Millennium Challenge Account, our bilateral aid, 
the Central American Free Trade agreement, and other initiatives, we 
have helped Nicaragua develop its economy. We provided over $15 million 
in immediate assistance when Hurricane Felix devastated the country's 
North coast last year. In the fight against drugs, our two countries 
have worked together to seize more than 3 metric tons of cocaine so far 
this year, which follows the seizure of 13 metric tons in 2007.
    If confirmed, I will continue to support our efforts to build a 
strong, sustainable, and mutually beneficial partnership with 
Nicaragua, and I will regard as my most important responsibility the 
protection of American citizens in Nicaragua.
    Our official presence in Nicaragua includes representatives from a 
dozen agencies of the Federal Government as well as 165 Peace Corps 
volunteers, all doing extraordinary work under difficult conditions.
    I will endeavor, as my predecessors have done, to provide a high 
level of service to American citizens living in and visiting Nicaragua. 
In addition, and should I be confirmed, I would eagerly welcome your 
visiting. Your presence provides excellent opportunities to engage 
Nicaraguans at every level.
    Mr. Chairman, members of the committee, I recognize that there are 
many challenges in further developing our relationship with Nicaragua. 
If confirmed, I will work conscientiously to promote U.S. interests and 
develop a partnership with the government and people of that beautiful 
country. Thank you for this opportunity to appear before your 
committee. I would be pleased to answer any questions you might have.

    Senator Dodd. Thank you very, very much.
    Mr. McFarland.

STATEMENT OF STEPHEN G. McFARLAND, NOMINEE TO BE AMBASSADOR TO 
                   THE REPUBLIC OF GUATEMALA

    Mr. McFarland. Thank you very much, Mr. Chairman. I'd like 
to introduce my family. I'd like to introduce my wife, Karen 
McFarland--we met at our first post in Venezuela, and my sons--
our sons, Christopher, Alexander, Andrew, and Kevin. They've 
been a source of inspiration and support to me throughout our 
career.
    Senator Dodd. Well, welcome. Christopher particularly, 
welcome, I like you. [Laughter.]
    Mr. McFarland. Mr. Chairman, members of the committee, it 
is a great honor to appear before you today as President Bush's 
nominee to serve as the United States Ambassador to Guatemala. 
I'm grateful to the President and to Secretary Rice for the 
trust and confidence that they have shown in sending my 
nomination to you.
    I'm a second generation Foreign Service officer with 31 
years of service. I've served nine times in Latin America, 
mostly in countries with insurgencies, political strife, and 
post-conflict challenges. My earlier assignments in El Salvador 
and Peru showed me the human costs when democracy falters and 
when social cohesion fails. As Deputy Chief of Mission and 
Charge in Guatemala from 2000 to 2003, I worked closely with a 
broad range of Guatemalans on bilateral issues.
    My most recent assignment was as team leader of a 
Provincial Reconstruction Team embedded with the 2nd Marine 
Regiment in Western Iraq. There I saw the accomplishments of 
interagency leadership and teamwork, and I bear witness to the 
dedication and sacrifices of Americans and Iraqis. If confirmed 
as ambassador, I would use this experience to lead an active 
interagency embassy team.
    The United States overarching objective in Guatemala is to 
support democracy. Democracy, in turn, requires security, 
prosperity, and the rule of law. These objectives are mutually 
reinforcing. Guatemalans ended their internal conflict through 
the 1996 Peace Accords. Out of the ashes of a cruel war, they 
embarked on an admirable, but unfinished effort to incorporate 
all citizens of all ethic groups, all social classes, into 
Guatemala's democratic society.
    Guatemala's democracy faces great challenges, corruption 
and organized crime, impunity and human rights abuses, drug and 
gang violence, and extreme poverty, including child mortality 
and malnutrition rates in some areas among the worst in the 
hemisphere. The United States has been a partner with success 
of Guatemalan Governments and civil society on these 
interrelated issues, and both countries that major progress is 
vital. If confirmed, I am committed to working with this 
committee, with the Congress, with all executive branch 
agencies, and with the Guatemalan, and other groups to continue 
efforts to address these challenges.
    President Alvaro Colon took office in January 2008 and is 
building upon Guatemala's friendly relations with the United 
States. He has pledged to help the poor and the indigenous, and 
to improve security and transparency. In January, Guatemala and 
the U.N. inaugurated the commission against impunity in 
Guatemala. As President Bush said in his visit to Guatemala 
last year, ``Strong democracy requires security from drug lords 
and violent criminals.'' The United States provides Guatemala 
cooperation in law enforcement and the Merida Initiative, if 
approved by Congress, would greatly increase cooperation on law 
enforcement and citizen security issues.
    The CAFTA agreement has increased trade, greater security, 
transparency, and infrastructure would encourage even more 
investment in trade. Health and education, two issues that 
President Bush raised in his visit, also need more investment 
for Guatemala to take full advantage of CAFTA. If confirmed, I 
will work closely with the Guatemalan Government and with 
Guatemalan and American businesses in our shared interests in 
trade and economic opportunities.
    Civil society, including the private sector, plays an 
important role in Guatemala. The ties between Guatemalan and 
American civil society strengthen our bilateral relations. If 
confirmed, I would seek to support these bonds, including 
through additional public diplomacy outreach.
    Some 350,000 Americans visit Guatemala each year, another 
25,000 live there. Many Americans have also adopted Guatemalan 
children. If confirmed, two of my top priorities would be the 
safety of American citizens and support for a transparent, 
efficient, adoption process in accordance with Guatemalan and 
American laws.
    Embassy Guatemala also has some 400 American and Guatemalan 
employees who work in a dozen agencies, as well as 200 Peace 
Corps volunteers. Their safety and support would also be a 
major concern of mine.
    Thank you, Mr. Chairman, members of the committee, for the 
opportunity to appear before you. I would be pleased to answer 
any questions.
    [The prepared statement of Mr. McFarland follows:]

       Prepared Statement of Stephen G. McFarland, Nominee to be 
                Ambassador to the Republic of Guatemala

    Mr. Chairman, members of the committee, it is a great honor to 
appear before you today as President Bush's nominee to serve as the 
United States Ambassador to Guatemala. I am grateful to the President 
and to Secretary Rice for the trust and confidence they have shown in 
sending my nomination to you. I would like to introduce my wife, Karin, 
and to thank her for her support throughout our Foreign Service 
experience. I would also like to introduce my sons, Christopher, 
Alexander, Andrew, and Kevin, and to thank them for their support and 
inspiration.
    I am a second-generation Foreign Service officer with 31 years of 
service; I have served nine times in Latin America, mostly in countries 
with insurgencies, political strife, and post-conflict challenges. My 
earlier assignments in El Salvador and Peru showed me the human costs 
when democracy falters and social cohesion fails. As Deputy Chief of 
Mission and Charge in Guatemala from 2000 to 2003, I worked closely 
with a broad range of Guatemalans on bilateral issues. My most recent 
assignment was as team leader of a Provincial Reconstruction Team 
embedded with the 2nd Marine Regiment in western Iraq. I saw the 
accomplishments of interagency leadership and teamwork, and I bear 
witness to the dedication and sacrifices of Americans and Iraqis. If 
confirmed as ambassador, I would use this experience to lead an active 
interagency embassy team.
    The United States overarching objective in Guatemala is to support 
democracy. Democracy in turn requires security, prosperity, and the 
rule of law; these objectives are mutually reinforcing. Guatemalans 
ended their internal conflict through the 1996 Peace Accords. Out of 
the ashes of a cruel war, they embarked on an admirable--but 
unfinished-- effort to incorporate all citizens of all ethnic groups 
and social classes into Guatemala's democratic society.
    Guatemalas democracy faces great challenges: corruption and 
organized crime; impunity and human rights abuses; drug and gang 
violence; and extreme poverty, including child mortality and 
malnutrition rates in some areas among the worst in the hemisphere. The 
United States has worked as partners with successive Guatemalan 
governments and civil society on these interrelated issues, and both 
countries agree that major progress is vital. If confirmed, I am 
committed to working with this committee, with all executive branch 
agencies, and with the Government of Guatemala and other groups to 
continue our efforts to address these challenges.
    President Alvaro Colom took office in January 2008 and is building 
upon Guatemala's friendly relations with the United States. He has 
pledged to help the poor and the indigenous, and to improve security 
and transparency. In January 2008, Guatemala and the United Nations 
inaugurated the Commission Against Impunity in Guatemala. As President 
Bush said when he visited Guatemala a year ago, ``strong democracy 
requires security from drug lords and violent criminals.'' The United 
States provides Guatemala cooperation in law enforcement, and the 
Merida Initiative--if approved by the Congress--would significantly 
increase our cooperation on law enforcement and citizen security issues 
of mutual concern.
    The CAFTA-DR Free Trade Agreement entered into force in Guatemala 
in July 2006. It has increased trade, and President Bush's March 2007 
visit to Guatemala underscored the ability of nontraditional producers 
in indigenous areas to improve their standard of living under CAFTA.
    However, greater security, transparency, and infrastructure are 
needed to encourage more investment and trade. Health and education--
two issues that President Bush raised during his visit--also need more 
investment to foster the workforce Guatemala needs to take full 
advantage of the trade agreement. If confirmed, I will be work closely 
with the Guatemalan Government, and with Guatemalan and American 
businesses, on our mutual interests in trade and economic 
opportunities.
    Civil society, including the private sector, plays an important 
role in Guatemala. The ties between Guatemalan and American civil 
society strengthen our bilateral relations. If confirmed, I would seek 
to support these bonds, including through additional public diplomacy 
outreach.
    Some 350,000 Americans visit Guatemala each year, and another 
25,000 Americans live there. Many Americans are close to Guatemala as 
the birthplace of their adopted children; in the last 10 years, 
Americans have adopted over 25,000 Guatemalan children. If confirmed, 
two of my top priorities would be the safety of American citizens, and 
support for a transparent, efficient adoption process in accordance 
with Guatemalan and American laws. Embassy Guatemala has some 400 
American and Guatemalan employees who work in a dozen agencies, as well 
as 200 Peace Corps volunteers; their safety and support would also be a 
major concern of mine.
    Thank you, Mr. Chairman, for the opportunity to appear before you 
today. I would be pleased to answer any questions.

    Senator Dodd. Well, thank you very, very much.
    I should have made note earlier, but I see my former 
colleague, Ben Gilman, here. Ben, I want to thank you for 
coming over, a former member of the House, where we served 
together many years ago, and a wonderful member of the House 
Foreign Affairs Committee, and very active in foreign policy 
issues. So we're honored to have you on the Senate side.
    I always tell people the story, when I left the House and 
came to the Senate, Morris Udall turned to me and he said, ``By 
going to the Senate, you have improved the intelligence of both 
bodies.'' [Laughter.]
    So, I thank you for coming over.
    Let me, first of all, tell you how pleased I am the 
President has nominated five of you here that are career 
Foreign Service officers. This doesn't happen often enough and 
I think it's very exciting, the fact that your careers are 
being recognized and the value contribution you've made, not 
only in this region, because I think all of you have had 
tremendous experience in the region as well, and I know that's 
always a battle back and forth on how these decisions are made.
    And as I mentioned earlier, my brother Tom taught at 
Georgetown, he was never in the Foreign Service per se, but I 
think he was almost considered part of the family since he was 
so closely associated with the issues over the years, but the 
fact that there are people who work so very hard in this region 
year in and year out, and many times don't get the opportunity 
to serve as our ambassadors in these countries, because in so 
many cases, these ambassadors at embassies end up, sort of, 
political, so to speak, so there's a value in that, because you 
can be very good ambassadors.
    But the fact that the President has asked those of you who 
have served so well over the years in these other countries, I 
commend him for that. I think this is something they need to 
recognize more often, so I commend all of you on your service 
to the region.
    There's obviously a lot of people in front of us here, and 
I'm going to ask maybe just a couple of generic questions and 
ask you to respond to them because I think they apply to all of 
you.
    The Merida Initiative, and my good friend, Bob Menendez, 
has a strong interest in this subject matter as well, and I'm 
very interested in hearing his comments and thoughts on it.
    I mentioned, Bob, before you came in that I'm supportive of 
the idea, but it needs to be expanded. I'm worried that if it's 
just going to be a sort of more equipment kind of a program, 
where we're talking about high priced equipment, helicopters, 
weapons and the like--and I'm not arguing, that can't be a 
major contributor to all of this, but it seems to me it's got 
to be broader based than that. I mean, is there sufficient 
attention being paid to civilian institution-building, the rule 
of law, in this agreement? Should we begin by vetting key units 
in the police and the judiciary to be sure that there's going 
to be minimal corruption in the process as we go forward with a 
major investment in the region? Is serious political will a 
necessary condition for the success of this initiative, in your 
minds? Are they willing to take the difficult steps to actually 
confront the corruption-laden problems that exist in so many of 
these cases? I say that with a deep regret about what happens 
in these nations. And, are you satisfied to the extent you can 
be at this juncture, that those kinds of concerns are going to 
be addressed? And I'd like to hear all of you comment on 
whether or not you agree with this, or if you have a different 
perspective on this.
    I think it would be helpful for the committee at this 
juncture here, since you are experienced hands in all of this 
and know the area so well, what are your reactions to this? And 
as a committee of jurisdiction we're going to be very 
interested in following this and how it works. And I going to 
be particularly turning to Bob and asking him to be the lead on 
all of this as we go through it in this subcommittee.
    But I'd be very interested, Mr. Llorens, beginning with 
you, and maybe on down in the order we've talked to each other 
to share some thoughts about this initiative. Is it enough, 
should it be more, are you concerned that it's limited it seems 
in one area, and how satisfied are you about the will, the 
corruption issues, the vetting process, and the like?
    Mr. Llorens. Yeah, thank you, Mr. Chairman. Well, 
certainly, I know that for Central America we're asking for $50 
million for this year, and I think it's plussed up to $100 
million next year. And again, speaking specifically, I do agree 
that you need to have a holistic approach to dealing with the 
whole issue of crime and impunity, rule of law, and it has to 
be holistic and it has to be strategic.
    I've looked at the specific--Merida Initiative and we do 
have training, we do have equipment, but you also have issues, 
you know, you do have community outreach, you do have programs 
to work with prosecutors, with the judicial system. Because I 
totally agree--I mean, I think if we don't build and focus a 
lot of our assistance to strengthening those institutions, none 
of this aid is going to be sustainable.
    So, I look at the categories that are involved in 
institution-building and prevention, and community outreach is 
a critical component of the Merida Initiative, I agree.
    Senator Dodd. Thank you very much.
    Ms. Hodges.
    Ambassador Hodges. Sir, of course, the Merida Initiative is 
not related to Ecuador, but----
    Senator Dodd. I'm sorry, I apologize.
    Ambassador Hodges [continuing]. But, I would like to 
comment on the fact that one of the positive things that we 
have in our relationship with the Government of Ecuador is the 
government's, and President Correa's firm commitment to 
combating corruption and to, you know, to work in this area. 
And much of our assistance already goes to programs that are 
related to corruption, to working on the judicial system, 
criminal--working on the judicial system in areas of criminal 
investigation, we have provided Ecuador with its first-time 
ever automated database on criminal cases, and things like 
that.
    So, again, I would certainly support something like that.
    Senator Dodd. Thank you.
    Mr. Callahan.
    Mr. Callahan. Yes, thank you, Mr. Chairman.
    For Nicaragua, yes, I would echo what Hugo Llorens said--
there's a very important component in Merida, which addresses 
the rule of law and institution-building. And that goes to the 
heart of trying to reduce, if not eliminate, corruption. 
Corruption is, unquestionably, a problem. A World Bank study 
placed Nicaragua in the 23rd percentile.
    But in preparing for these hearings, and in talking with a 
number of my colleagues in the Government, including the DEA 
and the people at the Department of Defense who deal with the 
Nicaraguan Police, they have a very high regard for the Chief 
of Police in Nicaragua, a woman named Aminta Quinera, who is 
highly professional, and determined to make her police force 
professional.
    So, I would think that we can, with some confidence, trust 
them to use the money wisely, and attempt to reduce, if not 
eliminate, corruption, which is a problem.
    Senator Dodd. That's very good, thanks very much.
    Mr. McFarland.
    Mr. McFarland. Yes, Mr. Chairman.
    I agree with you, Mr. Chairman, that for the Merida 
Initiative to be successful, there has to be a holistic 
approach, and there has to be support for the institutions that 
underpin the rule of law, not just for the agents that actually 
execute the actions.
    I'd like to point out, in the case of Guatemala, the part 
of the Merida agreement which--if approved by Congress--would 
focus on gang activities, illustrates some of this approach.
    It starts with prevention efforts that are carried out by 
NGOs and community organizations. Then there is community 
policing, there is support, with support, training, equipment 
for the police, as well as support for vetted units. There's 
communications equipment and other training for the police to 
be able to link up with counterparts in other countries, 
there's considerable training and support, and I think here the 
political will element is crucial, and it's one we have to 
monitor carefully for prosecutors, as well.
    There is support for reform of prisons, to ensure that they 
are not simply used as another office by gang members. And at 
the same time, there is additional work on prevention at the 
prisons, focused on first-time offenders and juvenile 
offenders. And I think that kind of holistic approach could be 
a useful model, sir.
    Senator Dodd. That's very encouraging. And I'd be very 
interested--I know the committee would be--in any additional 
thoughts as you end up in your posts, any thoughts for the 
committee to consider as we evaluate the program.
    I want to say to you, Mr. Callahan, I was struck with your 
testimony and your opening statement, and I appreciate it very, 
very much. I think the T.S. Elliot quote is a very apt one--
probably could be used a lot of places, about the persistence 
of memory, and I welcome your comments. We've had sort of a 
troubled history over the last more than 20 years--more than 
that now--with Nicaragua, and you can get preoccupied with the 
history. But as you point out, I think, in your testimony--
we've got to look ahead, as well. And it's important we do 
that.
    So, your comments, I think, will be welcomed, and it's an 
opportunity. And I hope that the Ortega Government and others 
will hear your words this afternoon, and understand what they--
as I imply them to be--have as an opening, and to take 
advantage of that comment that you made this morning. This is 
an opportunity to try and get on a better track than we've been 
on. So, I appreciate immensely your testimony. Very smart.
    Let me turn to Senator Corker.
    Senator Corker. Mr. Chairman, thank you. And I have to say 
that question you ask about rule of law and institutions, 
building institutions--I think is dead-on. And I thought that 
your responses were well-received, I look at the places in the 
world where so much poverty and other kinds of human dilemma 
exists, it's in those places that lack those two things. And I 
do appreciate your focus on that, or your focus here in the 
next few months.
    I also agree that, I think it's wonderful that people of 
your background and quality are being appointed these jobs. And 
while certainly political appointees do outstanding work for us 
all over the world, I personally am very thrilled that people 
who have worked so long in Foreign Service are going to be 
representing us in a part of the country--a part of the world--
that I actually feel is one of the most important that we have 
to deal with, and I certainly look forward to working with 
Chairman Dodd on initiatives in that area.
    And actually I had some questions, but because of the 
background that you all have and because of the opening 
statements that each of you made, I actually wonder, Chairman, 
whether they shouldn't be asking us questions. [Laughter.]
    Senator Dodd. Believe me, they have them, too.
    Senator Corker. And as a matter of fact, I'll take any that 
you might have. [Laughter.]
    Senator Corker. But I think we all know that each of you is 
very well qualified, you've each demonstrated that by virtue of 
what you've done already in the way of public service, and I 
just wanted to thank you for being willing to do this, and look 
forward to working with you, and actually have no further 
comments or questions.
    Thank you, each.
    Senator Dodd. Thank you, Bob, very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Let me congratulate all of you on your nominations, and 
certainly thank you for your previous service to our country. I 
echo the chairman's remarks about seeing career Foreign Service 
individuals nominated for ambassador positions. I think it is 
incredibly important. And so I'm glad to see the administration 
is doing that.
    Mr. Chairman, I appreciate your comments on Merida, and my 
concern as I listen to the answers that you've received--and I 
agree with Mr. Llorens, for example, that it needs to be 
holistic and strategic. I'm just concerned that--as presently 
devised--it is not holistic and strategic, and that is a real 
challenge.
    I think we've learned from Plan Colombia--which I was a 
supporter of, when in the House of Representatives that, in 
fact, it came to a point that if you can't give a coca farmer 
an opportunity to have sustainable development choices, he's 
going to sustain his family one way or the other.
    Mr. Llorens. You bet.
    Senator Menendez. And that won't simply be done at the 
point of a gun.
    And so, part of my concern about how Merida is presently 
structured is that, that's largely what it is.
    The other concern I have, Mr. Chairman, is that I 
appreciated the answer that you received from the panel about 
institution-building. And whenever we talk about Merida, 
everybody focuses on the institution-building, which I think is 
critical. The problem is, that as presently structured, the 
institution-building, at least in the Central America part, 
only gets about $30 million of the $150 million to be proposed. 
So, it's about one-fifth of the entire effort for Central 
America. Therefore, it is a small amount of institution-
building that is going to take place, compared to the 
enforcement, the weapons, the machinery, equipment, and what-
not.
    So, if we really believe that institution-building and rule 
of law is the long-term, fundamental nature of what we need to 
do in Merida, then I think the dynamics of how it's structured 
need to be changed, and I look forward to working with the 
chairman and the ranking member to see that that can happen.
    I think--I agree with you--the spirit of the opportunity, 
particularly with Mexico, is incredibly important. But the 
other question I'd like to have for the panel is, you know, you 
will collectively be part of--except for Ambassador Hodges--you 
will collectively be part, along with your other colleagues in 
Central America, of this $150 million, if that's the way it 
ends up being. And I get a sense that the Central American 
countries were largely an afterthought in this initiative.
    Having traveled to Guatemala this past December, and the 
visit between that visit and the visit in Mexico, with 
President Calderon, I got two very clearly different 
impressions about the thinking. Clearly, Mexico has put a lot 
of time and effort into the thinking--at least from their part 
of this--and I think Guatemala wants to do the right thing, but 
I don't get the sense that they have invested a lot of time and 
effort in thinking about how they're going to, for example, be 
at the forefront of this effort.
    So, I'm wondering how you all see the engagement of these 
countries--not from what we hope they will do--but what we 
expect them to do, and what they've already participated in, in 
terms of preparation for the initiative. Can you give us any 
sense of that?
    Mr. McFarland. Yes, Senator, if I may speak from the 
perspective of Guatemala--I do understand that the proposal for 
Mexico was, came about in perhaps a better-structured format, 
in part, because they had the unity of effort of being one 
country, and the Central Americans were coming up with their 
proposal as part of their own regional integration, 
institution.
    Guatemala also has a new government. If confirmed, sir, one 
of my tasks, in fact, would be to impress upon the government 
the opportunities that they have and to get a sense for the 
amount of real political will that they are willing to invest 
in this process, and to engage them on that subject.
    Senator Menendez. Any of you others have perspectives?
    Mr. Callahan. Well, I would just make the point, Senator, 
that we will be working closely with the Nicaraguans, should I 
be confirmed, and should the Merida Initiative go through as 
planned--we'd be working very closely with Nicaraguans on how 
they spend that money.
    And I take your point about institution-building, and it 
doesn't seem like a lot of money in Merida, but there are other 
sources of money for institution-building--bilateral aid 
program, for example, the Peace Corps in Nicaragua--all of 
these entities, American entities, are working with Nicaraguans 
in an attempt to create robust and durable institutions.
    Senator Menendez. I appreciate that--I chair the 
subcommittee on all of our foreign assistance. The problem is, 
when we talk about Merida, in the context of what we are 
pursuing, some of those programs are great, other bilateral 
assistance, but they're focused in a different way. And so, how 
we marry them is going to be very important.
    Mr. Llorens. Senator, it's a very good question. I agree 
with you in the sense that ultimately, an initiative like 
Merida, or Central America's ability to deal with the 
situation, social--socio-economic situation that they face. It 
has to come from within, and they need to be able to take the 
initiative. So, I would like, certainly I think the SICA, the 
Central America System, so that the Central Americans 
coordinate together and engage with us, I think will be 
critically important.
    I would just note with regard to Honduras, that I 
understand that they have developed their own national security 
strategy--I think a national security strategy very much 
focused on some of the issues, sort of the challenges that they 
face--the issues of crime, gangs, you know, marginalization of 
society, so in a way there is a challenge there, but it's 
absolutely critical for the Centrals to make that change.
    And I assure you, one of my priorities will be to engage 
with the Hondurans, and work very closely with them in this 
regard.
    Senator Menendez. Well, I appreciate your answers, let me 
just say, capacity, ability, and commitment are going to be 
essential. Number two is, the amount is in and of itself, when 
you look at all of Central America, not all that much to try to 
meet the challenges, which are affected in a variety of ways, 
including gang violence, and what-not, are all elements of 
this.
    So, we're going to--and you all will be so close to each 
other that individual national security strategies, I think, 
are very good, but we need a holistic, regional security 
strategy, because otherwise you have a balloon in which, you 
know, you push in one end and it pops out on the other.
    And so those are some of the things that I think will be 
incredibly important.
    I have some other questions, Mr. Chairman, but I will wait 
if you will have a second round.
    Senator Dodd. We'll do that. Also to let you know, we're 
going to submit questions, too, so we can be thorough.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman, and I concur 
completely with your comment at the outset about the 
qualification of these nominees, and particularly, that they 
are career Foreign Service individuals. Having traveled and 
seen what you do in some of the more challenging places in the 
world, I thank you for being willing to accept this 
responsibility and certainly hope that you are confirmed.
    And Mr. Callahan, you and I had a great conversation about 
some of my experience with Nicaragua when you came to my 
office, and I know Ortega, Sandinista, is back in power and was 
reelected with a plurality. Is there any indication that he has 
sought aid from either Venezuela and Chavez, or Iran? Further, 
has he received some commitments for the ports from Iran, and 
housing from Venezuela? Do you know the extent to which they 
are working together? The extent to which Chavez is influencing 
Ortega, and the extent to which he influenced his election?
    Mr. Callahan. Yes, thank you, Senator, it's nice to see you 
again.
    There was no question that President Ortega does maintain a 
close relationship with President Chavez. President Chavez, 
through the Petrocaribe program is making oil available to 
Nicaragua at discounted rates. But I would point out that the 
United States also has an economic engagement with Nicaragua, 
which is both broad and deep. Not only our bilateral aid 
program, but the Millennium Challenge Account which, I think, 
we discussed, which is $175 million over 5 years. There is the 
CAFTA program, the CAFTA Free Trade Agreement, which has 
resulted in a dramatic increase in both Nicaraguan exports to 
the United States and American investment in Nicaragua.
    Through the World Bank and the International Monetary Fund, 
which we play a leading role, about $1.7 billion of Nicaraguan 
debt has been forgiven. So, the Nicaraguan economy depends 
greatly on the United States, both for its trade, and for a lot 
of its bilateral aid.
    In addition to that, as I mentioned in my statement, we 
have a very active Peace Corps program, and these volunteers 
are all over the country.
    To get back to your original point, yes, he does have a 
relationship with Mr. Chavez, but in a recent poll that I just 
looked at, the approval rating for the United States in 
Nicaragua is over 80 percent. So the Nicaraguans clearly have a 
great affection for the United States, which is something we 
can work with, as well.
    Senator Isakson. And he won with 37.6 percent, so we're 
doing better than he did. [Laughter.]
    Right? Well, for all of you, Central and Latin America is 
critical to the interests of the United States, and I'm 
troubled by the amount of power Chavez has through the prices 
of petroleum and how he's leveraging that money. And I think 
your presence in those countries and your outreach to maintain 
the great friends that we do have, and maybe win over a couple 
that we may have lost, is going to be critically important to 
us, both in the short run, as well as the long run, and I wish 
you the very best of luck.
    Senator Dodd. Is that it, John?
    Senator Isakson. Yes.
    Senator Dodd. Well, thank you.
    This is a good question Senator Isakson's raised, not just 
about Nicaragua, but generally in the region. And again, you're 
looking, what is it--a gallon of gas, I think, in Venezuela is 
about seven cents? And obviously having a huge potential 
influence in the region, we're aware of it in Bolivia, and the 
efforts in Ecuador with the recent events that have unfolded 
between Venezuela, Colombia, and Ecuador. The relationship with 
Brazil--it gets complicated.
    This is all a rosy picture, the world is changing its views 
regionally on President Chavez, and Brazil is a classic 
example. I think there may have been one relationship, or one 
attitude to begin with, that has certainly been modified, given 
some of the energy issues that have evolved over the years.
    But it's a good question--certainly struggling countries 
economically where you can offer low-cost energy at a time when 
you're trying to hold your country together is a very appealing 
offer to receive, and obviously, he's extracting commitments in 
return.
    But, I hope we will look at some of these ways in which we 
can expand economic opportunities, as well. I was looking at 
the remittance issue in Latin America and someone gave me these 
numbers. In 2005, 22 million people from Latin America worked 
in the developed world. They returned, the 22 million, $54 
billion in remittances to the region. That was more than all of 
the foreign direct investment and foreign aid for the entire 
region, in those remittances coming back. And a good part of 
that $54 billion, I don't know how it breaks out, of the $54 
billion, what percentage comes from the United States, but I 
presume it's a fairly healthy chunk of that, going back.
    We have our own downturn in the economy here, and those 
numbers get adversely affected. In Honduras, $2.7 billion in 
remittances were sent back to the country in 2007, that made up 
a quarter, 25 percent of the GDP of the country. And so there's 
a direct correlation in terms of what happens here.
    I noticed in foreign aid, Nicaragua, by the way, 26 percent 
of foreign aid, makes up 26 percent of Nicaragua's budget in 
the country. And I presume the bulk of that comes from us, is 
that true?
    Mr. Callahan. Yes, that's----
    Senator Dodd. I don't know if that foreign aid number is 
U.S. foreign aid?
    Mr. Callahan. It's of all sorts, and it's international 
foreign aid, as well.
    Senator Dodd. But I want you to just comment on this 
general question, because obviously I'm a believer that foreign 
aid can be of help, and certainly there's a value in all of 
that.
    But the realities of the world in the 21st century--just 
given our own budget constraints on how much you can actually 
do, and the importance of wealth creation, immigration policy, 
I mentioned earlier, 100 million people have left the region 
since World War II, primarily over economic issues. And, I 
presume, in some cases political reasons that were intolerable 
to live the way you live, your family lived, and you made that 
decision that many of us at this side of the dais families 
did--to emigrate. The case of Bob Menendez certainly reflects 
exactly what your family went through.
    And yet, obviously, many others are leaving for economic 
reasons, and how we begin to get our arms around this issue, in 
the holistic way that I've mentioned, that Senator Menendez has 
mentioned, Senator Corker has mentioned, would be helpful--the 
IDB, U.S. aid--do you have any thoughts as a panel, here, on 
how we might look at this, out of the box, a bit differently? 
And ways in which we can address these issues beyond the 
traditional ways we've been talking about it, over the last 
number of years?
    Mr. Llorens. That's a very good question, Mr. Chairman. You 
know, I would say one of the things I think that's very 
important there, a country like Honduras receives significant 
economic assistance from the United States. You have $43 
million in bilateral assistance, you have the Millennium 
Challenge Account which is $215 million over 5 years. The 
United States obviously provides a lot of money through the 
multilateral banks, so there is significant amount of economic 
assistance.
    I would look at something, for example, in terms of being 
really effective on the ground, something I'd look at, just to 
make sure that donor coordination is really effective, and 
maybe it is. But it's something that, you know, I would like to 
look at in making sure that the major donors, the multilateral 
banks, the major bilateral donors are working together, so when 
you look at the development issues, you really--whether it's 
education, whether it's health--are we really being holistic 
and strategic as a donor community, so I'd say that's one 
thing.
    The other thing I would mention is the fact that certainly, 
I think that the Central America Free Trade Agreement, in the 
sense that it locks in the trade benefits for both countries, 
but for Central America region, and for the United States. I 
think it provides a certain amount of stability so that it's 
sort of a platform for growth, I think, for Honduras and 
Central America. But, the overriding issue, of course, is, that 
you have to get back to the rule of law you have to get--you 
know, the good governance issues, corruption, which you all 
mention.
    And I think that this is an issue--this is really the task, 
and it's the task that the Central America democracies have to 
take the lead on, but I think the United States has to make 
sure that, you know, our assistance is, comes with the fact 
that we're going to ask our democratic friends in Central 
America to raise the standard--to have a better investment 
climate, to have the rule of law, to improve the basis for an 
independent judiciary. And that's going to be the key to be 
able to create sustainable development.
    Senator Dodd. Yes.
    Ambassador Hodges.
    Ambassador Hodges. I would say that one thing that's very 
important is to--well, for many, many years we've been looking 
at these issues of what's pushing people, what's pulling 
people, and I feel--I'm very confident in the programs that 
we're working with that promote economic prosperity, reasons 
for people to stay, you know, in their countries.
    Ecuador has, I think, something like 2 million immigrants 
in the United States, and probably many of them for many years. 
I think that in Ecuador, we should be looking at, you know, 
doing more in terms of again, working with the Government of 
Ecuador to reduce corruption, the themes that are, you know, 
corruption really hurts the everyday man or woman, their 
pocketbook. And to help people realize that it really is in all 
of our interest to fight against corruption, and any of the 
programs related to social justice, the same thing. These give 
people a reason to stay in their own countries, and to build 
their institutions, and believe that they will have a better 
future for themselves and their children.
    Senator Dodd. Mr. Callahan.
    Mr. Callahan. Yes, Mr. Chairman, and as you and Senator 
Menendez talk about a holistic approach--and I think it's 
applicable here, as well--progress does come slowly. If we 
look--as you well know, because you've been following this as 
closely as any of us in the State Department for the last 25 
years--there has been enormous progress in Latin America, not 
only in the return to democracy, but respect for human rights. 
Which we should acknowledge, and compliment the Central 
Americans and the Latin Americans for.
    But, I agree with my colleagues talk about corruption. I 
think this is an enormous problem throughout Latin America and 
the only way to reduce it or eliminate it, is by encouraging 
the people who are governing the country to do so honestly and 
effectively, and I think a lot of our capacity-building, a lot 
of our money and training goes into that, exchanges can help. 
But, I think we have to accept that this will be as slow as was 
the return to democracy.
    Mr. McFarland. Mr. Chairman, in terms of Guatemala, I think 
that if we take a step back, and look at the accomplishments 
over the last, say, 20 years. Certainly peace, the return to 
democracy, putting the military back into what we would 
consider to be the traditional military role of not engage--not 
carrying out internal security missions, but rather defending 
borders--promoting free trade. A lot of the important items 
have been, have been done at least in part--to echo some of my 
colleagues--several of the missing parts, the parts where I 
think we really have to focus attention on, are transparency 
and rule of law and investing in health and education of the 
people.
    I think to echo, again, something that some of my 
colleagues have said, it's important that we try to coordinate 
the significant U.S. donor efforts with other donors, with the 
countries involved. I think the private sector in each of these 
countries is also a potential benefactor of a better trained 
workforce, and a potential contributor, if you will, to 
grassroots programs.
    Ultimately, I think that, you know, Latin Americans watch 
events in Venezuela and Cuba with interest, but I think those 
models have little direct relevance for them, it's hard to 
replicate them in other countries. That doesn't mean, though, 
that they will continue to support blindly their governments, 
if they perceive that they're not being fair, or they're, if 
they're behaving unjustly.
    Senator Dodd. Well, they're aspirational qualities, and I 
agree with you.
    I'll just end on this note, but I spoke last week at the 
Naval Academy--they had the Forestall Lecture, and they asked 
me to come and talk about Latin America, and the point I want 
to make is, Latin America is right on the cusp, with this 
tremendous advance in democracy, which is no small 
achievement--it's really been remarkable what's happened. From 
one end of the continent to the next, with the obvious 
exception of Cuba, it hasn't been easy, it's gone through an 
awful lot to get there.
    But, we're on the cusp of really breaking open, I think, 
all of these other issues. So, it's unlike other parts of the 
world which, respectfully fall further behind in this effort--
Latin America really is on the edge of breaking into a 21st 
century of achieving all the potential greatness that's capable 
in this hemisphere. So, this is really a critical moment, in my 
view, of getting this right. And if we do as Bob has suggested, 
and expanding this Merida proposal, really working on these 
other avenues that need to be exploited if we're going to make 
this program succeed, I think we have an opportunity to really 
have a big influence, and make a big difference in this 
hemisphere.
    So, it's sitting there, now. You think of other parts of 
the world, and imagine they had achieved what had been achieved 
in Latin America, think of how much further along and more 
hopeful we might be about some of the potential changes.
    So, it really is a time of optimism, in my view. With all 
of the problems out there, this is a time of optimism in Latin 
America.
    So, I welcome your nominations. Any additional questions I 
have, I'll submit along--and obviously there are a ton of--I 
could think of just a load of questions I'd love to ask each 
and every one of you, but I'll restrain myself, and submit them 
to questions.
    Bob, you had some additional?
    Senator Menendez. First of all, I appreciate your comments 
about--you know, one of our challenges is that even as we talk 
about the Millennium Challenge Account, that's a handful of 
countries that qualify. And the reality is, is that the one 
place in the world over the last several years that we have cut 
overall development assistance is Latin America and the 
Caribbean.
    So, you know, I hope that the chairman will look at the 
bill that he has cosponsored with me, on the Social and 
Economic Development Fund for the Americas as part of a tool to 
try to see if we can reverse that trend, because I think 
sustainable development opportunities to make people eligible 
to be part of an MCC compact is equally as important, as well, 
and I would look at that.
    I just have one or two quick questions, the rest I'll 
submit for the record.
    Mr. McFarland, with reference to Guatemala, I'm glad to 
hear your comments about adoptions. I have a fair number of 
constituency cases that are going, respecting Guatemalan law, 
but seems to take forever and find difficulties, so we hope 
that if you are confirmed, you said it would be one of your 
priorities, and we look forward for that to actually take place 
and happen.
    Mr. Callahan, let me ask you one thing--I am concerned 
about Iran's growing presence in Nicaragua. Particularly, Iran 
has pledged to invest in Nicaragua's ports, agricultural 
sector, energy network, Venezuela is cofinancing some of these, 
and I view this as part of a challenge that we have in somewhat 
of a vacuum that we need to be engaged in. How will you work to 
limit Iranian influence in Nicaragua if you are confirmed as 
the ambassador?
    Mr. Callahan. Thank you, Senator. Yes, we are all 
concerned, you are correct to be concerned, we are concerned. 
President Ortega has visited Iran, and President Ahmadinejad 
has visited Nicaragua. There have been a lot of promises made, 
the Iranians have established a diplomatic mission in Managua, 
we are monitoring it closely, but to date, we really haven't 
seen much of these promises and the rhetoric that President 
Ahmadinejad had talked about when he was there.
    But it is of great concern, it's something that we are 
looking at, and I can assure you that if I am confirmed, it 
will be a priority for me to keep my eye on this, and that 
the--we have to convey to the Nicaraguans that Iran is a state 
sponsor of terrorism, and that any kind of close relationship 
with them would have an effect on how we dealt with Nicaragua.
    Senator Menendez. They have a Millennium Challenge Account 
agreement?
    Mr. Callahan. They do, $175 million over 5 years, yes, sir.
    Senator Menendez. Ambassador Hodges, one quick question--
Ecuador's obviously been in the news, with Colombia, President 
of Ecuador said he's going to file a new complaint with the 
OAS. How do you see the circumstances, and what role do you 
think the United States should be playing--you would be playing 
as ambassador if, in fact, you were confirmed?
    Ambassador Hodges. Well, sir, obviously we value our 
friendship with both Colombia, and with Ecuador, and with 
respect to the ongoing incidents or crises between, or the--in 
the relations between Colombia and Ecuador, we look to the OAS 
and its good offices to work with the two countries to see if 
we can come to a good resolution to these issues between them.
    Now there are a couple of issues in the ICJ, and again, 
this is a matter for both of them.
    No matter what, we--I recognize that both countries really 
need to be talking to one another, we need to--we all have 
regional interests there, the issues of narcotics trafficking 
in Colombia are, you know, very serious. We are fortunate that 
in Ecuador there is no coca cultivation, but that doesn't mean 
that they don't have to worry about the transportation of 
narcotics coming through Colombia, precursor chemicals and 
things like that.
    So, it is really something that we all have to work on to 
get the two countries back together, and continuing their 
cooperation.
    Senator Menendez. And finally, Mr. Llorens, I don't have a 
question for you, but if, in fact, you are confirmed, there are 
some commercial transactions of U.S. citizens that I think have 
been dealt with unfairly along the way and we would want to 
pursue them with you when that opportunity comes, should you be 
at the post.
    Mr. Chairman, I'll submit the rest of my questions for the 
record.
    Senator Dodd. Thank you very much, Senator, we'll do that, 
we thank all four of you, and wish you the very best. We'll try 
and move this along. Over the coming weeks, Senator Biden will 
schedule the appropriate timing for confirmation votes. I don't 
know when that will happen, but I'm sure we'll keep you posted 
and informed. I presume all of your paperwork and everything 
else has been complete, and there may be some additional 
questions that will come in, and we'll try to get them to you 
quickly, and urge you to respond to them quickly, as well, that 
would certainly move the process along.
    I thank all four of you, for your service and for your 
responses today.
    Let me invite the second panel to come up, sorry, I 
apologize, we sit on the banking committee together, too, so we 
do a little banking. [Laughter.]
    I apologize.
    Senator Corker. I'm going to step out to another meeting, 
and I know that you all are in wonderful hands with the two 
Senators. I want you to know that's not out of any kind of 
disrespect--we are really, have wonderful, wonderful appointees 
coming before us right now, and I do hope there's a speedy 
confirmation, and I want you to know that I respect you very 
much.
    But, with that, Mr. Chairman----
    Senator Dodd. Thank you.
    Senator Corker. Since you all already have me two to one, 
anyway, two to zip won't matter, so thank you. [Laughter.]
    Senator Dodd. Well, thank you all very much and welcome to 
the committee. You've been appropriately introduced, I guess, 
except for you, Ms. Stephenson.
    Why don't we begin with you, Ms. Stephenson, I'll start 
with you. And welcome to the committee, and welcome again for 
your service.

STATEMENT OF BARBARA J. STEPHENSON, NOMINEE TO BE AMBASSADOR TO 
                     THE REPUBLIC OF PANAMA

    Ms. Stephenson. Thank you, Mr. Chairman. It's a great honor 
to appear before you today, as the President's nominee to serve 
as the next American Ambassador to Panama.
    Mr. Chairman, throughout my career, I have appreciated the 
constructive role that you, personally, have played in 
achieving our foreign policy goals. First, when I was a young 
officer starting out in Panama, and then in El Salvador, and 
then more recently when I was Counsel General in Belfast, 
Northern Ireland, and you were on the right side of the issues 
over and over. So, I thank you.
    Senator Dodd. Thank you. Don't put your nomination in 
jeopardy, now. [Laughter.]
    Ms. Stephenson. And I do look forward to working with you 
and the other members of the committee, and indeed, Congress, 
in general, if I'm confirmed as Ambassador to Panama.
    I would like to take the opportunity that you've given us 
though, to introduce my family.
    My husband, Matthew Furbush, served as our community 
liaison officer during our first Foreign Service assignment in 
Panama, about 20 years ago--a little more than that--when we 
were newlywed. And he's served with me at every single Foreign 
Service post since--six so far.
    And our daughter, Claire, has also earned her Foreign 
Service stripes--six schools on four continents by the 9th 
grade. And she hopes to visit us in Panama when she's not 
studying at the University of Virginia.
    And our little son, Brewster, who opted to go to elementary 
school today, hopes to earn some Foreign Service stripes of his 
own to compete with his sister, by joining us in Panama, as 
well.
    Senator Dodd. Welcome, delighted to have you here. And 
thank you for your service, as well.
    Ms. Stephenson. It's the whole family.
    Senator Dodd. Good.
    Ms. Stephenson. If confirmed as ambassador, I would be 
embarking on my fourth tour in the region. In addition to my 
first tour in Panama, I served in El Salvador during the final 
years of the civil war there, and more recently in Curacao as 
our Counsel General, leading a big interagency law enforcement 
effort, essentially.
    As I prepare to return to the region, Mr. Chairman, I am 
struck by the dramatic positive changes that have taken place 
over the years. Instead of wrestling with how to get military 
governments to give way to democratic leadership, with the 
ravages of war, with devastating human rights abuses, we talk 
today, instead, about free trade agreements, about ensuring 
that the fruits of an expanding economy reach all of the 
citizens. About strengthening the various institutions that are 
vital to democracy, and about bolstering partnerships with 
these countries so that we can tackle hemispheric and even 
global challenges together.
    I look forward, if confirmed, to drawing on the deep well 
of support for the United States--over 80 percent of 
Panamanians have a favorable image of us--to pursue this 
positive agenda.
    Approval ratings this high are one of the greatest gifts 
any diplomat can be given. They mean that our voice counts, and 
that Panamanians who share our enthusiasm for achieving this 
agenda, from President Torrijos, to civic action groups, 
welcome us as partners.
    But the Trade Promotion Agreement, if approved by Congress, 
would also be a very powerful tool. Because, beyond the Trade 
Promotion Agreement's benefits--trade benefits--for both of our 
countries, the agreement directly supports our broader goals 
for Panama, such as encouraging transparency and 
accountability, and seeking to ensure that all citizens, 
including the nearly 40 percent of Panamanians who continue to 
struggle in poverty, benefit from Panama's impressive economic 
growth and maturing democratic institutions.
    As much as some things have changed beyond recognition, 
other things have remained constant, such as an ambassador's 
fundamental obligation to look out for fellow Americans abroad. 
If confirmed, I assure you that protecting Americans will be 
one of the top priorities of my embassy, and with over 25,000 
Americans now living in Panama, this is a growing part of the 
embassy's work, and a task I've always taken very seriously.
    Of course, geography remains destiny for Panama. As a vital 
crossroads for the movement of goods, people, and ideas, Panama 
is a third border for the United States. Two-thirds of the 
14,000 ships that transit the Panama Canal each year are either 
coming from or going to United States ports. So, I recognize 
that protecting the Canal and Panama's core infrastructure is 
critical to the homeland security of the United States.
    I would want to underscore here that the Panama Canal 
Authority, the Panamanian Government entity that's been in 
charge of running the Canal since the handover in 1999, has 
done a really impressive job of running it. And we're also 
really pleased to see that U.S. firms are getting a very fair 
shot at work on the ambitious multibillion dollar Canal 
Expansion Project.
    Our shared history has allowed us to forge an effective and 
enduring partnership to increase the benefits of Panama's 
unique geography, while countering the threats that flow from 
it.
    If confirmed, I look forward to leading a strong 
interagency effort to help Panama in its efforts to push back 
against the drug traffickers and the criminals who would 
exploit Panama's growing transportation hub for illegal ends.
    Close cooperation with Panamanian law enforcement has 
already yielded some important successes--increased drug 
seizures, a more effective police force, and an enhanced 
capability to counter money laundering.
    And the Merida Initiative, if it's approved by Congress, 
would also add considerably to these efforts, both in Panama 
and the region.
    As Panama's democratic institutions mature--and I look 
forward to the 2009 elections--when Panamanians will once again 
go to the polls to bring about a democratic transfer of power--
seems hum-drum today, it did not awhile back, it's a miracle--
and the country enjoys impressive economic growth, it was more 
than 11 percent last year--we recognize Panama's progress, and 
bright prospects for the future by thinking and speaking of 
Panama increasingly as a partner in the region.
    We're pleased to see Panama taking a leader role, not only 
regionally like last summer, when Panama effectively hosted the 
OAS General Assembly, but also more, in global terms as 
exemplified by Panama's current work, as a member of the United 
Nations Security Council.
    Mr. Chairman, if would be my great honor, if confirmed, to 
return to Panama as ambassador to build on this partnership, 
especially now at this profoundly promising moment in Panama's 
history.
    Mr. Chairman, members of the committee, thank you again for 
granting me the honor of appearing before you, and I'd be happy 
to answer any questions you might have.
    The prepared statement of Ms. Stephenson follows:]

      Prepared Statement of Barbara J. Stephenson, Nominee to be 
                  Ambassador to the Republic of Panama

    It is a great honor to appear before you today as the President's 
nominee to serve as the next American Ambassador to Panama. Mr. 
Chairman, throughout my career, I have appreciated the constructive 
role you have played in achieving our foreign policy goal--first as a 
young officer in Central America and later as Consul General to 
Belfast--and I look forward to working with you and others members of 
this committee and indeed with Congress more generally if I am 
confirmed as Ambassador to Panama.
    With your permission, Mr. Chairman, I would like to recognize my 
husband, Matthew Furbush. Matt served as our community liaison officer 
during our first Foreign Service assignment--in Panama--over 20 years 
ago when we were newlywed, and he has served with me at every overseas 
post since then--six so far. Our daughter Claire, who has also earned 
her Foreign Service stripes--six schools on four continents by 9th 
grade--hopes to visit us in Panama when she is not studying at the 
University of Virginia. Our son Brewster, who opted to go to elementary 
school today, hopes to earn some more Foreign Service stripes of his 
own by joining us in Panama.
    If confirmed as ambassador, I will embark on my fourth tour in the 
region. In addition to Panama, I served in El Salvador during the final 
years of the civil war there and more recently in Curacao as our Consul 
General, heading a robust interagency counternarcotics effort, partly 
in support of Plan Colombia. As I prepare to return to the region, I am 
struck by the dramatic, positive changes that have taken place over the 
years. Instead of wrestling with how to get military dictatorships to 
give way to democratic government, with the ravages of war, with 
devastating human rights abuses, we talk instead today about free trade 
agreements, about ensuring that the fruits of an expanding economy are 
shared by all citizens, about strengthening institutions vital to 
democracy, about bolstering our partnership to tackle hemispheric and 
indeed global problems together.
    I look forward, if confirmed, to drawing on the deep well of 
support for the United States--over 80 percent of Panamanians have a 
favorable image of us--to pursue this positive agenda. Approval ratings 
this high are one of the most precious gifts any diplomat can be given. 
They mean that our voice counts and that Panamanians who share our 
enthusiasm for pursuing this positive agenda--from President Torrijos 
to civic action groups--welcome us as partners.
    But the Trade Promotion Agreement, if approved by Congress, would 
also be a very powerful tool. Beyond the TPA's trade benefits for both 
countries, the agreement directly supports our broader goals for 
Panama--such as encouraging transparency, and seeking to ensure that 
all citizens, including the nearly 40 percent who continue to struggle 
in poverty, benefit from Panama's impressive economic growth and 
maturing democratic institutions.
    As much as some things have changed beyond recognition, other 
things have remained constant--such as an ambassador's fundamental 
obligation to look out for fellow Americans abroad. If confirmed, I 
assure you that protecting American citizens will be a top priority of 
my embassy. With over 25,000 Americans now living in Panama, this is a 
growing part of the embassy's work, and a task I have always taken very 
seriously.
    Of course, geography remains destiny for Panama. As a vital 
crossroads for the movement of people, goods, and ideas, Panama is a 
``third border'' for the United States. Given that two-thirds of the 
14,000 ships that transit the Panama Canal each year are bound for or 
coming from United States ports, I recognize that protecting the canal 
and Panama's core infrastructure is critical to the homeland security 
of the United States. I would want to underscore here that the Panama 
Canal Authority, which has been in charge of the canal since the 
handover at the end of 1999, has done an impressive job of running it, 
and we are very pleased to see that United States firms are getting a 
fair shot at work on the ambitious multibillion dollar canal expansion 
project.
    Our shared history has allowed us to forge an effective and 
enduring partnership to increase the benefits of Panama's unique 
geography while countering the threats that flow from it. If confirmed, 
I look forward to leading a strong interagency effort to protect our 
homeland by helping Panama in its efforts to push back against drug 
traffickers and other criminals who would exploit Panama's growing 
transportation hub for illegal ends. Close cooperation with Panama in 
law enforcement and security has already yielded many successes, 
including increased narcotics seizures, a more effective police force, 
and enhanced ability to combat money laundering. The Merida Initiative, 
if approved by Congress, would add considerably to our efforts both in 
Panama and the region.
    As Panama's democratic institutions mature--and I look forward to 
the 2009 Presidential elections, when Panamanians will once again go to 
the polls to bring about a democratic transfer of power--and the 
country enjoys enviable economic growth--more than 11 percent last 
year--we recognize its progress and bright prospects for the future by 
thinking and speaking of Panama increasingly as a partner in the 
region. We are pleased to see Panama taking a leadership role, not only 
regionally (such as last summer, when Panama effectively hosted the OAS 
General Assembly) but also globally, as exemplified by Panama's current 
work as a member of the U.N. Security Council. It would be my great 
honor, if confirmed, to return to Panama as ambassador to build on this 
partnership, particularly now, at this profoundly promising moment in 
Panama's history.
    Mr. Chairman, members of the committee, thank you again for 
granting me the honor of appearing before you today. I would be happy 
to answer any questions you may have.

    Senator Dodd. Well, thank you very, very much. And we thank 
you, as well as the previous nominees, for your wonderful 
service to the country--and that of your family. We don't often 
recognize the family's contribution but thank you immensely for 
that great work.
    Ms. Stephenson. Thank you, Mr. Chairman.
    Senator Dodd. Well, since we'll stay in the region, here, 
we'll go north in a minute Mr. Speck, but if you don't mind 
I'll turn to a fellow New Englander.
    And I've got to tell you one quick story, Mr. Cianchette. 
You'll know the individual, I think he's a majority leader in 
the State Senate in Maine--Brennan, is that his last name? Or 
was the President Pro Tem, I forget what office he holds----
    Mr. Cianchette. Assistant leader.
    Senator Dodd. Assistant leader. I'll just tell you a 
wonderful story--he introduced me back a number of months ago 
in an event in Maine, and he told me a wonderful story--his 
grandmother is from a little island off of the West Coast of 
Ireland, which just so happens, about 15 years ago, I bought a 
little house on this island off the West coast--about 20 people 
live on the island. And Senator Brennan went back to see the 
site where his grandmother had left in 1911, and there's one 
individual on the island, Paddy Folan, who's 94 years old, born 
on the island, and a great character. And he showed Mr. 
Brennan, Senator Brennan and his family, around the island 
where I have this little cottage, and he turned to Senator 
Brennan and he said, ``And what do you do in the United 
States?'' and Mr. Brennan said, ``Well, I'm a Senator.'' And 
Paddy Folan said, ``Wow,'' he said, ``the island's overloaded 
with them.'' [Laughter.]
    So, I couldn't resist when I saw you're from Maine.
    Mr. Cianchette. I'll be sure to tell him that you----
    Senator Dodd. Please do.
    Mr. Cianchette [continuing]. Recanted that story this 
afternoon.

 STATEMENT OF PETER E. CIANCHETTE, NOMINEE TO BE AMBASSADOR TO 
                   THE REPUBLIC OF COSTA RICA

    Mr. Cianchette. Senator Dodd, Senator Menendez, other 
members of the committee thank you for granting me this 
opportunity to appear before this august body. I am honored and 
I'm humbled to be here as President Bush's nominee to be the 
United States Ambassador to Costa Rica. I'm grateful to the 
President and to Secretary Rice for their confidence and their 
trust in sending my name to the Senate for your consideration.
    I'm further humbled by the comments during the introductory 
remarks by your colleagues and my beloved Senators, Senators 
Snowe and Collins. I agree with you that they set the bar 
fairly high for me in their introductory remarks, and I will 
always do my best never to disappoint them, nor this 
institution.
    With the committee's indulgence I, too, would like to 
introduce my family. I have with me my wife of nearly 22 years, 
Carolyn. We have our children, Evan, who is 16, our daughter, 
Maria, who is 14. My family is very excited about the prospect 
of living and serving in Costa Rica along with me, and they've 
been very supportive as we've contemplated this major 
transition.
    I'd also like to introduce my parents, Bud and Priscilla 
Cianchette, and they probably prefer I don't give their ages, 
as well as my brother, Earl, and my nephew, Dave Toomey.
    Would you all----
    Senator Dodd. We've got the whole gang here, why don't 
you--
    Mr. Cianchette. They're all right here.
    Senator Dodd. All right here--why don't you all raise your 
hands so we can see which of you--there you go, all right, 
right in the front row. Welcome, all of you. Nice to have you 
with us.
    Mr. Cianchette. I might add that my nephew, Dave Toomey, 
works over at the EPA and he's taking the afternoon off to be 
here. So, I'm grateful for that. I may have to slip him a few 
bucks to make up for his lost compensation.
    Mr. Chairman, I'm truly honored by this potential 
opportunity to serve in Costa Rica, and if I'm confirmed, I 
believe my extensive business and public service experience 
will help me strengthen our relationship with this important 
regional ally.
    My service in the Maine State legislature gave me valuable 
experience that I'm confident will be useful if I am confirmed. 
Legislative work, as you know, requires the ability to 
demonstrate leadership and build consensus. An effective 
legislator listens to the citizens he serves, responds to their 
concerns, as well as those of his colleagues and the other 
stakeholders, in any particular policy initiative.
    Everything I've learned suggests that an effective 
ambassador must lead the embassy, staff, and country, but build 
consensus as a team player within the interagency community, so 
that all U.S. equities are well-represented.
    In business, as in public service and diplomacy, the 
ability to connect with people is essential. My experience as 
an executive with a Spanish-owned manufacturing company has 
prepared me well to take advantage of the opportunities 
presented by working in a different cultural context. Indeed, 
decades of work with people at all levels in business, public 
service, and civic organizations, have taught me that one sure 
way to connect with someone is to tap into their aspirations.
    And Costa Rica is a nation of great aspirations. With its 
rich traditional of individualism and democracy, this staunch 
U.S. ally is a model for other countries in the region, in 
several respects.
    A bastion of stability in an often troubled region, Costa 
Rica abolished its military in 1948 to channel investments into 
social services such as health care and education. Costa Rica 
has progressively preserved its abundant national resources. 
Last year, the poverty rate fell to a 30-year low, a historic 
achievement.
    However, at this critical moment, Costa Rica faces new 
challenges. Costa Rica, the United States and other countries 
in the region face shared security threats from human and drug 
traffickers, terrorists, and other criminals.
    In 2006, a greater amount of illicit narcotics was 
interdicted in Costa Rica than any other country in Central 
America with the exception of Panama. Costa Rica is grappling 
with domestic crime on an unprecedented scale.
    Fortunately, we have a willing partner in the Arias 
administration that seeks for Costa Rica to play an important 
and pivotal role in the integrated regional response to these 
threats. If the President's Merida Initiative is approved, 
Costa Rica's law enforcement personnel would receive training 
and equipment to improve their ability to disrupt drug traffic, 
and to combat crime.
    Security concerns already affect hundreds of thousands of 
United States citizens who visit and reside in Costa Rica each 
year. If confirmed, I would have no greater priority than 
protecting American citizens. Having traveled and conducted 
business abroad, I understand what a tremendous resource the 
U.S. Embassy can be, whether it's for replacing a lost or 
stolen passport, or communicating lifesaving information during 
a natural disaster.
    From among other issues, if I'm confirmed, I would do my 
utmost to help Costa Rica become a full partner in the Central 
America-Dominican Republic-United States Free Trade Agreement. 
The United States has a vibrant trade relationship with Costa 
Rica that is likely to make the Costa Ricans the biggest 
beneficiary of the free trade in this region, once this 
agreement is fully implemented.
    From 2005 to 2006, trade between Costa Rica and the United 
States rose by almost 14 percent. Having long enjoyed access to 
our markets through the Caribbean Basin Initiative, Costa Rica 
is now ready for CAFTA. President Arias' leadership on this 
issue has been impressive, and if confirmed, I will use my 
professional experience to foster stronger trade, tourism, and 
investment ties between our two nations.
    Mr. Chairman, Senator Menendez, members of the committee, I 
truly appreciate the opportunity to be before you today, and I 
would be grateful for your support in this nomination process.
    Thank you.
    [The prepared statement of Mr. Cianchette follows:]

       Prepared Statement of Peter E. Cianchette, Nominee to Be 
                Ambassador to the Republic of Costa Rica

    Thank you, Mr. Chairman and members of the committee, for granting 
me the opportunity to appear before this august body.
    I am honored and humbled to be here as President Bush's nominee to 
be the United States Ambassador to Costa Rica. I am grateful to the 
President and Secretary Rice for their confidence and trust in sending 
my name to the Senate for your consideration.
    With the committee's indulgence, I would like to introduce my wife 
of nearly 22 years, Carolyn, who is here with me today, along with my 
son, Evan, and my daughter, Maria. My family is excited about the 
prospect of serving in Costa Rica and has been extremely supportive 
when contemplating the possibility of this major transition. Also with 
us today are my parents, Bud and Priscilla Cianchette.
    Mr. Chairman, I am truly honored by this potential opportunity to 
serve in Costa Rica. If confirmed, I believe my extensive public 
service and business experience would help me to strengthen our 
relationship with this important regional ally.
    My service in the Maine state legislature gave me valuable 
experience that I believe will be useful if I am confirmed. Legislative 
work requires the ability to demonstrate leadership and build 
consensus. An effective legislator listens to the citizens he serves 
and responds to their concerns, as well as those of colleagues and the 
many other stakeholders in any particular policy. Everything I've 
learned suggests that an effective ambassador must lead the embassy 
staff in the country, but build consensus as a team player within the 
interagency community so that all U.S. equities are represented.
    In business, as in public service and diplomacy, the ability to 
connect with people is essential. My experience as an executive with a 
Spanish-owned manufacturing company has prepared me well to take 
advantage of the opportunities presented by working in a different 
cultural context. Indeed, decades of work with people at all different 
levels in business, public service, and civic organizations have taught 
me that the one sure way to connect with someone is to tap into 
aspirations.
    And Costa Rica is a nation of great aspirations. With its rich 
tradition of individualism and democracy, this staunch U.S. ally is a 
model for other countries in the region in several respects. A bastion 
of stability in an often-troubled region, Costa Rica abolished its 
military in 1948 to channel investment into social services such as 
healthcare and education. Costa Rica has progressively preserved its 
abundant natural resources. Last year, the poverty rate fell to a 30-
year low, a historic achievement. However, at this critical juncture 
Costa Rica faces new challenges.
    Costa Rica, the United States, and other countries in the region 
face shared security threats from human and drug traffickers, 
terrorists, and other criminals. In 2006, a greater amount of illicit 
narcotics was interdicted in Costa Rica than any other country in 
Central America except Panama. Costa Rica is grappling with domestic 
crime on an unprecedented scale. Fortunately, we have a willing partner 
in the Arias administration that seeks for Costa Rica to play a pivotal 
role in an integrated regional response to these threats. If the 
President's Merida Initiative is approved, Costa Rica's law enforcement 
personnel will receive training and equipment to improve their ability 
to interdict drug traffic and combat crime.
    Security concerns already affect the hundreds of thousands of U.S. 
citizens who visit and reside in Costa Rica each year. If confirmed, I 
would have no greater priority than protecting American citizens. 
Having traveled and conducted business abroad, I understand what a 
tremendous resource a U.S. embassy can be, whether for replacing a lost 
passport or communicating lifesaving information during a natural 
disaster.
    From among other issues, if confirmed, I would do my utmost to help 
Costa Rica become a full partner of the Central America-Dominican 
Republic-United States Free Trade Agreement (CAFTA-DR). The United 
States has a vibrant trade relationship with Costa Rica that is likely 
to make Costa Ricans the biggest beneficiaries of free trade in the 
region once the agreement is fully implemented. From 2005 to 2006, 
trade between Costa Rica and the United States rose by almost 14 
percent. Having long enjoyed access to our market through the Caribbean 
Basin Initiative (CBI), Costa Rica is now ready for CAFTA-DR.
    President Arias' leadership on this issue has been impressive. If 
confirmed, I will use my professional experience to foster stronger 
trade, tourism, and investment ties between our two nations.
    Thank you, Mr. Chairman, and members of the committee, for the 
privilege of appearing before you. I would be pleased to answer any 
questions you may have.

    Senator Dodd. Thank you very much, we appreciate that.
    Mr. Speck, thank you. Thank you for joining us.

STATEMENT OF SAMUEL W. SPECK, NOMINEE TO BE COMMISSIONER ON THE 
     PART OF THE UNITED STATES ON THE INTERNATIONAL JOINT 
              COMMISSION, UNITED STATES AND CANADA

    Mr. Speck. Thank you, Mr. Chairman, and members of the 
committee. I'm honored to also have the opportunity to appear 
before you, and grateful for the trust that the President 
placed in me by nominating me to serve on the International 
Joint Commission.
    I have a special request, however, for this committee, and 
that is, I didn't have an appreciation that families were also 
invited, and I would greatly appreciate that my wife does not 
learn of that opportunity, as well as the rest of the family. 
[Laughter.]
    Senator Dodd. You've got some diplomatic work to do. 
[Laughter.]
    Mr. Speck. Yes.
    The United States and Canada share a stewardship over the 
largest concentration of fresh surface water on this planet. 
Americans and Canadians share a vital interest in the effective 
management of our shared water resources at the border. And 
despite some occasional, localized disputes, the degree of 
cooperation between the United States and Canada in managing 
transboundary environmental concerns, remains unprecedented in 
the world.
    If confirmed, I would bring to the position of IJC 
Commissioner significant--and I believe--successful experience 
in State and Federal Government, and in higher education, and a 
strong background in resolving boundary water issues.
    My educational/professional background includes--as Senator 
Voinovich mentioned--Master's and Doctorate degrees in 
government, extensive college teaching, 13 years of experience 
as a State Representative and as a Senator in the Ohio 
legislature, where I specialized in natural resources issues, 
including chairing the Senator Natural Resources Committee, and 
appointment as the Federal Emergency Management Agency's 
associate Director for State and Local Programs and Support, 
which included responsibility for some natural resources issues 
like flood plain management and preparation for dealing with 
natural resources disasters.
    I also served as the President of Muskingum College for 
some 11 years, and of course that was John Glenn's alma mater, 
so you know it had to be a good institution.
    Most recently, I served as Director of the Ohio Department 
of Natural Resources, and at present, am involved in natural 
resources consulting, and on a number of boards, including Ohio 
State Nature Conservancy board, and Audubon board, and on 
International Joint Commission's International Upper Great 
Lakes Studies Public Information Advisory Committee--or group, 
I should say--known as a PIAG.
    During my tenure as Director of Ohio's Department of 
Natural Resources, I was an active member and chair of the Lake 
Erie Commission, the Great Lakes Commission, which also 
included representatives of the Great Lakes Provinces--
essentially Quebec and Ontario--the Ohio Water Resource 
Council.
    In 2004, I was one of three State officials in the United 
States to receive the National Governor's Association's Annual 
Award for distinguished service in State government, and I 
think that was related primarily to my work in water resources 
issues, including perhaps my most important experience as it 
relates to the position before you, in that I served over 4 
years as chair of the Council of Great Lakes Governors and 
Premiers Water Management Working Group, which developed the 
Great Lakes-St. Lawrence River Basin Water Resources Compact, 
and the Great Lakes-St. Lawrence River Basin Sustainable Water 
Resources Agreement.
    And, in part these were stimulated by the encouragement 
Congress gave in WERTA, and particularly, WERTA 2000, in urging 
the States to work together, and the Canadian Provinces alike, 
to try to develop a more effective management of the waters of 
the Great Lakes to protect that resource for the future. And 
during our development of those agreements, we received helpful 
guidance from the International Joint Commission.
    In December of 2005, the Ten-Party Agreement was signed by 
the Great Lakes governors and premiers, and the compact was 
endorsed by the governors and sent on to the State 
legislatures. The compact and agreement represent an 
unprecedented commitment to preserve and protect the world's 
largest single source of fresh water.
    And I'm pleased to report to you, that as of March 2008, 
four of the State legislatures have enacted the compact. The 
legislation is pending in the other four, three of which have 
passed it in one of the two houses in their respective States. 
So, I hope that the compact is something that will soon be 
ready to be presented to Congress for its consent.
    The commission is uniquely positioned to assist the United 
States with cooperatively addressing a number of continuing and 
emerging challenges that exist along the boundary, including 
responding to the change in demographics and water use and 
water levels and supply conditions along the border, reducing 
the threats to human and ecosystem health from toxic 
substances, encouraging the development of watershed boards 
that will build cooperative relationships among local 
stakeholders, like the one recently developed, indeed the 
first, up in the St. Croix area, between the State of Maine and 
Canada.
    With that, Mr. Chairman, members of the committee, I would 
be glad to answer any questions you might have, either now or 
in writing.
    [The prepared statement of Mr. Speck follows:]

Prepared Statement of Samuel W. Speck, Nominee to be a Commissioner on 
 the Part of the United States on the International Joint Commission, 
                        United States and Canada

    Mr. Chairman and members of the committee, I am honored to appear 
before you today and grateful for the trust placed in me by the 
President in nominating me to serve on the International Joint 
Commission.
    The United States and Canada share stewardship over the largest 
concentration of fresh surface water on the planet. Americans and 
Canadians share a vital interest in the effective management of our 
shared water resources at the border. Despite occasional localized 
disputes, the degree of cooperation between the United States and 
Canada in managing transboundary environmental concerns remains 
unprecedented in the world. For almost 100 years, the Boundary Waters 
Treaty of 1909 has guided our two countries in developing shared water 
resources for domestic supply, navigation, hydroelectric power, and 
irrigation in an amicable and mutually beneficial manner. It also 
provides a framework for preventing and resolving disputes over water 
quantity and quality issues. The International Joint Commission (IJC) 
plays a pivotal role in giving impartial science-based advice to assist 
our countries in attaining the goals of the Treaty.
    If confirmed, I would bring to the position of IJC commissioner 
significant and successful leadership experience in State and Federal 
Government and higher education and a strong background in resolving 
boundary waters issues. My educational and professional background 
includes earned masters and doctoral degrees in government (Harvard 
University), extensive college teaching, 13 years of service as an Ohio 
State representative and Senator where I specialized in natural 
resources issues, appointment as the Federal Emergency Management 
Agency's Associate Director for State and Local Programs and Support 
(l983-1986), and President of Muskingum College (l987-1999) during 
which time the college cut tuition by $4,000. Most recently I served as 
Director of the Ohio Department of Natural Resources (1999-2007). At 
present, I am involved in natural resources consulting and serving on a 
number of nonprofit boards (including the Ohio Nature Conservancy and 
Audubon boards) and on the International Joint Commission's 
International Upper Great Lakes Study's Public Information Advisory 
Group (PIAG).
    During my tenure as Ohio's Director of Natural Resources, I served 
on the Ohio Lake Erie Commission (member and chair), Great Lakes 
Commission (member and chair), and Ohio Water Resources Council (member 
and chair). In 2004, I was one of three state officials in the United 
States to receive the National Governors Association's annual award for 
Distinguished Service in State Government.
    Perhaps most significant, I served for over 4 years as the chair of 
the Council of Great Lakes Governors and Premiers Water Management 
Working Group which developed the Great Lakes-St. Lawrence River Basin 
Water Resources Compact and the Great Lakes-St. Lawrence River Basin 
Sustainable Water Resources Agreement. In December 2005, the agreement 
was signed by Great Lakes Governors and Premiers and the compact was 
endorsed by Great Lakes Governors. The compact and agreement represent 
an unprecedented commitment to preserve and protect the world's largest 
single source of fresh water. I am happy to report that as of March 
2008, four of the eight Great Lakes States have enacted the compact and 
legislative action is pending in four others. I hope that the compact 
will soon be ready to be presented to Congress for its consent.
    The International Joint Commission has had a long history of 
carrying out the scientific work and consultations that provided the 
basis for approving the development of hydroelectric power along the 
border and providing advice to governments in defining transboundary 
water quality objectives and managing shared water resources.
    In addition, the commission is uniquely positioned to assist the 
United States with cooperatively addressing a number of emerging 
challenges that exist along the boundary. These include:

Responding to changing demographics, water use, and water levels and 
        supply conditions on the border;
Reducing the threats to human and ecosystem health from toxic 
        substances; and
Encouraging development of watershed boards that will build cooperative 
        relationships among local stakeholders on both sides of the 
        border and foster a sense of shared responsibility for the 
        health of the watershed.

    If confirmed by the Senate, I look forward continuing communication 
with appropriate executive branch agencies and with the Congress to 
help maintain the strong and productive relationship with Canada that 
is so important to our country and the shared water resources upon we 
depend.
    I look forward to answering any questions that you might have for 
me.

    Senator Dodd. Well, thank you very, very much. I appreciate 
that.
    We've been joined by Senator Feingold, from Wisconsin, 
thank you Senator for being with us.
    I'll just ask a couple of questions of you, and then I'll 
quickly turn to my colleagues and have them raise any other 
issues that they're interested in.
    Ms. Stephenson, let me ask you about the plans on the 
Panama Canal. This was a remarkable event, I happened to be 
there in nineteen--I'm trying to think what year it was, now, 
we celebrated--I think it was 1979, and then 1989, it was the 
10th anniversary that I went down to celebrate that 
anniversary, and I was very impressed at how things were 
working.
    At that time, obviously, a very controversial issue, and it 
was before I arrived in the Senate, but that was about as 
heated a debate in the country and where you stood--and people 
like Howard Baker, Paul Sarbanes, who played a critical role in 
that issue--and a lot of people, Barry Goldwater, people like 
John Wayne, I recall, people have forgotten some of the people 
who were heroic in that effort, and the importance of that 
conclusion.
    But I know there's some talk about plans for expanding the 
canal, and the like. Do you want to share with us what you know 
about that?
    Ms. Stephenson. Yes, sir. It's good to have someone who 
remembers just how controversial that was. Because I 
certainly--when I arrived in Panama--the feelings about that 
were still very raw and bubbling near the surface, I mean 
certainly with, here on the Senate.
    And I think both sides feel really good about the way that 
it's unfolded. The handover happened in 1999, so the Panama 
Canal Authority runs the canal. Revenues are up, accidents in 
canal waters are down, transit times have been shortened--so 
really, by every measure, the canal is being run efficiently 
and effectively, and it's a source of pride for Panamanians, 
and it's an excellent source of transit for us.
    Panamanians had a referendum in 2007, and decided yes, 
indeed, they would expand the canal. So, it would add a third 
set of locks, and the work will go on for about the next 10 
years. The budget right now is about $5 billion--you will 
remember that are ships that are actually built called Panamax 
which are, you know, big boxy ships that just slide through 
those locks. The third set of locks would be bigger, so that 
you could actually have, not only more traffic going through, 
but you could take through ships that are bigger than those 
specifications.
    So, it's broken into a number of phases, some U.S. 
companies have already won portions of it, CH2M Hill won the 
project management contract, an American law firm won the legal 
advice contract, and there's a design-build contract that's 
going out also--some U.S. companies are part of some of the 
bids that are there for that.
    I was reading a piece in the Spanish press, the Spanish-
language press, boning up on my Spanish, and see that the Canal 
Expansion Project won a big award in Verona, Italy, for sort of 
the best civil engineering going forth this year, so it's a 
source of real pride.
    And I think the concerns we've had that were very present 
in the 1977 debate about whether our interests could be 
preserved if we handed it over to Panama, I think it's another 
thing to look back on with a real sense of pride, is that our 
ships still transit it, we're still by far the biggest user. 
But it runs very well, and it's a source of great pride for 
Panama, too.
    So, I think it's one of those where we can all look back on 
it, and feel very good about having done the right thing.
    Senator Dodd. Yeah. It's a remarkable history.
    I was in London about a month ago, and I love maps. I went 
to an old map store and I found an old map, an 1850 map of 
Panama, that identified the potential sources of a canal, drawn 
onto the map, including the one that's the Panama Canal, but 
also the San Juan River going to Lake Managua----
    Ms. Stephenson. Right, remember?
    Senator Dodd [continuing]. Which was the earlier idea that 
the Vanderbilts were promoting at that time.
    Ms. Stephenson. Right.
    Senator Dodd. So, it's a wonderful little piece of history 
to know that 50 years before any of this started, there were 
people already moving in that direction.
    On Costa Rica, you know, and I was thinking, in a way, 
you've got Torrijos in Panama, you've got Oscar Arias in Costa 
Rica, you've got Dan Ortega in Nicaragua----
    [Laughter.]
    Senator Dodd [continuing]. You've got the Bushes in the 
White House----
    [Laughter.]
    Senator Dodd. I mean, I'll tell you, sort of, nothing's 
changed a lot in terms of names around the region.
    Oscar Arias is someone that all of us have worked with over 
the years in various points, and explain a little bit about how 
this is working you're optimistic in your statement about how 
the CAFTA agreement is working in Costa Rica. It was a major 
election item for Oscar Arias in his campaign, he survived, and 
won the election. And it's the process of ratifying and 
implementing CAFTA, but it's clear the public remains divided 
on this issue, still, I think is reports say that we get out of 
Costa Rica. But you seem to indicate otherwise. It is divided, 
or not? How is this going?
    Mr. Cianchette. Well, Senator, certainly that was a very 
close election. As you most likely well know, there was a 
public referendum, a country-wide referendum on CAFTA. It was 
ratified, it was narrowly passed, but yet now enjoys a greater 
level of support than when it did, when it went out for that 
referendum in last fall, in October of 2007.
    I think at this--there's been much discussion around the 
country, certainly a referendum of that nature causes lots of 
people to be educated, and discussion, and I really believe 
that from everything that I've learned, and the intense 
research I've been doing the last couple of months, that Costa 
Ricans understand, by and large, that they've been given a 
unique opportunity to partner with other allies, or with other 
countries in the region, and most importantly with the United 
States and this is--truly presents them with a unique 
opportunity.
    So, I believe that the support for this agreement has 
increased, and certainly the President, President Arias, has 
been steadfast in his support, and his belief that it is in the 
best interest of his country. And he's continued to work with 
the assembly, they've made great progress, as you may know, 
they did receive an extension to enter into the agreement 
fully--had the ratification, but now it's required that they 
have a number of modifications to their laws and regulations to 
fully implement.
    They're making very good progress on that. I believe that 
that will happen, and if I am confirmed, and fortunate enough 
to serve there, I will continue to work with the President and 
other stakeholders to make certain that they understand that 
this is a last, best chance, if you will, for them to join this 
unique opportunity, and I believe they will, and I will lend 
whatever support I can to that.
    Senator Dodd. Well, thank you very, very much.
    I've got a couple of questions for you, Mr. Speck, but I 
want to respect my colleagues' presence here and their time 
constraints, and I know Senator Feingold probably has some 
strong questions.
    But I understand, Bob, you've got about 10 minutes before 
you've got to be at another meeting, if you have any questions 
here, and then we'll jump to Russ.
    I'm going to step out for one second, just excuse me, I'll 
be in the back room, here, so Russ, take over.
    Senator Feingold [presiding]. Thanks, Mr. Chairman. I won't 
ask for unanimous consent for anything while you're gone. 
[Laughter.]
    Senator Menendez. Again, congratulations to all of you on 
your nominations, and Mr. Speck, I won't say anything to your 
wife, but I'm not sure today's proceedings are on C-Span or 
not, and hopefully she's not watching if that's the case, so--
--
    [Laughter.]
    Senator Menendez. So, let me--Mr. Cianchette, I appreciated 
our two colleagues introduction of you, and your own statement, 
and you come from a bit of a different background than some of 
the other nominees, so you'll--I hope you'll understand the 
nature of my questions, in that respect.
    Have you traveled to Costa Rica?
    Mr. Cianchette. Sir, I have not, to date.
    Senator Menendez. How--what is your depth of your command 
of Spanish--I know you said you worked with a Spanish-related 
company--what is the depth of your command of Spanish?
    Mr. Cianchette. Well, during the mid-1980s, I worked for a 
company based from Madrid, Spain, and I traveled often to board 
meetings, and conduct--other opportunities to conduct business 
with them--and tour around Spain. And during that time, I 
completed a total immersion course in Spanish, and became--what 
I felt was--very comfortable with business and social 
discussions, and able to communicate, both verbally and to 
understand what's being discussed in Spanish.
    I will admit, sir, that my--I haven't had many 
opportunities to work with my language in the last--in the 
Spanish language--in the last years, and I have engaged 
actively with the FSI in distance-learning programs and others, 
I will avail myself to boost my knowledge of the language and 
to regain much of the ability that I had during the time when I 
worked for this international company.
    Senator Menendez. You know, an ambassador has a lot of 
skill sets that are involved here. Certainly, language is 
always very helpful, customs--an understanding of customs--a 
sense of the politics of the country, a sense of strategy 
within the country. I--could you give me a sense of the 
experiences that you've had, how you believe that some of those 
skill sets that you've had--will help you in this regard?
    Mr. Cianchette. Sir, thank you for your question, and I 
understand the nature of this. I will address that in a number 
of different ways.
    One, is to say very clearly that since receiving the 
nomination, and having it been sent forth to you all for 
consideration, I have devoted my time to understanding Costa 
Rica, its history, its culture, and its current issues, and 
sort of political climate, as well as other geo-political 
issues. So, I have spent a great deal of time, so that I can be 
fully learned about those issues.
    I have sought the counsel of the three most recent 
ambassadors to Costa Rica. One happens to be Chairman Dodd's 
brother, who I had the great opportunity to make his 
acquaintance last week, and I have sought their counsel from 
each of those.
    So that's really what I've done to fully immerse myself, 
and understand the issues that would confront me if I am 
confirmed.
    Again, I would underscore my work with an international 
company based in Madrid, Spain, in other years where I--in 
order to really, fully understand their issues and their 
philosophy, as we were business associates--I really needed to 
understand their cultural, things in their cultural context, 
and pride myself on the ability to have done that in the past, 
so that I could be fully engaged in a productive way with them.
    Senator Menendez. One last question, on the question of 
drug interdiction in Costa Rica--it's going to be a significant 
part of our efforts, here--I heard what you said about Merida, 
which all of you have said, to the extent that those previous 
panelists were involved, as well. But, what do you believe is 
the extent of the United States cooperation with Costa Rica in 
terms of the whole narcotics interdiction effort? And what role 
do you see yourself playing if you were to be ultimately 
confirmed?
    Mr. Cianchette. Sir, I think we can point to a great deal 
of success that the United States and Costa Rica has had 
recently, working collaboratively. There was a bilateral 
maritime agreement that's been in force and been in place, that 
gave us great cooperation, with great success in interdicting 
drugs. Again, as we've said, we've had more cocaine seized in 
Costa Rica--or they have had more cocaine seized in Costa 
Rica--than anywhere else in the region, with the exception of 
Panama.
    Their--our opportunities to work with their law enforcement 
organizations, their security personnel, their Coast Guard, if 
you will, those institutions and those organizations to make 
sure they are highly effective, I believe, has been successful.
    Furthermore, I believe that the willingness that we have 
from the Costa Rican--the interest in our support, in our aid, 
in our assistance--in training their personnel and building 
their capacity is a very positive sign. And that we've been 
cooperating with them, and that they're a willing partner, we 
can contribute--excuse me, we can build stronger capacity--and 
that we will continue to have successes, and that's why the 
initiatives, such as the Merida Initiative--and I understand 
you are all still contemplating that--but the components, or 
similar components, that underlie that program, I think can 
help us continue to have those types of successes so that we 
can disrupt the flow of drugs coming into Costa Rica, and 
ultimately, hopefully, prevent them from also coming into the 
United States.
    Senator Menendez. All right.
    Finally, Ms. Stephenson, let me ask you, we have put nearly 
$4 million toward Panama in the International Narcotics and Law 
Enforcement Assistance component for Panama. I wonder if you 
have a view as to whether or not the way we presently have it 
structured--do you think that is the best way we can engage 
with Panama?
    And second, can you give me a sense of what you think the 
banking situation is in Panama as it relates to money 
laundering?
    Ms. Stephenson. Yes, Senator Menendez, certainly I'll have 
a much better feel once I'm actually, if I'm confirmed, I'm in 
Panama, but I have had extensive consultations with the 
Department of Justice, and the various components of the law 
enforcement team leading up to this, and I'm pretty happy with 
this.
    There are things like the vetted units, are a key 
component, the fingerprint system has been flagged for me by 
senior Justice officials as kind of if there's, ``the one thing 
I could do, this is what I would do.'' So, even in the Pillar 1 
part, which is the part that's more hard-core counternarcotics, 
even in there, I think it's, we've placed it on the things that 
really do pay the big dividends.
    And the other component of it is an information sharing 
capability, so I think that that's--I think it's quite good.
    I really agree with what you say about the importance of a 
holistic approach and of the institution-building. It's slow 
work, it's hard for us to measure institution-building, you 
know, on a year-by-year basis and so I think that that 
sometimes leads us to question whether it's working, when you 
look back you see that it did.
    The other thing, though, about institution-building is 
sometimes it's not as expensive as some of the other things. 
And so, even though it's a core part of it, measuring it by the 
dollars that go into it is only one of the indicators of its 
relative importance. And I welcome you insisting that we have a 
holistic approach, and that we build the institutions, but I do 
flag that the kind of institution-building you're doing--
training just doesn't cost as much as equipment does, it's just 
less expensive.
    I'm happy with this, I have to say, if I had the chance to 
write it, it wouldn't look very different than this. I am happy 
that the amounts we've requested for 2009 are considerably 
greater. My experience over the years has been that when you go 
in that first year, you've got the political will--the Central 
Americans have asked for help in this. You go in, your initial 
aid money really does allow you to scope the problem, and 
explore the system and see where the weaknesses are, and then 
it allows you to spend larger amounts of money in the following 
years in a much more targeted and effective way.
    So, I have to say, I'm very pleased with this, and I'm 
pleased with the political will the Central Americans showed. 
I'm also really pleased with the amount of inter-agency 
cooperation that has been generated in Washington, in the 
effort to put this together. Because when we pull together with 
the strategy, we get much better results than when we work 
competitively.
    Senator Menendez. And money laundering?
    Ms. Stephenson. Money laundering--it's a sophisticated 
financial system. You know, it's situated right there where the 
drugs are flowing up, and Colombia is right below it. I think 
that unmistakably there is--there is some black market peso 
exchange activity that is going on there. We work closely with 
the Panamanians, like with the Caribbean Financial Action Task 
Force, to strengthen the systems that fight it, but it is 
something that I want to get--I want to work on when I'm down 
there. It was a huge problem when I was there 20 years ago. I 
asked this with--at every level of my consultations, and to be 
honest, I got varying views. With some agencies feeling like it 
was really looking awfully good, and others worried that 
perhaps it wasn't as good as it looked.
    So, I want to get a good assessment of just what's going 
on, and where we can strengthen the systems to discourage it. 
But Panama is going to be a vulnerability, because of its 
geography, and because of a very robust banking sector.
    Senator Menendez. Well, I appreciate you recognizing that, 
I thank my colleague from Wisconsin.
    Ms. Stephenson. Thank you, sir.
    Senator Feingold. Thank you, Senator Menendez.
    And I thank the chairman and the ranking member for holding 
this hearing, I congratulate all of you on your nominations. 
I'd like to first make some brief remarks and then I do have a 
few specific questions for Samuel Speck.
    Mr. Speck is nominated to be a Commissioner representing 
the United States on the International Joint Commission. The 
IJC plays an important role in the management of the Great 
Lakes and preventing water disputes between Canada and the 
United States.
    Every year I hold town meetings or listening sessions in 
each of Wisconsin's counties, and last year I heard from many 
concerned Wisconsinites about the near-record low lake levels 
in both Lake Superior and Michigan. As anyone who has ever 
visited the Badger State knows, those lakes are near and dear 
to all Wisconsinites. Studies of water levels in the Great 
Lakes suggest that both manmade changes, and abnormal weather 
conditions may be contributing to the falling levels.
    In September, I was joined by several other Great Lakes 
Senators in urging the IJC to expedite both its study of 
potential erosion in the St. Claire River, and its updating of 
the regulatory plan for Lake Superior's water level and its 
outflow. I greatly appreciate the IJC's attention to this 
request, and its announcement last October that part of the 
study--which is looking into the St. Claire River--would be 
expedited by a full year.
    The IJC's International Upper Great Lakes Study is also 
looking at updating its 1979 plan for Lake Superior, to 
determine if its regulation of the lake's outflows can be 
improved to take into consideration changing interests, and the 
impact of climate change and other factors on Great Lakes water 
levels.
    The Great Lakes undoubtedly require our continued 
commitment if they are to remain a vibrant economic and 
environmental resource for Wisconsin, the Mid-West and the 
entire nation.
    Mr. Speck, I thank you for joining us today, and again, I 
congratulate you on your nomination. Given your natural 
resources background, I'm confident you have a strong grasp of 
the importance of the Great Lakes ecosystem. I know you've been 
involved in the International Upper Great Lakes Study, and to 
your knowledge, let me ask you, is the IJC still on schedule, 
and will you--as a commissioner--commit to meeting the 
expedited February 2009 deadline for the St. Claire River 
Study?
    Mr. Speck. I share your concern, and as I think is 
reflected on my agreeing to serve on that PIAG. To the best of 
my knowledge, it is on course, it is being given priority, as 
it was reprioritized.
    The issues that you mentioned are proving to be very 
complex issues, as you look at what has been causing the drop 
in the waters of both Lake Ontario--I don't mean Lake Ontario, 
that's the lower Great Lakes study--in Huron and Michigan. And 
we want to make certain that we bring--as one of the main 
contributions of the IJC--the best science for making 
decisions, and have our arms around all of the factors that may 
have been causing that drop, which perhaps was masked by that 
higher water period a few years ago, and we didn't recognize it 
maybe as quickly as it should have been recognized.
    But yes, we--that's critical, it has been reprioritized, 
and we are moving ahead--indeed we are holding public hearings 
throughout the area, we're commencing some at the end of this 
month.
    Senator Feingold. Well, will you commit to meeting the 
expedited February 2009 deadline?
    Mr. Speck. Certainly, we'll make every effort to do that.
    Senator Feingold. I hope so. Is the IJC planning to make 
recommendations to the U.S. Congress about necessary actions, 
such as potentially having the Corps of Engineers finish its 
environmental mitigation work from several decades ago on the 
St. Claire River?
    Mr. Speck. I would, you know, Senator Feingold, and members 
of the committee, the IJC is sort of a strange organization, in 
that it is binational and the role of the IJC is to make 
recommendations to the Federal Government and the same goes 
with Canada. And we would certainly be coming back to do that, 
because it will be--Congress will likely have a critical role 
in the future there.
    Senator Feingold. We look forward to getting some of those 
recommendations. There are some very serious concerns, as 
you're aware, and I hope the IJC continues to work with and 
listen to all of the stakeholders, and I look forward to the 
final results.
    In regard to the second part of the IJC study assessing low 
lake levels, can you tell me when the IJC intends to complete 
its recommendations for updating Lake Superior's regulatory 
plan--is this still expected to take 5 years?
    Mr. Speck. At this point, that's the best of my 
information, but I have no, you know, I can't tell you if 
there's any change afoot on that, but I certain can get back to 
you that, and to the committee on that.
    Senator Feingold. Good.
    Do you personally think, sir, that we can maintain Great 
Lakes water quality protection if discharges of pollution are 
no longer regulated at the source, as required by the Clean 
Water Act of 1972?
    Mr. Speck. That is a matter of justifiable concern, and 
we'd want to give attention to that.
    Senator Feingold. As you're probably aware, due to recent 
Supreme Court decisions, currently over 50 percent of the 
Nation's streams, and millions of acres of wetlands are in 
jeopardy of losing Clean Water Act protections, which means 
discharges of pollution into these waters could no longer be 
regulated. I don't see how the United States can fulfill its 
obligations under the United States-Canada Water Quality 
Agreement, which I understand the IJC wants to update--if these 
waters do not remain protected.
    The agreement and the Clean Water Act share the same goal 
of reducing the discharge of pollutants into the Great Lakes 
system, in an effort to restore or maintain the chemical, 
physical, and biological integrity of the waters of the Great 
Lakes Basin Ecosystem. I hope that as commissioner, you'll 
support my efforts, and those of Chairmen Oberstar, Dingell, 
and Ehlers, to restore the Clean Water Restoration Act, to 
restore the 35-year old protections, and fulfill our 
obligations under the Water Quality Agreement.
    As you know, the Great Lakes supply drinking water to more 
than 40 million United States and Canadian residents, so a lot 
is at stake, if you'd like to respond to that.
    Mr. Speck. I am not prepared to make a commitment--I 
understand the problem, and would certainly be glad to work 
within the commission to see where it would be appropriate for 
us to address it, in terms of recommendations that might be 
made.
    As you know, with what you mentioned, in terms of the Great 
Lakes Protection Act itself, one of the things that the IJC has 
been recommending is that it be more active in this area. Those 
recommendations, I think, have been submitted to the respective 
Federal Governments. And so, something has been underway in 
that regard.
    Senator Feingold. Good, well, I just wanted to put that 
issue and legislation on your radar screen, and I wish you 
well.
    Thank you, Mr. Chairman.
    Senator Dodd [presiding]. Thank you very much, Senator.
    And I want to thank all three of you, and I wish you well 
in the coming days. You may have heard what I said to the 
previous panel. We'll try and move this process along, and any 
additional questions members have, and I suspect there may be 
some, we'll try and get them to you very quickly.
    For those who are staff, I'd like you to notify your 
respective members of how important it is to get these 
questions asked, and then responses to it, and we'll try and 
see if we can't schedule a mark-up of these nominations.
    Congratulations to all three of you. And thank you, again, 
for being here today.
    The committee will stand adjourned.
    [Whereupon, at 5:00 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


               Prepared Statement of Hon. Sherrod Brown,
                         U.S. Senator From Ohio

    Mr. Chairman, members of the committee, I am pleased to offer my 
strong support for the nomination of my fellow Ohioan, Dr. Samuel W. 
Speck, Jr., to the International Joint Commission. There are numerous 
important issues affecting the international boundary waters that 
separate the United States and Canada, including ballast water and 
other issues related to the continued presence of invasive species, and 
ongoing water quality concerns, just to name a few. We must have smart, 
confident U.S. representation on the commission. Samuel Speck is a 
perfect fit for this job.
    Dr. Speck has a long and distinguished career as a public servant 
and as an educator, including his longtime service to his alma mater, 
Muskingum College, as a faculty member and then college President, his 
work as a State legislator and with the Federal Emergency Management 
Agency, and more recently his tenure as Director of the Ohio Department 
of Natural Resources. At ODNR, Dr. Speck was greatly involved in 
improving Lake Erie and championing new protections for the Great 
lakes, both as ODNR Director and as Chairman of the binational Great 
Lakes Commission. His knowledge of the Great Lakes--home to \1/5\ of 
the world's fresh water--and familiarity with the numerous issues 
affecting our shared waterways would be of great benefit on the IJC.
    As a former colleague of Dr. Speck's, I can speak to his 
willingness to bring different sides together, his integrity, and his 
dedication to the task at hand. He has spent his life committed to 
educating our children, protecting the environment, and improving our 
world for future generations. I offer my wholehearted support for the 
nomination of Dr. Samuel W. Speck, Jr., to the International Joint 
Commission.
    Thank you, Mr. Chairman.
                                 ______
                                 
                                             State of Ohio,
                                      Columbus, OH, April 15, 2008.
Hon. Joseph R. Biden, Jr.,
U.S. Senate,Committee on Foreign Relations, Washington DC.
    Dear Chairman Biden: On behalf of the people of the Great State of 
Ohio, please accept my letter of support for the nomination of Dr. 
Samuel W. Speck to the position of Commissioner on the part of the 
United States on the International Joint Commission, United States and 
Canada. I support this nomination based on Dr. Speck's proven 
expertise, experience, and leadership in the area of natural resources 
at both the State and Federal level.
    Dr. Speck served as Ohio's director of the Ohio Department of 
Natural Resources for 8 years and in this position Dr. Speck was 
responsible for the management of Ohio's 74 State parks, 20 State 
forests, and 125 State nature preserves, in addition to numerous other 
management responsibilities. Dr. Speck chaired the Council of Great 
Lakes Governors and Premiers Water Management Working Group that led to 
the development of the Great Lakes Annex Agreement and Compact--an 
historic and much needed protection for our Great Lakes.
    Dr. Speck worked collaboratively and in a bipartisan manner over 
the years to protect our natural resources and build a consensus around 
some of the most important issues for the State of Ohio. I am confident 
that he will continue to offer vision and perspective in this position.
    I appreciate the attention your office and your committee have 
directed to this important appointment. Please be assured that I am 
available to lend any assistance to the process.
    Thank you for your consideration.
            Kindest Regards,
                                            Ted Strickland,
                                                          Governor.
                                 ______
                                 

        Responses of Peter E. Cianchette to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. President Arias nearly lost reelection because of his 
support for CAFTA. Costa Rica is in the process of ratifying and 
implementing CAFTA but it is clear that the public remains seriously 
divided regarding this trade agreement. What are some of the key 
concerns the public has raised on this issue?

    Answer. CAFTA was narrowly ratified in a historic public referendum 
on October 7, 2007, but the Costa Rican public has come to view the 
agreement more favorably in the ensuing months. Public opinion polls 
conducted in Costa Rica in January 2008 revealed that two-thirds of 
Costa Ricans expect CAFTA to benefit the country, and that a strong 
majority--even among those who voted ``no'' to the referendum--want 
CAFTA to be implemented. In addition, President Arias currently enjoys 
the highest approval rating--64 percent--among Central American 
leaders.
    This shift in public opinion about CAFTA can likely be attributed 
to three factors. First, in Costa Rica's vibrant, long-standing 
democracy, the will of the people is paramount. Now that the public has 
spoken in the referendum, the national debate is largely over. Second, 
the public, in addition to the political sector, including most of the 
parties that had opposed CAFTA, is anxious to complete CAFTA in order 
to focus on other priorities, such as addressing Costa Rica's growing 
domestic security problems. Third, the public remains confident that 
the Arias administration is proceeding along the right track.
    There is still a vocal, very small minority opposed to CAFTA, but 
they are out of the political mainstream. This minority argues that 
CAFTA would weaken the statist model that has historically provided 
Costa Ricans a generous social welfare safety net, and would jeopardize 
small farmers, once the backbone of Costa Rica's economy. 
Environmentalists also fear that the rapid economic development CAFTA 
is expected to promote will come at the expense of environmental 
protection.

    Question. How is the United States working with President Arias to 
address these issues?

    Answer. The Arias administration believes that the state 
institutions to be opened by CAFTA (telecommunications and insurance) 
need reformation in order to provide better service to the people. The 
Arias administration, with other political parties, is also working on 
legislation to offset any CAFTA-related impact on small businesses and 
farmers.
    The United States and the other CAFTA signatories agreed to grant 
Costa Rica sufficient time to implement CAFTA. At Costa Rica's request, 
all of the CAFTA countries agreed to a one-time entry-into-force 
extension from March 1, 2008, as required in the agreement, until 
October 1, 2008.
    The United States is also providing $100 million in regional Trade 
Capacity Building assistance from fiscal year 2005-2007 to improve 
environmental protection and labor rights protection as CAFTA is 
implemented. Costa Rica is receiving a share of those funds, and has 
invested in the strengthening of the capacity of the Ministries of 
Environment and Energy, and Labor. If confirmed, I will support CAFTA-
linked environment and trade capacity building. USAID has funded 
training and programs administered by the U.S. Department of 
Agriculture (USDA) and Environmental Protection Agency (EPA) to 
strengthen Costa Rica's regulatory systems and ultimately increase 
trade with the United States.

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes. I have read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes. I understand and unreservedly agree to abide by the 
principles set forth in 04 STATE 258893. The more than 3,000 Peace 
Corps volunteers who have served in Costa Rica since 1963 have advanced 
United States objectives significantly and contributed to Costa Rica's 
development through a variety of projects including health, education, 
environment, agriculture, small business development, and youth 
development. If confirmed, I will strongly support Peace Corps 
Volunteers in Costa Rica in their mission to focus on addressing the 
needs of the most vulnerable populations throughout the country, 
strengthening agencies and communities to serve these populations.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps' role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. government 
agencies''?

    Answer. I understand that the Peace Corps must remain substantially 
separate from the day-to-day conduct and concerns of our foreign policy 
and wholly accept and endorse this separation. I comprehend the Peace 
Corps' unique role and realize that its need for separation from the 
day-to-day activities of the mission is not comparable to those of 
other U.S. government agencies.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. I pledge that, if confirmed, I will exercise my chief of 
mission authorities so as to provide the Peace Corps with as much 
autonomy and flexibility in its day-to-day operations as possible, so 
long as this does not conflict with U.S. objectives and policies.
                               __________

        Responses of Peter E. Cianchette to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What was the 
impact of your actions?

    Answer. Throughout my career and in my public service, I've worked 
with people at all levels in manufacturing, investment, personnel, 
public, and other sectors. I have found that the one sure way to 
connect with someone is to tap into aspirations. I have then sought to 
use those aspirations to promote an appreciation for individual and 
human rights, democracy, and decency. As examples, I would cite my 
support, as a state legislator, for expanding the Maine Human Rights 
Act to extend protections from discrimination (in employment, housing, 
credit, etc.) based on sexual orientation. As a legislator and private 
citizen, I have also broadly encouraged individuals to participate in 
the democratic process at all levels. Further, I am especially proud of 
my work with charitable foundations including the Make-A-Wish 
Foundation, YES! to Youth, and the Greater Portland Big Brothers/Big 
Sisters. These opportunities have allowed me to witness the impact that 
the time and attention of concerned community-oriented citizens can 
have on the scores of children and families served by these programs.

    Question. What are the most pressing human rights issues in Costa 
Rica? What are the most important steps you expect to take, if 
confirmed, to promote human rights and democracy in Costa Rica? What do 
you hope to accomplish through these actions?

    Answer. Costa Rica is a stable, long-standing democracy with an 
admirable history of protecting and defending human rights, 
domestically and internationally. While there are far fewer in Costa 
Rica than elsewhere in the region, the most pressing human rights issue 
in Costa Rica is trafficking in persons. Costa Rica is a source, 
transit, and destination country for men, women, and children 
trafficked for the purpose of sexual exploitation, and to a lesser 
degree, for labor exploitation. Other urgent human rights concerns the 
U.S. government has noted in recent years focus on prison overcrowding, 
a slow and complex legal justice system, and the protection of 
refugees.
    If confirmed, I will make promoting human rights a central issue. I 
will support use of the ambassador's fund for programs that help 
resettle refugees. I will encourage Costa Rica to adopt comprehensive 
legislation to criminalize all forms of human trafficking and to 
provide greater legal protections and assistance for victims. Through 
these actions, I hope to promote human rights and democracy through the 
reduction of trafficking in persons and increasing governability.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Costa Rica in 
advancing human rights and democracy in general?

    Answer. Embassy San Jose's Mission Strategic Plan notes that the 
broader challenge is not to make Costa Rica more democratic, but to 
make it a more effective democracy by increasing the effectiveness of 
the legislative and judicial systems, a key governability issue. If 
confirmed, I will work with the Arias administration with the goal of 
increasing governability through new legislation, improve 
intragovernment coordination, devote additional resources for prisons, 
and increase the focus on trafficking in persons issues. Lack of staff 
resources and funding are the main obstacles to combating trafficking 
in persons. Prosecutors and the judiciary are woefully understaffed and 
underfunded, resulting in relatively few prosecutions.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the activities of the United States Embassy-Costa Rica? If confirmed, 
what steps will you take to ensure that Foreign Service officers who 
engage in human rights activities are encouraged and professionally 
rewarded for superior service?

    Answer. If confirmed as ambassador, I would emphasize the 
importance of monitoring, promoting, and reporting on human rights and 
labor rights as a fundamental goal of the U.S. Mission. I would ensure 
that the embassy cooperates with the Costa Rican Ministry of Labor on 
child labor prevention and school retention programs. I would ensure 
that embassy personnel continue to make much-needed judicial and other 
training available to the Costa Rican public sector through our various 
assistance programs. The Merida Initiative, if approved, includes 
funding to improve prison management.
    As a businessman who has managed hundreds of employees, I would 
take a highly personal approach to motivating embassy staff to excel in 
promoting human rights. As ambassador, I would recognize and reward 
embassy employees who are proactive in this area by nominating them for 
Department of State-wide awards as well as recognizing them in the 
presence of peers to indicate that this issue is a high priority.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Costa Rica who are working to 
promote human rights?

    Answer. Yes. If confirmed, I will regularly meet with major 
nongovernmental organizations that share our interest in combating 
sexual exploitation and forced labor. If confirmed, I will also 
encourage embassy personnel to actively engage with these NGOs and to 
broaden their social networks to allow the mission to gain a fuller 
understanding of the conditions that drive these crimes. Through 
consultation with civil society, we will be better able to generate 
innovative means of helping Costa Rica to address root causes.
                                 ______
                                 

         Responses of Heather M. Hodges to questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Poverty and inequality are enormous problems in Ecuador, 
particularly among indigenous populations. According to a recent World 
Bank study, 87 percent of indigenous Ecuadorians live in poverty. What 
can the United States do to assist Ecuador in reducing poverty and 
inequality?

    Answer. Economic development and poverty reduction are priorities 
in our relationship with Ecuador. The Andean Trade Promotion Act (ATPA) 
is an important tool in our continuing efforts to assist the people of 
Ecuador in creating economic opportunity and alleviating poverty 
through market-based solutions. Our trade and economic growth 
assistance to Ecuador focuses on technical assistance, training, 
financial support for free and open markets, competitiveness and 
poverty reduction. Our programs help farmers increase productivity and 
product quality, link them to end users, and improve family incomes. We 
also work with local governments to increase tax collection and improve 
transparency. Last year, our infrastructure programs financed the 
construction of 14 bridges, 20 water systems, and 9 sewage systems, 
which benefited 70,000 of the poorest Ecuadorians.

    Question. The Andean Trade Preference Act is an enormously 
important trade provision for Ecuador and for the Government of 
Ecuador. ATPA was recently extended by Congress, but is scheduled to 
expire in the fall. Is it your expectation that the administration will 
seek an extension beyond this fall? What are the implications of 
letting ATPA lapse?

    Answer. ATPA is a key component of our continuing efforts to assist 
the people of Colombia, Peru, Ecuador, and Bolivia in combating drug 
production, creating economic opportunity, and alleviating poverty by 
using the power of the free sector. This people-to-people program has 
strengthened economic ties between businesses and workers in Ecuador 
and the United States, and has helped Ecuador create new, globally 
competitive industries in such areas as its flower sector. The 
Government of Ecuador estimates ATPA has generated approximately 
350,000 jobs in Ecuador.
    ATPA will expire on December 31, 2008. I believe it is premature to 
speculate what the administration's position will be when Congress must 
again deliberate extending this important program.

    Question. My understanding is that the Andean Parliament is going 
to convene a regional security conference next month in Quito. Do you 
believe that these regional efforts can be productive in reducing 
tensions and fostering greater regional cooperation and integration on 
a host of issues?

    Answer. The Andean Parliament has stated that one of the issues 
that will be addressed during the May 29-30, 2008 conference will be 
the tensions between Ecuador and Colombia over Colombia's raid of a 
Revolutionary Armed Forces of Colombia (FARC) camp across the 
Ecuadorian border. The overall purpose of the conference will be to 
discuss with experts how to avoid such incidents from occurring 
again.We value our strong relationship with both Colombia and Ecuador 
and support efforts that reduce tensions between them. However, the 
countries of the region must also address the underlying cause of this 
tension, which is rooted in the presence of the FARC in the territory 
of Colombia and its neighbors and the need for the affected states to 
work together to combat the threat of the FARC.

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes. I have carefully reviewed this cable.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes. I understand and agree to abide by the principles set 
forth in 04 State 258893 regarding Peace Corps-State Department 
relations.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day to day 
conduct and concerns of our foreign policy and that the Peace Corps 
role and its need for separation from the day to day activities of the 
mission are not comparable to those of other U.S. Government 
agencies?''

    Answer. Our mission in Ecuador assiduously respects keeping the 
Peace Corps removed from any and all policy areas. As an illustration 
of that principle, the Peace Corps will be the only United States 
Government element that will not be colocated at the New Embassy 
Compound when the Embassy in Quito moves this summer.
    I understand the need to keep the Peace Corps substantially 
separate from the day to day conduct of our foreign policy and, if 
confirmed, will strongly support this policy.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. When I was ambassador in Moldova we had a large and 
successful Peace Corps program (approximately 115 volunteers). I 
considered the Peace Corps one of our greatest assets and did 
everything to support and promote their programs. Whenever I traveled 
outside Chisinau, I made it a point to meet with our volunteers and 
visit their programs. I was extremely proud one day when Moldovan 
President Voronin started talking about the Peace Corps volunteers with 
genuine admiration and knowledge of their grassroots activities. He 
seemed particularly pleased that there were English language programs.
    I am sure the Peace Corps directors I worked with would concur that 
I exercised my chief of mission authorities to provide the Peace Corps 
with as much autonomy and flexibility in their day-to-day operations as 
possible. If confirmed, I pledge to do the same in Ecuador.
                                 ______
                                 

         Responses of Heather M. Hodges to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are the most important actions you have taken in 
your career, to date, to promote human rights and democracy? What was 
the impact of your actions?

    Answer. Democracy and human rights have been an important part of 
the agenda in most of the countries I have worked in overseas and in 
Washington.
    My assignment to Moldova, however, provides the best recent 
examples of work I have done to promote human rights and democracy. In 
the early post-Soviet period, Moldova had a good reputation for free 
and fair elections, but over time this reputation was becoming 
tarnished. Just before I arrived in 2003, municipal elections 
throughout the country had clearly been flawed. I realized that the 
upcoming national elections in 2005 would be a challenge. I worked 
closely with the OSCE and a few other diplomatic missions, especially 
the handful of European Union embassies, to carry out both private and 
public activities to promote free and fair elections.
    One of the best things the embassy did was to support the creation 
of the ``Coalition for Free and Fair Elections,'' a group of over 60 
nongovernmental organizations that represented the range of the 
political spectrum in Moldova and became a watchdog for independent 
assessment of the way in which the Government of Moldova was organizing 
and carrying out the elections. Our support to the coalition cost us 
little money but throughout the elections we saw evidence that the 
coalition's vigilance was contributing to the democratic process all 
over the country. Although it was a close call, the national elections 
were declared by the OSCE and other international observers to be free 
and fair. I am convinced that the results would not have been the same 
without the coalition.
    Also in Moldova we had a large program to combat trafficking in 
women and young girls, a serious problem in one of Europe's poorest 
countries. Meeting battered victims who had managed to return to their 
country thanks to improved police work in Moldova and in the region was 
an experience I will never forget. It also convinced me we had to do 
more to educate the population about this terrible scourge. The embassy 
organized dozens of conferences, workshops, and focus groups around the 
country. And I persistently discussed our program with the highest 
levels in the government. Soon the Deputy Prime Ministers started 
holding monthly meetings outside the capital with municipal authorities 
and NGOs to monitor progress in fighting trafficking. We also helped 
vulnerable youth learn job skills that would help them earn a decent 
living and resist the ploys of the traffickers.

    Question. What are the most pressing human rights issues in 
Ecuador? What are the most important steps you expect to take, if 
confirmed, to promote human rights and democracy in Ecuador? What do 
you hope to accomplish through these actions?

    Answer. Inconsistency in the judicial process, issues of 
overcrowding, lack of medical care, and suspicious deaths of prisoners 
in Ecuadorian prisons are the most pressing human rights issues in 
Ecuador. The United States is working with Ecuador through our 
assistance programs to help address rule of law issues. One of our 
projects is to create automated data bases that will streamline 
criminal prosecutions and enhance the use of precedent in trials.
    If confirmed, it will be one of my priorities to continue and 
strengthen programs such as this one. It is my hope that these efforts 
will make a long term contribution to improving the human rights 
situation in Ecuador.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Ecuador in 
advancing human rights and democracy in general?

    Answer. The largest potential obstacle to addressing human rights 
concerns in Ecuador is lack of enforcement of existing laws. The United 
States is working with the Government of Ecuador, especially the 
judicial sector, to provide training to prosecutors and other legal 
professionals.
    I believe that education is one of the most important ways in which 
we can advance human rights. If confirmed, I would strongly support our 
existing training and outreach efforts and look for opportunities to 
expand these initiatives.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the activities of the United States Embassy-Ecuador? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. Promoting human rights is one of the highest priorities of 
our mission in Ecuador. The United States stands ready to assist 
Ecuador through continued engagement and programs that reinforce our 
commitment to constitutional democracy, strong and inclusive 
institutions, respect for the rule of law, counternarcotics efforts, 
and greater, more widely shared economic prosperity.
    If confirmed, supporting these objectives will be among my highest 
priorities. I believe that every member of our mission in Ecuador can 
play a role in meeting this objective, and I will support and encourage 
each member of the team to contribute to this effort. As appropriate, I 
will recognize Foreign Service officers on my team for their human 
rights contributions by using the Department's evaluation and employee 
rewards programs.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Ecuador who are working to 
promote human rights?

    Answer. If confirmed as ambassador, I would make it a priority to 
reach out to all segments of society in Ecuador. You have my assurances 
that I would meet regularly with a range of American and Ecuadorian 
nongovernmental organizations, in particular those working to promote 
human rights.
                                 ______
                                 

          Responses of Samuel W. Speck to Questions Submitted
                     by Senator Christopher J. Dodd

    Question. Concerns have been raised in the past that both the 
United States and Canadian Governments are often too slow in 
implementing the International Joint Commission's recommendations. How 
will you work with both countries' governments to ensure better United 
States and Canadian compliance with and expedited implementation of the 
commission's decisions and recommendations?

    Answer. If confirmed, I will carefully look into delays in 
implementing the International Joint Commission's recommendations. I 
would work with my fellow commissioners in continuing to urge United 
States and Canadian compliance through our semiannual meetings with 
governments, commission reports and letters, and in personal contacts 
with policymakers.

    Question. Since 2005, the IJC has been reviewing its management 
plans for controlling the water level of Lake Ontario and the St. 
Lawrence Seaway. The current management regime minimizes fluctuations 
in water levels, which some scientists have argued has produced 
significant changes in shoreline ecosystems. After months of study and 
review, it proposed several alternatives to the current management 
regime. Just last month, the IJC released a proposed plan for public 
comment, called Plan 2007. New York State has had concerns with Plan 
2007, but the IJC released it despite earlier promises to work with the 
State to find a compromise. Can you assure this committee that, if 
confirmed, you will work with the State of New York to address their 
concerns with Plan 2007?

    Answer. Since I was not involved in the study or development of the 
plan or in any subsequent discussions with New York State, I am not 
positioned to comment on the issues you raise. I can assure you that, 
if confirmed, I will participate actively in public hearings and review 
all public comments received on the IJC's plan. I have an open mind on 
the merits of the plan and will carefully consider the views of the 
public and key stakeholders in forming my opinion on its merits and any 
needed modifications. If confirmed, I will look into the concerns of 
all stakeholders impacted by the plan and do everything I can to ensure 
that views of all interested parties, including the State of New York, 
are taken into consideration as the commission makes its decision.
                                 ______
                                 

       Responses of Barbara J. Stephenson to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are the most important actions you have taken in 
your career, to date, to promote human rights and democracy? What was 
the impact of your actions?

    Answer. As a member of the generation of Foreign Service officers 
whose careers began with the writing of the annual human rights report, 
I have always seen respect for human rights as a central and integral 
part of U.S. foreign policy. My service in the Netherlands, where Dutch 
Foreign Ministry colleagues vied for a copy of the annual human rights 
report reinforced for me how important it was that our human rights 
reports be accurate, balanced, and credible. With too small a 
diplomatic service to produce their own reports, they relied on ours 
for key judgments.
    Beyond my work in various assignments to ensure the quality of our 
human rights reporting, I would cite my work in 1991 in El Salvador to 
ensure that the legislative assembly elections could take place 
peacefully. Week after week, I organized teams of embassy observers to 
cover significant campaign events--hoping that our presence would 
discourage violence and knowing that, if violence occurred, we would, 
at a minimum, bear witness to it. Partly because of our observer 
effort, leftist candidates returned from exile, participated in the 
political process, and won some seats in the legislative assembly, 
where they became articulate advocates for their political point of 
view. When the peace agreement was signed 10 months later, a Salvadoran 
friend, who was a member of the government's negotiating team for the 
peace talks, told me he believed that the key difference between war 
and peace in El Salvador was that now there was ``espacio politico''--
political space. The embassy's observer effort helped open up that 
political space.
    I would also cite my work as Consul General to Belfast, Northern 
Ireland, from 2001-2004. Friends from Northern Ireland tell me how much 
they value the time and attention I devoted to modest community workers 
attempting to build peace and decent lives for working class people 
from the ground up. Some of those friends see the platform I gave 
them--opening up the official residence to them for strategy sessions, 
helping shift the focus of the White House St. Patrick's Day events 
from political leaders to these everyday heroes--as central to the 
ultimate success in achieving a major shift in government policy. Under 
the ``Shared Future'' policy, the government moved away from segregated 
schools and public housing (which reinforced the divisions at the heart 
of the conflict) toward a deliberate policy of increasing contact 
between Catholics and Protestants through shared schools, 
neighborhoods, recreation facilities, and the like. Many of the 
community leaders whose efforts I championed with all the resources 
available to me as Consul General have grown in influence and become 
powerful voices for social justice and peaceful resolution of conflict, 
not only in Northern Ireland but abroad as well.

    Question. What are the most pressing human rights issues in Panama? 
What are the most important steps you expect to take, if confirmed, to 
promote human rights and democracy in Panama? What do you hope to 
accomplish through these actions?

    Answer. The most significant human rights problems in Panama 
include harsh prison conditions, with reports of abuse by prison 
guards; prolonged pretrial detention; corruption, ineffectiveness, and 
political manipulation of the judicial system; political pressure on 
the media; citizenship determination; discrimination and violence 
against women; trafficking in persons; discrimination against 
indigenous communities; and child labor.
    If confirmed, I intend to build upon the embassy's work with civil 
society, human rights defenders, and the Government of Panama to 
discuss and find ways of addressing these issues. As I have in previous 
assignments, I will bring concerned stakeholders together to develop 
strategies to support adherence to the rule of law, government 
accountability and transparency, and strengthening the role of civil 
society and an independent media. My embassy would continue to consult 
with nongovernmental organizations, indigenous communities, and other 
groups to continue to bolster those groups in their work to support and 
strengthen human rights in Panama.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Panama in advancing 
human rights and democracy in general?

    Answer. Corruption, lack of transparency, and an ineffective 
judicial system are some of the obstacles Panama faces in addressing 
its human rights situation. If confirmed, I will seek to overcome these 
challenges by working with civil society to build its capacity to hold 
government accountable. I will also work with the Panamanian Government 
to encourage them to continue to work to adopt transparent systems to 
fight corruption and impunity particularly within the judicial system. 
I will also work with the press to encourage a free and open debate on 
the issue of human rights.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the activities of the United States Embassy-Panama? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. Because I see respect for human rights as so central to our 
foreign policy, I have no doubt that, if confirmed as Ambassador to 
Panama, I will give human rights a central place in our strategy 
discussions, our public diplomacy outreach efforts, our reporting, and 
other facets of the embassy's work. I will, of course, reward officers 
who share my passion for human rights, both with formal tools such as 
evaluation reports and awards, and informally, by devoting my own time 
and attention to these issues.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Panama who are working to 
promote human rights?

    Answer. Certainly. As my discussion of most important actions 
indicates, I am proud of my association with such NGOs and of the 
success of my efforts to give their voices greater weight.
                                 ______
                                 

        Responses of Robert J. Callahan to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. What effect, if any, has the Millennium Challenge 
Corporation (MCC) compact had on poverty reduction in Nicaragua, and on 
United States-Nicaraguan relations? Please describe the current status 
of MCC work in the country.

    Answer. MCC's 5-year (2006-2011), $175 million compact with 
Nicaragua will help the country to build the necessary productive 
capacity to seize opportunities to achieve growth by taking advantage 
of regional economic integration and trade openings. The compact 
focuses on improving insecure property rights, underdeveloped 
infrastructure, and rural business activities that were identified as 
the greatest barriers to economic growth that could be addressed with 
Millennium Challenge Account assistance. We expect the MCC program to 
improve the lives of the 800,000 residents of Leon and Chinandega by 
raising household incomes in the region and transforming the region 
into an engine of economic growth.
    The MCC compact is helping Nicaragua accomplish this objective 
through:

          1. A property regularization project to provide secure, 
        registered titles to an estimated 70 percent of rural and 50 
        percent of urban properties;
          2. A transportation project upgrading roads to reduce 
        transportation costs between the region and domestic, regional, 
        and international markets for an estimated 3,300 current road 
        users per day; and
          3. A rural business development project to benefit directly 
        thousands of farmers by providing help in transitioning into 
        higher-value agriculture, creating an estimated 7,000 jobs.

    Examples of how the MCC is effecting poverty reduction are steadily 
growing. The rural business project has helped producers develop and 
implement nearly 1,000 business plans. New investment commitments are 
expected to create 1,300 jobs in Leon and Chinandega. Through the MCC, 
1.2 million trees have been planted to improve soil conservation. More 
than 1,000 clean property titles have been issued, allowing landholders 
access to the credit needed to fulfill their business plans.
    MCC's works with Nicaragua not as a recipient of aid, but rather as 
a full partner in this program that aims to reduce poverty through 
economic growth. This has yielded enormous benefits in our bilateral 
relations. MCC's CEO Ambassador John Danilovich visited Nicaragua in 
January 2008 to inaugurate the beginning of road construction and to 
deliver clean property titles, forest fire prevention equipment, and 
irrigation systems to beneficiaries. His visit produced many examples 
of how MCC's engagement has strengthened our bilateral relations and 
enjoys the strong support of both the Nicaraguan people and the 
country's leaders, including President Ortega.

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes, I have read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. I understand and wholeheartedly and unreservedly agree to 
abide by the principles set forth in this cable.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that 11the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. I understand, accept, and fully endorse the fact that the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy and that the Peace Corps's 
role and its need for separation from the day-to-day activities of the 
mission are not comparable to those of other U.S. Government agencies.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. I pledge, as Secretary Rice requests in 3.B of the cable, 
to exercise my chief of mission authorities so as to provide the Peace 
Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies.
                                 ______
                                 

        Responses of Robert J. Callahan to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What was the 
impact of your actions?

    Answer. Throughout my career I have been intimately involved in 
promoting human rights, especially during my assignments to Honduras 
and Bolivia. Both countries were making the transition from military 
rule to democracy--Honduras in 1982, while I was there, and Bolivia a 
few years before my arrival in 1989. I encouraged the press in those 
countries to monitor human rights and speak out on any abuses they 
uncovered. Through seminars and training sessions organized by the 
public affairs office in the embassy, in talks to journalism guilds and 
schools, we reminded reporters and editors of their duty to serve as 
guarantors of human rights, most notably when the government remained 
silent or unresponsive.
    We also regularly brought American experts, many of them practicing 
journalists, to talk to their counterparts in those countries. Our 
intention was to show solidarity with them and to let them know that 
they had powerful supporters elsewhere. We also used many of our 
international visitor grants for reporters, again hoping to provide 
them an object lesson in how American journalists guard tenaciously 
their independence, comfort the afflicted, and afflict the comfortable.
    While serving in Rome, and shortly after Milosevic left power in 
Serbia, my office organized a week-long seminar in Italy for about 20 
Serbian journalists. As they emerged from years of governments that 
attempted to control and intimidate the press, we thought that they 
needed some training and encouragement, both of which our team of 
experienced American writers and editors, including the managing editor 
of the American Journalism Review, provided.
    In my one year in Baghdad, where I served as the embassy spokesman 
and press attache, I regarded as my most important responsibility the 
nurturing of a woefully inexperienced and timid press corps. We told 
them of the role of a free and active media in a democratic society. We 
emphasized that paramount among their duties was ensuring that human 
rights of every sort--freedom of the press, speech, and religion, 
freedom from fear, exploitation, and arbitrary arrest--be respected. I 
also worked closely with the Commission on Public Integrity and the 
Human Rights Commission and detailed officers to work with each. This 
gave them both confidence to pursue their mandates and a sense of 
security.
    If I am confirmed as Ambassador to Nicaragua, I will ensure that 
respect for human rights, and the honest and timely reporting on them, 
be a priority for the mission. I think that this is one of our most 
effective foreign policy initiatives and that it is perfectly consonant 
with--in fact, reinforces--our other policy objectives. I believe that 
respect for human rights is a core American value, a source of pride 
for our Nation, and a universal imperative.

    Question. What are the most pressing human rights issues in 
Nicaragua? What are the most important steps you expect to take,if 
confirmed, to promote human rights and democracy in Nicaragua? What do 
you hope to accomplish through these actions?

    Answer. Nicaragua is a constitutional democracy that still 
struggles with the issue of human rights. Arbitrary application of 
justice, lack of respect for the rule of law, widespread corruption, 
the politicization of the judiciary and other government organs, 
intimidation and harassment of nongovernmental organizations (NGOs) and 
journalists, widespread child labor, discrimination against indigenous 
communities, and trafficking in persons are some of the most pressing 
human rights issues in Nicaragua. If confirmed, I will devote our 
resources to ensuring that supporting human rights and democratic 
principles remain central elements of our foreign policy in Nicaragua.
    This will mean focusing our efforts on programs that support 
adherence to the rule of law, government accountability and 
transparency, and strengthening the important role of civil society and 
an independent media. I will consult with civil society, 
nongovernmental organizations, indigenous communities, and other groups 
to develop a human rights strategy that is responsive to the needs of 
Nicaraguans suffering from human rights abuses. These consultations 
will guide us as we draft the Annual Country Report on Human Rights 
Practices for Nicaragua, which will bring attention and much-needed 
information about this issue in Nicaragua.
    As part of the implementation process of the Central America-
Dominican Republic Free Trade Agreement (CAFTA-DR), the United States 
will provide additional resources that will be essential in improving 
Nicaragua's labor justice system, its capacity to enforce labor laws 
and reduce the adverse affects of gender and other forms of 
discrimination in Nicaragua's labor sectors. I believe these efforts 
together will advance the recognition and respect of human rights in 
Nicaragua.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Nicaragua in 
advancing human rights and democracy in general?

    Answer. Some principal obstacles Nicaragua faces in addressing its 
human rights problems are widespread government corruption, arbitrary 
application of justice, politicization of the Supreme Electoral 
Council, and a fragmented and fragile civil society and divided 
political opposition that lack unified strategies for furthering 
democracy and respect for human rights. If confirmed, I will seek to 
overcome the challenges I will face in advancing human rights, the lack 
of transparency and accountability within the Nicaraguan Government, 
and fragile judicial and prosecutorial institutions to name a few, by 
working with civil society to build its capacity to meet the needs and 
interests of the Nicaraguan people. I will also work with the 
Nicaraguan Government to encourage respect for the rule of law and 
address widespread corruption and arbitrary application of justice. To 
overcome the challenge of advancing human rights in Nicaragua, I will 
also advocate for greater technical and financial assistance to aid 
civil society groups in their efforts to depoliticize the judiciary and 
increase citizen awareness of these issues.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the activities of the United States Embassy-Nicaragua? If confirmed, 
what steps will you take to ensure that Foreign Service officers who 
engage in human rights activities are encouraged and professionally 
rewarded for superior service?

    Answer. If confirmed, I will make the advancement of human rights 
in Nicaragua one of the central tenets of the embassy's mission to 
fulfill our commitment to the Nicaraguan people. To accomplish this 
objective, I will encourage the embassy staff to meet with civil 
society groups and to conduct outreach programs to foment greater ties 
with remote communities, like Puerto Cabeza or Bluefields, which 
historically have been overlooked. Providing technical assistance to 
nongovernmental organizations, civil society groups and the Nicaraguan 
Government will help build their capacity to develop plans specifically 
tailored to Nicaragua's human rights situation and will be critical for 
us to achieve our objectives. I will also continue to support the 
embassy staff in its preparation of the Annual Country Report on Human 
Rights Practices in Nicaragua. In recognition of staff efforts to 
promote human rights, I will recognize exemplary work through the 
embassy and Department of State's evaluation and employee rewards 
programs.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Nicaragua who are working to 
promote human rights?

    Answer. I intend to make outreach with Nicaraguan and United States 
nongovernmental organizations a central element of the embassy's policy 
for advancing human rights. I will encourage and seek to ensure that 
embassy personnel, including myself, extend our outreach throughout the 
country to work with historically disenfranchised communities and other 
populations that live in remote or difficult to reach areas within 
Nicaragua. I believe the embassy must demonstrate to these communities 
that their voice, concerns, and livelihood is no less important by 
virtue of who they are or where they live.
                                 ______
                                 

           Responses of Hugo Llorens to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Many human rights defenders in Honduras peacefully 
protest their displacement by large landowners and corporations and as 
a result are often attacked or threatened. How will you support 
Honduran human rights defenders and ensure that those who attack them 
are prosecuted?

    Answer. Over the past several years, embassy staff has met with 
several environmental justice advocates to discuss these threats with 
the Honduran security authorities and have advocated for prompt and 
effective investigation of these incidents. In addition, the mission 
sponsored a joint letter with other G-16 donor countries, which 
requested that the Government of Honduras take action to properly 
investigate the death of an environmental activist. If confirmed, I 
will make support for democratic governance and the protection of human 
rights a top priority of my embassy. I am committed to ensuring that 
the mission continues to strongly advocate on behalf of human rights 
defenders in our discussions with the government, particularly through 
underscoring our deep desire that the government take appropriate steps 
to ensure security for defenders and investigate promptly and 
effectively abuses committed against them.

    Question. Many human rights violations occur in remote areas of 
Honduras. How will you work to support the rights of marginalized 
communities in Honduras?

    Answer. If confirmed, I plan to continue the embassy's efforts to 
reach out to the marginalized communities throughout Honduras. It is my 
intention to lead my country team in promoting human rights in 
Honduras. Along with the embassy team, I will travel widely throughout 
Honduras to raise human rights issues with local and national 
government officials, NGOs, and civil society groups. Moreover, on 
certain matters, constructive comments from the ambassador on human 
rights receive positive press coverage, stimulate discussion, and could 
lead to positive action. Through speeches, op-eds, and meetings with 
relevant officials, I will continue to highlight the issue of human 
rights with the objective of moving, as appropriate, Honduras toward 
increased legal protection and guarantee the rights for all 
communities.

    Question. What is the status of CAFTA implementation in Honduras? 
What are the major issues that need to be addressed?

    Answer. The United States-Central American Free Trade Agreement 
(CAFTA-DR) entered into force for Honduras on April 1, 2006. Honduras 
has not made as much progress as some of its neighbors in implementing 
CAFTA-DR or in enacting the reforms necessary to benefit fully from the 
agreement. CAFTA-DR requires modernization and greater transparency in 
government procurement and services, such as locking in structural 
reforms, especially opening up the telecommunications industry to 
competition and greater levels of private investment. Passage of the 
new telecommunications law and implementing regulations for the 
intellectual property rights laws passed to implement CAFTA are is 
still pending.
    The embassy continues it work with the Government of Honduras to 
increase capacity and compliance of environmental requirements under 
CAFTA. If confirmed, I intend to work hard to ensure full 
implementation of CAFTA.

    Question. Has there been any improvement in worker's rights since 
the implementation of the free trade agreement with the United States? 
What is the status of Honduran cooperation with the International Labor 
Organization to improve working conditions?

    Answer. If confirmed, I will build upon the Mission's current 
active dialog with the government, employers, and workers to underscore 
the importance of full adherence to labor rights in a democracy. Along 
with the embassy team, I will work to strengthen the Honduran labor 
ministry's ability to enforce labor law, modernize labor justice 
systems, seek to eliminate gender and other types of employment 
discrimination, build a culture of compliance with labor law, and 
support the ILO in its State Department-funded tripartite benchmarking/
monitoring work in the region. One such successful example is the 
``Cumple y Gana'' (Comply and Win) project implemented by the 
Department of Labor with Department of State funding. I will also 
ensure that we continue our support for the International Labor 
Organization's IPEC program and similar U.S. Department of Labor-
sponsored initiatives to eradicate the worst forms of child labor, 
which include plantation, agriculture, and commercial sexual 
exploitation.
    While Honduras had a comprehensive labor code, worker education has 
been the most significant area of improvement for workers under CAFTA. 
Basic and detailed brochures on worker's rights, a well-publicized Web 
site with information on labor rights (www.leylaboral.com), and a 
number of radio spots that play widely on local and national radio 
stations have helped disseminate information on workers rights. Embassy 
officials routinely meet with the Honduran Ministry of Labor officials, 
NGOs, labor unions, and others to discuss CAFTA-DR issues, progress, 
and areas for improvement.

    Question. The State Department's report last month on human rights 
conditions in Honduras notes that ``Representatives of sexual diversity 
rights NGOs asserted that their members were killed, beaten, and 
subjected to other mistreatment by security authorities.'' The State 
Department also noted that ``the government [of Honduras] required, as 
a condition for legal registration, sexual diversity rights 
organizations to remove any reference in their bylaws to promotion of 
respect for the rights of gay, lesbian, or transgender persons. In 
March the secretary general of the Ministry of Governance and Justice 
commented publicly that the government denied registration to gay 
rights advocacy NGOs because their stated purposes did not comport with 
`good custom.' '' Would you, Mr. Llorens, be willing to meet some of 
the leaders of the LGBT human rights community in Honduras once you 
take up this post to discuss these serious findings? How do you think 
the United States Embassy in Honduras should address these findings and 
help convey to the Honduran Government that they represent a serious 
human rights issue?

    Answer. Respect of human rights is central to any thriving 
democracy. If confirmed, very early on in my tenure, I will seek a 
meeting with members of the LGBT community in Honduras to develop a 
strong working relationship and to discuss the findings. Consolidating 
democracy and strengthening adherence to the rule of law is crucial for 
human rights. There are no discriminatory laws based on sexual 
orientation, but in practice there is widespread social discrimination 
against persons based on sexual orientation in Honduras. I intend to 
include the findings of human rights violations in the LGBT community 
as integral to our overall effort to improve the human rights situation 
in Honduras, and convey the importance of this issue to senior 
officials of the Government of Honduras.

    Question. Honduras has the highest HIV prevalence rate in Central 
America. Can you please describe how the United States is assisting 
Hondurans as they combat this epidemic?

    Answer. Honduras has the second-highest rate of HIV prevalence in 
Central America, after Belize. The U.S. Government's HIV/AIDS program 
focuses on five objectives:

          (1) To prevent transmission of HIV through activities to 
        reduce high-risk behavior;
          (2) To expand voluntary counseling and testing for most-at-
        risk populations;
          (3) To provide care and support services for people living 
        with HIV/AIDS;
          (4) To strengthen the Ministry of Health's (MOH) HIV/AIDS 
        epidemiologic surveillance and monitoring and evaluation 
        systems; and
          (5) To provide the Global Fund and MOH assistance for 
        improved service delivery, including supply chain management.

    The U.S. Government supports an umbrella grants program that 
provides technical and financial assistance to 13 local NGOs to reduce 
high-risk behavior among most-at-risk populations. In fiscal year 2007, 
this program trained 2,256 community volunteers to promote HIV 
prevention through abstinence and fidelity. These volunteers reached 
29,663 people with abstinence/be faithful messages, mostly Garifuna 
youth, an Afro-Caribbean population highly affected by HIV/AIDS.
    Through these NGOs, condom marketing, and mass media communications 
activities, 173,420 additional people were reached with prevention 
messages beyond ``abstinence/be faithful,'' including correct and 
consistent condom use and prevention of drug and alcohol abuse. The 
social marketing program expanded sales of affordable condoms to 359 
new high-risk outlets, such as brothels, for a total of over 800 high-
risk outlets now selling condoms. The scale-up of rapid HIV testing 
services by 10 NGOs in highly affected communities has been highly 
successful. In addition, the U.S. Centers for Disease Control and 
Prevention (CDC) continues to provide technical assistance to the 
Ministry of Health for the operation of three sentinel surveillance 
sites that provide testing for HIV and sexually transmitted infections 
for commercial sex workers.

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes, I have read the cable.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. I agree to abide by the principles set forth in the cable.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps' role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. Yes. In preparation for my possible assignment as 
ambassador, I met with the Peace Corps to get a full understanding of 
Peace Corps activities in Honduras and its need for separation of the 
day-to-day activities of the mission. I pledge to keep the Peace Corps 
day-to-day activities substantially separate.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. I pledge to keep the Peace Corps day-to-day activities 
substantially separate, as per Secretary Rice's request in 3.B of the 
cable.
                                 ______
                                 

           Responses of Hugo Llorens to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are the most important actions you have taken in 
your career, to date, to promote human rights and democracy? What was 
the impact of your actions?

    Answer. As a 27-year veteran of the Foreign Service, I have been 
engaged in support of human rights and democracy in one way or another 
in every one of my assignments. In my very first tour as a junior 
consular officer in the Philippines, colleagues and I met with Filipino 
citizens opposed to the Marcos dictatorship. We learned from them about 
the repression against the democratic opposition and independent media, 
as well as the thousands in jail or exiled because of their political 
views. As U.S. diplomats, we encouraged their efforts and reported what 
we learned to our supervisors. I was in Manila on the terrible day in 
August 1983 when Benigno Aquino was murdered. I remember volunteering 
with fellow officers to cover the massive and spontaneous anti-Marcos 
demonstrations, and I provided political reporting of the Filipino 
people's public demand for elections and democracy.
    Serving in Bolivia in 1984 was a challenging assignment. Our 
embassy's principal objective was to support the newly-elected 
government of President Hernan Siles following 20 years of 
authoritarian rule by a long succession of military governments. Our 
embassy team played a critical role in the democratic transition, which 
included helping to block a coup attempt by disgruntled military 
officers. As an economic officer, we worked with Bolivian workers to 
strengthen the trade union movement and nominated several young 
Bolivian labor leaders to travel to the United States on international 
visitor programs. It was also greatly gratifying for me to serve as one 
of the embassy's observers in the free and fair elections of 1985 that 
resulted in the constitutional transfer of power to a new civilian 
president, Victor Paz Estenssoro. I also worked with the Bolivian 
Government and local business organizations to promote the rule of law 
and more transparent judicial systems. Indeed, in my many economic 
assignments in Latin America, my work to create a trade and investment 
climate favorable to U.S. commercial interests invariably meant 
promoting good governance, openness, democracy, and human rights.
    I am particularly proud of my work temporarily running a combined 
political and economic section in 1989 in the immediate aftermath of 
the coup that overthrew the 35-year-old dictatorship of General Alfredo 
Stroessner in Paraguay. During this historic transition, our embassy 
played a crucial role. In this effort, we supported democratic forces 
in Paraguay to bring about radical positive change. For example, over a 
6-month period, we worked closely with the new Paraguayan authorities 
and civil society that resulted in the release of political prisoners, 
the recognition of banned political parties, the restoration of press 
freedoms, including the reopening of the main opposition newspaper--ABC 
Color--and the holding of the first truly free elections in Paraguay's 
150 year history. Today Paraguay faces many difficulties and 
challenges, and its democracy is highly imperfect and still fragile. 
However, for the Paraguayan people and for many of us who remember the 
repression and total impunity of the Stroessner era, Paraguay has moved 
in freedom's direction.
    Over the years, I have continued to engage actively to support 
human rights and democracy. As an economic officer in El Salvador and 
Honduras, I worked with colleagues in the American Institute for Free 
Labor Development to advance labor rights and push for the recognition 
of trade unions. Serving as Director of Andean Affairs on the National 
Security Council, I made sure the protection of human rights continued 
to be a front burner issue for us in Colombia. We pressed for the 
investigation of extrajudicial killings of journalists and labor 
leaders and made sure that a significant chunk of our assistance 
dollars were devoted to good governance, strengthening the rule of law, 
and civil society. Finally, over the 5 years that I have served as 
deputy chief of mission, I have sought to make sure that both the 
Governments of Argentina and Spain worked closely with us in 
multilateral fora to support democracy and human rights around the 
world.

    Question. What are the most pressing human rights issues in 
Honduras? What are the most important steps you expect to take, if 
confirmed, to promote human rights and democracy in Honduras? What do 
you hope to accomplish through these actions?

    Answer. Honduras suffers from human rights problems that include: 
unlawful killings and beatings by members of the police, government 
agents, vigilantes, street gangs, and former members of the security 
forces; failure to provide legal due process; politicization, 
corruption, and institutional weakness of the judiciary; erosion of 
press freedom; intimidation of human rights defenders; government 
restrictions on recognition of nongovernmental organizations (NGOs); 
trafficking in persons; and ineffective labor law enforcement.
    If confirmed, I will make the promotion of democracy and human 
rights a top priority. I will advocate forcefully for the rule of law 
and transparency. I will work with the Government of Honduras to 
support free and fair elections in November 2009. Along with my embassy 
team, I will consult with government institutions, NGOs, labor unions, 
and other organizations. I will work closely with these groups to 
encourage reforms and discuss problems related to human rights and 
democracy.
    Addressing corruption and institutional weaknesses is a major part 
of the mission's current activities, and if confirmed, I will continue 
this work. The United States offers technical and financial resources 
to public and private organizations, including providing speakers and 
training to Honduran Government officials, NGOs, and civil society 
representatives on transparency, rule of law, citizen participation and 
accountability. I will also advocate for the implementation of the new 
transparency law and civil procedure code to provide greater access to 
public information and modernize the civil justice system.
    By continuing to focus on the broad theme of human rights in 
Honduras, I hope to further the important and historical goals of 
United States engagement in Honduras, to broaden participation in the 
democratic system to assure ordinary citizens have a role in the 
political process; and to assure that the economic opportunity brought 
to Honduras by CAFTA will increase Honduran citizens' ability to lift 
themselves out of poverty.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Honduras in 
advancing human rights and democracy in general?

    Answer. Corruption, impunity, and insecurity are principal 
obstacles to addressing the human rights situation in Honduras. In 
addition, weak institutions and the difficulty of making necessary 
microeconomic and national changes to extend the benefits of democracy 
and free markets to all people has generated impatience and 
frustrations.
    If confirmed, my team and I will continue to help the Honduran 
Government reach Millennium Challenge Corporation compact goals through 
a remediation plan that promotes transparency and combating corruption. 
We will support compliance with this plan, and we will promote respect 
for the rule of law and general good governance by providing training 
to government officials, NGOs, law students, and others on the newly 
enacted civil procedure code and transparency laws.
    If confirmed, I will also work with the Honduran Government to 
encourage them to respect the rule of law and address widespread 
corruption and the ineffective judicial system. I will also work with 
civil society and the press to create an open, honest debate on the 
issue of human rights and the challenges corruption and impunity place 
on the development of Honduras.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
the activities of the United States Embassy-Honduras? If confirmed, 
what steps will you take to ensure that Foreign Service officers who 
engage in human rights activities are encouraged and professionally 
rewarded for superior service?

    Answer. If confirmed, the advancement of human rights in Honduras 
will continue be one of the top priorities of the embassy's mission. I 
will encourage the embassy team to meet with civil society groups and 
to conduct outreach programs to strengthen ties with communities, which 
historically have been overlooked.
    The promotion of human rights objectives is central to all of our 
work to encourage representative democracy, economic integration, and 
faith in the transformative power of freedom in individual lives. We 
will work to encourage the consolidation of sustainable economic growth 
and political stability so that all Hondurans can benefit from the 
political system, economic opportunity, and social justice, especially 
for poor and marginalized populations.
    I will lend my voice to my team's work and acknowledge and reward 
their efforts through formal means of recognition and promotion of 
human rights.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Honduras who are working to 
promote human rights?

    Answer. If I am confirmed, I plan to reach out early in my tenure 
and develop strong working relationships with NGO representatives from 
both the United States and across Honduras who are working to advance 
human rights in Honduras. NGOs and civil society members are integral 
to the effort to promote human rights in the country and will be valued 
allies for me and the embassy team.
                                 ______
                                 

       Responses of Stephen G. McFarland to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. How will you work to encourage the Guatemalan Government 
to bring to justice former military officials accused of committing 
these crimes? How will you support Guatemalan human rights defenders 
and ensure that those who attack them are prosecuted?

    Answer. If confirmed, I will stress in my discussions with the 
President, Attorney General, and other key government officials the 
importance of promoting the rule of law, and to achieve justice, 
national reconciliation and closure for families of the victims of the 
human rights abuses committed during the internal conflict. I will 
engage with the Ministry of Government, the Attorney General's Office, 
and the Judiciary to press for investigation and prosecution, as well 
as raise the issue with senior military authorities to ensure their 
continued cooperation in legal proceedings.
    As other U.S. ambassadors before me, if confirmed, I would continue 
to meet with human rights defenders, particularly in public, to raise 
the profile of the work they are doing on behalf of all Guatemalans. I 
will continue the embassy's practice of showing public solidarity with 
human rights defenders who have been the victims of threats and urge 
the government to strengthen efforts to protect those defenders. And I 
will continue to raise the investigation and prosecution of crimes 
against human rights defenders with appropriate senior-level government 
officials.

    Question. What will you do to support the International Commission 
against Impunity in Guatemala (CICIG) important mandate? How will you 
encourage the Guatemalan Government to provide CICIG with the necessary 
cooperation to enable it to fulfill its critical mandate? How do you 
plan to encourage lasting improvements to the judicial system, both 
through CICIG's recommendations and by other means?

    Answer. If confirmed, I will maintain the vigorous United States 
support for CICIG by continuing the embassy's strong relationship with 
CICIG Commissioner Carlos Castresana and other CICIG staff; by 
advocating for CICIG technical and financial resources within the U.S. 
Government, the diplomatic community, and multilateral institutions; 
and by continuing to highlight the importance of CICIG in combating 
Guatemala's culture of impunity and violence, and promoting the rule of 
law.
    I will encourage the Guatemalan Government to meet and go beyond 
its obligation to provide its best investigators, prosecutors, and 
security professionals. I will continue to raise the United States' and 
broader interest in the success of CICIG in my meetings at the highest 
levels of Guatemalan Government, including the President, Vice-
President, and Attorney General, as well as with members of civil 
society and the private sector.
    By Mr. Castresana's and others' intentions, a good portion of the 
CICIG staff is Guatemalan, which is crucial if the effects of CICIG are 
to last. I think the key to lasting improvements is CICIG's own 
performance in the 18 months remaining on its mandate. If Guatemalans 
understand that impunity is not inevitable, that violent criminals can 
be held accountable, then they will come to expect no less from their 
own institutions. I know that the United States Embassy has already 
begun to plan for rule of law assistance for coordination between CICIG 
and Guatemalan institutions, and if confirmed, I will earnestly 
advocate to make available the additional resources needed for the 
United States to assist Guatemalan institutions to carry on the work 
started by CICIG.

    Question. What information do you have about the recent 
assassination of President Colom's security advisor? Does this 
assassination reflect the same corrupt influence that resulted in the 
killing of Salvadoran parliamentarians recently in Guatemala?

    Answer. Former Security Advisor Victor Rivera was murdered April 7 
at 11:30 p.m. by unknown assailants who intercepted his vehicle on a 
main thoroughfare in Guatemala City. His companion, who was a passenger 
in his car, was wounded. The murder occurred one week after he was 
dismissed from his position in the Ministry of Government.
    Investigation of his murder is ongoing. Thirteen investigators of 
the National Civil Police and the Attorney General's Office have been 
assigned to the case.
    This high-profile murder, like the February 2007 PARLACEN murders, 
demonstrates the extent of Guatemala's climate of violence and the need 
for continued Guatemalan efforts, with international assistance, to 
improve the rule of law.

    Question. The Hague Conventions on adoption came into force in the 
United States on April 1. Is the United States permitting adoptions 
from Guatemala now that this convention has been adopted? Have all 
outstanding issues surrounding adoptions been resolved?

    Answer. The Guatemalan Government has started creating the 
structure necessary to process adoptions in accordance with the Hague 
compliant provisions of its new internal legislation. However, they are 
not yet ready to initiate new adoptions that meet these provisions. The 
embassy is working closely with the new National Adoption Council (CNA) 
so as to be in a position to confirm the CNA's ability to process Hague 
compliant adoptions once regulations are drafted and implemented, and 
the critical portions of the new adoption procedures are functional. 
Meanwhile, both the United States and Guatemala continue to process 
under pre-Hague rules adoptions initiated in Guatemala prior to 
December 31, 2007, the date Guatemalan adoption reforms took effect.

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes, I have read the cable on Peace Corps-State Department 
Relations (04 State 258893).

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I do.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps' role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. government 
agencies''?

    Answer. Yes, I understand and I accept that the Peace Corps must 
remain substantially separate from the day-to-day conduct and concerns 
of our foreign policy, and the Peace Corps' role and its need for 
separation from the day-to-day activities of the mission are not 
comparable to those of other U.S. government agencies. These principles 
have guided my earlier work as Deputy Chief of Mission and Charge in 
Paraguay and in Guatemala, which have large Peace Corps programs.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. Yes, if confirmed I pledge to exercise my chief of mission 
authorities so as to provide the Peace Corps with as much autonomy and 
flexibility in its day-to-day operations as possible, so long as this 
does not conflict with U.S. objectives and policies.
                                 ______
                                 

       Responses of Stephen G. McFarland to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What was the 
impact of your actions?

    Answer. Support for democracy and human rights has been a major 
U.S. objective in my previous posts, and it has been an important 
component of my work, as well as a personal commitment. As the human 
rights officer in Peru, 1985-1988, I visited human rights and community 
leaders in areas affected by the internal conflict. These meetings sent 
a message of support for human rights groups--some of which were 
threatened by security force members as well as the guerrillas--and 
they provided accurate information on human rights abuses that the 
United States used to engage the Government of Peru. As political 
counselor in El Salvador, I led the U.S. reporting and assessment of 
the 1988 San Francisco killings, and I contributed to our reporting on 
the cover-up of the Jesuit murders; these cables assisted the United 
States in challenging the government to punish human rights abusers. I 
also carried out considerable outreach to the political left and right 
in El Salvador to support the emerging peace process, and I made 
personal recommendations to the Bureau of Inter-American Affairs at the 
State Department to leverage United States assistance to better support 
the peace process and the Jesuit murders investigation. As political 
counselor in Peru, I led the reporting effort on the clandestine 
``Colina'' death squad supported by then-national intelligence chief 
Vladimiro Montesinos. These cables contributed to a vigorous debate 
within the U.S. Government about our relationship with Montesinos. I 
also reported on the increasing authoritarian measures of the Fujimori 
government, and I met often with the opposition as well as government 
officials to express our concerns about democracy. As the United States 
representative on the 1995 interim cease-fire monitoring group on the 
Peru-Ecuador border, I contributed to United States efforts to 
disengage the opposing military forces and to facilitate the eventual 
diplomatic resolution of this dispute. As Charge in Paraguay, I led the 
rapid United States response to oppose the April 2000 coup attempt; I 
then made a public (and successful) request for the government not to 
mistreat the captured coup participants. As Charge in Guatemala I led 
the embassy's support for human rights; as part of that effort, I made 
public visits to human rights workers who had received threats, and I 
attended two high-profile human rights trials. These actions 
underscored U.S. concerns about the protection of human rights groups 
and about impunity. I also led U.S. efforts to engage the Portillo 
government, first privately and then publicly, on official corruption, 
organized crime, and narcotics trafficking. This initiative led to 
subsequent public expressions of concern by other international donor 
countries about corruption, and it encouraged Guatemalan civil society 
groups that advocated greater transparency and accountability. 
Guatemalan prosecutors subsequently began numerous judicial actions 
against corrupt officials.

    Question. What are the most pressing human rights issues in 
Guatemala? What are the most important steps you expect to take to 
promote human rights and democracy in Guatemala? What do you hope to 
accomplish through these actions?

    Answer. The most pressing human rights issues in Guatemala are a 
weak judicial and law enforcement system that does not protect citizens 
from violent crime; impunity of human rights offenders; and organized 
crime and clandestine armed groups. These human rights issues in turn 
are one of the most important challenges to Guatemala's democracy; 
other major challenges are corruption, poverty, and social exclusion. 
If confirmed as ambassador, I would continue the vigorous United States 
support, in public and in private, for human rights and democracy, to 
include meeting throughout Guatemala with members of the government and 
with civil society. I would also support ongoing U.S. programs that 
address these issues, to include community policing, rule of law, 
police professionalization, human rights, transparency, and programs in 
rural and indigenous areas. I would also work closely with the U.N.-
Guatemalan Commission Against Impunity in Guatemala (CICIG), to which 
the United States is contributing, and which will support Guatemalan 
judicial authorities in investigating clandestine groups. The Merida 
Initiative, if approved by the Congress, would increase significantly 
our ability to cooperate with Guatemalan institutions on citizen 
security and rule of law issues. If confirmed, and if the Congress 
approves the Merida Initiative, I would scrutinize any Merida-funded 
proposals in Guatemala to ensure that they support our broader 
democracy and human rights goals, particularly Guatemala's ability to 
strengthen transparency, accountability, and the rule of law. I would 
also use ongoing assistance programs, as well as public diplomacy 
outreach, and our engagement on CAFTA, to work with our Guatemalan 
partners to improve living standards for those Guatemalans most in 
need, in particular the indigenous.

    Question. What are the potential obstacles to addressing the 
specific human rights issues you have identified in your previous 
response? What challenges will you face in Guatemala in advancing human 
rights and democracy in general?

    Answer. The principal challenges to democracy in Guatemala are 
security, transparency, prosperity, and social inclusion. Greater 
citizen confidence in the ability of elected government to address 
these issues in a fair and timely way will strengthen democracy. A weak 
judicial and law enforcement system is the primary obstacle to 
protecting human rights in Guatemala. This manifests itself in 
extremely low prosecution rates for all crimes, and in particular 
homicide, and violent crimes against women, which in turn lowers 
citizen confidence in police and prosecutors, and increases the 
temptation for some to take the law into their own hands. The police 
have not been able to provide sufficient security for most citizens, 
and in many cases have been involved in crimes. Guatemalans acknowledge 
that corruption and intimidation are two additional obstacles to 
improving the judicial system. While gangs and drug traffickers are 
responsible for considerable violent crime, there are also organized 
crime groups that seek political influence and protection, who pose a 
major challenge to democracy.
    These obstacles notwithstanding, there are important partners with 
whom the United States can work with on these issues. The Colom 
administration, which took office in January, seeks to work with the 
United States on a broad range of human rights, democracy, and economic 
issues, to include improving rule of law institutions, and citizen 
security. There are also many members of the police and the judicial 
institutions committed to improving the rule of law and human rights, 
in addition to Guatemalan human rights, media, private sector, and 
other civil society groups.

    Question. What steps will you take to ensure that promotion of 
human rights objectives will be an integral part of post activities? 
What steps will you take to ensure that Foreign Service officers who 
engage in human rights activities are encouraged and professionally 
rewarded for superior service?

    Answer. Human rights are an integral part of Embassy Guatemala's 
activities. The embassy has an interagency Rule of Law Committee that 
addresses human rights in a collective forum. The political section has 
the lead on tracking and promoting human rights, but personnel 
throughout the embassy regularly promote human rights through public 
outreach, exchanges, training, and dialog. The embassy has undertaken 
human rights programs with the military, the police, prosecutors, and 
immigration authorities, among others. Promoting human rights is a 
priority in the mission strategic plan. If confirmed as ambassador, I 
will ensure that human rights remain of critical import across the 
range of embassy functions, including my own duties; I believe that 
ambassadorial involvement in human rights outreach also underscores 
within the embassy the importance of this effort. I will also ensure, 
as I have in the past, that Foreign Service officers and other 
personnel who work on human rights receive due recognition through the 
employee evaluation and award processes. I will also ensure that the 
embassy continues to have a spirit of openness in which issues such as 
human rights can be freely and frankly discussed and assessed.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Guatemala that are working to 
promote human rights?

    Answer. Yes. I have worked with human rights organizations 
throughout my career in the Department of State, both in the United 
States and abroad. As DCM and charge in Guatemala I met frequently with 
human rights NGOs, and I participated in activities that they organized 
to promote human rights; if confirmed as ambassador, I will continue to 
do so. Human rights NGOs are important partners in the quest to protect 
and promote human rights. The embassy team maintains close contact with 
a range of human rights leaders and civil society leaders, and if 
confirmed, meeting with them will be among my first acts.

    Question. With regard to international adoptions, how many adoption 
cases initiated prior to December 31, 2007 remain to be processed? What 
efforts are the U.S. Embassy and the Bureau of Consular Affairs making 
to resolve these cases? Does the embassy have sufficient resources in 
the consular section to devote to this issue? Can you provide an 
estimate of how long it will take to conclude processing of these 
cases?

    Answer. Statistics of the U.S. Citizen and Immigration Services 
(USCIS) section at the United States Embassy in Guatemala City show 
2,965 pending adoption cases as of April 1, 2008, down from 3,387 on 
March 1. Before USCIS and the Consular Section can complete processing 
of any of these cases, they must have a finalized adoption according to 
Guatemalan law. The embassy believes that nearly all of these cases 
have been registered with the new National Adoption Council (CNA) 
before the February 12, 2008 deadline created by Guatemala's new Hague 
compliant legislation, and will, therefore, be entitled to be processed 
under the notarial adoption system that existed prior to the new law. 
Completed adoption documentation is being presented daily to the 
embassy, currently running at a rate slightly slower than last year's 
record numbers (4,729 adoption immigrant visas issued in fiscal year 
2007). Current USCIS and consular staff at the embassy is therefore 
sufficient for timely processing of these cases. The average number of 
days from receipt of final adoption documentation by the embassy's 
USCIS office to issuance of the immigration visa by the consular 
section is now under 14 calendar days. For most of last year this 
processing and scheduling time averaged approximately 21 days. If 
Guatemalan Government adoption processing continues at rates similar to 
March and April, most such ``grandfathered'' cases (barring problems 
discovered in individual cases) should be completed by the end of 
calendar year 2008.

    Question. What is the status, in particular, of cases involving the 
children from Casa Quivira? How many prospective adoptions involving 
American citizens remain pending?

    Answer. Thirty-five children remain in Casa Quivira, though one 
child's adoption has been completed adoption and is scheduled for final 
visa interview on April 22. We believe that 30 of these children 
continue to be matched with American prospective adoptive families, 
according to the records of USCIS. However, we have recently learned of 
several withdrawals by U.S. families, and we have not been informed of 
new matches for those children. Eight of these children (counting the 
April 22 final interview above) have been released by the investigating 
prosecutor's office for completion of adoption processing. In 18 more 
cases, the prosecutor has been unable to locate birth mothers for 
interview. Several parents, however, have engaged additional assistance 
to help locate these mothers and to bring them for interviews by 
Guatemalan authorities. In nine cases, the prosecutor has discovered 
serious irregularities, mainly consisting of false identifications of 
the birth mothers. All such cases will have to be processed as 
abandonment cases, requiring court determinations, and almost certainly 
requiring processing in accordance with the new law. The embassy and 
the Bureau of Consular Affairs continue to dedicate extensive efforts 
to these cases.


                              NOMINATIONS

                              ----------                              


                         MONDAY, APRIL 28, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Burns, William J., to be Under Secretary of State for Political 
        Affairs
Jacobs, Janice L., to be Assistant Secretary of State for 
        Consular Affairs
McMahan, Vance, to be the U.S. Representative on the Economic 
        and Social Council of the United Nations
                              ----------                              

    The committee met, pursuant to notice, at 3:53 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey presiding.
    Present: Senators Casey and Lugar.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. The hearing of the Committee on Foreign 
Relations will now come to order.
    Today, the committee meets to consider three important 
nominations: Ambassador William J. Burns, Under Secretary of 
State for Political Affairs; Ambassador Janice L. Jacobs to be 
Assistant Secretary of State for Consular Affairs; and Mr. 
Vance McMahan to be the U.S. Representative on the Economic and 
Social Council of the United Nations, with the rank of 
Ambassador.
    I want to congratulate all of you on your nominations and 
express the gratitude of the Senate for your willingness to 
engage in public service on behalf of our Nation.
    Ambassador Burns, you've been nominated for what is, in 
effect, the third-ranking position in the State Department--the 
Under Secretary of State for Political Affairs. Like Secretary 
of State Rice and Deputy Secretary of State Negroponte, you're 
responsible for not just one region or one functional area, but 
the broad sweep of U.S. foreign policy. While this position is 
always important, if confirmed, you will be assuming it in an 
especially important time. Regardless of who is elected 
President this fall, you may be the senior official at the 
State Department during the transition period, and even perhaps 
during the first weeks of the new administration.
    And I know you have some big shoes to fill. Your 
predecessor as Under Secretary of State for Political Affairs, 
Ambassador Nick Burns, played a key role on leading foreign 
policy challenges, including the United States-led initiative 
to halt Iran's nuclear activities that violate a series of U.N. 
Security Council resolutions, and the efforts to hammer out a 
civil--or, I'm sorry--a civilian nuclear cooperation agreement 
with India. I'll be interested to hear your views on how you 
intend to approach the upcoming presidential transition as the 
senior career officer at the State Department and which foreign 
policy challenges you intend to focus upon when you assume your 
new position.
    I'm also happy to learn, today, that you've got some roots 
in Scranton, PA. We always appreciate that.
    Ambassador Jacobs, you have been nominated to assume the 
leadership of the State Department's Consular Affairs Bureau, 
which, unfortunately, has been in the news, of late, for the 
wrong reasons. Last summer, we witnessed thousands of Americans 
having to postpone or cancel their trips abroad due to lengthy 
delays in receiving their passports. Unfortunately, the State 
Department had badly miscalculated the level of demand for U.S. 
passports in the wake of new rules established under the 
Western Hemisphere Travel Initiative.
    While passport processing times have now returned to 
normal, many of us in the Congress are concerned about a repeat 
of this scenario next year, when new regulations come into 
effect requiring all Americans transiting our borders by land 
or sea to have U.S. passports or passport cards. I look forward 
to your views on how the State Department plans to assess 
likely demand, and the steps it is taking to get ready.
    More recently, we learned the disturbing news that State 
Department employees and contractors illegally accessed the 
passport files of the three remaining presidential candidates. 
Perhaps of greater concern, there was a significant lag before 
these unauthorized disclosures were reported to senior 
Department officials and the three candidates themselves. I 
understand that the State Department inspector general is 
conducting an investigation, and I look forward to hearing the 
status of that investigation and the steps the Department is 
taking to better protect the privacy and integrity of passport 
files for all Americans.
    Finally, Ambassador Jacobs, I want to raise an issue raised 
by a number of our constituents in Pennsylvania. Many families, 
including those in Pennsylvania, have encountered lengthy 
delays and uncertainty in the processing of adopting children 
from foreign nations, especially Vietnam and Guatemala. While I 
understand the critical need to follow careful rules and 
regulations, especially to deter intolerable kidnapping and 
selling of infants for adoption, too many families have often 
been left in the dark regarding individual cases.
    I strongly urge the Department of State and your Bureau to 
recommit to frequent communications with both congressional 
casework staff and the general public so that affected families 
receive regular updates on their adoption cases and suffer less 
unneeded stress.
    Our final nominee before us today, Mr. McMahan, has been 
nominated for the position of United States Representative to 
the United Nations Economic and Social Council, or ECOSOC--
``ecosock,'' for those of us who focus on acronyms. The ECOSOC 
is a U.N. body that addresses international economic, social, 
and cultural issues and is currently undergoing significant 
reform efforts. However, I was disappointed when ECOSOC, last 
year, voted to deny--to deny--the Jewish National Fund of the 
United States general consultative status at the body, a status 
that roughly 2,800 other nongovernmental organizations already 
enjoy.
    Such actions, which appear to stem from an anti-Israel 
bias, only serve to undermine the trust of the American people 
in the evenhandedness of the United Nations as a whole. I look 
forward to your views on how to make ECOSOC a more effective 
and nondiscriminatory organization.
    With Americans dying in combat in foreign lands and our 
international prestige at an all-time low, our Nation demands 
capable representatives to advocate for our interests overseas. 
I look forward to hearing your views on how you intend to serve 
as representatives of our great Nation.
    And at this moment I think we'll go to our nominees. We may 
be joined by other members of this committee. We'll turn to our 
nominees for their opening statements. And I'd encourage you to 
keep your remarks brief, as we always say, no longer than 5 
minutes each, if you can hold to that, so we can move to 
questions. And if you're summarizing your statement, the text 
of your full statement will be included in the hearing record.
    And I also know this is a proud moment for each of you, and 
also for your families, and maybe friends, as well, so I'd 
encourage you to introduce family and friends who are present 
today when you deliver your opening statement.
    And at this moment I think we'll start, first of all, with 
Ambassador Burns.

STATEMENT OF WILLIAM J. BURNS, NOMINEE TO BE UNDER SECRETARY OF 
                  STATE FOR POLITICAL AFFAIRS

    Ambassador Burns. Thank you very much, Mr. Chairman. It 
truly is an honor to appear before you today as President 
Bush's nominee to become Under Secretary of State for Political 
Affairs.
    I am grateful to the President and to Secretary Rice for 
their confidence in me and in our diplomat service, in which I 
am proud to have served for the last 26 years. If confirmed, I 
will do my best to live up to their trust and to work closely 
with you and all of your colleagues on this committee, as I 
have throughout my career.
    With your permission, Mr. Chairman, I'd like to begin by 
expressing deep appreciation to my family--to my wife, Lisa, 
and daughter, Sarah, who are still in Moscow, and my daughter, 
Lizzy, now in the midst of her final exams at Duke University. 
As in so many Foreign Service families around the world, their 
love and sacrifice are a very large part of why I am here 
today. I can never repay them adequately.
    This is the fourth time, Mr. Chairman, that I've appeared 
before this committee for confirmation. I approach this new 
challenge with considerable humility, with great respect for 
Nick Burns, Mark Grossman, Tom Pickering, and all those who 
have come before me, with an abiding commitment to public 
service, with faith in the power of clear-eyed diplomacy in the 
pursuit of American interests and human freedoms, and with few 
illusions about the complicated world around us.
    It is a world with no shortage of troubles, but also plenty 
of opportunities for creative and determined American 
leadership. It is a world which faces the spreading dangers of 
weapons of mass destruction, new and more malignant forms of 
terrorism, unresolved regional and sectarian conflicts, failed 
and failing states, global economic dislocation, and 
transnational health, energy, illegal narcotics, and 
environmental concerns. It is a world in which American vision 
and leadership are essential in crafting relations with 
emergent and resurgent great powers, in deepening their stake 
in global institutions and a stable international system. It is 
a world in which other people and other societies will always 
have their own realities, not always hospitable to ours. That 
doesn't mean we have to accept those perspectives, or agree 
with them, or indulge them, but it does mean that understanding 
them is the starting point for sensible policy. It is a world 
in which a little modesty in the pursuit of American interests 
is often a good thing, and in which there's still no substitute 
for setting careful priorities and connecting means to ends.
    But, it is also a world in which the power of our example 
and our generosity of spirit can open the door to profound 
advances, as President Bush has shown in his historic 
initiative against HIV/AIDS in Africa. It is a world in which 
our leadership should serve as a catalyst for making common 
cause with others. Nowhere is that more true today than in the 
broader Middle East, where it is hugely important to build on 
the Annapolis Conference and realize the promise of a two-state 
solution to the Israeli-Palestinian conflict, and where we must 
strengthen regional and international support for a better 
future for Afghanistan and Iraq.
    It is a world, as Secretary Rice has said, in which America 
has no permanent enemies and in which tough-minded engagement 
of our adversaries, such as North Korea and Iran, is a mark of 
strength and confidence, not weakness. And it is a world, as 
Secretary Gates has argued, in which the many instruments of 
American soft power ought to be expanded alongside the tools of 
hard power.
    Mr. Chairman, I look forward, if confirmed, to assisting 
Secretary Rice and Deputy Secretary Negroponte in coordinating 
our diplomacy across the major regions of the globe and toward 
the alliances and international organizations which are so 
important to U.S. national security. I will draw, as best I 
can, on my experience in Russia and the Middle East, two 
regions of the world which are rarely dull, but always central 
to American interests. I will work hard, with my friends and 
colleagues in other agencies, to promote an effective policy 
process. And I will also wholeheartedly support Secretary 
Rice's efforts, building on the world of Colin Powell, to 
transform and strengthen America's diplomatic capabilities for 
the new century before us.
    Taking care of our people, of the members of the Foreign 
and Civil Services and the Foreign Service nationals who serve 
our country with such dedication and courage in so many hard 
places around the world, is not only the right thing to do, but 
also a powerful contribution to America's best interests.
    Thank you, again, Mr. Chairman, for your consideration. I 
know the period ahead is an important one, with a political 
transition looming in our country in a world which doesn't stop 
for our political processes. I'll do all I can, if confirmed, 
to work with all of you to help meet the formidable challenges 
before us.
    Thank you.
    [The prepared statement of Ambassador Burns appears at the 
end of this hearing transcript.]
    Senator Casey. Thank you, sir.
    I wanted to note the presence of our distinguished ranking 
member, Senator Lugar, who joins us, as well, and I appreciate 
his presence here at the hearing.
    Ambassador Jacobs.

    STATEMENT OF JANICE L. JACOBS, NOMINEE TO BE ASSISTANT 
            SECRETARY OF STATE FOR CONSULAR AFFAIRS

    Ambassador Jacobs. Mr. Chairman, Mr. Lugar, it's a distinct 
honor to appear before you today.
    I would like to express my sincere appreciation to 
President Bush and Secretary Rice for nominating me to be 
Assistant Secretary of State for Consular Affairs.
    I would also like to introduce and give special thanks to 
my husband, Ken Friedman, who is here with me today.
    Consular work is fundamentally about service to our 
mission, to our citizens, and to the security of our Nation. As 
a career consular officer for 28 years, I have gained a broad 
perspective of the many and varied consular challenges our 
country faces. In leadership positions, as Deputy Assistant 
Secretary for Visa Services and Principal Deputy Assistant 
Secretary for Consular Affairs, I have worked on the full range 
of consular issues, implementing changes that have transformed 
the security and efficiency of consular work across the range 
of our activities.
    As Deputy Chief of Mission in Santo Domingo, and as 
Ambassador to Senegal and Guinea-Bissau, I have seen, 
firsthand, the outstanding work that all consular personnel--
officers, locally engaged employees, eligible family members--
do at our posts overseas. If confirmed, I will consider it my 
great privilege to lead the Bureau of Consular Affairs in 
protecting our Nation's security and providing the highest-
quality services to our citizens.
    One of those services is providing American citizens with 
reliable, secure passports. The Bureau took immediate action 
when we learned, recently, that the passport records of 
Presidential candidates had been improperly accessed by Bureau 
employees. As Acting Assistant Secretary, and under the 
guidance of the Under Secretary for Management, we informed the 
candidates, reminded all Bureau employees of their legal 
obligation to safeguard the privacy of passport records, and 
requested the Office of the Inspector General to begin an 
investigation, which is ongoing. We are exploring further 
measures to protect the privacy of American citizens and 
strengthen the integrity of the passport process.
    Mr. Chairman, if confirmed, I will be vigilant in ensuring 
that the American public's trust in the Bureau is well placed 
and that the personal information they provide to us is kept 
safe.
    CA has greatly improved the efficiency of passport 
processing. Despite demand that now runs 7 percent above last 
year's record 18.4 million passport issuances, I'm pleased to 
report that there is no backlog of passport applications. We 
are meeting higher demand by hiring hundreds of new staff, 
establishing new passport agencies, expanding existing 
facilities, and producing a passport card to meet the needs of 
our citizens on the northern and southern borders. If 
confirmed, I will ensure that we continue to provide reliable 
passport services to our citizens.
    In discharging our visa responsibilities, consular officers 
sit literally on the front lines on the global war on terror, 
contributing to national security. They strengthen our borders 
by detecting and deterring the entry of those who seek to break 
our laws. They strengthen our society by helping reunite 
American families through legal immigration. Since 9/11, the 
Department's challenge has been to enhance the security of our 
borders while keeping America's doors open to the world. Our 
commitment to the ``Secure Borders, Open Doors,'' joint vision 
of Secretaries Rice and Chertoff has transformed visa 
processing and enabled us, for example, to issue an all-time 
record of 651,000 student and scholar visas last year. If 
confirmed, I will continue this commitment to improve the 
security and efficiency of visa processing and ensure that 
America continues to welcome legitimate international visitors.
    Of course, our primary responsibility is to serve and 
protect American citizens overseas. We provide our citizens 
with services around the cycle of life. We register births, 
replace lost passports, help people vote, and comfort families 
when Americans are sick, in jail, or have died. Consular 
officers touch people's lives.
    We devote special effort to protecting children. On April 
1st, we implemented the Hague Convention on Intercountry 
Adoption to provide better protections and transparency for 
children and families in intercountry adoptions. If confirmed, 
I will work tirelessly to ensure CA continues our outstanding 
record of service to our citizens.
    Mr. Chairman, if confirmed, I will look forward to working 
with the Secretary to ensure consular support for America's 
foreign policy objectives. If confirmed, I will continue to 
work with the committee to ensure that the world's finest 
consular corps continues to meet its obligations to our 
citizens and to our Nation.
    Thank you for the privilege of appearing before you today, 
and I would be happy to answer any of your questions.
    [The prepared statement of Ambassador Jacobs appears at the 
end of this hearing transcript.]
    Senator Casey. Thank you, Ambassador.
    Mr. McMahan.

STATEMENT OF T. VANCE McMAHAN, NOMINEE TO BE REPRESENTATIVE OF 
  THE UNITED STATES ON THE ECONOMIC AND SOCIAL COUNCIL OF THE 
 UNITED NATIONS, WITH THE RANK OF AMBASSADOR AND AN ALTERNATE 
  REPRESENTATIVE OF THE UNITED STATES TO THE SESSIONS OF THE 
 GENERAL ASSEMBLY OF THE UNITED NATIONS, DURING HIS TENURE OF 
SERVICE AS REPRESENTATIVE OF THE UNITED STATES ON THE ECONOMIC 
            AND SOCIAL COUNCIL OF THE UNITED NATIONS

    Mr. McMahan. Thank you, Mr. Chairman, Senator Lugar, 
members of the committee. I'm honored to appear before you 
today as the President's nominee to serve as the U.S. 
Representative to the United Nations Economic and Social 
Council. I'm deeply grateful to President Bush and Secretary 
Rice for their confidence in me.
    I hope that my legal background in the field of banking and 
finance, as well as my extensive experience in government and 
work on a number of public policy issues, from education to 
healthcare to global competitiveness, will contribute to my 
effectiveness in this position.
    I strongly believe the United States role as a force for 
good in the world, that, working with global community, we can 
help free people from hunger and disease, poverty and 
illiteracy, tyranny and violence, allowing them to realize 
their full potential as human beings.
    The United States has led an effort to bring new ideas and 
fresh approaches in a number of areas, including the economic 
policy debate at the United Nations. Our approach, in line with 
the Monterrey Consensus on Financing for Development, 
emphasizes the importance of sustainable economic growth in 
development policy, linking new aid from developed nations to 
real reform in developing ones.
    Our guiding principle is based on building partnerships. 
It's a balanced approach which promotes a central role of 
national governments in their own development and the 
importance of international investment, trade, and credit 
markets, and expanding economic opportunities for the world's 
poor. If confirmed, I will continue to advance our view that 
foreign assistance, in the context of good governance and sound 
domestic policy, can play a catalytic role, but it cannot 
substitute for open international trade and the ability to 
attract private capital.
    The Economic and Social Council, ECOSOC, is at the center 
of these activities, and, through its resolutions, functional 
commissions, and regional commissions, is an important venue to 
promote key U.S. interests. The United States, as an ECOSOC 
member, has worked closely with our member states to integrate 
our shared views into U.N. policies on the role of economic 
growth and national development strategies that can bring real 
change to the lives of many.
    Through the work of ECOSOC and its subsidiary bodies, we 
are also pursuing the global goals, in the Millennium 
Declaration, of reducing poverty and hunger, improving health 
and education, and combating major diseases. Achieving these 
goals will require greater focus on, and innovative approaches 
to, sustainable development in the fragile and failing states 
where many of the so-called ``bottom billion'' live, those who 
have been left behind as the rest of the developing world has 
moved ahead. The extreme poverty and instability in these 
states affects the entire global community. If confirmed, this 
will be one of the most important items on my agenda.
    In addition to its important work on economic growth and 
development, ECOSOC also plays a critical part in the promotion 
of human rights and social justice. Unfortunately, the Geneva-
based Human Rights Council, which, in 2006, replaced the former 
Commission on Human Rights, has been a grave disappointment in 
this regard. To date, that body and many of its members remain 
unwilling to meet the council's mandate of addressing gross and 
systematic violations of human rights. Until the council 
improves, we will not legitimize it with our formal 
participation. If confirmed, I will continue to press for the 
council to approach its work with the seriousness that the 
United States and the international community expect, and to 
eliminate the selective bias that we've observed in its work so 
far.
    I would also continue to work with our partners to push for 
action by the General Assembly's Third Committee to hold 
accountable violators of human rights and fundamental freedoms. 
In addition, I would also work to build on existing initiatives 
of the United States in the General Assembly and other fora to 
fight human trafficking, to improve the status of women, and 
increase their political participation and economic influence 
around the world.
    I would also like to emphasize our strong commitment to the 
promotion of democracy. The United Nations Democracy Fund, 
created by Secretary General Annan in 2005, plays an important 
role in strengthening democratic institutions at the level of 
civil society. The fund is already supporting 122 projects in 
110 countries, and, if confirmed, I will look forward to 
continuing our work as members of the Advisory Board to further 
the goals of the fund.
    Finally, I would like to underscore that I believe our work 
at the U.N. will only succeed insofar as the U.N. as an 
institution succeeds. The United States is spearheading the 
U.N. Transparency and Accountability Initiative to improve the 
organization's efficiency across the entire U.N. system. The 
U.N.'s daily impact on the well-being of so many around the 
world makes it vital that the entire U.N. system join this 
initiative to safeguard the U.N.'s resources and its 
credibility.
    Mr. Chairman, members of the committee, thank you again for 
the opportunity to testify today and for considering my 
nomination. If confirmed, I intend to work closely with members 
of the committee and the committee staff to advance U.S. 
efforts at the U.N. to promote international peace and 
security, sustainable economic development, and respect for 
human dignity.
    I'd be happy to respond to your questions.
    [The prepared statement of Mr. McMahan appears at the end 
of this hearing transcript.]
    Senator Casey. Thank you, Mr. McMahan. I appreciate it.
    And we appreciate the presence of the ranking member, 
Senator Lugar, and he'll start our questioning.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Ambassador Burns, it's a privilege to have you before the 
committee once again and to have an opportunity to thank you 
and commend you for remarkable service in Russia and, before 
that, in the Middle East--many people are not as well aware of 
your achievements in that sector--in addition.
    I was pleased just to note, over your right shoulder, 
former Ambassador Jim Collins, who is here today, and it is 
wonderful to have Jim Collins in the audience, likewise, an old 
comrade in spirit regarding Russia.
    Let me just ask--turning, a moment, to a near neighbor of 
Russia--about recent Georgian actions. Without attempting to 
characterize the motivation for movement in those two parts of 
Georgia in which Russia continues to play an active role, what 
do you perceive is the motivation? Is this coercion of Georgia 
or, really, an attack upon NATO in the discussion of Georgian 
membership or--give us some feel for where that is headed.
    Ambassador Burns. Thank you very much, Senator Lugar.
    As you know, the United States has made very clear our 
support for Georgia's territorial integrity and our strong 
concern about some actions, which the Russian Government has 
recently taken, which undermine Georgia's territorial 
integrity. Part of the calculation on the part of the Russian 
Government may have to do with its clear opposition to the 
further enlargement of NATO along its own borders. I think, in 
terms of our response, it's very important for us to do all we 
can to make common cause with our European partners and to 
stress, in a strong and steady fashion, that ours is a 
collective concern. As one small indication of that, in Moscow 
in the next couple of days we're going to be approaching the 
Russian Foreign Ministry again--not separately, but 
collectively, along with the Germans and some of our other key 
European partners in the so-called Friends of Georgia--again, 
to underscore our concern.
    Senator Lugar. Well, I appreciate that response. I am 
certain he reached out in directions to friends, wherever he 
can find them, but I received an urgent call from President 
Saakashvili last Thursday, in which he was most hopeful that 
our administration would speak out; likewise, individual 
Members of Congress. Senator Biden and I drafted an op-ed 
piece, which appeared in the Washington Times yesterday, trying 
to affirm the importance of Georgia, and, likewise, the 
importance of its territorial integrity and its aspirations to 
us. So, I appreciate your statement today, and we look forward 
to the administration's vigorous pursuit of that idea.
    Let me just ask, for a moment, about the START treaty. We 
had an opportunity to discuss this privately earlier today, 
but, just for the record, is the administration now committed 
to trying to reach agreement with regard to a START treaty 
verification regime before that expires next year? What are the 
sticking points? What do you foresee, really, to be the course 
of activity of the United States and Russia with regard to the 
START situation?
    Ambassador Burns. Well, sir, President Bush reaffirmed, 
when he met with President Putin in Sochi earlier this month, 
the U.S. commitment to a legally binding post-START agreement, 
and I think the administration feels a sense of urgency about 
this, not only because of the importance of a post-START 
agreement for relations between the United States and Russia 
and for our bilateral interests in strategic stability, but 
also, I think, because Russia and the United States have both 
unique capabilities and unique responsibilities in the nuclear 
field, and I think the successful conclusion of a legally 
binding post-START agreement would send a powerful signal to 
the rest of the world of our responsible exercise of that 
leadership in managing our own remaining nuclear arsenals. And 
at a moment when the danger of the spread of nuclear weapons is 
as serious as it's ever been in human history, I think that 
kind of United States-Russian leadership is very important.
    Senator Lugar. How vigorous do you perceive our leadership 
in the remainder of this current Presidential term?
    Ambassador Burns. Well, President Bush was very clear when 
he met with President Putin and President-elect Medvedev in 
Sochi, and also in the Strategic Framework Declaration that was 
released by the two presidents afterward, about our commitment 
to trying to conclude a legally binding post-START agreement.
    As you know, Ambassador Boyden Gray has a new assignment; 
namely, to go out and visit with countries about energy 
issues--Kazakhstan, Turkmenistan, Azerbaijan, Turkey, a good 
number of other countries in which the need for the flow of oil 
and natural gas to the rest of the world--it's a portfolio that 
increases the flow from something that is more exclusively 
Russian to much more worldlike, on behalf of our European 
allies, as well as our own country. How can we work with the 
Russians or others for them to understand this, in addition to 
these countries that Ambassador Gray will be visiting? How 
coordinated is the administration's point of view in taking a 
look at potential hazards to our European allies, quite apart 
from the need for us to work in developing relations with other 
countries through personal visitation?
    Ambassador Burns. Well, Senator Lugar, I can think of two 
or three steps which are very important for us to take.
    The first is to recall the set of principles which were 
agreed at the G-8 Summit in St. Petersburg that was hosted by 
Russia in the summer of 2006, principles which emphasized the 
importance of diversity, of diversification of sources, of 
transit routes, principles which emphasized the importance of 
sanctity of contracts, as well as transparency in the way in 
which the global energy market works. And so, I think it's very 
important, at the upcoming G-8 Summit, in our own diplomatic 
efforts with our partners in the European Union and directly 
with Russia, to strengthen adherence to those principles.
    Second, I think it is also very important, just as you 
discussed with Ambassador Gray, for the United States to engage 
in the most active diplomatic efforts possible throughout 
Central Asia, because active personal diplomacy, it seems to 
me, is extremely important in the pursuit of those principles 
from the St. Petersburg G-8 Summit, especially diversification.
    And finally, it is important to engage Russia. It is, 
today, the world's largest producer of hydrocarbons, of oil and 
gas. It is, by any definition, a major player in the global 
energy market. There are some overlapping interests with 
regard, for example, to energy efficiency, especially as Russia 
moves to the liberalization of its domestic gas prices; that's 
going to become a more important goal for Russia itself, and 
there are things we can learn from each other on that. So, 
engaging the Russians is also an important element of any 
successful strategy.
    Senator Lugar. Mr. Chairman, this concludes the questions I 
have for Ambassador Burns, so I would either relinquish or 
carry on, as your instruction.
    Senator Casey. Go ahead and carry on.
    Senator Lugar. Let me, first of all, introduce a statement 
for the record by Senator Hagel, our colleague.
    Senator Casey. Without objection.
    [The information previously referred to appears at the end 
of this hearing in the ``Additional Material Submitted for the 
Record'' section.]
    Senator Lugar. Now, let me now turn to questions for 
Secretary Jacobs.
    Many of us have been contacted by constituents specifically 
regarding adoptions in Vietnam, Guatemala, and Romania. I know 
these issues have come to your attention. But, what can you 
tell us about the situation in these and other countries of 
concern? And how has our formal adoption of the Hague 
Convention on Intercountry Adoptions changed our situation in 
these or other countries?
    Ambassador Jacobs. Thank you, Senator Lugar.
    First of all, let me say--in my statement, I talked about 
how CA touches people's lives. And, I think, on the issue of 
intercountry adoptions, perhaps there's no issue that is more 
emotional for everyone involved--for the adoptive parents, 
certainly. We are looking out for the interests of the adopted 
child and the biological parents, as well. The State Department 
has long supported intercountry adoptions as a viable option 
for children in need of placement in a permanent home. And, as 
we have done that, we have also supported two principles: one 
of transparency, another is the practice of ethical standards 
and procedures in carrying out the adoptions in the adoption 
process itself.
    Our recent accession to the Hague Convention, on April 1st, 
we think really reaffirms our commitment to those principles. 
We are strong supporters of the Hague's processes and abilities 
to introduce more transparency into the system and to really 
have the protections necessary for all parties involved in the 
adoption process.
    With regard to the countries that you mentioned, Guatemala 
is a member of the Hague. They actually joined in 2003, but 
they did not pass the implementing legislation necessary to 
create the infrastructure necessary to do processing until 
December of last year. And so, they are still going through 
what we went through, quite frankly, for a number of years, in 
setting up the rules and the infrastructure in order to allow 
adoptions under Hague standards.
    We, as a Hague country now, have to wait until they have 
their infrastructure in place before we can do new adoptions; 
however, there are cases that were in process before December 
31, which we are working on, and we are working very closely 
with the Guatemalan Government and others to see how we can do 
those on a case-by-case basis.
    In Vietnam, the situation is a little more troubling. 
Vietnam is not a member of the Hague. It is something that we 
strongly encourage the Vietnamese Government to do. We and the 
Government of Vietnam actually stopped adoptions in 2002 
because of serious irregularities. We signed a memorandum of 
agreement with them in 2005 that allowed adoptions to begin 
again, and we saw a resurgence. We processed about 800 
adoptions out of Vietnam last year. However, over the course of 
time, our embassy in Hanoi has discovered a number of troubling 
practices, suggesting corruption, perhaps baby-buying, baby-
selling, things that we really cannot condone. We have raised 
our concerns with the Vietnamese Government. We have told them 
that we are not going to be able to renew the current agreement 
in its current form because there has been little progress on 
some of the things that we were looking for in that agreement: 
transparency--transparency in the fees that are paid is 
especially important. And so, the Vietnamese Government 
announced, just today, that, in fact, we are not going to be 
able to renew the memorandum.
    So, our plan is to continue to work with the government to 
try to address some of these concerns, the fraudulent patterns 
that we've noticed, and perhaps, once we have been able to work 
those out, to sign another agreement. In the meantime, cases 
that are already entrained--we will be working on those on a 
case-by-case basis, up until the time that the MOA expires in 
September.
    We do certainly want to work with the families. We have a 
60-day standard that we have in place, where we try to answer 
families with any questions or concerns. And I know that people 
in the Bureau are in frequent contact with the families. If I'm 
confirmed, I commit to you that we will continue that close 
interaction with the families.
    Senator Lugar. How about Romania?
    Ambassador Jacobs. Romania is another situation where the 
government itself has decided to limit adoptions, and we are in 
the process of talking to them, as well.
    Senator Lugar. Let me just indicate that I'm certain all 
committee members are pleased with your report that the wait 
times for passport applications have not only dramatically 
dropped, and you're back to normal. As you've stated, there's 
not a perceptible backlog. Can you, just for the sake of the 
record, remind each of us of the cost of a U.S. passport, as 
well as the new passport card that can be used for Mexico and 
Canada? And, likewise, how much does it cost to apply for a 
U.S. visa to enter this country? Are there cost problems there 
that you perceive, with regard to foreign students and/or other 
entry persons to the United States, that deserve your attention 
or congressional attention?
    Ambassador Jacobs. Thank you, Senator.
    The current cost for a first-time passport applicant is 
$100; and for a renewal, is $75. The passport card--I have a 
sample of it, actually, here--we've talked a lot about this new 
card that we're getting ready to start printing in June--will 
be in full production by July. If you are renewing--if you have 
a passport book, and you are getting a card, it's only $20. If 
you are simply buying the card itself, it's $45 for adults, $35 
for children.
    All of our costs, of course, are based on what it costs us 
to provide the service. The Bureau of Consular Affairs is fee-
based; and so, we do carry out periodic cost-of-service studies 
in order to tell us what it is costing us to provide the 
services that we do.
    We know, on the student visas, that there is a lot of 
concern about trying to keep the price as low as possible in 
order to encourage foreign students. We are very happy to see 
that the number of foreign students is increasing; in fact, the 
overall number of foreign-student enrollment in the United 
States went up by 3 percent last year. I mentioned the number 
of visas that we actually issued. We're very happy about that.
    We are doing a cost-of-service study right now. The current 
fee for, not just students, but for nonimmigrant visas--
applicants around the world--is $131. We had to raise that in 
January, primarily because of a new fee that the FBI is 
charging us in order to check the fingerprints that we collect 
on applicants against the FBI database. We are doing this cost-
of-service study now. It is possible that that fee may change 
once that study is completed, later in the fall. I don't know 
how that's going to come out. But, I certainly remember, sir, 
sitting before you in previous hearings, and you raised 
concerns about that fee, and I can commit to you that we will 
try to keep it to cover just our costs, and try to keep it at a 
reasonable level.
    Senator Lugar. I think you made an excellent explanation of 
how you arrive at it, and I hope the study can lead to a more 
favorable result. The fact that there are 3 percent more 
students, as opposed to the trend the last time we met--and the 
committee has been concerned with this, really, for 5 years, as 
we saw, really, a caving-in of the numbers, and now some 
resurgence, which is very promising. And, of course, the more 
volatile hearings of the committee on the subject were with 
regard to the long lists of constituents who were calling all 
of our offices in a state of emergency, or worse. The fact that 
that has been relieved is further a godsend for all of us, and 
we appreciate work that has accompanied that.
    Let me just ask, How is the status of passport production 
components going along--specifically, the microchip security 
issue? And why is it that no American companies are capable of 
manufacturing the chip domestically, as I understand it? Why do 
we have the chips made overseas? And are there security 
implications involved in that production?
    Ambassador Jacobs. Thank you, sir.
    First of all, I want to assure you and the American public 
that the State Department is committed to providing the most 
secure document possible in compliance with ICAO standards that 
allows international travel. Back when we decided to do our 
electronic passport, in 2003, we did a request for information; 
and, at that time, it was apparent to us that there were not 
going to be any U.S. suppliers who could provide the type of 
chip that we were looking for. And so, we did turn to overseas 
companies, primarily European, to produce both the chip and the 
antenna that goes into the electronic passport. Those 
components, though, are all sent by secure delivery to the GPO 
here in the United States, and the passport itself is assembled 
in secure facilities here in the United States. The components 
themselves are commercially available. They are used in other 
documents, such as DHS's Trusted Travel Card and credit and 
debit cards. And when they are sent to the GPO, they are 
actually locked, so there's no way to enter information on them 
or fool around with them in any way.
    And so, once, the chips and the antenna that are put 
together--just really actually glued on a piece of plastic 
overseas, and it's that piece of plastic that gets sent to the 
GPO. It is only when we receive the books that the personal 
data is put on the chip, and it's locked down so it cannot be 
tampered with or changed in any way.
    The GPO, at some point, will be recompeting the contract, 
and if, at that time, there are American suppliers who can 
provide the chip in the quantity that we need, then I'm sure 
that that will be taken under consideration. But, let me just 
say that, at the time, there really were no U.S. suppliers.
    Senator Lugar. You've gone backward and forward on the 
security situation, convinced yourselves and others that this 
is okay? In other words, we're not going to come back to the 
committee with people indicating that some devious practice, 
something is known in the United States that we did not want to 
have known?
    Ambassador Jacobs. No, sir. Our whole process has been 
looked at by NIST and others who have really looked at the 
process and also the security features of the document and the 
passport card themselves, which have been looked at by a number 
of scientists and the forensic document lab at DHS. And we are 
quite confident that it is secure.
    Senator Lugar. Finally, I'd just note that, really, through 
your data, that the visas are rising in requests from China and 
from India. Not surprising, given the economic activity, 
students, everybody. Are we prepared to meet this rising 
demand? This, hopefully, will not cause a crisis at the desks, 
but you've sensed the demand. And maybe there are other demand 
situations you also have sensed. Can you give us reassurances 
in that area?
    Ambassador Jacobs. Yes, sir. Certainly, one of the biggest 
challenges that Consular Affairs faces right now is this 
growing demand; and it's not just on the visa side, but across 
the board, in all the services that we provide. But, you 
correctly point out that in China, India, Brazil, Mexico--
really those are the big-four countries for us, where we're 
seeing double-digit growth every year right now--we are very 
focused on the problem, the challenge of trying to meet that 
demand. And I can assure you that, if I'm confirmed, that we 
will do the planning necessary so that we have the resources in 
place to address those challenges.
    Senator Lugar. May I continue?
    Senator Casey. Sure.
    Senator Lugar. All right.
    Let me ask Mr. McMahan--you've already addressed the 
problems of the Human Rights Council in Geneva, as we perceive 
it. And why does this persist, at least in your judgment? 
Clearly, the United States has been offering suggestions. You 
even suggested our lack of participation, if things don't shape 
up. What are the fundamental causes of this malaise that 
spreads over this Geneva situation?
    Mr. McMahan. Thank you for that question, Senator.
    I know we've been very disappointed, as you said, in the 
failure of the Council to address gross violations of human 
rights, and we've been working closely with our allies to try 
to improve the Council. But, at this point, we feel like we 
have more leverage from the outside, and that actually joining 
the Council, as some people have urged, would actually 
legitimize it, and the Council has not earned that, at this 
point. I think we'll continue to work with our allies to try to 
change the Council, to try to make it more effective and fair.
    What I think we could also do is work with the Third 
Committee at the United Nations, where we've had more success 
in passing country-specific resolutions. Last year, we passed 
resolutions on Belarus, Iran, and North Korea, and Burma.
    So, while we will continue to work to improve the Human 
Rights Council, we'll also continue to work through the Third 
Committee at the General Assembly to make sure our concerns in 
the human rights area are addressed.
    Senator Lugar. For the sake of information and the hearing 
record, try to differentiate the Third Committee, as opposed to 
the Human Rights Council, or the relationship between the two, 
and why one might work, apparently, more effectively, and the 
other, Third, is not.
    Mr. McMahan. To the best of my knowledge, the Human Rights 
Council is a separate council, and the membership blocs there 
can prevent--well, so far, effective response on the more 
egregious human rights violations. Working through the Third 
Committee--it's part of the General Assembly, a broader group 
of member states--we feel like we can form more effective 
coalitions to address----
    Senator Lugar. So, it's a broader membership.
    Mr. McMahan.--Right.
    Senator Lugar. You have a larger constituency in the Third 
Committee.
    Mr. McMahan. Correct. Yes, sir.
    Senator Lugar. Please discuss, for just a moment, the 
current relationship between the Economic and Social Council 
and the Peacebuilding Commission, which seeks to ensure that 
recently recovering fragile states not lapse into chaos. What 
bearing does this have on our agenda? Of what assistance is it 
to us, or what assistance can we give to that effort?
    Mr. McMahan. Thank you, Senator.
    If confirmed, this would be an important issue for me, in 
the sense I believe that we need to focus on the fragile and 
failing states. There's a--quite a bit of discussion on the 
Millennium Development pact goals to reduce poverty and hunger, 
to improve health and education, to combat diseases. And we 
think that those challenges are particularly acute in those 
failing states. And to the extent that we can build 
infrastructure, institutions of good governance, sound economic 
policies, and aid civil society, provide civilian expertise, 
and increase capacity, then we will have better success in 
addressing those fundamental challenges.
    So, I look forward, if confirmed, when I'm up there, to 
evaluating the effectiveness of that organization, and working 
with you and your staff to see if it can meet those goals.
    Senator Lugar. Well, I appreciate the responses of each of 
the witnesses.
    And let me just pay tribute, again, to our distinguished 
chairman, Senator Casey, for stepping forward to chair the 
hearing. It's very important that the nominations have a very 
timely action in the committee and the Senate, because each of 
the roles that you play, for the very reasons we've been 
discussing this afternoon, are tremendously important to our 
country and to international organizations. So, thank you very 
much for stepping forward. I appreciate very much my chairman's 
indulging these questions, ad seriatim.
    Thank you.
    Senator Casey. Senator Lugar, I want to thank you. I've 
learned a great deal from you in my time--short time in the 
Senate, and I'm--we're honored to have you here.
    I want to just start, Ambassador Burns, with you, with 
regard to Iran. We hear an awful lot about Iran in the news, as 
we have for many years. I guess, if you're an American who is 
not following the news closely every day, or not following 
every development in our relationship with a lot of countries, 
but especially Iran, you might miss some things. I guess from 
your vantage point, as someone who's had broad experience, not 
only most recently in Russia, but your experience in the Middle 
East and your experience in diplomacy, generally, what do you 
think is our central challenge when it comes to Iran? If you 
can please do two things. One is, identify the threat, as best 
you can articulate it, and then, the challenge that that threat 
presents to us.
    Ambassador Burns. Well, thank you very much, Mr. Chairman.
    I think, first, it's important to understand that the 
challenge that Iran poses is a challenge to the international 
community, and that the problem that we face today with regard 
to Iran is not just about the United States and Iran. I think 
we, like other members of the international community, have 
serious concerns about Iranian behavior, the behavior of this 
Iranian regime across a wide range of issues, whether it's the 
support for extremist militias in Iraq or whether it's Iran's 
continuing efforts to develop a nuclear weapons program. I 
would say those are the--are among the principal challenges we 
face today.
    I think it's very important, as we've been trying to do, to 
make common cause with others, with other countries who share 
those concerns and trying to deal with Iranian behavior. We 
have dealt directly with the Iranians in the past over 
Afghanistan, we deal directly with Iran today with regard to 
our concerns over Iraq, and we may have another meeting in the 
coming weeks which will be an opportunity for us to emphasize 
the seriousness of our concerns about support for extremist 
militias. Because it seems to me, in Iraq, that the issue is 
not whether or not Iran has interests; Iraq is a big neighbor 
which has a complicated history with Iran. The issue is how it 
pursues those interests and whether or not it's pursuing those 
interests in a way which destabilizes Iraq or contributes to 
stability in Iraq.
    With regard to the nuclear issue, we've worked hard in 
recent years with the other Permanent Members of the U.N. 
Security Council, as well as Germany, to try and sharpen, for 
Iran, international concern about its nuclear weapons program, 
about the--of its nuclear program, the importance of Iran 
meeting its obligations to the International Atomic Energy 
Agency, as well as to the U.N. Security Council, where Iran is 
still in defiance of three U.N. Security Council resolutions, 
as well as the IAEA. And I think we need to continue to pursue 
that kind of strong, steady, diplomatic approach with regard to 
Iran, because the nuclear issue, I think, remains one of the 
most serious challenges that we face anyplace in the world 
today.
    Senator Casey. And when you look at the--upon your 
confirmation, when you look at the next 9 months, the remainder 
of this administration, what do you see as the game plan? What 
do you see as the strategy for the administration over the next 
9 months? Because I think there are those who would say--in 
fact, I think your predecessor said that the Iranian problem 
will remain for the next administration, at least with regard 
to--if not beyond--the nuclear threat. But, what do you--how do 
you see the next 9 months playing out, in terms of--if you were 
able to choreograph, as none of us can--but, if you were able 
to choreograph the positive set of developments for the next 9 
months, how would you see that?
    Ambassador Burns. Well, Mr. Chairman, I think, as I said, 
our aim is to try and find a diplomatic resolution to the 
Iranian nuclear challenge. And what we've tried to do with our 
partners in that effort is to sharpen the choice for the 
Iranian regime, to make clear what's possible if Iran meets its 
obligations to the U.N. Security Council, to the IAEA, if it 
agrees to suspend enrichment and reprocessing activity. What's 
possible is a suspension of the existing U.N. Security Council 
sanctions, as well as a direct engagement at--even at the 
ministerial level, with the United States and our other 
partners to talk about a range of issues. But, at the same 
time, it's important, as we did in the most recent Security 
Council resolution, to reinforce the point that there are 
consequences for noncompliance, as well, with the requirements 
of the international community.
    I think the sanctions which have been implemented so far 
have begun to have some impact on the Iranians; there are 35 or 
40 major banks which don't do business with the Iranian 
Government anymore, it has become a little bit more difficult 
for the Iranians to finance projects, there's greater scrutiny 
of materials and cargo that passes toward Iran, and of 
individuals who have been connected with a nuclear program 
before. And so, we need to reinforce that track of our efforts, 
as well.
    But, as I said before, Mr. Chairman, I have no illusions. I 
mean, this is a very complicated problem, but it's one which is 
going to require a really determined diplomatic effort.
    Senator Casey. And I would argue that there needs to be a 
strategy to this. We know we have to deter their ambitions, we 
know that the effects--the positive effects, from our vantage 
point, that financial sanctions can have. I think what a lot of 
Americans are confused by, or sometimes misled by, often 
because of what some public officials say, but also because of 
the way these issues are covered--they see Mr. Ahmadinejad make 
incendiary statements, but they also, at times, have seen our 
government say some things that sometimes aren't consistent 
with what the diplomatic strategy should be--and often, it is. 
I don't think it helped when the President used the phrase 
``World War III,'' although I would agree with a lot of the 
strategies that have been employed with regard to sanctions, 
with regard to developing an international--or a response by 
the international community to the threat. So, I think language 
is important.
    But, how do you see--when our Government talks about 
leaving options on the table, how do you see that playing out 
in the next 9 months? I think there's a sense that this 
administration might skip over or not fully discharge every 
option on the table before it gets to a military option. How do 
you view that? And how do you view that threat from our 
Government? Do you view it as credible, or do you view it as 
something that's been dissipated by recent events?
    Ambassador Burns. Mr. Chairman, I think the President and 
Secretary Rice have been very clear about our determination to 
pursue a diplomatic approach, as complicated as that is. And 
that remains our policy. It's prudent not to take options off 
the table, but our focus right now is very much on the 
diplomatic effort on which we've been engaged for some years 
now. It's often frustrating, but I think it's very important to 
pursue that with all the vigor that we can.
    Senator Casey. How do you see--in your recent experience in 
Russia--the significant role that Russia is playing in a lot of 
our foreign policy challenges, not the least of which is the 
challenge posed by Iran, and we know that Russia recently 
initiated fuel shipments to the Bushehr nuclear power plant in 
Iran. How do you see the impact of that kind of relationship, 
generally; but, in particular, that particular economic 
relationship with the shipment of fuel?
    Ambassador Burns. Mr. Chairman, the Bushehr Project and the 
recent shipment, I think, actually can provide an opportunity 
to drive home to the Iranians that the nuclear issue is not 
about their right to pursue civilian nuclear power, and that if 
the Iranians are simply interested in having a civilian nuclear 
plant, they have no need to enrich fuel on their own or to 
master the fuel cycle on their own, because the Russians, 
through the Bushehr Project, are providing fuel for the plant, 
and then have very carefully arranged for the spent fuel to be 
returned to Russia, which strikes us as being a sensible 
approach, not just in Iran, but, more widely, with regard to 
the challenge of making civilian nuclear power available to 
developing countries and to countries around the world, but to 
do it in a way which guards against the dangers of weapons 
proliferation. So, I think Bushehr, about which, in years past, 
we have had quite legitimate concerns, has evolved into a 
project which can be an opportunity to sharpen the reality 
that, if the Iranians are only interested in developing 
civilian nuclear power, they don't have a need to enrich fuel 
at this stage, because Bushehr doesn't require them to do that.
    Senator Casey. So, you see it as more helpful than harmful.
    Ambassador Burns. I think it can be. Yes, sir.
    Senator Casey. I wanted to ask you--and I know we want to 
move to our other witnesses, as well, but I wanted to ask you 
also about Russia, your most recent assignment.
    We've seen a lot of changes. Most recently, President Putin 
has presided over a lot of developments. Just by way of a quick 
summary: cracking down on civil society groups and democratic 
reformers--in a sense, creating almost a de facto one-party 
state, employing energy resources to intimidate and coerce 
neighbors into engaging in bellicose rhetoric against proposed 
U.S. missile defense deployments; and finally, suspending 
compliance with the Conventional Forces in Europe Treaty, 
something that I raised months ago. What's your sense of the--
of our relationship, in the context of those developments? And 
also--just broadly, in terms of the past or history--recent 
past--and also in the context of a new President, Mr. Medvedev, 
who we're learning a little bit about, but we don't yet know, 
(a) what kind of leadership style he'll bring, and (b) whether 
or not he'll be unduly influenced by Mr. Putin.
    Ambassador Burns. Mr. Chairman, we have a big, complicated 
relationship with Russia which combines elements of cooperation 
in some very important areas with elements of competition and 
conflict. And I think those are going to be the contours of our 
relationship for some time to come. You rightly listed a number 
of areas where we've had real differences with the Russian 
Government, whether it's as a result of the overcentralization 
of power at home in Russia, differences over missile defense, 
differences of NATO's enlargement, but, at the same time, I 
think, when you look at nuclear cooperation, what we can do 
together to set a good example for the rest of the world to 
work against the proliferation of nuclear weapons, when you 
look at our increasing economic ties, when you look at ways in 
which we can work well together in resolving some regional 
conflicts around the world, I think you also see those parts of 
the relationship in which we really do need to invest. It's not 
a relationship that we have the luxury of ignoring, because 
Russia is not only, as I said before, the world's largest 
producer of hydrocarbons today, it's the only nuclear power in 
the world comparable to the United States, it's a Permanent 
Member of the U.N. Security Council, it's a huge country which 
connects Europe to Asia and sits astride the broader Middle 
East. So, by any of those calculations, it's a relationship 
that requires our careful attention, to be plainspoken where we 
have differences, but, at the same time, to try to expand areas 
of common ground.
    In Mr. Medvedev's presidency, I think a lot of the focus 
for Russia itself is going to be on addressing the 
opportunities it has before it. You know, you've had very rapid 
economic growth--7-percent annual growth over the course of the 
last 8 or 9 years--enormous economic potential. But, the 
question now, I think, for Russia is, So, what are you going to 
do with that moment of opportunity? And I think there are areas 
in our relationship where we can help reinforce the potential 
for Russia to take advantage of those opportunities in a way 
which integrates it into the global economy and into the global 
system and makes it a more responsible international player. 
That's going to take time, but I think it's worth working on, 
on our part.
    Senator Casey. How do you see--if you can comment on this--
that relationship between those two individuals? Are we likely 
to see, in the near future, a declaration of independence by 
the new President, or do you think it's going to be a more 
intertwined or dependent relationship?
    Ambassador Burns. Mr. Chairman, it's--if there's one thing 
I've learned over the years about Russia, it's to be humble in 
making predictions. So, it's--Russia doesn't have a great deal 
of experience with dual-leadership kind of arrangements. 
Assuming that President Putin becomes the next Russian Prime 
Minister--from everything I can see, the personal relationship 
between President Putin and President-elect Medvedev is a 
strong one. But, this is going to be a challenging period for 
Russia, and a lot rides on it, in terms of how Russia addresses 
some of those challenges that I described before, in its own 
self-interest. So, it's going to be fascinating to watch.
    Senator Casey. I'll jump ahead, and then I want to have 
Senator Lugar continue.
    Ambassador Jacobs, I wanted to ask you about two passport 
matters, both of which you've heard a good bit about. One, in 
the instance where we had a breakdown, where people weren't 
getting their passports in a timely fashion, and the other 
involving a much smaller group--in this case, three Americans 
who just happened to be running for President. I wanted you to 
comment on both--(a) why you think there was such a breakdown 
in both instances, and (b) what's being done about it now--if 
you can update us on both.
    Ambassador Jacobs. Thank you, Mr. Chairman.
    With regard to your first question about the passport surge 
of last year, we had predicted a certain number of passports--
we had commissioned a study that told us that there would be 
around 16 million people applying for passports--when, in fact, 
in the end, we wound up issuing about 18\1/2\ million. What we 
did not expect was the very rapid response to the new 
information about Western Hemisphere Travel Initiative 
deadlines. As a result of that, starting last December and then 
for about a 3-month period, we had around 5 million 
applications that came in. And as you can expect with that kind 
of demand, we found ourselves with long backlogs. Our normal 
processing time is around 4 weeks. We went all the way up to 12 
weeks.
    The Department, through a number of resources, went into 
action to address the situation. We used people in the Bureau 
of Consular Affairs. We also used other people in the 
Department who, thankfully, helped us out. We used our officers 
overseas to help us adjudicate renewal applications at our 
overseas posts, and set up task forces and use volunteers. We 
managed to get back to our normal processing times by Labor Day 
last fall, which we're very happy about.
    I'm very happy to tell you that the situation today is very 
different. We, in fact, are implementing a long-term strategy 
to provide the staffing levels and infrastructure that we need 
to handle what we consider to be a permanent rise in passport 
demand. In fact, we will probably do anywhere between 19 and 21 
million passports this year. We could do as many as 30 million 
next year, and as high as 36 million in 2010.
    We have hired hundreds of new passport specialists to help 
us adjudicate applications. We are expanding some of our 
current facilities. We are building new printing facilities 
that will be able to handle up to 10 million passport books and 
cards a year. And I am clearly confident that we are going to 
be able to handle the demand that I just described to you.
    If I'm confirmed, I commit to you that I will stay on top 
of this. We, in fact, have put together a so-called ``battle 
plan'' with trip wires; whereby, as soon as certain numbers are 
reached, we have a ready reserve force trained and ready to 
come in and help us out. Again, we can use our overseas posts 
to help us with renewals of passport applications. And so, I 
believe we are going to avoid a repeat of what happened before, 
and I think that we will be able to provide the American public 
the service that they deserve.
    On the issue of the passport breaches, the unauthorized 
access of the three remaining Presidential candidates, I can 
tell you that as soon as senior management was informed about 
these breaches, we launched into action. I went to the Under 
Secretary for Management, Pat Kennedy; we talked about it; we 
informed the candidates about the situation; we asked the 
inspector general to conduct a full investigation of what 
happened, and that investigation is ongoing. And we formed a 
working group, made up of senior people and other people from 
around the Department, to look at our current procedures and 
processes, to make sure that we have adequate safeguards in 
place.
    We know that we have the American public's trust to guard 
the information that is given us in connection with passports, 
and we certainly want to adhere to that and to meet that 
expectation.
    We will be putting new procedures in place. We will wait 
for the inspection or the investigation results to come out to 
know exactly, perhaps, the extent of the problem, but we are 
ready to move against people who have made these unauthorized 
accesses into files, and we will be taking necessary steps. Our 
ultimate goal is to provide every passport file with equal 
protections.
    Senator Casey. And when you say that--I'm paraphrasing--
that ``actions will be taken,'' or--can you identify any 
changes, any systemic changes that have already been 
implemented?
    Ambassador Jacobs. Yes, sir. We have started doing random 
checks, audits of people who are working on passport files. We 
have a warning that goes on the screen as soon as you log into 
the system. We have reinforced that warning, made it very clear 
about the penalties involved with looking at files without a 
reason to do so, and we are looking now at our systems itself 
to see how we might be able to provide more tiered access to 
passport files.
    Senator Casey. Do you think there were--in terms of the 
number of files that were accessed--do you know the numbers?
    Ambassador Jacobs. What we have in place, sir, is a flag 
system; and for people who are on the flag list, as soon as 
anyone accesses that file, there's an e-mail notification that 
goes to an office where this is monitored. And so, we know 
about all of those, and we have followed up on those. The 
inspector general is actually looking at a random list of 
passport files, and we'll have a better idea about the number 
of people who have looked at files after that study is 
completed.
    Senator Casey. Well, we'll see what--once that is 
completed. Do you have any sense of the timing or duration of 
that investigation?
    Ambassador Jacobs. I expect the results will be coming out 
in the next few weeks.
    Senator Casey. I want to let Senator Lugar continue, and 
I'll jump back in.
    Senator Lugar. Mr. Chairman, I have no further questions.
    Senator Casey. Mr. McMahan, I wanted to ask you a few 
questions and focus principally upon something that I had a 
strong interest in that I was greatly disappointed about. It 
was the application of the Jewish National Fund of the United 
States for general consultative status with the--or, I should 
say, at the U.N. Economic and Social Council. And I know the 
vote was 8 to 7; and, for the life of me, I can't understand 
why that wouldn't have passed. And if you can shed some light 
on why it--why that wasn't able--why they weren't able to be 
given that consultative status, and (b) whether or not you 
think that could change in the near future if we had another 
vote.
    Mr. McMahan. Thank you for that question, Senator.
    I wasn't there, so I can't speak to the intricacies of that 
particular vote, but I did see the concern expressed by your 
office on that issue. As you know, it's important to grant 
consultive status, and we certainly seek to find those 
organizations that are sympathetic to our democratic values to 
be granted consultive status. There are over 3,000 
organizations that currently have that status, and it's 
important to nongovernmental organizations, because, not only 
can they attend meetings of the United Nations, its various 
bodies, but they can testify as a witness.
    So, I think that--if confirmed, and once I'm working in New 
York, I will seek to grant NGO status to those organizations 
that are sympathetic to our democratic values, and I think we 
have to work hard to make sure that those organizations that 
are providing needed services, like humanitarian services, are 
not denied consultive status for political or, in this case, 
anti--possible anti-Israeli reasons.
    Senator Casey. And what's your game plan with regard to 
that? How do you use your influence? And, by extension, how do 
you see the influence of the United States Government to make 
sure that this kind of discrimination doesn't persist?
    Mr. McMahan. I think it's important to work with your 
allies where you find them, to make sure that organizations 
that are applying for this important consultive status are not 
denied for reasons that really have nothing to do with the core 
function of the organization. And that's something that I'd 
like to work with your office on and make a priority when and 
if I get to New York.Senator Casey. Thank you.
    And I wanted to go back to Ambassador Burns, on Iran, for a 
second. We've had a good deal of discussion in the last 6 
months or more about the recent NIE that some people here in 
Washington, in both parties, interpreted as, ``Everything's 
okay, don't worry.'' I didn't interpret it that way, against--I 
think, sometimes in conflict with my own party. But, what's 
your sense, if you can tell us--and I know you're transferring 
to a different area of responsibility--but, what's your sense 
right of the current situation as it pertains to the NIE saying 
that Iran may not have had in place the mechanics to develop a 
nuclear weapon, but there were, in fact, some elements of it? 
The uranium enrichment, for example. Where do you see that 
right now? What's your sense of where Iran is?
    We've had recent information, where President Ahmadinejad 
announced his intention, at least, to add 6,000 new centrifuges 
to the already existing 3,000 at the one facility, in Natanz. 
But, what's your sense of that, in the context of this debate 
about what--what was the meaning and what was the value or the 
content of the NIE conclusions?
    Ambassador Burns. Well, thank you, Mr. Chairman.
    I think, as you pointed out, the NIE really addressed only 
one of the, sort of, three essential ingredients in the pursuit 
of a weapons program, and that is the issue of weaponization 
itself. But, what it did not address are two areas which are at 
least as important, and that has to do with the production of 
the fuel that you need for a weapons program and the 
development of advanced missile systems or means or delivery. 
In both of those areas, it's clear that the Iranians are 
working as hard as they can to move as fast as they can.
    Now, it is also true, historically, that oftentimes the 
Iranian leadership will exaggerate--seems to exaggerate the 
pace at which it's moving in some of those areas. But, I think 
the trend line is clearly a very troubling one, not only, as I 
said before, Mr. Chairman, for the United States, but for the 
international community, because the reality remains that Iran 
has not met its obligations to the International Atomic Energy 
Agency, to the U.N. Security Council. And so, it seems to me 
that the totality of Iran's nuclear efforts remains a source of 
very serious concern for us, notwithstanding the NIE, or at 
least some people's interpretation of it.
    Senator Casey. Senator Lugar. Nothing more?
    Senator Lugar. No, thank you, Mr. Chairman.
    Senator Casey. Let me just--
    Well, with that, I wanted to, first of all, commend and 
thank our nominees for, not only your presence here today and 
your--the questions that you answered, but, in a broader sense, 
your willingness to serve the United States Government and the 
American people.
    And I know that, for committee members who weren't here, 
the record will be open for 2 days to submit additional 
questions for the record, and I'd ask each nominee to respond 
in a prompt manner to those questions.
    But, if there's no further business to come before the 
committee, we stand adjourned.
    [Whereupon, at 5:10 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record

                  Prepared Statement of Chuck Hagel, 
                       U.S. Senator From Nebraska

    Mr. Chairman, thank you for convening today's nomination hearing of 
the Senate Foreign Relations committee. One of the nominees, Ambassador 
William J. Burns, is the President's choice to be the Under Secretary 
of State for Political Affairs at the Department of State--one of the 
most important positions in our country's diplomatic service. The Under 
Secretary for Political Affairs is the most senior Foreign Service post 
in the U.S. Government and carries with it immense responsibility, 
requiring an experienced and steady hand.
    Ambassador Burns is one of America's most able diplomats and I am 
proud to strongly support his nomination to this position.
    Today, the world faces one of the most dangerous and 
transformational times in our history. The world faces defining 
challenges . . . great instability in the Middle East, genocide in 
Africa, tensions with Russia and China, a resurgence of turmoil in the 
Balkans, growing unrest and transnational threats in Latin America, a 
global food crisis, and mounting anti-Americanism throughout the world.
    Bill Burns has dedicated his career to public service, and he has 
done so with excellence and honor, earning widespread respect both here 
and around the world. I have had the opportunity of working with Bill 
for many years. He brings a strong record of diplomatic experience to 
this important position, having served as the U.S. Ambassador to 
Russia, Assistant Secretary of State for Near Eastern Affairs, 
Ambassador to Jordan, and . . . as acting Under Secretary of State for 
Political Affairs . . . the position for which he is being considered 
today.
    In the challenging times that we face, there are also historic 
opportunities for the United States across the world . . . 
opportunities that will extend well beyond 2008. A principle task for 
the administration must be to make every effort to set the stage for 
the next administration to address the pressing challenges of the 21st 
century. I believe that Ambassador Burns will meet this responsibility. 
I am proud to support the nomination of Ambassador William Burns to be 
Under Secretary of State for Political Affairs.
    I want to thank Bill's family--his wife, Lisa, and his two 
daughters, Elizabeth and Sarah--whose support, as we all know, is 
essential to succeeding in a demanding job such as this.
    The outgoing Under Secretary of State for Political Affairs, Nick 
Burns, deserves the committee's recognition and appreciation for his 
lifetime of diplomatic service. Nick served this country well as Under 
Secretary over the last 3 years. I wish him much continued success in 
his future endeavors.
    The committee looks forward to hearing the testimony of Ambassador 
Burns, as well as that of the other nominees, Janice Jacobs to be 
Assistant Secretary of State for Consular Affairs and Vance McMahan to 
be the U.S. Representative on the Economic and Social Council of the 
United Nations. I believe that both these nominees are qualified and 
deserve speedy consideration by the committee. I wish all three of 
these professionals continued success and look forward to working with 
them at this critical time in our history.
    Thank you.
                                 ______
                                 

         Prepared Statement of William J. Burns, Nominee to be 
             Under Secretary of State for Political Affairs

    Mr. Chairman, members of the committee, it is an honor to appear 
before you today as President Bush's nominee to become Under Secretary 
of State for Political Affairs. I am grateful to the President and to 
Secretary Rice for their confidence in me, and in our diplomatic 
service, in which I am proud to have served for the last 26 years. If 
confirmed, I will do my best to live up to their trust, and to work 
closely with all of you on this committee, as I have throughout my 
career.
    With your permission, Mr. Chairman, I would like to begin by 
expressing deep appreciation to my family--my wife, Lisa, and daughter, 
Sarah, who are still in Moscow, and my daughter, Lizzy, now in the 
midst of her exams at Duke University. As in so many Foreign Service 
families around the world, their love and sacrifice are a very large 
part of why I am here today. I can never repay them adequately.
    This is the fourth time, Mr. Chairman, that I have appeared before 
this committee for confirmation. I approach this new challenge with 
considerable humility; with great respect for Nick Burns, Marc 
Grossman, Tom Pickering, and all those who have come before me; with an 
abiding commitment to public service; with faith in the power of clear-
eyed diplomacy in the pursuit of American interests and human freedoms; 
and with few illusions about the complicated world around us.
    It is a world with no shortage of troubles, but also plenty of 
opportunities for creative and determined American leadership. It is a 
world which faces the spreading dangers of weapons of mass destruction; 
new and more malignant forms of terrorism; unresolved regional and 
sectarian conflicts; failed and failing states; global economic 
dislocation; and transnational health, energy, illegal narcotics, and 
environmental concerns. It is a world in which American vision and 
leadership are essential in crafting relations with emergent and 
resurgent Great Powers, and deepening their stake in global 
institutions and a stable international system.
    It is a world in which other people and other societies will always 
have their own realities, not always hospitable to ours. That doesn't 
mean we have to accept those perspectives or agree with them or indulge 
them, but it does mean that understanding them is the starting point 
for sensible policy. It is a world in which a little modesty in the 
pursuit of American interests is often a good thing, and in which 
there's still no substitute for setting careful priorities, and 
connecting means to ends.
    But it is also a world in which the power of our example and our 
generosity of spirit can open the door to profound advances, as 
President Bush has shown in his historic initiative against HIV-AIDS in 
Africa. It is a world in which our leadership should serve as a 
catalyst for making common cause with others. Nowhere is that more true 
today than in the broader Middle East, where it is hugely important to 
build on the Annapolis Conference and realize the promise of a two-
state solution to the Israeli-Palestinian conflict, and where we must 
strengthen regional and international support for a better future for 
Afghanistan and Iraq.
    It is a world, as Secretary Rice has said, in which America has no 
permanent enemies, and in which tough-minded engagement of our 
adversaries, such as North Korea and Iran, is a mark of strength and 
confidence, not weakness. And it is a world, as Secretary Gates has 
argued, in which the many instruments of American ``soft power'' ought 
to be expanded alongside the tools of hard power.
    Mr. Chairman, I look forward, if confirmed, to assisting Secretary 
Rice and Deputy Secretary Negroponte in coordinating our diplomacy 
across the major regions of the globe, and towards the alliances and 
international organizations which are so important to U.S. national 
security. I will draw, as best I can, on my experience in Russia and 
the Middle East, two regions of the world which are rarely dull but 
always central to American interests. I will work hard with my friends 
and colleagues in other agencies to promote an effective policy 
process. And I will also wholeheartedly support Secretary Rice's 
efforts, building on the work of Colin Powell, to transform and 
strengthen America's diplomatic capabilities for the new century before 
us. Taking care of our people--of the members of the Foreign and Civil 
Services and the Foreign Service Nationals who serve our country with 
such dedication and courage in so many hard places around the world--is 
not only the right thing to do, but also a powerful contribution to 
America's best interests.
    Thank you again, Mr. Chairman, for your consideration. I know the 
period ahead is an important one, with a political transition looming 
in our country, in a world which doesn't stop for our political 
processes. I'll do all I can, if confirmed, to work with all of you to 
help meet the formidable challenges before us.
                                 ______
                                 

         Prepared Statement of Janice L. Jacobs, Nominee to be 
           Assistant Secretary of State for Consular Affairs

    Mr. Chairman and members of the Foreign Relations Committee, it is 
a distinct honor to appear before you today. I would like to express my 
sincere appreciation to President Bush for nominating me to be 
Assistant Secretary of State for Consular Affairs. I am grateful to the 
President and Secretary Rice for the confidence and trust they have 
placed in me in selecting me for this position. I would also like to 
introduce and give special thanks to my husband, Ken Friedman, who is 
here with me today.
    As a career consular officer for 28 years, I have had the privilege 
of serving the United States in places as varied as Mexico, France, and 
Nigeria, with people I have come to know as the world's finest consular 
corps.
    Consular work is fundamentally about service--to our mission, to 
our citizens, and to the security of our Nation. If confirmed, I will 
consider it my great privilege to lead the Bureau of Consular Affairs 
in meeting our current and future challenges and provide the highest 
quality services to our citizens.
    In the course of my career, I have gained a perspective on the 
challenges our country faces. As Deputy Assistant Secretary for Visa 
Services and Principal Deputy Assistant Secretary for Consular Affairs, 
I worked on the full range of consular issues and have seen how the 
Bureau of Consular Affairs has prepared for and responded to those 
issues.
    As Deputy Chief of Mission in Santo Domingo and as Ambassador to 
Senegal and Guinea-Bissau, I know the outstanding work that all 
consular personnel overseas--officers, locally engaged employees, 
eligible family members--do to protect American citizens and America's 
borders.
    I was there in the immediate aftermath of September 11, 2001, when 
we instituted new practices and implemented new legislation to improve 
visa security. I was there when we implemented procedures to address 
the post-9/11 decline in visa applications--measures that led to 
record-high student and exchange visitor visa issuances last year. I 
was there when the Departments of State and Homeland Security launched 
the Western Hemisphere Travel Initiative to implement Congressional 
legislation requiring Americans to present passports when crossing our 
borders. I was there as we drafted regulations to increase protections 
for children and implement the Hague Convention on Intercountry 
Adoptions.
                        key consular challenges
    The mission of the Bureau of Consular Affairs (CA) is to protect 
the lives and interests of American citizens abroad and to strengthen 
the security of U.S. borders through the vigilant adjudication of visas 
and passports. CA is keenly aware of its direct and tangible role in 
the overarching mission of the Department of State to ``create a more 
secure, democratic, and prosperous world for the benefit of the 
American people and the international community.''
    CA faces compelling challenges across the range of our activities 
and continues to rely on a tradition of innovation and a dedication to 
excellence to meet these challenges.
Providing American Citizens With Secure, Reliable Passports
    CA is charged with adjudicating applications for one of the most 
valuable travel documents in the world: the U.S. passport. We are 
responsible for issuing passports in a manner that ensures that the 
application process is accessible to all Americans, and that only those 
entitled to the privileges and benefits of U.S. citizenship receive 
one.
    Integrity of the process and the product is an essential ingredient 
of this responsibility. Americans who apply for passports need to know 
that the information they provide in a passport application will be 
appropriately safeguarded. They need to know that the document is 
secure, and that they will receive their passports in a timely manner. 
The American public entrusts the Bureau of Consular Affairs with 
millions of personal records. As a service organization, CA is 
determined to ensure that trust is well-placed.
    Over the past several months we have learned of cases in which 
passport records of current presidential candidates were accessed for 
other than official business. While the Department has no indication 
that the incidents were motivated by other than imprudent curiosity, no 
one is more aware than I of the impact that such actions have on the 
public trust placed in us.
    We took immediate action from the moment these incidents were 
reported. As soon as I was notified, in my role as Acting Assistant 
Secretary, of the incidents of improper access on March 20, 2008, I 
conferred with the Under Secretary for Management. We then informed the 
Presidential candidates and their staffs of the incidents and our 
response. We asked the Office of the Inspector General to begin an 
investigation of the incidents; that investigation is ongoing. I also 
sent a notice to all consular employees and other agency partners to 
remind them of their legal obligation to safeguard the privacy of 
passport applications and passport holders.
    The Department of State's passport database tracking system 
includes an invisible flag on individual passport records of high-
profile individuals. When such records are accessed, an alert is 
automatically sent to two headquarters managers. Based on the alert, a 
manager contacts the individual who accessed the record for an 
explanation, and informs the supervisor and other senior managers for 
appropriate action.
    Three individuals have been terminated, to date, for improperly 
accessing passport application records. While our safeguards for 
detecting improper access to passport records worked as intended, the 
experience demonstrated that there were areas where we could improve.
    On March 24, we formed a working group with representatives of all 
key bureaus to conduct a comprehensive review of internal management 
and controls procedures for passport processing and develop initiatives 
to strengthen the security of the passport process. Our goal is a more 
secure system that will provide equal and effective safeguards to all 
passport applicants' records, and in which all Americans can have 
confidence that their data will be appropriately safeguarded.
    If confirmed, I am determined that we will reach that goal, and 
continue to be responsible stewards of the information with which we 
are entrusted.
Meeting Passport Demand
    Preserving the integrity of the passport process is essential given 
that we are adjudicating more passport applications than ever before. 
In fiscal year 2007, the Department issued 18.4 million passports--a 52 
percent increase over fiscal year 2006 and an 80 percent increase over 
fiscal year 2005. Thus far in fiscal year 2008, there is a 7 percent 
increase in passport demand over the same time period in fiscal year 
2007.
    Last year's record-setting growth in demand for passports resulted 
in unusually long delays in passport application processing. In 
response, and with the committee's support, CA expanded hours at all 
agencies; stood up domestic task forces; deployed consular officers, 
Presidential Management Fellows, retirees, and other personnel from 
throughout the Department to domestic passport agencies; piloted 
electronic adjudication of renewal cases at overseas posts; and hired 
over 400 additional personnel. This concerted effort succeeded, and the 
Department returned to an average of 4 to 6 weeks' turnaround for 
passport applications by September 30.
    CA has made tremendous progress since last spring and summer. Our 
efforts to staff, expand, and equip the domestic passport agencies and 
centers are paying off in much improved service to our customers this 
year. Today, I am pleased to report that there is no backlog of 
passport applications. Current processing times are well within our 
established customer service standards of 4 weeks for routine 
applications and 2 weeks for expedited applications.
    Implementation of WHTI has created a permanent increase in passport 
demand, and the Department believes it will continue to grow. 
Approximately 88 million Americans--about 28 percent of all citizens--
currently have passports. CA's initial workload projections for fiscal 
year 2008 indicated demand for U.S. passports could reach as high as 
26-29 million in 2008, 30 million in fiscal year 2009, 36 million in 
fiscal year 2010. Although the Department continues to prepare for that 
possibility, current workload indicates that fiscal year 2008 demand 
may be more in the range of 20-21 million passports. The Department 
attributes this decline to Congressional action mandating 
implementation of the final phase of the land and sea rule of WHTI no 
earlier than June 1, 2009. This legislation passed subsequent to the 
most recent demand study. The Department fully expects demand to 
increase as the June 1, 2009 implementation date approaches.
    The Department is implementing a long-term strategy to provide the 
staffing levels and infrastructure necessary to meet the increased 
passport demand. CA has hired hundreds of additional passport 
adjudicators and support staff and continues to recruit aggressively. 
CA has established a reserve corps of passport adjudicators to 
supplement its full-time Passport Services staff, providing the ability 
to react quickly to demand surges. We have also developed the 
capability to adjudicate passport applications remotely at select 
consulates overseas, leveraging the expertise of our consular officers 
abroad.
    To increase production capacity, in March 2007 the Department 
opened a mega-processing center in Hot Springs, AR (APC). The APC 
differs from our other passport centers in that it focuses solely on 
printing and mailing passports and has the capacity to produce 10 
million travel documents per year. The centralization of passport 
printing and mailing frees up space and personnel at our existing 
passport agencies to focus on the critical areas of customer service, 
fraud detection and prevention, and adjudication, thus processing more 
passport applications. Using APC as a model, the Department will open a 
second printing and mailing facility in Tucson in May. This facility, 
like the one in Arkansas, will have the capacity to produce over 10 
million travel documents per year.
    In addition to its 18 passport facilities, the Department will open 
three new passport agencies in Detroit, Dallas, and Minneapolis to 
serve border communities by providing personal, direct passport 
services to customers with immediate travel needs. These agencies will 
have the capability to issue passport books and cards on site to 
qualifying applicants. The Department is also expanding existing 
agencies in Seattle, Chicago, Houston, Miami, and New Orleans, and 
doubling the size and processing capacity of the National Passport 
Center in Portsmouth, New Hampshire.
    Production of U.S. passports is secure. The U.S e-Passport is 
assembled by the Government Printing Office (GPO) at its secure 
facilities in the United States with components and an inlay 
manufactured in Asia, as well as European manufactured electronic 
components. GPO receives blank, locked chips connected to a 
commercially available antenna via secure delivery from an overseas 
supplier. The use of foreign-source chips does not pose significant 
security issues since the chips themselves are commercially available, 
and are used for other government and commercial purposes such as 
trusted traveler and first responder cards issued by the Department of 
Homeland Security (DHS), as well as credit and debit cards.
    In response to the expressed desire for a more portable and less 
expensive document than the traditional passport book on the part of 
American citizens who live in border communities, the Department will 
begin issuing a wallet-sized passport card in June, with full 
production beginning in July. The passport card will facilitate entry 
and expedite document processing at United States land and sea ports-
of-entry when arriving from Canada, Mexico, the Caribbean region, and 
Bermuda. The card may not be used to travel by air. It will otherwise 
carry the rights and privileges of the U.S. passport book and will be 
adjudicated to the exact same standards. The passport card is designed 
for the specific needs of border resident communities and is not a 
globally interoperable travel document as is the traditional passport 
book.
    Taken together, the enhancements the Department proposes in the 
production and distribution of U.S. passports will represent the most 
significant advancement in passport delivery in U.S. history. These 
combined efforts will ensure the delivery to the American public of one 
of the most secure and valuable documents on the planet.
Visa Issues
    In discharging our visa responsibilities, consular officers sit 
literally on the front lines of the global war on terror, contributing 
to national security. They strengthen our borders by detecting and 
deterring the entry of those who seek to break our laws. They 
strengthen our society by helping reunite American families through 
legal immigration.
    The events of September 11, 2001 redefined our approach to visa 
work. In the aftermath of that terrible day, our challenge was to move 
swiftly and decisively to implement several significant changes to visa 
processing practices--some mandated by law, others by regulation or 
other agency direction--more or less simultaneously. We have worked 
hard to increase visa security measures, completely changing the 
business model for processing visas and vastly improving our 
communication with other agencies.
    Our latest list of security enhancements to the visa process runs 
to more than 10 pages. Many of these changes reflect innovative uses of 
technology to detect and prevent fraud in visa applications. We are 
also working closely with our colleagues in the Department's Diplomatic 
Security Service to ensure vigorous criminal prosecution of visa and 
passport fraud. Our close coordination and exchange of information with 
the Department of Homeland Security is also a vital part of our shared 
border-security mission.
    Security is and always will be our top priority in visa operations. 
At the same time, however, we have never forgotten that welcoming 
legitimate international visitors is an equally important element of 
national security. We firmly believe that the goals of security and 
openness are not contradictory, and we are determined to meet both. Our 
approach is guided by the January 2006 Joint Vision of Secretaries Rice 
and Chertoff for Secure Borders and Open Doors in the Information Age.
    The drop in visa demand experienced immediately after 9/11 has been 
reversed, and our metrics are up across the board. For example, in 
fiscal year 2007 overall nonimmigrant visa demand climbed 10 percent to 
8.5 million. We issued 650,000 student and scholar visas, surpassing 
pre-9/11 figures for the first time. This is due to the changes we have 
implemented, changed global economic conditions, but also to the 
relentless outreach we have conducted with industry, academic groups, 
and foreign audiences around the world to deliver the message that 
America's welcome mat is out for legitimate foreign travelers.
    Our challenge now is to continue to improve service and security 
while meeting demand that is rising worldwide, and particularly in key 
countries such as India, Brazil, and China. We have developed a 2-year 
plan that integrates technology with innovative process changes.
    We have implemented a number of enhancements as part of this plan. 
All nonimmigrant visa applicants use an electronic visa application 
form. We have implemented electronic interagency clearance of security 
advisory opinions. All visa-issuing posts collect 10 fingerprints, the 
biometric standard selected by the U.S. Government to ensure consistent 
screening of foreign nationals entering the United States. We 
established a worldwide goal of 30 days for an NIV appointment 
(exclusive of respective programs already in place to expedite student 
and business applications), and are meeting this goal at over 80 
percent of our posts.
    The next phase will be the rollout of a completely online visa 
application process--which will consolidate existing forms and permit 
applicants to submit data directly before visiting a consular section. 
We are currently piloting this process at our posts in Nuevo Laredo and 
Monterrey, Mexico, and hope to pilot it in a non-Mexico post this 
summer. We hope that this process will be available for posts worldwide 
to use later this year.
    The online application system can be used in tandem with an offsite 
data collection (ODC) process, where data entry, photo capture, and 
fingerprint collection can be done at an offsite facility, thereby 
removing much of the administrative tasks burdening most consular 
sections. Nuevo Laredo and Monterrey are using the ODC process, which 
we plan to expand to other Mexican posts in preparation for the 
increase in renewal applications for border crossing cards.
    This year we will also begin to develop an online form for 
immigrant visa applications, as well as a secure electronic way to 
manage immigrant visa medical forms.
    By fiscal year 2009, we expect to have in place a system that 
results in significantly more data reaching consular officers prior to 
an applicant's personal appearance for interview, allowing consular 
officers to identify high-risk applicants early, and permit more rapid 
processing of readily approvable cases.
Protecting American Citizens Overseas
    Of course, our primary responsibility is to serve and protect the 
approximately 4 million Americans who reside overseas and 30 million 
who travel abroad each year. We continue to improve the quality and the 
access to reliable information for travelers through our Consular 
Information Program and our Web site, travel.state.gov--which received 
343 million page views last year. Toll-free call centers are available 
to answer questions about the full range of consular services. Our 
Internet-based registration system has over one million registrations, 
and has proven invaluable as a means to communicate directly with 
Americans abroad during crises.
    Yet despite new technologies, consular work continues to be about 
touching individual lives as we provide services around the cycle of 
life. Last year, for example, we registered 55,000 babies as American 
citizens, visited 7,377 jailed American citizens, assisted families of 
7,092 Americans who died overseas, and helped thousands of others with 
information, notarials, welfare and whereabouts, and other services.
    When called upon to assist Americans abroad during crises--such as 
the South Asian tsunami in 2004, Hurricane Wilma in 2005, or Lebanon in 
2006--our crisis management team launches into action, managing task 
forces staffed by consular personnel and volunteers from other bureaus, 
and providing affected posts with human and technological support. We 
developed Web-based crisis software that allows us to track emergency 
cases involving American citizens and to communicate with concerned 
family members--we used it to track 120 Americans evacuated from Chad 
and 200 Americans who requested embassy assistance in Cameroon this 
year, for example. We conduct regular crisis management exercises, and 
plan for anticipated increases in demand for services--we will deploy 
additional personnel to assist our posts in China to be able to swiftly 
and effectively assist American citizens during the upcoming Beijing 
Olympics.
    Consular sections help American citizens overseas to exercise their 
fundamental right to vote. We work closely with the Department of 
Defense's Federal Voting Assistance Program to provide absentee voting 
information to diplomatic, official, and private American citizens 
abroad. We have reached out to a large number of groups, scheduled a 
record number of voting workshops at posts abroad, arranged with 
courier companies to transport absentee ballots, coordinated with the 
Department's diplomatic pouch management to speed transmission of 
ballot requests and voted ballots, and publicized information widely to 
ensure that American citizens will be able to participate in this 
year's elections.
Children's Issues
    As it is in every area, our workload in children's issues--
intercountry adoptions and international parental child abduction is 
growing as well. Our Office of Children's Issues was founded in 1994 
with four people. We now have over 40 officers handling adoption, 
abduction, and abduction prevention cases.
    In our work on intercountry adoptions, we are guided by a simple 
yet vital principle: that the best interests of children be respected 
in every intercountry adoption.
    Americans adopted over 19,000 children from overseas in 2007. The 
Department of State will continue to assist American parents and 
strongly support intercountry adoption as an option for children in 
need of permanent family placement, and continue to encourage 
transparency and ethical practice as safeguards against fraud and abuse 
in intercountry adoptions.
    This is why the Department has strongly supported U.S. membership 
in the Hague Convention on Intercountry Adoption. I am proud to say 
that on April 1, the Convention entered into force for the United 
States. This was a major milestone. The Department must continue its 
outreach to key stakeholders on the impact of the Convention, and to 
continue to develop the procedures and capacity to fulfill our 
responsibilities as Central Authority for the Convention. If confirmed, 
I look forward to solidifying U.S. implementation of this important 
treaty.
    The Hague Convention, and the safeguards it promotes, is the best 
protection against fraud and abuse in intercountry adoptions. If 
confirmed, I will continue to use our best efforts to encourage the 
establishment of meaningful safeguards in countries where we see 
problems, offering assistance and support as they work to establish 
transparent and ethical adoption programs. I will continue robust 
efforts to encourage non-Hague countries to accede to the Convention, 
and to adopt Hague-compliant procedures to the greatest extent 
possible, in the case of those that have not yet decided to join the 
Convention.
    International parental child abduction is one of the most agonizing 
situations a parent or child can face. We will never stop pushing on 
these issues, because the pushing--even if it takes years--yields 
results. We have helped 161 children return to their parents in the 
first 6 months of fiscal year 2008. After years of dedicated efforts to 
resolve a series of sad and difficult cases, we are heartened that 
Saudi Arabia has adopted a policy that when a Saudi marries a foreigner 
he must sign a statement guaranteeing that the foreign spouse and any 
children will be free to depart the Kingdom without condition. If 
confirmed, I will continue this vital work.
    We are focused on assimilating the incoming case work that used to 
be done by the National Center for Missing and Exploited Children 
(NCMEC). As of April 1, OCS/CI is now handling all international 
parental child abduction cases involving the United States--some 1,260 
cases, involving 1,600 children.
    In countries that are party to the Hague Abduction Convention, we 
will continue to work with Central Authorities to encourage returns. In 
countries not party to the Hague Abduction Convention, we will continue 
to look for creative, lawful ways to resolve these cases.
    I know that adoption and abduction cases are emotional issues that 
touch children and parents at the most personal level. If confirmed, I 
will work with this committee to do all we can to assist children and 
families.
Training and Leadership
    The Bureau's procedures and processes have changed dramatically. We 
have similarly improved how we prepare consular staff. CA provides 
robust training in fraud detection and prevention skills. Our Consular 
Training Division at the Foreign Service Institute has added training 
in how to assist victims of crime, countering international parental 
child abduction, interviewing techniques, and procedures for 
intercountry adoptions under the Hague Convention.
    CA is dedicated not only to preparing outstanding consular 
officers, but outstanding leaders in the Department and U.S. Government 
service. With input from consular staff at 87 posts, we developed 10 
Consular Leadership Tenets, a set of shared principles of what we in CA 
believe leadership looks, acts, and feels like. We have integrated 
leadership training into every course offered in the Consular Training 
Division at the Foreign Service Institute. A Consular Leadership 
Development Committee continues to explore ways and develop tools to 
help consular staff at all levels to model leadership in their work 
environment.
    If confirmed, I look forward to continuing to promote training and 
leadership development in CA, to ensure that America benefits from the 
best-prepared consular professionals.
                               conclusion
    Mr. Chairman, the Bureau of Consular Affairs continues to face 
compelling challenges across the range of our activities. We are 
fortunate to have talented staff and creative ideas for meeting them. 
We have developed detailed strategies and have moved aggressively to 
implement them.
    If confirmed, I will look forward to working with the Secretary to 
ensure consular support for America's foreign policy objectives. If 
confirmed, I will continue to keep you informed of our resource needs, 
and work with you to ensure that the world's finest consular corps will 
continue to meet its obligations to our citizens and to our Nation.
    Thank you.
                                 ______
                                 

Prepared Statement of T. Vance McMahan, Nominee to be Representative of 
  the United States on the Economic and Social Council of the United 
Nations, With the Rank of Ambassador and an Alternate Representative of 
the United States to the Sessions of the General Assembly of the United 
 Nations, During His Tenure of Service as Representative of the United 
    States on the Economic and Social Council of the United Nations

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as the President's nominee to serve as the U.S. 
Representative to the United Nations Economic and Social Council. I am 
deeply grateful to President Bush and Secretary Rice for their 
confidence in me.
    I hope that my legal background in the field of banking and 
finance, as well as my extensive experience in government and work on a 
number of public policy issues, from education to health care to global 
competitiveness, will contribute to my effectiveness in this position. 
I strongly believe in the United States role as a force for good in the 
world and that, working with the global community, we can help free 
people from hunger and disease, poverty and illiteracy, tyranny and 
violence--allowing them to realize their full potential as human 
beings.
    If confirmed, I will do my best to represent the values of this 
great country at the U.N. and build upon efforts to promote reform and 
increased effectiveness and accountability across the U.N. system. Our 
success is critical to people around the world whose day-to-day 
livelihoods depend on an effective United Nations.
    The United States has led an effort to bring new ideas and fresh 
approaches in a number of areas including the economic policy debate at 
the U.N. Our approach, in line with the Monterrey Consensus on 
financing for development, emphasizes the importance of sustainable 
economic growth in development policy, linking new aid from developed 
nations to real reform in developing ones. Our guiding principle is 
based on building partnerships. It is a balanced approach, which 
promotes the central role of national governments in their own 
development, and the importance of international investment, trade, and 
credit markets in expanding economic opportunities for the world's 
poor. If confirmed, I will continue to advance our view that foreign 
assistance, in the context of good governance and sound domestic 
policy, can play a catalytic role, but it cannot substitute for open 
international trade and ability to attract private capital. Achieving 
sustainable economic growth will also help achieve the fundamental 
principles of the U.N.--peace, human rights, social progress, and a 
better quality of life.
    The Economic and Social Council (ECOSOC) is at the center of these 
activities, and through its resolutions, functional commissions, and 
regional commissions, is an important venue to promote key U.S. 
interests. The United States, as an ECOSOC member, has worked closely 
with other member states to integrate our shared views into U.N. 
policies on the role of economic growth and national development 
strategies that can bring real change to the lives of many. Through the 
work of ECOSOC and its subsidiary bodies, we are also pursuing the 
global goals in the Millennium Declaration of reducing poverty and 
hunger, improving health and education, and combating major diseases. 
Achieving these goals will require greater focus on and innovative 
approaches to sustainable development in fragile and failing states, 
where many of the so-called ``bottom billion'' live, those who have 
been left behind as the rest of the developing world has moved ahead. 
The extreme poverty and instability in these states affects the entire 
global community. If confirmed, this will be one of the most important 
items on my agenda. Greater prosperity for all builds stronger 
institutions, better governments, peaceful societies, and a safer world 
in which the United States can thrive.
    In addition to its important work on economic growth and 
development, ECOSOC also plays a critical part in the promotion of 
human rights and social justice. Unfortunately, the Geneva-based Human 
Rights Council, which in 2006 replaced the former Commission on Human 
Rights, has been a grave disappointment in that regard. To date, that 
body and many of its members remain unwilling to meet the council's 
mandate of addressing gross and systematic violations of human rights. 
Until the council improves, we will not legitimize it with our formal 
participation. If confirmed, I would continue to press for the council 
to approach its work with the seriousness that the United States and 
the international community expect; and to eliminate the selective bias 
that we have observed in its work so far. I would also continue to work 
with our partners to push for action by the General Assembly's Third 
Committee to hold accountable violators of human rights and fundamental 
freedoms. In addition, I would also work to build on existing 
initiatives of the United States in the General Assembly and other fora 
to fight human trafficking and improve the status of women and increase 
their political participation and economic influence around the world.
    I would also like to emphasize our strong commitment to the 
promotion of democracy. The United Nations Democracy Fund (UNDEF), 
created by Secretary-General Annan in 2005, plays an important role in 
strengthening democratic institutions at the level of civil society. 
The fund is already supporting 122 projects in 110 countries and, if 
confirmed, I would look forward to continuing our work as members of 
the advisory board to further the goals of the fund.
    Finally, I would like to underscore that I believe our work at the 
U.N. will only succeed in so far as the U.N. as an institution 
succeeds. The United States is spearheading the U.N. Transparency and 
Accountability Initiative (UNTAI) to improve the organization's 
efficiency across the entire U.N. system. The U.N.'s daily impact on 
the well-being of so many around the world makes it vital that the 
entire ITN system join the UNTAI effort to safeguard the U.N.'s 
resources and its credibility.
    Mr. Chairman, members of the committee, thank you again for the 
opportunity to testify today and for considering my nomination. If 
confirmed, I intend to work closely with members and committee staff to 
advance U.S. efforts at the U.N. to promote international peace and 
security, sustainable economic development and respect for human 
dignity. I would be happy to respond to your questions.
                                 ______
                                 

         Responses of William J. Burns to Questions Submitted 
                     by Senator Russell D. Feingold

    Question. Based on your long experience in government, how 
important is it that our collection of intelligence and unclassified 
information is truly global and that we don't continue to allocate what 
the Intelligence Community has called disproportionate resources to 
current crises, rather than to strategic challenges and emerging 
threats around the world?

    Answer. The Intelligence Community always has to strike the right 
balance between current and longer term intelligence requirements. It 
needs to anticipate developments 10 or more years into the future and 
still have crucial intelligence that informs our approach to today's 
crises and negotiations. Secretaries of State have long looked to the 
Bureau of Intelligence and Research (INR) to help meet both those 
needs. In response, INR has continuously refined its analytic focus. In 
late 2001, for example, INR determined its daily intelligence summary 
duplicated other IC products and discontinued it in favor of devoting 
more time and resources to providing the Secretary with longer range 
analysis. INR has and will continue to refine and rebalance its 
analytic efforts in line with our Secretaries' requirements and 
intelligence reform.

    Question. I am gravely concerned that we do not have strategic 
collection plans that address all the ways that the United States 
Government gets information about the world, not just from the 
intelligence community but from diplomatic reporting and open sources, 
and that, in turn, we have failed to allocate budgetary resources in a 
strategic fashion. This kind of strategic planning and resourcing 
should presumably be the job of the interagency process, but in many 
cases it appears broken, ineffective, or simply nonexistent. Do you 
agree, first, that the U.S. Government's need for information about the 
world is met through a combination of intelligence and nonclassified 
information gathering, and, second, that interagency strategies are 
vital for collecting this information?

    Answer. Yes, I agree on both points. At State, both on the policy 
and intelligence side, we have always argued that good information is 
good information, regardless of its source. For example, few in the 
intelligence community would deny the high value diplomatic reporting 
provides, despite its relatively low level of classification. In recent 
years, the Internet has magnified the value of open source reporting. 
For example, State's Bureau of Intelligence and Research has a 
Humanitarian Information Unit that relies entirely on unclassified open 
sources, including overhead photography, to support humanitarian and 
disaster relief. We are likely to turn increasingly toward open sources 
as more and more information becomes available online, and traditional 
intelligence collection systems are retargeted to meet our highest 
priority challenges like international terrorism and proliferation. 
Fully exploiting open source material clearly demands interagency 
cooperation and approaches. At State, we welcome the DNI's creation of 
the Open Source Center and increased funding for open source collection 
and exploitation. On an equally important level, INR has increased its 
investment in language training, sometimes with ODNI support, to 
improve its ability to exploit the very rich environment of the 
Internet. We also continue to cooperate with the DNI to develop 
strategies and priorities to collect information.

    Question. How would you see your role--and the role of the State 
Department more generally--in implementing and coordinating initiatives 
such as public diplomacy, democracy promotion, and foreign assistance 
when both State and the Defense Department, as well as other agencies, 
are involved? This is something we see frequently on the African 
continent so I am particularly interested to hear your thoughts 
regarding that region of the world.

    Answer. The Secretary of State has specific and distinct 
authorities on foreign assistance and in the conduct of foreign policy. 
Under the Foreign Assistance Act and the Arms Export Control Act, the 
Secretary, under the direction of the President, is responsible for the 
continuous supervision and general direction of economic assistance, 
military assistance, and military education and training programs. 
Under current authorities the Secretary of State has approval authority 
over 87 percent of the entire Foreign Operations request (fiscal year 
2009). If confirmed, as Under Secretary for Political Affairs I would 
coordinate closely with the Director of U.S. Foreign Assistance and 
partner with counterparts at DOD and other U.S. Government agencies to 
balance the U.S. presence and efforts internationally and to ensure a 
comprehensive, integrated, and deconflicted implementation of foreign 
policy and foreign assistance, including in Africa.
    The establishment of a dual-hatted Director of U.S. Foreign 
Assistance and USAID Administrator has led to continued improvement in 
the interagency coordination of activities such as public diplomacy, 
democracy promotion, foreign assistance, and budget planning. For 
fiscal year 2008, for example, with the establishment of common 
objectives, a common program lexicon, and common budget and program 
planning processes, State (including PEPFAR) and USAID were able to 
improve coordination, with steps taken toward greater MCC and DOD 
coordination. For fiscal year 2009, MCC and DOD were formally added as 
participants in State and USAID's budget and program planning process, 
in addition to their coordination in the field.
    The evidence of such coordination is illustrated by a number of 
examples: In Ghana, for instance, USAID is focusing its programming on 
enhancing the capacity of local government, which is responsible for 
implementing MCC compact activities in economic growth. In Honduras, 
USAID programming focuses on trade and investment capacity building and 
private sector competitiveness, in order to complement MCC compact 
investments in infrastructure and agricultural diversification.
    In addition, a number of joint Department of State and Department 
of Defense initiatives are being successfully implemented. DOD's 
section 1206 authority has been used, with the concurrence of the 
Secretary of State, to provide vital train and equip assistance to 
foreign countries to strengthen their capabilities in counterterrorism 
and in engaging in stability operations with U.S. Armed Forces. Section 
1207 authority has been relied upon to provide DOD resources in support 
of State Department reconstruction, security, and stabilization 
programs.
    A number of additional activities are ongoing for this year that we 
hope will further improve coordination. A strong interagency country 
strategy development process is being planned for specific pilot 
countries. The 3-to-5-year strategic plan will be developed by the 
field, under the leadership of ambassadors, and is explicitly targeted 
to include full interagency, other donor, and where appropriate, host 
government participation. As with last year, the annual operational 
plan process will provide additional opportunities for the interagency 
in the field to develop comprehensive program plans, working together 
to ensure coordination.

    Question. As you know, there has been a lot of discussion recently 
regarding the concerns about how underfunded and underresourced the 
State Department is. How much of an increase in both human and 
financial resources would you recommend, and what are the budgetary 
implications? What do you think is needed to partner with the Defense 
Department in order to anticipate crises and properly address complex 
emergencies?

    Answer. We are doing all that we can to meet the challenges of 
staffing more than 265 missions worldwide and effectively carry out the 
Department's critical foreign policy mission. Despite our best efforts, 
however, the Department's staffing needs exceed our current resources. 
Not only has our mission grown, but the number of language-designated 
positions in ``critical needs'' languages such as Arabic and Chinese, 
some of which require 2 years of training to reach a basic professional 
level of proficiency, has increased 170 percent since 2001. In 
addition, the number of State Department positions overseas that are 
designated ``unaccompanied'' or ``limited accompanied'' for reasons of 
hardship or danger has quadrupled since 2001, from less than 200 in 
2001 to more than 850 today.
    Workforce planning studies done by the Department, as well as 
recent reports from GAO, the Foreign Affairs Council, CSIS, and other 
groups, have acknowledged that the Department's funded personnel intake 
has not kept pace with our expanding responsibilities. We have 
requested additional positions for each of the past 3 years, but 
Congress has not approved any new positions outside of consular and 
security positions since 2004. As a result, the Department has been 
unable to overcome midlevel deficits due to hiring shortages in the 
1990s and has been forced to leave some positions vacant to ensure our 
highest priority positions are filled with qualified personnel.
    The Department's fiscal year 2009 budget request includes 1,543 new 
positions (1,095 from State Operations Appropriations and 448 MRV-fee 
funded positions) at a cost of $325,398,000. The Department's request 
for 520 new hire positions funded by Diplomatic and Consular Programs 
(D&CP) appropriations includes 300 positions to expand language 
training for Foreign Service generalists and specialists and 20 
positions to improve public diplomacy efforts within the framework of 
the National Strategy for Public Diplomacy and Strategic Communication.
    The other 200 new positions funded by D&CP appropriations are 
required to allow the Department to increase collaboration with DOD and 
other national security agencies to more effectively plan for and 
respond to national security challenges. We have requested 75 new 
positions to allow for increased participation of Foreign Service 
personnel in military training and joint exercises, 50 new Foreign 
Policy Advisor (POLAD) positions to provide invaluable support to 
commanders who operate in an increasingly complex world where U.S. 
military and diplomatic objectives intersect, and 75 new positions to 
facilitate the interagency cooperation and exchanges called for under 
the National Security Professionals Initiative (E.O. 13434).
    In addition to the 520 new D&CP positions, the fiscal year 2009 
budget includes 200 positions for worldwide security protection; 10 
positions for embassy construction, security, and maintenance; 19 
positions for educational and cultural exchanges; and 448 fee-funded 
positions under the Border Security Program. We have also requested 351 
positions to support the Civilian Stabilization Initiative, which will 
permit the Department to partner effectively with the military to 
stabilize countries in crisis. The fiscal year 2009 budget also 
includes $92.1 million to hire 300 Foreign Service officers for the 
United States Agency for International Development--above attrition--in 
fiscal year 2009, a 30 percent increase in AID's Foreign Service 
workforce.
    In addition to funding these new positions, the State Department 
operations request for fiscal year 2009 includes $395 million for 
public diplomacy to allow us to utilize new and emerging technologies 
to communicate America's views, values, and policies. New initiatives 
to be undertaken with this funding include the new Web site for foreign 
audiences America.gov and the inception of the digital outreach team 
that will engage audiences on the Internet in Arabic, Farsi, and Urdu. 
Our request for an investment of $414 million in information technology 
in fiscal year 2009 will support anytime, anywhere connectivity for our 
diplomats around the globe and facilitate greater collaboration among 
the more than 40 civilian agencies with overseas operations as well as 
DOD.

    Question. I'd like to ask you about Iran and what you think the 
critical next steps are regarding this extremely difficult 
relationship. How should the United States go about addressing Iran's 
role in Iraq, its support for Hezbollah, and nuclear issues? If 
confirmed, what course do you intend to chart during the remainder of 
this administration?

    Answer. We are deeply concerned by Iran's actions, including its 
destabilizing influence in the region, its sponsorship of terrorism, 
and its pursuit of technology that would give Iran a nuclear weapons 
capability.
                               iran-iraq
    As pledged by the President, our forces, in cooperation with our 
Iraqi and Coalition partners, are destroying Iranian-supported lethal 
networks, recovering large weapons caches, and disrupting cross-border 
arms trade. In the past few years, we have learned a great deal about 
these networks and their Islamic Revolutionary Guard Corps-Qods Force 
(Qods Force) sponsors, particularly from individuals captured and 
detained by our forces. This knowledge has allowed us to improve our 
methods for tracking and disrupting their operations.
    President Bush noted on April 10, that the Iranian regime has a 
choice to make: It can choose to live in peace with its neighbors, 
enjoying strong economic, religious, and cultural ties, or it can 
continue to arm, fund, and train illegal militant groups, which are 
terrorizing the Iraqi people and turning them against Iran. If Iran 
continues down the current path, Iran's leaders should know that we 
will take active measures to protect our interests, and our troops, and 
our Iraqi partners.
                               hizballah
    Iranian influence is of great concern in Lebanon where Iran, Syria, 
and Hizballah are undermining the legitimate institutions of the 
government and seeking to create a state within a state in Lebanon. We 
continue to see evidence that Hizballah, with support from Syria and 
Iran's Qods Force, is rearming in Lebanon in violation of UNSCR 1701. 
Hizballah's own statements claiming it has rearmed since the 2006 
summer war also imply serious breaches of the arms embargo. Hizballah 
also continues to support other terrorist groups, including and Hamas 
in the Palestinian territories and provides aid to militant groups in 
Iraq.
    We will continue to take all necessary measures to prevent 
Hizballah from taking hostile action in Lebanon and abroad, as well as 
prevent the organization from assisting groups seeking to destabilize 
or derail the Middle East peace process. We are working closely with 
partners in the region to halt weapons flows and other Iranian support 
to prevent Hizballah from building its capabilities.
                             nuclear issue
    The Iranian regime's continued defiance of its UNSC and IAEA 
obligations warrants a strong international response. We are utilizing 
multilateral diplomacy to those ends. We remain committed to a 
diplomatic solution to the Iranian nuclear problem while taking no 
option off the table. The P5+1 has endorsed a dual-track policy toward 
Iran since June 2006 in which we have both pursued sanctions at the 
United Nations Security Council and offered Iran a generous package of 
incentives were Iran to take the steps necessary to restore 
international confidence in the exclusively peaceful nature of its 
nuclear program.
    The demands upon Iran include the suspension of uranium enrichment-
related and other proliferation-sensitive nuclear activities, full 
cooperation with the International Atomic Energy Agency (IAEA), and 
Iran's implementation of the Additional Protocol to its IAEA Safeguards 
Agreement, which would provide greater transparency into Iran's nuclear 
program. We are very pleased that in March 2008, the U.N. Security 
Council (UNSC) acted for a third time to impose legally binding chapter 
VII sanctions on Iran for its failure to comply with the council's 
demands (UNSCR 1803). The council's actions, and the high level of 
support for this third sanctions resolution, reflect the international 
community's continuing and profound concerns regarding Iran's nuclear 
program.
    At the time UNSCR 1803 passed, Foreign Ministers agreed to revisit 
our inducements for cooperation to Iran. P5+1 Political Directors met 
in Shanghai April 16 and Foreign Ministers on May 2 in London where 
they worked to update the incentives package, originally offered in 
June 2006, that will be conveyed to the Government of Iran. This 
updated package of incentives, which we expect to be finalized soon, is 
an important step in the P5+1 approach to addressing Iran's nuclear 
program.
    Moving forward, we will focus our efforts and attention on the 
robust implementation of the provisions of UNSCRs 1737, 1747, and 1803 
to clarify to Iran's leaders the consequences of its continued 
noncompliance, while also keeping open the door to direct negotiations. 
On next steps, the resolution includes a request for a report from the 
IAEA Director General within 90 days (on or about June 3) on whether 
Iran has complied with its obligations. If the report shows that Iran 
has not complied, the council has expressed its intention to adopt 
further measures to persuade Iran to comply.
    Already there are several important areas where we see our 
multilateral, diplomatic pressure strategy is having an impact. In 
implementing the U.N. Security Council resolutions, many countries have 
expanded scrutiny of cargo shipments, hampering Tehran's ability to 
acquire materials to advance their development of nuclear and missile 
programs. On the financial front, the cost of doing business for the 
Iranian regime has increased. Iran's credit risk rating has gone up, 
and many banks have stopped issuing letters of credit to companies 
seeking to do business with Iran. Major international banks--including 
Deutsche Bank, Dresdner Bank, and Commerzbank--have scaled back or 
completely severed their Iran-related business. This has resulted in 
the Iranian regime having increasing difficulty utilizing the 
international financial system for their proliferation or terrorist 
financing activities.
                                 ______
                                 

         Responses of William J. Burns to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. On April 16, the P5+1 (the United States, the United 
Kingdom, France, China, Russia, and Germany) met in Shanghai to discuss 
the next diplomatic steps on Iran's nuclear program.
    (a) What were the concrete achievements of the Shanghai meeting? 
Some reports say that there is consideration of offering a fresh set of 
incentives to Iran--what is being contemplated?
    (b) What are the prospects for a meaningful international consensus 
to increase diplomatic and economic pressure on Iran?
    (c) Given your experiences in Moscow, how far do you assess the 
Russians are willing to go in pressuring Iran and under what 
circumstances?

    Answer. The international consensus that Iran should not be 
permitted to acquire nuclear weapons is, in our view, strong and 
sustained. The P5+1 has endorsed a dual-track policy toward Iran since 
June 2006 in which we have pursued both sanctions at the United Nations 
Security Council and offered a generous package of incentives to Iran 
in exchange for taking steps necessary to restore international 
confidence in the exclusively peaceful nature of its nuclear program.
    Foremost of these steps is the suspension of uranium enrichment-
related, reprocessing, and other proliferation-sensitive nuclear 
activities, full cooperation with the International Atomic Energy 
Agency (IAEA), and Iran's implementation of the Additional Protocol to 
its IAEA Safeguards Agreement, which would provide greater transparency 
into Iran's nuclear program.
    The United Nations Security Council has adopted three resolutions 
imposing chapter VII sanctions on Iran. There was not a single negative 
vote cast for these resolutions and two were adopted unanimously 
(Indonesia abstained on UNSCR 1803); this demonstrates the will and 
resolve of the international community to take steps necessary, 
including imposing sanctions, to prompt Iran to choose the path of 
negotiations rather than continued confrontation.
    To buttress our dual track strategy, P5+1 Foreign Ministers issued 
a statement on March 3, 2008, alongside the adoption of U.N. Security 
Council resolution 1803 committing to update the original incentive 
package offered to the Government of Iran in June 2006. The P5+1 
Political Directors met on April 16 in Shanghai and Foreign Ministers 
in London on May 2 to finalize the updated incentives package, an 
important step in our way forward on the basis of the P5+1's dual track 
approach.
    Each of our P5+1 partners, including Russia, has committed to the 
dual track strategy. Through their work within the P5+1 and votes at 
the UNSC, the Russians have shown that they are serious in pursuing our 
shared strategic objective of preventing Iran from acquiring a nuclear 
weapons capability. We will continue to work with our Russian partners 
to increase the pressure on Iran bilaterally and within all appropriate 
multilateral fora.

    Question. The third Iraq ministerial neighbors' conference was held 
in Kuwait on April 21 and 22.
    (a) What were the concrete achievements of the Kuwait conference?
    (b) Please provide the committee with a copy of the statement that 
emerged from the conference.
    (c) Working groups have been set up in three areas--border 
security, energy, and refugees. What has been accomplished by these 
working groups to date?
    (d) Is there any consideration to including Iraqi political issues 
(for example, political reconciliation, ethnic and sectarian tensions, 
the disposition of Iraqi federalism) within the ambit of future 
neighbors' conferences?
    (e) Are there plans to establish a secretariat for the neighbors' 
conference? When will the next meeting be held?

    Answer. (a) The support of Iraq's neighbors remains key to 
achieving the goal of a sovereign, democratic, and prosperous Iraq that 
is at peace with itself and with its neighbors. The third Expanded 
Neighbors Ministerial held in Kuwait on April 22 provided participants 
the opportunity to express that support and for Prime Minister Maliki 
to speak directly to Iraq's neighbors about the progress that the 
Government of Iraq has made and about what more Iraq needs its 
neighbors to do. The group also approved the Terms of Reference of the 
Ad Hoc Support Mechanism, a joint Iraqi-U.N. body intended to help keep 
the Neighbors Process on track by handling administrative and 
organizational tasks. The Organization of the Islamic Conference 
announced the opening of its office in Baghdad, and all participants, 
including Iran and Syria, signed on to the final communique, which 
included a pledge to adhere to the principle of noninterference in 
Iraq's internal affairs.
    (b) A copy of the final communique issued at the conclusion of the 
April 22 Ministerial is attached.
    (c) The Neighbors working groups on border security, energy, and 
refugees have served as useful fora for Iraq and its neighbors to 
discuss issues of mutual concern. The Border Security Working Group, 
cochaired by Iraq and Syria, met August 8-9, 2007 and April 13, 2008 in 
Damascus. The Energy Working Group, cochaired by Iraq and Turkey, met 
June 28-29, 2007 and March 2, 2008 in Istanbul, Turkey. The Refugee 
Working Group, cochaired by Iraq and Jordan, met on July 26, 2007 and 
March 18, 2008, in Amman, Jordan. Each working group prepared a list of 
recommendations to be followed up on at later meetings. The Neighbors 
Support Mechanism is intended to improve follow-up on the efforts of 
the working groups by assisting with substantive, technical, and 
organizational issues.
    (d) The Expanded Neighbors process has focused on (1) supporting 
the Iraqi Government and (2) issues that are of common concern to all 
participants and most appropriately addressed in a multilateral 
setting--refugees, border security, energy, and other similar issues. 
Internal Iraqi political issues are inevitably raised, but participants 
generally are careful to adhere to the principle of noninterference in 
Iraq's internal affairs. In the final communique at Kuwait, the 
participants committed both to supporting the efforts of the Iraqi 
Government in broadening the political process and reinforcing 
political dialog and national reconciliation, and to adhere to the 
principle of noninterference.
    In lieu of a Secretariat, the participants in the Expanded 
Neighbors process have created an ad hoc Support Mechanism. The Support 
Mechanism is located in the Iraqi MFA in Baghdad and actively assisted 
by the United Nations on substantive, technical, and organizational 
issues. The Support Mechanism is intended to liaise with member states 
on preparations for upcoming meetings, prepare draft agendas, maintain 
records of decisions reached, and carry out other administrative tasks 
necessary to ensure that the process continues to be successful. 
Participants expressed their desire to hold the fourth Expanded 
Neighbors Ministerial in Baghdad. A date has not yet been set.
                                 ______
                                 

    Final Communique of the Expanded Ministerial Conference of the 
  Neighboring Countries of Iraq, Egypt, and Bahrain and the Permanent 
            Members of the U.N. Security Council and the G-8

                       kuwait, 22nd of april 2008
    Upon the invitation of the State of Kuwait and the Republic of 
Iraq, the Foreign Ministers of the Neighbouring Countries of Iraq, 
Egypt, Bahrain, UAE, Oman, and the Permanent Members of the U.N. 
Security Council and the G-8 held a meeting in Kuwait on the 22nd of 
April, 2008. The United Nations, the Organization of the Islamic 
Conference, the League of Arab States, the Gulf Cooperation Council and 
the European Union also took part in the meeting. The meeting was 
designed to contribute concretely to the Iraqi Government's efforts to 
restore permanent peace, stability, and prosperity through invigoration 
of the existing national reconciliation dialog, in combating terrorism, 
strengthening the rule of law, and widening participation in the 
political process. The meeting aimed to provide ongoing strong and 
effective support to both the Government and people of Iraq. The 
meeting also served the purpose of the participant countries to 
reiterate their commitment to Iraq's territorial integrity, unity, full 
sovereignty and independence, and noninterference in its internal 
affairs. The meeting affirmed its continuous implementation of the 
obligation that it has committed to undertake in this regard.
    The participants agreed to:
    1. Reaffirm the respect of national unity, independence, full 
sovereignty, territorial integrity, Arab and Islamic Identity of Iraq; 
commit to the preservation of Iraq's internationally recognized 
borders, and pledge to adhere to a comprehensive and consistent 
commitment to the principle of noninterference in Iraq's internal 
affairs; stressing the right of the Iraqi people to freely determine 
their political system and political future and control their natural 
and financial resources;
    2. Affirm the full support for Iraq and its people and the efforts 
of the constitutionally elected Iraqi Government and Council of 
Representatives; to achieve the goals of the Iraqi people in a speedy 
and effective manner for a free, prosperous, stable, united, democratic 
and federal Iraq that ensures the fundamental and equal rights of the 
Iraqi people to peacefully participate in the ongoing political 
process;
    3. Reconfirm the commitment of the International Community and 
Iraq's neighbors to promote peace, stability, and security in Iraq 
which shall reflect positively on the security and stability of the 
region and the interests of its people and the international community 
as a whole;
    4. Welcome the establishment of the Ad-Hoc Support Mechanism formed 
by the Iraqi Government within the Iraqi Ministry of Foreign Affairs as 
adopted in the Expanded Iraq Neighbours Ministerial Conference held in 
Istanbul on November 3, 2007; also approve the Terms of Reference of 
the Ad Hoc Support Mechanism, and call upon all concerned countries and 
organizations to cooperate with its work;
    5. The conference reviewed and adopted the recommendations of the 
three working groups (the Energy Working Group, the Refugee Working 
Group, and the Security Cooperation and Coordination Working Group) as 
attached to this final communique; affirmed the importance of their 
implementation by all concerned states; and looked forward to the three 
committees convening their next sessions--on security in Damascus, 
energy in Istanbul, and displaced persons in Amman--as soon as 
possible;
    6. Support the efforts of the Iraqi Government in broadening the 
political process, strengthening the elected institutions, reinforcing 
political dialog and national reconciliation, assisting vulnerable 
groups including the internally and externally displaced persons, and 
promoting the protection of human right and judicial and legal reform;
    7. Encourage all Iraqis to engage in comprehensive political dialog 
and national reconciliation for the sake of Iraq's stability, unity, 
and its sustainable development;
    8. Stress the importance to achieve Iraqi national reconciliation 
and accord, praising the role of the Iraqi Government in this regard, 
and calling on the League of Arab States to continue its efforts in 
coordination and cooperation with the Iraqi Government and concerned 
parties;
    9. Applaud the continuous effort by the Iraqi Government to 
confront those who foment violence throughout Iraq; commend the role of 
the Iraqi armed and security forces in confronting and deterring the 
recent threats posed by armed groups; and welcome the Government's 
commitment to disarm and dismantle all militias and extragovernmental 
armed groups, enforcing the rule of law, and ensuring the state's 
monopoly on armed forces;
    10. Stress the principle of the Iraqi national identity and invite 
all components of the Iraqi people to work for the enhancement of the 
National Unity, regardless of their political trends and ethnic and 
sectarian affiliations; and seek to employ the historical multicultural 
heritage as a means of unification not division;
    11. Call upon international and regional concerned organizations 
(UNESCO, ALECSO, ISESCO, and IRCICA) to contribute to the preservation 
and revitalization of the historical heritage of Iraq, that has been 
destroyed or damaged due to the war; and welcome active support from 
the neighbours and international community for their effort, and to 
help the Iraqi people to retrieve their stolen heritage;
    12. Acknowledge the determined endeavors of the Syrian, Jordanian, 
and Egyptian Governments in generously hosting Iraqis; recognize the 
obligations of Iraq and the international community in supporting host 
countries to address the resulting burdens on their services, 
infrastructure, and resources and to create conditions conducive to a 
voluntary, safe, and dignified return;
    13. Acknowledge the importance of the International Compact with 
Iraq for the political reconciliation and reconstruction of this 
country, and its commitment to assist the Government of Iraq through 
political and economic reform, capacity building and providing 
conditions for sustainable development; in this context, recognize the 
role and potential of neighbouring countries in the construction of 
Iraq, welcome the decision of the Paris Club, and invite all the 
creditors to Iraq to follow its example, in a way that contributes in 
reducing Iraqi debts; welcome the willingness of the Government of 
Sweden to host the next session of the International Compact with Iraq; 
and welcome the contribution of Iraq's neighbours and regional states 
in the development of economic progress in Iraq;
    14. Affirm the efforts of the United Nations and commend UNAMI's 
important role in providing support, consultation, assistance, and 
coordination with the Iraqi Government according to the Security 
Council Resolution 1770 of (2007), and other relevant Security Council 
resolutions; welcome the active assistance of UNAMI to the 
establishment of the Ad Hoc support mechanism and to its activities to 
support and develop regional dialog on Iraq;
    15. Encourage and urge all states, in particular the neighbours of 
Iraq, to open or reopen their diplomatic missions, and enhance those 
existing by raising the level of representation, and expedite the 
sending of their ambassadors to Iraq, which will contribute in the 
improvement and development of bilateral relations; welcome the opening 
of the Office of the Organization of the Islamic Conference in Baghdad 
as an encouraging development that will enable the Organization to 
follow up its initiatives more actively, including its Mecca 
Declaration initiative; welcome states who decided to reopen their 
embassies in Baghdad; and urge the Government of Iraq to expedite its 
appointment of ambassadors to neighbouring countries and others;
    16. Condemn the aggression and war crimes of the former regime of 
Iraq against peoples of Iraq, Islamic Republic of Iran,and the State of 
Kuwait; condemn the killing of Kuwaiti war prisoners and nationals of 
other countries at the hands of the former regime in Iraq, and the 
former Iraqi regime's coverage of these crimes for over 10 years, which 
is considered a violation of international humanitarian law; and 
welcome the steps being taken by Iraq to take the perpetrators of these 
crimes to courts, and also welcome the appointment of Ambassador 
Gennady Tarasov as U.N. high-level coordinator and commend the efforts 
of his predecessor, the late Ambassador Yuli Voronstov, and his 
achievements during his work in this humanitarian issue; invite all 
concerned parties to continue their cooperation with the International 
Red Cross Committee to uncover the fate of the rest of the missing 
Kuwaiti citizens and others;
    17. Condemn all acts of terrorism in all its forms in Iraq, call 
for the immediate cessation of all such acts, support the Iraqi 
Government's increasing efforts in combating terrorism including all 
efforts to prevent Iraqi territory from being used as a base for 
terrorism against neighbouring countries and vice versa; and takes note 
of the bilateral arrangements concluded between Iraq and neighbouring 
countries regarding the fight against terrorism, in this regard, 
support Iraqi Government efforts to strengthen the capabilities of its 
armed and security forces to assume full security responsibility in the 
country;
    18. Reaffirm the obligations of all states, in accordance with 
international law, relevant international agreements, U.N. Security 
Council Resolutions 1546 (2004) and 1618 (2005), and other relevant 
Security Council resolutions, to combat terrorist activities and 
prevent the use by terrorists of their territory for supplying, 
organizing, and launching terrorist operations, and help Iraq to expel 
the terrorist organizations out of its territories;
    19. Support the joint efforts of Iraq and its neighbouring 
countries to prevent the transit of terrorists and illegal arms to and 
from Iraq; reemphasize the importance of strengthening cooperation 
between Iraq and its neighbouring countries to control their common 
borders and prevent all kinds of illicit trafficking, including 
financial and logistical support for terrorists and terrorist 
organizations; and refuse instigation of violence and terror;
    20. Reconfirm the decisions of the Neighbouring Countries Interior 
Ministerial Meetings and welcome the outcome of the last meeting which 
took place in Kuwait on October 23, 2007, and call for the cooperation 
with its secretariat based in Iraq; and
    21. Welcome the convening of the Arab Inter-Parliamentary Union 
Conference which took place in the city of Irbil in Iraq on 11 March, 
2008.

    The participants expressed their appreciation to the State of 
Kuwait for hosting the conference, and expressed their desire and hope 
to hold the Fourth Expanded Ministerial Meeting in Baghdad.
                                 ______
                                 

        Responses of Janice L. Jacobs to Questions Submitted by 
                      Senator Joseph R. Biden, Jr.

    Question. Taiwan meets or exceeds nearly every criteria established 
by the Visa Waiver Program (VWP). Specifically, it:

  <bullet> Offers visa-free travel privileges to U.S. citizens;
  <bullet> Has issued machine-readable passports (MRPs) since 1995;
  <bullet> Has completed a program to incorporate biometric identifiers 
        into passports in 2007, and plans to issue E-passport starting 
        in the second half of 2008;
  <bullet> Reports the lost and stolen passports to the U.S. Government 
        on a weekly basis; and
  <bullet> Had an average 3 percent refusal rate for nonimmigrant visa 
        applications to the United States in past years--lower than 
        several countries now being considered for Visa Waiver Program 
        participation.

    I also understand that the Department of Homeland Security (DHS) 
has signed Memoranda of Understanding (MOU) regarding the VWP and 
related enhanced security measures with 8 of 13 ``roadmap countries'' 
that were selected with the nomination of the Department of State 
(DOS). The MOU is the first step before those countries are included 
into the VWP, and DHS will not consider any new aspirant country 
without the nomination of the DOS.
    Taiwan is not a roadmap country, and DHS has no MOU with Taiwan. 
Nonetheless, I understand that Taiwan has volunteered to cooperate with 
the United States Government to implement the measures contained in the 
above-mentioned MOUs, such as air passenger data sharing, air marshals, 
and airport security upgrades, to enhance overall travel security.
    If confirmed, would you endorse a review by DHS of Taiwan's VWP 
eligibility as soon as reasonably possible?

    Answer. If confirmed, I will work with DHS on evaluating Taiwan for 
VWP candidacy. DHS has expressed a willingness to work with all who 
meet the technical requirements for the Visa Waiver Program once they 
have established a mechanism to evaluate all additional potential 
roadmap countries, of which Taiwan is one. DHS and State currently lack 
the resources and procedures to consider any nonroadmap countries at 
this time. In addition, any potential security barriers to Taiwan's 
participation in the VWP would be identified during a DHS-led 
comprehensive evaluation to determine the impact of the country's 
designation on United States security, law enforcement, and immigration 
security interests.

    Question. If Taiwan is willing to sign a document with DHS to 
cooperate on enhanced security measures (as described in the memoranda 
signed by the roadmap countries), would you encourage DHS to conclude 
an MOU with Taiwan, leading eventually to Taiwan's inclusion in the VWP 
when eligible?

    Answer. On a general level, we do note that Taiwan has taken a 
number of steps to improve travel document and border security and we 
welcome further improvements in these areas. These steps have been 
taken in line with international trends and best practices as part of a 
general program to improve passport and immigration practices and 
without reference to the U.S. Visa Waiver Program. Some of the factors 
you mention such as offering visa waiver tourist travel for up to 90 
days admission to U.S. citizens and issuance of machine-readable 
passports are met by a large numbers of countries, most of which are 
not under consideration for Visa Waiver Program candidacy. Taiwan does 
not yet issue e-passports, though they are required for VWP candidacy. 
Our information indicates they do not share information on the theft or 
loss of blank passports with the United States at this time. The VWP 
law requires sharing of data not only on blank passports, but also on 
personalized passports. Taiwan's visa refusal rate was above 3 percent 
in the last fiscal year.
    State and DHS are currently working with nations who have engaged 
the U.S. Government for the past several years in discussing these 
issues. We continue to work on confidence building measures with those 
countries. There is no plan at this time to expand the roadmap process 
but it may be possible to discuss similar confidence building measures 
with countries beyond the roadmap as improvements in international 
travel security are in our collective interest. On a technical and 
legal level, the conditions do not presently exist for nominating 
additional countries for VWP participation based on a waiver of the 3 
percent visa refusal rate. To use this waiver the Secretary of Homeland 
Security must certify to Congress that the preconditions set in law 
have been met. Although dialog and negotiation continue with those 
countries already engaged in the roadmap process, I am unaware of plans 
to deal with additional countries on the same footing until sometime 
after DHS is in a position to exercise the waiver of the 3 percent visa 
refusal rate for the countries currently in the pipeline. The prospect 
of dialog, however, remains open.

    Question. What are your top three priorities for this position?

    Answer. The mission of the Bureau of Consular Affairs (CA) is to 
protect the lives and interests of American citizens abroad and to 
strengthen the security of U.S. borders through the vigilant 
adjudication of visas and passports. My top priorities relate directly 
to this mission.
    Our number one priority is to ensure that the Bureau of Consular 
Affairs continues to provide outstanding services to protect the lives 
and interests of American citizens overseas. We will use our Web site, 
www.travel.state.gov, and revised Consular Information Program to 
provide timely, accurate information to American citizens. We conduct 
crisis management exercises and plan for anticipated increases in 
demand for services, for example by deploying additional personnel 
later this year to assist our posts in China during the upcoming 
Beijing Olympics. Now that we have implemented the Hague Convention on 
Intercountry Adoptions, we will work with the American adoption 
community to adjust to the changes, and work with the international 
community to encourage more countries to join the Convention to expand 
the Convention's protections for children and parents worldwide.
    I will work to ensure the Department provides secure, reliable 
passport services to American citizens. The Department took immediate 
action when we learned that some passport records had been improperly 
accessed, and are reviewing management controls in order to strengthen 
procedures and to ensure a more secure system that will provide equal 
and effective safeguards to all passport applicants' records. Although 
passport demand is currently four percent higher than last year's 
record-setting pace of 18.4 million passport issuances, there is no 
passport backlog and processing times are less than our 4-week 
standard. We are hiring hundreds of employees, opening new facilities, 
expanding existing passport agencies, and preparing to issue a new 
passport card in order to meet the American public's demand for 
reliable travel documents.
    My third key priority is to fulfill the ``Secure Borders, Open 
Doors'' Joint Vision of Secretaries Rice and Chertoff. Since September 
11, 2001, the Bureau of Consular Affairs has implemented changes in 
procedures, technology, and information-sharing to enhance the security 
of our Nation's borders while keeping America's doors open to the 
legitimate travel we encourage and value. The changes have transformed 
the visa process, and helped reverse a decline in visa applications 
that began after 9/11. We issued an all-time record of 651,000 student 
and scholar visas last year, for example, and visa demand is growing by 
double digits in key countries such as China, India, Brazil, and 
Mexico. Our challenge is to meet that demand as we make further 
enhancements to the security and efficiency of visa processing.

    Question. What management skills and experiences qualify you for 
this position?

    Answer. As a career consular officer for 28 years, I have had the 
privilege of serving the United States in places as varied as Mexico, 
France, and Nigeria, and gained a broad perspective on the consular 
challenges our country faces. As a consular manager, a DCM, an 
ambassador and a senior executive in the Department I have managed 
thousands of people, millions of dollars in resources, and a broad 
spectrum of policies for my entire career. I have been involved in 
strategic and budget planning. I have made the difficult personnel 
decisions that are the hallmark of a DCM's responsibilities. I fought 
the budget and human resource battles during the Department's leanest 
years.
    The Bureau of Consular Affairs comprises nearly 10,000 employees--
Foreign and Civil Service, locally engaged staff, contractors and 
others--working in 219 posts overseas, in Washington, and at 18 
passport agencies and two visa processing centers around the United 
States. The Bureau managed a $2 billion budget last year.
    As Principal Deputy Assistant Secretary for Consular Affairs, I 
helped lead this bureau of diverse, talented employees. I worked on the 
full range of consular issues and have seen how the Bureau of Consular 
Affairs has prepared for and responded to those issues.
    As Deputy Assistant Secretary for Visa Services from 2002 to 2005, 
I was part of the team that negotiated the Memorandum of Understanding 
between the Department of State and the new Department of Homeland 
Security that clarified the agencies' respective roles and 
responsibilities in visa policy. I was the change manager in the 
immediate aftermath of September 11, 2001, when we instituted new 
practices and implemented new legislation to improve visa security, and 
when we implemented procedures to address the post-9/11 decline in visa 
applications. I reached out to stakeholders in the academic, 
scientific, industry, and government communities to explain our actions 
and obtain support for our initiatives.
    As Deputy Chief of Mission in Santo Domingo and as Ambassador to 
Senegal and Guinea-Bissau, I managed all aspects of our missions, 
ensuring that the consular dimension was represented in mission work on 
the global war on terror, countering human trafficking, and other 
foreign policy objectives. I also know the outstanding work that all 
consular personnel in what I have come to regard as the world's finest 
consular corps do to protect American citizens and America's borders.

    Question. With regard to the unauthorized accession of the passport 
application files of Senators Clinton, McCain, and Obama, please answer 
the following questions:
    (a) When did you first become aware of this matter? What steps did 
you take when you were informed of this matter?

    Answer. We took immediate action from the moment these incidents 
were reported. I was notified, in my role as Acting Assistant 
Secretary, of the incidents of improper access on March 20, 2008. I 
immediately conferred with the Under Secretary for Management. We 
informed the presidential candidates and their staffs of the incidents 
and our response. We asked the Office of the Inspector General to begin 
an investigation of the incidents; that investigation is ongoing. I 
also sent a notice to all consular employees reminding them of their 
legal obligation to safeguard the privacy of passport applications and 
passport holders.
    The Department of State's passport database tracking system 
includes an invisible flag on individual passport records of high-
profile individuals. As the system worked when this incident occurred, 
an alert was automatically sent to two headquarters managers. Based on 
the alert, one of those managers contacted the individual who accessed 
the record via e-mail for an explanation, and copied the supervisor for 
appropriate action as well as other managers for informational 
purposes.
    Three individuals have been terminated to date for improperly 
accessing passport application records. While our safeguards for 
detecting improper access to passport records worked as intended, the 
experience demonstrated that there were areas where we could improve.
    On March 24, we formed a working group with representatives of all 
key bureaus to conduct a comprehensive review of internal management 
and controls procedures for passport processing and to develop 
initiatives to strengthen the security of the passport process. Our 
goal is a more secure system that will provide equal and effective 
safeguards to all passport applicants' records, and in which all 
Americans can have confidence that their data will be appropriately 
safeguarded.

    Question. (b) Given that unauthorized access of these files first 
occurred last summer and winter, why do you believe employees in 
passport services waited until mid-March to report this matter to you 
or other senior level managers?

    Answer. Due to the quick resolution of the cases through the 
immediate termination of two contract employees and reprimand of the 
contract third employee (who was subsequently terminated), and the 
well-founded belief that these cases were motivated by imprudent 
curiosity, information on these cases was not passed to high level 
management. Since these events, we have developed and implemented 
written procedures for reporting incidents of unauthorized access. The 
new procedures include notifying the appropriate high level management 
members on every e-mail sent regarding a suspected incident of 
unauthorized access.

    Question. (c) Do you think it is likely there were additional 
improper or unauthorized accessions of passport application files?

    Answer. The Department of State's Inspector General is currently 
investigating the extent to which passport records may have been 
subject to unauthorized access. We are awaiting the OIG's final 
determination.

    Question. (d) What systemic changes do you intend to implement to 
prevent a recurrence of such unauthorized accessions of passport files, 
and what is your timetable for implementing them?

    Answer. On March 24, we formed a working group with representatives 
of all key Department bureaus to conduct a comprehensive review of 
internal management and controls procedures for passport processing, 
develop initiatives to strengthen the security of the passport process, 
design a comprehensive management plan to mitigate any unauthorized 
access of passport records/applicant personal data, and develop well-
defined reporting procedures should an authorized access occur. Our 
fundamental goal is a more secure system that will provide equal and 
effective safeguards to all passport applicants' records, and in which 
all Americans can have confidence that their data will be appropriately 
safeguarded.
    The Department has implemented several short-term measures 
including adding more than 1,000 names of high-profile individuals into 
the passport records monitoring system, initiating random audits of the 
passport records database, and implementing revised standard operating 
procedures for reporting incidents of unauthorized access.
    Over the next 90 days, the Department's Vulnerabilities Working 
Group will focus on the following initiatives:

  <bullet> Standard operating procedures and criteria on updating, 
        auditing, and maintaining the Monitor List.
  <bullet> Simple technology enhancements to the Monitor List program 
        and the Passport Information Electronic Records System (PIERS).
  <bullet> Study of best practices at other agencies and businesses.
  <bullet> Vulnerability assessments on all databases and tools.
  <bullet> Track/create historical file of incidents of unauthorized 
        access.
  <bullet> Finalize random audit program.
  <bullet> Standardize disciplinary procedures for unauthorized access.
  <bullet> Review of organizational structure, duties, and 
        responsibilities for monitoring of unauthorized access.

    Question. How many contractors or contract employees were employed 
as of October 1, 2007? How does that compare to 5 years ago 
(approximate figures are sufficient to answer this question)? Do you 
believe the Bureau of Consular Affairs has become too reliant on 
contractors or contract employees to perform its key functions?

    Answer. As of October 1, 2007, the Bureau of Consular Affairs 
employed 4,083 contractors. Of that number, 1,605 were dedicated to 
passport services, 868 to IT development and support, 526 to visa 
services, 210 at our Kentucky Consular Center performing a range of 
services, 836 passport call center employees at the National Passport 
Information Center, and 38 assisted with American Citizen Services and 
administrative functions. The total number is approximately double what 
it was 5 years ago.
    I do not believe the Bureau of Consular Affairs has become too 
reliant on contractors or contract employees to perform its key 
functions. All key policy and management positions are filled by U.S. 
Government employees, all ``core government functions,'' such as 
adjudicating passport and visa applications, are performed by permanent 
United States Government employees. Contract employees tend to perform 
administrative and clerical tasks that, while invaluable to 
accomplishing our mission, are under the direction and oversight of 
Government employees. Hiring contractors allows a certain amount of 
flexibility to respond quickly to changing needs, whether a surge or a 
decline in demand for services.

    Question. The Hague Convention on Intercountry Adoption entered 
into force on April 1. Of the U.S. agencies that have applied for 
accreditation, how many await a decision by the Council on 
Accreditation? By what means is the Department overseeing the 
accreditation process? How transparent is this process intended to be?

    Answer. As of April 30, 325 adoption service providers have applied 
to the Council on Accreditation for Hague Convention accreditation or 
approval. According to the records of the Council on Accreditation, 65 
applicants are in process at this time. Applications are now submitted 
and completed on a rolling basis.
    Title II of the Intercountry Adoption Act of 2000 gives the 
Department-designated accrediting entities (AEs) the responsibility for 
accreditation or approval and oversight of adoption service providers 
working on Hague Convention cases (IAA, Sec. 202(b)). The Department is 
required to monitor the performance by each AE and its compliance with 
the Convention, the IAA and other relevant laws and regulations (IAA, 
Sec. 204(a)).
    As required by the IAA, the Department drafted and published 
regulations setting the standards and procedures to be used by the 
accrediting entities for the accreditation of agencies and the approval 
of persons to provide adoption services in the United States in 
Convention cases (IAA, Sec. 203(a)(1)). The Bureau of Consular Affairs' 
Office of Children's Issues, which performs the day to day 
responsibilities of the U.S. Central Authority for the Convention, is 
in daily contact with the designated accrediting entities, the Council 
on Accreditation and the Colorado Department of Human Services. We 
provide clarification of standards and procedures. We also collect and 
convey to the AEs information on applicants received through our Hague 
Complaint registry, from our posts abroad and from other sources. We 
request and receive regular updates on the accreditation process. We 
participate in telephone conferences and Webinars with both AEs, and 
make regular visits to COA in New York.
    The process should be as transparent as possible. We have urged 
both AEs to focus on transparency and to communicate specific issues to 
applicant agencies. With regard to issues related to specific 
applications, we ask agencies to contact their AE directly. We are 
aware that this initial accreditation phase has been a difficult 
process for some; COA received more than 300 applications, almost 
double the number anticipated. The workload has been difficult. We 
believe that the accreditation process will improve as the AEs become 
more familiar with the process and applications and renewals are 
staggered over time.
    Hague accreditation should be seen as the United States Government 
``stamp of approval'' for U.S. adoption service providers providing 
adoption services in a Convention case. In light of this, we have asked 
the AEs to take the time necessary to review each applicant to ensure 
that it is in substantial compliance with applicable standards. It is 
important to ensure that adoption service providers that have been 
found to be not in compliance with mandatory standards are not 
accredited until they have established credibility and a track record 
of compliance. The Department is committed to the integrity of the 
process established by the IAA.

    Question. Under the Homeland Security Act of 2002, which created 
the Department of Homeland Security, responsibility for regulatory 
authority involving the Immigration and Nationality Act rests with the 
Department of Homeland Security (DHS), but State Department consular 
officers in embassies and consulates around the world implement those 
policies, although DHS also has offices overseas for the purpose of 
immigrant visa work. It has been over 5 years since the creation of 
DHS, and both State and DHS have been given many new security mandates. 
You have seen it from the perspective of an ambassador and a senior 
officer in the Bureau of Consular Affairs. How is the relationship 
working between your bureau and DHS? What measures need to be taken--by 
you or your counterparts at DHS--to strengthen the relationship?

    Answer. With the creation of the Department of Homeland Security 
(DHS), State and DHS now have shared responsibilities with regard to 
visas and border security. I was part of the team that negotiated a 
Memorandum of Understanding that established the respective roles and 
responsibilities of the two departments in visa policy. Over the past 5 
years, we have developed a cooperative relationship with DHS on many 
fronts--the Western Hemisphere Travel Initiative, implementing the 
Hague Convention on Intercountry Adoptions, and refugees, to name a 
few.
    In January 2006, Secretaries Rice and Chertoff launched an 
initiative to strengthen border security while facilitating 
international travel for legitimate visitors. As part of the Rice-
Chertoff ``Secure Borders, Open Doors'' Joint Vision, State and DHS 
work closely to:

  <bullet> Renew America's welcome to foreign travelers with improved 
        technology and efficiency. This includes further improving visa 
        processing and creating ``model ports of entry'' that foster a 
        more welcoming environment for foreign visitors.
  <bullet> Develop secure travel documents for the 21st century, 
        including our electronic passports and a secure, inexpensive 
        alternative--the passport card--to meet the needs of border 
        communities.
  <bullet> Improve interagency and international coordination and 
        information sharing to enable smarter screening of 
        international travelers.

    State works closely with DHS on the deployment of the Visa Security 
Program, the goal of which is to push out the boundaries of the United 
States and to ensure that only qualified applicants receive visas. 
Posts in more than 10 countries currently have Visa Security Units, and 
we plan to open other units later this year. The DHS/ICE Special Agents 
serving in the Visa Security Units have established positive working 
relationships with consular officers, for example by providing DHS 
training for consular officers in interviewing techniques, fraudulent 
document awareness, and terrorist travel tradecraft.
    The creation of DHS was the largest restructuring of the executive 
branch since the Department of Defense was established in 1947-1949. 
While there are still some growing pains, we are committed to working 
with our partners in DHS to ensure that we together deliver to the 
American people the border security program they deserve.

    Question. After the attacks of 9/11, we understandably took a 
number of steps to tighten security, including in the issuance of 
visas. There has been concern expressed by a number of voices--
universities, businesses, and the tourist industry--that the changes 
went too far. There are competing pressures on consular officers--to 
help secure the border, but to do so in a manner that does not disrupt 
legitimate commerce, education and tourism. The administration's own 
rhetoric--``secure borders, open doors''--reflects this dichotomy. How 
does the Department balance these competing pressures? How do you train 
and guide these officers who make hundreds of visa decisions every day?

    Answer. ``Secure borders, open doors'' is based on the principle 
that protecting our borders and welcoming legitimate travelers are not 
contradictory and can often be complementary and we can achieve both. 
In the aftermath of September 11, 2001, our challenge was to implement 
significant changes to visa practices more or less simultaneously. We 
worked hard to increase visa security measures, completely change the 
business model for processing visas, and vastly improve our 
communication with other agencies.
    As we implemented changes to the visa process in the early post-9/
11 years, there was a decline in visa application numbers and the 
number of visitors to the United States. There were many reasons for 
the decline, including some--such as the SARS crisis and changes in the 
world economy--that were beyond our control. But it's also true that 
there were delays in the processing of some visa applications.
    That is an outdated picture that is far from the current reality. 
We have invested in systems, staffing, training, and coordination with 
our U.S. Government partners to ensure that America's welcome to 
foreign visitors begins with a secure, transparent, and accessible visa 
process. We have instituted appointment systems, modern queuing 
systems, Web sites and consular information lines. We reach out to 
students and businesses to explain the visa process and we allocate 
extra appointments for time-sensitive visas. In most countries, we have 
reduced wait times for visa appointments. We use technology and 
training to work smarter, to move qualified applicants faster and 
identify cases of concern earlier.
    The results are impressive and visa interviews have never been more 
secure. In fiscal year 2007 we issued over 6.4 million nonimmigrant 
visas. That is the highest figure since 9/11. We issued 651,000 student 
and exchange visitor visas last year, up 10.2 percent compared to the 
same period last year. That is an all-time high, and surpasses the 
figures from before 9/11. Since 9/11, we have seen visa demand grow in 
every region of the world. In China, for example, the number of 
nonimmigrant visa applications went from 320,000 in fiscal year 2003, 
to 544,000 in fiscal year 2007, an increase of 70 percent; in India, 
during that same period, the numbers went from 400,000 to 725,000, an 
increase of more than 80 percent. Department of Commerce figures 
released last December indicate international arrivals were up about 10 
percent in 2007.
    We have invested heavily in ensuring that our interviewing officers 
have the training and tools to make excellent decisions. Diplomats are 
well suited to visa adjudication. Making decisions about visa 
eligibility under immigration law obviously requires knowledge of the 
laws and procedures, but just as importantly, the adjudicator must 
apply those laws to each applicant, keeping in mind the applicant's 
qualifications, the country's political and economic conditions and 
cultural background. The interviewing officer must be able to 
communicate clearly and effectively in the applicant's language, both 
to assess eligibility and to communicate the decision.
    Entry level Foreign Service officers, all of whom are required to 
have at least one consular tour, are chosen through one of the most 
competitive selection processes in either the U.S. Government or 
private sector. They enter the Foreign Service from a wide variety of 
backgrounds and bring with them an entire spectrum of skills and 
abilities. All consular officers must pass a rigorous 31-day basic 
consular training course before arriving at post. This training covers 
the legal and procedural aspects of consular work, reinforced with over 
35 mock interviews where each officer must interview an applicant for a 
visa, make a decision based on immigration law, and communicate that 
decision clearly to the applicant. As part of this training, our new 
officers also receive a 4-day course on consular interviewing 
techniques where they are taught the best way to build rapport, gather 
information, and make a decision. The course includes briefings and 
hands-on analysis of documents to help officers distinguish between 
genuine supporting documentation and those that have been altered or 
counterfeited. Classified sessions at the CIA cover terrorist travel 
trends and terrorist indicators.
    We also provide numerous technological and management safeguards 
throughout the visa process. Every applicant undergoes security checks 
before a visa can be issued. Our system automatically runs a name-based 
check in a database with more than 20 million entries. These entries 
include State Department information, FBI files, immigration 
violations, and intelligence from other agencies. We also collect 10-
print fingerprints from almost all applicants, which are checked 
against our database to detect imposters, criminals, and terrorist, as 
well as the DHS fingerprint database, and are verified by DHS at the 
port of entry. Certain categories of applicants also are screened in a 
facial recognition program, which checks their photo against our 
consular database. Applicants may undergo additional security screening 
if they are from certain countries, have technical expertise of concern 
to the United States or if our database indicates a match. In addition, 
supervisors are required to review a randomly selected group of the 
issuances and refusals of each officer, which always include any 
issuances over a permanent ineligibility category, to ensure decisions 
were made within the law.
    The Department recognizes that potential terrorists may not 
necessarily be detectable through documents. Some may attempt to 
travel, or apply for visas, using genuine passports without any 
terrorist indicators. However, such an applicant is vulnerable to 
betraying signs of deception or revealing a back story that is 
inconsistent during a face-to-face interview with a consular officer, 
resulting in a determination of ineligibility or paving the way for a 
more detailed follow-up interview that often unmasks mala fide visa 
seekers.
    The Department uses a variety of additional training courses beyond 
the basic consular course to keep consular officers current and to 
enhance their ability to conduct effective interviews and detect, 
intercept, and disrupt terrorist travel. We know that our officers are 
on the front lines of diplomacy as well as national security, and we 
feel both are equally important.


                              NOMINATIONS

                              ----------                              


                         THURSDAY, MAY 1, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Beecroft, Robert Stephen, to be Ambassador to Jordan
Cunningham, James, to be Ambassador to Israel
Hoagland, Richard, to be Ambassador to the Republic of 
        Kazakhstan
LeBaron, Joseph Evan, to be Ambassador to Qatar
                              ----------                              

    The committee met, pursuant to notice, at 2:40 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
presiding.
    Present: Senators Kerry, Lugar, Coleman, and Voinovich.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you very much for coming to order.
    This hearing on the four important nominations for 
ambassadorships is now open, and I apologize for starting a few 
minutes late. Thank you for being here.
    I should apologize also for the hiatus of 2 days. We had an 
emergency in terms of scheduling, and I really appreciate 
everybody's understanding. I presume you understood. 
[Laughter.]
    I am delighted to be here with my ranking colleague, 
Senator Coleman, and we both welcome you, and Senator Voinovich 
also.
    It is really excellent, the best moments of sitting on this 
committee when we get to have confirmation hearings is when we 
get a group of professionals in front of us who have 
distinguished careers. And each and every one of you brings 
that to the table.
    This is just a process by which we can examine your 
thoughts about the countries and regions that you are being 
charged with the responsibilities for, and we will certainly 
try to expedite these nominations as rapidly as we can. I am 
confident that will be pretty rapid in the next days.
    So, having taken the edge off all of your testimony, I 
gather a number of you have family here. Let me just make a few 
opening comments, and then we would love to have you introduce 
your family. And then we look forward to your statements.
    First of all, we have James Cunningham, the nominee to be 
ambassador to Israel, whose distinguished career includes 
postings in Italy, the United States mission to NATO, the U.N., 
and most recently, as consul general in Hong Kong.
    Robert Stephen Beecroft, the nominee to be ambassador to 
Jordan, served in the State Department as executive assistant 
to Secretaries Rice and Powell. Before that, he was posted to 
Syria and Saudi Arabia and brings extensive experience in the 
region.
    Ambassador Joseph Evan LeBaron, nominee to be ambassador to 
Qatar, comes to us after serving as ambassador of Mauritania 
and has had several other postings in the region, including 
Istanbul, Amman, Ankara, and Doha.
    Ambassador Richard Hoagland, the nominee to be ambassador 
to the Republic of Kazakhstan, has previously served as 
ambassador to Tajikistan. And before that, Ambassador Hoagland 
served in Russia, Uzbekistan, Pakistan twice, and in 
Afghanistan.
    These are all significant positions that you have been 
nominated for. Our relationships with each of these countries--
Israel, Jordan, Qatar, and Kazakhstan--offer enormous 
opportunities and very real challenges. I just met a moment ago 
with Wali Khan from Pakistan, who led a successful effort to 
win seats in the FATA area in Pakistan and beat back the 
religious parties, which was a surprise to a lot of people. So 
it is a very interesting development.
    And yesterday, I met with the foreign minister from Jordan, 
where we have a terrific relationship and a lot of ongoing 
issues, obviously.
    Over the past six decades, there is no one on this 
committee who needs to be reminded of the special nature of our 
relationship with Israel, based on any number of different 
values--shared history, culture, political, and strategic 
interests. And those connections extend well beyond our 
governments, as we know.
    In my numerous trips there in the last 24 years, I have had 
the pleasure of gaining an even deeper respect and affection 
for that relationship, and I think it is known throughout the 
world that the United States is never going to waver in that 
commitment.
    But Israel faces grave threats. Hezbollah is stronger. 
Hamas is stronger in many ways and has complicated the issues 
of the peace process. And so, there are tens of thousands of 
people in Israel, southern Israel, living under constant threat 
of rocket attack. And I might say I think were it us or any 
other country under similar circumstances, they might not have 
exercised as much restraint as the leadership in Israel has.
    Needless to say, it is vitally important at this moment to 
continue forward in the peace process and to work toward that 
agreement. We all understand the goal--two States living side-
by-side in peace and security. Getting there is the hard part. 
We came so close at Taba a few years ago. The framework, I 
think most people who study it understand, it is the getting 
from A to that framework that is critical.
    I might add that in the visits I have made there, it is my 
judgment that the administration has too long been sitting on 
the sidelines in that effort. That began to change for the 
better with the Annapolis conference.
    But I can remember meeting with President Abbas in Ramallah 
3 years ago, when he was first elected, and listening to him 
express his knowledge that he knew what we needed to do--what 
he needed to do, which was disarm Hamas. But then he asked me 
the pregnant question, ``You tell me how I am supposed to do 
that,'' and pointed to the lack of radios, cars, police, basic 
Politics 101, when measured against Hamas and their ability to 
deliver in the street.
    So I think that there is much time to make up for here, and 
last week we met with President Abbas when he was here. And I 
think it is important for the administration and Congress to 
work together to forward that.
    Next door, the United States has a very strong and growing 
partnership with Jordan, undoubtedly one of our most important 
allies in the Middle East. And Jordan's contributions in the 
fight against terrorism in Iraq and the Middle East peace 
process have really been quite extraordinary.
    King Abdullah was an early and visionary voice in warning 
of the dangers of three civil wars in Iraq, Lebanon, and the 
Palestinian territories. He has been indefatigable in his 
support of the post Annapolis negotiations, consistently 
encouraging the President and the Israelis and the Palestinians 
with a sense of urgency, and we are grateful for that and have 
enormous respect for those efforts.
    And Jordan's efforts to bolster the Abbas government are 
key to countering the influence of Hamas in laying any 
groundwork for a lasting peace. So continuing that relationship 
is one of our principal goals.
    The war in Iraq, I might add, has exacted a very heavy toll 
on Jordan, and all of us are concerned about some 400,000, 
500,000 Iraqis living in Jordan. The foreign minister and the 
ambassador this week underscored their request for $500 million 
in additional supplemental funds, which includes assistance for 
displaced Iraqis in Jordan, and I look forward to hearing from 
Mr. Beecroft sort of where we are heading on that.
    The United States also counts on Qatar as an important 
partner in counterterrorism efforts and host to major United 
States military facilities. So we look forward to hearing how 
we are coordinating our security cooperation, and what could be 
done to strengthen regional organizations like the Gulf 
Cooperation Council.
    At the same time, there have been some concerns the Qatari 
citizens may have provided support to al-Qaeda. Fatah officials 
affiliated with Palestinian President Mahmoud Abbas publicly 
asserted that the Qataris have provided financial assistance to 
Hamas.
    In 2003, the Qataris approved a new constitution giving 
women the right to vote and run for office through elections 
for the advisory council, but they have still not been held.
    Despite those and other reforms, the State Department found 
that ``serious problems'' remained in Qatar's human rights 
record, and Qatar is 1 of only 16 Tier 3 human trafficking 
countries, meaning that it has neither implemented minimal 
trafficking standards nor made significant efforts to do so. 
And I hope you can discuss today sort of what we can expect 
with respect to those issues.
    And finally, Kazakhstan is a key partner--Sacha Baron Cohen 
notwithstanding--a key partner on issues including combating 
extremism, proliferation, and human trafficking. And it is also 
obviously a very important petroleum producer. Very persistent 
concerns linger over the human rights issues, including the 
government's treatment of prisoners, arbitrary arrests, 
limitations on freedoms of speech, assembly, and association.
    It is always tricky in a country in that part of the world 
when there are those kinds of interests--those kinds of issues 
balanced against a set of interests that are compelling in 
their strategic importance to us. And working through those 
things is the art of diplomacy, and we look forward to hearing 
thoughts about how that will work, particularly given the fact 
that Kazakhstan is slated to take over the chairmanship of the 
Organization for Security and Cooperation in Europe in 2010.
    So, Ambassador Hoagland, we look forward to hearing from 
you about the promised improvements in those areas, and we can 
have a good conversation today.
    So let me turn it over to Senator Coleman. When he is 
finished, I hope each of you will make an opening statement. I 
know you are all well schooled by the State Department. We 
listen to a 5-minute or so opening. Your full testimony will be 
placed in the record as if stated in full, and we look forward 
to a good conversation.

                STATEMENT OF HON. NORM COLEMAN,
                  U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you, Mr. Chairman.
    Mr. Chairman, I have a more in-depth opening statement. I 
would like to have that put in the record.
    Senator Kerry. Without objection, that is in the record.
    Senator Coleman. I appreciate that.
    Your opening statement touched on so many of the salient 
points. We do have before us a group of professionals with 
distinguished careers. It makes our job much easier. This would 
be a good opportunity to visit with them and kind of lay out 
some of the concerns, issues of great concern, and get their 
perspective.
    I would note to Ambassador Hoagland, who came before this 
committee as a nominee to ambassador of Romania and I was not 
able to support moving that forward, it had nothing to do with 
the distinguished career and service of the ambassador, and I 
really look forward to moving this nomination forward.
    I do appreciate all of the gentlemen here. I really 
appreciate the quality of your service, and you are willing to 
take on some tough challenges. All of these nominees are 
nominees to countries which are important to this country. They 
have been friends. They have been allies. They are of strategic 
importance in an area of the world in which there is great 
danger today.
    Earlier today, I participated in a Holocaust memorial 
service. It is the 70th anniversary of Kristallnacht, and our 
relationship with Israel transcends current-day issues. It goes 
way beyond that.
    These are, I think, the most challenging times. The threat 
of Iran getting a nuclear weapon, how do we handle that? 
Rockets being launched on an almost daily basis into Israel 
from Gaza. How do we move forward in other areas without 
resolving that? So there are areas of deep concern.
    King Abdullah in Jordan has been an incredible leader, a 
unifying force in, again, an area that is of the greatest 
importance to us. And Jordan now is facing, as the chairman has 
noted, challenges--Iraqi refugees. Jordan in the past has dealt 
with Palestinian refugees, now Iraqi refugees, and what have we 
learned? And we have an interest in the stability and the 
economic security of Jordan. And so, I would be--look forward 
to visiting with the ambassador about that.
    And in terms of Qatar, a military partner, a leader in 
counterterrorism. Also, by the way, the home of Al Jazeera, and 
questions to be raised there in terms of what is their role and 
what is Qatar's role? And there have been, I have noticed, some 
developments vis-a-vis Al Jazeera and Saudi Arabia, which is 
kind of a lessening of some of the conflict there. And are 
there things that we can learn from that or things that can be 
done to work with our ally?
    And then, finally, in terms of Kazakhstan, this is a key 
partner in Nunn-Lugar cooperation in threat reduction. They are 
a key partner in reducing the threat of proliferation of 
nuclear weapons. I think that is the single-biggest threat, the 
threat of somebody getting a bomb and a nuclear bomb and using 
it. It transcends any of the dangers that we have faced in the 
past. There isn't margin of error for wrong choices.
    And so, we have before us distinguished professionals who 
are nominees to be ambassadors to important friends and allies 
in an area where the margin of error for the wrong choice and 
the wrong policy and the wrong judgment is very, very thin. And 
the consequences of wrong choices are pretty overwhelming.
    So there is a great responsibility. I simply end where I 
started in thanking these gentlemen for their commitment to 
service, for their distinguished careers, and I look forward to 
moving these nominations forward, Mr. Chairman.
    Senator Kerry. Thank you very much, Senator Coleman.
    Why don't we begin? We will just sort of run down one side 
to the other. I think it is just easy. So do you want to begin?

STATEMENT OF ROBERT STEPHEN BEECROFT, NOMINEE TO BE AMBASSADOR 
               TO THE HASHEMITE KINGDOM OF JORDAN

    Mr. Beecroft. Sure, happy to, sir.
    Mr. Chairman, members of the committee, it is an honor to 
appear before you today as President Bush's nominee to serve as 
ambassador to Jordan. I am grateful to the President and to 
Secretary Rice for the confidence they have placed in me. If 
confirmed, I will do my best to live up to their trust and to 
work as closely as possible with this committee to carry out my 
responsibilities.
    With your permission, Mr. Chairman, I would like to begin 
by expressing appreciation for my family. My wife, Anne, my 
children, Blythe, Warren, Sterling, and Grace, are here with me 
today. It is my family's support and sacrifice that has, more 
than anything else, helped me to carry out my responsibilities 
as a Foreign Service officer.
    Mr. Chairman, we have no closer friend or ally in the Arab 
world than Jordan. In the Middle East and around the world, 
Jordan work closely and constructively with us to promote peace 
and security and to fight terrorism. At home, it is engaged 
with the sometimes difficult and complicated task of reform, a 
process that we actively support and encourage.
    There is no more telling example of Jordan's positive 
efforts in the region than its close cooperation with us to 
help realize a two-State solution to the Israeli-Palestinian 
conflict. As one of only two Arab states to sign a peace accord 
with Israel, Jordan is committed to the roadmap and is tangibly 
supporting the process, including by providing such things as 
police training for Palestinian security forces.
    With Iraq, Jordan is actively involved on the humanitarian 
front, taking in hundreds of thousands of Iraqi refugees. It 
has increasingly taken steps to ensure the dignity and well 
being of those refugees, opening its schools and hospitals to 
them, working with the international community to provide 
assistance, and facilitating our own refugee admissions 
program.
    Jordan is also working with us and the Iraqi Government to 
increase security. It has, for example, hosted over 54,000 
Iraqi police officers for training.
    Outside its immediate region, Jordan was at the forefront 
of publicly supporting our efforts in Afghanistan, where it has 
deployed a field hospital and a demining unit. Jordan has also 
become a leading troop contributor to U.N. peacekeeping 
operations worldwide, having sent military and police personnel 
to places such as Haiti, Cote D'Ivoire, and Darfur.
    Jordan has also begun pursuing reform at home. For example, 
in 2006, the government rolled out a 10-year roadmap for 
economic and political development. It then took a step forward 
by allowing Jordanian monitors to observe its 2007 
parliamentary elections.
    Through our assistance programs, we are supporting Jordan's 
reform agenda. We are, however, also engaged with its 
government and its people to encourage broader democratic 
development. Our efforts include work to expand citizen 
participation in the country's political and economic systems, 
strengthen independent media, the judicial system, and the 
rights of women and laborers, and increase religious tolerance.
    If confirmed, I will work diligently with the Jordanian 
Government and people to pursue our democratic reform, 
development, and security goals and to strengthen the bilateral 
relationship. I will also work to ensure that all of our 
assistance effectively and efficiently advances those goals.
    I appreciate and value this committee's oversight of our 
mission in Jordan. If confirmed, I look forward to welcoming 
the committee's members and staff to Amman. Your presence and 
interest are a vital element in ensuring that we remain 
productively and successfully engaged for the Government and 
the people of Jordan.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Beecroft follows:]

             Prepared Statement of Robert Stephen Beecroft

    Mr. Chairman, members of the committee, it is an honor to appear 
before you today as President Bush's nominee to serve as ambassador to 
Jordan. I am grateful to the President and Secretary Rice for the 
confidence they have placed in me. If confirmed, I will do my best to 
live up to their trust and to work as closely as possible with this 
committee to carry out my responsibilities.
    With your permission, Mr. Chairman, I would like to begin by 
expressing appreciation for my family. My wife, Anne, and my daughters, 
Blythe and Grace, are here with me today. My two sons are unable to be 
here because of school obligations. It is my family's support and 
sacrifice that has, more than anything, helped me carry out my 
responsibilities as a Foreign Service officer.
    Mr. Chairman, we have no closer friend or ally in the Arab world 
than Jordan. In the Middle East and around the world, Jordan works 
closely and constructively with us to promote peace and security and to 
fight terrorism. At home, it is engaged with the sometimes difficult 
and complicated task of reform, a process that we actively support and 
encourage.
    There is no more telling example of Jordan's positive efforts in 
the region than its close cooperation with us to help realize a two-
state solution to the Israeli-Palestinian conflict. As one of only two 
Arab states to sign a peace accord with Israel, Jordan is committed to 
the roadmap and is tangibly supporting the process, including by 
providing police training for Palestinian security forces.
    With Iraq, Jordan is actively involved on the humanitarian front, 
taking in hundreds of thousands of Iraqi refugees. It has increasingly 
taken steps to ensure the dignity and well-being of those refugees, 
opening its schools and hospitals to them, working with the 
international community to provide assistance, and facilitating our own 
refugee admissions program. Jordan is also working with us and the 
Iraqi Government to increase security. It has, for example, hosted over 
54,000 Iraqi police officers for training.
    Outside its immediate region, Jordan was at the forefront in 
publicly supporting our efforts in Afghanistan, where it has deployed a 
field hospital and a demining unit. Jordan has also become a leading 
troop contributor to U.N. peacekeeping operations worldwide, having 
sent military and police personnel to Haiti, Cote d'Ivoire, and Darfur, 
among other places.
    Jordan has also begun pursuing reform at home. For example, in 
2006, the government rolled out a 10-year roadmap for economic and 
political development. It then took a step forward by allowing 
Jordanian monitors to observe its 2007 parliamentary elections. Through 
our assistance programs, we are supporting Jordan's reform agenda. We 
are, however, also engaged with its government and its people to 
encourage broader democratic development. Our efforts include work to 
expand citizen participation in the country's political and economic 
systems; strengthen independent media, the judicial system, and the 
rights of women and laborers; and increase religious tolerance.
    If confirmed, I will work diligently with the Jordanian Government 
and people to pursue our democratic reform, development, and security 
goals and to strengthen the bilateral relationship. I will also work to 
ensure that all of our assistance effectively and efficiently advances 
those goals.
    I appreciate and value this committee's oversight of our mission in 
Jordan. If confirmed, I look forward to welcoming the committee's 
members and staff to Amman. Your presence and interest are a vital 
element in ensuring that we remain productively and successfully 
engaged with the Government and people of Jordan.
    Thank you.

    Senator Kerry. Thank you very much, Mr. Beecroft.
    We have been joined by the ranking member of the full 
committee. Senator Lugar, do you have any opening comment you 
want to make?
    Thank you very much.
    We will turn then to your testimony, Mr. Cunningham. I 
begin by noting you had the good sense to be born in Allentown, 
PA. My wife is thrilled. [Laughter.]

STATEMENT OF HON. JAMES B. CUNNINGHAM, NOMINEE TO BE AMBASSADOR 
                     TO THE STATE OF ISRAEL

    Ambassador Cunningham. Thank you for that, Mr. Chairman, 
members of the committee.
    It is an honor to appear before you as President Bush's 
nominee to become the United States next ambassador to Israel. 
I thank the President and Secretary Rice for the trust they 
have placed in me, and I look forward, if confirmed by the 
Senate, to working very closely with this committee and with 
the Congress.
    Unfortunately, my wife, Leslie, and our two daughters, Emma 
and Abigail, could not be here today. But I do want to thank 
them, and particularly my wife, for their support.
    Mr. Chairman, I am truly honored, as I may have the 
opportunity to serve our Nation in Israel at this particular 
time. We have always had a special relationship with Israel, 
stretching back to its founding 60 years ago. Over those six 
decades, we have forged a bond based on historic, personal, and 
cultural ties, on mutual interest and shared values, and on a 
record of together confronting difficult issues.
    We have a vibrant and growing economic relationship, which 
I look forward to building on. Israel has been a close partner 
in combating terrorism and extremist violence, especially over 
the past 7 years. And the United States has always been a 
stalwart advocate of Israel's security, a result of the 
exceptional support Israel enjoys in this country. That will, I 
am confident, continue to be the case. Our interests in Israel 
are strategic and enduring.
    This past August, the United States and Israel signed a 
memorandum of understanding that will underpin our security 
relationship through 2018. The arrangement calls for $30 
billion to be provided over 10 years, subject to congressional 
approval of the yearly appropriation. This will allow Israel to 
maintain its qualitative military edge and to strengthen its 
ability to defend against terrorism.
    A strong partnership with a secure Israel is at the core of 
our goals in the Middle East. The President has now undertaken 
a new initiative to promote progress along the roadmap and the 
realization of his vision of a two-State solution. At 
Annapolis, President Bush and Secretary Rice brought together 
Prime Minister Olmert, Palestinian President Abbas, Foreign 
Minister Livni, Prime Minister Fayyad, and leaders from nearly 
50 other nations.
    The decision by Prime Minister Olmert and President Abbas 
to launch negotiations on core permanent status issues with the 
aim of agreement by the end of this year is a significant 
achievement. The parties are meeting regularly, and there is 
underway now a structured process.
    While this process will not be easy, there is now a way 
ahead to reach an agreement that will break the history of 
conflict between Israel and the Palestinians and pave the way 
for two states to live side-by-side in peace and security.
    The President traveled to Israel and the Palestinian 
territories in January. Secretary Rice will be there again this 
week for the latest in what have become nearly monthly trips to 
the region. Just last week, both King Abdullah and President 
Abbas were in Washington. We continue our efforts through the 
quartet and through the mandates of General Dayton, General 
Jones, and General Fraser to solve problems and monitor the 
parties' adherence to roadmap commitments.
    If I am confirmed, my highest priority will be to 
contribute to the strongest possible relationship with Israel 
and to help make the goal of peace and stability among the 
peoples of Israel and their neighbors a reality.
    Mr. Chairman, for more than 30 years, I have tried to 
advance America's interests, to enhance America's security, and 
to promote our bilateral and multilateral relationships. I have 
spent much of that time working with regions in conflict, 
societies in transition, and people trying to move beyond their 
histories in search of a better future.
    In 5 years as ambassador to the U.N. in New York, I learned 
a great deal about the dynamics and pain of this troubled 
region so vital to U.S. interests. I think no one 
underestimates the difficulty of reaching the goals we have set 
for ourselves.
    I am both a realist and an optimist, and I am thrilled that 
the President and Secretary Rice have offered me the prospect 
of being part of this historic endeavor. If confirmed, I will 
do everything I can to support their efforts.
    Thank you.
    [The prepared statement of Ambassador Cunningham follows:]

    Prepared Statement of Hon. James. B. Cunningham, Nominee to be 
                   Ambassador to the State of Israel

    Mr. Chairman and distinguished members of the committee, it is an 
honor to appear before you as President Bush's nominee to become the 
United States next ambassador to Israel. I thank the President and 
Secretary Rice for the trust they have placed in me. I look forward, if 
confirmed by the Senate, to working closely with the Congress to 
advance our interests in the region. I will welcome frequent 
opportunities to consult with you, and I encourage you to visit often.
    I would like to begin by noting that unfortunately, my wife, 
Leslie, and our two daughters, Emma and Abigail, could not be here 
today. I want to thank them, and particularly my wife, for their 
support, and for the important contributions they themselves have made 
to the pursuit of America's interests over the course of my career.
    Mr. Chairman, I am truly honored that I may have the opportunity to 
serve our Nation in Israel at this particular time in history. We have 
always had close and special relationship with Israel, stretching back 
to Israel's founding 60 years ago. Over those six decades, as our 
friendship with Israel has grown stronger, we have forged a bond based 
on historic, personal, and cultural ties, on mutual interests and 
shared values, and on a record of together confronting difficult issues 
of consequence to both our nations. Over the course of our 
relationship, and especially over the last 7 years, Israel has been a 
close partner in combating terrorism. And the United States has always 
been a stalwart advocate of Israel's security, a result of the 
exceptional support Israel enjoys in this country--among the American 
public, from the 11 American administrations that have held office 
since Israel's founding, and from Congress. That will, I am confident, 
continue to be the case. Our interests in Israel are strategic, and 
enduring.
    This past August, the United States and Israel signed a memorandum 
of understanding that will underpin our security relationship through 
2018. The arrangement calls for $30 billion to be provided over 10 
years, subject to Congressional approval of yearly appropriations. This 
will allow Israel to maintain its qualitative military edge and to 
strengthen its ability to defend itself against terrorism. This is 
essential for Israel to maintain its vibrant, successful, and 
entrepreneurial society.
    A strong partnership with a secure Israel is at the core of our 
goals in the Middle East. The President has now undertaken a new 
initiative to promote progress along the roadmap and the realization of 
the President's vision of a two-state solution. At Annapolis this past 
November, President Bush brought together Prime Minister Olmert, 
Palestinian President Abbas, Foreign Minister Livni, Prime Minister 
Fayyad, and leaders from nearly 50 other nations. The decision by Prime 
Minister Olmert and President Abbas to launch negotiations on core, 
permanent status issues, with the aim of reaching an agreement by the 
end of this year, is a significant achievement. The parties are meeting 
regularly and a structured process is now underway. While this process 
will not be easy, there is now a way ahead to reach an agreement that 
will break the history of conflict between Israel and the Palestinians 
and pave the way for two states to live side-by-side in peace and 
security.
    The priority the administration attaches to this effort is clear. 
The President traveled to Israel and the Palestinian territories in 
January and recently announced his intention to return in May. 
Secretary Rice will be there again this week for the latest in what 
have become nearly monthly trips to the region. Just last week both 
King Abdullah and President Abbas were in Washington. We continue our 
efforts through the quartet and through the mandates of General Dayton, 
General Jones, and General Fraser to solve problems and monitor the 
parties' adherence to roadmap commitments. If I am confirmed, I assure 
you that my highest priority will be to contribute to the strongest 
possible relationship with Israel, and to help make the goal of peace 
and security between the people of Israel and their neighbors a 
reality.
    I would also like to mention our economic relationship with Israel. 
2007 was a monumental year for Israel's economy, which maintained its 
robust expansion of the past 4 years in achieving annual growth rates 
over 5 percent. Unemployment was at its lowest level in a decade and 
the government deficit has not been lower since the mid-1980s. 2007 was 
also a critical year in United States-Israel economic relations. Trade 
between our countries increased by 12 percent and United States tourism 
in Israel reached the highest level ever. I look forward to building 
further upon these very positive trends in our economic relationship 
with Israel.
    Mr. Chairman, on a personal basis, for more than 30 years I have 
tried to advance America's interests, to enhance America's security, 
and to promote our bilateral and multilateral relationships. I spent 
significant portions of that time working with regions in conflict, 
societies in transition, and people trying to go beyond their histories 
in search of a better future. In 5 years as ambassador to the U.N. in 
New York, I learned a great deal about the dynamics and pain of this 
troubled region, so vital to U.S. interests. I do not think anyone 
underestimates the difficulty of reaching the goals we have set. I am 
both a realist, and an optimist, thrilled that the President and 
Secretary Rice have offered me the prospect of being part of this 
historic endeavor. If confirmed, I will do everything I can to support 
their efforts.

    Senator Kerry. Thank you very much, sir.
    Ambassador Hoagland.

STATEMENT OF HON. RICHARD E. HOAGLAND, NOMINEE TO BE AMBASSADOR 
                 TO THE REPUBLIC OF KAZAKHSTAN

    Ambassador Hoagland. Mr. Chairman, members of the 
committee, thank you for this opportunity to appear before you 
today.
    I am deeply honored that President Bush and Secretary Rice 
have entrusted me with their confidence and nominated me for 
the post of ambassador of the United States to Kazakhstan.
    If confirmed by the Senate, I will work diligently and 
faithfully on behalf of the American people to pursue United 
States foreign policy goals and to deepen the strategic 
partnership between the United States and Kazakhstan. I look 
forward to working in close consultation with the Congress in 
pursuit of those goals.
    Before I go further, with your permission, may I recognize 
three people who have traveled to----
    Senator Kerry. Please, we invite you to do so. We were 
wondering who they belong to back there. [Laughter.]
    Ambassador Hoagland. Thank you, Mr. Chairman.
    First, I would like to recognize two dear friends, Mr. Igor 
Lanskoy and Vladimir Sadov, one who has traveled many thousand 
miles to be here today.
    I would also like to recognize Elizabeth Jones, former 
ambassador to Kazakhstan, former Assistant Secretary of State 
for Europe and Eurasia. And I especially want to thank her for 
her trust and support when she pushed me forward for my first 
ambassadorship. A very great lady, and I am grateful to her.
    Kazakhstan is an important partner for the United States. 
It is geographically strategic, ethnically diverse, resource 
rich, ninth-largest country in the world, roughly the size of 
Western Europe. Located at the crossroads of Europe and Asia 
and bordered by Russia, China, and the Caspian Sea, 
Kazakhstan's size, location, and resources make it key to 
regional stability.
    Kazakhstan's hydrocarbon reserves should rank it in the top 
10 oil producers in the world by 2015. Kazakhstan established 
its credentials for leadership immediately after its 
independence. It was the first country to renounce its nuclear 
weapons voluntarily after the breakup of the Soviet Union.
    Today, Kazakhstan is contributing to coalition efforts in 
Iraq, where it has deployed eight rotations of engineering 
troops since 2003. In addition, Kazakhstan is implementing 
almost $3 million in reconstruction for Afghanistan in 2008.
    Kazakhstan is a strong and reliable partner on 
nonproliferation. Through the Nunn-Lugar Cooperative Threat 
Reduction Program, Kazakhstan has cooperated extensively with 
the United States for over a decade to ensure that weapons of 
mass destruction-related materials and technical knowledge will 
not fall into terrorist hands.
    If confirmed, I would continue to promote the United 
States-Kazakhstan strategic partnership's three primary goals. 
First, we seek to advance democratic and market economic 
reforms. Second, our common security interests include 
bolstering Central Asian sovereignty and independence, fighting 
terrorism and the proliferation of weapons of mass destruction, 
and stemming narcotics trafficking. Third, we have a strategic 
interest in fostering the development of Central Asia's very 
significant energy resources. United States companies have 
recognized Kazakhstan's potential and are cooperating with 
Kazakhstan to develop its tremendous oil and gas resources.
    Mr. Chairman, we supported Kazakhstan to act as chairman in 
office of the Organization for Security and Cooperation in 
Europe for 2010. If I am confirmed, I will work with Kazakhstan 
to fulfill its commitments to that organization, to reform its 
election and media laws, to liberalize its political party 
registration requirements by the end of 2008.
    In addition, Kazakhstan pledged to preserve the current 
mandate of the Office for Democratic Institutions and Human 
Rights within the Organization for Security and Cooperation in 
Europe.
    Mr. Chairman, I have spent a large part of my career 
serving in countries of the former Soviet Union. The historic, 
cultural, and economic ties between Russia and Kazakhstan are 
strong, and no one disputes the value of those ties. However, 
we are gratified that Kazakhstan values its national 
independence and sovereignty and chooses its own multiple 
partners based on its own national interests. Kazakhstan is in 
no one's special sphere of influence.
    If confirmed, I will draw on my many years of experience in 
the region to ensure that the already-strong United States-
Kazakhstan partnership continues to grow and prosper. 
Kazakhstan is an important country with a promising future.
    Thank you.
    [The prepared statement of Ambassador Hoagland follows:]

     Prepared Statement of Hon. Richard E. Hoagland, Nominee to be 
                Ambassador to the Republic of Kazakhstan

    Mr. Chairman and members of the committee, thank you for this 
opportunity to appear before you today. I am deeply honored that 
President Bush and Secretary Rice have entrusted me with their 
confidence and nominated me for the post of ambassador of the United 
States to Kazakhstan. If confirmed by the Senate, I will work 
diligently and faithfully on behalf of the American people to pursue 
United States foreign policy goals and to deepen the strategic 
partnership between the United States and Kazakhstan. I look forward to 
working with the Congress in pursuit of those goals.
    Mr. Chairman, Central Asia is a region of significant importance to 
United States national interests. Recognizing the uniqueness of each of 
the five Central Asian nations and their sovereignty and independence, 
United States policy supports the development of fully sovereign, 
stable, democratic nations, integrated into the world economy and 
cooperating with one another, the United States, and our partners to 
advance regional security and stability. We do not view Kazakhstan or 
any other Central Asian nation as any external state's special sphere 
of influence; rather we seek to maintain mature bilateral relations 
with each country based on our foreign policy goals and each country's 
specific characteristics and dynamics.
    Kazakhstan is an important international partner. It is 
geographically strategic, ethnically diverse, and resource rich. It is 
the ninth largest country in the world, roughly the size of Western 
Europe. The population is 15.6 million, 59.2 percent Kazakh, 25.6 
percent Russian, with the remainder divided among many ethnic 
minorities. The largely secular population is 65 percent Muslim, 30 
percent Russian Orthodox, with the remainder divided among many smaller 
faiths. Located at the crossroads of Europe and Asia and bordered by 
Russia, China, and the Caspian Sea, Kazakhstan's size, location and 
resources make it strategically important and key to regional 
stability. Kazakhstan's hydrocarbon reserves should, by 2015, rank it 
as one of the top 10 world oil producers.
    Kazakhstan established its credentials for leadership early. It was 
the first country to renounce its nuclear weapons voluntarily after the 
break-up of the Soviet Union. Today, Kazakhstan is contributing to 
coalition efforts in Iraq. Kazakhstan has deployed eight rotations of 
engineering troops to Iraq, working on water purification and explosive 
ordnance disposal. To date, they have destroyed 4.5 million pieces of 
ordnance. Since 2001, Kazakhstan has provided cost-free over flights to 
over 6,000 U.S. military aircraft supporting Operation Enduring Freedom 
in Afghanistan. In addition, Kazakhstan announced almost $3 million in 
assistance for Afghanistan for 2008, which includes funds for food and 
seed and to build a hospital, road, and school. Kazakhstan has 
established a peacekeeping battalion and is working to ensure that unit 
is trained and equipped to be compatible with NATO forces. Following an 
intense debate within the Organization for Security and Cooperation in 
Europe, Kazakhstan was selected to be Chairman in Office of the 
organization in 2010, the first former-Soviet republic to achieve that 
goal.
    Kazakhstan is a key partner on nonproliferation. Through the Nunn-
Lugar Cooperative Threat Reduction program, Kazakhstan has cooperated 
extensively with the United States for over a decade on a host of 
projects to eliminate its Soviet-legacy weapons of mass destruction 
infrastructure, secure materials of proliferation concern, and redirect 
former weapons of mass destruction scientists to peaceful purposes. 
United States-Kazakhstan cooperation has ensured that weapons of mass 
destruction-related materials and technical knowledge will not fall 
into terrorist hands. Our bilateral Cooperative Threat Reduction 
agreement was extended for an additional 7 years on December 13, 2007, 
allowing programs and projects to continue uninterrupted.
    Recognizing Kazakhstan's important role in Central Asia, in 
September 2006, President Bush and Kazakhstan President Nazarbayev 
reaffirmed the strategic partnership between our two countries, 
declaring our commitment to a shared vision of stability, prosperity, 
and democratic reform in Central Asia and the broader region.
    If confirmed, I would continue to promote the United States-
Kazakhstan strategic partnership's three primary strategic interests. 
First, we seek to advance democratic and market economic reforms. 
Economic reform attracts and sustains foreign investment while 
democratic reforms will improve opportunities for Kazakhstanis to 
participate openly in civic life. Together these are the only reliable 
ways to establish long-term stability. Second, our common security 
interests include bolstering Central Asian sovereignty and 
independence; fighting terrorism and the proliferation of weapons of 
mass destruction; and stemming narcotics trafficking. Third, we have a 
strategic interest in fostering the development of Central Asia's very 
significant energy resources. The region's resources can substantially 
advance international energy security, provided they have a reliable 
path to global markets via multiple pipelines that avoid geographic 
chokepoints or transportation monopolies. Energy can also form the 
basis of long-term economic growth and prosperity. All three sets of 
interests--democratic development, security cooperation, economic 
reform and energy--are interrelated and must advance together.
    Economically, Kazakhstan has laid a solid foundation for its market 
economy and future prosperity. Financial reform has created a banking 
system comparable to those in Central Europe. Pension reform has 
created a fully funded pension system with $9.89 billion in assets. 
Kazakhstan's oil-driven economy has averaged 9.6 percent real growth 
over the past 3 years. Growth toward the end of 2007, however, slowed 
due to a tightening of credit largely related to global liquidity 
problems and the overvalued local real estate market. Growth in 2008 is 
predicted to be between 5 and 7 percent. Nonetheless, thanks to strong 
economic policies and oil wealth, Kazakhstan has dramatically reduced 
the percentage of its population living below the level of subsistence 
from 28.4 percent in 2001 to 13.8 percent in 2007.
    United States companies have recognized Kazakhstan's potential and 
are cooperating with Kazakhstan to develop its tremendous oil and gas 
resources. They hold major stakes in Kazakhstan's two largest oil and 
gas projects, Tengiz and Kashagan. Our companies do face some 
difficulties, including problems with the tax authorities and stiff 
environmental fines. Kazakhstan also passed legislation last year 
allowing it to terminate oil and gas contracts in the name of the 
country's national economic security interests, though President 
Nazarbayev stressed that the legislation would not be used 
retroactively against contracts already in place when the legislation 
went into effect. Despite these concerns, it is clear that our 
companies and the Government of Kazakhstan are committed to a long-term 
partnership in Kazakhstan's energy sector.
    Exchange programs are at the core of the United States-Kazakhstan 
strategic partnership. Academic, cultural, and professional exchanges 
are one of the most effective tools to promote the free exchange of 
information and ideas and to increase mutual understanding between 
citizens of the United States and Kazakhstan. Kazakhstani students 
study in the United States under the auspices of the Future Leaders 
Exchange, Hubert Humphrey Fellowship, Muskie Graduate Fellowship, and 
Fulbright Fellowship programs. Since 2005, Kazakhstan's Presidential 
Scholarship Program, ``Bolashak,'' has sent annually 3,000 plus 
students to universities in the United States and many other countries 
around the world.
    Democratic political institutions, civil society and the 
independent media remain underdeveloped in Kazakhstan; the presidency 
dominates the political system; and the parliament elected in 2007 has 
representation from only one political party--the President's. We 
regularly encourage the government to move forward by taking concrete 
steps toward reform, and we have assistance programs that promote 
democratic reform and the development of civil society and independent 
media.
    We supported Kazakhstan's candidacy to act as chairman in office of 
the Organization for Security and Cooperation in Europe, but 
recognizing its political reform trajectory, we asked Kazakhstan to 
delay its chairmanship from 2009 to 2010 so that it would have time to 
undertake several democratic reforms. If I am confirmed, I will work 
with Kazakhstan to prepare for its 2010 chairmanship and to fully meet 
the commitments it made to Organization for Security and Cooperation in 
Europe participating states when it accepted the chairmanship. 
Kazakhstan committed to work closely with the organization to reform 
its election and media laws, and liberalize its political party 
registration requirements by the end of 2008. It committed to reform 
the media law in line with recommendations from the Organization for 
Security and Cooperation in Europe's Freedom of Media Representative, 
which include, among others, to reduce criminal liability for 
defamation in the media and to liberalize registration procedures for 
media outlets.
    Kazakhstan has begun engaging the Organization for Security and 
Cooperation in Europe and civil society on the election and media laws, 
and we are continuing to monitor and encourage its progress. I will 
work with government and civil society partners alike to ensure that 
these reforms are implemented. In addition, Kazakhstan pledged to 
support and preserve the current mandate of the Office for Democratic 
Institutions and Human Rights within the Organization for Security and 
Cooperation in Europe, including the integrity of its election 
monitoring efforts. Our broader vision is for a strong, independent, 
and democratic Kazakhstan that is a leader and anchor of stability in 
the region. We believe Kazakhstan's service as chairman in office of 
the Organization for Security and Cooperation in Europe will help serve 
that broader vision.
    Mr. Chairman, I have spent a large part of my career serving in 
countries of the former Soviet Union. The historic ties between Russia 
and Kazakhstan are strong--Kazakhstan has the largest ethnic Russian 
population of the Central Asian republics. These historic, cultural, 
and economic ties with Russia are important to Kazakhstan. However, we 
are aware that Russia is often at odds with United States efforts to 
promote democracy and the sovereignty of the Central Asian republics. 
Kazakhstan values its national independence and chooses its own 
partners. Kazakhstan is in no one's sphere of influence. If confirmed, 
I will draw on my many years of experience in the region to work with 
the Government of Kazakhstan and to reach out to the people of 
Kazakhstan to ensure that the already strong United States-Kazakhstan 
partnership continues to grow and strengthen. Kazakhstan is an 
important country with a promising future.
    Thank you. I look forward to your questions.

    Senator Kerry. Thank you very much, Ambassador.
    Ambassador LeBaron.

STATEMENT OF HON. JOSEPH EVAN LeBARON, NOMINEE TO BE AMBASSADOR 
                     TO THE STATE OF QATAR

    Ambassador LeBaron. Mr. Chairman, members of the committee, 
it is a great privilege to appear before you today as the 
President's nominee to serve as United States ambassador to the 
state of Qatar. I am grateful to President Bush and Secretary 
Rice for the confidence they have placed in me.
    Unfortunately, my wife, Ellie, and my daughter, Petra, 
could not be here today. They are in Indiana right now, where 
my daughter is finishing her final exams at Indiana University 
in Bloomington. [Laughter.]
    Senator Kerry. Is she registered?
    Ambassador LeBaron. Hope so. I have been involved in the 
Middle East for over 35 years. That includes serving as 
ambassador to the Islamic Republic of Mauritania during that 
country's historic transition to free and fair elections. 
Confirmation by the Senate as United States ambassador to Qatar 
would be a special honor for me because I began my diplomatic 
career there. It was my first assignment.
    Qatar is a strategically located country right in the 
middle of the Gulf. We have many interests there. There are 
nearly 10,000 private United States citizens living in Qatar, 
and 200 more arrive every month. They are business 
representatives, their families, military contractors, 
university faculty, and medical professionals.
    There is a large United States military presence in Qatar, 
a presence deeply valued by both countries. This presence is 
enormously important. It plays a pivotal regional role in our 
efforts to stabilize Iraq, Afghanistan, and the Horn of Africa.
    Qatar's natural gas reserves, they are the third largest in 
the world after Russia and Iran. United States energy companies 
already have invested over $40 billion in Qatar's oil and gas 
sectors.
    Qatar is the world's largest exporter of liquid natural 
gas, LNG. And Qatar will become one of the largest suppliers of 
LNG next year to the United States, when a large LNG terminal 
in southwest Texas is completed.
    There are huge business opportunities in Qatar. Over the 
next 5 years, Qatar plans to spend billions of dollars on 
domestic infrastructure projects. If confirmed as ambassador, I 
will work closely with our Foreign Commercial Service to advise 
United States companies on business opportunities in Qatar and 
to advocate for United States companies.
    Qatar is the home of Al Jazeera, the influential satellite 
news service that broadcasts around the clock to the Middle 
East, North Africa, and elsewhere. Qatar can play a major role 
in helping us tell America's story to the millions of Arabs and 
Muslims who watch Al Jazeera.
    Qatar has been a friend to the United States. In 2006, 
Qatar provided over $70 million to help the victims of 
Hurricane Katrina. The aid included a $17 million grant to 
Xavier University, the only historical black Catholic 
university in the United States.
    Back at home in Qatar, Qatar is engaged in several 
important reforms, and we are helping. It is overhauling its 
primary and secondary educational system along a U.S. model. At 
the university level, Qatar has imported not just the United 
States model, but the United States universities themselves. 
There are now several well-known United States universities 
with branch campuses in Qatar. They include Georgetown, 
Carnegie-Mellon, Texas A&M, Virginia Commonwealth, 
Northwestern, and Cornell's medical school. And we think more 
will come.
    There is also some good news on Qatar's political 
development. Qatar has held successful elections three times 
for seats on the country's central municipal council, an 
important institution. And there are plans to hold elections 
for a national parliament, with the United States assisting 
through the Middle East partnership initiative.
    Amid all of this growth and development and good news, 
there are challenges, however. For example, there are hundreds 
of thousands of foreign workers in Qatar who too often live in 
poor conditions. They have few avenues of redress in employment 
disputes. If confirmed, I will continue the sharp focus of the 
United States on the plight of these workers.
    Another example, Qatar has a highly activist foreign policy 
that often involves issues of direct concern to the United 
States Government, issues such as Iran, Iraq, the Israeli-
Palestinian conflict, Lebanon, and Sudan. This regional 
activism sometimes requires intense diplomatic effort by the 
United States to ensure that Qatari and United States interests 
and approaches are compatible.
    That said, Israeli foreign minister Livni just paid an 
important official visit to Qatar just a few days ago. It was 
her first visit to an Arab state beyond Egypt and Jordan. Also, 
Israel has a trade office in Doha. The United States has been 
urging Arab States to take actions exactly such as these to 
improve Israeli-Arab ties and to further the peace process.
    Mr. Chairman, members of the committee, if confirmed by the 
Senate, I look forward to working closely with you, with the 
Congress to strengthen the partnership and to deepen the trust 
between Qatar and the United States.
    Thank you.
    [The prepared statement of Ambassador LeBaron follows:]

     Prepared Statement of Hon. Joseph Evan LeBaron, Nominee to be 
                    Ambassador to the State of Qatar

    Mr. Chairman and members of the committee, it is a great privilege 
to appear before you today as the President's nominee to serve as 
United States Ambassador to the state of Qatar. I am honored by the 
confidence that President Bush and Secretary Rice have placed in me.
    If confirmed by the Senate, I look forward to working with this 
committee, and with other Members of Congress, to strengthen the 
partnership between the United States and the state of Qatar and to 
advance the strategic objectives of the United States in the Gulf and 
in the broader Arab and Islamic worlds.
    I began my diplomatic career in Qatar. I am thrilled that, if 
confirmed, I will be returning there as ambassador. I have been 
involved in Middle Eastern affairs for over 35 years, including serving 
as United States ambassador to the Islamic Republic of Mauritania in 
2003-2006, during Mauritania's historic transition to free and fair 
elections. To serve now as the United States ambassador to the state of 
Qatar would be a special honor. If confirmed, I will do my utmost to 
forge personal and governmental ties with the Qatari people and with 
the Qatari Government in order to deepen the trust between our two 
countries and to expand the security and prosperity of our two 
countries.
    The country to which my wife and I would return looks very 
different from the place we left over 25 years ago. What was once a 
quiet corner of the Middle East is now a thriving and cosmopolitan 
society. It is one of the wealthiest countries in the world.
    It is also a place where the United States has many interests. Over 
9,000 private United States citizens now live in Qatar, and our embassy 
estimates that 200 more arrive each month. They include business 
representatives and their families, military contractors, university 
faculty, and medical professionals.
    This large influx of Americans has created a sharp increase in the 
demand for American Citizen Services last year--it was up nearly 30 
percent last year. The demand for visa services rose 70 percent between 
2006 and 2007, and it is continuing to increase at a similar pace this 
year. Everywhere I look in the relationship between Qatar and the 
United States, there is growth. From the burgeoning trade relationship, 
the new direct air service between Qatar and the United States, to the 
increase in American tourists to Qatar and the growing enrollments at 
United States universities.
    If confirmed as ambassador, I will work to ensure this growth 
continues, that the United States mission continues to meet the needs 
of our citizens in Qatar and to encourage Qataris and Qatar's many 
foreign residents to travel, study, and invest in America.
    There is, as well, a large United States military presence in 
Qatar, one that plays a critical role in our efforts to bring stability 
to Iraq, Afghanistan, and the Horn of Africa, and to confront al-Qaeda 
and its associated networks in the region. The United states-Qatari 
military relationship is extremely strong, deeply valued by both. 
Qatar's Al Udayd Air Base hosts the United States Air Force's 379th Air 
Expeditionary Wing as well as the Combined Air Operations Center. Over 
a billion dollars in construction projects is either planned or already 
underway at Al Udayd. More than 70 percent of that money comes from the 
Qatari Government.
    The U.S. mission plays an important role in advancing U.S. regional 
policy goals through the Gulf Security Dialog, and its interconnecting 
pillars on regional security, Iraq, defense cooperation, 
counterterrorism, counterproliferation, and critical energy 
infrastructure protection.
    Qatar hosts important United States military facilities, the 
CENTCOM Forward Headquarters, al-Udayd air base, and CENTCOM's Combined 
Air Operations Center. These bases are critical for United States 
military operations in Iraq and Afghanistan. The U.S. Mission plays a 
vital role in coordinating this relationship. The mission also 
participates in the planning for further development of U.S. 
installations through the Military Cooperative Committee. It is in 
daily contact with Qatar's armed forces. It consults frequently with 
senior U.S. military and civilian officials, as well as with visiting 
Members of Congress.
    United States strategic interests in Qatar include Qatar's critical 
and growing role in United States energy security. United States energy 
companies have invested over $40 billion in Qatar's oil and gas 
sectors. Qatar's natural gas reserves are the third largest in the 
world, after Russia and Iran. Qatar is already the world's largest 
exporter of liquefied natural gas. When the Golden Pass LNG terminal in 
southwest Texas is completed in 2009, Qatar will become one of the 
largest suppliers of imported LNG to our country, if not the largest.
    The income Qatar derives from oil and gas exports is very large, 
especially given the small size of Qatar's native population, just 
200,000 in a total population of about 1 million. Over the next 5 
years, the Qatari Government plans to spend billions of dollars on 
domestic infrastructure projects. Even with all that spending, the 
Qatari Government projects annual national budget surpluses in the tens 
of billions of dollars starting in 2010, as production from its gas 
fields increases.
    Clearly, Qatar presents immense opportunities for American 
businesses and investors. If confirmed as ambassador, working closely 
with Commerce Department and State Department offices, I will advocate 
aggressively for United States bidders on major Qatari Government 
tenders. I will work closely with the embassy's Commercial Service 
office to advise United States companies on developing business 
opportunities in Qatar and I will lead trade missions to the United 
States. I will support the U.S. defense industry, as appropriate, in 
the context of advancing our Nation's security objectives. Qatar's 
wealth also creates many opportunities for direct inward investment to 
the United States. If confirmed as ambassador, I will have a special 
responsibility to ensure that the United States is an attractive 
destination for Qatari investment, both private and official.
    In addition to its importance in military, energy, and commercial 
affairs, Qatar can play a pivotal role in helping the United States 
tell its story to the Arab and Muslim world. Qatar is the home of the 
Al Jazeera satellite television network, which broadcasts around-the-
clock in Arabic and English. If confirmed as ambassador, I intend to 
work closely not only with the Qatari media, but also with Al Jazeera 
to strengthen understanding of the United States and our policies among 
the millions of Arabs in Al Jazeera's audience.
    Transnational terrorism and the proliferation of weapons of mass 
destruction remain at the forefront of United States concerns in the 
Middle East. Qatar's strategic location and its plans to become a major 
transit point for people and cargo in the Middle East, Asia, and Africa 
will further increase the need for the United States to strengthen 
United States-Qatar collaboration on counterterrorism and 
counterproliferation efforts, including law enforcement and judicial 
cooperation, information sharing, and training.
    In the area of democratization and education, Qatar is using its 
wealth wisely by investing in important reforms. Qatar is completely 
overhauling its primary and secondary schools along a United States 
model of competitive charter schools. At the university level, Qatar 
has imported not just the American model, but the United States 
universities themselves. There are six well-known United States 
universities with branch campuses in Qatar: Georgetown, Carnegie-
Mellon, Texas A&M, Virginia Commonwealth, Weill-Cornell Medical School, 
and Northwestern. Even more will come.
    Qatar has been a friend of the United States. In 2006, Qatar 
provided $100 million to help the victims of Hurricane Katrina. The aid 
included a $17.5 million grant to Xavier University, the only 
historically black Catholic university in the United States.
    In terms of Qatar's political development, there is also good news 
to report. Qatar has held successful elections three times for seats on 
the country's Central Municipal Council. There are plans to hold 
elections for a national parliament. The United States is assisting 
this important development. Through technical training under the Middle 
East Partnership Initiative, Qatar will be able to strengthen this 
elected legislative body. Transparency International favorably ranks 
Qatar in terms of perceived corruption, listing it as 32nd in a global 
ranking of 179 countries. That's the best ranking in the entire Arab 
Middle East and North Africa. The United States is 20th.
    Amid all this growth and development and good news, there are 
challenges, of course. Freedom House continued to list Qatar as Not 
Free in its 2007 report, in terms of political rights and civil 
liberties. The latest State Department Human Rights Report also 
highlighted those issues, adding that legal and cultural discrimination 
against women limited their full participation in society. Moreover, 
hundreds of thousands of foreign workers in Qatar too often live in 
poor conditions, and have few avenues of redress in employment 
disputes, the report noted. If confirmed, I will continue the deep 
engagement by the United States with the Government of Qatar on 
developing and implementing solutions to these problems.
    Qatar has a highly activist foreign policy, often on issues of 
direct concern to the United States Government, including Iran, Iraq, 
the Israeli-Palestinian conflict, Lebanon, and Sudan. This often 
requires intense diplomatic efforts by the United States Government to 
ensure that Qatari and United States interests and approaches are 
compatible. That said, Qatar is unique among its neighbors in that 
Qatar maintains a public relationship with Israel; Israel maintains a 
trade office there, and Israeli FM Livni recently participated publicly 
in a conference in Doha. We welcome this important engagement. The 
United States has been urging Gulf states to take actions exactly such 
as these to improve Isareli-Arab ties and to further the peace process.
    Mr. Chairman and members of the committee, it is an exciting time 
to be in Qatar. It is an important time. Qatar is opening up. It is on 
the move. If confirmed, I look forward to working closely with the 
Congress to strengthen the partnership, and to deepen the trust between 
Qatar and the United States of America.
    Thank you.

    Senator Kerry. Thank you very much.
    Again, let me just to repeat that there is a tremendous 
amount of experience at the table in all of you, and we 
appreciate that.
    I think perhaps, Ambassador Hoagland, interestingly, you 
have perhaps the most time in place in a sense. Others have 
been in other places and other parts of the world, but I think 
your background in that region is particularly helpful and 
important in understanding what is happening there.
    Let me begin, if I can, with you, Ambassador LeBaron, since 
you just wrapped up and just sequentially flows that way. But 
what is your view of the current level of support? We have 
heard consistently about some of the elite circles within Qatar 
supporting al-Qaeda and some money going to Hamas, et cetera. 
Can you share with us your perception of that and how that 
might or might not complicate the relationship?
    Ambassador LeBaron. Thank you very much, Mr. Chairman.
    We have seen those reports. We are concerned about those 
reports. The Qatari Government has denied providing that 
financial support to Hamas. It is certainly a subject of great 
concern to us.
    There is overt political relationship between Qatar, the 
Government of Qatar and Hamas, clearly. But the full extent of 
that relationship, all of the dimensions of it are not fully 
clear to us.
    If I am confirmed, I certainly will take this up with the 
Government of Qatar and present the point that with great 
wealth comes great responsibility. And is it responsible the 
positions, the policies that they have adopted in relation to 
Hamas? I would like to explore that. I would like to hear how 
they explain it, what their rationale is, and to express the 
very deep concern that the United States has and to carry on 
that dialog.
    Senator Kerry. Is it your judgment that we have sufficient 
initiatives in place now to protect against currency export/
import?
    Ambassador LeBaron. They are being put in place. Certainly 
there is a high level of United States Government engagement 
with Qatar on this very subject, and there has been a response, 
a positive response by the Government of Qatar. So I am 
encouraged by this. I think that it can be better. I think it 
will be better, but it----
    Senator Kerry. I hope you would take, when you get on the 
ground there, a hard initial look at that and convey our 
concern, the Congress and the committee's concern with respect 
to that issue. Because, clearly, there is a lot of money 
flowing in the region to Hamas, Hezbollah, to al-Qaeda, et 
cetera. And in a sense, perhaps our most effective tool is the 
finance structure in terms of really having an impact.
    Ambassador LeBaron. Yes, Mr. Chairman.
    Senator Kerry. That would be great.
    Mr. Cunningham and Mr. Beecroft, you kind of--you are 
coming, Mr. Beecroft, from the role of executive assistant to 
the Secretary, and obviously, she has enormous confidence and 
trust in you. And Mr. Cunningham, from Hong Kong and from a 
series of places that other than the U.N. are not sort of 
directly Israel-centric or Mideast-centric.
    So, share with us, is this an effort in both of your parts, 
is there a portfolio that you are carrying specific to the 
talks in the next months, and if so, do you have some specific 
expectations with respect to your roles in those talks? Why 
don't you begin, Mr. Cunningham?
    Ambassador Cunningham. Thank you, Mr. Chairman.
    I think the attributes that I bring to this enterprise are 
not just my experience in New York, but the way I was--the way 
I used my time in New York to learn about the dynamics of the 
region. And when you are negotiating under difficult 
circumstances with strongly contrasting parties, you have a 
chance to see where their core interests lie and to understand 
better how they view their problems and their challenges.
    And I was continually impressed, for instance, during my 
time there with the sensitivities that Israel, quite correctly, 
places on its security interests and its need to defend itself.
    Senator Kerry. Did you travel there? Did you get a chance 
to meet any of the current leaders?
    Ambassador Cunningham. I did not meet the current leaders. 
I have met some of the previous leaders.
    Senator Kerry. In New York or----
    Ambassador Cunningham. In New York, not in the region. I 
met the foreign minister, for instance, who came to--came to 
meet with us. We had mounted a major effort to get Israel 
introduced into the Western group in the U.N., which seems like 
a simple thing but actually required engagement at the 
presidential level to get it done.
    What I hope to do over the next 6 months, if confirmed, is 
to help the Secretary and the President understand as clearly 
as possible what is happening within Israel and their concerns 
as we go through this process. The Secretary keeps talking 
about the difficult decisions that will have to be made, and 
they are difficult, and we will need to have the best 
understanding possible of what the calculus is that goes into 
making those decisions.
    And as I have said in my statement, I have worked in my 
career in a number of areas where things have been very 
difficult and reconciling different interests has been 
difficult, and I hope I can help in that regard.
    Senator Kerry. Mr. Beecroft.
    Mr. Beecroft. Thank you, Mr. Chairman.
    Let me start by saying I spent 3 years in the Near Eastern 
Affairs Bureau at the State Department, working closely with 
Ambassador Cunningham when he was up in New York on the full 
range of Middle Eastern issues, particularly Iraq. This was 
trying to keep sanctions in place and make them effective.
    I have also served in Damascus and in Riyadh, Saudi Arabia, 
for a number of years. And in addition to that, my 
responsibilities with Deputy Secretary Armitage and with 
Secretary Powell and Secretary Rice have been, first and 
foremost, to keep an eye on the Middle East, coordinate with 
the bureaus and the interagency, and travel to the countries 
with those individuals to meet with the foreign leaders and 
meet with them back here in Washington.
    So I believe I do have some experience in the region, and I 
look forward to applying it and carrying out what the 
administration and this committee would like to see done there 
across the range of issues.
    Senator Kerry. Mr. Cunningham, currently Prime Minister 
Olmert is expressing the hope that what they might be able to 
achieve is sort of a broad outline of principles with respect 
to the Palestinian Authority. We met this past week with 
President Abbas, who was here, who, on the contrary, hopes that 
there is going to be quite a detailed and specific statement 
with respect to what is achieved.
    Where are we in sort of bringing that together, in your 
judgment, and how do you see that, if you do, coming together? 
How do we bring such a diverging view of what the expectations 
are to a mutual understanding?
    Ambassador Cunningham. I think what we do is push forward 
or help the parties push forward as far and as quickly as they 
can to sort out the issues between them and to highlight the 
decisions that need to be made. I understand what you are 
saying about President Olmert. I think that we need to remember 
that we are not just dealing with a document. We are dealing 
with a process that has different facets.
    And I don't think anybody can predict that this--at this 
stage how far down the path that we have opened up at Annapolis 
we will be able to go. We have the bilateral negotiation 
component of that, but we also have the building capacity 
component for the Palestinian Authority, the security 
component.
    We have the push underway to identify progress under the 
roadmap and to monitor what is being achieved in implementing 
the roadmap on both sides. And we have, very importantly, a 
regional context that we are trying to build to broaden support 
for a successful solution, however far we can get in the region 
among Israel's Arab neighbors and countries in the Gulf.
    So there is much more involved here than what comes out in 
terms of a document or an agreement, although that is obviously 
very important. These other efforts should flow into supporting 
a maximal outcome on terms of an agreement that we can get in 
this period.
    Senator Kerry. Well, obviously, we wish you well with that. 
It is tricky, especially given the timeframe. I think the 
politics may be difficult.
    Just a last question before my time is up. Ambassador 
Hoagland--well, let me just say, I want to welcome, the Kazakh 
ambassador Idrissov is here. I am delighted to welcome him to 
this hearing.
    Mr. Hoagland, can you just very quickly sort of share with 
the committee where Kazakhstan is right now with respect to the 
keeping of its commitments made in 2007 in terms of assuming 
the leadership of the security and cooperation?
    Ambassador Hoagland. Yes, thank you, Mr. Chairman.
    Senator Kerry. I am talking about the democratization, 
human rights commitments.
    Ambassador Hoagland. Right. With very intense negotiations, 
with a lot of help from European partners, with some forward 
thinking by the leadership of Kazakhstan, there was agreement 
reached that Kazakhstan would have four commitments, four 
primary commitments in moving forward toward its chairman in 
office for OSCE for 2010.
    Those included electoral law reform, media law reform, 
liberalizing political party registration, continuing to refine 
the system of local governance, and another one that is very 
important also, a commitment to preserve OSCE's Office for 
Democratic Institutions and Human Rights and its current 
mandate and oppose any attempt to weaken it.
    Work is moving forward in all of these. For example, on 
reforming the media law, working groups have just been 
established to put together public input from journalists, from 
civil society, from the government for the reforms that will be 
needed and that should be implemented before the end of 2008. 
The process is underway.
    Certainly, if confirmed, I would very much look forward to 
working closely with the government and with civil society to 
move this process toward a successful completion.
    Senator Kerry. Thank you very much for that.
    And before I recognize Senator Coleman, pro forma question 
that we need to ask everybody. Does anybody here--and I would 
like just an affirmation for the record--have any issue which 
might present a conflict of interest in the performance of your 
responsibilities as an ambassador to the place you have been 
named?
    Ambassador LeBaron.
    Ambassador LeBaron. I have no such conflict, Mr. Chairman.
    Senator Kerry. Ambassador Hoagland.
    Ambassador Hoagland. I have no conflict of interest, sir.
    Senator Kerry. Mr. Cunningham.
    Ambassador Cunningham. None.
    Senator Kerry. Mr. Beecroft.
    Mr. Beecroft. No, sir.
    Senator Kerry. And is there any issue from which any of you 
would see that you would have to recuse yourself with respect 
to any deliberations in any of those countries? Ambassador 
LeBaron.
    Ambassador LeBaron. No, sir.
    Senator Kerry. Hoagland.
    Ambassador Hoagland. I have been told by the Office of 
Legal Ethics that I need to divest myself of Microsoft stock 
because Microsoft is active in Kazakhstan.
    Senator Kerry. Anywhere you go, you have to divest----
    [Laughter.]
    Senator Kerry. I am sorry, go ahead.
    Ambassador Cunningham. No, I don't have any conflict of 
interest.
    Mr. Beecroft. No, sir.
    Senator Kerry. Well, thank you all very much. I appreciate 
it.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Ambassador Cunningham, I appreciate the opportunity I had 
to meet with you before this hearing. I did indicate at that 
time some concern about the relatively light background in 
Israeli or Arab affairs. And certainly your understanding of 
the diplomatic process at a time that we are engaged in very 
sensitive negotiations, I think, is important, and we really 
can't afford not to have an ambassador to Israel. And so, you 
are going to be there, assuming you are confirmed, at a very 
important time.
    Let me throw out a question, and it probably can be touched 
upon by Mr. Cunningham and actually Mr. LeBaron and Mr. 
Beecroft. It is about Hamas.
    On the one hand, there is a concern about the Qatar 
relationship with Hamas. Hamas right now presents one of the 
greatest kind of challenges and obstacles. We have met with 
President Abbas earlier this week, and the battle is between 
extremism and moderation, and Hamas represents the extremism.
    And if I could just get kind of a sense from all three--and 
obviously, the Jordanians have such a critical role. They have 
a stake in the forces of moderation prevailing over extremism. 
So if I could, Ambassador Beecroft, in terms of the Jordanians, 
do they have any role, can they be helpful in supporting forces 
of moderation in the Palestinian areas and lessening the 
influence of Hamas?
    Mr. Beecroft. Thank you, Senator Coleman.
    Yes, I believe they are actively playing a role that is 
helpful and that is encouraging moderation, tolerance, and 
lessening the influence of Hamas. Among other things, Jordan 
has just completed training of approximately 400 Palestinian 
security forces, Presidential Guard, in Jordan. They have 
returned to the West Bank.
    They are currently training 600 more, which will be 
deployed up in the north--the hope is near between Nablus and 
Jenin--in order to take responsibility there that the Israelis 
will allow them to take. This has been carefully coordinated 
with Israel and, of course, with the Palestinians.
    In addition to that, they are providing things like 
electricity to build stability on the West Bank and encourage 
President Abbas's government. They are no friend of Hamas. They 
have repeatedly made that clear. I think it is a benefit to 
Israel to have a country that is stable, secure, and moderate 
on its eastern border and one that takes border security very, 
very seriously to prevent infiltration of extremists, 
terrorists, and/or shipment of arms and that type of thing.
    So, yes, I think they are playing an active role. They do 
coordinate closely with the Israelis and with the legitimate 
Palestinian Government that we recognize.
    Senator Coleman. Ambassador LeBaron, I would come to you 
and come to Ambassador Cunningham last on this question. 
Doesn't the folks in Qatar see the negative influence of Hamas 
in the region? I am concerned about their relationship with 
Iran. What can we do, what can we expect of them, and is there 
anything that we can do to influence them at this very kind of 
delicate time in the peace process?
    Ambassador LeBaron. Qatar has followed for some time now an 
activist foreign policy in which they have relationships with 
both the moderates and the extremists across the Arab world to 
include North Africa. This seems to be a deeply engrained 
principle in their current foreign policy.
    By that, I mean clearly they have an overt relationship 
with Hamas at a time that the United States Government properly 
is trying to isolate Hamas. At the same time, Qatar has opened 
relationship, a continuing relationship with Israel and has 
welcomed visits by the foreign minister, as we have just seen.
    As I understand it, sitting here in Washington preparing, 
if confirmed, to go to Qatar, this is part of a general 
principle in their approach toward the region in its entirety 
to include an open relationship with Iran. So is there more 
that we can do? Yes.
    In recent weeks, there have been a series of higher and 
higher visits by top United States officials to the Gulf to 
include Qatar. At every one of those visits, this concern by 
the United States is expressed. I think this introduces 
pressure to take another look by the Qataris at their principle 
of an open set of relationships across the region with 
extremists that actually work against development in the 
region, that work against progress to include the peace between 
Arab and Israelis.
    You know, the Qataris participated in Annapolis, too. They 
have implicitly recognized the right of Israel to exist through 
a recognition of the two-State principle, which they have 
adopted. So I think that there is a chance, there is an 
opportunity to press this point with the Qataris to get them to 
reassess and to change and to join us in a more effective 
approach to the region, one that promotes not extremism, but 
moderation. One that promotes development and not sort of a 
return to conflict and violence.
    Senator Coleman. Ambassador Cunningham, when President 
Abbas was here last week and visiting with Members of the 
Senate, he was very critical of President Carter's visit and 
discussion with Hamas, very critical. And made the point that 
it really--I think his comment was something to the effect of 
President Carter is speaking to Hamas, and Hamas thinks the 
current President is going to call next, that somehow this is a 
step of some kind of recognition, and he made it clear it 
undermined his efforts.
    So I presume we are not going to be talking to Hamas. What 
can we do to kind of stop them from tossing rockets into Israel 
on a regular basis? Is there something we can do that we are 
not doing?
    And not, by the way, just vis-a-vis our relationship with 
Israel, but since you are going to be in the region, are there 
any of the other Arab neighbors that we can lean on to play a 
more constructive role in lessening the level of violence so as 
to allow a peace process to move forward?
    Ambassador Cunningham. First, let me say I don't think 
there is much danger of this President picking up the phone and 
calling anybody in Hamas. So that is--we have a very clear view 
on that.
    I don't want to get into the merits of President Carter's 
visit. But let me say from a strategy and policy point of view, 
it seems to me what all of us who want to have peace--peace in 
the region have a common goal and obligation. You put it quite 
correctly. We have a conflict here between extremism on one 
side and moderation and political responsibility on the other.
    We need to find a way to place a premium in the region and 
a commitment to moderation and political responsibility and 
strengthen the effort to isolate and ultimately wear down, 
however we can do that, the extremists. That is the process--
that is part of the process that is underway now after 
Annapolis. It will take time and effort to do that.
    We can certainly play a part. We have a very active dialog 
with the Israelis about how they might enhance their security 
from various threats all the way from Iran to local threats 
from Hezbollah and from Hamas. We can help them through that.
    We can help keep the issue before the political leadership 
of the states in the region that are not now playing such a 
prominent role. There is a good dialog going on between Egypt, 
Israel, and Jordan. But there are other countries in the region 
that can and should be playing a role in bringing more and more 
pressure to bear on Hamas to make it more and more unrewarding 
and unpalatable to engage in the kind of politics and behavior 
that they are engaging in.
    Senator Coleman. Thank you. I think we could be here all 
day pursuing this issue. My time is up, and I yield.
    Senator Kerry. Thanks a lot, Senator Coleman.
    Senator Lugar.
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Let me just respond to Ambassador LeBaron that we were 
delighted to have Petra as an intern in this committee during 
the summer. She has experience on the committee that perhaps 
has been a guide for you as you have prepared for the hearing 
today? [Laughter.]
    Ambassador LeBaron. I ride on her coattails, Senator.
    Senator Lugar. I look forward to being on the campus in 
Bloomington this weekend as a commencement speaker for the law 
school and perhaps will have an opportunity to see her there.
    Ambassador LeBaron. Thank you, sir.
    Senator Lugar. I just want to ask Ambassador Hoagland some 
questions, first of all, about Turkmenistan. You were most 
helpful during our visit in January. During the change of the 
presidency in Ashgabat, you have been instrumental in 
representing American interests and inviting Americans to visit 
the country. I appreciate the time you took with me and helping 
me better understand Turkmenistan. I appreciate your assistance 
in meeting the President of the country, and leaders in the 
energy business that is of tremendous significance.
    But first you were serving there as a charge because we 
have not had an ambassador in Turkmenistan for quite some time. 
And for the moment, we are unlikely to have a nominee. A 
nominee was withdrawn for that position, and now you are moving 
on to Kazakhstan.
    This troubles me and many others because this is a critical 
moment in the development of the relations between the new 
President and his neighbors, as well as with the United States. 
I am hopeful that this will be a promising course. Would you 
just state for the record again the importance of having an 
ambassador to Turkmenistan at this time?
    Ambassador Hoagland. Thank you, Senator. I would be glad to 
state that. But first, let me thank you personally for the 
effort you made to visit Kazakhstan--Turkmenistan in January. 
That was a really important visit. The country is changing 
dramatically with its new leadership, and the more that we can 
engage at high levels, the stronger our relationship will be.
    I think your visit was especially important because of a 
cultural factor. You remember the President said that you are a 
living legend. He listened very, very closely to you, and we 
saw movement on a number of our issues after your visit. So I 
thank you for that.
    Senator Lugar. Thank you.
    Ambassador Hoagland. Of course, I feel it is important that 
we should have a confirmed and an accredited ambassador. We 
haven't had one since July 2006, and during this crucial period 
of change, it is something that we have to have.
    Senator Lugar. Let me ask, with regard to Kazakhstan, you 
have mentioned the Nunn-Lugar Cooperative Threat Reduction 
Program. Currently, negotiations are underway with the 
government on expanding our efforts there. Astana has been 
highly cooperative and made many significant decisions. At the 
time of my visit in that country, in January, there was dispute 
over a laboratory for dangerous pathogens.
    It was a legitimate dispute in which one section of the 
government felt that agriculture and health work should not be 
conducted in the same building. Some argued that the buildings 
should be simply demarcated. Others pointed out that in the 
case of a particular pathogen, parts of the building are 
designed to hold and annihilate livestock, quite apart from 
human beings. The United States disagreed and pointed out that 
the plan was working well in other countries. I don't know how 
that has been resolved.
    But I would just say that there are a number of issues of 
this variety in terms of weapons of mass destruction, including 
leftovers from the former Soviet Union. And so, I just ask you 
to exercise due diligence on these issues as they come forward 
from our DTRA program in the Pentagon.
    Andy Webber has been a particular emissary, well acquainted 
with Kazakhstan and with you. But this is a critical moment and 
I would ask for your strong support in this area.
    The second question I have is that in January, a very large 
conference of six international oil companies was in gridlock 
with the Kazakh Government. Essentially, whatever the 
justification, the Kazaks felt that even though these six may 
have invested estimates of $50 billion onwards up to $100 
billion in attempting to extract energy from one of the most 
significant areas in the Caspian Sea situation, they had not 
been successful thus far. Therefore, income to the Kazakh 
Government had not come about.
    So the Kazakhs wanted to become a stockholder or an equity 
holder in the investment. As a result, profit distributions 
would go to the government first before they went to the 
stockholders of these six international companies. Essentially, 
an agreement along those lines appears to have been reached in 
the last week or two.
    Can you give us any insight on that negotiation? Likewise, 
has there been any decision on where the oil exports will go? 
Our hope is that a great deal of that energy supply would move 
across the Caspian Sea, even join the Baku-Tbilisi-Ceyhan 
pipeline. Can you give any insight as to how that is 
proceeding?
    Ambassador Hoagland. Thank you, Senator. I would be glad to 
do that.
    I think if I tried to answer every one of those questions, 
we might be here until late in the evening. So let me try to 
hit the top of each one, sir.
    The negotiations with the consortium. I think when you have 
a number, in this case six plus one, of 800-pound gorillas 
fighting for the same bed, the game is going to get pretty 
rough sometimes. That doesn't mean that they can't work out the 
problems. One of the problems in that particular negotiation 
was that the lead for the consortium was not meeting its 
responsibilities. And so, Kazakhstan had legitimate concerns 
over that.
    I know a number of the companies that are--leaders of the 
companies that are involved in this, and they are working 
towards a satisfactory conclusion. Kazakhstan, like many other 
countries, is concerned about the future of its national wealth 
in the ground. Some people talk about resource nationalism 
sometimes. There has been a new law passed for subsoil 
resources in Kazakhstan.
    But one thing that is terribly important, I think, is the 
commitment that President Nazarbayev has given to the companies 
already active, including the U.S. companies, that that will 
not be applied retroactively. If confirmed, of course, as 
ambassador, it would be my responsibility, one of my highest 
responsibilities to protect the interests and property of the 
United States citizens and to advocate in any way appropriate 
for their business interests.
    You also asked--let me answer this very briefly--about 
getting the oil out because oil is--right now Kazakhstan is 
producing 1.48 million barrels per day, and that is going to 
rise very quickly in the coming years. Almost all oil has to go 
out through Russia right now. They are not going to be able to 
get it out.
    Kazakhstan and Azerbaijan have recently signed an 
intergovernment agreement, if I am not mistaken, and that will 
help in barging in the first instance oil across to the BTC, 
Baku-Tbilisi-Ceyhan pipeline, possibly also through Supsa to 
Batumi. That work is underway. I would look forward to also 
being deeply engaged in that, if confirmed.
    Senator Lugar. Thank you very much. And I hope, as 
appropriate, you can report back to this committee from time to 
time how it goes. This is of critical importance in several 
areas, including our energy committee as well as our foreign 
relations effort.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator Lugar.
    Senator Lugar, I want you to know that as you were being 
praised by Ambassador Hoagland, both Senator Coleman and I 
shared the incredibly heavy thought of how much better it is to 
be a living legend than the alternative. [Laughter.]
    Thank you, Mr. Chairman.
    Senator Kerry. Senator Voinovich.
    Senator Voinovich Thank you.
    Mr. Hoagland, I am really pleased that you understand the 
responsibility that Kazakhstan has in terms of being the 
minister in charge of the OSCE, and you are familiar with how 
important it is that we continue to support ODIHR and those 
tolerance and nondiscrimination offices on the core budget.
    And any information that you could get back to me on what 
the status is in replacing Christian Strohal, who is now head 
of ODIHR, I would appreciate it, because it is really important 
that Kazakhstan and everyone understand how important that 
person is to the future in terms of the responsibilities of 
ODIHR.
    If you have any recent information on that, I would like to 
have it because we are really trying to figure out who is the 
best person. To my knowledge, right now, our Government is not 
pushing anybody for that role. But I really think it is 
important that we do have a role in making sure that we get the 
right person there.
    Ambassador Hoagland. Senator, I agree with you. The OSCE 
plays an important role throughout the entire region. It has 
played an important role throughout the entire region. Many of 
its most important functions are under attack. For the specific 
question you asked, I am sorry, I don't have that precise 
information. But I would be glad to take the question, sir, and 
get the information to you.
    Senator Voinovich I would really appreciate that.
    And Mr. LeBaron.
    Ambassador LeBaron. Yes, sir.
    Senator Voinovich On Qatar and the Gulf Cooperation 
Council, it is good news that Israel is starting to have a 
relationship with Qatar, and I suspect that you will be 
meeting, periodically, with your counterparts on the council. 
It seems to me that the better the relationship that can be 
developed between that council and Israel, the better off 
everyone is going to be.
    I think their involvement in pushing the two-State 
solution, their concern about a mutual enemy right now of Iran 
I think is really important that that be as developed as much 
as it possibly can.
    Ambassador LeBaron. Yes, sir.
    Senator Voinovich Mr. Cunningham, what role are you going 
to play? Let me just be candid with you.
    We have got 7 months--maybe--left of this administration 
working on a ``two-state'' solution. I would like to know what 
has the Secretary of State has told you about what role, if 
any, you are going to play in the two-state solution or the 
immediate problem of trying to reconcile the differences of the 
border dispute with Gaza, or working things out somehow with 
the Hamas problem, which is fundamental to moving forward with 
even the contours of a two-state solution.
    Ambassador Cunningham. Senator, I spoke to the Secretary 
yesterday morning, as a matter of fact. And she made very clear 
to me that she believes several things. The parties on both 
sides of the dispute in Israel and the Palestinian Authority do 
want to make progress and do want to get ahead and do want to 
establish the maximum amount of agreement that they can over 
the next 7, 8 months, however much time there is.
    She also said that they understand, as she believes, that 
time is not on their side, that there is a process and an 
energy and an urgency now to making progress, although, as I 
said in my statement, nobody underestimates the difficulties of 
dealing with these very complex and long-enduring issues.
    What she wants me to do, if I am confirmed, is she wants me 
to help her have the best understanding of the dynamics in the 
region from Israel's point of view, of Israel's concerns about 
its security, to have me build the strongest possible security 
and political relationship that we can have with Israel. 
Because at the end of the day, it is confidence in that 
relationship that helps Israeli leaders take the kinds of 
decisions or even examine the kinds of decisions that they are 
going to be looking at over the next couple of months.
    I think she would also want and expect me to be conveying 
as clearly I can and as I can help to do to all sectors of 
Israeli society what our views are about the situation in the 
Middle East and what it is that we are trying to do to help the 
parties in the Middle East who want to have peace, a peaceful 
and a stable relationship.
    Senator Voinovich Well, I have to be candid, Mr. Chairman. 
I have some real problems with that. I just finished a book by 
Aaron Miller called ``A Much Too Promised Land.'' I don't know 
if you have read it or not. If you look at where we have been 
successful in some of our initiatives there, it takes a unique 
set of circumstances.
    I just wonder, you are going to come in there without 
really any background. It takes a while to figure out who the 
players are and get at it. And it seems to me that if we are 
going to make the kind of progress we would like to make there, 
it is almost going to take a full-time effort on the part of 
the Secretary of State. We have got Mr. Welch involved and we 
have Abrams at NSC. We have Secretary Rice, and Mr. Chairman, 
you have got three generals over there.
    From an organizational point of view, it doesn't look like 
it could be that successful. And I am really concerned that 
with this short amount of time, whether or not you will be able 
to fulfill the role that the Secretary wants you to play there. 
Would you like to comment on that?
    Ambassador Cunningham. Well, I never said it was going to 
be easy. I don't think anybody expects that any aspect of this 
is going to be easy. But the individuals that you have 
mentioned are really focused on all aspects of the process from 
now through the next several months. And as I said earlier, 
there are four major different paths that we are trying to 
bring together.
    You commented on the organizational aspect of this. Elliott 
Abrams, David Welch have been working on these issues 
intensively for quite some time, as has the Secretary herself 
been, and Ambassador Negroponte, who I just saw today. They are 
focused and determined on bringing the maximum effort that we 
can muster to make as much progress as possible over the next 
couple months, both in the region and directly to the extent 
that we can be helpful in the bilateral negotiations.
    I understand your assessment that this is going to be quite 
difficult. But it is a time and a place where there is an 
opportunity, and I think we owe it to our friends and to 
ourself to try to make the most of it.
    Senator Voinovich Well, I would really like to get more 
information about the role you are going to play. Because from 
an organizational perspective, it takes a while to get the 
nuances of what is going on and meeting the people, and you are 
dealing with some tough individuals. How to handle them and 
what to do is going to be very, very important to our success 
there. Frankly, I would rather not know that you are the one 
that is going to be out in front, that somebody else is doing 
it and maybe you are a backup or have some other role to play.
    So I am very interested in finding out just exactly what 
that portfoliois ? What do they expect to do? I would also like 
to know who is on the team, how are they going to get this, who 
is in charge, and how they are going to work this out?
    But right now, it looks to me like we have got too many 
people over there doing too many things, and I am concerned 
about the coordination of that effort, if we expect to get 
anything done in a very short time between now and the next 
administration. For those of you in the State Department here, 
I want you to know that I would like to have that information, 
and I am sure maybe the chairman would be also interested in 
the same thing.
    Senator Kerry. Well, I was going to say we are going to 
leave the record open for 3 days. We do want to try, depending 
on obviously the sentiment of the committee, Senator, to move 
the nominations, absent some fundamental opposition to them. 
But you certainly deserve an answer to that question, and we 
will leave the record open for 3 days. And I am confident that 
they will comply and get that to you.
    Senator Voinovich Thank you very much. And please don't get 
me wrong here, you have got a great background. I am just 
worried about the time we have left and the challenge that is 
there.
    Ambassador Cunningham. I appreciate that, and I assure you, 
I am, too. And my colleagues are as well. And I hope we can 
give you an answer that will alleviate some of your concerns.
    Senator Voinovich Thank you.
    Senator Kerry. Mr. Cunningham, just a last question, if I 
can? I think we have sort of reached a point where a lot of the 
questions--I mean, we could go on asking about the policies ad 
infinitum, and I would love to. But I think that in terms of 
the committee's purpose here that that will not serve a lot.
    And I think if we get to some tough places, as is usual, 
since you haven't been there yet and you are not yet confirmed 
and you are not in place, we are going to learn that you need 
to get there to find out so you could answer the question. So 
that is the circular nature of these proceedings.
    But if I can ask you, Mr. Cunningham, what is your view 
with respect to the chatter about Israel's back channel efforts 
right now that are taking place with respect to Syria? And if 
you would comment on whether or not this administration--my 
hope would be the administration is not going to get in the way 
of those or object to them or somehow indicate displeasure with 
respect to them.
    And I wonder what your take is? If you can--if you have had 
some communication directly about that, or can you share with 
us your view of this?
    Ambassador Cunningham. Thank you, Senator.
    There are obviously signals going back and forth, as you 
all have seen in the press and in the regional press about 
messages being transmitted about interest in some kind of talk, 
reopening the Syria discussion. I think our view is we don't 
think that is a particularly promising angle to pursue under 
present circumstances. But I don't think that we have--let me 
rephrase that, if peace is possible, if progress on peace is 
possible, that would be--that would be something to be 
welcomed.
    But as a practical matter and given the amount of 
difficulty that Syria is causing on some very important issues 
throughout the region, I don't think that we think that it is 
particularly promising right now.
    Senator Kerry. But the administration's interest has been 
quite to the contrary, not to talk is an actual part of our 
policy. And if Israel is undertaking something that runs 
counter to that, my question is are we going to register 
displeasure? Are we going to try to stand in the way of it, or 
are we going to give full opportunity for them to pursue what 
they think is in their interest?
    Ambassador Cunningham. I am not privy to the considerations 
at that level, either in Israel, obviously, or privy to what 
they may have told us at the highest level, and that would be a 
conversation to be held at very high level.
    I think that the prospect of opening a discussion with 
Syria would have another difficulty attached to it, which is 
that Israel now has its attention focused on, as the Senator 
said, on its process with the Palestinians in the region. 
Opening up another front for negotiation, as it were, might 
prove difficult, both for the current negotiations and for an 
establishment trying to deal with some very difficult problems 
already on the table.
    We have--you are quite right. We have taken the position 
that it is not very useful right now for us to be talking to 
Syria. They know the issues that they need to address that are 
of concern to us, particularly in Lebanon, their relationship 
with Iran, their relationship with Hezbollah, and other things 
that they know are of great concern to us.
    If the time comes to have a discussion, I think it is clear 
what the issues will be, but we don't think that right now it 
is promising.
    Senator Kerry. Thank you.
    Mr. Beecroft, am I correct that this good-looking young 
family back here belongs to you or----
    Mr. Beecroft. I know it seems improbable. But, yes, they 
do, sir.
    Senator Kerry. No, on the contrary. Well, we want to thank 
them for being here. They have been attentive.
    And let me say to all of your families that we really do 
appreciate what they put up with in the course of all of this. 
There are long hours, a lot of absences in some cases, and 
sometimes some hardship. So we really respect that and 
appreciate it, and we thank all of you for coming today and 
being part of this process.
    So the record will stay open for these 3 days. I don't 
anticipate a lot of questions, but whatever will be submitted 
we will get to you right away. And thank you, and we wish you 
well and look forward to personal updates maybe somewhere along 
the road.
    We stand adjourned. Thank you.
    [Whereupon, at 4:00 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


     Responses of Hon. Joseph Evan LeBaron to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. In the 2007 State Department Trafficking in Persons 
Report, Qatar is ranked as a ``Tier 3'' country, ``not fully 
comply[ing] with the minimum standards for the elimination of 
trafficking and not making significant efforts to do so.'' What has 
been the impact on efforts to eliminate trafficking of placing Qatar in 
the Tier 3 category? Has this designation prompted the Government of 
Qatar to make any significant or notable efforts to comply with 
standards to eliminate human trafficking? If confirmed, what actions 
will you take to address the problem of human trafficking and to urge 
the Government of Qatar to make progress on this issue?

    Answer. We remain very concerned about Qatar's record with 
trafficking in persons issues. While the Government of Qatar has made 
some progress over the last year in referring some trafficking victims 
to its shelter and successfully implementing legislation prohibiting 
the use of under age camel jockeys, many issues remain. The Government 
of Qatar has drafted comprehensive antitrafficking legislation in the 
past year, but it has yet to be approved and enacted. Of special 
concern to us are foreign laborers, who are subject to Qatar's rigid 
sponsorship laws, which effectively leave them at the mercy of their 
employers. The Government of Qatar has made some progress on a new law 
to change some of the more onerous sponsorship regulations, yet this 
also remains in the drafting stage.
    If confirmed, I will continue to make trafficking in persons a 
priority for the mission, and will actively engage the Government of 
Qatar at the highest levels to encourage more tangible progress in 
preventing labor exploitation and other forms of human trafficking.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What was the 
impact of your actions?

    Answer. Identifying the most important actions is easy. They 
involved the Islamic Republic of Mauritania, when I was the ambassador 
there, 2003-2006.
    On August 3, 2005, a coup brought to power a group of military 
officers headed by Col. Ely Ould Muhammad Vall. As so many other coup 
leaders do, Col. Vall promised to hold elections for a new president at 
some undetermined time.
    I knew that it was very important to get the coup leaders to take 
immediate, concrete steps towards fulfilling that promise. It was one 
thing to talk about elections; it was quite another to take tangible 
steps toward them.
    Three days after the coup, therefore, I pressed Col. Vall to invite 
the United Nations to send technical advisors to help Mauritania plan 
for and execute free and fair elections, and to set an early, specific 
date for them. I kept up the pressure on him throughout August, and, 
about 3 weeks later, in late August, he finally agreed to issue the 
invitation.
    That invitation was critically important, for two reasons. First, 
the U.N. does not send such experts unless specifically invited. So 
effective planning for elections could not begin until the invitation 
was issued.
    Mauritania had never held free and fair elections for a president; 
presidential succession had always been by coup. It just had to have 
the U.N. there, as a first step toward such elections. Second, the 
invitation helped lock the coup leaders on a clear path leading toward 
free and fair elections. I knew that, once issuing the formal 
invitation, it would be hard for them to back away.
    In March 2007, Mauritania successfully held an internationally-
observed free and fair election for President, its first since its 
independence over 45 years earlier.
    Throughout that period, these are the democracy promotion lessons I 
learned, in terms of coups:

  <bullet> Quick policy decisions and associated diplomatic action are 
        vital. So often coup leaders will say they intend to return the 
        country to democratic rule, or to establish democratic rule. 
        The U.S. Government must test the coup leaders' stated 
        intention by pressing them to take immediate steps to achieve 
        that intention.
  <bullet> Public diplomacy must be an integral part of the U.S. 
        Government response.
  <bullet> Education and training must be packaged with financial 
        assistance, with education and training taking precedence. 
        Despite the best intentions, coup leaders will almost certainly 
        lack the knowledge and experience necessary to plan, organize, 
        and conduct complex democratic exercises.
  <bullet> The responsibility within the U.S. Government for 
        determining appropriate responses and implementing them should 
        be pushed as far forward, toward the U.S. Embassy and country 
        team, as possible. The best knowledge of a country's 
        geopolitical terrain will reside in the field, with embassies 
        and international organizations.
  <bullet> The ties of the international community to the country must 
        be leveraged. Well-established international aid organizations 
        may be ideally positioned to take the lead in assisting 
        sensitive political and electoral processes.
  <bullet> Coordinated action by the international community is 
        essential.

    In addition to all the actions I took during that first year after 
the coup to get Mauritania on the track to democratic elections, I also 
seized the opportunity to help set the conditions for a democratically 
elected government to take up the highly sensitive and long-festering 
issue of Mauritania's legacy of slavery. That is another long story, 
but its essence is this: In 2006, I mounted a campaign in the Afro-
Mauritanian community, including those exiled in northern Senegal, to 
give the fledgling democratic process in Mauritania a chance. This was 
a singular opportunity, I told them, to get a new, democratically 
elected Mauritanian Government to take up the issues that had estranged 
Afro-Mauritanians from the Arab Moor community for many, many decades. 
In the end, significant parts of the Afro-Mauritanian community did get 
involved, and the new government has responded, taking several 
important steps to improve communal relations, including the return of 
Afro-Mauritanian exiles to Mauritania.

    Question. What are the most pressing human rights issues in Qatar? 
What are the most important steps you expect to take--if confirmed--to 
promote human rights and democracy in Qatar? What do you hope to 
accomplish through these actions?

    Answer. By regional standards, the status of women in Qatar has 
improved, in part due to the influence of active women in positions of 
status, such as Sheikha Moza Al-Misned, the wife of the Emir and head 
of the education-focused Qatar Foundation. Three separate municipal 
elections over the last several years--with full participation by 
Qatari women--show that democratization is also proceeding, although 
the mission has developed an active training and technical assistance 
program to spur further progress.
    The related issues of labor exploitation and trafficking in 
persons, discussed above, are probably the most pressing concerns we 
currently have regarding human rights in Qatar. If confirmed, I will 
continue the mission's efforts to encourage progress on these fronts, 
specifically the passage and implementation of effective 
antitrafficking legislation.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Qatar in advancing 
human rights and democracy in general?

    Answer. There is a significant constituency in Qatari society and 
in the government that hopes for further progress. Energetic recent 
press coverage of human rights issues indicates that Qatar is ready to 
consider this topic more seriously. Regarding trafficking in persons, 
it is my hope that Qatar's Tier 3 ranking will not alienate our 
supporters in the government and private sector, but will instead serve 
as a spur to action, and I will exert every effort to encourage them to 
view it as such.

    Question. In your new position, what steps would you take to ensure 
that promotion of human rights objectives will be an integral part of 
post/bureau activities? If confirmed, what steps will you take to 
ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. The mission has an active program to advance human rights 
objectives. Recently, for example, the embassy held a successful press 
conference following the release of the annual human rights report that 
received significant coverage from local press. If confirmed, I look 
forward to continuing the mission's strong focus on human rights. 
Specifically, I plan to use the country team forum to ensure that our 
human rights objectives are integrated into the activities of all 
relevant offices and agencies. The experience I have gained throughout 
my career, and especially as Ambassador to Mauritania during that 
country's transition to democracy, has taught me that coordinating with 
our international partners and continuing our active engagement with 
nongovernmental actors--including exchange programs, training, and 
assistance--will be critical to successful human rights promotion.
    If confirmed, I will make this a priority for all mission staff, 
and will encourage all supervisors to include achievements in the field 
of human rights promotion in reviews of their employees' performance, 
stressing the importance of these activities to advancing overarching 
United States objectives in Qatar and the region.

    Question. Will you commit to meeting regularly, if confirmed, with 
nongovernmental organizations in the United States and in Qatar who are 
working to promote human rights?

    Answer. If confirmed, I look very much forward to meeting regularly 
with nongovernmental organizations in both countries. The mission 
actively engages nongovernmental organizations working in the human 
rights field, and I will be happy to lead that effort.
                                 ______
                                 

      Responses of Robert Stephen Beecroft to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. In September 2007, the United States and Jordan signed a 
memorandum of understanding on nuclear power stating that the ``two 
countries will work together to develop requirements for appropriate 
power reactors, fuel service arrangements, civilian training, nuclear 
safety, energy technology, and other related areas.'' What is the 
current status of these efforts and what assistance has the United 
States provided to date?

    Answer. We believe Jordan is a reliable partner for peaceful 
nuclear energy cooperation. We are confident that Jordan's interest in 
nuclear technology is solely for the purpose of peaceful, alternative 
energy production. Jordan currently imports 100 percent of its energy 
needs, and its vulnerability to world oil prices has strained its 
economy recently. We would like to help this valuable ally with its 
energy security.
    As you note, the United States and Jordan signed a memorandum of 
understanding in September 2007, in which Jordan affirmed its 
commitment to nonproliferation and to rely on existing international 
markets for nuclear fuel services as an alternative to the pursuit of 
enrichment and reprocessing. We recently completed negotiations with 
Jordan on a Section 123 Agreement to allow United States companies to 
export reactors and fuel to Jordan in the context of the highest 
safety, security, and nonproliferation standards. The proposed 
agreement is currently under review in Washington and Amman. If the 
President approves it and authorizes its execution, the Section 123 
Agreement with Jordan would be subject to a congressional review period 
of 90 days of continuous session before entering into force.
    The Department of Energy, through Argonne National Laboratory and 
Lawrence Livermore National Laboratory, conducted a feasibility study 
for Jordan on the introduction of nuclear energy taking into account 
the IAEA milestones. The study analyzed Jordan's energy and nuclear 
energy goals, reviewed its infrastructure development, including 
safeguards and nonproliferation conventions, human resources, and 
regulatory framework and provided suggestions for a path forward. The 
methodology developed for the Jordan study could prove useful in 
conducting feasibility studies in other countries seeking nuclear 
power. Jordan also attended a National Nuclear Security Administration 
run seminar ``Aspects of Planning and Implementing Effective 
Infrastructure for a Nuclear Energy Program'' for countries in North 
Africa. We are reviewing other infrastructure-related projects for 
possible implementation.

    Question. The Bush administration has made a concerted effort to 
encourage Arab neighbors of Iraq to support the Maliki government. How 
would you characterize the relationship between Jordan and the Maliki 
government? What has Jordan done to promote Sunni-Shia reconciliation 
in Iraq and to support the Maliki government?

    Answer. The United States appreciates Jordan's efforts to help Iraq 
become a unified, free, and prosperous nation and Jordan's cooperation 
with P.M. Maliki's government. Jordan has helped lead Sunni outreach 
efforts in Western Iraq, and King Abdullah has made a number of public 
statements in support of Sunni-Shia reconciliation. Jordan has hosted 
over 54,000 Iraqi police for training, as well as a limited number of 
border, corrections, and counterterrorism personnel. Jordan has 
expressed deep concern for humanitarian issues, and it has provided 
significant humanitarian aid, set up a field hospital in Fallujah, and 
hosts an estimated 450,000-500,000 Iraqis who have been displaced from 
their homes. The Government of Jordan is an active participant in the 
Expanded Neighbors Process and hosts the Neighbors Working Group on 
Refugees. Jordan maintains a limited presence at its embassy in Baghdad 
but does not have a resident ambassador. We continue to urge the 
Jordanians to return their ambassador to Iraq and to work with them to 
achieve the greatest possible support for the people and Government of 
Iraq.
                                 ______
                                 

      Responses of Robert Stephen Beecroft to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes, I have read the cable on Peace Corps-State Department 
Relations (04 State 258893).

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, if confirmed, I agree to abide by the principles set 
forth in the cable. We have a robust Peace Corps presence in Jordan, 
currently with 55 volunteers in country, and it is important that they 
be able to carry out their mission effectively.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps' role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. Yes, I understand and I accept that the Peace Corps must 
remain substantially separate from the day-to-day conduct and concerns 
of our Foreign Policy, and the Peace Corps' role and its need for 
separation from the day-to-day activities of the mission are not 
comparable to those of other U.S. Government agencies.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. Yes, if confirmed, I pledge to exercise my chief of mission 
authorities so as to provide the Peace Corps with as much autonomy and 
flexibility in its day-to-day operations as possible, so long as this 
does not conflict with U.S. objectives and policies.
                                 ______
                                 

     Responses of Hon. Joseph Evan LeBaron to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. Based on your past service as Deputy Director of the 
Office on Iran and Iraq in the State Department and your prospective 
position as United States Ambassador to Qatar, how would you describe 
Qatar's relations with Iran? What concerns, if any, do you have about 
Qatar's relationship with Iran? How does Qatar view Iran's nuclear 
program?

    Answer. Qatar maintains an activist foreign policy, and has 
relationships with all countries in the region. Many Qataris see Iran 
as a regional power with whom they must engage to protect their own 
national interest. Qatar also shares the immense North Field natural 
gas deposits with Iran.
    Regional security, and the destabilizing role Iran is playing, is a 
regular topic of our consultations with Qatari officials. A key element 
of this is Iran's nuclear program. Although Qatari officials have 
supported Iran's right to a peaceful nuclear program, Qatar has also 
voted in favor of United Nations sanctions against Iran, specifically 
Security Council Resolutions 1737 and 1747 in 2006 and 2007. If I am 
confirmed, I will lead the embassy in continuing to engage the Qatari 
Government on our concerns about Iran's nuclear ambitions and other 
destabilizing actions in the region. Qatar is also sensitive to Iranian 
efforts to access the international banking system, and we will 
continue our frequent discussions with Qatari financial regulators on 
this topic.

    Question. You have most recently served as the Foreign Affairs 
Advisor to Special Operations Command. Based on this experience and 
your prospective service as ambassador to Qatar--a country with a 
significant United States military presence how would you characterize 
the working relationship between the United States military and the 
State Department. What are the major hurdles to improving interagency 
cooperation and how do we begin to overcome them?

    Answer. Thank you for these questions, which are important and 
complex in equal measure. To keep my answer as focused as possible, I 
would like to comment on the working relationship overseas in U.S. 
embassies, where personnel from State and Defense--and from other 
agencies and departments, as well--must work closely and cooperatively 
if they are to achieve the goals and objectives of the U.S. Government.
    The State-Defense working relationship in U.S. embassies is 
generally good, in my opinion. But it can and must be even better, 
especially after 9/11. I believe the best way to overcome the major 
hurdles to interagency cooperation is for chiefs of mission to 
synchronize systemically across the country team their embassy's 
programs and activities. That is, led by the chief of mission, country 
teams should synchronize the objectives, programs, operations, and 
initiatives contained in the various planning documents that exist for 
each executive branch agency and department represented on the country 
team, military and civilian.
    Once those foundation documents are synchronized in an integrated 
set of programs and activities, the impact, power, and efficacy of U.S. 
foreign policy in the host country should improve dramatically. Metrics 
should be developed to determine if that is, indeed, occurring. Such 
synchronization is a continuing process, of course, with regular chief 
of mission-led country team assessment meetings required to review 
rigorously and to recalibrate as necessary.
    I believe the U.S. military would welcome such a chief of mission-
led synchronization effort in U.S. embassies, since synchronization, at 
least at the tactical level, is deeply embedded in its culture and 
training. While the interagency synchronization I envision is more 
strategic than tactical, I have every intention of introducing and 
operationalizing this process at Embassy Doha, if I am confirmed.

    Question. In February 2008, the United States Department of State 
reported that ``military relations between the United States and Qatar 
are extremely close, and Qatari support remains essential for United 
States operations in Iraq and Afghanistan.'' Given the importance of 
United States bases in Qatar to ongoing operations in the wider Middle 
East, can you foresee any developments that could endanger the 
bilateral relationship and United States access to its bases in Qatar?

    Answer. The United States military presence in Qatar is extremely 
valuable to both nations, and reflects shared security priorities. 
While we continue to engage the Government of Qatar on certain policy 
aspects that are of concern to the United States, including human 
rights, democratization, and Qatar's relations with Iran and Syria, we 
are currently unaware of any issues to endanger either our larger 
bilateral relationship or United States access to military facilities 
in Qatar.
                                 ______
                                 

     Responses of Hon. Richard E. Hoagland to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable reference: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes. I have carefully reviewed this cable.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes. I understand and agree to abide by the principles set 
forth in 04 State 258893 regarding Peace Corps-State Department 
relations.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and ``the Peace Corps's 
role and its need for separation from the day-to-day activities of the 
mission are not comparable to those of other government agencies''?

    Answer. Yes. I understand the need to keep the Peace Corps 
substantially separate from the day-to-day conduct of our foreign 
policy and, if confirmed, will strongly support this policy.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. I pledge, as Secretary Rice requests in 3.B of the cable, 
to exercise my chief of mission authorities so as to provide the Peace 
Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies.
                                 ______
                                 

     Response of Hon. Richard E. Hoagland to Question Submitted by 
                      Senator George V. Voinovich

    Question. What is the status of the current Director of the Office 
of Democratic Institutions and Human Rights Christian Strohal and the 
process to select his replacement?

    Answer. Ambassador Christian Strohal is scheduled to depart his 
post in June 2008. Finding highly qualified successor for this critical 
job is a high priority for the U.S. Government. We have been working 
with the Organization for Security and Cooperation in Europe Chairman 
in Office and with like-minded allies to reach consensus on the best 
candidate from among several outstanding contenders. We understand the 
Chairman in Office intends to bring the process to conclusion within 
several weeks.
                                 ______
                                 

      Responses of Robert Stephen Beecroft to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. An April committee staff report on Iraqi refugees, 
entitled ``Managing Chaos--The Iraqi Refugees of Jordan and Syria and 
Internally Displaced Persons in Iraq,'' recommended that ``the 
regularization of the status of Iraqis in Jordan and Syria should be 
made a first-order priority for American diplomats.'' Do you agree with 
this recommendation? What can be done, in your view, to encourage the 
Government of Jordan to take further steps toward regularizing the 
status of Iraqi refugees in Jordan?

    Answer. The United States takes very seriously the challenge of 
regularizing the status of Iraqi refugees in Jordan and elsewhere in 
the region. The United States Government has made it a priority to 
intensify diplomatic efforts with Jordan and other host-country 
governments, and if confirmed, I will continue to focus on this issue 
as a top priority. We have already seen our efforts begin to bear some 
fruit. Last year, for example, Jordan lifted restrictions preventing 
Iraqi children whose parents lacked residency permits from attending 
public school after our embassy in Amman lobbied heavily for Iraqis to 
be able to attend school. Jordan has also permitted Iraqis to access 
public health facilities on the same basis as Jordanian citizens. In 
February, King Abdullah made a firm commitment to U.N. High 
Commissioner for Refugees Antonio Guterres that Jordan would not 
arbitrarily expel or refoule Iraqi refugees. We understand that Jordan 
is abiding by this commitment. We will continue to work with Jordan to 
regularize the status of Iraqi refugees and to ensure that they are 
protected and have access to needed services until they can return 
voluntarily to Iraq.

    Question. The Millennium Challenge Corporation gave failing scores 
to Jordan in 2008 on its political rights and civil liberties 
assessment indicators. Will you commit to making it a priority, if 
confirmed, to support the freedom of Jordanians to assemble, associate, 
express their opinions, and participate in public life?

    Answer. Yes, if confirmed, I will make it a priority to engage with 
the Government and people of Jordan in support of political rights and 
civil liberties. To that end, I believe it is of utmost importance to 
continue United States support to the efforts of Jordanian reformers to 
improve freedoms of assembly, association, speech, press, and movement, 
and to increase citizen participation, particularly among women, in 
civil society and the government.

    Question. What are the most important actions you have taken in 
your career to date to promote human rights and democracy? What was the 
impact of your actions?

    Answer. I have worked in the Middle East and in Washington to 
promote human rights and democracy. I count among my most meaningful 
experiences my responsibility for human rights at our embassy in 
Riyadh, Saudi Arabia.
    At our embassy in Saudi Arabia, I engaged directly with the Saudi 
Government to press for increased human rights, reform, and 
democratization; drafted the human rights report on Saudi Arabia; 
coordinated with third-country embassies to build support for a joint 
approach to the Saudi Government on key points of our human rights 
policy; conducted meetings with third-country embassies with large 
expatriate populations in Saudi Arabia (e.g., India, Pakistan, the 
Philippines, and others) to develop a coordinated approach to the Saudi 
Government on the need to improve and respect the human rights and 
religious freedom of foreign guest workers; organized meetings between 
United States Government officials and third-country national leaders 
of underground churches regarding their experiences with the lack of 
religious freedom and the persecution of religious minorities.
    Although far from successful in resolving all human rights concerns 
in Saudi Arabia, this work was necessary and helpful to the cause of 
human rights. Specifically, it served to encourage other embassies to 
increase their attention to the practices of the Saudi Government and 
to the human rights of Saudi citizens and third-country nationals. It 
also helped us and others to constructively engage and influence the 
Saudi Government on specific human rights cases and issues. Finally, it 
allowed us to make the Saudi Government aware that we were monitoring 
particular issues, cases, and individuals and thereby discourage any 
government action to curtail or diminish the human rights and religious 
freedom pertinent to those particular issues, cases, and individuals.

    Question. What are the most pressing human rights issues in Jordan? 
What are the most important steps you expect to take, if confirmed, to 
promote human rights and democracy in Jordan? What do you hope to 
accomplish through these actions?

    Answer. As the Department stated in its 2007 Country Human Rights 
Report, the Government of Jordan respected human rights in some areas, 
but its overall record continued to reflect some problems. Jordan's 
most pressing human rights issues fall into four major categories--
political rights and freedoms, prisoner rights, labor rights, and the 
rights of women and minorities. The United States continues to monitor 
religious freedoms in Jordan, although Jordan has historically been a 
model for religious tolerance in the Arab world.
    Through a broad array of efforts, the United States works in close 
collaboration with government officials and local civil society actors 
on a broad range of rights and freedoms. Our assistance aims to 
increase citizen participation in the political, economic, and social 
development of the country; increase the capacity of the parliament to 
promote transparency and accountability; strengthen independent media; 
improve the effectiveness and efficiency of the judicial system; 
strengthen the rights of women; and increase religious freedom and 
tolerance. The United States pursues these goals through direct dialog 
with the government and targeted programmatic assistance efforts 
through USAID, the Middle East Partnership Initiative (MEPI), and the 
Bureau for Democracy, Human Rights, and Labor. These programmatic 
efforts focus on the rule of law, protecting human rights, and 
political participation that engage both government institutions and 
Jordanian civil society.
    In addition, the United States conducts human rights and rule of 
law training for the military to help instill democratic principles, 
including civilian control of the military, and promote respect for 
human rights. An ongoing U.S.-funded counterterrorism fellowship 
program teaches the country's military personnel how to combat 
terrorism while respecting the rule of law, human rights, and civil 
rights. Approximately 300 members of the military receive U.S.-funded 
training through these programs each year. We have also initiated an 
International Visitor Program for corrections officers to expose them 
to Western prison management practices.
    On a regular basis, we engage Jordan on measures to combat 
trafficking in persons and exploitative labor practices. The United 
States Government is funding a 5-year program entitled, ``Better Work 
Jordan,'' through the International Labor Organization and 
International Finance Corporation. This program includes training for 
management and workers on rights and responsibilities of workers, with 
a particular focus on migrant workers, as well as technical assistance 
to improve the capacity of Jordanian labor inspectors to identify and 
resolve labor issues. USAID has also funded an international advisor to 
assist the Jordanian Ministry of Labor in bringing its labor standards 
up to international levels. We continue to stress the importance of 
criminally investigating and punishing acts of forced labor.
    U.S. assistance designed to advance and promote the role of women 
in society continues to achieve tangible success. A 3-year U.S.-
supported program through an international NGO which started in January 
2008 promotes advocacy against gender-based abuse and funds an annual 
antiviolence campaign which holds events throughout the country.
    Finally, working to promote religious freedom and tolerance, the 
United States sponsors exchange visits and, in numerous contacts with 
private American and Jordanian groups, encourages interfaith dialog and 
understanding. A U.S. grant supports exchange visits between Americans 
of diverse religious backgrounds and Jordanian Shari'a judges, 
scholars, and students. The embassy also regularly engages directly 
with government officials urging progress on applying internationally 
recognized standards of religious freedom and removal of restrictions 
on religious minorities. Examples of specific embassy actions include 
publicly supporting conferences to promote effective interfaith dialog, 
raising reported cases of religion-based harassment and intolerance, 
and advocating on behalf of expatriate religious workers and students 
who request legal residency.
    If confirmed, I intend to continue these important initiatives and 
programs as well as increase our focus on other areas of reform, such 
as prisoner rights. I am confident that through our concerted efforts 
and work with the Government and people of Jordan, we will be able to 
help the Government and people of Jordan to expand and deepen their 
rights and freedoms.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Jordan in advancing 
human rights and democracy in general?

    Answer. Jordan has made significant and important strides to 
reform. The United States supports Jordan's efforts and engages its 
Government and its people to encourage further reform and development. 
There are, however, some institutional practices and public 
sensitivities, as well as regional political conditions, that affect 
United States measures to address human rights issues in Jordan. For 
example, discriminatory attitudes toward women persist in certain 
professions and among parts of the populace; media freedoms continue to 
be hampered by self-censorship; the correctional system continues to 
draw its prison guards from the larger pool of Jordanian police, rather 
than fostering a professional cadre of correctional officers, which 
slows the process of changing management and individual attitudes; and 
the government faces challenges in working with Parliament to pass 
needed labor reforms concerning the abuse of foreign workers and the 
enforcement of labor standards. As Jordan advances its reform agenda, 
it will face the challenge of ensuring appropriate and complete 
implementation of its reforms.
    If confirmed, I will work closely with the Jordanian Government and 
people to overcome institutional obstacles, address public 
sensitivities, and meet the challenges of implementing their reforms. I 
will also work to offer the United States support and assistance needed 
to help Jordan successfully carry out reform and development.

    Question. In your new position, what steps would you take to ensure 
that promotion of human rights objectives will be an integral part of 
post/bureau activities? If confirmed, what steps will you take to 
ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. Promotion of human rights will be a central component of 
our ongoing dialog with Jordanians on reform. If confirmed, I will 
instruct every office in my mission to encourage and support Jordan's 
reform and development efforts. In addition, I will ensure that every 
embassy officer integrates support for our human rights agenda into her 
or his portfolio, and I will see that such work is professionally 
rewarded through the presentation of appropriate Department of State 
awards and the preparation of appropriate employee evaluation reports, 
which serve as the basis for promotion and advancement. I will also 
work to ensure that the promotion of human rights and democracy remains 
a central pillar of our USAID, DRL, MEPI, and other assistance 
programs.
                                 ______
                                 

     Responses of Hon. James B. Cunningham to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

                               background
    You have had an impressive career as a Foreign Service officer 
spanning more than three decades. However, you have never been posted 
to the Middle East and appear to have relatively little background in 
Middle East affairs, including Arab-Israeli issues. In your written 
testimony to the committee, you stated that you ``learned a great deal 
about the dynamics and pain'' of the Middle East during your time as 
Deputy Representative to the United Nations from 1999 to 2004.

    Question. Please explain in more detail your engagement on Israeli 
and Arab-Israeli issues at the United Nations.

    Answer. In almost 5 years as Deputy Representative, working 
together with the Representative, I handled, or supervised the handling 
of, issues related to the Middle East in the Security Council and in 
the General Assembly. In my first year in New York, I worked closely 
with Ambassador Holbrooke on a major, successful effort to find Israel 
a home for the first time in the groupings of countries that do much of 
the U.N.'s day-to-day business and, importantly, propose countries as 
candidates to head U.N. groups or committees. From September of 2000, 
with the beginning of the second intifada, until I departed New York in 
the summer of 2004, I dealt with a constant stream of draft resolutions 
and statements in both the Security Council and the General Assembly. 
Some of them produced positive elements such as recognition of the 
importance of the Road Map, or the affirmation by the Security Council 
of President Bush's vision of two states living in peace, embodied in 
UNSCR 1397 in 2002. Much more frequently, however, we were confronted 
with ill-advised, unbalanced, or hostile attempts to use the U.N. 
bodies to prejudice events on the ground, to prejudge the outcome of 
political discussions, or to take actions detrimental to Israel--while 
ignoring or underplaying the terrorist attacks taking place against 
Israel itself. At the extreme, this was an almost full-time activity. 
Our success in defeating or turning aside unhelpful activity in the 
Security Council eventually led the Palestinians and others to take 
recourse in the General Assembly, where obtaining the votes necessary 
to pass tendentious measures was a more certain proposition.
    This meant defending United States policy in the Middle East, and 
Israel's need for and indeed its right to security, in a complicated 
and sometimes hostile environment. It meant developing a close working 
relationship with the Israeli delegation, understanding the history and 
regional politics, and the legal and political histories of many of the 
issues we were dealing with--territories, terrorism, the rights and 
obligations of the parties, and the political processes at play and 
those we were trying to create. It also required an understanding of 
the dynamics and politics of the Arab world, and of the Palestinians 
themselves, since their interests are not monolithic. Syria was on the 
Security Council for 2 years during this period, creating an additional 
challenge, with an intense dynamic. I developed close working 
relationships with some of my Arab colleagues as well, and good 
professional relationships with others. I also worked with and 
developed expertise in the relationships and interests of other major 
players in the region--the U.N. itself, of course, the European Union, 
and the Quartet.

    Question. What portion of time would you estimate you spent engaged 
on Israeli and Arab-Israeli issues while at the United Nations?

    Answer. That is difficult to estimate. At times it was almost 100 
percent of my time. For example, in times of high tension there were 
almost around-the-clock discussions and negotiations that could last 
for days on end. There would also be periods of relative inactivity, 
although Middle East issues, including Lebanon, were a regular fixture 
on the U.N. agenda. I would guess that overall I spent one-quarter or 
more of my time on Israel and Arab-Israeli issues, and more than that 
percentage of my time on Iraq, which was simultaneously a pressing 
issue, especially after September 11.

    Question. To what extent was this engagement focused on the so-
called ``final status'' issues of the Israeli-Palestinian conflict 
(defined in the 1993 Oslo accords as ``Jerusalem, refugees, 
settlements, security arrangements, borders, relations and cooperation 
with other neighbors, and other issues of common interest'')?

    Answer. In many respects it was all about ``final status'' issues, 
because the debates and resolutions revolved around terror and 
security, the use of force and violence, settlements, the separation 
fence, Israel's withdrawal from Lebanon and its aftermath, the 
relationship of Israel to its neighbors, a two-state solution, and the 
rights and obligations of Israel and Palestinians under international 
law. Also at issue was the underlying question of whether the 
conditions existed, or could be created, to get underway a meaningful 
process leading to an end to violence and ultimately to a peace 
process, and the appropriate role of the international community--
issues which remain relevant today in a different context.

    Question. In which other of your assignments have you been engaged 
on Israeli and Arab-Israeli issues?

    Answer. I have not been very directly engaged on Israeli and Arab-
Israeli issues in other assignments, but I have dealt with other issues 
in the region, and have long experience applicable to the region. My 
first assignment to USUN, as deputy political counselor, came just 
after Iraq invaded Kuwait in 1990. I was heavily engaged in the 
mission's activities on Iraq, and the liberation of Kuwait and the 
aftermath, for the entire time I was in New York for that assignment. 
If I am confirmed, I believe my extensive background in security and 
political/military affairs, and knowledge of NATO, the European Union, 
and the U.N. will prove valuable, since security and international 
community support will be key elements of any peace process.

    Question. What role do you expect to play, if confirmed, in the 
Annapolis process?

    Answer. If confirmed, I will support the Annapolis process by 
ensuring that Embassy Tel Aviv's resources are fully devoted to 
supporting the President's and the Secretary's personal diplomacy. I 
will also assist Generals Dayton, Jones, and Fraser in fulfilling their 
mandates. I will seek to build support among Israeli leaders and 
publics for the Annapolis process, and use my contacts with Israeli 
leaders to advance it. I will maintain the best and most constructive 
relationships I can with all segments of the Israeli political 
spectrum, ensure that United States policy and objectives are 
understood, and provide the President and the Secretary the best 
information we can on Israeli views and concerns and on the political 
dynamics at play. I will, of course, also present U.S. views clearly, 
and seek to build the closest possible relationship with this important 
friend and ally. I have considerable experience with difficult 
negotiations, and hope to contribute to finding solutions to the issues 
on the table.
                             rachel corrie
    On March 16, 2003, Rachel Corrie, an American citizen, was killed 
by an Israel Defense Forces bulldozer in Rafah, Gaza, while protesting 
home demolitions.

    Question. Please provide a detailed account of steps taken, if any, 
by the executive branch and the Department of State, including the 
United States Embassy in Tel Aviv, to encourage the Government of 
Israel to undertake a thorough, credible, and transparent investigation 
into Ms. Corrie's death.

    Answer. The United States Government takes its responsibilities 
involving American citizens abroad very seriously and has repeatedly 
engaged the Government of Israel at the highest levels about this 
issue. Immediately following Ms. Corrie's tragic death, President Bush 
telephoned Israeli Prime Minister Sharon to request a thorough and 
transparent investigation and was given personal assurances by the 
Prime Minister that there would be one. Additionally, then-Secretary 
Powell, Ambassador Kurtzer, Deputy Chief of Mission LeBaron, Assistant 
Secretary William Burns, and Deputy Assistant Secretary David 
Satterfield, among others, raised this issue with their counterparts 
and other appropriate authorities in the Israeli Government.
    More recently, during a visit to Israel, former Assistant Secretary 
for Consular Affairs Maura Harty specifically raised outstanding issues 
again with her counterpart at the Israeli Ministry of Foreign Affairs, 
Mr. Yigal Tzarfati. Assistant Secretary Harty also gave Mr. Tzarfati a 
letter that reiterated the U.S. Government's request for a full and 
transparent investigation of the incident.
    The Government of Israel has not yet fully responded to Assistant 
Secretary Harty's letter, and specifically her request for a full and 
transparent investigation. The United States Embassy in Tel Aviv will 
continue to follow up with the Israelis for a response to our 
inquiries. If confirmed, I will ensure that this follow-up takes place 
and press the Government of Israel for a response.
    Additionally, in late October, representatives from the Department 
of State met with the Corrie family and with Congressman Baird and his 
staff at his offices to discuss concerns that the Corrie family still 
has with respect to the death of Rachel Corrie. We are continuing to 
investigate charges of irregularities with the Israeli Government's 
handling of the case and to respond to the family's concerns to the 
maximum extent.

    Question. In your opinion, has a thorough, credible, and 
transparent investigation taken place? If not, what specific, concrete 
steps will you commit to take, if confirmed, to ensure that such an 
investigation does take place?

    Answer. The Department remains committed to providing the highest 
standards of citizen services to the Corrie family. If confirmed, I 
will continue to press the Government of Israel for a thorough and 
transparent investigation of the tragic death of Rachel Corrie.
                                 ______
                                 

     Responses of Hon. James B. Cunningham to Questions Submitted 
                     by Senator George V. Voinovich

    Question. Well, I would like to get more information about the role 
you are going to play [in helping to achieve progress on the ground and 
in Israeli-Palestinian peace talks launched at Annapolis last 
November].

    Answer. The Administration is firmly committed to a two-state 
solution to the Israeli-Palestinian conflict. This is not only in the 
interest of Israelis and Palestinians, but also an American national 
interest. If confirmed, as Ambassador to Israel I will ensure that the 
embassy's resources are fully devoted to supporting the President's and 
Secretary Rice's personal diplomacy, and utilize my own contacts with 
Israeli leaders and publics across the political spectrum to solidify 
support for the process launched last November in Annapolis, and to 
advance it. I will provide the President and the Secretary with the 
best information available to the embassy on Israeli views and 
concerns, and on the political dynamics involved. I will also support 
the process by presenting United States views clearly to the Israeli 
Government and maintaining the best possible dialog between us.
    Since Annapolis, we have been working to achieve progress on four 
parallel, complementary tracks. First we are supporting the parties' 
bilateral negotiations, which began in earnest shortly after Annapolis 
with the creation of a negotiating structure and a vigorous schedule of 
bilateral talks on the full spectrum of issues. The parties have kept 
the substance of these talks private, which reflects the seriousness of 
their effort. The Secretary and Assistant Secretary Welch are deeply 
and personally engaged in supporting the parties' efforts in this area. 
As the President's representative to Israel, if confirmed, I would be 
an integral part of our engagement with senior Israeli officials on 
this most delicate issue, working with the Secretary and Assistant 
Secretary Welch to help keep the talks on track.
    Second, we are working to promote progress by the parties in 
fulfilling their commitments under the Roadmap. For the Palestinians, 
this means combating and dismantling the infrastructure of terrorism, 
undertaking institutional reforms, and ending incitement. For Israel, 
it means halting settlement expansion, removing unauthorized outposts, 
easing movement and access to improve Palestinian economic and 
humanitarian conditions, facilitating security coordination, and 
reopening Palestinian institutions in East Jerusalem, consistent with 
previous agreements. The President and Secretary Rice have asked Lt 
Gen. William Fraser III to monitor developments in this area and to 
work with the parties to promote progress on Roadmap implementation. As 
ambassador, I would work closely with General Fraser to ensure the 
success of his mission, and I would utilize my regular contact with 
senior Israeli officials to effect visible progress on these important 
issues. Another element to this effort is security coordination between 
Israel and the Palestinians. I would engage directly with the Minister 
of Defense and his staff to help ensure coordination and support is as 
effective as possible in response to the efforts we are now seeing by 
the Palestinian Authority Security Forces.
    Third, we are working to support Palestinian economic development 
and institutional capacity building. Former United Kingdom Prime 
Minister Tony Blair, in his role as Quartet Representative, has taken a 
leadership role on this issue, identifying priority projects and 
working with the parties and international donors to facilitate 
implementation on the ground. As Ambassador to Israel I would work to 
ensure Israeli coordination and support for the important programs that 
these funds will support, as well as for the efforts of LTG Keith 
Dayton, the U.S. Security Coordinator, who is working to reform and 
professionalize the Palestinian security forces, including a program 
providing training and nonlethal equipment.
    Fourth, we are working to sustain and expand regional support for 
the parties' efforts. Arab political and financial support will be 
crucial in order for both Israel and the Palestinians to make the 
difficult decisions necessary for peace. As Ambassador to Israel my 
role in this area would be less direct, but I would hope to use my 
experience in the dynamics of the region to contribute to our thinking 
about how to advance on this track.

    Question. So I am very interested in finding out just exactly what 
is that portfolio? What do they expect to do? And also I would like to 
know who is the team? Who is in charge? How are they going to work this 
out?

    Answer. I earlier described the four tracks we are working to 
advance--bilateral negotiations, Roadmap implementation, Palestinian 
capacity building, and building regional support. The administration 
has structured its effort to ensure focused attention is paid to each 
of these important sets of issues. Generals Dayton, Jones, and Fraser 
are each working on separate but related areas. Each is important, but 
distinct from the others. I have met two of the three, and both told me 
that there is no confusion among them, and that they are all in 
frequent contact. For Lt. General Dayton, whom I have not yet met, the 
focus is building the capacity and professionalism of the Palestinian 
Authority Security Forces and helping to foster internal reform and 
improved security coordination with Israel. For General Jones, the 
focus is on exploring the security aspects of a permanent status 
agreement, helping to define each party's security needs and what 
regional arrangements and international support might be needed. For 
Lt. General Fraser, the focus is on monitoring and promoting progress 
by both parties on their commitments under the Roadmap. At the same 
time, the United States Ambassador to Israel and the United States 
Consul General in Jerusalem are providing logistical and policy support 
to these missions, keeping Washington informed of developments on the 
ground, and maintaining our bilateral contacts and dialog with Israel 
and the PA.
    All of this work on the four tracks, as well as the effort of our 
considerable diplomatic establishment in both the embassy and the 
Consulate General, as well as throughout the region, is conducted at 
the direction and under the oversight of the Assistant Secretary of 
State for Near Eastern Affairs, David Welch, and the Secretary of 
State. Their personal engagement, and that of the President, is really 
the engine that makes this process run, along with the good will and 
determination of the Israeli and Palestinian leadership who are 
committed to peace. The current United States structure is helping to 
achieve real progress in Israeli-Palestinian negotiations and on the 
ground, ranging from the easing of restrictions on West Bank movement, 
to training and equipping the PA security forces. We are hopeful that 
our continued efforts will be successful in helping the Israelis and 
Palestinian realize our shared goal of a peace agreement before the end 
of 2008.
                                 ______
                                 

     Responses of Hon. James B. Cunningham to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. In the wake of the 2007 Annapolis Conference, many have 
expressed optimism that a major agreement could be reached between the 
Israelis and Palestinians by the end of the Bush administration. As 
Secretary Rice prepares to make her fourth visit to Israel and the 
Palestinian territories since the Annapolis conference, much of this 
optimism appears to have faded. What is the status of negotiations 
between the Israelis and the Palestinian Authority and what must the 
United States do at this point to jumpstart the process and increase 
the likelihood of a successful outcome? Also, on a related note, 
without the constant presence of a U.S. special envoy responsible for 
all aspects of the negotiation, do you believe the United States can 
provide the oversight of the talks necessary to ensure success?

    Answer. As you know, the administration in firmly committed to a 
two-state solution to the Israeli-Palestinian conflict. We view this as 
not only in the interest of Israelis and Palestinians, but also an 
American national interest. Since Annapolis we have been working to 
achieve progress on four parallel, complementary tracks.
    First and foremost, we are supporting the parties' bilateral 
negotiations, which began in earnest shortly after Annapolis with the 
creation of a negotiating structure and a vigorous schedule of 
bilateral talks on the full spectrum of issues. The parties have kept 
the substance of these talks private, which reflects the seriousness of 
their effort. As part of this process, Secretary Rice has enlisted the 
services of General (ret.) Jim Jones, former Commandant of the Marine 
Corps and NATO Supreme Allied Commander, who is looking at the security 
aspects of permanent status. The Secretary and Assistant Secretary 
Welch are also deeply and personally engaged in supporting the parties' 
negotiating efforts. The President's commitment is also clear. We must 
recognize, however, that a peace agreement cannot be imposed from 
outside, and it is the parties themselves who must work through the 
difficult compromises necessary for peace. They are having serious 
discussions in an organized process. The United States will support 
them, will work to ensure the talks stay on track, and when appropriate 
we will offer ideas to help facilitate progress.
    Second, we are working to promote progress by the parties in 
fulfilling their commitments under the Roadmap. For the Palestinians, 
this means combating and dismantling the infrastructure of terrorism, 
undertaking institutional reforms, and ending incitement. For Israel, 
it means halting settlement expansion, removing unauthorized outposts, 
easing movement and access to improve Palestinian economic and 
humanitarian conditions, facilitating security coordination, and 
reopening Palestinian institutions in East Jerusalem consistent with 
previous agreements. The President and Secretary Rice have asked LTG 
William Fraser III to monitor developments in this area and to work 
with the parties to promote progress on Roadmap implementation. Given 
the secret nature of the bilateral negotiations, progress on the ground 
is crucial to reflect the seriousness of the process as well as 
progress that is being achieved in the negotiations.
    Third, we are working to support Palestinian economic development 
and institutional capacity building. France hosted a donors' conference 
in December which generated pledges of $7.7 billion dollars in 
budgetary and programmatic support for the PA. The Ad Hoc Liaison 
Committee will meet on May 2 to maintain close donor coordination. 
Former United Kingdom Prime Minister Tony Blair, in his role as Quartet 
Representative, has taken a leadership role on this issue, identifying 
priority projects and working with the parties and international donors 
to facilitate implementation on the ground. The United States is doing 
its part. In Paris we pledged $545 million in support for the PA, 
including $150 million in budgetary support which was delivered to the 
Fayyad government in mid-March. Additionally, LTG Keith Dayton, the 
United States Security Coordinator, is working to reform and 
professionalize the Palestinian security forces, including a program 
providing training and nonlethal equipment. There is a particularly 
urgent need for budgetary support for the Palestinians, and we are 
strongly encouraging Arab governments to do their part.
    Finally, we are working to sustain and expand regional support for 
the parties' efforts. Arab political and financial support will be 
crucial in order for both Israel and the Palestinians to make the 
painful compromises necessary for peace. The Arab Peace Initiative was 
an important step. Now, as President Bush said in July, ``Arab nations 
should build on this initiative--by ending the fiction that Israel does 
not exist, stopping the incitement of hatred in their official media, 
and sending cabinet-level visitors to Israel.''
    We will promote progress on each of these four tracks, each of them 
vital to the goal of a peace agreement by the end of the year. 
Secretary Rice is traveling regularly to the region to advance the 
process. President Bush's January trip to Israel and the West Bank, his 
first as President, and plans for another Presidential trip in May 
reflect his personal engagement and commitment to this issue. There are 
substantial obstacles that must be overcome to reach the goal of a 
permanent status agreement. And opponents of peace are working to 
undermine the leaders' efforts as evidenced by the serious escalation 
of violence in Gaza and southern Israel in February and March, and the 
tragic terrorist attack in Jerusalem on March 6, and more recently 
against Gaza crossing points. Nevertheless, we remain hopeful that an 
agreement can be reached before the end of 2008. Prime Minister Olmert 
and President Abbas are partners truly committed to peace, and they 
enjoy our full support in their historic effort to realize the 
Palestinian people's aspirations for a better life and statehood, and 
the Israeli people's aspiration for peace and security.

    Question. It is reported that Israeli maintains more than 500 
checkpoints and roadblocks in the Palestinian Territories, representing 
one of the major points of contention in the ongoing talks. What is the 
status of Israeli roadblocks in the Palestinian Territories and what 
specific steps is the administration taking to encourage the Israelis 
to reduce the number of checkpoints and improve the daily lives of 
average Palestinians in the West Bank?

    Answer. The United Nations Office for Coordination of Humanitarian 
Affairs reported on May 1 that Israeli obstacles to movement in the 
West Bank had increased to over 600. These range from earthen mounds, 
some put in place in association with specific Israelis security 
operations, to major checkpoints on the roads between large Palestinian 
population centers. The Government of Israel views these roadblocks and 
checkpoints as a vital component of Israel's efforts to prevent 
terrorists from infiltrating and carrying out attacks in Israeli 
cities. For the Palestinians, these obstacles to movement are both a 
daily nuisance and a major constraint to economic growth and 
development.
    Israel has committed to reducing obstacles to Palestinian movement 
in the West Bank, both under the Roadmap, and in the November 2005 
Agreement on Movement and Access that Secretary Rice brokered. There is 
an urgent need for progress in this area to build confidence between 
the parties, sustain popular support for negotiations, as well as to 
facilitate progress on important economic and capacity building 
projects for the Palestinians. Easing restriction on Palestinian 
movement is inextricably linked to Palestinian security performance. If 
the Israelis can trust that the Palestinian Authority security forces 
(PASF) are taking the necessary steps to uphold law and order and 
combat terrorism, it will be much easier for Israel to ease West Bank 
movement and access restrictions.
    These are priority issues for our diplomatic missions in Jerusalem 
and Tel Aviv, and the special envoys the Secretary and President Bush 
have appointed to advance Israeli-Palestinian peace. LTG Keith Dayton 
is spearheading U.S. and international efforts to train, equip, and 
professionalize the PASF. At the same time Quartet Representative Tony 
Blair and General Jim Jones (ret.) are working to integrate economic 
and capacity building projects with PASF deployments. We are also 
working with Israel to help rationalize the easing of movement and 
access restrictions which are necessary for these projects to succeed. 
Meanwhile, Lt. Gen. William Fraser III, who heads U.S. efforts to 
monitor and promote progress on Roadmap implementation, is reporting on 
progress on the ground and keeping the Secretary of State informed so 
she can support both parties' efforts in this area. Secretary Rice met 
with Israeli Defense Minister Barak and Palestinian Authority PM Fayyad 
on March 30 to discuss this issue, among others. That meeting resulted 
in agreement to remove more than 50 roadblocks and to improve security 
coordination. Israel followed through and removed more than 50 
roadblocks, some of them significant. Much more remains to be done, and 
improved performance by the PASF and Israeli-Palestinian security 
coordination should help facilitate continued progress. Progress on the 
ground remains a vital component of overall progress toward peace, and 
as such will remain a high priority.

    Question. King Abdullah II of Jordan hosted Israeli Prime Minister 
Ehud Olmert yesterday in Amman. After this visit, a Jordanian royal 
palace statement urged Olmert to work on ``improving the living 
conditions of Palestinians in the West Bank and the Gaza Strip.'' 
Despite a significant infusion of foreign aid, the World Bank has 
recently warned that the Palestinian economy is not likely to grow this 
year, largely due to continued IDF restrictions on movement. Yet, a 
recent report by a group of retired Israeli generals and Palestinian 
officials identified 10 major West Bank checkpoints that could be 
removed--boosting the Palestinian economy--without jeopardizing Israeli 
security. Are you aware of this report, do you find the report 
credible, and what actions, if any, are the Israelis taking to 
implement its recommendations?

    Answer. Improving the living conditions of Palestinians is a top 
priority for the United States Government and a key focus in our 
efforts to achieve progress between Israel and the Palestinians. As the 
World Bank and IMF have pointed out in recent reports, obstacles to 
movement and access of people and goods in the West Bank remains a 
serious impediment to the type of economic revival that the U.S. 
Government and the international community would like to see and are 
working to support. We are aware of the recent study published by ex-
Israeli military generals and Palestinian officials regarding the 10 
West Bank checkpoints.
    We continue to encourage and work with Israel and the PA to foster 
improved Palestinian security performance and Israeli-Palestinian 
security coordination, and to move forward with vital steps to ease 
restriction on Palestinian movement and access in the West Bank. 
Secretary Rice just returned from the region where she engaged with 
Israeli and Palestinian officials on the need to improve conditions in 
the West Bank, including through a reduction in the number of obstacles 
to movement in the West Bank that significantly undermine Palestinian 
economic development. We are also working to professionalize the 
Palestinian security forces so that they can take the necessary steps 
to uphold law and order and combat terrorism. These are issues that 
clearly are most effectively addressed in concrete terms rather than in 
the abstract. With that in mind, we are working closely with the 
parties on an integrated approach to security performance and 
coordination, economic development and capacity building projects, and 
movement and access issues. Jenin will be the first target of these 
collaborative efforts and we are hopeful that this new approach will 
yield tangible benefits and bring new life and hope to Jenin, setting 
an example that can be followed elsewhere in the Palestinian 
territories.
                                 ______
                                 

     Response of Hon. Richard E. Hoagland to Question Submitted by 
                      Senator George V. Voinovich

    Question. Any information that you could give me on just what the 
status is in replacing, I think it is Christian Strohal, who is now 
head of the Office of Democratic Institutions and Human Rights, I would 
appreciate. Because it is really important that Kazakhstan and everyone 
understands how important that person is to the future in terms of the 
responsibilities of the Office of Democratic Institutions and Human 
Rights. So if you have got any recent information on that, I would like 
to have it back because we are really trying to figure out who is the 
best person. And to my knowledge, right now, our Government is not 
pushing anybody for that role. But I really think it is important that 
we do have a role in making sure that we get the right person there.

    Answer. The Chairman-in-Office of the Organization for Security and 
Cooperation in Europe announced on May 14 that all participating states 
had joined consensus in approving the nomination of Slovenian State 
Secretary Janez Lenarcic to be the next director of the Office of 
Democratic Institutions and Human Rights, replacing Ambassador 
Christian Strohal, who is scheduled to depart his post in June 2008. 
The Department of State is pleased that this highly qualified candidate 
for this critical job obtained the support of all 56 participating 
states. Ambassador Lenarcic displayed the qualities that made him an 
outstanding candidate when he served as the representative in Vienna of 
the then-Chairman-in-Office during the Slovenian chairmanship of the 
Organization for Security and Cooperation in Europe. The Department 
looks forward to working with Ambassador Lenarcic when he assumes his 
position on July 1, 2008.


                              NOMINATIONS

                              ----------                              


                         WEDNESDAY, MAY 7, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Bernicat, Marcia Stephens Bloom, to be Ambassador to the 
        Republic of Guinea-Bissau
Bodde, Peter W., to be Ambassador to the Republic of Malawi
Booth, Donald E., to be Ambassador to the Republic of Zambia
McMahon Hawkins, Patricia, to be Ambassador to the Togolese 
        Republic
Milovanovic, Gillian Arlette, to be Ambassador to the Republic 
        of Mali
Myles, Marianne Matuzic, to be Ambassador to the Republic of 
        Cape Verde
Nolan, Stephen James, to be Ambassador to the Republic of 
        Botswana
Thomas-Greenfield, Linda, to be Ambassador to the Republic of 
        Liberia
Tritelbaum, Donald Gene, to be Ambassador to the Republic of 
        Ghana
                              ----------                              

    The committee met, pursuant to notice, at 9:32 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold presiding.
    Present: Senators Feingold and Isakson.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. This hearing will come to order. Good 
morning everybody.
    We have an impressive array of foreign policy experience 
and expertise before us this morning. I would like to begin by 
thanking our nine nominees for being here today, but more 
importantly, for your many years of service and for your 
willingness to work in some of the most demanding positions in 
the U.S. Government and in some of the more difficult postings 
around the world.
    I would also like to offer a warm welcome to your families 
and friends whose ongoing support will be necessary as you set 
off, once confirmed, to undertake your new position. And I 
encourage you, when you make your brief remarks, to please 
introduce any of your family members or friends who are with 
you today.
    Last, but certainly not least, I want to acknowledge and 
welcome my colleague, Senator Johnny Isakson, who is joining us 
as the ranking member of this committee for the first time. 
Senator, I am looking forward to working with you on a range of 
countries and issues related to Africa, but it seems 
appropriate that our first committee hearing together is one in 
which we will engage with the men and women who have accepted 
the challenging responsibility of serving as the face and 
overseer of United States policy in 10 sub-Saharan African 
countries.
    And I will give the Senator an opportunity to welcome the 
nominees and deliver some opening remarks in just a moment, but 
first, I hope you do not mind if I lay out what I see as the 
primary challenges facing the United States Government in 
Africa today very briefly.
    As ambassadors for the United States, you will undoubtedly 
have to juggle conflicting priorities. Security is a top 
concern, but the source and nature of the threat differ widely, 
as does the approach needed to effectively address it. For 
example, the rebellions and illegal trafficking in Mali's 
lawless northern territory require a different response than 
the need for, for example, security sector reform in Liberia or 
the lack of maritime defense capacity in Cape Verde. You will 
also face different and evolving partners, with young foreign 
ministries and uneven military infrastructures. The challenges 
are many--and subject to rapid change, especially in countries 
that have upcoming elections.
    Additionally, you will be developing and implementing 
policies at the same time that the new United States combatant 
command for Africa is establishing its role on the continent.
    In addition to security concerns, you will have to address 
a range of other U.S. strategic interests, including the 
promotion of democratic principles, human rights, good 
governance, and sustainable development. U.S. credibility in 
these countries depends upon our consistent adherence to and 
advocacy of these fundamental values. Particularly in countries 
where the United States does not have a long history of 
engagement or much institutional knowledge, building solid 
relationships--not just with government officials but also with 
business, religious, civil society, and other community 
leaders--is critical to informing and implementing an effective 
U.S. policy.
    And you will also have to ensure that financial, material, 
and human resources are allocated to address strategic 
challenges and long-term objectives in your respective 
countries, and not just to current needs or emergency 
requirements.
    If you are confirmed, I look forward to working closely 
with you as you meet these responsibilities. I hope you look to 
the Senate as a resource and to this committee as a source of 
support and guidance during your tenure at your respective 
posts. I think you will find this committee to be about the 
most bipartisan and cooperative one--I will not say in the 
entire Senate, but certainly one of the most. That is the way 
it has always been. This has never been a source of partisan 
conflict, and I have been on this committee now for 16 years.
    Now, I look forward to your testimony and to a brief 
discussion about your qualifications and expectations going 
into these important positions, but first I would like to 
invite my colleague, the ranking member, Senator Isakson, to 
offer some opening remarks.

               STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Senator Feingold. I am 
looking forward to the opportunity of serving with you. I have 
admired your commitment to the African continent and United 
States relations there and I hope to benefit and learn from 
your knowledge and serve as a contributing member as ranking 
member of this committee.
    I want to thank our nominees all for being here today. I 
have had the occasion to meet with all of them over the last 
week or so, and they all have very impressive and longstanding 
records of service to this country and places all over the 
globe, both challenging and exotic. And I am delighted that you 
are all here today and welcome your family members and loved 
ones. I think Senator Feingold and I both recognize we could 
not do what we do without the love and support of our families, 
and we know the same is true with you. And we appreciate very 
much the commitment that they make.
    I was telling some of the nominees yesterday in a meeting 
that I, personally, in the 21st century, do not think there is 
any question that Africa is the continent of the 21st century 
as far as the United States of America is concerned. I have 
visited there twice in the last couple of years, as recently as 
January, in some of the regional areas where some of these 
nominees will be serving. And it is an opportunity for the 
United States to develop a lasting friendship, economic 
opportunities, and shared arrangements with some wonderful 
people in some growing and emerging countries.
    I commend the President on his commitment to Africa in 
terms of the President's Emergency Plan for AIDS Relief, and I 
am looking forward to working with each and every one of the 
nominees, when they are confirmed, in any way I can to support 
their effort on the continent and their effort on behalf of the 
United States of America.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you so much, Senator Isakson.
    At this time, I would like to request that a statement by 
my colleague, Senator Hagel, in support of Mr. Bodde's 
nomination for the position of U.S. Ambassador to Malawi be 
submitted for the record. Without objection.
    [The prepared statement of Senator Hagel appears at the end 
of this hearing in the ``Additional Material Submitted for the 
Record'' section.]
    Senator Feingold. And now I will turn to Congressman 
Pomeroy for his introduction of Ambassador Milovanovic. 
Congressman, it is good to have you here.

                STATEMENT OF HON. EARL POMEROY,
             U.S. REPRESENTATIVE FROM NORTH DAKOTA

    Mr. Pomeroy. Thank you, Mr. Chairman. It is good to be 
here. Good to see my former colleague, Senator Isakson, once 
again.
    I am here to speak in support of and introduce Ambassador 
Milovanovic, who is presently serving as our Ambassador to 
Macedonia. She has been designated as Ambassador-designate to 
the country of Mali, and I am here because I care deeply about 
both countries and have had a chance to observe the Ambassador 
in her performance as our representative in Macedonia.
    I am a member of the House Democracy Assistance Commission. 
This is an effort within the House, bipartisan, to try and 
mentor parliamentarians in emerging democracies. We are 
partnering with 14 different countries, and in that connection, 
I have had the occasion to go to Macedonia twice during the 
period the Ambassador has served there.
    This has been a period, like everything in the Balkans, of 
substantial political complexity, and there have been many 
things for the ambassador to assist us and assist the country 
of Macedonia in steering their way through these difficult 
years, among other things, basically a complete fruition of the 
Accra Accords as they came through a period of near civil war 
to a period of governing stability, helping to guide Macedonia 
in their position relative to Kosovo, the world's newest 
independent country.
    She has assisted them in becoming NATO-ready. They were not 
accepted into NATO, as you know, at the Bucharest meeting, but 
they have made great strides and have our full support as they 
continue their quest for NATO membership.
    She has expanded our Peace Corps operations in Macedonia.
    As a member of the House Democracy Assistance Commission, I 
have had a chance to observe her as she has interacted with the 
various political factions, the various ethnic factions, the 
parliament, the president, the prime minister. We have also had 
a chance to visit extensively about the complex state of 
affairs in Macedonia, and she has a complete grasp. She was so 
incredibly helpful to me and the other HDAC members as we tried 
to scamper up the learning curve ourselves in our interaction 
with the parliamentarians.
    She is heading into, with your approval, a very new and 
interesting assignment with the country of Mali. In my opinion, 
the country of Mali is led by one of the continent's great 
leaders, President Toure. He has, I believe, served almost a 
George Washington-like role in leading, in 1991, a military 
coup that deposed a very corrupt government and got the country 
on track to democracy. But he did not stand as the first 
president. That was President Konare, who served his two terms, 
and then allowed the peaceful transition, according to their 
constitution and democratic election, to the new government. 
President ATT, as he is known, Toure, stood for election, was 
elected, recently reelected. It was my privilege to represent 
Speaker Pelosi at his inauguration last June.
    Mali is a country that, in a tough neighborhood, has run 
four successful democratic elections for President. They are 
the recipient of one of our most significant Millennium 
Challenge grants, a $429 million grant, that literally could 
affect substantial lasting change in this country. I believe 
one of the ambassador's largest responsibilities will be making 
certain that this comes along and comes along in a successful 
way.
    I think that we have got an outstanding diplomat to partner 
with an outstanding President on the ground in Mali, and I 
could only think very good things will happen in a little 
country I care very deeply about.
    So I thank you and I am very happy--for what it is worth, a 
House guy endorsing without reservation the consideration of 
Ambassador Milovanovic for the Mali assignment.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pomeroy follows:]

                Prepared Statement of Hon. Earl Pomeroy,
                   U.S. Congressman From North Dakota

    Chairman Feingold and members of the Senate Foreign Relations 
Committee, I am pleased to testify briefly this morning in support of 
your consideration of Ambassador Milovanovic, presently serving as 
Ambassador to the Republic of Macedonia, for a new position as 
Ambassador to the Republic of Mali.
    I have a deep interest in both Mali and Macedonia and have had the 
opportunity to observe the leadership of Ambassador Milovanovic as she 
has represented the United States in the Republic of Macedonia.
    I am a currently a member of the House Democracy Assistance 
Commission. This commission is a bipartisan undertaking in the House of 
Representatives, charged with establishing mentoring relationships with 
members of Parliament in new and emerging democracies. Presently, we 
have relations with 14 countries, including the Republic of Macedonia. 
Through this commission, I participated in exchanges with Macedonia in 
November 2006 and in March of this year.
    On each occasion I met with Ambassador Milovanovic and had the 
opportunity to witness her interactions with members of Parliament from 
across the spectrum of parties and ethnic groups. I also had the honor 
to witness her employ considerable diplomatic skills during a meeting 
with the present Prime Minister.
    As this committee knows well, Macedonia is a vibrant newly emerging 
democracy that faces many complex challenges. In extensive discussions 
with Ambassador Milovanovic, I was impressed with her thorough grasp of 
the issues facing the country and the positive leadership role that she 
has played as the official representative of the United States 
Government.
    I have been very interested in the Republic of Mali since a trip 
there in 2001 where we evaluated the emerging commitment of basic 
education for all children--especially in improving the access to 
education for girls. In subsequent years, I have closely followed 
Mali's successful transition to democracy. In 2007, Mali successfully 
concluded its fourth democratic election for President--a notable 
record in light of the long, corrupt, and repressive nature of the 
government of Moussa Traore, which was ended by military coup in 1991.
    President Konare, who succeeded Moussa Traore, and his successor, 
President Toure, are model leaders on the continent of Africa. They 
each have demonstrated extraordinary skills in trying to establish the 
tradition of democracy in one of the poorest countries in the world. 
What is all the more remarkable is the fact that they are achieving 
this in a very tough neighborhood where neighboring countries are 
facing diverse governance and security challenges.
    Mali's exemplary efforts have been recognized by the United States 
in their receipt of a Millennium Challenge grant from the 
administration. This grant award in the amount of $461 million is one 
of the largest Millennium Challenge grants awarded to date.
    The Republic of Mali deserves one of our finest diplomats. Many 
would view Mali as strategically insignificant to the United States. I, 
however, hold a different view. I believe that Mali is vitally 
important to the United States. It is a role model for the rest of the 
continent, having demonstrated how a successful transition from a 
system of entrenched authoritarianism can be successfully undertaken. 
Mali's success shows how free, open elections can produce positive 
changes for the people of a country, even in the face of seemingly 
insurmountable challenges.
    The Republic of Mali deserves one of our finest diplomats, and when 
I learned that Ambassador Milovanovic had been selected for Mali, I was 
delighted. I believe that Ambassador Milovanovic's nomination to 
represent the interests of the United States in Mali perfectly matches 
a tremendously talented United States diplomat with a country that is 
very deserving of her service.
    I hope the committee will move quickly to confirm Ambassador 
Milovanovic as the next United States Ambassador to Mali.
    Thank you.

    Senator Feingold. Thank you, Congressman. Of course, your 
words are most welcome and I congratulate the nominee on 
receiving such high words of praise from our colleague. Thank 
you so much, Congressman, for being here.
    Now we will go to the nominees, and we will begin with Ms. 
Bernicat, who would be the Ambassador to Senegal and Guinea-
Bissau.

  STATEMENT OF MARCIA STEPHENS BLOOM BERNICAT, NOMINEE TO BE 
   AMBASSADOR TO THE REPUBLIC OF SENEGAL AND THE REPUBLIC OF 
                         GUINEA-BISSAU

    Ms. Bernicat. Good morning, Mr. Chairman, and members of 
the committee. I am honored to appear before you today. I wish 
to thank the President and the Secretary of State for the 
confidence that they have placed in me as their nominee for 
Ambassador to the Republic of Senegal and to the Republic of 
Guinea-Bissau.
    In the interest of time, Mr. Chairman, I have a slightly 
longer written statement I would like to submit for the record 
with your permission.
    Mr. Chairman, my sons, Sunil Christopher and Sumit 
Nicolaus, with whom I have been enormously blessed to share the 
adventure of service overseas, are here today. They and several 
friends they brought with them have studied the function of 
advice and consent this year and wanted to see it for 
themselves.
    Senator Feingold. Where are they?
    Ms. Bernicat. They are right here.
    Senator Feingold. Please stand up. Welcome. Glad to see you 
guys. [Applause.]
    Ms. Bernicat. It has been my great fortune to represent the 
American people in seven countries located in five geographic 
regions, including three postings and an internship on the 
African continent, since joining the Foreign Service in 1981.
    The Senegalese people have a proud democratic tradition, 
including peaceful transitions of government, religious 
tolerance, a free press, and the rule of law, even as they 
struggle to overcome persistent economic and governance 
difficulties that challenges of development impose. If 
confirmed, one of my most important responsibilities will be to 
work with President Abdoulaye Wade and his government to ensure 
an environment that encourages the broadest participation in 
the political process by all elements of the population.
    The United States also supports transparency and 
accountability in government spending, critical market-based 
economic reforms, and continued progress towards the Millennium 
Challenge compact.
    Senegal maintains its active role internationally and is a 
strong partner of the United States in the war on terror. 
President Wade has provided vital personal leadership in 
promoting religious tolerance and mutual understanding. He will 
be the chairman of the Organization of the Islamic Conference 
for the next 3 years and has been a leading proponent of the 
New Partnership for Africa's Development.
    Having worked with earlier peacekeeping training programs 
in Malawi, I look forward, if confirmed, to supporting Senegal 
in its role as a leading contributor to peacekeeping operations 
around the world, including Darfur.
    As someone who has lost too many friends and colleagues in 
the last decade to HIV/AIDS and malaria, if confirmed, I will 
work to redouble our efforts to fight these diseases, as well 
as address other health issues in both countries.
    Guinea-Bissau continues to face formidable challenges in 
establishing political stability and economic prosperity. Its 
democratic institutions and rule of law remain weak, but the 
country has reached the important milestone of seating a 
government that conforms to its constitution. I will work, if 
confirmed, to promote the dual goals of a democratic, 
transparent political system and a complementary economic 
program to help reduce the levels of poverty that contribute to 
regional instability.
    If confirmed, I am eager to apply the lessons I learned in 
Barbados and the Eastern Caribbean to fight the growing 
contagion of illicit narcotics trafficking in Guinea-Bissau. I 
relish the prospect of developing a successful interagency 
strategy which would also engage international partners to 
combat this scourge and to provide the people of Guinea-Bissau 
with material and moral support in that fight.
    Thank you, Mr. Chairman, for your continuing interest in 
Africa and the positive role the United States can play in its 
development. If confirmed, I look forward to working with you, 
your committee, and other Members of Congress to advance 
America's interests in Senegal and Guinea-Bissau. It would be a 
great privilege to travel the length and breadth of both 
countries to proudly represent the people of the United States.
    I would be happy to respond to your questions.
    [The prepared statement of Ms. Bernicat follows:]

  Prepared Statement of Marcia Stephens Bloom Bernicat, Nominee to be 
              Ambassador to the Republic of Guinea-Bissau

    Mr. Chairman and members of the committee, I am honored to appear 
before you today. I wish to thank the President and the Secretary of 
State for the trust and confidence that they have placed in me as their 
nominee for Ambassador to the Republic of Senegal and to the Republic 
of Guinea-Bissau.
    Mr. Chairman, I would like to introduce my sons, Sunil Christopher 
and Sumit Nicolaus, with whom I have been enormously blessed to share 
the adventure and the challenge of service overseas. It has been my 
fortune, as well, to have represented the American people in seven 
countries in five geographic regions since joining the Foreign Service 
in 1981. If confirmed, it would be a great privilege to serve our 
country in Senegal and Guinea-Bissau. Both countries are friends of the 
United States.
    The Senegalese people are well known for their proud democratic 
tradition, including peaceful transitions of government, religious 
tolerance, a free press, and an acknowledgement of the importance of 
the rule of law, even as they struggle to overcome persistent economic 
and governance difficulties posed by the challenges of development. 
Senegal continues to participate actively in international 
organizations and including the Organization of the Islamic Conference 
in which President Abdoulaye Wade will chair for the next 3 years. 
President Wade remains a dynamic African leader, as evidenced most 
recently by his key role in brokering an agreement between Chad and 
Sudan to work toward reducing tensions in their volatile region. He has 
also been a leading proponent of the New Partnership for Africa's 
Development (NEPAD). Senegal is a strong partner in the war on terror 
and President Wade has provided vital personal leadership in promoting 
religious tolerance and mutual understanding.
    Having had the privilege of working with our earlier peacekeeping 
training programs in sub-Saharan Africa, I look forward, if confirmed, 
to supporting Senegal in its role as a leading contributor to United 
Nations and other peacekeeping operations around the world, including 
in Darfur.
    Senegal conducted Presidential and legislative elections in 2007, 
but the parliamentary elections were boycotted by the opposition and 
local polling has been deferred until 2009. If confirmed, one of my 
most important responsibilities will be to work with President Wade and 
his government to ensure an environment that encourages the broadest 
participation in the political process by all elements of the 
population. In addition, it will be important to promote governance, 
transparency, and accountability in government spending.
    To achieve momentum in its development, Senegal will need to exert 
maximum effort to make the critical market-based reforms that underpin 
the solid economic foundation of any dynamic society. The United States 
will continue to work closely with Senegal on these reforms. After a 
series of false starts, Senegal is working to secure a Millennium 
Challenge Compact.
    The United States is intensely engaged with Senegal to reduce the 
incidence of malaria and to prevent the spread of HIV/AIDS. Thankfully, 
the prevalence of HIV/AIDS in Senegal is relatively low, but this 
pandemic knows no borders. As someone who has lost too many friends, 
colleagues, and counterparts in the last decade to these two 
preventable diseases, if confirmed, I will work to redouble our efforts 
in Senegal and Guinea-Bissau to fight HIV/AIDS and malaria, and address 
other health issues.
    Guinea-Bissau continues to face formidable challenges to establish 
political stability and economic prosperity. Although its democratic 
institutions and rule of law remain weak, the country has reached the 
important milestone of seating a government that conforms to the 
demands of its constitution. The upcoming parliamentary elections could 
be a harbinger of the direction that political development will take 
there.
    If confirmed, I am eager to apply the lessons learned from our 
country team efforts in Barbados and the Eastern Caribbean to fight the 
contagion of illicit narcotics trafficking that afflicts Guinea-Bissau 
at worrisome levels. I relish the prospect of developing a successful 
interagency strategy, which would also engage international partners, 
to combat this scourge and to provide the people of Guinea-Bissau with 
material and moral support in this effort. I will also work, if 
confirmed, to promote the dual goals of a democratic, transparent 
political system and a complementary economic program to help reduce 
the levels of poverty that contribute to regional instability. I am 
aware of how difficult these challenges will be.
    Thank you, Mr. Chairman, for your continuing interest in Africa and 
the positive role the United States can play in its development. If 
confirmed, I look forward to working with you, your committee and other 
members of Congress to advance America's interests in Senegal, Guinea-
Bissau, and throughout the region. It would be an honor to travel the 
length and breadth of both countries to proudly represent the people of 
the United States of America.
    I would be happy to answer your questions.

    Senator Feingold. Thank you, Ms. Bernicat.
    And now we will go to Ms. Milovanovic.

 STATEMENT OF HON. GILLIAN ARLETTE MILOVANOVIC, NOMINEE TO BE 
               AMBASSADOR TO THE REPUBLIC OF MALI

    Ambassador Milovanovic. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Isakson, members of the committee, I 
am very honored also today to appear before you to discuss my 
nomination by President Bush to become our country's next 
Ambassador to the Republic of Mali. I am deeply honored by the 
trust placed in me by President Bush and by Secretary Rice. If 
confirmed by the Senate, I will do my level best to be worthy 
of that confidence and to advance the goals of the United 
States in Mali and in the region. I know that my success will 
depend on a relationship of close cooperation and consultation 
with this committee, with its staff, and with others in the 
Congress, and I look forward to establishing such a 
relationship.
    With your permission, Mr. Chairman, I would like simply to 
acknowledge my family who are not able to be here today, but I 
would like to mention my husband, Zlat, and my two daughters, 
Alexandra and Anna. The Foreign Service has been more than just 
my career. It has really been and still is my life, but also 
theirs. And their patience, sacrifice, flexibility, good humor, 
curiosity, and unfailing support have made possible any 
successes that I have achieved as a professional and as a human 
being.
    With over 16 years of democratic experience, Mali is an 
example for West Africa and beyond. It is led, as Congressman 
Pomeroy mentioned, by an extraordinary president. Mali has a 
strong human rights record. It has hosted the Community of 
Democracies Ministerial in November of last year and it is a 
strong partner with the United States against terrorism and 
extremism. It has also deployed on several international 
peacekeeping operations.
    Unfortunately, Mali's political progress has not been 
matched by improved social and economic indicators. In 2007, 
the U.N. ranked Mali 173 out of 177 countries in its Human 
Development Index. Literacy rates, health indicators, and a per 
capita GNP that are among the lowest in the world, together 
with food security issues, insecurity, and the presence of al-
Qaeda-aligned terrorists in the country's sparsely inhabited 
northern regions are all serious threats to democracy and 
regional stability and contributors to this poor showing on the 
Human Development Index.
    If I am confirmed, I will continue to deepen and expand our 
important relationship with Mali. President Bush's recent trip 
to Africa and his meeting with President Toure in Washington 
highlighted U.S. support for key programs, among them the 
President's Malaria Initiative and PEPFAR to deal with HIV/
AIDS. Mali's enormous $461 million Millennium Challenge Compact 
entered into force in September of last year. Our Peace Corps 
program in Mali is one of the largest in Africa. Mali is a key 
member of the Trans-Sahara Counter-Terrorism Partnership. 
Through TSCTP, we are helping Mali to be better able to control 
its borders and to counter the efforts of al-Qaeda in the 
Islamic Maghreb. The well received, ACOTA, African Contingency 
Operations Assistance program, along with the visit of 
AFRICOM's General Ward at the end of February both underscore 
Mali's status as a key partner in regional security.
    Mr. Chairman, this is my 30th as a Foreign Service officer. 
If confirmed, I would bring to my assignment in Mali prior 
experience as a Chief of Mission, 9 years of service in Africa, 
and 15 years of experience working with societies in political 
and economic transition.
    I have worked closely with the Defense Department, State 
National Guards, and other partners to reform and modernize 
defense establishments in Europe and in Africa and to 
strengthen their capacity to contribute to peacekeeping, 
regional security, and the global war on terror.
    If confirmed, I particularly look forward to the 
opportunity to continue my long relationship of collaboration 
with the Peace Corps, an agency whose mission and whose 
volunteers truly represent the best that America has to offer.
    Mali faces significant challenges in seeking to improve the 
health of its citizens, advance education, and promote human 
rights. To help Mali achieve these goals, if confirmed, I would 
draw on my experience with USAID and Peace Corps education 
programs, and I would take a task force approach, which has 
been successful for me in the past, dealing with such issues as 
combating trafficking in persons and other abuse and to promote 
the rights of women and children. I believe my experience with 
CDC and with PEPFAR would also assist me in leading our mission 
effectively and advancing United States interests in Mali.
    Mr. Chairman, if I am confirmed, you will find in me a 
responsive partner, fully committed to working with you and 
with this committee to advance United States interests in the 
Republic of Mali, and you will find in me a Chief of Mission 
whose highest priority will be to ensure the security of 
embassy personnel, their families and other Americans in Mali. 
It would be, indeed, a great honor to be entrusted with 
carrying on the work of my distinguished colleagues who have 
preceded me as serving as Ambassador to the Republic of Mali.
    Mr. Chairman, members of the committee, I too look forward 
to taking your questions. Thank you very much.
    [The prepared statement of Ambassador Milovanovic follows:]

 Prepared Statement of Hon. Gillian Arlette Milovanovic, Nominee to be 
                   Ambassador to the Republic of Mali

    Mr. Chairman, honorable members of the committee, I am honored to 
appear before you today to discuss my nomination by President Bush to 
become our country's Ambassador to the Republic of Mali. I am deeply 
honored by the trust placed in me by President Bush and by Secretary 
Rice. If confirmed by the Senate, I will do my very best to be worthy 
of that confidence, and to advance the goals of the United States in 
Mali and in the region. I know from experience that my success will 
depend on a relationship of close cooperation and consultation with 
this committee, its staff and others in the Congress. It is a 
relationship that I hope to begin with you today, building on the 
foundation of my previous years of service in Africa.
    With your permission, Mr. Chairman, I would like to acknowledge my 
husband, Zlat, and my daughters, Alexandra and Anna, although they are 
unable to be here today. The Foreign Service has been more than just my 
career. It has been, and is, my life and that of my entire family. My 
family's patience, sacrifice, flexibility, good humor, curiosity, and 
unfailing support have made possible any successes I have achieved as a 
professional and as a person. If I am confirmed, it will be my honor 
and privilege to represent the United States in Mali. We all look 
forward to returning to the continent where we have already spent 9 
rewarding years as a family and where Anna was born.
    With over 16 years of democratic experience, Mali serves as an 
example for West Africa and beyond. Mali has a strong human rights 
record, hosted the Community of Democracies Ministerial in November 
2007, is a strong partner against terrorism and extremism, an active 
participant in international organizations, and has deployed troops to 
several international peacekeeping operations.
    Mali's political progress, however, has not been matched by 
improved social and economic indicators. In 2007, the U.N. gave Mali a 
ranking of 173 out of 177 countries in its Human Development Index, due 
in large part to literacy rates, health indicators, and a per capita 
GNP that are among the lowest in the world. These factors, along with 
food security concerns, insecurity, and the presence of al-Qaeda-
aligned terrorists in the country's sparsely populated northern 
regions, constitute serious threats to democracy and regional 
stability.
    The United States has been a key partner in helping Mali to 
overcome these challenges, and, if I am confirmed, I will continue to 
deepen and expand this important relationship. President Bush's recent 
trip to Africa, and his meeting with Malian President Toure in 
Washington, have highlighted United States Government support for 
important programs such as the President's Malaria Initiative and 
PEPFAR for HIV/AIDS. Mali's $461 million MCC Compact entered into force 
in September 2007, and it is a high priority for President Toure. Our 
Peace Corps program in Mali is one of the largest in Africa. Mali is a 
key member of the Trans-Sahara Counter-Terrorism Partnership (TSCTP). 
Through TSCTP, we are helping Mali augment its ability to control its 
borders and counter al-Qaeda in the Islamic Maghreb efforts in the 
region, ensuring that northern Mali remains inhospitable to extremism. 
The United States Government has a well-received African Contingency 
Operations Assistance (ACOTA) program in Mali, and the visit of 
AFRICOM's general ward at the end of February underscored that Mali is 
a key partner in regional security.
    Mr. Chairman, this year marks my 30th anniversary as a Foreign 
Service officer. If confirmed, I would bring to my assignment in Mali 
prior experience as a chief of mission, 9 years of service in Africa, 
and 15 years of experience working with societies in political and 
economic transition.
    It has been my privilege to work closely over the years with the 
Defense Department, State National Guards, and other partners to reform 
and modernize defense establishments in Europe and Africa and to 
strengthen their capacity to contribute to peacekeeping, regional 
security, and the global war on terror.
    During my career, I have been very proud to swear in new Peace 
Corps volunteers on a number of occasions. I am particularly delighted 
that, if confirmed, I will have the opportunity to continue my long 
collaboration with the Peace Corps, an agency whose mission and whose 
volunteers represent the best that America has to offer.
    Mali faces significant challenges in seeking to improve the health 
of its citizens, advance education, and promote human rights. If 
confirmed, to help Mali achieve these goals I would drawn on my 
experience with USAID and Peace Corps education programs, and I would 
foster a multiagency task force approach to combat trafficking in 
persons and other abuse, as well as to promote the rights of women and 
girls. When assigned to Botswana and South Africa I gained immense 
respect for the work of CDC and was privileged to be ``present at the 
creation'' of the PEPFAR program in South Africa. Should I be 
confirmed, I believe this experience too would help me to lead our 
mission effectively and to advance United States interests in Mali.
    Mr. Chairman, if I am confirmed, you will find in me a responsive 
partner, fully committed to working with you and with this committee to 
advance United States interests in the Republic of Mali, and a chief of 
mission whose highest priority will be to ensure the security of 
embassy personnel, their families, and other Americans in Mali. It 
would be a great honor to be entrusted with carrying on the work of the 
distinguished colleagues who have served as Ambassador to the Republic 
of Mali. With that Mr. Chairman, members of the committee, I thank you 
for your attention and I look forward to responding to your questions.

    Senator Feingold. Thank you so much.
    And now we turn to Mr. Teitelbaum, who would be the 
Ambassador to the Republic of Ghana.

 STATEMENT OF DONALD GENE TEITELBAUM, NOMINEE TO BE AMBASSADOR 
                    TO THE REPUBLIC OF GHANA

    Mr. Teitelbaum. Mr. Chairman, Senator Isakson, I have full 
remarks to be entered into the record.
    Senator Feingold. Without objection.
    Mr. Teitelbaum. I would like to deliver shorter remarks 
now, if I may.
    I am honored to appear before you today as President Bush's 
nominee for Ambassador to the Republic of Ghana. I thank 
President Bush and Secretary Rice for their trust and 
confidence.
    Mr. Chairman, I like to start by introducing some people 
who have influenced my life. It is pretty big crowd, though.
    Senator Feingold. That is all right.
    Mr. Teitelbaum. First, my wife, Julianna Lindsey, and her 
parents, Jon and Annette Lindsey.
    Senator Feingold. Please stand.
    Mr. Teitelbaum. My parents, Bob and Fumie Teitelbaum; my 
older brother, Alex, and my sister, Romie, my seven nephews----
    [Laughter.]
    Mr. Teitelbaum [continuing]. Greg, Adam, Mark, David, Chad, 
Alex, and Robbie. And last but not least, the best friends 
anybody could ask for: Allen Crane, Scott Findley, John Carter, 
and Gary Boswick.
    Senator Feingold. All welcome. I am sure seven nephews is 
an all-time record for this committee in spite of its 200 years 
as a committee. [Laughter.]
    Well done. You may proceed.
    Mr. Teitelbaum. Although not a blood relative, speaking for 
the many of us here I think who have been with the Africa 
Bureau for a long time, I would like to also acknowledge the 
presence of Ambassador Ruth Davis who is very much family for 
all of us who have been with the bureau.
    Mr. Chairman, as a Foreign Service officer in South Africa, 
Kenya, Somalia, Sudan, and Uganda, and at the National Security 
Council, I have seen the opportunity that embraces the 
continent, but I have also seen the suffering, conflict, and 
despair that stifle progress in too many African nations.
    The intricate nature of the continent is present in Ghana. 
A democracy since 1992, Ghana has held four free and fair 
national elections. Ghana has an apolitical military and a 
lively, free media. Ghana has demonstrated consistent economic 
growth and is poised to achieve its Millennium Development Goal 
of reducing poverty by 50 percent. Ghana is a strong partner in 
peacekeeping and was a supportive ally on the United Nations 
Security Council, and the Ghanaian people are benefiting from 
improved schools, sanitation, and health services as a result 
of sound macroeconomic policy and debt relief.
    However, political and social upheaval marked the years 
following Ghana's independence. Democratic institutions are 
young and political power is highly centralized. Economic gains 
remain fragile. Broadly shared prosperity has yet to be 
achieved. Political patronage and connections still taint 
commercial and economic opportunities.
    America's centuries-old relationship with Ghana has similar 
contrasts. The dark era of the slave trade intertwined our 
histories. Our economic interaction was once largely that of 
debtor and creditor. Past international issues, such as Ghana's 
relations with Libya, strained our relationship.
    But now Ghanaian students studying in America and Americans 
tracing their heritage in Ghana characterize our people-to-
people contacts. America's civil rights struggle and Ghana's 
national independence movement inspired each other. Our 
militaries cooperate through many programs. We are trading 
partners under AGOA and President Bush had a successful visit 
to Ghana in February.
    If confirmed by the Senate, my priority will be to support 
transformation in Ghana and America's relationship with Ghana. 
It is time to put the donor-recipient nomenclature away and 
continue our journey toward true partnership. It is time to 
stop talking about potential and start achieving measurable 
goals.
    If confirmed by the Senate, I will have the power of sound 
policy and programs to push transformation. There are 
opportunities for Ghana to transform and for the United States 
to assist. I see opportunity in the upcoming elections in 
December and in strengthening democratic institutions. I see 
opportunity in making wise decisions regarding offshore oil 
discoveries. I see opportunity in alleviating poverty, making 
economic growth durable, and spreading its benefits widely. I 
see opportunity in continuing the fight against malaria, for 
which the Congress has provided bipartisan support.
    Mr. Chairman, and members of the committee, Ghana and 
America's relationship with Ghana do not lack for opportunities 
to transform. If confirmed by the Senate to be the next United 
States Ambassador to Ghana, my duty will be to turn those 
opportunities into outcomes. I will depend on the people at the 
embassy in Ghana, and I will seek out strong commitments from 
my counterparts in Ghana. Importantly too, I will count on 
continued communication and consultation with this committee 
and with Congress so that our efforts yield the greatest 
benefit for the American and Ghanaian peoples.
    Thank you for your attention. I am very pleased to be here 
and happy to answer any questions you may have.
    [The prepared statement of Mr. Teitelbaum follows:]

         Prepared Statement of Donald Gene Tritelbaum, Nominee 
               to be Ambassador to the Republic of Ghana

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Bush's nominee for Ambassador to the 
Republic of Ghana. I would like to thank President Bush and Secretary 
Rice for this opportunity and for their trust and confidence.
    Mr. Chairman, I would like to start today by introducing some 
people that have influenced my life. First, my wife, Julianna Lindsey, 
and her parents, Jon and Annette, my parents, Robert and Fumie 
Teitelbaum, my older brother, Alex, and my sister, Romie, and their 
families; and, last but not least, the best friends anybody could ask 
for: Allen Crane, Scott Findley, John Carter, and Gary Boswick.
    Mr. Chairman, I come to this point in my career with a deep respect 
for the countries of Africa and a firm belief that the United States of 
America must engage across the continent. As a Foreign Service officer, 
I was immersed in Africa on the ground in South Africa, Kenya, Somalia, 
Sudan, and Uganda, and from the vantage point of the National Security 
Council. Through these experiences I have seen the promise, 
opportunity, and hope that embrace the continent. But I have also seen 
the suffering, conflict, and despair that stifle progress in far too 
many African nations. I have seen stark, complicated contrasts--
abundant natural resources, fledgling democracies, incredible personal 
courage, and historical global links standing toe-to-toe with 
challenges such as civil wars, HIV/AIDS, poverty, and corruption.
    The intricate nature of the African continent is present in Ghana. 
A democracy since 1992, Ghana has held four free and fair national 
elections--including a peaceful transition from one party to another in 
2000. Ghana has an apolitical military and a lively, free media. Ghana 
has emerged as a regional leader and a strong partner in peacekeeping, 
on conflict resolution, and as a supportive ally during its tenure on 
the United Nations Security Council from 2005-2007. Ghana has started 
to implement its $547 million Millennium Challenge Corporation Compact. 
And the Ghanaian people are benefiting from improved schools, 
sanitation, health services, and other basic infrastructure as a result 
of sound macroeconomic policy and debt relief.
    However, political and social upheaval marked the years following 
Ghana's independence in 1957. Democratic institutions are still young 
and political power is highly centralized. Economic gains remain 
fragile. Poverty has decreased markedly but broadly shared prosperity 
is yet to be achieved. Political patronage and connections still taint 
commercial and economic opportunities. Additionally, the current 
government lacks capacity to fight escalating drug trafficking.
    America's centuries-old relationship with Ghana has similar 
contrasts. The dark era of the slave trade intertwined our histories. 
Our economic interaction was once largely that of debtor and creditor. 
Past international issues, such as Ghana's relations with Libya, 
strained our relationship.
    But now, Ghanaian students studying in America and Americans 
proudly tracing their heritage in Ghana characterize our people to 
people contacts. Our coinciding fights for freedom--America's civil 
rights struggle and Ghana's national independence movement during the 
middle of last century--inspired each other. The first United States 
Peace Corps overseas mission was established in Ghana in 1961. Our 
militaries cooperate through many programs, including the Africa 
Contingency Operations Training and Assistance Program, Africa 
Command's Africa Partnership Station, and the International Military 
Education and Training program. Ghana is one of Africa's premier 
peacekeeping partners. We are trading partners under the African Growth 
and Opportunity Act. And President Bush had a successful visit to Ghana 
in February.
    Ghanaians and Americans share a love of democracy, human rights, 
educational opportunity, free enterprise, peace, and stability. These 
shared values implore the United States to be active in Ghana. I 
believe that every corner of the globe is significant in the fight for 
freedom, peace, and prosperity. Successes and failures in Ghana can 
affect its neighbors, the region, the continent, and, indeed, the 
world.
    If confirmed by the Senate, I will use the resources of the United 
States Government wisely, efficiently, and effectively to bring the 
utmost benefit to the peoples of Ghana and of America. My priority will 
be to support transformation in Ghana and of America's relationship 
with Ghana. It is time to put the donor-recipient nomenclature away and 
continue our journey towards true partnership. It is time to stop 
talking about potential and start achieving measurable goals.
    If confirmed by the Senate, I will have the power of sound policy, 
programs such as those of the Millennium Challenge Corporation and 
USAID, and the talent and skills of embassy personnel to push 
transformation. There are opportunities for Ghana to transform and for 
the United States to assist. I see opportunity in the upcoming 
elections in December. I see opportunity in making wise decisions 
regarding offshore oil discoveries. I see opportunity in alleviating 
poverty, making economic growth durable, and spreading its benefits 
widely. I see opportunity in continuing the fight against malaria, for 
which the Congress has provided bipartisan support. I see opportunity 
in immobilizing drug trafficking. I see opportunity in strengthening 
democratic institutions.
    Mr. Chairman and members of the committee, Ghana and America's 
relationship with Ghana do not lack for opportunities to transform. If 
confirmed by the Senate to be the next United States Ambassador to 
Ghana, my duty will be to turn those opportunities into outcomes--to 
move from a picture of stark contrasts to freedom, prosperity, and 
peace. I will depend on the people at the embassy in Accra and I will 
seek out strong commitments from my counterparts in Ghana. Importantly 
too, I will count on continued communication and consultation with this 
committee and Congress so that our aim stays true and our efforts yield 
the greatest benefit for the American and Ghanaian peoples. Thank you 
for your attention. I am very pleased to be here and I am happy to 
answer any questions you have.

    Senator Feingold. Thank you so much, Mr. Teitelbaum.
    Now we will go to Ms. Linda Thomas-Greenfield to be 
Ambassador to the Republic of Liberia. I believe you are the 
one with Wisconsin ties?
    Ms. Thomas-Greenfield. I am.
    Senator Feingold. And I believe you have that in common 
with the President of Liberia.
    Ms. Thomas-Greenfield. And I have that in common with you, 
sir.
    Senator Feingold. And me, of course. That is the most 
obvious one. [Laughter.]
    But I have talked at length with the President of Liberia 
about how cold it was in Wisconsin.
    Ms. Thomas-Greenfield. And it was. I came there from 
Louisiana.
    Senator Feingold. Why do you not go ahead?

STATEMENT OF LINDA THOMAS-GREENFIELD, NOMINEE TO BE AMBASSADOR 
                   TO THE REPUBLIC OF LIBERIA

    Ms. Thomas-Greenfield. Thank you, sir. Mr. Chairman, 
Senator Isakson, I am truly, truly honored and delighted to be 
here today as President Bush's nominee to be the next United 
States Ambassador to Republic of Liberia. I would like to thank 
the President and Secretary Rice for the confidence and trust 
that they have shown by nominating me for this key position. As 
you know, Liberia is one of the United States closest friends 
on the continent of Africa.
    Mr. Chairman, if you will allow me, I would like to also 
recognize my family. My husband, Lafayette Greenfield, is 
retired from the Foreign Service and is responsible for 
enticing me nearly 30 years ago to pursue this career. And my 
two children, Lindsay and Deuce, both of whom grew up in the 
service and, with their dad, supported me throughout my 26-year 
Foreign Service career.
    I would also like to recognize my long-time friends, Sarah 
Sommers, Delores Justice, and Lisa Connor.
    Senator Feingold. Welcome, all of you.
    Ms. Thomas-Greenfield. Mr. Chairman, Senator Isakson, I 
have spent the better part of my career working on Africa and 
African issues. For the past 2\1/2\ years, I have served in the 
Bureau of African Affairs, first as the Deputy Assistant 
Secretary for West Africa and then in my current position as 
the Principal Deputy Assistant Secretary.
    Not long ago, Liberia was mired in civil war and spreading 
conflict throughout the region. Now it is well along the road 
to recovery. I was honored to observe the first round of 
Liberia's national elections in 2005 that led to the election 
of President Ellen Johnson Sirleaf. With these democratic 
elections, Liberians chose peace over war, a future over 
stagnation, and a return to the community of nations. Now the 
government of President Sirleaf is making major strides, 
reforming its institutions, attracting investment, and setting 
Liberia on the path to stability and economic growth.
    But Liberia is not out of the woods yet. The peace is 
fragile. Its economy remains weak and high unmet expectations 
risk compromising Liberia's future.
    Liberia will face many challenges over the next several 
years. It must grow economically, creating jobs and reviving 
its economy. It must develop its civil society, an independent 
media, to reverse the social and cultural damage done by 
decades of conflict. In 2011, Liberia will face another major 
test of its democracy as it will hold presidential and 
legislative elections.
    If confirmed as Ambassador, I would work diligently to 
continue the strong engagement of the United States to keep 
Liberia moving in the right direction. United States engagement 
will remain critical to Liberia's success. Thanks to the 
generous support of Congress, our assistance to Liberia spans 
the entire range of programs and areas averaging over $180 
million per year. In a country with only 3.5 million people, 
that support can have an enormous impact. If confirmed, I would 
work with our excellent embassy team, USAID, DOD, and other 
agency staff to ensure that our assistance achieves maximum 
impact and is coordinated with the efforts of other donors and 
with the Government of Liberia.
    If confirmed, I would also use my position to confront 
those who threaten Liberia's recovery. I would not hesitate to 
publicly attack corruption, human rights abuses, and old ways 
of doing business in Liberia that contributed to its breakdown 
and to its civil conflict. Liberia's proud and strong people 
deserve a government that will serve the public interest and 
that will protect the people, not prey on them.
    Governance reforms are an important means of attracting 
foreign investment, and if confirmed, I would work to advance 
United States business interests for the benefit of the 
American economy, as well as the Liberian economy.
    Finally, sirs, I am especially pleased to be here today to 
come full circle back to Liberia. In the late 1970s, I studied 
in Liberia as a graduate student from the University of 
Wisconsin. Liberia opened my eyes to the wider world. It 
inspired my passion for Africa. If confirmed, I hope to have 
the chance to contribute to Liberia's development and to 
advance our important bilateral relationship. I will also look 
forward to working with this committee to advance United States 
policy in Africa.
    Thank you for this time.
    [The prepared statement of Ms. Thomas-Greenfield follows:]

Prepared Statement of Linda Thomas-Greenfield, Nominee to be Ambassador 
                       to the Republic of Liberia

    Chairman and distinguished members of the committee, I am honored 
and delighted to be here today as President Bush's nominee to be the 
next United States Ambassador to the Republic of Liberia. I would like 
to thank the President and Secretary Rice for the confidence and trust 
they have shown by nominating me for this position. Liberia is one of 
the United States closest friends on the continent of Africa, and I am 
grateful to be nominated to serve there as the United States 
Ambassador.
    Mr. Chairman, I would like the take the opportunity to introduce my 
husband, Lafayette Greenfield, a retired Foreign Service officer, who 
enticed me nearly 30 years ago to pursue this career. I also recognize 
my two children, Lindsay and Deuce, both of whom grew up in the service 
and who with their dad have supported me throughout my 26 years in the 
United States Foreign Service.
    Mr. Chairman and members of the committee, I have spent the better 
part of my career working in Africa and on African issues. For the past 
2\1/2\ years, I have served in the Bureau of African Affairs, first as 
the Deputy Assistant Secretary for West Africa and now in my current 
position as Principal Deputy Assistant Secretary. Nearly half of my 
Foreign Service career focused on refugee and humanitarian issues, 
including as Deputy Assistant Secretary in the Bureau of Population, 
Refugees, and Migration where I had oversight for refugee, 
humanitarian, and migration programs in Africa, Europe, and Latin 
America.
    Not long ago, Liberia was mired in civil war and spreading conflict 
throughout the region; now it is well along the road to recovery. I was 
honored to be an observer for the first round of Liberia's national 
elections in 2005 that eventually led to the inauguration of Africa's 
first woman President, Ellen Johnson Sirleaf. With those democratic 
elections, Liberians chose peace over war; a future over stagnation; 
and a return to the community of nations. Now we are 5 years past 
Liberia's civil war, and the government of President Sirleaf is making 
major strides, reforming its institutions, attracting investment, and 
setting Liberia on the right path to stability and economic growth.
    But Liberia, as they say, is ``not out of the woods'' yet. Its 
peace is fragile, its economy remains weak, and high unmet expectations 
risk compromising Liberia's future. If confirmed as ambassador, I would 
work diligently to continue the strong engagement of the United States 
to keep Liberia moving in the right direction, and I would ensure that 
our attention and commitment to Liberia does not waver or diminish 
during this crucial post-conflict period.
    Liberia will face many challenges over the next several years. It 
must grow economically, creating jobs and reviving the agricultural 
sector. It must develop its civil society, independent media, and 
community organizations to reverse the social and cultural damage done 
by years of conflict. The government must fix its broken justice 
system, train and develop its civil service, and build its security 
services to keep the peace. In 2011, Liberia will face another major 
test when it holds Presidential and legislative elections. Liberia must 
continue on the path of democracy.
    Throughout this period, United States engagement will remain 
critical to Liberia's success. Thanks to the generous support of the 
Congress, our assistance to Liberia spans the entire range of program 
areas and averages some $180 million per year. Liberia has the second 
largest USAID program in Africa, after Sudan. In a country with only 
3\1/2\ million people, that support has an enormous impact on the 
health and education of Liberia's people and the improvement and reform 
of its Government.
    If confirmed as ambassador, I would work with our excellent 
embassy, USAID, DOD, and other agency staff to ensure that our 
assistance achieves maximum impact, and is coordinated with the efforts 
of other donors and of the Government of Liberia. I am pleased to 
report that Peace Corps, an important face of America, has already 
begun reestablishing itself in Liberia and volunteers will be arriving 
soon.
    If confirmed, I would also use my position to confront those who 
threaten Liberia's recovery. I would not hesitate to publicly attack 
corruption, human rights abuses, and the ``old ways of doing business'' 
in Liberia that contributed so much to its breakdown and civil 
conflict. Liberia's proud and strong people deserve a government that 
will serve the public interest, not private agendas, and that will 
protect the people, not prey on them. President Sirleaf has made that 
commitment and, if confirmed, I, as the President's representative to 
Liberia, will stand with her.
    Governance reforms are also important as a means of attracting 
foreign investment. I believe Liberia's growth and recovery will depend 
on inflows of private capital, particularly from American businesses 
seeking opportunities in mining, agriculture, services, and other 
sectors. If confirmed as ambassador, I would work to advance United 
States business interests for the benefit of both the American economy 
and the Liberian economy.
    Finally, on a personal note, I am especially pleased to be here 
today, to come full circle back to Liberia. In the late 1970s, I spent 
a year and a half in Liberia as a graduate student from the University 
of Wisconsin, where I studied political science. Liberia opened my eyes 
to the wider world and inspired my passion for Africa and my decision 
to make the Foreign Service a career. Now, some 30 years later, if 
confirmed, I hope to have the chance to contribute to Liberia's 
development and to advance our important bilateral relationship. Thank 
you again, Chairman Feingold, for today's hearing. I look forward to 
your questions.

    Senator Feingold. Thank you very much.
    And now we turn to Ms. Patricia McMahon Hawkins to be 
Ambassador to the Togolese Republic.

STATEMENT OF PATRICIA McMAHON HAWKINS, NOMINEE TO BE AMBASSADOR 
                    TO THE TOGOLESE REPUBLIC

    Ms. Hawkins. Thank you, Mr. Chairman, Senator Isakson. I am 
honored to appear before you today as the nominee to be 
Ambassador to the Republic of Togo. I thank both President Bush 
and Secretary Rice for this opportunity and for their trust and 
confidence in my ability to serve our country in this position.
    I would like to mention my husband, also a Foreign Service 
officer, Richard Hawkins, who is currently serving as the team 
leader of the provincial reconstruction team in Al Muaydi, 
Iraq, embedded with the 3rd Combat Brigade team of the 3rd 
Division of the United States Army.
    If I am confirmed as the Ambassador to Togo, I will draw on 
25 years of Foreign Service experience to advance United States 
policy objectives in Togo. Our overall vision of our 
relationship with Togo is focused on democracy and respect for 
human rights, prosperity and security, and health.
    Togo is a small country on the coast of West Africa, and it 
has been poorly governed since the 1960s. In the 1990s, in 
response to a repressive government's violation of democratic 
principles and human rights abuses, Togo's multinational and 
bilateral partners, including the United States, terminated 
assistance programs. In the ensuing years, the economy has 
stagnated and the physical infrastructure has deteriorated.
    Despite a flawed and violent electoral process in 2005, the 
new President was able to initiate a dialog with his major 
opponents that culminated in the Global Political Agreement in 
August 2006. The centerpiece of the agreement was the 
organization of legislative elections which took place in 
October of 2007 and were declared free and fair by numerous 
local and international observers.
    If confirmed, I will continue the work of my predecessor to 
encourage progress on improving election legislation and 
processes so that future elections, including the presidential 
elections in 2010, will be fair and transparent, on the 
development of stronger political parties, and on encouraging 
better collaboration among the parties. I intend to share 
American diplomatic values with the Togolese by focusing on 
principles of tolerance and equal access to media. I will seek 
to accelerate the improvement in civil-military relations and 
press for a further reduction of the military's involvement in 
the government and in civil society. I will look for 
opportunities to cooperate with Togo's military and security 
forces to combat drug trafficking and transnational crime, 
including the trafficking of persons, and to promote Togolese 
participation in regional efforts to strengthen maritime 
security in the Gulf of Guinea.
    President Bush recently designated Togo eligible to receive 
benefits under the African Growth and Opportunity Act. If 
confirmed, I will work to promote Togo's full participation and 
enjoyment of these benefits for the prosperity of the Togolese 
people. I will assist the Government of Togo in its efforts to 
fight corruption and to promote the rule of law, using our 
limited democracy and human rights fund allocation and regional 
USAID programs.
    As in so many countries in the world today, HIV/AIDS, 
malaria, and other risks to health and well-being menace Togo's 
stability and prosperity. If confirmed, I will seek to ensure 
that our assistance in combating disease is utilized to maximum 
effectiveness. The Peace Corps will continue to play an 
important role in combating HIV/AIDS with approximately one-
quarter of the volunteers working full-time in the field of 
community health and all 100 volunteers engaged in some way. We 
will continue to collaborate with other donor countries and 
international organizations to increase the capacity of 
Togolese officials to combat HIV/AIDS and other infectious 
diseases, and we will use strong media outreach to promote 
health education and awareness.
    Mr. Chairman, Senator Isakson, Togo, as small and as poor 
as it is, holds promise for the future despite the many 
challenges that remain. If confirmed, I look forward to working 
with the leaders and people of Togo and this committee to 
sustain the current forward momentum toward political and 
economic reform so that the Togolese people might enjoy fully 
the fruits of freedom.
    Thank you, Mr. Chairman, for the opportunity, and I would 
be pleased to respond to any questions.
    [The prepared statement of Mr. Hawkins follows:]

     Prepared Statement of Patricia McMahon Hawkins, Nominee to be 
                  Ambassador to the Togolese Republic

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as the nominee to be Ambassador to the Republic of 
Togo. I thank both President Bush and Secretary Rice for this 
opportunity and for their trust and confidence in my ability to serve 
our country in this position.
    If confirmed, I will draw on 25 years of Foreign Service 
experience, 12 of which have been spent either in Africa or focusing on 
African issues, to advance United States policy objectives in Togo. Our 
overall vision for the direction of our relationship with Togo is 
focused on democracy and respect for human rights, prosperity and 
security, and health. In pursuing our goals, we face a dual challenge. 
We must maximize our impact in the three priority areas with the 
program resources at our disposal, while ensuring that Washington is 
poised to increase United States Government engagement if and when Togo 
completes the emergence from its long political and human rights 
crisis.
    Togo, a small country on the coast of West Africa, has been poorly 
governed since the 1960s. In the 1990s, in response to a repressive 
government's violation of democratic principles and human rights 
abuses, Togo's multinational and bilateral partners, including the 
United States, terminated assistance programs. In the ensuing years, 
the economy has stagnated and the physical infrastructure has 
deteriorated.
    Despite a flawed and violent electoral process in 2005, the new 
president, Faure Gnassingbe, son of long-time autocratic ruler 
Gnassingbe Eyadema, was able to initiate a dialog with his major 
opponents that culminated in the Global Political Agreement in August 
2006. The centerpiece of the agreement was the organization of 
legislative elections, which took place in October, 2007, and were 
declared free and fair by numerous local and international observers.
    If confirmed, I will continue the work of my predecessor to 
encourage further progress on improving election legislation and 
processes so that future elections, including presidential elections in 
2010, will be fair and transparent; on the development of stronger 
political parties; and on encouraging better collaboration among the 
parties. I intend to share American democratic values with the Togolese 
by focusing on principles of tolerance and equal access to media. I 
will seek to accelerate the improvement in civil-military relations, 
and press for a further reduction of the military's involvement in the 
government and civil society. I will look for opportunities to 
cooperate with Togo's military and security forces to combat drug 
trafficking and transnational crime, including the trafficking of 
persons, and to promote Togolese participation in regional efforts to 
strengthen maritime security in the Gulf of Guinea.
    President Bush recently designated Togo eligible to receive 
benefits under the African Growth and Opportunity Act (AGOA). I will 
work to promote Togo's full participation and enjoyment of those 
benefits for the prosperity of the Togolese people. The mission will 
encourage the Government of Togo to privatize its hotel, 
communications, banking, cotton, and mineral parastatal organizations. 
Over the long term, I will assist the Government of Togo in its efforts 
to fight corruption and to promote the rule of law, using our limited 
Democracy and Human Rights Fund allocation and regional USAID programs.
    As in so many countries in the world today, HIV/AIDS, malaria, and 
other risks to health and well-being menace Togo's stability and 
prosperity. If confirmed, I will seek to ensure that our assistance in 
combating disease is utilized to maximum effectiveness. The Peace Corps 
will continue to play an important role in combating HIV/AIDS, with 
approximately one quarter of the volunteers working full time in the 
field of community health and all 114 volunteers engaged in some way. 
The mission will cooperate closely with the Peace Corps to leverage the 
effects of the volunteers' grass roots health work. We will continue to 
collaborate with other donor countries and international organizations 
to increase the capacity of Togolese officials to combat HIV/AIDS and 
other infectious diseases, and we will use strong media outreach to 
promote health education and awareness.
    Mr. Chairman, Togo, as small and as poor as it is, holds promise 
for the future, despite the challenges of democratic and economic 
reform that remain. If confirmed, I look forward to working with the 
leaders and people of Togo to sustain the current forward momentum 
toward political and economic reform, so that the Togolese people might 
enjoy fully the fruits of freedom.
    Thank you, Mr. Chairman, for the opportunity to appear before you 
today. I would be pleased to respond to any questions.

    Senator Feingold. Thank you and thanks to the whole first 
panel.
    We will now begin questions for the first panel, 7-minute 
rounds. I will start with questions for Ms. Bernicat.
    Can you please talk a little bit about the key challenges 
in Senegal and Guinea-Bissau? How will your engagement with 
each of these countries differ, including allocation of time 
and resources between the two countries?
    Ms. Bernicat. Thank you for that question, Senator. I told 
a member of your staff earlier that dividing my time between 
two countries will be considerably less of a challenge than 
dividing it between the seven countries I had when I was in 
Barbados. But you are right to point out there are very 
different challenges.
    If I could talk about what I think is by far the most 
dangerous and troubling of trends. We have seen the increase of 
illicit drug trafficking in Africa absolutely explode from 2003 
until now, and witnessing the trafficking that goes through 
Guinea-Bissau, it is not difficult to understand when you look 
at the geography of the country, the coastline dotted with 
violence and an unguarded coastline, its proximity to Europe, 
the poverty that exists there. Guinea-Bissau is one of the 
poorest countries in the world, the corruption that comes with 
that kind of poverty, the history of instability, which has 
eroded the rule of law and a whole series of institutions 
there, and last but not least, the very strength of the Euro, 
which is pulling a lot of the cocaine trafficking east and 
north to the European markets.
    Observers estimate that approximately 10 times the GNP of 
Guinea-Bissau in drugs traffic through that country every 
month. That is over $340 million in product. The most recent 
seizure was 2.4 tons of pure cocaine by the French navy from a 
Liberian ship off the coast of Guinea-Bissau, to give you an 
idea of how diversified that trade is.
    If confirmed, I would like to use the lessons learned in 
the eastern Caribbean where ironically our successes in 
fighting the trafficking that was moving up the eastern coast 
of the Caribbean, when it was pushed off of the west coast by 
the success of our Plan Colombia, has now found its way across 
the Atlantic and is moving through Guinea-Bissau and other 
points in West Africa. But to use a combination of a full 
country team effort--every office of the country team has 
something to contribute in this regard, as well as our 
international partners, both in terms of intel sharing and 
asset presence in the region to push the traffickers out of 
what is currently an easy realm in which to operate.
    Senator Feingold. In terms of time, I am going to move to 
another question for you. I had the opportunity to visit 
Senegal a few years ago and meet with President Wade when he 
was, I think, relatively newly elected. And, of course, you 
mentioned Senegal's proud democratic tradition, but there have 
been some worrying signs of backsliding in recent years. 
President Wade has always demonstrated a rather unilateral 
leadership style that seems increasingly repressive of the 
opposition while seeking to consolidate his own and his party's 
power.
    What is your assessment of the current state of Senegal's 
democracy, and how will you strive to ensure that fundamental 
democratic principles and processes are respected in the 2009 
local elections and beyond?
    Ms. Bernicat. Thank you for that question, Mr. Chairman.
    I believe that the state of Senegalese democracy is very 
strong. The history of Senegal and the fact that it is one of 
the few African states that has never had anything but a 
peaceful transition of power--it does have a constitution which 
favors a very strong executive to begin with, and President 
Wade is, indeed, a very strong president. The fact that the 
opposition boycotted the legislative elections last year 
increased--in fact, gave him a virtual majority in that house.
    That said, we are vigilant of what we see as efforts to 
increase even more the power of the executive and note in 
particular arrests of journalists last fall, response to 
shutting down a television station covering violent food riots 
more recently, but also note that there is a very strong civil 
society in Senegal which pushes back. And the President has 
shown that he respects that and understands those limits.
    Senator Feingold. Thank you. Time is short, so I appreciate 
your answers.
    I want to turn to Ms. Milovanovic regarding Mali. I have 
had two wonderful visits to Mali. I met with both President 
Konare and President Toure who Congressman Pomeroy mentioned 
and am very impressed with that country's potential. But the 
challenges are, of course, enormous as you have indicated.
    What do you see as the top threats to national and regional 
security emanating from Mali, and what role can the United 
States play to help and contain and combat these threats?
    Ambassador Milovanovic. Thank you very much, Mr. Chairman, 
for the question.
    Fundamentally I think that Mali's own success is the 
greatest way of combating--keeping it on that success is the 
greatest way of combatting any threats that exist. I think that 
there is great clarity about the fact that there are 
difficulties in the north, which is sparsely populated, and 
where there is a combination of unrest amongst elements of the 
Tuareg and there is also the problem of this al-Qaeda in the 
Maghreb.
    But fundamentally, the tools to be used I believe in 
keeping Mali as a positive force are exactly the tools that 
have been used so far, keeping the democracy strong, continuing 
with the decentralization process, providing Mali's government 
with the necessary instruments and the resources to be able to 
demonstrate to its public and to its citizens that the 
government is doing the things or is trying to do the things 
that the citizens need, whether it is health, whether it is 
education, whether it is improvements in the economy more 
generally. And that is the way to get most fundamentally at 
some of the challenges.
    Of course, the existence of this uncontrolled or relatively 
uncontrolled area in the north is in and of itself a threat, 
and it cannot only be resolved, of course, by the issues of 
continuing democratization and improvements in economy and 
improvements in delivery of services. There is also the Algiers 
Accords which very much need to be implemented and the use of 
all of the resources that we can bring to bear through TSCTP 
which include both the appeals to the public regarding where 
their interest lies and continuing their moderation and not 
being seduced by the siren songs of the wrong guys and any 
military support that is appropriate.
    Senator Feingold. Senator Isakson, I am going to just 
finish with this Ambassador, then turn to you, and we will do a 
second round so I can get to everybody.
    Ambassador, what impact has the Trans-Sahara Counter-
Terrorism Initiative, TSCTI, had in Mali and the region?
    Ambassador Milovanovic. Thank you.
    I believe that it has had a positive effect. It is a good 
opportunity for both the Defense Department, USAID, and the 
State Department to be working together, coordinating their 
efforts because these challenges that are faced are of a 
variety of natures, and just as a country team needs to work 
together with every agency contributing to finding solutions, 
TSCTP is a manifestation of that interagency process. I think 
the combination of the training and the support and the 
strengthening of law enforcement, the military so that there is 
a slightly better ability to control the border is excellent, 
but together with that, to have all of the efforts, whether 
they are through military funds or through USAID or State funds 
to get to the public to do humanitarian and small developmental 
activities that show the public that their interest is in a 
good democratic government in their country.
    Senator Feingold. And what experience do you have in 
coordinating with U.S. and foreign intelligence and defense 
agencies?
    Ambassador Milovanovic. I have in the past been a political 
military officer in Brussels, and of course, as three-time DCM 
and also now as Ambassador, an enormous part of what I am 
responsible for is exactly this. And I have taken very much a 
task force approach every place that I have gone, having law 
enforcement working groups and intelligence working groups at 
my embassies, which are opportunities not only to exchange 
general information, but to actually work together within the 
limits that there may be on certain agencies, to facilitate 
each other's work, and to get results irrespective of who is 
the agency that is getting the results because ultimately the 
results are for the United States and for the goal, not for a 
particular agency.
    Senator Feingold. Thank you.
    Senator, I apologize. We are just getting through an awful 
lot of nominees today. So it is slow going.
    Senator Isakson.
    Senator Isakson. Thank you very much.
    Mr. Teitelbaum, in your remarks you referred to offshore 
gas and oil opportunities in the Gulf of Guinea. I have 
recently returned from Equatorial Guinea where they had one of 
the largest natural gas finds in the world, which has 
transformed the economy of that country.
    Are you aware of any exploration by the United States or by 
the United States in cooperation with the Ghana Government in 
the Gulf of Guinea at this time?
    Mr. Teitelbaum. Thank you for that question, Senator 
Isakson.
    In fact, one of the companies that is a primary player in 
the oil consortium in Ghana is an American company called 
Cosmos. And I think that this find is a very important issue 
for the Government of Ghana and it presents a real challenge to 
ensure that the resources they have discovered, which do appear 
right now to be there in commercially exploitable quantities 
are used to broadly benefit the people of Ghana. If confirmed, 
I think that ensuring that this is the case would be one of my 
top priorities, and I think it is very helpful that one of the 
companies involved is, in fact, an American company.
    Senator Isakson. For the four of you that are on the coast 
there, the one observation I would make is that in my recent 
visit there, I observed very aggressive Chinese investment in 
Africa.
    It was a United States company that partnered with 
Equatorial Guinea to find the natural gas that they are now 
liquefying and shipping to the United States. But as those 
opportunities are found, I think it is very important for our 
Ambassadors to be a conduit for American investment and 
American companies to be partners with these countries as they 
develop this magnificent resource. I mean, Equatorial Guinea 
went from being the poorest country in the world to the fastest 
growing economy in the world in 20 years, and the same type of 
thing could happen again with energy discoveries like that.
    Ms. Hawkins also made a reference to the Gulf of Guinea 
with regard to security. My understanding is there is still a 
fair amount of piracy and not very much security on the 
coastline. Are you aware of any cooperation between the coastal 
countries to improve the security?
    Ms. Hawkins. Yes, Senator Isakson. Thank you for the 
question.
    Yes, there has been cooperation with American naval forces 
and with the Togolese, to which I can speak in particular, but 
I believe certainly with the countries my colleagues are 
nominated for. Togo is still emerging from a rather dark 
period, and its armed forces and military security forces 
leave--are somewhat to be desired in their ability to cope with 
piracy, with drug trafficking, with the trafficking in persons. 
But we have worked with them through the IMET program and 
through other regional development programs to improve their 
ability to cope with these problems. Obviously, it is something 
that will have to be worked on considerably in the future.
    Senator Isakson. Well, it is a big issue, and also with the 
presence of al-Qaeda or the opportunity for organizations like 
al-Qaeda to take advantage of ignorance and poverty and with 
little security on the coastline, to me it is a very important 
issue all along the African coast.
    Ms. Thomas-Greenfield, you made a very passionate 
statement. I tried to write it down real quickly.
    Ms. Thomas-Greenfield. I hope you have a copy of the 
statement.
    Senator Isakson. I do have a copy, but I was listening 
rather than reading. So I wrote down you were going to 
aggressively--you were willing to unabashedly and aggressively 
and publicly attack corruption. Did I get that right?
    Ms. Thomas-Greenfield. You did, sir.
    Senator Isakson. Well, I want to commend you on that. 
Again, with the ignorance and poverty issue and the 
conversation about drugs that has taken place in some of the 
other testimony, the Ambassadors can bring a world of help in 
that part of the world to try and minimize and eliminate the 
corruption.
    And I go back to my trip to Equatorial Guinea. When they 
made the find of natural gas, of course, the $64,000 question 
was whose pocket is all this money going into. And remarkably, 
I think because Ambassador Johnson, who is now on the ground 
there in Guinea and his unabashed outspokenness against 
corruption, they have just finished building a state-of-the-art 
hospital that is as good as any hospital I have ever seen and a 
lot of other infrastructure for the citizens of the area. I am 
sure there is some spending money going into some pockets 
somewhere, but I was delighted to see that amount. So I hope as 
these finds take place, as the resources are developed, you 
will all be outspoken on that.
    I would be happy to hear any comment from you regarding 
corruption.
    Ms. Thomas-Greenfield. Thank you for that question, sir.
    Corruption is really a cancer and it can destroy any 
country's progress. Liberia, the country that I hope to get 
confirmed for, is a country that cannot afford corruption. It 
is a country that is coming out of 14 years of civil war in 
which its infrastructure was totally devastated, people's lives 
were destroyed, and a whole generation of young people went 
without education.
    The United States taxpayers are putting a lot of money into 
Liberia. We are the largest donor. I see it as my 
responsibility, if confirmed as Ambassador, to ensure that our 
taxpayers' dollars go to where we hope and plan for those 
dollars to go, but also, I think it is very important for the 
funding and support that we are giving to the Liberian people, 
that that money goes to the Liberian people and not into the 
pockets of those people who would steal from the coffers of the 
government.
    Senator Isakson. Well, there is an economic term called the 
``Dutch disease,'' and that is when a country has a singular 
source of wealth and it never develops itself internally. That 
is what has happened in the Middle Eastern countries, and the 
same opportunity for that to happen exists on the coast of 
Africa. So everything we can do to get that money invested in 
improving the lives of the people I think will help us avoid 
another part of the world with the type of problems we have in 
the Middle East.
    One last real quick question. Ms. Bernicat, with regard to 
the drug issue, which you underlined in your speech and which 
you addressed again, did I understand you to say that our 
success in Colombia--that some of the expansion of the drugs 
there, on the West African coast, are actually some of the same 
people that were in Colombia? Was that correct?
    Ms. Bernicat. That is correct, sir. As we put pressure on 
traffickers who moved drugs up the west coast of the United 
States, they shifted to trafficking through the eastern 
Caribbean. And as we put pressure successfully with the 
interagency and our foreign partners on those trafficking 
routes, the traffickers simply shifted to West Africa.
    Senator Isakson. This will be my last question. Is it at 
the point where it would be a target for a program similar to 
what we did with the country of Colombia?
    Ms. Bernicat. I do not believe so, sir, but again, the 
Europeans have been taking a lead, given the fact that they are 
for the moment the recipients of the vast majority of this 
product. Our goal, I believe, and if confirmed, I would pursue, 
would be to apply the lessons that we have learned from Plan 
Colombia and from our work in the Caribbean to help thwart the 
trafficking that is now going through the west coast to help 
the Europeans.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Feingold. Senator, we will start the second round.
    Mr. Teitelbaum, what are you greatest concerns regarding 
the upcoming presidential and legislative elections? And if 
confirmed as Ambassador, what steps will you take to help 
Ghana's government, democratic institutions, political parties, 
and civil society prepare for the December 2008 polls?
    Mr. Teitelbaum. Thank you for that question, Mr. Chairman.
    If confirmed, the upcoming elections due in December would 
be not only one of my top priorities, but it would certainly be 
the most immediate priority.
    I think, first and foremost, on the very bright side, since 
1992 Ghana has already had four elections which were widely 
viewed as free and fair and were generally peaceful. And I 
think the primary expectation and the hope of all players is 
that this next election will be more of the same. In fact, in 
one of their previous elections, the Ghanaians also had a 
transfer of power between parties. So they have some very good 
precedents, and they are beginning to establish a democratic 
history.
    That said, it is still a very young democracy. Institutions 
still need to grow and to strengthen and to build.
    These elections are expected to be very, very close. I 
think that since the United States, of course, has no interest 
in any individual candidate, of course, our interest is in 
ensuring that the elections are free and fair, that the playing 
field is level, that the elections themselves reflect the will 
of the Ghanaian people, and that, most importantly, they be 
well run and transparent so that whatever the results of those 
elections, they have credibility and engender trust in the 
people of Ghana. And I think that the United States Government 
has a very substantial role to play in ensuring that part of 
the elections, both on the governmental side and also there are 
roles for nongovernmental organizations.
    The Carter Center had a preelection role to play and was in 
Ghana in February. The United States Government is funding with 
approximately $600,000, I believe, or $625,000 medium-term and 
election day observers from among Ghanaian organizations. And 
the United States has a program of approximately $300,000 to 
encourage greater participation in the elections by persons 
with disabilities.
    So I think we have a very strong role to play and, if 
confirmed, I would seek to strengthen these roles and also 
ensure that the embassy itself sends out observers on the day 
to ensure that this is a free, fair, and transparent election.
    Senator Feingold. Thank you.
    Ghana is rich in natural resources and also seems to 
actually have a chance at being the first African country to 
avoid the so-called ``resource curse,'' which Senator Isakson, 
of course, was getting at a little bit, of corruption leading 
to poverty. The government exported $1.3 billion in gold in 
2006. An oil discovery just last December has put reserves at 
over 3 billion barrels.
    Do you think Ghana should become a compliant country under 
the Extractive Industries Transparency Initiative? And outside 
of EITI, what steps would you take to assist Ghana in moving 
toward greater transparent management of its natural resources?
    Mr. Teitelbaum. Thank you.
    I think that Ghana has had quite a good success in recent 
years in growing its economy, but they remain very dependent on 
a few resources, gold, cocoa, and perhaps in the not too 
distant future they will begin to diversify that with oil.
    Ghana is a member of the Extractive Industries Transparency 
Initiative. I think they have made it very clear that it is 
their intent to ensure that these resources are used wisely to 
benefit their people. And I believe that the United States has 
an important role to play in encouraging and supporting the 
Ghanaian Government in this role.
    One area that I would mention as providing this is the 
Millennium Challenge Corporation's compact with the Ghanaians. 
Of course, part of qualifying for the compact is ensuring a 
certain transparency and accountability in government 
operations, and the Millennium Challenge Corporation's compact 
is aimed at building Ghanaian infrastructure and supporting 
their agricultural industry, which would help further diversify 
their economy and help them get away from the one or two crops 
and the one or two areas that they are focused on now.
    Senator Feingold. I understand you mentioned that they were 
a member of EITI, but the goal here is compliant as well.
    Mr. Teitelbaum. They are not fully compliant yet.
    Senator Feingold. That is important, I think.
    Mr. Teitelbaum. Yes, sir.
    Senator Feingold. Ms. Thomas-Greenfield, as you know, 
Liberia represents one of the relatively few truly enthusiastic 
supporters of the new United States combatant command, AFRICOM, 
on the continent. What role do you think AFRICOM can play in 
Liberia and the region?
    Ms. Thomas-Greenfield. Thank you for that question.
    I have worked very closely with DOD over the past year and 
a half in the formation and creation of AFRICOM. I think 
AFRICOM can play an extremely important role, particularly in 
Liberia, in terms of helping with security sector reform, with 
training, with helping build the confidence of Liberians in 
their future. We are hoping that at some point, once AFRICOM is 
fully operational, that they will work closely with the newly 
formed Liberian army to mentor them, to train them, and to help 
them become a professional army that contributes to the country 
and one that does not take away from the people of the country.
    Senator Feingold. Well, Liberia is becoming increasingly 
stable, as you have talked about, in the wake of its bloody 
civil war. Its neighbors, particularly Guinea and Cote 
d'Ivoire, are decidedly less so.
    What skills and experiences do you have that could assist 
you to deal with humanitarian needs and conflict-related 
situations should the circumstances in Guinea or Cote d'Ivoire 
worsen?
    Ms. Thomas-Greenfield. Thank you again for that question, 
sir.
    In addition to considering myself an Africanist, I consider 
myself, with over 12 years of experience working on 
humanitarian and refugee issues, to be a humanitarian, as well. 
I formerly worked in the Bureau for Population Refugees and 
Migration. I was the Deputy Assistant Secretary there working 
on humanitarian issues around Africa, but particularly working 
on the issues related to Liberian refugees, the situation in 
Cote d'Ivoire, the situation in Guinea.
    I think I have the experience and the background to work 
with our ambassadors in the surrounding countries, if I am 
confirmed, to come up with a strategy to deal with the issues 
in the neighborhood. I would particularly like to work with 
ambassadors in the Mano River region to come up with a regional 
solution for Liberia because Liberia's stability really depends 
on the situation in Guinea and Cote d'Ivoire and Sierra Leone 
remaining stable.
    Senator Feingold. Thank you.
    Ms. Hawkins, I see that you have extensive experience 
working in public diplomacy for the United States both at home 
and abroad. How will that assist you in managing the United 
States mission in Togo and the role you see of United States 
diplomacy as an element of foreign policy more generally?
    Ms. Hawkins. Thank you, Mr. Chairman.
    Yes, I am a public diplomacy officer and have been for the 
25 years I have been in the Foreign Service. I firmly believe 
that public diplomacy probably is the strongest arrow in our 
quiver, if you will. It is the best way to reach people. We 
have the tools. We have the talent that is needed to form 
people-to-people relationships which will survive beyond any 
minor policy disputes. It is a tool that we have to use if we 
are going to persuade people that we have their best interests 
at heart.
    As far as working in Togo goes, it may be the only tool 
that I will have because we are at a point in our relationship 
with Togo that is just starting to develop, and I intend to 
focus very strongly on public outreach, on media outreach. I 
would like to start a speakers bureau at the embassy to get all 
of my younger officers and family members out. I would like to 
see everyone in the embassy travel extensively so that they can 
reach populations that we might not have reached before.
    We are going to have to provide assistance to education, 
assistance to women and child health, assistance across the 
board, and perhaps the best way of doing that is by education 
and media outreach.
    Senator Feingold. Thank you, Ms. Hawkins.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Ms. Milovanovic, Mali is the largest, geographically, of 
these five countries. It is also one of the poorest and the 
most sparsely populated. I worry, again as I mentioned earlier, 
about al-Qaeda, and I know this is a heavily Islamic country to 
boot, I believe, if my information is correct.
    How much in the counterterrorism effort with United States 
is the Mali Government cooperative in that, or are we 
developing good relationships with regard to that?
    Ambassador Milovanovic. Thank you, Senator Isakson, for the 
question.
    I am pleased to say that one of the real positives, not 
that it is the only one by a long shot, but one of the real 
positives is the excellence of the relationship with the 
Government of Mali, with the President, with the leadership 
there. So we are really working in what my colleague earlier 
spoke of, a partnership and a genuine partnership. And this is 
extremely important as you have indicated because, obviously, 
if there is only one part of the group pulling to get the 
results, you do not succeed as well as if everyone is pulling 
in the same direction.
    In Mali, there is clearly a commitment on the part of the 
government and the President himself, be it on democracy, be it 
on sustainable development, be it on improvements to health and 
education for the benefit of the citizens, but also a 
commitment to do all of these things and more because they are 
also, in addition to being good for his own country and his own 
citizens, clearly important with respect to the struggle to 
ensure that this relatively ungoverned--not ungoverned but 
sparsely populated with unclear borders north--is not a danger 
and not a threat but increasingly and sustainably feels 
absolutely part of this immense country of Mali.
    Senator Isakson. Ms. Thomas-Greenfield, you mentioned you 
worked with DOD in the development of AFRICOM. Did any of the 
others of you have interface with DOD on that?
    As an observation, having just come back from Djibouti in 
January--and AFRICOM is not clearly understood by a lot of 
people. However, I want to commend you because when I visited 
Admiral Hart and the other officers there, I was so impressed 
with the technical assistance, such as well drilling, bridge 
building, all the things that the military was doing in 
cooperation with countries in Africa to improve the plight. A 
lot of people have looked at AFRICOM as a ``military 
operation,'' but it has got a tremendous humanitarian aspect to 
it.
    I took some input from somewhere. So I will give you the 
credit if you were the one working with DOD for doing that. 
They really have a clear mission, and I think as AFRICOM fully 
develops and ultimately locates on the continent, it is going 
to be good for the United States and our relationship with a 
lot of those countries.
    Any comment on that you would like to make?
    Ms. Thomas-Greenfield. Yes, sir, and thank you very much 
for that question.
    We worked diligently to ensure that AFRICOM had a mission 
that was understood and that was supportive of the State 
Department and the other civilian agencies who are working in 
Africa. There has been a lot of questions raised about AFRICOM 
militarizing United States foreign policy and United States 
diplomacy, and we have worked with the command and with others 
in DOD to make sure that in our communications strategy we 
developed the language that was understood by Africans and by 
others that AFRICOM was not there to take over diplomacy but 
would be working with our embassies under the direction and 
authority of our ambassadors to carry out the foreign policy 
goals that have been established by the State Department.
    Senator Isakson. It almost reminded me of the PRT's in Iraq 
where you have the State Department and the military working 
hand in hand with the people to reconstruct and develop. So 
congratulations on the work that you did.
    My only other comment, Mr. Chairman, is for Mr. Teitelbaum. 
Being a Georgian in the home of Coca-Cola, I know Coca-Cola is 
a tremendous investor in Ghana, and I hope you will encourage 
everyone to drink Coca-Cola. [Laughter.]
    Senator Feingold. Nicely done, Senator.
    I thank the panel very much and wish you well, and we ask 
the next panel to come forward, please.
    All right. Let us get the committee to order here and begin 
with the testimony of the second panel. I am going to have to 
ask the panelists to keep it brief so that everybody has a 
chance to talk and so that we can have some questions.
    Mr. Bodde, do you want to begin please for us, Ambassador 
to the Republic of Malawi?

 STATEMENT OF PETER W. BODDE, NOMINEE TO BE AMBASSADOR TO THE 
                       REPUBLIC OF MALAWI

    Mr. Bodde. Mr. Chairman, Senator Isakson, it is an honor 
and privilege to appear before you today as the President's 
nominee to serve as the next United States Ambassador to 
Malawi. I am grateful for the trust placed in me by the 
President and Secretary Rice. If confirmed, I look forward to 
working with this committee and my colleagues in the United 
States Government to further the interests of the United States 
in Malawi and in the region.
    I also want to take this opportunity to express my 
appreciation for the special efforts the committee has made to 
schedule these nomination hearings.
    Mr. Chairman, I would like to introduce my wife, Tanya, who 
is also a member of the Foreign Service; our daughter, Sara, 
who is a third grade teacher in Montgomery County; and our son, 
Christopher, who flew in from London. And I am especially proud 
and happy that my father, Ambassador William Bodde, is here 
today. About 30 years ago today, I sat where he is sitting 
today during his first confirmation hearing, when he appeared 
before the late Senator Paul Tsongas, prior to becoming 
Ambassador to Fiji.
    Senator Feingold. Where are you folks out there? Can we see 
you? Welcome all. Great.
    Mr. Bodde. Thank you.
    Among the lessons I have learned during my career is that 
the success of every United States mission abroad depends on a 
strong interagency effort and a cohesive country team. It also 
requires clear goals, strict accountability, adequate funding, 
and trained personnel. These same critical concepts apply to 
our bilateral engagement projects and the delivery of 
significant levels of U.S. assistance at a critical juncture in 
Malawi's development. You have my full assurance that should I 
be confirmed, I will provide the necessary leadership to ensure 
that these concepts are an essential element of all mission 
programs. While the generosity of the American people is great, 
all of us involved in the stewardship of this generosity must 
be accountable for measuring success and failure.
    In my current position in Islamabad, as well in my previous 
position as consul general in Frankfurt, I have had the 
opportunity to regularly brief dozens of your colleagues, both 
in the House and Senate. Such regular interaction, whether at 
post or in Washington, is critical to our continued success. 
Frank exchanges of accurate information that build trust are 
essential for the Congress to make difficult resource and 
policy choices.
    Malawi is one of the poorest countries in the world. It 
faces the daunting challenges of chronic malaria, widespread 
HIV/AIDS, poor infrastructure, and a lack of mineral wealth. 
Yet, the Malawian Government has made a meaningful commitment 
to raising living standards and improving the lives of its 
people. The United States is an important and growing partner 
in this process. We are working with Malawi to promote 
political and economic development, decrease the country's 
dependence on humanitarian assistance, and increase its ability 
to make positive contributions to regional security and the 
broader global community.
    If confirmed, I will make protecting and deepening Malawi's 
democratic systems one of my highest priorities. Malawi's 
political parties are currently locked in a bitter struggle 
that has placed serious strains on the country's political 
institutions. All eyes are now shifting to national elections 
scheduled for mid-2009 that will be a critical test for 
Malawi's democratic processes. If confirmed, my recent 
experience in Pakistan, as well as my previous experience in 
Nepal and Bulgaria, in helping young or challenged democracies 
conduct fair and credible elections will serve me well.
    I also want to note how much I look forward to serving 
again at a post with a large and well-established Peace Corps 
program. I have seen firsthand the significant impact a single 
Peace Corps volunteer can make. I want to assure you that 
should I be confirmed, I will provide considerable support to 
this inspiring American outreach program.
    In closing, I want to note that anyone who represents the 
United States has a unique responsibility. More often than not, 
we are the only nation that has the will, the values, and the 
resources to solve problems, help others, and be a positive 
force for change in our challenged world. Being nominated to 
serve as an ambassador representing our Nation is in itself an 
incredible honor. With your consent, I look forward to assuming 
this responsibility while serving as the next United States 
Ambassador to Malawi.
    Thank you for this opportunity to address you. I look 
forward to answering your questions.
    [The prepared statement of Mr. Bodde follows:]

                 Prepared Statement of Peter W. Bodde, 
           Nominee to be Ambassador to the Republic of Malawi

    Mr. Chairman and members of the committee, it is an honor and a 
privilege to appear before you today as the President's nominee to 
serve as the next United States Ambassador to Malawi. I am grateful for 
the trust placed in me by the President and Secretary Rice. If 
confirmed, I look forward to working with this committee and my 
colleagues in the United States Government to further the interests of 
the United States in Malawi and in the region. I also want to take this 
opportunity to express my appreciation for the special efforts the 
committee has made to schedule these nomination hearings.
    Mr. Chairman, I would like to introduce my wife, Tanya, who is also 
a member of the Foreign Service, our daughter, Sara, who is a third 
grade teacher in Montgomery County, MD, and our son, Christopher, who 
traveled from London to be here today. I am happy and proud that my 
father, Ambassador William Bodde, is here today. About 30 years ago, I 
sat where he is sitting today during his first confirmation hearing 
when he appeared before the late Senator Paul Tsongas prior to becoming 
Ambassador to Fiji. I consider myself lucky to have grown up in a 
Foreign Service family.
    Among the lessons I have learned during my career is that the 
success of every United States mission abroad depends on a strong 
interagency effort and a cohesive country team. It also requires clear 
goals, strict accountability, adequate funding, and trained personnel. 
These same critical concepts apply to our bilateral engagement and the 
delivery of significant levels of United States assistance at a 
critical juncture in Malawi's development. You have my full assurances 
that, should I be confirmed, I will provide the necessary leadership to 
ensure that these concepts are an essential element of all mission 
programs. While the generosity of the American people is great, all of 
us involved in the stewardship of this generosity must be accountable 
for measuring success and failure.
    In my current position in Islamabad, as well as in my previous 
position as consul general in Frankfurt, I have had the opportunity to 
regularly brief dozens of your colleagues both in the House and Senate. 
Such regular interaction, whether at post or in Washington, is critical 
to our continued success. Frank exchanges of accurate information that 
build trust are essential for the Congress to make difficult resource 
and policy choices. Should I be confirmed, I will make every effort to 
interact on a regular basis with the members of the committee and other 
members of the Congress and congressional staff.
    Malawi is one of the poorest countries in the world; it faces the 
daunting challenges of chronic malaria, wide-spread HIV/AIDS, poor 
infrastructure, and a lack of mineral wealth. Yet, the Malawian 
Government has made a meaningful commitment to raising living standards 
and improving the lives of its people, and the United States is an 
important and growing partner in this process. The primary objective of 
the United States mission in Malawi, of course, is to promote and 
protect the interests of the United States and United States citizens 
who are either in Malawi or doing business with Malawi. In addition to 
that fundamental responsibility, we are working with Malawi to promote 
political and economic development, decrease the country's dependence 
on humanitarian assistance and increase its ability to make positive 
contributions to regional security and the broader global community.
    If confirmed, I will make protecting and deepening Malawi's 
democratic systems one of my highest priorities. Malawi's political 
parties are currently locked in a bitter struggle that has placed 
serious strains on the country's political institutions. All eyes are 
now shifting to national elections scheduled for mid-2009 that will be 
a critical test for Malawi's democratic institutions. If confirmed, my 
recent experience in Pakistan, as well as my previous experience in 
Nepal and Bulgaria, in helping young or challenged democracies conduct 
fair and credible elections will serve me well. Success, however, will 
require United States and international donor support to reinforce 
Malawi's developing democratic system.
    On the economic front, Malawi's near-term prospects look bright, 
largely because of good rains and the positive impact of the 
government's fertilizer and seed subsidy programs. From a longer-term 
perspective, however, Malawi remains highly dependent on rain-fed 
agriculture in an area prone to periodic droughts. In order to achieve 
sustainable improvements in living standards, Malawi must increase 
investment in irrigation and agricultural diversification, raise 
productivity and education standards, and reduce high transport and 
public utility costs. The Millennium Challenge Corporation's selection 
of Malawi as a compact eligible country in late 2007 has created 
significant new opportunities, not only for funding strategic public 
investments but also for new public-private partnerships to promote 
sustainable growth.
    Disease, including HIV/AIDS, malaria, tuberculosis, and chronic 
malnutrition poses a tremendous obstacle to Malawi's continued growth. 
The Malawian Government has been a willing partner in addressing the 
challenges of improving access to health care, but government and 
public sector capacity remain weak. The United States, through the 
President's Emergency Plan for AIDS Relief (PEPFAR) and the Global 
Fund, has played a critical role in increasing access to treatment and 
increasing public awareness about the disease. If confirmed, I will be 
proud to shepherd the continued growth of these critical programs.
    As Malawi continues to develop domestically, it is increasingly 
able to play a constructive role in advancing important issues 
throughout the region. One example of such a contribution is Malawi's 
planned deployment of a peacekeeping battalion to Darfur. The United 
States is working with the United Nations to support Malawi's efforts 
and prepare Malawian troops for deployment in 2009. If confirmed, I 
will work diligently to keep these plans on track.
    I also want to note how much I look forward to serving again at a 
post with a large and well-established Peace Corps program. I have seen 
firsthand the significant impact a single Peace Corps volunteer can 
make. I want to assure you that, should I be confirmed, I will provide 
considerable support to this inspiring American outreach program.
    In closing, I want to note that anyone who represents the United 
States has a unique responsibility. More often than not, we are the 
only Nation that has the will, the values, and the resources to solve 
problems, help others, and to be a positive force for change in our 
challenged world. Being nominated to serve as an ambassador 
representing our Nation is in itself an incredible honor. With the 
consent of the Senate, I look forward to assuming this responsibility 
while serving as the next United States Ambassador to Malawi. Thank you 
for this opportunity to address you. I look forward to answering your 
questions.

    Senator Feingold. Thank you, Mr. Bodde. Thank you so much.
    And now we turn to Donald E. Booth, to be Ambassador to the 
Republic of Zambia.

STATEMENT OF HON. DONALD E. BOOTH, NOMINEE TO BE AMBASSADOR TO 
                     THE REPUBLIC OF ZAMBIA

    Ambassador Booth. Thank you, Mr. Chairman, Senator Isakson. 
I am deeply honored to appear before you today, and I greatly 
appreciate the trust and confidence that the President and 
Secretary of State have placed in me to be their nominee as 
United States Ambassador to the Republic of Zambia.
    I am also grateful for the unwavering support of my wife, 
Anita, who is a retired Foreign Service officer, who is 
currently in Liberia where I have had the honor of serving as 
Ambassador for the past 3 years. I would also like to introduce 
my daughter, Alison, and my son, Peter, who are in the back. My 
youngest son, David, is currently attending Lawrence University 
in Wisconsin, so he is not able to be here today.
    I have spent the better part of my 32 years in the Foreign 
Service trying to resolve conflicts and promoting development 
and understanding of the United States in many different parts 
of Africa. During my 2 years as the Deputy Director of the 
State Department's Office of Southern African Affairs, I worked 
to keep Zambia from being drawn into the then ever-widening 
conflict in the neighboring Democratic Republic of the Congo. I 
was also the coordinator of our efforts to engage the member 
states of the Southern African Development Community on 
security cooperation, regional water resource management, and 
in arresting Zimbabwe's slide toward arbitrary rule, among 
others.
    Zambia has been fortunate to escape the wars and civil 
conflicts in Southern Africa since its independence in 1964. 
However, despite its vast mineral wealth, Zambia remains a poor 
country where 87 percent of the population lives on less than 
$2 a day. The reasons for this low quality of life for most 
people in Zambia are similar to those I have been working to 
address during my time as Ambassador to Liberia--corruption, 
gender-based violence, unequal access to opportunity, and lack 
of quality education and health care.
    If confirmed, I would do my best to ensure that the 
assistance funds appropriated and authorized by Congress are 
effectively utilized to help the Government of Zambia address 
the underlying causes of poverty there. Poverty that can lead 
to despair and create opportunities for those who would seek to 
harm the American people. My experiences in Africa have left me 
convinced that we can only make a difference by working in 
partnership with those Africans who have the desire to tackle 
their problems themselves.
    Zambia also suffers from the curse of HIV/AIDS and malaria, 
and that is why Zambia was one of the first countries to 
benefit from the President's Emergency Program for AIDS Relief, 
as well as from the President's Malaria Initiative. Over 75 
percent of United States assistance to Zambia is directed to 
addressing HIV/AIDS and malaria. If confirmed, I will make it a 
priority to ensure that our emergency interventions receive the 
Zambian support needed to make them sustainable and thus truly 
capable of controlling the scourge of those diseases that have 
so restrained development in that part of the world and can 
still threaten the region's stability.
    Mr. Chairman, I believe our relationship with Zambia should 
not be defined by what we do to help Zambia, but rather by how 
much we can accomplish together to expand the horizons of 
freedom, peace, and economic opportunity. Zambia has been in 
the forefront of true multiparty democratic governance in 
southern Africa, and I believe we need to encourage Zambia to 
work through the Southern African Development Community, SADC, 
to advance democracy and accountable government in southern 
Africa and beyond. I am pleased to note that as the chair of 
SADC, Zambia recently convoked an extraordinary summit to 
address the deteriorating situation in neighboring Zimbabwe.
    Mr. Chairman, I thank you for inviting me to appear before 
you today, and I would be happy to answer your questions.
    [The prepared statement of Ambassador Booth follows:]

          Prepared Statement of Hon. Donald E. Booth, Nominee 
               to be Ambassador to the Republic of Zambia

    Mr. Chairman and distinguished members of this committee, I am 
deeply honored to appear before you today. I greatly appreciate the 
trust and confidence the President and Secretary of State have placed 
in me as their nominee to be the United States Ambassador to the 
Republic of Zambia. I am also grateful for the support throughout my 
Foreign Service career of my wife, Anita, who is in Liberia where I 
have had the honor to serve as ambassador for the past 3 years, as well 
as of my daughter, Alison, and sons, Peter and David. Alison and Peter 
are here with me today. David is currently attending Lawrence 
University in Appleton, Wisconsin.
    I have spent the better part of my 32 years in the Foreign Service 
trying to resolve conflicts and promoting development and understanding 
of the United States in many parts of Africa. During my 2 years as 
Deputy Director of the State Department's Office of Southern African 
Affairs, I worked to keep Zambia from being drawn into the then-
widening conflict in neighboring Democratic Republic of the Congo. I 
was also the coordinator of our efforts to engage the member states of 
the Southern African Development Community as a group on security 
cooperation, regional water resource management and in arresting 
Zimbabwe's slide toward arbitrary rule. As Ambassador to Liberia, I 
have seen the impact regional peer pressure can have in ending conflict 
and restoring democratically elected government.
    Despite the wars and civil conflicts in southern Africa, Zambia has 
been fortunate to escape conflict since its independence in 1964. 
However, despite its vast mineral wealth, Zambia remains a poor country 
where 87 percent of the population lives on less than $2 per day. The 
reasons for this low quality of life for most people in Zambia are not 
dissimilar to those I have been working to address during my time as 
Ambassador to Liberia--corruption, unequal access to opportunity and 
lack of quality education and health care. If confirmed, I would do my 
best to ensure that the assistance funds appropriated and authorized by 
the Congress are effectively utilized to help the Government of Zambia 
address the underlying causes of poverty in Zambia, poverty that can 
lead to despair and create opportunities for those who would seek to 
harm the American people, their friends and allies. I would also work 
with the Government of Zambia to meet the criteria for compact status 
under the Millennium Challenge Account. My numerous experiences in 
Africa have left me convinced that we cannot impose solutions to 
Africa's problems. We can only make a difference by working in 
partnership with Africans who have the desire and will to tackle their 
problems themselves.
    Zambia also suffers from the twin afflictions of HIV/AIDS and 
malaria. That is why Zambia was one of the first countries to benefit 
from the President's Emergency Plan For AIDS Relief (PEPFAR), as well 
as from the President's Malaria Initiative (PMI). Over 75 percent of 
United States assistance to Zambia is directed at addressing HIV/AIDS 
and malaria. If confirmed, I will make it a priority not only to help 
Zambia combat those diseases, but also explore ways we can ensure our 
``emergency'' interventions receive the Zambian support needed to make 
them sustainable and thus truly capable of controlling these two 
diseases that have so restrained development and could still threaten 
the region's stability. Another impediment to Zambia's development is 
the unequal status of women and the prevalence of gender-based 
violence. If confirmed, I would ensure these problems are addressed 
through the Women's Justice and Empowerment Initiative, as well as 
through programs that combat trafficking in persons.
    Mr. Chairman, I believe our relationship with Zambia should not be 
defined by what we do to help Zambia, but rather by how much we can 
accomplish together to expand the horizons of freedom, peace, and 
economic opportunity. Zambia has been in the forefront of true 
multiparty democratic governance in southern Africa and I believe we 
need to encourage Zambia to work through the Southern African 
Development Community (SADC) to advance democracy and accountable 
government in southern Africa and beyond. I am pleased to note that as 
chair of SADC, Zambia recently convoked an extraordinary summit to 
address the deteriorating situation in Zimbabwe. The United States 
Ambassador to Zambia is also accredited to the Common Market of Eastern 
and Southern Africa (COMESA). While COMESA is a broad group of nations 
in various states of development, if confirmed, I will try to help 
COMESA identify ways it can advance meaningful regional economic 
cooperation that will better integrate its member states into the 
global economy.
    Mr. Chairman, thank you for inviting me to appear before you today. 
I would be happy to answer your questions.

    Senator Feingold. Thank you, Mr. Booth.
    Now we go to Mr. Stephen James Nolan, to be Ambassador to 
the Republic of Botswana.

 STATEMENT OF STEPHEN JAMES NOLAN, NOMINEE TO BE AMBASSADOR TO 
                    THE REPUBLIC OF BOTSWANA

    Mr. Nolan. Thank you, Mr. Chairman. Mr. Chairman and 
Senator Isakson, I am honored to appear before you today as 
President Bush's nominee to serve as the next United States 
Ambassador to the Republic of Botswana and Special 
Representative to the Southern African Development Community. I 
am grateful for the trust placed in me by the President and 
Secretary Rice. If confirmed, I look forward to working with 
this committee to further the interests of the United States in 
Botswana and the region.
    With me today is my wife, Judy. She has been a real source 
of support and wise counsel since we were married 30 years ago 
in Senegal, our first Foreign Service post.
    Since then, two-thirds of my career has been spent with the 
African Bureau, during which I have been responsible for 
handling a variety of management and policy issues. During the 
last 4 years, I have been the Executive Director of the African 
Bureau where Ambassador Ruth Davis, who has been a wonderful 
boss and great leader, has really been behind me in every sense 
of the word, right until this moment. [Laughter.]
    Should I be confirmed, this experience will greatly inform 
my work in Botswana.
    My affinity for Africa is not accidental. My father was a 
Foreign Service officer until his death in Yemen in 1973. It 
was his example, with encouragement from my mother, that 
inspired my career choice, but it was our family's years in 
Kenya and Sierra Leone that sparked a lifelong interest in 
Africa. I am sure my father is looking down on these 
proceedings with a smile on his face.
    The highest priorities for any ambassador are to protect 
American lives and to ensure a safe environment for all 
personnel in the mission. My sensitivity to this is based on 
experience. I was in the embassy in Nairobi when it was bombed 
by al-Qaeda in August 1998. For me the events and aftermath of 
that day underscored the importance of leadership and 
preparedness. If confirmed, I will not lose sight of this 
critical responsibility.
    Botswana is a leader in the region, with a long record of 
political stability and sound institutions. Yet, for all its 
storied success, Botswana still faces critical challenges that 
will affect the sustainability of its remarkable development. 
Although democracy and good governance are firmly established, 
civil society organizations are not yet fully mature. Working 
with the government, civil society, and the media, I will 
strive to foster robust and dynamic democratic institutions.
    Diamonds account for a third of Botswana's GDP, and the 
government has used this resource wisely to spur development. 
But 30 percent of Botswana's citizens still live in poverty and 
the gap between rich and poor is growing. With diamonds 
expected to run out in the not distant future, there is an 
urgent need for greater economic diversification with less 
reliance on the public sector. To this end, the United States 
is helping Botswana become more competitive in the global 
marketplace and to take full advantage of the African Growth 
and Opportunity Act. If confirmed, I will work to foster 
economic growth and seek to expand United States commercial 
engagement with Botswana.
    The devastating coepidemics of HIV/AIDS and tuberculosis 
touch everyone in Botswana. Through the President's Emergency 
Plan for AIDS Relief, the U.S. has provided over $300 million 
to support prevention and treatment efforts and to help the 
Government of Botswana achieve its goal of an AIDS-free 
generation by 2016. If confirmed, I will be proud to champion 
the continued development of this vital program.
    Additional important objectives would be supporting 
Botswana's role as a regional partner on peace and security 
issues through the International Military Education and 
Training Program, maximizing the impact of the International 
Law Enforcement Academy in Gaborone, and working to help 
protect Botswana's environment and unique natural heritage.
    If confirmed, I would build on Ambassador Canavan's efforts 
to identify areas for closer collaboration with the Southern 
African Development Community. We already enjoy useful 
cooperation on trade expansion and environmental protection, 
and more recently SADC has shown leadership in coordinating a 
regional response to the electoral crisis in Zimbabwe. It is 
important that we continue to engage with SADC, encouraging its 
expanding role as an advocate for constructive economic 
policies and deepening democratic institutions.
    Mr. Chairman, Senator Isakson, should I be confirmed, I 
promise to work hard to maintain and expand our excellent 
relationship with Botswana for the betterment of both the 
American and Botswana people.
    Thank you for this opportunity to address you. I look 
forward to answering your questions.[The prepared statement of 
Mr. Nolan follows:]

          Prepared Statement of Stephen James Nolan, Nominee 
              to be Ambassador to the Republic of Botswana

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Bush's nominee to serve as the next 
United States Ambassador to the Republic of Botswana. I am grateful for 
the trust placed in me by the President and Secretary Rice. If 
confirmed, I look forward to working with this committee to further the 
interests of the United States in Botswana and in the region as the 
Secretary of State's Representative to the Southern African Development 
Community.
    With me today is my wife, Judy, who has been a source of strength, 
support, and wise counsel since we were married 30 years ago in Dakar, 
Senegal, our first Foreign Service post. While I have also served in 
Europe and the Near East, two thirds of my career has been at our posts 
in Africa or in the Bureau of African Affairs in Washington. On the 
continent, I have had the pleasure to serve as Consul General in Cape 
Town, two tours in Nairobi, and tours in Harare and Dakar. This 
affinity for Africa is not accidental. My father, Bernard Nolan, was a 
Foreign Service officer until his death in Yemen in 1973. His example, 
with encouragement from my mother, inspired my career choice, but it 
was my family's years in Kenya and Sierra Leone that sparked my life-
long interest in Africa. I am sure he is looking down on these 
proceedings with a smile on his face.
    During my career with the Foreign Service, I have been responsible 
for handling a variety of management and policy issues, most recently, 
as Executive Director of the Bureau of African Affairs. The rapid 
growth of health, development, and security assistance programs at many 
embassies in recent years has stretched human and financial resources, 
but I am proud of how our bureau's dedicated American and locally 
engaged personnel have risen to the challenge. This is an issue I plan 
to remain focused on as we need to ensure that we have adequate 
staffing to match the increase in program funds for proper management 
and accountability. Africa stands at a critical juncture, and Botswana 
is destined to play a key leadership role in the realization of 
Africa's future, particularly in southern Africa. If confirmed, I will 
work with dedication to promote stronger United States-Africa relations 
and to deepen our excellent bilateral relationship with Botswana.
    The highest priority for any ambassador serving overseas is to 
protect American lives--whether private citizens or those working in 
the mission. My extreme sensitivity about this is based on my 
experience; when al-Qaeda bombed our embassy in Nairobi in 1998, I was 
serving there as the administrative counselor. This catastrophe and its 
aftermath underscored the importance of leadership and experience. 
Should I be confirmed, I will use both in carrying out this critical 
responsibility.
    Botswana's stability and legitimacy derive from the strength of its 
leadership and institutions, adherence to democratic norms, and prudent 
management of revenues from its diamond industry. Yet Botswana, for all 
its storied success, still faces many critical challenges that will 
affect the sustainability of its remarkable development. Although 
democracy and good governance are firmly established in Botswana, the 
ruling party has won every national election since independence in 1966 
and civil society organizations are not yet fully mature. The success 
of diamonds and the related broad-based and deeply rooted growth of the 
public sector have limited the emergence of a robust and 
entrepreneurial private sector. Diamond dependency (diamonds account 
for 33 percent of GDP) highlights the need to diversify the economy. 
The gap between rich and the poor is wide and growing. An estimated 30 
percent to 40 percent of Batswana live in poverty, largely in sparsely 
populated rural areas. Furthermore, coepidemics of HIV/AIDS and 
tuberculosis have devastated families and affect every member of 
Batswana society. If I am confirmed, helping Botswana address these 
challenges will be central to my tenure.
    Our strong relationship with Botswana provides many opportunities 
for positive engagement. Today, I would like to focus on several areas 
where the United States can contribute to the continuing success of 
Botswana and an even brighter future. First, with the inauguration of a 
new President in Botswana and a general election approaching in 2009, 
the United States has a unique opportunity to help Botswana move 
forward with improved democratic practices and respect for human 
rights. Working with the government, civil society, and the media, I 
will endeavor to foster more robust and dynamic democratic institutions 
to ensure more Batswana feel like they have a stake in their own polity 
and economic future.
    Economic development and expansion of trade will also be key 
priorities. Botswana has already made great gains in just over four 
decades, financed largely and prudently by Botswana's ``diamonds for 
development'' program and guided by sound fiscal and monetary policies. 
Despite these gains, uneven development, skewed income distribution, 
and highly visible and palpable poverty are clear signs that more must 
be done. The realization has increasingly set in that ``diamonds are 
actually not forever,'' and there is an urgent need for greater 
diversification in Botswana's economy. The United States is currently 
helping Botswana to become more competitive in the global marketplace 
and to make maximum use of the African Growth and Opportunity Act 
(AGOA). Our Government is also working with Botswana to help develop 
its energy resources, agricultural exports, and public-private sector 
policy dialog. If confirmed, I will make fostering increased and 
diversified economic growth a priority, while seeking to expand United 
States commercial engagement with Botswana.
    I will continue our close collaboration with the Botswana 
Government in the fight against the coepidemics of HIV/AIDS and 
tuberculosis. As with many of its neighbors, Botswana has been 
devastated by HIV/AIDS. The national HIV/AIDS prevalence rate is 
estimated to be 24.1 percent, with a much higher rate in certain age 
categories. Botswana also has one of the world's worst tuberculosis 
(TB) epidemics and about 80 percent of TB patients also have HIV. 
Through the President's Emergency Plan for AIDS Relief (PEPFAR), the 
United States has provided roughly $300 million in funding to support 
prevention and treatment efforts and to help the Government of Botswana 
achieve its goal of an AIDS-free generation by 2016. If confirmed, I 
would be proud to shepherd the continued development of this critical 
program.
    Supporting Botswana's role as a regional partner on peace and 
security issues through the International Military Education and 
Training Program, maximizing the impact of the International Law 
Enforcement Academy in Gaborone, and working to help protect Botswana's 
environment and unique natural heritage would also be important 
objectives, should I be confirmed.
    Finally, as the Secretary of State's Representative to the Southern 
African Development Community, known as SADC, if confirmed, I would 
continue Ambassador Canavan's efforts to identify areas for closer 
collaboration with this important regional organization, where we have 
already enjoyed useful cooperation in the areas of regional trade 
expansion and management of Southern African ecosystems. More recently, 
SADC has shown leadership in coordinating a regional response to the 
electoral crisis in Zimbabwe. It is important that we continue to 
engage fully with SADC, supporting its expanding voice as an advocate 
for constructive economic policies and deepening democratic 
institutions throughout southern Africa.
    Mr. Chairman, committee members, should I be confirmed, I will work 
hard to maintain and expand our excellent relationship with Botswana 
for the betterment of both the American and Batswana people. Thank you 
for this opportunity to address you. I look forward to answering your 
questions.

    Senator Feingold. Thank you, Mr. Nolan.
    And finally, Ms. Marianne Matuzic Myles, to be the 
Ambassador to the Republic of Cape Verde.

 STATEMENT OF MARIANNE MATUZIC MYLES, NOMINEE TO BE AMBASSADOR 
                 TO THE REPUBLIC OF CAPE VERDE

    Ms. Myles. Thank you. Mr. Chairman and Senator Isakson, it 
is truly a great honor for me to be before you here today as 
President Bush's nominee to serve as United States Ambassador 
to the Republic of Cape Verde. Like my fellow nominees before 
me, I am grateful to the President and to Secretary Rice for 
the confidence and trust that they have shown by nominating me 
for this position.
    It is a tremendous pleasure for me to take a moment to 
introduce the many family members, friends, and colleagues who 
are with me here today. I am joined by my husband Stan, a 
retired Foreign Service officer, and my partner for almost 20 
years now; our daughter Lee-Ellen, who is a seventh-grader at 
Roberto Clemente Middle School's Magnet Center; my sister, 
Nancy Edwards; her daughter Kate; good friend and neighbor, Jim 
Gierula; Lee-Ellen's classmate from Roberto Clemente, Frieda 
Lindroth. And from my current office, I would like to introduce 
Deputy Assistant Secretary Linda Taglialatela and colleagues, 
Bruce Cole, Margaret Dean, Bill Pope, Dick Christianson, Rachel 
Friedland, and Tijen Aybar.
    Senator Feingold. I will ask the whole audience to rise. 
[Laughter.]
    Welcome all. Thank you very much for coming. Go ahead.
    Ms. Myles. Mr. Chairman, I joined the Foreign Service at 
the young age of 22 because of a very strong commitment to 
public service. I look forward to the opportunity, if 
confirmed, to utilize the skills I have acquired during my 30-
plus year Foreign Service career to advance our interests in 
Cape Verde. My multiple assignments in Brazil, which is a 
country that shares many common interests with Cape Verde, 
fluent Portuguese, the work I oversaw on remittances, and the 
disaster relief I provided while Consul General in Naples, my 
work to protect American citizens in Bogota, as well as my 
interagency training at the National War College, and 
background as an economist have given me a wide range of useful 
tools. If confirmed, I will put those tools to best use.
    Mr. Chairman, the Republic of Cape Verde is an African 
success story. It is one of Africa's oldest and strongest 
democracies with an unbroken tradition of civilian rule since 
independence in 1975. It is politically stable. Corruption is 
low. Transparency is high. And perhaps most important, Cape 
Verde's human rights record is excellent.
    In the brief time I have this morning, I would like to 
mention a few important aspects of the United States-Cape Verde 
bilateral relationship. That relationship is strong, in part 
because it is a longstanding one, beginning with the opening in 
1818 of our first consulate in sub-Saharan Africa. 
Extraordinarily close family ties also strengthen the 
relationship as a large number of Cape Verdeans are resident in 
New England, particularly in Massachusetts and Rhode Island.
    The first factor of our strong relationship is that we 
share a common commitment to democracy. The United States has 
supported Cape Verde's continuing efforts to strengthen its 
democracy, and the commitment by Cape Verdeans and their 
political parties to democratic dispute resolution is 
extraordinary. Closely contested elections in 2001 and 2006 
were resolved according to the constitution without political 
violence or heated rhetoric.
    The second factor is a shared commitment to security. Cape 
Verde's location strategically positions it in major north-
south sea routes. The Government of Cape Verde has provided 
strong support on security cooperation. Cape Verde's hosting of 
NATO's first live military exercise in Africa in June of 2006 
was an historic event.
    As you mentioned in your opening remarks, Mr. Chairman, 
there is much more to do with regard to maritime security. Cape 
Verde's solid support of United States ship visits and 
counternarcotics activities are indications of their policy to 
be an active, constructive partner, as well as a regional role 
model.
    A third factor is economics. Cape Verde's AGOA eligibility, 
its new WTO membership, and its recent partnership status with 
the European Union offer Cape Verde the chance to become a 
transatlantic bridge for tourism, trade, and investment. Its 
economy is also benefiting from its selection in 2005 as one of 
the first Millennium Challenge Account countries.
    Mr. Chairman, the United States remains a strategic partner 
with Cape Verde focused on three main goals: accelerating 
economic expansion, consolidating a stable democracy, and 
strengthening the rule of law. If confirmed, I will be eager to 
pursue these efforts, as well as develop other strategic 
partnerships. But as a first priority, I would carry out the 
chief of mission's responsibility to ensure the safety and 
welfare of all Americans and U.S. Government employees. I 
understand and embrace the obligation to ensure the fair 
treatment and high morale of mission staff and family members.
    If confirmed, I look forward to working closely with you 
and your colleagues and to welcoming you to Cape Verde.
    I would be happy to answer any questions you may have.
    [The prepared statement of Ms. Myles follows:]

         Prepared Statement of Marianne Matuzic Myles, Nominee 
             to be Ambassador to the Republic of Cape Verde

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as President Bush's nominee to serve as United States 
Ambassador to the Republic of Cape Verde. I am grateful to the 
President and Secretary Rice for the confidence and trust they have 
shown by nominating me for this position.
    It is my pleasure to take a moment to introduce the family members, 
friends, and colleagues who are with me here today. I am joined by my 
husband, Stan, a retired Foreign Service officer, our daughter, Lee-
Ellen, a seventh grader at Roberto Clemente Middle School, my sister, 
Nancy Edwards, and her daughter, Kate, good friend and neighbor, Jim 
Gierula, and Lee-Ellen's classmate, Frieda Lindroth. From my current 
office, I would like to introduce Deputy Assistant Secretary Linda 
Taglialatela, and colleagues Bruce Cole, Margaret Dean, Bill Pope, and 
Tijen Aybar.
    I joined the Foreign Service at the young age of 22 because of a 
strong commitment to public service. I look forward to the opportunity, 
if confirmed, to utilize the skills I have acquired during my 30-plus 
year Foreign Service career to advance our interests in Cape Verde. My 
multiple assignments in Brazil, a country that shares many common 
interests with Cape Verde, my fluent Portuguese, the work I oversaw on 
remittances and the disaster relief I provided while Consul General in 
Naples, my work to protect American citizens in Bogota, as well as my 
interagency training at the National War College and background as an 
economist, have given me a wide range of useful tools. If confirmed, I 
will put them to best use.
    Mr. Chairman, the Republic of Cape Verde is an African success 
story. It is one of Africa's oldest and strongest democracies with an 
unbroken tradition of civilian rule since independence in 1975. It is 
politically stable. Corruption is low and transparency is high. Perhaps 
most important, Cape Verde's human rights record is excellent.
    In the brief time I have this morning, I'd like to mention a few 
important aspects of the United States-Cape Verde bilateral 
relationship. That relationship is strong, in part because it is a 
long-standing one, beginning with the opening in 1818 of our first 
consulate in sub-Saharan Africa. Extraordinarily close family ties also 
strengthen the relationship, as a large number of Cape Verdeans are 
resident in Massachusetts and Rhode Island.
    The first factor in our strong relationship is that we share a 
common commitment to democracy. The United States has supported Cape 
Verde's continuing efforts to strengthen its democracy. The commitment 
by Cape Verdeans and their political parties to democratic dispute 
resolution is extraordinary. Closely contested elections in 2001 and 
2006 were resolved according to the constitution, without political 
violence and heated rhetoric.
    The second factor is a shared commitment to security. Cape Verde's 
location 300 miles from the west coast of Africa strategically 
positions it in major north-south sea routes. The Government of Cape 
Verde has provided strong support on security cooperation. Cape Verde's 
hosting of NATO's first live military exercise in Africa in June 2006 
was an historic event. And Cape Verde's solid support of United States 
ship visits and counternarcotics activities are further indications of 
their policy to be an active, constructive participant in a strategic 
partnership, as well as a regional role model.
    A third factor is economics. Cape Verde's AGOA eligibility, its new 
WTO membership, and its recent partnership status with the European 
Union offer Cape Verde the chance to become a trans-Atlantic bridge for 
tourism, trade, and investment. Its economy is also benefiting from its 
selection in 2005 as one of the first Millennium Challenge Account 
countries. Cape Verde's recent graduation to lower middle income status 
means that it has to make further progress to meet higher policy 
performance standards; but Cape Verde has already made many 
improvements and has achieved very high levels of performance--even 
when compared to its new peers in this higher income group--in the 
areas of accountability, civil liberties, control of corruption, 
government effectiveness, and rule of law.
    Mr. Chairman, the United States remains a strategic partner with 
Cape Verde, focused on 3 main goals--accelerating economic expansion, 
consolidating a stable democracy, and strengthening the rule of law. If 
confirmed, I will be eager to pursue these efforts, as well as develop 
other strategic partnerships. But as a first priority, I would carry 
out the chief of mission's responsibility to ensure the safety and 
welfare of all Americans and U.S. Government employees. I understand 
and embrace the obligation to ensure the fair treatment and high morale 
of mission staff and family members.
    I would be happy to answer any questions you might have.

    Senator Feingold. That was the first place I ever set foot 
in Africa, but it was for refueling. [Laughter.]
    So I hope to have a better visit.
    Ms. Myles. Maybe you can stay longer next time.
    Senator Feingold. Thanks to the whole panel, and I will 
start with a round of questions.
    Mr. Bodde, Malawi has one of the higher HIV prevalence 
rates in the world, but has not been a focus country for PEPFAR 
or a leading recipient of United States assistance. If 
confirmed as ambassador, how would you see your role and 
efforts to combat HIV/AIDS? What could or should the United 
States and other international partners do in this effort?
    Mr. Bodde. Thank you, Senator, for the question.
    While it has not been a focus-country recipient of PEPFAR, 
it has been a tremendous recipient of U.S. Government funding 
in our battle against AIDS. The role I see as chief of mission 
is to coordinate the entire U.S. Government approach to this, 
to be an advocate for this, to make sure that all the available 
sources of funding are adequately used and appropriately used. 
I think there are tremendous opportunities here. When you see 
the proportion of aid that is spent on health, it is almost 
over half. Close to 60 percent of all assistance going to 
Malawi is already spent on health. And I think there is 
tremendous room for expansion there.
    But I think we also have to look beyond the health issue 
itself and look at the economy and what can be done there 
because what has happened in the impact of AIDS on the economy 
in Malawi is desperate. It has caused desperate problems, and I 
think it is affecting Malawi's potential for economic growth. 
So I would also be looking to expand our programs in those 
areas.
    Senator Feingold. Prison conditions and restrictions on 
freedom of expression remain serious concerns in Malawi. How 
will you address these issues?
    Mr. Bodde. Senator, I think there is only one way to deal 
with those issues and that is head on. I have lived in 
countries and worked in countries where this is sadly an issue. 
One has to confront the government. One has to be consistent in 
this. We also have to look a little broader, and one has to 
provide training. One has to encourage things like the training 
of investigative journalists. We have to encourage NGO's. One 
of my concerns, with the election coming up so quickly next May 
in Malawi, is how quickly can we get programs like this started 
and on the ground.
    Another concern I have, quite frankly, is at this point in 
time, there is only about half a million dollars set aside for 
these programs. I have worked very closely with NDI, IRI, IFIS, 
NGO's like this over the years. They do tremendous work, and 
they are also very helpful specifically in how to address the 
lack of freedom of speech and expression.
    Senator Feingold. Thank you, sir.
    Mr. Booth, how do you intend balance a desire for 
diplomatic relations with the Zambian Government with continued 
pressure for what is obviously central governance reforms?
    Ambassador Booth. Thank you, Mr. Chairman.
    I think the situation in Zambia is one where we have had 
now two elections where you have had democratic change. 
President Kaunda who was the first President, the liberation 
hero, of the country did, under pressure, agree to step down 
back in 1991, and there was a change of government to the MMD, 
President Chiluba. He stayed in office 2 terms. His attempt to 
continue in office for a third term was beaten back, and it 
appears that President Mwanawasa now will, indeed, step down at 
the end of his second term in 2011.
    So I think we have a good engagement with Zambia on the 
democracy front. I think what we want to do is try to engage 
Zambia more in a regional context where there are some players 
that have not embraced that commitment to democracy.
    Senator Feingold. According to a recent investigation by 
Human Rights Watch, domestic violence and a lack of access to 
health care, legal services, and basic economic rights, make 
Zambian women extremely vulnerable to HIV infection and general 
mistreatment. How is the United States supporting the removal 
of barriers to women's access to health care and legal 
services, and the protection of women against violence?
    Ambassador Booth. Thank you very much for that question.
    One of the programs we are about to initiate in Zambia is 
the Women's Justice and Empowerment Initiative, and it has a 
budget over 3 years of about $11 million. It is just being 
launched now. There are three components to it. One is to try 
to improve how the police deal with gender-based violence 
crimes. Second is to work the Zambians in drafting legislation 
that would provide better protections to women, and the third 
is in providing assistance through USAID and CARE to the 
victims of gender-based violence.
    Access to education for girls is a problem not only in 
Zambia. It is a problem that has to be dealt with in terms of 
trying to make sure that there are adequate facilities at 
schools, separate lavatory facilities, for example. And also 
there is a problem of parents who feel that educating their 
girls is not as high a priority as educating their sons and, 
therefore, unless there is some incentive, they will tend to 
take them out of school first. This is a problem we have seen 
in Liberia as well. So things like school feeding programs have 
been helpful. We do not have one of those in Zambia now, but 
certainly when I go out there, this is something that I will be 
looking at, how to make sure that there is not only access to 
the schools, but that, indeed, girls in particular stay in 
school.
    Senator Feingold. Thank you, sir.
    Mr. Nolan, can you discuss Botswana's role with regard to 
human rights and political crisis in the neighboring country of 
Zimbabwe? And to this end, how is the United States embassy 
working with the Government in Botswana? What impact, if any, 
has the Zimbabwe situation actually had on Botswana?
    Mr. Nolan. Thank you, Mr. Chairman.
    I think it is remarkable that President Khama--in office 
for just a matter of days-- was one of the first SADC leaders 
to invite Morgan Tsvangirai to come and speak with him about 
the crisis in Zimbabwe. I think this is an indication of 
President's Khama's intention to take a more proactive 
approach. He was supportive of the SADC initiative to call the 
heads of state to Lusaka to discuss this issue. It is promising 
that SADC is beginning to engage on these issues of human 
rights and to look at ways to solve problems in their own 
region.
    Botswana is a front-line state, so to speak, by virtue of 
its long border with Zimbabwe. While only 150 or so Zimbabweans 
are formally registered as refugees in Botswana, there are 
250,000 Zimbabweans who have moved across the border and are 
living in Botswana. They are putting strains on the delivery of 
services in Botswana. Zimbabwe has become a millstone for the 
entire region, and SADC is a potential vehicle for addressing 
the issue. Botswana is a country that will play an important 
role in helping to achieve, I think, a more productive 
resolution to the crisis and hopefully soon.
    Senator Feingold. And as to human rights within Botswana 
itself, some human rights groups remain concerned about 
periodic reports of secret executions taking place in Botswana. 
What is the U.S. Government doing to investigate these reports?
    Mr. Nolan. Mr. Chairman, I would have to take that 
question. I have no specific knowledge of that. I am not aware 
of those reports, but I will certainly look into that and give 
you a response.
    Senator Feingold. Thank you for that.
    And just one question for Ms. Myles, and then I will turn 
to Senator Isakson.
    Although nearly 70 percent of the population in Cape Verde 
lives in rural areas, I understand that up to 90 percent of 
Cape Verde's food must be imported. How has the current food 
crisis affected Cape Verde, and how are the current government 
foreign donors, including the United States, responding?
    Ms. Myles. Thank you for that question, Mr. Chairman.
    It is true that the vast majority of Cape Verde's food is 
imported. In fact, some sources put that estimate up to 98 
percent of food.
    At the moment, they are doing well with regard to feeding 
the population. I think that there is some worrisome aspect to 
the future in the sense that Cape Verde's climate is not 
conducive to agriculture. It is very arid, and although there 
are advances being made to diversify crops, including under the 
Millennium Challenge Account, there is a project underway of 
drip irrigation to produce crops that have not been produced in 
Cape Verde before. It is true that they are vulnerable to 
climatic changes and to drought in particular. I think you know 
that in the 1940s-1950s, the drought that took place at that 
time drove many people out of Cape Verde to the United States 
and other places.
    So it is a situation that bears watching. It is a situation 
that could become critical. At the moment, it appears that they 
are able to produce sufficient food for their population.
    Senator Feingold. Thank you.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Mr. Booth, you made a reference to gender-based violence in 
your statement. In my trips to Ethiopia, Egypt, some of the 
other countries in North Africa, where NGO's were taking United 
States foreign aid and investing it in basic education for 
Africans, post 9/11 we started making sure that women were not 
being discriminated against. There were some countries that 
were predominantly Muslim where they would not let women go to 
school. So gender-based discrimination in terms of both 
violence and education seems to be prevalent at least in some 
countries in Africa.
    Have you worked with the NGO's in this area to ensure that 
as U.S. aid is being invested, it is invested while ensuring 
that there is no discrimination against women?
    Ambassador Booth. Thank you, Senator, for that question.
    In Liberia, this question of sexual exploitation and abuse 
has been a prime topic, both for the U.N. peacekeeping mission 
there and also for the NGO's that are providing assistance 
initially to internally displaced persons and returning 
refugees. And this is something that just simply requires 
constant attention to make sure that the staffs that are coming 
in are continually trained in how not to utilize their position 
of power, when you have very poor and vulnerable people that 
you are assisting, not to use your position of power to take 
advantage of women in particular.
    In Zambia, the Muslim population is only about 5 percent, 
and so the attendance of girls in school is very high. There is 
about a 96 percent attendance rate at the elementary level, and 
that cuts across both sexes. However, we do find that the girls 
tend to drop out of school earlier, and so the illiteracy rate 
for girls is higher than for boys by about 10 percent.
    But certainly the drive of all of our education programs, 
including the ones that I have had the pleasure to work with in 
Liberia, have focused very much on trying to encourage girls to 
stay in school, and I have certainly used my public speaking 
events in Liberia to push that and I encourage people to stay 
in school.
    Senator Isakson. On that same topic, Ms. Myles, what is the 
general human rights situation in Cape Verde now?
    Ms. Myles. Thank you for that question, Senator. I am happy 
to be able to talk briefly about that question because it is 
also part of Cape Verde's success story.
    Cape Verde stands out as a model for promoting human rights 
in Africa and particularly in western Africa. And the 
Government of Cape Verde is committed to the promotion of human 
rights. The annual human rights reports consistently show that 
the Government of Cape Verde respects the human rights of its 
people and that it is indeed a model.
    That being said, Senator, there is always room for 
improvement in any situation. One of the areas that is not as 
positive as it could be is lengthy pretrial detentions, and 
there is some evidence of police abuses during detentions. And 
those are areas that, if confirmed, I would work hard to help 
improve.
    Senator Isakson. Thank you very much. I was reading a brief 
bio on you. Is this your first duty station as an Ambassador? I 
know you have had a myriad of responsibilities, including 
recruitment in the Department, but is this your first duty 
station as an ambassador?
    Ms. Myles. Yes, sir.
    Senator Isakson. Well, congratulations to you.
    Ms. Myles. Thank you.
    Senator Isakson. Mr. Nolan, I know CDC has had a tremendous 
presence in Botswana, and Botswana is one of the 15 targeted 
countries and one of the largest recipients of PEPFAR money. 
Are the results on reducing AIDS infection turning the corner? 
Are we making good progress in Botswana?
    Mr. Nolan. Senator Isakson, thank you for that question.
    I think that there is no greater challenge to the future of 
Botswana than HIV/AIDS. There is a good story to tell here. It 
is one of the countries that is making a difference in the 
fight against HIV/AIDS. One of the most serious infection rates 
in the world, but it has stabilized in large part because of 
the government's aggressive action. They have a very coherent, 
organized national plan.
    We are closely partnered with the Government of Botswana. 
Our support of their programs is critical to their success. We 
have contributed over $300 million in the last 5 years, but 
more heartening than that is that the Botswanans themselves 
contribute $150 million a year for HIV/AIDS programs. These 
programs are beginning to have an impact and the penetration of 
the message is near universal. People who need access to 
antiretroviral drugs have them free of charge. There has been a 
remarkable drop in mother-to-child transmission from a rate of 
about 40 percent down to 4 percent. I think that is a signal of 
where this is going to go. It is a long struggle ahead, but the 
Government of Botswana's own goal of an AIDS-free generation by 
2016 is not only a worthy goal but it is an achievable one.
    Senator Isakson. Thank you very much.
    Mr. Bodde, I appreciate your comments about the Peace 
Corps. My predecessor, one Senate session removed, was Paul 
Coverdell who was the director of the Peace Corps and did a lot 
of expansion of the Peace Corps in Africa.
    In terms of the Republic of Malawi, how many Peace Corps 
operatives do we have there?
    Mr. Bodde. Sir, I understand we have 120 volunteers right 
now. It is one of our larger programs. It is a long-established 
program with great success.
    Senator Isakson. Well, I appreciate your supporting them. I 
know President Kennedy started that program, and they have been 
the great ambassadors for our country for now almost a half a 
century.
    Ms. Davis, would you stand up? After all the bragging 
everybody has been doing about you, I thought we ought to 
recognize you. [Applause.]
    Thank you, Mr. Chairman.
    Senator Feingold. I want to thank all the nominees on both 
panels for their participation, their statements, and their 
answers to questions. And I especially want to thank Senator 
Isakson for his very extensive involvement here today.
    This concludes the hearing.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]
                              ----------                              


              ADDITIONAL MATERIAL SUBMITTED FOR THE RECORD


                   Prepared Statement of Chuck Hagel,
                       U.S. Senator From Nebraska

    Mr. Chairman, thank you for convening today's nomination hearing of 
the Senate Foreign Relations Committee. One of the nominees, Peter 
Bodde, is the President's choice to be the Ambassador of the United 
States to the Republic of Malawi. Peter has had a long, distinguished 
career in the Foreign Service, and I am proud to support his nomination 
to this position.
    As Ambassador of the Republic of Malawi, Peter will be America's 
diplomatic face to an important African partner. Today, the Republic of 
Malawi, much like the whole of Africa, faces a number of daunting 
challenges and exciting opportunities. Heavily dependent on strong 
agricultural exports, Malawi must confront dangerous vulnerabilities 
from the rising cost of fuel and the ongoing threat of drought. 
Population growth, the global food crisis, and continued instability 
and violence will continue to be a difficult burden for the entire 
region to bear.
    Despite these challenges, Malawi is in an encouraging position to 
prosper and grow. The country's transition to a multiparty democratic 
institution has been an impressive testament to its leaders and its 
people. The Republic of Malawi maintains strong diplomatic ties with 
western nations as well as all African countries and has played an 
important role in past humanitarian assistance for refugees from 
Mozambique, Rwanda, and Congo.
    As the President's representative, the United States Ambassador is 
responsible for the development of an increasingly strong United 
States-Malawi relationship. Since 2005, Malawi has worked with the U.S. 
Millennium Challenge Corporation to reduce corruption and increase 
transparent, responsible, and effective government. Its success in this 
area led Malawi to be named as an eligible MCC Compact country in 
December 2007. In addition, the United States maintains a U.S. Agency 
for International Development mission and a strong contingent of Peace 
Corps volunteers there. As ambassador, Mr. Bodde will need to work 
closely with international organizations such as the International 
Monetary Fund, the World Bank, the World Food Program, as well as 
international NGO's and other countries in the region to leverage the 
world's assets in support of economic progress and regional stability.
    Since joining the Foreign Service in 1981, Peter has served his 
country with the professionalism that defines the best of our country's 
proud diplomatic history. He brings an impressive record of public 
service in foreign posts throughout the world--most recently as Charge 
d'Affaires and deputy chief of mission at the United States Embassy in 
Pakistan. He has done much to help manage a complex and difficult 
United States-Pakistan relationship over the last several years. Mr. 
Bodde has also served in India, Nepal, Guyana, Germany, Bulgaria, and 
Denmark, as well as Washington, DC.
    Mr. Bodde has dedicated nearly three decades to the Foreign 
Service, and he is well qualified to take on this important new 
responsibility. I enthusiastically support his nomination.
    I want to acknowledge and thank Peter's family--his wife, Tanya, 
and his two children, Christopher and Sara--for their own service to 
our country. Each of us knows how fundamental the support of family is 
to such a demanding occupation such as this.
    The committee looks forward to hearing the testimony of Charges 
d'Affaires Bodde, as well as that of the other nominees here today. I 
believe that each of these nominees are qualified and deserve positive 
consideration by the committee. I wish all the nominees here today 
continued success and want to thank them all for their important 
service at this critical time in our country's history.
    Thank you.
                                 ______
                                 

  Responses of Marcia Stephens Bloom Bernicat to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Senegal and Guinea-Bissau? What are the steps you expect to 
take, if confirmed, to promote human rights and democracy in these 
countries? What do you hope to accomplish through these actions?

    Answer. Senegal's traditionally vibrant democracy has been 
characterized by some worrying developments in recent years. The 
executive has gained a disproportionate amount of power over parliament 
and the judicial branch, while the police appear to have clamped down 
on press and media actors. Four journalists were arrested in less than 
2 months in the fall of 2007, and most recently the government forced 
one private television station to stop broadcasting a live feed of 
protesters and security forces clashing after the government ordered 
the break up of a demonstration against the rising cost of living.
    The health of Senegal's democracy writ large is the most 
significant human rights issue facing the country and will remain my 
central priority, if confirmed as Ambassador. As chief of mission, I 
will ensure that the United States Government continues to pay close 
attention to freedom of expression, the powers of parliament and the 
judiciary, and the rights of civil society organizations and Senegalese 
individuals. I will maintain a frank dialog with government, business 
leaders, political party, and civil society counterparts in order to 
press the importance of human rights and democracy to Senegal's 
international standing.
    Guinea-Bissau's human rights situation is adversely affected by the 
country's struggles with poverty, political instability, and most 
recently drug trafficking. Prison conditions are poor, impunity and 
corruption are problems, and violence and discrimination against women 
continue--as does the practice of female genital mutilation (FGM). If 
confirmed, I will support the Government of Guinea-Bissau in its 
efforts to strengthen democratic institutions, the rule of law, and 
service delivery.
    Security sector reform will also be a top priority. The size and 
expenses associated with Guinea-Bissau's military pose a threat to the 
country's stability and resources. If confirmed, I will work with 
Guinea-Bissau, the U.N., and other donor nations on security sector 
reform. In addition, I will press the Government to improve the overall 
conditions in Guinea-Bissau.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Senegal and 
Guinea-Bissau, which have very different histories and records on these 
issues, in advancing human rights and democracy in general?

    Answer. In spite of their different histories and records on these 
issues, Senegal and Guinea-Bissau both, though to a different degree, 
lack in resources, training, and institutional capacity for addressing 
human rights concerns. These shortcomings constitute the primary 
obstacles to effectively addressing human rights concerns. The United 
States and other donor countries have programs in both countries to 
assist in overcoming these impediments.
    In Senegal, a number of nongovernmental organizations, both 
national and international, monitor human rights issues. Our embassy 
works with many of these groups, and, if confirmed, I will continue 
this cooperation. I will also work closely with contacts within the 
Ministry of Foreign Affairs and the government at large to underscore 
United States concern over the deterioration of press freedom and 
checks and balances within the different branches of the Senegalese 
Government.
    In Guinea-Bissau, achieving political stability and national 
reconciliation after years of conflict are prerequisites for improving 
the human rights situation. I will work closely with contacts across 
the Government of Guinea-Bissau to assist institutions in developing 
their ability to resolve internal conflict and in improving operational 
capacity. I also believe that education plays a key role in improving 
human rights conditions, and, if confirmed, will work on effective 
public diplomacy strategies for both Senegal and Guinea-Bissau to 
inform and generate debate about human rights conditions.

    Question. If confirmed in your new position, what steps will you 
take to ensure that promotion of human rights objectives will be an 
integral part of the U.S. Embassy's activities? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. Promoting democracy and human rights in Senegal and Guinea-
Bissau is a top priority for the country team in Dakar. Until recently, 
Senegal has been viewed as a model for democracy and human rights 
within the region. Its unique brand of moderate Islam and longstanding 
traditions of democracy have created a solid architecture for tolerance 
and freedom. The embassy works to support this model. Our assistance to 
Senegal--including USAID programs, the Ambassador's Self-Help Program, 
Democracy and Human Rights funds, Public Affairs programs, and DOD 
humanitarian assistance, all reinforce our human rights goals.
    While the human rights situation in Guinea-Bissau brings its unique 
set of capacity and resource challenges, Embassy Dakar is working with 
that country on improving conditions. If confirmed, I will ensure that 
human rights issues continue to be at the forefront of Embassy Dakar's 
programs and daily work. Also, I am a strong believer in the awards 
system, and, if confirmed, will recommend outstanding employees at 
Embassy Dakar for awards, including those who handle human rights 
issues concerning Senegal and Guinea-Bissau.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. I am proud to acknowledge that throughout the course of my 
career, and in my life, I have endeavored to encourage democratic 
principles and promote improved human rights. In addition to reporting 
on human rights conditions and supporting a multiplicity of programs in 
all of my postings, there are several efforts of which I am 
particularly proud:

  <bullet> In Mali, as manager of the Ambassador's Self Help Program, I 
        made a priority those projects that improved the health, 
        education, and the economic situation of women and children, 
        recognizing that they are too often the majority of victims of 
        abuse and denied even rights guaranteed to them by their own 
        governments.
  <bullet> In India, I supported the ambassador's initiative to provide 
        Indian officials responsible for human rights with copies of 
        the Christopher Commission Report as a framework for how to 
        provide accountability in the wake of human rights abuse cases. 
        The tactic completely disarmed these officials, who expected to 
        be lectured on their failure to protect human rights, opening 
        an unprecedented and candid dialog on this key issue.
  <bullet> I helped develop strong and productive relations between a 
        professional army--Malawi's strongest institution--and a fast 
        growing civil society in that country 6 years after it made the 
        transition from a 30-year dictatorship to a multiparty 
        democracy.
  <bullet> For the last year and a half as the office director in the 
        South Asia Bureau responsible for guiding our day to day 
        relations with India, Nepal, and Sri Lanka, I have worked 
        relentlessly, especially with Human Rights Watch and the 
        European Union, to get the Sri Lankan Government to improve its 
        human rights practices, particularly to stop abusing its 
        citizens and to release child soldiers. When the government 
        remained largely nonresponsive to United States and 
        international concerns, I worked in concert with Congress and 
        my Department of Defense counterparts to restrict all military 
        assistance to Sri Lanka except for limited funds to support the 
        maritime interdiction of arms and other supplies to the Tamil 
        Tigers. This has underlined the United States message to the 
        Sri Lankans that, as a democracy, they have a responsibility to 
        maintain the highest human rights standards, including in 
        battle.

    Question. Narcotrafficking is becoming an issue of increasing 
concern in West Africa. If confirmed as ambassador, how would you seek 
to address it? How do you see this issue intersecting with or affecting 
efforts to further develop democracy and reduce corruption?

    Answer. Narcotics Trafficking is a growing issue that threatens to 
derail West African countries' efforts to develop democratic 
institutions and establish the rule-of-law. If left unchecked, the 
infusion of trafficking rings into West African societies will 
undermine countries' security and exacerbate corruption at all levels.
  <bullet> Guinea-Bissau's geography is especially conducive to illicit 
        trafficking, though media reports and intelligence indicate 
        that traffickers have also gained a foothold in Guinea, Ghana, 
        and other countries throughout the region. Colombian cartels 
        are using Guinea-Bissau's ungoverned coastline and numerous 
        small airfields as transshipment points for smuggling cocaine 
        into Europe. Press and other sources have consistently 
        highlighted military and other high-level government 
        involvement in the drug trade.

    If confirmed, I will first increase United States official presence 
in Guinea-Bissau by encouraging frequent travel, especially by United 
States Embassy staff and by those members of the interagency whose 
primary goal is to fight transnational crime. We will closely monitor 
and assess this issue and, together with the United States interagency 
and our European counterparts, develop an aggressive plan to deny 
traffickers access to the region modeled on the programs we executed 
when I served in Barbados and the Eastern Caribbean. I will also place 
narcotics trafficking high on the agenda as I engage with Guinea-
Bissau, Senegal, and regional organizations and partners. If confirmed, 
I will also ensure that the embassy's public diplomacy efforts support 
this plan, promote awareness of the trafficking problem, and encourage 
support in the fight against it.
                                 ______
                                 

      Responses of Linda Thomas-Greenfield to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Liberia? What are the steps you expect to take, if confirmed, 
to promote human rights and democracy in Liberia? What do you hope to 
accomplish through these actions?

    Answer. The most pressing human rights issues in Liberia are 
lengthy pretrial detentions, a weak judiciary, official corruption and 
impunity, gender-based violence, racial and ethnic discrimination, and 
incidents of child labor. There are also some reports of discrimination 
based on religious belief or practice. In confronting these problems, I 
would, if confirmed, help Liberia overcome the legacy of 14 years of 
civil war, rebuild its civil society organizations and government 
institutions, and achieve social and political reconciliation.
    If confirmed as Ambassador to Liberia, I would make the promotion 
of human rights a central part of my work, particularly vis-a-vis the 
reform of Liberia's justice system. Today, Liberian police are 
relatively ineffective, vigilantism and mob justice are common, 
pretrial detention can stretch into years, and a culture of impunity 
pervades Liberian society. If confirmed, I would seek to strengthen 
existing U.S. programs that are establishing legal aid clinics; 
combating gender-based violence with victim abuse centers; training 
alternative dispute mediators; conducting public legal education; 
renovating courtroom facilities; conducting prosecutor and public 
defender training; and implementing criminal case management and case 
tracking systems. The key task is to help Liberia build the capacity of 
its police, prosecutors, defense attorneys, judges, court 
administrators, and others in the judicial system so that public 
confidence improves, the rights of detainees and prisoners are 
respected, and impunity is replaced by the rule of law.
    As Liberia's leading partner in the reconstruction effort, the 
United States is also well-positioned to confront official corruption. 
As I said to the Senate Foreign Relations Committee, if confirmed as 
ambassador I would not hesitate to publicly attack corruption, human 
rights abuses, and the ``old ways of doing business'' in Liberia that 
contributed so much to its breakdown and civil conflict.
    If confirmed, I would also seek to build bridges between Liberia's 
racial, ethnic, and religious groups to promote reconciliation and 
prevent discrimination. Through public diplomacy campaigns and by 
supporting Liberian efforts such as the Truth and Reconciliation 
Commission, I would lend my support to Liberia's reconciliation 
process. I would also continue our embassy's tradition of hosting 
interfaith events, supporting faith-based civil society organizations, 
and meeting regularly with prominent members of various religious 
communities.
    Labor conditions in Liberia demand close attention, particularly 
with respect to child labor. Ongoing U.S. Government programs have made 
strong headway in preventing child labor and returning children to 
school; if confirmed, I would support these programs. I would also 
support the Liberian Government's efforts to dramatically expand public 
education for all children. Liberia's recovery will likely span 
generations rather than years, and we must invest in Liberia's future 
by investing in education.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Liberia in 
advancing human rights and democracy in general?

    Answer. The most daunting obstacle to addressing human rights 
issues in Liberia is the sheer magnitude of Liberia's destruction 
during the civil war. Liberia's institutions were literally destroyed 
in the fighting and during years of mismanagement, misrule, and 
corruption under former President Charles Taylor. Even now, nearly 5 
years after the signing of the Accra Comprehensive Peace Agreement, 
Liberia's economy, Government, civil society, and social institutions 
are struggling to rebuild.
    At the same time, Liberia enjoys an opportunity to break with the 
past and build institutions that will uphold human rights and promote 
democratic values. For example, in 2005, the United States took the 
lead in completely demobilizing the 14,000-strong Armed Forces of 
Liberia, replacing it with a new, well-trained 2,000 member force that 
has been vetted and trained in human rights to protect Liberia's people 
rather than prey on them. The United Nations has taken the lead in 
reforming Liberia's police force, and the United States is now engaged 
in building a police emergency response unit that will receive 
extensive human rights vetting and training. In addition, U.S. programs 
will emphasize the importance of oversight of the police force to 
ensure accountability. In the same way, Liberia's efforts to rebuild 
its government ministries, in partnership with the United States and 
other donors, represents a break with the past and a focus on best 
practices.
    If confirmed as ambassador, I would help Liberia seize this 
opportunity to build a new Liberia that will be an example of hope for 
other conflict-affected societies.

    Question. If confirmed in your new position, what steps will you 
take to ensure that promotion of human rights objectives will be an 
integral part of the U.S. Embassy's activities? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. I firmly believe in the value of leading by example, and if 
confirmed, I would demonstrate through my own actions the value of 
promoting human rights. I would not only expect embassy officers in 
every section to promote human rights in their day-to-day work, but I 
would also show them how to do it through my own actions. I would make 
it clear that outstanding Foreign Service officers whose 
responsibilities include human rights and democracy will be recommended 
for promotions and performance awards.
    Liberia, with more historical ties to America than any other 
African country, is fertile ground for human rights promotion through 
direct personal engagement. As security and road conditions improve, I 
would encourage embassy officers to travel throughout Liberia and make 
connections with Liberians on the social, political, economic, and 
human rights issues that confront their communities. I would encourage 
officers to engage in public speaking with youth groups, religious 
leaders, NGO representatives, and civil society to promote tolerance 
and respect for human rights. I would also seek to do the same myself.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. I have devoted the vast majority of my career as a Foreign 
Service officer to working on refugee and humanitarian issues and the 
promotion of human rights and democracy. From 1993-1996, I served as 
the refugee coordinator in Nairobi, Kenya, covering the Great Lakes and 
the Horn. I had the misfortune of being in Kigali for 5 days during the 
genocide. This experience has had a major impact on how I approach my 
work since the genocide was the result of the failure of efforts to 
promote human rights and democracy. Immediately following that period, 
I devoted the weeks following the genocide to assisting Rwandans 
fleeing the genocide, including the embassy's locally engaged staff to 
escape and benefit from resettlement to the United States or elsewhere.
    As the refugee counselor in Pakistan, I worked to assist Iranian 
Christians and Bahais resettle in the United States and assisted Afghan 
women and other victims of the vicious Taliban rule in Afghanistan from 
1993-1999.
    As the Deputy Assistant Secretary in the State Department's Africa 
Bureau, I was part of the effort in 2006 to bring Charles Taylor to 
justice for crimes against humanity and human rights violations. This 
sent an important message to the Liberian people who were victims of 
his actions that he would be held accountable.
    I strongly believe that the most important impact of efforts I made 
during my career saved lives and gave hope to people who had no hope. 
If confirmed, I hope to bring that experience to bear in my efforts to 
promote human rights and democracy in Liberia.

    Question. What are the foremost challenges facing Liberia as it 
seeks to move beyond a post-conflict state to a more stable democracy?

    Answer. The key challenges facing Liberia today are lack of 
infrastructure, high levels of unemployment, lack of judicial capacity, 
and pervasive corruption. The United States development and diplomatic 
strategy in Liberia is designed to confront these problems.
    Recent studies show that some 40 percent of post-conflict countries 
revert to civil war within 10 years. A key factor reducing the risk of 
conflict is rapid, broad-based economic growth, which in turn depends 
on (1) adequate security, (2) governance and rule of law (including 
anticorruption measures and contract enforcement), (3) investments in 
infrastructure and key economic sectors, and (4) investments in people 
to improve the quality of the work force.
    U.S. programs are making major investments in all these areas. We 
are improving Liberian security forces so they can take over as U.N. 
peacekeepers draw down and eventually depart. We are engaging the 
justice sector to provide effective police and justice services and to 
adjudicate commercial and land disputes. We are working with the 
Governance and Economic Management Assistance Program (GEMAP) to help 
the Liberian Government fight corruption and maximize its resources for 
economic development. We are investing heavily in infrastructure, 
focusing on roads and electricity, and we are improving key sectors 
such as agriculture, forestry, and mining. Finally, we are improving 
education and health care services so that Liberians are healthy, 
educated, and ready to work.

    Question. In 2005, I posed the following question to the then-
nominee for ambassador to Liberia: There is a history of deep-rooted 
corruption in Liberia, and there are serious allegations of corruption 
among members of the transitional government. How does the 
international community, including the United States, plan to address 
the problem of corruption? What plans do the United States and other 
countries have to ensure that corrupt government officials are held 
accountable for their actions? Liberia has made progress in many ways 
in the last 3 years. How would you assess its progress in fighting 
corruption? What areas need to be prioritized in the coming years?

    Answer. The fight against corruption has taken major steps forward 
under the donor-funded Governance and Economic Management Assistance 
Program (GEMAP). GEMAP was initiated partly because of the allegations 
of corruption under the National Transitional Government of Liberia, 
and to address the need for outside expertise in the financial 
management of Liberian Government structures. Progress under GEMAP has 
been strong and should, along with progress in fighting corruption 
through the judicial system, result in significant improvements in 
anticorruption efforts. In addition, GEMAP has helped the Liberian 
Government raise and retain more revenues, which in turn helps improve 
corruption-fighting capacity.
    GEMAP has brought the Liberian Government and key donors together 
to place financial controllers and other experts in key positions in 
Liberian ministries and state-owned enterprises. These experts have 
cosignature authority, which gives them effective oversight of 
financial transactions. In addition, and perhaps more importantly, 
these experts have a mandate to pass on their knowledge and expertise 
to their Liberian counterparts so that anticorruption efforts will 
outlast the GEMAP program.
    Another area of improvement is the Liberian Government's efforts to 
indict and prosecute former officials for corruption under the 
transitional government. Several prosecutions are moving forward, and 
the United States and other donors are helping the Liberian judicial 
system build its capacity to handle these and other cases.
    Through GEMAP and prosecutions, the Liberian Government has shown 
its willingness to roll back the culture of impunity that dominated 
Liberia for decades. President Ellen Johnson Sirleaf has, on several 
occasions, made a public stand against corruption. The Liberian 
legislature is currently investigating claims of corruption in its 
ranks, and the outcome of that investigation will be an important 
indicator of anticorruption efforts.
    In the coming years, the reform process will include several key 
priority areas. GEMAP will continue for at least another year (it will 
expire upon Liberia's reaching the ``completion point'' under the 
Heavily Indebted Poor Countries debt relief program), while justice 
sector efforts will continue well beyond then. Civil service reform 
efforts, already underway with United States and other donor support, 
will be an important way to attract honest and capable Liberians into 
government service. Economic reforms will help broaden the base of 
economic opportunity for Liberians, and will provide a path to wealth 
and influence outside the realm of government rent-seeking.
                                 ______
                                 

       Responses of Hon. Donald E. Booth to Questions Submitted 
                    by Senator Joseph R, Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Zambia? What are the steps you expect to take, if confirmed, 
to promote human rights and democracy in Zambia? What do you hope to 
accomplish through these actions?

    Answer. Trafficking in persons and gender-based violence remain 
serious problems in Zambia. Excessive use of force and unlawful 
killings by security personnel, overcrowded prisons, lengthy pretrial 
detentions, child labor, and government corruption are other areas in 
which Zambia could improve.
    If confirmed, I will work with the Zambian Government and civil 
society to help address these human rights issues and support 
democratic institutions in Zambia. I would utilize our Women's Justice 
and Empowerment Initiative (WJEI) to counter gender-based violence 
(GBV) by helping the government strengthen its GBV laws, improve their 
enforcement, and provide care and support to victims of GBV. To counter 
trafficking in persons, I would, if confirmed, work to strengthen laws 
against trafficking and to see that they are better enforced. 
Additionally, I would continue our efforts to improve the Zambian 
police by sending police officers to the International Law Enforcement 
Academy in Gaborone, Botswana for training. I would also speak out on 
these and other human rights concerns in speeches and interviews so 
that there would be no doubt about United States interest in, and 
support for, human rights in Zambia.
    Government corruption perpetuates impunity for human rights 
offenders and undermines confidence in democratic institutions. If 
confirmed, I would utilize resources from the Millennium Challenge 
Corporation (MCC) to tackle the corruption that most affects the 
average Zambian and attempt to restore confidence in democratic 
governance. I would also utilize Treasury Department advisers to help 
the Zambian Government establish tighter fiscal systems so it can 
better control and account for government revenues, as well as work 
with other international partners in supporting the government's 
efforts to hold past and present officials of government accountable 
for corrupt practices. This will build on the success of the 
government's efforts, to date, to convince office holders that they 
will be held accountable for acts of corruption.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Zambia in advancing 
human rights and democracy in general?

    Answer. A relatively weak judiciary presents obstacles to combating 
gender-based violence, trafficking in persons, police abuse and 
systemic corruption. Persons who perpetrate these abuses must be 
successfully prosecuted and punished in order to convince others not to 
engage in those behaviors. These human rights issues are exacerbated by 
widespread poverty, unemployment, lack of quality education, and the 
widespread incidence of HIV/AIDS and malaria, as those issues have 
priority claim on the Zambian Government's attention.

    Question. If confirmed in your new position, what steps will you 
take to ensure that promotion of human rights objectives will be an 
integral part of the U.S. Embassy's activities? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. If confirmed, I will make it the responsibility of all 
United States and locally hired staff of Embassy Lusaka to respect and 
promote respect for human rights. Whether it is the consular officer 
who hears of human rights abuses, the economic officer who reports on 
mining and other economic activity, or the public affairs officer who 
identifies human rights activists to participate in exchange programs, 
all members of Embassy Lusaka would have a role to play in promoting 
respect for human rights.
    If confirmed, I will provide leadership on human rights issues by 
highlighting them in my speeches and interviews and by ensuring 
officers are encouraged to incorporate human rights activities into 
their work. I would recommend that those officers of Embassy Lusaka 
whose responsibilities specifically include human rights be recognized 
and rewarded for outstanding contributions toward advancing our human 
rights objectives in Zambia.

    Question. In response to a question before your confirmation as 
Ambassador to Liberia, you described how you have worked to advance 
human rights quite personally and eloquently. How has your post in 
Liberia, which is seeking to solidify itself as a democracy after years 
of terrible conflict and mismanagement, influenced your perspective on 
this issue?

    Answer. My experience in Liberia has reinforced my belief that 
American diplomats can play decisive roles in promoting democracy and 
improving respect for human rights.
    Following the 2005 presidential elections in Liberia, I played a 
leading role in convincing the loser of the runoff election to accept 
the results. The losing candidate had secured a plurality in the first 
round election, in which 22 candidates ran for the presidency, and he 
assumed he would win the runoff election held a month later. When he 
lost, he claimed ballots had been added by the opposition. However, he 
lacked evidence of widespread fraud and his allegations to that effect 
were not credible given the widespread monitoring of polling stations 
by multiple international observer groups as well as of representatives 
of both parties. Thousands of his youthful supporters took to the 
streets to support his claim of victory. I went to see him and spent 2 
hours, one on one, explaining why his claims of vote rigging and of his 
victory were not credible and how his persistence in those claims could 
send the country back into renewed civil conflict. He decided he would 
present his case to the courts and ask his supporters to cease 
demonstrations. After several more conversations, he agreed to withdraw 
his legal challenge so the inauguration of Ellen Johnson Sirleaf as 
President could proceed without lingering legal questions about the 
election results that could have facilitated a return to violence in 
Liberia.
    As Ambassador to Liberia, I supported the utilization of United 
States assistance to renovate some of Liberia's decrepit prison 
facilities so that women and minors could be separated from adult male 
prisoners. I also instituted a justice sector support program that 
trained Liberia's first public defenders. The new public defenders 
secured the release of numerous indigent prisoners who had been held in 
prison for months pending trial for minor or first offenses.
    If confirmed as Ambassador to Zambia, I will continue to use the 
influence inherent in that position to strengthen democracy and respect 
for human rights. I would ensure that U.S. assistance is used to 
address issues such as gender-based violence, trafficking in persons, 
and corruption.

    Question. Women and girls are economically, biologically, and 
socially more vulnerable to HIV/AIDS, and young women in southern 
Africa are far more likely than their male counterparts to be HIV 
positive. Violence against women is also all too common in much of the 
region. If confirmed as ambassador, how would you seek to address these 
issues?

    Answer. Women suffer disproportionately from HIV/AIDS, partly 
because of their lower social and economic status. If confirmed, I 
would work to elevate the status of women in Zambian society by 
promoting girls' education through scholarships and other interventions 
that encourage parents to keep their daughters in school. I would speak 
out frequently against gender-based violence and enforce a zero-
tolerance policy on sexual harassment within the embassy. I would 
ensure PEPFAR activities in Zambia seek to reduce the risky sexual 
behavior that results in large numbers of women becoming HIV-infected. 
Most importantly, I would ensure effective implementation of the 
Women's Justice and Empowerment Initiative (WJEI). The goals of WJEI 
are to strengthen laws against gender-based violence and expand 
enforcement of such laws. Gender-based violence will not decline until 
those who perpetrate it are consistently punished. Another goal of WJEI 
is to provide effective support to victims of gender-based violence. To 
achieve this, I would look at emulating programs that have proven 
successful in other countries of southern Africa.
                                 ______
                                 

 Responses of Hon. Gillian Arlette Milovanovic to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Mali? What are the steps you expect to take, if confirmed, to 
promote human rights and democracy in Mali? What do you hope to 
accomplish through these actions?

    Answer. Mali generally respects the human rights of its citizens, 
although there are problems. Prison conditions remain poor, the 
judicial system's large case backlog results in long periods of 
pretrial detention, and discrimination against women persists, with 
social and cultural factors continuing to limit economic and 
educational opportunities for most women. Trafficking in persons 
continues to be a problem, although increased government attention has 
contributed to more successful efforts to arrest traffickers and 
protect trafficking victims. Slavery is illegal in Mali but hereditary 
servitude relationships between and within certain ethnicities continue 
to impact groups such as the Bellah, or black Tamacheks, in rural 
areas.
    If confirmed, I will support the continuation of our Shared 
Governance Program. This program supports Mali's decentralization and 
local governance efforts by providing training to local (commune) 
officials, including mayors, communal councils, civil society 
organizations, media outlets and local Non-Governmental Organizations 
(NGO) in budget planning, financial management, establishing communal 
development plans and transparency in managing local resources. 
Community radio stations play a critical role in the program by 
broadcasting local debates on development priorities, budget 
preparation, tax collection and other local government issues. The 
program also assists women to participate to a greater extent in local 
government, and provides technical assistance to help women's 
organizations undertake revenue-generating projects. Finally, the 
program helps Malians advocate for greater independence in the 
management of local tax revenues and decision making. With this 
program, I hope to help the Malian Government and society strengthen 
their understanding of democracy and their democratic institutions.
    If confirmed, I will also make a priority the improvement of the 
social and health issues that prevent women from full participation in 
the economic life of the country. Specifically, I hope to maintain 
programs that encourage girls and young women to attend (and stay in) 
school, including a scholarship program supported by my predecessor 
through the President's Africa Education Initiative, that offers 
educational support to 7,570 girls in 117 schools, principally in 
northern Mali. As for trafficking in persons, if confirmed, I will 
encourage the Malian Government to consolidate and fully implement the 
bilateral agreements it has signed with neighboring states to prevent 
the trafficking of women and children, and I will further encourage it 
to establish a law that outlaws all forms of trafficking. I will work 
with the Malian Government and local NGOs to improve their capacity to 
protect and reintegrate victims of trafficking and, to the extent 
possible, training of officials from the Malian judicial branch, to 
improve prosecution and enforcement efforts.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Mali in advancing 
human rights and democracy in general?

    Answer. The Malian Government is committed to improving its already 
respectable human rights record. There are, however, several obstacles 
that prevent Mali from addressing specific human rights concerns. 
Ingrained societal attitudes toward the treatment of women and minority 
groups, for instance, have made it difficult for Malian political 
leaders to pass legislation that would provide improved rights for 
women and children, eliminate the practice of female genital mutilation 
(FGM), or increase protections for marginalized groups. While there is 
evidence that many of these societal attitudes are shifting, changing 
deeply rooted viewpoints poses a long-term challenge. I heartily 
support the educational efforts I outlined in response to your first 
question, as well as our public outreach because I believe that 
education and good communication are fundamental tools in changing 
societal attitudes.
    Mali's level of development poses another serious challenge to the 
advancement of human rights and democracy. In 2007, Mali ranked 173 out 
of 177 countries on the U.N.'s Human Development Index. This ranking 
was due, in large part, to Mali's poor health and education indicators 
which are among the lowest in the world. Individuals and NGOs working 
to improve Mali's human rights' practices often cite education levels, 
even amongst officials within the Malian judiciary and security forces, 
as one of the main obstacles to progress. Mali is the beneficiary of 
several Presidential Initiatives in both health and education, and I 
will help ensure that programs such as the President's Malaria 
Initiative and the African Education Initiative are effectively 
implemented.
    Severe resource constraints constitute a third major obstacle. 
While the Malian Government is clearly committed to improving human 
rights, Mali remains one of the poorest countries in the world. As a 
result, many good-faith and sincere attempts by Malian officials to 
improve human rights and democratic practices lack basic funding. To 
address Mali's resource constraints, I will work with the Malian 
Government and NGOs to encourage economic growth, particularly in the 
areas of agriculture and commodities. This is in line with the Malian 
Government's recent initiative to invest in its agriculture with the 
goal of becoming a net exporter of grains. Our goals for Mali are 
increased incomes and poverty reduction. Our strategy is transforming 
agriculture and value-added commodities, expanding and strengthening 
markets, and facilitating access to finance. Our program works to 
develop and reinforce the private sector by targeting opportunities in 
the production, processing, and trade of selected commodities in key 
geographic areas. We are encouraging Malian Government policy changes, 
for example, in regional and international trade that can in turn 
improve the country's incomes. Our program includes the introduction, 
dissemination, and replication of improved technologies such as seed 
varieties, fish stock, and management practices in all aspects of 
agriculture--fisheries/aquaculture, millet/sorghum, and livestock. If 
confirmed, I will make sure that the mission carefully implements these 
economic programs which expand economic prospects beyond subsistence 
level productivity. Economic growth will help supply Mali with the 
resources it needs for stability and further democratization.
    Finally, Mali is a huge country, with a long and porous border, 
much of it across the trackless expanse of the Sahara Desert. Tuareg 
unrest in the north is detrimental to progress because it requires the 
government's attention and resources that could be used instead on 
human rights efforts. The unrest destabilizes a region that is readily 
used for arms and drug trafficking. If confirmed, I will coordinate my 
efforts with those of the other United States Ambassadors to 
neighboring Trans-Saharan Counterterrorism Partnership countries to 
help stabilize Mali and the region.

    Question. If confirmed in your new position, what steps will you 
take to ensure that promotion of human rights objectives will be an 
integral part of the U.S. Embassy's activities? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. It has been my practice throughout my professional career 
with the Department of State to place a priority on the promotion of 
human rights in my country of assignment, and, if confirmed, I will 
ensure that human rights and democratization remain priorities for 
Embassy Bamako. I believe that all members of the mission--political 
and economic officers, consular officers, our public affairs staff, our 
USAID mission, and Millennium Challenge Account staff--have a 
responsibility to promote greater respect for human rights in Mali and 
the consolidation of the country's democratic institutions. If I am 
confirmed, I will make clear to all who work these critically important 
issues at Embassy Bamako that they enjoy the full support of the chief 
of mission, and I will recognize their achievements through the 
evaluation process, the mission awards program, and through active 
involvement in their search for an onward assignment.

    Question. In response to a question before your confirmation as 
Ambassador to Macedonia, you described how you have worked to advance 
human rights in previous posts, particularly in South Africa. How has 
your posting to Macedonia, your first as chief of mission, influenced 
your perspective on this issue?

    Answer. My posting to Macedonia has served to further strengthen my 
belief in the importance of human rights, particularly with regard to 
guarantees and respect for minority rights, and the need to support the 
development of multiethnic societies. These cornerstones of democracy 
are critical in South Africa, in Macedonia, and in Mali. In Macedonia, 
a prime goal has been to work with the Government of Macedonia, 
municipalities, political parties, and other societal actors to ensure 
continued implementation of the provisions of the 2001 Ohrid Framework 
Agreement. State Department, USAID, Department of Justice, Department 
of Defense, Treasury and other United States Government agencies each 
contributed to helping Macedonia reinforce its multiethnic democracy. 
We have worked to achieve more equitable representation of nonmajority 
populations in the public service, and the defense establishment. We 
have successfully assisted Macedonia's efforts to decentralize power 
and responsibility to the municipal level in order to bring government 
closer to the people, thereby providing more efficient services while 
allowing greater opportunity for citizens of all ethnicities to have an 
impact on municipal life and policies.
    Also in Macedonia, I worked to promote human rights of the Roma. 
Along with the Government of Macedonia, the United States Government 
assisted a number of Roma to file for and receive citizenship, has 
provided scholarships that allow talented secondary and university 
students, many of them young women, to attend school and obtain 
degrees. With strong United States support, the Macedonian parliament 
passed legislation 2 years ago on the equitable preparation of 
electoral lists that resulted in a significant increase in the number 
of female members of parliament, making Macedonia a leader in this 
regard. A Trafficking in Persons (TIP) Tier Two country in danger of 
falling to Tier Two Watch List when I arrived, Macedonia is on the 
brink of Tier One status today. Indeed, women's rights, as well as the 
fight against trafficking in persons, domestic violence, and child 
abuse have been central to my work throughout my career. My time in 
Macedonia did not change my perspective on human rights issues, because 
I have always felt their importance. But it provided an opportunity to 
focus on human rights issues and to participate, firsthand, in their 
development in a new and emerging democracy.
                                 ______
                                 

     Responses of Patricia McMahon Hawkins to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Togo? What are the steps you expect to take, if confirmed, to 
promote human rights and democracy in the country? What do you hope to 
accomplish through these actions?

    Answer. Among the most pressing human rights issues in Togo is the 
uneven respect for basic human rights, including freedom of press, 
association, and speech. Unfortunately, Togo has experienced a long 
history of human rights abuses. Such abuses included abridgement of 
citizens' rights to change their government; severe restrictions on 
freedom of speech, movement, assembly, association, collective 
bargaining, and the press; unlawful beating and killing of civilians; 
unlawful imprisonment of journalists, political opponents, and critics 
of the government; torture; arbitrary arrest and detention; unfair and 
delayed trials; and harsh prison conditions.
    President Faure Gnassingbe's declarations of his intention to 
institute political, electoral, and economic reform offer some hope 
that he will lead Togo on the path to democracy. The peaceful, free, 
and fair parliamentary elections in November 2007 sent a positive 
signal about President Gnassingbe's commitment but continued vigilance 
is required. If confirmed, I will press the Government of Togo to 
implement further political, economic, and electoral reforms.
    Trafficking in persons, in particular of children, is another 
important human rights concern. Although the laws of Togo provide for 
free primary education, in practice there are financial and cultural 
constraints that prevent this from becoming a universal reality. The 
Code of the Child, passed in July 2007, contains harsh penalties for 
trafficking in children and strengthened the child trafficking 
provisions of Togo's 2005 Child Trafficking Law. The code should help 
address this problem, although the government must strengthen efforts 
to enforce, and raise public awareness about, this legislation. If 
confirmed, I would urge Government of Togo officials to actively 
prosecute human traffickers and to cooperate with neighboring 
governments to control its borders to prevent the trafficking of 
children through its territory.
    Many of Togo's human rights challenges stem from a general 
disregard for the rule of law, and a lack of trust in the judiciary, 
security forces, and military. Bringing about lasting change will be 
difficult and will require the willingness and commitment of all 
parties--NGOs, civil society in dialog with the Government of Togo and 
the political opposition--as well as resources and time. If confirmed, 
I will make continued use of public diplomacy resources to encourage 
dialog, including digital video conferences, International Visitors 
Leadership, Humphrey Fellowships, Fulbright Scholar programs, and the 
use of experts and speakers from the United States to convene seminars 
in the areas of rule of law, access to media and freedom of the press, 
and strengthening the role of the judiciary.
    If confirmed, I also intend to make effective use of Democracy and 
Human Rights fund monies in support of activities that address the main 
problems noted above. By taking these steps, I would hope to improve 
the political climate and thereby help influence Togo's evolution 
toward democracy.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Togo in advancing 
human rights and democracy in general?

    Answer. If confirmed, the biggest obstacles I will face are those 
created by the interests and attitudes of persons still in positions of 
power and influence who have long benefited from practices that 
disregard human rights and democratic norms. Thirty-eight years of rule 
by one person inculcated behaviors and practices intended to reinforce 
the position of one small group of people. It will take time to 
overcome that legacy.
    Specific obstacles include a culture of distrust of the government; 
an unsophisticated and inexperienced opposition that has unrealistic 
expectations; and the country's below par human rights performance. 
These obstacles can only be overcome by broadening the ethnic makeup of 
the military, allowing a more vibrant free press, and engaging with the 
opposition while being careful not to threaten long-time ruling party 
loyalists with a zero-sum outcome. Ethnic unevenness, particularly in 
the armed forces, and long-held biases are also problems. The 
judiciary, the security forces, and the military are badly in need of 
reform.
    The challenges will include convincing political actors to keep 
their focus on a better future and not on past wrongs; convincing the 
opposition and the government, each deeply distrustful of the other, to 
engage in a genuine dialog; convincing the military that its real role 
is defending the country from external threat rather than maintaining 
the status quo related to one group's political control. The task of 
combating human trafficking, especially in children, will be 
complicated by the economic cost of providing real educational 
opportunities for all the children at risk, and by the force of the 
tradition or habit of putting children to work at an early age.

    Question. If confirmed in your new position, what steps will you 
take to ensure that promotion of human rights objectives will be an 
integral part of the U.S. Embassy's activities? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. The promotion of democratic systems and practices is a 
primary goal of the United States and therefore of Embassy Lome. If 
confirmed as chief of mission, I will continue my predecessor's efforts 
on this goal and provide highly visible leadership on this issue. The 
mission will actively look for opportunities to use our Democracy and 
Human Rights funds and our Ambassador's Self-help Funds for projects 
that advance the cause of human rights in Togo. All sections of the 
embassy, consular, political, economic, public diplomacy, and 
management have roles to play in this important endeavor. I will use 
the embassy awards program to recognize the valuable contributions in 
the field of human rights for all members of the embassy team.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. In all my Foreign Service posts the promotion of democracy 
and human rights has been one of my primary objectives. As a public 
diplomacy officer, I have been able to use all of the program tools--
the International Visitors Leadership Program, the Fulbright Scholar 
and Humphrey Fellows programs, U.S. Speakers, libraries (now called 
Information Resource Centers), Educational and Cultural exchanges of 
all sorts--to advance these essential U.S. values.
    In 1984, in Zaire, now the Democratic Republic of Congo, I guided 
the National Bar Association in its efforts to print copies of the 
Electoral Code in Lingala, the most commonly used language, thus making 
previously inaccessible information available to an enormous number of 
voters. The financial grant covered the translation, printing, and 
distribution costs.
    In Burkina Faso, as the public affairs officer, I was able to use 
the programming resources available to support several women's groups 
as they worked to improve access to health care and political rights 
and in their fight against domestic violence.
    In Colombia, I worked with a local Civitas group to promote civic 
education in primary and secondary schools, organizing workshops and 
training programs that brought United States speakers to schools in 
Colombia. I also funded the translation into Spanish and the 
publication of educational materials provided by the Center for Civic 
Education in Los Angles. These materials were the first of their kind 
to be used in Colombian schools and are still in use in many Latin 
American countries. In fact, when I arrived in the Dominican Republic, 
5 years later, I found the same materials in use in the local civic 
education programs. I subsequently facilitated an intra-post purchase 
of hundreds of copies of the books and shipped them to my counterpart 
in Havana for distribution there. I received an award from the 
Government of Colombia in recognition of my efforts to further civic 
education and voter participation in that country.
    In Cote D'Ivoire I continued my focus on human rights, again 
working with women's groups in their fight against domestic violence, 
trafficking in children, and uneven access to legal recourse. I helped 
to equip and fund the first-ever Legal Aid clinic, staffed by female 
lawyers and legislators, who worked to help women regain custody of 
their children or an equitable settlement in a divorce. I instituted a 
program to bring books on democracy, human rights, rule of law, an 
independent judiciary, and free markets, in French, to all 17 regional 
information centers throughout the country--many of which had no 
material of this kind available. I followed up with speaker programs on 
the same subjects at as many of the centers as possible, using local 
talent from the mission if we could not find an American expert willing 
to travel to such far-flung and sometimes dangerous locations. 
Following the first coup d'etat, during a time of great political and 
social unrest, I concentrated on programs concerning the media, and the 
training and protection of journalists.
    In the Dominican Republic, greatly concerned with the increasing 
number of dangerous and illicit voyages across the Mona Passage to 
Puerto Rico, I created the first-ever public service campaign to expose 
the dangers and to focus public and governmental attention on the 
problem. Long an issue of concern to United States authorities and the 
United States Coast Guard and a bone of contention with the Dominican 
Government, these trips were blatant examples of trafficking in persons 
and exploitation of both men and women into indentured servitude and 
prostitution. Furthermore, the boats that transported people were 
increasingly used to smuggle narcotics. I worked with the narcotics 
affairs section of the embassy to produce a campaign that covered all 
fronts--TV and radio spots, large billboards, press articles, 
interviews with survivors of shipwrecks, pictures of heroic Coast 
Guardsmen rescuing Dominicans at sea--the full story of what was 
actually happening to get across the message that this was a Dominican 
human rights issue, not a United States immigration control problem. 
The campaign was an enormous success. Not only did the number of 
illegal trips diminish, but we succeeded in sensitizing the Dominican 
public and Government to the harm it was doing to the fabric of their 
society. The Dominican Navy started cooperating with our Coast Guard in 
interdiction and prevention, the GODR prosecuted, for the first time, 
the organizers of such trips for trafficking in people, and the 
Dominican media continued the campaign without our funding--as a public 
service. The campaign itself won several international awards for 
creativity and impact, and the President of the Dominican Republic 
publicly thanked the United States mission for its help to the 
Dominican nation.
                                 ______
                                 

      Responses of Marianne Matuzic Myles to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Cape Verde? What are the steps you expect to take, if 
confirmed, to promote human rights and democracy in Cape Verde? What do 
you hope to accomplish through these actions?

    Answer. The Government of Cape Verde is committed to the promotion 
of human rights and, as a whole, has a remarkably good human rights 
record. However, there are occasional reports of police abuse of 
detainees, prison conditions are poor, the judicial system is 
overburdened, and lengthy pretrial detentions and excessive trial 
delays are common. Domestic and other violence and discrimination 
against women are serious problems, as are mistreatment of children and 
child labor practices.
    If confirmed, I would stress accelerated progress on human rights 
as a major point in our dialog with Cape Verde. I would urge Cape 
Verdean officials to use their country's continued eligibility for 
trade benefits under the African Growth and Opportunity Act as a 
vehicle to further improve Cape Verde's human rights record. I would 
also encourage nongovernmental organizations to work to increase Cape 
Verdeans' capacity in safeguarding human rights. Furthermore, I would 
use the reports on human rights and trafficking in persons to sensitize 
officials to human rights abuses in Cape Verde, and to stimulate 
improvement in the respect for those rights.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Cape Verde in 
advancing human rights and democracy in general?

    Answer. The latest annual Country Report on Human Rights Practices 
notes that the government generally respects the human rights of its 
citizens. There are appropriate constitutional and legal prohibitions 
against domestic violence, sex discrimination, and child labor. The 
government, civil society, and the media actively encourage reporting 
of abuses in these areas. However, longstanding social values and 
cultural traditions inhibit victims from doing so. Also, while there 
are mechanisms to deal with spousal abuse, for instance, these 
mechanisms neither ensure punishment of those responsible nor prevent 
future violence. Effecting change is, therefore, a considerable 
challenge.

    Question. If confirmed in your new position, what steps will you 
take to ensure that promotion of human rights objectives will be an 
integral part of the U.S. Embassy's activities? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. It is the responsibility of all United States and locally 
employed officers and staff at Embassy Praia to promote human rights. 
This pertains to the consular officer who hears of human rights abuses 
while conducting visa interviews and prison visits, to the public 
affairs officer who identifies human rights activists who should 
participate in our international programs, to the economic officer who 
learns of child labor violations.
    As chief of mission, if confirmed, I will provide leadership on 
this issue and will recommend commendations for the outstanding 
contributions of staff members at my mission who are responsible for 
advancing our human rights objectives in Cape Verde.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. During my 30-plus year Foreign Service career, I have 
worked to protect human rights and advance democracy in many places and 
in multiple ways. In Bogota, Colombia, I made regular visits to 
Americans in prison, ensuring that they understood their rights, 
received adequate nourishment and medical attention, and were not 
physically abused. While there, I made it a point to meet other 
prisoners and learn about their treatment. I believe those expressions 
of interest alone served as a deterrent to potential abuse. In southern 
Brazil, I ensured the consular officers under my supervision 
established a regular schedule of such visits, and I met frequently 
with a wide range of law enforcement, media, and judicial and 
legislative branch officials to encourage improvement in Brazil's human 
rights record. I also oversaw our International Visitor Program 
selection process in which we carefully chose participants for rule of 
law, civil society, and democracy and journalism programs.
    In Italy, I worked closely with law enforcement and military 
officials to address human rights and rule of law issues associated 
with the activities of the Camorra and Mafia. In Uruguay, I established 
strong relationships with the military to uncover, to the maximum 
extent possible, information about human rights abuses during the past 
period of military dictatorship--especially in the area of disappeared 
persons. Those cooperative efforts helped strengthen democracy and 
human rights in Uruguay by bringing under scrutiny the tragedy of past 
abuses and creating the opportunity for victims' families to have the 
benefit of closure on the past.
    These activities and others were important for a number of reasons, 
not least among them the goal of ensuring that foreign publics knew 
that the United States stood squarely on the side of freedom, 
democracy, and respect for human rights. Similarly, foreign governments 
and officials knew that our close monitoring of these issues ensured 
that lapses or the abused would not go unnoticed and would affect our 
bilateral relations.
                                 ______
                                 

      Responses of Donald Gene Teitelbaum to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Ghana? What are the steps you expect to take, if confirmed, 
to promote human rights and democracy in Ghana? What do you hope to 
accomplish through these actions?

    Answer. The Government of Ghana generally respects human rights. 
Continuing problems in Ghana include vigilante justice, the use of 
excessive force by police, harsh prison conditions, police corruption, 
impunity, violence against women and children, human trafficking, and 
child labor. Recently, the Government of Ghana has made significant 
steps to improve protection of human rights, including passing 
legislation on domestic violence and criminalizing the practice of 
female genital mutilation (FGM).
    If I am confirmed, I will continue the broad programmatic outreach 
the embassy conducts under the Democracy and Human Rights Fund, and 
program funds from INL--Bureau of International Narcotics and Law 
Enforcement Affairs--to address existing human rights problems. As a 
result of past INL work with Ghana Police, human rights training has 
been incorporated in basic skills police training courses offered to 
new police recruits in Ghana's police academy. My public diplomacy 
section will also bring human rights issues to the forefront with 
speakers, NGO functions, journalist training sessions, and other 
activities. We will thus inform the public, work to address abuses, and 
engage closely with the local NGO community and the government.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Ghana in advancing 
human rights and democracy in general?

    Answer. The main obstacle that I foresee in addressing the human 
rights challenges in Ghana is lack of resources. The Ghanaian 
Government has the political will to effect change, and it has 
expertise in many areas. However, its capacity to engage on a broad 
front of human right issues is limited by budget shortfalls and staff 
capacity. Ministry officials with responsibility for assisting 
trafficking victims lack proper reception facilities, and have only 
limited funds for reintegration programs. The Justice Ministry lacks 
sufficient trained prosecutors for trafficking cases. Prison 
authorities have long acknowledged the harsh conditions in their 
prisons, conditions the result of dilapidated prison infrastructure and 
limited financial resources. The police have limited training 
facilities and training budgets to instruct officers in proper 
procedures. While Ghana's democracy is vibrant and respect for the rule 
of law is widespread, Ghana's institutions are still rather new and 
relatively fragile. Other obstacles to addressing human rights are 
corruption and some traditional practices which, in a modern context, 
would constitute abuse. If confirmed, I would work to engage Ghanaian 
society at all levels, throughout the country. I would remind Ghanaians 
of their challenges, but I would also remind them of our shared values 
of human rights and democracy, and consistently offer America's 
partnership and assistance.

    Question. If confirmed in your new position, what steps will you 
take to ensure that promotion of human rights objectives will be an 
integral part of the U.S. Embassy's activities? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. If confirmed as Ambassador to the Republic of Ghana, I 
would seek to ensure that the activities of the United States Embassy 
consistently reflect the objectives of United States foreign policy and 
the core values of America. Support for human rights has been a 
cornerstone of our policy and values from the assertion of the 
unalienable rights to life, liberty, and the pursuit of happiness in 
our Declaration of Independence to Franklin Delano Roosevelt's 
enunciation of the ``Four Freedoms'' in 1941 to our current National 
Security Strategy which states that ``People everywhere want to be able 
to speak freely; choose who will govern them; worship as they please; 
educate their children--male and female; own property; and enjoy the 
benefits of their labor. These values of freedom are right and true for 
every person, in every society--and the duty of protecting these values 
against their enemies is the common calling of freedom-loving people 
across the globe and across the ages.''
    If confirmed, I would seek to ensure that my own actions and 
statements make clear the importance of human rights promotion inside 
and outside the embassy. When embassy employees see the ambassador 
raising human rights issues frequently and assertively, they know that 
it is a mission priority. Actions usually speak louder than words. If 
confirmed, I would want to be sure that the embassy's internal policies 
and actions set a positive example. In particular, I would want the 
embassy's treatment of its American and Ghanaian employees to reflect 
the value that Americans attach to diversity, equal opportunity, and 
the respect and dignity due to all people.
    If confirmed, I would encourage and recognize superior performance 
in human rights activities. Department-wide and embassy awards programs 
provide a tool for that purpose. I believe that being open about the 
Department's recognition, via promotion and assignments, of my own 
efforts on human rights will help encourage members of my staff to work 
for similar recognition.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. During my 23 years in the Foreign Service, many of my most 
professionally significant and personally rewarding moments have been 
linked to the promotion of human rights and democracy.
    In Somalia, from 1992 to 1994, I worked with the United States 
Liaison Office and was attached on several occasions to the United 
States Marine Corps and the United States Army as a political advisor. 
In that capacity, I helped create a secure environment for the 
distribution of food and humanitarian supplies. I also worked to 
encourage Somali efforts toward reestablishment of government. The 
distribution of food and humanitarian supplies directly saved thousands 
of lives from starvation. Sadly, the cost of the failure of Somali 
leaders to take advantage of the opportunities provided by 
international intervention from 1992 to 1994 is starkly evident even 
today.
    Working on Sudan issues from Nairobi from 1997 to 2000 and at the 
National Security Council from 2003 to 2005, much of my focus was on 
human rights and democratization. I believe that my work on North-South 
issues contributed to reaching the North-South Comprehensive Peace 
Agreement. I worked with USAID and Southern Sudanese officials to 
reopen the Rumbek Senior Secondary School, at the time the only 
secondary school in South Sudan. I do not know what the future will 
hold for South Sudan. In the long term, however, creating educational 
opportunities for Southern Sudanese children will allow them to 
participate in their own governance, whatever shape it may take.
    Since 2000, much of my time has been dedicated to the issue of HIV/
AIDS. In Uganda from 2000 to 2003, I worked with USAID and CDC on HIV/
AIDS programming which provided models of success that have been 
emulated globally. During that period, the United States Embassy in 
Kampala became what I understand to be the first in the world to 
establish a formal policy of providing ARV treatment for locally 
employed staff. Beyond the direct benefit for our staff, we used this 
program as a model for local employers. We showed them our cost-benefit 
analysis, demonstrating to them that providing ARVs was a sound 
financial decision as well as a morally correct decision. At the 
National Security Council I worked on the early phases of the 
President's Emergency Plan for AIDS Relief (PEPFAR). With bipartisan 
support from Congress, this program is well on its way to achieving its 
goals of supporting treatment for 2 million HIV-infected people, 
prevention of 7 million new HIV infections, and care for 10 million 
people infected and affected by HIV/AIDS, including orphans and 
vulnerable children. In South Africa I have worked on the 
implementation of the world's largest PEPFAR program. We are currently 
on track to meet our target of achieving 25 percent of global goals.

    Question. Ghana has a relatively strong record on human rights. Do 
you think it can serve as a model for other countries in the region 
that have struggled on this front?

    Answer. Ghana does have a strong record on human rights and I 
believe that it does serve as a model for other countries in the 
region. However, we must always remain vigilant to ensure that this and 
any future Ghanaian administration continues to respect and protect 
human rights of its citizens. If confirmed, I would advocate continued 
respect for human rights in Ghana and urge the Ghanaian Government to 
encourage and to assist countries in the region which face human rights 
challenges to emulate their many successes.
                                 ______
                                 

          Responses of Peter W. Bodde to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Malawi? What are the steps you expect to take, if confirmed, 
to promote human rights and democracy in the country? What do you hope 
to accomplish through these actions?

    Answer. While the Government of Malawi generally respects human 
rights, serious violations still occur in some areas. As indicated in 
the 2007 Country Report on Human Rights, unlawful killing by security 
forces, police use of excessive force including torture, occasional mob 
violence, and harsh and life-threatening prison conditions are problems 
in Malawi. Arbitrary arrest and detention, including politically 
motivated arrests have occurred in the past and threaten to undermine 
the legitimacy of the political system. Government restrictions on 
freedoms of speech, press, and assembly, and societal violence against 
women, child abuse, trafficking in persons, restricted worker rights, 
and forced child labor were also problems.
    Over the past 8 months, an ongoing dispute between the ruling party 
and the opposition has become an increasing concern, as well. This 
dispute centers around the right of members of parliament to switch 
political parties during their terms. As a result of this dispute, 
there have been long periods during which Parliament has not met and 
Parliament has not been able to conduct any routine business. This 
matter has been put to the courts and there are ongoing negotiations 
between the ruling party and the opposition to resolve this dispute, 
which remains a significant obstacle to the smooth functioning of the 
democratic system in Malawi. If I am confirmed, and this matter remains 
unresolved, I will strongly encourage all parties to resolve the 
dispute as quickly as possible.
    Furthermore, I will also work with the Government of Malawi and 
civil society to help address the broad range of human rights issues 
and support democracy in Malawi:

  <bullet> Through diplomatic outreach, ensure embassy officers, as 
        well as myself, continue to raise human rights issues with 
        appropriate Malawian Government officials and nongovernmental 
        organizations.
  <bullet> Through public diplomacy programs, promote discussion among 
        American and Malawian academics, civil society representatives, 
        and opinion leaders on issues such as corruption, good 
        governance, and women's rights.
  <bullet> With Human Rights and Democracy Fund grants, partner with 
        nongovernmental organizations and civil society to raise 
        awareness and support human rights and democracy activities.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Malawi in 
advancing human rights and democracy in general?

    Answer. The inability of the Parliament to address any routine 
business is one of the biggest obstacles to addressing human rights in 
Malawi at this time. In light of the ongoing dispute between the ruling 
party and the opposition and upcoming presidential and parliamentary 
elections in 2009, it is critical that the international community make 
every effort to support Malawi's democratic institutions and processes. 
If confirmed, I will continue Ambassador Eastham's efforts to encourage 
a resolution of the dispute over the right of members of parliament to 
switch political parties during their terms. I will also continue 
Embassy Lilongwe's efforts, through diplomatic and public interventions 
and financial assistance, to support preparations for the upcoming 
elections and key players in the electoral process including the media, 
nongovernmental organizations and international and domestic observers 
who will help ensure the legitimacy of the electoral result.

    Question. If confirmed in your new position, what steps will you 
take to ensure that promotion of human rights objectives will be an 
integral part of the U.S. Embassy's activities? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. The promotion of democracy and human rights has been, and 
will continue to be, a priority of the United States Embassy in Malawi, 
if I am confirmed as ambassador. I attach great importance to human 
rights issues, and if confirmed, I will ensure that all mission staff, 
no matter their agency affiliation, continue to collaborate with 
Malawian leaders and civil society organizations to promote democracy 
and human rights to the greatest extent possible. I will also ensure 
that employees working on human rights issues under my direction are 
professionally acknowledged, nominated for awards, and otherwise 
appropriately rewarded for superior performance.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. I believe it is the personal responsibility of all U.S. 
diplomats to work to promote human rights, on both a systemic and 
individual level. While it can be difficult to know the direct impact 
of our efforts, even simple inquiries when made on behalf of the U.S. 
Government, can lead to improved treatment of detained individuals, 
stronger democratic processes, and increased independence for the 
media. I have made promoting democracy and respect for human rights 
cornerstones of my career and will continue to advance these objectives 
in Malawi if I am confirmed.
    Supporting free and fair elections is an important element of the 
democratic process. I have extensive experience as an elections 
observer from my time in Bulgaria in 1988 to my work on elections in 
Nepal in 1994-1995. Recently, I led the embassy's efforts during the 
2008 elections in Pakistan. Our presence and active engagement in all 
these elections helped ensure a more dynamic process and greatly 
increased the likelihood of transparent and credible results.
    I also have worked to promote the rights of refugees. While serving 
in Nepal, I became aware that the then newly-elected Nepalese 
Government, in an effort to enhance its relationship with China, had 
changed its longstanding policy of allowing Tibetan refugees to transit 
Nepal while en route to eventual settlement in India. Thanks in part to 
my interventions, the government reversed its policy and returned to 
its longstanding practice of allowing Tibetans to transit Nepal. While 
in Nepal, I also worked with refugees and victims of torture from 
Bhutan, helping ensure they received appropriate medical care and 
protection.
    As Deputy Chief of Mission in Pakistan, I have worked on the full 
range of human rights issues. For example, during a declared state of 
emergency, I personally advocated on behalf of political detainees so 
that they could have access to critical medicines and meet with family 
members and others during their confinement. I also advocated for their 
timely release. In addition, I have been a consistent and vocal 
advocate for press freedom, intervening on behalf of individual 
journalists and interceding with the Government of Pakistan regarding 
the issue of press freedom more broadly.

    Question. Malawi has one of the higher HIV prevalence rates in the 
world but has not been a focus country for PEPFAR or leading recipient 
of United States assistance. If confirmed as ambassador, how would you 
see your role in efforts to combat HIV/AIDS?

    Answer. While not a ``focus country,'' Malawi has received 
significant United States Government support through PEPFAR and through 
the Global Fund to Fight AIDS, Tuberculosis, and Malaria. From fiscal 
year 2004 to 2008, PEPFAR will have provided more than $89 million to 
support comprehensive HIV/AIDS prevention, treatment, and care programs 
in Malawi. These funds are used to leverage Global Fund activities. 
Since 2002, the Global Fund committed a maximum of $407 million for 
HIV/AIDS programs in Malawi. The United States Government is the 
largest contributor to the Global Fund, having provided approximately 
30 percent of all resources to date, so that the United States share of 
Global Fund grants to Malawi is approximately $122 million.
    While the United States has made a significant contribution to 
combating HIV/AIDS in Malawi, much remains to be done, particularly 
with regard to slowing the spread of new HIV infections and improving 
the distribution of drugs for treatment across the country. If 
confirmed, I will dedicate myself to maximizing the impact of U.S. 
Government and other programs and work hard to fight this terrible 
disease.
                                 ______
                                 

        Responses of Stephen James Nolan to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Botswana? What are the steps you expect to take, if 
confirmed, to promote human rights and democracy in Botswana? What do 
you hope to accomplish through these actions?

    Answer. While the Government of Botswana generally respects human 
rights, there are still areas of concern, including lengthy delays in 
the judicial process; overcrowded prison conditions; some restrictions 
on press freedom; violence against women; societal discrimination 
against homosexuals, persons with HIV/AIDS, and the ethnic minority 
San; and government restrictions on the right to strike. Some 
international and local nongovernmental organizations have also raised 
concerns about how the death penalty is administered in Botswana. The 
government has publicly recognized and sought improvements in several 
of these areas.
    If confirmed, I will work with the Government of Botswana and civil 
society to help address major human rights issues and support democracy 
in Botswana. I will raise human rights issues with government officials 
and use all means of diplomatic outreach to ensure that these issues 
remain at the forefront of our diplomatic dialog. I will also use the 
media and public diplomacy programs to promote discussion among 
American and Botswana academics, civil society representatives, and 
opinion leaders on human rights issues including respect for 
marginalized communities, such as the San, if confirmed. Finally, I 
will encourage the mission to use Human Rights and Democracy Fund 
grants to support nongovernmental organizations and civil society in 
Botswana so as to raise awareness of and support for human rights and 
promote more active democratic debate.
    Through these efforts, I hope to accomplish two goals. The first is 
the continued solidification and advancement of Botswana's democratic 
systems and processes as they relate to human rights. The second will 
be the promotion and encouragement of Botswana as a regional and 
continental leader in this critical area.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Botswana in 
advancing human rights and democracy in general?

    Answer. As Botswana transitions to middle-income status, it becomes 
increasingly incumbent on domestic organizations to advocate for 
respect for human rights and robust democratic debate. Helping local 
organizations and the government understand how to engage on such 
issues without relying on high levels of donor support will be one of 
my key objectives, if I am confirmed. Following the precedent set by 
Ambassador Canavan and our current team in Gaborone, I will seek to use 
modest grants, public diplomacy, and diplomatic outreach to increase 
the capacity of local organizations so that they are less reliant on 
international support and able to advocate effectively through the 
media and the domestic political systems on issues which they deem 
important to Botswana's continued development as a democratic country 
that fully recognizes the rights of all its citizens.

    Question. If confirmed in your new position, what steps will you 
take to ensure that promotion of human rights objectives will be an 
integral part of the U.S. Embassy's activities? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. The promotion of democracy and human rights remains a high 
priority U.S. goal to which I attach great importance. If confirmed, I 
will ensure that all mission staff--State Department, U.S. Agency for 
International Development (USAID), Department of Defense (DOD), Centers 
for Disease Control and Prevention (CDC) and other U.S. agencies active 
at post--continue to collaborate with Botswana leaders and civil 
society organizations to promote democracy and human rights to the 
greatest extent possible. I will also ensure that employees working on 
human rights issues under my direction are professionally acknowledged, 
nominated for awards, and otherwise appropriately rewarded for superior 
performance.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. I have always strongly believed that human rights begin at 
home, and that our embassies should be seen as leaders and role models 
in terms of employment benefits and labor practices for locally engaged 
staff (LES). As Executive Director of the Bureau of African Affairs, I 
have made the fair and equitable treatment of LES at our 50 posts a top 
priority. Despite tight operational budgets, we have approved salary 
increases each year, improved health coverage, and enhanced retirement 
plans for LES employees. Another priority area has been to support 
training programs that empower our LES personnel, helping them reach 
their full potential and enhance their operational effectiveness. I 
have also helped ensure that the Bureau of African Affairs has strong 
programs in place at our posts to prevent all forms of discrimination.
    During my assignment as Consul General in Cape Town, South Africa, 
I oversaw an active and effective public affairs program focused on 
advancing the United States Government's public diplomacy goals across 
the spectrum of human rights issues. We sponsored events on awareness 
and prevention of violence against women, child abuse, HIV/AIDS stigma, 
and international crime, with an emphasis on trafficking in people. In 
the battle for public opinion, we used innovative as well as tried-and-
true means to explain United States policies to South African 
audiences. We sent members of the historically disadvantaged black 
community to the United States on International Visitor grants, 
arranged for speakers, and linked local audiences with top U.S. experts 
via digital video conferencing (DVC) and satellite TV programs, helping 
to shape opinion by exposing people to points of view they would not 
have heard otherwise. We also aligned our Self-Help Program funds to 
support these objectives, with particular focus on projects supporting 
economic empowerment of women and the historically disadvantaged black 
community.
    In terms of promoting democracy, our program to reach out to Cape 
Town's Muslim community was recognized as one of the most active and 
successful of its kind in Africa. The program included a multipart DVC 
series on ``Islam in America,'' featuring prominent American Muslims 
and exposing South African Muslim journalists and opinion leaders to 
facets of United States life that were little known to them. The 
participants came away impressed with the breadth of Muslim life in the 
United States, and one participant noted that immigrant American 
Muslims seemed to have found ``far greater'' freedom of religion than 
in their countries of origin. We also provided training for key support 
staff of the South African parliament, exposing them to the American 
system of government and our legislative process.

    Question. What accounts for Botswana's reputation as one of 
Africa's most democratic and stable countries? Are there any potential 
threats to this stability or to civil rights and liberties in the 
country? Can Botswana's democracy serve as a model for countries in the 
region that have struggled to create or maintain democratic traditions 
or is it a product of circumstances that are not likely to be 
replicated elsewhere?

    Answer. Botswana's tradition of consensus building, starting at the 
village level, has been an important element of the country's stability 
and success. Participatory pluralism permeates Botswana's politics, and 
the Botswana Democratic Party (BDP) has ably ruled since independence 
in 1966. It is notable, however, that many local observers say that the 
longer one party continues to govern the greater the risk of 
governmental ossification, so often seen in other countries with long-
term single party rule. As Botswana prepares for general elections in 
October 2009, continued support for the media and civil society will be 
vital to help ensure more Botswana feel like they have a genuine stake 
in their own polity and economic future, so as to enhance democratic 
systems and security, both domestically and regionally.
    The uncertain situation in Zimbabwe posses a challenge to stability 
throughout southern Africa, and particularly to neighboring states such 
as Botswana. The Government of Botswana, through the Southern African 
Development Community (SADC), has encouraged actively a resolution of 
the Zimbabwean crisis in a manner that fully reflects the will of the 
Zimbabwean people. If I am confirmed, I will consider it my 
responsibility, both as Ambassador to Botswana and as Secretary Rice's 
Representative to SADC, to advocate aggressively for a full resolution 
of this crisis. The Mugabe regime and its security forces must stop the 
violence and intimidation against the Movement for Democratic Change 
and its supporters and recognize that the people of Zimbabwe voted for 
change and their will must be respected.
    Finally, on the question of Botswana's role as a model for other 
countries in Africa, yes, I do believe Botswana can serve as a model 
and that other nations have lessons to learn from Botswana's impressive 
success. One of the most critical lessons one can draw from Botswana is 
the tremendous positive impact of having low levels of corruption. 
Botswana has been able to make maximum use of its diamond wealth in 
large part because corruption has not sabotaged its mining industry or 
warped its government. Thanks to the government's vigilant stand 
against corruption, Botswana has successfully provided critical health 
and education services to its populace and is in a strong position to 
attract foreign investment to help diversify and sustain the country's 
economic growth. Respect for human rights and dynamic political debate 
are also keys to Botswana's political stability and strength. While all 
democracies are a work in progress, Botswana has accomplished much and 
is rightly recognized as a model by many of its neighbors.
                                 ______
                                 

       Response of Stephen James Nolan to Question Submitted by 
                      Senator Russell D. Feingold

    Question. Some human rights groups remain concerned about periodic 
reports of secret executions taking place in Botswana. What is the 
United States doing to investigate these reports?

    Answer. The Government of Botswana generally respects human rights 
and the legal system allows for a full trial and appeals process. 
Defendants in capital cases who cannot afford legal representation are 
provided legal counsel by the state. Some international and local 
nongovernmental organizations, however, have raised concerns about how 
the death penalty is administered in Botswana.
    In a June 2007 report entitled ``The Death Penalty in Botswana: 
Hasty and Secretive Hangings,'' the International Federation for Human 
Rights and DITSHWANELO-The Botswana Center for Human Rights (BCHR) 
questioned several elements of capital punishment administration 
including the quality of public council provided to defendants in death 
penalty cases and the lack of notice to families, attorneys, and 
advocacy groups when some sentences were carried out. The United States 
noted the concerns of BCHR in the 2003 Country Report on Human Rights 
Practices saying, ``During the year, the Botswana Center for Human 
Rights (BCHR) protested the executions of four convicted murderers, 
whose families and attorneys had not received prior notice of the 
executions, and criticized the secrecy surrounding executions.''
    I take the concerns raised in the June 2007 BCHR report very 
seriously. Our embassy in Gaborone reports that while elements of the 
administration of capital punishment in Botswana could be improved, 
there is no clear evidence of a denial of due process or judicial 
review in the cases which have been brought to our attention. Should I 
be confirmed, I will continue United States efforts to work with the 
Government of Botswana, local and international nongovernmental 
organizations, and the media to promote respect for human rights and 
civil liberties in Botswana and throughout the region.
                                 ______
                                 

     Response of Marcia Stephens Bernicat to Question Submitted by 
                      Senator Russell D. Feingold

    Question. Senegal has been widely praised by Western and African 
civil society organizations alike for making strides toward good 
governance, rule of law, and adherence to the African Charter on Human 
and Peoples' Rights and other human rights instruments. This trend 
makes the recent spate of arrests of and violence against gay men in 
Senegal all the more surprising and worrisome. If confirmed as United 
States Ambassador to Senegal, would you address these sorts of issues 
as human rights concerns? Do you believe the United States should play 
a role--perhaps by using HIV and Democracy and Governance funding--in 
decreasing the stigma against Senegal's lesbian, gay, bisexual, and 
transgender community and promoting a broader understanding of human 
rights? How?

    Answer. The arrest of two gay men as a result of the publishing of 
photos of their marriage in a local magazine and the ensuing street 
demonstrations against homosexuals underscore widespread concerns about 
the state of human rights in Senegal. If confirmed, I would address 
these incidents as human rights issues in concert with local human 
rights NGOs such as Raddho (African Rally for Human Rights), the local 
chapter of Amnesty International, the National Human Rights 
Organization (ONDH), and the International Federation for Human Rights 
(FDIH).
    I believe our role should consist of the continued use of embassy-
sponsored programs and other educational tools to underline the 
universality of human rights, as defined in the U.N. Declaration of 
Human Rights and other key international covenants. In addition, there 
should be a U.S. role in decreasing this stigma through support for the 
activities of indigenous institutions and groups. All of the previously 
mentioned local NGOs played a role in the release of the two men who 
were arrested, and all of these groups have the potential to have an 
impact on Senegal's tolerance for lesbian, gay, bisexual, and 
transgender individuals.
    Senegal's traditionally tolerant society is changing as its 
traditional mores confront western ones and is at a crossroads in 
accepting homosexuality in its society. Islamic traditionalists see 
homosexuality as contrary to the precepts of their religion. However, 
Senegal is a moderate country with a constitution that guarantees 
individual freedom. There are extremists who would like to see 
homosexuality treated as a criminal offense subject to severe 
sentencing and are trying to encourage Islamic leaders to lead the 
charge. Senegal's influential Sufi brotherhoods have so far elected not 
to press for criminalization of homosexuality. The manner in which the 
United States approaches the subject, and in which we engage and 
cooperate with local religious institutions, will require sustained 
effort as well as sensitivity to evolving local culture.
                                 ______
                                 

      Response of Donald Gene Teitelbaum to Question Submitted by 
                      Senator Russell D. Feingold

    Question. The State Department's most recent human rights reports 
note that in Ghana, ``the law criminalizes homosexuality, and lesbians 
and gays faced widespread discrimination, as well as police harassment 
and extortion attempts.'' Such governmental abuse and discrimination 
have been described in reports by the U.S. Government and numerous 
United States and international human rights organizations for years, 
and yet the legal and societal issues remain unaddressed. Would you, if 
confirmed as United States Ambassador, be willing to meet with Ghanaian 
Government officials as well as some of the leaders of the LGBT human 
rights community in Ghana to discuss these serious findings?

    Answer. If confirmed as United States Ambassador, I would meet with 
Ghanaian Government officials as well as some of the leaders of the 
LGBT human rights community in Ghana to discuss the findings in reports 
by the United States Government and by numerous United States and 
international human rights organizations. I believe it is important for 
U.S. Embassies to seek and maintain a broad range of contacts. I also 
believe that the words and actions of U.S. Embassies must reflect the 
core values of America, particularly the rights to life, liberty, and 
the pursuit of happiness.
                                 ______
                                 

  Responses of Marcia Stephens Bloom Bernicat to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes, I have read 04 STATE 258893--Peace Corps-State 
Department Relations as well as 07 State 78240, dated June, 6, 2007--
Peace Corps-State Department Relations.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand and agree to abide by the principles set 
forth in 04 STATE 258893 and 07 STATE 78240--Peace Corps-State 
Department Relations.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. I fully understand and accept that ``the Peace Corps must 
remain substantially separate from the day-to-day conduct and concerns 
of our foreign policy'' and that ``the Peace Corps's role and its need 
for separation from the day-to-day activities of the mission are not 
comparable to those of other U.S. Government agencies.'' Peace Corps' 
presence in a host country must be initiated by the host government, 
and Peace Corps programs are contingent upon support for and 
articulated need of both the host government and local communities in 
which volunteers serve. A close working relationship between Peace 
Corps and the host government is essential to Peace Corps' ability to 
function, and this necessity renders its relationship with the mission 
fundamentally different from those of other U.S. Government agencies.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. Per Secretary Rice's requests in 3.B of the cable, I pledge 
to exercise my chief of mission ``authorities so as to provide the 
Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies.'' Autonomy and flexibility are essential to 
the Peace Corps' ability to work effectively at the grassroots level, 
and the U.S. mission under my leadership, if confirmed, will not 
interfere with the day-to-day operations of the Peace Corps.
                                 ______
                                 

          Responses of Peter W. Bodde to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. I have read 04 STATE 258893, as well as STATE 78240 dated 
June 6, 2007, which both concern relations between Peace Corps and the 
U.S. Department of State.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand and agree to abide by the principles set 
forth in 04 STATE 258893 and 07 STATE 78240.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. Yes, I fully understand that Peace Corps activities must 
remain substantially separate from the day-to-day conduct and concerns 
of our foreign policy. I very much value the important role Peace 
Corps' volunteers play in helping people around the world better 
understand and appreciate the United States.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. If confirmed, I pledge to exercise my chief of mission 
authorities to provide Peace Corps with as much autonomy and 
flexibility in its day-to-day operations as possible, so long as this 
does not conflict with U.S. objectives and policies.
                                 ______
                                 

    Responses of Gillian Arlette Milovanovic to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes, I have read 04 STATE 258893--Peace Corps-State 
Department Relations as well as 07 State 78240, dated June, 6, 2007--
Peace Corps-State Department Relations.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. I fully understand and agree to abide by the principles in 
this cable that guide the Department's dealings with the Peace Corps.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. I fully understand and accept that ``the Peace Corps must 
remain substantially separate from the day-to-day conduct and concerns 
of our foreign policy'' and that ``the Peace Corps's role and its need 
for separation from the day-to-day activities of the mission are not 
comparable to those of other U.S. Government agencies.''

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. Yes. I pledge to do so.
                                 ______
                                 

       Responses of Hon. Donald E. Booth to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. I have read 04 STATE 258893, as well as 07 STATE 78240 
dated June 6, 2007, which both concern relations between Peace Corps 
and the U.S. Department of State.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand and agree to abide by the principles set 
forth in 04 STATE 258893 and 07 STATE 78240.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. I understand and accept that the Peace Corps can only 
achieve the purposes for which it was founded if it remains 
substantially independent from the day-to-day conduct of our foreign 
policy.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. If confirmed, I pledge to exercise my chief of mission 
authorities to provide Peace Corps with as much autonomy and 
flexibility in its day-to-day operations as possible, so long as this 
does not conflict with U.S. objectives and policies.
                                 ______
                                 

      Responses of Donald Gene Teitelbaum to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. I have read 04 STATE 258893--Peace Corps-State Department 
Relations as well as 07 State 78240, dated June 6, 2007--Peace Corps-
State Department Relations.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. I understand and agree to abide by the principles set forth 
in this cable.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. I understand and accept that ``the Peace Corps must remain 
substantially separate from the day-to-day conduct and concerns of our 
foreign policy'' and that ``the Peace Corps's role and its need for 
separation from the day-to-day activities of the mission are not 
comparable to those of other U.S. Government agencies.''

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. If confirmed, I pledge, as Secretary Rice requests in 3.B 
of the cable, to exercise my chief of mission ``authorities so as to 
provide the Peace Corps with as much autonomy and flexibility in its 
day-to-day operations as possible, so long as this does not conflict 
with U.S. objectives and policies.''
                                 ______
                                 

      Responses of Marianne Matuzic Myles to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes, I have read that cable on Peace Corps-State relations 
as well as the later one, 07 STATE 78240, dated June 6, 2007.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand and agree to abide by the principles in 
this cable, which guide the Department's dealings with the Peace Corps.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. Yes. I understand and accept this.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise our chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. Yes, I pledge to do so.
                                 ______
                                 

     Responses of Patricia McMahon Hawkins to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. I have read 04 STATE 258893--Peace Corps-State Department 
Relations as well as 07 State 78240, dated June 6, 2007--Peace Corps-
State Department Relations.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. I understand and agree to abide by the principles set forth 
in this cable.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. I understand and accept that ``the Peace Corps must remain 
substantially separate from the day-to-day conduct and concerns of our 
foreign policy'' and that ``the Peace Corps's role and its need for 
separation from the day-to-day activities of the mission are not 
comparable to those of other U.S. Government agencies.''

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. If confirmed, I pledge, as Secretary Rice requests in 3.B 
of the cable, to exercise my chief of mission ``authorities so as to 
provide the Peace Corps with as much autonomy and flexibility in its 
day-to-day operations as possible, so long as this does not conflict 
with U.S. objectives and policies.''
                                 ______
                                 

        Responses of Stephen James Nolan to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. I have read 04 STATE 258893, as well as STATE 78240 dated 
June 6, 2007, which both concern relations between Peace Corps and the 
U.S. Department of State.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand and agree to abide by the principles set 
forth in 04 STATE 258893 and 07 STATE 78240.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. Yes, I fully understand that Peace Corps activities must 
remain substantially separate from the day-to-day conduct and concerns 
of our foreign policy. I also understand that the mission of Peace 
Corps is not comparable to those of other government agencies.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. If confirmed, I pledge to exercise my chief of mission 
authorities to provide Peace Corps with as much autonomy and 
flexibility in its day-to-day operations as possible, so long as this 
does not conflict with U.S. objectives and policies.


                              NOMINATIONS

                              ----------                              


                        WEDNESDAY, JUNE 18, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Ayalde, Liliana, to be Ambassador to the Republic of Paraguay
Boswell, Eric J., to be Assistant Secretary of State for 
        Diplomatic Security
DiCarlo, Rosemary Anne, to be Alternate U.S. Representative to 
        the Sessions of the General Assembly and the Alternate 
        U.S. Representative for Special Political Affairs in 
        the United Nations
Jones, John Melvin, to be Ambassador to the Cooperative 
        Republic of Guyana
                              ----------                              

    The committee met at 9:36 a.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Bill Nelson, presiding.
    Present: Senators Nelson and Corker.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning. This hearing on the Committee 
on Foreign Relations is going to consider the nomination of 
four individuals for key leadership positions in the 
administration.
    The chairman and Senator Corker are going to forego making 
opening statements.
    Senator Nelson. And the same with each of you. Instead of 
you sitting there and reading us a statement, your written 
statements will be entered in the record. What we will do is go 
straight on to the questions.
    [The prepared statements of Mr. Jones, Ms. DiCarlo, Mr. 
Boswell, and Ms. Ayalde are located at the end of this hearing 
transcript.]
    Senator Nelson. Senator Corker?
    Senator Corker. They might want to introduce their 
families.
    Senator Nelson. Yes, by all means.
    I understand you all have your families here. So if you 
will, Mr. Jones, if you would introduce your family.
    Mr. Jones. Thank you, Mr. Chairman. With me today is my 
wife Aaronia; our daughter Christie Jones-Aden; our son- in-
law, Keenan Aden; and a close family friend, Dr. Adam Muhijea 
who is at the American Defense College, a representative from 
Honduras.
    Senator Nelson. Welcome.
    Senator Corker. Mr. Chairman, I understand from the son-in-
law that he is a great father-in-law. So that alone ought to be 
a good endorsement.
    Senator Nelson. That is pretty good.
    Mr. Jones. Thank you, sir.
    Senator Nelson. A pretty good recommendation.
    Mrs. DiCarlo?
    Ms. DiCarlo. Thank you. My family is unable to attend 
today. My husband, Tom Graham, is in Moscow on business, and my 
87-year-old mother is unable to travel, but they are with me in 
spirit. Thank you.
    Senator Nelson. That is great.
    Mr. Boswell?
    Mr. Boswell. Thank you, Mr. Chairman. I am happy to 
introduce my wife, Nancy Boswell, who is behind me in the 
crowd. Thank you.
    Senator Nelson. Good. Welcome, Ms. Boswell.
    Ms. Ayalde?

 STATEMENT OF LILIANA AYALDE, NOMINEE TO BE AMBASSADOR TO THE 
                      REPUBLIC OF PARAGUAY

    Ms. Ayalde. Thank you, Mr. Chairman. I would like to 
acknowledge the presence of my parents, Jaime and Mercedes 
Ayalde; my sister Gloria; and my nieces, Karina, Alexa, and 
Bianca. My immediate family is back in Colombia finishing 
school actually. So they were not able to be here.
    Senator Nelson. I see. What does your family in Colombia 
think about you going to Paraguay?
    Ms. Ayalde. They are excited.
    Senator Nelson. Well, we are glad to have you all.
    Just since we have been talking, why do I not start with 
you, Mrs. Ayalde?
    The recent presidential election in Paraguay--it is always 
a constant struggle for some democratic reforms in that part of 
the world and the democratic political development. What do you 
think is going to be the most significant challenge that is 
facing the president-elect, Lugo?
    Ms. Ayalde. Well, first of all, it is a historic moment for 
Paraguay after 61 years of rule by the Colorado Party. This is 
a unique opportunity, I think, for Paraguayans, as well as for 
us in our bilateral relation.
    He has indicated that he has prioritized poverty reduction 
and eradication of corruption as his two primary objectives of 
his administration. Those are huge challenges. The fact that he 
has been elected based on a coalition from the opposition also 
will make it a challenge in terms of the management.
    Senator Nelson. You know, they joke down in Paraguay quite 
humorously with a spark in their eye that it is part of their 
genetic makeup--some of the corruption that goes on. So you are 
going to have a challenge. Of course, that is not just 
indicative of Paraguay, but many other places across the globe.
    What do you think about the new president facing that kind 
of endemic corruption that has gone on in that part of the 
world?
    Ms. Ayalde. Well, it is a challenge, but the fact that he 
has prioritized it as one of his administration's main 
objectives is important. There is some progress that has been 
made based on some of the initiatives that in fact we have 
supported. The Millennium Challenge Threshold Program, for 
instance, has focused precisely on corruption issues, and in 
their report card, there has been some definite progress. Now, 
the problem is huge, but the pattern is positive, and I think 
that that is what we need to look for is the continued progress 
along that front.
    Senator Nelson. What do you think is going to be the new 
president's relationship with Hugo Chavez?
    Ms. Ayalde. At this point, his public statements have been 
that he would like to maintain good working relations with all 
his neighbors. He has indicated that he--well, he has accepted 
invitations to the countries which have invited him. He has 
indicated to us, I understand, that he would like to come to 
the United States. He has sent a delegation of five designated 
ministers up to the United States for a visit. In fact, they 
are here right now, I understand. So at this point, it is a 
speculation. I would prefer not to get into that, but the 
statements that he has publicly made indicate that he would 
like to be friends with everyone.
    Senator Nelson. Give me some of your thoughts about the 
tri-border area and the potential for terrorist activity in the 
region.
    Ms. Ayalde. It is public knowledge that the tri-border area 
is a region that lacks law enforcement, a tremendous amount of 
informality, problems with trafficking of drugs and so forth. 
Nevertheless, I think that it is an area that the Paraguayan 
Government so far has tried to focus with some specific 
programs, some of which the U.S. Government has supported, and 
we need to focus on that area to try to address some of the 
issues of the informality and the high level of corruption, of 
course. So it is a priority, and if confirmed, I certainly will 
make that a priority of my management team.
    Senator Nelson. Have you ever been to Tres Esquinas?
    Ms. Ayalde. In Colombia?
    Senator Nelson. No, Tres Esquinas in the tri-border area in 
Paraguay.
    Ms. Ayalde. No, have not, sir.
    Senator Nelson. Well, it is quite a place. It will be quite 
interesting for you as you look into that, as well as 
counternarcotics.
    How would you describe our counternarcotics effort with 
Paraguay?
    Ms. Ayalde. As I understand it, we have had very solid, 
strong collaboration on both the counternarcotics and 
counterterrorism fronts. It is a good collaboration, and there 
is no reason to believe at this point that that will not 
continue under the new administration. But we have to see.
    Senator Nelson. Senator Corker?
    Senator Corker. Well, I want to welcome all of you and 
thank you for your public service. I know we are in some cases 
at the end of an administration and some important tasks are 
being taken on. But thank you all for your commitment and for 
what you are willing to do for our country.
    I guess I would like to ask our two ambassadorial nominees 
here that you, obviously, have been trying to gain an 
understanding of what you are going to be dealing with going to 
each of the countries that you are going to. I know that, Ms. 
Ayalde, I met you in Colombia recently, and I know you have 
learned a great deal there about counterterrorism. Uribe has 
been just outstanding in that regard.
    But I wonder if each of you could just outline, knowing 
what you know today, and I know once you get to where you are 
going, you will know even more. But what is it you think you 
want to address on the front end going to each of the two 
countries you are going in? What is sort of your primary 
objective, if you will, your primary agenda as you move into 
these two countries? Mr. Jones?

STATEMENT OF JOHN MELVIN JONES, NOMINEE TO BE AMBASSADOR TO THE 
                 COOPERATIVE REPUBLIC OF GUYANA

    Mr. Jones. Senator, my primary objective, of course, is to 
try to work with the Government of Guyana to protect American 
interest there, also promote democracy and human rights. We 
understand that there are some small problems, but if 
confirmed, I will work closely with the Government of Guyana to 
address these issues. We have some instances where problems 
have developed, particularly with the growth of things like 
HIV/AIDS, trafficking, for example, narco activities. These are 
things that I intend to work, again, closely with the 
Government of Guyana, to address. That I think will be my main 
aim.
    Strengthening the democratic infrastructure, working 
towards helping them get elections, local elections. The last 
election was in 1994. They had municipal elections in 2006 that 
were relatively safe. And so I am going to try to work with 
them, extend a hand of friendship and cooperation, and 
hopefully be able to help them strengthen those institutions 
that they need help on right now.
    Senator Corker. Have you spent much time looking at our 
PEPFAR efforts there, and do you have any thoughts at present 
as to how we might enhance our activities there? Or do you have 
any assessment of how that is going at present?
    Mr. Jones. Our reports are that the PEPFAR program is a 
very successful program, sir. It is a major effort on the part 
of our Government, and the Government of Guyana has cooperated 
fully with us. As you know, it is a program that has had over 
$100 million since 2004 addressing this whole issue of HIV/
AIDS. All of our agencies, the Peace Corps, USAID, Center for 
Disease Control, Department of Defense, are all working on 
small projects and efforts towards making this a successful 
program. Again, our reports are that the Government of Guyana 
has accepted this. It is a major effort on their part, and it 
is a major effort on our part and represents a large amount of 
the good will that we want to show the Guyanese people.
    Senator Corker. Thank you.
    Yes, ma'am?
    Ms. Ayalde. Yes, Mr. Senator. I, if confirmed, intend to 
focus on governance issues, as well as poverty reduction. I 
think those two areas will do a lot to addressing some of the 
problems in Paraguay as related to terrorism and narcotics 
trafficking. If you do not have a strong presence of the state, 
an ability of the state to deliver its services in a 
transparent way, then you can invite illegal business of all 
sorts.
    So our bilateral agenda should continue to focus on 
intellectual property rights protection, trafficking in 
persons, money laundering, and strengthening the different 
institutions of the state that will avoid becoming at high risk 
of increasing the corruption and the informality in the 
country, as well as addressing some of the roots of poverty 
which, if you look around the region and there is an increase 
of social discontent, that puts more pressure on the state and 
that can drive a country into social turmoil which will 
complicate things. So I think those two pillars of work would 
be what I would prioritize, if confirmed.
    Senator Corker. Both of you are going to challenging 
countries, and again, we are very fortunate to have people of 
your qualifications going there. And I thank you again for 
being willing to do so.
    Mr. Boswell, we all have been to Iraq a number of times and 
Afghanistan, and I know one of your duties is going to be to 
look at the security contractors we are dealing with. You know, 
you land in Baghdad and Blackwater basically is the escort 
service, if you will. It takes you throughout the country.
    I wonder if you have any editorial comments you want to 
make about some of the recent events there and just generally 
anything you think we ought to be doing differently as it 
relates to our security contractors in general, not necessarily 
that particular company itself.

STATEMENT OF ERIC J. BOSWELL, NOMINEE TO BE ASSISTANT SECRETARY 
                OF STATE FOR DIPLOMATIC SECURITY

    Mr. Boswell. Thank you for the question, Senator. I was in 
Baghdad myself examining this exact issue last fall as part of 
the Secretary's panel examining protective security operations 
in Iraq in the wake of the tragedy at Nisoor Square. So we 
looked at the issue you are talking about in depth, the 
appropriateness of using contractors, how the contractors were 
managed, what the oversight was of the contractors, and we made 
a number of recommendations for improvement and particularly in 
the area of oversight and training. I am happy to say that the 
Department has taken those recommendations seriously, that it 
is complying with all of them. Our recommendations are a matter 
of public record, and we would be happy to provide them to you, 
sir.
    Senator Corker. Basically we have operations in 25 U.S. 
cities that you also oversee, and I was wondering if you might 
expand a little bit on what those particular efforts are about 
and the magnitude of those.
    Mr. Boswell. Yes, sir. The Bureau of Diplomatic Security at 
the State Department has two primary missions. One is the 
protection of life, property, and information overseas. And the 
second is it is a very active participant in the global war on 
terrorism. And the activities of the field offices to which you 
refer are largely in the second category. They are offices that 
examine and review cases of passport fraud, visa fraud, all of 
which are very important elements in securing our borders and 
overall in identifying terrorists in the global war on terror. 
That is what they do.
    Of course, those offices are also a source of manpower to 
assist in overseas surge requirements occasionally, and in 
particular, every year they provide a large number of agents to 
New York during the UN General Assembly to assist in protection 
of dignitaries.
    Senator Corker. And what is the order of magnitude right 
now of visa fraud? If you were going to say to us how much of 
an issue that is today in our country, give us a little bit of 
an editorial opinion there, if you would.
    Mr. Boswell. I could not tell you exactly the numbers, 
Senator, but I can tell you that it is increasing and it is of 
increasing concern. That is why the Department dedicates as 
much effort as it does to that.
    Senator Corker. I know this is not in your area. I know you 
deal with the area of fraud itself as it relates to visas, but 
as we just look at general immigration issues in our country, 
the fact that at many of the motor crossings we check to see if 
someone has a visa, but we do not record that, and we have, I 
guess, a huge issue of not ever knowing when people overstay. 
We have no mechanism in place to be able to do that. And I know 
that is not in your particular area, but I wonder if you have 
any comments in regards to that.
    Mr. Boswell. It is not in my area, Senator, so I will be 
careful in what I say. But I know that that is a problem, 
particularly the issue of recording when somebody leaves, and I 
know that there are significant efforts undertaken by ICE in 
that regard. But I really do not have anything further to add 
to that.
    Senator Corker. In the defense authorization bill, it is my 
understanding--I am just going to read some language--that 
there is some language that says, ``Private security 
contractors are not authorized to reform inherently government 
functions in an area of combat operations.'' If this particular 
clause were to survive, if you will, in this legislation, what 
impact would that have on carrying out the private security 
operations that you would be charged with carrying out?
    Mr. Boswell. Senator, I am aware of that language, and I am 
rather troubled by it, I must tell you. The language, as I 
understand it, would prohibit contractors from performing an 
inherently governmental function such as use of deadly force in 
high-risk, high-threat, volatile areas. That may have the 
effect of preventing the use of contractors for protective 
security as we use them now in Iraq and Afghanistan. I hope 
that is not the intention. The effect would be rather severe on 
our--that is, the State Department's--operations, embassy 
operations in both countries and would have a rather severe 
effect on the goals and objectives--the ability of the United 
States to achieve its goals and objectives.
    So I hope that some language or way can be found to address 
the concerns of the Congress but, at the same time, not to 
inhibit the use of contractors in protecting our personnel in 
both war zones.
    Senator Corker. And my guess is that the addition of that 
language possibly was a signal of someone who feels that maybe 
we are over-utilizing, if you will, contractors in this area. I 
wonder if you can give any editorial comments about that, 
meaning that our reliance today on private contractors, 
obviously, in Iraq and in other areas, is very, very large at 
this moment. Are we in proper balance there? Have we had an 
over-reliance? Should some of these jobs be really done by 
Federal employees directly? Any comments there.
    Mr. Boswell. Yes, sir. The panel in which participated 
certainly looked at exactly that issue in Iraq last fall. I 
remember talking to Ambassador Crocker in his office and asking 
him what he thought, and I think I can speak a little bit out 
of school. He said, I would like to have 700 diplomatic 
security agents performing this function, but I recognize that 
that is a practical, close to impossibility. I feel the same 
way and that was the conclusion of our panel.
    There are something on the order of 1,500 security 
contractors operating in Iraq. There are about 1,500 diplomatic 
security employees in the world performing a global function. 
It is simply not possible to ramp up sufficiently to provide 
the kind of protection that we need for our people exclusively 
with diplomatic security personnel.
    Having said that, I am extremely concerned that there be 
proper oversight of the contractor personnel in Iraq and 
elsewhere, and the panel made a number of recommendations to 
improve the oversight. One of those recommendations was that 
diplomatic security special agents be given operational control 
of every motorcade movement and every mission in Iraq, and it 
is my understanding that the staff of the regional security 
office has been doubled in response to that recommendation and 
that every motorcade now has a trained Government employee, 
diplomatic security officer, in command of that motorcade.
    Senator Corker. Well, thank you for those responses, and I 
am sure that because of the sensitivity of that issue, there 
will be a lot of folks talking with you about that as it moves 
along. But thanks for your responses.
    And, Senator Nelson, since I am on a roll, I am just going 
to finish up here with Ms. DiCarlo, if I could.
    Senator Nelson. Sure. Take your time.
    Senator Corker. Ms. DiCarlo, Senator Nelson and I sit at 
numbers of hearings here talking about the issues of Darfur and 
Zimbabwe and the things that are occurring there. Obviously, 
you are going to have a key role. A lot of times our staffs, as 
you know, here direct us and guide us in major ways. I know 
that you are going to be very much involved in that as it 
relates to the Security Council when this nomination process is 
over.
    It is pretty frustrating to hear reports about the 
collective efforts that are taking place in Darfur. It gives 
you not a lot of faith sometimes in the UN's ability and the 
ability of collectively countries together to deal with that 
kind of issue. I just wonder if you have any thoughts going 
into this position as to how we might strengthen our efforts in 
Darfur, actually create concrete results there instead of this 
continual discussion of what ought to happen but is not 
happening.

STATEMENT OF ROSEMARY ANNE DiCARLO, NOMINEE TO BE THE ALTERNATE 
U.S. REPRESENTATIVE TO THE SESSIONS OF THE GENERAL ASSEMBLY OF 
 THE UNITED NATIONS AND THE ALTERNATE U.S. REPRESENTATIVE FOR 
SPECIAL POLITICAL AFFAIRS IN THE UNITED NATIONS, WITH THE RANK 
                         OF AMBASSADOR

    Ms. DiCarlo. Thank you, Senator.
    We are also very disappointed that we have not been able to 
mobilize the kind of troops and support needed for Darfur, but 
we are working very hard at it. And I can assure you that, if 
confirmed, this will be a top priority on my agenda.
    Ambassador Williamson, the U.S. Special Envoy for Sudan, 
was in New York yesterday. Ambassador Williamson, along with 
his Canadian counterpart, has organized a group called the 
Friends of UNAMID. The objective of this group is to obtain the 
kinds of commitments that we will need to have full deployment 
of that peacekeeping operation by early 2009.
    We have been hampered in a number of ways, and the UN 
certainly has been as well. First of all, the Government of 
Sudan has put a number of obstructions, refusing to accept 
troops from certain countries. They preferred a truly African 
force. They have also not granted visas on time, not granted 
access to land or water needed. That is one aspect.
    We also would like to see greater flexibility and 
creativity on the part of the United Nations. We are now 
working with a number of countries who have offered to 
participate. Their infantrymen would increase the force by 
another 5,000, but they do need training, they need equipment. 
We are still seeking the kinds of equipment support and are in 
fairly detailed discussions with a few countries on that. It is 
a very high priority and something that we will devote our 
attention to.
    Regarding the political process, we would hope that the 
Secretary-General would continue to use his good offices to 
talk to the parties, to the Government of Sudan. His Special 
Envoy for Darfur, Mr. Eliasson, and of course, Ambassador 
Williamson will continue his efforts.
    Senator Corker. In Zimbabwe where we have a situation more 
leaders, in essence, have been defeated, and now we are having 
another election for some odd reason. And he has basically 
vowed that there will not be a transition to someone who does 
not look at the government there the same way that he does, 
which obviously the opposition, who is the person running 
against him, does not.
    What should the United Nations--what is our role in a 
situation like that, and what should and could be done?
    Ms. DiCarlo. Thank you. We have been trying for several 
weeks now to get Zimbabwe on the Security Council agenda. 
Secretary Rice will be in New York tomorrow.
    Senator Corker. By the way, when you saying ``trying,'' 
explain to us what difficulties there are in getting something 
like that that is pretty important on an agenda.
    Ms. DiCarlo. First of all, to get an issue on the Security 
Council agenda, one needs to have the consensus of Security 
Council members. There are a few countries on the council who 
believe that Zimbabwe is an internal problem and not a threat 
to international peace and security. We, obviously, disagree. A 
number of us disagree. We have been working to get to bring 
this to a vote. We need nine votes to get it on the agenda. We 
think we are very close.
    Secretary Rice will be in New York tomorrow. We are the 
President of the Security Council this month. She will be co-
hosting a session with the foreign minister of Burkina Faso--he 
is also on the council--on Zimbabwe. Invitees will be member 
states, members of the Security Council. They will raise this 
issue, raise the visibility of this issue.
    The United Nations has sent an envoy to speak to President 
Mugabe to talk about elections, election support, the need for 
fair and free elections. The UN will be using a trust fund and 
the United States is contributing to it for election monitors. 
The monitors will come from the African Union and the Southern 
African Development Community. The Government of Zimbabwe has 
not allowed official monitors coming from Europe or the United 
States.
    But we agree this is an issue that needs to be resolved. 
First of all, fair and free elections but much more. We read 
this morning that President Mugabe is now allowing NGO's 
working in Zimbabwe to deliver aid, needed food and supplies, 
to citizens, but we have a serious problem and one that does 
need international attention.
    Senator Corker. My understanding is most of that aid is 
going to people who support him and not to those who do not. I 
wonder if you have any comments in that regard.
    Ms. DiCarlo. Well, we do know that there were some 
shipments that were confiscated and went to supporters, but 
still, there are NGO's working there who are getting assistance 
to the right people.
    Senator Corker. Senator Nelson, thanks for indulging me. I 
will turn it back over to your great leadership here as 
chairman.
    Senator Nelson. Well, thank you, Senator. I will just pick 
up where you left off.
    What do you think in your position at the UN you can do to 
try to get the peacekeepers into the Sudan?
    Ms. DiCarlo. I think, first of all, we will need to get the 
kind of force that is appropriate for Sudan, and that is what 
we are working on now. We will then need to have very serious 
discussions with the Government of Sudan and keeping the 
pressure on the need for those peacekeepers to be there. We 
have seen attacks on humanitarian convoys, situations that make 
it all the more difficult to deliver the kinds of needed 
assistance to the people. Without those peacekeepers on the 
ground, we are not going to be able to help those who are in 
camps, those who are displaced, and the population.
    Senator Nelson. Well, how do we, the United States, in the 
forum of the United Nations, to which you would be going, bring 
about the world pressure on the Sudanese Government to allow 
the peacekeepers to come and stay?
    Ms. DiCarlo. We have tried with sanctions. Our sanctions, 
as you know, United Nations sanctions, are modest, but our 
bilateral sanctions are very major. And we are always looking 
for ways to increase the pressure on Sudan bilaterally. We 
need, however, to look at more ways that we can work through 
the UN--we agree with you--but also with the Europeans in 
pressuring the government.
    We have seen some movement on the part of China in recent 
weeks. The Chinese have now named an envoy to Sudan. The 
Chinese are on the ground with a contingent of about 300 
engineers building the necessary infrastructure so that we can 
actually deploy the troops. We need to encourage China and 
others that have more influence on Sudan to do more.
    Senator Nelson. Speaking of China, what can we do to get 
the UN to put pressure on China to stop the arms sales to 
Sudan?
    Ms. DiCarlo. Well, we have raised this a number of times. 
We have certainly raised it bilaterally. We have raised it 
within the UN context. The difficulty, obviously, China as a 
veto-bearing member of the Security Council--we have great 
difficulty in having any kind of formal UN action.
    Senator Nelson. Well, do we need to press for an embargo? 
Do we need to put sanctions? Do we need to encourage the UN to 
put sanctions on China to stop the flow of arms? What would you 
suggest?
    Ms. DiCarlo. I would say that the most effective means we 
have is working with our colleagues in Europe and with like-
minded countries in putting the pressure on China. It is 
extremely for us to achieve something in the council, again 
where they are a permanent member.
    Senator Nelson. Do you think this is a particular time that 
China might be sensitive because of the world attention to them 
because of the Olympics?
    Ms. DiCarlo. Indeed.
    Senator Nelson. Then what is the kind of world pressure 
that we can put on that you said working through Europe?
    Ms. DiCarlo. I think the kinds of things that we have been 
doing and intensifying them, which is high level discussions 
with them, various points that are made, obviously everything 
that we are working on with China in a range of areas. We have 
to make very, very clear that while they may be a good partner 
in some areas, we need to have them as a good partner in 
particular in Sudan.
    Senator Nelson. What about the rotating presidency of the 
UN Security Council. The U.S. now holds that. What do you think 
we can do there to utilize that position?
    Ms. DiCarlo. We have made two issues the highlight of our 
council presidency. One is Africa. As I said, we are trying 
very hard to get Zimbabwe on the agenda. Sudan is another case. 
We have had a number of meetings. Ambassador Williamson was 
there yesterday. And we will continue to work the Sudan issue 
throughout the month.
    The other issue that we had as a priority is a thematic 
issue and that is women, peace, and security because violence 
against women in conflict is high and needs much more attention 
from the international community.
    Obviously, when we discuss Sudan, we make very clear our 
concerns about arms flowing into Sudan. We make very clear our 
concerns about the government's obstructionism and deployment.
    Senator Nelson. Do you intend on having any direct 
conversations privately with the delegation of China?
    Ms. DiCarlo. If confirmed, I certainly do. I know that 
Ambassador Khalilzad does now routinely.
    Senator Nelson. How about with the Government of the Sudan?
    Ms. DiCarlo. We have continued discussions with the 
Government of the Sudan. I, if confirmed, would continue those 
discussions, and as I said, Ambassador Williamson has been very 
active in this area.
    Senator Nelson. What do you think we ought to do to get 
tougher sanctions on Iran?
    Ms. DiCarlo. Thank you, sir.
    Iran is an issue that, obviously, will be a priority in the 
Security Council in the coming months. We have now three 
sanctions regimes on Iran, three resolutions calling for 
sanctions. We need to, first, make sure that these resolutions 
are implemented. There are a number of countries that have 
already reported on implementation. There are countries that 
have asked us for help, asked the UN for help in implementing 
these provisions. Smaller countries in particular have great 
difficulty in doing so, and we need to ensure that either the 
United Nations or some of the countries like us and the 
Europeans are able to help them do so.
    We also need to work bilaterally on our own--we do work on 
our sanctions, but with the Europeans who are moving in the 
right direction in increased sanctions on Iran.
    When the Security Council adopted the last resolution, 
1803, the council made clear that if Iran did not comply with 
the demands of council resolutions and IAEA recommendations, 
that the council would consider further action.
    Senator Nelson. Do you have the go-ahead from the 
administration to discuss these matters privately with the 
Iranian delegation at the United Nations?
    Ms. DiCarlo. My job is to work within the Security Council. 
I am not going to be dealing directly on this issue.
    Senator Nelson. Does Ambassador Khalilzad have that 
authority?
    Ms. DiCarlo. I would have to get back to you on that. I do 
not know.
    Senator Nelson. Well, I sure hope the answer to that is 
yes. We have a missing FBI agent in Iran, and I have talked 
directly to the Iranian Ambassador to the United Nations about 
trying to find this guy for a widow--let us hope it is not a 
widow--a wife and seven children that are left behind in my 
State. I would certainly hope that we have the ability to have 
conversations with the delegates to the United Nations from 
other countries like that. But you do not know the answer to 
that?
    Ms. DiCarlo. You asked whether he was working with them on 
sanctions issues and other issues. I do not know. Again, I 
would have to get back to you on it.
    I can tell you that, indeed, when we work in a multilateral 
forum, we work with countries, even countries we do not have 
relations with, on issues that are before the United Nations.
    Senator Nelson. Tell us about the UN peacekeeping effort in 
Haiti.
    Ms. DiCarlo. Thank you, Senator.
    A very important mission and a mission that we believe has 
had some success. We were very pleased to see what MINUSTAH has 
been able to do in the area of elections. The mission is 
working with the police, helping to develop a police force, 
making progress there. The mission will also be working on 
border and maritime security, which we think is an important 
issue, obviously helping the Haitian police. The Haitian police 
will be setting up a coast guard, but indeed, the support of 
the international community is needed there. Patrolling is 
needed there also by the UN.
    Haiti is a work in progress. There is a lot more to be 
done, but we can say that the UN mission there has certainly 
made some strides in recent years.
    Senator Nelson. Mr. Jones, Guyana has been increasingly a 
transshipment point for narcotics that are coming to the U.S. 
and Europe. Why do you not tell us about the U.S. efforts to 
combat that trend?
    Mr. Jones. Yes, Mr. Chairman. We had the reports that 
Guyana is, in fact, a transshipment point for drugs, as well as 
illegal immigrants. We have worked closely and will continue to 
work closely with the Government of Guyana. There are several 
programs in place right now with training of police and so 
forth that will continue hopefully if we have that opportunity. 
And we hope to be able to strengthen both the police 
infrastructure to weed out corrupt elements and to see that the 
Guyanese take seriously this whole idea that they need to be 
securing internally.
    As you know, there is a huge interior that is not 
controlled. There are borders with Venezuela, Brazil, and 
Suriname. And it is very difficult with the size of their 
current force to get control over this area. We hope to be able 
to work with them to strengthen both their police training and 
that area that requires a lot more policing and control.
    Senator Nelson. Tell us about those programs working with 
the police.
    Mr. Jones. These are basic training programs. One of them 
we are looking forward to implementing is the reestablishment 
of a Drug Enforcement Administration office in Guyana. This is 
something that President Jagdeo has asked for and that the 
leaders of DEA here in Washington have agreed on. I will try to 
implement that once I get on the ground, if confirmed.
    The other is to have our military group bring in trainers. 
We had approaches from SOUTHCOM and we are looking at trying to 
implement civil affairs training for those policemen and for 
the Guyana defense forces hopefully, again, in an effort to 
strengthen that area of what they actually need to have done.
    There is another side and that is to take a look at this 
whole concept of preventing the use of fraudulent documents, 
and a lot of the transshipment is done by using these 
documents. We hope to be able to use our Millennium Challenge 
Account to strengthen business registration and so forth to 
have a better way of controlling and accounting for business 
receipts and so forth. And that includes travel documents.
    Senator Nelson. Now, with the rise in crime, when you are 
helping out their law enforcement about drugs, certainly help 
them with the vigilante death squads that they have had. Do you 
want to comment about that?
    Mr. Jones. There has been a rise in crime, sir, and we have 
had the reports about these death squads. As you know, there is 
one case in particular that is in the courts in the State of 
New York. This is a problem. It is going to be something that 
we will need to address, and hopefully through the use of the 
cooperative efforts with the police training, the drug 
enforcement, and military cooperation, we will be able to 
address it a little bit more properly.
    Senator Nelson. By the way, Mrs. Ayalde, I had said Tres 
Esquinas, which you correctly identified in Colombia. I meant 
to say Cuidad del Este. That is the one that is like the Wild 
West there. Anything you want to buy you can probably find it 
there. And it may not necessarily be authentic. They have got 
quite a knock-off trade there, and the other things that you 
are going to be looking at are in such an environment. To what 
degree have we got to worry about terrorist activity arising 
from that environment?
    Ms. Ayalde. At this point, we have no known operational 
presence of Al Qaeda or other of these terrorist groups. 
Nevertheless, it is an issue because of the lack of, like I 
mentioned earlier, law enforcement, corruption, and all these 
other factors that lend themselves to attracting these kinds of 
activities.
    Senator Nelson. Mr. Boswell, this committee has had a 
hearing examining American women, contractor personnel, that 
have been raped in Iraq and Afghanistan and the lack of help 
for the rape victim and the lack of follow-up by the Department 
of State, the Department of Defense, and the Department of 
Justice. Now, do you want to bring us up to date on what is 
happening there?
    Mr. Boswell. Yes, sir, Mr. Chairman. I am aware of some of 
those cases. I am also aware that the area of jurisdiction and 
authority is a little bit unclear.
    For the record, I am strongly in favor of legislation that 
would hold contractors to account for criminal violations 
committed in war zones.
    Senator Nelson. Let me just stop you right there. That 
legislation is now law. It is on the books. And the question 
is, are those three Departments enforcing the law, providing 
assistance to the rape victims, as well as referring the 
evidence and preserving the evidence, and then referring it to 
the appropriate law enforcement agencies--in the case of the 
Department of Justice, it is usually the U.S. Attorney--in the 
prosecution of those crimes? The law is there. So take it from 
there.
    Mr. Boswell. Yes, sir, I am aware that the law is there. I 
was referring perhaps to the Department of State and embassy 
contractors. The law governing them is a little more unclear. 
So I want to clarify that. But certainly it is clear in the 
area of the Department of Defense.
    The State Department does everything it can to investigate 
and assist Americans in trouble overseas. It is a particularly 
difficult thing to do in war zones, as you can imagine, 
Senator. When the Department becomes aware of a problem, as it 
did in one of the cases that you referred to, it was in fact 
the Department that investigated the case that found the 
individual, that liberated, freed the individual, and after 
investigation, turned over the results of its investigation to 
the Department of Justice.
    Senator Nelson. Now, which one are you speaking of?
    Mr. Boswell. You mean of a specific case?
    Senator Nelson. Yes.
    Mr. Boswell. A specific case involving a woman in Iraq.
    Senator Nelson. Do you have a name?
    Mr. Boswell. I do not have the name in front of me, sir. I 
think that case is still under review by the Department of 
Justice, so I would want to be awfully careful about anything I 
say here.
    Senator Nelson. Was it one of the two women who testified 
to this committee?
    Mr. Boswell. I do not know who testified to the committee, 
sir, but I would guess it is.
    Senator Nelson. All right. There is another high profile 
rape case, a lady named Mrs. Jones who did not testify. But you 
do not know that that is the one? Jamie Lee Jones?
    Mr. Boswell. I think that is the case that I was talking 
about, sir.
    Senator Nelson. Okay. She did not testify here. But that 
has been in the newspaper quite a bit.
    Mr. Boswell. Yes, sir.
    Senator Nelson. And what did you say about that case?
    Mr. Boswell. In that case, it is my understanding that it 
was the Department of State that first became aware of the case 
that investigated the problem, that located the individual who 
was in trouble, and followed up in investigating the incident 
and turning over what it found to the Justice Department.
    Senator Nelson. That is interesting. She was a Defense 
Department contractor personnel. She was gang raped by other 
contractor personnel. She was stuffed in a storage locker and 
held hostage there until a fellow contractor personnel had pity 
on her and lent her a cell phone, on which she could make a 
phone call back to the U.S. And that is eventually how she got 
out of that storage locker. I mean, it was just an incredible 
case.
    But that was not one of the ones that testified here. Of 
course, it would raise the hair on the back of your neck to 
hear the dramatic testimony that came before this subcommittee 
by two others.
    So what would you say is the status of the Department of 
State in investigating these types of crimes?
    Mr. Boswell. Senator, I think I can assure you that the 
Department of State investigates very aggressively the crimes 
that are committed in its area of jurisdiction.
    Senator Nelson. What about the relationship between the 
Department of State and the military and the Justice Department 
and their various investigative arms?
    Mr. Boswell. I think the Department would assist both of 
those other arms in any way that it can.
    Senator Nelson. Do you think it has?
    Mr. Boswell. I really could not tell you, sir.
    Senator Nelson. I can tell you it is has not. And you are 
up for Assistant Secretary of State of Diplomatic Security.
    Mr. Boswell. Yes, sir.
    Senator Nelson. You would be shocked to see some of this 
testimony. Now, most of it has been the problem with the 
Department of Defense because most of the contractor personnel 
are DOD contractor personnel, but there is the nexus through 
contractor personnel for the Department of State and that is 
what you are seeking to be the Assistant Secretary of, 
diplomatic security.
    Mr. Boswell. Yes, sir.
    Senator Nelson. Which would include contractor personnel as 
well?
    Mr. Boswell. The State Department does have oversight over 
contractor personnel that provide a variety of services, 
including protective services, to our people overseas.
    Senator Nelson. Providing security for them?
    Mr. Boswell. One of the areas in which we provide 
contractor personnel is that, a very important area, as Senator 
Corker referred to during his questioning.
    Senator Nelson. Well, let me give you a hypothetical on one 
of these particular cases that we have and tell me how you 
would respond as the head of diplomatic security.
    A woman is raped and she reports this to her superiors and 
they do not do anything about it. And when she finally gets to 
see a military doctor that confirms the rape, then there is 
some question about the evidence from the rape kit having 
disappeared. What would you do to make sure that that evidence 
is not lost in your position as the head of diplomatic 
security?
    Mr. Boswell. Senator, diplomatic security agents are 
trained law enforcement officials. Part of their training, I am 
quite sure, is how to preserve a chain of evidence in a 
criminal case, and I would expect if a diplomatic security 
agent was involved in such an investigation, that he or she 
would carry out their responsibilities in accordance with their 
training.
    Senator Nelson. Did you serve in this position before?
    Mr. Boswell. Yes, sir.
    Senator Nelson. When?
    Mr. Boswell. I served as Assistant Secretary for Diplomatic 
Security from 1996 to 1998, the same position for which I am 
being considered now.
    Senator Nelson. 2 years.
    Mr. Boswell. Yes, sir.
    Senator Nelson. What was your training then with regard to 
the preservation of criminal evidence?
    Mr. Boswell. I myself am not a law enforcement officer, nor 
is the Assistant Secretary. But the people who work for the 
Assistant Secretary are all badge-trained law enforcement 
officers, and the training was exactly as I described, training 
in, among other things, preserving evidence in a criminal case.
    Senator Nelson. One of the big problems that we discovered 
in this hearing about the rapes was that there was just not 
coordination between the various agencies. Since you, 
obviously, have some experience having been in this position 
before, what do you think that you could do to improve the 
communication and coordination so that these criminal sexual 
assaults, number one, get reported and evidence is preserved 
and that they are reported to the appropriate law enforcement 
authorities?
    Mr. Boswell. Well, sir, I would say that in a case which 
came to the attention of the Department of State and which 
possibly could involve a jurisdiction of another agency, such 
as you described, it would certainly be a very important part 
of the Department's investigation of the case to ensure that 
other agencies with jurisdiction are communicated with, liaised 
with, and that proper attention be paid to exactly the sort of 
issues such as preservation of evidence that you were just 
describing.
    Senator Nelson. Will you do what you just said?
    Mr. Boswell. I certainly will, sir.
    Senator Nelson. Now, there was a Blackwater shooting 
incident, and the Under Secretary of State Kennedy assured us 
that the diplomatic security agents would be accompanying all 
the convoys secured by Blackwater and other private security 
contractor companies. Is that occurring?
    Mr. Boswell. Yes, sir. That was one of the recommendations 
that was made by the panel in which I participated, and as I 
mentioned in earlier testimony, the Department of State 
responded very positively to those recommendations. Additional 
personnel, both on a temporary basis and now on a permanent 
basis, were assigned to the regional security officer's office 
in Baghdad. The size of the office was, I believe, more than 
doubled, and there is a diplomatic security special agent in 
charge, in operational control of every movement involving 
protected people in Iraq, not just in the Baghdad area, but 
throughout.
    Senator Nelson. In your position, will you oversee the 
coordination between the uniformed military and those security 
contractors?
    Mr. Boswell. Yes, sir. The same panel in which I 
participated made a number of recommendations designed to 
increase the coordination between the military and State 
Department convoys. As you can imagine, there is all sorts of 
room for confusion when you have civilian convoys protecting 
embassy personnel that are operating in what the military 
considers its own battle space. There are areas where things 
can go wrong, and we made a number of recommendations to ensure 
that nothing did go wrong, including much better coordination 
between the tactical operation centers of the respective 
commands, providing radios to the vehicles that had access to 
military channels, and things of that nature. I think all of 
the recommendations that the panel made in that regard have 
been carried out.
    Senator Nelson. The Department of State just conveyed to 
Blackwater an additional 1-year extension on their contract 
without other bids being solicited. Can you tell me about why 
there was a decision that there would not be competition?
    Mr. Boswell. Yes, Mr. Chairman. The contract in question is 
what is called a task order under the overall worldwide 
personal protective security contract, which is the blanket 
contract. That worldwide contract was competed when it went 
into effect, I think it was 2 years ago, as were the individual 
task orders, including the one you mention, for protective 
security in Baghdad. The overall contract or the task orders, I 
should say, have renewal clauses, options to renew. I think 
there are four of them following the initial award. Those 
renewals are commonly and routinely exercised after a period of 
review.
    In this particular case, the performance of the contractor 
was reviewed very closely in connection also with the various 
steps that have been taken to improve the oversight of the 
contract and the alternatives should the contract not be 
renewed. And the decision was made at the time to exercise the 
renewal option.
    I have got to specify, Senator, that that contract could be 
terminated at any time for the convenience of the Government or 
otherwise.
    Senator Nelson. Senator Corker?
    Senator Corker. Thank you, Mr. Chairman.
    I think our ambassadorial nominees are thanking God at this 
moment they are not dealing with private contractors.
    So, anyway, thank you all again for being here.
    Mr. Jones, I am curious. In a country like you are going to 
that basically is a place where narcotics are being transported 
because of the tremendous demand here in our country--let us 
face it. I mean, that is why the issue exists. When you get a 
country like that and we are working with them to counter 
narcotics, what is in it for them to be focused on this issue?
    Mr. Jones. Senator, I think there is a great deal of 
interconnectivity, as we say. There is a large American 
population living in Guyana. There is also a very large 
expatriate Guyanese population living here in the States. I 
think everyone realizes that this is a question of security, 
and I think the Government of Guyana and certainly the 
president and those persons in government realize that this is 
a question that involves the entire hemisphere. And so I think 
they will work closely with us, and I intend to extend our 
efforts to work closely with them to see if we can get a handle 
on this. But it is interconnected. We believe certainly that 
just simply because it passes through Guyana and then makes its 
way northward, that it is not going to stay there, that at some 
point in time, it is going to have an adverse impact on the 
local government.
    Senator Corker. Thank you.
    Ms. DiCarlo, there has been some discussion about some 
missions into Somalia, I guess. Could you give us a status of 
that and why that would be something at this point in time that 
might be necessary?
    Ms. DiCarlo. Thank you, Senator. The Security Council 
adopted a resolution a few months ago asking the Secretary-
General to look into the possibility of a UN peacekeeping 
operation in Somalia and to do contingency planning for it. 
Various assessments are in the process of taking place now.
    The situation in Somali is a dire one. We have an African 
Union force--it is very small--trying to help protect the 
transitional government, a government that is quite pro-Western 
and internationally recognized. The AU force, however, will 
need support. We have seen traditionally in Africa where the 
African Union goes in at a time when peacekeepers cannot, but 
then UN peacekeeping forces come in afterwards as the situation 
stabilizes somewhat.
    We would like the Secretary-General to continue this 
planning. We think we do have an opportunity now with a 
transitional government in place to help stabilize the country. 
We have a very dire humanitarian situation in Somalia. We know 
that this would not be an easy operation, and obviously, a lot 
of planning, a lot of thought would have to take place, and 
should there be such a mission, it would have to be very 
targeted and have a very specific mandate. We do know, however, 
that Somalia, without additional international support, is 
going to have a very tough road ahead.
    Senator Corker. You know and you have a great sense of the 
culture, if you will, within the United Nations. We have 
perceptions based upon our visits and interactions, but you are 
there and know it. What is it about the UNDP program and the 
lack of transparency that the United Nations continues to want 
to have there by not allowing member states access to audits? 
That is something that is difficult for me to understand, and I 
would like for you to enlighten us a little bit, if you would.
    Ms. DiCarlo. Thank you, sir. I will try.
    First of all, the UN is very large. It has the Secretariat 
in New York, a number of funds and programs that are under the 
Secretariat, plus many affiliated agencies. It is quite a vast 
system. One of the things that we have asked for is system-wide 
coherence in a range of areas, certainly in the area of ethics, 
in the area of transparency, accountability.
    We have seen within the Secretariat a number of measures 
that have been adopted in the last few years. We are very 
pleased to see that the office that deals with oversight has 
been strengthened. We want to see it strengthened even further 
and be more independent, have an independent budget.
    What we have not seen is a transfer yet to the various 
funds and programs, and, again, affiliated agencies would not 
be my responsibility, but certainly the Bureau of International 
Organizations at the State Department is working with them. We 
want to see the kinds of measures that have been put in place 
in the Secretariat also put in place now in the funds and 
programs. UNDP is one of them, as is UNICEF.
    It is a work in progress. We still need a lot more work in 
the Secretariat as well, particularly in the area of oversight 
of procurement, better procurement practices. There is an 
ethics office now, financial disclosure forms for senior 
members. But we do need to see this system- wide.
    Senator Corker. You mentioned or something was brought up 
about MINUSTAH in Haiti. And General Santos Cruz is most 
impressive. He is somebody that just causes you to feel 
tremendous faith, if you will, in what he is doing, and 
certainly I think, from what I can tell, he is doing an 
outstanding job there.
    What are the characteristics of that effort that you would 
take to other places mentality-wise to say these are the things 
that we ought to be doing other places as it relates to 
peacekeeping?
    Ms. DiCarlo. I think one of the successes of MINUSTAH is 
that there are a number of countries in the region, the Latin 
American region, in the force. We have strong regional support, 
very strong both in terms of troops, police. So we have a real 
regional input and that is something that has helped the force 
considerably.
    Also, I remember I was working on the staff of the National 
Security Council when MINUSTAH was established and when the 
marines first went into Haiti and then a UN force followed. And 
it was a very bumpy start, but one thing that happened, I would 
say, within a year into the operation was that the Special 
Representative of the Secretary-General realized that if he was 
not going to be coordinating the assistance of donors, the 
activities of all the many donors to Haiti, that we would not 
be making progress. And the UN has done a good job in Haiti of 
assuming that role.
    Senator Corker. Mr. Boswell, I wonder if you would just 
give me a couple of sentences, if you will, on what 
transformational diplomacy is and, if you would, its effect on 
diplomatic security, and then step down one level and give me 
its effect, if you will, on the stovepiping that generally 
occurs as it relates to working with other organizations of 
Government to counter threats that you, in fact, have to deal 
with.
    Mr. Boswell. Thank you for the question, Senator. I have 
been out of State Department for a number of years, so I am 
going to be a little careful about what I say about 
transformational diplomacy.
    But transformational diplomacy, as the Secretary proposed 
it, as I understand it, was to shift the effort from certain 
geographic areas where the State Department was heavily 
represented such as in western Europe to areas of increasing 
concern. It was also an effort, as I understand it, to more 
broadly represent the United States overseas in those areas of 
concern. That means, for example, diplomatic posts of different 
types than the standard embassy/consulate construct that we are 
all familiar with.
    That poses issues and problems for protecting U.S. 
personnel in those kinds of situations, and if I am confirmed, 
it is going to be a very high priority of mine to look into 
that issue. We do not want diplomats, obviously, clustered only 
inside fortress embassies. They cannot do their work properly 
that way. So we need to find ways to protect them as they are 
out in the field. A very large percentage of Foreign Service 
officers have served in Iraq and Afghanistan already, sometimes 
more than once, and it is likely that service in those kinds of 
zones will continue.
    I expect that the State Department will be asked to operate 
in zones of conflict in the future where there is no major U.S. 
military presence, unlike Iraq and Afghanistan now, and we will 
have to find ways to protect our people in those circumstances. 
And that will be a very big challenge, but it is a very high 
priority of the Department to operate that way and I think it 
is the right priority. And the Bureau of Diplomatic Security 
has got to find a way to discharge its responsibilities in the 
face of those obligations.
    Senator Corker. And as to the stovepiping that exists 
between the State Department and other Departments of 
Government dealing with threats?
    Mr. Boswell. I think the Senate had before it for 
confirmation--the ICUS had before it for confirmation a couple 
of weeks ago the new Director of the National Counterterrorism 
Center, Mr. Mike Leiter, who is a colleague of mine at the 
Office of the Director of National Intelligence where I work 
right now. And eliminating the stovepipes you are talking about 
is precisely what the National Counterterrorism Center does. I 
think it is a very, very good-news story for the U.S. since 9/
11.
    The State Department and the Bureau of Diplomatic Security 
is part of that. The bureau has representatives in the National 
Counterterrorism Center is part of the meetings, three meetings 
a day, video teleconferences a day, that take place on updating 
of threat information globally. So I think the stovepipes, 
while deeply, deeply ingrained in the culture, particularly of 
the intelligence community in the United States, is--I think 
the Office of the Director of National Intelligence and, in 
particular, the National Counterterrorism Center is doing a lot 
to eliminate those stovepipes and ensure the proper sharing of 
information for the safety of our citizens.
    Senator Corker. Ms. Ayalde, any thoughts about your 
hopefully new, very soon future home and their relations with 
us as it relates to a free trade agreement? Have there been 
discussions, thoughts?
    Mr. Boswell. I am afraid, Senator, I am not aware of 
discussions between--oh, I am sorry.
    Senator Corker. That is all right. That is a good answer, 
by the way, coming from you. Thank you. [Laughter.]
    Senator Corker. I apologize.
    Ms. Ayalde. Thank you, Senator.
    I understand that that is a topic of bilateral discussion 
in the broader sense and certainly is an opportunity that we 
will need to look at as we move forward with this new 
administration of President Lugo.
    Senator Corker. So there have been no discussions at all 
from their side.
    Ms. Ayalde. At this point?
    Senator Corker. Yes.
    Ms. Ayalde. Well, certainly not with the new 
administration. They take office on the 15th of August.
    Senator Corker. Well, but even his predecessor, no 
discussions.
    Ms. Ayalde. They are very interested, as I understand it, 
in increased market access. There are some issues with some of 
the existing preferences programs, and they are currently under 
discussion in a very robust way. But beyond that, I would not 
venture to say at this point.
    Senator Corker. Mr. Chairman, I think we have four very 
highly qualified nominees, and I have no further questions. I 
hope that when you finish, that they and their families have a 
wonderful brunch together and celebrate the survival of an hour 
and 15 minutes. [Laughter.]
    Senator Nelson. It will not be brunch. It will be lunch.
    Thank you all for your public service. Thank you for 
offering yourself for public service.
    And the meeting is adjourned.
    [Whereupon, at 10:40 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record

 Prepared Statement of Liliana Ayalde Ambassador-Designate to Paraguay

    Mr. Chairman. Members of the Committee.
    I am honored to appear before you today as the President's nominee 
to be the next U.S. Ambassador to the Republic of Paraguay. I want to 
thank President Bush and Secretary Rice for their confidence and trust 
in sending my name to the Senate for your consideration. If confirmed 
by the Senate, I look forward to working closely with this Committee 
and with your colleagues in the Congress to advance our interests in 
Paraguay and in the region.
    For most of my 27 years as a career member of the Senior Foreign 
Service of the United States Agency for International Development 
(USAID), I served in Latin America. I hope that you will find that my 
professional experience in the region has prepared me well for this 
important assignment as the Chief of Mission in Paraguay. Most 
recently, I served as USAID Mission Director in Colombia, where I 
managed one of USAID's largest programs in the world and the largest in 
the Western Hemisphere. We worked with vulnerable groups, victims, and 
those displaced by the violence while developing viable and licit 
economic opportunities for those who had been forced to engage in 
illegal coca production, trafficking, and at risk of joining illegal 
armed and criminal groups. We strengthened governance and helped build 
the capacity to expand state presence in territories with weak 
institutionality or no state presence. We supported judicial reform and 
promoted the respect for human rights. Before Colombia, I served in 
Bolivia during a period of much political and social turmoil. I also 
served in Nicaragua, re-engaging bilateral relations after a USAID 
absence of 12 years. This, plus my experience in Guatemala and 
Bangladesh, prepared me well for defending U.S. interests in 
challenging environments. I have worked closely with government 
counterparts, civil society, private sector, and the U.S. interagency 
community in developing synergies and coming to agreement on common 
grounds as we promote the fight against poverty, drugs, and corruption.
    If confirmed I will arrive in Paraguay at a historic moment. My 
experience in development and diplomacy will serve the United States 
well as we engage President-elect Lugo, supporting his efforts to 
promote a more just and prosperous democracy.
    I would certainly draw on my experience administering our foreign 
assistance programs to ensure that Embassy resources are wisely used, 
and that security remains a top priority. If confirmed, I will also do 
everything in my power to ensure the safety of Embassy staff, and of 
the thousands of Americans who reside in Paraguay and those who visit 
each year.
    The United States has long had close and friendly ties to Paraguay. 
During the last two years of the Millennium Challenge Corporation 
Threshold Program, we have seen the Paraguayans implement many 
important reforms to improve transparency, eradicate corruption, and 
improve business climate and economic freedom. We look forward to 
continuing this process with a second Threshold Program with the 
incoming Lugo administration. President-elect Lugo has made fighting 
corruption a key part of his platform and our assistance is designed to 
support his efforts toward that end.
    Paraguay has been a good partner on security and counter-narcotics 
issues. Select Paraguayan law enforcement units are effectively 
cooperating with us and their neighbors to stem the flow of illicit 
drugs, arms, pirated goods, and persons through Paraguay's territory.
    Our accomplishments thus far are a prelude to what remains to be 
done - and I look forward, if confirmed, to the challenges ahead, to 
working with a Paraguayan Government committed to building a more 
stable and prosperous Paraguay. Promoting U.S. exports will be one of 
my priorities and I am optimistic that there is much the U.S. private 
sector can contribute to the development of Paraguayan agricultural 
potential. And, Mr. Chairman, members of the Committee, if confirmed, I 
look forward to working with you and with your colleagues in Congress 
as we pursue our interests in Paraguay. I would be pleased to welcome 
many of you to the U.S. Embassy in Asuncion. I will be happy to answer 
any questions you may have. Thank you.

                               __________

    Prepared Statement of Eric J. Boswell, Nominee to be Assistant 
               Secretary of State for Diplomatic Security

    Thank you, Mr. Chairman.
    Mr. Chairman and members of the Subcommittee, it is an honor to 
appear before you today as the President's nominee to be Assistant 
Secretary of State for the Bureau of Diplomatic Security and Director 
of the Office of Foreign Missions.
    I want to thank the President and Secretary Rice for the confidence 
they have placed in me, and for this opportunity to be of further 
service to the Department of State and to our nation. I believe I am 
well qualified for this position.
    I served for 27 years as a career Foreign Service Officer in a 
variety of assignments both in Washington, D.C., and overseas, 
culminating in my service as Assistant Secretary for Diplomatic 
Security from 1996 to 1998, the same position for which you are 
considering me today. I left the State Department a decade ago, but I 
did not leave the security world. While working at the United Nations 
in 2004, I was responsible for developing and implementing the security 
structure that was put in place for the United Nations system in the 
aftermath of the tragic bombing of the UN offices in Baghdad in August 
2003. And in my current position in the Office of the Director for 
National Intelligence, I have been serving as the top security policy 
official for the intelligence community.
    But my heart has always been with the State Department and the 
Foreign Service. I believe a career in the Foreign Service, whether as 
a Foreign Service Officer, or a Diplomatic Security Special Agent, or 
any of the other Foreign Service and Civil Service career paths in the 
Department of State, is an unparalleled opportunity to serve our nation 
alongside patriotic, dedicated, highly motivated colleagues. That is 
why I chose to accept this nomination and hope to be confirmed.
    Mr. Chairman, our State Department personnel serve in some of the 
most dangerous locations on earth. The mission of the Bureau of 
Diplomatic Security is to keep them safe, and to provide a secure 
environment for the conduct of our nation's foreign policy.
    But security for our diplomats is only one of many challenges 
facing the Bureau. Diplomatic Security is a global organization with 
expertise in international investigations, threat analysis, cyber 
security, dignitary protection, security technology, counterterrorism, 
and so much more. It is the security and law enforcement arm of the 
U.S. Department of State, committed to protecting our nation's people, 
property, and information. Diplomatic Security is one of the largest 
bureaus in the Department with a workforce of more than 2,500 
professionals, consisting of special agents, engineers, technicians, 
diplomatic couriers, and Civil Service specialists. These specialists 
oversee another 32,000 contract guards and security specialists around 
the globe.
    Diplomatic Security has a broad range of responsibilities including 
the protection of domestic State Department facilities as well as U.S. 
embassies and missions overseas. It also plays a key role in combating 
visa and passport fraud, and has a robust investigations program that 
is critical to homeland security for the nation. It trains foreign 
police and security officers to combat terrorism through its 
Antiterrorism Assistance program. It also protects foreign dignitaries 
who visit the United States. While it is the responsibility of the U.S. 
Secret Service to protect visiting heads of state, Diplomatic Security 
protects the hundreds of foreign ministers and delegations that visit 
the United States every year. Many of these visitors are from the most 
politically volatile countries in the world, requiring special 
protective measures.
    The Office of Foreign Missions is another important element of the 
Bureau. Its primary role is to defend national security by coordinating 
the activities of U.S. missions abroad and of foreign missions and 
international organizations in the United States. It develops and 
implements policies to improve the treatment of U.S. overseas personnel 
through the application of reciprocal treatment for foreign missions in 
the U.S. It also protects the interests of the United States and its 
citizens from foreign diplomats' abuses of privileges and immunities.
    The security challenges facing the Foreign Service today are 
enormous. Drawing on the expertise I have acquired throughout my 
professional life, including my most recent experience at the Office of 
the Director of National Intelligence, I believe I can provide the 
leadership necessary to guide the Bureau at this critical time in our 
nation's history.
    The Bureau of Diplomatic Security is a critical part of America's 
security apparatus. I was proud to be the Assistant Secretary a decade 
ago, and would be honored to have the opportunity to serve in that 
office once again. If confirmed, I will assume my duties with great 
enthusiasm and commitment. I pledge to work cooperatively with the 
Congress, with others in the Executive Branch, and to serve the 
American people.
    Thank you again for the opportunity to appear before you today.

                               __________

     Prepared Statement of Rosemary DiCarlo Nominee for Alternate 
 Representative of the United States of America for Special Political 
                     Affairs to the United Nations

    Thank you, Mr. Chairman and Members of the Committee.
    I am honored to appear before you today as President Bush's nominee 
to be Alternate Representative for Special Political Affairs to the 
United Nations. I am grateful to President Bush for my nomination and 
to Secretary Rice for her confidence. Thank you, Mr. Chairman, for 
convening this hearing during a very busy time.
    If confirmed, I look forward to advancing America's interests at 
the United Nations at a time of great flux in the international system, 
with unprecedented threats to peace and security that go beyond the 
traditional security challenges, and at a time of historic 
opportunities for the United States. As a career member of the Foreign 
Service, I have dealt with many of the issues that come before the 
United Nations. I served as Director of the Washington office of the 
U.S. Mission to the United Nations in 2001, as the international 
community grappled with the horrors of the attacks on the World Trade 
Center on September 11. The United Nations Security Council responded 
immediately to these attacks with the unanimous adoption of Resolution 
1373, which criminalized terrorist acts by non-state actors, and 
obliged governments to take the necessary legal measures to prevent 
such acts. As Director for United Nations Affairs on the National 
Security Council staff, I contributed to the development of Resolution 
1540, which criminalized proliferation of weapons of mass destruction, 
and worked on a plan for reform of the United Nations that was 
deliberated at the 2005 World Summit.
    If confirmed, I will help represent the United States at the United 
Nations Security Council. Many challenges face the Council, but none 
are more serious than preventing proliferation of weapons of mass 
destruction. Iran has ignored calls by the International Atomic Energy 
Agency (IAEA) and the Security Council to suspend fully and verifiably 
all proliferation-sensitive nuclear activities, including enrichment-
related activities. In response, the Security Council has adopted three 
binding resolutions placing Iran under sanctions unless it ceased 
uranium enrichment activities and cooperated with the IAEA. The last, 
Resolution 1803, made clear that the Council would consider adoption of 
further appropriate measures should Iran fail to comply.
    The United Nations has served an important role in combating 
terrorism, and the Administration is committed to strengthening the 
organization's ability to address this threat. Our mission to the 
United Nations is working to strengthen the effectiveness of the 1267 
Committee, which imposes targeted sanctions on the Taliban, Usama Bin 
Laden and Al-Qaeda, and to intensify the efforts of the Counter 
Terrorism Committee and its Executive Directorate to develop the 
capacity of Members States to prevent terrorist acts.
    Mr. Chairman, the Administration believes United Nations 
peacekeeping to be in our national interest. Through UN peacekeeping 
operations, the United States is able to leverage military and 
financial resources to resolve crises throughout the world. It deserves 
and receives our political and financial support as well as our close 
attention and oversight. Should I be confirmed, peacekeeping would be 
one of my major responsibilities. I would work with partners on the 
Council to achieve more effective peacekeeping operations that are 
appropriate for the circumstances in a given country and achievable 
within available resources. Given the growth of our contributions to 
peacekeeping, which have almost doubled in the last two years, I would 
work with others in the Administration to look seriously at 
possibilities for achieving savings in these operations.
    The humanitarian crisis in Darfur remains of utmost concern and the 
Administration will continue to press for rapid deployment of the 
United Nations-African Union hybrid peacekeeping operation in Darfur. 
When fully deployed, this peacekeeping mission will be the largest of 
existing missions and will contribute to the protection of civilians in 
that troubled region. Finding an appropriate means to address the long-
running political and humanitarian crisis in Somalia is another high 
priority.
    A serious concern for the United States is sexual exploitation and 
abuse in UN peacekeeping missions. If confirmed, I will continue our 
efforts to ensure that the United Nations carefully monitors the 
behavior of UN peacekeepers and enforces its policy of zero tolerance 
regarding sexual exploitation and abuse by peacekeepers.
    There are many issues where the Security Council has played a vital 
role. The Council helped to stabilize the situation in Lebanon by 
calling for the withdrawal of all foreign forces from Lebanon and 
expanding the mandate of the existing United Nations peacekeeping 
mission to assist the Government of Lebanon in extending its control 
throughout Lebanese territory. We must, however, continue to press for 
full implementation of Council resolutions calling for all countries to 
respect the sovereignty, territorial integrity and political 
independence of Lebanon, and to demand that Syria and Iran refrain from 
destabilizing the country.
    If confirmed, I will seek opportunities to raise matters of great 
concern to the United States before the Security Council. The Security 
Council should continue to monitor the political situation and 
humanitarian crisis in Burma and actively support the Secretary 
General's efforts to engage the regime in a dialogue with the 
opposition. The Council should also press for peaceful, fair and free 
elections in Zimbabwe.
    Mr. Chairman, working through the United Nations, the United States 
can bring the full weight of the international community to our foreign 
policy objectives. To be truly effective, the United Nations must be 
able to address the new threats to peace and security and to implement 
reforms aimed at strengthening this important body. American leadership 
is essential. If confirmed, I look forward to working with this 
Committee to advance our interests at the United Nations and to assist 
the international community in meeting these new challenges.

                               __________

 Prepared Statement of John Melvin Jones, Nominee to be Ambassador to 
                   the Cooperative Republic of Guyana

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to appear before you today as the nominee to serve as the 
next United States Ambassador to the Cooperative Republic of Guyana. I 
sincerely appreciate the trust and confidence placed in me by President 
Bush and Secretary of State Rice in putting my nomination forward. If 
confirmed by the Senate, I pledge to work closely with this Committee 
and with your Congressional colleagues both to advance our nation's 
interests and to protect our citizens in Guyana and the region.
    Before I proceed further, and with the indulgence of the Chair, I 
would like to introduce two members of my family. With me today are my 
wife, Aaronia Jones and our daughter Christie Jones-Aden.
    Mr. Chairman, for more than 27 years I have served as a career 
Foreign Service Officer, including at hardship posts in several regions 
of the world; these experiences have prepared me well to lead the U.S. 
mission in Georgetown. Guyana is a country striving to strengthen its 
fragile democracy in the face of daunting problems including an HIV/
AIDS epidemic, poverty, racial tensions, drug trafficking, arms and 
human smuggling, ever rising rates of violent crime, and corruption 
that plagues many of its law enforcement agencies. To make matters 
worse, Guyana suffers from a ``brain drain,'' as many of its educated 
citizens emigrate. I welcome this challenge to use my experience, my 
creativity, and my leadership abilities to represent U.S. interests in 
the context of these very serious issues. Guyana's problems affect U.S. 
security because of our interconnectedness with countries throughout 
the Caribbean region and because Guyana is part of the family of 
democracies in the Hemisphere. The United States has a special link 
with Guyana through the many Guyanese who have immigrated to our 
nation, many of whom are dual nationals and maintain strong ties to 
family remaining in Guyana. We are Guyana's largest trading partner, 
and we share a commitment to fighting the scourge of HIV/AIDs. The 
President's PEPFAR program and the more than $100 million Congress has 
appropriated since 2004 continues to make a profound impact in a 
country where USAID estimates that 2.5% of the adult population is 
infected with HIV/AIDS. Through the partnership that involves USAID, 
CDC, Peace Corps, DOD and other donors, PEPFAR has provided AIDS 
testing for more than 29,000 people, and over 2,000 individuals receive 
life-saving anti-retroviral drug therapy.
    Guyana is becoming an ally in regional security and in the fight 
against narco-trafficking. In 2007, the government's drug seizures were 
up, but Guyana needs assistance to professionalize law enforcement 
personnel and to weed out corrupt elements. If confirmed, I hope to 
work toward re-establishment of a U.S. Drug Enforcement Agency office 
at the Embassy, something that President Jagdeo has requested and which 
DEA's leadership also supports. The two-year $6.7 million Millennium 
Challenge Threshold program for Guyana began implementation in fiscal 
2008. Under USAID direction, the Threshold program seeks to help the 
Government improve its fiscal management, including implementation of a 
new VAT, and to improve the business climate by modernizing the 
business registration process.
    If confirmed, I will work to see that this effort proves 
successful. As another priority, if confirmed, I will encourage the 
government to hold local elections, which were last held in 1994 and 
are long overdue. Local elections, the political dialogue and the 
empowerment that follows will strengthen democracy and serve the 
country well. If confirmed, I will also be accredited to the Caribbean 
Community (CARICOM), which brings together 15 Caribbean states and a 
number of regional observers. I would look forward to working with 
CARICOM members to advance mutual interests in trade, investment, 
development, security and social policy.
    Mr. Chairman, these are some of the opportunities and tests that 
await the next United States Ambassador to Guyana. I would welcome the 
opportunity to address them, and if confirmed, I will work diligently 
to strengthen bilateral cooperation and to advance U.S. interests in 
Guyana and the broader CARICOM region.

                               __________

           Responses of Eric Boswell to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Why do you want this position? What do you hope to 
achieve?

    Answer. I am a retired career Foreign Service officer with over 30 
years of service in the U.S. Government. I am honored to have been 
nominated for the position of Assistant Secretary for Diplomatic 
Security and for the opportunity once again to be of service to our 
Nation alongside the patriotic, dedicated, highly motivated 
professionals of the Department of State.

    Question. What will be your top three priorities?

    Answer. My priorities are:

  <bullet> To ensure the safety and security of our diplomats, with 
        particular attention to the safety and security of those 
        serving in war zones and other high-threat areas.
  <bullet> To participate actively in the global war on terror by 
        combating passport and visa fraud.
  <bullet> To do my utmost to obtain the resources necessary for the 
        Bureau of Diplomatic Security to operate at maximum 
        effectiveness.

    Question. What do you regard as the major strengths and weaknesses 
of the Bureau of Diplomatic Security? What measures are you considering 
to address the weaknesses?

    Answer. Based on my previous tenure as Assistant Secretary of 
Diplomatic Security and my familiarity with the organization, I believe 
that DS's greatest strength lies in the quality of personnel the 
organization has recruited through the years and their level of 
training. These agents, engineers, couriers, and other Foreign Service 
specialists, along with the cadre of Civil Service employees that make 
up DS, are a dedicated, flexible, and dynamic force willing to serve in 
dangerous and insecure locations around the globe to create an 
environment where American diplomatic initiatives can be pursued.
    The organization's weakness essentially is that there are many 
countries with increasing security problems and a finite workforce that 
is already somewhat stretched. The issue of extremism and the resulting 
attacks on our diplomatic facilities and other symbols of America 
overseas, along with growing instability in many nations and rising 
levels of crime and violence, portend a need for additional security 
resources and programs if the United States is to maintain its crucial 
diplomatic presence overseas.
    My plans to address this do include doing my utmost to ensure that 
Diplomatic Security has the resources necessary to fulfill its mission. 
However, I will also ensure that there is close attention paid to 
determining priorities within DS, so that the most crucial requirements 
are fully met, with less important requirements perhaps postponed and 
moved to a lower priority. Additionally, I fully support the idea that 
Foreign Service officers and their families must be provided with hard 
skills based security training--``Foreign Service Security Tradecraft'' 
in essence, so they too can become an important part of the overall 
security solution when asked to take assignments to increasingly 
dangerous and unstable posts.
    Finally, I believe that the Foreign Service must find ways to 
operate in dangerous environments, without relying on the U.S. military 
having ``boots on the ground.'' This will require DS to have the 
ability to use contracted security services, but we must have more 
transparent accountability and better contract oversight, and I intend 
to make that a priority as well.

    Question. You served on the Secretarys Panel on Personal Protective 
Services in Iraq. That panel recommended the hiring of 100 additional 
DS agents to offset the impact of increased DS staffing requirements in 
Iraq. What is the status of the hiring and training of these agents?

    Answer. The 100 positions were included in the fiscal year 2008 
supplemental and fiscal year 2009 bridge budget request that is 
currently with Congress for approval. In the interim, DS reprogrammed 
existing positions to create positions in Iraq. Those positions are now 
being staffed with current DS Special Agents. Upon approval of the 
budget request, DS will recruit and train the 100 additional personnel 
received from the supplemental funding.

    Question. How many DS agents were assigned to Iraq under chief of 
mission authority as of September 30, 2007? How many such agents were 
there on March 30, 2008?

    Answer. As of September 30, 2007, there were 36 Special Agent 
positions assigned for Iraq. Subsequent to September 2007, an 
additional 45 positions were authorized.
    As of March 30, 2008, 57 Special Agents were actually on the 
ground. Upon the completion of the required training by September of 
2008, the full complement of 81 Special Agents are scheduled to be at 
Post.

    Question. The Panel also recommended that a DS agent accompany 
every movement of Personal Protective Services in Iraq. On what date 
was that recommendation implemented? Please provide a copy of any 
relevant memorandum, cable, or directive implementing this 
recommendation. Has it been adhered to?

    Answer. By early October 2007, the 12 TDY Special Agents (SAs) 
deployed to Iraq began accompanying the Private Security Contractors 
(PSCs) on protective motorcade movements. Simultaneously, 45 new FTE 
positions were established, assignments were made, and the required 
training courses commenced. All 45 positions are scheduled to be filled 
by September 2008.
    The assignment of a DS Special Agent to accompany the movement of 
Personal Protective Services in Iraq was a recommendation of the 
``Report of the Secretary of State's Panel on Personal Protective 
Services in Iraq.'' This recommendation was accepted by the Secretary, 
the United States Embassy in Baghdad, and the Bureau of Diplomatic 
Security. The recommendation has been fully implemented in Baghdad and 
on a prioritized basis in the Provinces as more agents arrive in 
country.

    Question. How many direct hire positions are authorized for the 
Bureau domestically? Of these, how many positions are vacant (use the 
most recent date in the last four months for which such information is 
available, but indicate the date used)?

    Answer. The Bureau of Diplomatic Security is authorized 
domestically 715 General Schedule positions and 1,056 Foreign Service 
positions. The Foreign Service positions not only include special 
agents, but also security engineering officers, security technicians, 
and diplomatic couriers. Of the authorized domestic number, there are 
132 General Schedule positions vacant and 237 Foreign Service positions 
vacant. This information is current as of April 30, 2008, and was 
supplied by the Human Resources Monthly Resource Statistic Report.
    The total number of DS Special Agents assigned domestically is 
approximately 800. Of that, approximately 550 agents are assigned to DS 
Field Offices, 150 agents are assigned to full-time protection 
assignments, and the remainder assigned to Headquarters and liaison 
assignments.

    Question. How many direct hire positions are authorized for the 
Bureau overseas? Of these, how many positions are vacant (use the most 
recent date in the last four months for which such information is 
available, but indicate the date used)?

    Answer. DS has authorized 698 Special Agent positions overseas. As 
of June 20, 2008, DS records indicate that 58 of the 698 overseas 
Special Agent positions are currently vacant, due to summer transfer 
gaps and a shortfall in the Special Agent manpower pool.
                                 ______
                                 

           Responses of Eric Boswell to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. How many DS agents are in Iraq and Afghanistan and where 
are they located? How many contractors are performing protective duties 
in those countries that would otherwise be handled by full-time DS 
employees? Please provide a list of the number of contractors, by 
location, function, and company in Iraq and Afghanistan.

    Answer. There are 81 DS Special Agent (SA) positions authorized for 
Iraq: 58 located in Baghdad, 8 in Erbil, 6 in Al Hillah, 5 in Tallil, 
and 4 in Basrah. The Regional Security Officer (RSO) retains the 
authority to reassign his personnel resources between any of the five 
locations as operational requirements dictate. Currently there are 52 
permanently assigned SAs and 16 temporarily assigned SAs in Iraq. DS 
anticipates that all 81 authorized positions in Iraq will be filled by 
September 2008.
    The Afghanistan staffing pattern currently consists of 16 DS SA 
positions, 4 of which were just recently created in April 2008. Ten of 
the 12 full-time DS SA positions in Afghanistan are filled with 
permanently assigned Special Agents, and two temporarily assigned SAs 
augment the permanent staff. The complement of SAs in Afghanistan will 
increase to 15 by the end of September 2008 with the 16th position 
being staffed by the end of the year. All DS positions in Afghanistan 
are located in Kabul.
    As for the number of contractors performing personal protective 
services in Iraq and Afghanistan, as the table below indicates, 837 
contractors are performing protective security duties that otherwise 
would be handled by DS Agents.

                                      WPPS II IRAQ AND AFGHANISTAN STAFFING
----------------------------------------------------------------------------------------------------------------
                                                                 Protective
                                                                  security                 Static
          Task Order               Location        Contractor    specialist   Support      guard        Total
                                                                    (PSS)
----------------------------------------------------------------------------------------------------------------
004..........................  Kabul..........  Blackwater.....          78         21           20          119
006..........................  Baghdad........  Blackwater.....         474         80            0          554
007..........................  Basrah/Tallil..  Triple Canopy..          80         33    166 *(45)   279 *(158)
008..........................  Al Hillah......  Blackwater.....          77         17          162          256
009..........................  Kirkuk/Erbil...  DynCorp........          78         23           52          153
010..........................  Iraq Aviation..  Blackwater.....          50        108            0          158
----------------------------------------------------------------------------------------------------------------


 
                            h1h1h1h1
 
Iraq and Afghanistan Authorized Staffing........................        837        282          400        1,519
Actual Staffing to Reflect TO-7 Basrah Transition...............        837        282         279*        1,398
-----------------------------------------------------------------
 
TO-7 Basrah guard force authorized 166, but currently staffed 45 due to transition to Basrah Air Station.
TO-8 is returning to full staffing, reflected above.
TO-10 continues to transition to full staffing.

    Question. In your testimony you noted that the number of DS agents 
in Baghdad dramatically increased following a report in which you were 
one of the primary drafters. Please provide before/after DS staffing 
numbers that would illustrate this.

    Answer. Prior to September 2007, there were 36 Special Agent 
positions authorized for Iraq. Subsequent to September 2007, an 
additional 45 positions were authorized.
    The current staffing for the 45 new positions is as follows: 20 
positions have been filled with DS Special Agents on permanent 
assignment; 16 positions are filled with TDY DS Special Agents, and 25 
DS Special Agents are completing High Threat Training scheduled to 
arrive at Post on or before September of 2008.

    Question. Please list the location of the domestic offices of 
Diplomatic Security and the number of DS employees in each and the 
primary function of each office.

    Answer. To safeguard the nations borders and ensure the integrity 
of the U.S. passport and visa programs, DS Special Agents assigned to 
the below field offices investigate criminal attempts to fraudulently 
obtain U.S. passports and visas, and detect and dismantle identity 
document vendors operating in the United States.
    In 2007, DS's domestic field offices opened 4,725 criminal 
investigations for passport and visa fraud, arrested 1,550 individuals, 
and seized nearly $3 million in assets. DS Special Agents are assigned 
to the FBI's Joint Terrorism Task Forces, ICE's Document and Benefit 
Fraud Task Forces, and the U.S. Marshals Fugitive Task Forces. DS field 
office agents also conduct protective security operations, ensuring the 
safety of the Secretary of State worldwide, annually performing 290 
protective operations for foreign dignitaries visiting the United 
States, and congressional delegations during overseas travel.
    Boston Field Office-26; Chicago Field Office-41; St. Louis Resident 
Office-2; Houston Field Office-34; Dallas Resident Office-5; Los 
Angeles Field Office-52; Honolulu Resident Office-3; Phoenix Resident 
Office-3; San Diego Resident Office-7; Miami Field Office-49; Atlanta 
Resident Office-8; New Orleans Resident Office-4; San Juan Resident 
Office-3; New York Field Office-126; Philadelphia Resident Office-7; 
San Francisco Field Office-39; Denver Resident Office-7; Seattle 
Resident Office-5; Washington Field Office-121; Greensboro Resident 
Office-7.

    Question. The Department has made recommendations with respect to 
improving the oversight and performance of PSD movements in Iraq. Are 
they being fully implemented (please be specific to each recommendation 
from the Kennedy report)? How many more DS agents are in Iraq now? How 
has this affected operations in other parts of the world?

    Answer. Please see the attached chart for the status of each 
recommendation from the Kennedy Report.

 IMPLEMENTATION OF RECOMMENDATIONS FROM THE SECRETARY OF STATE'S REPORT
       ON PERSONAL PROTECTIVE SERVICES IN IRAQ (REVISED 06/19/08)
------------------------------------------------------------------------
              Recommendation                           Status
------------------------------------------------------------------------
1. The State Department should urgently     --An interagency working
 engage with the Department of Justice and   group drafted legislation
 the Office of Management and Budget, and    to clarify and expand the
 then with the Congress, to establish a      Military Extraterritorial
 clear legal basis for holding contractors   Jurisdiction Act (MEJA) to
 accountable under U.S. law.                 hold private security
                                             contractors overseas
                                             accountable for offenses
                                            --The Department of Justice
                                             is taking the lead on
                                             further discussions of this
                                             issue with Senate staff.
                                            --The Department of State's
                                             Legal Advisor's Office is
                                             involved as needed.
                                            --The Department of State's
                                             Legal Advisor's Office will
                                             stay engaged in this
                                             process until legislation
                                             is passed.
-------------------------------------------
2. The Department of State should work      --U.S. Embassy Baghdad,
 with the Department of Defense to           Multi-National Forces-Iraq
 determine how to commence discussions       (MNF-I), and the Iraqi
 with the Government of Iraq on a new        Ministry of Interior
 regulatory framework for PPS contractors.   continue to negotiate a
                                             Status of Forces Agreement
                                             and a Strategic Framework
                                             Agreement.
                                            --This recommendation is
                                             complete. (06/06/08)
-------------------------------------------
3. The requirement to expand security       --The Department is
 oversight requires an overall increase in   reviewing options to
 the Diplomatic Security Service's           augment personnel to
 authorized staffing level. The Department   fulfill this requirement.
 of State should approach the Office of
 Management and Budget and request in the
 final appropriations action for fiscal
 year 2008 an increase of 100 positions
 and the requisite salary and operating
 costs in order to provide the needed
 staffing in Iraq without stripping other
 missions of their security resources.
-------------------------------------------
4. When the FBI investigation into the      --The Embassy and the
 September 16, 2007, incident is             Department are awaiting the
 completed, the Embassy should submit its    results of the FBI's
 recommendation as to whether the            investigation.
 continued services of the contractor
 involved is consistent with the
 accomplishment of the overall United
 States mission in Iraq.
-------------------------------------------
5. The Regional Security Office should be   --Forty-five new full time
 provided with additional Department of      employee (FTE) DS Special
 State Special Agents so that an Assistant   Agents positions were
 Regional Security Officer can accompany     created for Iraq.
 PPS movements. The State Department         Currently, 11 of these new
 should ensure that each A/RSO should        positions are staffed at
 complete an Iraq-specific orientation       Post. Thirty-four DS Agents
 program.                                    are completing High Threat
                                             Training and all positions
                                             will be filled by Sept.
                                             2008.
                                            --Additionally, the RSO
                                             staff is currently
                                             augmented by 16 temporary
                                             duty (TDY) DS personnel.
                                            --All DS Special Agents
                                             complete Iraq-specific
                                             training at the DS Training
                                             Center and Foreign Service
                                             Institute prior to
                                             deployment.
-------------------------------------------
6. The Worldwide Personal Protective        --The WPPS contract was
 Service contract should be amended to       modified to require eight
 require the contractor to provide a         Protective Security
 limited number of Arabic language staff     Specialist/Translators, as
 for use as needed.                          requested by the RSO, to
                                             serve throughout Iraq.
                                            --This recommendation is
                                             complete. (04/02/08)
-------------------------------------------
7. Additional training modules should be    --The WPPS contract was
 added under the Worldwide Protective        modified to require that
 Services contract to enhance the cultural   all WPPS personnel complete
 awareness of assigned personnel, acquaint   the Iraq Cultural Awareness
 them with diplomatic structures and         training program developed
 procedures, and familiarize them with       by the DS Training Center
 Multi-National Force-I tactics,             and the online ``Working in
 techniques, and procedures.                 an Embassy'' course offered
                                             by the Foreign Service
                                             Institute.
                                            --This recommendation is
                                             complete. (06/05/08)
-------------------------------------------
8. To tighten the ground rules for the use  --The Departments of State
 of deadly force, and to ensure greater      and Defense agreed upon
 parallelism with USCENTCOM rules on the     common principles for the
 use of force by contracted security in      Rules for the Use of Force.
 Iraq, the U.S. Mission Firearms Policy     --The updated Mission
 should be revised to specify, without       Firearms Policy
 limiting the inherent right to take         incorporating these revised
 action necessary for self-defense, if an    Rules for the Use of Force
 authorized employee must fire his/her       was signed into effect by
 weapon, he/she must fire only aimed         the DCM on February 2,
 shots; fire with due regard for the         2008.
 safety of innocent bystanders; and make    --This recommendation is
 every effort to avoid civilian              complete. (02/26/08)
 causalities.
-------------------------------------------
9. The Regional Security Office (RSO)       --To date, video recording
 should be provided video and audio          systems have been installed
 recording equipment for each security       into 133 mission vehicles
 vehicle, audio recording equipment in the   throughout Iraq, and
 Tactical Operations Center to record all    installation continues.
 radio transmissions; and computer          --The radio recording system
 enhancements to record all Blue Force       in the RSO's Tactical
 Tracking Data.                              Operations Center is
                                             operational, and all
                                             Embassy radio transmissions
                                             are recorded.
                                            --Post implemented long-term
                                             recording of all BFT data.
                                             BFT data is stored on
                                             external hard drives,
                                             expanding retention
                                             capabilities.
-------------------------------------------
10. The Regional Security Office should     --For operational security
 place a readable number (like a license     reasons this action is
 plate) on the right rear door of each       being reviewed. The issue
 vehicle utilized, to enable anyone          will be discussed with the
 wishing to question its mode of operation   Iraqi Ministry of Interior
 to identify the unit of the Regional        during licensing and
 Security Office, which can then review      registration discussions.
 the matter and take appropriate action.
-------------------------------------------
11. The Regional Security Office should     --The RSO established a
 establish a ``Go Team'' that would          dedicated Force
 proceed as soon as possible to the scene    Investigation Unit (FIU)
 of any weapons discharge to gather          and reached an agreement
 information and material and provide an     with MNF-I for military
 analysis of what happened and why, and      security support for
 prepare a report. The Team would work       investigators.
 with representatives of the appropriate    --DS awarded a contract to
 Government of Iraq offices and the U.S.     provide 8 investigators, 2
 military unit responsible for the           translators, and 1 Senior
 location.                                   Police Advisor/Liaison
                                             contractor personnel to
                                             support the FIU.
                                            --The vendor (USIS) is
                                             currently recruiting
                                             personnel, making
                                             arrangements for training,
                                             and submitting personnel
                                             for required security
                                             clearances. The FIU support
                                             contractors are expected to
                                             deploy to Iraq in July
                                             2008.
                                            --This recommendation is
                                             complete.
-------------------------------------------
12. An Embassy Joint Incident Review Board  --The Deputy Chief of
 should be established to review all         Mission (DCM) approved an
 incidents involving the use of deadly       Action Memo establishing
 force which are known or asserted to have   the framework and process
 caused injury or death or other serious     for convening an Embassy
 consequences. The Board should be chaired   Joint Incident Review
 by the Deputy Chief of Mission and other    Board. The Board has not
 members should be the Regional Security     yet had cause to meet.
 Officer, another civilian embassy officer  --This recommendation is
 with a law enforcement background from an   complete. (06/06/08)
 agency other than State or Justice, and a
 military officer designated by MNF-I. The
 Board would hear from the Assistant
 Regional Security Officer (A/RSO) who was
 in the motorcade, review the statements
 provided by the security personnel
 involved, as well as any protectee(s),
 plus the Go Team report, and then make a
 recommendation to the Ambassador on
 whether or not the use of force appears
 justified. If it does not feel that it
 was justified, the Department should be
 informed to notify the Department of
 Justice.
-------------------------------------------
13. The Regional Security Office and MNF-I  --A permanent working group
 should establish a permanent working        was established in November
 group to develop commonly agreed            2007.
 operational procedures; establish a        --In December 2007, the
 robust liaison element; exchange            Deputy Secretaries of State
 information; ensure optimal situational     and Defense signed a
 awareness; and ensure that any issues are   Memorandum of Agreement to
 discussed and quickly resolved.             define the authority and
                                             responsibility for the
                                             accountability and
                                             operations of private
                                             security contractors in
                                             Iraq.
                                            --This recommendation is
                                             complete. (11/16/07)
-------------------------------------------
14. In addition to the above, three         --Electronic tracking issues
 specific items should be on the agenda      were addressed to
 for the first meeting..                     everyone's satisfaction by
--Ensuring that the planning, coordinating   Command Post of the Future,
 and routing information which currently     Blue Force Tracker, and
 flows from the Regional Security Office's   TAPESTRY. (11/16/07)
 Tactical Operations Center (TOC) to Multi- --The RSO and MNC-I
 National Force-Iraq (MNF-1) liaison         exchanged liaison officers
 elements located in the TOC and posted to   in their respective
 the U.S. Military's Command Post of the     Tactical Operations
 Future (CPOF) system, is available          Centers.
 electronically to all operating elements   --This recommendation is
 under MNF-I;.                               complete. (05/08/08)
--Providing TOC Spot Reporting              --RSO Spot Report language
 electronically to any subordinate           entered into MNF-I Combined
 military element that wishes to receive     Information Data Network
 it directly;.                               Exchange (CIDNE) database
--Coordinating the provision of              by the MNF-I liaison
 frequencies for the military radios and     officer. This
 the RSO has ordered to enhance              recommendation is complete.
 coordination..                              (11/16/07)
                                            --The RSO received 142 PRC-
                                             152 radios, which have been
                                             loaded and configured with
                                             DOD-compatible channels.
                                             This recommendation is
                                             complete. (04/10/08)
-------------------------------------------
15. Coordination with MNF-I elements could  --Post received 142 PRC-152
 be further enhanced if the pending order    radios.
 for Harris Corporation Model PRC-110       --All radios have been
 radios were received. The Department of     loaded and configured with
 State should intervene, including with      DOD-compatible channels and
 DOD as necessary, to obtain these units.    were distributed to RSO
                                             protective security teams.
                                            --This recommendation is
                                             complete. (04/10/08)
-------------------------------------------
16. When the ``Go Team'' is not involved    --Pattern analysis software
 in investigating incidents, it should be    was identified, tested,
 employed in pattern analysis. The           modified, and Beta tested.
 Diplomatic Security service in Washington  --DS/SI/IS received and
 should provide the RSO with a relational    evaluated final version of
 database to be used to review incidents     revised software.
 and determine potential patterns. Such a   --Final version of pattern
 database would include the following.       analysis software should be
                                             installed at Post during
                                             June 2008.
                                            --This recommendation is
                                             complete.
  1. Date and Time of incident............
  2. Destination and GPS coordinates......
  3. GPS coordinates of incident..........
  4. Mission identifier...................
  5. Vehicle identification numbers.......
  6. Incident type........................
  7. Names of all security personnel
   involved and their assignments in the
   motorcade.
  8. Such other details as would be useful
 
Data on each event would be input promptly
 after it occurs. Weekly reports should be
 generated to look for potential patterns
 that would call for systemic or
 individual changes.
-------------------------------------------
17. The Embassy should use the venue        --The DCM, Embassy Legal
 afforded by the Iraqi-U.S. Joint            Advisor, RSO, and MNF-I are
 Commission to establish a working group     involved in discussions
 to determine ways to move the licensing     with Iraqi officials
 process forward in an open and              concerning private security
 transparent way.                            company licensing and
                                             registration processes.
                                            --This recommendation is
                                             complete. (05/08/08)
-------------------------------------------
18. The Regional Security Officer should
 establish direct channels to senior Iraqi
 police and security officials in Baghdad
 and in any other city where Provincial
 Reconstruction Teams are located. This
 should be a major step towards providing
 information on incidents in a timely way
 so that they can be appropriately
 investigated.
--The RSO had multiple meetings with
 senior Iraqi officials at the National
 Police, Ministry of Interior, and
 Ministry of Defense and developed working
 agreements on coordination, liaison, and
 mutually supportive engagement..
--RSO personnel serving at Regional
 Embassy Offices (REOs) and Provincial
 Reconstruction Teams (PRTs) have also
 established relations with local Iraqi
 police and security officials..
--This recommendation is complete. (11/16/
 07).
-------------------------------------------
19. In order to be more responsive to       --As part of the
 Iraqi customs, the Embassy must actively    investigative process, the
 seek out the families of those innocent     RSO coordinates with MNF-I
 Iraqi civilians killed or seriously         and the Government of Iraq
 injured, or those whose property has been   to facilitate victim access
 damaged by Personal Protective Services     to the Embassy Claims
 personnel. The Regional Security Office     Program.
 ``Go Team'', assisted by the U.S.          --This recommendation is
 military unit responsible for the area in   complete. (11/16/07)
 which an incident has occurred, should
 work with counterparts designated by the
 Government of Iraq to promptly offer
 appropriate condolences and compensation.
------------------------------------------------------------------------

    The high number of Special Agent positions required in Iraq and 
Afghanistan, now 97 total, plus those agents in predeployment training 
impacts our domestic operation. The 1-year tours, training requirement, 
and transfers impact our ability to keep qualified agents and 
continuity in our programs from which the positions were drawn--
passport, visa, and identity fraud; internal investigations; protective 
intelligence investigations; special programs; mobile security 
training; and field offices. In addition, TDY support to Iraq has 
drained our Office of Mobile Security Deployments by up to 40 percent 
of the staff (30 of 72) being deployed to Iraq at the same time. This 
impacts our ability to meet critical mission-support requirements in 
other areas of the world, such as Afghanistan, Beirut, Sudan, etc. We 
have increased the number and sizes of our instruction classes to 
accommodate the special hard-skills training that is required in the 
high threat environment of Iraq. This has placed additional demands on 
our training staff and we have begun to set up an interim training 
facility to meet these requirements. With no training float, a Special 
Agent who is in training leaves an operational position vacant.

    Question. From your perspective, can you comment as to whether DOD 
(nonmilitary) motorcades are operating under the same requirements; 
specifically are they putting the equivalent of a Federal agent (or a 
uniformed officer) in each motorcade? Have (nonmilitary) DOD motorcades 
installed cameras in its vehicles? Etc?

    Answer. The Secretary of State's Panel on Personal Protective 
Service in Iraq did not focus on Department of Defense (DOD) operations 
nor did the recommendations. Specific questions regarding DOD 
operations and equipment are appropriately answered by the Department 
of Defense. However, I do not believe that DOD motorcades have a 
Federal agent or uniformed officer in each motorcade, nor do I have 
confirmation they have installed cameras or recording equipment in all 
DOD vehicles.

    Question. Iraqis say civilian motorcades and civilian contract 
security are one of their biggest grievances. Please provide a 
breakdown of all PSD contractors in Iraq including: (a) How many 
operate under the auspices of the Department of State, DoD, USAID, 
other agencies? (b) About how many work for other governments? (c) 
Others? (d) Are those who protect NGO, aid workers and others 
reconstruction contractors covered by any sort of U.S. law or 
regulation? How many would that be? (e) What percentage of movements in 
Iraq are State Department motorcades compared to OSD motorcades?

    Answer. The Department of State only maintains data on Department 
of State contractors and, regrettably, cannot answer many of these 
specific questions. The Department of State provides protective 
security for USAID direct-hire employees and other employees under 
chief of mission authority but not for other government, NGOs, or other 
reconstruction efforts. The first table attached below provides 
staffing information. The second table provides WPPS movement data for 
2007 and 2008.

                                      WPPS II IRAQ AND AFGHANISTAN STAFFING
----------------------------------------------------------------------------------------------------------------
                                                                 Protective
                                                                  security                 Static
          Task Order               Location        Contractor    specialist   Support      guard        Total
                                                                    (PSS)
----------------------------------------------------------------------------------------------------------------
004..........................  Kabul..........  Blackwater.....          78         21           20          119
006..........................  Baghdad........  Blackwater.....         474         80            0          554
007..........................  Basrah/Tallil..  Triple Canopy..          80         33    166 *(45)   279 *(158)
008..........................  Al Hillah......  Blackwater.....          77         17          162          256
009..........................  Kirkuk/Erbil...  DynCorp........          78         23           52          153
010..........................  Iraq Aviation..  Blackwater.....          50        108            0          158
----------------------------------------------------------------------------------------------------------------


 
                            h1h1h1h1
 
Iraq and Afghanistan Authorized Staffing........................        837        282          400        1,519
Actual Staffing to Reflect TO-7 Basrah Transition...............        837        282         279*        1,398
-----------------------------------------------------------------
 


                                                                           JAN 2008--CURRENT MONTH WPPS MOVEMENT DATA
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              Total
           Task order                   Location            Contractor        ground    Average     Jan     Feb     Mar     Apr     May     Jun     Jul     Aug     Sep     Oct     Nov     Dec
                                                                             missions  per month
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
6...............................  Baghdad............  Blackwater.........      4,257        851     964     814     632     686   1,161
7...............................  Basrah/Tallil......  Triple Canopy......      1,034        207     181     197     259     156     241
8...............................  Al Hillah..........  Blackwater.........        140         28      17      17      28      25      53
9...............................  Kirkuk/Erbil.......  DynCorp............        646        129     119     129     128     149     121
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


 
 
 
2008 Total Iraq Missions (all WPPS      6,077
 contractors).....................
2007-2008 Total Iraq Missions (all     18,664
 WPPS contractors)................
-----------------------------------
 


                                                                                     2007 WPPS MOVEMENT DATA
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              Total
           Task order                   Location            Contractor        ground    Average     Jan     Feb     Mar     Apr     May     Jun     Jul     Aug     Sep     Oct     Nov     Dec
                                                                             missions  per month
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
6...............................  Baghdad............  Blackwater.........      9,574        798     708   1,102     943     726     721     784     804   1,104     579     558     881     664
7...............................  Basrah/Tallil......  Triple Canopy......        930         78       3       7      12       3       7       9      87     100     111     202     166     223
8...............................  Al Hillah..........  Blackwater.........        364         30      31      32      36      38      43      39      29      26      23      26      26      15
9...............................  Kirkuk/Erbil.......  DynCorp............      1,719        143     132     118     104      97     173     168     164     203     150     114     143     153
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


 
 
 
2007 Total Iraq Missions (all WPPS     12,587
 contractors).....................
2007-2008 Total Iraq Missions (all     18,664
 WPPS contractors)................
--------------------------------------------------------------------------------------------------------------------------------------------------------
 
The above numbers include missions with protectees, as well as support and administrative missions.

    Question. How are non-WPPS PSD's contracted and licensed by the 
GOI? Are WPPS contractor so licensed? Are the Iraqis capable of 
overseeing and enforcing this process? Are we helping them build that 
capacity?

    Answer. First part of question: The Department of State does not 
contract for other PSD services outside of WPPS.
    Second part of question: The Iraqi licensing process involves the 
Ministries of Interior and Trade, and security company licenses must be 
renewed every 6 months. WPPS contractors Triple Canopy and DynCorp are 
currently licensed by the central Government in Baghdad. Blackwater's 
application for a license is currently pending. The Government of 
Kurdistan has recently imposed a licensing requirement on security 
companies, separate from the Iraqi Government requirement. DynCorp, 
which provides services in Kurdistan, is applying for its Kurdistan 
license.
    [NEA must provide the answers to the rest of this question.]

    Question. Do you feel we have adequate feedback on the performance 
of PSD movements--in Iraq and elsewhere? Have you considered having a 
``report card'' filed by the principal passenger after each movement to 
provide feedback on how procedures and interactions with locals were 
handled? Would this be a useful tool?

    Answer. The office of the Regional Security Officer (RSO) feels 
that they do receive adequate feedback, both positive and negative, 
from the embassy community on the performance of the PSD teams. On May 
11, 2008, the RSO office distributed an updated security notice, 
regarding the Personal Security Detail (PSD) policy for chief of 
mission personnel. In the notice it states ``The Regional Security 
Office is committed to working collegially and professionally with 
Mission personnel in accomplishing their objectives. Should you have 
any questions regarding this policy, or wish to provide feedback 
regarding our services . . .'' The notice then lists the Deputy RSO for 
the High Threat Protection program as the point of contact.
    With the addition of a Special Agent in the protective motorcades, 
the RSO also receives daily summaries detailing trip movements that 
note any areas of concern. This may be viewed as a ``report card.'' The 
RSO office is also in the process of surveying the embassy community 
regarding their views on PSD operations. The survey asks respondents to 
comment on such questions as, ``Do RSO personnel act professionally on 
the venue site? Do RSO personnel treat Iraqi citizens with respect? Do 
RSO personnel treat passengers with respect?'' The RSO office will use 
this important feedback mechanism to monitor performance and make 
management decisions regarding PSD operations.

    Question. Discuss the procedures used to ensure that weapons that 
are shipped/carried into Iraq for use by PSD's and other nonmilitary 
forces do not fall into the wrong hands? In doing so, please provide 
the ``blanket'' diplomatic note agreed between the United States 
Government and Government of Iraq (signed by the GOI on 14 August 
2004), which addresses end-use, retransfer, and security assurances, 
now accepted in lieu of normal license conditions as would be reflected 
in standard DSP-83s, for direct commercial arms sales to the Government 
of Iraq. Does this ``blanket'' diplomatic note also apply to any sales 
done under the Foreign Military Sales (FMS) program?

    Answer. Every Department of State Protective Security Detail weapon 
in Iraq is U.S. Government-procured and shipped via secure means. All 
weapons used by WPPS contractors are government furnished equipment. 
The WPPS contract requires quarterly inventories of all government 
furnished equipment, including weapons. The WPPS Program Office 
validates these inventories during periodic visits to the field. In 
addition, the Regional Security Office is required to do an annual 
sight inventory of all Diplomatic Security weapons, which includes 
every weapon used by WPPS contractors. Diplomatic Security's Defensive 
Equipment and Armored Vehicle Division (DEAV) Branch validates the RSO 
inventory against a master inventory of all DS weapons.
    The agreement regarding grants under the Foreign Assistance Act of 
1961, as amended, or successor legislation, and such items as the 
Government of the United States of America may otherwise furnish, or 
authorize under the furnishing of, from time to time, under other 
authority, to the Government of Iraq, effected by an exchange of notes 
at Baghdad, July 24 and August 14, 2004, does not apply to defense 
articles or defense services provided pursuant to the Foreign Military 
Sales Program. Such defense articles and defense services are subject 
to the requirements of the relevant Letters of Offer and Acceptance. It 
is my understanding that a copy of the diplomatic note has been 
provided to your staff.


                              NOMINATIONS

                              ----------                              


                        THURSDAY, JUNE 19, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Beyrle, John R., to be Ambassador to the Russian Federation
Chaudhry, Asif, to be Ambassador to the Republic of Moldova
Culbertson, James, nominated to be Ambassador to the Kingdom of 
        The Netherlands
Girard-diCarlo , David F., to be Ambassador to the Republic of 
        Austria
Kaidanow, Tina S., to be Ambassador to the Republic of Kosovo
Reeker, Phillip Thomas, to be Ambassador to the Republic of 
        Macedonia
Silverberg, Kristen, to be the U.S. Representative to the 
        European Union
Yovanovitch, Maria L., to be Ambassador to the Republic of 
        Armenia
                              ----------                              

    The committee met, pursuant to notice, at 2:15 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin 
Cardin presiding.
    Present: Senators Cardin, Lugar, Menendez, and DeMint.
    Also present: Senators Levin, Specter, Burr, Elizabeth 
Dole, Cornyn, and Robert Dole.

           OPENING STATEMENT OF HON. BENJAMIN CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. The Committee on Foreign Relations will 
come to order. I want to thank Chairman Biden for giving me the 
opportunity to chair today's hearing.
    This is a very important hearing. We are considering eight 
nominees for very important positions representing our country 
in Europe. I want to thank all of the nominees for their public 
service and thank their families for the sacrifices that they 
have made and particularly the nominees' willingness to come 
forward to serve our country.
    Europe is very important to the United States. 
Historically, it's important to this country. We have had a 
strong tie between the United States and Europe. I have had the 
opportunity to personally visit Normandy where valiant American 
soldiers, together with our allies, mounted an invasion that 
would change the course of European history. One hundred 
eighty-three Marylanders are among those interred in the nearby 
cemetery, the final resting place for thousands of Americans.
    I would like to point out that since 1975 and the Helsinki 
Accords that were entered into that year, institutionalized 
regional organization where the United States played a critical 
role in developing strategies with our European allies dealing 
with security, economics, and human rights. So this has been a 
relationship that has grown over the years. Some of our top 
priorities have been to deal with combating corruption, human 
trafficking, sexual exploitation of children, as well as 
fighting anti-Semitism and forms of intolerance and promoting 
fundamental freedoms in democratic governance.
    Today's hearing, we will have an opportunity to hear from 
eight individuals in two panels. The first panel will be Mr. 
James Culbertson, nominated to be the Ambassador to the Kingdom 
of The Netherlands, Mr. David F. Girard-diCarlo to be 
Ambassador to the Republic of Austria, Ms. Kristen Silverberg 
to be the U.S. Representative to the European Union with the 
rank and status of Ambassador.
    In the second panel, we'll hear from Mr. John R. Beyrle to 
be Ambassador to the Russian Federation, Mr. Asif Chaudhry to 
be Ambassador to the Republic of Moldova, Ms. Tina S. Kaidanow 
to be Ambassador to the Republic of Kosovo, Mr. Phillip Thomas 
Reeker to be Ambassador to the Republic of Macedonia, and Ms. 
Maria L. Yovanovitch to be Ambassador to the Republic of 
Armenia.
    We are very honored to have many of our colleagues here 
today. I'm going to ask Senator Dole to lead off. Senator Dole, 
of course, a very distinguished Member of the United States 
Senate, a long history of leadership in this country, but one 
role that really I want to just bring out was his leadership on 
the Helsinki Commission when he was in the United States 
Senate, and I think really elevated the Commission to a very 
important part here in the United States and Europe.
    Senator Dole, it's always a pleasure to have you back 
before our committee.

                 STATEMENT OF HON. ROBERT DOLE,
                    U.S. SENATOR FROM KANSAS

    Senator Robert Dole. There's another Dole's name up here, a 
real Senator, but I need to go first so I can go home and get 
dinner ready. [Laughter.]
    I have the great privilege today to introduce a woman to 
this panel who's highly qualified to be Ambassador of Armenia. 
Maria Yovanovitch is someone I've known and someone I've worked 
with and someone I know that will do an outstanding job. She's 
been the Ambassador to Kyrgyzstan and I've been there and I've 
seen how she's worked with American Manas Base and which is 
very important when it comes to Afghanistan and I met with the 
President of Kyrgyzstan and he told me what a great job she'd 
been doing and how she had worked out some of the problems that 
they had with America and so this is a country of particular 
interest to me, Armenia, and somebody may wonder why. So I'll 
tell you in about one minute.
    My history with Armenia goes back more than 60 years. As I 
recovered from World War II wounds--I was wounded late in the 
war and all the good doctors were leaving the Army hospitals--
and so I was running around the country looking for a miracle 
to put me back to where I was before and I met a doctor in 
Chicago, then Wesley Hospital. An Armenian American named Dr. 
Kalikian who has written books on orthopedic surgery and his 
son, Arman, is now a great orthopedic surgeon in Chicago.
    But to make a long story short, I spent a great deal of 
time with him. He became almost a second father and operated on 
me at least a half a dozen times and wouldn't let me pay him 
one cent because he had lost a brother in World War II and so 
I've had contact with--oh, uh-oh. I better get back to my 
original text.[Laughter.]
    But I think his treatment, just to show his gratitude to 
this great country of ours and it's been, as I said, a blessing 
for me and I've been a strong supporter of the Armenian 
community and the people of Armenia. I've been there a few 
times. I planted a tree in honor of Dr. Kalikian and I've seen, 
you know, the country's got some very serious problems. They 
need an ambassador. They've been without one for almost 2 
years.
    If it weren't for Kirk Kerkorian, I'm not certain what 
would be happening in that country and he's a very modest man, 
but I can tell you if you add up what he's been doing as far as 
housing and streets and highways and hotels, libraries and 
schools and businesses, I've got to believe it adds up to 
hundreds and hundreds of millions of dollars that this one 
Armenian American has spent trying to help his fellow Armenians 
and I think he's been there but once.
    But in any event, the country's per capita GDP is less than 
$2,000 and it's politically weak and they need help and they're 
listed now as only partly free and so they can't get enough 
money from remittances from Armenians who live in America.
    So the point is, is they need an ambassador and it just 
happens that we have an outstanding person who I think will do 
an outstanding job. As I said, I got to know Marie in her work 
in Kyrgyzstan and I met with the President of Kyrgyzstan. We've 
talked about her stewardship there. She's made a very serious 
contribution to our national interests in securing our 
airport's base and establishing a constructive relationship 
with the government after what they call the Tulip Revolution 
in 2005.
    So she knows all about the Stans countries which is another 
one of her best friends is former Ambassador Beth Jones of 
Kazakhstan and they worked closely together when Beth was in 
the State Department.
    So for all those reasons, Marie reminds me a little of the 
children of Dr. Kalikian. She is the daughter of immigrants who 
escaped the horrors of the homelands and gained a second chance 
in the United States and like them, she worked hard. Nobody 
gave her anything. She worked for everything that's happened to 
her. She attended Princeton, one of our Nation's greatest 
universities, and she's sort of a tribute or a symbol of 
America, ``the land of opportunity,'' and she's career Foreign 
Service, and I recommend her to this committee and I say God 
Bless America and God Bless Armenia.
    Senator Cardin. Thank you very much.
    Senator Robert Dole. I'll have dinner ready by 6:30. 
[Laughter.]

               Prepared Statement of Senator Robert Dole

    Mr. Chairman and distinguished committee members, it's my privilege 
to introduce Ambassador Marie Yovanovitch to this committee. Marie was 
previously confirmed to serve as our Ambassador to Kyrgyzstan and has 
now been nominated to serve in Armenia.
    As many of you are aware, my history with Armenia goes back more 
than 60 years. As I recovered from grave wounds in World War II, Dr. 
Hampar Kelikian, an Armenian immigrant surgeon, helped to restore my 
health and operated on me repeatedly--for free, in selfless gratitude 
for the opportunity and success he enjoyed in his new homeland.
    Since then, I've been a friend and supporter of the Armenian-
American community, the people of Armenia, and the country itself--
including its independence and political and free-market development.
    It is vital that Armenia and it's American benefactors concentrate 
on this development. Armenia's post-independence brain-drain represents 
a serious crisis. The country's per capita GDP is less than $2,000. 
It's political class is insular and weak.
    Seventeen years after independence, Freedom House ranks it as only 
a ``partly free'' country--and it is one that needs more than 
remittances from Armenian-Americans to make it in today's global 
economy.
    Armenia has needed an American ambassador for the past couple of 
years. Today, it especially needs Ambassador Yovanovitch. I had the 
privilege of getting to know Marie and her work during her tenure in 
Kyrgyzstan. I met there last year with President Bakiyev, who spoke 
highly of the Ambassador and her work.
    In her time in Kyrgyzstan, Marie made a serious contribution to our 
national interests in securing our air force base and establishing a 
constructive relationship with the government after the 2005 ``Tulip 
Revolution.''
    Marie's expertise in the ``Stans'' and the former Soviet Union is 
particularly strong, as is her appreciation of Armenia and it's 
diaspora.
    Marie reminds me of the children of Dr. Kelikian. Like them, she is 
the daughter of immigrants who escaped the horrors of their homelands 
and gained a second chance in the United States.
    Like them, she worked hard. She attended Princeton, one of out 
Nation's finest universities. Marie is a tribute to our ``land of 
opportunity'' and to our Foreign Service. I wholeheartedly recommend 
her to you.
    Thank you. God Bless America, and God Bless Armenia.

    Senator Cardin. We will now recognize the Senator Dole that 
has a vote.

               STATEMENT OF HON. ELIZABETH DOLE,
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Elizabeth Dole. Well, Chairman Cardin, Ranking 
Member Lugar, certainly it's a great privilege to introduce Mr. 
James Culbertson of North Carolina who's been nominated by the 
President to serve as our 64th Ambassador to the Kingdom of The 
Netherlands.
    It's also important at this time to express gratitude to 
the late Ambassador Roland Arnald who previously held the post 
until just 10 days before his death last March. He served our 
country with great distinction and the post of ambassador has 
since remained vacant.
    Today, I'm honored to come before the committee to express 
my strong support for Jim Culbertson's nomination. My husband, 
Bob Dole, and I have known Jim and his supportive, very 
supportive and talented wife, Germaine, for many years and I 
submit to you today that Jim is amply qualified to join the 
ranks of our diplomatic corps.
    Indeed, the United States is blessed to have leaders like 
Jim willing to serve in our embassies overseas, and I'm 
confident he will serve at The Hague with great distinction as 
our ambassador.
    Jim is an American patriot and military veteran. He 
graduated from The Citadel with honors, meaning the top 8 
percent of his class, and afterward served our country as an 
intelligence officer in the United States Army.
    He currently serves as Commissioner on the American Battle 
Monuments Commission, guarding America's overseas cemeteries 
and memorials which honor the service, achievements, and 
sacrifice of the United States Armed Forces at 24 sites around 
the world.
    Jim is also a successful innovator, entrepreneur, and 
business leader. He founded and then served 26 years as 
president of Financial Computing, Incorporated, which provides 
financial application software and hardware to automobile 
dealers and community banks.
    As a business leader, he has also served as a member of the 
North Carolina Economic Development Board which oversees North 
Carolina's economic development research and planning and makes 
policy recommendations.
    As a member of the board, Jim works side-by-side with State 
Government officials, elected officials, nonprofits, economic 
development organizations, and private industry in developing a 
comprehensive economic development plan and then advocating and 
holding entities accountable for the implementation of the 
plan.
    Jim also served as a member of the North Carolina Banking 
Commission, responsible for regulating almost all of the 
financial institutions operating in the State, banks, trust 
companies, brokers, and other consumer finance companies. As a 
business owner, himself, Jim also served on the National 
Federation of Independent Business National Board, promoting 
the priorities and growth of small and independent businesses 
in the marketplace and around the country.
    In keeping with his civic responsibilities, Jim has served 
on the board of the American Council for Young Political 
Leaders, as well as the Board of the Fund for American Studies, 
and let me just add here that I can recall when Bob Dole and I 
were dating and he was----
    Senator Robert Dole. He was in high school at the time.
    Senator Elizabeth Dole. Yeah. I went off on a trip with the 
American Council for Young Political Leaders. There were 11 
Republicans and 11 Democrats, 22 of us, and Bob said, ``What? 
Where are you going?'' I said, ``I'm off to Japan for three 
weeks,'' and I want you to know, since he happens to be sitting 
beside me today, that when I got back, he met me with an 
engagement ring and a dozen roses. So that trip was very 
productive, Jim. I think he missed me.
    But both of these organizations, focusing on the youth of 
our country, promote international exchange and dialog. Through 
his work in this effort, students from across the country, like 
myself in those days, and around the world have the benefit of 
knowing the value of freedom and democracy. Future foreign 
leaders now know future American leaders and those 
relationships are fostered through the years.
    This is the type of endeavor that uses the full force of 
U.S. diplomacy and the type of effort the 9/11 Commission 
recommended to us. Jim Culbertson had the foresight to already 
be personally involved in this type of activity. He's exhibited 
strong leadership in the past and I have every confidence that 
he will continue to show that strong leadership and good 
judgment as our Ambassador to the Netherlands.
    If confirmed, Jim will be responsible for promoting and 
protecting United States interests in the Netherlands, a 
country with which the United States has long shared a 
beneficial relationship. The partnership between the United 
States and the Netherlands dates back to the American 
Revolution and it's one of our country's oldest continuous 
relationships.
    The United States and the Netherlands share common ideals, 
a common dedication to individual freedom and human rights. Our 
two countries also have strong economic ties where Jim's 
economic background will serve us well.
    The Netherlands is the third largest direct foreign 
investor in the United States and the United States is the 
third largest direct foreign investor in The Netherlands. 
Dutch, like us, believe in a market-led economy and in Jim, we 
will have an ambassador who embodies a market-driven economy.
    From our economic, commercial, and trade relationship to 
our partnerships in foreign aid and global security, Jim 
Culbertson will continue strong United States-Dutch relations. 
With his vast experience and numerous talents, Jim Culbertson 
is the right person to be our chief representative to the 
Kingdom of the Netherlands, possessing the critical diplomatic 
and leadership skills needed to succeed in this important 
position.
    Mr. Chairman, Senator Lugar, you have a wonderful nominee 
before you today, and I thank you for the privilege of 
expressing my views.
    Thank you.
    Senator Cardin. Senator Burr, you're here also on the same 
nominee?
    Senator Burr. I am, Mr. Chairman.
    Senator Cardin. Why don't you proceed at this point.

                STATEMENT OF HON. RICHARD BURR,
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Mr. Chairman, thank you. Senator Lugar, I 
thank you, and Senator Menendez.
    I looked down the list of nominees and I'd like to speak 
for all of them. I'm not sure all of them would have me do it 
but I feel like I know most of them and this is an unbelievable 
group.
    Mr. Chairman, I'm honored to be here to make an 
introduction for Jim Culbertson. In the fashion that she always 
displays, Senator Dole has mentioned everything that I could 
possibly talk about, but let me pick a few things that I think 
are important for the members here to know.
    One, he has a beautiful wife and Germaine's here, and she's 
joined by her daughter, their son-in-law, and two grandsons, 
and I say that so Jim won't forget to introduce them as he 
makes his remarks.
    The United States and the Netherlands have shared strong 
relationships since the earliest days of our Nation. This 
relationship grew into a deep friendship following the Second 
World War when Allied Forces, including two American Airborne 
Divisions, helped liberate the people of the Netherlands from 
Nazi occupation.
    Following World War II, most American servicemen returned 
to their homes and their families but many did not. In the 
Village of Margratten in the Netherlands, there is today an 
American cemetery that's the final resting place for over 8,000 
American soldiers. As the commissioner of the Battle of the 
American Battle Monuments Commission and as a veteran himself, 
Jim knows this place well, and I'm confident that he is the 
right man to continue and enhance the already strong 
relationship between our two countries.
    If confirmed, I have no doubt he will be the best person 
that has served this country there. A successful businessman, a 
wonderful husband, a father, Jim has in fact been serving the 
United States for many years and we in North Carolina are proud 
to call him our own.
    Following graduation at The Citadel, he was in the Army and 
the intelligence arena. As an accomplished small business 
owner, Jim initiated his foresight to start his own business in 
the early 1970s in my hometown of Winston-Salem. Today, 
Financial Computing, Inc., the business he founded and ran for 
almost 30 years, continues to be one of the most successful 
financial computing companies in the Southeast.
    Jim has also been a leader in his community, my community, 
and throughout North Carolina, serving on the Banking 
Commission and on the North Carolina Board of Economic 
Development where he contributed his talents and his time to 
enhance life for his fellow North Carolinians.
    He's been active on the national level. A 20-year member of 
the Board of Trustees of the Fund for American Studies, as 
mentioned, and has taken a leading role for over two decades in 
educating the next generation of young Americans on the values 
of freedom and democracy, the ideals he champions and embodies, 
and will continue to promote as United States Ambassador to The 
Netherlands.
    The United States relations, Mr. Chairman, in Europe are 
more important today than they've ever been since the fall of 
the Berlin Wall. Once again, we see a familiar Russia seeking 
to exert its influence throughout Eastern Europe and the 
Baltics. The Netherlands has been a committed friend in the war 
on terror and in combating the scourge of the international 
narcotics trade.
    This crucial time is why we need a man like Jim Culbertson 
with his deep understanding of business and foreign relations 
to cement the United States-Dutch relationship and reassert the 
United States support for a free and democratic Europe.
    Mr. Chairman, let me say out of all the qualities, out of 
all the experience that Jim brings to this nomination, let me 
say he's a good man. He's the type of person we would be proud 
to look at and refer to as our ambassador.
    I thank the chair.
    Senator Cardin. I thank our Senators for the introduction.
    Senator Levin.
    Senator Levin. Mr. Chairman, could I just put my statement, 
the full statement in the record?
    enator Cardin. Oh, absolutely. Without objection, your full 
statement will be made part of the record.

                 STATEMENT OF HON. CARL LEVIN,
                   U.S. SENATOR FROM MICHIGAN

    Senator Levin. Before Senator Dole leaves, the old Senator 
Dole, the ancient Senator Dole, no, the ancient one, I'm going 
to send this to you, this introduction of our new Ambassador to 
Russia because of the reference that it makes to a World War II 
hero whose story is one of the most extraordinary stories I've 
ever heard. I know you have to leave, but I want to send this 
to you.
    John Beyrle, who's the nominee's father, had an experience 
which is truly unique and this is kind of an emotional 
sentimental moment when kind of history's coming full circle 
for reasons you'll understand when you get my introduction, but 
I do want to, just before you leave, alert you to it and I'll 
send it out to you.
    Mr. Chairman and Senator Lugar, Senator Menendez, it's a 
pleasure here to be with you to lend my support to John 
Beyrle's nomination to be our Ambassador to Russia. It's an 
outstanding nomination, first and foremost, because of his 
distinguished career in the diplomatic service of this country, 
but it's also a wonderful nomination because of his family's 
history.
    I think that destiny had a hand in John Beyrle's 
appointment to be United States Ambassador to Russia. I'm going 
to take just a few minutes longer than I do customarily for 
reasons which you will shortly understand and, I think, 
appreciate.
    Usually I talk about the nominee first when introducing a 
nominee, but today I'm going to begin with the story of his 
dad, Joe Beyrle, truly one of the great members of the greatest 
generation and one of my personal heroes.
    Joe Beyrle was born in Muskegon, MI, and in 1944, John's 
dad, Joe Beyrle, now no longer alive, was called Jumping Joe 
Beyrle because he was an expert paratrooper who was selected 
for clandestine drops in Occupied France to supply the French 
Resistance with gold.
    He was captured on D-Day by the Germans. He was put into a 
prison camp, was repeatedly tortured, made a number of escapes, 
was recaptured, was tortured again. Finally, he showed such a 
dogged determination that he finally did escape in an effort to 
rejoin his unit.
    However, he didn't rejoin his unit, he wasn't able to get 
to it and instead hooked up with the Russian Army, and this was 
a very courageous decision, as you can imagine. He decided to 
join the Russian Army Tank Unit. It was commanded by a woman, 
by the way, and Joe actually helped the Russians to liberate 
the very same prisoner of war camp from which he had escaped.
    He was then wounded. He was sent to a Polish convent for 
treatment. He made a remarkable journey then to the American 
Embassy in Moscow and that's where the wheel comes full circle, 
where American officials had kept him under house arrest for a 
week because they thought he was a spy. The reason for that was 
that his dog tags had been somehow or other lost during this 
entire process and ended up on a dead soldier. His family was 
notified in 1944 that he had died and they held a memorial 
service in his church back in Muskegon.
    But it took about a week for the Americans in Moscow to 
finally determine that not only wasn't he a spy, he was a hero, 
and that he was who he said he was. He returned to a hero's 
welcome in Muskegon, MI, in May of 1945, and a little over a 
year later married his wife, JoAnne, and the service was 
officiated by the same priest in the same church where the 
funeral mass had been held for him in 1944. He is the only 
soldier that we know of that fought both with the American and 
Russian Armies against Nazi Germany and he was honored by 
Presidents Clinton and Yeltsin on the 50th Anniversary of D-
Day.
    Now his devotion to his country and his commitment to 
service live on in his son, John. John was born and raised in 
Muskegon. He graduated with honors from Grand Valley State 
University in Allendale, MI, received a Master's degree as a 
distinguished graduate from the National War College. His 
distinguished career in the Foreign Service has spanned more 
than two decades.
    During that time, he's held numerous policy positions in 
overseas assignments with an emphasis on United States 
relations with Russia and Central and Eastern Europe. Prior to 
his current appointment as the United States Ambassador to 
Bulgaria, John served as the deputy chief of mission at the 
United States Embassy in Moscow.
    In an editorial in his hometown paper, Muskegon Chronicle 
said that ``Beyrle's choice honors family and Nation and that 
the President has chosen well and our Nation will be well 
served by another Beyrle in Russia.'' We certainly will.
    Mr. Chairman, members of this committee, John Beyrle will 
do an outstanding job as our Ambassador to Russia. He will 
direct the work at the U.S. Embassy where a wounded and 
determined young paratrooper named Joe Beyrle sought refuge 68 
years ago. We're proud to support his nomination, Senator 
Stabenow and I both, obviously. Hess ready to continue that 
distinguished career of service to our country, and I only 
could wish that his mom and dad were still with us to 
experience this day.
    Thank you.
    [The prepared statement of Senator Levin follows:]

    Senator Cardin. Well, Senator Levin, thank you for sharing 
that story with the committee. We need to record the best that 
we can of what was done during World War II, and I think your 
introduction here honored World War II in our record. So we 
thank you for that.
    Senator Levin. Thank you.
    Senator Cardin. Senator Specter.

                STATEMENT OF HON. ARLEN SPECTER,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman, Ranking Member 
Lugar, and Senator Menendez.
    I congratulate the President on the nomination of David 
Girard-diCarlo to be Ambassador to Austria and I congratulate 
Mr. Girard-diCarlo for accepting this assignment at this stage 
of the administration.
    I'm honored to appear here with a man I've known really 
intimately for more than 30 years. We are fellow Philadelphia 
lawyers, but more broadly than that, we have both participated 
very, very extensively in the life of the city on community 
matters, on cultural matters, on civic matters, on governmental 
matters, on political matters, and very frequently I seek his 
counseling. Occasionally he seeks mine. So the President has an 
outstanding individual here.
    I will submit his resume which is too long to go into 
detail here, considering the number of witnesses which the 
committee has to hear, but just a couple of items.
    He took the helm of a law firm in Philadelphia, Blank, 
Rome, some 25 years ago, and it was a moderate size firm and it 
now has 1,200 professionals and is extraordinarily active and 
has many offices--eight in the United States--stretches all the 
way to Hong Kong, and he has been the driving force.
    In a move of his customary insights and sagacity, he 
recently decided to step down on an interval of a couple of 
years to give an opportunity for grooming and was heralded with 
his tide of managerial experience. He's been very active in so 
many corporations that I won't list them, but he took on the 
job of board chairman of the Greater Philadelphia Chamber of 
Commerce and served there with great distinction. He was on the 
disciplinary board of the Supreme Court of Pennsylvania, and 
his managerial experience, I think, suits him very well for 
being in Vienna which has so many different missions--mission 
to the United Nations and the mission on Organization for 
Security and Cooperation in Europe.
    At a time when the United States is in urgent need of its 
best and brightest, we have one here today. So I'm delighted to 
give him my unqualified recommendation which isn't based on 
hearsay, it's based on firsthand experience.
    Thank you. Senator Cardin. Senator Specter, thank you for 
your testimony.
    Senator Cornyn.

                 STATEMENT OF HON. JOHN CORNYN,
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Thank you, Mr. Chairman, and Senator Lugar, 
Senator Menendez.
    It's a pleasure to be here before you today to introduce to 
you an outstanding public servant and fellow Texan, Kristen 
Silverberg.
    I was just telling Kristen, she's come a long way from 
Alpine, TX, where she was born, and you'll see what I mean in 
just a minute.
    Ms. Silverberg's been nominated by President Bush to serve 
in the capacity of U.S. Representative to the European Union, a 
role I have no doubt she will fill with the same sort of 
commitment and dedication to excellence that she has 
demonstrated through her career up to this point.
    Ms. Silverberg currently served as the Assistant Secretary 
of State for International Organization Affairs, a position 
she's held since 2005. She's led her Bureau of the State 
Department in the advancement of U.S. foreign policy, strategic 
goals, and U.S. interests through multilateral diplomacy while 
ensuring that international organizations through which we work 
remain viable and effective.
    She's consistently demonstrated the experience, political 
acumen, and leadership ability required to represent the United 
States to the European Union.
    Before her appointment as Assistant Secretary, she served 
as Deputy Assistant to the President and Advisor to the Chief 
of Staff in the White House, a position in which she assisted 
in the coordination and development of White House policy.
    She's also served in the capacity of Deputy Assistant to 
President Bush for Domestic Policy, Special Assistant to the 
President in the White House Office of the Chief of Staff, and 
Senior Advisor to Ambassador Paul Bremer in the Coalition 
Provisional Authority.
    Ms. Silverberg holds a Bachelor's Degree from Harvard and a 
Doctor of Juris Prudence from the University of Texas where she 
graduated with high honors. She's served on the DC. Circuit 
Court of Appeals as a law clerk there and also for Justice 
Thomas on the Supreme Court.
    She's been recognized for her commitment to public service 
by the University of Texas and she's received a Secretary of 
Defense Outstanding Public Service Award for her service in 
Iraq and so it's with great pride that I recommend and present 
to the committee a great Texan, Kristen L. Silverberg.
    Senator Cardin. Thank you very much, Senator Cornyn.
    Senator Cornyn. Thank you.
    Senator Cardin. At this time, I would turn to Senator Lugar 
for any comments that you would like to make.
    Senator Lugar. Mr. Chairman, we can proceed to hear the 
witnesses.
    Senator Cardin. Thank you. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I have a lot of 
questions for the second panel, so I will wait to ask my 
questions.
    Senator Cardin. Thank you. We will start with Panel 1. We 
will start with Mr. James Culbertson, nominated to be the 
Ambassador to the Kingdom of the Netherlands.
    We would ask that if you have your family, that you please 
introduce your family to our committee, and again we very much 
appreciate your willingness to serve our Nation and the 
positions that you have been nominated for.

 STATEMENT OF JAMES CULBERTSON, NOMINEE TO BE AMBASSADOR TO THE 
                   KINGDOM OF THE NETHERLANDS

    Mr. Culbertson. Thank you, Senator Cardin. Yes, I do have 
my wife, Germaine. Would you stand, please? Next is the 
grandson, William, my daughter. Blair, grandson George, and 
son-in-law, James Robbins, and we're very happy to have all of 
them here today, I am anyway.
    Senator Cardin. We know this is a family effort, so we want 
to make sure the family gets acknowledged.
    Mr. Culbertson. Thank you. And would you like for me to 
proceed?
    Senator Cardin. Yes.
    Mr. Culbertson. Mr. Chairman and distinguished members of 
this committee, I am honored to appear before you today as the 
President's nominee to serve as United States Ambassador to the 
Kingdom of the Netherlands.
    I am grateful for the trust President Bush and Secretary 
Rice have shown in nominating me to represent our country to 
one of the oldest and strongest allies of the United States.
    Since graduating from The Citadel in 1960 and serving in 
the Army as an officer in military intelligence, I have 
maintained a keen interest in the politics and foreign policy 
interests of our country.
    If confirmed, I will bring my professional experiences and 
lifelong interests in community service to bear as chief of 
mission for our embassy in The Hague, and I must say Senator 
Dole and Senator Burr included many more things that I was 
going to say about my personal private life.
    I'm going to skip a lot of that and keep you from the 
boredom of hearing it again.
    I would like to say as a member of the Council of Young 
Political Leaders, I made three trips to Europe. We visited 
with our counterparts, Young European Leaders, and their 
government and on one of the trips, I did visit The Hague and 
Amsterdam.
    I'll skip the Economic Development Board. I would like to 
say a little more about the Fund for American Studies.
    We sponsored summer courses for college students from 
across America and the world at Georgetown since 1970 and we 
teach free markets, free government, and free and open 
journalism. We initiated similar arrangements with universities 
in Prague around 1991, in Greece in 1996, and in Hong Kong in 
2000, and we're getting ready to do one for South America.
    One word about our Greek institute. It's the most unique 
and held in Crete. It's comprised primarily of Israeli and Arab 
students with a sprinkling of American students and a few other 
Europeans, but I'd say at least 80 percent of them are from 
either Israelis or Arab and when they come there, they 
literally hate each other and by the closing week, we had our 
10th Anniversary over there in 2006, I believe, and which I 
attended, and they are literally dancing and partying together 
on closing week and in all of these institutes with our young 
people, we hope that these are the young leaders, whether it be 
politics or industry or whatever capacity, academic, that will 
be make it a little easier to live together peacefully.
    One quick word about the American Battle Monuments 
Commission I've served on Margratten in the Netherlands. You 
know, there are 8,301 of our veterans, war casualties buried 
there. It's rather unique. The Dutch people have adopted each 
grave--each one of those 8,301 graves--and they personally come 
out and bring flowers and paid appropriate moments, like 
Memorial Day, come out and visit and we even have a waiting 
list of Dutch citizens who want to service those graves--help 
us maintain those graves there.
    I'll skip everything about my business background and would 
like to offer a few words on how I would like to build upon our 
strong and enduring relationship with the Netherlands.
    The Dutch share our commitment to uphold freedom and 
alleviate poverty around the world. Leaders of a major military 
contingent in the dangerous Southern region of Afghanistan, the 
Dutch are also significant development partners in Afghanistan, 
Iraq, Latin America, and Africa. I will strive to enhance our 
military and development cooperation and expand Dutch support 
for peace, security, and democracy around the globe.
    The Netherlands, a nation of fewer than 17 million 
residents, is a key trading partner of the United States, and 
Senator Dole touched on that and I'll skip the next few 
sentences there.
    Our embassy has a goal to promote a greater and more 
favorable understanding of the United States and its policies. 
I would like to expand on a program of dialog and exchange that 
has won rave reviews from leaders in the Dutch Muslim community 
and contributed to enhanced mutual understanding.
    Mr. Chairman, members of the committee, thank you again for 
the opportunity to appear before you. With your consent, I 
pledge to serve our country to the best of my abilities.
    [The prepared statement of Mr. Culbertson follows:]

            Prepared Statement of James Culbertson, Nominee 
           to be Ambassador to the Kingdom of the Netherlands

    Mr. Chairman and distinguished members of this committee, I am 
honored to appear before you today as the President's nominee to serve 
as United States Ambassador to the Kingdom of the Netherlands. I am 
grateful for the trust President Bush and Secretary Rice have shown in 
nominating me to represent our country to one of the oldest and 
strongest allies of the United States.
    Please allow me to introduce my wife, Germaine. She will be an 
enormous asset to me, if I am confirmed, a most gracious representative 
of our country to the people of the Netherlands. Also, we have with us 
today our daughter, Blair, our son-in-law James, and our two grandsons, 
William and George Robbins<plus-minus>.
    Since graduating from The Citadel in 1960, and serving in the Army 
as an officer in the military intelligence branch, I have maintained a 
keen interest in the politics and foreign policy interests of our 
country. If confirmed, I will bring my professional experiences and 
lifelong interest in community service to bear as chief of mission for 
our embassy in The Hague.
    As a 6-year board member of the American Council of Young Political 
Leaders, which was composed of an equal number of young Democrats and 
young Republicans, I was a member of three State Department-sponsored 
delegations to Europe. In 1967, I first saw the Berlin Wall and went 
through Checkpoint Charlie for a brief visit to East Berlin. The stark 
image of communism, supposedly at its best, contrasted sharply with the 
freedom we enjoy, and remains vivid with me to this day. In 1970, our 
visit included stops in The Hague and Amsterdam. We were at NATO 
Headquarters in Brussels in 1974, and also visited to London and Paris. 
During all of these trips we were hosted by young European leaders and 
their governments.
    For 8 years, from 1985-1992, I served on the Governor's Economic 
Development Board in North Carolina. We undertook trade missions to 
other countries, as well as receiving trade missions to our State.
    For the last 20 years, I have been on the Board of Trustees for The 
Fund for American Studies. We have sponsored summer courses for college 
students from across America and the world since 1970 at Georgetown 
University, which teach free markets, democratic government, and 
journalism. We initiated similar arrangements with universities in 
Prague in 1991, in Greece in 1996, and in Hong Kong in 2000. Our Greek 
institute, which is held on the island of Crete, is our most unique. It 
is comprised primarily of Israeli and Arab students. Many arrive 
literally hating their counterparts from the other confession, but by 
the closing week, they are dancing and partying together. It is our 
fervent hope that one day they will be leaders in their countries and 
that this experience will hasten their living together peacefully.
    For the last 3 years, I have served on the American Battle 
Monuments Commission and have visited several cemeteries in France and 
Italy. Each is a moving reminder of our dedication to freedom and the 
sacrifices we have made to keep it secure.
    For 28 years, I owned a company which I started in 1972. We 
primarily sold financial software, but also sold the computers, 
printers, networks, etc., which the customer needed. Being a ``one stop 
shop'' gave us an advantage over our large, national, competitors who 
sold software only. My experience as the owner of a medium-size firm 
provided insight into the challenges of management and successful 
client relations.
    I would now like to offer a few words on how I would like to build 
upon our strong and enduring relationship with the Netherlands.
    The Dutch share our commitment to uphold freedom and alleviate 
poverty around the world. Leaders of a major military contingent in the 
dangerous southern region of Afghanistan, the Dutch are also 
significant development partners in Afghanistan, Iraq, Latin America, 
and Africa. I will strive to enhance our military and development 
cooperation and expand Dutch support for peace, security, and democracy 
around the globe.
    Since the tragic events of 9/11 and subsequent terrorist attacks in 
Europe, the Dutch have devoted increasing resources to counterterrorism 
and law enforcement. Six U.S. law enforcement agencies are represented 
at our mission, and I will work with these professionals to deepen law 
enforcement ties to combat terrorism, narcotics trafficking, human 
trafficking, and financial crimes.
    The Netherlands, a nation of fewer than 17 million residents, it is 
a key trading partner of the United States. As centers of global 
finance and innovation, we have invested billions of dollars in each 
other's economies and created hundreds of thousands of jobs. I intend 
to facilitate continued trade expansion and will explore new investment 
opportunities for U.S. firms.
    Our embassy has a goal to promote a greater and more favorable 
understanding of the United States and its policies. I would like to 
expand on a program of dialog and exchange that has won rave reviews 
from leaders in the Dutch Muslim community and contributed to enhanced 
mutual understanding.
    Mr. Chairman, members of the committee, thank you again for the 
opportunity to appear before you. With your consent, I pledge to serve 
our country and nurture our valued relationship with the Kingdom of the 
Netherlands to the best of my abilities.
    I would be happy to answer any questions you may have. Thank you.

    Senator Cardin. Thank you very much. We appreciate your 
testimony.
    I will now turn to Mr. David Girard-diCarlo to be 
Ambassador to the Republic of Austria.

              STATEMENT OF DAVID GIRARD-diCARLO, 
                AMBASSADOR-DESIGNATE TO AUSTRIA

    Mr. Girard-diCarlo. Thank you, Mr. Chairman, and thank you, 
Senator Lugar and Senator Menendez.
    I would like to introduce my wife of more than 35 years, 
who's been my closest friend and advisor and confidante over 
that period of time, my wife, Connie.
    Mr. Chairman, it's my understanding that my full remarks 
will be provided for the record, so I will try to summarize 
those remarks in the interest of time.
    I am honored to appear before you today as the President's 
nominee to be the United States Ambassador to the Republic of 
Austria.
    I am grateful for the confidence and trust that President 
Bush and Secretary Rice have placed in me to serve, if 
confirmed, as chief of mission. I certainly thank Senator 
Specter for his very gracious introduction.
    As you heard from Senator Specter, if confirmed, I would 
bring to this position more than 35 years of experience as a 
lawyer, an advocate, a leader, and a manager.
    Over the past 25 of those years, I've had the honor and 
privilege of leading Blank, Rome, LLP, a professional service 
firm. It is today comprised of over 1,200 individuals.
    As you heard, we have eight offices in the United States 
and one office in Hong Kong. I believe my management and 
leadership background will provide me the experience that is 
necessary not only to advance the United States interests with 
Austria but to help Embassy Vienna fulfill its multioffice 
location operations and I can, I think, ably help provide the 
joint management support that is necessary for the trimission 
that is in Vienna as well as some joint management 
responsibilities we have with the nearby embassy in Bratislava.
    As you heard from Senator Specter, in addition to my 
professional responsibilities, my experience over the past 
three decades has given me the opportunity to actively 
participate in the business and cultural organizations within 
the communities in which I have lived and worked.
    This participation has given me a very keen appreciation 
for the interconnections between the public and private 
sectors, and I have learned that when these two sectors work in 
concert with one another, the whole becomes much greater than 
the sum of the parts, thereby enriching the lives and spirit of 
the entire community.
     The public diplomacy programs that are so important for 
our country, such as the Fulbright Program, and other academic, 
cultural, professional exchanges, work on those same 
interconnections. To increase the understanding and knowledge 
of the United States, not just government-to-government but 
people-to-people, and if confirmed as ambassador, I would most 
heartily support those programs so that the people of Austria 
understand the many values and goals that we share.
    Mr. Chairman, as you know and we all know, Austria has a 
proud history and its capital, Vienna, is a world-renowned 
cultural center. It serves as an exemplar of democracy, 
freedom, stability, and prosperity and even though a small 
country, it has contributed to peacekeeping missions around the 
world. In Southeastern Europe, it has contributed troops and 
assistance that are vital to the success of the United Nation 
missions in Kosovo and Bosnia. It has a contingent of 
peacekeepers in Chad which was its first foray into Africa as 
part of the European Union mission there, and it has assisted 
in aiding victims of civil unrest in Darfur, and in this time 
of global insecurity, no issue is of more immediate importance 
than our collaboration in the fight against international 
terrorism and transnational crime.
    As an active partner in this fight, Austria has sent police 
instructors to the Iraqi Police Academy in Jordan. It has 
provided advisors in Afghanistan. It has deployed peacekeepers 
to the Golan Heights as part of the U.N. mission there, and 
together with the United States and the European Union, it 
operated two counterterrorism-related training programs for 
countries in Central Asia.
    If confirmed as ambassador, I would continue to press 
Austria for its active participation in the Partnership for 
Peace and would urge Austria to work more vigilantly with NATO 
when our interests converge.
    Mr. Chairman, as we know, this is a time of change in 
Austria. The European Union's enlargement eastward has shifted 
Austria to the center of Europe. Austria has strong historical 
and cultural ties with countries to its south and east and sees 
a role for itself in helping countries of these regions 
integrate more successfully into an enlarged European Union. 
The United States encourages that integration which is 
important to the stability of Europe as a whole.
    Mr. Chairman, distinguished members of the committee, 
Austria is a solid friend of Europe. If I am confirmed as 
ambassador, I pledge to use my experience as a leader and 
manager to build on the strong relations our two countries have 
and to lead our U.S. mission team in advancing the United 
States interests and forging even closer ties.
    I look forward to this challenge and opportunity. I thank 
you for the opportunity to speak before you today and I would 
welcome the opportunity, if confirmed, to serve my country. 
Thank you, sir.
    [The prepared statement of Mr. Girard-diCarlo follows:]

        Prepared Statement of David F. Girard-diCarlo, Nominee 
              to be Ambassador to the Republic of Austria

    Mr. Chairman and distinguished members of the committee, I am 
honored to appear before you today as the President's nominee to be 
United States Ambassador to the Republic of Austria. I am grateful for 
the confidence and trust that President Bush and Secretary Rice have 
placed in me to serve, if confirmed, as chief of mission. I also thank 
Senator Specter for his very generous introduction.
    If confirmed, I would bring to this position more than 35 years' 
experience as a lawyer, an advocate, a leader, and a manager. For the 
past 25 years, I have had the honor and privilege of leading and 
managing Blank Rome LLP. Currently, Blank Rome is comprised of 
approximately 1,200 professionals and nonprofessionals in eight offices 
within the United States and one office in Hong Kong. I am proud to 
report that during my tenure as the firm's leader, the firm grew more 
than six-fold and is, today, one of the top 100 law firms in the United 
States.
    I believe that my management and leadership experience will enable 
me to advance the United States interests with Austria and help Embassy 
Vienna fulfill its bilateral mission. My experiences managing 
multilocation operations will enable me to assist Embassy Vienna as it 
provides joint management support to the United States Mission to the 
United Nations and the United States Mission to the Organization for 
Security and Cooperation in Europe in Vienna, and it also provides 
management and resource support for the nearby mission in Bratislava.
    I believe it is noteworthy to comment that relatively early in my 
career, I was appointed to the Board of Directors of the Southeastern 
Pennsylvania Transportation Authority (SEPTA) by the then-Governor of 
Pennsylvania, Richard Thornburgh. Immediately after joining the board, 
I was elected chairman and chief executive officer. During my 3\1/2\ 
year-tenure there, SEPTA employed approximately 7,000 people, had an 
operating budget of about $500 million dollars, and had capital 
facilities worth several billion dollars.
    As the only noncareer professional among a cadre of career 
transportation professionals, I learned firsthand the importance of 
valuing the commitment, talent, and dedication that those professionals 
brought to their jobs. I committed myself to making SEPTA a better 
place when I left than it had been when I joined. I believe I 
accomplished that goal. If confirmed, I believe my responsibility to 
the President, to the American people and to Embassy Vienna should be, 
and will be, to do everything in my power to leave Embassy Vienna a 
better place at the conclusion of my assignment.
    In addition to my professional responsibilities, my experience over 
the past three decades has included my active participation in the 
business and cultural organizations within the communities in which I 
have lived and worked. I have served in leadership positions at the 
Greater Philadelphia Chamber of Commerce, the Philadelphia Orchestra 
and Academy of Music, the Walnut Street Theatre, the John F. Kennedy 
Center for the Performing Arts here in Washington, and the Arizona 
Heart Foundation in Phoenix--to name only a few.
    Furthermore, I have always been committed to and actively involved 
with educational institutions in my community. At the request of 
Cardinal Anthony Bevilacqua, for 5 years, I chaired Business Leaders 
Organized for Catholic Schools, a Philadelphia-based organization which 
raised money for scholarships for children attending Catholic schools. 
I have also served on the boards of St. Joseph's University, Drexel 
University, Harcum Junior College and Villanova University School of 
Law.
    I believe my civic activities and community involvement have given 
me a keen appreciation for the interconnections between the public 
sector and the private sector. I have learned that the whole becomes 
greater than the sum of the parts and, when these two sectors work in 
concert with one another, together they enrich the lives and the spirit 
of the people in the community.
    I would bring this experience and understanding to my new position 
if I am confirmed as Ambassador to Austria. Public diplomacy programs 
such as the Fulbright program and other academic, cultural, and 
professional exchanges work on those same interconnections to increase 
understanding and knowledge of the United States, not just government-
to-government, but people-to-people, across a variety of sectors.
    I look forward to assuring a distinguished beginning to Ambassador 
McCaw's initiative for a scholarship exchange program. This 10-year 
program would use funds from the Austrian Marshall Plan Foundation for 
Austrian and American exchange students to study at universities and 
technical colleges in each other's country. If confirmed as ambassador, 
I would support these programs so that the younger generation of 
Austria would better understand the many values and goals we have in 
common.
    Mr. Chairman, Austria has a proud history and its capital, Vienna, 
is a world-renowned cultural center. Today, Austria serves as an 
exemplar of democracy, freedom, stability, and prosperity. Though a 
small country, Austria has contributed to peacekeeping missions around 
the world. For example, in southeastern Europe it has contributed 
troops and assistance that are vital to the success of U.N. missions in 
Kosovo and Bosnia. Austria has a contingent of peacekeepers in Chad as 
part of the European Union mission there and it has assisted in aiding 
victims of civil unrest in Darfur.
    In this time of global insecurity, no issue is of more immediate 
importance than our collaboration in the fight against international 
terrorism and transnational crime. Austria is an active partner in this 
fight. Austria has sent police instructors to the Iraqi Police Academy 
in Jordan; has provided advisors in Afghanistan; and has deployed 
peacekeepers to the Golan Heights as part of the U.N. mission there. 
Together with the United States and the European Union, Austria 
operated two counterterrorism-related training programs for countries 
in Central Asia. If confirmed as ambassador, I would continue to press 
for Austria's active participation in the Partnership for Peace and 
would urge Austria to work with NATO whenever our interests converge.
    Austria faces terrorist threats just as we do in the United States 
and other democracies do. This is why we must work to forge strong ties 
and fight this threat together. Austria has provided extensive 
cooperation to United States law enforcement agencies and has supported 
regional antiterrorism initiatives. If confirmed as ambassador, I would 
work to strengthen information exchange and cooperation on 
counterterrorism, and I would work to expand outreach to populations 
vulnerable to radicalization and terrorist recruitment.
    Mr. Chairman, this is a time of change in Austria. The European 
Union's enlargement eastward has shifted Austria to the center of 
Europe. Austria has strong historical and cultural ties with countries 
to its south and east and sees a role for itself in helping countries 
of these regions integrate successfully into an enlarged European 
Union. The United States encourages that integration, which is 
important to the stability of Europe as a whole.
    Mr. Chairman and distinguished members of the committee, Austria is 
a solid friend in Europe. If I am confirmed as ambassador, I pledge to 
use my experience as a leader and manager to build on the strong 
relations our two countries have and to lead our United States mission 
team in advancing America's interests and forging even closer ties 
between the people of the United States and the people of Austria. I 
look forward to this challenge and thank you for both this opportunity 
to appear before you and the opportunity to serve my country.
    In closing, I want to thank my wife, Connie, my best friend for 
more than 35 years, for her continuing support and counsel and for her 
enthusiasm with regard to this possible new venture in our lives.
    I would be happy to answer any questions.

    Senator Cardin. Thank you very much for your comments.
    Ms. Kristen Silverberg to be the United States 
Representative to the European Union with the rank and status 
of ambassador.

      STATEMENT OF KRISTEN SILVERBERG, NOMINEE TO BE U.S. 
              REPRESENTATIVE TO THE EUROPEAN UNION

    Dr. Silverberg. Thank you, Mr. Chairman and members of the 
committee.
    I would like to introduce my mother, Rhoda Silverberg, my 
father-in-law and mother-in-law, Judge Charles Ledow and Sue 
Ledow, and my sisters-in-law, Renee Lerner Ledow and Alexandra 
Ledow. Thank you for being here.
    Mr. Chairman, I'm deeply honored to appear before you today 
as President Bush's nominee to serve as United States 
Representative to the European Union. I would like to begin by 
thanking President Bush and Secretary Rice for their trust and 
confidence in nominating me for this important position.
    It has been my great privilege to serve for the last 3 
years as Assistant Secretary of State for International 
Organization Affairs and for the previous 4 years as a policy 
advisor to the President.
     For the last 60 years, our agenda with Europe has been 
principally about Europe. From the passage of the Marshall 
Plan, to the defeat of communism, to our support for new 
democracies in Central and Eastern Europe, the United States 
has worked to support a Europe that is free, prosperous, and 
united, and while that work continues even today, Europe has 
made tremendous strides.
    Today, the 27 countries of the European Union form a single 
market with, collectively, the largest economy in the world and 
Europe's leaders are working to ensure that the European Union 
has the will and the capacity to fulfill its responsibilities 
as a global leader.
    Indeed, today Europe is our leading partner in advancing 
democracy and freedom around the globe. As we work to promote 
democracy, confront terrorism, prevent the spread of weapons of 
mass destruction, and defend human rights, we depend on what 
President Bush has called a powerful and purposeful Europe that 
advances the values of liberty within its borders and beyond.
    With respect to countless global issues, the strength of 
our partnership with the European Union will help determine 
success or failure in the months and years ahead. Continued 
United States-European Union cooperation will be necessary to 
convince Iran to comply with four U.N. Security Council 
resolutions. Cooperation will be necessary to lower regulatory 
barriers and unleash our full economic potential with more 
trade investment and innovation.
    We must work together to negotiate an ambitious market 
opening agreement in the DOHA Trade Round. We must together 
encourage Russia to play a constructive role in the 
international stage, improve human rights within its borders 
and bring energy resources to market within a free and 
competitive framework.
    We must work to bring all major economies into a global 
agreement to reduce greenhouse gas emissions. We must work 
together to support Israeli and Palestinian peace efforts. We 
must strengthen Governments in Iraq and Afghanistan and support 
a democracy in Lebanon as it resists foreign interference.
    We must defeat HIV/AIDS and malaria and help developing 
countries support their own development by promoting good 
governance and responsible free market practices, and we must 
join forces to defend human rights and promote democratic 
reform in countries, like Burma and Zimbabwe and Cuba.
    Mr. Chairman and members of the committee, if confirmed, I 
look forward to working with the members and the staff of this 
committee to strengthen our relationship with the leadership 
and the people of the European Union for the benefit of both 
sides of the Atlantic and the global community.
    Thank you again for granting me the honor of appearing 
before you today. I look forward to answering any questions.
    [The prepared statement of Dr. Silverberg follows:]

   Prepared Statement of Kristen Silverberg, Nominee to be the U.S. 
   Representative to the European Union With the Rank and Status of 
                               Ambassador

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today as President Bush's nominee to serve as United 
States Representative to the European Union. I would like to begin by 
thanking President Bush and Secretary Rice for their trust and 
confidence in nominating me for this important position. It has been my 
great privilege to represent the United States for the last 3 years as 
Assistant Secretary of State for International Organization Affairs and 
for the previous 4 years as a policy advisor to the President.
    For the last 60 years, our agenda with Europe has been principally 
about Europe. From the passage of the Marshall Plan, to the defeat of 
communism, to our support for new democracies in Central and Eastern 
Europe, the United States has worked to support a Europe that is free, 
united, and prosperous. And while that work continues even today, 
especially as we support Kosovo's independence, Europe has made 
tremendous strides. Today, the 27 countries of the European Union form 
a single market with, collectively, the largest economy in the world, 
and Europe's leaders are working to ensure that the European Union has 
the will and capacity to fulfill its responsibilities as a global 
leader.
    Indeed, today, Europe is our leading partner in advancing freedom 
and prosperity around the globe. As we work closely with Europe to 
promote democracy and the rule of law, confront international 
terrorism, prevent the spread of weapons of mass destruction, and 
defend international human rights, we depend on what President Bush has 
called ``a powerful and purposeful Europe that advances the values of 
liberty within its borders, and beyond.''
    With respect to countless global issues, the strength of our 
partnership with the European Union will help determine success or 
failure in the months and years ahead.

To prevent nuclear proliferation, continued United States-European 
        Union cooperation will be necessary to convince Iran to suspend 
        its enrichment and reprocessing activities as demanded by four 
        U.N. Security Council resolutions;
To strengthen our economies, we must work together to lower regulatory 
        barriers and unleash our full economic potential with more 
        trade, investment, and innovation; we must work to negotiate an 
        ambitious, market-opening agreement in the Doha trade round;
We must together encourage Russia to play a constructive role on the 
        international stage, improve human rights within its borders, 
        and bring its energy resources to markets within a free and 
        competitive framework;
To address climate change, we must work to bring all major economies 
        into a global agreement to reduce greenhouse gas emissions;
To advance peace in the Middle East, we should work together to support 
        Israeli and Palestinian peace efforts;
Standing together, we can strengthen Governments in Iraq and 
        Afghanistan against terrorist threats and support a democracy 
        in Lebanon as it resists foreign interference;
Working together, we must defeat HIV/AIDS and malaria, and help 
        developing countries support their own development by promoting 
        good governance and responsible free market practices;
And, we must join forces to defend human rights and promote democratic 
        reform in countries like Burma, Zimbabwe, and Cuba.

    Mr. Chairman and members of the committee, on these and many 
issues, our relationship with the European Union will continue to be 
vital to our ability to support peace, stability, and prosperity.
    If confirmed, I look forward to working with the members and staff 
of this committee to strengthen our relationship with the leadership 
and people of the European Union for the benefit of both sides of the 
Atlantic and the global community.
    Thank you again for granting me the honor of appearing before you 
today. I look forward to answering any questions.

    Senator Cardin. Well, thank you for your testimony. Again, 
I thank all three of our nominees for their testimony here 
today.
    Ms. Silverberg, let me start with you, if I might. There's 
a lot of issues concerning the United States and Europe, so you 
have a very broad agenda. I think about the decision yesterday 
on the appeal of the Boeing decision and, of course, there's a 
longstanding dispute between the United States and Europe on 
subsidies for the aircraft industry.
    Both have filed claims with the WTO and there is, at least 
in Congress, a concern as to whether the WTO is the forum in 
which we can adequately present our claims. Our batting average 
there has not been very strong. Add to that the DOHA Round that 
you mentioned in which Europe basically underminded our ability 
to move forward because of their policies on agriculture.
    So I guess my question to you is how do you see your role 
in trying to deal with the growing problems between Europe and 
the United States on trade where we really seem to be at odds 
in using adversarial procedures rather than trying to work out 
our problems in a more amicable way?
    Dr. Silverberg. Mr. Chairman, I think one thing that 
distinguishes this DOHA Round from previous trade rounds is 
that in fact the United States and Europe are much closer 
together. In previous rounds the real heavy lifting was done 
between the United States and Europe and once that agreement 
was in place, the rest of the negotiations fell into place. In 
this round, United States and Europe are actually relatively 
close together and the real heavy lift is whether we'll be able 
to persuade the major developing economies to come on board.
    Now that's not to say that we don't have persistent 
disagreements--we do--and as you point out in this DOHA Round, 
we have Ag disagreements on level of subsidies and market 
access issues on expert credits, but what we're finding in our 
trading relationship with Europe is that the major obstacles 
aren't the traditional high tariffs, it's regulatory barriers. 
So it's things, regulation in Europe that prevents market 
access because it's designed to protect health and safety or to 
protect consumers.
    That's the kind of thing we've seen with respect to GMOs 
where, of course, we have an outstanding WTO favorable 
decision. It's the kind of thing we've seen with respect to 
poultry where we have a very serious pending disagreement with 
the Europeans.
    I think on all of these issues, our response is going to 
require a number of different tools. Sometimes that will be a 
negotiated settlement which is usually the preferable 
situation. Sometimes that's going to be a WTO case. In most 
cases, I don't think that WTO case indicates that our 
relationship is broken down. It really more indicates that our 
trading relationship is enormously complex.
    If confirmed, I would work to press market access issues in 
the strongest possible way.
    Senator Cardin. Let me just observe, and I'm sure you are 
aware of it, the negotiations between Europe and the United 
States in trade has gotten more difficult in recent years.
    I agree with you, historically,--well, we've had a lot of 
battle with developing countries, but the agriculture issues 
are only getting more complicated, considering the world 
circumstances on food.
    So I would just urge you to really place this as a high 
priority area in trying to work out a better working 
relationship between Europe and the United States.
    Let me move to one other question, if I might, for you and 
that is, the future of NATO as it relates to the efforts within 
Europe to develop their own security system under the European 
Union. Is this compatible or do you see that we may be in 
conflict with our strategic needs?
    Dr. Silverberg. I think it may be too early to tell. We've 
said that we welcome a Europe that's ready and willing to 
assume its greater role for international peace and security 
and that there's a role for the European Union in that and so 
we see European Union missions that we support in Chad which is 
critical to help resolve the humanitarian crisis in Darfur. We 
have a European Union mission in Afghanistan we strongly 
support, but what we've said is that the ESDP should result in 
more European resources for international peace and security. 
We don't want to see the European Union in competition with 
NATO over scarce resources, so we don't want to see an 
overlapping bureaucracy in Brussels. We don't want to see the 
kind of overlapping conflict between the two organizations.
    We've called for what our current Ambassador to NATO, Troy 
M. Newland, has called seamless cooperation. This is thankfully 
an issue for the French presidency. President Sarkozy has taken 
this seamless cooperation on as part of his agenda and so the 
French will be hosting a conference this next month but that's 
our general approach to the issue.
    Senator Cardin. Thank you. Mr. Girard-diCarlo, Austria has 
been a close ally of the United States. We've had a very strong 
relationship.
    The popular view in Austria is against Turkey's admission 
to the European Union. Our position has been that we want to 
see the integration of Turkey within Europe.
    How do you see your role as our ambassador to deal with 
promoting the United States goal of further integration, 
particularly of Turkey, in Europe?
    Mr. Girard-diCarlo. Senator, I think that's a very 
important issue. It is incumbent upon Embassy Vienna and, if 
confirmed, I would use whatever energies I have to be applied 
to this issue.
    It is in part an educational issue. It is in part perhaps a 
commercial issue. It's in part perhaps a religious issue. It's 
complex. As I'm sure you know, Austria now has a significant 
Muslim population which is not, from what I understand, being 
integrated very successfully into its society and that causes 
some problems.
    So I think it would be incumbent on me as ambassador, if 
I'm confirmed, to aggressively pursue educational informational 
views so that I can help promote the interests of the United 
States and the interests of a global and stable Europe and 
without Turkey's participation in that, I think we would be 
encumbered somewhat and Europe would be encumbered somewhat.
    So I would look forward to every opportunity that I have to 
not only inform and maybe influence but certainly engage the 
Austrians on this issue.
    Senator Cardin. Thank you. Let me ask Mr. Culbertson. Let 
me--the Netherlands is one of our strongest trading partners, 
significant investment back and forth between our countries. We 
share a lot of common goals.
    There are some concerns developing within the Netherlands 
in regard to its policies related to minorities. There seems 
like there is a growing intolerance within--concerning the 
minority community, and I would just like to get your 
observations as to how high a priority that's going to be, if 
you're confirmed, in dealing with the respect for the minority 
population.
    There's a Muslim population in the Netherlands that's 
having difficulties, Jewish population. There's been a rise in 
anti-Semitism within the Netherlands, and how this will be on 
your radar screen.
    Mr. Culbertson. Mr. Chairman, that would certainly be one 
of the top three priorities. They have had a--we've had a 
minority immigration problem, I guess, for several hundred 
years. They've had this problem for around 30 years.
    I understand they have the second largest Muslim minority 
in Europe percentagewise. They're 60 percent now. There's a lot 
of hostility there. They haven't, as of this point, done a 
great job in integrating that society, assimilating that 
society.
    We have, on the other hand, developed an outstanding 
outreach program to the Muslim community from our embassy. I 
think the prior ambassador has done a good job in a good 
outreach start. I certainly want to continue that, continue a 
dialog with the leaders of the Muslim community, the young 
folks, just the key leaders.
    By the way, the latest polls, I think, show that 62 percent 
of the Muslims have a very unfavorable view of the United 
States. Perhaps if we can find out the common interests and 
correct some of the incorrect viewpoints and try to deal with 
some issues that are more irreconcilable, it will help the 
Muslims and the Dutch even come to better terms.
    We can talk about our long struggle with civil rights in 
this country as well as our immigration problems and the ways 
we've dealt with it and sometimes the ways we haven't properly 
dealt with it, but it's an ongoing thing and I would--I 
understand public diplomacy has made the Netherlands a pilot 
country for even more outreach in the Muslim community and I'm 
looking forward to doing everything I can to be part of that 
program and lead it and see that it's successful.
    Senator Cardin. Thank you. Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman. In the 
interest of time, I'm not going to ask questions of each of the 
three because I know we have pressures of potential Roll Call 
votes and other witnesses to hear.
    I would like to second the chairman's thought that the 
intersection of the world food crisis and the world energy 
crisis has a dramatic impact on the United States and our 
European allies. It is clear we must work together to solve 
these crises.
    Certainly our farm subsidies are controversial, the 
Europeans likewise. Frequently in our Agriculture Committee 
meetings, Senators say we're not going to unilaterally disarm 
and discontinue subsidies here in the United States. The United 
States and European subsidies are disastrous for the world in 
light of dangers of food shortages.
    Exacerbating this problem is a specific European problem 
and that is genetically modified seed. It will be virtually 
impossible, despite all the brave talk about increasing 
production in the world, for the world to increase production 
without the use of technology. We have found in American 
agriculture that we are able to triple and quadruple yields in 
our lifetimes in corn and soybeans and wheat and other crops, 
largely through these breakthroughs.
    Europeans in most cases have resisted this. I think this is 
a protectionist device against our exports, but this influences 
many countries in Africa and in Asia as almost a theological 
resistance to genetically modified seeds.
    Now, the net result is even in Switzerland, the Financial 
Times says in the last couple of days, that people raided a 
facility in which experiments on genetically modified organisms 
were occurring just to exemplify their antipathy to this.
    Now normally we talk about relationships with Russia, with 
China, with the European Union and so forth. This is a gut 
issue with regard to the possibilities that a lot of people are 
going to starve if we are not successful in convincing 
Europeans to work with us in this area. It will be a very tough 
one because emotion is running against us, both on subsidy as 
well as the genetically modified seeds.
    But I wish each of you well and you're all well qualified 
in my judgment. I appreciate your willingness to serve our 
country in these capacities. I wanted to take this opportunity 
to say if we're serious and we must be about the world food 
crisis, it will not be solved without European and United 
States cooperation.
    I thank you, Mr. Chairman.
    Senator Cardin. Thank you, Senator.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Let me 
congratulate you all on your nominations and your willingness 
to serve the country. I appreciate it and I think everyone 
spoke very highly about you.
    I do have one question for Ms. Silverberg, two actually. 
One is I appreciate your statement. At the end of a long list, 
you talked about human rights and promoting democracy and you 
mentioned several countries.
    As we speak, the European Union is thinking about what it 
will do as it relates to Cuba. I certainly hope that if you are 
successful in being confirmed by the Senate, that you will put 
that high on the agenda. It's a challenge. The Europeans don't 
necessarily have the same views as us. They espouse that they 
believe in democracy and human rights for the people of Cuba 
but they have a much different way of approaching it and so I 
hope that you will put that not only on your radar screen but 
that you'll use the power of your office in a significant way 
to promote both the administration's and to this point, the 
majority of the Congress's views in that regard.
    I do have a question and that is, with reference to the 
Middle East: It seems to us, many of us, that we don't quite 
understand why United States policy choices seem to differ 
often with the Europeans, even though we have largely the same 
goals, and yet we seem to come out in very different ways on 
how to pursue those goals.
    I'm wondering how is it that you assess the United States-
European Union cooperation toward the Middle East, where are 
our differences, and how do we narrow those differences to 
pursue a common goal?
    Dr. Silverberg. Thank you, Senator. First, I can assure you 
that if confirmed, Cuba and pressing human rights in Cuba would 
be a fundamental priority for my mission. It's been a priority 
in my current post and we agree strongly that this is the wrong 
time to send that kind of message to the Cuban Government, that 
it has somehow removed itself from the list of concerns of the 
international community.
    President Bush pressed this issue very strongly in his 
visit to Europe last week, and so we hope that the European 
Union will not take that position and we've been glad to see 
some European countries and particularly former Soviet bloc 
countries, the ones with the most recent experience with a 
repressive government, taking the most responsible line on 
that.
    On the Middle East, there are disagreements, of course, 
between us and the European Union and there may be a lot of 
reasons for that. They've had a different approach with respect 
to engagement with the Syrian Government than we have had. We 
have a closer bilateral relationship with Israel, I think it's 
fair to say, but we do cooperate, I think, constructively 
across the board on the Middle East peace process. We both 
agree on the importance of the bilateral negotiations. We agree 
on the importance of building Palestinian institutions. We 
agree on building regional support for the process, and I think 
the European Union was strongly supportive of the Annapolis 
process.
    We support--we've cooperated on Iran, very successfully 
producing four Security Council resolutions, working with the 
Europeans as part of this P5+1 exchange. We've worked very 
closely with the French in particular on Lebanon which isn't to 
say we've agreed on every tactical issue but on the whole, 
we've had very good cooperation, and I think even on Iraq where 
I think we had the greatest amount of disagreement, we've moved 
closer together in terms of encouraging the European Union to 
take on some of the important rule of law activities and other 
things.
    So generally, I am reasonably optimistic. There will be 
disagreements, but I think we can work within a broader 
framework.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Cardin. Senator DeMint.

                STATEMENT OF HON. JAMES DeMINT,
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Senator Cardin, and I want to 
thank all three of you for your willingness to serve as well, 
and I'll just maybe make just a quick challenge to Ms. 
Silverberg and let you have a quick response.
    The tie between the United States and Europe is much 
stronger on the economic level and more positive than political 
and I really think that's the long-term bond that's going to 
keep us as strong trading partners and allies.
    My hope is, is that, you will use every opportunity to 
promote free trade zone between the United States and Europe, 
overcome barriers, such as Senator Lugar was talking about, but 
I do believe we can set a model for the world since Europe and 
the United States are closest on a lot of their just 
humanitarian interests and environmental interests and I just 
think that's real important for our country.
    I know from having a number of European companies in our 
State, that even when we're squabbling with the French or the 
Germans on the political side, we're great friends and business 
partners when it comes to doing business around the world.
    So I just see that as the tie that binds long term and I 
hope you see that as a priority going forward.
    Dr. Silverberg. Senator, I do, and if confirmed, it would 
be essential to continue to break down trade barriers, 
especially on Ag, but really across the board, and I know that 
the administration has taken this on as part of the 
TransAtlantic Economic Council discussions and it will continue 
to be a high priority.
    Senator DeMint. Thank you.
    Senator Cardin. Let me thank our three nominees for their 
response to our questions. We will now turn to the second 
panel. Thank you all very much.
    While we're setting up for the second panel, let me 
announce that there's anticipated votes on the Senate floor 
starting in about 10 minutes. Senator Menendez and I will 
attempt to keep the committee in session during that period of 
time by us rotating voting, if that is possible, in order not 
to inconvenience the witnesses and those who are in the 
committee room.
    Senator DeMint. Senator Cardin----
    Senator Cardin. Yes?
    Senator DeMint [continuing]. Could I ask consent to submit 
my formal statement for the record?
    Senator Cardin. Absolutely. Without objection, your 
statement will be made part of the record.
    [The prepared statement of Senator DeMint follows:]

    Senator Cardin. On this panel, we do have five nominees for 
ambassadorships with European countries. The first nominee that 
we will hear from will be Mr. John R. Beyrle to be Ambassador 
to the Russian Federation.
    Mr. Beyrle has already been introduced by Senator Levin.
    Let me just tell you that I was humbled and impressed by 
the story of your father, a true hero, and I thank Senator 
Levin for sharing that with us, and thank you for your public 
service, all of you.

 STATEMENT OF JOHN R. BEYRLE, NOMINEE TO BE AMBASSADOR TO THE 
                       RUSSIAN FEDERATION

    Mr. Beyrle. Thank you very much, Mr. Chairman and members 
of the committee.
    I'd like to recognize, if I could, members of my family. My 
father- and mother-in-law, Kenneth and Ann Greene, and my 
daughter, Allison, who are here with me today. And I'd also 
like to thank Senator Levin for honoring the memory of my 
father and mother with his kind words. Thanks to him, I feel 
like they're here with us today, as well.
    Mr. Chairman, I have a longer statement that I'd request be 
entered into the record.
    Senator Cardin. Without objection, all of your statements 
will be entered into the record.
    Mr. Beyrle. I'm honored to appear before you today as 
President Bush's nominee to be the next U.S. Ambassador to the 
Russian Federation. I, too, am grateful for the confidence and 
trust expressed in me by the President and Secretary Rice 
through this nomination and, if confirmed, I will do my utmost 
to advance and defend American interests in Russia and I look 
forward to consulting and cooperating closely with the 
committee, with its staff, in pursuit of the goals of the 
United States.
    Mr. Chairman, I have to say it's a special pleasure for me 
to be back in Dirksen 419 where I spent so many hours as a 
Pearson Fellow on the staff of Senator Paul Simon in the 101st 
Congress. When I see Bertie on the job here, I know that we're 
in very good hands, indeed.
    I've now spent over three decades of my life studying, 
working, and living in Eastern Europe, the Soviet Union, and in 
Russia, and I believe, thanks to that, that I've gained a broad 
range of experience that relates directly to the challenges and 
the opportunities that I would face if confirmed.
    I made my first trip to Russia as a somewhat younger 
university student in Leningrad in 1976, after 4 years of 
studying Russia at college in Michigan. I spent 2002 to 2005 as 
deputy chief of mission at our mission in Russia, but my first 
posting to the U.S. Embassy was 25 years ago. Obviously the 
world has been transformed since then. No longer are the United 
States and the Soviet Union pitted in that ideological and 
military confrontation of the cold war.
    Our bilateral relationship has experienced great changes 
over these years and I would say the world is a safer place in 
large part for those changes. Today, our relationship is much 
more complex, including elements of strategic cooperation and 
areas where we have sharp differences.
    As much as things have changed, however, I think important 
elements remain the same. Russia remains a great power. The 
largest country in the world, Russia's attitudes and influence 
matter in almost every issue of importance to America, whether 
we're talking about the fight against global terrorism, 
nonproliferation of weapons of mass destruction, or strategic 
and regional issues involving North Korea, Iran, or the Middle 
East.
    The United States recognizes the shared challenges that our 
two countries face and we will seek to cooperate with the 
Government of Russia whenever and wherever possible because we 
will always achieve much more with Russia's cooperation than we 
will without it.
    This principle was spelled out in the Strategic Framework 
Declaration announced by Presidents Bush and Putin in Sochi in 
April. A roadmap for the way forward in United States-Russian 
relations, the Declaration states that the two countries will 
work together to promote security, prevent the spread of 
weapons of mass destruction, combat terrorism, and advance 
economic cooperation.
    In less than two decades, we built a strong record of 
concrete cooperative achievements in these areas. For example, 
under the Cooperative Threat Reduction Program, the United 
States has helped Russia improve physical security at chemical, 
biological, and nuclear research production and storage 
facilities. The United States has helped Russia dispose of 
fissile materials through the agreement. Material from 
dismantled warheads is being downblended into nuclear fuel used 
in the United States.
    Senator Lugar, thank you for your leadership in that from 
the very start.
    United States-Russia trade is growing. It totals now nearly 
$27 billion. There are many other examples and I think the 
United States and Russia can point to those examples and should 
point to these achievements with pride.
    At the same time, our desire to strengthen our relations 
with Russia and our desire to see a democratic and a strong 
Russia as a constructive influence in world affairs means that 
we must be honest and open about the areas in which we have 
disagreements or in which we have concerns about Russia's 
development.
    The President and Secretary Rice have been forthright about 
these issues in their public statements and their discussions 
with Russian leaders. They include concerns about trends that 
are moving Russia away from a stronger democratic future, 
weakening the institutions of civil society and endangering the 
sustainability of economic growth.
    We've seen opposition political parties and supporters 
facing increased restrictions. Nongovernmental organizations 
and the media have been subject to pressure, harassment, and 
sometimes violence. Problems with corruption and the rule of 
law persist in ways that hinder the operation of foreign 
businesses and dampen the investment climate.
    We are also very concerned about Russia's relations with 
its closest neighbors. While we appreciate the great influence 
that Russia has in the world, we would like to see Russian 
leaders exercise that influence in a way that does not increase 
regional tensions but contributes to peace and stability.
    Russia's long-term interests are best served by having 
strong sovereign and prospering neighbors and by energy 
dealings in which the terms are transparent, market-driven, and 
mutually beneficial.
    Mr. Chairman, the United States has a strong stake in 
Russia's success. However, that success, as Russian President 
Dmitry Medvedev recently acknowledged, can be built only upon a 
foundation of democratic and free market reforms. These reforms 
are in Russia's own interests and we remain committed to 
working with the Russian people and their leaders to implement 
them.
    If confirmed, Mr. Chairman, I plan to build on the 
excellent work of my distinguished predecessor, Ambassador Bill 
Burns, to expand the cooperation we've already undertaken with 
the Government of Russia and to speak honestly and 
constructively with Russian leaders when we encounter areas of 
disagreement.
    If confirmed, I believe that my experience in and knowledge 
of Russia, its history, culture, people, and language, will 
enable me to be an effective advocate for United States foreign 
policy interests.
    I thank you for the honor of appearing before this 
committee and look forward to your questions.
    [The prepared statement of Mr. Beyrle follows:]

             Prepared Statement of John R. Beyrle, Nominee 
               to be Ambassador to the Russian Federation

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Bush's nominee to be the next United 
States Ambassador to Russia. I am grateful for the confidence and trust 
expressed in me by the President and Secretary Rice through this 
nomination. If confirmed, I will do my utmost to advance and defend 
American interests in Russia, and look forward to consulting and 
cooperating closely with the committee and its staff, and with your 
colleagues in Congress, in pursuit of those goals.
    It's a special pleasure to be back here in Dirksen 419, where I 
spent so many hours during the 101st Congress as a Pearson fellow on 
the staff of the late Senator Paul Simon.
    've now spent over three decades studying, working, and living in 
Eastern Europe, the Soviet Union, and in Russia. I believe I have 
gained a broad range of experience related directly to the challenges 
and opportunities I would face if confirmed for this position.
    I made my first trip to Russia as a university student in Leningrad 
in 1976, after 4 years of studying Russian in college. In the late 
1970s, I spent almost 3 years traveling to dozens of cities across the 
USSR on American cultural exhibitions organized by the U.S. Information 
Agency. I spent 2002 to 2005 as deputy chief of our mission in Russia, 
but my first tour at the United States Embassy in Moscow was 25 years 
ago. The world has been transformed since then. Most importantly, no 
longer are the United States and the Soviet Union pitted in the 
ideological and military confrontation of the cold war. Our bilateral 
relationship has experienced great change in these years, and the world 
is a safer place for those changes. Today our relationship is much more 
complex, including elements of strategic cooperation, and areas where 
we have sharp differences.
    As much as things have changed, however, important elements remain 
the same. Russia remains a great power. The largest country in the 
world, the Russian Federation enjoys enormous global influence. It is 
the only nuclear power comparable to the United States, and the world's 
largest producer of hydrocarbons. As a permanent member of the United 
Nations Security Council, Russia's attitudes and influence matter in 
almost every issue of importance to America, whether the fight against 
global terrorism, nonproliferation of weapons of mass destruction, or 
strategic and regional issues involving North Korea, Iran, or the 
Middle East.
    The United States recognizes the shared challenges that our 
countries face. We seek to cooperate with the Government of Russia 
wherever possible, because we will always achieve much more with 
Russia's cooperation than without it. This principle was spelled out in 
the Strategic Framework Declaration announced by Presidents Bush and 
Putin at Sochi in April. A roadmap for the way forward in United 
States-Russian relations, the declaration states that the two countries 
will work together to promote security, prevent the spread of weapons 
of mass destruction, combat terrorism, and advance economic 
cooperation. In less than two decades, we have built a strong record of 
concrete, cooperative achievements in these areas. For example, under 
the 20-year-old Intermediate Nuclear Forces Treaty, together we have 
eliminated an entire category of our nuclear weapons. Under the 
Cooperative Threat Reduction program, the United States has helped 
Russia improve physical security at chemical, biological, and nuclear 
research, production, and storage facilities. The United States has 
helped Russia dispose of fissile material through the agreement--
material from dismantled warheads is being down-blended into nuclear 
fuel used in the United States. Two Russian plutonium-production 
reactors have recently been shut down and will be replaced by fossil 
fuel plants with United States assistance. United States-Russia trade 
is growing, totaling nearly $27 billion last year. United States 
companies and their foreign subsidiaries have invested more than $16 
billion in Russia, and Russian companies have invested more than $5 
billion in the United States since 2000. Both Russia and the United 
States can and should point to such achievements with pride--and use 
them as benchmarks for future progress.
    At the same time, our desire to strengthen our relations with 
Russia--and to see a democratic and strong Russia as a constructive 
influence in world affairs--means that we must be open and honest about 
the areas in which we have disagreements, or concerns about Russia's 
development. Both the President and Secretary Rice have been forthright 
about these issues in their public statements and their discussions 
with Russian leaders. They include concerns about trends that are 
moving Russia away from a stronger democratic future, weakening the 
institutions of civil society, and endangering the sustainability of 
economic growth. We have seen opposition political parties and 
supporters facing increased restrictions. Nongovernmental organizations 
and the media have been subject to pressure, harassment, and sometimes 
violence. Problems with corruption and the rule of law persist in ways 
that hinder the operation of foreign businesses and dampen the 
investment climate. Freedom for civil society to operate and for 
citizens to express their political will is vital to the democratic 
development of any country, but especially a country as influential as 
Russia.
    We are also very concerned about Russia's relations with its 
closest neighbors. While we appreciate the great influence Russia has 
in the world, we would like to see Russian leaders exercise that 
influence in a way that does not increase regional tensions, but 
contributes to peace and stability. Russia's long-term interests are 
best served by having strong, sovereign, prospering neighbors, and by 
energy dealings in which the terms are transparent, market-driven, and 
mutually beneficial.
    The United States has a strong stake in Russia's success. However, 
that success, as Russian President Dmitry Medvedev recently 
acknowledged, can be built only upon a foundation of democratic and 
free market reforms. These reforms are in Russia's own interest, and we 
remain committed to working with the Russian people and their leaders 
to implement them.
    Mr. Chairman, if confirmed I will build upon the excellent work of 
my predecessor, Ambassador William Burns, to expand the cooperation we 
have already undertaken with the Government of the Russian Federation, 
and to speak plainly with Russian leaders when we encounter areas of 
disagreement. We will work to implement the roadmap of the Strategic 
Framework Declaration, including cooperation in the field of nuclear 
energy and nonproliferation; the expansion of Russian-American 
commercial ties and the integration of Russia into global economic 
institutions; the struggle against terrorism and transnational crime; 
and the encouragement of the development of democratic institutions, 
rule of law, and a vibrant civil society in Russia.
    Mr. Chairman, these are but a few of the many challenges and 
opportunities that define the relationship between the United States 
and Russia today. If confirmed, I believe that my experience in and 
knowledge of Russia, its history, culture, people, and language will 
enable me to be an effective advocate for the United States foreign 
policy interests. Thank you for the honor of appearing before you 
today, and for considering my nomination.

    Senator Cardin. Thank you very much. We'll now turn to Mr. 
Asif Chaudhry to be Ambassador of the Republic of Moldova.

 STATEMENT OF ASIF J. CHAUDHRY, NOMINEE TO BE AMBASSADOR TO THE 
                      REPUBLIC OF MOLDOVA

    Mr. Chaudhry. Thank you, Mr. Chairman. If I may, I would 
like to introduce my family. My wife, Charla Chaudhry, my 
daughter, Brianna Chaudhry, and my son, Rishan Chaudhry. Thank 
you.
    Mr. Chairman and members of the committee, it is an honor 
and a privilege to appear before you today as the President's 
nominee to be the Ambassador to the Republic of Moldova. I 
deeply appreciate the confidence and trust President Bush and 
Secretary Rice have placed in me. If confirmed, I look forward 
to working closely with Congress to promote United States 
interests in Moldova.
    Mr. Chairman, the United States is a strong partner with 
Moldova as it continues along the path of building viable 
democratic institutions and a free market economic system. 
While Moldova has made tremendous strides toward achieving 
these objectives, the country has faced serious challenges 
along this path.
    I would like to take a moment today to focus on four United 
States priority interests with Moldova that are directly linked 
with these challenges.
    First and foremost, the United States objective in Moldova 
is to help strengthen its democratic institutions, such that 
the citizens of that country can have faith in its political 
system. I believe that a democratic system supported by a free 
media is an essential element in facilitating Moldova's 
integration with the EuroAtlantic community.
    The second priority area is keeping Moldova on the path of 
economic reform and development and making sure that the 
government consistently implements the laws on economic reform 
that are being passed by the country's Parliament.
    Since corruption remains a major obstacle to sustained 
economic growth and development, the Millennium Challenge 
Corporation has implemented a $24.7 million threshold program 
to support Moldova's fight against corruption and is reviewing 
a $518 million Compact proposal that will focus on positive 
economic growth.
    The issue that presents the most serious challenge to 
achieving the first two objectives is the unresolved conflict 
in Transnistria. The United States is committed to a resolution 
of this issue that guarantees Moldova's territorial integrity 
and includes the withdrawal of Russian soldiers. This is a key 
to establishing Moldova's sovereignty over all its territory.
    If confirmed, I will make this a major part of my mission 
as Ambassador to Moldova.
    The fourth area of priority interest for the United States 
is the issue of transporter crime and the tragic prevalence of 
trafficking in persons. Better controls over its border and 
economic prosperity within the country, along with a more 
concerted effort to fight domestic corruption, will do much to 
assist Moldova's struggle to protect its citizens, especially 
women and young girls, from being exploited.
    If confirmed, I will urge the recently-appointed Prime 
Minister Greceanii to fulfill her commitment to fight crime, 
especially discourage of trafficking persons.
    Mr. Chairman, as Moldova is strategically located at the 
border of the European Union, it is important for us to engage 
its leadership on these key areas of interest. It is worth 
mentioning that in spite of these serious issues, Moldova has 
made noticeable strides in economic and political development. 
It is a friendly country where the United States enjoys 
considerable influence. It deserves our support and 
encouragement.
    Before concluding, I would like to once again take the 
opportunity, Mr. Chairman, to thank my wife and children for 
all the sacrifices they make as we move from country to country 
as a result of my commitment to serve our country around the 
globe.
    I thank you, Mr. Chairman, for the opportunity to share my 
thoughts. If confirmed, I look forward to working with you 
closely to advance the interests of the United States in 
Moldova.
    Thank you, sir.
    [The prepared statement of Mr. Chaudhry follows:]

            Prepared Statement of Asif J. Chaudhry, Nominee 
              to be Ambassador to the Republic of Moldova

    Mr. Chairman and members of the committee, it is an honor and a 
privilege to appear before you today as the President's nominee to be 
Ambassador to the Republic of Moldova. I deeply appreciate the 
confidence and trust that President Bush and Secretary Rice have placed 
in me. If confirmed, I look forward to working closely with Congress to 
promote United States interests in Moldova.
    I am a career Foreign Service officer with the Foreign Agricultural 
Service (FAS) of the United States Department of Agriculture. I am 
currently assigned as the Deputy Administrator of FAS, in charge of the 
Office of Global Analysis. I have spent most of my career working on 
issues dealing with international trade, market reforms, and developing 
economic infrastructure in Eastern Europe and the Former Soviet Union 
countries. As the Agricultural Attache at the United States Embassy in 
Warsaw, Poland, in the early 1990s, I was fortunate to have been a part 
of United States Government efforts to establish rural infrastructure 
that was key to the successful transition of its economy to a new 
direction.
    As the Agricultural Counselor in Moscow Russia during 1996-1999, I 
was involved in implementing one of the largest ever United States 
Government commodity assistance programs that helped protect a $1 
billion dollar market for U.S. agricultural products. During this time, 
I also had the opportunity to support United States efforts to reform 
parts of the Ukrainian agriculture sector. During my most recent 
overseas assignment as the Minister Counselor for Agricultural Affairs 
in Cairo, Egypt (2002-2006), I was fortunate to have negotiated the 
removal of several trade barriers and restrictions on United States 
exports in a number of countries in the Middle East including Egypt, 
Lebanon, Jordan, and Israel. If confirmed, I hope that my extensive 
leadership experience in working in economies in transition toward a 
free market system, especially in the former Soviet Union countries, 
and my commitment to the United States values of freedom and democracy 
will make me an effective representative of the United States and 
Ambassador to Moldova.
    The United States is a strong partner with Moldova as it attempts 
to deepen its democratic reforms at home and integrate with Europe. The 
United States has an excellent relationship with President Voronin, 
Prime Minister Greceanii, and other senior officials in the Moldovan 
Government. We support those in Moldova who are firmly committed to 
democratic principles and to sound economic policies. I would like to 
take a moment today to focus on the four United States priority 
interests with Moldova: first, democracy; second, economic development; 
third, the frozen conflict in Transnistria; and fourth, transborder 
crime and, in particular, trafficking in persons.
                            first: democracy
    Moldova will hold parliamentary elections in the spring of 2009 and 
the new parliament will elect the next President. The previous 
parliamentary elections in 2005, as well as June 2007 local elections, 
were judged by independent observers to be generally free and well 
administered. Both elections, however, fell short of meeting all 
standards central to a genuinely competitive election. The United 
States will be closely monitoring the 2009 campaign and election to 
encourage Moldova to meet all international election commitments. If 
confirmed, I will be personally involved in trying to ensure free and 
fair elections. Moldovan Government influence over and restrictions on 
the media remain a key concern as we look ahead to the elections. It is 
regrettable that overall media freedom has deteriorated in Moldova, 
according to international NGOs that monitor media practices. Freedom 
House, for example, rated the country's media as ``not free'' for the 
past 4 years. Corruption is another serious obstacle to good governance 
in Moldova. It undermines Moldovan citizens' faith in their democratic 
institutions and impedes Moldova's modernization.
                      second: economic development
    Despite sustained economic growth, Moldova remains one of Europe's 
poorest countries, with many of its citizens working abroad, not being 
able to find adequate opportunities at home. Moldova still lacks an 
adequate investment climate and needs to take a more concerted approach 
to economic reform. If confirmed, I plan on working with Moldova on 
these pressing issues. Additionally, Moldova remains dependent on 
Russia for its energy supplies and as the primary market for its 
exports, both of which Russia has disrupted in recent years. It is 
important that Moldova employ sound policies to diversify its economic 
base and also take advantage of help and cooperation from other 
countries to sustain growth and find new markets.
    Cooperation with Moldova on the Millennium Challenge Corporation's 
(MCC) Threshold Country Program has been very good. Corruption is a 
principal constraint to economic growth and saps confidence in the 
government. The $24.7 million Threshold Program administered by USAID 
is designed to help Moldova combat corruption in government 
institutions and improve transparency and accountability. As of the 
latest quarterly report in March 2008, the program met all performance 
targets. Moldova submitted its MCC Compact Program proposal in February 
2008. The proposal requests $518 million in assistance for road and 
irrigation system rehabilitation, a transition to high-value 
agriculture, energy sector rehabilitation, and support for the 
development of rural primary health care. It is now under review by 
MCC, which is examining the proposed components to ensure they will 
have positive rates of return as well as the size of the funding 
request.
                          third: transnistria
    The United States is committed to a resolution of the Transnistria 
conflict that guarantees Moldova's sovereignty and territorial 
integrity. I am convinced that this long-standing conflict can and 
should be resolved. The United States remains committed to the 5+2 
process, involving the Moldovan and Transnistrian sides, the 
Organization for Security and Cooperation in Europe (OSCE), Russia, and 
Ukraine, with the European Union and the United States serving as 
active observers. Despite the best efforts of many, including the 
Finnish Chairmanship of the OSCE, the 5+2 talks have not made progress 
on core settlement issues, like the future status of the Transnistrian 
region or the withdrawal of the Russian peacekeeping presence. Recent, 
informal discussions among the 5+2 parties have focused on confidence-
building initiatives that seek to create favorable conditions for 
resumption of formal settlement talks, and have shown some progress. I 
am encouraged by the Finnish OSCE Chairman in Office's commitment to 
resolving the conflict and intend to do what I can to move an 
acceptable solution forward. In this vein, if confirmed, I intend to 
follow the example set by Ambassador Kirby and reach out actively to 
all parts of Moldova, including the Transnistria region, to show the 
interest and support of the United States in Moldova's future as a 
united country.
    The United States and NATO allies have for more than 8 years urged 
Russia to fulfill its 1999 OSCE Istanbul Summit commitments relating to 
withdrawal of Russian military forces and facilities from Moldova and 
Georgia. NATO allies have made clear that fulfillment of those 
commitments is essential for us to complete ratification of the Adapted 
Treaty on Conventional Armed Forces in Europe (the Adapted CFE Treaty). 
In fall 2007, the United States developed, and NATO allies endorsed, a 
creative package proposal for parallel actions on fulfillment of 
remaining Istanbul commitments by Russia, and ratification of the 
Adapted CFE Treaty by NATO Allies. That package, which has the support 
of the Government of Moldova, is still under discussion. The ideas set 
out in the package concerning Russian withdrawal from Moldova are among 
the most contentious with Moscow. We will remain in close contact with 
Moldovan authorities as those talks go forward. The United States 
regards the presence of Russian forces on Moldovan soil, without 
Moldova's consent, as a violation of the basic principle--contained in 
the CFE Treaty--that countries should be able to choose whether or not 
to allow foreign forces on their territory.
          fourth: transborder crime and trafficking in persons
    Criminal networks that illicitly transport contraband goods, drugs, 
counterfeit currency, and people are active in Eastern Europe. The 
United States Government provides considerable training to Moldovan law 
enforcement agencies or officials to help combat transborder crime. We 
are particularly worried about trafficking in persons. Moldova is a 
major source country for trafficking in women and girls for the purpose 
of sexual exploitation. Labor trafficking of men to work in Russia is 
increasingly a problem, as well. The government's lack of visible 
follow-up to allegations of government officials complicit in 
trafficking in persons is a serious concern. The State Department's 
Office to Monitor and Combat Trafficking in Persons downgraded Moldova 
to Tier 3 on June 4, finding that the government does not fully comply 
with minimum standards for the elimination of trafficking and is not 
making significant efforts to do so. Prime Minister Greceanii, who 
recently took office as Prime Minister, has stated that she is serious 
about combating trafficking in all forms. If confirmed as ambassador, I 
will urge the Prime Minister to make good on these intentions, 
particularly in addressing the alleged complicity of some government 
officials in trafficking.
                             in conclusion
    Moldova is a country that continues to make strides in its economic 
and political development. It is a friendly country where the United 
States enjoys considerable influence. It deserves our support and 
encouragement.
    Mr. Chairman, I thank you again for the opportunity to share my 
thoughts about the relationship with Moldova. If confirmed, I look 
forward to working with you closely, and would welcome the opportunity 
to host you and other members of Congress in Chisinau.
    I would be happy to answer any questions you may have.

    Senator Cardin. Well, thank you very much for your 
testimony, and we'll now turn to Ms. Tina Kaidanow to be 
Ambassador to the Republic of Kosovo.

 STATEMENT OF TINA KAIDANOW, NOMINEE TO BE AMBASSADOR TO KOSOVO

    Ms. aidanow. Thank you. Thank you, Mr. Chairman. If I 
might, I'd like to introduce my parents, Howard and Esther 
Kaidanow, who are here today and residents of the great State 
of Maryland.
    Senator Cardin. Take as much time as you want. [Laughter.]
    Ms. aidanow. That's what I was aiming for. Thank you very 
much.
    Mr. Chairman, members of the committee, it's a privilege to 
appear before you today as the President's nominee to be the 
first United States Ambassador to the Republic of Kosovo. I'm 
honored by the trust placed in me by President Bush and 
Secretary Rice, but success in achieving our goals in Kosovo 
and the region will depend on close consultation with this 
committee and with others in Congress.
    As you recall, Mr. Chairman, it took a NATO military 
intervention in 1999 to compel the Serbian Dictator Slobodan 
Milosevic to withdraw his security forces from Kosovo and end 
the systematic violence of his regime against Kosovo's civilian 
population.
    In the aftermath of that conflict, the U.N. Security 
Council decided to remove Kosovo from Belgrade's governance and 
the U.N. mission in Kosovo was established to help Kosovo 
recover from war and build its own institutions of democratic 
self-government.
    The United States supported U.N.-facilitated efforts 
beginning in 2005 to determine the ultimate political status of 
Kosovo. After months of negotiations between Belgrade and 
Pristina, U.N. Special Envoy Maarti Ahtisaari produced a set of 
detailed provisions designed to facilitate Kosovo's development 
into a stable multiethnic society.
    Ahtisaari also recommended that Kosovo become independent, 
subject to a period of international supervision.
    The United States supported these recommendations which 
offered Kosovo and its neighbors the best opportunity to move 
beyond the conflicts of the past.
    In its first 4 months of independence, Kosovo has made 
significant progress in implementing the Ahtisaari protections 
for its minorities. The Kosovo Assembly has adopted 40 new laws 
needed to implement the Ahtisaari plan and has approved a new 
constitution that meets the highest democratic standards.
    There are still, of course, many, many challenges ahead. In 
particular, Belgrade's opposition to independence as well as 
its overt policy of promoting ethnic separation in Kosovo, has 
created a serious threat to stability.
    Nevertheless, we believe strongly that the resolution of 
Kosovo's status has opened the door for Kosovo to assume 
responsibility for its future and for the well-being of its 
people.
    To do this, Kosovo will need help. The European Union has 
rightly stepped up to provide the bulk of assistance to the new 
state and we will encourage Europe to continue to play this 
leading role. Active U.S. engagement, however, will remain 
essential.
    The United States is helping to strengthen Kosovo's 
economy, promote democratic governance, and bolster civil 
society with a special emphasis on programs that benefit 
Kosovo's ethnic minorities.
    Perhaps the single greatest United States priority in 
Kosovo is to foster a multiethnic society in which the rights, 
security, and culture of Kosovo's ethnic minorities and 
particularly the Serb minority are firmly protected.
    In the last 2 years, the United States Government has built 
infrastructure in Serb communities, advocated on behalf of Serb 
concerns, and encouraged Kosovo's Government to provide 
political and financial backing for sustainable Serb returns to 
Kosovo.
    Protecting the holy sites of the Serbian Orthodox Church 
has also been a major goal for us.
    Mr. Chairman and members of the committee, the success of 
Kosovo is in the United States interests. A strong and focused 
United States approach in tandem with our European partners 
remains absolutely fundamental to progress in Kosovo and the 
region. We and the people of Kosovo have everything to gain 
from this kind of active collaboration.
    Thank you again for this opportunity to appear before the 
committee, and I look forward to answering any questions that 
you have.
    [The prepared statement of Ms. Kaidanow follows:]

            Prepared Statement of Tina S. Kaidanow, Nominee 
               to be Ambassador to the Republic of Kosovo

    Mr. Chairman, members of the committee, it is a privilege to appear 
before you today as the President's nominee to be the first United 
States Ambassador to the Republic of Kosovo. I am honored by the trust 
placed in me by President Bush and Secretary Rice at this decisive 
moment for the people of Kosovo. Success in achieving our goals in 
Kosovo and the region will depend on close consultation with this 
committee and with others in Congress. If I may, I would like to say a 
special thanks to my parents, who are here today. Both of them came to 
the United States many years ago as immigrants, and they could not be 
prouder to see their daughter serve the country they love so much.
    Kosovo's historic declaration of independence on February 17 marked 
the end of Yugoslavia's nonconsensual collapse, one of the most tragic 
chapters of European history since World War II. During this period, 
United States policy in southeast Europe has been consistent. President 
George H.W. Bush, President Clinton and President George W. Bush have 
had a single vision for Europe since the fall of communism in 1989: a 
continent whole, free, and at peace. To implement this vision in 
Southeast Europe, we have acted to end wars, build multiethnic 
tolerance and bring the entire region closer to the Euro-Atlantic 
family of democracies.
    For the last 14 years, many of my assignments in the Foreign 
Service have dealt with the conflicts and problems caused by the break 
up of the former Yugoslavia. In Serbia, Bosnia, and now in Kosovo as 
Charge d'Affaires ad interim, I have witnessed the trauma of war and 
the power of U.S. involvement in bringing peace to the region and 
sustaining that peace. I traveled to Kosovo repeatedly during the 
conflict years of the late 1990s, and I later participated in the 1999 
Rambouillet peace conference, as the international community tried to 
find a way out of the crisis and obtain Belgrade's agreement to end its 
destructive and abusive policies in Kosovo. Kosovo's recent history--
and the key United States role in it--is in many ways personal for me.
    As you recall, Mr. Chairman, it took a NATO military intervention 
in 1999 to compel the Serbian dictator Slobodan Milosevic to withdraw 
his security forces from Kosovo. In the aftermath, the U.N. Security 
Council decided to remove Kosovo from Belgrade's governance and the 
U.N. Interim Administration Mission in Kosovo was established to help 
govern and develop it. Under U.N. guidance, Kosovo gradually recovered 
from war and built its own institutions of democratic self-government.
    The United States supported U.N.-facilitated efforts that began in 
2005 to determine the political status of Kosovo. After months of 
negotiations between Belgrade and Pristina, U.N. Special Envoy Martti 
Ahtisaari produced a set of recommendations for Kosovo's future. These 
proposals--the ``Ahtisaari Plan''--provided a comprehensive blueprint 
for Kosovo's development into a stable, multiethnic society on its way 
to integration in the Euro-Atlantic community. Special Envoy Ahtisaari 
also recommended that Kosovo become independent, subject to a period of 
international supervision. The United States supported these 
recommendations, which offered Kosovo and its Southeast European 
neighbors the best opportunity to move beyond the conflicts of the 
past. As chief of mission of the United States Office in Pristina, I 
helped explain to the Kosovo leadership the benefits this package could 
offer their people, but also urged them to pronounce clearly their 
commitment to the substantial rights afforded by the plan to the Serb 
community and other minority communities in Kosovo.
    On the day after Kosovo declared its independence in line with the 
Ahtisaari Plan, President Bush recognized Kosovo as an independent 
state and agreed to establish diplomatic relations. Since February, 43 
countries have recognized Kosovo, including more than \2/3\ of European 
Union and NATO members and several significant countries from every 
region of the world. Beyond the question of recognition of Kosovo's 
independence, the new state enjoys broad international support. Many 
countries that have yet to recognize Pristina formally are nevertheless 
providing personnel, technical assistance, and political backing for 
efforts in-country to build up Kosovo society.
    Although independence marked a significant step forward, Kosovo has 
serious problems. Economic development is slow, political institutions 
are weak, and interethnic tensions remain. I believe, however, it is a 
good sign that Kosovo's minority Serbs have stayed in Kosovo after 
independence and that the atmosphere between the two communities has 
remained calm and peaceful overall despite serious provocations from 
Belgrade and hardline Serbs in Kosovo's north.
    In its first 4 months of independence, Kosovo has made significant 
progress in implementing the Ahtisaari protections for its minorities. 
Prime Minister Thaci, President Sejdiu, and other key institutional 
leaders have reaffirmed their commitment to all aspects of the 
Ahtisaari Plan and have sent consistent messages of inclusion to 
Kosovo's ethnic minorities. The Kosovo Assembly has already adopted 40 
new laws needed to implement the Ahtisaari Plan, including legislation 
on the decentralization of local government, protection of minority 
rights, and cultural heritage safeguards. The Assembly also approved a 
new constitution that meets the highest democratic standards. Kosovo is 
working to deepen relations with its neighbors and has moved forward 
collaboratively with Macedonia to demarcate their mutual border in 
accordance with the Ahtisaari Plan.
    There are still, of course, many challenges ahead. Belgrade's 
opposition to independence, as well as its overt policy of promoting 
ethnic separation in Kosovo, has created threats to stability, and it 
appears that Russia will act to block Kosovo's entry into those 
international organizations where Russia or its supporters have a veto. 
There is much work ahead in managing Kosovo's transition from U.N. 
administration to supervised independence, a journey unique to Kosovo 
given the unusual circumstances of its recent history. Nevertheless, we 
believe strongly that the resolution of Kosovo's status has opened the 
door for Kosovo to assume responsibility for its future and for the 
well-being of its people.
    To do this, Kosovo needs help. The European Union has rightly 
stepped up to provide the bulk of assistance and guidance to the new 
state. The European Union will head up two new international presences 
in Kosovo, one responsible for rule of law and one responsible for 
supervising full implementation of the Ahtisaari plan. We will 
encourage Europe to continue to play this leading role. Active United 
States engagement, however, will remain essential to the stabilization 
of Kosovo and the region.
    Nearly 1,500 United States Army National Guardsmen of a total force 
numbering approximately 16,000 currently serve in KFOR, the NATO-led 
stabilization force in Kosovo. Although United States troops can and 
have operated throughout Kosovo, they primarily help maintain a safe 
and secure environment in eastern Kosovo, where a majority of Kosovo 
Serbs live. They are universally respected by Albanians and Serbs alike 
for their professionalism and effectiveness in dealing with a mixed-
ethnic civilian population. The United States supports ongoing NATO 
efforts to carry out certain Ahtisaari tasks, such as the establishment 
of a small Kosovo Security Force, which will allow Kosovo--over time--
to contribute to its own security and permit the drawdown of 
international forces.
    For many years, over 200 United States civilian police officers 
have participated in the current U.N. mission in Kosovo (UNMIK). As 
UNMIK hands over justice functions to local authorities and to the 
European Union, the United States will provide a reduced number of 
police, prosecutors, and judges to the European Union's new rule of law 
mission, known as EULEX. The United States is also helping to 
strengthen Kosovo's economy, promote democratic governance, and bolster 
civil society, with a special emphasis on programs that benefit 
Kosovo's ethnic minorities. While Europe remains firmly in the lead in 
material assistance and provides the ultimate incentive of closer 
association with the European Union, our resources will help Kosovo pay 
off its share of debt from the former Yugoslavia and accomplish a host 
of other important goals.
    Mr. Chairman, perhaps the single greatest United States priority in 
Kosovo is to foster a stable, multiethnic society in which the rights, 
security, and culture of Kosovo's ethnic minorities are firmly 
protected. The United States Embassy in Pristina has been and will 
continue to be engaged on a daily basis with the Kosovo Government and 
with Kosovo's ethnic communities to promote this objective.
    Although Kosovo Serbs opposed United States recognition of Kosovo's 
independence, many of them recognize that the United States is actively 
committed to their community's welfare. Our efforts to reach out 
directly to the Serb community and support its needs have had a 
tangible payoff in enhancing communication and trust. In the last few 
years, the United States Government has supplemented Kosovo's 
inadequate resources by building schools, roads and other 
infrastructure in Serb communities; we have advocated on behalf of Serb 
concerns directly to the Kosovo central government and to local 
authorities; we have helped resolve property disputes for Serbs who 
wish to return to Kosovo; and we have supported the growth of a nascent 
Serb media in Kosovo that can articulate the ideas of that community 
without filtering from Belgrade. We have encouraged Kosovo's 
government--which has already spent more than $77 million to build 
homes and provide support for returning Serbs--to expand those 
resources even further and provide political backing for sustainable 
returns.
    Protecting the holy sites of the Serbian Orthodox Church, as well 
as its rights as an institution, has also been a major goal for us. In 
addition to possessing churches and monasteries of global architectural 
and historic significance, the Serbian Orthodox Church plays an 
important role in the everyday lives of Kosovo Serbs. Kosovo's 
Government has spent close to $10 million to reconstruct and preserve 
those churches that were damaged in the tragic March 2004 riots. This 
is an effort we have supported vigorously over the past 2 years. We 
have also worked successfully with local governments to modify 
development plans that might affect the Church's holy sites, and we 
have facilitated understanding between religious leaders and local 
populations when Orthodox authorities have sought permission for 
construction that affects the wider community.
    Mr. Chairman, the success of Kosovo is in the United States 
interest. The circumstances of the breakup of the former Yugoslavia 
posed--and in some ways continue to pose--a fundamental challenge to 
stability in southeast Europe, and history has shown that broken 
societies attract the great scourges of our age, including 
transnational crime, ethnic conflict, trafficking in persons, and 
terrorism.
    To counter the impact of these forces, a strong and focused U.S. 
approach, in tandem with our European partners, remains absolutely 
essential. I believe our efforts in Kosovo and the region make a 
meaningful difference each and every day, and our continued involvement 
will promote long-term stability in this part of Europe. If confirmed, 
I will work closely with our allies and with you to help Kosovo take 
those steps necessary to become a productive member of the Euro-
Atlantic family of democratic nations. We and the people of Kosovo have 
everything to gain from this collaboration.
    Thank you, again, for the opportunity to appear before this 
committee today. I look forward to answering your questions.

    Senator Cardin. Thank you for your testimony. We'll now 
turn to Mr. Philip Thomas Reeker to be the Ambassador to the 
Republic of Macedonia.

  STATEMENT OF PHILIP REEKER, NOMINEE TO BE AMBASSADOR TO THE 
                     REPUBLIC OF MACEDONIA

    Mr. Reeker. Thank you, Mr. Chairman, Senator Menendez, 
Senator DeMint.
    I'm privileged to appear before you today and I'll be 
pleased to submit my full statement for the record.
    I'm also very privileged to be joined at this dais by such 
a distinguished panel of colleagues. It's a great honor for me 
to join the people I've known in the Foreign Service for many 
years.
    If I may, I would like to begin by introducing my adorable 
wife and partner in service to our Nation, Solveig Johnson 
Reeker, herself a career member of the United States Foreign 
Service, and I'd also like to recognize my father, Larry 
Reeker, and the two youngest of my four siblings, my brothers, 
Greg and Seth. Today happens to be Greg's 28th birthday and we 
wish him all the best. Seth, in fact, spent the summer of 1998 
with me in Macedonia, when he was just 8 years old, while I was 
serving at our embassy in Skopje as the public affairs officer 
under Ambassador Christopher Hill.
    Should the members of this committee and the full Senate 
confirm my nomination, I will do my utmost as ambassador to 
validate the trust placed in me to advance our Nation's goals 
in Macedonia and in Southeast Europe and to represent our 
country to the best of my abilities.
    I am certainly struck by how far Macedonia, as a country, 
has come since I last served in Skopje. Indeed, no period since 
its independence in 1991 has been an easy one for Macedonia and 
the last 9 years have been no exception.
    The country has suffered setbacks and challenges to its 
stability but has overcome each to regain its bearings and 
press forward again in pursuit of a better future.
    Today, Macedonia is a stable unitary model of multiethnic 
democracy in the Balkans, still in transition, but with much 
stronger democratic and entrepreneurial traditions of vibrant 
inclusive political process and steadily maturing institutions 
of government and civil society.
    Mr. Chairman, our relations with Macedonia have never been 
closer. Pro United States sentiment among Macedonians of all 
ethnicities is extremely strong. Americans and Macedonians 
share an affinity of values and we are partners in the major 
endeavors and challenges of our time.
    I just returned last week from service in Iraq and just 
last month in my previous capacity as counselor at our United 
States Embassy in Baghdad, I had the opportunity and honor to 
meet with the Macedonian Ranger and Infantry Platoons deployed 
with American forces at Tajik. They are brave and professional 
soldiers serving with distinction and high morale alongside 
United States troops since 2003 in Iraq.
    Macedonian troops in Iraq receive the highest praise and 
respect from the United States commanders. Macedonia is a small 
country but punching above its weight in United States-led 
coalitions. Once a net security consumer, Macedonia is today a 
net security producer, keen on bringing its unique capability 
into NATO as a full-fledged member.
    Mr. Chairman, if confirmed as ambassador, I would strive to 
uphold and continue on the distinguished record of the men and 
woman who have held this position before me, promoting United 
States goals in Macedonia while maintaining a solid partnership 
with the host country.
    If confirmed, I and the mission I would lead will continue 
to help the leaders and people of Macedonia build on their 
successes and achieve through continued reform the multiethnic 
democracy and free market economy they desire, including 
integration into NATO and into the European Union.
    I know I cannot succeed in these endeavors without your 
support. If you confirm me, you can count on my close 
cooperation with you, the full committee, the entire 
legislative branch, as we work together to serve the American 
people and for the advancement of U.S. interests.
    I look forward very much to answering any questions you may 
have.
    Thank you.
    [The prepared statement of Mr. Reeker follows:]

          Prepared Statement of Philip Thomas Reeker, Nominee 
             to be Ambassador to the Republic of Macedonia

    Mr. Chairman, members of the committee, I am privileged to appear 
before you today as President Bush's nominee to be our country's next 
Ambassador to the Republic of Macedonia. I am deeply honored by the 
confidence expressed by the President and Secretary Rice in selecting 
me for this important assignment. It has been my privilege to meet 
committee members and staff during my years in the Foreign Service, and 
I pledge continued commitment and candor as you consider confirming me 
for this new position. Should the members of this committee and the 
full Senate confirm my nomination, I will do my utmost as ambassador to 
validate the trust placed in me, to advance our Nation's goals in 
Macedonia and in Southeast Europe, and to represent our country to the 
best of my abilities. That would include maintaining a close working 
relationship with this committee, its staff, and your congressional 
colleagues in furthering the security and interests of the American 
people.
    Mr. Chairman, I am delighted to be accompanied today by my wife and 
best friend, Solveig Johnson Reeker, herself a career member of the 
Foreign Service. I would also like to recognize my father, Larry 
Reeker, and two of my four siblings, my brothers, Greg and Seth. Seth, 
in fact, spent the summer of 1998 with me in Macedonia when he was 8 
years old, while I was serving at our embassy in Skopje as the Public 
Affairs Officer, under Ambassador Christopher Hill. If confirmed, I 
will return to a Macedonia very different than the one I left in 1999. 
I am struck by how far Macedonia, as a country, has come since I last 
served in Skopje. Indeed, no period since its independence in 1991 has 
been an easy one for Macedonia, and the last 9 years have been no 
exception. The country has suffered setbacks and challenges to its 
stability, but has overcome each to regain its bearings and press 
forward again in pursuit of a better future. In 1999, Macedonia rose to 
the challenge of the influx of Kosovar refugees from Milosevic's ethnic 
cleansing campaign. It was profoundly tested again by an insurgency in 
2001. With the help of the international community, Macedonia's leaders 
lifted their country out of the clutches of interethnic conflict with a 
model political accord: the Ohrid Framework Agreement.
    With the Ohrid Agreement, Macedonia took a bold step, breaking the 
previous mold for the Balkans by ending conflict through a political 
agreement that addressed ethnic grievances through principles of equal 
rights for all citizens irrespective of ethnicity. The Ohrid Agreement, 
concluded with United States and European Union help, remains the 
foundation and roadmap for Macedonian peace and development. Successive 
multiethnic governments have reaffirmed the agreement by committing 
themselves to its implementation, a process the United States monitors 
closely. All of the constitutional and legal provisions mandated by the 
agreement have been adopted. Their implementation has progressed, 
including the key pillars of equitable representation of minorities 
across state structures and of decentralization to make local 
governance more responsive to the people. In the spirit of Ohrid, 
interparty and interethnic dialog continues to be critical. While not 
immune from political gamesmanship, this dialog over the years has 
resulted in compromises and reforms that have strengthened Macedonia's 
multiethnic democratic institutions and remain integral to securing for 
all Macedonia's citizens a future in Europe, whole, free, and at peace.
    Today, 7 years on from Ohrid and after 17 years of independence, 
Macedonia is a stable, unitary, multiethnic democracy--still in 
transition, but with much stronger democratic and entrepreneurial 
institutions. Today, a still evolving Macedonia is a model of 
multiethnic democracy in the Balkans, working to address its internal 
social and ethnic challenges within a vibrant, inclusive, political 
process and steadily maturing institutions of government and civil 
society.
    Steps like ethnic rebalancing of the police, put in place by 
Macedonia in the wake of the 2001 insurgency, and the adoption of a 
police law in line with international standards and other key legal 
reforms have reinforced the independence of the judiciary and 
strengthened rule of law. Making strides economically, Macedonia is 
making up for its relative lack of development in the former 
Yugoslavia, for the economic downturns that accompanied Yugoslavia's 
breakup, and for the investment-chilling effects of the 2001 
insurgency. Unemployment, a strain on social stability, remains high, 
but real wages have gradually increased, inflation and deficits are 
manageable, and GDP has risen. The government has taken bold steps to 
improve the investment and business climate, leading the World Bank to 
cite Macedonia as a top 10 global reformer in its 2008 report on 
``Doing Business.'' Macedonia also stepped up the fight against 
corruption, reflected by a significant jump in Transparency 
International's 2007 ratings. And strong governmental efforts have 
brought Macedonia back into full compliance with the minimum standards 
to combat trafficking in persons.
    Macedonia has more work to do, but its progress is driven by values 
that we Americans recognize and share. These include recognition that 
the livelihoods of its communities and the success of the whole country 
and region depends on cooperation eclipsing confrontation, 
understanding supplanting mistrust, and healthy political competition 
and compromise becoming the tools to resolve differences. Macedonia 
also identifies with the Euro-Atlantic family of nations, with 
responsibilities--indeed a calling--to contribute to peace and 
stability for peoples beyond its borders.
    Mr. Chairman, this affinity of values explains, I believe, the 
depth of our partnership with Macedonia today. Our relations with 
Macedonia have never been closer; pro-United States sentiment among 
Macedonians of all ethnicities is strong. Today, we are partners in the 
major endeavors and challenges of our time. Just last month, in my 
previous capacity as Counselor for Public Affairs at the United States 
Embassy in Baghdad, I had the opportunity and honor to meet with the 
Macedonian special forces and infantry platoons deployed with American 
forces at Taji. They are brave and professional, serving with high 
morale alongside U.S. troops. Several Macedonian soldiers who served in 
Iraq were awarded medals of bravery by the United States. In 
Afghanistan, Macedonian forces are guarding NATO headquarters and 
displaying such proficiency that the United Kingdom placed a platoon of 
British troops under Macedonian command.
    Macedonia's capable troop commitments reflect the substantial 
efforts of recent years to meet NATO defense standards. Macedonia also 
has proven itself as a strong contributor to regional stability. It has 
troops in the European Union Force in Bosnia and provides needed 
helicopter lift--in fact it lost 11 soldiers in a crash this year, but 
that tragedy did not deter its continued participation. For years 
Macedonia has provided critical logistical support for the NATO mission 
in Kosovo. And in an issue of utmost importance for Balkan stability--
the fate of Kosovo--Macedonia ``paid forward'' by fully backing United 
States efforts to resolve Kosovo status peacefully via U.N. Secretary 
General Special Envoy Ahtisaari's plan for supervised independence. As 
a close neighbor, Macedonia recognized that ending Kosovo's limbo was 
important to the stability of the region.
    The unwavering support of Macedonia's political leaders and 
parliament for Macedonia's contributions to regional and global 
stability, and the overwhelming backing of Macedonia's citizenry for 
NATO and European Union membership--over 90 percent in each case--are 
reflections of the country's self-identification with Euro-Atlantic 
values and a mandate for Macedonia's continued reform. Its hard work of 
building a multiethnic society based on equal rights and opportunities 
is not complete. As in our country, the process has not been perfect 
and the way forward has not been easy. At times, Macedonia has asked 
for the support of the United States, and we have given it, standing by 
the citizens of Macedonia, helping as we could with counsel and 
assistance, and working with their political leaders to move beyond a 
zero-sum mentality. Macedonia's track record in avoiding the terrible 
pitfalls witnessed in other parts of the region has shown the world 
that multiethnic democracy in the Balkans can, must and will succeed.
    Macedonia's progress has been slow at times, but its way forward 
has never been in doubt. It is still a poor country, but rich with 
tradition and culture, with a capable and entrepreneurial citizenry, 
with multitalented and multilingual youth, and with a growing economy 
full of potential. It is a small country, but punching above its weight 
in U.S.-led coalitions. Once a net security consumer, today Macedonia 
is a net security producer, keen on bringing its unique capabilities 
into NATO as a full-fledged member. It is also an official candidate 
for the European Union, working to fulfill benchmarks and receive an 
invitation for membership talks.
    Macedonia's success is critical to the region. Its achievement of 
NATO and European Union membership will be an important affirmation 
that political and economic reform is worth the hard work and that NATO 
and European Union doors remain open for countries that share Western 
standards and values. The fact that Allies at the NATO summit in 
Bucharest in April did not issue a membership invitation for Macedonia 
was a disappointment for Macedonia and also for the United States. The 
United States through several administrations has strongly supported 
Macedonia's NATO aspirations. We do not consider that the dispute 
between Athens and Skopje over Macedonia's name should have prevented 
Macedonia from receiving an invitation. We made a great push in the 
lead-up to Bucharest to work with Governments in Greece and Macedonia 
and with U.N. negotiator Ambassador Matthew Nimetz to help the parties 
find a mutually acceptable solution. This did not prove possible. At 
Bucharest, allies determined that Macedonia meets NATO's performance-
based standards and will receive an invitation as soon as the dispute 
with Greece over the name is resolved. As President Bush noted, 
``America's position is clear: Macedonia should take its place in NATO 
as soon as possible.'' We will continue to support the U.N. process to 
help Macedonia and Greece find a mutually acceptable solution to the 
name dispute as quickly as possible.
    Mr. Chairman, in May, Secretary Rice and Macedonian Foreign 
Minister Milososki signed a joint Declaration on Strategic Partnership 
and Cooperation as a sign of friendship and shared values between our 
two countries. This was an important signal to the people of Macedonia 
after the disappointment of the NATO Summit. As Secretary Rice said 
upon signing the declaration, the United States is proud to have been a 
part of the significant reforms that Macedonia has made. We believe a 
strong, stable, unitary, multiethnic Macedonia within its existing 
borders will enhance NATO's strength, security and prosperity and 
democracy. We have encouraged and will continue encouraging Macedonia 
to work hard to strengthen what it will bring to the alliance.
    Macedonia's parliamentary elections on June 1 underscored the 
challenges that remain for Macedonia in consolidating its progress. 
Frankly, they were a disappointment, with numerous instances of 
violence, intimidation, fraud, and irregularities predominantly in 
ethnic Albanian areas. We were encouraged by the authorities' steps 
taken to address the problems, including the decision by the State 
Electoral Commission to hold broad reruns in affected areas and actions 
by law enforcement authorities to arrest and bring to trial the 
suspected perpetrators of those incidents. The June 15 reruns showed 
significant improvements, including effective and professional police 
conduct which created a much better security environment. Nevertheless, 
despite these improvements and good administration overall, the 
problems on June 1 and continuing irregularities in some polling 
stations led the OSCE international observation mission to conclude 
that the elections overall failed to meet some key commitments. The 
United States will continue to urge follow-through from the government, 
including holding accountable those responsible for the problems, to 
ensure in the future a fair electoral process that protects the rights 
of all citizens and fully repairs Macedonia's credibility. This is a 
top priority, and the United States looks forward to working with the 
next Macedonian Government and all Macedonians to support them on this 
path.
    Mr. Chairman, if I am confirmed, my foremost priority as ambassador 
will be promoting United States interests in Macedonia while 
maintaining a solid partnership with the host country. The security of 
all United States citizens living and working in Macedonia is of course 
paramount. I would be committed to helping Macedonia achieve the 
multiethnic democracy and free market economy its citizens desire, 
advancing its integration into NATO and the European Union. As 
ambassador, I would continue to help Macedonia's leaders and people 
build on their successes and achieve these goals. If confirmed to this 
position, I would encourage the Macedonian Government and people to 
continue contributing wherever possible to peace and stability in the 
region and globally. And I would if confirmed promote further 
maturation of Macedonia's own democratic institutions. I would also 
hope, if given the opportunity by the Senate, to facilitate greater 
United States business engagement in Macedonia, taking advantage of the 
Macedonian Government's steps to improve the business climate, and 
enlisting United States companies to bring their talents to bear in 
support of Macedonia's transformative efforts. No less importantly, I 
promise to manage our mission and its resources responsibly and to 
provide our embassy's talented workforce and their families the safe 
and secure working conditions that allow them to contribute to our 
mission. Consistent with that goal, we would hope to take occupancy of 
a new embassy compound next year.
    In sum, Mr. Chairman, should my appointment be confirmed, I would 
strive to uphold and build on the distinguished record of the men and 
women who have held this position before me and who have contributed to 
the excellent relations between the United States and Macedonia and who 
thus have made such vital contributions to peace, stability, and 
prosperity in this important region of the world. I know that I cannot 
succeed in these endeavors without your support. If you confirm me, you 
can expect my close cooperation with you, your committee, its staff, 
and the entire legislative branch as we work together for the 
advancement of U.S. interests. I look forward to answering any 
questions you may have.

    Senator Cardin. Thank you for your testimony. We'll now 
turn to Ms. Maria Yovanovitch to be Ambassador to the Republic 
of Armenia.

 STATEMENT OF MARIA L. YOVANOVITCH, NOMINEE TO BE AMBASSADOR TO 
                    THE REPUBLIC OF ARMENIA

    Ms. Yovanovitch. Thank you, sir. Before I start, I'd like 
to acknowledge my mother, Nadia, who just turned 80 this week, 
and my brother, Andre. And I'd also like to thank Senator Dole 
for his kind introduction, and I'm pleased to submit my full 
remarks for the record. This is a truncated version.
    Mr. Chairman, members of the committee, it's an honor for 
me to appear before you today. I'm honored also by the 
confidence that President Bush and Secretary Rice have shown in 
me by nominating me for the post of United States Ambassador to 
Armenia.
    Only in the United States would it be possible for a first 
generation immigrant like me to appear before you as an 
ambassadorial nominee. My father, who is no longer with us, 
fled the Soviets and then the Nazis. My maternal grandfather 
escaped from Russia after the Revolution and raised his family 
in wartime Germany where my mother grew up stateless.
    My parents brought me to this country in search of a safe 
harbor, a harbor that provides freedom and opportunity, dignity 
and respect. The United States offered our family a second 
chance, just as so many Armenian Americans received a second 
chance in our country after they were driven out of the Ottoman 
Empire.
    I cannot equate my own family history with that of 
Americans of Armenian heritage, but I do wish to convey that I 
understand from personal experience that the events of the past 
can haunt the present and that individuals born a generation or 
more after apocalyptic events seek recognition of the 
injustices of the past.
    The United States Government recognizes and deplores the 
mass killings, ethnic cleansing, and forced deportations that 
devastated over 1.5 million Armenians at the end of the Ottoman 
Empire. The United States recognizes these events as one of the 
greatest tragedies of the 20th century, the Great Calamity or 
``Medz Yeghern,'' as many Armenians call it.
    The administration understands that many Americans and many 
Armenians refer to the atrocities of 1915 as genocide. It has 
been President Bush's policy, as well as that of previous 
Presidents of both parties, not to use that term. The 
President's focus, the administration's focus, is not only to 
remember the past so that it is never repeated, it is also to 
focus on the future, to create an environment that encourages 
Turkish citizens to reconcile with their past and also with the 
Armenians.
    It's important to end Armenian isolation in the region by 
working toward normalization of relations between Armenia and 
Turkey and the opening of their land border. If confirmed, one 
of my top priorities will be to support regional stability by 
facilitating Armenian-Turkish relations as well as a peaceful 
settlement to the Nagorno-Karabakh conflict with Azerbaijan.
    The status quo in both situations is unacceptable and not 
in regional interests or in U.S. interests. Some progress has 
been made in both areas recently which we welcome.
    Finally, but very importantly, restoring democratic 
momentum in Armenia after the flawed presidential elections and 
their violent aftermath is also a key United States goal as is 
assisting Armenia's transition to a market economy.
    Mr. Chairman, members of the committee, I would build on my 
22 years of service to our country to ensure that United States 
interests are promoted and protected, that the bilateral 
relationship flourishes and that Armenias isolation ends and 
regional stability is enhanced.
    Thank you for allowing me to appear before you today. I 
look forward to your questions.
    [The prepared statement of Ms. Yovanovitch follows:]

          Prepared Statement of Marie L. Yovanovitch, Nominee 
              to be Ambassador to the Republic of Armenia

    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today. I am honored by the confidence 
that President Bush and Secretary Rice have shown in me by nominating 
me for the post of United States Ambassador to Armenia. If confirmed, I 
pledge to build on my 22 years of service to our country to protect and 
defend American interests in the increasingly vital region of the South 
Caucasus.
    Only in the United States would it be possible for someone like 
me--a first generation immigrant to the United States--to appear before 
you as an ambassadorial nominee. My father fled the Soviets and then 
the Nazis. My maternal grandfather escaped from Russia after the 
revolution and raised his family in wartime Germany, where my mother 
grew up stateless. My parents brought me to this country in search of a 
safe harbor, a harbor that provided freedom and opportunity, dignity, 
and respect.
    The United States offered our family a second chance, just as so 
many Armenian-Americans received a second chance in our country after 
they were driven out of the Ottoman Empire. In no way do I want to 
equate my own family history with that of Americans of Armenian 
heritage here in the United States. But I do wish to convey that I 
understand from personal experience that the events of the past can 
haunt the present and that individuals, born a generation or more after 
apocalyptic events, seek recognition of the injustices of the past.
    The United States Government--and certainly I--acknowledges and 
mourns the mass killings, ethnic cleansing, and forced deportations 
that devastated over one and a half million Armenians at the end of the 
Ottoman Empire. The United States recognizes these events as one of the 
greatest tragedies of the 20th century, the ``Medz Yeghern'' or Great 
Calamity, as many Armenians refer to it. That is why every April the 
President honors the victims and expresses American solidarity with the 
Armenian people on Remembrance Day.
    The administration understands that many Americans and many 
Armenians believe that the events of the past that I have referred to 
should be called ``genocide.'' It has been President Bush's policy, as 
well as that of previous presidents of both parties, not to use that 
term. The President's focus is on encouraging Turkish citizens to 
reconcile with their past and with the Armenians. He seeks to support 
the painstaking progress achieved to date.
    President Bush believes that the best way to honor the victims is 
to remember the past, so it is never repeated, and to look to the 
future to promote understanding and reconciliation between the peoples 
and governments of Armenia and Turkey. A key part of that effort is to 
end Armenia's isolation in the region by encouraging normalization of 
relations between Armenia and Turkey and the opening of their land 
border. The Armenian Government has requested that we facilitate this 
process. It will not be easy nor will it likely be quick, but there are 
some hopeful signs. President Bush believes that normalization can and 
should be achieved. The result would be an improvement in the life of 
every Armenian.
    If I am confirmed, my priority would be to support the efforts of 
the United States in working towards regional stability by facilitating 
Armenian-Turkish relations and a peaceful settlement to the Nagorno-
Karabakh conflict with Azerbaijan. Armenia is isolated from its second 
largest neighbor, Turkey, and every year scores of soldiers die along 
the line of contact with Azeri forces in Nagorno-Karabakh. The status 
quo in both situations is unacceptable, a deterioration unthinkable and 
clearly not in U.S. or regional interests.
    Some progress has been made in both areas recently. Success would 
bring security to Armenia and great economic opportunities. This is a 
goal worth pursuing, and, if confirmed, I would give it my utmost 
attention--not only by supporting government-to-government 
discussions--but by promoting people-to-people contacts and 
partnerships, and other cross-border and regional initiatives. Contact 
begins to build trust, and trust is the necessary first step to 
reconciliation and conflict resolution.
    Promoting good governance in Armenia is also a key United States 
goal. The conduct of the recent Presidential elections and their 
violent aftermath in which 10 individuals died were deeply disturbing. 
The path towards democracy is rarely fast or smooth. Our aim is to help 
the Armenian Government and the Armenian people restore democratic 
momentum and to renew their own stated mission of moving forward to 
become a country where government institutions are fully transparent 
and accountable and where rule of law is accepted by all.
    It is important that the Armenian Government support an 
independent, objective, and inclusive investigation into the fateful 
events of March 1 and release those who have been held on politically-
motivated charges. It is important that the judiciary becomes truly 
independent. It is important that freedom of assembly, freedom of the 
press, and freedom of expression are fully protected. It is important 
that the Armenian authorities show the will to move forward with a 
reform program that is responsive to the legitimate desires of the 
people and that inspires public confidence in the country's political 
and economic processes.
    We are looking at how our democracy programs can be more targeted--
better supporting civil society, watchdog organizations, the 
independent media, and development of the Internet. Our programs will 
continue to focus on anticorruption efforts and strengthening the rule 
of law.
    The Millennium Challenge Corporation (MCC) Agreement in 2006 
demonstrated our belief that Armenia was fulfilling MCC's required 
criteria in the three broad areas of ruling justly, investing in 
people, and economic freedom. MCC is a performance-based program for 
governments that demonstrate commitment in these areas. In Armenia, the 
MCC Compact is a poverty-reduction program that focuses on building 
roads, improving the irrigation infrastructure, and training farmers. 
The program will eventually benefit 750,000 people, 75 percent of whom 
live in rural areas.
    This is an important program, and we have urged the new Armenian 
Government to act quickly to improve its standing in the 9 of 17 
indicators that it currently fails. The United States Government is 
committed to assisting Armenia in this process, but it is up to the 
Armenian Government to take the necessary steps, so that the Compact 
program could continue.
    The Armenian economy has seen great success and double digit growth 
over the last 6 years. Our assistance programs--through technical 
assistance to improve the regulatory and legislative framework, through 
strengthening of the private sector, and through training in many 
sectors of the economy--have contributed at least in part to this 
success.
    Over the last 4 years, Armenia has contributed to global security 
by providing peacekeepers in both Kosovo and Iraq. In fact, the size of 
Armenia's contingent in Kosovo was doubled just last week. By 
supporting Armenia's defense sector reform and greater cooperation with 
NATO, we enhance Armenia's ability to assist in peacekeeping operations 
and to work with coalition forces to combat global terrorism and make 
the world a safer place.
    Armenia remains committed to overflight and landing rights for 
United States military aircraft and has worked to improve its capacity 
to combat both money laundering and terrorism financing. These are 
efforts we have strongly supported. Our assistance for Armenia's work 
to strengthen its borders and combat illegal trade in arms, weapons of 
mass destruction, drugs, and people is important to regional stability.
    Our relationship with Armenia is broad and deep, both on a 
bilateral level and between our peoples. The United States was among 
the first to recognize Armenia's independence, and the first to 
establish an embassy in Yerevan. Over the past 17 years, the United 
States has provided close to $2 billion in assistance and materially 
improved the lives of millions of Armenians. While challenges remain, 
we expect our partnership will continue to strengthen, and that we will 
continue to cooperate in all areas.
    Mr. Chairman, members of the committee, if confirmed, I will do 
everything in my power to ensure that United States interests are 
promoted and protected, that the bilateral relationship flourishes, and 
that Armenia's isolation ends and regional stability is enhanced.
    Thank you.

    Senator Cardin. Well, let me thank you and thank all of our 
witnesses for their testimony.
    As pointed out at the beginning of the hearing, you are 
seeking to continue your public service in countries that are 
critically important to U.S. interests and each of these 
countries have their own set of challenges. They're not going 
to be easy and we thank you very much for being willing to 
assume this challenge and service to your country.
    So let me start with the Russian Federation because the 
Russian Federation is clearly a country that has increasing 
importance. Their economy has improved dramatically. They've 
been able to use their oil to improve their influence and yet 
the real challenge for us is whether Russia will become a 
democratic country, whether it will develop the type of 
democratic institutions and promote divergent views or whether 
it will continue a recent trend which we find very disturbing, 
and that is preventing dissent in a way in which a democratic 
country would promote those types of activities.
    So Mr. Beyrle, let me get your assessment as to at this 
moment, if you're confirmed being the United States Ambassador 
to Russia, where Russia is gaining influence because of its 
economic strength and yet it seems to be discouraging 
independent press, discouraging minority views, in a government 
that's pretty popular, doesn't need to do all this but it does. 
How do you see your mission here?
    Mr. Beyrle. Thank you very much, Mr. Chairman. As I said in 
my opening statement, we need Russia as a partner in the 21st 
century.
    The challenges that we're facing in this century that I 
enumerated are almost impossible for us to achieve on our own. 
We need partners, friends, and allies in the European Union, in 
other parts of the world, but especially in Russia, because 
Russia is such a large and consequential country, and I think 
in our dealings with Russia, and I would certainly pursue this 
if confirmed, we need to make clear to Russia that we value 
that partnership but that our ability to build the kind of 
strong partnership, to have the joint projects that require a 
lot of trust between our two countries, the nonproliferation, 
counterterrorism dialog that we have with Russia, gets more 
difficult as we see trends in the country moving away from the 
democratic values that we both, I think, need to stand behind, 
that the United States sees as so important in its most 
important relationships, for instance, with its European 
allies.
    I would try to make the point to our Russian partners, 
potential partners, that we need them to be a constructive 
force in the world, that we need their help, for instance, in 
convincing Iran to forswear its nuclear ambitions. We've had 
some success with Russia. We could have more.
    But divorcing those questions from Russia's democratic 
development, it seems to me, is a mistake because a democratic 
Russia which is accountable to its people, which has a robust 
civil society, is simply a country that we understand better as 
Americans and will thus have more trust in.
    Senator Cardin. I thank you for that answer, particularly 
in relationship to Iran. We've had real difficulty. Russia did 
help us with the resolution through the Security Council, but 
its enforcements of effective sanctions leave a lot to be 
desired and it seems to me this is--if we're going to be 
successful in diplomatic efforts and preventing Iran from 
becoming a nuclear weapon power, that we're going to need more 
cooperation from Russia which is going to be one of the highest 
priorities on your agenda if you're confirmed as ambassador.
    How do you see an effective strategy with Russia so that we 
can isolate Iran?
    Mr. Beyrle. Mr. Chairman, I think that we need to continue 
along the road that we traveled with Russia until now. Russia 
has supported us now on four U.N. Security Council resolutions, 
three of which included sanctions, making the point to Iran 
that we reject its nuclear ambitions.
    I think with Russia, the challenges, that really are our 
strategic aims coincide. The Russian Government--Russian 
leaders have said very clearly that they have no interest and 
do not want Iran to become a nuclear power. We agree with that 
at the strategic level.
    The difference we have with them is in the tactics, the 
tactics that we implement to put pressure on Iran to convince 
Iran to move away from this, from what is very clearly a 
nuclear weapons program, and I think together with our European 
allies, we need to devise ways, perhaps not through, as much 
through the United Nations but through closer dialog that would 
simply make the point to Iranian leaders that they are 
isolating themselves from the world and denying their own 
people the chance at a better future by pursuing this program.
    Senator Cardin. Thank you for that. I want to at least put 
on the record a couple issues that have been pending for a long 
time in our relationship with Russia that's been of interest to 
this committee.
    We have the North Caucuses and we don't want to lose sight 
of the responsibilities of the Russian Federation to exercise 
leadership in dealing with the human rights of the people of 
that region and there's still concern that they're overreacting 
to a serious situation but violating human rights issues.
    I also want to mention an issue that was brought up during 
Secretary Rice's confirmation in our committee in which we had 
hearings on the Schneerson Collection, that Secretary Rice, 
during the confirmation, said, and I quote, ``The State 
Department would press the Russian Federation to return the 
Schneerson Collection of rare and irreplaceable religious text 
to the Chabet Community of the United States.''
    The last time I checked, the collection is still in Moscow. 
That's still of interest and we would hope that you would use 
your good offices, if you are confirmed as ambassador, to bring 
this chapter to a successful conclusion by return of the--it 
looks like we're losing our light. Oh, somebody--okay. Well, 
we'll get that place back on. I thought that somebody from the 
Russian Federation didn't like my question. [Laughter.]
    Mr. Beyrle. Thank you, Mr. Chairman. Let me respond very 
briefly on both of those issues.
    With regard to Georgia, Abkhazia, the states of the former 
Soviet Union, we have made it very clear that we're committed 
to the sovereignty and independence of all the states of the 
ex-USSR and we've worked very hard to resolve the frozen 
conflicts, some of which we discussed here at this table just 
now, and to avoid new ones, and if confirmed, this will be one 
of my priorities, highest priorities, especially with regard to 
Georgia and Abkhazia, where we right now are actively trying to 
promote a settlement and direct talks. We need Russia's 
assistance on that.
    The Schneerson Collection, I'm familiar with from the time 
I worked on the National Security Council staff in the mid 
1990s, and I know very well that the promises that were made 
with regard to that collection still need to be fulfilled and 
I'll be up to speed on that issue very, very quickly, if 
confirmed, when I arrive in Moscow.
    Senator Cardin. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Let me 
congratulate all of the nominees on their nominations and your 
willingness to serve and we appreciate that.
    Ambassador Yovanovitch, let me start at the outset by 
acknowledging and thanking you for your 22 years of very 
distinguished service to our country. I appreciate your 
service.
    In your opening statement, you acknowledge the mass 
killings, ethnic cleansing, and forced detentions that 
devastated over 1.5 million Armenians at the end of the Ottoman 
Empire, is that correct?
    Ms. Yovanovitch. Yes, sir, that's correct. It's the 
administration's policy to acknowledge these historical facts.
    Senator Menendez. Would you agree with the 
characterization--and if I may, Mr. Chairman, I'm going to be 
referring to a series of documents. If I could give the 
ambassador a copy of them so she could have them in front of 
her, that would be helpful, and I'd ask unanimous consent that 
these documents be included in the record.
    Senator Cardin. Without objection, the documents will be 
included in the record.
    [The referenced documents have been reproduced and are 
included in the ``Additional Material Submitted for the 
Record'' section at the end of this hearing.]
    Senator Menendez. I would ask you, would you agree with the 
characterization by President Bush on April 24 of 2004, which 
is the first referenced item before you, where he says, and I 
quote, ``On this day, we pause in remembrance of one of the 
most horrible tragedies of the 20th century, the annihilation 
of as many as 1.5 million Armenians through forced exile and 
murder at the end of the Ottoman Empire?'' Would you agree? I 
just need a yes or no.
    Ms. Yovanovitch. Yes, sir.
    Senator Menendez. Okay. Thank you. Would you agree that the 
use of the words ``ethnic cleansing,'' which you used in your 
opening statement, would include the deliberate inflicting on a 
group of conditions of life calculated to bring about its 
physical destruction in whole or in part? Would you agree that 
that's what generally ethnic cleansing would be defined as?
    Ms. Yovanovitch. There's no question----
    Senator Menendez. The deliberate--let me read it--say it 
again to you so that you've got it before you answer.
    ``The deliberate inflicting on a group of individuals of 
conditions of life calculated to bring about its physical 
destruction in whole or in part.''
    Ms. Yovanovitch. The question that you're asking, and I 
hope you understand my answer, the determination of that is a 
policy decision that I'm not authorized to make right now. It's 
a decision for the administration, for the President and the 
Secretary.
    Senator Menendez. I respect your answer. I'm not asking you 
what is the policy or a policy. I'm simply asking you. You used 
the words in your opening statement ``ethnic cleansing,'' and 
I'm asking you a simple question.
    Would you describe ethnic cleansing as a deliberate 
inflicting on a group of individuals conditions of life 
calculated to bring about its physical destruction in whole or 
in part? If the answer is no, then tell me what you mean by 
ethnic cleansing.
    Ms. Yovanovitch. There's no question that at the end of the 
Ottoman Empire, there was mass murder, there was starvation, 
there were deliberate rapes, there was forced exile of 1.5 
million Armenians at the end of the Ottoman Empire.
    Senator Menendez. And is that what you describe as your 
definition of ethnic cleansing, those facts?
    Ms. Yovanovitch. Yes.
    Senator Menendez. Would you look at the document that is 
referenced as Number 2 there which says--these are documents 
that I'm going to be referring to by American officials at the 
time of history, and I would ask you whether the statement by 
then U.S. Ambassador Morganthau, who wrote on July 16, 1915, 
``It appears that a campaign of race extermination is in 
progress under a pretext of reprisal against rebellion.''
    Is that a fact that you would agree with as reported as a 
historical fact that Ambassador Morganthau reported?
    Ms. Yovanovitch. Yes, it's certainly a fact here as I'm 
reading off of this hand-out that you gave me that Ambassador 
Morganthau reported this.
    Senator Menendez. Thank you. Would you look at Number 3 
where it says, ``Where U.S. Counsel Aleppo Jesse Jackson 
reported to Ambassador Morganthau on June 5, 1915, that it's 
without doubt a carefully planned scheme to thoroughly 
extinguish the Armenian race.''
    Is that what Counsel Jackson said in his statement to 
Ambassador Morganthau?
    Ms. Yovanovitch. Yes, according to this document that 
you've given me, that's correct.
    Senator Menendez. In Number 4, where U.S. Counsel in Harput 
Leslie Davis reported to Ambassador Morganthau on July 24, 
1915, ``It has been no secret that the plan was to destroy the 
Armenian race as a race, but the methods used have been more 
cold blooded and barbaric, if not more effective, than I had 
first supposed.''
    Is that the statement issued then by the counsel?
    Ms. Yovanovitch. Yes, as I'm reading this from what you've 
given me, yes.
    Senator Menendez. And finally, on Number 5, where the U.S. 
Ambassador to the Ottoman Empire from 1916 to 1917, Abraham 
Elkus telegraphed the Secretary of State on October 17, 1916, 
and said, ``In order to avoid a program of a civilized world, 
which the continuation of massacres would arouse, Turkish 
officials have now adopted and are executing the unchecked 
policy of extermination through starvation, exhaustion and the 
brutality of treatment hardly surpassed even in Turkish 
history.''
    Is that the statement that is issued at that time by the 
U.S. ambassador?
    Ms. Yovanovitch. Yes, as I'm reading it here now.
    Senator Menendez. Thank you. Now the final reference I want 
you to look at is Number 6, and would you agree that Article 2 
of the Convention on the Prevention and Punishment of the Crime 
of Genocide of which the United States is a signatory party to 
and ratified, a copy of which I have before you, states under 
Article 2, ``In the present convention, genocide means any of 
the following acts committed with the intent to destroy, in 
whole or in part, a national ethnic, racial or religious group, 
as such killing members of the group, causing serious bodily or 
mental harm to members of the group, deliberately inflicting on 
the group conditions of life calculated to bring about its 
physical destruction in whole or in part.''
    Is that a fair statement of the reading of Article 2 of the 
Convention?
    Ms. Yovanovitch. Yes, sir.
    Senator Menendez. Is that a yes? I'm sorry.
    Ms. Yovanovitch. Yes. I'm sorry. Yes.
    Senator Menendez. Okay. Therefore, and Mr. Chairman, if 
you'll indulge me, therefore, would not the facts that you 
acknowledge, and please listen to my question, would not the--
intently. Would not the facts that you acknowledge in your 
opening statement and those facts that you have recognized as 
historical facts during the period of 1915 to 1923 meet the 
definition of Article 2 that you just--I just had you read?
    Ms. Yovanovitch. Thank you. The--it's certainly true that 
this is the definition of genocide here and I'm familiar enough 
with the record to have read some of the accounts from our 
embassy and our consulate at the end of the Ottoman Empire 
which are truly shocking in terms of scale and the individual 
stories of individual families and the things that happened.
    It's the responsibility and the duty of embassies and 
consulates to inform and represent honestly, faithfully, 
objectively to the department, to Washington, to the President, 
and it is the President, it is the Secretary of State that 
makes the policy, that makes the determination of how to 
characterize such events.
    Senator Menendez. And I am not asking you for a declaration 
of policy. I have not even asked you about a maybe more 
ultimate question.
    What I'm asking you as a career Foreign Service officer, 
well educated, with a lot of experience, would the facts as 
recognized by President Bush in public statements, as 
recognized by you in your opening statement, and in terms of 
the historical documents that I presented to you, would those 
facts fall in line--clearly, you mentioned the killing members 
of the group. You mentioned murder in your opening statement.
    Ms. Yovanovitch. I did.
    Ms. Yovanovitch. Yes, it is.
    Senator Menendez. Would it not be fair to say in 
furtherance of some of the questions I asked you, and I think 
you very appropriately answered, some of the acts that took 
place, not only the murders, rapes and forced deportation of 
people, forced exile of people, would that not clearly be 
causing serious bodily or mental harm to members of a group?
    Ms. Yovanovitch. Yes. Yes.
    Senator Menendez. And clearly it would also be deliberately 
inflicting on a group conditions of life calculated to bring 
about its physical destruction in whole or in part. Obviously 
those that were murdered in mass numbers, 1.5 million, 
obviously those who were exiled, obviously those who through 
other actions were taken place, that would fall into that 
category, would it not?
    Ms. Yovanovitch. It's a policy decision, sir.
    Senator Menendez. I want to thank you for your honest 
answers.
    Mr. Chairman, if I may, and I appreciate your indulgence, I 
will have a series of other questions for the record. I don't 
want to belabor it.
    But what is going on here, it is a shame that career 
Foreign Service officers have to be brought before the 
committee and find difficulty in acknowledging historical facts 
and find difficulty in acknowledging the realities of what has 
been internationally recognized, Mr. Chairman, not because I 
say it. I don't hold myself out to be that type of a scholar, 
but the fact is, is that the International Association of 
Genocide Scholars, the preeminent authority on genocide, has 
unanimously, not equivocated, unanimously declared the Armenian 
genocide a genocide, and it is amazing to me that we can talk 
about millions, you know, a million and a half human beings who 
were slaughtered, we can talk about those who were raped, we 
can talk about those who were forcibly pushed out of their 
country, and we can have presidential acknowledgements of that, 
but then we cannot call it what it is.
    It is a ridiculous dance what the administration is doing 
over the use of the term ``genocide.'' It is an attempt to 
suggest that we don't want to strain our relationships with 
Turkey, but I have to say the fact that we are sending off our 
diplomats in such a manner, that they're not able to recognize 
a historical event that is clearly documented by credible, 
objective historians, an event that is so tragic, an event that 
the recognition of which is so personal for millions of 
Armenians and descendants of Armenians, many of whom are 
Americans, is also something that I think is detrimental to our 
foreign policy.
    Mr. Chairman, we have actually had the United States 
Ambassador, our former United States Ambassadors to Armenia 
attend every year in April the commemoration of the Armenian 
genocide. It's amazing that we sent a United States Ambassador 
to the commemoration of an Armenian genocide which I would 
hope--that if your nomination is ultimately approved by the 
Senate that you would commit yourself to attending, and yet we 
cannot--how do you go and go to a commemoration of the Armenian 
genocide and never ever use the recognition of that fact?
    I believe acknowledging historical facts as they are is a 
principle that is easily understood both at home and abroad. So 
while the administration believes that this posture benefits it 
vis a vis our relationships with Turkey, I think they should 
also recognize that it hurts our relationship elsewhere and it 
tarnishes the United States history of being a place where 
truth is spoken to power and acknowledgement of our failures in 
the past make us stronger, not weaker, and recognizing the 
evils of the past do not trap us but they set us free.
    That is what I hope we can be able to achieve, Mr. 
Chairman, and I have great admiration for Ambassador 
Yovanovitch, she is the designee here and having to respond to 
questions and as I told her privately, I would be pursuing a 
line of questioning.
    I appreciate her intent to be as frank and open as 
possible, and Mr. Chairman, if you have a second, I have a 
different set of questions for one of the other candidates.
    Senator Cardin. Thank you. Senator Menendez, thank you for 
your questions. You and I have talked frequently on human 
rights issues. We share that same passion. One of my roles is 
to cochair the Helsinki Commission which human rights issues 
are one of our major focuses.
    There is no question in my mind that the facts speak for 
themselves and what happened was genocide. To me, it's a clear 
issue.
    I think our nominee has demonstrated some of the reasons 
why she's an experienced diplomat. I don't agree with a lot of 
the administration's policies, not just as relates to the 
genocide in Armenia but as it relates to policies in many parts 
of the world.
    Where we have career diplomats, I find, by and large, they 
are carrying out the mission of our Nation and in Armenia, we 
need an ambassador who is experienced, who understands the 
historical facts and has the historical facts correctly as 
stated, and I think I must say in your testimony, I think, and 
in your answer to Senator Menendez, you have spelled out very 
clearly what happened.
    The facts are the facts and we have to make sure that the 
international community never forgets what happened, so we can 
learn from the past and protect the future generations, and I 
think you have been pretty clear about the circumstances of 
ethnic communities that were being cleansed.
    And Senator Menendez, I agree with you, the definition 
couldn't be clearer as to what that equals, genocide.
    Let me turn, if I might, to Mr. Chaudhry, if might, with 
the Republic of Moldova.
    I was very pleased that you mentioned as one of your top 
priorities the trafficking issue. That is an issue that has 
been--that the United States Delegation to the OSCE has made 
one of our top priorities and we're pleased about the attention 
that has been received in Europe, and we would ask that if you 
are confirmed as the ambassador, that that remain not just a 
priority of yours as relates to the Republic of Moldova but in 
that region of Europe.
    It's a very serious issue that the United States needs to 
continue to exercise tremendous leadership.
    Mr. Chaudhry. Thank you, Mr. Chairman. I absolutely pledge 
to you that this is an issue which is close to my heart and I 
intend to pursue it and follow it, if confirmed, to the fullest 
of my capabilities and continue to do the work that has been 
done by my predecessor in Moldova and in the region.
    Senator Cardin. There's been a lot of talk recently about 
Russia's influence here and as to whether Moldova is perhaps 
looking at an arrangement where Russia will remove its troops 
from Transnistria and there may be some other parts to that 
arrangement.
    How do you see the prospects for a resolution, a political 
settlement of Transnitria?
    Mr. Chaudhry. Mr. Chairman, as far as Transnitria is 
concerned, the best way to resolve this is in the context of 
5Plus2 talks that have been going on for some time.
    It is clear that these talks have stalled for some time, 
but there have been informal talks within the 5Plus2 as well as 
3Plus2. That means excluding Moldova and the Transnitria side.
    As recent as this month, there were discussions in Helsinki 
among the 3Plus2 group where they committed that we need to 
move forward in trying to resolve the issue and that issue, as 
I see it and as the United States Government sees it, must 
involve the territorial integrity, preserving the territorial 
integrity of Moldova and that means allowing its sovereignty to 
be exerted over all of its territory, including Transnitria, 
and that would definitely include removal of or withdrawal of 
Russian soldiers from the Moldovan territory.
    Senator Cardin. I agree with that. Thank you, Mr. Nominee. 
I appreciate that. That's a statement I fully concur in.
    Let me turn to Kosovo for one minute, if I might. Ms. 
Kaidanow, you are seeking a critically important position.
    Kosovo is a country that is just going to be subject to a 
lot of challenges. We still have not resolved the Russian 
influence, what's happening with Serbia. There's still a lot of 
countries that have withheld their recognition of Kosovo. We 
still don't have a clear mandate within the United Nations as 
relates to the security troops remaining or not. There are 
going to be a lot of challenges.
    So let me start first with the Ahtisaari Plan and the 
protection of minority communities, you mentioned that several 
times, and I think the real challenge here is whether the 
Kosovo majority, having been ignored by the Serbian Government 
as far as their independence is concerned, whether they will 
react in a way of protection to the minority community or 
whether they'll yield to temptation to sort of say, you know, 
you're not going to work with us, so we'll do it our way.
    I think the role that the United States plays here is going 
to be critical and everything you said in your statement I 
agree with, but it seems to me that we have to be extremely 
active to make sure the minority communities are properly 
protected within Kosovo.
    Ms. aidanow. Thank you, Mr. Chairman. I can't agree more. 
In fact, I would say that this is if not the single most 
important priority for the United States in Kosovo, it's 
certainly one of the top priorities that we have.
    We have actually come quite a long way in Kosovo. I 
remember maybe a year or so ago when we were contemplating 
where we would go, there was quite a lot of concern about 
population movement, the possible, you know, the numbers of 
Serbs who might decide to leave Kosovo, the consequence of 
independence and so forth.
    Thankfully, we've not seen that, and I think that is a 
measure of the kind of progress that we've seen and the ability 
of Kosovo's authority and Kosovo's people to protect and to 
preserve its minority communities and particularly the Serb 
minority.
    I don't want to say that there aren't challenges ahead. 
You've identified them, I think, very, very accurately. It's 
going to be incumbent upon the Kosovo Government and the people 
of Kosovo to ensure that their minority populations are not 
only protected but sustained and that they are given a chance 
to be living communities in Kosovo and that is critically 
important for us.
    It involves not just implementation of the Ahtisaari Plan, 
which is quite robust and has many protections for the minority 
communities in Kosovo, but it also involves, I think, reaching 
out to them in ways that are creative and important, building 
infrastructure in their communities, encouraging returns. All 
of these things are things that we're going to have to, you 
know, work with them to do.
    We have been working with them, we'll continue and 
certainly if I'm confirmed, that is something that we would 
make a priority.
    Senator Cardin. And let me mention perhaps the most 
discriminated minority community in Europe and that's the Roma 
population, a serious problem within Kosovo and many other 
European countries.
    I would hope that we would find ways as a new country is 
emerging in Kosovo that they do it right from the beginning,--
--
    Ms. aidanow. Yes.
    Senator Cardin [continuing]. That minority communities 
include the Roma and they're entitled that their children could 
be educated, that they can get affordable housing, that they 
can integrate into the community and Kosovo could be an example 
to the rest of Europe in that regard.
    Ms. Kaidanow. Absolutely. And in fact, I think the Roma 
community in Kosovo has suffered under some very specific 
historical circumstances that I won't get into here but I think 
really merit, as you said, particular care and consideration on 
the part of the Kosovo Government, something that we, the 
United States, have been very active in looking at. We will 
continue to do so, but I can't agree with you more that there 
are any number of minority ethnic communities in Kosovo. All of 
them have particular considerations and particular needs and 
the Kosovo Government will have to be very, very astute and 
quite generous in looking at those communities and providing 
for their needs.
    Senator Cardin. One last question on Kosovo. With the UNMIK 
mission expired, it's not exactly clear as to the legitimacy of 
the protection troops within that region. Russia's cooperation 
is not necessarily understood at this point.
    How do you see that challenge from the point of view of 
providing Kosovo the help they need so that they can maintain 
the type of protection to communities and stability that a 
young country needs?
    Ms. aidanow. There are multiple levels of security in 
Kosovo. The NATO-led force known as KFOR will continue to have 
a fairly robust presence in Kosovo under the U.N. Security 
Council Resolution 1244 which continues to obtain and KFOR has 
a mandate under that Security Council Resolution.
    We, the United States, provide some small number of troops, 
1,500 troops to a 16,000-man force. I would anticipate that 
continuing, at least in the immediate future, and we take that 
responsibility very, very seriously, and our troops are doing 
just an outstanding job in doing it in Kosovo.
    In terms of policing, for the time being, the U.N. has 
agreed to maintain a role in law enforcement and justice in 
Kosovo until such time as the European Union can establish 
fully its new law enforcement and justice mission on the ground 
which will be known as EULEX.
    We will participate again in a small way but a significant 
way in that mission. We will have roughly 80 or so police to 
their 1,800 or so police and justice officers and so forth.
    I think it's critical that those European Union forces 
deploy as quickly as possible. Certainly the Kosovo Government 
and the people of Kosovo are looking forward to that 
deployment, but in the meantime, it's also important that the 
U.N. security forces on the ground continue to receive the 
broad authority that they've had from the Kosovo people and 
every indication is that Kosovo will give them that authority 
and will agree to have them stay until the European Union can 
perform that duty.
    Senator Cardin. Thank you very much.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Before I turn to 
Mr. Reeker for a moment, one last question, Ambassador.
    Would you, if you were to be confirmed by the Senate, make 
a commitment to this committee that you would attend the 
Armenian Genocide Commemoration which is held every April 24 as 
previous ambassadors have?
    Ms. Yovanovitch. If I were confirmed, I would certainly 
commit to attend to Armenian Remembrance Day.
    Senator Menendez. Thank you. Mr. Reeker, let me first say 
with the adjective in which you introduced your wife, you're 
definitely going to get a hot meal tonight.
    Mr. Reeker. I don't have to go to Senator Dole's. 
[Laughter.]
    Senator Menendez. I have a few questions about your 
potential assignment.
    The recent parliamentary elections that were held on June 1 
were marked by a series of irregularities, intimidation and 
violence, according to the Office for Democratic Institutions 
and Human Rights, and did not meet the Organization for 
Security and Cooperation in Europe and the Council of Europe 
Standards.
    Furthermore, our own State Department called for a rerun in 
almost a 190 districts, quoting ``where people were not able to 
cast their ballot free from the threat of violence or 
intimidation.''
    The New York Times reported on June 2 of this month that 
Dennis McCone, a former Europe minister in Tony Blair's 
government, who was in Skopje as a monitor for the Council of 
Europe, said that the ``vote in FYROM would have no legitimacy 
unless new elections were called.'' He said, ``This vote is a 
tragedy for supporters of Macedonia's European Union and 
TransAtlantic future.'' It continues to quote him to say, 
``Nobody can form a government on the basis of an election in 
which police have stuffed ballot boxes and thugs are attacking 
polling stations.''
    Do you think--I read your full statement. You gave us an 
abbreviated statement. It's very inspirational for Macedonia. 
It's an aspiration we share, but for FYROM, do you think that 
this corresponds to a democratic country that fulfills the 
criteria to join NATO?
    Mr. Reeker. Thank you, Senator. I appreciate the question 
because I think for any of us who have followed events in 
Macedonia, the June 1 early elections, parliamentary elections 
were, frankly, very disappointing. They did not meet 
international commitments. As you noted, there were incidents 
of violence, intimidation, fraud, largely intraethnic among 
competing forces within the ethnic Albanian community.
    What we have seen over a period of many years since 
Macedonia's independence is the development of institutions of 
government of civil society of democracy which rose to the 
occasion and did respond with reruns of those elections in 
numerous locations, ordered those reruns and those took place 
on June 15.
    As noted by a number of the observers that you referenced, 
there were substantial improvements. There was significantly 
improved security. The environment was considerably better, but 
again there was serious irregularities in some polling 
stations, and as the OSCE and the Council of Europe have noted, 
they did not meet some of the key commitments that Macedonia 
has made.
    I believe there will be additional reruns in several 
districts and that again shows that the institutions to respond 
to this kind of problems in Macedonia are in place and are 
working.
    What we had seen, of course, was a series of elections over 
time that had been very positive and shown a tremendous 
development in democracy.
    Senator Menendez. But this latest round did not meet those 
standards.
    Mr. Reeker. That's correct.
    Senator Menendez. And we should be concerned about it. 
We're thinking about allowing this country to enter into NATO.
    Now, clearly, it must have certain standards in order to 
join and so I would hope that in our desire to have them join 
NATO that we're not willing to overlook those standards at the 
end of the day.
    Let me ask you this. I have seen school textbooks and maps 
that circulate in the former Yugoslavia Republic of Macedonia 
showing parts of Greece belonging to the so-called Greater 
Macedonia.
    Do you think that the practice of the government there is 
an act of good neighborly relations when they pursue that as 
part of their official education?
    Mr. Reeker. Senator, I have seen reports from both sides in 
the recent Macedonia dispute accusing each other of taking 
actions or making statements that have inflamed the issue of 
the name.
    Obviously this points to the fact that this needs to be 
resolved. I think the overwhelming majority of people in both 
countries have shown over a course of many years the people to 
people relations, the economic relations, suggest that the two 
countries in fact can get along extremely well and can mutually 
support each other.
    That underlies the fact that they have got to find a quick 
and mutually agreeable solution to the name issue and why we 
continue to encourage both countries to intensity their efforts 
along with the intensified efforts to the U.N. Ambassador 
Limits to find a solution.
    Senator Menendez. In fact, NATO took the position that 
while it has the desire to make that offer; it's not going to 
happen until there is some reconciliation and coming to a 
determination on the name, is that not so?
    So if that is the case, what will you be doing? I know that 
Limits is at the head of this, but obviously if you are to be 
confirmed, you would be in a position as our ambassador in that 
country to try to get that country to understand it is in its 
own interests to find an accommodation. Is that something that 
you would be pursuing?
    Mr. Reeker. Yes, Senator, I would certainly, if confirmed, 
continue to work through our embassy in Skopje, just as our 
embassy in Athens works with the Government of Greece to be 
supportive of both sides to encourage them to find a quick 
mutually agreeable solution because that is in the best 
interests not only of both Macedonia and of Greece but the 
region certainly and since the United States focus is to 
encourage a stable, secure partner in the center of the 
Balkans, in Macedonia, it is in our interests as well, and we 
will continue to push them to deal with as expeditiously as 
possible.
    Senator Menendez. Finally, I'd like to ask each of the 
nominees, do you feel the United States should apologize to 
foreign governments when Congress speaks out on matters of 
human rights? If each of you would just give me an answer to 
that?
    Mr. Beyrle. If the United States Government should 
apologize to the people, to the Government of Russia, would 
Congress----
    Senator Menendez. For each of your countries, should we 
feel compelled to apologize to foreign governments when 
Congress speaks on matters of human rights?
    Mr. Beyrle. No.
    Mr. Reeker. I agree with the same answer, no.
    Ms. aidanow. No.
    Mr. Chaudhry. No.
    Ms. Yovanovitch. No.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Cardin. Thank you, Senator. Let me ask one more 
question in regard to Macedonia.
    First of all, you see the Limits process still workable? It 
was unsuccessful in a resolution prior to the Bucharest 
Conference. Is it still a viable process in which we should 
expect the potential resolving of the issues between Macedonia 
and Greece?
    Mr. Reeker. Yes, Mr. Chairman, I believe it is a viable 
process. The United States supports that process and, most 
importantly, both sides of the dispute support that process 
which is why we, in our capacity as a friend and ally to both 
Macedonia and to Greece, have encouraged both sides to find a 
quick mutually agreeable solution to this problem.
    It's a difficult problem. It's an emotional problem, but it 
is one that can be solved, we believe, and the Limits process 
is the way to go about that. So we're encouraging both sides to 
show greater flexibility, creativity, cooperation, and do what 
is needed to find a solution.
    Senator Cardin. Is part of that taking up issues, such as 
the name of the airport, Alexander the Great? I mean, it seems 
like some of this might be somewhat inflammatory. Is that part 
of the process?
    Mr. Reeker. As I indicated, Mr. Chairman, and I've followed 
these issues for some time, since I served my first tour in 
Macedonia, both sides have taken actions, made statements over 
time, that have certainly inflamed the issue.
    The important thing here is to move beyond that, to move 
toward cooperation, have that eclipse confrontation and have 
understanding supplant mistrust, use the Limits process because 
these countries have shown that as neighbors, in fact they can 
get along extremely well. They have robust trade relations. 
They have robust people to people relations.
    You know, you see Macedonians eager to travel to Greece. 
You see trade and investment from Greece coming to Macedonia, 
and I think that's what's important. So we can get over the 
difficult issues by using the diplomatic and the negotiating 
structures we have available.
    Senator Cardin. Thank you very much. Let me make just one 
more comment, Ms. Yovanovitch, in regard to the Republic of 
Armenia.
    You mention in your statement the violence that erupted 
after the last elections in March. The comments by the Armenian 
Government, at least some of its officials, that this was 
instituted to try to overthrow the government or similar 
comments which I found no basis at all, in fact, is it our 
position that we are still awaiting and asking for an 
independent review of what happened in this violence when 
civilians were killed, so that we can try to prevent these 
types of episodes in the future?
    Ms. Yovanovitch. Yes, that is our position, that there be 
an objective, independent, and inclusive investigation.
    I would say that over the last couple of days, the 
Government of Armenia has established an investigation. It will 
be important that there is a positive process that all sides 
can buy into and participate in.
    Senator Cardin. All right. Thank you for that. Let me just 
make one announcement. Members will have until the end of 
tomorrow to ask questions for the record. I would ask that you 
respond to those questions as quickly as possible so the 
committee can take appropriate action in regard to your 
nominations as soon as possible.
    Once again, I want to thank all eight of our nominees for 
their patience today in answering our questions and their 
willingness to serve our country.
    With that, the committee will stand adjourned.
    [Whereupon, at 4:33 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


                  Document No. 1 From Senator Menendez

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

                  Document No. 2 From Senator Menendez

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

                  Document No. 3 From Senator Menendez

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

                  Document No. 4 From Senator Menendez

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

                  Document No. 5 From Senator Menendez

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

                  Document No. 5 From Senator Menendez

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

     Letter From Matthew A. Reynolds, Acting Assistant Secretary, 
         Legislative Affairs, United States Department of State

                                  U.S. Department of State,
                                    Waashington, DC, July 29, 2008.
Hon. Joseph R. Biden, Jr.,
Chairman, Committee on Foreign Relations, U.S. Senate,
Washington, DC.
    Dear Senator Biden: I am writing in response to your concerns 
regarding responses to questions for the record submitted by you and 
Senator Menendez regarding the nomination of Marie Yovanovitch as 
Ambassador to Armenia.
    Regarding your Question #1, Ms. Yovanovitch mentions an 
International Visitors Program under consideration that would bring 
archivists from Turkey and Armenia to the United States for 
professional training. Our goal is to help archivists protect the 
evidence of the past so that future generations will have the 
documentation of the mass killings and deportations of Armenians 
committed by Ottoman soldiers and other Ottoman officials in 1915. Our 
goal is not to open a debate on whether the Ottomans committed these 
horrendous acts; it is to help preserve the documentation that supports 
the truth of those events.
     Regarding Ms. Yovanovitch's response to Senator Menendez's 
Question #8, the administration recognizes that the mass killings, 
ethnic cleansing, and forced deportations of over one and a half 
million Armenians were conducted by the Ottoman Empire. We indeed hold 
Ottoman officials responsible for those crimes.
    In her testimony, Ms. Yovanovitch tried to convey her deep empathy 
with the profound suffering of the Armenian people and in no way sought 
to cast any doubt on historical facts.
    We hope this information is helpful to you. Please do not hesitate 
to contact us if we can be of further assistance on this or any other 
matter.
            Sincerely,
                               Matthew A. Reynolds,
                                Acting Assistant Secretary,
                                               Legislative Affairs.
                                 ______
                                 

         Responses of Marie Yovanovitch to Questions Submitted 
                        by Senator John F. Kerry

    Question. I strongly believe that the killings and other atrocities 
perpetrated against some 1.5 million Armenians by the Ottoman Empire 
beginning in 1915 clearly constituted genocide. Acknowledging when 
genocide has occurred is not simply a theoretical or legal exercise. It 
is key to preventing genocide from happening again. That's why, in my 
view, we must change United States policy to reflect the true nature of 
the tragic events that were perpetrated against the Armenians by 
calling them what they were--genocide.
    I understand the following to be accepted facts:

  <bullet> Article II of the 1948 Convention on the Prevention and 
        Punishment of Genocide defines genocide as ``any of the 
        following acts committed with intent to destroy, in whole or in 
        part, a national, ethnical, racial, or religious group''--and 
        it lists ``killing members of the group'' as one of these acts.
  <bullet> The United States has ``never denied the tragic events of 
        1915,'' and the Bush administration has acknowledged ``the 
        forced exile and mass killing inflicted on as many as 1.5 
        million Armenians,'' as indicated by the State Department in 
        its response to my letter of June 5, 2006.
  <bullet> The atrocities conceived and carried out by the Ottoman 
        Empire from 1915 to 1923 resulted in the deportation of nearly 
        2,000,000 Armenians, of whom about 1,500,000 men, women, and 
        children were killed, the expulsion of 500,000 survivors, and a 
        concerted campaign that resulted in the elimination of the more 
        than 2,500-year presence of Armenians in their historic 
        homeland.
  <bullet> The Honorable Henry Morgenthau, U.S. Ambassador to the 
        Ottoman Empire from 1913 to 1916, described to the Department 
        of State the policy of the Government of the Ottoman Empire as 
        ``a campaign of race extermination,'' and was instructed on 
        July 16, 1915, by Secretary of State Robert Lansing that the 
        ``Department approves your procedure . . . to stop Armenian 
        persecution.''
  <bullet> Raphael Lemkin, who coined the term ``genocide'' in 1944, 
        and who was the earliest proponent of the Convention on the 
        Prevention and Punishment of Genocide, invoked the Armenian 
        case as a definitive example of genocide in the 20th century.
  <bullet> Proclamation 4838 of April 22, 1981 (95 Stat. 1813) issued 
        by President Ronald Reagan, stated, in part, that ``[l]ike the 
        genocide of the Armenians before it, and the genocide of the 
        Cambodians which followed it--and like too many other 
        persecutions of too many other people--the lessons of the 
        Holocaust must never be forgotten.''
  <bullet> President George W. Bush, on April 24, 2004, stated, ``[o]n 
        this day, we pause in remembrance of one of the most horrible 
        tragedies of the 20th century, the annihilation of as many as 
        1,500,000 Armenians through forced exile and murder at the end 
        of the Ottoman Empire.''

    Do you dispute any of the above? If so, which facts and why?

    Answer. As noted above, the administration has never denied the 
facts of what happened in 1915, and it does not deny the facts that are 
listed above. The administration believes that the best way to honor 
the victims is to promote understanding and reconciliation between the 
people and Governments of Armenia and Turkey and to help Turkey come to 
terms with this dark chapter in history. The administration continues 
to encourage both Turkey and Armenia to work towards reconciliation. 
There are some hopeful signs that they are engaging each other.
    Many Americans believe that the events of the past should be called 
``genocide.'' It has been President Bush's policy--as well as that of 
several previous Presidents on both sides of the aisle--not to use that 
term. The administration's focus is on encouraging people in Turkey to 
reconcile with their past and with the Armenian people regarding these 
horrific events.
    There should be no doubt in anyone's mind that the U.S. Government 
and I certainly recognize and deplore the mass killings and 
deportations that occurred in 1915 and after. No words of any kind can 
convey our sorrow for the suffering that still endures as a result of 
these terrible events. It is exactly this tragedy that makes us so 
determined to support reconciliation between the Armenian and Turkish 
peoples today.

    Question. Do you personally believe that these atrocities meet the 
definition of a genocide? If not, please specify why not and provide 
your legal opinion.

    Answer. As the child of refugees--at a different time and place--I 
do feel very strongly about the great suffering experienced by the 
Armenian people, both at that time and today, as they remember this 
dark chapter in their history. I too mourn the loss of so many innocent 
lives and fully respect that the Armenian-American community and the 
Armenian people want their pain and loss to be acknowledged. The 
specific terminology the administration uses to refer to this tragedy 
is a policy determination made by the President. Should I be confirmed 
as the personal representative of the President, I would have the duty 
to faithfully represent the policies of the President and his 
administration.

    Question. Can you explain how the administration's denial of the 
Armenian genocide can be reconciled with the United States long history 
of opposing genocide in any form?

    Answer. The administration has never denied the facts of what 
occurred in 1915. President Bush acknowledges this horrific tragedy 
each year on April 24, Armenian Remembrance Day.

    Question. Do you personally believe there should be a change in the 
administration's policy of nonrecognition of this genocide?

    Answer. The administration has never denied the terrible events of 
1915. The President annually recognizes this tragedy on Armenian 
Remembrance Day. This policy is determined by the President and, should 
I be confirmed as the personal representative of the President, I would 
have the duty to represent the policies of the President and his 
administration faithfully. I pledge to provide the very best advice in 
this process that I can; this is what I have tried to do my entire 
career.

    Question. Can you explain why the administration still refuses to 
recognize these atrocities as a genocide?

    Answer. The administration has never denied the terrible events of 
1915 and acknowledges the human tragedy of the mass killings and forced 
exile of over 1.5 million Armenians at the end of the Ottoman Empire. 
The administration also understands that many Americans and many 
Armenians believe that these events should be called ``genocide.'' It 
has been the policy of this administration, as well as that of previous 
administrations of both parties, not to use that term. The President's 
focus is on encouraging Turkish citizens to reconcile with their past 
and with the Armenian people. Our goal is to stimulate a candid 
exploration within Turkish society of these horrific events in an 
effort to help this reconciliation. This is not easy. It was not easy 
for the United States to address its own historic dark spots. Turkey is 
making progress addressing these issues. The administration seeks not 
to undercut voices emerging in Turkey who call for a truthful 
exploration of these events in pursuit of Turkey's reconciliation with 
its own past and with Armenia; we share their goal of opening Turkey's 
past through honest, if painful, self examination.

    Question. To the best of your knowledge, is there any effort 
underway to reexamine this policy? If so, when can Congress expect the 
result of this reexamination?

    Answer. U.S. policy on all issues is open to discussion both within 
and from outside the administration. The Congress has been instrumental 
in raising this issue, as have many American citizens, as is 
appropriate in our democracy. Secretary Rice has made it clear that 
there are no taboo subjects and that all viewpoints are respectfully 
heard. If confirmed, I would seek to provide unbiased information and 
the best policy advice so that Washington policymakers can make the 
best decisions.

    Question. As the United States Ambassador to Armenia, would you 
personally work to change United States policy and have these 
atrocities acknowledged as a genocide?

    Answer. As the child of refugees--at a different time and place--I 
do feel very strongly about the great suffering experienced by the 
Armenian people both at that time and today as they remember this dark 
chapter in history. I too mourn the loss of so many innocent lives and 
fully respect that the Armenian-American community and the Armenian 
people want their pain and loss to be acknowledged. We all have strong 
feelings about this. But, as the personal representative of the 
President of the United States, an ambassador must faithfully represent 
the policies of the President and his administration. The Secretary has 
made it clear that there are no taboo subjects for internal discussion 
and that all viewpoints are respectfully heard. I pledge to provide the 
very best advice that I can; this is what I have tried to do my entire 
career.

    Question. As the United States Ambassador to Armenia, what actions, 
if any, would you take against your employees, if they properly 
characterized the massacre of Armenians during WWI as a genocide?

    Answer. As representatives of this administration, all State 
Department officers have the duty to represent the policies of the 
President and his administration faithfully, and I would expect the 
same of my staff. This is a basic tenet of a diplomatic career.

    Question. During your June 19, 2008 confirmation hearing, you 
stated that referring to the Armenian genocide as genocide was a 
``policy decision'' that senior officials, such as the President and 
the Secretary of State, could determine.
    Please describe, in detail, the source, purpose, content, and 
conclusions of all administration ``policy'' documents, ``decisions,'' 
and other materials concerning the Armenian Genocide that you reviewed 
and provide copies of these materials to the committee for its review.

    Answer. The President's policy on this issue is described in the 
President's yearly Remembrance Day statements, and I have reviewed all 
the statements of this administration. They are part of the public 
record and are attached to this response. I have studied the history of 
the tragic massacres and forced exile that occurred at the end of the 
Ottoman Empire and U.S. policy in that regard. I have reviewed the 
``U.S. Official Records on the Armenian Genocide 1915-1917'' and have 
read a number of books that examine the subject from various 
perspectives, including ``The Burning Tigris,'' ``A Shameful Act,'' and 
``Unsilencing the Past.'' The individual stories are horrifying; the 
magnitude of this terrible act--over 1.5 million murdered or deported--
is simply incomprehensible. I also have reviewed the statements made by 
various U.S. officials at that time, including those presented to me at 
my confirmation hearing on June 19.
    [The above-referenced statements follow:]

                                      For Immediate Release
                     Office of the Press Secretary, April 24, 2001.
                          presidential message
    Today marks the commemoration of one of the great tragedies of 
history: the forced exile and annihilation of approximately 1.5 million 
Armenians in the closing years of the Ottoman Empire. These infamous 
killings darkened the 20th century and continue to haunt us to this 
day. Today, I join Armenian Americans and the Armenian community abroad 
to mourn the loss of so many innocent lives. I ask all Americans to 
reflect on these terrible events.While we mourn the tragedy that 
scarred the history of the Armenian people, let us also celebrate their 
indomitable will which has allowed Armenian culture, religion, and 
identity to flourish through the ages. Let us mark this year the 1700th 
anniversary of the establishment of Christianity in Armenia. Let us 
celebrate the spirit that illuminated the pages of history in 451 when 
the Armenians refused to bow to Persian demands that they renounce 
their faith. The Armenian reply was both courageous and unequivocal: 
``From this faith none can shake us, neither angels, nor men, neither 
sword, fire or water, nor any bitter torturers.'' This is the spirit 
that survived again in the face of the bitter fate that befell so many 
Armenians at the end of the Ottoman Empire.
    Today, that same spirit not only survives, but thrives in Armenian 
communities the world over. Many Armenian survivors and their 
descendents chose to live in the United States, where they found safety 
and built new lives. We are grateful for the countless ways in which 
Armenian Americans continue to enrich America's science, culture, 
commerce and, indeed, all aspects of our national life.
    One of the most important ways in which we can honor the memory of 
Armenian victims of the past is to help modern Armenia build a secure 
and prosperous future. I am proud that the United States actively 
supports Armenia and its neighbors in finding a permanent and fair 
settlement to the Nagorno-Karabakh dispute. I hope that this year we 
will see peace and reconciliation flourish in the south Caucasus region 
between Armenia and all its neighbors. The United States welcomes the 
opportunity to support the courageous efforts by the Armenian people to 
overcome years of hardship and Soviet repression to create a 
prospering, democratic, and sovereign Republic of Armenia.
    Let us remember the past and let its lessons guide us as we seek to 
build a better future. In the name of the American people, I extend my 
heartfelt best wishes to all Armenians as we observe this solemn day of 
remembrance.
                                 ______
                                 
                                      For Immediate Release
                     Office of the Press Secretary, April 24, 2002.
                president's message on armenian massacre
    Today, we commemorate an appalling tragedy of the 20th century, the 
massacre of as many as 1.5 million Armenians through forced exile and 
murder at the end of the Ottoman Empire. These horrific killings left 
wounds that remain painful for people in Armenia, in Turkey, and around 
the world. I join the Armenian community in America and across the 
globe in mourning this horrendous loss of life.
    Today is an occasion for the world to reflect upon and draw lessons 
from these terrible events. It is a day for recognizing that demonizing 
others lays the foundation for a dark cycle of hatred. Transcending 
this venomous pattern requires painful introspection about the past and 
wise determination to forge a new future based on truth and 
reconciliation. In this spirit, I look forward to Turkey restoring 
economic, political, and cultural links with Armenia.
    The United States greatly values the contributions that Armenians 
make to our national life. With faith and courage, generations of 
Armenians have overcome great suffering and proudly preserved their 
centuries-old culture, traditions, and religion. The United States is 
also deeply grateful for Armenia's swift and decisive cooperation in 
the war against terrorism.
    Just as the United States reached out to the Armenian people to 
provide shelter and freedom early in the last century, so did Armenia 
extend a supportive hand to the American people in the immediate 
aftermath of September 11. Our two peoples stand together in this fight 
in support of values that define civilization itself.
    I am also very proud of America's strong support for a free 
Armenian state, whose citizens enjoy the fruits of peace and increasing 
prosperity. In the months to come, America will continue to increase 
its security cooperation with Armenia and with Armenia's neighbors to 
combat terrorism and pursue a lasting and just settlement to the 
Nagorno-Karabakh conflict, which will strengthen peace and stability in 
the Caucasus. The United States will also continue its strong support 
for Armenia's efforts to develop democratic and free market 
institutions, and to deepen its integration into the Euro-Atlantic 
community.
    On behalf of the American people, I send warm wishes and 
expressions of solidarity to the Armenian people on this solemn day of 
remembrance. Together, our nations look with hope and determination 
toward a future of peace, prosperity, and freedom.
                                             George W. Bush
                                 ______
                                 
                                      For Immediate Release
                     Office of the Press Secretary, April 24, 2003.
          presidential message: armenian remembrance day, 2003
    Today marks the anniversary of a horrible tragedy, the mass 
killings and forced exile of countless Armenians in the final days of 
the Ottoman Empire. Many Armenians refer to these appalling events as 
the ``great calamity,'' reflecting a deep sorrow that continues to 
haunt them and their neighbors, the Turkish people. The suffering that 
befell the Armenian people in 1915 is a tragedy for all humanity, which 
the world should not forget. I join the Armenian-American community and 
Armenians around the world in mourning the horrendous loss of life.
    I also salute our wise and bold friends from Armenia and Turkey who 
are coming together in a spirit of reconciliation to consider these 
events and their significance. I applaud them for rising above 
bitterness, and taking action to create a better future. I wish them 
success, building on their recent and significant achievements, as they 
work together in a spirit of hope and understanding.
    As we remember those who perished and suffered, we salute the 
nation of Armenia, and Armenians everywhere. The United States is 
grateful for the contributions of Armenian Americans to our national 
life. Generations of Armenians have employed wisdom, courage, and 
centuries-old traditions to overcome great suffering and enrich their 
adopted American homeland.
    The United States is proud to be a friend of Armenia, a young state 
with an ancient heritage. We are deepening our partnership to help 
achieve a secure, prosperous, and dignified future for the citizens of 
Armenia. The United States is committed to achieving a just and lasting 
settlement to the Nagorno-Karabakh conflict. We will also continue to 
help Armenia as it strives to strengthen its democracy and market 
economy.
    On behalf of the American people, I send solemn wishes to the 
Armenian people on this day of remembrance. Our nations stand together, 
determined to create a future of peace, prosperity, and freedom for the 
citizens of our countries, for our regions, and for the world.
                                             George W. Bush
                                 ______
                                 
                                      For Immediate Release
                     Office of the Press Secretary, April 24, 2004.
                        armenian remembrance day
    On this day, we pause in remembrance of one of the most horrible 
tragedies of the 20th century, the annihilation of as many as 1.5 
million Armenians through forced exile and murder at the end of the 
Ottoman Empire. This terrible event remains a source of pain for people 
in Armenia and Turkey and for all those who believe in freedom, 
tolerance, and the dignity of every human life. I join with my fellow 
Americans and the Armenian community in the United States and around 
the world in mourning this loss of life.
    The United States is proud of the strong ties we share with 
Armenia. From the end of World War I and again since the reemergence of 
an independent Armenian state in 1991, our country has sought a 
partnership with Armenia that promotes democracy, security cooperation, 
and free markets. Today, our Nation remains committed to a peace 
settlement in the Nagorno-Karabakh conflict and is grateful for 
Armenia's continuing cooperation in the war on terror. By advancing 
understanding and goodwill, free nations can help build a brighter 
future for the world. Our country seeks to help Armenia expand its 
strategic relations with the United States and our European allies.
    Generations of Armenian Americans have also strengthened our 
communities and enriched our Nation's character. By preserving their 
heritage, faith, and traditions, Armenian Americans enhance the 
diversity that makes America great.
    I commend individuals in Armenia and Turkey who have worked to 
support peace and reconciliation, including through the Turkish-
Armenian Reconciliation Commission, and call on Armenia and Turkey to 
restore their economic, political, and cultural ties. I also send warm 
wishes and expressions of solidarity to the Armenian people on this 
solemn day of remembrance.
                                             George W. Bush
                                 ______
                                 
                                      For Immediate Release
             Office of the Press Secretary, April 24, 2005.
           president's statement on armenian remembrance day
    On Armenian Remembrance Day, we remember the forced exile and mass 
killings of as many as 1.5 million Armenians during the last days of 
the Ottoman Empire. This terrible event is what many Armenian people 
have come to call the ``Great Calamity.'' I join my fellow Americans 
and Armenian people around the world in expressing my deepest 
condolences for this horrible loss of life.
    Today, as we commemorate the 90th anniversary of this human tragedy 
and reflect on the suffering of the Armenian people, we also look 
toward a promising future for an independent Armenian state. The United 
States is grateful for Armenia's contributions to the war on terror and 
to efforts to build a democratic and peaceful Iraq. We remain committed 
to supporting the historic reforms Armenia has pursued for over a 
decade. We call on the Government of Armenia to advance democratic 
freedoms that will further advance the aspirations of the Armenian 
people. We remain committed to a lasting and peaceful settlement of the 
Nagorno-Karabakh conflict. We also seek a deeper partnership with 
Armenia that includes security cooperation and is rooted in the shared 
values of democratic and market economic freedoms.
    I applaud individuals in Armenia and Turkey who have sought to 
examine the historical events of the early 20th century with honesty 
and sensitivity. The recent analysis by the International Center for 
Transitional Justice did not provide the final word, yet marked a 
significant step toward reconciliation and restoration of the spirit of 
tolerance and cultural richness that has connected the people of the 
Caucasus and Anatolia for centuries. We look to a future of freedom, 
peace, and prosperity in Armenia and Turkey and hope that Prime 
Minister Erdogan's recent proposal for a joint Turkish-Armenian 
commission can help advance these processes.
    Millions of Americans proudly trace their ancestry to Armenia. 
Their faith, traditions, and patriotism enrich the cultural, political, 
and economic life of the United States. I appreciate all individuals 
who work to promote peace, tolerance, and reconciliation.
    On this solemn day of remembrance, I send my best wishes and 
expressions of solidarity to Armenian people around the world.
                                             George W. Bush
                                 ______
                                 
                                      For Immediate Release
                     Office of the Press Secretary, April 24, 2006.
                          presidential message
    Today, we remember one of the horrible tragedies of the 20th 
century--the mass killings and forced exile of as many as 1.5 million 
Armenians in the final days of the Ottoman Empire in 1915. This was a 
tragedy for all humanity and one that we and the world must never 
forget.
    We mourn this terrible chapter of history and recognize that it 
remains a source of pain for people in Armenia and for all those who 
believe in freedom, tolerance, and the dignity and value of every human 
life. It is a credit to the human spirit and generations of Armenians 
who live in Armenia, America, and around the globe that they have 
overcome this suffering and proudly preserved their centuries-old 
culture, traditions, and religion.
    We praise the individuals in Armenia and Turkey who have sought to 
examine the historical events of this time with honesty and 
sensitivity. The analysis by the International Center for Transitional 
Justice, while not the final word, has made a significant contribution 
toward deepening our understanding of these events. We encourage 
dialogues, including through joint commissions, that strive for a 
shared understanding of these tragic events and move Armenia and Turkey 
towards normalized relations.
    Today, we look with hope to a bright future for Armenia. Armenia's 
Millennium Challenge Compact reflects our confidence and the importance 
we place in Armenia making progress on democratic reform and 
advancement of free markets. We seek to help Armenia bolster its 
security and deepen its inclusion in the Euro-Atlantic family. We 
remain committed to securing a peaceful and lasting settlement of the 
Nagorno-Karabakh conflict and hope the leaders of Armenia and 
Azerbaijan will take bold steps to achieve this goal.
    On this solemn day of remembrance, Laura and I express our deepest 
condolences to the Armenian people. Our nations stand together, 
determined to create a future of peace, prosperity, and freedom for the 
citizens of our countries and the world.
                                             George W. Bush
                                 ______
                                 
                                      For Immediate Release
                     Office of the Press Secretary, April 24, 2007.
  presidential message: honoring memory of 1.5 million armenian lives 
                       lost during ottoman empire
    Each year on this day, we pause to remember the victims of one of 
the greatest tragedies of the 20th century, when as many as 1.5 million 
Armenians lost their lives in the final years of the Ottoman Empire, 
many of them victims of mass killings and forced exile. I join my 
fellow Americans and Armenian people around the world in commemorating 
this tragedy and honoring the memory of the innocent lives that were 
taken. The world must never forget this painful chapter of its history.
    All who cherish freedom and value the sanctity of human life look 
back on these horrific events in sorrow and disbelief. Many of those 
who survived were forced from their ancestral home and spread across 
the globe. Yet, in the midst of this terrible struggle, the world 
witnessed the indomitable spirit and character of the Armenian people. 
Many of the brave survivors came to America, where they have preserved 
a deep connection with their history and culture. Generations of 
Armenians in the United States have enriched our country and inspired 
us with their courage and conviction.
    Today, we remember the past and also look forward to a brighter 
future. We commend the individuals in Armenia and Turkey who are 
working to normalize the relationship between their two countries. A 
sincere and open examination of the historic events of the late-Ottoman 
period is an essential part of this process. The United States supports 
and encourages those in both countries who are working to build a 
shared understanding of history as a basis for a more hopeful future.
    We value the strong and vibrant ties between the United States and 
Armenia. Our Nation is grateful for Armenia's contributions to the war 
on terror, particularly for its efforts to help build a peaceful and 
democratic Iraq. The United States remains committed to working with 
Armenia and Azerbaijan to promote a peaceful settlement of the Nagorno-
Karabakh conflict. We are also working to promote democratic and 
economic reform in Armenia that will advance the cause of freedom and 
justice.
    Laura and I express our deepest condolences to Armenian people 
around the world on this solemn day of remembrance. We stand together 
in our determination to build a more peaceful, more prosperous, and 
more just world.
                                             George W. Bush
                                 ______
                                 
                                      For Immediate Release
                     Office of the Press Secretary, April 24, 2008.
         statement by the president on armenian remembrance day
    On this day of remembrance, we honor the memory of the victims of 
one of the greatest tragedies of the 20th century, the mass killings 
and forced exile of as many as 1.5 million Armenians at the end of the 
Ottoman Empire. I join the Armenian community in America and around the 
world in commemorating this tragedy and mourning the loss of so many 
innocent lives.
    As we reflect on this epic human tragedy, we must resolve to 
redouble our efforts to promote peace, tolerance, and respect for the 
dignity of human life. The Armenian people's unalterable determination 
to triumph over tragedy and flourish is a testament to their strength 
of character and spirit. We are grateful for the many contributions 
Americans of Armenian heritage have made to our Nation.
    We welcome the efforts by individuals in Armenia and Turkey to 
foster reconciliation and peace, and support joint efforts for an open 
examination of the past in search of a shared understanding of these 
tragic events. We look forward to the realization of a fully normalized 
Armenia-Turkey relationship.
    The United States is committed to a strong relationship with 
Armenia based on shared values. We call on the Government of Armenia to 
take decisive steps to promote democracy, and will continue our support 
for Armenia to this end. We remain committed to serving as an honest 
broker in pursuit of a lasting and peaceful settlement of the Nagorno-
Karabakh conflict.
    On this solemn day of remembrance, Laura and I express our deepest 
condolences to Armenian people around the world.

    Question. What, if anything, has the State Department directed you 
to say in public statements on the Armenian genocide? Who, if anyone, 
directed you to make such statements in public?

    Answer. I have not been directed to say anything. However, I 
understand that I have a duty to faithfully represent the policy of the 
President. There is the same expectation for all Foreign Service 
officers and executive branch officials--regardless of the subject. 
This is a basic tenet of a diplomatic career. At the same time, the 
Secretary has made it clear that there are no taboo subjects for 
internal discussion and that all viewpoints are respectfully heard.
    The United States Government acknowledges and mourns the mass 
killings, ethnic cleansing, and forced deportations that devastated 
over one and a half million Armenians at the end of the Ottoman Empire. 
The United States recognizes these events as one of the greatest 
tragedies of the 20th century, the ``Medz Yeghern,'' or Great Calamity, 
as many Armenians refer to it. That is why every April the President 
honors the victims and expresses American solidarity with the Armenian 
people on Remembrance Day.

    Question. Have you been directed not to use the word genocide when 
discussing the Armenian Genocide?

    Answer. Policy on this issue is determined by the President. I 
understand that I have a duty to faithfully represent the policy of the 
President. There is the same expectation for all Foreign Service 
officers and executive branch officials--regardless of the subject. 
This is a basic tenet of a diplomatic career.
    The administration understands that many Americans and many 
Armenians believe that the events of the past that I have referred to 
should be called ``genocide.'' It has been President Bush's policy, as 
well as that of previous presidents of both parties, not to use that 
term. The President's focus is on encouraging Turkish citizens to 
reconcile with their past and with the Armenian people.

    Question. If the Republic of Turkey recognized the genocide, would 
the United States then recognize it also?

    Answer. The United States Government acknowledges and mourns as 
historical fact the mass killings, ethnic cleansing, and forced 
deportations that devastated over one and a half million Armenians at 
the end of the Ottoman Empire. The United States recognizes these 
events as one of the greatest tragedies of the 20th century, the ``Medz 
Yeghern,'' or Great Calamity, as many Armenians refer to it. That is 
why every April the President honors the victims and expresses American 
solidarity with the Armenian people on Remembrance Day. It is the 
prerogative of the President to set the policy on how the 
administration characterizes these historical events.
    We have strongly encouraged Turkey to come to terms with its past. 
That will not be easy, just as it has not been easy for the United 
States to come to terms with dark periods of our own past. As one part 
of that effort, the United States is prepared to provide assistance if 
Turkey and Armenia agree to establish a joint historical commission.
                                 ______
                                 

         Responses of Marie Yovanovitch to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes, I have read this cable concerning Peace Corps-State 
Department Relations.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand and, if confirmed, will abide by the 
guidelines as conveyed in 04 STATE 258893.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. I agree that the Peace Corps, in order to effectively carry 
out its mandate, needs to be distinct from the United States mission in 
Armenia, as in other countries.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. In line with Secretary Rice's guidance on this issue, if 
confirmed, I intend to allow the Peace Corps to operate with as much 
autonomy as possible, bearing in mind my responsibility to provide for 
the safety and security of the volunteers and to coordinate United 
States objectives and policy in Armenia.
                                 ______
                                 

         Responses of Marie Yovanovitch to Questions Submitted 
                        by Senator Barack Obama

    Nearly 2 million Armenians were deported during the Armenian 
Genocide, which was carried out by the Ottoman Empire from 1915 to 
1923, and approximately 1.5 million of those deported were killed. It 
is imperative that we recognize the horrific acts carried out against 
the Armenian people as genocide. The occurrence of the Armenian 
genocide is a widely documented fact supported by an overwhelming 
collection of historical evidence. I was deeply disturbed 2 years ago 
when the United States Ambassador to Armenia was fired after he used 
the term ``genocide'' to describe the mass slaughter of Armenians. I 
called for Secretary Rice to closely examine what I believe is an 
untenable position taken by the U.S. Government. I ask that you respond 
to the following questions:

    Question. How do you characterize the events surrounding the 
Armenian genocide?

    Answer. The United States Government acknowledges and mourns the 
mass killings, ethnic cleansing, and forced deportations that 
devastated over one and a half million Armenians at the end of the 
Ottoman Empire. The United States recognizes these events as one of the 
greatest tragedies of the 20th century, the ``Medz Yeghern,'' or Great 
Calamity, as many Armenians refer to it. That is why every April the 
President honors the victims and expresses American solidarity with the 
Armenian people on Remembrance Day. As the child of refugees--at a 
different time and place--I do feel very strongly about the great 
suffering experienced by the Armenian people, both at that time and 
today, as they remember this dark chapter in their history. I too mourn 
the loss of so many innocent lives and fully respect that the Armenian-
American community and the Armenian people want their pain and loss to 
be acknowledged.

    Question. If confirmed, what actions will you take to remember the 
victims of the Armenian Genocide?

    Answer. If confirmed, I will continue the tradition of 
participating in the official memorial event held in Yerevan every 
April. I will refer to this great historic catastrophe as the ``Medz 
Yeghern,'' the term often used within Armenia to refer to that dark 
chapter of history. If confirmed, I also would make it a priority to 
promote understanding and reconciliation between the peoples and 
Governments of Armenia and Turkey. It is important for the United 
States to do everything that it can to encourage dialog between Armenia 
and Turkey, and to encourage Turkey, in particular, to examine the 
terrible events of that time openly. This was a tragedy that we and the 
world must never forget, so that it is never repeated.

    Question. What steps is the State Department taking to encourage 
greater study and recognition of the Armenian Genocide in Turkey?

    Answer. The United States Embassy in Ankara is committed to working 
with the Government of Turkey on ways in which the atrocities of 1915 
can be studied. As a recent example, the administration is currently 
laying the groundwork for an International Visitor Program that would 
bring archivists from the Turkish State Archives to the United States 
to look at the ways in which we do historical research. As a confidence 
building measure, the United States Government has contacted Armenian 
archivists to participate in the program, in the hope that, upon 
return, the archivists from both countries could work together on a 
joint program that would study the issue.
    In addition, our embassies take every opportunity in meetings with 
the Governments of Armenia and Turkey, and with civil society leaders 
from both countries, to encourage improved dialog between them. Since 
2006, the United States Government has provided over $700,000 in 
support of initiatives to increase people-to-people connections between 
Armenia and Turkey, including research projects, conferences, 
documentary production, and exchange and partnership programs with the 
goal of increasing cross-border dialog and cooperation. These programs 
are focused on bringing together Armenian and Turkish NGOs, think tank 
researchers, academics, and business leaders at the grass roots level 
by creating opportunities for them to work together on common projects 
that will benefit both countries.

    Question. How will you work with your counterparts in Ankara to 
decriminalize discussion of the Armenian Genocide in Turkey? Is the 
Department satisfied with recent modifications to Article 301 of 
Turkey's Criminal Code that allowed individuals such as Hrant Dink to 
be prosecuted for speaking about the Genocide? Why or why not?

    Answer. The administration has made clear to the Turkish 
authorities on many occasions that such prosecutions violate free 
expression, run counter to Turkey's aspiration to join the European 
Union, and undercut Turkey's strategic significance as an example of a 
secular democracy that can inspire reform throughout the broader Middle 
East and Central Asia. The scope for free expression in Turkey, 
including on the Armenian issue, has expanded significantly in recent 
years, but clearly there is much more to be done. In May 2008, Turkey 
amended Article 301 of its Penal Code, under which individuals have 
been prosecuted for ``insulting Turkishness.'' While the administration 
would have preferred to have seen the repeal of Article 301, the 
amendments reduce the maximum possible sentence from 3 to 2 years and, 
most importantly, require the Minister of Justice to determine whether 
to accept the case for prosecution. The Minister's role should help to 
reduce significantly the number of cases brought by zealous 
prosecutors. The administration has encouraged the Turkish authorities 
to continue this progress and to end legal action against citizens for 
expressing their views.
                                 ______
                                 

         Responses of Marie Yovanovitch to Questions Submitted 
                     by Senator Russell D. Feingold

    Question. What conditions must be met for the administration to 
finally recognize the slaughter of over 1.5 million Armenians during 
WWI by the Ottoman Empire as ``genocide''? Specifically, if the 
Republic of Turkey recognized the genocide, would the United States 
then recognize it also? Additionally, how is the President's policy on 
recognizing the Armenian Genocide different from the Turkish 
Government's policy?

    Answer. In contrast to the Turkish Government's policy, the United 
States Government acknowledges and mourns as historical fact the mass 
killings, ethnic cleansing, and forced deportations that devastated 
over one and a half million Armenians at the end of the Ottoman Empire. 
The United States recognizes these events as one of the greatest 
tragedies of the 20th century, the ``Medz Yeghern,'' or Great Calamity, 
as many Armenians refer to it. That is why every April the President 
honors the victims and expresses American solidarity with the Armenian 
people on Remembrance Day. It is the prerogative of the President to 
set the policy on how the administration characterizes these historical 
events.
    We have strongly encouraged Turkey to come to terms with its past. 
That will not be easy, just as it has not been easy for the United 
States to come to terms with dark periods of our own past.

    Question. Should you be confirmed, how will you work to promote 
Armenian-Turkish reconciliation in a direction that would lead to full 
recognition of the Armenian genocide by Turkey and the United States? 
Additionally, how would you support efforts to promote overall 
reconciliation and improved relations between Armenia and Azerbaijan?

    Answer. If confirmed, I will continue this administration's efforts 
to promote Turkish-Armenian reconciliation and normalization of 
relations. Specifically, I will continue, working with our Embassy in 
Ankara, administration efforts to encourage Turkey to open its land 
border, reinstitute transportation, communication, and utility links 
between the two countries, and reestablish diplomatic relations. 
Contact begins to build trust, and trust is the necessary first step to 
reconciliation, facilitating Turkey's ability and willingness to 
examine the dark spots in its own history.
    The administration, through our Embassy in Ankara, also will be 
pressing for expanded freedom of expression in Turkey, helping to 
expand the public debate surrounding the events of 1915 that led to the 
amendment of Article 301 of the Turkish Penal Code, under which 
individuals have been prosecuted for ``insulting Turkishness.'' We 
welcome this progress, though clearly there is more to be done. The 
administration will continue to encourage the Turkish authorities to 
end legal action against citizens for expressing their views.
    As a Minsk Group cochair nation, we believe the single most 
important step toward bolstering peace and prosperity in Armenia as 
well as Azerbaijan would be a peaceful, just, and lasting settlement of 
the Nagorno-Karabakh conflict. During the past 2 years, the parties 
have moved closer than ever to a framework agreement based on the Basic 
Principles that have been the subject of intensive negotiations, thanks 
in large part to the active mediation of the United States as a cochair 
of the OSCE's Minsk Group. The Minsk Group cochairs remain fully 
committed to helping Armenia and Azerbaijan finalize these Basic 
Principles, and hope to build momentum in the coming months after an 
introductory meeting between Presidents Sargsyan and Aliyev in St. 
Petersburg on June 6. If I am confirmed, I would uphold our commitment 
to support the efforts of the Minsk Group cochairs to sustain the 
negotiations and narrow the differences between the sides to promote 
the soonest possible endorsement of the Basic Principles, so the 
parties can proceed on this basis with drafting a peace agreement.
                                 ______
                                 

       Responses of Marie L. Yovanovitch to Questions Submitted 
                       by Senator Robert Menendez

    Question. Does the United States have military or economic 
interests in Turkey that influence its decision on whether to use the 
word ``genocide,'' when discussing the massacre of 1.5 million 
Armenians from 1915-1923?

    Answer. Turkey is a long-standing NATO ally of the United States 
and an important partner in promoting peace and stability in the 
broader Middle East, and one with which we share democratic values. We 
seek to maintain strong United States-Turkey relations, just as we seek 
to maintain strong United States-Armenian relations. We believe our 
partnership will deepen with Turkey as it reconciles with its own 
painful past and with Armenia. We are encouraging Turkey to open its 
border, reinstitute transportation, communication, and utility links 
between the two countries, and reestablish diplomatic relations. The 
administration also has pressed for expanding freedom of expression in 
Turkey, which has helped to expand the public debate surrounding the 
events of 1915 and led to the amendment of Article 301 of the Turkish 
Penal Code, under which individuals have been prosecuted for 
``insulting Turkishness.''

    Question. What do you believe are the effects of Turkey's state-
sponsored denial of a genocide on the survivors and their descendants?

    Answer. Turkey's difficulty in coming to terms with this dark spot 
in its history only adds to the pain experienced by many Armenians and 
Armenian-Americans. The United States Government acknowledges and 
mourns as historical fact the mass killings, ethnic cleansing, and 
forced deportations that devastated over 1.5 million Armenians at the 
end of the Ottoman Empire. The United States recognizes these events as 
one of the greatest tragedies of the 20th century, the ``Medz 
Yeghern,'' or Great Calamity, as many Armenians refer to it. That is 
why every April 24 the President honors the victims and expresses 
American solidarity with the Armenian people on Remembrance Day.

    Question. Do you believe there can be reconciliation between Turkey 
and Armenia, without an acknowledgment of the genocide by Turkey?

    Answer. To achieve full reconciliation, Turkey must come to terms 
with its past. This will not be easy and progress so far has been slow, 
although there have been some signs of change, such as the outrage and 
ethnic solidarity that resulted from the murder of Hrant Dink, and 
recent changes to Article 301. The administration will continue to work 
to promote understanding between Turkey and Armenia, including by 
encouraging the normalization of diplomatic relations between the two 
countries and the opening of their land border. If I am confirmed, I 
will continue to promote not only government-to-government discussions, 
but also people-to-people cultural and economic contacts and 
partnerships, and other cross-border and regional initiatives. Contact 
begins to build trust, and trust is the necessary first step to 
reconciliation, facilitating Turkey's ability and willingness to 
examine the dark spots in its history.

    Question. In a 1951 U.S. court filing with the International Court 
of Justice, the U.S. filing stated that, ``the Turkish massacres of 
Armenians, the extermination of millions of Jews and Poles by the Nazis 
are outstanding examples of the crime of genocide.'' Also, on April 22, 
1981, President Ronald Reagan used the term genocide to describe the 
Armenian Genocide, stating, in an official proclamation: ``Like the 
genocide of the Armenians before it, and the genocide of the Cambodians 
which followed it--and like too many other such persecutions of too 
many other peoples--the lessons of the Holocaust must never be 
forgotten.''
    What is your understanding of the reasoning behind the change in 
United States policy today that now prohibits executive branch 
officials from using the term genocide to describe the Armenian 
Genocide?

    Answer. It has been President Bush's policy, as well as that of 
previous Presidents of both parties, not to use that term. The 
President's focus is on encouraging Turkish citizens to reconcile with 
their past and with the Armenian people. He seeks to support the 
painstaking progress achieved to date. A key part of that effort is to 
end Armenia's isolation in the region by encouraging normalization of 
relations between Armenia and Turkey and the opening of their land 
border. President Bush believes that normalization can and should be 
achieved.
    The United States Government acknowledges and mourns the mass 
killings, ethnic cleansing, and forced deportations that devastated 
over one and a half million Armenians at the end of the Ottoman Empire. 
The United States recognizes these events as one of the greatest 
tragedies of the 20th century, the ``Medz Yeghern,'' or Great Calamity, 
as many Armenians refer to it. That is why every April the President 
honors the victims and expresses American solidarity with the Armenian 
people on Remembrance Day.

    Question. How can we expect Turkey to come to terms with its past 
when we, as Americans, are unwilling to speak honestly about the 
Armenian Genocide?

    Answer. The administration has never denied the facts--over 1.5 
million Armenians were murdered, starved, or deported at the end of the 
Ottoman Empire. This was a tragedy that we and the world must never 
forget, so that it is never repeated. Our focus is on encouraging the 
people of Turkey to reconcile with their past regarding these horrific 
events. We mourn this terrible chapter of history and recognize that it 
remains a source of great pain for the people of Armenia and of 
Armenian descent, and for all those who believe in the dignity and 
value of every human life.

    Question. As the ambassador-designate to Armenia you are clearly 
mindful of the work of your predecessors in this important diplomatic 
post, including former Ambassador John Evans, who was fired for 
speaking truthfully about the Armenian Genocide? What lessons do you 
draw from Ambassador Evans' experience, particularly the way in which 
his tenure in Yerevan and his diplomatic career were ended?

    Answer. I understand that I have a duty to faithfully represent the 
policy of the President. There is the same expectation for all Foreign 
Service officers and executive branch officials--regardless of the 
subject. This is a basic tenet of a diplomatic career. At the same 
time, the Secretary has made it clear that there are no taboo subjects 
for internal discussion and that all viewpoints are respectfully heard.

    Question. There were some questions about the characterization of 
the Armenian Genocide that you were unable to answer because you were 
not authorized to speak on them. Do you know of other cases where the 
President limits speech of Department of State employees based on his 
policy determinations on the characterizations of historical events?

    Answer. As part of the executive branch, the State Department 
follows the President's policies on all issues. There is the same 
expectation for all Foreign Service officers and executive branch 
officials--regardless of the subject. I understand that I have a duty 
to faithfully represent the policy of the President. This is a basic 
tenet of a diplomatic career.

    Question. Do you believe the 1951 United States court filing with 
the International Court of Justice stating, ``the Turkish massacres of 
Armenians, the extermination of millions of Jews and Poles by the Nazis 
are outstanding examples of the crime of genocide'' was inaccurate?

    Answer. The U.S. Government acknowledges and mourns the mass 
killings, ethnic cleansing, and forced deportations that devastated 
over one and a half million Armenians at the end of the Ottoman Empire. 
The administration also understands that many Americans and many 
Armenians believe that these horrible acts should be called 
``genocide.'' It has been President Bush's policy, as well as that of 
previous presidents of both parties, not to use that term.
    President Bush believes that the best way to honor the victims is 
to remember the past, so it is never repeated, and to look to the 
future to promote understanding and reconciliation between the peoples 
and governments of Armenia and Turkey. A key part of that effort is to 
end Armenia's isolation in the region by encouraging normalization of 
relations between Armenia and Turkey and the opening of their land 
border. The Armenian Government has requested that we facilitate this 
process. It will not be easy nor will it likely be quick, but there are 
some hopeful signs. President Bush believes that normalization can and 
should be achieved.

    Question. How does the administration's non-use of the genocide 
term advance United States efforts to promote Armenian-Turkish 
reconciliation?

    Answer. The administration has never denied the terrible events of 
1915 and acknowledges the human tragedy of the mass killings and forced 
exile of over 1.5 million Armenians at the end of the Ottoman Empire. 
The administration also understands that many Americans and many 
Armenians believe that these events should be called ``genocide.'' It 
has been the policy of this administration, as well as that of previous 
administrations of both parties, not to use that term. The President's 
focus is on encouraging Turkish citizens to reconcile with their past 
and with the Armenian people. The administration's goal is to stimulate 
a candid exploration within Turkish society of these horrific events in 
an effort to help this reconciliation. This is not easy. It was not 
easy for the United States to address its own historic dark spots. We 
seek not to undercut voices emerging in Turkey who call for a truthful 
exploration of these events in pursuit of Turkey's reconciliation with 
its own past and with Armenia; we share their goal of opening Turkey's 
past through honest, if painful, self examination.

    Question. The President's policies are not promoting an honest 
reexamination of its history, but actually intensifying Turkey's denial 
of the Armenian Genocide. What evidence can you identify for us today 
that can inspire any trust by the Senate that those words of 
facilitating dialog have borne any real results?

    Answer. The administration's goal is to stimulate a candid 
exploration within Turkish society of these horrific events in an 
effort to help this reconciliation. This is not easy. It was not easy 
for the United States to address its own historic dark spots.
    The administration has long pressed for expanding freedom of 
expression in Turkey, which has helped to expand the public debate 
surrounding the mass killings, forced exile, and ethnic cleansing that 
occurred during WWI at the end of the Ottoman Empire. After a long 
silence, Turkey is making progress addressing these issues. More than 
100,000 Turkish citizens of all backgrounds demonstrated at the funeral 
of Hrant Dink, an Armenian-Turkish journalist murdered by a Turkish 
ultranationalist, and they demonstrated in support of tolerance and a 
candid exploration of Turkey's past.In May 2008, the Turkish Government 
amended Article 301 of the Turkish Penal Code, under which individuals 
have been prosecuted for ``insulting Turkishness.'' While the 
administration would have preferred to have seen the repeal of Article 
301, the amendments reduce the maximum possible sentence from 3 to 2 
years and, most importantly, require the Minister of Justice to 
determine whether to accept the case for prosecution. The Minister's 
role should help to reduce significantly the number of cases brought by 
zealous prosecutors. The administration will continue to encourage the 
Turkish authorities to continue this progress and to end legal action 
against citizens for expressing their views on this (and any) issue.
    The United States Embassy in Ankara also is committed to working 
with the Government of Turkey on ways in which the terrible events of 
1915 can be studied. As a recent example, the United States Government 
is currently laying the groundwork for an International Visitor Program 
that would bring archivists from the Turkish State Archives to the 
United States to look at the ways in which we do historical research. 
As a confidence building measure, we also have contacted Armenian 
archivists to participate in the program, in the hope that, upon 
return, the archivists from both countries could work together on a 
joint program that would study the atrocities.
    In addition, our embassies take every opportunity in meetings with 
the Governments of Armenia and Turkey, and with civil society leaders 
from both countries, to encourage improved dialog between them. Since 
2006, the United States Government has provided over $700,000 in 
support of initiatives to increase people-to-people connections between 
Armenia and Turkey, including research projects, conferences, 
documentary production, and exchange and partnership programs with the 
goal of increasing cross-border dialog and cooperation. These programs 
are focused on bringing together Armenian and Turkish NGOs, think tank 
researchers, academics, and business leaders at the grass roots level 
by creating opportunities for them to work together on common projects 
that will benefit both countries.

    Question. The President opposes the recognition of the Armenian 
Genocide because he believes it will harm reconciliation, however, he 
does not take this same position with the genocide in Darfur, although 
it is still heartily denied by the Sudanese Government. How is the 
Armenian Genocide any different?

    Answer. The mass murder and ethnic cleansing of over 1.5 million 
Armenians in 1915 is a tragedy of epic proportions for all of humanity 
and one that is commemorated every year in the United States so that we 
never forget this dark chapter in history. Many Americans believe that 
these events should be called ``genocide.'' It has been President 
Bush's policy--as well as that of several previous Presidents on both 
sides of the aisle--not to use that term. The administration's focus is 
on encouraging people in Turkey to reconcile with their past and with 
the Armenian people regarding these horrific events.

    Question. What will you do to help end Turkey's over 15-year-long 
blockade against Armenia?

    Answer. Facilitating Armenia's regional integration by opening its 
border with Turkey is a priority for the United States. If confirmed, 
this would be one of my key priorities as ambassador--not only by 
supporting government-to-government discussions--but by promoting 
people-to-people contacts and partnerships, and other cross-border and 
regional initiatives. Contact begins to build trust, and trust is the 
necessary first step to reconciliation and conflict resolution. If 
confirmed, I also look forward to working with my colleagues at our 
embassy in Ankara in this common effort. Clearly, the status quo is not 
helpful to anyone.
    Fortunately, some progress has been achieved in recent years. There 
are regular charter flights between Yerevan and Istanbul and other 
flights to Antalya; bus connections via Georgia are numerous; and trade 
with Turkey through Georgia is common. However, both countries would 
benefit greatly from increased direct trade, connecting their 
electrical grids, and implementing other measures natural to neighbors.
    The United States also supports more cross-border dialog and 
cooperation between the people of Armenia and Turkey through research 
initiatives, conferences, and exchange programs. Our embassies take 
every opportunity in meetings with the Governments of Armenia and 
Turkey, and with civil society leaders from both countries, to 
encourage improved dialog. Since 2006, the United States Government has 
provided over $700,000 in support of initiatives to increase people-to-
people connections between Armenia and Turkey, including research 
projects, conferences, documentary production, and exchange and 
partnership programs with the goal of increasing cross-border dialog 
and cooperation. These programs are focused on bringing together 
Armenian and Turkish NGOs, think tank researchers, academics, and 
business leaders at the grass roots level by creating opportunities for 
them to work together on common projects that will benefit both 
countries.

    Question. How does Turkey and Azerbaijan's blockade of Armenia harm 
United States interests in the region, in particular our interest to 
promote an East-West trade corridor and minimize the influence of 
Russia and Iran?

    Answer. Facilitating Armenia's regional integration is a particular 
priority for the United States. The United States Government has worked 
to end Armenia's isolation both by promoting reconciliation between 
Armenia and Turkey to reopen their land border, and by working to find 
a peaceful and lasting settlement to the Nagorno-Karabakh conflict with 
Azerbaijan. The U.S. Government believes regional integration is in the 
economic interest of all three countries and certainly in our interest. 
For example, U.S. investment is hampered by regional divisions. With 
its borders to the east and west closed, Armenia relies more than we 
would like on its relations with Iran. In terms of Russia's influence, 
Armenia's history and currently complicated relations with Azerbaijan 
and Turkey provide the impetus for a close relationship with Russia. In 
looking at the region as a whole, our strategic interests are focused 
on several issues--the advance of freedom and democracy; security, 
including counterterrorism and peaceful resolution of separatist 
conflicts; and energy. All would benefit greatly from good neighborly 
relations and regional integration of the South Caucasus.

    Question. Currently, the United States assistance to Nagorno 
Karabakh is limited to only humanitarian assistance, however, there are 
serious needs for economic development, which have been ignored for 
over a decade. Do you support a shift from humanitarian to 
developmental assistance for Nagorno Karabakh to facilitate the 
construction of a hospital and other projects?

    Answer. Since 1998, the United States has provided roughly $29 
million in funding for projects that meet the highest priority needs, 
such as demining, health, drinking water, shelter, and infrastructure 
reconstruction. The administration believes these are the most 
appropriate and pressing priorities, based on a very recent (December 
2007) needs assessment conducted by USAID in Nagorno-Karabakh, actual 
humanitarian conditions on the ground, and international legal 
constraints arising from the unresolved nature of the Nagorno-Karabakh 
conflict.

    Question. What restrictions, if any, are in place that prohibit 
communications between United States and Nagorno-Karabakh officials? 
What is the justification for such restrictions, considering that the 
Nagorno-Karabakh officials have been democratically elected in free and 
internationally-monitored elections and are the legitimate 
representatives of the people of Nagorno-Karabakh? Where are these 
restrictions codified or enumerated?

    Answer. No country, including Armenia, recognizes Nagorno-Karabakh 
as an independent entity. In accordance with the international legal 
principle of territorial integrity, Nagorno-Karabakh remains a part of 
Azerbaijan, and its future status is the subject of negotiations 
currently mediated by the OSCE's Minsk Group, of which the United 
States is a cochair. The United States strives to remain an honest 
broker of these negotiations. Because of these sensitivities, our level 
of interaction with de facto officials from Nagorno-Karabakh is 
limited. State Department policy authorizes only the United States 
cochair of the OSCE Minsk Group and his staff to maintain regular 
contact with the de facto Nagorno-Karabakh authorities and to travel on 
a regular basis to Nagorno-Karabakh, with other United States officials 
meeting with the de facto authorities of Nagorno-Karabakh with the 
permission of the United States cochair. This policy is not codified in 
official State Department regulations, but is widely disseminated to 
all United States officials planning to travel to Armenia or 
Azerbaijan.

    Question. Would you permit USAID personnel, who are not Armenian 
nationals, to visit Nagorno-Karabakh?

    Answer. USAID personnel, like other United States officials, may 
travel to Nagorno-Karabakh with the permission of the United States 
cochair of the OSCE Minsk Group, who has the United States lead in 
mediating the Nagorno-Karabakh conflict. USAID personnel have traveled 
to Nagorno-Karabakh in the past with the permission of the United 
States cochair to implement humanitarian aid programs.

    Question. Would you visit with government officials from Nagorno-
Karabakh, if they requested such a meeting?

    Answer. The United States cochair and his staff maintain regular 
contact with de facto officials from Nagorno-Karabakh. Under current 
U.S. policy, if confirmed, I would not meet with such officials unless 
requested to do so by the U.S. cochair.
                                 ______
                                 

         Responses of Marie Yovanovitch to Questions Submitted 
                        by Senator Barbara Boxer

    Question. Can you please provide the State Department's definition 
of the term genocide and an explanation of how the killing and forced 
exile of 1.5 million Armenians between 1915-1923 fails to meet that 
definition?

    Answer. The United States became a State Party to the Convention on 
Prevention and Punishment of the Crime of Genocide in 1989. Genocide is 
defined in Article II of the Convention, as subject to the 
understandings made by the Senate in providing its advice and consent 
to ratification, and the State Department accepts that definition.
    The administration has never denied the terrible events of 1915 and 
acknowledges the human tragedy of the mass killings and forced exile of 
as many as 1.5 million Armenians at the end of the Ottoman Empire. The 
administration also understands that many Americans and many Armenians 
believe that these events should be called ``genocide.'' It has been 
the policy of this administration, as well as that of previous 
administrations of both parties, not to use that term. The President's 
focus is on remembering the past and on encouraging Turkish citizens to 
reconcile with their past and with the Armenian people. The United 
States believes that establishing an honest albeit painful dialog on 
these events is the best way to achieve reconciliation, peace, and 
stability in the region and to help encourage a full understanding of 
these terrible events.

    Question. Have you, at any time, been advised, counseled, or 
informed in an explicit or implicit way not to use the term genocide?

    Answer. Policy on this issue is determined by the President. I 
understand that I have a duty to faithfully represent the policy of the 
President. There is the same expectation for all Foreign Service 
officers and executive branch officials--regardless of the subject.

    Question. Have you reviewed the evidence provided by our own United 
States diplomats and ambassadors at the time of the 1915 Armenian 
Genocide (including reports and cables from United States Ambassador 
Henry Morgenthau, United States Ambassador Abram Elkus, United States 
Consul Jesse Jackson, and United States Consul Leslie Davis) that is 
available in the United States archives?

    Answer. I have read a number of books on this subject that quote 
from the officials you mention, and I am familiar with key passages 
that they have written, including those passages that were raised 
during my confirmation hearing on June 19. I am acquainted with the 
history of the tragic massacres and forced exile that occurred at the 
end of the Ottoman Empire, and with U.S. policy in that regard. I also 
have reviewed the ``U.S. Official Records on the Armenian Genocide 
1915-1917,'' and have read a number of books looking at the subject 
from various perspectives. The individual stories are horrifying; the 
magnitude of these terrible acts--over 1.5 million killed or forcibly 
deported--is simply incomprehensible.

    Question. Do you acknowledge that the United States Government 
affirmed the Armenian Genocide in its 1951 International Court of 
Justice (ICJ) filing, which read in part: ``The Genocide Convention 
resulted from the inhuman and barbarous practices, which prevailed in 
certain countries prior to and during World War II, when entire 
religious, racial and national minority groups were threatened with and 
subjected to deliberate extermination. The practice of genocide has 
occurred throughout human history. The Roman persecution of the 
Christians, the Turkish massacres of Armenians, the extermination of 
millions of Jews and Poles by the Nazis are outstanding examples of the 
crime of genocide. (Document follows).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Answer. It is my understanding that the U.S. Government did file 
this document with the International Court of Justice in 1951.

    Question. Do United States-Turkish relations influence the Bush 
administration's policy concerning the Armenian Genocide in any way?

    Answer. Turkey is a long-standing NATO ally of the United States 
and an important partner in promoting peace and stability in the 
broader Middle East. We seek to maintain strong United States-Turkey 
relations, just as we seek to maintain strong United States-Armenian 
relations. We do not believe that use of the term ``genocide'' will 
contribute to Turkish-Armenian reconciliation and normalization of 
relations. Instead, we are encouraging Turkey to open its border, 
reinstitute transportation, communication, and utility links between 
the two countries, and reestablish diplomatic relations. The 
administration also has pressed for expanding freedom of expression in 
Turkey, which has helped to expand the public debate surrounding the 
events of 1915 and led to the amendment of Article 301 of the Turkish 
Penal Code, under which individuals have been prosecuted for 
``insulting Turkishness.''

    Question. Do you fear you could lose your job or be demoted if you 
were to use the word ``genocide'' to describe the atrocities committed 
against the Armenians?

    Answer. Policy on this issue is determined by the President. I 
understand that I have a duty to represent the policy of the President 
faithfully. There is the same expectation for all Foreign Service 
officers and executive branch officials--regardless of the subject.

    Question. In preparations for this hearing, you may have reviewed 
your predecessor's responses to questions from the Senate Foreign 
Relations Committee. Do you have any reservations about Ambassador 
Richard Hoagland's initial written responses to the SFRC?

    Answer. I did review his responses. I believe that we must make it 
clear that the administration has never denied the facts--as many as 
1.5 million Armenians were murdered, starved, or deported at the end of 
the Ottoman Empire. Indeed, the administration has stated this quite 
clearly. This was a tragedy that we and the world must never forget, so 
that it is never repeated. We mourn this terrible chapter of history 
and recognize that it remains a source of great pain for the people of 
Armenia and of Armenian descent, and for all those who believe in the 
dignity and value of every human life.

    Question. What actions, if any, would you take against your 
employees if they properly characterized the massacre of Armenians 
during WWI as genocide?

    Answer. As representatives of this administration, all State 
Department officers have the duty to represent the policies of the 
President and his administration faithfully, and I would expect the 
same of my staff. This is a basic tenet of a diplomatic career. At the 
same time, Secretary Rice has made it clear that there are no taboo 
subjects for internal discussion and that all viewpoints are 
respectfully heard. I would follow the same policy with my employees.

    Question. Would you advise Members of Congress against supporting 
the Armenian Genocide resolution, H.Res.106, which was recently passed 
by the House Committee on Foreign Affairs?

    Answer. If confirmed, as the personal representative of the 
President of the United States, I would have the duty of faithfully 
representing the policies of the President and his administration. If 
asked by Members of Congress, I would provide my understanding of the 
reasoning underlying the President's policy.

    Question. Would you support a decision to allow USAID personnel who 
are not Armenian nationals to visit Nagorno Karabakh?

    Answer. USAID personnel, like other United States officials, may 
travel to Nagorno-Karabakh with the permission of the United States 
cochair of the OSCE Minsk Group, who has the United States lead in 
mediating the Nagorno-Karabakh conflict. USAID personnel have traveled 
to Nagorno-Karabakh in the past with the permission of the United 
States cochair to implement humanitarian aid programs.

    Question. Would you visit with government officials from Nagorno-
Karabakh if they requested such a meeting?

    Answer. The United States cochair and his staff maintain regular 
contact with de facto officials from Nagorno-Karabakh. Under current 
U.S. policy, if confirmed, I would not meet with such officials unless 
requested to do so by the United States cochair.

    Question. Will you consult with former Ambassador John Evans before 
you depart for Armenia?

    Answer. Yes, if confirmed, I would consult with former Ambassador 
Evans and others before I depart for Armenia in order to better 
understand the complex issues and challenges that I would face.
                                 ______
                                 

         Responses of Marie Yovanovitch to Questions Submitted 
                    by Senator Robert P. Casey, Jr.

    Question. United States assistance to Armenia has demonstrated 
effectiveness in promoting free market reform and is vital to democracy 
building in Armenia. What actions will you take to continue to 
facilitate a robust assistance program?

    Answer. If confirmed, I will strongly support the continued 
evaluation and fine-tuning of the United States Government assistance 
programs and will coordinate closely with the Office of the Director of 
Foreign Assistance, the Office of Management and Budget, and Congress 
to ensure that future budget requests meet United States Government 
policy goals, as well as the development needs of Armenia.
    Many of the United States Government assistance programs in Armenia 
have achieved measurable success, particularly in promoting economic 
growth. For example, in part because of United States Government 
assistance, the poverty rate in Armenia fell from 56 percent in 1999 to 
30 percent in 2005 (based on IMF reporting); rural poverty fell from 48 
percent to 28 percent. However, the events surrounding the flawed 
Presidential elections in February and its aftermath prove that there 
is still much work needed to foster democratic reform. In the wake of 
these developments, the U.S. Government is evaluating how to better 
target our assistance programs to achieve our policy objectives by 
focusing more on increasing the capacity of civil society to seek 
accountable and transparent governance.
    Armenia was recently chosen as one of 10 pilot countries for which 
the United States Government will develop a ``Country Assistance 
Strategy'' (CAS). The CAS will identify goals and priorities for United 
States assistance over a 5-year period, and will cover not only the 
Department of State and USAID, but all other United States Government 
agencies providing assistance to Armenia. The process of developing the 
CAS should assist us in determining how the United States can best 
contribute to Armenia's economic, social, and democratic development.

    Question. Please explain the rationale behind the administration 
decision to reduce aid to Armenia by over 50 percent in its fiscal year 
2009 request, while maintaining or increasing aid to every other former 
Soviet republic?

    Answer. The reduced request for fiscal year 2009 does not detract 
from the critical importance of Armenia to United States interests nor 
does it signal a change in United States policy. Rather, the request 
level meets the country's development needs and is appropriate within 
the context of assistance priorities within the region and around the 
globe. Armenia has made real progress on reversing rural poverty; 
nevertheless, the government's commitment to democratic reform is not 
as strong as others in the region, and Armenia still struggles with 
rampant corruption and weak democratic institutions.
    Within the fiscal year 2009 assistance request for Eurasia, funding 
is prioritized to help the most reform-oriented countries in the 
region--Georgia, Ukraine, and Moldova--by promoting economic and energy 
independence, helping to diversify export markets, and improving 
democratic governance in the face of increasing Russian economic and 
political pressure.

    Question. What will be your key priorities as Ambassador to 
Armenia?

    Answer. If I am confirmed, my top priority would be to support the 
efforts of the United States in working toward regional stability by 
facilitating Armenian-Turkish relations, including the opening of their 
border, and a peaceful settlement to the Nagorno-Karabakh conflict with 
Azerbaijan. The status quo in both situations is unacceptable and not 
in U.S. or regional interests. Promoting good governance in Armenia is 
also a key United States goal. The conduct of the recent Presidential 
elections and their violent aftermath in which 10 individuals died were 
deeply disturbing. The path toward democracy is rarely fast or smooth. 
The United States Government's aim is to help the Armenian Government 
and the Armenian people restore democratic momentum and to renew their 
own stated mission of moving forward to become a country where 
government institutions are transparent and accountable and where rule 
of law is accepted by all. The relationship of the United States 
Government with Armenia is broad and deep, both on a bilateral level 
and between our peoples. Over the past 17 years, the United States has 
provided close to $2 billion in assistance and materially improved the 
lives of millions of Armenians. If confirmed, I will do everything in 
my power to ensure that United States interests are promoted and 
protected, that the bilateral relationship flourishes, and that 
Armenia's isolation ends and regional stability is enhanced.

    Question. What do you think will be your greatest challenges?

    Answer. If confirmed, my greatest challenges will be in working to 
reduce Armenia's geographic isolation and helping Armenia recover from 
recent setbacks to its democratic development. Supporting Armenia's 
regional integration is a priority for the United States.
    Achieving normal relations between Armenia and Turkey is a 
principal concern. As a key part of that effort, the United States 
supports the opening of the Turkish-Armenian land border. The status 
quo is not helpful to either country. Some progress has been achieved 
in recent years. There are regular charter flights between Yerevan and 
Istanbul and other flights to Antalya; bus connections via Georgia are 
numerous; and trade with Turkey through Georgia is common. Both 
countries would greatly benefit from increased, direct trade with the 
other, connecting their electrical grids, and implementing other 
measures natural to neighbors. The United States also supports more 
cross-border dialog and cooperation between the people of Armenia and 
Turkey through research initiatives, conferences, and exchange 
programs.
    Reconciliation between Armenia and Turkey, however, will require 
dealing with sensitive, painful issues. Turkey needs to come to terms 
with a dark chapter in its history--the mass killings and forced exile 
of up to 1.5 million Armenians at the end of the Ottoman Empire. That 
will not be easy, just as it has not been easy for the United States to 
come to terms with dark periods of our own past. For its part, Armenia 
must be ready to acknowledge the existing border and disavow any claim 
on the territory of modern Turkey, and respond constructively to any 
efforts Turkey may make.
    Another major step toward regional integration would be a peaceful, 
just, and lasting settlement of the Nagorno-Karabakh conflict. During 
the past 2 years, the parties have moved closer than ever to a 
framework agreement based on a set of Basic Principles developed 
through intensive negotiations under the auspices of the Minsk Group 
cochairs.
    Another challenge will be to work with Armenia to strengthen its 
democratic institutions and processes, including respect for human 
rights and fundamental freedoms, and to regain the democratic momentum 
lost after the flawed presidential election in February and its violent 
aftermath.

    Question. How do you plan to help promote United States-Armenia 
trade and business cooperation?

    Answer. If confirmed, I intend to work to provide United States 
businesses with information about opportunities involving Armenia. The 
United States now ranks near the bottom of the list of Armenia's 
trading partners, with trade turnover in 2007 of approximately $194 
million--just 4.4 percent of the total. Promotion of trade and business 
cooperation between the United States and Armenia will require greater 
awareness of Armenia and the Caucasus as a whole by United States 
business. Some sectors, such as information technology, already have 
significant U.S. investment. But others, financial services and 
insurance for example, hold largely untapped potential. I also believe 
there is considerable opportunity for the establishment of United 
States-based franchises in Armenia. If confirmed, I would work to 
identify new opportunities for United States exports to Armenia. This 
week's visit to Armenia by Assistant Secretary of Commerce David 
Bohigian is an important step forward.
    Another critical factor for improved trade and business relations 
between the United States and Armenia is the need for the Armenian 
Government to create a more favorable investment environment through 
reforms of its tax administration and customs procedures, and 
improvements to its legal system. The United States Government is 
already actively working on these issues with the Armenian authorities 
through a variety of assistance programs. Our embassy also works 
closely with the American Chamber of Commerce in Armenia, which has 
played a significant role in creating private sector support for needed 
reforms.
    Although our embassy does not have a Foreign Commercial Service 
presence, it plays a strong advocacy role on behalf of United States 
firms that encounter legal problems while doing business in Armenia. 
The United States Government presses the Armenian Government to 
investigate and resolve disputes in a prompt and equitable manner, 
noting that the perception of an unfair business climate will not 
encourage the foreign investment that Armenia seeks to attract.
    Finally, I believe that the key to unlocking Armenia's economic 
potential--and opening up more opportunities for United States-Armenian 
business cooperation--lies in the resolution of regional conflicts. If 
confirmed, I will support the continued efforts of the United States 
Government to open the land border with Turkey and to achieve a 
peaceful solution to the Nagorno-Karabakh conflict. Armenia's economic 
integration into the wider region remains an important United States 
policy objective.
                                 ______
                                 

         Responses of Marie Yovanovitch to Questions Submitted 
                        by Senator Norm coleman

                           armenian genocide
    Genocide remembrance is vital in the effort to end this crime 
against humanity, and the world rightfully looks to the United States 
to demonstrate leadership in both remembrance and prevention. The 
Armenian Genocide is settled history, and is overwhelmingly documented 
in the WWI-era archives of the United States, France, Great Britain, 
Russia, Germany and Austria-Hungary. Nevertheless, it has been the 
continual policy of the executive branch in contemporary history to 
refrain from employing the accurate and generally recognized term 
``genocide'' to describe what President Bush himself acknowledged was 
``one of the most horrible tragedies of the 20th century, the 
annihilation of as many as 1,500,000 Armenians through forced exile and 
murder at the end of the Ottoman Empire.''

    Question. Do you acknowledge that the events in 1915 involved the 
annihilation of as many as 1,500,000 Armenians through forced exile and 
murder at the hands of the Ottoman Empire?

    Answer. Yes, the United States Government acknowledges and mourns 
the mass killings, ethnic cleansing, and forced deportations that 
devastated over 1.5 million Armenians at the end of the Ottoman Empire. 
The United States recognizes these events as one of the greatest 
tragedies of the 20th century, the ``Medz Yeghern,'' or Great Calamity, 
as many Armenians refer to it. That is why every April the President 
honors the victims and expresses American solidarity with the Armenian 
people on Remembrance Day. This was a tragedy that we and the world 
must never forget, so it is never repeated. We mourn this terrible 
chapter of history and recognize that it remains a source of great pain 
for the people of Armenia and of Armenian descent, and for all those 
who believe in the dignity and value of every human life.

    Question. In your view, what specific actions should the United 
States take to convince the Turkish Government that a global campaign 
of genocide denial and intimidation of 3rd parties that seek to 
reaffirm this crime against humanity serve no constructive purpose?

    Answer. The United States Government has worked to stimulate a 
candid exploration within Turkish society of these horrific events in 
an effort to help Turkey reconcile with the past. This is not easy. It 
was not easy for the United States to address its own historic dark 
spots.
    The administration has long pressed for expanding freedom of 
expression in Turkey, which has helped to expand the public debate 
surrounding the mass killings, forced exile, and ethnic cleansing that 
occurred during WWI at the end of the Ottoman Empire. After a long 
silence, Turkey is making progress addressing these issues. More than 
100,000 Turkish citizens of all backgrounds demonstrated at the funeral 
of Hrant Dink, an Armenian-Turkish journalist murdered by a Turkish 
ultranationalist, and they demonstrated in support of tolerance and a 
candid exploration of Turkey's past.
    The scope for free expression in Turkey, including on the Armenian 
issue, has expanded significantly in recent years, but there is much 
more to be done. The Turkish Government responded in May 2008 by 
amending Article 301 of the Turkish Penal Code, under which individuals 
have been prosecuted for ``insulting Turkishness.'' While the 
administration would have preferred to have seen the repeal of Article 
301, the amendments reduce the maximum possible sentence from three to 
2 years and, most importantly, require the Minister of Justice to 
determine whether to accept the case for prosecution. The Minister's 
role should help to reduce significantly the number of cases brought by 
zealous prosecutors. The administration will continue to encourage the 
Turkish authorities to continue this progress and to end legal action 
against citizens for expressing their views.
    Our Embassy in Ankara also is committed to working with the 
Government of Turkey on ways in which the terrible events of 1915 can 
be studied. As a recent example, we are currently laying the groundwork 
for an International Visitor Program that would bring archivists from 
the Turkish State Archives to the United States to look at the ways in 
which we do historical research. As a confidence building measure, we 
also have contacted Armenian archivists to participate in the program, 
in the hope that, upon return, the archivists from both countries could 
work together on a joint program that would study the issue.
    In addition, our embassies take every opportunity in meetings with 
the Governments of Armenia and Turkey, and with civil society leaders 
from both countries, to encourage improved dialogue between them. Since 
2006, the United States has provided over $700,000 in support of 
initiatives to increase people-to-people connections between Armenia 
and Turkey, including research projects, conferences, documentary 
production, and exchange and partnership programs with the goal of 
increasing cross-border dialog and cooperation. These programs are 
focused on bringing together Armenian and Turkish NGOs, think tank 
researchers, academics and business leaders at the grass roots level by 
creating opportunities for them to work together on common projects 
that will benefit both countries.

    Question. As Ambassador to Armenia, what will you do to assure the 
Armenian Government and its people that the United States is mindful of 
the facts and ongoing unresolved consequences of the events of 1915?

    Answer. As the child of refugees--at a different time and place--I 
do feel very strongly about the great suffering experienced by the 
Armenian people both at that time and today as they remember this dark 
chapter in their history. I, too. mourn the loss of so many innocent 
lives and fully respect that the Armenian-American community and the 
Armenian people want their pain and loss to be acknowledged. If 
confirmed, I would assure the Armenian people that the United States 
Government acknowledges and mourns the mass killings, ethnic cleansing, 
and forced deportations that devastated over one and a half million 
Armenians at the end of the Ottoman Empire; that we recognize these 
events as one of the greatest tragedies of the 20th century; and that 
every April the President honors the victims and expresses American 
solidarity with the Armenian people on Remembrance Day. If confirmed, I 
also will continue the tradition of participating in the official 
memorial event held in Yerevan every April. I will refer to this great 
historic catastrophe as the ``Medz Yeghern,'' the term often used 
within Armenia to refer to that dark chapter of history. Most 
importantly, I would make it a priority, if confirmed, to promote 
understanding and reconciliation between the peoples and governments of 
Armenia and Turkey. It is important for the United States to do 
everything that it can to encourage dialog between Armenia and Turkey 
and to encourage Turkey to come to terms with this dark chapter in 
history and examine the terrible events of that time openly. This was a 
tragedy that we and the world must never forget.

    Question. As you know, Armenia continues to offer full relations to 
Turkey without preconditions, and a bilateral commission to deal with 
historic and contemporary issues that presently divide the two nations. 
As Ambassador to Armenia, what specific steps will you take with your 
counterpart serving in Turkey to hasten the normalization of relations 
between Armenia and Turkey and to secure an affirmative response from 
Turkey to Armenia's offer of a bilateral commission?

    Answer. The administration strongly encourages Turkey to move ahead 
in normalizing relations with Armenia and reopening the two countries' 
border.
    If confirmed, I will support efforts by the United States Embassy 
in Ankara to launch an International Visitor Program that would bring 
archivists from the Turkish State Archives and hopefully from Armenia 
to examine methodologies for conducting historical research, including 
on the mass killings and forced deportations of 1915.
    I will also support our effort begun in 2006 to promote people-to-
people connections between Armenia and Turkey, including research 
projects, conferences, documentary production, and exchange and 
partnership programs with the goal of increasing cross-border dialog 
and cooperation. These programs are focused on bringing together 
Armenian and Turkish NGOs, think tank researchers, academics and 
business leaders at the grass roots level by creating opportunities for 
them to work together on common projects that will benefit both 
countries.
    Turkey has suggested convening a bilateral commission to deal with 
historic and contemporary issues, as part of the normalization process. 
The administration hopes to see the commission convene and full 
relations normalize between Turkey and Armenia in the nearest future.

    Question. The United States has repeatedly and unsuccessfully 
demanded that President Aliyev and other senior Azerbaijani officials 
desist from war preparations and threats against Armenia and the 
Nagorno Karabakh Republic. What specific additional actions should the 
United States take to ensure that war is not triggered by the actions 
of Azerbaijan?

    Answer. The United States Government, as a cochair of the OSCE 
Minsk Group mediating the Nagorno-Karabakh conflict, has led the way in 
formulating a set of Basic Principles that offers the best hope for a 
negotiated and peaceful settlement. We are actively involved in 
encouraging the Government of Azerbaijan to work with the Government of 
Armenia and within the Minsk Group to finalize the Basic Principles and 
proceed on that basis with drafting a comprehensive peace settlement, 
which would provide the surest guarantee there is not another war. The 
June 6 meeting in St. Petersburg between Azerbaijani President Aliyev 
and Armenian President Sargsyan restored momentum in the Minsk Group 
talks and should clear the way for an invigorated effort to bridge 
remaining differences on the Basic Principles. The U.S. Government 
played an active role in deescalating military tension in early March, 
during the most serious ceasefire violation along the Line of Contact 
in over a decade. Additionally, the United States calibrates all of its 
security assistance to Azerbaijan to ensure that it is not usable in an 
offensive operation against Armenia, does not affect the military 
balance between Azerbaijan and Armenia, and does not undermine or 
hamper ongoing efforts to negotiate a peaceful settlement of the 
Nagorno-Karabakh conflict.

    Question. What is your analysis of the pace of democratic 
advancement in Armenia in light of the February elections, as well as 
efforts by the new president to further democratic reform--including 
the formation of a coalition government, the organization of a public 
council to include all sectors of civil society, the support for the 
creation of a commission of inquiry into the post-election violence, 
and pledged electoral and governance reform?

    Answer. The developments noted in the question are positive in 
principle, and we welcome them. However, the key will be to have these 
steps fully implemented, not just announced. Implementation of other 
reforms has not been as fast as we had hoped, and we continue to press 
for changes not just in law but also in practice. While we welcome 
recent revisions to the Law on Rallies, Marches, and Protests, we have 
been disappointed that the opposition has been unable to gain 
permission to rally, despite applying for it almost 50 times. We 
welcome the fact that the opposition was allowed to hold a 
demonstration on June 20, despite never being given official 
permission. While we welcome the recent release of some persons 
detained for their political views, we note that many dozens more 
remain in prison and must be released. We look to the upcoming 
Parliamentary Assembly of the Council of Europe meeting this week for 
their views on the pace of progress and encourage the Government of 
Armenia to do all that it can to heal the rifts created in its society 
in the aftermath of the March 1 violence.

    Question. In your view, what is the most constructive way in which 
the United States, and you as United States Ambassador, work to further 
democratic reforms in Armenia? What immediate steps does this involve?

    Answer. Promoting good governance and democracy in Armenia is a key 
priority. The conduct of the February Presidential elections and their 
violent aftermath on March 1, in which at least 10 individuals died, 
were deeply disturbing and disappointing. The United States 
Government's aim is to help the Armenian Government and the Armenian 
people restore democratic momentum and to renew their own stated 
mission of moving forward to become a country where government 
institutions are transparent and accountable and where rule of law is 
accepted by all. In the short term, it is essential that the Armenian 
Government support an independent, objective, and inclusive 
investigation into the fateful events of March 1 and release those who 
have been held on politically-motivated charges. It is important that 
freedom of assembly and freedom of expression are fully protected. 
Longer term, it is important that the judiciary becomes truly 
independent. The U.S. Government is looking at how our democracy 
programs can be targeted to better support civil society, watchdog 
organizations, the independent media, and development of the Internet. 
U.S. Government programs will continue to focus on anticorruption 
efforts and strengthening the rule of law. The Armenian authorities 
need to show the will to move forward with a reform program that is 
responsive to the legitimate desires of the people and that inspires 
public confidence in the country's political and economic processes.
                                 ______
                                 

           Responses of Philip Reeker to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. As ambassador, what steps would you take to resolve the 
name dispute between Athens and Skopje? If confirmed, what steps will 
you take to coordinate with your counterpart in Athens to assure that 
the dispute receives adequate attention from the State Department?

    Answer. If confirmed, I will work closely with the political and 
party leaders in Macedonia to urge their utmost flexibility, 
cooperation, and constructive engagement in the U.N. process led by 
Matthew Nimetz, so that a mutually acceptable solution can be found and 
Macedonia's Euro-Atlantic integration can proceed.
    If confirmed, I will coordinate very closely with Ambassador 
Speckhard in Athens to ensure that the administration is well informed 
of developments related to the name issue and that our reporting and 
recommendations from the field reflect a joint best assessment of the 
situation and how the administration's continued close engagement could 
help facilitate a solution.
    With my counterpart in Athens, if confirmed, I also will seek to 
facilitate constructive communication between both sides to clarify 
their respective positions, reduce tensions, and resolve any bilateral 
irritants that might impede resolution of the issue.

    Question. Are you satisfied with the progress of the United 
Nations-sponsored process to bring a resolution to the naming dispute? 
Why or why not?

    Answer. Although a mutually acceptable solution remains to be 
found, U.N. Negotiator Ambassador Matthew Nimetz's significant 
experience and strong engagement remain invaluable contributions to a 
solution to the name dispute.
    With the strong support of the administration, Ambassador Nimetz 
has stepped up his efforts and the dialog between the parties has 
intensified. I believe that the sooner this issue is resolved, the 
better the chances for Macedonia to rapidly move toward full 
integration in NATO and the European Union.
    If confirmed, I will fully support the U.N. process toward 
resolving the name issue, as do both Governments in Skopje and Athens.

    Question. What role should the United States play in promoting 
reconciliation between the country's ethnic Albanian parties?

    Answer. The United States Government has long encouraged 
constructive dialog between Macedonia's political parties and between 
government and opposition on issues of overriding interest for the 
country--especially implementation of the Ohrid Framework Agreement.
    The administration will continue to urge that interparty rivalry 
and competition for votes finds healthy expression and outlet within 
Macedonia's democratic institutions and in accordance with Macedonian 
law. If I am confirmed, I will use my good offices to facilitate 
positive dialog and consensus-building, for implementation of the Ohrid 
Framework and other issues critical to Macedonia's Euro-Atlantic 
aspirations.

    Question. How will you and the embassy work to address the issue of 
smuggling along the border with Kosovo?

    Answer. If confirmed, I will seek, within means provided by 
Congress, to continue important United States assistance programs that 
assist the Macedonian Government increase the capacity of its law 
enforcement, customs, security, and border control institutions. These 
programs also assist the Macedonian Government to address remaining 
weaknesses in the judiciary and to tackle corruption.
    The United States Government is providing Macedonia's Interior 
Ministry, criminal and border police, and customs specialized training, 
equipment and advice on developing a modern, highly effective border 
control system to combat trafficking-in-persons, smuggling of WMD 
materials, conventional weapons, and narcotics, and to detect and 
intercept illicit movements of people and other contraband across 
Macedonia's borders.
    The administration also is working to enhance the capacity of 
Macedonia's judicial institutions and prosecutors to fight 
transnational crime, trafficking, money laundering and terrorism, and 
prevent Macedonia from becoming a transit hub for organized crime to 
the European Union and to the United States.
    The administration also is facilitating regional cooperation on 
investigations, seizures, arrests, prosecutions, and other joint 
efforts to deter criminal or terrorist organizations from using the 
region as a safe haven or transit point.
    If confirmed, I will work with our Ambassador in Pristina to deepen 
coordination between the Governments of Macedonia and Kosovo and, as 
appropriate, with NATO's Kosovo Force, the international civilian and 
security missions in Kosovo, and other international organizations 
active in the region, to advance these efforts.
                                 ______
                                 

          Responses of Philip Reeker to Questions Submitted by 
                      Senator Christopher J. Dodd

    Question. Have you read the cable ref: 04 STATE 258893--Peace 
Corps-State Department Relations?

    Answer. Yes, I have read the cable.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. I understand and agree to abide by the guidelines as 
conveyed in the cable.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. I understand and accept these principles, which govern the 
relationship between U.S. missions and the Peace Corps.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. I pledge to exercise my authorities as chief of mission 
according to this guideline laid out by Secretary Rice as Departmental 
policy.
                                 ______
                                 

           Responses of Asif Chaudhry to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable ref 04 STATE 258893--Peace Corps-
State Department Relations?

    Answer. Yes, I have read the cable 04 STATE 258893 concerning Peace 
Corps-State Department Relations.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes, I understand the principles set forth in 04 STATE 
258893 and, if confirmed, will abide by the guidelines described in the 
cable.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and that ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other U.S. Government 
agencies''?

    Answer. I understand and accept that in order for the Peace Corps 
to maintain its unique people-to-people contacts to promote world peace 
and friendship, it needs to remain substantially separate from the 
mission. I agree that this need is distinct from other U.S. Government 
agencies.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Carps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. Consistent with the guidance contained in 04 STATE 258893, 
if confirmed, I will allow the Peace Corps to operate in Moldova with 
as much autonomy and flexibility as possible, so long as those 
operations are consistent with my responsibility to coordinate United 
States objectives and policy in Moldova.
                                 ______
                                 

            Responses of John Beyrle to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. For the last several years, the Russians have proven very 
adept in dividing traditional allies within the Euro-Atlantic 
community. If confirmed, what steps would you take to develop a joint 
strategy for managing relations with Russia in cooperation with our 
European allies?

    Answer. If confirmed, I will work to enhance trans-Atlantic 
cooperation by continuing to engage our European partners in Moscow on 
a variety of key strategic issues, specifically those related to 
Russia. Throughout my career I have found discussions on Russia with 
European colleagues in both official and informal settings to be 
thought-provoking and productive, and I would hope to continue such 
talks in Moscow, if confirmed. Through the use of a variety of existing 
mechanisms that include NATO and the NATO-Russia Council, the G-8, the 
OSCE, United States-European Union summits and meetings at all levels, 
as well as bilateral meetings with individual European partners, the 
United States continues to strengthen Euro-Atlantic coordination on 
issues of paramount importance to our nations.

    Question. Where does the administration think Russia will be in 5 
or 10 years? Where would you like Russia to be? To what extent will our 
current policy toward Russia allow us to bridge the gap between those 
answers?

    Answer. We desire for Russia to develop strong democratic 
institutions, modernize its economy, join global, rules-based 
organizations, such as the WTO and OECD, and develop and maintain 
productive relationships--characterized as respectful--with both its 
neighbors and other countries around the world. Russia remains an 
important partner to address nonproliferation of weapons of mass 
destruction, Iran, North Korea, Middle East Peace, and other global 
challenges such as climate change, corruption and international 
organized crime, and terrorism. We have sought ways to cooperate on 
these important issues to our national security, without losing sight 
of the importance of free market principles and promoting democratic 
values as Russia continues to transform. It takes steady engagement to 
nurture such a relationship. Our current policy has been aimed at 
precisely this, but at this time of change in the Kremlin and our own 
administration we will need to look for new opportunities for 
engagement and be ready to adjust to changes and challenges as needed 
over the next decade.

    Question. Russia faces a host of existential threats to the 
country's future--demographic collapse, an insurgency in the North 
Caucasus, depopulation of the far east, and a failure to invest in the 
country's domestic energy infrastructure to name a few. How effective 
has the Russian Government been in dealing with these challenges? Are 
the Kremlin's recent actions in Abkhazia intended to deflect attention 
away from these domestic problems?

    Answer. Russia does indeed face a number of significant challenges, 
including improving the health of its population and decreasing 
mortality rates, addressing complex and diverse challenges to stability 
in some of the Southern republics, addressing migration out of certain 
regions, such as the Far East, and modernizing its infrastructure. The 
Russian Government appears to recognize these challenges, launching a 
number of initiatives in each of these areas. For example, since 2005, 
President Medvedev (then Deputy Prime Minister) directed implementation 
of ``National Projects'' in health, agriculture, education, and 
housing. While demographic results improved in 2007, 2008 appears mixed 
with a decline of .07 percent in population from January to April. The 
impact of other reforms has also been mixed, but we expect the new 
government to continue to focus on these critical development 
challenges. We hope that as Russia addresses these challenges, it does 
so in adherence to international obligations in areas such as human 
rights. Regarding Abkhazia, Russian behavior may be motivated by both 
domestic and foreign policy concerns. We look to Russia to act 
responsibly to deescalate the situation, work with the Friends of 
Georgia to encourage the defacto Abkhaz authorities to engage in direct 
negotiations with Georgia, and respect Georgia's territorial integrity 
and sovereignty.

    Question. Corruption is reportedly endemic in Russia. How high does 
the problem go, and what--if anything--is the Russian Government doing 
to combat it? What role should the U.S. Embassy play in efforts to root 
out corruption?

    Answer. President Medvedev and other Russian Government officials 
acknowledge the enormous challenge of addressing corruption, which runs 
deep in Russian society and government. Medvedev has placed a renewed 
emphasis on the need to establish respect for rule of law and enact 
comprehensive anticorruption measures. Within the first months of his 
presidency, Medvedev has created a Presidential Council on corruption, 
an interagency anticorruption task force, has instructed government 
agencies such as the Procuracy to review legislation with an eye to 
eliminating loopholes for bureaucrats who encourage corrupt practices, 
and encouraged law enforcement reforms, investigations, and 
prosecutions. Bodies such as the Investigative Committee under the 
Procuracy and Ministry of Interior have formed special anticorruption 
units. In the Duma, a special anticorruption committee has been formed 
to review legislation and make recommendations for future 
anticorruption legislation. In the past 2 months there have been 
examples of investigations and prosecutions of corrupt officials 
ranging from mid-level law enforcement to mayors and governors. Also, 
President Medvedev is considering measures to increase the independence 
of the judiciary.
    Despite these efforts, the scope of the corruption problem is large 
and many investigations and prosecutions are arbitrary and often for 
political or commercial purposes. The challenges of corruption are 
significant and systemic, but the United States stands ready to assist 
in supporting Russia's internal efforts to combat corruption and 
strengthen rule of law, whether through accession to the OECD Bribery 
Convention (a prerequisite for OECD membership), cooperation in 
implementation of the U.N. Convention against Corruption, or through 
bilateral technical cooperation.

    Question. Prior to her assassination, Anna Politkovskaya was widely 
known as one of the bravest voices for decency in Russia. While she 
never stressed the point, she was also an American citizen. What has 
the U.S. Government done to help bring the individuals responsible for 
her murder to justice?

    Answer. The United States remains deeply disturbed by acts of 
violence committed against journalists, particularly killings, such as 
the brutal murders of independent journalist Anna Politkovskaya and 
Paul Klebnikov. We have repeatedly urged the Russian Government to 
ensure that it is meeting its commitments to protect journalists and 
freedoms of speech and press, as well as bringing those responsible for 
such acts of violence to justice. We have been in regular touch with 
Novaya Gazeta, Politkovskaya's newspaper, law enforcement authorities, 
and the Ministry of Foreign Affairs, as we follow the case and press 
for progress.
                                 ______
                                 

         Responses of Marie Yovanovitch to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What has the State Department done to end Turkey's denial 
of the Armenian Genocide?

    Answer. The administration has worked to stimulate a candid 
exploration within Turkish society of these horrific events in an 
effort to help Turkey reconcile with the past. This is not easy. It was 
not easy for the United States to address its own historic dark spots.
    The administration has long pressed for expanding freedom of 
expression in Turkey, which has helped to expand the public debate 
surrounding the mass killings, forced exile, and ethnic cleansing that 
occurred during WWI at the end of the Ottoman Empire. After a long 
silence, Turkey is making progress addressing these issues. More than 
100,000 Turkish citizens of all backgrounds demonstrated at the funeral 
of Hrant Dink, an Armenian-Turkish journalist murdered by a Turkish 
ultranationalist, and they demonstrated in support of tolerance and a 
candid exploration of Turkey's past.
    The scope for free expression in Turkey, including on the Armenian 
issue, has expanded significantly in recent years, but clearly there is 
much more to be done. The Turkish Government responded in May 2008 by 
amending Article 301 of the Turkish Penal Code, under which individuals 
have been prosecuted for ``insulting Turkishness.'' While the 
administration would have preferred to have seen the repeal of Article 
301, the amendments reduce the maximum possible sentence from 3 to 2 
years and, most importantly, require the Minister of Justice to 
determine whether to accept the case for prosecution. The Minister's 
role should help to reduce significantly the number of cases brought by 
zealous prosecutors. The administration will continue to encourage the 
Turkish authorities to continue this progress and to end legal action 
against citizens for expressing their views.
    Our embassy in Ankara also is committed to working with the 
Government of Turkey on ways in which the terrible events of 1915 can 
be studied. As a recent example, the United States Government is 
currently laying the groundwork for an International Visitor Program 
that would bring archivists from the Turkish State Archives to the 
United States to look at the ways in which we do historical research. 
As a confidence building measure, the United States Government has 
contacted Armenian archivists to participate in the program, in the 
hope that, upon return, the archivists from both countries could work 
together on a joint program that would study the issue.
    In addition, our embassies take every opportunity in meetings with 
the Governments of Armenia and Turkey, and with civil society leaders 
from both countries, to encourage improved dialogue between them. Since 
2006, the United States has provided over $700,000 in support of 
initiatives to increase people-to-people connections between Armenia 
and Turkey, including research projects, conferences, documentary 
production, and exchange and partnership programs with the goal of 
increasing cross-border dialog and cooperation. These programs are 
focused on bringing together Armenian and Turkish NGOs, think tank 
researchers, academics and business leaders at the grass roots level by 
creating opportunities for them to work together on common projects 
that will benefit both countries.

    Question. What is the United States doing to end the destructive 
Turkish blockade of Armenia? Is it your intention to have the United 
States Ambassador in Ankara visit Yerevan in an effort to move this 
issue? Is it your intention to have the new ambassador to Yerevan (if 
confirmed) travel to Ankara to advance an end to the blockade?

    Answer. Facilitating Armenia's regional integration by opening its 
land border with Turkey is a priority for the United States. If 
confirmed, I would give this important issue my utmost attention--not 
only by supporting government-to-government discussions--but by 
promoting people-to-people contacts and partnerships, and other cross-
border and regional initiatives. I would certainly work closely with my 
counterpart in Ankara to advance this goal, including travel to each 
other's host country, as appropriate. Contact begins to build trust, 
and trust is the necessary first step to reconciliation and conflict 
resolution. I also look forward to working with my colleagues at our 
embassy in Ankara in this common effort. Clearly, the status quo is not 
helpful to anyone.
    Fortunately, some progress has been achieved in recent years. There 
are regular charter flights between Yerevan and Istanbul and other 
flights to Antalya; bus connections via Georgia are numerous; and trade 
with Turkey through Georgia is common. However, both countries would 
benefit greatly from increased direct trade, connecting their 
electrical grids, and implementing other measures natural to neighbors. 
The United States also supports more cross-border dialog and 
cooperation between the people of Armenia and Turkey through research 
initiatives, conferences, and exchange programs. Our embassies take 
every opportunity in meetings with the Governments of Armenia and 
Turkey, and with civil society leaders from both countries, to 
encourage improved dialog. Since 2006, the United States Government has 
provided over $700,000 in support of initiatives to increase people-to-
people connections between Armenia and Turkey, including research 
projects, conferences, documentary production, and exchange and 
partnership programs with the goal of increasing cross-border dialog 
and cooperation. These programs are focused on bringing together 
Armenian and Turkish NGOs, think tank researchers, academics and 
business leaders at the grass roots level by creating opportunities for 
them to work together on common projects that will benefit both 
countries.

    Question. Wouldn't the end of the blockade and the establishment of 
peaceful commerce and economic linkages between Armenia, Turkey, and 
among the states of the South Caucasus not promote the long-term 
stability and prosperity of the entire region? Doesn't the absence of 
these linkages undermine the region's peace and prosperity?

    Answer. I agree that improved commerce and economic linkages in the 
region would promote its stability and prosperity. Therefore, 
facilitating Armenia's regional integration is a priority for the 
United States. We work steadfastly to end Armenia's isolation both by 
promoting reconciliation between Armenia and Turkey to reopen their 
border, and by working to find a peaceful and lasting settlement to the 
Nagorno-Karabakh conflict with Azerbaijan. The administration believes 
regional integration is in the economic interest of all three countries 
and certainly in our interest; for example, United States investment is 
hampered by regional divisions. With its borders to the east and west 
closed, Armenia relies more than we would like on its relations with 
Iran. In terms of Russia's influence, Armenia's history and currently 
complicated relations with Azerbaijan and Turkey provide the impetus 
for a close relationship with Russia. The administration is working 
with Armenia to help it diversify its sources of energy supply through 
electricity cooperation with Georgia, and eventually, by tying Armenia 
into Caspian oil and natural gas infrastructure. In looking at the 
region as a whole, the administration's strategic interests are focused 
on several issues. The advance of freedom and democracy; security, 
including counterterrorism and peaceful resolution of separatist 
conflicts; and energy. The administration believes that all would 
benefit greatly from good neighborly relations and regional integration 
of the South Caucasus.

    Question. Azerbaijan's substantial revenue stream from its oil 
exports is facilitating increasingly aggressive military spending and 
dangerous rhetoric. What is the administration doing bilaterally to 
prevent further destabilizing conflict in the South Caucasus? What is 
the administration telling Baku?

    Answer. The administration consistently stresses publicly and 
privately in Baku that there is no military solution to the Nagorno-
Karabakh conflict. As a cochair of the OSCE Minsk Group mediating the 
Nagorno-Karabakh conflict, the United States has led the way in 
formulating a set of basic principles that offers the best hope for a 
negotiated and peaceful settlement, which is the only way ahead. The 
administration consistently stresses to the authorities in Baku that 
any rhetoric intimating that war is an option is dangerous and 
undercuts our efforts to negotiate a just and lasting settlement, which 
is outlined by the basic principles. The administration therefore 
encourages the Government of Azerbaijan to work with the Government of 
Armenia and within the Minsk Group to finalize the basic principles. 
The June 6 meeting in St. Petersburg between Azerbaijani President 
Aliyev and Armenian President Sargsyan restored momentum in the Minsk 
Group talks and should clear the way for an invigorated effort to 
bridge remaining differences on the basic principles. The U.S. 
Government played an active role in deescalating military tension in 
early March, during the most serious ceasefire violation along the Line 
of Contact in over a decade.

    Question. Fourteen years passed since the end of the conflict over 
Nagorno-Karabakh without a permanent resolution and still people are 
dying along an unsettled border. What progress has the Minsk process 
achieved in that time and doesn't the lack of progress warrant a 
reexamination of this approach?

    Answer. During negotiations over the past 2 years, Armenia and 
Azerbaijan have moved closer than ever to a framework agreement based 
on the ``basic principles'' outlined by the Minsk Group cochairs. The 
Minsk Group cochairs--the United States, France, and Russia--are 
working with the Foreign Ministers of Armenia and Azerbaijan to build 
on new momentum following the positive meeting of Presidents Sargsyan 
and Aliyev on June 6 in St. Petersburg, with the goal of narrowing the 
remaining differences on the basic principles between the sides in 
coming months. Ultimately, it is up to the Presidents of Armenia and 
Azerbaijan to take the difficult decisions required to finalize the 
Basic principles.
                                 ______
                                 

           Responses of Tina Kaidanow to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. Kosovo faces a challenging road ahead, particularly as it 
relates to interethnic reconciliation. The minority protections that 
were engineered into the Ahtisaari Plan and are now being adopted by 
the Kosovar Government could end up completely insulating the two 
communities from each other. Kosovo's ethnic Albanian leadership have 
already made some admirable initial attempts to reach out to minority 
Serbs, but what more needs to be done to ensure that the two 
communities are not permanently estranged? How is the Department 
planning to contribute to this process?

    Answer. Implementation of the Ahtisaari plan, with its significant 
provisions for protection of minority rights in Kosovo, remains a key 
priority for the United States Government. The newly-established 
International Civilian Office (ICO) will have the leading role in 
supervising the implementation of the plan.
    The United States is supporting ICO's efforts through both 
secondment of personnel and strong political backing on the ground. The 
United States Embassy in Pristina is also directly engaged on a daily 
basis in encouraging Kosovo's Government to reach out to its minority 
communities, with a special emphasis on the Serb community. The embassy 
has supported the formation of a government with Serb participation, 
ensured that Kosovo's constitution contains all the protections for 
minorities required by the Ahtisaari plan, and worked to propel passage 
of over 40 new laws enshrining those protections. The embassy will 
continue to encourage Kosovo's Government to implement laws on 
decentralization of authority, provide funding and support for returns 
of Serb refugees and internally displaced persons, and ensure Serb and 
other minority concerns are heard and acted upon as a matter of 
priority. The embassy will continue to speak with members of the Serb 
community directly, facilitate communications with the government when 
necessary, and sponsor other creative ways of encouraging interethnic 
dialog, including programs for youth and civil society initiatives that 
work at grass roots level.

    Question. The United States support for the people of Kosovo is a 
compelling counterargument to the narrative put forward by radical 
extremists that the United States is anti-Muslim. It is a case in which 
the United States risked American lives to protect innocent Muslim 
civilians, stood by them for 8 long years, and midwifed the creation of 
an independent Muslim state in the heart of Europe. Why hasn't the 
administration done more to highlight United States support for Kosovo 
in the Muslim world? Are there plans to do so in the future?

    Answer. Since Kosovo declared its independence in line with the 
Ahtisaari plan in February 2008, 43 countries have announced 
recognition of the new state, including several members of the 
Organization of the Islamic Conference (OIC). The OIC has historically 
has been supportive of Kosovo. The United States and its European 
partners, as well as the Kosovo Government itself, are working to 
encourage further recognitions among the OIC countries. Kosovo's newly 
appointed Foreign Minister, with United States support and assistance, 
has met with representatives of key Middle Eastern and Gulf states, 
while United States officials have also made high-level approaches to 
these countries. We anticipate that with continued progress and 
stability in Kosovo, additional OIC member states will recognize its 
independence in the next few months.


                              NOMINATIONS

                              ----------                              


                        THURSDAY, JULY 17, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Alemayehou, Mimi, to be the United States Director of the 
        African Development Bank
Durkin, Patrick, to be a member of the board of directors of 
        the Overseas Private Investment Corporation
Peel, Ken, to be the U.S. Director of the European Bank for 
        Reconstruction and Development
San Juan, Miguel, to be the U.S. Director/Executive Director of 
        the Inter-American Development Bank
                              ----------                              

    The committee met, pursuant to notice, at 2:34 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez presiding.
    Present: Senators Menendez and Lugar.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. The hearing of the Committee on Foreign 
Relations will come to order. Today, the committee meets to 
consider the nomination of four individuals for key leadership 
positions in the administration.
    The President has nominated Mimi Alemayehou to be the 
United States Director of the African Development Bank, Ken 
Peel to be the U.S. Director of the European Bank for 
Reconstruction and Development, Miguel San Juan to be the U.S. 
Director--Executive Director of the Inter-American Development 
Bank, and Patrick Durkin to be a member of the board of 
directors of the Overseas Private Investment Corporation.
    I want to congratulate you all on your nominations, and we 
look forward to hearing from each and every one of you this 
afternoon.
    I will start off with an opening statement. Hopefully, it 
will buy some time for some of our colleagues to get here. I 
want to make introductions, and if we have any other members, 
we will acknowledge them as they come--such as the 
distinguished ranking member of the full committee.
    The United States plays a crucial role in promoting 
economic and social development, trade, political stability, 
and poverty alleviation around the world. Multilateral 
development banks and the Overseas Private Investment 
Corporation are a part of the toolkit the United States has to 
address these challenges.
    Each nominee before us, if confirmed, would be expected to 
play a key role in these organizations' missions and the 
overall U.S. Government strategy overseas, something that I 
take very seriously. As the chairman of the Subcommittee on 
Foreign Assistance, my role is to look at the overall funding, 
management, and implementation of our foreign assistance.
    I look at how each organization contributes to the overall 
context of our larger development goals and foreign policy 
goals. Are we getting the most for our money? Are we carrying 
out the right mix of programs? How do we balance priorities in 
education, health, economic growth, social investment, and the 
environment? What oversight mechanisms are in place to ensure 
that the funds are being used for the purposes Congress 
intended?
    And particularly with our contributions to multilateral 
efforts, I look to see how the goals of the United States are 
conveyed and carried out along with other member nations. I 
know that this administration's use of the term 
``multilateral'' has often been used in vain, but now it is 
used out of necessity, but rarely has it been used by choice. 
The United States should be using it as a way of strengthening 
a unified effort, rather than as a last resort.
    I personally believe that multilateralism is a strong 
element of our foreign policy. In fact, I believe it so much 
that I have a bill, which was recently voted favorably out of 
the Senate Foreign Relations Committee, that equally divides 
contributions between bilateral efforts and multilateral 
efforts. It would provide $2.5 billion over 10 years for the 
U.S. Agency for International Development and the Inter-
American Development Bank. In addition, it would pay the 
arrears the United States owes to the IDB.
    The United States contributions to the multilateral 
development banks give the United States a seat at the table, a 
seat that allows the United States to contribute to direct 
programs that help countries develop their economies, 
strengthen their institutions of governance, and care for their 
people.
    Mr. San Juan, your position, if confirmed, will be to 
represent the United States in the largest multilateral bank in 
the Western Hemisphere. You would be in the unique position to 
communicate and advance the U.S. priorities for the region and 
represent the United States in an important process of 
developing consensus among member states.
    However, as I am sure you know, the IDB is not without its 
own challenges. In particular, a decreasing demand for 
sovereign loans is forcing the IDB to go through a 
transformation, a transformation which may result in a 
significantly different institution than we just saw 10 or 20 
years ago. And I look forward to hearing from you today how you 
believe we can reconcile these challenges while advancing the 
bank's mission in the region.
    Mr. Peel, the European Bank for Reconstruction and 
Development is also a bank in transition, but maybe in 
different ways. Given the constantly changing nature of the 
region, the bank is now reducing the amounts it lends to 
countries of Central Europe and expanding lending to countries 
like Kazakhstan. These changes are not without complications, 
and I look forward to your views on how you will help the 
institution deal with this.
    Mr. Durkin, the Overseas Private Investment Corporation is 
something that I am actually quite familiar with. I worked on 
the reauthorization of OPIC's legislation both during my time 
in the House of Representatives and now in the Senate. I am 
hopeful that OPIC's reauthorization is passed soon to allow 
OPIC to get back to business.
    I understand that your nomination is for a part-time 
position as a member of the board of directors of OPIC. And 
while this committee does not always hold hearings for OPIC 
board members, given the increasing role that OPIC is playing 
in development-related efforts, I felt that it is important to 
have you here today, and we appreciate your appearance.
    Like any institution, OPIC is not without its challenges 
either. It has a mixed history of rigorous oversight of 
programs and a mixed history of what I would call success. 
While I understand OPIC officials often emphasize the fact that 
OPIC has no net cost to the United States taxpayer, and in 
fact, through the fees it collects, OPIC actually generates 
income and contributes significant resources annually to the 
U.S. Treasury, I recognize those facts.
    However, just because the particular structure of OPIC is 
less costly to the taxpayer, it doesn't mean that Congress 
doesn't hold OPIC to a similar standard of excellence. I expect 
the same kind of oversight and rigorous evaluation of projects 
as I expect from all of our initiatives overseas.
    I look forward to your thoughts on the OPIC's role in our 
overall development efforts and your thoughts on its changing 
role.
    Ms. Alemayehou, the African Development Bank is an 
institution for a region devastated by war, famine, AIDS, and 
genocide. We need to use every tool at our disposal to make 
sure that the cycles of tragedy that are all too familiar on 
the continent of Africa are controlled, tempered, and 
eventually eliminated.
    So, together, your positions, if you are confirmed, would 
be partly responsible for setting the tone of the relationship 
with the United States and carrying out their respective 
missions. You would play a vital role in work that is neither 
trivial nor extracurricular, but, in my view, work that is at 
the core of U.S. efforts to combat the world's most intractable 
problems, problems that merit our undivided attention. In 
short, this work matters.
    In that spirit, I look forward to hearing your testimony 
today. And now I would like to turn to the distinguished 
ranking member of the committee, Senator Lugar, for his opening 
statement.

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman.
    Today, as you have mentioned, the committee will have a 
discussion with nominees for positions at the African 
Development Bank, the European Bank for Reconstruction and 
Development, the Inter-American Development Bank, and the 
Overseas Private Investment Corporation.
    The United States has strong national security and 
humanitarian interests in alleviating poverty, promoting 
development around the world. These efforts of these 
organizations are important to this mission. Each of our 
nominees will play a key role in formulating policies that will 
impact on U.S. standing in their respective organizations.
    During the past 5 years, our committee has held 6 hearings 
on the operation of the multilateral development banks. Those 
hearings contributed to the committee's understanding of both 
the value of the banks' efforts and problems with their 
operations.
    In 2005, building on this initiative, I introduced Senate 
bill 1129, the Development Bank Reform and Authorization Act, 
and most of the provisions of this bill were enacted into law 
in November of 2005. With the passage of this legislation, 
Congress made a strong statement that recognized the critical 
role of MDBs in achieving the development goals around the 
world, but also that the operation of these banks must be 
transparent and free of corruption.
    The United States Government must work to ensure that this 
money is spent efficiently, both because of our responsibility 
to American taxpayers and because inefficiency and corruption 
undermine the basic humanitarian and foreign policy objectives 
of our participation in MDB financing.
    I continue to work with my colleagues toward 
reauthorization of the Overseas Private Investment Corporation, 
which provides project financing, investment insurance, and 
other services for United States business in over 150 
developing countries and emerging economies. OPIC's 
authorization expired April 1, and cannot enter into new 
commitments. This is deeply concerning, given OPIC's dedication 
to the United States foreign policy goals, including economic 
development in countries recovering from conflict.
    OPIC has not drawn on appropriated funds in recent years 
because it has recorded a positive net income for every year of 
operation, with reserves now totaling more than $5 billion. 
OPIC is proactively incorporating the Extractive Industry 
Transparency Initiative, the EITI, into its project selection 
and project selection design. This is an excellent example of 
how United States agencies should be integrating the 
initiative.
    EITI, endorsed repeatedly by the United States at the G-8, 
is one tool to ensure that earnings from oil and gas revenues 
are tracked. History shows oil and natural gas reserves can be 
a bane as well as a blessing for poor countries, leading to 
corruption, wasteful spending, military adventurism, and 
instability. Because the resource curse threatens our own 
security in the United States and our economic interests, I 
have asked the committee's minority staff to assess the efforts 
so far in lifting it.
    Now, looking at more than 20 countries around the world, 
staff found that while awareness of the potential dangers from 
sudden oil wealth has grown, progress has been spotty. I would 
be interested in hearing from the nominees about the respective 
development banks to which they are nominated to serve as to 
how they are currently integrating EITI into their operations.
    I congratulate all of the nominees on your nomination. I 
thank the chairman for the opportunity to make this statement 
and to participate in questions and answers with you.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you, Senator Lugar.
    We are going to start. Senator Hutchison may join us at 
some point, at which time we will certainly recognize her to 
introduce one of our nominees. But in order to try to give her 
some more time for that opportunity, we will start the process 
of hearing from our members.
    So we invite you all to summarize your statements for about 
5 minutes. Your full statements will be entered into the record 
in its entirety.
    And certainly, if you have members of your family or 
friends who are accompanying you, we would love to have you 
introduce them to us because we understand that these 
sacrifices are not just of the individual, but of families 
themselves. And so, we appreciate their sacrifice.
    So let us start with you, Ms. Alemayehou. You are 
recognized for your statement. And if you have family here, we 
would be happy to be introduced to them.

   STATEMENT OF MIMI ALEMAYEHOU, NOMINEE TO BE UNITED STATES 
 DIRECTOR OF THE AFRICAN DEVELOPMENT BANK FOR A TERM OF 5 YEARS

    Ms. Alemayehou. Thank you, Chairman Menendez and members of 
the committee.
    First, I would like to introduce my family. They have a 
saying in Africa, ``It takes a village to raise a child,'' and 
I am afraid that my whole village is here today. But I would 
like to especially thank my son, Jacob, for being so patient 
with me. He wants me to introduce him as Spiderman today. So, 
Jacob?
    And his father, Papa; my Uncle Johannes; my brother, Addis, 
is here all the way from Ethiopia with his wife, and the rest 
of my family. Thank you.
    Senator Menendez. Welcome to all of you. And for Spiderman, 
we need to talk afterwards. So I have got a few things I need 
to be taken care of. So----
    [Laughter.]
    Ms. Alemayehou. Chairman Menendez and members of the 
committee, I am grateful for the opportunity to appear before 
you. I am truly honored that President Bush has nominated me to 
serve as the U.S. Executive Director for the African 
Development Bank.
    After his recent visit to Africa, President Bush commented, 
``Things have changed in Africa since my first visit. I mean 
striking changes. And we are treating African leaders as equal 
partners. We expect them to produce measurable results. We 
expect them to fight corruption and invest in the health and 
education of their people and pursue market-based economic 
policies.''
    I truly share the President's vision that it is through 
such respectful and engaged partnerships that Africans can play 
a driving role in Africa's development, and African leaders can 
be accountable for their actions. If confirmed, I pledge to 
work with this committee and the full Congress, as well as 
Secretary Paulson, the Treasury Department, and the 
administration in furthering U.S. international development 
goals.
    Increasingly, America's prosperity is becoming linked to 
peace and the raising of living standards for all individuals 
in the developing world. Throughout my life, I have made 
choices which prepared me for this challenging role--to serve 
as a bridge between our country of opportunity and the 
continent of Africa, with its tremendous yet far from realized 
potential.
    I have been fortunate in my professional life to 
continuously work on United States and Africa-related matters, 
from my policy experience serving right here on Capitol Hill to 
my private sector international telecom work and, more 
recently, as an entrepreneur serving--supporting the efforts of 
the United States-sponsored Africa Growth and Opportunity Act.
    I have learned a great deal from this and enjoyed working 
with African and United States officials. I must say, however, 
that I have taken the most pleasure working with actual African 
entrepreneurs with great skills, but in desperate need of basic 
tools and training to effectively develop their businesses.
    Today's Africa is a far cry from my early years in Ethiopia 
under a Communist regime, which left an indelible mark on me. 
Entrepreneurship and democracy are now the order of the day, 
but the African private sector cannot thrive without an upgrade 
of the continent's infrastructure, financial systems, 
transparency, and governance. America's style of government and 
its liberalized economic model put us in an exceptional 
position to help steer the bank toward more effective policies.
    While humbled by the nomination, I am excited about the 
prospects facing the continent. I do hope to have the 
opportunity to play a role in enabling the United States and 
the African Development Bank to work more closely together and 
to help improve the lives and dignity of all 940 million 
Africans.
    Thank you for considering my nomination. I would be pleased 
to answer any questions.
    [The prepared statement of Ms. Alemayehou follows:]

  Prepared Statement of Mimi Alemayehou, Nominee to be United States 
  Executive Director for the African Development Bank for a Term of 5 
                                 Years

    Chairman Menendez, Senator Lugar, and members of the committee, I 
am grateful for the opportunity to appear before you today. I am 
honored that President Bush has nominated me to serve as the U.S. 
Executive Director for the African Development Bank.
    After his recent visit to Africa, the President commented: ``Things 
have changed in Africa since my first visit, I mean striking changes;'' 
and then he continued: ``We're treating African leaders as equal 
partners. We expect them to produce measurable results. We expect them 
to fight corruption, and invest in the health and education of their 
people, and pursue market-based economic policies.''
    I share the President's vision of a ``partnership of equals'' 
between the United States and Africa. It is through such respectful and 
engaged partnership that Africans can play a driving role in Africa's 
development and African leaders can be accountable for their actions. 
If confirmed, I pledge to work with this committee, Congress, and the 
administration in furthering U.S. International Policy and Development 
goals. Increasingly, America's prosperity is becoming linked to peace 
and the raising of living standards for all individuals in the 
developing world. The African Development Bank is one of the most 
important regional development banks as it serves the world's least 
developed continent. The bank's activities have a very high impact on 
the region and therefore command the focused attention of Africa's 
leadership.
    Throughout most of my life, I made personal and professional 
choices which prepared me for a focused and challenging role--to serve 
as a bridge, an enabler, between our country of opportunity, and the 
continent of Africa, with its tremendous yet far from realized 
potential. I am grateful for the educational and professional 
opportunities the United States has afforded me. This, I believe, 
prepared me for a role in the development of Africa and the 
international private sector as early as my days serving as an aide on 
Capitol Hill. Africa and the private sector reemerged later in my work 
in international telecoms focusing on the introduction of a new 
technology to African countries, and more recently as an entrepreneur 
supporting the efforts of the United States-sponsored Africa Growth and 
Opportunity Act. I started TradeLinks in order to assist AGOA eligible 
member countries in the regional grouping of the Common Market for 
Eastern and Southern Africa (COMESA) so that they may increase their 
exports to the United States. While I enjoyed working with the African 
Governments and United States officials, I took the most pleasure from 
working with African entrepreneurs with great skills and products but 
were in desperate need of basic tools. They were in need of training or 
adequate equipment so that they can produce consistently high quality 
goods on a meaningful scale and in a tight timeframe.
    Today's Africa is a far cry from my early years in Ethiopia under a 
communist regime that left an indelible mark on me. Entrepreneurship 
and democracy are now the order of the day; but the African private 
sector cannot thrive without a significant upgrade of the continent's 
infrastructure and financial systems. These challenges call for a 
strong and active African Development Bank to finally help turn 
Africa's long held promise into a reality. This optimism does, however, 
bring increased expectations with respect to governance, transparency, 
regional integration, and the need to develop African skills. That is 
the reason why Africa needs reliable partners such as the United States 
and strong institutions such as the African Development Bank. America's 
style of government and its liberalized economic model put us in an 
exceptional position to help steer the bank toward the right policies 
and usher an unprecedented era of sustainable economic growth in 
Africa. The implementation of United States policy toward Africa, as 
well as our role on the Board of the African Development Bank, together 
constitute key tools to help Africa achieve this growth. It would 
therefore be a privilege to work with Secretary Paulson, the Treasury 
Department, and Congress to increase the African Development Bank's 
impact and effectiveness.
    While humbled by the nomination, I am excited about the prospects 
and challenges facing the African continent. I do hope to have the 
opportunity to play a role in getting the United States and the African 
Development Bank to work more closely together in order to help improve 
the lives and dignity of all 940 million Africans.
    Mr. Chairman, Senator Lugar, members of the committee, thank you 
for considering my nomination. I would be pleased to answer any 
questions.

  Prepared Statement of Mimi Alemayehou, Nominee to be U.S. Executive 
               Director for the African Development Bank

    Chairman Menendez, Senator Lugar, and members of the committee, I 
am grateful for the opportunity to appear before you today. I am 
honored that President Bush has nominated me to serve as the U.S. 
Executive Director for the African Development Bank.
    After his recent visit to Africa, the President commented: ``Things 
have changed in Africa since my first visit, I mean striking changes;'' 
and then he continued: ``We're treating African leaders as equal 
partners. We expect them to produce measurable results. We expect them 
to fight corruption, and invest in the health and education of their 
people, and pursue market-based economic policies.''
    I share the President's vision of a ``partnership of equals'' 
between the United States and Africa. It is through such respectful and 
engaged partnership that Africans can play a driving role in Africa's 
development and African leaders can be accountable for their actions. 
If confirmed, I pledge to work with this committee, Congress, and the 
administration in furthering U.S. International Policy and Development 
goals. Increasingly, America's prosperity is becoming linked to peace 
and the raising of living standards for all individuals in the 
developing world. The African Development Bank is one of the most 
important regional development banks as it serves the world's least 
developed continent. The bank's activities have a very high impact on 
the region and therefore command the focused attention of Africa's 
leadership.
    Throughout most of my life, I made personal and professional 
choices which prepared me for a focused and challenging role--to serve 
as a bridge, an enabler, between our country of opportunity, and the 
continent of Africa, with its tremendous yet far from realized 
potential. I am grateful for the educational and professional 
opportunities the United States has afforded me. This, I believe, 
prepared me for a role in the development of Africa and the 
international private sector as early as my days serving as an aide on 
Capitol Hill. Africa and the private sector reemerged later in my work 
in international telecoms focusing on the introduction of a new 
technology to African countries, and more recently as an entrepreneur 
supporting the efforts of the United States-sponsored Africa Growth and 
Opportunity Act. I started TradeLinks in order to assist AGOA eligible 
member countries in the regional grouping of the Common Market for 
Eastern and Southern Africa (COMESA) so that they may increase their 
exports to the United States. While I enjoyed working with the African 
Governments and United States officials, I took the most pleasure from 
working with African entrepreneurs with great skills and products but 
were in desperate need of basic tools. They were in need of training or 
adequate equipment so that they can produce consistently high quality 
goods on a meaningful scale and in a tight timeframe.
    Today's Africa is a far cry from my early years in Ethiopia under a 
communist regime that left an indelible mark on me. Entrepreneurship 
and democracy are now the order of the day; but the African private 
sector cannot thrive without a significant upgrade of the continent's 
infrastructure and financial systems. These challenges call for a 
strong and active African Development Bank to finally help turn 
Africa's long held promise into a reality. This optimism does, however, 
bring increased expectations with respect to governance, transparency, 
regional integration, and the need to develop African skills. That is 
the reason why Africa needs reliable partners such as the United States 
and strong institutions such as the African Development Bank. America's 
style of government and its liberalized economic model put us in an 
exceptional position to help steer the bank toward the right policies 
and usher an unprecedented era of sustainable economic growth in 
Africa. The implementation of United States policy toward Africa, as 
well as our role on the Board of the African Development Bank, together 
constitute key tools to help Africa achieve this growth. It would 
therefore be a privilege to work with Secretary Paulson, the Treasury 
Department, and Congress to increase the African Development Bank's 
impact and effectiveness.
    While humbled by the nomination, I am excited about the prospects 
and challenges facing the African continent. I do hope to have the 
opportunity to play a role in getting the United States and the African 
Development Bank to work more closely together in order to help improve 
the lives and dignity of all 940 million Africans.
    Mr. Chairman, Senator Lugar, members of the committee, thank you 
for considering my nomination. I would be pleased to answer any 
questions.

    Senator Menendez. Thank you very much.
    Mr. Peel.

   STATEMENT OF KENNETH L. PEEL, NOMINEE TO BE UNITED STATES 
     DIRECTOR OF THE EUROPEAN BANK FOR RECONSTRUCTION AND 
                          DEVELOPMENT

    Mr. Peel. Thank you, Chairman Menendez, Senator Lugar.
    I am grateful to the President for nominating me to be U.S. 
Executive Director to the European Bank for Reconstruction and 
Development. I am deeply honored to appear before the Senate 
Foreign Relations Committee today to discuss my qualifications.
    Being here today, I feel that I have come home. Since July 
2001, I have served in a series of foreign and economic policy 
positions in the administration. But for 6 years before that, I 
served two Senators on this committee--Senator Hagel, when he 
chaired the International Economic Policy Subcommittee, your 
predecessor subcommittee, and Senator Snowe during her first 2 
years in the Senate when she chaired the International 
Operations Subcommittee.
    The great bulk of my professional career has been working 
on foreign policy and international economic policy in 
Congress, with a special focus on multilateral diplomacy. 
Before working in the Senate, I spent 12 years in the House, 10 
of them as a professional staff member of the Foreign Affairs 
Committee.
    Since July 2001, I have held three executive branch 
positions. I have served, first, as a member of Secretary 
Powell's policy planning staff, working on international 
organization and Eurasian issues; second, as an NSC director, 
covering international energy and environment issues; and then, 
currently, as Treasury's Deputy Assistant Secretary for 
International Development Finance, and Debt.
    In short, I believe that I am well equipped, both by my 
academic and professional background, to take on the position 
for which I am nominated. My current job prepares me 
particularly well. As a deputy assistant secretary at Treasury, 
I oversee U.S. policy toward all of the major multilateral 
development banks, such as the World Bank, and the regional 
development banks, such as the European Bank for Reconstruction 
and Development.
    Even though this nomination is coming late in the 
administration, there are huge issues currently at the EBRD, as 
there are at the other institutions, that will affect our 
interests in both the institution and in the region over the 
next 6 months. As you know, U.S. executive directors at MDBs 
are essentially our ambassadors to those institutions. Since I 
work day in and day out on MDB policy, I see how important it 
is to have strong Senate-confirmed directors in place.
    I would just note at these three institutions, Clay Lowery, 
who you all know very well, is our executive director to those 
institutions in absentia. And while we have very talented 
people staffing those offices, it still makes a difference when 
you don't have a Senate-confirmed ED in place.
    If confirmed by the U.S. Senate, I would put my skills and 
background to immediate use in advancing U.S. interests at the 
EBRD. I believe in our sometimes-complicated system of 
government. Our coequal, separate branches give us a unique 
strength when we work together, when we genuinely consult on 
policy directions, and when we can speak with one voice.
    If confirmed, I look forward to being available to speak or 
meet with you or your staff at any time, and I hope you won't 
mind if I seek your advice on some of the very key issues that 
will be facing U.S. interests at the EBRD in the months ahead.
    Mr. Chairman, Senator Lugar, I am truly grateful for the 
opportunity to appear before you today and, of course, would be 
pleased to answer any questions.
    Thank you.
    [The prepared statement of Mr. Peel follows:]

  Prepared Statement of Kenneth L. Peel, Nominee to be United States 
    Director of the European Bank for Reconstruction and Development

    Chairman Menendez, Senator Lugar, and members of the committee, I 
am grateful to the President for my nomination to be U.S. Executive 
Director to the European Bank for Reconstruction and Development, and I 
am deeply honored to appear before the Senate Foreign Relations 
Committee to discuss my qualifications for this position.
    Being here today, I feel that I have come home. Since July 2001, I 
have served in a series of foreign and economic policy positions in the 
administration. For 6 years before that, I served two Senators on this 
committee: Senator Hagel, when he chaired the International Economic 
Policy Subcommittee, and Senator Snowe, during her first 2 years in the 
Senate when she chaired the International Operations Subcommittee.
    The great bulk of my professional career has been working on 
foreign policy and international economic policy in Congress, with a 
special focus on multilateral diplomacy. Before working in the Senate, 
I spent 12 years in the House, 10 of those as professional staff on the 
House Foreign Affairs Committee.
    Since July, 2001, I have held three positions in the executive 
branch. I served:

As a Member of Secretary of State Colin Powell's Policy Planning Staff 
        working on international organization and Eurasian issues;
As an NSC Director covering international environment and energy 
        issues; and
As Deputy Assistant Secretary for International Development Finance and 
        Debt at the Treasury Department.

    In short, I believe that I am well equipped, both by my academic 
and professional background, to take on the position for which I have 
been nominated. My current position prepares me particularly well. As 
Treasury Deputy Assistant Secretary, I oversee U.S. policy toward all 
of the major multilateral development banks such as the World Bank and 
the regional development banks, including the European Bank for 
Reconstruction and Development.
    Even though this nomination is coming late in the administration, 
there are huge issues currently at the EBRD that will affect our 
interests in both the institution and in the region over the next 6 
months. As you know, U.S. Executive Directors at the multilateral 
development banks are essentially our ambassadors to those 
institutions. Since I work day in and day out on MDB policy, I see how 
important is to have strong Senate-confirmed directors in place.
    If confirmed by the U.S. Senate, I look forward to bringing my 
skills and background to advancing U.S. interests at the EBRD. I 
believe in our sometimes complicated system of government. Our coequal, 
separate branches of government give us a unique strength when we work 
together, genuinely consult on policy directions, and speak with one 
voice. If confirmed, I look forward to being available to speak or meet 
with you or your staff at any time, and hope you won't mind if I seek 
out your advice at critical junctures in several of the key issues 
facing U.S. interests at the EBRD in the months ahead.
    Mr. Chairman, Senator Lugar, members of the committee, I am 
grateful for the opportunity to appear before you today. I would be 
pleased to answer any of your questions.

    Senator Menendez. Thank you very much.
    I am incredibly impressed that both of you are under your 
timeframe. So that is very rare before the committee.
    Mr. Durkin. Not that I want to put any pressure on you. You 
can use your full 5 minutes if you want to.

 STATEMENT OF PATRICK J. DURKIN, NOMINEE TO BE A MEMBER OF THE 
     BOARD OF DIRECTORS OF THE OVERSEAS PRIVATE INVESTMENT 
       CORPORATION FOR A TERM EXPIRING DECEMBER 17, 2009

    Mr. Durkin. And I will endeavor to make that shorter.
    Thank you, Mr. Chairman, and thank you, Senator Lugar.
    I am deeply honored to be President Bush's nominee to serve 
as a board member for the Overseas Private Investment 
Corporation, a corporation I have known since 1980. And I 
appreciate the trust placed in me.
    If I am confirmed, I would be honored to bring my private 
sector and NGO experience and former government experience to 
strengthen OPIC. The unique role of OPIC in mobilizing private 
capital on a self-funded basis to promote economic and social 
development is important to help sustainable economies improve 
the lives of people and support U.S. foreign policy interests. 
In my own work over 20 years in the emerging markets, I have 
seen OPIC be a catalyst for responsible investments in 
developing countries that would not have taken place without 
the organization's support.
    Besides experience in the private sector and in government, 
I have a commitment to public service and nongovernmental 
organizations, and I greatly value their roles. Amongst others, 
I have been involved and served on the boards of CARE, the 
American Red Cross, College for Every Student, and the New York 
Advisory Committee for Human Rights Watch, and I value that 
experience immensely.
    Taken together, this background has given me a great 
appreciation for the importance of the public and private 
sectors working together to achieve common goals not only here, 
but overseas. Nowhere is this more important than in developing 
economies and nations of the world where OPIC programs are 
focused.
    In closing, Mr. Chairman and Senator Lugar, thank you and 
your staff for expeditiously considering my nomination and for 
including me in this hearing. If confirmed, I pledge to commit 
my full energies and experience and time to carry out the 
important responsibilities of the OPIC board.
    Thank you.
    [The prepared statement of Mr. Durkin follows:]

Prepared Statement of Patrick J. Durkin, Nominee to be a Member of the 
Board of Directors of the Overseas Private Investment Corporation for a 
                    Term Expiring December 17, 2009

    Thank you, Mr. Chairman, and members of the committee, for the 
opportunity to appear before you today to consider my nomination to 
serve on the Board of Directors of the Overseas Private Investment 
Corporation (OPIC). I am honored to be President Bush's nominee to 
serve as a board member for OPIC and appreciate the trust placed in me.
    I learned about OPIC 28 years ago when I was working as a 
legislative assistant in the House of Representatives and have watched 
it effectively execute and expand its political risk insurance and 
financing to help U.S. businesses in the developing markets for many 
years. In my own work in the emerging markets, I have seen OPIC be a 
catalyst for good investments in developing countries which would not 
have taken place without the organization's support.
    The role of OPIC in promoting economic and social development 
remains important to help establish sustainable economies, promote 
democracy, and improve the lives of millions of people. It is also 
exemplary how OPIC has operated in the most challenging markets and 
countries in the world and functions as a self-sustaining organization. 
This is a great tribute to the leadership of OPIC and the Congress.
    I believe my background and experience in international finance are 
relevant in assisting OPIC fulfill its mission. I have spent my career 
in both the private and public sectors. During the last 22 years in 
business at Credit Suisse and Donaldson, Lufkin, and Jenrette, I spent 
the majority of that time in the international markets and as a 
managing director of our international banking group. I established 
businesses for advisory, capital raising, and direct investment in 
Africa, Asia, Central and Latin America, Emerging Europe, India, and 
the Former Soviet Union. I began working in these markets 20 years ago 
at the early stages of private sector financing and learned how 
difficult it can be to get capital in the hands of good entrepreneurs 
and businesses.
    While some capital to the developing nations has become more 
available, there is still a great need for OPIC to provide financing 
and insurance in the most challenged emerging economies, and 
particularly for smaller businesses. Expanding international 
opportunities for U.S. small business, particularly minority- and 
women-owned business, has been a high priority for current OPIC 
President Robert Mosbacher, and I look forward to working toward this 
important objective.
    Besides the private sector, I have a commitment to public service 
in both government and nongovernmental organizations and greatly value 
their roles. Prior to a career in finance, I served as a Legislative 
Assistant in the House and a Special Assistant and Speechwriter at the 
U.S. Treasury Department. I also served on the Executive Staff of the 
President's Commission on the 1987 Markets Collapse (Brady Commission). 
I have been deeply involved for over 20 years with CARE, a leading 
humanitarian organization fighting global poverty, and have served on 
its board. I am currently on the boards of the American Red Cross of 
New York, and College for Every Student, and have served on the New 
York Advisory Committee for Human Rights Watch for over 10 years. I am 
also a member of the Council of Foreign Relations.
    My work in the international markets, government, and not-for-
profit organizations has given me a great appreciation for the 
importance of the public and private sectors working together to 
achieve common goals. Nowhere is this more important than in the 
developing economies and nations of the world, where OPIC programs are 
focused.
    Mr. Chairman, thank you for including me in this hearing. If 
confirmed, I pledge to commit my full energies and experience in 
carrying out the important policy and fiduciary responsibilities of the 
OPIC Board and the organization.
    I would be pleased to respond to your questions.

    Senator Menendez. Thank you.
    Mr. San Juan.

  STATEMENT OF MIGUEL R. SAN JUAN, NOMINEE TO BE UNITED STATES 
EXECUTIVE DIRECTOR OF THE INTER-AMERICAN DEVELOPMENT BANK FOR A 
                        TERM OF 3 YEARS

    Mr. San Juan. Chairman Menendez, Ranking Member Lugar, 
thank you for the opportunity to appear before you today.
    I am honored that President Bush has nominated me to serve 
as the United States Executive Director of the Inter-American 
Development Bank. I am grateful to have the support of the 
President and Secretary Paulson and the privilege of your 
consideration.
    I would like to introduce members of my family sitting in 
the audience, my wife, Lucia, who is more used than I am to be 
in front of cameras, if you will, and my sons, Miguel, Marcus, 
and Maximo, who is at the moment asleep, and let us hope that 
continues for the good of this hearing. My family continues to 
support me as a full partner in my quest for public service.
    I have long held aspirations of working in the public 
service, especially in a capacity dealing with the Americas. 
Further, I believe strongly in the Inter-American Development 
Bank's mission. I look forward to having the opportunity to 
state my objectives as a candidate for the position, as well as 
answering any questions regarding my experience and 
qualifications.
    By the good graces of many, my family and I were reunited 
in Houston, TX, after many years of separation following my 
departure from Cuba. I feel extremely fortunate that my career 
in economic development has given me an opportunity to give 
back to the country that welcomed us with open arms so many 
years ago.
    I am very eager to apply the lessons I learned at one of 
the Nation's premier chamber organizations in service of the 
United States and another region dear to my heart, Latin 
America and the Caribbean.
    Vicious cycles of poverty and crime pose an ongoing threat 
to the region's vast potential. The words of Nobel Laureate 
Octavio Paz come to mind, and I quote, ``America no es tanto 
una tradicion que continuar, como un futuro que realizar.'' 
America is not so much a tradition to continue, as a future to 
realize.
    If Latin America is to realize the future it deserves, it 
must overcome these longstanding obstacles. There are, however, 
signs of hope and progress everywhere. I believe the IDB plays 
a critical role in accelerating economic and social development 
in the region. In so doing, it also fosters hemispheric and 
global security. And at a critical point in the hemisphere's 
history, the IDB constitutes a force that can hold the region 
together while others threaten to tear it apart.
    Another area on which I hope to focus is in the development 
of small- and medium-sized industries in the region. President 
Bush has stated the relevance of SMEs to the health of this 
Nation's economy. The same logic applies to the whole of the 
Americas.
    Today's SMEs are tomorrow's multinationals. They are the 
seeds that create jobs and economic prosperity. To stimulate 
their growth in the region, I advocate for increased 
cooperation and coordination between the IDB and the Chambers 
of Commerce throughout Latin America and the Caribbean. Above 
all, I view the principal role of the IDB's executive director 
as representing the United States.
    In closing, I want to acknowledge my family as the bedrock 
of my value system. We are hard-working, God-fearing people who 
keep and treasure our immigrant roots. Public service allows us 
to give back some of the many blessings that have come our way.
    Mr. Chairman, Senator Lugar, I respectfully ask for your 
favorable consideration of my nomination and stand ready to 
respond to any questions that you may have.
    Thank you for your attention.
    [The prepared statement of Mr. San Juan follows:]

 Prepared Statement of Miguel R. San Juan, Nominee to be United States 
Executive Director of the Inter-American Development Bank for a Term of 
                                3 Years

    Chairman Menendez, Senator Lugar, members of the committee, thank 
you for the opportunity to appear before you today. I am honored that 
President Bush has nominated me to serve as the United States Executive 
Director of the Inter-American Development Bank. I am grateful to have 
the support of the President and Secretary Paulson and the privilege of 
your consideration.
    I would like to introduce members of my family sitting in the 
audience. My wife, Lucia, and my sons, Migue, Marcus, and Maximo. My 
family continues to support me as a full partner in my quest for public 
service.
    I have long held aspirations of working in the public sector, 
especially in a capacity dealing with the Americas. Further, I believe 
strongly in the Inter-American Development Bank's mission. I look 
forward to having this opportunity to state my objectives as a 
candidate for the position, as well as to answering any questions 
regarding my experience and qualifications.
    By the good graces of many, my family and I reunited in Houston, 
TX, after many years of separation following our departure from Cuba. I 
feel extremely fortunate that my career in economic development has 
given me an opportunity to give back to the country that welcomed us 
with open arms so many years ago. I am very eager to apply the lessons 
I learned at one of the Nation's premier chamber organizations in 
service to the United States and another region dear to my heart, Latin 
America and the Caribbean.
    Vicious cycles of poverty and crime pose an ongoing threat to the 
region's vast potential. The words of Nobel Laureate Octavio Paz come 
to mind: ``America no es tanto una tradicion que continuar, como un 
futuro que realizar.'' America is not so much a tradition to continue, 
as a future to realize. If Latin America is to realize the future it 
deserves, it must overcome these longstanding obstacles. There are, 
however, signs of hope and progress everywhere.
    I believe the IDB plays a critical role in accelerating economic 
and social development in the region. In so doing, it also fosters 
hemispheric and global security. And at a critical point in the 
hemisphere's history, the IDB constitutes a force that can hold the 
region together, while others threaten to tear it apart.
    Another area on which I hope to focus is the development of small 
to medium size industries in the region. President Bush has stated the 
relevance of SMEs to the health of this nation's economy. The same 
logic applies to the whole of the Americas. Today's SME's are 
tomorrow's multinationals. They are the seeds that create jobs and 
economic prosperity. To stimulate their growth in the region, I 
advocate increased cooperation and coordination between the IDB and 
Chambers of Commerce throughout Latin America and the Caribbean.
    Above all, I view the principal role of the IDB Executive Director 
as representing the United States.
    In closing, I want to acknowledge my family as the bedrock of my 
value system. We are hard-working, God-fearing people who keep and 
treasure our immigrant roots. Public service allows us to give back 
some of the many blessings that have come our way.
    Mr. Chairman, Senator Lugar, Senators, members of the committee, I 
respectfully ask for your favorable consideration of my nomination and 
stand ready to respond to any questions that you may have. Thank you.

    Senator Menendez. Thank you very much. Thank you all for 
your testimony.
    We will start with 7-minute rounds of questions, and the 
Chair will recognize himself.
    Ms. Alemayehou, let me ask you, what, to your knowledge--(I 
know you are not at the bank yet), so I am sure you have 
prepared, to some degree. What is the engagement of the African 
Development Bank with the Sudan?
    If you could pull the microphone toward you.
    Ms. Alemayehou. Hello? Can you hear me now? Okay.
    From some of the readings that I have, I don't believe the 
African Development Bank is doing any projects currently in 
Sudan. And Zimbabwe, actually, too.
    Senator Menendez. Okay. I hope that you will look at this 
because my understanding is that there is a capacity-building 
for poverty reduction and good governance project with the 
Government of Sudan that works with the Ministry of Finance. 
And my further understanding is that the grant is used to 
support a capacity-building project, which would support the 
implementation of the Poverty Eradication Strategy Paper.
    Now, those are all good goals. My difficulty, to be very 
honest with you, is I am not quite sure how the African 
Development Bank can possibly be working with a government and 
providing funds to the government when everyone knows that it 
is one of the most corrupt and illegitimate regimes, at least 
in my view, in the world right now. And whose high-level 
officials, including the President himself, was just indicted 
by the International Criminal Court as it relates to the 
genocide in Darfur.
    So one of the things I would like you to know is that if 
you are to achieve the success of not only the committee, but 
ratification by the Senate that, in fact, this is something 
that we need to look at. Because I think it is, if we are doing 
this, it seems to me to be sending the wrong policy and the 
wrong messages.
    So will we have your commitment that if you are to be 
confirmed by the Senate, that you will look at this, if, in 
fact, these facts are right?
    Ms. Alemayehou. Yes, I definitely will, if confirmed, look 
into that issue.
    Senator Menendez. Now let me ask you this, what do you 
believe is the appropriate role for China to play at the 
African Development Bank? China's relatively small contribution 
as an African Development Bank funder is, as I said, it is 
relatively small. Are we concerned that Chinese firms are 
receiving an inordinate amount of the funds from the bank, 
considering they are a relatively small size of the bank's 
funders?
    Ms. Alemayehou. Thank you for that question. That is--the 
China issue, as you know, is one on the minds of many of us 
that work on Africa, just because in the last few years, the 
investment from China has really increased, particularly in 
very resource-rich countries. And the concern is very real, as 
we just went through several rounds of debt relief, and we 
definitely should be concerned that some of these countries may 
be accumulating debt.
    I think one of the issues that--one of the ways I believe 
that we could deal with the China issue, obviously, is engage 
them more. They are represented on the board of the African 
Development Bank by our neighbor and ally Canada, and we need 
to engage them more on that issue.
    And another thing is, I believe, technical assistance 
programs to some of these countries, especially the resource-
rich countries that are negotiating the terms of the contracts 
with China, I think that is where the bank could really come in 
handy in making sure that these countries have the capacity to 
actually negotiate what they are negotiating, and they are 
not-- they are looking into the concerns of social, 
environmental impacts to make sure that their people benefit in 
the long term.
    Senator Menendez. Thank you.
    Mr. San Juan, let me ask you, one of the significant 
initiatives that I have been pursuing for some time actually 
includes the bank, the Inter-American Development Bank. It is 
the Social Investment Fund for the Americas, something that we 
have had good bipartisan support. Senator Martinez is our main 
cosponsor. We are privileged to have Senator Lugar on it, 
Senator Biden, and others. Passed through the committee, see 
what action we can get on the floor.
    I don't know that the calendar will allow us to achieve 
everything we want to, but it talks about a significant 
engagement. Nearly 50 percent of the funds would be used with 
the IDB, and our whole effort is to, of course, use the bank to 
leverage these dollars and create a multiplier effect, 
including pursue the private sector.
    If you were to receive the approval of the Senate, could we 
count on you, as the American director at the bank, should this 
legislation pass, to be actively supportive in the bank to 
promote its goals?
    Mr. San Juan. Senator, as you know, the legislation that 
you have drafted and introduced with Senator Martinez of 
Florida is somewhat in line with the works and activities of 
the Inter-American Development Bank, which is to create 
economic prosperity and social prosperity for the region. So 
we, indeed, welcome the initiative that you have taken, 
specifically also as it addresses the debts or the arrears in 
which the United States finds itself as it relates to the 
Inter-American Development Bank.
    So I would, indeed, support the effort, and I would look 
forward to working with you and your colleagues in making it 
happen.
    Senator Menendez. Well, let me ask you one other question 
before my time runs out, and I will come back for our other 
witnesses after I turn to Senator Lugar.
    Five years ago, the IDB Board of Governors proposed that 
the bank should take a more countercyclical approach to 
lending, expanding its assistance at times when private capital 
is hesitant to come into the region and lessening its flow of 
assistance when private capital flows were stronger. In recent 
years, there appears to have been little discussion at the IDB 
about this concern.
    What is the administration's view, as represented through 
your nomination, about countercyclical lending? Should the bank 
expand its lending during slack times and reduce its lending 
when the flow of private funds is strong? Or should the IDB 
emphasize projects and not the overall pattern of capital flows 
in this respect? Give us your views on that.
    Mr. San Juan. Senator, as you know, the bank, the Inter-
American Development Bank, the IDB has rules of engagement in 
place where they look at the projects as they come in, and they 
are evaluated on whether they meet the challenges of 
effectiveness, efficiency, transparency, accountability, and 
also combat corruption.
    I would support, if--with the support of this hearing and 
of the full Senate, that we continue to evaluate the projects 
as they come in to determine that they are doing and fulfill 
the mandate for which they are being proposed. And in so doing, 
I think the bank has an obligation to make those projects 
happen.
    There are over 100 million people that are still under the 
poverty line in Latin America. Depending on how inflation and 
with energy and food prices impacts them, an additional 26 
million people could also be--come under the poverty line. So I 
think the commitments of the bank need to continue to be on a 
project-by-project basis and that the bank of which, if 
approved, I would be part of, to make sure that they meet the 
guidelines of the bank, the governance that the bank has 
established for them.
    Senator Menendez. So that should be the priority versus 
whether or not private capital is available? We should be 
looking at the projects. If they meet those criteria, the bank 
should be robust in its engagement irregardless of whether the 
private capital is there lending or not?
    Mr. San Juan. I think every effort should be made to bring 
private capital into the equation. But, yes, it would be my 
position to make sure that we evaluate projects as they come in 
on the need basis.
    Senator Menendez. Thank you.
    Senator Lugar.
    Senator Lugar. Mr. Peel, there has been a debate at the 
EBRD on whether or not Turkey should become a recipient member. 
Some are interested in linking Turkey more closely to Europe 
through the EBRD. Others suggest that the mission of the bank 
to begin with was to transition countries from communism to 
capitalism.
    What is your judgment on whether Turkey should become a 
recipient member, and at what point should the EBRD think about 
changing its mandate or its method of operation?
    Mr. Peel. Senator Lugar, thank you for your question.
    That actually is one of the key issues right before the 
EBRD right now and one which I have had the pleasure to discuss 
with your staff, with Senator Menendez's staff, and with 
Senator Biden's staff as well.
    Turkey applied for membership. The EBRD was set up, and its 
charter says that it is supposed to support countries in 
Central and Eastern Europe making the transition toward free 
market economies with multiparty democracies. The charter 
itself is silent on what the beginning state is. But at the 
time that the EBRD was established in 1991, it was very clearly 
understood that its purpose was to help the former Communist 
countries make this historic transition to free market 
economies.
    Turkey, as you know, is a country that has many of the 
characteristics of some of the economies that are transitioned 
economies, like Bulgaria or Romania or Ukraine. Turkey believes 
that it can benefit from the very special expertise that EBRD 
has for building free markets, for building small- and medium-
sized enterprises. And Turkey's particular interest is outside 
of the Ankara and Istanbul area, out in Anatolia, where the 
economy of Turkey takes on a much different characteristic.
    We are looking at this issue right now. We have not come to 
any conclusion. There are really two questions there. One is a 
legal question. Do we believe legally Turkey can qualify under 
the charter as a country of operation?
    And then there is the policy issue, and that is sort of in 
two parts. That is first, do we believe that Turkey would 
benefit, and Turkey, of course, is one of our most important 
allies in Europe--in fact, one of our most important allies in 
the world. And Turkey is facing some difficult economic times, 
and would Turkey benefit?
    And then, second, is this the right direction for the 
institution to take? Even if we feel comfortable with Turkey, 
both on legal and policy grounds, we might still feel 
uncomfortable because this is not really what the institution 
was intended for.
    And then the final issue is, is if Turkey comes in, can 
Turkey come in such a way that it does not prejudge the very 
important question on whether the bank should change its nature 
in a more fundamental way? I believe that that will a central 
issue that we will be debating, beginning next year in the 
Fourth Capital Resources Review.
    Senator Lugar. Well, you have certainly outlined the 
dilemma. How will you make a decision? Will this be guided by 
our administration's overall foreign policy views? Or how would 
you describe your own role in this?
    Mr. Peel. Well, my own role, if confirmed, would actually 
be very similar to the role I have right now as one of the key 
members of the policy team that is reviewing and making 
recommendations to my superiors. And a part of that is a very 
close consultation with this committee, which I have had two 
conversations so far at the staff level and would want to 
continue.
    Senator Lugar. Let me explore a different sort of dilemma 
that some have criticized the bank for increasing its loans and 
investments in Russia. Those critics have argued that financing 
is not apparently helping Russia to become more market-oriented 
and that a few of the recipients of the financing are so-called 
oligarchs.
    What is your assessment of the EBRD's lending policy to 
Russia?
    Mr. Peel. Our view is that while we believe that there are 
great opportunities, great needs for Russia to continue and to 
actually make the transition, the historic transition to a free 
market, multiparty democracy, we have had some concerns with 
the kind of priorities the bank has been making in Russia and 
across a range of ways.
    I mean, there are a number of tests we look at when we look 
at EBRD. One is additionality. If it is something that is going 
to happen in the private sector anyway, we shouldn't be putting 
essentially taxpayer money at risk. You can actually be 
undermining the private sector if you start to skew the market.
    For the EBRD, transition impact is absolutely vital. It 
can't just be a good commercial project like you would see at 
the IFC, at the World Bank, for instance. It has to fit within 
the mission.
    And then on state ownership, it is okay to be involved with 
state ownership if you are doing it in a way that involves 
privatization, helping to move state companies into becoming 
private companies. What we see in Russia these days, 
unfortunately, is many private concerns being essentially 
nationalized in fact or de facto.
    And then, finally, the issue you raised--the integrity 
issue. It is vitally important on who you partner with. We have 
found in years before last year, we would only be voting 
against a handful of projects in Russia. And the character is 
the--it was no different from other countries. We always vote 
against certain projects because we don't think they make sense 
or they trigger a voting mandate.
    However, in the last year, we have found, as we looked 
back, we opposed 17 out of 54 projects. That is a very, very 
high percentage. It is an outlier, both at the EBRD and at any 
of our institutions. And so, we have begun discussions with the 
new president of the EBRD, Thomas Mirow, who is formerly the 
Deputy Finance Minister of Germany. This will be one of our key 
priorities because we are very concerned about the direction 
that the EBRD has been takingin Russia.
    And this is a concern not just of Treasury, but NSC, State 
Department. We have these conversations interagency, and we 
have had these conversations with your staff, as well. So this 
is one of these areas where I think the whole of the U.S. 
Government can work together to help the bank make better 
investment choices in Russia.
    Senator Lugar. Thank you.
    Mr. Chairman, I have concluded that my time is up.
    Senator Menendez. Thank you, Senator Lugar.
    We will do another round of 7 minutes, and then, hopefully, 
we will conclude.
    Let me just--I want to return in a moment to Ms. 
Alemayehou. I wanted to make sure that what I was telling you 
was right, and we have here a story from the bank that where 
the Sudan Minister of Finance, who we are concerned may be 
implicit in some of the issues that have been raised in the 
Sudan, calls for a greater role of the AFDB in Sudan's 
reconstruction.
    And we have had a Sudan country report from the bank that 
approximately puts the amounts of monies that we have invested 
there around $400 million, in United States. This is a concern. 
So I reiterate it again so that as you look forward, we will 
hopefully have your engagement on that.
    Mr. Peel, let me pick on a continuation of where Senator 
Lugar was. I thought he had a good line of questioning. And 
certainly the European Bank of Reconstruction and Development, 
which I will just call the bank moving forward, for the record, 
its Articles of Agreement says that the bank should take into 
account in its aid program the degree to which countries are 
committed to and are implementing the principles of multiparty 
democracy, pluralism, and market economies.
    And it seems to have become increasingly--to me, in the 
context of Russia, these principles seem to be in short supply. 
It seems to have become increasingly less democratic, more 
authoritarian in its political style, as well as that many of 
the countries of Central Asia also remain firmly authoritarian.
    Nevertheless, the bank has been increasing dramatically the 
amount of assistance that it provides to Russia and Central 
Asian states. Now, I heard your responses to Senator Lugar. I 
heard the use of the word ``concerns.'' I am glad we are 
concerned.
    Let me express, at least from this one Senator, that I am 
very concerned when we are having resources of the United 
States committed to certain countries through the bank in which 
those goals that the articles speak to are far from being 
pursued. And so, and Russia is not a country of lack of 
resources as it has huge reserves and, especially with the 
price of oil, is very proactively pursuing policies that are 
very significant in its own national interests.
    Can you speak to us a little bit more about how, as the 
director for the United States of the bank, you are going to be 
looking at this element of the Articles of Agreement and how 
forceful you will be in its pursuit?
    Mr. Peel. Sure. I will be glad to do that.
    The Articles of Agreement are exactly as you laid out. Only 
three countries really have by a de facto decision by the Board 
of Directors--Belarus, Turkmenistan, Uzbekistan--had their EBRD 
operations very sharply curtailed as a result of political 
concerns and of, frankly, noncompliance with Article 1.
    There are real opportunities in Russia. I mean, Russia is--
the increase in the volumes, I think what you have seen is in 
part because the bank is rapidly decreasing its volume in the 
so-called ``European Union eight,'' the first eight countries 
that joined the European Union. And all of those countries will 
be graduating by 2010.
    But in the small and medium enterprise area, I think there 
are great opportunities in building entrepreneurs. One thing to 
remember is that the EBRD does almost all of its work in the 
private sector. So we are not against lending in Russia. We are 
for the right kind of lending in Russia, if you are talking 
about, again, smaller and medium enterprises, enterprises out 
in the hinterlands away from Moscow and St. Petersburg. As you 
point out, there are lots of resources going into those parts 
of the country.
    But I am frank in raising our concerns, we have shown our 
concerns by our voting habits along with a number of other 
countries on the board, who have with us on many of these 
projects as well. So, you have my commitment that this would be 
one of my top concerns, and I think that this is an issue that 
warrants close observation by this committee and by the U.S. 
Government. And, again, it is an area of concern, and I don't 
know how to say it otherwise.
    Senator Menendez. Mr. Durkin, I don't want to not keep you 
in this conversation. So let me ask you, particularly with your 
background and your experience, there are detractors here of 
OPIC, who say we shouldn't have an OPIC. I am not one of those, 
but nonetheless, to what extent should OPIC base its investment 
decisions on economic analysis and rates of return when 
choosing projects to support?
    And as a corollary to that question, to what extent should 
strategic considerations of foreign policy factors play a role 
in its decision-making?
    Mr. Durkin. Thank you, and that is okay that I have few 
questions, and I will keep my answers short.
    I have had the great fortune, over about 20 years, in 
seeing OPIC at work. I have provided private capital to over 40 
developing countries, and I see OPIC, when they do work in 
these countries in the past, there has to be commercial 
viability first.
    But I have seen them also be very diligent about making 
sure the goals, the developmental goals are met. I know that 
the issues of environmental quality are important. I know, more 
recently, and I think it has to do a lot with the urging of 
this committee, that human rights issues, worker rights issues 
are taken into consideration, and I think that has led us to a 
point where also that it all wraps around. There has to be 
broad foreign policy goals in what we are doing.
    But I think, first and foremost, the projects have to work 
in order to make them viable and sustainable because that is 
the only way that I have witnessed and I think in the future 
OPIC will be, have an impact, a long and meaningful impact to 
the communities in which they work.
    It is an extraordinary organization. I have provided 
private capital, but I have seen where OPIC, particularly in 
small- and medium-sized enterprises in these transitioning 
economies, just can't get capital. And often they are competing 
against other countries that come into developing nations that 
have subsidized capital by their own governments. China being 
one of them, and Africa, where I have worked for 8 or 9 years.
    So, yes, commercial. But there have to be other aspects of 
the decision, and indeed, the interests of the U.S. Government 
have to be paramount in every decision of capital that is 
committed.
    Senator Menendez. I appreciate that answer. Let me ask you 
this. Do you believe, from your experience with it from the 
private sector side, looking at it now from a director's side, 
that we are striking the right balance at OPIC?
    Mr. Durkin. You know, I think that OPIC is probably 
striking a better balance today than it was 7 or 8 years ago 
because I think it has transitioned out of economies where 
there is plenty of private sector capital for worthy projects 
and moving OPIC's attention to more challenged countries and 
economies, particularly in the Middle East, Africa, some parts 
of Central Asia, but particularly Africa and the Middle East.
    And there are still areas of Central America, which is one 
of the earlier regions that I came into contact with OPIC, when 
we were providing private sector capital to the biggest 
organizations' enterprises.
    But I think OPIC has been very sensitive to where its 
capital--because it is limited. It is a lot on any relative 
scale, but it is limited compared to the demands for that 
capital. It is putting it in countries where it is in high 
demand, where it can have impact, and particularly in areas of 
the business size that just don't have access to capital from 
the outside or even within the countries.
    Senator Menendez. One last question. With the premise that 
commercial viability exists in the project, what role do you 
think OPIC should play in helping to reduce global climate 
change and harm to the environment? Should that be one of the 
priorities of OPIC, within commercial viability?
    Mr. Durkin. Yes, you are right. I mentioned four or five 
things in the past. Let us add that as a six. I know that the 
organization--I have had the fortune to spend a meaningful 
amount of time with staff and also with Mr. Mosbacher. And that 
is important, and they have a goal to reduce their CO2 
footprint by 20 percent over the next 10 years.
    Possibly you could be more aggressive, but I think that 
should be a part of every decision that is made, particularly 
in the energy sector and some of the extractive areas that the 
organization works.
    Senator Menendez. Thank you.
    Senator Lugar.
    Senator Lugar. Following up, Mr. Durkin, with OPIC's 
authorization expiring April 1, what does this mean? What sort 
of activities can continue? What has been stopped? In other 
words, describe to us just the organizational dilemma that you 
have there.
    Mr. Durkin. Well, first, I would say that I haven't been 
part of the committee hearings, but I have been told that this 
committee has been a proponent of moving it along, and thank 
you very much.
    The organization can do its work to evaluate projects and 
to try to fulfill its goals, but it cannot allocate capital. So 
its hands are caught behind its back.
    And while I am not a board member, I have been briefed on 
the kind of projects that the organization is looking at, 
particularly in the Middle East and Africa, that are certainly 
worthy projects. And I think particularly, again, in some of 
these challenging countries and economies where this capital, 
whether it is in housing or for small enterprise assisting, can 
have an immediate impact on people's attitudes toward the 
United States and the stability of the economies and the 
political environment.
    So all I am is trumpeting a concern, and if there was 
something I could do with my local senator, I will do it to 
push the work that this committee has done in order to bring a 
vote on this to the full Senate.
    Senator Lugar. Ms. Alemayehou, what is the African 
Development Bank's assessment of the Extractive Industry 
Transparency Initiative, and how, if at all, is the bank 
integrating EITI into its operations, in your judgment?
    Ms. Alemayehou. Thank you, Senator Lugar, for that 
question.
    I do share your concern about EITI. I know when I met with 
your staffer, that was one of the issues that was raised. For 
Africa particularly, a lot of the citizens that live in the 
resource-rich countries have not benefited for the last 30 
years, only the very few connected.
    The African Development Bank, I believe, ratified EITI in 
October of 2006, but ratifying it is one thing internally at 
the bank, but not a lot of the resource-rich, mineral-rich 
countries have really joined or ratified it. So that is one of 
the issues that needs to be worked on further.
    I know they are providing some sort of technical assistance 
to some of the countries that do want to adopt EITI, but do not 
have the capacity for financial or other reasons. And they are 
trying that in several countries right now. And if confirmed, I 
look forward to working with this committee to make sure that 
EITI is ratified, just as OPIC has in its projects, on the 
country level.
    Senator Lugar. Well, I think it is an increasingly 
important issue, with which apparently you agree, in Africa. 
Now you raised the point that individual countries have to 
adopt those principles, and that gets us into the internal 
politics, some would say the sovereignty, of various countries. 
However, we note, as persons outside of Africa, increasing 
conflict at the sites of oil wells or oil lines being 
disrupted. There are spikes in the markets here because of 
activities that are occurring on the ground there, and they do 
have something to do with perceptions of citizens as to the 
distribution of that wealth of the country.
    Now you cannot do this at the bank all by yourselves, but 
at the same time, I raise the question as serious foreign 
policy issue as well as an equity issue for the people who are 
being served by the loans.
    Ms. Alemayehou. I completely agree with you, Senator. And 
the good thing is I know President Kaberuka has endorsed EITI 
at the bank, and he is personally committed to this policy.
    Senator Lugar. Earlier, Mr. Peel, we touched upon this 
thought that the scope of the bank that you would be serving in 
Central Asia, these are not European countries, although the 
scope of NATO may include countries as you move around the 
Caspian Sea and what have you in due course. So there are a 
number of interests involved. What sort of lending is occurring 
in Central Asia at this point?
    Mr. Peel. I would have to--I don't know if I have that in 
my materials to show the breakdown. But I could certainly get 
that for you.
    One thing, Central Asia is actually an area of operation. 
When the EBRD was established, when they said ``Central and 
Eastern Europe,'' the Soviet Union was initially a member, and 
when the Soviet Union broke up, all of the Soviet Union and 
then we later brought in Mongolia as well because it was part 
of the Soviet----
    Senator Lugar. I see. So, by definition, all of the 
countries----
    Mr. Peel [continuing]. Sort of a Soviet satellite. So that 
is the area of operation.
    And we believe, in fact, we have pressed the bank, what we 
say is it should be going further and faster south and east 
into the areas where the bank's need is greatest. And that is 
the Caucasus and Central Asia, the Western Balkans, and 
Ukraine. The needs in those countries are huge, and the 
expertise that the EBRD can bring to those countries is very 
sizable.
    The bank has been moving that direction, increasing its 
volume in those regions. And I would also include in that 
Kosovo. Kosovo is not yet a member, but the bank can do work in 
Kosovo in the private sector, and we are hoping that Kosovo 
will be able to in the relatively near future become a formal 
member of the bank. The votes aren't quite there yet, but it is 
getting close.
    Senator Lugar. Just a matter of curiosity, is there a data 
bank or at least some background which members of the boards 
that make these decisions have some idea of the economies, as 
you move south and east? To what extent is there extensive 
knowledge that might be available, let us say, in Western 
Europe or the United States or elsewhere as you try to make 
those loans?
    Mr. Peel. Yes, the bank does very extensive research on all 
of its countries of operation, and they do a transition 
analysis of every country. It is one of the things that the 
bank does the best.
    If I can just take a moment and go back onto the EITI, just 
to mention what the EBRD is doing? The EBRD is actually ahead 
of all of the other MDBs. They not only have endorsed it and 
worked with countries that are members or seeking to become 
members of the EITI--and those are Azerbaijan, Kyrgyz Republic, 
and Mongolia--the bank has gone further and has adopted 
transparency in its own natural resource projects. So those who 
are borrowing from the bank have to meet these criteria for 
their own projects.
    Senator Lugar. Thank you very much.
    Senator Menendez. Thank you, Senator Lugar.
    Let me thank all four nominees for testifying today and for 
their willingness to serve our country in these important 
positions.
    I do have additional questions for each of you, but I will 
submit them for the record for your written answer so not to 
keep you here under the lights any longer. I am sure you will 
be responsive.
    The record will remain open for all members for 1 day so 
that the committee members may submit additional questions for 
the record, and we ask that each nominee respond expeditiously 
to these questions, as they are always a prerequisite toward 
being able to move to the floor's consideration and the 
committee's full consideration.
    With that, if there are no other members seeking additional 
comment, this hearing is adjourned.
    [Whereupon, at 3:34 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


          Responses of Miguel San Juan to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. President Moreno's reorganization of the International 
Development Bank (IDB), adopted in 2007, seeks to change the bank's 
institutional culture and to make the bank more responsive to its 
borrowers' needs. Could you elaborate on the kinds of problems the new 
reform is intended to remedy? How will we know if the reorganization 
has been successful?

    Answer. The bank is in the midst of a large and complicated 
reorganization but from what I understand, when this process is 
complete the bank will be more nimble and in a better position to meet 
the needs of the growing region.
    According to the bank, global economic conditions and the 
participation of the region's countries in the globalization process 
have substantially changed the environment in which the bank operates, 
presenting it with significant opportunities and new challenges. This 
is the general context for the process of realignment of the IDB.
    The realignment will allow the bank to work to become an 
organization that efficiently aligns its resources to its strategy, 
enabling it to respond promptly to the changing needs of the countries 
of Latin America and the Caribbean. At the same time, the bank 
indicates that it must become more adaptable to the constant changes 
taking place in the region.
    The realignment has two basic objectives: (1) To increase the 
development effectiveness of bank activities by means of a greater 
country focus, deeper sector expertise, and improved management based 
on risk management and attainment of results. This is how the bank will 
attempt to enhance its relevance in the region; and (2) To increase 
organizational efficiency through better corporate integration of 
operations and scaling up the various functions.
    Prior to the April annual meeting, IDB management released a paper 
entitled ``The Realignment to Date: Main Achievements'' which presents 
an overview of its achievements since the realignment proposal's 
approval at end-2006, including enhancing country focus, improving 
coordination between the private sector windows, and deepening sector 
specialization.
    Recently, the bank submitted to the board its proposed corporate 
performance framework. This framework defines the key objectives for 
the institution and provides specific indicators that will allow 
management to evaluate its progress. The framework, which focuses on 
development results, country and client satisfaction, and efficient use 
of the bank's resources, should indicate the success of the 
realignment.

    Question. What is the IDB's current assessment of the Extractive 
Industry Transparency Initiative (EITI)? How, if at all, is the IDB 
currently integrating EITI into their operations? What steps have been 
taken? What will be your role in promoting EITI?

    Answer. The EITI was launched in 2003 to promote transparency in 
resource-rich countries through the reporting and publication of 
company payments and government revenues from oil, gas, and mining 
operations. EITI is implemented through multistakeholder partnerships 
(government-industry-civil society) that adhere to a series of 20 
voluntary steps embodied in a ``validation grid.'' Countries are deemed 
to be EITI compliant if they have met all 20 steps, and EITI candidates 
if they have met the first four ``sign up'' steps. To date, no country 
is compliant; 23 countries are candidates (Peru is the only candidate 
from Latin American and the Caribbean). Candidate countries have two 
years to achieve compliance (implement the 20-steps). The United 
States, through the State Department, sits on the EITI board of 
directors, which sets broad policy for the initiative. The U.S. 
recently contributed around $3 million to the EITI trust fund 
administered by the World Bank, and has provided nearly $2 million in 
bilateral support to help countries to implement EITI.
    The United States has actively pressed the IFIs to support EITI 
through their policy dialog, lending and technical assistance programs, 
and analytical work.
    The IDB has not yet formally endorsed EITI, despite encouragement 
by the U.S. Government to do so. However, bank management has indicated 
that they are preparing a proposal regarding EITI which will be 
submitted to the board shortly. Steps for integrating EITI into 
operations will depend on the outcomes of the consultations with the 
board.
    If confirmed, I will work with IDB management and the board to 
integrate EITI into their operations and also engage upstream with bank 
staff and management to promote the related objectives identified in 
recent legislative guidance on IFI extractive industry projects.

    Question. If confirmed, how would you further promote 
anticorruption efforts at the Inter-American Development Bank? What 
specific actions would you take? Are current efforts adequate? What 
more would you do?

    Answer. The Office of Institutional Integrity (OII) is the IDB 
group's primary office for addressing external matters of integrity, 
fraud, and corruption. As a measure of the significance that the IDB 
group attaches to integrity, OII reports directly to the President. OII 
coordinates this work closely with other entities in the bank group, 
particularly the Oversight Committee on Fraud and Corruption (OCFC) and 
the Sanctions Committee. OII also plays a supportive role in internal 
ethics and integrity matters and helps member countries develop and 
refine their own integrity programs.
    OII approaches its mandate based on three ``pillars'' as defined by 
Strengthening a Systemic Framework against Corruption for the Inter-
American Development Bank, the IDB group's comprehensive blueprint for 
addressing corruption. These pillars include staff integrity, support 
for member governments, and the fiduciary obligation to ensure that 
activities financed by the bank are free of corruption.
    Overall, in 2007, OII made significant progress in streamlining 
investigative activities, enhancing the department's capacity, and 
building knowledge-based systems to strengthen prevention efforts. OII 
also broadened its research on past cases, expanding outreach and 
pursuing more complex investigations. Of course, a large part of what 
OII does is to respond to inquiries regarding possible fraud and 
corruption.
    Recently, former U.S. Attorney General Thornburg was commissioned 
to conduct an evaluation of OII. This type of evaluation will be 
similar to the Volcker Report at the World Bank. Work began in late 
2007 and is continuing this year.
    Current efforts to promote anticorruption and transparency efforts 
at the IDB are well established. If confirmed, I will continue to work 
with the Bank and its shareholders to promote these efforts, including 
efforts to complete anticorruption policy goals, specifically whistle 
blowing. Despite the presence of safeguards and procedures related to 
whistle blowing, outside parties have continued to express some doubts 
about their effectiveness. I understand that the OII is undertaking 
efforts to bring its whistle blowing safeguards and protections in line 
with international best practice standards.
    If confirmed, I will be a strong advocate for greater transparency 
and accountability.

    Question. Do you agree to appear and testify upon request, before 
any duly constituted committee of the Senate? If your agreement is 
subject to any conditions, please specify those conditions.

    Answer. Yes.

    Question. When you receive written inquiries from the Senate 
Foreign Relations Committee, will you respond in writing, within 30 
days of receipt of such inquiries?

    Answer. Yes.
                                 ______
                                 

          Responses of Kenneth L. Peel to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. What is the European Bank for Reconstruction and 
Development's (EBRD) current assessment of the Extractive Industry 
Transparency Initiative (EITI)? How, if at all, is the EBRD currently 
integrating EITI into their operations? What steps have been taken? 
What will be your role in promoting EITI?

    Answer. The EBRD supports the EITI and is participating in the work 
of the EITI. For all natural resource projects, the EBRD requires its 
project sponsors to publicly disclose their material project payments 
to the host government, regardless of whether the government is a 
member of the EITI. The EBRD is actively involved in the EITI 
consultative process, including through providing input into the 
development of technical mechanisms for reporting (templates, 
aggregation of data, etc.). The EBRD promotes transparent revenue 
reporting, as well as increased financial and organizational 
transparency, with the draft EITI reporting guidelines providing a 
useful starting point for even greater revenue transparency. The EBRD 
is working in cooperation with other international financial 
institutions and the participating private financial institutions to 
promote governance and transparency initiatives in the financial 
community. The EBRD is helping to build capacity in countries of 
operation to enable them to implement the objectives of the EITI. Two 
countries, Azerbaijan and the Kyrgyz Republic, have been in the 
forefront on this, and may be among the first countries to achieve full 
EITI compliance. In Mongolia, the EBRD is helping the country to 
implement the EITI through its work with mining companies.
    My role would be to monitor EBRD activities in this area and also 
to engage upstream with bank staff and management to promote the 
related objectives identified in recent legislative guidance on IFI 
extractive industry projects. Accountability and transparency are key 
to the mandate of the EBRD to promote transition to market economies.

    Question. Given your current position as Deputy Assistant Secretary 
for International Development Finance and Debt, what is the Asian 
Development Bank's current assessment of the Extractive Industry 
Transparency Initiative? How, if at all, is the Asian Development Bank 
currently integrating EITI into their operations?

    Answer. The Asian Development Bank endorsed the EITI on February 
29, 2008. The AsDB has five member states that have already agreed to 
comply with EITI principles: Azerbaijan, Kazakhstan, the Kyrgyz 
Republic, Mongolia, and Timor Leste. All of these countries are at the 
EITI's ``candidate'' stage.
    The AsDB already promotes transparency and anticorruption efforts 
in its projects and its developing member countries through projects 
and initiatives. These efforts will be strengthened by the endorsement 
of EITI, which is a natural complement to these existing activities. 
Also, the AsDB is currently revamping its safeguards policies and our 
expectation is that extractive industries, and the principles of the 
initiative, will be part of that.

    Question. Also, what is the World Bank's assessment of the 
Extractive Industry Transparency Initiative? How is the World Bank 
currently integrating EITI into their operations?

    Answer. The World Bank formally supported EITI in December 2003 as 
a global initiative, which aims to support good governance and 
transparency in resource-rich countries through the publication of 
payments and revenues from oil, gas, and mining in a multistakeholder 
process. EITI is achieving strong momentum globally and has become an 
established standard for transparency. There are EITI programs in 23 
candidate countries, 21 of which have active bank programs. In 
addition, there are several countries that have publicly stated their 
intention to join EITI and others who are in contact with the World 
Bank group about the EITI process.
    The World Bank group role, led by the oil, gas, and mining policy 
division (COCPO), is to support EITI implementation at the country 
level and globally. COCPO's technical assistance programs on EITI are 
supported by a multidonor trust fund (MDTF). The MDTF seeks to broaden 
support for the EITI principles and process through the establishment 
of extractive industries transparency initiatives in countries that 
have signed on to EITI through programs of cooperation among the 
government, the private sector, and civil society. The MDTF is 
instrumental in funding the EITI work programs and grants in 10 
countries and 7 additional programs are in negotiation. The World Bank 
group also has special funds dedicated to supporting civil society 
groups working on EITI through the Development Grant Facility. 
Following strong U.S. leadership during negotiation of the 15 
replenishment of the International Development Association (IDA) in 
2007, the World Bank expressed a continued commitment to enhance 
transparency of revenue flows to governments from extractive-industry 
projects.
    World Bank group support for EITI includes making EITI consultants 
and advisors available to governments to assist them in implementation 
and sharing international best practice. The bank also works with 
client governments on EITI issues as part of broader bank-supported 
programs on extractive-industries reform, natural resource management, 
and good governance/anticorruption. Aside from the MDTF, the bank has 
also provided financial support from its own funds to a number of civil 
society groups involved in EITI implementation.

    Question. If confirmed, how would you further promote 
anticorruption efforts at the European Bank for Reconstruction and 
Development? What specific actions would you take? Are current efforts 
adequate? What more would you do?

    Answer. Promotion of good governance is an important part of EBRD's 
mission. I would work with the EBRD staff and the board to continue to 
strengthen the EBRD work in this important area.
    The EBRD has in place policies and practices to combat corruption 
that are quite good, but best practices are always evolving. In 
particular, the EBRD undertakes extensive due diligence to ensure the 
integrity of project sponsors prior to making any investments. The EBRD 
recently updated its due diligence guidelines to strengthen ``know your 
customer'' rules, identifying beneficial ownership and investigating 
risks associated with politically exposed persons.
    This autumn, we anticipate board discussion on, among other things, 
an enforcement mechanism for fraud and corruption cases in private 
sector operations, formal, written policies with respect to compliance 
and anticorruption, and a revised procurement policy.
    I would take every opportunity to ensure that these and other 
anticorruption measures are acceptable to the United States, consistent 
with international best practice, and most importantly, are 
scrupulously implemented by the EBRD. I would make every effort to 
support the work of the Office of the Chief Compliance Officer, the 
internal auditor and other key staff.

    Question. Do you agree to appear and testify upon request, before 
any duly constituted committee of the Senate? If your agreement is 
subject to any conditions, please specify those conditions.

    Answer. Yes.

    Question. When you receive written inquiries from the Senate 
Foreign Relations Committee, will you respond in writing, within 30 
days of receipt of such inquiries?

    Answer. Yes.
                                 ______
                                 

          Responses of Mimi Alemayehou to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. Some analysts are concerned about the development 
effectiveness of African Development Bank projects and programs. If 
necessary, what recommendations would you suggest to strengthen its 
performance? What unique roles, if any, does the African Development 
Bank play in a crowded field of development donors in Africa?

    Answer. President Kaberuka has embarked on institutional reforms to 
consolidate the bank's role as Africa's premier development finance 
institution. As such, the bank, which is predominantly African-owned, 
speaks with a voice that often has greater legitimacy to African 
Governments and offers a role bolstered by its unique African character 
and perspective. Its competitive advantages include unparalleled access 
to and trust of African decision makers, a seasoned staff with deep 
knowledge of the African economic environment, and vast institutional 
memory on African projects.
    The bank, like no other institution, has a mandate for supporting 
regional integration, which is key for economic development of the 
continent. I believe that proportionately the bank supports more 
regional operations than any other development institution. With my 
background in trade, I will be able to lend my experience to encourage 
the bank's support in trade, regional integration, and private sector 
development. The enhanced focus on fragile states, as agreed to in the 
African Development Fund's eleventh replenishment, is also an area 
where institution can make a unique and critically important 
contribution.
    With the bank's renewed press on managing for results, agreed to in 
the recent replenishment of the African Development Fund, we will be 
better able to determine the development effectiveness of the bank's 
projects and programs. This work is important and I will continue to 
press for the measurement, monitoring, managing for and reporting of 
results because we all want to see the positive results on the ground 
and the difference that the institution is making in the lives of the 
African people.

    Question. What is the African Development Bank's assessment of the 
Extractive Industry Transparency Initiative? How, if at all, is the 
bank currently integrating EITI into their operations? What steps have 
been taken? What will be your role in promoting EITI?

    Question. AfDB President Kaberuka endorsed the EITI in October 
2006. Since then, I understand that the bank has developed an 
implementation framework to guide the bank's operations to help African 
countries improve resource management of extractive industries. The 
framework is results-oriented and includes both short- and medium-term 
measures to help countries strengthen transparency and accountability 
in the management of extractive industries. The approach includes 
technical and financial assistance for countries which have 
demonstrated political will by endorsing the EITI and for those 
countries participating in EITI++, advocacy and outreach activities to 
encourage resource rich countries to improve governance, and 
mainstreaming the EITI principles in the bank's own natural resources 
operations. The AfDB has worked with the Liberian Government to develop 
its EITI work plan, and has assisted Madagascar to become an EITI 
candidate country. The bank is also financing efforts by the Central 
African Republic, Botswana, and other countries to become EITI 
candidates.
    I believe that it is very important that every appropriate measure 
is taken to ensure that all people in resource rich countries benefit 
from the extraction of resources, and not just a well-connected few. As 
U.S. Executive Director, I will actively promote the bank's involvement 
in achieving the important transparency and accountability objectives 
of the EITI in the bank's borrowing member countries. Furthermore, I 
would work to block any support by the bank for the extraction and 
export of certain natural resources unless the government of a country 
has in place functioning systems which meet three broad standards on 
revenue accounting, independent auditing of accounts, and transparency.

    Question. If confirmed, how would you further promote 
anticorruption efforts at the African Development Bank? What specific 
actions would you take? Are current efforts adequate? What more would 
you do?

    Corruption is a critical obstacle to development. It diverts 
development resources from where they need to go, reducing the 
potential for economic growth necessary for poverty reduction. The 
African Development Bank has a central and crucial role to play in 
assisting African countries to build capable states, strengthen 
governance, and combat corruption. I understand that the bank has an 
established mandate in good governance and has recently put forward a 
governance strategy and action plan to sharpen its strategic focus in 
the area of good governance and anticorruption. It is imperative that 
the bank use its position as the premier development finance 
institution in Africa to intensify its efforts to help African 
countries improve transparency and accountability in the management of 
public resources and fight corruption.
    Institutionally, the bank has a zero tolerance with respect to 
corruption or fraud with the bank's operations. Support from the top is 
essential for strong anticorruption enforcement and President Kaberuka 
is fully behind the bank's governance work overall and the bank's 
auditor general function, in particular. The auditor general directs an 
anticorruption and fraud team which investigates complaints of possible 
fraud, corruption, or misconduct and many of the allegations came to 
the team through the bank's whistle-blower mechanism that was approved 
in early 2007.
    As U.S. Executive Director, I would work to ensure that the bank's 
support for good governance is effective and ask that the performance 
and impact of this work be measured and reported. In addition to making 
sure that the anticorruption measures already adopted are being 
properly implemented, I will urge the AfDB to work closely with African 
Governments on the adoption and implementation of best practice 
anticorruption measures. The AfDB can be more effective within the 
countries where it works by helping to improve underlying conditions 
such as civil service reform, better public sector financial 
management, and judicial sector reform.

    Question. Do you agree to appear and testify upon request, before 
any duly constituted committee of the Senate? If your agreement is 
subject to any conditions, please specify those conditions.

    Answer. Yes, I agree to testify upon request before any committee 
of the Senate without any condition.

    Question. When you receive written inquiries from the Senate 
Foreign Relations Committee, will you respond in writing, within 30 
days of receipt of such inquiries?

    Answer. Yes, I will respond in writing within 30 days to any 
written inquiries from the Senate Foreign Relations Committee.
                                 ______
                                 

          Responses of Mimi Alemayehou to Questions Submitted 
                                  by 
                        Senator Robert Menendez

    Question. Sudan--What is the current engagement of the African 
Development Bank with Sudan? What loans are outstanding? What, if any, 
projects or programs are planned? What is bank's engagement since 2002 
in terms of loans provided and support given? Please provide detailed 
information on budget figures since 2002. Also, please provide your 
views on the appropriate role of the bank with the Government of Sudan, 
given the current political and humanitarian situation. Should the bank 
be providing loans for reconstruction assistance in Darfur or in South 
Sudan? If so, how should those loans be managed and how should the 
projects be implemented?

    Answer. Sudan has been in arrears to the African Development Bank 
since 1995. As of the end of June, these arrears stood at roughly $208 
million. Accordingly, for the last 13 years AfDB has only engaged in 
limited support in relief of humanitarian emergencies and institutional 
capacity building. The only such support since 2002 is a $15.3 million 
grant for governance capacity building approved by the AfDB in February 
2007. This grant was provided in line with the policy that allows for 
post-conflict countries in arrears to receive limited financing if 
targeted for strengthening institutional capacity. AfDB currently plans 
for a second phase of this support in 2010. The design of this second 
phase of support will be informed by a social sector assessment 
scheduled for 2009.
    The U.S. Executive Director is currently directed by congressional 
voting mandates on international terrorism, religious persecution, and 
the Sudan Peace Act to oppose (vote ``no'' on) any financing to Sudan. 
Until and unless Sudan changes its behavior with respect to these 
critical issues, the United States Executive Director will not be in a 
position to support any assistance to Sudan. In fact, the Sudan Peace 
Act calls for the United States to actively oppose any such assistance.
                                 ______
                                 

              Prepared Statement of Kay Bailey Hutchison,
                        U.S. Senator From Texas

    I am pleased to speak in favor of the nomination of Miguel San Juan 
to be United States Executive Director of the Inter-American 
Development Bank. I have known Miguel for many years. He has been a 
great friend to me, and a great leader for the State of Texas.
    Currently, he serves the Houston region as senior vice president of 
Business Development for the Greater Houston Partnership. The GHP is 
the primary advocate of Houston's business community and is dedicated 
to building regional economic prosperity. Miguel's role in the GHP has 
given him the knowledge and training in key business and trade areas 
that will enable him to immediately benefit our Nation through the 
Inter-American Development Bank.
    In recent years, Houston's extraordinary economic growth has been 
fueled in large part by Miguel and his team at the GHP. Today, the Port 
of Houston ranks first in the United States in foreign tonnage, and 
second in total tonnage. In 2007, exports rose 25 percent to $72 
billion.
    Miguel's previous positions include serving as president of the 
Partnership's World Trade Division from 1992 to 2004. He also 
distinguished himself as vice president of government and public 
relations for CITGO Petroleum Corporation.
    In addition, Miguel has been actively involved in public service at 
both a national and local level. In 1990, President George H.W. Bush 
appointed him to the President's Export Council, the premier national 
advisory council. He serves on the Houston Livestock Show and Rodeo's 
development committee and is currently a director of the Houston 
Hispanic Forum.
    These experiences have given Miguel the wealth and diversity of 
knowledge to become an outstanding Executive Director of the Inter-
American Development Bank.
    I can think of no more deserving individual than Miguel for this 
position, and I hope that the committee quickly approves his 
nomination.
                                 ______
                                 

               Prepared Statement of Senator Chuck Hagel,
                       U.S. Senator from Nebraska

    Mr. Chairman, it is my privilege to support the nomination of 
Kenneth Peel for the position of U.S. Director for the European Bank 
for Reconstruction and Development (EBRD).
    Ken served as my Foreign Relation Counsel for almost 5 years, from 
1997-2001. He was instrumental in helping draft the 1997 Byrd-Hagel 
Climate Change Resolution, and played an important role in the Senate's 
1998 ratification of the treaty enlarging NATO. He accompanied me on 
many congressional delegation trips around the world, including visits 
to Russia, Central Asia, South America, the Middle East, and Europe.
    Since 2006, Ken has served as the Deputy Assistant Secretary of the 
Treasury for International Development Finance and Debt. This position 
carries responsibility for American participation in multilateral 
institutions, including the World Bank, regional development banks, the 
Global Environment Fund, and the International Fund for Agricultural 
Development. He has also represented American interests with the Paris 
Club of international creditors.
    Recently, Ken has been working to secure American participation in 
a new Clean Technology Fund, within the World Bank. This fund aims to 
reduce the growth of greenhouse gas emissions in developing countries 
through financial assistance to bridge the cost gaps between dirty and 
clean technology. I strongly support this initiative and, along with 
Senators Lugar and Menendez, I am a cosponsor of Chairman Biden's 
legislation to authorize contributions to this fund.
    In his new position as the U.S. Director for the EBRD, Ken will be 
responsible for representing the interests of the United States with 
this important multilateral development institution. The EBRD was 
chartered in 1991 to help the state-run economies of Eastern Europe 
transition to modern, free-market economies. Through financing, 
expertise, and capacity-building, it has helped shepherd 11 former 
communist economies into the European Union. Today, the EBRD operates 
in 29 countries, ranging from European Union members like Poland and 
the Czech Republic to Central Asian states like Turkmenistan, 
Tajikistan, and Uzbekistan. This area of the world is one of the most 
strategically important areas of the world, and it will continue to be 
important that the interests of the United States--as the bank's 
largest shareholder--are strongly represented in decisions that affect 
this region.
    Ken Peel has deep knowledge and experience with this region and 
with international development and finance. Ken is the right leader for 
the job, and I support his nomination and recommend his confirmation to 
be the United States Director for the European Bank for Reconstruction 
and Development.
    Thank you, Mr. Chairman.
                                 ______
                                 

        Response of Patrick J. Durkin to Question Submitted by 
                        Senator Richard G. Lugar

    Question. Please describe OPIC's policy regarding the Extractive 
Industry Transparency Initiative. How is OPIC integrating EITI into its 
policies and operations? How is implementation proceeding?

    Answer. As I understand it, in 2006 OPIC included the Extractive 
Industries Transparency Initiative (EITI) in its initiative to combat 
corruption and improve transparency. Under the policy announced by OPIC 
President Robert Mosbacher, OPIC will encourage its investors to abide 
voluntarily by EITI guidelines to ensure that revenues from extractive 
industries projects contribute to sustainable development and poverty 
reductions and not individual enrichment. Implementation of EITI has 
been a high priority and OPIC is working with the EITI Secretariat to 
encourage compliance with other multilateral organizations and OPIC 
counterparts. I understand the OPIC Board of Directors has approved the 
first OPIC-supported project where the agency's commitment to greater 
transparency in reporting on royalty payments to host governments on 
extractive projects has been realized. Additionally, OPIC's pending 
reauthorization legislation would formalize OPIC support for EITI 
principles.


                              NOMINATIONS

                              ----------                              


                   WEDNESDAY, JULY 23, 2008, MORNING

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Eastham, Hon. Alan W., to be Ambassador to the Republic of 
        Congo
Simon, John, to be Ambassador to the African Union
Swan, James, to be Ambassador to the Republic of Djibouti
Symington, Hon. W. Stuart, to be Ambassador to Rwanda
                              ----------                              

    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold presiding.
    Present: Senators Feingold, Nelson, Lugar, and Isakson.

         OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. The committee will come to order.
    I would like to begin by thanking our four nominees for 
being here today, but more importantly for your many years of 
service and for your willingness to work in some of the most 
demanding positions in the United States Government and some of 
the more difficult postings around the world. I am confident 
that you agree with me that our missions across Africa are 
doing some of the most important diplomatic work of the 21st 
century.
    More than any time in the past, United States policies and 
relationships in Africa are now in the spotlight. Next month, 
we will mark the 10th anniversary of the bombings of the United 
States embassies in Dar es Salaam and Nairobi.
    Since those tragic attacks, we have increasingly opened our 
eyes to the real threats that emanate from weak states and 
ungoverned spaces. The new United States combatant command for 
Africa, AFRICOM, expected to be stood up this October, is one 
response to that realization.
    However, military tools and expertise can only contribute 
so much and perceptions of an overly militarized presence can 
generate hostile backlash. In order to fully address Africa's 
security challenges, we need to get at the underlying roots of 
instability and violent conflict. We also need to provide 
sustained support for conflict prevention, human rights, and 
economic development.
    Diplomats are uniquely positioned to identify and implement 
strategic long-term objectives. If confirmed, you will be the 
eyes and ears of our Government. We will turn to you for 
analysis of changing dynamics on the ground, as well as how we 
here in Washington can make the most effective foreign 
policies.
    As you know, information-gathering and reporting is 
especially challenging in Africa. In many countries and regions 
across the continent, the United States does not have a long 
history of engagement or a whole lot of institutional 
knowledge. Fostering diverse contacts, not just with government 
officials, but also with business, religious, civil society, 
and other leaders is essential. We must not lose sight of the 
fact that today we are building the reputation and 
relationships that will determine our ability to help shape 
outcomes in Africa for decades to come. The four postings 
before the committee today embody those challenges.
    First, if confirmed, Ambassador Stuart Symington will head 
to Rwanda, ``the land of 1,000 hills.'' Rwanda is still 
overcoming the tragic legacy of the 1994 genocide but is making 
great gains in economic growth and political stability and has 
been a tremendous contributor to U.N. peacekeeping missions 
across the continent. U.S. assistance has played a significant 
role in this progress and increased fourfold over the last 4 
years.
    However, diplomatic engagement will be crucial to ensure 
democratic reforms before the 2010 elections and to ensure that 
Rwanda plays a constructive role in helping to resolve the 
violence in the neighboring Democratic Republic of Congo.
    Turning then to the Republic of Congo, normal United States 
diplomatic activities in Brazzaville have only recently resumed 
after years of recurring violence and a new embassy building is 
set to open early next year. If confirmed, Ambassador Alan 
Eastham will have a unique opportunity to build a United States 
diplomatic presence in Congo at a time when the country's oil-
based economy is growing rapidly but suffering from the 
challenges of resource management and economic governance.
    Next, Djibouti is a country rapidly becoming a regional 
financial hub based around its strategic port for the Red Sea 
and Indian Ocean. However, Djibouti's hopeful future is 
somewhat limited by its rough neighborhood and hampered by 
recent tensions with both Ethiopia and Eritrea. If confirmed, 
James Swan will have to manage United States-Djiboutian 
relations in light of those regional challenges, as well as 
navigate the complexities of having the United States Combined 
Joint Task Force-Horn of Africa based within that country.
    Finally, if confirmed, John Simon will tackle a different 
kind of challenge as he engages an emerging regional 
institution with great ambitions but limited capacity. In its 
first years, the African Union has already become a significant 
player in continental peace and security, whether it be 
peacekeeping in Darfur, sanctions in Mauritania, or mediation 
in Kenya. The AU offers a framework for real African solutions 
to African problems, but its long-term capabilities will 
require sustained United States investment and strategic 
engagement.
    So, again, I would like to thank you all for embracing 
these responsibilities, as well as to extend a warm welcome to 
your families and friends. I know that these people have played 
a critical role in your respective journeys and will continue 
to support you in the challenges that lie ahead.
    I would now like to invite my colleague, Senator Johnny 
Isakson, the ranking member of the subcommittee, to offer some 
opening remarks.

               STATEMENT OF HON. JOHNNY ISAKSON,
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you very much, Mr. Chairman.
    I am proud to welcome all four nominees, of which I have 
had the privilege of meeting with each of them in the days 
preceding this hearing. I have said many times that I think 
Africa is the continent of the 21st century for America, and 
these are tremendously important roles that each of you will 
play and some of you have been playing.
    I want to particularly acknowledge Stuart Symington whose 
storied history--his family's storied history, obviously, is 
known to all of us. But I had the benefit of receiving his 
hospitality in Djibouti earlier this year, and I appreciate 
very much what he has done there on behalf of our country. And 
I know he will do wonderful things in Rwanda.
    I have also had the privilege of going to Ethiopia and to 
our embassy in Ethiopia in Addis Ababa, and I know the 
tremendous potential our relationship with Ethiopia has and the 
help that Ethiopia has been to the United States most recently 
in Somalia.
    I am also particularly excited about the posting at the 
Africa Union. Darfur is of great concern to the chairman and 
myself. The African Union is a fledgling organization in Africa 
that could be essential in putting an end to genocide and 
beginning to a new freedom for all people on the African 
continent. So your posting there, John, will be very important 
for the United States and for that country.
    But to all of you, thank you very much for your willingness 
to serve and what your commitment to give the United States of 
America.
    Senator Feingold. Thank you, Senator Isakson.
    I am so pleased to see Senator Lugar here, the ranking 
member of the committee, the former chairman of the full 
committee, and somebody who has been very diligent throughout 
his career with regard to Africa. Senator, would you like to 
make any remarks?

              STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman. I 
have just come today, as we always do, to support the nominees 
for these important positions in Africa. I appreciate your 
special diligence in calling the hearings in a timely way so 
these embassies can be filled with talented Americans. It is a 
pleasure to be here this morning. I look forward to hearing the 
nominees.
    Senator Feingold. Thank you, Senator Lugar.
    And now I would like to turn to two of my distinguished 
colleagues who are here to introduce, I believe, Ambassador 
Symington. First, we will go to the Senator from Missouri, 
Senator McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL,
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman.
    This morning it is such an honor for me. It completes a 
circle that as a young child I never dreamt that I could 
complete. I remember distinctly the day the photograph arrived 
at my home when I was a youngster. It was a framed photograph 
of Senator Stuart Symington personally inscribed to my parents. 
It was not taken to my father's office and it was not put back 
in my mother's desk in the utility room. It was put in our 
living room with our family photos because it was a photograph 
that we were so proud of.
    His grandson is here today, and this is, in fact, a hall of 
fame family in terms of public service to our country. When I 
realized that I am so honored to sit in the Senate seat not 
just of Harry Truman but of Senator Stuart Symington, that 
frankly is hard for me to really get my arms around that I have 
distinct privilege and honor. And I know how proud Senator 
Symington would be of his grandson.
    After being raised in Missouri and graduating from Brown 
and getting his law degree from Columbia, he clerked for the 
Eastern District of Missouri, practiced corporate law across 
the world, returned back to St. Joseph, MO, before he became a 
Foreign Service officer in 1986. He has been all over the world 
for his country and has served in both dangerous situations and 
very politically difficult situations, from Mexico to Ecuador, 
Niger, Djibouti, and now on to Rwanda, a strategically very 
important country for our Nation on the important continent of 
Africa.
    I must also acknowledge that in addition to a grandfather, 
he had an uncle that was very important in my life who is here 
this morning, Congressman Jim Symington, who served in Congress 
for a number of years. And I was pleased to be the campus 
chairman for Symington for Senate, and I was even more pleased 
to begin my career on the Hill as an intern in Jim Symington's 
office in the summer of 1974.
    As I say, this is a distinct pleasure for me, and you 
should not by my remarks for a minute assume that mentioning 
his grandfather and mentioning his uncle in any way takes away 
from the talent, the strength, and the intellect that this man 
offers our country. We are lucky to be able to draw on that 
intellect and that strength at this important time in the 
continent of Africa. It is my honor to introduce him and I am 
even more pleased as an American at his willingness to serve.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator McCaskill. I agree 
with your comment. It is hard not to mention the Symington 
family because those of us who are old enough to remember--can 
you imagine a year in which four sitting United States Senators 
ran for President? Oh, that is right. It just happened again. 
[Laughter.]
    But with the names--correct me if I am wrong. I believe the 
Senators were John F. Kennedy, Lyndon Johnson, Hubert Humphrey, 
and Stuart Symington. Is that right?
    Ambassador Symington. Exactly.
    Senator Feingold. And also a guy named Adlai Stevenson. 
That was a heck of a primary, too.
    So anyway, memory lane on that one for me.
    And now we go to the Senator from Minnesota, Senator 
Klobuchar.

                STATEMENT OF HON. AMY KLOBUCHAR,
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much, Mr. Chairman, 
and I am here to honor all of the nominees and also my friend, 
Stuart Symington. He must be pretty special to have the two new 
women Senators come here and speak for him. But I am actually 
here--as I hear you bring up the senior Stuart Symington and 
Hubert Humphrey, we have now bridged the gap between Missouri 
and Minnesota. And I know him as a friend.
    His brother, who is here today, is a very good friend of 
mine and married my roommate from college. I still remember 
being in that wedding in my lovely peach bridesmaid dress and 
seeing him then. And I also remember doing the toast and having 
Uncle Jim come up and tell me that I think you could run for 
office. So I appreciate the blessing of their wonderful family.
    As you all know, Ambassador Symington has dedicated his 
career to advancing U.S. national security and diplomatic 
interests around the world. Since entering the U.S. diplomatic 
corps in 1986, he has held, as Senator McCaskill pointed out, 
numerous positions all across the world and, in the important 
position of United States Ambassador to Djibouti, has 
coordinated United States policies around the Horn of Africa 
among the world's most difficult diplomatic and security 
environment.
    I had the pleasure of having him over for dinner with my 
friends. I have to tell you, Senator Lugar, I rarely cook. So 
he must be something special. But we had them over and it was 
just so heartwarming to hear his views on Africa and his views 
on what we can do in Rwanda. We know that Rwanda's transition 
from the sorrow of the past to the potential of the future will 
require a strong partner in the United States which still 
carries the burden of remorse from failing to respond 15 years 
ago. Ambassador Symington--what I heard that night--his vision 
of bringing together all parts and functions of the United 
States Government, the private sector, the NGO community, in a 
united policy to partner with the Rwandan Government is the 
right vision.
    And I was thinking, just to end, of something. I heard 
Senator Durbin tell a story when he was talking about Darfur 
once on the Senate floor, and he talked about one of his 
favorite movies, Schindler's List. And he talked about at the 
very end when Schindler, who as you know at the beginning was a 
war profiteer and was making money off the war, and then came 
to see the victims of the war and came to help them and give 
them safety and hide them. At the very end, those that he had 
saved from the concentration camps came together and they got 
all the gold that they could find and made him this ring. At 
the end of the movie, he breaks down as they are around him, 
and says, if only I could do more. If only I could have done 
more.
    Well, these people before you who are taking on such 
difficult assignments, especially as I think about Rwanda--I do 
not think they are going to be in that position to say if only 
I could have done more because they are doing the right thing 
at the right time for this country. And I am just honored to be 
here with my friend, Stuart Symington.
    Thank you very much.
    Senator Feingold. Thank you very much, Senator Klobuchar. 
We understand that the Senators need to go to other locations, 
but they are, of course, welcome to stay if they wish.
    But I think it is only fitting now we go to Mr. Symington, 
who will offer his testimony after he says goodbye to the 
Senators. Each of you please, of course, feel free to introduce 
any family or friends that you would like to introduce to the 
committee. Mr. Symington.

            STATEMENT OF HON. W. STUART SYMINGTON, 
       NOMINEE TO BE AMBASSADOR TO THE REPUBLIC OF RWANDA

    Ambassador Symington. Mr. Chairman, thank you very much. 
Thank you for holding this hearing, as you always have, in a 
way to keep our diplomatic missions staffed, for the 
opportunity to appear before you, the pleasure of being with 
you again, Senator Isakson, and the pleasure and honor of being 
with you, Senator Lugar.
    I am deeply grateful to the President of the United States 
and to the Secretary for the honor of being their nominee to 
serve in Rwanda.
    I also want to point out that one of the many things that 
the United States and Rwanda share is the remarkably important 
role of women in public life, and having just heard from two 
remarkable United States Senators, I cannot think of a better 
way to begin my engagement, not just with the men of Rwanda, 
but with the women too.
    Before I turn to my prepared statement, I would like to 
mention, in addition to Uncle Jim and my brother John, the real 
diplomats of the family who are with me today, my wife, Susan, 
and my daughter, Janey, and my son, Stuart.
    Senator Feingold. Let us see where you are please, if you 
could rise. Thank you. Welcome all. We are very happy to see 
you here.
    Ambassador Symington. Thank you, Senator.
    They have never been confirmed, but I want you to know they 
are the real ambassadors, and they have been since Stuart was 1 
month old and went to our first post.
    I also want to acknowledge that I am lucky enough to have 
with us today America's Executive Director to the World Bank, 
Whitney Debevoise, and his wife, Heidi, who is a friend of many 
years.
    Senator Feingold. Welcome.
    Ambassador Symington. And finally, thinking of interns and 
those people who brought us here, in this room are both members 
of the promotion panel of the State Department that I am 
working with this week and the desk officer for Rwanda and an 
intern who put together my book. So for them and all the other 
friends and family here, my thanks.
    Finally, my role model in diplomacy is sitting right behind 
me and she has been both behind me and in front of me for my 
whole career, Ambassador Ruth Davis.
    Senator, I want to mention also, as I think about your 
efforts to see that we integrate all the instruments of our 
Nation's strength, public and private, Chairman Ike Skelton, 
who could not be with us today but who challenged me a long 
time ago with two ideas. The first is that the strength of the 
United States lies in its people and their principles. And the 
second is that only by integrating all agencies and all 
services and public and private efforts can we achieve our 
goals in the world. I thought it was absolutely true and I will 
try to continue to do that, if confirmed, to be your ambassador 
in Rwanda.
    The people of Rwanda today have a remarkable opportunity to 
show that it is possible for any people to forge a common 
future in a land consumed by the horror of genocide so few 
years ago. It is vital to all of us that they succeed. The 
Rwandans and the rest of the world must ensure that the 
genocide is never forgotten and that it is never repeated.
    Rwandans know that the best way to honor the victims of 
genocide is to look forward and unite after having looked back 
to remember what can happen through division and hatred. 
Rwandans today recognize that they have a chance to make this 
future better. They have, over the last few years, improved 
security and stability, education, health care, advanced 
reconciliation, and made progress meting out justice to many of 
those involved in the genocide. They continue to face security 
threats, but in the midst of that, have created economic growth 
and worked with us to improve the investment climate. They have 
achieved noteworthy progress, but they still face enormous 
challenges.
    As Rwandans look to their future, they call on all Rwandans 
to unite and to see themselves as one people with equal justice 
and opportunity under their law. That call is also their own 
test. Rwandans are testing themselves to counter extremists 
while vigorously protecting human rights, to improve governance 
while also improving transparency, to strengthen democratic 
institutions at the same time that they are trying to deliver 
basic services, attract investment, and promote jobs and 
growth. To create a shared sense of national unity and a 
positive climate for development, they know that they must 
instill widespread faith throughout every Rwandan in the 
fairness of their governing institutions. That means being open 
to dissent and permitting free access to information and to the 
work of a free, responsible, and independent press. Progress 
meeting this test is particularly important in the run-up to 
their September elections for the House of Delegates and to the 
next presidential elections.
    If confirmed, I will work with all those parts of America's 
investment in Rwanda, especially the people out of your mission 
there, to help them strengthen their democratic institutions 
and their economy, to take care of Rwandans who need our help, 
and to advance transparency and respect for human rights. With 
continued progress, I absolutely believe that Rwanda will be a 
catalyst for regional peace and development and an instrument 
for good beyond its borders.
    Mr. Chairman, with your permission, I would like to ask 
that the remainder of my testimony be entered in the record and 
would welcome any questions.
    Senator Feingold. Thank you, Mr. Symington. Without 
objection, that will be done. Thank you so much.
    [The prepared statement of Ambassador Symington follows:]

            Prepared Statement of Hon. W. Stuart Symington, 
                   Nominee To Be Ambassador to Rwanda

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today as President Bush's nominee to 
be Ambassador to Rwanda. I am deeply grateful to the President and to 
Secretary Rice for this honor. I also want to thank you Senators for 
the kind introduction. One of the many things the United States and 
Rwanda have in common is the prominent role of women in public life. I 
know of no better American examples of that success.
    Before I turn to my prepared statement, may I introduce the members 
of my family who are here with me today? First, my wife, Susan, and 
children, Janey and Stuart--they are the real diplomats in our family 
and they have served America as true ambassadors at every stage of what 
has truly been ``our career.''
    May I also point out that I am pleased to be joined by my Uncle, 
former Congressman Jim Symington, and my brother, Doctor John 
Symington; I thank them as well as those friends and colleagues who 
have joined us here today. Finally, I'd like to thank Chairman Ike 
Skelton for the inspiring challenge he put to me years ago. He said 
that our greatest strengths as a nation were our people and our 
principles, and that one of our greatest challenges was to act jointly, 
with a common purpose, across agency and service lines, to achieve our 
national objectives. If confirmed, that is what I will seek to do in 
Rwanda.
    Mr. Chairman, the people of Rwanda have a remarkable opportunity 
today to show that it is possible for a people to forge a common future 
in a land that was consumed by the horror of genocide just 14 years 
ago. It is vital that they succeed. The Rwandans (and the rest of the 
world) must ensure that the genocide is never forgotten and that it 
will never be repeated.
    Rwandans know that the best way to honor the genocide victims is to 
look forward and unite, after looking back to remember the terrible 
cost of division and hatred. Rwandans recognize today that they must 
work together to realize their promising future. Over the last decade, 
they have improved education and health care; they have advanced 
reconciliation and made progress meting out justice. They have 
countered security threats and cared for genocide victims. They have 
created economic growth and improved the investment climate. They have 
achieved noteworthy progress, but they still face enormous challenges.
    As the government and many Rwandans view their future, their call 
is for all Rwandans to see themselves as one people, with equal justice 
and opportunity under law. Their call is also a test. Rwanda faces the 
test of countering extremists, while vigorously protecting human 
rights; of improving governance and transparency; of strengthening 
democratic institutions, while delivering basic services; and of 
attracting investment, while promoting job and income growth. To create 
a shared sense of national identity and a positive climate for 
development requires instilling widespread faith in the fairness of 
governing institutions as well as permitting free access to information 
and to the work of a free, responsible, and independent press. Progress 
meeting this test is particularly important in the run-up to the 
September House of Delegates elections and to the 2011 Presidential 
elections.
    If confirmed, I will work with all Rwandans to help them strengthen 
their democratic institutions and their economy in an unstable region 
and to advance transparency and respect for human rights.
    We have a strong bilateral partnership with Rwanda, reflected in 
President Bush's visit there in February this year. Mr. Chairman, if I 
am confirmed, my goal will be to advance America's interests by 
synchronizing the efforts of all U.S. Government agencies and personnel 
working in Rwanda. We will also enlist the help of the American private 
sector and nongovernmental groups, working with Rwandans to achieve our 
shared goals. We will focus on fighting disease and hunger, promoting 
democratic prosperity and growth, facilitating national reconciliation, 
and advancing regional stability and global security.
    Rwanda's commitment to regional stability is reflected in its role 
as a member of the U.S.-led Tripartite Plus peace process. Rwanda has 
been a constructive partner in those efforts to develop and implement a 
joint approach to increasing security in the Great Lakes region. The 
United States will continue to play a leading role promoting good 
relations between Rwanda and its neighbors. If confirmed, I will work 
in concert with my U.S. colleagues in the neighboring countries to 
support together ongoing efforts to bring an end to the threat of armed 
groups in the region and to secure the safe and voluntary return of 
refugees. This remains essential, if the people of the Great Lakes are 
to live in peace and to train their sights on generating growth instead 
of resolving conflict.
    No country on the globe has a greater reason to stop genocide that 
Rwanda. It is no surprise that Rwandan troops are the backbone of the 
African Union and United Nations peacekeeping force in Darfur. Just 
last week, that Rwandan force suffered five casualties while 
successfully repelling a largescale attack in Darfur. Today, some 2,500 
Rwandan peacekeepers are on the frontline against genocide in Darfur.
    At home, Rwandans recognize that their lasting security depends on 
generating economic growth and creating jobs. Rising prosperity will 
help to underpin reconciliation and may aid efforts to ensure equal 
treatment under law, and political transparency. Today, Rwandans see 
significant economic progress. Those gains are particularly remarkable 
given the devastating losses from the genocide. While most Rwandans 
continue to live in poverty, the government has embarked on an 
ambitious plan to improve the standard of living through higher 
education and infrastructure development. If confirmed, I plan to seek 
ways to contribute to that effort, especially by encouraging 
opportunities for private sector investment and job training to prepare 
Rwandans for new jobs. Rwanda is opening its business environment. The 
Trade Investment Framework Agreement helped propel a 32 percent 
increase of United states-Rwanda trade in 2007, and the Bilateral 
Investment Treaty signed by President Bush and President Kagame in 
February will help attract new U.S. investment. Our extensive program 
to construct coffee washing stations has been a singular success, with 
Starbucks and other major coffee chains clamoring for Rwanda's world-
class specialty coffee.
    Increased prosperity will help Rwandans focus on working together 
to shape a better, united future, but the cleavages caused by genocide 
will take years to heal. Rwanda has a national policy favoring 
reconciliation and deemphasizing ethnic identification, but this will 
be the work of generations. Therefore, ongoing efforts to promote 
reconciliation are essential, both at the grassroots and in the 
capital. On the national level, the Millennium Challenge Corporation 
(MCC), may play a central role. The newly approved $24.73 MCC Threshold 
Country Plan will fund justice sector initiatives designed to 
strengthen democratic governance and the capacity of civil society 
organizations. At the grassroots level, the Peace Corps is sure to have 
a very positive impact. The first volunteers are slated to arrive in 
Rwanda this year.
    In Rwanda, investments of development resources have been shown to 
have great impact due to the Government of Rwanda's focused leadership. 
As a priority country for PEPFAR (President's Emergency Plan for Aids 
Relief) and PMI (President's Malaria Initiative), the United States has 
been in the forefront of combating HIV/AIDS and malaria pandemic in 
Rwanda. Through our USAID mission, we also fund programs in democracy 
and governance, economic growth, food security, and healthcare.
    Mr. Chairman, the United States is making a difference in Rwanda 
and Rwanda has, and will, make a difference in the world. If confirmed, 
I will work to build on that success. I am convinced that Rwanda's 
democratic development, economic growth, and security are essential for 
its citizens and critical to the stability of much of Africa. I look 
forward to working closely with you, Mr. Chairman, and with the 
committee in this most important endeavor.
    Thank you again Chairman Feingold, Senator Isakson, and the members 
of the committee for the opportunity to appear before you today. I 
welcome any questions that you might have.

    Senator Feingold. Mr. Eastham?

     STATEMENT OF HON. ALAN W. EASTHAM, JR., NOMINEE TO BE 
            AMBASSADOR TO THE REPUBLIC OF THE CONGO

    Ambassador Eastham. Mr. Chairman, I would like to echo 
Stuart Symington's gratitude to you and the committee for 
holding this session on such a timely basis, although it did 
require me to come back here from my present post in Malawi on 
very short notice and to prepare for this in a compressed 
period of time. I do appreciate the opportunity to appear 
before you and appreciate the nomination by the President to 
take up my position in the Republic of Congo, or as we call it 
in the shorthand, Congo-Brazzaville.
    This is the second time that I have appeared before the 
committee. I was here 3 years ago as a candidate for 
confirmation as Ambassador to Malawi, and I have had that 
position for the last 3 years.
    If I may, before beginning my testimony, I would like to 
introduce my family members who are here. My wife, Carolyn, and 
my sons, Mark and Michael.
    Senator Feingold. Would you please rise? Thank you very 
much for being here. Welcome.
    Ambassador Eastham. Carolyn and I have been together for 
longer than my Foreign Service career has lasted and probably 
for longer than she would like me to say in public session. 
[Laughter.]
    Mark is at Elon University in North Carolina and will be in 
his second year this year, and Michael will be starting at 
James Madison University in Virginia next month. Michael also 
happens to be our African connection since he was born in 
Nairobi, Kenya during our first assignment in Africa.
    If confirmed, this will be my fourth African post. I have 
served in Nairobi, Kinshasa, and my present post in Lilongwe.
    I have had other professional responsibilities relating to 
Africa which I think serve as qualification. I spent a year as 
the U.S. Representative to the Kimberley Process talks on 
conflict diamonds, which gave me an introduction to resource 
management and the misuses to which resources can be put in 
extreme cases. I think that will serve me well in Congo.
    I also served for 3 years as the Director of Central 
African Affairs in the State Department and had occasion to 
visit Brazzaville a couple of times during that service.
    If confirmed, my top priority will be to promote and 
protect United States interests in the Congo. That includes 
U.S. citizens, U.S. interests and investments, and not least 
important, U.S. values. These values include promoting human 
rights and democracy, promoting economic good governance, and 
also supporting efforts by the Congolese leadership to play a 
positive and leading role in the resolution of conflicts in the 
Central African region.
    On the economic front, we have to ensure that American 
commercial interests can operate in a free, lawful, and orderly 
economic and regulatory environment, which I believe involves 
encouraging the Congolese authorities to combat corruption, to 
account for revenues, to invest those revenues in human and 
social development, and to manage and protect the economic 
resources with which the Congo is blessed.
    Our political goals include supporting the country's 
democratic institutions and encouraging their further 
development and promoting civil and political rights including, 
when necessary, talking about and intervening in particular 
cases relating to human rights abuses. This includes also 
support to civil society, as well as encouraging the Republic 
of Congo to protect its most vulnerable populations, including 
victims of child labor exploitation, child and human 
trafficking, and violence against women. It is important to 
support efforts to encourage timely, free, fair, and 
transparent elections for the presidency which will occur in 
2009.
    At the regional level, President Sassou-Nguesso was 
recently appointed as a co-mediator in the Chad-Sudan conflict, 
and he has recently been involved in the contact group process 
and hosted the most recent meeting in Brazzaville. We 
appreciate the Republic of Congo's role in the Chad-Sudan 
mediation and urge them to work diligently with regional 
partners to facilitate a resolution of that conflict.
    It is important to note, as you did, Senator, in your 
statement at the beginning, that in both program and 
operational terms, the United States mission in Brazzaville is 
rebuilding. The embassy was closed for several years. It was 
followed by a difficult period when staff of the embassy were 
based across the river in Kinshasa and were obliged to travel 
across the river to do their work. There is a new building 
under construction which will be, I hope, occupied early next 
year.
    In addition, the process of rebuilding the professional 
staff and procedures is underway. I hope to be able to continue 
to strengthen the U.S. diplomatic platform, if confirmed by the 
Senate.
    At present, the major tools available to pursue United 
States interests in the Congo are diplomacy and close 
engagement with the people and the government. There are also 
public diplomacy initiatives that we can take that further our 
goals and strengthen mutual understanding between our two 
countries. It is my intention, if confirmed, to examine our 
programs currently active in Congo and I will definitely be 
recommending changes and proposing some new initiatives to 
support our objectives. In particular, I hope to be able to 
attract additional resources and attention, both public and 
private, clearly linked to United States policy objectives and 
to positive actions by the Government of the Republic of Congo 
to add to our tool kit in Brazzaville.
    I appreciate very much, Mr. Chairman, the opportunity to 
appear before you today. I would be happy, of course, to 
respond to any questions that you might wish to pose. Thank 
you.
    [The prepared statement of Ambassador Eastham follows:]

              Prepared Statement of Hon. Alan W. Eastham, 
           Nominee To Be Ambassador to the Republic of Congo

    Mr. Chairman and members of the committee, it is a privilege and a 
distinct honor to appear before you for a second time as the 
President's nominee to serve the United States in Africa. The first 
time, over 3 years ago, was as Ambassador to Malawi, a post I will be 
relinquishing next month. At present, I am seeking confirmation as 
United States Ambassador to the Republic of the Congo (ROC).
    If I may, I would like to introduce my wife, Carolyn, who has been 
at my side for 34 years. She has also served our country in seven of 
the eight foreign posts to which I have been assigned. She is looking 
forward to seeing the Congo River for the first time, as no family 
members were allowed to live in Kinshasa during the 2 years I served 
there. I have to say that she works as hard as I do to support United 
States activities in Malawi, and she will do the same in Brazzaville, 
if I am confirmed by the Senate. Let me also introduce my sons--Mark, 
who attends Elon University in North Carolina, and Michael, who will 
begin his studies at James Madison University next month. They have 
grown up in the Foreign Service and I expect that there is a good 
chance you will see them serving the United States abroad in some 
capacity in the coming years.
    If confirmed, Brazzaville will be my fourth Africa post overseas. I 
have served in Nairobi, Kinshasa, and Lilongwe. I have visited 20 
African countries in an official capacity, and I have had other 
professional responsibilities relating to Africa, including a year as 
the U.S. representative to the Kimberley Process talks on conflict 
diamonds and 3 years as Director of Central African Affairs in the 
State Department. As Director, I had responsibility for the Republic of 
Congo. I have visited the country several times, both before and after 
the destructive civil war.
    United States policy in the Republic of the Congo centers on 
promoting human rights, democracy, and good governance in the country. 
We also support efforts by the Congolese leadership to play a positive 
and leading role in the resolution of regional conflicts.
    If confirmed, I will fully exercise my mandate to promote and 
protect U.S. interests in that country, including U.S. investments, 
U.S. citizens, and U.S. values.
    Economic governance is a strong priority for the United States. We 
must ensure that American commercial interests can operate in a free, 
lawful, orderly, and transparent economic and regulatory environment. 
This involves encouraging the authorities to combat corruption, invest 
oil revenues in human and social development, and manage the country's 
precious environmental resources.
    Our political goals include supporting the country's democratic 
institutions, and promoting civil and political rights. This includes 
support to civil society as an effective mechanism of checks and 
balances to promote government accountability and transparency as well 
as encouraging the ROC to protect its most vulnerable populations, 
including victims of child labor, child trafficking, and violence 
against women. It is also important to note that Congo will be holding 
presidential elections in 2009. It is important to support efforts to 
make those free, fair, and transparent.
    There is also important work to be done to further the 
implementation of the 2005 Peace Agreement between the government and 
the last remaining rebel group, in order to create a positive 
atmosphere for free and fair presidential elections in 2009.
    Following the Republic of Congo's tenure as President of the 
African Union and nonpermanent member of the United Nations Security 
Council in 2006, the ROC has enhanced its role in regional and 
multilateral issues. President Sassou-Nguesso was recently appointed as 
a comediator in the Chad-Sudan conflict, and has been actively involved 
in the contact group process, and hosted a meeting in Brazzaville. We 
appreciate the ROC's role, and urge them to work with regional partners 
to facilitate a resolution of the conflict.
    The ROC is increasingly becoming a partner in the area of security 
cooperation. Last October, the Government of Congo hosted a United 
States Navy ship visit. We continue to support capacity building 
efforts to enhance the country's maritime security awareness. Our 
training of the Congolese military will also support the country's 
efforts to contribute to future central African peacekeeping efforts 
and promote awareness for human rights in the country's armed forces.
    It is important to note that in both program and operational 
contexts the United States mission in Brazzaville is in a rebuilding 
phase. The embassy was closed for several years, followed by several 
difficult years of coverage by personnel under severe security 
strictures and based across the river in Kinshasa. The embassy building 
was destroyed during the civil war, and a new building under 
construction is expected to be ready for occupancy early next year. 
This building is necessary to support our efforts in the ROC and will 
provide a strong visible indication of our commitment to strong 
relations with the country. The process of rebuilding professional 
staff and procedures is well under way. I hope to be able to continue 
to strengthen the U.S. diplomatic platform if I am confirmed by the 
Senate.
    If confirmed, I would support these policy efforts through 
diplomacy and close engagement with the government. I would also 
support public diplomacy initiatives that further our goals and 
strengthen the mutual understanding between our two countries. I also 
intend to examine our programs currently active in Congo, and recommend 
changes and propose new initiatives to support our objectives. In 
particular, I hope to be able to attract additional resources, clearly 
linked to United States policy objectives and to positive actions by 
the Government of the Republic of Congo, to add to our toolkit in 
Brazzaville.
    Thank you, Mr. Chairman, for the opportunity to appear before you 
today. I would be happy to respond to any questions you might choose to 
ask, and I look forward, if confirmed, to serving the United States in 
Brazzaville.

    Senator Feingold. Thank you so much, Mr. Eastham.
    Mr. Swan.

 STATEMENT OF JAMES CHRISTOPHER SWAN, NOMINEE TO BE AMBASSADOR 
                  TO THE REPUBLIC OF DJIBOUTI

    Mr. Swan. Mr. Chairman Feingold, Ranking Member Isakson, 
Senator Lugar, it is an honor to appear before you today as the 
nominee for chief of mission at Djibouti. I have a very brief 
oral statement and would ask that my written testimony be 
included in the record, if possible.
    Senator Feingold. Without objection.
    Mr. Swan. I am grateful for the confidence the President 
and Secretary of State have shown by nominating me to this 
position and for the support of Assistant Secretary for African 
Affairs Jendayi Frazer.
    First, Mr. Chairman, if I may acknowledge several family 
members and colleagues who are here today. My wife, Daphne 
Michelle Titus, please stand up. Daphne is also a Foreign 
Service officer with extensive experience in Africa. I would 
also like to mention our children, Mitchell and Garner, who are 
not able to be here today but who are here with us in spirit, 
and also to note the presence of our goddaughter, Kiama Alexis, 
who is visiting from Los Angeles.
    Senator Feingold. Welcome.
    Mr. Swan. Let me please also recognize several Africa 
Bureau colleagues, including of course, chief of staff, Ruth 
Davis, who has already been mentioned; desk officer Sarah 
Skerubsky. And let me also say that I am honored to appear 
today with other friends and colleagues working on African 
issues.
    Mr. Chairman, during more than 20 years at the State 
Department, I have devoted my career to the challenges of 
developing countries in transition, especially in Africa. Since 
1992, my overseas assignments have been all in Africa, 
including work in Cameroon, Somalia, the Republic of Congo, and 
the Democratic Republic of Congo, in the last two posts as 
deputy chief of mission. I currently serve as Deputy Assistant 
Secretary for African Affairs with broad policy and program 
responsibility for Central and East Africa, including Djibouti.
    Mr. Chairman, if confirmed, I look forward to leading 
Embassy Djibouti's dedicated team of Foreign Service, Civil 
Service, military staff assigned to the embassy, and Foreign 
Service national employees in advancing the interests of the 
United States. In Djibouti, these interests are primarily in 
the areas of peace and security, good governance, and economic 
development.
    First, with respect to peace and security, Djibouti has 
long been a pocket of stability in a turbulent region and is an 
important partner in the fight against terrorism. As has been 
mentioned, Djibouti hosts the only United States military base 
in sub-Saharan Africa, Camp Lemonier, headquarters for the 
Combined Joint Task Force-Horn of Africa, with some 2,200 
personnel. If confirmed, Mr. Chairman, I will continue to build 
our close relationship with the Government of Djibouti on 
regional peace and security issues.
    And in view of the importance of CJTF-HOA, let me also 
state that I am committed to close coordination and cooperation 
between embassy personnel and CJTF-HOA and to ensuring that all 
CJTF-HOA programming in Djibouti fits within overarching United 
States Government priorities for the country.
    With regard to democracy and governance, Mr. Chairman, 
Djibouti is a nascent democracy, independent only since 1977. 
We have been encouraged by the results achieved by U.S. 
engagement on human rights issues, for example, progress on 
trafficking in persons, and we will continue to seek to enlarge 
space for private media and civil society groups that at times 
have faced constraints. If confirmed, I will work with our 
Djiboutian partners to support and deepen their democracy 
governance reforms.
    On the economic front, Mr. Chairman, Djibouti is seeking to 
become a center for regional and international trade, financial 
services as well. Nonetheless, the country remains very poor, 
ranked 149 out of 177 countries, according to the UNDP Human 
Development Index. The United States, consequently, has a small 
but active aid mission in Djibouti focused on health and 
education and on responding to urgent humanitarian 
requirements. If confirmed, I will continue to make support for 
economic development in Djibouti a priority.
    Finally, but most importantly, Mr. Chairman, if confirmed, 
my highest priority will be the safety and well-being of 
Americans living in or visiting Djibouti. With only a few 
hundred private American citizens in the country, I would 
expect, if confirmed, to remain in frequent contact with them, 
most importantly on consular and security issues, but also to 
benefit from the wisdom of longtime residents, aid workers, and 
others with expertise on developments in Djibouti.
    Mr. Chairman, thank you again for the honor to appear 
before you today. Of course, we welcome any questions.
    [The prepared statement of Mr. Swan follows:]

                   Prepared Statement of James Swan, 
          Nominee To Be Ambassador to the Republic of Djibouti

    Chairman Feingold, Ranking Member Isakson, members of the 
committee, it is an honor to appear before you today as the nominee for 
chief of mission Djibouti. Thank you for convening this hearing so 
quickly during a very busy season of Senate business and campaign 
preparations. I am grateful for the confidence the President and 
Secretary of State have shown by nominating me to this position, and 
particularly for the support of Assistant Secretary for African Affairs 
Jendayi Frazer in this appointment.
    First, Mr. Chairman, let me mention several family members and 
colleagues who are here today. My wife, Daphne Michelle Titus, is here, 
and I would also like to mention our children, Garner and Mitchell, who 
are not present in this room, but are with us in spirit. Daphne is also 
a Foreign Service officer with extensive experience in Africa. We have 
been full partners not just in the home, but also as we've worked in 
embassies abroad and in public service here in Washington. Let me also 
add that I am honored to appear before you on this panel with my two 
friends and colleagues, Ambassadors Eastham and Symington.
    Mr. Chairman, during more than 20 years at the State Department, I 
have devoted my career to the challenges of developing countries in 
transition, many involving unsettled security environments and complex 
political reforms. My overseas assignments have included service as 
political officer in Cameroon during its first multiparty Presidential 
elections, as ``Somalia Watcher'' in Nairobi during the final pull-out 
of U.N. forces in the mid 1990s, and as deputy chief of mission in both 
the Republic of Congo and the Democratic Republic of Congo during 
efforts to bring an end to conflicts and humanitarian crises in those 
countries and to promote democratic reforms. In Washington I have 
served as Director for African Analysis in the Bureau of Intelligence 
and Research, and most recently as Deputy Assistant Secretary for 
African Affairs with broad policy and program responsibility for 
Central and East Africa, including the Horn of Africa and Djibouti.
    Mr. Chairman, if confirmed, I look forward to leading Embassy 
Djibouti's dedicated team in advancing the interests of the United 
States. This team of over 200 consists of Foreign Service and Civil 
Service personnel, military staff assigned to the embassy, and of 
course our invaluable Foreign Service national employees. Our interests 
in Djibouti are primarily in the areas of peace and security, good 
governance, and economic development.
                           peace and security
    Djibouti is a small but important country on the Horn of Africa. It 
occupies a strategic position at the Bab el Mandab Strait, which joins 
the Red Sea and Gulf of Aden. These waters are used by some 40 percent 
of the world's commercial ships. Djibouti hosts the only United States 
military base in sub-Saharan Africa, Camp Lemonier, headquarters for 
the Combined Joint Task Force--Horn of Africa (CJTF-HOA) and its 
approximately 2,200 personnel. Djibouti has long been a pocket of 
stability in a turbulent region, and is an important partner in the 
fight against terrorism. It borders Eritrea, Ethiopia, and Somalia/
Somaliland, and faces Yemen less than 18 miles across the strait to the 
east. Djibouti has often used its close relations with all of its 
neighbors to promote peace and understanding in the region. It is the 
regional headquarters for the Inter-Governmental Authority on 
Development. In June, Djibouti hosted an important meeting between 
Somalia's Transitional Federal Government and the opposition Alliance 
for the Re-Liberation of Somalia, which led to an agreement that both 
sides have now initialed. If confirmed, Mr. Chairman, I will continue 
to build our close relationship with the Government of Djibouti on 
regional peace and security issues.
    In view of the large and important CJTF-HOA presence, let me 
underscore my commitment, if confirmed, to continue close coordination 
and cooperation between embassy personnel and the CJTF-HOA contingent. 
If confirmed, I will also ensure that all CJTF-HOA programming in 
Djibouti fits within overarching United States Government priorities to 
advance our key interests in the country.
                        democracy and governance
    Djibouti is a nascent democracy. It has been independent only since 
1977 and faced a limited but persistent internal rebel movement in the 
early 1990s. With the negotiated conclusion of the rebellion, a ``grand 
coalition'' was formed that effectively rules the country. Presidential 
elections in 2005 were determined by international observers to be free 
and fair. Recent parliamentary elections in February returned all of 
the seats to members of the ruling coalition. At the regional level, 
however, other political groups obtained greater representation. We 
have been encouraged by the results achieved by active U.S. engagement 
on governance and human rights issues--for example on trafficking in 
persons. Djibouti's rapid passage of a new antitrafficking law and 
followup implementation were reflected in an improvement in Djibouti's 
trafficking in persons ranking from Tier II Watch List to Tier II. If 
confirmed, I will work with our Djiboutian partners to continue their 
democracy/governance reforms--including to enlarge space for private 
media and civil society groups that at times have faced constraints.
                          economic development
    On the economic front, Mr. Chairman, Djibouti's leadership is 
seeking to embrace the opportunities of globalization. Capitalizing on 
its location and excellent deep-water port, Djibouti has privatized its 
port and airport and has embarked on construction of a new port 
facility that will dramatically increase capacity. This privatization 
has reduced corruption and increased revenues flowing to the 
government. Djibouti is also emerging as a regional banking center, 
albeit on a modest scale. Making Djibouti an attractive place for 
investment and a center for regional and international trade will be 
critical to its economic development. Djibouti remains very poor, 
ranked 149 out of 177 countries on the UNDP Human Development Index. 
Nearly 90 percent of Djiboutian land is desert. The United States has a 
small but active AID mission in Djibouti, focused on health and 
education, particularly to combat low life-expectancy, maternal and 
under-5 child mortality, and transmission of infectious diseases. The 
United States also responds to the current regionwide problem of food 
insecurity through support for the Famine Early Warning Network office 
in Djibouti, as well as Food for Peace and Office of Foreign Disaster 
Assistance programs. If confirmed, I will continue to make support for 
economic development in Djibouti a priority.
                        eritrea/djibouti border
    Mr. Chairman, as you can see, we have important interests in 
Djibouti. Djibouti's role in regional peace and security, its 
democratic and governance reforms, and its economic prospects merit 
support and encouragement from friends of Djibouti. Yet, one of its 
neighbors--Eritrea--has instead sought to foment instability, creating 
a potential new border conflict where before none existed. The 
establishment of Eritrean military positions just over the Ras Doumeira 
ridge on the Djiboutian side of the border represents a worrying threat 
to Djibouti. The Eritrean Government has rebuffed efforts by the 
African Union, League of Arab States, and bilateral partners of the two 
countries to negotiate resolution. Now the United Nations Secretariat, 
at the behest of the Security Council, is sending a team to gather 
further details of the border standoff and report back to the council. 
In view of Eritrea's destabilizing role elsewhere in the region, this 
move against Djibouti can only be seen as yet another deliberate threat 
by this dangerous spoiler on the Horn. If confirmed, I will give my 
full support to international efforts to resolve this incipient 
conflict peacefully and restore the border to the status quo ante.
                           american community
    Finally, Mr. Chairman, if confirmed, my first, most immediate 
priority will be the safety and well-being of Americans living in or 
visiting Djibouti. With only a few hundred private Americans in-
country, I would expect, if confirmed, to remain in frequent contact 
with them, most importantly on consular and security issues, but also 
to benefit from the wisdom of long-time residents, aid workers, and 
others with expertise on developments in Djibouti.
    Mr. Chairman, thank you again for the honor to appear before the 
Committee today. I would be happy to take any questions you may have.

    Senator Feingold. Thank you very much, Mr. Swan.
    Mr. Simon.

STATEMENT OF JOHN A. SIMON, NOMINEE TO BE REPRESENTATIVE OF THE 
 UNITED STATES OF AMERICA TO THE AFRICAN UNION, WITH THE RANK 
                    AND STATUS OF AMBASSADOR

    Mr. Simon. Mr. Chairman, members of the committee, I would 
like to echo the thanks of my colleagues for the opportunity to 
testify before you here today. And in particular, Mr. Chairman, 
I would like to thank you and your staff for allowing me the 
opportunity to join my colleagues.
    Mr. Chairman and members of the committee, I am honored to 
appear before you in consideration of my nomination to serve as 
the United States Ambassador to the African Union. I want to 
thank President Bush and Secretary Rice for the confidence and 
trust they have shown in nominating me for this position.
    I have submitted written comments for the record, and with 
your permission, Mr. Chairman, I will summarize them here.
    Senator Feingold. Without objection.
    Mr. Simon. Mr. Chairman, first I would like to acknowledge 
my wife, Laura, who is here with me today.
    Senator Feingold. Welcome.
    Mr. Simon. Without her love and sacrifice and that of my 
children, Will, Leo, Maya, and Jayne, my career in public 
service would not have been possible.
    I would also like to thank the African Union desk in the 
State Department and the many offices and bureaus that worked 
overtime to prepare me for this hearing today.
    Mr. Chairman and members of the committee, I have spent the 
past 6 years working on global development issues. The primary 
focus of this work has been in Africa. Over that time, I have 
had the extraordinary honor and privilege to serve our country 
as an official of the U.S. Agency for International 
Development, as Senior Director for Relief, Stabilization, and 
Development on the staff of the National Security Council, and 
most recently, as executive vice president for the Overseas 
Private Investment Corporation. In these capacities, I have 
helped to support the President's international development 
agenda at a time of dynamic economic and political change 
around the world.
    Nowhere has this change been more profound than in Africa. 
The United States has been an active partner in helping 
Africans along this journey, with far-reaching initiatives on 
the continent, including the Millennium Challenge Account, the 
President's Emergency Plan for AIDS Relief, the President's 
Malaria Initiative, the African Education Initiative, the 
Women's Justice and Empowerment Initiative, the Multilateral 
Debt Relief Initiative, the African Mortgage Market Initiative, 
and the African Financial Sector Initiative. I have been 
honored to have played a role in every one of these efforts.
    The African Union is the most prominent manifestation of 
the new era on the continent. Founded in July 2002, the African 
Union heralded a change from its predecessor's focus on 
noninterference to one, in the words of its first chairman, 
Alpha Oumar Konare, of nonindifference.
    Over the last 18 months, the breadth of the AU political 
initiatives has dramatically expanded. It has registered some 
significant successes, including stabilizing Comoros and 
Burundi, establishing the Democracy and Electoral Assistance 
Unit, and adopting the African Charter on Democracy, Elections, 
and Governance.
    Although making significant progress, the African Union 
still faces considerable challenges. Capacity gaps, 
understaffing, and regional conflict, such as in Zimbabwe, 
Somalia, and Sudan, all threaten the nascent strides the 
African Union has made. These challenges on the one hand and 
the increasing vitality of the AU on the other provide the 
United States with a unique opportunity to engage the AU, which 
is looking to the United States for support.
    For instance, given the recent elections in Zimbabwe and 
others that have suffered from serious irregularities, it is 
imperative that the United States and other donors assist the 
African Union to develop institutions that ensure the standards 
enshrined in the AU charter function to guarantee free and fair 
elections that are respected throughout the continent.
    Building upon our historic ties, shared culture, and deep 
appreciation of the African continent's strategic significance, 
the United States in August 2006 became the first country to 
establish a separate diplomatic mission accredited to the AU. 
USAU was established with the intention to forge a strategic 
partnership between the United States and the African Union by 
building upon the AU's capacity to strengthen democratic 
institutions, promote peace and security, improve the lives and 
health of all Africans, and support sustainable economic 
development through increased trade and investment. If 
confirmed, I will strive to forward this agenda. I will also 
use every opportunity to press AU to live up to its own 
standards of nonindifference, especially in promoting human 
rights and democracy.
    I would look forward, if confirmed, as the U.S. 
Representative to the AU, to working closely with you, Mr. 
Chairman, your staff, and other Members of the Congress to 
ensure that United States interests, policies, and assistance 
to the African Union achieves maximum impact.
    Thank you, Mr. Chairman, for scheduling this hearing. I 
would be pleased to answer any questions you and the members of 
the committee may have.
    [The prepared statement of Mr. Simon follows:]

                   Prepared Statement of John Simon, 
             Nominee To Be Ambassador to the African Union

    Mr. Chairman and members of the committee, I am honored to appear 
before you today in consideration of my nomination to serve as the 
United States Ambassador to the African Union. I want to thank 
President Bush and Secretary Rice for the confidence and trust they 
have shown in nominating me for this position.
    Mr. Chairman, I would like to acknowledge the members of my family 
who are here with me today. First, my wife, Laura, and my daughter, 
Maya. My two sons, Will and Leo, and my other daughter, Jayne, could 
not be here today. I would also like to thank my parents, Barry and 
Hinda Simon, for their generous and unfailing love and support. Without 
my family's love and sacrifice, my career in public service would not 
have been possible.
    Mr. Chairman and members of the committee, I have spent the past 6 
years working on global development issues. The primary focus of this 
work has been in Africa. Over that time, I have had the extraordinary 
honor and privilege to serve our country as an official at the U.S. 
Agency for International Development; as Senior Director for Relief, 
Stabilization, and Development on the staff of the National Security 
Council; and, most recently, as executive vice president of the 
Overseas Private Investment Corporation. In these capacities, I have 
helped to support the President's international development agenda at a 
time of dynamic economic and political change around the globe.
    Nowhere has this change been more profound than in Africa. Thanks 
to improved governance, balanced fiscal and monetary policies, and 
investments in health and education, Africa as a whole is experiencing 
its most significant economic expansion since independence, with 10 
years of uninterrupted growth, the last 5 at rates in excess of 5 
percent. Africans have also experienced a growth in freedom and 
democracy, with more countries classified as free by the 
nongovernmental organization Freedom House than at any time in the 
continent's history.
    The United States has been an active partner in helping Africans 
along this journey. Through the groundbreaking Millennium Challenge 
Account, with firm bipartisan backing from Congress we have supported 
the rule of law, sound economic policies, and investments in people. 
Through the President's Emergency Plan for AIDS Relief and the 
President's Malaria Initiative, Americans have helped Africans make 
unprecedented strides against two of the most deadly diseases on Earth. 
Through the Africa Education Initiative and the Women's Justice and 
Empowerment Initiative, the United States has worked to educate and 
empower Africans from all strata of society. And through the 
Multilateral Debt Relief Initiative, the African Mortgage Market 
Initiative, and the African Financial Sector Initiative, we have helped 
to lift the staggering burden of debt and develop the institutions of a 
modern economy. I have been honored to have played a role in every one 
of these efforts. If confirmed, Mr. Chairman, I will work with the 
African Union (AU) to highlight these initiatives as important 
developmental issues for the AU to pursue.
    The African Union is the most prominent manifestation of the new 
era on the continent. Founded in July 2002, the African Union heralded 
a change from its predecessor's focus on ``noninterference'' to one, in 
the words of its first Chairman, Alpha Oumar Konare, of 
``nonindifference.'' This was a highly significant change and a 
recognition that Africa not only can, but must take charge of its own 
destiny if it is to compete and prosper in the 21st century. The 
creation and success of the African Union is not only critical to the 
continent, but to the international community and to the interests of 
the United States.
    The African Union is an active, multilateral organization 
orchestrating complementary agendas for change and development. The 
permanent representatives of its 53 member states are setting political 
directions in areas as disparate as election monitoring and climate 
change. The African Union Commission, effectively the AU's Executive 
Secretariat, is implementing the policies endorsed by the AU's Assembly 
of Heads of State. Over the last 18 months, the breadth of AU political 
initiatives has dramatically expanded, and it has registered some 
significant successes, including stabilizing Comoros and Burundi, 
establishing the Democracy and Electoral Assistance Unit, and adopting 
the African Charter on Democracy, Elections, and Governance.
    Although making significant progress, the African Union still faces 
considerable challenges. Capacity gaps, understaffing, and regional 
conflict, such as in Zimbabwe, Somalia, and Sudan, all threaten the 
nascent strides the African Union has made. These challenges on the one 
hand, and the increasing vitality of the AU on the other, provide the 
United States with a unique opportunity to engage the AU, which is 
looking to the United States for support.
    For instance, given the recent elections in Zimbabwe, and others 
that have suffered from serious irregularities, it is imperative that 
the United States and other donor partners assist the African Union to 
develop institutions to ensure that the standards enshrined in the AU 
charter function to guarantee free and fair elections are respected 
throughout the continent. Despite its shortcomings, the AU sent an 
observer mission to the June 27 Zimbabwean runoff, and that mission 
concluded that the election had fallen short of AU standards. The June 
30-July 2 AU summit in Sharm el-Sheikh, Egypt issued a statement 
stating that they were deeply concerned with the prevailing situation 
in Zimbabwe and called for negotiations between parties and recognition 
that some form of transitional government would be necessary.
    Building upon our historic ties, shared culture, and deep 
appreciation of the African continent's strategic significance, the 
United States, in August 2006, became the first observer country to 
establish a separate diplomatic mission accredited to the AU. USAU was 
established in 2006 with the intention to forge a strategic partnership 
between the United States and the African Union by building the AU's 
capacity to strengthen democratic institutions, promote peace and 
stability, improve the lives and health of all Africans, and support 
sustainable economic development through increased trade and 
investment. If confirmed, I will strive to forward this agenda. I will 
also use every opportunity to press the AU to live up to its own 
standard of ``nonindifference,'' especially in promoting human rights 
and democracy.
    I would look forward, if confirmed as the United States 
Representative to the AU, to working closely with you and other Members 
of Congress to ensure that U.S. interests, policies, and assistance to 
the African Union achieves maximum impact.
    Thank you again, Mr. Chairman, for scheduling this hearing. I would 
be pleased to answer any questions you and the members of the committee 
may have.

    Senator Feingold. Thank you, Mr. Simon. Thank you all.
    We will begin our first round of questions. I will begin 
it. We will do 7-minute rounds.
    Ambassador Symington, you spent the last 3 years as United 
States Ambassador to Djibouti. What lessons do you hope to 
bring with you from your experience in Djibouti?
    Ambassador Symington. Mr. Chairman, thank you for asking me 
the question that I focused on every day as I prepared for this 
hearing.
    I think that there are three important lessons. The first 
is the one that I mentioned inspired both by Chairman Skelton 
and by you of working together jointly. I think that it is 
synchronizing not just what government does but what government 
does to enable the private sector to do more. So to continue to 
focus on what every agency of our Government does and then to 
push forward on the economic development side by creating 
conditions that can help the people of Rwanda not only find 
peace but a path to prosperity strikes me as the very first and 
most important.
    The second thing is that I am keenly aware, in an insecure 
part of the Horn, how important security is, and so I will, 
with the help not only of the rest of the United States 
Government, but with the continued help and support of you and 
the Senate and the House funding our efforts, to not only have 
boots on the ground, but also to have seats at the table with 
that kind of support in development, with that kind of resource 
required to not just talk about security, but to be in a 
position as we have been in Rwanda, training folks to then 
deploy in Darfur, do something about it.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you.
    Now, similar to Djibouti, Rwanda faces a major violent 
conflict in a neighboring country. In fact, the extreme 
violence that has plagued the Kivu Region of Eastern Congo can 
be, of course, directly traced to the legacy of the 1994 
genocide and the continuing Hutu-Tutsi tensions. In response to 
the presence of the FDLR and former members of the Interahamwe 
in Eastern Congo, the Rwanda Government funded Tutsi insurgents 
until at least 2003.
    Now, do you see, sir, a potential to resolve this crisis, 
and how do you intend to work with President Kagame and others 
in the region to do so?
    Ambassador Symington. Thank you, Mr. Chairman.
    There is clearly a potential to resolve it. The magnitude 
of the problem, while still considerable, has diminished, 
thanks to the efforts not only of other American ambassadors in 
Rwanda, but also the considered efforts of the Tripartite Plus 
process and the conversations between the Democratic Republic 
of the Congo and Rwanda and other leaders at very many levels 
pushed forward by a meeting last year that the Secretary of 
State chaired in Addis to bring the Tripartite Plus together in 
which the Minister of the Interior of the Democratic Republic 
of Congo and President Kagame got together and talked about the 
way forward.
    There is a tremendous opportunity to address this problem 
by focusing, I think, on three things.
    The first is getting together to talk about the common 
interests in a lasting peace. And they are doing that more 
regularly.
    The second is to focus explicitly on the security concerns, 
and all the parties share a desire to make sure that there are 
not groups operating in the area that threaten the stability of 
law.
    But the third element is to turn this part of Africa from a 
place of troubles to a place of promise, and that means going 
beyond the focus on security to focus on the sort of 
opportunities for economic integration represented by Rwanda's 
recent joining of the East African community and its membership 
in COMESA. We need to take some of that growth that I saw in 
Djibouti that is coming across the Indian Ocean and reach into 
the heart of Africa so that they can cooperate together.
    Senator Feingold. Thank you, Ambassador.
    According to the State Department's country reports on 
human rights practices for 2007, extrajudicial killings by 
security forces increased, as well as restrictions on freedom 
of speech, association, and press.
    How would you assess the challenges of building democracy 
in Rwanda and the current state of democracy there?
    Ambassador Symington. As we were discussing earlier, one 
great test for their commitment to multiparty democracy will be 
the multiparty elections that are about to take place in 
September. And so this is a perfect time to see whether or not 
Rwanda continues to make progress towards that goal.
    In the course of the last year, I was pleased to see 
progress in a couple of those areas, particularly in that 
relating to extrajudicial killings. Another very significant 
issue that has plagued them in the past has been both the 
crowdings and the conditions of their prisons, and they 
continue to make progress there.
    But there are genuine human rights concerns in Rwanda 
today, and as I see our efforts, I am reminded of a very simple 
truth that I learned which is that when I swear an oath to 
serve as your ambassador in Djibouti, I swear that oath to 
preserve and to protect the Constitution, a body of ideas. What 
we have at the core of our being is those principles, and it is 
what holds us together and gives us our strength in the world.
    If Rwanda is to realize its promise of a single united 
Rwanda playing a positive role in Africa, it must show the same 
adherence to principles that we do and not because we tell them 
to, but because those principles are their principles and they 
work for them. And that test is one they must pass every day, 
but it will be a great challenge to work with them as they try 
to make progress in that area.
    Senator Feingold. Thank you, Mr. Symington.
    Mr. Eastham, since ending its civil war, oil production in 
the Republic of Congo has increased significantly and it 
continues to do so.
    What United States companies, petroleum companies, are 
active in the country, and do you expect that Congolese oil 
exports to the United States will increase in the coming years?
    Ambassador Eastham. On the second question, Senator, I do 
not--I think the market will determine whether imports to the 
United States will increase. I would anticipate that they will 
simply because there will be more Congolese oil available. 
There is an expectation that when a new field comes on line 
next year, that there will be an additional 90,000 barrels a 
day of production, bringing Congo up from its present level of 
approximately 240,000 barrels a day, up to around 330,000 in 
the coming year. At present, Congo is the fifth largest 
producer in Africa. I do not think that that will change the 
ranking for the additional capacity to come on line.
    Operating in the Republic of Congo at the moment, there are 
several United States oil exploration and production companies, 
as well as a number of other companies that support them. I 
believe that the exploration companies are Chevron, Congo SA, 
the Murphy West Africa Limited, and Neighbors Offshore. 
Supporting services companies include Halliburton, Baker Oil 
Tools, Schlumberger, and Trac d'Afrique. There are a couple of 
other American companies also engaged in Congo, one in bauxite 
and another in milling of flour for consumption in the Congo.
    Senator Feingold. Thank you, Mr. Eastham. When I have my 
second round, I will return to this subject, but I will just 
simply comment in all this debate about energy and oil, there 
is insufficient attention to the role of African oil supplies, 
both the positive aspects and the challenges. I know that the 
ranking member has talked about it, but this is something the 
American people have, I think, a limited awareness of. And I am 
hoping that through our work together we can let people know 
that there are not simply Middle Eastern sources of oil.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    On that subject, I want to acknowledge that Ambassadors 
Symington, Eastham, and Swan all made reference in their 
statements to the important role of supporting the private 
sector in each of those countries. And with the chairman 
mentioning oil and the resources of Africa, I think it is 
important to note, Mr. Eastham, that not far from your positing 
is Equatorial Guinea where the United States left some years 
ago and did not have an embassy, but has come back and brought 
Ambassador Johnson. U.S. companies, Marathon in particular, but 
also Hess, Formed a joint venture with that government, 
discovered a huge reserve of natural gas in the Gulf of Guinea 
and Marathon invested $1.5 billion in a liquefication facility 
which is now operating.
    And as a result of that, two things happened. One, the 
economy of Equatorial Guinea and the money it is raising, is 
being invested in hospitals and schools, and is helping the 
populace, but also as recently as last month, President Obiang 
released 37 political prisoners we have been trying to 
encourage him to release for a number of years. I think that 
shows that if we can help empower the private sector to 
participate in joint ventures on the continent of Africa, 
particularly in energy, but in other areas as well, the result 
is not only wealth for the people of Africa, but also a more 
democratic government emerges from that prosperity.
    I am making a speech, not asking a question, but I thought 
it was important to note that all three of you voluntarily 
noted that point.
    Mr. Eastham, in your printed testimony and verbal 
testimony, you talked about American interests being able to 
operate in free, lawful, orderly, and transparent economic and 
regulatory environments, in particular, you mentioned the 
problem of corruption and making sure that we do everything to 
have honorable dealings.
    What is in the Congo as far as corruption? How is it? Is it 
a major problem? Is it improving?
    Ambassador Eastham. Thank you for the question because that 
is one of the most important things that I believe I will be 
addressing, if I am confirmed and go to this post.
    My impression from my preparations here is that I would 
rather call it lack of accountability is getting in the way of 
a lot of things that Congo would like to do. For example, they 
have gone off track with the International Monetary Fund after 
a promising start about 2 years ago because of a problem of 
overexpenditure that caused them to miss their targets to 
continue on their poverty relief and growth facility program.
    Similarly, their progress toward debt relief under the HIPC 
program has gone off track, largely as a result of being off 
track with the IMF because, again, of a lack of accountability.
    There are nongovernmental organizations that are extremely 
credible on this subject, such as Global Witness, that have 
noted in public the problems of accountability with regard to 
the revenues from petroleum that is exported from the Republic 
of Congo.
    Now, I am not the ambassador yet. You will determine that, 
but I think that at this stage in my preparation for this post, 
I would prefer to look at it as a glass a quarter full rather 
than characterizing it as corruption. So let me just assure you 
that I think that that is an issue that cuts across through the 
Congo and Congo's governance. The question of how they account 
for the money and how they spend it in terms of--well, I will 
go back to your example of Equatorial Guinea--spending on 
hospitals and infrastructure projects that benefit the 
population of the country, I have a feeling that is going to be 
a core aspect of my mission there, if I am confirmed.
    Senator Isakson. I really appreciate not only the answer, 
but the way in which you answered it because ``corruption'' is 
a word that gets thrown around a lot. I think the reference to 
transparency and accountability is the key because with a 
transparent and accountable economic and regulatory system in a 
country, the United States can compete most favorably, but when 
it lacks that it benefits other countries who might want to 
come benefit from the resources in the country but not 
necessarily do it in a transparent or accountable way. And I 
think you are right on target. I will not mention who I am 
talking about on that, but I think it benefits the United 
States for that to exist.
    Mr. Swan, I had the privilege of visiting Ambassador 
Symington in Djibouti earlier this year, and I appreciate in 
your remarks that you addressed Camp Lemonier and what the 
United States is doing in concert with other countries at that 
tremendous military facility, but acknowledge that it is--and 
you correct me if I am wrong, Mr. Symington, but when I was 
there, I was not only astounded, but I was pleased to see the 
tremendous role of helping people in Africa. Those personnel 
there are drilling wells and building bridges. They are 
ambassadors of the United States. Camp Lemonier is of 
tremendous value, I think, to our country and to the Horn of 
Africa as well, so I commend you on your mentioning of that and 
I hope you will be very committed, as Ambassador Symington has 
been, to coordinate and cooperate with the personnel there.
    Ambassador Swan. Thank you very much, Senator.
    Yes, indeed, sir. As I mentioned in my remarks, I think 
this is going to be a key priority to ensure that we have a 
very close relationship with the leadership and, indeed, the 
other personnel of CJTF-HOA. I think there has been an 
excellent base already established--a base of collaboration, I 
should clarify I suppose--already established in terms of our 
relationship not only with the leadership, but in terms of our 
embassy personnel working directly with a number of CJTF-HOA 
officials as well to coordinate activities.
    I think it is important to remember, Senator, that although 
based in Djibouti, CJTF-HOA has an area of responsibility that 
currently extends to some 13 countries, including Yemen. So it 
is a matter of coordinating our activities with CJTF-HOA not 
only as it relates to Djibouti, but more broadly in terms of 
its activities elsewhere on the Horn of Africa and extending 
into Yemen. With the transition to AFRICOM on October 1, we 
expect CJTF-HOA's assets will, in fact, be available for 
programming even outside its existing area of responsibility.
    There is no doubt that its civil affairs activities have 
been very important in terms of helping people who desperately 
need help in the Horn of Africa and have also been very helpful 
in terms of putting a more positive light on the role of the 
United States military and what kinds of contributions it can 
make in contributing to improvements in those societies. I 
think we do see, however, that what CJTF-HOA has as a critical 
asset is its ability to engage on security cooperation issues, 
as well as traditional military-to-military activities. So we 
see CJTF-HOA as a critical component, one of an array of 
instruments of U.S. security influence, including diplomatic 
elements, informational elements, economic elements, 
development elements, and also this military component. So 
coordination will be key.
    Senator Isakson. Well, my time is up, but I do remember 
when I went to Camp Lemonier and walked in to meet with--was it 
Admiral Hart? Is that correct? Who was commanding officer, and 
he introduced me to the British general and the French general 
that were there with him, and I realized there is a very 
diplomatic role in that camp with other countries in Europe and 
around the world. You have a very important posting, and that 
is a very important facility for the people of the United 
States, as well as the people of Africa.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Isakson.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    In 2006, our committee commissioned a report which was 
entitled Embassies as Command Posts in the Anti-Terror 
Campaign. But specifically a lot of the emphasis came to 
special challenges for our embassies in Africa. So I am going 
to ask you, Ambassador Swan, and you, Ambassador Symington in 
order, first of all, to describe from your experiences in that 
report what we have learned about coordination in our embassies 
of all the various facets of the United States Government--
civilian, military, somewhere in between--in very challenging 
circumstances where special responsibilities come to the 
ambassador. And likewise, to what extent have we utilized the 
lessons learned, providing information for future ambassadors 
or, for that matter, to young Foreign Service officers who are 
coming into service posts in the way that you have over the 
last two decades in both of your careers? Can you, Ambassador 
Eastham, give us some outlook from the position you have had 
back in the State Department on this? And then I will ask 
Ambassador Symington for his views out in the field.
    Ambassador Swan. Certainly, Senator, there is no doubt that 
having a coordinated U.S. Government policy that includes, as I 
mentioned, all the instruments of power and all of the 
interagency elements is critical to achieving our objectives. 
In most posts, as you may know, Senator, we have what is 
effectively a country team, led by the ambassador and the 
deputy chief of mission, which brings together all of the 
agencies at post to ensure that there is a common message to 
ensure that there is a collective and collaborative and 
coherent effort aimed at achieving the objectives that are 
established, both through the interagency process in Washington 
and by the chief of mission on the ground. And that certainly, 
if confirmed, would be the approach that I would intend to take 
in Djibouti.
    I think in Djibouti, there is, of course, also this special 
issue of the relationship with CJTF-HOA. This is also the case 
for other missions on the Horn of Africa in which CJTF-HOA has 
relations. But there is, in fact, quite an established 
framework already to ensure good coordination.
    For example, within the country team at the embassy, there 
is a coordination element, a representative of CJTF-HOA who 
participates in those discussions to ensure that there is good 
coordination. There is also at CJTF-HOA a senior State 
Department political advisor, a POLAD, to ensure that messages 
are well transmitted. And recently there has been the addition 
of a development advisor from USAID to CJTF-HOA. So I think 
there is a serious effort to ensure close collaboration and 
coordination.
    With respect to lessons learned on coordination, I think 
more and more we are seeing an emphasis on training at the 
State Department at all levels of leadership and management. 
Much of this is, in fact, due to Ambassador Davis' initiatives 
when she was the Director General of the Foreign Service. But 
we see in each of those elements an emphasis on the need for 
coordination in terms of maximizing the impact on the ground.
    Senator Lugar. Thank you very much.
    Ambassador Symington.
    Ambassador Symington. Senator Lugar, thank you for that 
question.
    I learned three lessons. The first is that you need to 
coordinate at the level of the sergeants and at the level of 
the admirals and at the level of Washington. The second is that 
you need to do that every day, and the third is that you need 
to do that in every country.
    If you do those three things so that you are constantly 
syncing up your goals and your assets and working together, and 
if you do that in a spirit that ultimately says this is not 
about what the United States is doing alone, but what we can do 
with the partner nations and the people there, then you have a 
chance to succeed. If you drop any part of that, if you think 
it is about us and not about them, if you think it is about me 
and not about you, then it does not work.
    But I would also add one other thing that you and the 
chairman have been working for for much of your public life, 
for which I am extraordinarily grateful. We cannot have 
effective interagency cooperation around the world if the 
civilian agencies are not funded sufficiently well to do their 
part of the job. And I know that in the current budget, with 
the prospects looking ahead, this is very difficult. But I 
applaud your efforts and those of your colleagues to bring us 
those resources. And I just hope that we will continue to do 
it.
    One area, for example, is some of these young diplomats who 
are now, frankly, much better trained in working in sync with 
the military than I am--I got 90 days once working in an 
intensive operation with them, and I have worked with military 
personnel throughout my career on civil affairs work. Many of 
my young colleagues, whose files we are reading today to decide 
on promotions, have served one and two and sometimes three 
tours in places like Afghanistan and in Iraq and out in a PRT. 
They know more about it than I know. And I am looking forward 
to learning from them as they come back.
    But in every case, it helps to have, for example, 
discretionary funding. That is as much true for your 
ambassadors as it is for your generals and admirals. And those 
commander's funds that they have are wonderful, fast 
dispensing, get a target of opportunity chances to do some 
good.
    So those are my lessons and those are a little of my thanks 
to you for your leadership over the years in getting us the 
resources.
    Senator Lugar. Well, I appreciate your comments, and in a 
diplomatic way, you have raised an important issue for this 
committee and for the Congress. We have had a lot of testimony 
about the disproportionate funds available to the military as 
opposed to our civilian or diplomatic components. And Secretary 
Gates, our Secretary of Defense, has recognized this publicly 
and indicated that we are going to have to have some leveling 
up. Or if we have urgent military needs, we will need to 
rebuild the funds that are available for American diplomacy if 
this type of coordination that we have been talking about is to 
be more satisfying.
    But finally, I appreciate likewise your recognition that 
sometimes, in the course of fighting the war on terror, we have 
had military expeditions or even intelligence expeditions that 
were not altogether known by our ambassador or at least the 
briefings were incomplete.
    Now, one of the reasons for this coordination in effect is 
to make certain we are all on the same page. Each of you as 
professionals recognize the importance of that. Likewise, as 
ambassadors, just the essential aspect of knowing what is going 
on in the country for which you have responsibility.
    I think we are making headway, but I wanted to raise this 
question at this hearing just to have testimony from two 
veterans of the trail. And I appreciate that.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Lugar.
    Senator Nelson.

                 STATEMENT OF HON. BILL NELSON,
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    I just wanted to come by since these professionals are 
going to a very important part of the world with regard to our 
relations and since our relations are really on the up-tick 
with each of these posts that you are going to, indeed, over 
most of Africa.
    Mr. Chairman, for example, the Ambassador in Tanzania told 
me a couple of weeks ago that he thinks our favorable toward 
the United States is now at about 60. In Kenya, I was having 
dinner with a group of Kenyans, both in the government and in 
the business sector, and they said that the good will toward 
America was upwards about 85 percent. And of course, we were 
laughing, depending on the turnout in the election, that it 
might go to 99.9 percent.
    But all over Africa, you give credit where credit is due to 
the President with his PEPFAR program, the fact that we have 
now tripled it in the Senate, for not only that, but malaria 
and AIDS. The fact that in Zanzibar this coming year they 
expect malaria to be zero. These are some incredible things, 
and since the United States is, in fact, initiating a lot of 
this, that good will is being extended there.
    Of course, the very emotional experience that we have seen 
how President Kagame in Rwanda over the course of 14 years--14 
years ago, April 6, 1994--when as general of the rebel army 
that he enters the capital city and sees the city strewn with 
corpses, with dogs eating their flesh, and how he held that 
army together with discipline so that they would not all go 
out, as some of them individually did, taking retribution into 
their own hands, but that he could work with reconciliation 
after that slaughter of a million within a 100-day period of 
the Tutsis. That right there is just a wonderful story of 
reconciliation and healing that the whole world would do well 
to understand.
    So, Ambassador Symington, you, along with the others, are 
all professionals, career service. You go to a very important 
part of the world for them and for us.
    Now, it is going to be interesting to see, as we take the 
first little, timid steps into this Africa Command, how that 
works, but it has a great deal of promise. We are already 
seeing it happening in South America in Southern Command 
because the commander, Admiral Stavridis, is not only a 
warrior, he is a diplomat. So too as we set up in Africa, the 
military can do a lot of things that other agencies cannot, but 
the military has got to be in the proper place reaching out 
with coequals, with State, with USAID, with Agriculture, with 
Health, and on down the line. And that is going to be a very 
important part.
    I will just conclude by saying that I am seeing in just a 
few minutes General Zinni. He was the commanding general of 
Central Command some 10-12 years ago, but he was very visionary 
because he said in third world countries, the United States 
military has got to take exactly this kind of approach if we 
are going to be successful.
    So you all are on the front lines. Thank you for your 
public service, and thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Nelson. I can confirm, 
having served on this subcommittee for 16 years, this is the 
highest level overall of senatorial interest in Africa that I 
have witnessed. The subcommittee is used to being a little 
lonelier. And it is a very good sign, and it is bipartisan. So 
this is a good sign. I appreciate Senator Nelson's very strong 
interest in Africa and his demonstrated willingness to make the 
trips there and make the contacts. It is very helpful.
    Let me return to Mr. Eastham on the oil issue. Earlier this 
year, the Republic of Congo was accepted as a candidate country 
for the Extractive Industries Transparency Initiative. What 
does EITI implementation consist of, and how can the United 
States best contribute to that process?
    Ambassador Eastham. It is important to note, Senator, that 
EITI is a voluntary scheme of transparency and accountability. 
The Republic of Congo has just begun its implementation of the 
scheme. They have set up the committee that is going to 
implement the requirements for joining. They are at present a 
candidate country for EITI.
    I do not think that very much progress has been made in 
actually producing the documentation and the procedures that 
will have to be followed.
    I think that, in the first instance, their voluntary 
submission to the process, which has been going on for a couple 
of years now, is an important indication of their willingness 
to be more transparent in the publication of the actual revenue 
side.
    It is also important to note that it does not address the 
budget side. What happens to those revenues, once they come 
into the government treasury or the government coffers, is not 
addressed by EITI.
    I have met with the folks in the State Department who are 
charged with monitoring EITI, and they have noted to me that as 
a candidate country, Congo has nearly 2 years to complete the 
process. So there is a deadline out in early 2010 by which this 
must be completed or they will no longer be a candidate.
    I am hopeful that when I get there, if confirmed, that I 
will be able to push this along. I noted earlier that I think 
that this issue of accountability is going to cut across 
everything I do in Congo, accountability on the oil revenue 
side in the first place, but also accountability on the 
expenditure side, as well.
    I would note that at my present post, the Malawians were 
fortunate enough to be able to qualify for Millennium Challenge 
threshold funding, and one of my major jobs in Malawi has been 
overseeing a program that did a great deal to improve their 
ability to monitor their revenues and expenditures within the 
government side in the interest of transparency and in the 
interest of accountability on the government side. We do not 
have that kind of resources available for Congo, but I hope to 
use our diplomatic tools to be able to push that forward.
    It seems to me that accountability is an issue that gets in 
the way of just about everything that you want to do that is 
right in Congo and the EITI is one part of the piece.
    Senator Feingold. Thank you, Mr. Eastham.
    Mr. Swan, as I mentioned in my opening remarks, Djibouti is 
a small country in a rough neighborhood. If confirmed, how do 
you envision your role in the wider region? How do you intend 
to coordinate with other ambassadors and actors in the region 
to work toward peace and stability?
    Mr. Swan. Thank you, Senator.
    Yes, indeed, Djibouti's role historically on the Horn of 
Africa has been as this small place of stability in what you 
aptly term a rough neighborhood, to the north, Eritrea; to the 
west, Ethiopia; to the south, Somalia and Somaliland. And just 
18 miles across the Gulf of Aden is Yemen. So it has in many 
ways defined its national mission as being that pocket of 
stability in the turbulent neighborhood.
    And Djibouti has played a helpful role in terms of seeking 
to promote stability in the region in the past. It is the 
headquarters of the international organization for drought and 
development in the Horn of Africa. It is a member country of 
the League of Arab States. It recently played host to an 
important piece, negotiation, between the transitional federal 
government in Somalia and the opposition alliance for the 
reliberation of Somalia, and while not directly involved in the 
talks, which were led by the U.N., the Special Representative 
of the Secretary-General, nonetheless, Djibouti played an 
important role as a neutral venue for these discussions to take 
place.
    In terms of coordination with other missions in the region, 
if confirmed, Senator, I would obviously maintain regular 
contact, frequent contact with the other chiefs of mission on 
the Horn of Africa and in Yemen through sort of day-to-day e-
mails, telephone calls, and other efforts to stay in constant 
contact.
    Second, there are some institutional means already in place 
in terms of ensuring regular contact. Under the rubric of our 
counterterrorism efforts, there are twice yearly meetings of 
the East Africa Regional Security Initiative, with a particular 
focus on counterterrorism. At the annual chiefs of mission 
conference, there is typically a session devoted explicitly to 
Horn of Africa issues as a means of institutionalizing this 
coordination. And then clearly, sir, I would, of course, have 
to take reference regularly from the State Department in 
Washington and the interagency here in Washington in terms of 
the overall direction of our policy with respect to the Horn of 
Africa.
    Senator Feingold. As you mentioned in your testimony, 
Djibouti and Eritrea have been engaged in border skirmishes 
over recent months at the mouth of the Red Sea. What progress 
has been made to mitigate these tensions, and what role could 
the United States play in resolving this kind of border 
dispute?
    Mr. Swan. Certainly, sir. The dispute really arose as a 
consequence of an Eritrean incursion across the border into 
Djibouti. It is a remote area in the north of Djibouti, the 
south of Eritrea with no physical demarcation of the boundary, 
but with an agreement that the ridge line between the two 
countries constituted the border. And Eritrean forces moved 
across that ridge line in April and took up positions. There 
was, indeed, exchange of fire between the two sides, most 
recently in June, but there has not been further exchange of 
fire between the two sides since June.
    In response to this situation, the United States played 
really a leading role in terms of bringing this matter to the 
attention of the U.N. Security Council, which issued a very 
strong presidential statement, and then followed up with a 
determination to send an official of the U.N. Department of 
Peacekeeping--I am sorry--of Political Affairs to meet with the 
two sides and seek a way forward in terms of resolving this 
peacefully.
    I think the challenge, sir, is going to be, once again, 
obtaining Eritrean support for a solution. The Eritreans 
rejected earlier initiatives by the League of Arab States, by 
the African Union, and by some bilateral partners to try to 
achieve a negotiated settlement. I think, unfortunately, this 
is an example once again of Eritrea playing an unhelpful role 
as a spoiler in the region. If confirmed, however, I would 
obviously continue to support international efforts to resolve 
this peacefully and return to the status quo ante on the 
border.
    Senator Feingold. Thank you, Mr. Swan.
    Senator Isakson.
    Senator Isakson. Well, thank you, Mr. Chairman.
    One, as a hometown boy, I have to say this to all of you. 
CDC is headquartered in Atlanta, GA and they have a significant 
number of people on the ground in Africa and have had, even 
before PEPFAR, working on the African AIDS problem. I know you 
will be in Addis Ababa, Mr. Simon. They have a significant 
group there, as well as probably in each of the other 
countries, or near them. So any support you can give Dr. 
Gerberding and always look out for the CDC people, I would 
appreciate.
    My one question remaining. It really is for Mr. Simon. I 
appreciated the fact that you remarked on the progress of the 
African Union, but also the significant challenges, 
particularly Zimbabwe, Somalia, and the Sudan.
    And in particular, I have grave concerns over the Darfur 
issue. I know the African Union is managing or has been 
selected to be the group to try and go in there and end the 
killing, but I also know there has been a short supply of 
things like helicopters and other equipment that are absolutely 
necessary. I know some of our other world powers are not as 
interested in Darfur becoming a safe, civilized place again, 
but I am and I think every Member of this United States Senate 
is.
    As the representative to the African Union, it would seem 
to me that Darfur would have to be mission one or certainly on 
the priority list, so I would appreciate your discussing what 
you know about the situation as far as the African Union and 
Darfur and what progress they are making, and also if you will 
be a source for us to know what we need to do as a country to 
help facilitate that becoming a reality rather than just a 
hope.
    Mr. Simon. Thank you, Mr. Senator.
    Darfur is clearly going to be a priority not only of this 
mission, the United States mission to the African Union, but is 
a priority obviously of Congress and of the President.
    The African Union has had troops on the ground in Darfur 
since 2004. They went in early. They are the core of the 11,000 
U.N. personnel there under UNAMID, and 10,000 of those 
personnel come from the African Union. And they are in harm's 
way and recently they have been taking casualties. So the 
African Union has played a very important and very constructive 
role in Darfur in terms of trying to create an environment for 
peace and security.
    The African Union has said--and we believe as well--that 
there needs to be a strong U.N. presence to supplement what 
they are doing, and that is why we argued strongly for a dual-
hatting of the mission in Darfur with U.N. support, as well as 
AU support.
    Also, the size of the force needs to be more than the 
11,000 that exist today, as high as 26,000. And critical to 
getting the forces up to that level is both increasing the 
number of troop-contributing countries and the Government in 
Khartoum allowing countries that are non-Africans to provide 
troops to the forces that exist there on the ground. There has 
been some progress on that latter point recently. Khartoum has 
allowed Nepalese and Thai troops to join the UNAMID forces in 
Darfur.
    And then the other major challenge that the African Union 
faces is having its troops, as you mentioned, Senator, brought 
up to the standards of the U.N. and of the U.N. peacekeeping 
mission. In that regard, the United States has spent $450 
million, increasing the capacity and the equipment of the 
African Union forces in Darfur that are part of UNAMID.
    If confirmed as ambassador, I will continue to work to 
ensure that the African Union forces get the resources they 
need to meet the standards of the United Nations and of UNAMID 
and work to increase pressure within the African Union for the 
Government in Khartoum to allow more troop-contributing 
countries that are non-African to add the necessary forces to 
reach the 26,000 number that was approved by the United 
Nations.
    Senator Isakson. Well, I think that is important. I cannot 
remember his name. I think it was the White House liaison to 
Darfur. He testified before our Foreign Relations Committee and 
talked about--Williamson, yes--they still have problems with 
security for the convoys of humanitarian aid going into Darfur. 
If they cannot even protect those convoys going in, then it 
seems to me that any hope of that bringing us some resolution 
is unlikely. Anything we can do to help be a constructive 
player in supporting getting to the 26,000 and encouraging 
anybody in the U.N. that is maybe reluctant to do so, I would 
appreciate your information on what we can do as the United 
States Senate to raise the visibility of that issue here.
    Mr. Simon. As you asked, Senator, if confirmed, I will be 
conveying information to you on where the challenges stand in 
reaching that 26,000 number.
    Senator Isakson. Thank you.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Mr. Simon, in addition to Darfur, you mentioned in your 
testimony, or we did, problems with Zimbabwe and President 
Mugabe. Now, at least the press accounts following the African 
Union meeting were that President Mugabe got a free ride out of 
the situation. In other words, he defied the other people 
sitting around the table of the African Union on the basis 
perhaps that some of you gentlemen got to where you are 
likewise through either strengthened methods that were not 
necessarily democratic and who are you to be criticizing me on 
that basis--and sort of stood them down.
    Not only that, but there are inferences in the press that 
the United Nations, in terms of its activity, was somewhat 
stymied by the fact that some leaders in Russia and China also 
were reticent to get involved in discussions of democracy and 
the purity of the election methods in Zimbabwe and did not 
necessarily give a free pass, providing some criticism perhaps, 
but nothing stronger than that.
    I raise that because that was then. This is now. On the 
front pages of national papers today, you see four people 
seated, including the two major candidates for the presidency, 
and apparently they are visiting about life and the times and 
the future.
    Can you give us some idea of what progress the African 
Union may have brought about in this, or is this entirely an 
internal negotiation within Zimbabwe without reference to the 
neighbors?
    Mr. Simon. Thank you, Senator.
    The situation in Zimbabwe, obviously, is very dynamic and 
changing very quickly.
    Where we stand today is there has been an MOU signed 
between the ZANU-PF and the Movement for Democratic Change, the 
opposition, although by rights perhaps it should not be the 
opposition. That MOU is basically a process for starting 
negotiations. It is really not much more than that. It does 
include an expanded role for the African Union as part of an 
expanded mediation group, and from our perspective, that is a 
positive development. However, there are a lot of open 
questions about how this MOU and this process will go forward.
    From our perspective, our focus is on the outcome, and the 
outcome must be a Zimbabwe Government that is representative of 
the will of the people of Zimbabwe that will stop the 
intimidation and the killing and the long suffering of the 
people of Zimbabwe and lay the foundation for the prosperity 
that that country so rich in human and natural resources should 
be able to enjoy. That is the outcome that we as a government 
are focused on. And if confirmed as an ambassador, that is the 
outcome that I will try and focus the African Union on.
    The African Union has within its charter embedded the 
principles of democratic governance and, like I said, the 
principle of nonindifference, and it is by stressing those 
principles that we need to focus the African Union on achieving 
an outcome that truly represents the will of the Zimbabwean 
people.
    Senator Lugar. Well, I appreciate that last comment that 
there is some progress--the African Union is there and there is 
this pledge to work toward democratic solutions--to recognize 
that is important. I suppose some could say in the past, prior 
to the African Union's intervention in all these affairs, that 
this was the way the world works. The Zimbabwe election and 
various others might have gone without further ado.
    But the promise of the African Union is I think what you 
have stated. There is at least a principle there that hopefully 
nations are struggling to fulfill, and our role in that and 
your role as ambassador from the United States can be a very 
important one in trying to refine this, give support to it. So 
we wish you well on that mission because your work is cut out 
for you there.
    Mr. Simon. Senator, I would note that there are many voices 
within the African Union that have been very public about their 
condemnation of the current situation in Zimbabwe, including 
the Pan-African Parliament, which is an organ of the African 
Union, including the observer mission that the African Union 
went to observe the runoff which commented that the standards 
of the runoff did not meet the standards of the African Union, 
and including, of course, several African leaders who have been 
very vocal about their concern about the situation in Zimbabwe. 
I think, if confirmed as ambassador, my role will be to try and 
encourage those voices to be the voices that are heard and to 
ultimately be the voices upon which action is taken.
    Senator Lugar. Well, thank you for recognizing those 
voices, and really credit should be paid to those persons who 
were with the observers and others who assisted them. Thank 
you.
    Senator Feingold. Thank you, Senator Lugar.
    We will begin a third round.
    This is for Mr. Swan again. According to the State 
Department's country reports on human rights practices for 
2007, women in Djibouti face specific challenges, including 
domestic violence, prostitution, and female genital mutilation. 
What measures, if any, have been taken by the Djiboutian 
Government to combat these problems and protect women's rights? 
If you are confirmed, how will you draw attention and U.S. 
resources to this area?
    Mr. Swan. Senator, for a variety of cultural and historical 
reasons, the status of women has been low in Djibouti, 
historically. I think we have seen some movement on this front 
in recent years, however, including in terms of their political 
participation. There are seven women in the 65-seat parliament, 
for example. There are two women in the cabinet. The President 
of the Supreme Court is a woman. So I think we are beginning to 
see more positive movement at this point in terms of the role 
of women.
    You drew attention to a very important continued challenge, 
Senator, and that is female genital mutilation, which 
regrettably is practiced on an estimated 98 percent of the 
female population, including frequently some of the most severe 
forms, the so-called infibulation.
    The Djiboutian Government has adopted legislation that, 
indeed, outlaws that practice. That legislation is on the 
books, although my understanding is that, as yet, there have 
not been any convictions in regard to that. But I think it is 
testimony to the increased awareness on the part of Djiboutian 
authorities of these challenges and of the need to respond.
    If confirmed, Senator, this would certainly be an important 
priority as well for me and for the team at the embassy in 
terms of continuing efforts to raise awareness of these issues 
and to seek change and government follow-up in terms of taking 
action.
    Senator Feingold. Thank you for that answer, Mr. Swan.
    Mr. Simon, if you are confirmed, this would be your first 
diplomatic post in Africa as well as at a multilateral 
institution. What do you think qualifies you for this posting, 
and how will you apply your previous experiences to the 
challenges of the African Union?
    Mr. Simon. Thank you, Senator.
    It is a question that I have asked myself many times when 
the suggestion first arose that I be nominated to this 
position.
    For the last 6 years, I have worked on development and 
international issues and have worked in multilateral fora, 
whether that is involvement in the G-8 conferences, the G-8 
summits, both Gleneagles and the Sea Island Summit that we had 
here in the great State of Georgia, whether it was working with 
the U.N. finance for development process, or whether it has 
been working with the international financial institutions here 
in Washington.
    As part of those efforts, I have been heavily focused on 
development in Africa. That was the focus of our work in 
Scotland for the Gleneagles Summit. That has been the focus of 
much of the President's development agenda over the past 6 
years. And as part of that work, I have worked closely, whether 
it was at the United States Agency for International 
Development, whether it was at the National Security Council, 
or whether it was in my current position at the Overseas 
Private Investment Corporation with the other agencies involved 
in development in the United States Government.
    Almost all of the initiatives that I referenced in my 
testimony are multiagency initiatives that involved several 
different parts of the U.S. Government working together to 
accomplish a positive result. And I think the result that we 
have achieved on the African continent, through things like the 
President's Emergency Plan for AIDS Relief or the President's 
Malaria Initiative or the Millennium Challenge Account, really 
indicates how that type of work can credit both the United 
States and the Americans who are helping to fund it and help 
the Africans themselves and help the Africans realize the 
opportunity that the current era presents for them.
    If confirmed at the African Union, I would see a major 
focus of my efforts being to marshal all of the resources that 
the United States Government has and has committed to the 
continent together to help build the capacity of the African 
Union and help it truly achieve its goals which are very 
closely aligned to our goals for the continent of Africa.
    Senator Feingold. I am pleased to hear about the range of 
Africa issues you have worked on over the last 6 years, but I 
do have to note a lack of specific peacekeeping or security-
related experience, both of which are a priority for the 
African Union right now. Please describe the tools and the 
expertise you would bring to the table when you are working on 
these kinds of issues.
    Mr. Simon. As Senior Director for Relief Stabilization and 
Development, the Director for Stabilization reported to me. So 
the Director for Stabilization on the National Security Council 
was the official of the National Security Council in charge of 
peacekeeping issues and basically everything that he did was 
something that I was apprised of and kept in the loop.
    Now, I happen to have an excellent Director for 
Stabilization, Clint Williamson, who is now the U.S. Ambassador 
for War Crimes. And so I can honestly say that my involvement 
in that was less than maybe some of these other issues because 
he was so good. But I was involved in all of the initiatives in 
that area that we engaged in, including the Global Peacekeeping 
Operations Initiative, including the SCRS, the conflict and 
reconstruction coordinator's position that was created at the 
State Department, and including the creation of a civilian 
reserve.
    Part of what we recognized in putting the Director for 
Stabilization or part of what Steve Hadley, the National 
Security Adviser, recognized in putting the Director for 
Stabilization in the Relief Stabilization and Development 
Directorate instead of in the Defense Directorate was that 
ultimately stabilization is not purely a military matter. 
Ultimately it is a matter that must involve the military 
working together with the civilian agencies to create an 
environment for economic growth and prosperity to basically win 
the confidence of the people that putting down their weapons 
and picking up their plowshares and picking up their computers 
and picking up the other elements of economic growth can 
ultimately lead to a better result for them and their families 
than continued conflict and continued trying to play the zero 
sum game of getting more of what other people have.
    So like I say, peacekeeping was always something that was 
part of what I did at the National Security Council even though 
my personal focus was largely on many of the economic issues.
    Senator Feingold. Thank you.
    And finally, Mr. Simon, in the realm of counterterrorism, 
what are the African Union's chief concerns, and to what extent 
do the United States and the AU engage in counterterrorism 
cooperation?
    Mr. Simon. The AU has a small counterterrorism cell in 
Algiers and it is only now being built up. The capacity there 
clearly could be enhanced, and if confirmed as U.S. Ambassador 
to the African Union, that is certainly an issue that I would 
take on.
    However, the United States itself has several 
counterterrorism initiatives throughout the continent, 
including the counterterrorism program, including the East 
African security program that Mr. Swan mentioned. And part of 
the role that the U.S. Ambassador to the African Union should 
play, and if confirmed, part of the role that I would play, 
would be to connect the AU to these other initiatives so that 
the whole is greater than the sum of its parts. And that would 
be a major role that I would look to play, and frankly, I would 
hope that the AU itself would look to find ways that it could 
increase its capacity by working with the other initiatives 
that exist on the continent.
    Senator Feingold. Thank you, sir.
    Senator Isakson.
    Senator Isakson. Mr. Chairman, I do not have any more 
questions. I just want to end by thanking the families of these 
four gentlemen for all the support they give to them to allow 
them to do a very important job for a great country. Thank you 
for what you do.
    Thank you, Mr. Chairman.
    Senator Feingold. Thank you, Senator Isakson.
    Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman. I join my 
colleague, Senator Isakson, in thanking not only the nominees 
for your service but the families, and their presence today is 
very meaningful I think to all of us. But I appreciate your 
responses and we look forward to supporting each one of you.
    Senator Feingold. I thank my colleagues especially, but I 
thank all the nominees for your patience. It was a longer 
hearing, but I think it is a good sign. It is a sign of great 
interest in these matters and great hope that, should you be 
confirmed, things go well for you and for our country as you 
represent us. Thank you very much. And we will do what we can, 
as we are doing today, to try to expedite these nominations.
    That concludes the hearing.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Responses of John Simon to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in facing the African Union (AU)? What are the steps you expect 
to take, if confirmed, to promote human rights and democracy among 
members of the AU and within the body as an institution? What do you 
hope to accomplish through these actions?

    Answer. The African Union faces a wide array of human rights 
challenges, including advancing peace and security and protecting basic 
human rights in Darfur, Somalia, Eastern Congo, and other parts of 
Africa where there is insecurity and instability. The AU also faces the 
daunting challenge of fighting poverty and disease while creating 
economic opportunities, which will help Africa's poorest develop the 
educated and middle class constituencies that are the strongest local 
advocates of human rights.
    These challenges require institution and capacity building at the 
AU and education and support for dialog between government and 
opposition as well as greater participation by civil society groups.
    If confirmed, I will devote my energy and focus to work with the 
commissioners of the African Union and the member states to better 
understand their needs and how the United States, in partnership with 
international institutions and other interested parties, can mobilize 
the resources and expertise necessary to help the AU take a leadership 
role on the continent in addressing these issues.
    In this context, it is clear that as a strong partner of the 
African Union, we can and must work together to promote peace and 
security, a fundamental priority if we are to advance human rights and 
democracy on the continent. The AU and the United States stand together 
in support of the AMISOM troops in Somalia and the need for a greater 
international response to stabilize the conflict there and advance 
reconciliation. We are in strong partnership in support of forces in 
Darfur. Further, we are working together to promote political 
reconciliation and respect for human rights and democracy in Zimbabwe. 
If confirmed, I will work to maintain and strengthen cooperation with 
the AU in these critical areas.
    To further promote human rights and democracy within the AU, the 
USAU must also expand its engagement with the Commission for Political 
Affairs, the Commission for Social Affairs, and the Division for Women 
and Gender, among others. If confirmed, I will work through the AU 
permanent representatives to express the United States interest in the 
signature and ratification of the Charter on Democracy, Governance, and 
Elections and support United States Government efforts to request 
observer status to the African Commission on Human and Peoples' Rights 
(ACHPR). As an observer, the United States will be able to both 
highlight issues of concern with and express support for the ACHPR in 
the African Union's plenary sessions.
    Through a very coordinated and cooperative relationship with the 
AU, member states, and donors, I believe we can accomplish greater 
dialog among diverse groups, between government and opposition, civil 
society and bureaucrats, and transparency, which will allow all people 
to be a part of process that creates more open, free, and democratic 
states. We must work with the AU to ensure the continent's people have 
the opportunities for democracy and human rights promised in the AU 
charter. If confirmed, I will work to see that opportunities are 
created, but more importantly, support the ability of African States to 
advance human rights and democracy.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in advancing human 
rights and democracy, in general?

    Answer. The obstacles include the persistence of conflicts that 
plague parts of Africa from Somalia to Sudan to Cote d'Ivoire, the 
resistance of a minority of leaders in Africa, like Mugabe in Zimbabwe 
and Bashir in Sudan, and inaction of the international community to 
some of the pressing stabilization needs on the continent. Some leaders 
have argued, as President Isaias in Eritrea, that you cannot have 
democracy without economic advancement. I submit that we can have both 
and must do both. Democracy feeds the soul while economic advancement 
meets the needs of the people. The success of Liberia, Burundi, and 
other countries underscore that we can resolve conflict in the current 
environment in Africa. Mauritius' political maturity underscores that 
people can have a voice in the affairs of their government.
    Our challenge is to build on these successes. This requires 
building political will within the AU for just and sustainable 
settlements of current conflicts, capacity within the AU to implement 
such settlements, and international support to provide the necessary 
assistance to the AU. It will not be easy, but if confirmed, I will 
work with our partners in Africa, and those interested in Africa, to 
forge the commitment required to make a difference.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. As an official at the United States Agency for 
International Development and the National Security Council, I helped 
design the selection criteria for the Millennium Challenge Account, 
which emphasized the importance of democracy and political and human 
rights in its ``ruling justly'' category. These criteria have proven a 
powerful incentive for democracy and good governance in Africa, as 
documented in academic statistical studies and by particular cases. For 
instance, in 2006, the prospect of an MCC Compact helped ensure free 
and fair election in the Republic of Benin.
    As Senior Director for Relief, Stabilization, and Development at 
the National Security Council in 2005, I helped secure funding and 
support for the Women's Justice and Empowerment Initiative, a 
Presidential initiative launched prior to the G-8 Summit at Gleneagles 
that works with African partners to strengthen the capacity of local 
justice systems to protect women from sexual violence and abuse and 
punish perpetrators, as well as provide victims access to shelter, 
counseling, and healthcare. The initiative is now active in four 
countries--Benin, Kenya, South Africa, and Zambia.
    More generally, over the past 6 years, I have been integral to a 
series of development initiatives, including the President's Emergency 
Plan for AIDS Relief, the President's Malaria Initiative, the 
Multilateral Debt Relief Initiative, the African Financial Sector 
Initiative, and post-conflict reconstruction in Liberia. By increasing 
the health and welfare of Africa's people and the opportunities for 
employment and economic growth, these efforts reinforce the positive 
trends occurring on the continent in the realm of democracy and human 
rights.
    If confirmed, I will continue to emphasize democracy and human 
rights as a fundamental pillar of United States engagement with African 
Governments, leaders, and people. I will also encourage investment to 
create economic opportunity to provide jobs that are sustainable and 
enable people to invest in their own futures. Addressing economic 
development is a critical component in promoting human rights and 
democracy.

    Question. Peacekeeping is one of the foremost functions of the AU 
at this time. What are the key limiting factors on the effectiveness of 
AU peacekeeping operations? What are the strengths of previous or 
ongoing operations? If confirmed as ambassador, how would you seek to 
enhance these capabilities?

    Answer. The African Union has taken the lead role in several 
critical peacekeeping missions across the continent despite suffering 
from a number of deficiencies in this area. The United States, through 
the Africa Contingency Operations Training and Assistance (ACOTA) 
program, has helped equip and train AU peacekeeping troops with great 
effectiveness in places like Burundi and Congo.
    Yet challenges remain on sustainability, including paying and 
supporting troops in the field, mission planning and financial 
management, and attracting additional troop contributing countries to 
the current AU missions on the continent. More importantly, the AU 
needs to secure international financial and political support for the 
missions it currently has in the field, including the AU mission in 
Somalia (AMISOM) and the AU contribution to the UN-AU mission in Darfur 
(UNAMID).
    The AU has proven that, with sufficient donor assistance, it can 
respond to conflicts on the continent when the U.N. is either unwilling 
or unable to act. In several instances, including Burundi, Comoros, 
Darfur, and Somalia, the AU has led the way when the U.N. was unable to 
react to a crisis, whether because of its own deliberative process or 
because of restrictions levied by host governments. Yet the AU cannot 
and should not bear the full burden of long-term, complex missions on 
its own.
    As ambassador, I will, if confirmed, build on our engagement with 
the AU through ACOTA to encourage the AU to work with the United 
States, U.N. and other key donors to enhance its capacities at the 
headquarters level, particularly in the areas of financial management, 
human resources and mission planning. I will also seek to ensure that 
our ongoing capacity-building efforts continue, and that we pursue new 
opportunities for collaboration with the AU. In particular, I will, if 
confirmed, work with the U.S. mission at the U.N. and U.S. ambassadors 
to our allies to get the AMISOM and UNAMID the international assistance 
they need.
    Currently, the United States is supporting the Strategic Planning 
and Management Unit (SPMU) of the AU by providing funding for equipment 
and a logistics advisor through the Global Peace Operations Initiative 
(GPOI). The United States is also providing peacekeeping equipment, 
training, and logistics support to the African Union mission in Somalia 
(AMISOM). The United States is supporting long term efforts to build 
the capacity of the African Standby Force (ASF) through the bilateral 
and multilateral peacekeeping training activities of ACOTA program, as 
well as support for subregional components of the ASF like the Economic 
Community of West African States (ECOWAS) Standby Force (ESF).
                                 ______
                                 

        Responses of W. Stuart Symington to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Rwanda? What are the steps you expect to take, if confirmed, 
to promote human rights and democracy in Rwanda? What do you hope to 
accomplish through these actions?

    Answer. While making admirable advances over the last decade in 
economic development and making significant progress in the 
adjudication of an enormous backlog of genocide cases, Rwanda continues 
to face challenges regarding reconciliation, human rights, and 
democratization as it continues its efforts to rebuild a society torn 
asunder by ethnic hatred, war, and genocide. The 2007 Human Rights 
Report cites the Government of Rwanda's demonstrable efforts to address 
human rights, however significant human rights abuses occurred. 
Principal human rights problems include restrictions on citizens' right 
to change their government peacefully and freely; the security forces' 
use of extrajudicial killings, torture, and arbitrary arrest and 
detention; lack of judicial independence; harsh prison and detention 
center conditions; prolonged pretrial detention; limits on freedom of 
expression and association; limits on freedom of press; and limits on 
civil society.
    If confirmed, I will engage at every level in Rwanda to help them 
strengthen democratic institutions and to advance transparency and 
respect for human rights. Leading up to the September Parliamentary 
elections and 2011 Presidential elections, I will support efforts by 
Rwandans to improve platform development and increase the channels of 
communication open to all parties. Our key goals are to work together 
to open political space, increase civil liberties, and to strengthen 
the judiciary. The newly approved $24.73 MCC Threshold Country Plan 
will also be a key area for engagement. It will supplement other United 
States Government programs to address problems in the justice sector by 
seeking to strengthen democratic governance, build the capacity of 
civil society organizations, and advancing press freedom.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues that you have identified as 
most pressing?

    Answer. Improving respect for human rights in Rwanda is an 
essential part of reconciliation and a key element needed for Rwandans 
to succeed in efforts to unite as a people and make progress for the 
future. Passions generated by the decades of misrule by previous 
governments have not disappeared; overcoming this difficult legacy of 
mistrust and violence is the work of generations. Rwanda's main 
obstacle in this period of reconciliation is to address the issues of 
governance and ensure that justice is not perceived as one-sided. 
Dealing with the sheer magnitude of the issues the country faces causes 
people to look at human rights through the prism of recent and awful 
ethnic division. It is essential in the pursuit of human rights in 
Rwanda, and in its pursuit for unity and prosperity, that the country 
be seen by its own people to provide equal justice under law applicable 
to all.

    Question. In response to a question before your confirmation as 
Ambassador to Djibouti, you described how you have worked to advance 
human rights in the Sahel and Latin America. How has your experience as 
chief of mission further shaped your perspective on this issue? 
Specifically, how were you able to elevate the importance of human 
rights issues in the United States relationship with the Djiboutian 
Government and to engage with civil society and other groups to promote 
increased respect for human rights?

    Answer. While I was Ambassador to Djibouti, embassy staff and I 
regularly engaged the Government of Djibouti, NGOs, and the private 
sector on human rights issues--through both public and private efforts. 
The embassy organized and hosted events to improve women's 
participation in and understanding of the political process. We brought 
members of the opposition party together with members of the ruling 
coalition party to address improvements in the electoral process. We 
engaged with police prosecutors and others on trafficking in persons, 
supporting Djibouti's successful efforts to draft and enact new 
antitrafficking laws.
    As chief of mission in Djibouti, I have seen that significant and 
lasting improvement in human rights is tied to working in partnership 
at all levels with host government officials, private sector leaders, 
and civil society. This is needed to ensure that all progress in the 
promotion of human rights is effective and sustainable.

    Question. Rwanda held its first local elections in over 30 years in 
March 2001 and Presidential and Parliamentary elections in 2003. What 
is your assessment of the state of democracy in Rwanda? Do you consider 
Rwanda to be tolerant of dissent and democratic? Please describe the 
state of freedom of the press in Rwanda. If confirmed as ambassador, 
how would you see your role to help foster such freedoms?

    Answer. The people and the Government of Rwanda have made 
democratic advances since the 1994 genocide, though Rwanda has much 
work to do before it can achieve democracy. Over the last decade, they 
have made notable progress, including a constitution which prohibits 
discrimination based on gender, ethnicity, or creed; laws in place 
which prohibit torture; a decrease in the prison population; and the 
application of criminal penalties for corruption. Rwanda has advanced 
reconciliation and made progress meting out justice. While it has 
accomplished much, it continues to face enormous challenges. It 
continues to encounter obstacles in finding the right balance between 
the need to maintain internal stability and the requirement to instill 
fundamental democratic values including respect for a free and 
independent press. While the constitution provides for freedom of the 
press, press freedom in Rwanda remains limited, due in part to the 
active role of domestic media organs in the genocide and the resulting 
mistrust of the media by the government.
    If confirmed, I hope to help the Rwandan's achieve progress toward 
a democratic system that they see as representative of and responsive 
to the wishes and hopes of all Rwandans. I think that continued 
progress toward this goal is both right and essential to underpin 
progress on the economic front. It will permit Rwandans to unite to 
achieve a shared vision for a more stable and prosperous future.

    Question. The United States has played an important role in helping 
to create the possibility of greater peace and stability in the region 
through the Tripartite Plus process. If confirmed as ambassador, how 
would you seek to build on this progress?

    Answer. Significant progress has been made since the Tripartite 
Plus' inception. To highlight the priority for peace in the Great 
Lakes, Secretary Rice chaired the Tripartite Plus Heads of State 
meeting in Addis in 2007. Inside of this mechanism, member countries 
agreed to continue military and political pressure on the FDLR, the 
former Rwandan genocidaire rebel group now based in DRC, and to ensure 
that the FDLR fulfills its commitment to disarm and repatriate to 
Rwanda. Tripartite members also agreed to advance diplomatic relations 
and establish mechanisms for safe and voluntary refugee return. In 
concert with the international community and UNHCR, these initiatives 
are taking shape.
    If confirmed as ambassador to Rwanda, I will encourage and 
facilitate Rwanda's full participation in the Tripartite. This 
facilitation will include diplomacy in Kigali with European Union, 
United Kingdom, French, Belgian, and MONUC representatives for 
implementation of international sanctions imposed on the FDLR and 
participation in the Joint Monitoring Group, established as the 
monitoring mechanism for the Nairobi Communique between the Government 
of Rwanda and the Government of the DRC. Such tangible acts and 
confidence-building mechanisms will keep Tripartite members, especially 
Rwanda, engaged in building peace through their own initiatives with 
the support of the international community.
                                 ______
                                 

            Responses of John Simon to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. What is your assessment of the performance of African 
Union peacekeeping missions including in Sudan and Somalia? What are 
the principal challenges the African Union faces in this regard?

    Answer. African Union troops are performing with commitment to duty 
and dedicated service, particularly in Sudan and Somalia. There, troops 
are facing extraordinary challenges. In Somalia, over 2,500 troops from 
Uganda and Burundi serve under harsh conditions. Troop levels remain 
far below what is necessary to maintain peace in this volatile region. 
Financing, logistical support for supplies and equipment, and force 
protection issues pose the greatest challenges to AMISOM's objectives. 
The lack of troops, armored vehicles, and air assets makes it 
impossible for the AMISOM force to patrol and secure Mogadishu as well 
as monitor and secure areas outside Mogadishu, particularly in the 
highly dangerous lower Juba region where extremists, such as al-Shabaab 
operate. A political solution is key to enhancing stability. The recent 
Djibouti peace accord offers renewed hope for a framework to promote 
peace. The negative influence of Eritrea as well as threat from 
extremism from outside Somalia complicate the challenges facing the 
African Union in stabilizing Somalia.
    In Sudan, the killing of seven UNAMID peacekeepers, including five 
from Rwanda, underscores the deadly situation the troops operate under. 
Challenges include the need for a political solution to resolve the 
instability, including the Sudanese Government engagement of the south 
in implementing the Comprehensive Peace Agreement. The slow rate of 
deployment of additional forces and the lack of air and heavy transport 
assets makes it difficult to monitor the region and support UNAMID 
operations.

    Question. What steps should the United States take to help the 
African Union build its capacity and resource base to carry out PKO 
missions?

    Answer. The United States, as an observer mission, can play a 
crucial role mediating and facilitating coordination and cooperation 
among the donor community in providing resources to help the African 
Union build capacity and secure resources for its operations. The 
United States provides limited funding to the African Union, but this 
can be targeted at critical gaps and supplemented through the help of 
other donors for projects and programs of importance to the African 
Union. This includes enhancing its capacities at the headquarters 
level, particularly in the areas of financial management, human 
resources, and mission planning.
    Currently, the United States is supporting the Strategic Planning 
and Management Unit (SPMU) of the African Union with funding for 
equipment and an ``in-kind'' logistics advisor through the Global Peace 
Operations Initiative (GPOI). The United States also is providing 
peacekeeping equipment, training, and logistics support to the African 
Union Mission in Somalia (AMISOM). In addition, we are helping long-
term efforts to build the capacity of the African Standby Force (ASF) 
through the bilateral and multilateral peacekeeping training activities 
of ACOTA program. We also support subregional components of the ASF 
like the Economic Community of West African States (ECOWAS) Standby 
Force (ESF).
    If confirmed, I will seek to ensure that our ongoing capacity-
building efforts continue, and that we pursue new opportunities for 
collaboration with the African Union. In particular, I will, if 
confirmed, work with the United States mission at the U.N. and United 
States ambassadors to our allies to get the AMISOM and UNAMID missions 
the international assistance they need.

    Question. What role should other donors play to help the African 
Union build its capacity and resources base to carry to carry out PKO 
missions?

    Answer. The needs of the African Union in the peacekeeping arena 
cannot be met by one donor alone. The international community must work 
together to increase the planning, logistics, financial management, and 
training capabilities of the African Union. In addition, the African 
Union peacekeeping troops in the field need equipment, supplies, 
financial support for troop payments, and additional forces. In the 
case of the two African Union missions currently in the field, AMISOM 
and UNAMID, a more robust international response is necessary to reach 
the troop levels and capability required to stabilize those conflicts 
and promote reconciliation.
    If confirmed, I will endeavor to create closer coordination among 
the donor community and work with the African Union to focus limited 
funding on key issues that will help advance cooperation as well as 
streamline operations.

    Question. What is your assessment of the African Union's capacity 
to use effectively and account for donor funds provided to assist it in 
building its capacity and resource base to carry out PKO missions?

    Answer. The African Union has limited financial management 
capacity, in general, and this applies to its peacekeeping operations 
as well. In addition, the African Union is still developing 
capabilities to coordinate among member states on equipment, resources, 
and information. It requires further expertise to establish competent 
fusion cells and centers to handle peacekeeping missions. These 
shortcomings explain deficiencies in recruiting, training, equipping, 
paying, and dispatching troops.
    The new African Union chairman, Jean Ping, was elected on a 
platform of management reform and is working to strengthen these 
systems. If confirmed, I will work with the chairman and commission to 
assist them in making as much progress in the area of financial 
management and accountability as possible.

    Question. What is the cost of moving the nominee to Djibouti? Will 
he be accompanied or unaccompanied?

    Answer. If confirmed, I will be residing and working in Addis 
Ababa, Ethiopia, the seat of the African Union and the United States 
mission to the African Union. To date, no decision has been made as to 
whether my family will accompany me, if confirmed. If I travel to Addis 
alone, the Department estimates the total cost will be approximately 
$241,000. If I am accompanied by my wife and four children, the 
Department estimates the total cost will be approximately $321,000. 
These cost estimates include round-trip airfare costs, round-trip 
transportation costs for household effects, unaccompanied air freight, 
a personally-owned vehicle, and operating expenses in Addis.

    Question. Please describe the circumstances of the outgoing 
Ambassador Cindy Courville's departure from the post?

    Answer. It is my understanding that Ms. Courville resigned her 
appointment as the U.S. Ambassador to the African Union.

    Question. Why was our ambassador to Ethiopia not selected to 
maintain U.S. representation at the African Union headquarters in Addis 
Ababa for the short term instead of selecting a new ambassador for the 
vacant post?

    Answer. The establishment of the United States mission to the 
African Union was an important step in furthering our engagement in 
Africa. Its opening was received warmly across the continent and the 
European Union has followed our example and established a mission to 
the African Union. Reverting to covering the post part-time during this 
period of significant activity at the African Union on a number of 
fronts--peacekeeping in Sudan and Somalia, political crisis in 
Zimbabwe, greater vitality in health and development issues, initiation 
of management reforms--would undermine our success and decrease our 
opportunity to influence and assist the African Union just when it is 
looking to the United States for leadership and support.
    Moreover, while Ambassador Yamamoto is currently maintaining 
diplomatic relations with the African Union, the significant workload 
of handling United States affairs with Ethiopia, including a large 
assistance program and meeting the difficult drought problems plaguing 
Ethiopia, limit the time he can spend on African Union issues. 
Therefore, the administration believes selecting a full-time ambassador 
to the African Union is necessary to reinforce our commitment to 
support the African Union and the region as a whole.
                                 ______
                                 

            Responses of James Swan to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What, in your view, are the most pressing human rights 
issues in Djibouti? What are the steps you expect to take, if 
confirmed, to promote human rights and democracy in Djibouti? What do 
you hope to accomplish through these actions?

    Answer. As we have catalogued in our annual Human Rights Report, 
despite recent improvements, Djibouti's human rights record remains 
poor. Problems include arbitrary arrest and detention, harsh prison 
conditions, executive branch influence on the judiciary, corruption, 
interference with privacy rights, and restrictions on freedom of the 
press, assembly, and association. Accordingly, human rights are part of 
our regular diplomatic dialog with the Djiboutian Government, including 
the Ministry of Justice, Ministry of Labor, and Ministry of Foreign 
Affairs. Embassy staff also meets regularly with individuals and groups 
affected by these problems, as well as minority political parties to 
gain a better understanding of obstacles they are facing as the 
decentralization process moves forward.
    If confirmed, I will ensure that human rights and democracy remain 
a fundamental focus of all embassy activities. I will work closely with 
the Government of Djibouti at every level to ensure that government 
officials understand the importance of the promotion of human rights 
and democratization, and that they remain committed to improving the 
country's human rights record. I will encourage an acceleration of 
progress on these issues, and in addition to working with government 
officials, will make engagement with civil society, media, and other 
advocacy groups a priority.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous responses? What challenges will you face in Djibouti in 
advancing human rights and democracy in general?

    Answer. The challenges and obstacles in advancing human rights and 
democracy in Djibouti are significant. Djibouti faces high 
unemployment, has a high degree of illiteracy, and is located in an 
unstable region. Opposition parties are still in the development 
stages, and still trying to find their voice in Djibouti. They face 
financial and organizational obstacles, and often get caught up in 
internal disputes. Few nongovernmental organizations (NGOs) are present 
in Djibouti working on democratization and human rights issues.
    Although President Guelleh ran unopposed amid an opposition boycott 
in Presidential elections in April 2005, international observers 
considered the election generally free and fair. In March 2006, 
Djibouti held its first-ever municipal elections, in which several new 
independent opposition parties successfully participated. Although the 
President's party won an overwhelming majority of seats, these 
opposition parties won several seats, including 12 in the capital. 
Legislative elections in February 2008 returned the ruling coalition, 
Union for a Presidential Majority (UMP), to all 65 seats in Djibouti's 
unicameral legislature. However, despite a boycott call from a rival 
coalition, voter turnout was over 72 percent, and international 
election observers did not report any irregularities. If confirmed, I 
will work closely with the Djiboutian Government to encourage an 
independent judiciary, the expansion of the political space, and 
respect for human rights.

    Question. If confirmed in your new position, what steps will you 
take to ensure that promotion of human rights objectives will be an 
integral part of the U.S. Embassy's activities? If confirmed, what 
steps will you take to ensure that Foreign Service officers who engage 
in human rights activities are encouraged and professionally rewarded 
for superior service?

    Answer. Human rights issues touch on every element of an embassy's 
work, and as such, if confirmed, I will ensure that the promotion of 
human rights is an integral component of each officer's portfolio. I 
will stress to all embassy employees that the promotion of human rights 
values should not only be a part of their formal work with the embassy, 
but also a part of their daily lives as they interact with Djiboutians 
at all levels. If confirmed, I will ensure that our human rights goals 
are formally recognized within the embassy, and that those members of 
the embassy team who best work to further these objectives are also 
formally recognized--both with award nominations and in their annual 
evaluations.

    Question. What are the most significant actions you have taken in 
your career to promote human rights and democracy? Why were they 
important? What was the impact of your actions?

    Answer. In my Foreign Service career, all of my assignments have 
been to countries where human rights issues were at the top of the 
agenda. I have personally drafted eight Country Reports on Human Rights 
Practices, and took pains to ensure that these reports were as thorough 
and accurate as possible. I believe that the promotion of human rights 
and democracy is integral to all U.S. policy objectives, and if 
confirmed, I will continue to prioritize effective promotion of our 
human rights and democracy goals.
    In my current position as Deputy Assistant Secretary of State for 
African Affairs, I have ensured that human rights concerns are high on 
our agenda in some of the most challenging political and security 
environments on the continent, including the Democratic Republic of the 
Congo and other Great Lakes states, and Somalia and other countries in 
the Horn of Africa. I have personally pressed host-country officials 
throughout central Africa and the Horn to address human rights 
problems.
    While serving as deputy chief of mission in the Democratic Republic 
of Congo, I ensured that human rights issues received high-level 
attention and coverage, including by increasing reporting from the 
rebel-held areas of eastern Congo. I focused attention on the grave 
challenges of sexual and gender-based violence, an area in which the 
embassy and USAID conducted a number of programs both to heighten 
awareness and to respond to the needs of victims. I also pressed to 
ensure inclusion of civil society and human rights groups as part of 
the Inter-Congolese Dialog that led to the transition government after 
the rebellion ended in 2003. As a sign of the high value I placed on 
human rights, I nominated our principal human rights reporting officer 
for the Department of State's worldwide human rights award, which she 
won in 2003.
    While deputy chief of mission in the Republic of Congo, I drew 
human rights abuses to the attention of the Congolese Government during 
the 1998-1999 civil war and oversaw grants to NGOs focused on promotion 
of human rights. These included programs to address the needs of the 
marginalized pygmy population.
    As chief of the political section in our embassy in Cameroon in 
1992-1994, I organized election observers for the first ever 
multiparty, Presidential elections, oversaw grant programs to support 
human rights organizations, helped to train several human rights groups 
on international standards and investigative methods, and conducted 
extensive public outreach on governance and human rights. In Nicaragua, 
as the embassy labor and human rights officer, I worked with USAID and 
mission implementing partners to support independent trade unions and 
human rights groups in the aftermath of the National Opposition Union 
victory over the Sandinistas in 1990.

    Question. Djibouti reportedly has one of the most serious 
corruption problems in the region. What is your assessment of the 
causes of corruption in Djibouti? What additional measures, in your 
view, might be needed to deal with corruption?

    Answer. Djiboutian law provides criminal penalties for official 
corruption, and the Government of Djibouti has increased its efforts to 
implement such laws and combat corruption. However, the government has 
not yet been able to implement these laws effectively, and corruption 
remains a serious problem.
    Djibouti's extreme poverty and popular frustration over 
unemployment, inadequate public services, and obstacles to political 
participation all contribute to corruption. However, Djibouti has 
recognized the opportunities provided by globalization, and in seeking 
to capitalize on its location and deep-water port, the government has 
privatized the port and facilitated significant private and 
international investment. This privatization has helped to reduce 
corruption. As investment grows and Djibouti's port capacity and need 
for commercial efficiency increase, the government incentive for 
reducing corruption will also increase. Additionally, USAID assistance 
programs in Djibouti for improving governance seek to promote a more 
transparent and efficient government at the national, regional, and 
local levels; advance Djibouti's decentralization; promote government 
accountability; and strengthen civil society. The fiscal year 2009 
budget request includes $500,000 for democracy and governance programs, 
including an anticorruption component.

    Question. If confirmed as ambassador, how would you seek to balance 
the growing U.S. military presence and security interests in the 
country with other U.S. priorities?

    Answer. Camp Lemonier, our base in Djibouti and the only United 
States military base in sub-Saharan Africa, allows the United States 
Government to focus our efforts to deny safe haven, external support, 
and material assistance for terrorist activities in the Horn of Africa. 
The base is home to the Combined Joint Task Force-Horn of Africa (CJTF-
HOA), which is present in the region to counter the reemergence of 
transnational terrorism by providing security assistance in support of 
civil-military operations (CMO) to enhance long-term stability in the 
region.
    Djibouti is a relatively stable country in a volatile region, and 
it provides a solid foundation from which to address several primary 
policy aims in Africa, including food security, regional stability and 
economic development. The Port of Djibouti is the primary conduit for 
United States food aid to Ethiopia and the Horn of Africa. Djibouti is 
a country with a 96 percent Sunni Muslim population that is pro-western 
and pro-American. As a moderate Muslim state and a member of the Arab 
League, Djibouti is a valuable international partner. Djibouti has the 
potential to play an important role in the economic and political 
revitalization of its neighbors, and it has played a significant role 
in the regional peace processes in Sudan, Ethiopia and Eritrea, and 
Somalia.
    If confirmed, I will ensure that Djibouti continues to function not 
only as a base for CJTF-HOA and our peace and security interests, but 
also as a base from which to promote democratization, human rights, 
economic development, and effective humanitarian response. If 
confirmed, I will work to strengthen the partnership between CJTF-HOA 
and USAID; to ensure appropriate levels of United States assistance in 
support of democracy and governance, and health and education; and to 
ensure that all CJTF-HOA programming in Djibouti continues to fit 
within overarching United States Government priorities.
                                 ______
                                 

       Responses of Alan W. Eastham, Jr. to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. What are the most pressing human rights issues in the 
Republic of the Congo? What are the most important steps you expect to 
take, if confirmed, to promote human rights and democracy in the Congo? 
What do you hope to accomplish though these actions?

    Answer. The most pressing human rights issues are the need for a 
credible electoral process and the prevalence of corruption. If 
confirmed, I would work to ensure that two goals are achieved: (1) That 
the country carries out free and fair presidential elections in 2009; 
and (2) the government makes progress in combating corruption.
    Democracy in the Republic of Congo faces an important test in the 
presidential elections that are slated for 2009. President Sassou-
Nguesso has announced his decision to delay the elections for 6 months. 
Having recently signed a peace agreement in 2005 with the last 
remaining rebel group in the country, the Congolese Government can 
demonstrate the progress it has made with respect to reform of the 
country's democratic institutions by holding free and fair elections. A 
failure to do so will exacerbate social and political tensions in the 
country, and harm our interests. If I am confirmed as ambassador, I 
will encourage Congolese authorities to work with the donor community 
to lay the groundwork for transparent elections. I will also recommend 
how the embassy and the State Department can best assist the Congolese 
in these efforts, including opportunities to incorporate IFES other 
United States-based NGO groups in our initiatives.
    The State Department Human Rights Report notes that government 
corruption is an infringement on human rights, recognizing that 
corruption deprives ordinary people of access to essential social 
services. Corruption also discourages foreign investment and hinders 
economic growth. American foreign investment can benefit from an 
environment that is free of the burden of government corruption. The 
embassy has done a great deal to highlight the concerns of corruption 
with its interlocutors. If confirmed, I will continue our dialog and 
advise Congo to implement the reforms necessary to address donor 
concerns about its commitment to transparency. The Republic of Congo 
must continue to make progress on fulfilling the validation process 
under the Extractive Industries Transparency Initiative, and must take 
steps to cooperate with the IMF and World Bank to implement substantial 
economic reforms and programs to encourage poverty alleviation.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues that you have identified as 
most pressing?

    Answer. Still emerging from a post-conflict status, the Republic of 
Congo currently lacks the capacity to overcome its many human rights 
challenges. Congo must marshal its limited resources and overcome 
bureaucratic lethargy to train government personnel, improve government 
infrastructure, professionalize its security forces, and increase 
enforcement capacity. A professional bureaucracy and skilled security 
forces are necessary preconditions for maintaining internal stability 
and moving forward on long overdue legislative elections in the 
troubled southeastern Pool region.
    The Congolese Government sometimes has difficulty taking the 
specific steps needed to fully implement planned reforms. One example 
of this is the government and U.N.-supported disarmament and 
demobilization program. The goals of the program are lofty, but the 
government must implement further reforms to strengthen the program's 
effectiveness. Similarly, while the Congolese have made some 
improvements on revenue transparency, additional actions, such as 
continuing to hire external auditors to review government records and 
independently assess Congo's progress, are necessary to make 
significant progress.

    Question. In response to a question before your confirmation as 
Ambassador to Malawi, you described how you have worked to advance 
human rights in Central Africa and elsewhere. How has your experience 
as chief of mission further shaped your perspective on this issue?

    Answer. As chief of mission in Malawi since 2005, I have been 
fortunate to work with a government whose intentions on human rights 
are generally good. On occasion, however, lack of resources has led to 
some cases of abuse, particularly with respect to the underpaid and 
poorly trained police. I attempted to bring the problem to the 
attention of the authorities, and, along with other like-minded 
colleagues, direct resources to improve the professionalism of the 
police. In addition, as the next election draws near, there is a 
tendency on the part of the Malawi Government to use government 
instruments and power in support of the incumbent president's 
reelection. I have attempted, through quiet conversations with both 
opposition and government, to defuse disputes and bridge differences, 
particularly in support of a recent mediation effort led by an 
ecumenical group of Malawi clergy. I have also sought out civil society 
and nongovernmental organizations to understand and attempt to put into 
action their suggestions for reducing the political temperature and 
therefore the possibility of politically-motivated human rights 
violations. My experience at chief of mission highlighted the important 
role a U.S. Ambassador can play in helping to transcend differences 
among political parties and incorporate civil society in the political 
process.

    Question. The past several elections held in Congo were considered 
to be highly disorganized by opposition members and outside observers. 
What specific measures has the government taken to improve the 
electoral process? Do you view the democratic process as improving?

    Answer. While the government has taken steps to consult with the 
opposition on the electoral process (including members of the 
opposition in the presidential cabinet), and while they have committed 
to supporting the country's electoral commission, they haven't done so. 
The government has the financial resources to develop a climate for 
free and fair elections in 2009 but has not shown the will to do so. I 
will be able to better characterize the status of the democratic 
process in the Congo when I go there, if I am confirmed.
    In confirmed, I will encourage the Congolese Government to support 
the country's democratic institutions to ensure that the electoral 
process is free and fair. I will also continue the embassy work in 
supporting initiatives to better inform members of the Congolese civil 
society on their role and responsibility in the electoral process.

    Question. Congo is endowed with natural resources, including 
abundant rain forests, large deposits of oil, natural gas, magnesium, 
diamonds, and gold. To what extent are natural resources being 
responsibly and transparently managed? If confirmed, what role would 
you envision playing in helping to promote transparent, responsible, 
and sustainable resource management?

    Answer. One of the chief concerns of the U.S. Embassy is 
conservation of the natural resources. I understand that the Congolese 
Government has expressed its commitment to transparently and 
responsibly manage natural resources. They are cooperating with 
initiatives by the Wildlife Conservation Society, Jane Goodall 
Institute, and Central African Regional Project on Environment (CARPE) 
representatives to promote sustainable resource management. In 2007, 
the Republic of Congo was permitted to reenter the Kimberly Process 
certification scheme after a 3-year suspension, which resulted from the 
government's inability to reconcile discrepancies between rough diamond 
exports and known production capacity. They have also expressed an 
interest in working with the embassy to prepare a comprehensive report 
on the life span of the Congo's resources. The report will focus on 
timber, iron ore, and bauxite.
    If confirmed, I will continue to consider environmental resource 
management as a significant priority for the United States in the 
Republic of Congo. I will continue to encourage the Congolese 
Government to cooperate with NGO groups to ensure that the country's 
resources are managed properly. I will also encourage the Congo's 
compliance with all aspects of the Kimberly Process. Finally, I will 
work with United States and foreign companies involved in the 
extraction of natural resources to ensure that they consider resource 
management as a top priority. This will include working with our 
Chinese counterparts operating in the region.


                              NOMINATIONS

                              ----------                              


                  WEDNESDAY, JULY 23, 2008, AFTERNOON

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Gfoeller-Volkoff, Tatiana C., to be Ambassador to Kyrgyzstan
Olson, Richard G., Jr., to be Ambassador to the United Arab 
        Emirates
Pearce, David D., to be Ambassador to the People's Democratic 
        Republic of Algeria
Sison, Hon. Michele J., to be U.S. Ambassador to Lebanon
                              ----------                              

    The committee met, pursuant to notice, at 1:32 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
presiding.
    Present: Senators Kerry and Coleman.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. This hearing will come to order.
    Thank you all very much for taking the time to be here. I 
think Senator Coleman is going to be here, but I thought we 
would just start and get going anyway.
    Each of your testimonies will be submitted to the record in 
full as if delivered in full, and I assume you are prepared to 
deliver summary comments.
    We want to thank each of you for your willingness to serve, 
for your distinguished records in various parts of the world, 
not all of them which are all that glamorous. And we certainly 
are exceedingly pleased to have such a professional group of 
ambassador-designees before the committee. I think a lot of 
members of the committee, because we deal with these issues, 
have particular respect for the careers you have chosen and for 
the sacrifices that go with it, both your own personally and 
those of your families. So I think this is a particularly 
qualified group, and we are very grateful for your willingness 
to serve yet further at a difficult time. Service abroad 
nowadays is, in most places, not what it used to be and, in 
many places, can be both a risky and demanding undertaking.
    Let me just ask, if I can, do each of you have family 
members who are here? When you are called on, if you would 
introduce your support structure, we would appreciate it. That 
would be very nice.
    Yesterday Ambassador Sison and I had the opportunity to be 
able to chat a little bit. Our nominee to be Ambassador to 
Lebanon--and we are fortunate to have someone who has already 
served in the United Arab Emirates, Pakistan, India, Cote 
d'Ivoire, Cameroon, Benin, Togo, and Haiti. Ambassador Sison 
has already been serving as our Charge d'Affaires in Lebanon, 
and so comes to this posting with a real understanding of the 
situation there that will more than serve her well.
    Mr. Richard Olson, the nominee to be Ambassador to the 
United Arab Emirates, has also had a very impressive career, 
currently serving as the deputy chief of mission to the United 
States mission to NATO in Brussels. He has had previous 
postings to the UAE, as well as assignments in Mexico, Uganda, 
Tunisia, Saudi Arabia, and Ethiopia.
    I will also note we had the pleasure of confirming Mr. 
Olson's wife, Deborah Jones, as Ambassador to Kuwait in 
February. So the committee has confidence that you know where 
to go to get advice if needed. [Laughter.]
    Mr. David Pearce, the nominee to be Ambassador to Algeria, 
has received a number of commendations for his exemplary 
service over the past 25 years. He comes to us now from Iraq 
where he has been serving as senior advisor to the ambassador. 
He brings extensive previous experience in the Middle East, 
having also served in Israel, Syria, the UAE, Kuwait, and Saudi 
Arabia.
    Ms. Tatiana Gfoeller-Volkoff, the nominee to be Ambassador 
to the Kyrgyz Republic, has also had a distinguished career of 
over 20 years that includes postings in Russia, Poland, 
Bahrain, and NATO headquarters, and brings significant 
experience in the region, having served as the deputy chief of 
mission in Turkmenistan. Most recently she served as the consul 
general in Jeddah, Saudi Arabia.
    As she knows, I was in Jeddah a few weeks ago and had the 
pleasure of meeting Ms. Gfoeller-Volkoff's husband, Michael, 
who is doing an outstanding job as the deputy chief of mission 
and who I learned is a legend in the region. And I enjoyed 
enormously my conversations with him, I might add. He is a very 
intelligent fellow.
    All of you have very challenging posts and challenging jobs 
ahead of you, needless to say. Our relationships with Lebanon, 
the UAE, Algeria, Kyrgyz Republic--all offer significant 
opportunities but also real challenges.
    In Lebanon, the mounting tensions and the political 
stalemate between Hezbollah and the March 14 coalition that 
began in December of 2006 exploded this May for all of us to 
see on television, and the violence left over 80 people dead 
and hundreds more wounded. A full-blown civil war was averted 
by a Qatari-mediated accord in May that resulted in the 
election of Michel Sleiman as a consensus choice for President, 
and, in effect, gave Hezbollah some of the political power that 
they had been seeking.
    On July 11, a new cabinet was finally announced, but this 
fragile coalition government will only last until the new 
elections are held early in 2009.
    By all accounts, Syria continues to interfere in Lebanon's 
domestic affairs, supplying Hezbollah with weapons and support 
that have enabled it to act as a ``state within a state.'' I 
was recently there and met with many of the various factions, 
parties, with obviously the exception of Hezbollah, though I 
met with their straw people in the parliament and elsewhere. It 
is safe to say that Hezbollah has become more powerful than 
ever and has shown a greater efficiency in many cases than the 
government itself in its ability to deliver services funded, of 
course, by Iran and Syria.
    Simply put, we need to do more to help the Siniora 
government to demonstrate it can deliver for the people, but 
obviously in a way that does not make it look like it is just 
doing so at our behest and sort of as our surrogate, which it 
is not. So there will be a requirement for significant economic 
assistance and continuing efforts to strengthen the Lebanese 
Armed Forces and the civil society. And I was struck in 
traveling around Lebanon how palpable the danger is. It is felt 
by every leader and by all those who are visitors. And no 
society should live under such danger in conducting its daily 
affairs.
    There is much cause for concern about Hezbollah, but its 
continuing refusal to lay down its arms and recent developments 
may bring about new opportunities. The historic announcement 
that Syria and Lebanon intend to establish diplomatic relations 
may allow for meaningful movement on the vital issue of respect 
for Lebanon's sovereignty.
    The Hariri Tribunal can also provide an opportunity to 
bring some closure to tragic political violence that has 
plagued Lebanon for generations now.
    And Israel's offer to negotiate with Lebanon on all 
outstanding issues could be an opening for welcomed progress 
and improving relations after years of tensions.
    In the Gulf, the UAE has been a very important strategic 
ally, hosting a significant United States Air Force presence at 
Al Dhafra Air Base and allowing us to use naval facilities that 
support United States operations in Iraq and Afghanistan. We 
have strengthened this partnership through the sale of major 
weapons systems, with significant new arms sales currently 
developing. I look forward to hearing from Mr. Olson about how 
the United States is enhancing its security and cooperation 
with the UAE.
    At the same time, concerns remain, as they do in many parts 
of that region, on issues of human rights and human 
trafficking. And despite limited improvement on democratic 
reforms, including strictly controlled elections in 2006 by the 
Federal National Council, the State Department found that 
numerous restrictions remain on freedoms of speech and 
assembly. We're aware that the State Department has upgraded 
UAE's designation on human trafficking. We look forward to 
hearing how we can encourage continued improvement on this and 
other areas of concern.
    U.S. relations with Algeria have improved in recent years, 
and we now enjoy a significant level of cooperation on several 
counterterrorism and security efforts, including information-
sharing and participation in the NATO Mediterranean dialog and 
the Trans-Sahara Counterterrorism Partnership. This is 
especially important given the emergence of terrorist groups 
like al-Qaeda and the Islamic Maghreb which claimed 
responsibility for a string of horrific attacks in Algeria and 
a number of foreign fighters in Iraq, who regrettably come from 
Algeria.
    Human rights concerns are of concern in that area. Many 
people question the need for Algeria to maintain its decades-
old state of emergency, which has reportedly allowed for human 
rights abuses by state security forces.
    The challenge is to continue to strengthen our security 
cooperation while encouraging Algeria to take significant steps 
to improve its record on many issues, such as cracking down on 
human trafficking, easing restrictions on freedoms of speech, 
assembly, press, and association.
    The Kyrgyz Republic is an important United States ally in a 
very troubled part of the world. It provided essential 
assistance following 9/11 particularly in letting us use the 
Manas Air Base, and this base still serves as a vital logistics 
hub for our operations in Afghanistan. In fact, nearly 100 
percent of our supplies to Afghanistan transit through it.
    While this partnership and United States efforts to assist 
Kyrgyzstan on security and economic improvements are key areas 
of our relationship, we also have a duty to stress the 
importance of fair governance in Kyrgyzstan. In particular, we 
are concerned that the 2007 constitutional referendum and 
parliamentary elections, which were not deemed to have met 
international standards, represented a missed opportunity to 
sustain democratic progress of the 2005 Presidential election.
    So I will ask each of you, if you would, to limit your 
comments to about 10 minutes opening, maybe less even, and then 
we will have an opportunity to have a dialog on these issues. 
Thank you.
    Ambassador Sison, do you want to start? Thank you.

            STATEMENT OF HON. MICHELE JEANNE SISON, 
              NOMINEE TO BE AMBASSADOR TO LEBANON

    Ambassador Sison. Mr. Chairman, it is a great honor to 
appear before you today as President Bush's nominee to be the 
United States Ambassador to Lebanon. I would like to introduce 
my sister, Vicki Sison Morimoto, just behind me with her 
husband, Miles, and daughters, Emiko and Michiko, who have come 
up from North Carolina today.
    Senator Kerry. Thank you. Welcome. We are glad to have you 
here today.
    Ambassador Sison. I have served in Beirut as Charge 
d'Affaires ad interim since February of this year, and I would 
like to express my sincere appreciation for the extraordinary 
decision made by Chairman Biden to agree to Secretary Rice's 
request that I be sent to Lebanon to serve as Charge in 
February, pending agreement and ahead of these Senate 
confirmation hearings. If confirmed, I look forward to working 
with this committee, interested Members of Congress, and other 
Americans to represent the American people and to continue to 
advance United States goals in Lebanon.
    I have served our country as a Foreign Service officer 
since 1982. Over the past 26 years, I have done my very best to 
represent the United States in a series of challenging 
assignments. As a first-generation American, I am especially 
proud to represent our country abroad. I am profoundly grateful 
for the opportunities and the many, many privileges that our 
great Nation offers its citizens.
    Mr. Chairman, the United States, indeed, has important 
interests in Lebanon. If confirmed, I will work hard to advance 
these interests. Lebanon is at the forefront of our efforts to 
promote democracy, promote human rights and freedoms, and to 
combat extremism in the Middle East. Lebanon, as you note, has 
undergone seismic changes over the past several years, from the 
assassination of former Prime Minister of Rafiq Hariri and 
subsequent Cedar Revolution of 2005, to the devastating July 
2006 war and the ensuing political stalemate that ended only 
this May 2008 with the Doha Agreement and the election of 
President Michel Sleiman, and then the subsequent formation of 
a national unity government on July 11, headed by Prime 
Minister Fouad Siniora.
    Now, we should remember that it was the Lebanese citizens 
themselves who took to the streets in 2005 to end Syria's 
occupation and demanded a sovereign, democratic state free from 
foreign interference. The Lebanese people also called at that 
time on the international community to investigate Prime 
Minister Rafiq Hariri's assassination and related crimes 
through the U.N. International Independent Investigation 
Commission and the Special Tribunal for Lebanon.
    One concrete measure of United States support for the 
Lebanese people's aspirations for a democratic, sovereign, 
stable, and prosperous Lebanon is our robust United States 
bilateral assistance program. Since 2006, the United States has 
committed over $1 billion to help Lebanon strengthen its state 
institutions and to rebuild, reform, and realize its economic 
potential. With these funds, the United States is training and 
equipping the Lebanese Armed Forces and the Internal Security 
Forces, the police, to support their deployment throughout 
Lebanon to provide security for the Lebanese people. As we saw 
in May of this year, Hezbollah and other armed groups continue 
to threaten the peace and security of the Lebanese people and 
their neighbors in contravention of U.N. Security Council 
resolutions. If confirmed, I will work closely with the 
Lebanese Government to strengthen the Lebanese Armed Forces and 
the Internal Security Forces to ensure that Lebanon and thereby 
the region is more stable and more secure.
    U.S. bilateral assistance programs also include judicial 
reform, education, entrepreneurial skill-building, support for 
civil society, and electoral law reform initiatives. Such 
United States engagement can do much to help the Lebanese 
people realize their dreams of a sovereign, prosperous and 
democratic state.
    While the United States has a number of critical interests 
in Lebanon, my highest priority, if confirmed, will be the 
safety of the dedicated men and women serving under my 
leadership, both American and locally engaged Lebanese staff, 
as well as the safety of all Americans living, working, and 
traveling in Lebanon. Each day at Embassy Beirut, my staff and 
I pass the embassy's memorial to the 337 American and Lebanese 
colleagues who have lost their lives serving the United States 
Government at United States Embassy Beirut. We all serve in 
their memory and in their honor.
    Mr. Chairman, I want once again to express my sincere 
appreciation for this opportunity to address you. I look 
forward, if confirmed, to seeing you and your staff in Beirut. 
Thank you.
    [The prepared statement of Ambassador Sison follows:]

             Prepared Statement of Hon. Michele J. Sison, 
                Nominee To Be U.S. Ambassador to Lebanon

    Mr. Chairman and members of the committee, it is a great honor to 
appear before you today as President Bush's nominee to be the United 
States Ambassador to Lebanon. I have served in Beirut as charge 
d'affaires ad interim since February of this year.
    I would like to express my sincere appreciation for the 
extraordinary decision made by Chairman Biden to agree to Secretary 
Rice's request that I be sent to Lebanon to serve as charge d'affaires 
pending agreement and ahead of these Senate confirmation hearings. If 
confirmed, I look forward to working with this committee, interested 
members of Congress, and other Americans to represent the American 
people and to continue to advance United States goals in Lebanon.
    I have served our country as a Foreign Service officer since 1982. 
Over the past 26 years, I have done my very best to represent the 
United States in a series of challenging assignments in Haiti, Togo, 
Benin, Cameroon, Cote d'Ivoire, India, Pakistan, and most recently, as 
the Untied States Ambassador to the United Arab Emirates.
    As a first-generation American, I am especially proud to represent 
our country abroad. I am profoundly grateful for the opportunities and 
the many privileges that our great Nation offers its citizens. Also, 
I'm pleased today to introduce my sister, Vicki Sison Morimoto, and her 
family--Miles, Michiko, Andy, and Emiko--who drove up from North 
Carolina to be here this afternoon. I also want to recognize my two 
daughters, Alexandra and Jessica. The girls are college students and 
out in Flagstaff, AZ this summer, but are real Foreign Service 
troopers, having been raised in West Africa, India, Pakistan, and the 
United Arab Emirates.
    Mr. Chairman, the United States has important interests in 
Lebanon--interests that I will work hard to advance, if confirmed. 
Lebanon is at the forefront of United States efforts to promote 
democracy, protect human rights and freedoms, and to combat extremism 
in the Middle East. Lebanon has undergone seismic changes over the past 
several years, from the assassination of former Prime Minister Rafiq 
Hariri and subsequent Cedar Revolution of 2005, to the devastating July 
2006 war and the ensuing political stalemate that ended only this May 
2008 with the Doha Agreement, election of President Michel Sleiman, and 
subsequent formation of a national unity government headed by Prime 
Minister Fouad Siniora on July 11.
    We should remember that it was the Lebanese themselves who took to 
the streets in 2005 to end Syria's occupation and demand a sovereign, 
democratic state free from foreign interference. The Lebanese people 
also called on the international community at that time to investigate 
Prime Minister Hariri's assassination and related crimes through the 
United Nations International Independent Investigation Commission and 
the Special Tribunal for Lebanon.
    One concrete measure of United States support for the Lebanese 
people's aspirations for a democratic, sovereign, prosperous, and 
stable Lebanon is our robust United States bilateral assistance 
program. Since 2006, the United States has committed over $1 billion to 
help Lebanon strengthen its state institutions and to rebuild, reform, 
and realize its economic potential. With these funds, the United States 
is training and equipping the Lebanese Army and the Internal Security 
Forces to support their deployment throughout Lebanon to provide 
security for the Lebanese people. As we saw in May of this year, 
Hezbollah and other illegal armed groups continue to threaten the peace 
and security of the Lebanese people and their neighbors in 
contravention of U.N. Security Council resolutions. If confirmed, I 
will work closely with the Lebanese Government to strengthen the 
Lebanese Armed Forces and the Internal Security Forces to ensure that 
Lebanon, and thereby the region, is more stable and secure.
    The United States must continue to strengthen the forces of the 
Lebanese state--the Lebanese Army and the police (the Internal Security 
Forces)--so that Lebanese citizens may enjoy prosperity, peace, and 
security. Both of these institutions had languished under Syrian 
occupation, receiving very little in the way of training and equipment. 
When the Lebanese Government took the momentous decision in 2006 to 
deploy its army to southern Lebanon for the first time in 40 years and 
displace Hezbollah from the Israeli border, troops traveled in civilian 
vehicles because they lacked trucks, communicated via cell phone 
because they lacked radios, and slept in tents because they lacked 
permanent shelter. When LAF troops battled Fatah al-Islam militants in 
the Nahr al-Barid refugee camp in 2007, they faced the difficult 
challenge of modifying aging helicopters to drop bombs because they 
lacked proper close air support assets. Our assistance to the LAF is 
helping to address these needs for basic and more advanced equipment as 
well as training. Meanwhile, our assistance to the ISF is helping to 
create a credible police force capable of taking on new missions 
including security inside Lebanon's refugee camps. If confirmed, I will 
work closely with the Lebanese Government to further strengthen these 
institutions to ensure that Lebanon--and thereby the region--is more 
stable and secure.
    U.S. bilateral assistance also funds a variety of programs, ranging 
from judicial reform to education to entrepreneurial skill-building and 
support for civil society and electoral law reform. Such United States 
engagement can do much to help the Lebanese people realize their dreams 
of a sovereign, prosperous, and democratic state. While the United 
States has a number of critical interests in Lebanon, my highest 
priority, if confirmed, will be the safety of the dedicated men and 
women serving under my leadership, both American and locally engaged 
Lebanese staff, as well as the safety of all Americans living, working, 
or traveling in Lebanon. Each day at U.S. Embassy Beirut, my staff and 
I pass the embassy's memorial to the 337 American and Lebanese 
colleagues who have lost their lives working on behalf of the United 
States Government in Lebanon since 1976. We all serve in their memory 
and in their honor.
    If confirmed, I will do my best to be worthy of the trust placed in 
me by the President, Secretary Rice, and the U.S. Congress to advance 
American interests and to protect American citizens. I fully understand 
that I will be answerable to you and to the American people in this 
regard.
    Mr. Chairman and members of the committee, I want once again to 
express my sincere appreciation for this opportunity to address you. If 
confirmed, I look forward to seeing you and your staff members in 
Beirut. I would welcome any questions you might have for me today. 
Thank you.

    Senator Kerry. Thank you, Ambassador.
    Mr. Pearce.

          STATEMENT OF DAVID D. PEARCE, NOMINEE TO BE

             AMBASSADOR TO THE PEOPLE'S DEMOCRATIC

                      REPUBLIC OF ALGERIA

    Mr. Pearce. Thank you, Mr. Chairman. Mr. Chairman, I am 
deeply honored to appear before you as President Bush's nominee 
to be the Ambassador to the People's Democratic Republic of 
Algeria. I appreciate the trust and confidence the President 
and the Secretary have shown in nominating me.
    Mr. Chairman, I would like to introduce my family. My wife, 
Leyla, is my best friend, teacher, and instructor on the Middle 
East, born and raised in Lebanon, for over 30 years. She speaks 
fluent Arabic, English, an French. My daughter, Jenny, former 
Peace Corps volunteer, just received her masters degree in 
community and regional planning at the University of Oregon. 
And Joey has taught disadvantaged students in Beirut English 
and is now working on his masters in Arabic studies at 
Georgetown. I am very proud of them all and, frankly, Mr. 
Chairman, if it were not for their support and sacrifice 
through an awful lot of moves and separations over 26 years, I 
probably would not be sitting here today.
    Mr. Chairman, Algeria is the keystone of North Africa, the 
third most populous country in the Arab world. It is the 
largest producer of oil and gas on the African continent and an 
important supplier of energy to both Europe and the United 
States. In fact, I believe a good part of it goes to New 
England, sir. Our own two-way trade with Algeria is worth about 
$20 billion. But even if Algeria were not our second-largest 
trading partner in the Arab world, we would have a great stake 
in this relationship. Algeria's stability and prosperity are 
important for the stability of both Africa and the Middle East.
    As you know, Mr. Chairman, tens of thousands of Algerians 
died in the indiscriminate violence of the 1990s. While that 
internal violence has declined substantially from previous 
levels, as you noted, the threat of extremism, nevertheless, 
remains. And Algeria has been an essential partner in fighting 
the instability created by the increasingly regional terrorist 
threat.
    Mr. Chairman, the Algerian Government has confronted the 
challenge of extremism squarely and courageously. It has taken 
a leading role in international cooperation on 
counterterrorism, especially in pursuing and breaking up al-
Qaeda-based networks. And our bilateral cooperation, again as 
you noted in this area, is strong.
    Mr. Chairman, through the Middle East Partnership 
Initiative and other programs, we are also supporting Algeria's 
reform agenda. If confirmed, I will do my best to encourage 
continued reform and development and further Algeria's efforts 
to stabilize and modernize, consistent with the rule of law, 
transparency, and the importance we attach to human rights and 
other basic freedoms.
    Mr. Chairman, Algeria has long had a significant role in 
Middle Eastern and African affairs. It is a key player in 
conflict resolution throughout the wider region. It facilitated 
an end to the Ethiopian-Eritrean border war in the late 1900s 
and more recently provided airlift support to peacekeepers 
going to Somalia and Darfur. Its mediating role in the Sahel 
has been vital to finding peaceful solutions there. The frozen 
conflict over Western Sahara cannot be resolved without 
Algerian participation. And Algeria is at the center of the 
Algerian is at the center of the Arab Maghreb Union, and here 
too, its willingness to lead is going to be a critical factor 
in greater regional integration.
    Mr. Chairman, regarding the embassy itself, we have now 
moved into a new, more secure facility, which I look forward to 
seeing, if confirmed. There are still significant security 
restrictions, and I assure you that, if confirmed, I will have 
no higher priority than the safety and security of our staff 
and all Americans in Algeria.
    I thank you, Mr. Chairman, for the opportunity to address 
you and Senator Coleman. If confirmed, I hope I will have many 
opportunities to host you, as I had the honor to do with both 
of you in Jerusalem when I was Consul General there, in 
Algiers. And I would be pleased to answer any questions that 
you may have.
    Senator Kerry. Thank you very much, Mr. Pearce.
    [The prepared statement of David D. Pearce follows:]

         Prepared Statement of David D. Pearce, Nominee To Be 
       Ambassador to the People's Democratic Republic of Algeria

    Mr. Chairman and members of the committee, I am deeply honored to 
appear before you today as President Bush's nominee to be Ambassador to 
the People's Democratic Republic of Algeria. I appreciate the trust and 
confidence the President and Secretary Rice have shown in nominating 
me.
    With your permission, Mr. Chairman, I would like to introduce my 
wife, Leyla, my daughter, Jennifer, and my son, Joey. For over 30 years 
now, Leyla, who was born and raised in Lebanon and speaks fluent Arabic 
and French, has been my first and best teacher on the Middle East. 
Jenny recently received her master's degree in community and regional 
planning at the University of Oregon. And Joey is working on his 
master's in Arabic studies at Georgetown. I am immensely proud of them 
all, and grateful for their constant support and sacrifice through many 
moves and separations during our 26 years in the Foreign Service.
    Mr. Chairman, Algeria is the keystone of North Africa and the 
third-most populous country in the Arab world. It is the largest 
producer of oil and gas on the African continent, and an important 
supplier of energy to both Europe and the United States. Our own two-
way trade with Algeria is worth about $20 billion. But even if Algeria 
were not our second-largest trading partner in the Arab world, we would 
have a great stake in this relationship. It is a country of real 
promise, where hundreds of thousands of educated youth could drive a 
knowledge-based economy that would bring growth to the entire region. 
Its stability and prosperity are important for the stability of both 
Africa and the Middle East.
    As you know, Mr. Chairman, tens of thousands of Algerians died in 
the indiscriminate violence of the 1990s. While that internal violence 
has declined substantially from previous levels, the threat of 
extremism nevertheless remains. And Algeria has been an essential 
partner in fighting the instability created by the increasingly 
regional terrorist threat. Nearly 2 years ago, a local Algerian 
extremist group sought a new lease on life by declaring a link to al-
Qaeda. Since then, that group has carried out a number of atrocities 
against innocent men, women, and children in Algeria and elsewhere. It 
has attacked U.N. offices, engaged in kidnappings and bombings, and has 
extended its reach into surrounding countries.
    Mr. Chairman, the Algerian Government has confronted the challenge 
of extremism squarely and courageously. It has taken a leading role in 
international cooperation on counterterrorism, especially in pursuing 
and breaking up al-Qaeda-linked terrorist networks. And our bilateral 
cooperation in this area is strong. We recognize that a comprehensive 
effort against terrorism must go beyond direct security assistance to 
incorporate cooperation in fields such as forensics, English-language 
instruction, and university training. So we are working to build our 
relationship in those areas.
    Mr. Chairman, through the Middle East Partnership Initiative and 
other programs we are also supporting Algeria's reform agenda. Our 
programs promote the professional development of lawyers and judges. 
They assist Algeria's press in building journalistic expertise and 
business acumen. They help the Ministry of Finance to improve tax 
administration and reduce corruption. They aim to assist the Bank of 
Algeria in updating its system of bank supervision--just to name a few 
areas. If confirmed, Mr. Chairman, I will look forward to joining this 
important work with the Algerian Government and people. I will do my 
best to encourage continued reform and development, and further 
Algeria's efforts to stabilize and modernize, consistent with the rule 
of law, transparency, and the importance we attach to human rights and 
other basic freedoms.
    Mr. Chairman, Algeria has long had a significant role in Middle 
Eastern and African affairs. It is a key player in conflict resolution 
throughout the wider region. It is a leading member state of the Arab 
League, the African Union, and the Organization of the Islamic 
Conference. It is a longstanding member of the Organization of 
Petroleum Exporting Countries and a founding member of the New Economic 
Partnership for African Development. It facilitated an end to the 
Ethiopian-Eritrean border war in the late 1990s and, more recently, 
provided airlift support to peacekeepers going to Somalia and Darfur. 
Its mediating role in conflicts in the Sahel has been and will remain 
vital to finding peaceful solutions there. The ``frozen conflict'' over 
Western Sahara cannot be resolved without Algerian participation. Not 
least, Algeria is literally at the center of the Arab Maghreb Union. It 
would gain from increasing trade within that grouping, and its 
willingness to lead in this area will be critical to realizing long-
held dreams of regional integration.
    Mr. Chairman, regarding the embassy itself, we have now moved to a 
new, more secure facility, which I look forward to seeing. There are 
still significant security restrictions, and I assure you that if 
confirmed, I will have no higher priority than the safety and security 
of our staff and all Americans in Algeria.
    I thank you, Mr. Chairman, for this opportunity to address you. If 
confirmed, I hope I will have many occasions to host members of this 
committee in Algiers. For now, I would be pleased to address any 
questions that you may have.

    Let me welcome my ranking member, Senator Coleman, and ask 
at this point, if you will excuse us for interrupting the 
conversation's flow, and if he has any opening.

                STATEMENT OF HON. NORM COLEMAN,
                  U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Mr. Chairman, what I will do is just 
simply ask that my opening statement be placed in the record. I 
will listen to the nominees. These are highly strategic areas 
and of great importance. So I look forward to an opportunity to 
ask some questions and then work with these nominees. So with 
that, I would ask consent that my statement----
    Senator Kerry. Absolutely. Without objection, the full 
statement will be placed in the record.
    Senator Coleman. Thank you, Mr. Chairman.
    [The prepared statement of Senator Coleman follows:]

               Prepared Statement of Hon. Norm Coleman, 
                      U.S. Senator From Minnesota

    Thank you, Senator Kerry. Today we are considering a very important 
set of nominations, as these nominees are to represent the United 
States in countries located in some of the most critical regions in the 
world. The countries for which we are considering nominees today are 
located in a highly strategic region and play critical roles in 
achieving U.S. objectives for the region--including bringing peace 
between Israel and its neighbors, fighting terrorism, partnering on 
energy security, combating the proliferation of weapons of mass 
destruction--among other important areas. I look forward to hearing 
from our guests on how their experience has prepared them for the 
important tasks that have been placed before them in being nominated to 
serve as our Ambassadors in Lebanon, the United Arab Emirates, Algeria, 
and Kyrgyzstan.
    One of the countries for which we are considering a nominee is 
Lebanon, which today stands at a critical juncture. I believe the 
complexity of the situation was highlighted dramatically last week when 
we observed a deeply saddening exchange of the bodies of two Israeli 
soldiers for the release of Hezbollah terrorists. In May of this year 
we watched as Lebanon faced a grave political crisis, which was 
overcome through the mediation of the Arab league. While the Doha 
Agreement that was agreed to in May prevented additional bloodshed at 
the time and restored some stability, it also gave Hezbollah a 
significant stronghold within the government. So it is unclear that 
this arrangement will serve as a stable basis on which Lebanon can 
advance its political process. Furthermore, the tentacles of both Syria 
and Iran continue to undermine the moderate elements in the country and 
to subject the future of the people of Lebanon to the whims of the 
theocrats in Tehran. Yet there are elements in Lebanon who are fighting 
for freedom and for democracy, and it is in the interests of the United 
States to ensure that these forces of moderation succeed. The situation 
therefore remains extremely complex and fragile, and the confirmation 
of a representative to represent the United States in Lebanon is vital 
at this time. I look forward to hearing the nominee's perspective on 
her views of the situation in Lebanon and how she will work to pursue 
our key interests.
    Moving toward the Gulf region, we see that an unprecedented 
increase in the price of oil has allowed the Emirates of Dubai and Abu-
Dabi to undergo a surge of acquisitions of United States properties and 
interests, orchestrated by their sovereign wealth funds. While some of 
these deals, such as the Dubai Ports World case, have raised concerns 
in this chamber, others received support since they brought a much 
needed life-line to some of our troubled financial institutions. What 
is certain is that we need to know more about these funds, about who is 
behind them, and especially about their objectives and implications.
    The UAE, as well as Algeria, enjoy vast reserves of natural gas and 
other energy resources. In light of these circumstances, and the fact 
that Algeria is currently chairing OPEC, it is important that our 
nominees work closely with both these countries as we seek to resolve 
the significant energy challenges facing the United States. I believe 
that U.S. representation in both of these countries is important in 
this work to pave the way for more stable sources of energy supply, as 
well as to arrive at a mutual understanding on the most productive 
forms of economic and security cooperation with our country.
    Kyrgyzstan also is a country with a very strategic geography, 
bordering with China and with the oil-rich Kazakhstan, and closely 
allied with Russia. It has also been of great support to coalition 
efforts in Afghanistan, allowing large forces to pass through its 
airports. For these reasons, the country embodies key U.S. security 
interests and should therefore be engaged in a close, cooperative, and 
mutually beneficial dialog, ensuring that this cooperation remains 
strong.
    I thank each of the nominees for offering themselves to represent 
their country at an important time and in very important countries. I 
look forward to hearing the testimonies from our nominees and 
discussing how the United States can best pursue its objectives through 
our relationships with the countries we will be discussing today. Thank 
you.

    Senator Kerry. Thank you.
    Mr. Olson.
    Let me just say also to the families that just got 
introduced. We really appreciate your being here. As a Foreign 
Service brat I have a lot of respect for the journey, so to 
speak. Mr. Pearce, your wife, it appears, ought to be going to 
Lebanon with Ms. Sison. We will work that out later.

STATEMENT OF RICHARD G. OLSON, JR., NOMINEE TO BE AMBASSADOR TO 
                    THE UNITED ARAB EMIRATES

    Mr. Olson. Mr. Chairman and Senator Coleman, it is a great 
honor to appear before you today as President Bush's nominee to 
be the United States Ambassador to the United Arab Emirates. I 
am deeply grateful to President Bush and Secretary Rice for 
their confidence in me. If confirmed, I look forward to 
representing the American people, to advancing United States 
goals in the United Arab Emirates, and to working with this 
committee and other interested Members of Congress to advance 
the United States agenda.
    I have been privileged to serve the American people as a 
Foreign Service officer since 1982, having represented them at 
a series of assignments mostly in the Middle East and Africa. I 
have been lucky to have shared my life in the Foreign Service 
with my wife, Deborah Jones, currently serving as the United 
States Ambassador to Kuwait, and with our two wonderful 
daughters, two Foreign Service brats, Ana and Isabella.
    Mr. Chairman and Senator Coleman, I would also like to 
acknowledge the presence of representatives of the United Arab 
Emirates embassy who are with us here today at this hearing and 
thank them for coming.
    Mr. Chairman and Senator Coleman, the United Arab Emirates 
plays an influential and growing role in the Middle East and is 
an important partner for the United States. The United States 
and the United Arab Emirates enjoy strong bilateral cooperation 
on a full range of issues, including defense, law enforcement, 
countering terrorist finance, and nonproliferation. Within the 
region, the UAE has shown leadership by its recent decision to 
send an ambassador to Baghdad and to cancel $7 billion worth of 
Iraqi debt. The UAE has also contributed generously to 
international efforts to rebuild Afghanistan and given 
substantial assistance to the people of Lebanon and to the 
Palestinian Authority.
    Our strategic partnership extends to cooperation on 
political-military issues. We conduct regular bilateral 
strategic security discussions through the Gulf Security 
Dialogue and continue to expand our robust military-to- 
military partnership.
    The UAE is committed to preventing the proliferation of 
weapons of mass destruction. It endorsed the Proliferation 
Security Initiative in early 2006. In August 2007, the UAE 
passed a comprehensive export control law empowering the 
federal authorities to take action against companies or 
shipments threatening UAE national security. The United States 
has actively engaged Emirati authorities via the bilateral 
Counter Proliferation Task Force.
    UAE remains one of the largest export markets for U.S. 
goods in the Middle East. A diverse array of American companies 
active in the petroleum, defense, services, education, and 
health care sectors have found the UAE not only an attractive 
place to work but also an excellent location for regional hubs 
doing business across the Gulf. By investing heavily in its own 
infrastructure and in attractive opportunities overseas, the 
UAE is planning for a future in which hydrocarbons will not be 
the dominant source of wealth for its citizens.
    If confirmed as U.S. Ambassador, I plan to build on our 
already solid base of partnership, focusing on cooperation in 
the Middle East region and on security issues. I will work with 
Emirati authorities on our common goal of seeing that the UAE's 
legitimate interest in trade with its neighbors is not put to 
inappropriate uses, especially with regard to Iran. I will be 
an active partner with the American private sector to encourage 
the further growth of our trade relationship.
    And I plan to devote personal attention to the overarching 
issue of America's image in Emirati society. As a first step, I 
will listen to Emiratis' concerns, because I do believe that 
when Americans engage with Emiratis on the things that matter 
to them--good jobs for their children, a peaceful future, 
sustainable economic growth, then our image improves. And I 
know from personal experience that Emiratis who come to the 
United States, especially to study, got back to the UAE with a 
greater appreciation for our society. We can make no sounder 
investment to advance our long-term relationship than in the 
area of educational and cultural exchanges.
    Mr. Chairman and members of the committee, in closing, if 
confirmed, I would welcome seeing you and your staff members in 
the UAE. I would also welcome any questions you might have 
today. Thank you.
    [The prepared statement of Mr. Olson follows:]

             Prepared Statement of Richard G. Olson, Jr., 
          Nominee To Be Ambassador to the United Arab Emirates

    Mr. Chairman and members of the committee, it is an honor to appear 
before you today as President Bush's nominee to be the United States 
Ambassador to the United Arab Emirates. I am deeply grateful to 
President Bush and to Secretary Rice for their confidence in me. If 
confirmed, I look forward to representing the American people, 
advancing United States goals in the United Arab Emirates, and to 
working with this committee and other interested Members of Congress to 
advance the United States agenda.
    I have been privileged to serve the American people as a Foreign 
Service officer since 1982, having represented them at a series of 
assignments mostly in the Middle East and Africa. I have been lucky to 
have shared my life in the Foreign Service with my wife, Deborah Jones, 
who is currently serving as the United States Ambassador to Kuwait, and 
with our two wonderful daughters, Ana and Isabella.
    Mr. Chairman and members of the committee, the United Arab Emirates 
plays an influential and growing role in the Middle East, and is an 
important partner for the United States. The United States and the UAE 
enjoy strong bilateral cooperation on a full range of issues including 
defense, law enforcement, countering terrorist finance, and 
nonproliferation. Within the region, the UAE has shown leadership by 
its recent decision to send an Ambassador to Baghdad, and to cancel $7 
billion worth of Iraqi debt. The UAE has also contributed generously to 
international efforts to rebuild Afghanistan and given substantial 
assistance to the people of Lebanon and to the Palestinian Authority.
    Our strategic partnership extends to cooperation on political-
military issues. We conduct regular bilateral strategic security 
discussions through the Gulf Security Dialog and continue to expand our 
robust military-to-military partnership. For example, the port of Jebel 
Ali in Dubai is the United States Navy's busiest overseas port-of-call.
    The UAE is committed to preventing the proliferation of weapons of 
mass destruction; it endorsed the Proliferation Security Initiative in 
early 2006. In August 2007, the UAE passed a comprehensive export 
control law empowering the Federal authorities to take action against 
companies or shipments threatening UAE national security. The United 
States has actively engaged Emirati authorities via the Export Control 
and Related Border Security program to provide training and discussed 
ongoing issues of bilateral concern via the bilateral Counter 
Proliferation Task Force.
    In April 2008, the UAE issued its white paper on nuclear energy. 
Noting that peaceful nuclear power is an environmentally promising and 
commercially competitive approach to meeting its future electricity 
needs, the paper announced a program to thoroughly evaluate a nuclear 
power option for the UAE. From a nonproliferation perspective, the 
paper included several important policy decisions by the UAE, including 
renouncing any intention to develop domestic enrichment or reprocessing 
capability in favor of long-term external fuel supply arrangements and 
meeting the highest international standards for nonproliferation, 
safety, and security.
    The United States has engaged the UAE with the goal of helping to 
develop the infrastructure necessary to meet the highest standards for 
nonproliferation, safety, and security in a nuclear energy program. On 
April 21, 2008, the United States signed a Memorandum of Understanding 
(MoU) on peaceful nuclear cooperation with the UAE. Simultaneously, the 
UAE endorsed the Global Initiative to Combat Nuclear Terrorism.
    The UAE remains one of the largest export markets for United States 
goods in the Middle East. A diverse array of American companies active 
in the petroleum, defense, services, education, and health care sectors 
have found the UAE not only an attractive place to work, but also an 
excellent location for regional hubs doing business across the gulf. By 
investing heavily in its own infrastructure and in attractive 
opportunities overseas, the UAE is planning for a future in which 
hydrocarbons will not be the dominant source of wealth for its 
citizens.
    Since 2006, the UAE has voluntarily submitted proposed investments 
to the Committee on Foreign Investment in the United States numerous 
times--in all cases with a successful resolution. Investors from the 
UAE have put billions of dollars into the American economy. Whether 
purchasing shares in well known institutions or making investments that 
garner less attention in the media but are equally important in 
generating new jobs for Americans, the UAE is a long-term strategic 
investor in the U.S. market. To ensure that the international community 
remains open to investment the UAE and the Abu Dhabi Investment 
Authority have worked in cooperation with the U.S. Department of the 
Treasury and the International Monetary Fund to establish a set of 
voluntary best practices for Sovereign Wealth Funds.
    If confirmed as U.S. ambassador, I plan to build on our already 
solid base of partnership, focusing on our cooperation in the Middle 
East region, and our partnership on security issues. I will work with 
Emirati authorities on our common goal of seeing that the UAE's 
legitimate interest in trade with its neighbors is not put to 
inappropriate uses, especially with regard to Iran. I will be an active 
partner with the American private sector to encourage the further 
growth of our trade relationship. And I plan to devote personal 
attention to the overarching issue of America's image in Emirati 
society. As a first step I will listen to Emiratis concerns, because I 
do believe that when Americans engage with Emiratis on the things that 
matter to them--good jobs for their children, a peaceful future, and a 
sustainable economic future--then our image improves. And I know from 
personal experience that Emiratis who come to the United States, 
especially to study, go back to the UAE with a greater appreciation for 
our society. We can make no sounder investment to advance our long-term 
relationship than in the area of educational and cultural exchanges.
    As head of the U.S. mission comprising employees of more than 12 
different U.S. Government agencies and departments, my first priority 
will remain at all times the safety and security of the dedicated men 
and women, American and foreign nationals, at my mission as well as all 
Americans living and working or traveling to the United Arab Emirates. 
I will strive to be worthy of the confidence placed in me by the 
President, Secretary Rice, and the U.S. Congress because ultimately I 
will be answerable to you and to the American people.
    Mr. Chairman and members of the committee, in closing, if 
confirmed, I would welcome your insights and views on the UAE and the 
region, and would look forward to seeing you and your staff members in 
the UAE. I would also welcome any questions you might have for me 
today. Thank you.

    Senator Kerry. Thank you very much, Mr. Olson.
    Ms. Gfoeller-Volkoff.

           STATEMENT OF TATIANA C. GFOELLER-VOLKOFF, 
        NOMINEE TO BE AMBASSADOR TO THE KYRGYZ REPUBLIC

    Ms. Gfoeller-Volkoff. Mr. Chairman and Senator Coleman, 
thank you for the opportunity to appear before you today. I am 
honored that President Bush and Secretary Rice have 
demonstrated the confidence in me to put forward my nomination 
as United States Ambassador to Kyrgyzstan.
    During my almost quarter century in the Foreign Service, my 
family and I have been grateful for this opportunity to make a 
unique contribution to our country. Indeed, I would like to 
acknowledge here my family's culture of service. A number of 
family members have served or are serving now in Afghanistan 
and Iraq. My husband, Michael, whom you were kind enough to 
mention, and son, Emmanuel, are unfortunately unable to be 
present here today with me because Michael, as you said, Mr. 
Chairman, is serving as our deputy chief of mission at our 
embassy in Riyadh, and Emmanuel is busy training fellow cadets 
at West Point.
    Kyrgyzstan is an important partner of the United States and 
a positive bilateral relationship is critical to United States 
interests in the region. Two months after September 11, 
Kyrgyzstan agreed to host the United States Air Force at Manas 
Air Base, a crucial supply link in our ongoing efforts to fight 
terrorism and to lay the foundations for a peaceful and 
prosperous future in Afghanistan and the entire Central Asia 
region. President Bakiyev publicly reaffirmed his country's 
continued commitment to the base in December of last year.
    In March, we jointly reaffirmed our cooperation on a range 
of issues, from the fight against terrorism and other 
transnational threats like narcotics trafficking, to economic 
engagement, to democratic development, and promotion of the 
rule of law. If confirmed, I will be honored to do my part to 
deepen that cooperation.
    Since independence in 1991, Kyrgyzstan has made impressive 
progress toward the transition from an authoritarian regime to 
a democratic one and from a command structure to a market-based 
economy. Early on, Kyrgyzstan recognized the value of the free 
exchange of ideas, establishing an open environment that 
fostered a vibrant civil society. It became the first former 
Soviet state to join the World Trade Organization.
    Over the years, however, the momentum of reform stalled. 
The December 2007 parliamentary elections did not meet 
international standards, and the government has sought 
legislation that would restrict important freedoms, such as the 
freedom of the press and assembly. The United States, in close 
collaboration with other international partners, has made clear 
to the Kyrgyz Government that such steps do not reflect 
Kyrgyzstan's international commitments.
    Through all this upheaval, however, Kyrgyzstan has 
maintained an active and vocal political culture, tolerating 
often contentious confrontations but avoiding serious political 
violence. Some say this country is learning about democracy by 
doing democracy. It has shown a capacity for reform. We can 
help the Kyrgyz foster that reform and, in so doing, 
demonstrate throughout the region the ultimate benefits of 
including all people in the political process.
    One challenge that has beleaguered Kyrgyzstan throughout 
independence is corruption. All segments of society have sought 
our help in addressing this problem. If confirmed, I look 
forward to overseeing the implementation of a brand new 
threshold program focused on fighting corruption that the 
Millennium Challenge Corporation recently approved for 
Kyrgyzstan.
    Kyrgyzstan is keenly interested in American commercial 
engagement, but the challenges for United States companies are 
daunting. The economy has shown stability in recent years, but 
renewed inflationary pressures and other conditions make for a 
bleaker picture in 2008. If confirmed, I will look for ways to 
assist and encourage the Kyrgyz leadership to keep focused on 
improving the investment climate.
    One of the key lessons we have learned over the years of 
transition is the interconnectedness of reform efforts. 
Kyrgyzstan itself recognizes the importance of economic 
revitalization. One of the requirements for true economic 
reform is the rule of law. Ensuring the primacy of the rule of 
law requires a fully functioning democracy. We continue to 
emphasize this interconnectedness.
    If we consider where the country started 17 years ago, 
Kyrgyzstan has made remarkable progress, and the United States 
can take considerable pride in supporting that transformation. 
We can also take comfort in the contributions Kyrgyzstan makes 
to regional and global security. Our relationship still has 
room to grow, however. If confirmed, I will be honored to 
represent President Bush and work with Members of Congress to 
engage with the Kyrgyz Government and all elements of Kyrgyz 
society to facilitate that process.
    Thank you for your consideration. I look forward to 
answering any questions you may have.
    [The prepared statement of Ms. Gfoeller-Volkoff follows:]

          Prepared Statement of Tatiana C. Gfoeller-Volkoff, 
                 Nominee To Be Ambassador to Kyrgyzstan

    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today. I am honored that President 
Bush and Secretary Rice have demonstrated the confidence in me to put 
forward my nomination as United States Ambassador to Kyrgyzstan.
    During my almost quarter-century in the Foreign Service, my family 
and I have been grateful for this opportunity to make a unique 
contribution to our country. Indeed, I would like to acknowledge here 
my family's culture of service. A number of family members have served 
or are serving now in Afghanistan and Iraq. My husband, Michael, and 
son, Emmanuel, are unfortunately unable to be present here today with 
me, because Michael is serving as our deputy chief of mission at our 
embassy in Riyadh, and Emmanuel is busy training fellow cadets at West 
Point.
    Kyrgyzstan is an important partner of the United States, and a 
positive bilateral relationship is critical to United States interests 
in the region. Two months after September 11, Kyrgyzstan agreed to host 
the United States Air Force at Manas Air Base, a crucial supply link in 
our ongoing efforts to fight terrorism and to lay the foundations for a 
peaceful and prosperous future in Afghanistan and the entire Central 
Asia region. President Bakiyev publicly reaffirmed his country's 
continued commitment to the base in December of last year.
    In March, we jointly reaffirmed our cooperation on a range of 
issues, from the fight against terrorism and other transnational 
threats like narcotics trafficking to economic engagement to democratic 
development and promotion of the rule of law. If confirmed, I will be 
honored to do my part to deepen that cooperation and promote our own 
interests--which include the secure, prosperous, and democratic 
development of Kyrgyzstan.
    Since independence in 1991, Kyrgyzstan has made impressive progress 
toward the transition from an authoritarian regime to a democratic one 
and from a command structure to a market-based economy. Its progress 
has been uneven, however, and it still faces considerable challenges.
    Early on, Kyrgyzstan recognized the value of the free exchange of 
ideas, establishing an open environment that fostered a vibrant civil 
society. It undertook necessary economic reforms, becoming the first 
former Soviet country to join the World Trade Organization. It is still 
the only WTO member in Central Asia. Over the years, however, the 
momentum of reform stalled. The government imposed new restrictions on 
the media, and political opponents found themselves in jail.
    Then, the people of Kyrgyzstan demanded change. A series of 
protests culminated in the fall of the Akayev government in March 2005. 
The so-called Tulip Revolution led to presidential elections in July of 
that year that were widely recognized by international observers as 
free and fair. President Bakiyev was elected on a platform of continued 
reform, and we had high hopes for his efforts. Since then, however, 
Kyrgyzstan has faced protracted political turmoil, and the December 
2007 parliamentary elections did not meet international standards.
    Through all this upheaval, Kyrgyzstan has maintained an active and 
vocal political culture, tolerating often contentious confrontations 
across the political spectrum, but keeping them on the political level 
and avoiding serious political violence. Some say this country is 
learning about democracy by doing democracy. It has shown a capacity 
for reform. We can help the Kyrgyz foster that reform and, in so doing, 
demonstrate throughout the region the ultimate benefits of including 
all people in the political process and extending to them the freedom 
to build their own economic future.
    President Bakiyev has declared he is ready to proceed with needed 
economic reforms. While we hope that he will soon get the country back 
on the reform path, progress has been limited so far.
    One challenge that has beleaguered Kyrgyzstan throughout 
independence is corruption. Representatives of the government, the 
opposition, and civil society alike have all sought our help in 
addressing this problem. If confirmed, I look forward to overseeing the 
implementation of a brand new assistance program that the Millennium 
Challenge Corporation recently approved for Kyrgyzstan.
    This threshold program will focus on helping Kyrgyzstan confront 
the scourge of corruption by reforming the judicial and law enforcement 
sectors. It has the potential not only to land a solid blow against the 
corruption that impedes Kyrgyzstan's progress toward prosperity, but to 
reassert the primacy of the rule of law and get the country back on the 
course of reform.
    Kyrgyzstan cooperates with us on a host of security issues. In 
addition to hosting Manas Air Base, the government has expressed 
interest in providing more direct assistance to our coalition efforts 
in Afghanistan. We helped establish the Drug Control Agency of 
Kyrgyzstan in 2003, and we are working together to improve its capacity 
to intercept and reduce the flow of narcotics through Kyrgyzstan. Our 
military and other officials collaborate with Kyrgyz officials here, at 
the Marshall Center in Europe, and in Kyrgyzstan on workshops to 
improve individual officers' capacity to combat terrorism.
    Kyrgyzstan is keenly interested in American commercial engagement, 
but the challenges for United States companies of operating far away in 
a relatively small market with pervasive corruption are daunting. The 
economy has shown stability in recent years, with over 8 percent growth 
in 2007, inflation under reasonable limits, and an improving fiscal 
picture. Renewed inflationary pressures and other conditions make for a 
bleaker picture in 2008. The World Bank and IMF have both approved 
additional assistance to help Kyrgyzstan through these recent 
difficulties. If confirmed, I will look for ways the United States 
Government can assist in the short term, but will also encourage the 
Kyrgyz leadership to keep focused on the longer-term goal of improving 
the investment climate, to increase opportunities for both the local 
population and American firms.
    This past year has also seen disruptions in Kyrgyzstan's progress 
toward a fully functioning democracy. Since December's elections, the 
government has sought legislation that would restrict important 
freedoms, such as the freedom of the press and assembly. The United 
States, in close collaboration with other international partners, has 
made clear to the Kyrgyz Government that such steps do not reflect 
Kyrgyzstan's international commitments.
    One of the key lessons we have learned over the years of transition 
is the interconnectedness of reform efforts. Kyrgyzstan itself 
recognizes the importance of economic revitalization and has committed 
to reform in that area. One of the requirements for true economic 
reform is the rule of law. Ensuring the primacy of the rule of law 
requires a fully functioning democracy, in which the population 
understands and supports the system behind the law. Although Kyrgyzstan 
would prefer to focus its engagement with the United States on economic 
concerns, we continue to explain that our emphasis on the rule of law 
and good governance is as much about the economy as it is about 
democracy.
    If we consider where the country started 17 years ago, Kyrgyzstan 
has made remarkable progress, and the United States--in particular 
through the generosity of the American people--can take considerable 
pride in supporting that transformation. We also can take comfort in 
the contributions Kyrgyzstan makes to regional and global security.
    Our relationship still has room to grow, however. If confirmed, I 
will be honored to represent President Bush and work with members of 
Congress to engage with the Kyrgyz Government and all elements of 
Kyrgyz society to facilitate that process.
    Thank you for your consideration. I look forward to answering any 
questions you may have.

    Senator Kerry. Thank you very much. Thank you, all of you.
    Since you were patient and waited till the end, Ms. 
Gfoeller-Volkoff, I will just start with you. I will pick up 
where you left off.
    You mentioned, appropriately, the slowdown in the reform 
effort. What do you attribute that to?
    Ms. Gfoeller-Volkoff. There has been a lot of instability. 
After the 2005 elections, which were free and fair, there was 
opposition to the President in the parliament. There were a lot 
of demonstrations. Unfortunately, the opposition is very 
fragmented. A lot of the parties--and there are many, many of 
them--are basically formed around one person as opposed to 
around an idea.
    And so I think the President began to feel very beleaguered 
and started thinking that maybe he needed to consolidate power 
in some way. We certainly keep urging him to keep on the road 
to reform and that actually stability comes from democracy. But 
I think that as a result of certain demonstrations, which never 
got really violent but were somewhat of concern to him, he 
started feeling that maybe he needs to look at stability ahead 
of it continuing on the road to democracy.
    Senator Kerry. How would you describe the competing forces 
on the ground particularly the play between China, Russia, and 
the United States presence?
    Ms. Gfoeller-Volkoff. Kyrgyzstan enjoys good relations with 
all three, Mr. Chairman. With Russia, of course, there are 
special ties that bind. Kyrgyzstan and Russia were part of the 
USSR, the same state. Many, especially of the elite, the 
educated people, speak excellent Russian. They have gone to 
Russian schools and universities. Many members of the 
government and even the opposition have been educated in 
Russia. So I expect that these ties will continue.
    Also, they are both members of the Shanghai Corporation 
Organization, and there is a lot of Russian investment. There 
is a lot of Russian trade with Kyrgyzstan going on, and 
something between half a million to a million Kyrgyz citizens--
and that is out of a population of only 5 million--are 
presently working in Russia and sending remittances to 
Kyrgyzstan, which are a very important part of the Kyrgyz 
economy. So I consider that probably Russia will continue to be 
a very important partner for Kyrgyzstan for the foreseeable 
future.
    They are also both members of the CIS, the Commonwealth of 
Independent States.
    China has recently become a more important partner for the 
Kyrgyz. Of course, when Kyrgyzstan was part of the USSR, 
Kyrgyzstan was a place of actual tension because the USSR and 
China sometimes did not have the best relations. So now the 
Kyrgyz are discovering kind of the opportunity of interacting 
with the Chinese and the Chinese discovering that they are able 
to interact with the Kyrgyz.
    The Chinese have also invested a lot of money in 
Kyrgyzstan. There is cross-border trade which is flourishing. 
They are also both members of the Shanghai Corporation 
Organization. Again, I think that their good relations will 
probably continue.
    We have no problems with the Kyrgyz having good relations 
with these two countries in the region. In fact, we welcome 
Kyrgyz good relations with the entire region.
    What we would like, however, to see is greater 
opportunities for the Kyrgyz to branch out, and we are 
particularly looking at the south. For example, Kyrgyzstan on a 
seasonal basis produces more hydroelectricity than it really 
needs, whereas countries to the south, such as Afghanistan and 
Pakistan, are in desperate need of energy. So we are looking 
right now and providing some technical support to the Kyrgyz 
and possibly creating a regional electricity grid where the 
Kyrgyz could sell some of their surplus electricity to the 
Afghans and the Pakistanis. And my understanding is that the 
Afghans and Pakistanis would be willing to pay a much higher 
price for the electricity than Kyrgyzstan is able to get 
domestically. So that is something that we are urging the 
Kyrgyz to look into, again not to try to impede in any way 
their relations with Russia and China, but to provide them with 
more opportunities, more chances, and therefore more 
independence.
    Senator Kerry. How would you describe their relations with 
their neighbors? You mentioned the neighborhood. Besides, 
obviously, the relationships you just talked about with the 
larger powers, how would you describe them, particularly since 
the Tulip Revolution?
    Ms. Gfoeller-Volkoff. Yes, Mr. Chairman. Kyrgyzstan has 
three other neighbors. Tajikistan to the south is actually very 
similar to Kyrgyzstan. It is a very poor country. It also, 
though, has some hydroelectricity surplus on a seasonal basis, 
again, and has some potential in that regard. Relations between 
Kyrgyzstan and Tajikistan are friendly and stable. There are a 
couple of issues about demarcation of borders, but basically 
things are going well. And we would be looking to have 
cooperation between Kyrgyzstan and Tajikistan in building this 
grid because Tajikistan is between Kyrgyzstan and Afghanistan 
and would also benefit very much from selling its own 
electricity. So I think that here things are looking good.
    Kazakhstan to the north of Kyrgyzstan is a very important 
trading and investment partner. It has a muscular economy. It 
has invested a lot in Kyrgyzstan. There are some Kazakh banks 
in Bishkek, the capital of Kyrgyzstan. It also produces wheat 
and is a very important supplier of wheat to Kyrgyzstan. On the 
other hand, Kyrgyzstan supplies Kazakhstan with water. I 
believe that relations with them will continue to be friendly 
and stable.
    With Uzbekistan, the last of the neighbors of Kyrgyzstan, 
there are--it is a friendly relationship. There are a bit more 
tensions. There are some areas of the border regions that are 
not demarcated properly. One thing that is happening is that 
they are both in the same natural water system, and Kyrgyzstan 
supplies Uzbekistan with water but is not charging for it, 
whereas it buys energy, especially coal, from Uzbekistan and 
gas and is being charged for it. I believe there is a bit of 
tension over that imbalance. But still, overall relations are 
friendly.
    Senator Kerry. I will come back perhaps afterwards.
    Mr. Olson, there have been some concerns that Dubai has 
been a transit point for the A.Q. Khan nuclear proliferation 
network. I wonder if you could share with us your perception of 
UAE's and Dubai's, in particular, efforts to try to curb the 
smuggling and your perception of it at this point or the 
administration's description of it at this point.
    Mr. Olson. Thank you, Mr. Chairman.
    I think that, indeed, for the Emiratis the revelations 
about the A.Q. Khan network were something of a wake-up call 
for them, and they recognized the importance of this issue. And 
the action that they have taken so far is to pass an export 
control law that was passed in 2007. Our assessment is that 
this is actually a good law and covers what is necessary to 
make sure that there is not reexport of dual-use or sensitive 
technologies to Iran.
    We have been working with the Emiratis, with the Emirati 
authorities, the federal authorities, since that time on the 
implementation. There is a domestic implementation aspect. 
There are some regulations that are required to bring about the 
implementation of the law. But there has been very good 
cooperation with the Emiratis on certain specific instances 
which we discuss with them in the context of the Counter 
Proliferation Task Force. This is a bilateral initiative that 
has been going for several years, meets frequently at a senior 
level, United States and Emirati. In the course of those 
discussions, we have raised our concerns, both general and also 
specific cases, and we have received, in our view, considerable 
cooperation from the Emirati authorities.
    This will continue to be a high priority. It will be a 
personal priority for me to make sure that Iran--there are 
interests in legitimate trade. They do have a very large volume 
of trade with Iran, and most of that is legitimate. But we want 
to make sure that Dubai is not a source of anything that can 
threaten what we both consider to be--I would say that both the 
Emirates and the United States share a strategic assessment 
about the danger that a nuclear-capable Iran would represent to 
the region.
    Senator Kerry. What is your understanding of what we, the 
United States, are doing or helping lead the UAE to in an 
effort to prevent the flow of weapons-capable technology going 
through the UAE?
    Mr. Olson. Well, Senator, it would be difficult for me to 
answer in terms of specific cases in an open session. I would 
be happy to offer a briefing by myself or other persons on 
specific cases where we have had cooperation.
    Senator Kerry. Let me frame the question this way for this 
session. Are you satisfied that we are doing enough, and if 
not, is your portfolio specifically designed to increase our 
efforts in that regard?
    Mr. Olson. Mr. Chairman, I think there is work still to be 
done in this area. I think there needs to be further domestic 
implementation legislation and regulatory framework in the 
United Arab Emirates. And I will work closely with the Emirati 
authorities to see that that is put in place. But I also think 
that it is an issue that needs continual vigilance, and I can 
assure you that I will be doing that on the specific cases. And 
we will work not just with the federal government but also with 
the authorities in Dubai at the emirate level to make sure that 
they understand our concerns and that it is fully internalized 
on their side.
    Senator Kerry. Thank you.
    Let me turn to Senator Coleman and then we will come back 
for another round.
    Senator Coleman. Thank you, Mr. Chairman. I will turn to 
Lebanon, Ms. Sison, if I can.
    Hezbollah and its allies have a veto in the Lebanese 
cabinet. Obviously of great concern. The March 14 movement 
offered some hope. And the question of whether they can even 
live and work in Lebanon, whether they are able to do that. Can 
you give me an assessment of where the March 14 movement is 
doing a better job of reaching out to the--I am trying to get 
your sense of where things are at.
    Ambassador Sison. The March 14 moderates came together in 
recent weeks, Senator, and with the other political parties, 
hammered together the 30-person cabinet on July 11. And I note 
that although, as you say, the opposition has a blocking third 
of the cabinet--it is 16 majority, 11 opposition, 3 cabinet 
members named by the president--Hezbollah only has one minister 
in the cabinet, which is interesting. The moderates, the March 
14, put forward and appointed an independent Shia minister, 
Ibrahim Shamsudeen. This is interesting because it will make it 
more difficult, I think, for Hezbollah and their allies to 
assert that they are the sole voice of the Lebanese Shia in the 
government.
    The Doha Agreement in May, yes, designed this 16/11/3 split 
in the makeup of the cabinet. It is important to note that the 
president, Michel Sleiman, retained control for the nomination 
of the defense minister and the interior minister, two key 
ministries with which we, the United States, work as we seek to 
strengthen key institutions of the state, the Lebanese Armed 
Forces, and the Internal Security Forces, the police. Of 
course, the interior ministry will also have the key role in 
organizing free and fair parliamentary elections in the spring 
of 2009. The new interior minister is a constitutional lawyer 
who had served on the Boutros Commission looking at electoral 
law reform.
    On the blocking one-third on the so-called veto, I think, 
Senator, that this concession may actually have less 
significance on the ground since the Lebanese cabinet has 
typically operated on a consensus basis.
    Senator Coleman. My concern sitting here is the question of 
our ability to strengthen those institutions if you have the 
fox in the chicken coop. Talk to me a little bit about where 
Hezbollah gets its support. How much support does Iran supply 
to Hezbollah?
    Ambassador Sison. As I have been in Washington over the 
last few days, Senator, I have consulted with several of my 
colleagues, and of course, our colleagues at the U.S. 
Department of the Treasury have been particularly active in 
bringing the interagency together to look at ways to approach 
the challenge of Hezbollah. As we saw last month, the U.S. 
Government--well, this month actually--this summer, the United 
States designated two Venezuela-based supporters of Hezbollah 
along with two travel agencies owned by one of the gentlemen.
    So the United States has actually targeted Hezbollah's 
funding sources by taking action against Iran's bank, Saderat, 
which had been used by the Government of Iran to channel funds 
to terrorist organizations, including Hezbollah, as well as the 
Iran-based Marchers Foundation, part of Hezbollah's support 
network. So Hezbollah has received financial assistance through 
Iranian entities. The U.S. Government this year and in 2007 and 
in earlier years has targeted through designations and 
executive orders that process.
    Senator Coleman. This is not a question here, but the hope 
would be that you would have a moderate government. It would 
take the reins and enforce its sovereignty over territories and 
not get into a position where Hezbollah can drag a country into 
war with grave consequences for the entire region. So it is a 
very delicate situation there and one of great concern.
    Mr. Olson, if you can move over then in terms of the same 
issue with Iran and the UAE. Can you talk to me a little bit 
about the relationship between--when I was in Dubai, I think 
the language of commerce is Farsi. And Dubai, let me just say, 
is just one of the most incredible, vibrant centers in the 
world today. But talk to me a little bit about UAE's policy 
toward Iran. How does that impact our relationships with the 
emirate?
    Mr. Olson. Thank you, Senator Coleman.
    Yes, indeed, the UAE and especially Dubai have a long 
history of a relationship with Iran. It is estimated that up to 
400,000 Iranians live in the emirates, mostly in Dubai, and 
many Emiratis trace their family roots back to Iran. And there 
is a considerable volume of trade. There always has been 
between Dubai and Iran.
    What I would say is that at the federal level, that is to 
say, at the level of the national government, it much shares 
our strategic assessment of the threat that Iran represents, 
and I think this is, in part, fundamentally a matter of 
demographics. The Emirates is composed of probably about 3 
million people, of which fewer than a million are actually 
Emirati citizens, and they are looking 80 miles across the 
water at a population of 80 million. So they have some 
fundamental concerns, and I think this is one of the reasons 
why we do have such a strong relationship in defense 
cooperation. It is one of the, I think, fundamental motivations 
from the Emirati side for the interest in purchasing defensive 
weapons systems.
    I think that we have made a lot of progress, as I already 
mentioned in response to the chairman's question, about export 
controls. I think an area that will also be of increasing focus 
for myself, if confirmed, is in the area of finances. As 
Ambassador Sison mentioned, in Lebanon I think we have similar 
situation. There are Iranian banks in the United Arab Emirates. 
The UAE has complied with Security Council resolutions, 
especially 1747 and 1803, but if confirmed, it will certainly 
be my intention to continue to press the Emiratis to maintain 
vigilance over the Iranian banks that are present in the UAE 
and, where possible, to close down their operations.
    Senator Coleman. The concern is--it appears to me when you 
look at the situation in Lebanon, when you look at the UAE, we 
have forces of stability, hopefully, moderation taking hold in 
Lebanon, that the battle or the concern is the forces of 
moderation and those forces that support extremism which are 
threat to forces of moderation. Obviously, it is their 
neighborhood, but we certainly have an interest there.
    I talked about the incredible wealth and vitality that you 
are seeing in Dubai, sovereign wealth funds, Abu Dhabi 
Investment Authority, close to a trillion dollars. Talk to me a 
little bit about pros and cons of the authority investing in 
American companies, what our role is in facilitating that, and 
how that impacts the relationship between us and the UAE.
    Mr. Olson. Thank you, Senator Coleman.
    The sovereign wealth funds is an issue that we have had 
some intense engagement with the Government of the United Arab 
Emirates on. They have been working with us in the context of 
the IMF and also in the OECD to identify best practices for 
sovereign wealth funds.
    You mentioned the trillion dollar figure. One of the 
issues, I suppose, that surrounds sovereign wealth funds--I 
think your reference was probably to the Abu Dhabi Investment 
Authority, which is widely believed to be the largest sovereign 
wealth fund in the world. But no one really knows the answer, 
aside from people who work in ADIA and a few others as to what 
the actual size of the fund is. And I think that highlights one 
of the issues that we would probably want to work with the 
Emirati Government on in terms of best practices, working 
towards the idea of transparency, the idea that investments are 
made on a commercial basis and not on any other basis.
    As I say, I think the Emirati Government has been very 
cooperative on these matters.
    I also think it is worth pointing out that the sovereign 
wealth fund in the United States--the sovereign wealth funds in 
the States, especially the Abu Dhabi Investment Authority, have 
been long-term investors and I think have made some significant 
investments that have been useful in terms of preserving 
American jobs here in the United States.
    Senator Coleman. Mr. Chairman, if I may, just a note of 
thanks to these nominees and to their families, the level of 
commitment and sacrifice that they will make in the Foreign 
Service. Certainly every time I visit an embassy and talk to 
the staff--I do not know if we can thank them enough for their 
service to this country. So I just want to take this 
opportunity to thank the nominees here for their continued 
commitment to service and to their families.
    Senator Kerry. Thank you, Senator Coleman.
    Let me pick up, Mr. Olson, if I can on that. When I was out 
of the room, you mentioned the numbers of Iranians that are in 
the Emirates. You put it at how many hundreds of thousands?
    Mr. Olson. Well, the number that we understand is about 
400,000.
    Senator Kerry. I'd like to have us speak for a moment with 
respect to Iran's financial institutions. We seem to be 
rattling the saber and talking very openly and repeatedly about 
military options without a lot of intermediary steps, which I 
find puzzling. The sanctions that exist today are frankly 
pretty lame mostly because they are not truly multilateral, but 
even those that are are not that creative in my judgment. It 
seems to me that some Iranian's have enormous sums of money 
that move across state lines and access the benefits of the 
western world's wealth-creating machinery.
    It confounds me that when I go back to the debates we have 
had right here in this room on South Africa and then we did 
what we did partly because it was multilateral, that here we 
have leaders of countries proclaiming as a matter of policy 
that Iran cannot have a nuclear weapon, but leaping from point 
A to point Z without any of the intermediary steps. And I find 
that dangerous and even stupid in some cases.
    Are there not many tools available in your judgment that 
could really tighten the noose economically with respect to 
flights, visas, access to banking systems, freezing of assets, 
and other steps which would put a very serious financial crimp 
on Iran's options?
    Mr. Olson. Thank you, Mr. Chairman.
    First, in terms of overall United States policy, of course, 
I think our objective has been, as you know, to pursue a 
diplomatic option with regard to Iran while keeping all options 
on the table. But I think we actually, in the last few months, 
have been very successful in increasing the pressure on Iran, 
and I would cite two particular examples, first of all, on the 
Geneva talks that took place over the weekend in which, as you 
know, Under Secretary Burns participated for the first time. 
This was a tactical shift, not a policy shift for the United 
States. But the purpose that it served was to reinforce the 
unity of the P5 plus 1. And I think that that was a very solid 
outcome, and I think the ball is very squarely now in the 
Iranians' court to respond within 2 weeks to the offer that was 
put on the table.
    The second area is one that has been in development over 
the longer term is the action at the U.N. Security Council and 
especially U.N. Security Council resolution 1747 and 1803, 
which have, indeed, tightened a bit the financial noose around 
the Iranians. And I think it is having an impact.
    Senator Kerry. It is voluntary.
    Mr. Olson. Yes, sir. And we absolutely have to work with a 
number of allies, including the United Arab Emirates, to bring 
about that compliance. But for certain countries--for example, 
for the United Arab Emirates--and it is an important point 
because Dubai is in the process of establishing itself as an 
international financial center, with some degree of success. As 
the blue chip banks move away from dealings with Iran and 
increasingly do not want to deal in any way with Iranian 
assets, that makes it all the more likely that the UAE will, in 
fact, adopt stronger measures for implementation of 1747 and 
1803.
    So I think there is an incentive for our allies and 
partners around the world to take the steps that we want them 
to take. And I think that these steps do impose real costs on 
the Iranian economy just because of the simple costs of the 
transactions, but also because it forces them to work harder to 
do business in a variety of other ways.
    I would not want to speculate, Mr. Chairman, on what full 
range of options might be available otherwise, but I will 
certainly convey back your points on flights, on visas, on 
freezing assets to my betters at the State Department.
    Senator Kerry. Well, you do not need to leap across 
boundaries here except to the degree you feel it affects what 
you are doing with respect to the UAE. But we will certainly be 
in communication with the administration. I think the clock is 
ticking actually on what they may or may not have even time to 
do here.
    But it strikes me that the voluntariness of that situation 
and the laxity of it is such that it has not created the kind 
of consensus that I think is necessary to really have an 
impact. And I think to create a consensus, you cannot start 
with the most rigid targets, obviously. You have got to work up 
to them. China and Russia have their own attitudes about what 
that pace ought to be, but that is another topic.
    Let me just ask you quickly--within OPEC, what is the UAE's 
attitude with respect to oil pricing and levels at this time?
    Mr. Olson. Mr. Chairman, the UAE, of course, is a longtime 
member, I believe, and a founding member of OPEC, but they have 
signaled that they are prepared to expand production to meet 
demand. I am afraid I do not have exact numbers with me here 
today, but I can certainly get back to you in a statement for 
the record.
    Senator Kerry. So you understand they are not pumping all 
the oil they could be at this point in time?
    Mr. Olson. I understand that they are prepared to increase 
their pumping. If I may, Mr. Chairman, I think that they have 
had some concerns about the long-term impact on their fields 
with increased production so that somewhat limits their surge 
capacity, but I think that they are looking at ways to increase 
the amount that they produce.
    Senator Kerry. What do you understand the goals of the 
current arms sales with the UAE to be? What capacity will that 
give them in your judgment?
    Mr. Olson. Mr. Chairman, the basic approach that we take 
with regard to the UAE is, of course, the Gulf Security Dialog 
which the administration launched in 2006. It has got six 
pillars, which I do not need to probably review here today, but 
one of them includes defensive capabilities and cooperation.
    My understanding is that the weapons systems--and of 
course, we have a long history of weapons sales to the United 
Arab Emirates. We sold them 80 F-16 aircraft in the mid-1990s. 
I actually participated in that in my previous assignment 
there.
    They are currently looking at a series of defensive systems 
that would enhance their air defense capability, so in other 
words, the threat from the air, that is to say, whether by air-
breathing aircraft or by missiles. Again, I think the basic 
strategic assessment where they would come from--they see this 
very much in terms of the Iranian threat.
    Senator Kerry. Mr. Pearce, how would you describe the 
current al-Qaeda presence in Algeria?
    Mr. Pearce. Mr. Chairman, as you noted in your own remarks, 
the violence--and the antiterrorism cooperation is important 
for us. What happened was the violence went down substantially 
after a 12-year period. However, there were small groups of 
extremists that did not sign on to the idea of a ceasefire, and 
among them was one small extremist group which affiliated 
itself 2 years ago with al-Qaeda. This group is not small in 
numbers but they have been active in undertaking a number of 
attacks. They attacked and bombed the United Nations, as you 
recall, recently. And it is a serious threat that we take 
seriously. I do not think it is the strategic threat to the 
existence of the state that there was, say, 10 years ago.
    Senator Kerry. Do you know whether or not they are 
receiving operational guidance from al-Qaeda in Pakistan and 
Afghanistan?
    Mr. Pearce. I believe that the leader of al-Qaeda in the 
Maghreb recently gave an interview in which he stated that, 
yes. He stated that they were in touch with them.
    Senator Kerry. I have just been handed a note reminding me 
that we have another hearing that is going to start here at 3 
o'clock. Therefore, you all may be saved by the overscheduling 
here.
    So let me turn to Senator Coleman again for another round. 
Then we will come back and see where we are.
    Senator Coleman. Thank you, Mr. Chairman.
    Just a question both to Mr. Pearce and Ms. Gfoeller-Volkoff 
regarding an investment climate. Ms. Gfoeller-Volkoff, in your 
statement, you talked about the interconnectedness of reform 
elements, primacy of rule of law, and I think the corruption 
piece is all tied into that. Companies are not going to invest 
if they do not believe that there is rule of law, if they are 
worried about corruption.
    Can you talk to me a little bit more about what we can do 
to assist developing a more stable rule of law and a better 
investment climate?
    Ms. Gfoeller-Volkoff. Thank you, Senator Coleman.
    Yes, you are absolutely right. And in fact, right now there 
is very little American investment in Kyrgyzstan. It is no 
accident that the main investors, as I mentioned, China, 
Russia, Kazakhstan, are from sort of the same region, have some 
of the same issues, for example, corruption.
    We are moving forward, though, as I mentioned with the MCC 
Threshold Program. I think that is a really extremely important 
program for Kyrgyzstan. What is particularly gratifying is that 
unlike many other countries in the region, the Kyrgyz actually 
openly admit that they have a problem with corruption. They are 
not trying to cover this up, and they openly say that they 
realize the negative impact corruption has, for example, on 
investment reform, a host of other issues. This is a belief 
held throughout Kyrgyz society. The president has said this 
openly, publicly. Opposition figures have said it. The man in 
the street, I understand, says it. So this, I think, is 
encouraging. Once you know you have a problem, you are some way 
ahead of the game.
    The MCC program, the Threshold Program, is going to focus 
on 3 areas of combating corruption--reform of the judicial 
system, reform of the criminal justice system, and reform of 
law enforcement. If, as I hope, this program is successful and 
the Kyrgyz are able to increase some of their indicators, 
particularly in the area of ruling justly, and if they are able 
to pass the corruption indicator, I believe that this will, in 
turn, bring about a much increased level of investment from the 
West, hopefully from the United States as well, because as you 
said, Senator Coleman, people will have confidence that if they 
invest, they will actually get their money back.
    Senator Coleman. Mr. Pearce, in regard to Algeria, 
questions about what it takes to become part of the WTO. Are 
there issues there? Are they corruption? Is it bureaucratic? 
Can you talk to me a little bit about the investment climate 
there?
    Mr. Pearce. Senator, I think that is a hugely important 
question. This is a country where more than half of the 
population is under the age of 30, and there is a great deal of 
underemployment and unemployment. So the ability to have a 
better investment climate to help create jobs and achieve 
development to my mind is the other side of the coin of 
counterterrorism cooperation.
    I think we have a lot of very good programs underway, and I 
will be looking hard, when I get there, to find more ways that 
we can help. Some of them include, for example, assistance in 
banking sector reform, judiciary reform, helping train young 
lawyers and judges. We have a very good program of English 
language instruction to disadvantaged youth. We have a new 
science and technology agreement, which I believe could be a 
vehicle for a lot of different things.
    So I believe that the Algerian Government wants to move 
forward on WTO accession. They have had a process in place for 
quite a long time. So we will be looking to see if we can help 
move that along because the investment climate and improving it 
I think is a very important thing.
    Senator Coleman. Thank you, Mr. Pearce.
    Thank you, Mr. Chairman.
    Senator Kerry. Looking at Algeria as a whole, there are 
tensions, obviously, over oil production, tensions over al-
Qaeda in the Maghreb. There are human rights issues, and then 
these other tensions--rights of press, assembly, democracy, and 
so forth. We found a modus operandi to have some cooperation, 
obviously, on the antiterrorism efforts. Partly it is 
existential to Algerians and they have an interest in doing 
that.
    How would you describe the relationship overall in terms of 
some of these other issues? Do we have any leverage? Is this 
just a way of getting along because there is neutral interest, 
or is there something more connective here that we can build 
on?
    Mr. Pearce. Senator, I think there is. I will not pretend. 
We do not see eye to with Algeria on everything. There are a 
lot of things we do not agree on. However, I think the quality 
and extent of the engagement has improved a lot in a number of 
ways, whether it is more military-to-military exchanges or all 
of the programs that I just discussed on the development side. 
So I think that it is a growing partnership, but not a 
particularly easy one. But I do think that there is a lot of 
opportunity there.
    And I would just say, to make my pitch to you, when you are 
trying to move ahead, as we saw in Jerusalem, hard, hard 
issues, it really does help to have high level visits. And 
these can often be the driver for access, for making a point. 
So I really hope that I will have a chance to see you in 
Algeria and other high level officials as well because these 
visits are pure gold in terms of having the kind of high 
quality discussion that can lead to a qualitative turn for the 
better in many, many ways.
    Senator Kerry. I appreciate that and I have seen firsthand, 
obviously, the difference that some of those interrogatories 
and those visits can make, and the effects of some of the 
dialogs. I know they can be productive, and I have seen it in a 
number of countries. We try to get the Majority Leader and the 
President and others to give us a schedule that lets us do 
that. If Senator McCain is elected, then I may be over there a 
lot. If Obama is elected, he may be over there a lot. We will 
see what happens. [Laughter.]
    Mr. Pearce. We benefit either way.
    Senator Kerry. Ambassador Sison, let me sort of wrap up 
with you, if I may. Again, we are barely scratching the 
surface, and we all understand that. You do and we do up here. 
That is the nature of these hearings, particularly when you 
have four nominees, but it is an opportunity to at least lay 
down some markers of what we think is important. And I regret 
the time constraints, though I am sure you are delighted by 
them. [Laughter.]
    Ms. Sison, let me ask you. Was the Doha Agreement a victory 
for Hezbollah? And is the current structure and the Israeli 
agreement recently on the exchange a victory for Hezbollah? 
Does that complicate matters for Siniora?
    Ambassador Sison. Mr. Chairman, let us look at what the 
Lebanese people got out of Doha. The moderates retained control 
in the cabinet with the 16/11/3 makeup of the cabinet despite 
the so-called blocking third. Lebanon was able to inaugurate a 
consensus president, Michel Sleiman. The Lebanese people 
received an agreement for the issue of Hezbollah arms to be 
raised in the context of a renewed national dialog, but most 
importantly, as we discussed yesterday, the fighting stopped. 
The actions of Lebanese killing Lebanese during the month of 
May--that violence stopped. So the Lebanese people benefitted 
from the Doha Agreement.
    Now, Hezbollah lost something in May I believe. Hezbollah 
turned its weapons against the Lebanese people. That is 
remembered in many quarters.
    Now, I have to say that Hezbollah's efforts to establish 
its own telecom network and its decision to conduct its own 
airport surveillance in Beirut, the two issues that triggered 
partially the violence in May, remain areas of concern.
    You noted the Hezbollah/Government of Israel agreement for 
the prisoner exchange, the recent prisoner exchange. I have to 
say that the return of Kuntar to Lebanon I found personally 
difficult to watch in the media, even though I was sitting 
here. He is not a hero. He killed a father, killed a 4-year-
old, was responsible for the death of the 2-year-old sibling. 
Having said that, for the Lebanese people the issue of the 
Lebanese prisoners in the neighboring state in Lebanon--this is 
also an issue in Syria because there are Lebanese detainees in 
Syria as well--is an issue that is of great interest, of great 
import to the Lebanese people, which is why you saw the welcome 
that Kuntar and the others received back in Lebanon.
    If confirmed, I will continue to make the point in Beirut 
and elsewhere in Lebanon that Kuntar is not a hero. I 
understand from the media that he may be looking to run for a 
seat in the parliament in 2009.
    Senator Kerry. Well, would it be your judgment that 
Lebanon's sovereignty can gain a publicly and diplomatically 
arrived at agreement as to sovereignty without our resolution 
with respect to Iran and Syria's resolution with respect to the 
Golan and the Shebaa Farms, or are they integrated, all three?
    Ambassador Sison. Mr. Chairman, Senator Coleman, Lebanon is 
a relatively small country in a very complex and complicated 
region. So these regional issues that you cite obviously have 
great impact on Lebanon.
    Senator Kerry. And the Hariri tribunal?
    Ambassador Sison. The special tribunal--of course, we at 
the embassy in Beirut and, of course, the Washington watchers 
as well were struck when President Sleiman on May 25 took his 
oath of office in the parliament the day he was elected 
President. He specifically mentioned his intention to pursue 
those investigations through the special tribunal on the 
assassination of former Prime Minister Rafiq Hariri and the 
others who had been assassinated because there is a long list, 
sadly, of those whose lives have been taken.
    During her June 16 visit to Beirut, Secretary Rice stated 
that the time had come to resolve the Shebaa Farms issue in the 
context of U.N. Security Council resolution 1701, which also 
calls, of course, for disarmament of the militias such as 
Hezbollah. So we do believe that a diplomatic resolution to the 
Shebaa dispute would have the effect of undermining Hezbollah's 
so-called credentials, so-called resistance credentials and 
complicate Hezbollah's efforts to maintain an armed state 
within a state. Ideally that Shebaa Farms dispute would be 
resolved by a bilateral border delineation between Syria and 
Lebanon.
    Senator Kerry. Well, I will wrap up here by saying to you 
that I have served now on this committee for 24 years, and this 
is the first administration that spent almost two-thirds of its 
administration with an arm's distance policy with respect to 
the Middle East, and I think we have paid a very high price for 
it.
    I was in the West Bank the day that Mahmoud Abbas was 
elected President. I was the first person to meet with him the 
next morning, and I will never forget his question to me with a 
statement saying, I know what you expect of me. I have to 
disarm Hamas. Now, you tell me how I am supposed to do it. And 
he pointed to the absence of police, of radios, of cars, of 
capacity. And for years we have neglected to build capacity, 
and Hamas, as well as Hezbollah, practiced politics far more 
effectively than we have empowered our allies to do it.
    I think it has been a tragedy that we have been selectively 
choosing to spend $12 billion a month to develop a democracy 
where there was not one and, frankly, not doing more to help a 
democracy where there is one, struggling to hold on, in 
Lebanon. So I think we really need to think seriously about how 
we apply these priorities in what we do.
    I am convinced that with the right attention and the right 
set of priorities and particularly putting the Mideast peace 
process on the table front and center, that we can begin to 
change our relationships in the region for the better. And I 
think the rest of those things can conceivably come together.
    And what is clear to me, in my discussions in Israel--the 
efforts by Prime Minister Ohlmert now to find some sort of a 
pathway and President Abbas, given the difficulties of Gaza, 
are seriously complicated by that absence of united States 
presence and engagement over a period of time.
    So we all hope we can move forward. It is in everybody's 
interests to do so. And I wish each of you well in these 
endeavors which are, obviously, made very complicated by the 
macro policies that spill downward which affect the choices 
that you have as ambassadors. It really is important what you 
are able to do on the ground and the messages that you can 
convey.
    I do need to just ask a pro forma question of each of you, 
and it takes a yes or a no. Does anyone among you have any 
potential conflict of interest that would prevent you from 
doing your jobs? Ms. Sison.
    Ambassador Sison. No, Mr. Chairman.
    Senator Kerry. Mr. Pearce.
    Mr. Pearce. No.
    Senator Kerry. Mr. Olson.
    Mr. Olson. No, but Mr. Chairman, for the record, I should 
say, as you kindly noted at the beginning, my wife is the 
United States Ambassador to Kuwait, but of course, we have 
completely separate chains of command and we share no 
responsibility for supervision of employees or resources.
    Senator Kerry. Thank you.
    Ms. Gfoeller-Volkoff.
    Ms. Gfoeller-Volkoff. No, Mr. Chairman, but just like my 
colleague, I would like to say for the record my husband is 
deputy chief of mission in Riyadh, but we do not share a chain 
of command.
    Senator Kerry. What is going on here? We have got this 
nepotistic Foreign Service now. [Laughter.]
    Senator Kerry. A family-friendly Foreign Service. We like 
it.
    And the final question, does anybody have a conflict of 
interest that would require them to recuse themselves from any 
particular issue that might appear before you? Ms. Sison.
    Ambassador Sison. No, Mr. Chairman.
    Senator Kerry. Mr. Pearce.
    Mr. Pearce. No.
    Senator Kerry. Mr. Olson.
    Mr. Olson. No, Mr. Chairman.
    Senator Kerry. And Ms. Gfoeller-Volkoff.
    Ms. Gfoeller-Volkoff. No, Mr. Chairman.
    Senator Kerry. Thank you all very much. We are going to 
leave the record open for a 48-hour period until Thursday. We 
want to move forward rapidly, and hopefully get all of you 
approved at the first business meeting and by the Senate next 
week before we go away so you can all be on your way and get 
going with the future. So we thank you again for your service 
and thank you for being here today.
    We stand adjourned.
    [Whereupon, at 2:57 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Response of Richard G. Olson, Jr., to Question Submitted 
                        by Senator John F. Kerry

    Question. Within OPEC what is the UAE attitude with respect to oil 
pricing? Do you understand that the UAE plans to expand production?

    Answer. UAE officials have said they are concerned about the impact 
of rising prices. The UAE currently does not export large volumes of 
oil to the United States; however United States firms are active in 
bringing Emirati oil to market. UAE officials have said they want to 
increase production capacity from the current level of 2.48 million 
barrels per day (b/d) to about to 4 million b/d in the next 2-4 years.
                                 ______
                                 

           Responses of Richard Olson to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. In June 2007, the Senate confirmed J. Adam Ereli to be 
the Ambassador to Bahrain. After serving there less than a year, 
Ambassador Ereli is now in Baghdad, serving for a year as the Public 
Affairs Officer at the United States Embassy. He apparently intends to 
return to Bahrain to resume his post next summer. In the meantime, 
there is no United States Ambassador in Bahrain.
    When the committee acts on your nomination, it expects that you 
will serve the usual 3-year tour, unless there are personal or other 
compelling circumstances that require you to return to Washington. We 
don't expect that ambassadors will abandon their jobs for a year to 
take another position.
    Recognizing that you serve at the pleasure of the President, will 
you commit to stay at your position, and not depart your post for any 
extended assignment, whether in Baghdad or elsewhere? If you do take 
such an assignment, will you resign your ambassadorial post?

    Answer. Yes, if confirmed, it is my intention to serve a 3-year 
tour at Embassy Abu Dhabi, subject to the pleasure of the President and 
at the discretion of the Secretary of State.

    Question. What are the most important actions you have taken in 
your career, to date, to promote human rights and democracy? What was 
the impact of your actions?

    Answer. Support for human rights and democracy has been a strong 
element throughout my career.
    In 198586, I was the human rights officer at Embassy Kampala, and 
reported extensively on mass killings in the Luwero triangle during the 
Ugandan civil war. This reporting was instrumental in supporting the 
State Department's criticism of the Obote regime for its human rights 
record.
    In 1992-94, as political-economic section chief at Embassy Addis 
Ababa, I worked intensively with the Transitional Government of 
Ethiopia, the opposition, and NGOs to promote civil society and a 
culture of democracy in the aftermath of the Mengistu regime. While not 
entirely successful, these efforts helped to create a space for the 
political opposition in Ethiopian politics.
    As political director of the Iraq office in 2004-2005, I provided 
Washington support for the first Iraqi national elections, a milestone 
in Iraq's democratization.
    As director of the office of Iraq in 2006, I led the Near East 
Bureau's support for the development of an Iraqi Constitution, a 
document that significantly advanced the rights of women and preserved 
the principle of religious freedom.

    Question. What are the most pressing human rights issues in the 
United Arab Emirates? What are the most important steps you expect to 
take, if confirmed, to promote human rights and democracy in the UAE? 
What do you hope to accomplish through these actions?

    Answer. The most pressing human rights issues in the United Arab 
Emirates involve constraints on civil liberties--including freedom of 
assembly and association--as well as limited public participation in 
decision-making. A limited group of electors participated in the 2006 
elections for the Federal National Council. While the UAE has seen 
rapid social changes in the past decade, inequality in treatment of 
woman and noncitizens remains a concern.
    If confirmed, I will continue U.S. Government efforts to underscore 
the importance of human rights and democracy. For example, the recent 
decision of the UAE Prime Minister to forbid the imprisonment of 
legitimate journalists for what they write is a major step forward. If 
confirmed, I plan to encourage further domestic reform efforts such as 
the development of independent civil society organizations and the 
empowerment of the Federal National Council to take on a more 
responsive role in dealing with citizens and residents alike. In so 
doing, I hope to foster an environment in which a dialog on these 
issues can flourish. Through such collaborative efforts and engagement, 
I believe that we can strengthen our bilateral relationship, while 
improving the quality of life for all living in the UAE.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in the UAE in 
advancing human rights and democracy in general?

    Answer. While the UAEG has welcomed constructive feedback and 
engagement from the United States on the significant human rights 
concern of trafficking in persons, the UAE has been slower in 
developing competitive elections and representational government. With 
no democratically elected legislative institutions or political 
parties, and no general elections, citizens do not have the right or 
ability to change their government via democratic means. In addition, 
the vast majority of UAE residents are not citizens, and thus remain 
largely outside the political process.
    Further progress on human rights and democracy must involve sincere 
backing by the UAE leadership. To ensure that the current Federal 
National Council (FNC), an advisory body, is more responsive to the 
needs of citizens, government ministries need to be charged with 
listening to and supporting the FNC, increasing its capabilities, and 
increasing public awareness of the importance of participation in 
decision making.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
post/bureau activities? If confirmed, what steps will you take to 
ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. In addition to robust annual reporting on important issues 
such as trafficking in persons, human rights, and religious freedom, I 
will also actively engage the Emirati leadership throughout the year. 
If confirmed, I will ensure that human rights reporting and advocacy 
have a prominent place in the Mission Strategic Plan and other planning 
documents. I will also encourage my locally employed staff, none of 
whom currently are Emirati citizens, to share openly with me any issues 
of concern.
    If confirmed, I will ensure that Foreign Service officers working 
on human rights issues, especially advocacy for human rights, receive 
appropriate credit for such activities in their annual evaluation 
reports and by special awards, as appropriate.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in the UAE who are working to 
promote human rights?

    Answer. Yes, I believe that in order to achieve progress on human 
rights issues, the U.S. Government must engage both government 
officials and nongovernmental organizations. If confirmed, I would seek 
to create dialog between the efforts of citizens groups and the Emirati 
government. I would also welcome to the embassy, groups from the UAE or 
abroad who have specific issues they want the U.S. Government to be 
aware of and to facilitate contact with Emirati institutions.
                                 ______
                                 

           Responses of David Pearce to Questions Submitted 
                     by Senator Russell D. Feingold

    Question. Over the past year the security situation in Algeria has 
deteriorated significantly with the emergence of al-Qaeda in the 
Islamic Maghreb (AQIM). If confirmed, how would you work with the 
Algerian Government to address this problem? What tools does the 
embassy have and what tools would you like to see strengthened?

    Answer. The Algerian Government is committed to the struggle 
against terrorism, and we want to support them in that fight to the 
best of our ability. We maintain a strong and fruitful intelligence 
relationship, and the United States has significantly increased our 
capacity-building assistance to the Algerian Government on countering 
terrorism finance. We would like to see a wider relationship between 
United States and Algerian law enforcement, and we opened a legal 
attache office to that end in 2007. We would also like to see the 
relationship between our militaries continue to expand, as both the 
United States and Algerian militaries have hard-won counterinsurgency 
experience and could mutually benefit from sharing expertise. The 
United States and Algerian militaries are working together to build 
Algerian counterterrorism capabilities through training and education 
programs such as International Military Education and Training (IMET) 
and the Counterterrorism Fellowship Program (CTFP). We also support 
commercial and Foreign Military Sales (FMS) of equipment for border and 
coastal security initiatives.
    While these counterterrorism activities are important, the long-
term struggle against terrorism must address the underlying issues of 
economic and political marginalization that feed extremism. It is in 
this area that I would most like to see a strengthening of the tools 
available to the United States mission in Algeria. Through the Middle 
East Partnership Initiative and other associated programs, we have in 
place promising programs building the capacity and independence of 
Algeria's judicial system, increasing the skills and professionalism of 
Algeria's media, fighting corruption, facilitating economic reforms, 
and, most promisingly, helping to transform Algeria's education system 
into one geared to producing graduates with the skills needed to 
succeed in the modern world. The needs in this area are immense, and if 
confirmed, I hope to be able to secure resources adequate to the task.

    Question. Given the strategic location of Algeria--in North Africa 
but closely linked to the Sahel region--please describe the 
coordination on counterterrorism and security issues you'll expect to 
have with your colleagues across both regions, if you are confirmed, 
and what format this coordination will take. If there is no formal 
mechanism for such coordination and communication, how will you go 
about developing one?

    Answer. Algeria is indeed in a strategic location vis-a-vis the 
rest of North and West Africa, and if confirmed, I will do my best to 
ensure that I maintain close contact with my colleagues across the 
region to ensure our coordination against an increasingly regional 
terrorist threat. The primary mechanism for such coordination is the 
Trans-Sahara Counterterrorism Partnership (TSCTP), which allocates 
counterterrorism resources to the Maghreb and Sahel countries in a 
process that includes substantial interaction between United States 
missions in the TSCTP partner nations, along with relevant agencies in 
Washington and the United States Africa Command. There is constant 
interface within TSCTP using twice monthly secure video 
teleconferences, an annual TSCTP conference, and visits to the region 
and between Washington and Europe. The Trans Sahara Regional Security 
Initiative also hosts a semiannual strategic forum with United States 
ambassadors and Washington; these remain valuable opportunities to 
exchange views and formulate an overall counterterrorism strategy for 
the region. If confirmed, I also plan to maintain more informal 
contacts with my counterparts in our missions to the countries of the 
Maghreb and the Sahel, to ensure that we are on the same page on cross-
cutting issues with counterterrorism implications such as the Tuareg 
rebellions in northern Mali and Niger.

    Question. A recent New York Times article delineated the challenges 
young Algerians face from a weak educational system vulnerable to 
religious extremism. What steps is the Algerian Government taking to 
address this problem and what kind of support is the U.S. Embassy 
providing?

    Answer. While the Algerian educational system has been able to 
deliver a solid basic education to virtually all Algerian citizens, the 
demands of the modern world and especially of a modern economy make 
assistance particularly urgent. Under the Middle East Partnership 
Initiative and through other funding, we have been able to provide 
badly-needed assistance to Algeria's primary and secondary education 
systems in competency based curriculum and teaching instruction, 
including English-language instruction, and in incorporating technology 
into the classroom. A promising area we would like to develop further 
is the partnering of United States and Algerian universities to target 
increased job-training and instructor-training assistance to Algerian 
university student populations at risk of radicalization. If confirmed, 
I hope to be able to secure funding to substantially expand this pilot 
program.
                                 ______
                                 

           Responses of Michele Sison To Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. In light of recent attacks on United States personnel, 
what security improvements have been taken to ensure the safety of 
United States personnel and property in Lebanon?

    Answer. For many years, based on the critical threat environment in 
Beirut, the United States Embassy has operated in a heightened security 
posture. We have robust countermeasures and a proactive, integrated 
security program in place to protect our personnel and property. The 
Emergency Action Committee regularly meets to discuss and adjust our 
security posture to reflect current threat assessments. Two recent 
incidents reflect the need for this constant vigilance. On January 15, 
2008, one of our embassy vehicles was attacked with a roadside bomb, 
resulting in injuries to two Foreign Service National employees and the 
death of three Lebanese bystanders. On June 18, 2008, an incident 
involving aggression directed toward my motorcade occurred in 
Nabatiyeh, which slightly injured two embassy bodyguards. Following 
these incidents, the security units at the embassy and the Emergency 
Action Committee assessed how to best adjust existing security 
practices--as we do frequently in the constantly evolving and volatile 
local security environment--to better protect our people while in 
vehicles.
    Based on our assessments, we determined that we could implement 
several procedures to augment vehicle security. These vehicle security 
policies compliment and reinforce the other existing security measures 
already in place at Embassy Beirut. We determined that the number of 
Americans allowed in each fully armored vehicle should be lowered from 
four to three, we diversified the embassy fleet by acquiring new sedans 
that are not as readily identifiable as being U.S. Embassy vehicles, 
and we increased manpower for chief of mission movements. We also 
contracted for rental vehicles that can serve as advance vehicles for 
motorcades, thus reducing the likelihood that our advance cars will be 
recognized and tip-off those that might be preparing attacks. In 
addition, we increased the number of routes in order to avoid using 
frequently used routes and implemented a ``Zone System'' in the Greater 
Beirut area in an effort to make our moves less predictable. The zones 
where Americans are permitted to travel for unofficial moves change 
weekly.

    Question. Please provide the committee with a brief status report 
on United States efforts to train and equip the Lebanese Army and 
Internal Security Forces, and United States reconstruction assistance 
for the Nahr el-Bared Palestinian refugee camp (which was destroyed in 
fighting against the Fatah al-Islam terrorist group last year).

    Answer. Since 2006, the United States has committed over $400 
million in assistance to the Lebanese security forces. The assistance 
includes equipping the Lebanese Armed Forces (LAF) with modern body 
armor, helmets, over 12 million rounds of ammunition of various 
calibers, front line weapons, spare parts for LAF vehicles and armor, 
and over 285 all terrain vehicles (HMWWVs). Three hundred more HMWWVs 
will arrive over the next year.
    U.S. military personnel have provided training in Explosive 
Ordnance Disposal (EOD) and, in fiscal year 2007, DOD also conducted 
three Joint Combined Exchange Training (JCET) courses for LAF Special 
Forces units. DOD will conduct an additional six JCET courses in fiscal 
year 2008. Also, starting in October 2008, the United States military 
will begin its Comprehensive Training Program (CTP) in Lebanon, 
designed to train the entire LAF.
    Through the U.S. Government partnership with DynCorp International, 
our Office of Defense Cooperation (ODC) has implemented a number of 
demining programs with the LAF. Since summer 2006, these humanitarian 
assistance programs have cleared 4,092,569 square meters to return 
productive land for safe use by the Lebanese people. An additional 
789,803 square meters have been scheduled for clearance.
    Since 2006, the U.S. Government has committed over $60 million in 
security assistance to the Internal Security Forces (ISF). This 
assistance has equipped the ISF with 3,000 sets of civil disorder 
management equipment, 360 vehicles, 14 armored personnel carriers 
(APCs), duty gear for 4,000 cadets in various ISF units, and new 
academy classrooms, offices, and equipment with which to provide 
training.
    In addition to equipment, funding has supported ISF training, which 
consists of two components--basic cadet training and instructor 
training. Basic training is a 10-week program taught by United States 
instructors with the assistance of Lebanese police and legal 
professionals that instructs recruits in the latest policing and law 
enforcement techniques, modern police practices, administration, 
democratic policing, human rights, criminal investigations, and other 
essential law enforcement skills. Instructor training is a 1-week class 
that teaches ISF instructors the essential skills to teach law 
enforcement courses, which will prepare them to eventually take over 
the training program from the United States.
    To date, we have graduated 343 police cadets in two classes, with 
an additional 190 cadets currently enrolled at the academy in Beirut. 
This third class is set to graduate September 12, with the next class 
starting training 1 week later. Between now and the start of the fourth 
class, we plan to complete sufficient academy upgrades that will allow 
us to double our training program from 200 to 400 cadets per class. 
This expansion will help us reach our goal of training to 8,000 cadets 
over a 5 year period. In addition, we have graduated two classes of 
instructors, or a total of 66 ISF instructors. The next class for 45 
instructors is scheduled for October.
    Also, through the State Department's Anti-Terrorism Assistance 
(ATA) program, U.S. trainers are providing specialized ISF units with 
training in advanced driving tactics, SWAT tactics, and crises 
management training. This advanced training for the ISF will continue 
throughout 2008.
    The United States announced in June 2008 a $22 million pledge for 
the reconstruction of the Nahr al-Bared refugee camp to assist 
Palestinian refugees and Lebanese in surrounding communities. This 
pledge follows the U.S. Government's $13.5 million contribution in 
fiscal year 2007 to the United Nations Relief and Works Agency for 
Palestine Refugees in the Near East (UNRWA) to provide emergency 
assistance for the Palestinian refugees displaced by the fighting and a 
separate $100,000 contribution to nearby Lebanese communities also 
affected by the fighting.
    The $22 million aid package is divided into three components. 
First, $10 million will support UNRWA's reconstruction of the camp, 
including housing, infrastructure, and utilities, in addition to 
restoring educational and health services. Second, $6 million will 
focus on revitalizing Lebanese communities surrounding the camp, 
including reconstruction, job creation, improved sanitation services, 
school rehabilitation, and business development. Third, $6 million in 
security assistance will bolster the ISF's community policing program, 
construct an ISF police station and provide equipment such as patrol 
vehicles and duty gear.

    Question. In June 2007, the Senate confirmed J. Adam Ereli to be 
the Ambassador to Bahrain. After serving there less than a year, 
Ambassador Ereli is now in Baghdad, serving for a year as the Public 
Affairs officer at the United States Embassy. He apparently intends to 
return to Bahrain to resume his post next summer. In the meantime, 
there is no United States Ambassador in Bahrain.
    When the committee acts on your nomination, it expects that you 
will serve the usual 3-year tour, unless there are personal or other 
compelling circumstances that require you to return to Washington. We 
don't expect that ambassadors will abandon their jobs for a year to 
take another position.
    Recognizing that you serve at the pleasure of the President, will 
you commit to stay at your position, and not depart your post for any 
extended assignment, whether in Baghdad or elsewhere? If you do take 
such an assignment, will you resign your ambassadorial post?

    Answer. Yes, if confirmed, it is my intention to serve a 3-year 
tour at Embassy Beirut, subject to the pleasure of the President and at 
the discretion of the Secretary of State.
                                 ______
                                 

           Responses of David Pearce to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. In June 2007, the Senate confirmed J. Adam Ereli to be 
the Ambassador to Bahrain. After serving there less than a year, 
Ambassador Ereli is now in Baghdad, serving for a year as the public 
affairs officer at the United States Embassy. He apparently intends to 
return to Bahrain to resume his post next summer. In the meantime, 
there is no United States Ambassador in Bahrain.
    When the committee acts on your nomination, it expects that you 
will serve the usual 3-year tour, unless there are personal or other 
compelling circumstances that require you to return to Washington. We 
don't expect that ambassadors will abandon their jobs for a year to 
take another position.
    Recognizing that you serve at the pleasure of the President, will 
you commit to stay at your position, and not depart your post for any 
extended assignment, whether in Baghdad or elsewhere? If you do take 
such an assignment, will you resign your ambassadorial post?

    Answer. Yes, if confirmed, I am fully committed to serve a 3-year 
tour at Embassy Algiers, subject to the pleasure of the President and 
at the discretion of the Secretary of State.

    Question. What are the most important actions you have taken in 
your career, to date, to promote human rights and democracy? What was 
the impact of your actions?

    Answer. When Iraq invaded Kuwait in 1990, I was head of the 
political section in Embassy Kuwait. I was caught out of the country 
with my family at the time of the invasion, and spent most of the war 
in Taif, Saudi Arabia working with Ambassador Skip Gnehm and the 
Kuwaiti Government in exile. We knew that there was a great deal of 
anger among Kuwaitis at the pro-Saddam position of Yasser Arafat and 
the PLO. Ambassador Gnehm and I repeatedly stressed in our daily 
interaction with Kuwaiti leaders in Taif the strong United States 
interest in restoring the rule of law and, in particular, protecting 
the Palestinian population after liberation. When we returned to Kuwait 
to reestablish the embassy, we found that there was indeed much anger 
directed against the remaining Palestinians. We reaffirmed our strong 
view to the Kuwaiti leadership on the need to protect these civilians 
repeatedly. To back this up, we also organized--in addition to patrols 
by U.S. Special Forces--multiple, daily trips by U.S. Embassy officers 
into neighborhoods and police stations all over the city. I believe 
this action, which did not get a great deal of attention at the time, 
was instrumental in saving Palestinian lives.
    As director of Northern Gulf Affairs 2003-2005, my office ran the 
Future of Iraq project, which had more than a dozen working groups. One 
important group was the Democratic Principles Working Group, which I 
chaired. Some of our Iraqi colleagues dubbed it the ``mother of all 
working groups.'' The work of this group brought together about 30 
Iraqis from all strands of society and their discussions foreshadowed 
many of the important issues that the Iraqi people are still dealing 
with today. What I particularly valued about this process was that a 
very heterogeneous group of Iraqis came together, identified and 
discussed fundamental issues about the future of their country, and put 
forward their ideas about how best to grapple with those issues. I 
remember telling them that perfect consensus was not necessary in a 
democratic process--there was not a Congress or a parliament in the 
world that agreed on everything all the time. What was important was 
that there be a representative and accepted process, and that they all 
recognize each other's rights in that process. I believe the Iraqis we 
worked with then demonstrated that, despite their considerable 
differences, they had the will to work through those differences and 
find their way to a national political accommodation. That process is 
now under way in earnest in Iraq and I believe it will ultimately 
succeed. Many of the people who took part in that initial Democratic 
Principles Working Group are now serving in the Iraqi Government and 
parliament and are deeply involved in the political process.
    I was consul general in Jerusalem when Yasser Arafat died. There 
was some inclination among the Palestinian leadership at the time to 
throw the election for President into the parliament--which Fatah 
controlled--in order to guarantee the outcome that the Palestinian 
authority leadership preferred. Some Palestinians, including in 
leadership positions, thought that both Israel and the United States 
were also against elections. I countered this strongly, advocating with 
the Palestinian leadership against any move for a simple parliamentary 
vote and for a general election that would confer proper legitimacy to 
any outcome. In the end, this view prevailed, and Abbas was elected 
President in a vote that was seen as providing legitimacy not only to 
him but to a negotiated solution to the conflict with Israel. Abbas' 
principal rival for the presidency, Mustafa Barghouti, and others in 
the PA, made a point of thanking me personally for my advocacy on 
behalf of free and fair elections.

    Question. What are the most pressing human rights issues in 
Algeria? What are the most important steps you expect to take, if 
confirmed, to promote human rights and democracy in Algeria? What do 
you hope to accomplish through these actions?

    Answer. If confirmed, I will ensure that human rights issues 
continue to be an important part of our dialog with Algeria. Key 
outstanding issues include the lack of accounting for many persons who 
disappeared during the 1990s; restrictions on freedom of assembly and 
association; a criminal sanction on defamation that leads to self-
censorship in the press; and recent limitations on freedom of worship 
for religious minorities that mar the Algerian tradition of religious 
tolerance. If confirmed, I will work for progress in these areas, both 
in our engagements with the government and with other stakeholders in 
Algeria. I would hope these engagements, together with other embassy 
programs and training, would not only contribute to progress on 
specific issues, but also to the public discourse, thereby making clear 
the importance that the U.S. Government and people attach to 
fundamental freedoms.

    Question. If confirmed, what are the potential obstacles to 
addressing the specific human rights issues you have identified in your 
previous response? What challenges will you face in Algeria in 
advancing human rights and democracy in general?

    Answer. The primary obstacle that I believe that I will face in 
addressing all of the primary human rights concerns that I noted in my 
previous response is that the experience of Algeria's 1990s civil war 
has made the Government of Algeria considerably more cautious about 
attempting to open its political system and loosen its restrictions on 
the activities of society, as it attempted to do in the late 1980s. 
This sensitivity is understandable, but I believe it is misdirected. If 
confirmed, I will work to convince my interlocutors that Algeria can 
best fight extremism and the threat it poses to return Algeria to the 
violence of its ``black decade'' by laying a foundation for the kind of 
open, pluralistic society that can give its citizens a stake in the 
health of the state and hope for the future.

    Question. In your new position, what steps will you take to ensure 
that promotion of human rights objectives will be an integral part of 
post/bureau activities? If confirmed, what steps will you take to 
ensure that Foreign Service officers who engage in human rights 
activities are encouraged and professionally rewarded for superior 
service?

    Answer. The dialog with Algeria on human rights issues has been and 
will continue to be an integral part of our mission. This will be 
reflected in mission contacts, reporting, and programming, including by 
our continued support for the Middle East Partnership Initiative and 
other programs. Officers providing superior service in these areas will 
be recognized the same way superior service in other areas is 
rewarded--through awards, performance evaluations, and challenging 
onward assignments.

    Question. Will you commit to meeting regularly with nongovernmental 
organizations in the United States and in Algeria who are working to 
promote human rights?

    Answer. Yes. If confirmed, I anticipate that meetings with 
nongovernmental organizations will be a regular feature of the 
mission's engagement on human rights issues.
                                 ______
                                 

     Responses of Tatiana Gfoeller-Volkoff to Questions Submitted 
                     by Senator Christopher J. Dodd

    Question. Have you read the cable reference: 04 STATE 258893-Peace 
Corps-State Department Relations?

    Answer. Yes. I have carefully reviewed this cable.

    Question. Do you understand and agree to abide by the principles 
set forth in this cable?

    Answer. Yes. I understand and agree to abide by the principles set 
forth in 04 State 258893 regarding Peace Corps-State Department 
relations.

    Question. Specifically, do you understand and accept that ``the 
Peace Corps must remain substantially separate from the day-to-day 
conduct and concerns of our foreign policy'' and the ``the Peace 
Corps's role and its need for separation from the day-to-day activities 
of the mission are not comparable to those of other government 
agencies''?

    Answer. Yes. I understand the need to keep the Peace Corps 
substantially separate from the day-to-day conduct of our foreign 
policy and, if confirmed, will strongly support this policy.

    Question. Do you pledge, as Secretary Rice requests in 3.B of the 
cable, to exercise your chief of mission ``authorities so as to provide 
the Peace Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies''?

    Answer. I pledge, as Secretary Rice requests in 3.B of the cable, 
to exercise my chief of mission authorities so as to provide the Peace 
Corps with as much autonomy and flexibility in its day-to-day 
operations as possible, so long as this does not conflict with U.S. 
objectives and policies.


                              NOMINATIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Kim, Sung, to be Special Envoy for the Six Party Talks
McGann, Steven, to be Republic of the Fiji Islands, the 
        Republic of Nauru, the Kingdoms of Tonga and Tuvalu, 
        and the Republic of Kiribati
Rodley, Carol Ann, to be Ambassador to the Kingdom of Cambodia
                              ----------                              

    The committee met, pursuant to notice, at 2:10 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer 
presiding.
    Present: Senators Boxer and Murkowski.

            OPENING STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. We will come to order.
    Senator Murkowski and I are on a very fast time frame, 
which is very good for all of you because it means that we are 
very happy that you are moving forward. We do not have a lot of 
questions. So I will ask unanimous consent and grant it, that 
my statement be put in the record.
    I will just say we are meeting to consider three 
distinguished nominees for ambassadorial posts.
    Ms. Rodley, the President's nominee to be the Ambassador to 
the Kingdom of Cambodia, has served her country as a career 
member of the Foreign Service for 28 years, most recently 
serving as the consultant for Afghanistan and Iraq, training at 
the Foreign Service Institute. Prior to that, she served as the 
Counselor for Political and Military Affairs at the United 
States embassy in Kabul, Afghanistan. Ms. Rodley has experience 
in Asia, having served as the Deputy Chief of Mission at the 
U.S. embassy in Cambodia. She speaks Khmer, the native language 
of Cambodia.
    Mr. Steven McGann, a career Foreign Service member since 
1992, is the President's nominee to be Ambassador to the Fiji 
Islands. If confirmed, he will also serve concurrently as 
Ambassador to the Republic of Nauru, the Kingdom of Tonga, 
Tuvalu, and the Republic of Kiribati. Mr. McGann previously 
served as the Director of Australia, New Zealand, and Pacific 
Island Affairs in the Bureau of East Asian and Pacific Affairs, 
and as a senior advisor to Assistant Secretary of State Chris 
Hill.
    And we are considering the nomination of Mr. Sung Kim, a 
native of my home State of California, currently the 
President's Special Envoy for the Six Party talks. In other 
words, he is Assistant Secretary of State, Christopher Hill's, 
right-hand man on the issue of negotiating an end to North 
Korea's nuclear program. What an important assignment. And the 
President has nominated Mr. Kim for the same position, but this 
time he will carry the rank of Ambassador. Prior to working on 
North Korean nuclear disarmament, he served in a variety of 
posts throughout Asia.
    Thank you all so much for service to country.
    And at this time, I will put my statement in the record and 
turn it over to Senator Murkowski.
    [The prepared statement of Senator Boxer follows:]

               Prepared Statement of Hon. Barbara Boxer,
                      U.S. Senator From California

    Today, the full Senate Foreign Relations Committee meets to 
consider three distinguished nominees for ambassadorial posts. As chair 
of the Subcommittee on East Asian and Pacific Affairs, I am extremely 
pleased to welcome our nominees, Ms. Carol Ann Rodley, Mr. Steven 
McGann, and Mr. Sung Kim.
    Ms. Rodley, the President's nominee to be the Ambassador to the 
Kingdom of Cambodia, has served her country as a career member of the 
Foreign Service for 28 years, most recently serving as a consultant for 
Afghanistan and Iraq training at the Foreign Service Institute. Prior 
to that, she served as the Counselor for Political and Military Affairs 
at the U.S. Embassy in Kabul, Afghanistan. Ms. Rodley also has 
experience in Asia, having served as the deputy chief of mission at the 
United States Embassy in Cambodia between 1997 and 2000. She also 
speaks Khmer--the native language of Cambodia.
    Mr. Steven McGann, a career Foreign Service member since 1992, is 
the President's nominee to be the United States Ambassador to the 
Republic of the Fiji Islands. If confirmed, he will also serve 
concurrently as Ambassador to the Republic of Nauru, the Kingdom of 
Tonga Tuvalu, and the Republic of Kiribati.
    Mr. McGann previously served as the Director for Australia, New 
Zealand, and Pacific Island Affairs in the Bureau of East Asian and 
Pacific Affairs and as a senior advisor to Assistant Secretary of State 
Christopher Hill.
    And finally, we are considering the nomination of Mr. Sung Kim, a 
native of my home State of California. Mr. Kim is currently the 
President's Special Envoy for the Six Party Talks. In other words, he 
is Assistant Secretary of State Christopher Hill's right-hand man on 
the issue of negotiating an end to North Korea's nuclear program.
    The President has nominated Mr. Kim for the same position, but this 
time he will carry the rank of Ambassador. Prior to working on North 
Korean nuclear disarmament, Mr. Kim served in a variety of posts 
throughout Asia.
    Thank you all for your service to our country.
    I would like to touch on the issues that each of you will face in 
your respective regions and countries, because I think they clearly 
illustrate the range of challenges that must be addressed in Asia, 
including poverty, weapons proliferation, political instability, 
corruption, lack of adequate foreign investment, and climate change. 
These challenges affect America's interests and our values.
    Cambodia, despite notable economic growth over the past decade, 
remains one of the poorest countries in Asia, with over 80 percent of 
the population engaged in subsistence agriculture. Corruption remains 
pervasive, and the government, whose human rights record was recently 
rated as ``poor'' by the United States State Department, too often uses 
a heavy hand in its dealings with Cambodian citizens.
    Even Cambodia's attempt to atone for one of the greatest crimes of 
the 20th century, the massacre of more than 1.7 million Cambodian 
citizens by Pol Pot's Khmer Rouge regime, has been plagued by 
corruption. The Khmer Rouge trials set for this fall are currently at 
risk as international donors have threatened to withdraw funding over 
allegations of corruption.
    Fiji, a relative success story in the Pacific, was rocked by a 
military coup in 2006 and has yet to see democracy restored. Kiribati 
and Tuvalu are facing threats to their very existence from global 
warming. One day in the not too distant future, islands that are home 
to tens of thousands may simply be swallowed up by the ocean.
    And finally--North Korea.
    I was very critical of the Bush administration's initial approach 
to North Korea, one that favored tough talk and little action over 
meaningful engagement.
    I think the administration learned a harsh lesson with respect to 
North Korea, one that demonstrated that problems in Asia cannot be 
simply ignored or wished away.
    Unfortunately, this administration woke up one day to learn that 
North Korea's nuclear weapons program had been significantly expanded. 
It was only after that realization that the administration initiated 
the diplomacy we needed through the Six Party Talks.
    While the process has been marred by difficulty in recent weeks, I 
am hopeful that through sustained effort, our end goal can be achieved, 
the complete and verifiable dismantlement of North Korea's nuclear 
program.
    But reports about Kim Jong-il's health raise the possibility that 
North Korea's future could be uncertain, with the potential for a 
jarring and unpredictable transition.
    So, as I have said to many ambassadorial nominees heading to Asia 
before you, it looks like you all have your work cut out for you.
    I look forward to hearing your prepared remarks, which I ask that 
you limit to 3 minutes. Longer statements can be submitted for the 
record.
    But before you give your statements, I would like to turn to the 
distinguished ranking member of the committee, Sen. Lisa Murkowski, for 
any comments she may have.

               STATEMENT OF HON. LISA MURKOWSKI,
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Madam Chair. I too will keep 
my comments brief, but want to extend my welcome to the three 
of you and my appreciation for your willingness to serve.
    Mr. Kim, certainly the issue of the Six Party Talks is one 
that has garnered a tremendous amount of attention lately. Mr. 
Kim, we followed your travels to North Korea with great 
interest. I thank you for your willingness to be gone from home 
for such long periods of time as you work to verify North 
Korea's compliance in disabling and hopefully the future 
dismantlement of its nuclear program.
    Mr. McGann, welcome. Now, while you may have a small 
population to pay attention to in your new post, you certainly 
make up for it in the distance that you will have to travel in 
order to serve. It kind of reminds me of my home State. But 
again, thank you for your service.
    And Ms. Rodley, Cambodia is certainly making some progress 
in its political reforms, but we acknowledge that it still has 
a ways to go. I will be interested to hear your assessment of 
whether their new-found oil and gas reserves will either help 
or hinder that progress.
    With that, Madam Chairman, I look forward to the statements 
of each of these respected individuals and to our questions 
later.
    Senator Boxer. Mr. Sung Y. Kim, for the rank of Ambassador, 
we would be thrilled to hear from you, sir.

 STATEMENT OF SUNG Y. KIM, NOMINEE FOR THE RANK OF AMBASSADOR 
   DURING HIS TENURE AS SPECIAL ENVOY FOR THE SIX PARTY TALKS

    Mr. Kim. Thank you very much. Madam Chairman, Senator 
Murkowski, thank you very much for the opportunity to appear 
before you today. It is an honor and a privilege to be here 
today as President Bush's and Secretary Rice's nominee to be 
Special Envoy for the Six Party Talks and, with your consent, 
to receive the rank of Ambassador during my tenure. Few Asian-
Americans have had the opportunity to serve the United States 
as an ambassador, and I am deeply moved and grateful to be 
considered for this opportunity. If confirmed by the Senate, I 
look forward to working with this distinguished committee and 
other Members of Congress to advance United States interests 
with regard to North Korea and the Six Party Talks.
    I would like to take a moment to introduce my family 
because without their support I would not be here today. My 
mother and my brother traveled from California, my home State 
of California, to be here today, and my wife, Jae.
    Senator Boxer. Would you stand? Hello.
    Mr. Kim. And my wife and our daughters, Erin and Erica, are 
here today, as well.
    Senator Boxer. Stand up. We are so happy to see you all 
here.
    Mr. Kim. I think Erin and Erica are mostly happy to be 
missing school today. [Laughter.]
    May I also introduce some of my distinguished colleagues 
from the State Department and the NSC, some of the most 
dedicated and talented young officers in the United States 
Government. They also took time to be here today.
    Madam Chairman, I have had a lifelong interest in Asian 
affairs. In fact, as a Foreign Service officer, I have spent 
much of my time advancing United States interests in Asia. 
Although my direct involvement in the Six Party process started 
just with my tenure as Director for Korean Affairs, in some 
ways during my 19 years of diplomatic service, the challenge 
posed by North Korea's nuclear program has figured prominently 
and I believe has prepared me well for the important tasks I 
had. In fact, in some ways, even my pre-State Department career 
as a prosecutor in Los Angeles I believe has been useful to my 
work in the Six Party negotiations.
    As deputy of our Six Party delegation, I have had the 
opportunity to lead several interagency delegations to North 
Korea to try to advance implementation of all Six Party 
commitments. During this time, I have had the privilege of 
working closely with Assistant Secretary Hill who, as you know, 
has energetically led the Six Party process, and I thank him 
for his support, guidance, and trust. I am also grateful to 
Secretary Rice for her leadership and support.
    Madam Chairman, during the past 2 years, we have taken 
significant steps in the Six Party process. Working together 
with our Six Party partners, we have shut down North Korea's 
nuclear complex in Yongbyon and, in fact, have moved into 
disabling those facilities in Yongbyon. And our nuclear experts 
have been on the ground continuously since November of 2007.
    North Korea has temporarily halted disablement activities 
and, in fact, appears to be reversing some steps, but we remain 
committed to the Six Party process and are working closely with 
our partners to make sure that the disablement process is put 
back on track.
    On June 26, North Korea submitted a declaration of its 
nuclear programs. The Six Parties have agreed to a set of 
principles to guide verification of this declaration, and we 
are now focused on developing a strong, robust verification 
protocol to move the verification process forward.
    Madam Chairman, we remain concerned about North Korea's 
possible activities with uranium enrichment and proliferation 
activities. North Korea has stated categorically that it is not 
now and will not in the future engage in any uranium enrichment 
or proliferation activities. North Korea has also agreed to 
cooperate with verification with regard to those two issues.
    The Six Parties have also established a monitoring 
mechanism to ensure full implementation of all Six Party 
commitments, and we believe that would be an important vehicle 
to check North Korea's fulfillment of its obligations.
    Madam Chairman, there is still much work left. We 
anticipate many challenges and ups and downs as we seek the 
verifiable denuclearization of the Korean Peninsula. However, 
the Six Party process is working and a denuclearized North 
Korea remains essential to peace and stability in the region. 
With your consent, I hope to continue to serve my country in 
the pursuit of this vital national interest.
    Thank you very much.
    [The prepared statement of Mr. Kim follows:]

    Prepared Statement of Sung Y. Kim, Nominee To Have the Rank of 
 Ambassador During His Tenure of Service as Special Envoy for the Six-
                              Party Talks

    Madame Chairman, Senator Murkowski, and members of the committee, 
thank you for the opportunity to appear before you today. It is an 
honor and a privilege to be here as President Bush's and Secretary 
Rice's nominee to serve as Special Envoy for the six-party talks and, 
with your consent, to receive the rank of ambassador for the duration 
of my tenure. Few Asian-Americans have had the opportunity to serve the 
United States as an ambassador, and I am deeply moved and grateful to 
be considered for this privilege. If confirmed by the Senate, I look 
forward to working closely with this distinguished committee and with 
other Members of Congress to advance United States policy with regard 
to North Korea and the six-party process.
    I would like to take a moment to recognize my family because 
without their support I would not be here today. I am joined by my 
mother and brother who flew in from my home State of California, and my 
wife, Jae, and our two daughters, Erin and Erica. I am also pleased 
that my friends and colleagues from the Department of State, some of 
the most dedicated and talented young officers in the U.S. Government, 
are able to join me today.
    I have had a life-long interest in Asia, and as a Foreign Service 
officer, I have had the opportunity to spend much of my time working to 
advance United States interests in Asia. My direct involvement in the 
six-party talks began with my tenure as Director for the Office of 
Korean Affairs, but in looking back at my 19 years of diplomatic 
service, I realize that my experience has prepared me well for this 
important assignment. As Political-Military Affairs Chief in Seoul, I 
worked closely with our military colleagues to strengthen our alliance 
with the Republic of Korea; as a political officer in Tokyo, I covered 
Japan's relations with China, as well as North Korea; and as a desk 
officer in Washington a decade ago, I focused on a key aspect of our 
relations with China. The challenge posed by North Korea's nuclear 
program figured prominently in all of these assignments. Even my pre-
State Department experience as a prosecutor in Los Angeles in some ways 
has been useful to my work in six-party negotiations.
    As Director for Korean Affairs and as deputy of our six-party 
delegation for the past year, I have had the honor of leading several 
interagency delegations to North Korea to advance the implementation of 
various six-party commitments. These efforts included negotiating a 
robust package of disablement measures for core North Korean nuclear 
facilities and securing critical information on North Korea's nuclear 
program. During this time, I have had the privilege of working closely 
with Assistant Secretary of State Christopher Hill, who has 
energetically led the six-party negotiations, and I thank him for the 
trust, support, and the guidance he has given me. I am also grateful to 
Secretary Rice for her leadership and support.
    Madame Chairman, during the past 2 years, we have taken significant 
steps in the six-party process. Working with our six-party partners, we 
have shut down North Korea's Yongbyon nuclear complex. We have also 
moved into disabling the core facilities at Yongbyon, and since 
November 2007 United States personnel have maintained a presence on the 
ground in Yongbyon. North Korea temporarily has halted the disablement 
activities and appears to be

    Prepared Statement of Sung Y. Kim, Nominee To Have the Rank of 
 Ambassador During His Tenure of Service as Special Envoy for the Six-
                              Party Talks

    Madame Chairman, Senator Murkowski, and members of the committee, 
thank you for the opportunity to appear before you today. It is an 
honor and a privilege to be here as President Bush's and Secretary 
Rice's nominee to serve as Special Envoy for the six-party talks and, 
with your consent, to receive the rank of ambassador for the duration 
of my tenure. Few Asian-Americans have had the opportunity to serve the 
United States as an ambassador, and I am deeply moved and grateful to 
be considered for this privilege. If confirmed by the Senate, I look 
forward to working closely with this distinguished committee and with 
other Members of Congress to advance United States policy with regard 
to North Korea and the six-party process.
    I would like to take a moment to recognize my family because 
without their support I would not be here today. I am joined by my 
mother and brother who flew in from my home State of California, and my 
wife, Jae, and our two daughters, Erin and Erica. I am also pleased 
that my friends and colleagues from the Department of State, some of 
the most dedicated and talented young officers in the U.S. Government, 
are able to join me today.
    I have had a life-long interest in Asia, and as a Foreign Service 
officer, I have had the opportunity to spend much of my time working to 
advance United States interests in Asia. My direct involvement in the 
six-party talks began with my tenure as Director for the Office of 
Korean Affairs, but in looking back at my 19 years of diplomatic 
service, I realize that my experience has prepared me well for this 
important assignment. As Political-Military Affairs Chief in Seoul, I 
worked closely with our military colleagues to strengthen our alliance 
with the Republic of Korea; as a political officer in Tokyo, I covered 
Japan's relations with China, as well as North Korea; and as a desk 
officer in Washington a decade ago, I focused on a key aspect of our 
relations with China. The challenge posed by North Korea's nuclear 
program figured prominently in all of these assignments. Even my pre-
State Department experience as a prosecutor in Los Angeles in some ways 
has been useful to my work in six-party negotiations.
    As Director for Korean Affairs and as deputy of our six-party 
delegation for the past year, I have had the honor of leading several 
interagency delegations to North Korea to advance the implementation of 
various six-party commitments. These efforts included negotiating a 
robust package of disablement measures for core North Korean nuclear 
facilities and securing critical information on North Korea's nuclear 
program. During this time, I have had the privilege of working closely 
with Assistant Secretary of State Christopher Hill, who has 
energetically led the six-party negotiations, and I thank him for the 
trust, support, and the guidance he has given me. I am also grateful to 
Secretary Rice for her leadership and support.
    Madame Chairman, during the past 2 years, we have taken significant 
steps in the six-party process. Working with our six-party partners, we 
have shut down North Korea's Yongbyon nuclear complex. We have also 
moved into disabling the core facilities at Yongbyon, and since 
November 2007 United States personnel have maintained a presence on the 
ground in Yongbyon. North Korea temporarily has halted the disablement 
activities and appears to be taking steps to reverse some measures, but 
we remain committed to the six-party process and are working closely 
with our six-party partners to ensure the disablement process is put 
back on track.
    On June 26, North Korea provided a declaration of its nuclear 
programs. The six parties have agreed to guiding principles for 
verification of this declaration, and we are now working with our 
partners and the North Koreans to develop a strong verification 
protocol to move the verification process forward.
    We still have concerns with North Korea regarding uranium 
enrichment and proliferation activities. North Korea has stated that it 
is not now and will not in the future engage in any uranium enrichment 
or proliferation activities. North Korea also has committed to 
cooperate with verification activities related to these two issues. The 
six parties have established a monitoring mechanism intended to ensure 
implementation of all six-party commitments, including 
nonproliferation. We believe this will be an important vehicle to 
pursue any questions regarding North Korea's follow through on its 
promises.
    Madame Chairman, there is much work left to be done. We anticipate 
many challenges and ups and downs as we pursue the verifiable 
denuclearization of the Korean Peninsula. However, the six-party talks 
process is working, and a denuclearized North Korea remains essential 
to peace and security for all the members of the six-party talks. With 
your consent, I hope to continue to serve my country in pursuit of this 
vital national interest. Thank you, and I am happy to respond to any 
questions you have.

    Prepared Statement of Sung Y. Kim, Nominee To Have the Rank of 
 Ambassador During His Tenure of Service as Special Envoy for the Six-
                              Party Talks

    Madame Chairman, Senator Murkowski, and members of the committee, 
thank you for the opportunity to appear before you today. It is an 
honor and a privilege to be here as President Bush's and Secretary 
Rice's nominee to serve as Special Envoy for the six-party talks and, 
with your consent, to receive the rank of ambassador for the duration 
of my tenure. Few Asian-Americans have had the opportunity to serve the 
United States as an ambassador, and I am deeply moved and grateful to 
be considered for this privilege. If confirmed by the Senate, I look 
forward to working closely with this distinguished committee and with 
other Members of Congress to advance United States policy with regard 
to North Korea and the six-party process.
    I would like to take a moment to recognize my family because 
without their support I would not be here today. I am joined by my 
mother and brother who flew in from my home State of California, and my 
wife, Jae, and our two daughters, Erin and Erica. I am also pleased 
that my friends and colleagues from the Department of State, some of 
the most dedicated and talented young officers in the U.S. Government, 
are able to join me today.
    I have had a life-long interest in Asia, and as a Foreign Service 
officer, I have had the opportunity to spend much of my time working to 
advance United States interests in Asia. My direct involvement in the 
six-party talks began with my tenure as Director for the Office of 
Korean Affairs, but in looking back at my 19 years of diplomatic 
service, I realize that my experience has prepared me well for this 
important assignment. As Political-Military Affairs Chief in Seoul, I 
worked closely with our military colleagues to strengthen our alliance 
with the Republic of Korea; as a political officer in Tokyo, I covered 
Japan's relations with China, as well as North Korea; and as a desk 
officer in Washington a decade ago, I focused on a key aspect of our 
relations with China. The challenge posed by North Korea's nuclear 
program figured prominently in all of these assignments. Even my pre-
State Department experience as a prosecutor in Los Angeles in some ways 
has been useful to my work in six-party negotiations.
    As Director for Korean Affairs and as deputy of our six-party 
delegation for the past year, I have had the honor of leading several 
interagency delegations to North Korea to advance the implementation of 
various six-party commitments. These efforts included negotiating a 
robust package of disablement measures for core North Korean nuclear 
facilities and securing critical information on North Korea's nuclear 
program. During this time, I have had the privilege of working closely 
with Assistant Secretary of State Christopher Hill, who has 
energetically led the six-party negotiations, and I thank him for the 
trust, support, and the guidance he has given me. I am also grateful to 
Secretary Rice for her leadership and support.
    Madame Chairman, during the past 2 years, we have taken significant 
steps in the six-party process. Working with our six-party partners, we 
have shut down North Korea's Yongbyon nuclear complex. We have also 
moved into disabling the core facilities at Yongbyon, and since 
November 2007 United States personnel have maintained a presence on the 
ground in Yongbyon. North Korea temporarily has halted the disablement 
activities and appears to be taking steps to reverse some measures, but 
we remain committed to the six-party process and are working closely 
with our six-party partners to ensure the disablement process is put 
back on track.
    On June 26, North Korea provided a declaration of its nuclear 
programs. The six parties have agreed to guiding principles for 
verification of this declaration, and we are now working with our 
partners and the North Koreans to develop a strong verification 
protocol to move the verification process forward.
    We still have concerns with North Korea regarding uranium 
enrichment and proliferation activities. North Korea has stated that it 
is not now and will not in the future engage in any uranium enrichment 
or proliferation activities. North Korea also has committed to 
cooperate with verification activities related to these two issues. The 
six parties have established a monitoring mechanism intended to ensure 
implementation of all six-party commitments, including 
nonproliferation. We believe this will be an important vehicle to 
pursue any questions regarding North Korea's follow through on its 
promises.
    Madame Chairman, there is much work left to be done. We anticipate 
many challenges and ups and downs as we pursue the verifiable 
denuclearization of the Korean Peninsula. However, the six-party talks 
process is working, and a denuclearized North Korea remains essential 
to peace and security for all the members of the six-party talks. With 
your consent, I hope to continue to serve my country in pursuit of this 
vital national interest. Thank you, and I am happy to respond to any 
questions you have.

    Prepared Statement of Sung Y. Kim, Nominee To Have the Rank of 
 Ambassador During His Tenure of Service as Special Envoy for the Six-
                              Party Talks

    Madame Chairman, Senator Murkowski, and members of the committee, 
thank you for the opportunity to appear before you today. It is an 
honor and a privilege to be here as President Bush's and Secretary 
Rice's nominee to serve as Special Envoy for the six-party talks and, 
with your consent, to receive the rank of ambassador for the duration 
of my tenure. Few Asian-Americans have had the opportunity to serve the 
United States as an ambassador, and I am deeply moved and grateful to 
be considered for this privilege. If confirmed by the Senate, I look 
forward to working closely with this distinguished committee and with 
other Members of Congress to advance United States policy with regard 
to North Korea and the six-party process.
    I would like to take a moment to recognize my family because 
without their support I would not be here today. I am joined by my 
mother and brother who flew in from my home State of California, and my 
wife, Jae, and our two daughters, Erin and Erica. I am also pleased 
that my friends and colleagues from the Department of State, some of 
the most dedicated and talented young officers in the U.S. Government, 
are able to join me today.
    I have had a life-long interest in Asia, and as a Foreign Service 
officer, I have had the opportunity to spend much of my time working to 
advance United States interests in Asia. My direct involvement in the 
six-party talks began with my tenure as Director for the Office of 
Korean Affairs, but in looking back at my 19 years of diplomatic 
service, I realize that my experience has prepared me well for this 
important assignment. As Political-Military Affairs Chief in Seoul, I 
worked closely with our military colleagues to strengthen our alliance 
with the Republic of Korea; as a political officer in Tokyo, I covered 
Japan's relations with China, as well as North Korea; and as a desk 
officer in Washington a decade ago, I focused on a key aspect of our 
relations with China. The challenge posed by North Korea's nuclear 
program figured prominently in all of these assignments. Even my pre-
State Department experience as a prosecutor in Los Angeles in some ways 
has been useful to my work in six-party negotiations.
    As Director for Korean Affairs and as deputy of our six-party 
delegation for the past year, I have had the honor of leading several 
interagency delegations to North Korea to advance the implementation of 
various six-party commitments. These efforts included negotiating a 
robust package of disablement measures for core North Korean nuclear 
facilities and securing critical information on North Korea's nuclear 
program. During this time, I have had the privilege of working closely 
with Assistant Secretary of State Christopher Hill, who has 
energetically led the six-party negotiations, and I thank him for the 
trust, support, and the guidance he has given me. I am also grateful to 
Secretary Rice for her leadership and support.
    Madame Chairman, during the past 2 years, we have taken significant 
steps in the six-party process. Working with our six-party partners, we 
have shut down North Korea's Yongbyon nuclear complex. We have also 
moved into disabling the core facilities at Yongbyon, and since 
November 2007 United States personnel have maintained a presence on the 
ground in Yongbyon. North Korea temporarily has halted the disablement 
activities and appears to be taking steps to reverse some measures, but 
we remain committed to the six-party process and are working closely 
with our six-party partners to ensure the disablement process is put 
back on track.
    On June 26, North Korea provided a declaration of its nuclear 
programs. The six parties have agreed to guiding principles for 
verification of this declaration, and we are now working with our 
partners and the North Koreans to develop a strong verification 
protocol to move the verification process forward.
    We still have concerns with North Korea regarding uranium 
enrichment and proliferation activities. North Korea has stated that it 
is not now and will not in the future engage in any uranium enrichment 
or proliferation activities. North Korea also has committed to 
cooperate with verification activities related to these two issues. The 
six parties have established a monitoring mechanism intended to ensure 
implementation of all six-party commitments, including 
nonproliferation. We believe this will be an important vehicle to 
pursue any questions regarding North Korea's follow through on its 
promises.
    Madame Chairman, there is much work left to be done. We anticipate 
many challenges and ups and downs as we pursue the verifiable 
denuclearization of the Korean Peninsula. However, the six-party talks 
process is working, and a denuclearized North Korea remains essential 
to peace and security for all the members of the six-party talks. With 
your consent, I hope to continue to serve my country in pursuit of this 
vital national interest. Thank you, and I am happy to respond to any 
questions you have.taking steps to reverse some measures, but we remain 
committed to the six-party process and are working closely with our 
six-party partners to ensure the disablement process is put back on 
track.
    On June 26, North Korea provided a declaration of its nuclear 
programs. The six parties have agreed to guiding principles for 
verification of this declaration, and we are now working with our 
partners and the North Koreans to develop a strong verification 
protocol to move the verification process forward.
    We still have concerns with North Korea regarding uranium 
enrichment and proliferation activities. North Korea has stated that it 
is not now and will not in the future engage in any uranium enrichment 
or proliferation activities. North Korea also has committed to 
cooperate with verification activities related to these two issues. The 
six parties have established a monitoring mechanism intended to ensure 
implementation of all six-party commitments, including 
nonproliferation. We believe this will be an important vehicle to 
pursue any questions regarding North Korea's follow through on its 
promises.
    Madame Chairman, there is much work left to be done. We anticipate 
many challenges and ups and downs as we pursue the verifiable 
denuclearization of the Korean Peninsula. However, the six-party talks 
process is working, and a denuclearized North Korea remains essential 
to peace and security for all the members of the six-party talks. With 
your consent, I hope to continue to serve my country in pursuit of this 
vital national interest. Thank you, and I am happy to respond to any 
questions you have.

    Senator Murkowski [presiding]. Thank you, Mr. Kim.
    Senator Boxer has had to excuse herself for just a moment. 
She does anticipate being back, but we will proceed. Mr. 
McGann, if you would like to give your statement.

STATEMENT OF C. STEVEN McGANN, NOMINEE TO BE AMBASSADOR TO THE 
  REPUBLIC OF THE FIJI ISLANDS, AND TO SERVE CONCURRENTLY AND 
 WITHOUT ADDITIONAL COMPENSATION AS AMBASSADOR TO THE REPUBLIC 
  OF NAURU, THE KINGDOM OF TONGA, TUVALU, AND THE REPUBLIC OF 
                            KIRIBATI

    Mr. McGann. Madam Chairman, Senator Murkowski, members of 
the committee, I am deeply honored that President Bush has 
nominated me to be United States Ambassador to the Republic of 
the Fiji Islands, the Republic of Kiribati, the Republic of 
Nauru, and the Kingdoms of Tonga and Tuvalu. I want to thank 
President Bush and Secretary Rice for their trust in nominating 
me for this position.
    Madam Chairman, I want to thank you and the members of this 
committee for your efforts to address a burgeoning array of 
challenges confronting these countries and for giving me this 
opportunity to appear before you today. If confirmed, I will 
work closely with the Members of Congress to maintain strong 
bipartisan support for United States goals and priorities in 
the Pacific.
    Madam Chairman, Senator Murkowski, I would like to 
acknowledge the support of my wife, Bertra McGann, the 
dedication of my mother, Evangeline Hutson, who hopefully is 
watching in Los Angeles today, and the enthusiasm of my 
children, Leyland, Steven, Bethany, Bradford, and Benjamin, my 
family, friends, and colleagues, particularly Barbara Benson, 
my secretary, that led to my being before the committee today.
    If confirmed, I plan to build upon my work over the past 2 
years leading the Office of Australian, New Zealand, and 
Pacific Island Affairs to build United States relationships in 
the Pacific. During my tenure, I will focus on four important 
areas: promoting democracy, increasing economic growth, 
strengthening environmental stewardship, and enhancing maritime 
security.
    The Pacific's balmy weather, welcoming people, and natural 
wonders attract over 150,000 Americans to Embassy Suva's 
consular district each year. My responsibility is to provide 
services to these Americans will remain a high priority of our 
embassy.
    Addressing environmental issues will be an essential part 
of my portfolio. Environmental degradation poses an especially 
critical challenge for these countries. Many are low-lying 
atolls that are increasingly vulnerable to the effects of 
climate change. Over-fishing threatens marine sources and hits 
hard in the Pacific because these island states depend on fish 
stocks not only for sustenance but as a major source of 
government revenue. We will continue our work with Pacific 
countries to help save coral reefs and protect the marine 
environment from invasive species. If confirmed, I will work 
with Pacific nations to help make them green economies based on 
environmentally sustainable policies and adopting renewable 
energies, including solar, wind, and wave, to advance our 
common interests.
    I would like to take a few moments to address a number of 
pressing bilateral issues the United States faces in the 
Pacific, beginning with Fiji.
    In December 2006, the Fiji military, led by Commodore 
Voreqe Bainimarama, overthrew the country's lawfully elected 
government. This was Fiji's fourth coup in 19 years. In 
accordance with the Foreign Operations Assistance Act, the 
United States suspended military and some foreign assistance 
programs in Fiji because of the coup, and those restrictions 
will not be relaxed until Fiji returns to democracy. We have 
also imposed visa sanctions and taken other measures directed 
against coup leaders and their supporters. We have taken these 
steps in close coordination with our allies and partners in the 
region to underline the urgency to restore democracy and to 
bolster the efforts of the Pacific Islands Forum. If confirmed, 
I will work with all elements of Fijian society and regional 
partners to quickly restore the rule of law, strengthen civil 
society, and rebuild democratic institutions in Fiji.
    Nauru's once bountiful phosphate mines are almost 
exhausted. Per capita income in that country has plummeted from 
among the world's highest to near subsistence levels. Tuvalu 
has expressed concern that any rise in seal level may 
completely engulf Tuvalu's nine atolls, precipitating the 
relocation of its entire population. Kiribati generally manages 
its affairs responsibly but has severely limited prospects for 
economic development. This year's legislative elections showed 
that Tongans have a strong desire for democratic reform, and 
Tongan King George Tupou V has agreed that democratic reforms 
are needed in the country. If confirmed as ambassador, I would 
work closely with our longstanding friends to address these 
economic, political, and social issues.
    Finally, I will do my best to promote excellent relations 
between the United States and each of these five countries and 
the territories within my consular district. Working together, 
we can achieve our common goals for a more peaceful and 
prosperous Pacific region.
    Again, I applaud the committee's efforts to address 
challenges confronting the Pacific region, and at this time I 
would be pleased to respond to any questions you may have.
    Thank you.
    [The prepared statement of Mr. McGann follows:]

   Prepared Statement of C. Stephen McGann, Nominee to be Ambassador-
    Designate to the Republic of the Fiji Islands, the Republic of 
   Kiribati, the Republic of Nauru, the Kingdom of Tonga, and Tuvalu

    Madam Chairman, Senator Murkowski, members of the committee, I am 
deeply honored that President Bush has nominated me to be United States 
Ambassador to the Republic of the Fiji Islands, the Republic of 
Kiribati, the Republic of Nauru, the Kingdom of Tonga, and Tuvalu. I 
want to thank President Bush and Secretary Rice for their trust in 
nominating me for this position. Madam Chairman, I want to thank you 
and the members of this committee for your efforts to address a 
burgeoning array of challenges confronting these countries and for 
giving me this opportunity to appear before you today. If confirmed, I 
will work closely with Members of Congress to maintain strong 
bipartisan support for U.S. goals and priorities in the Pacific.
    Madame Chairman, I would like to acknowledge the support of my 
wife, Bertra McGann, the dedication of my mother, Evangeline Hutson, 
and the enthusiasm of my children, Leyland, Steven, Bethany, Bradford, 
and Benjamin, my family, friends, and colleagues that led to my being 
before the committee today.
    Prior to being nominated, I served as in the State Department's 
Bureau of East Asian and Pacific Affairs as the Director of the Office 
of Australia, New Zealand, and Pacific Island Affairs, as well as the 
Maritime Security Coordinator. I also served as the Director for Asia 
and Near East in the Bureau for Population, Refugees, and Migration, as 
well as in other positions during my 29 year career in the U.S. Foreign 
Service.
    If confirmed, I plan to build upon my work over the past 2 years 
leading the Office of Australia, New Zealand, and Pacific Island 
Affairs to build United States relationships in the Pacific. During my 
tenure, I focused on four important areas--promoting democracy, 
increasing economic growth, strengthening environmental stewardship, 
and enhancing maritime security. As ambassador, I will be building upon 
the United States historically friendly relations with Fiji, Kiribati, 
Nauru, Tonga, and Tuvalu. Those relations began with 19th century 
mariners and missionaries and grew stronger during the Second World 
War. Some of the bloodiest fighting in the Pacific theater took place 
on Tarawa atoll in Kiribati, and United States forces set up bases at 
several locations in Fiji, Tonga, and Tuvalu.
    If confirmed as the United States Ambassador, resident in Suva, 
Fiji, I would be responsible for our bilateral relationships with five 
independent nations. Suva also is the headquarters of the Pacific 
Islands Forum, the preeminent multilateral organization in the region 
and home to offices of the Secretariat of the Pacific Community, which 
manages technical and development assistance programs in the region. 
Fiji's place in the Pacific, as host to numerous diplomatic missions 
and international organizations, including the United Nations, and as a 
transportation center, makes it a key focal point for our larger 
regional engagement.
    Embassy Suva is a busy hub of American activity in the Pacific. If 
confirmed, I will lead an embassy team of professional, highly 
dedicated public servants. They manage relations with five sovereign 
countries and collaborate with multilateral organizations. The embassy 
serves as a center for regional public diplomacy activities, 
environmental programs and policies, and defense-related relationships. 
The embassy also has consular and commercial responsibilities for 
French Polynesia, New Caledonia, and Wallis and Futuna, making it the 
largest geographic consular district in the world. The Pacific's balmy 
weather, welcoming people, and natural wonders attract over 150,000 
American visitors to Embassy Suva's consular district annually. Provide 
services to these Americans would remain a high priority of our embassy 
during my tenure.
    If confirmed as ambassador, fostering regional stability and 
eliciting support for the war on terror would remain priorities of the 
embassy. Tonga and Tuvalu became early members of the coalition to 
liberate Iraq. Tongan troops currently provide security for coalition 
forces at Camp Victory. Fiji's troops are doing the same for the United 
Nations Assistance Mission for Iraq in Baghdad.
    Pacific Island nations face many of the same ``global issues'' 
threats and challenges that the United States and other countries 
face--but in the case of the Pacific Islands the repercussions can be 
more acute.
    Protecting the environment, fighting HIV/AIDS, stemming the flow of 
illicit drugs, and combating human trafficking are growing concerns in 
the region. Environmental degradation poses an especially critical 
challenge for these countries. Many are low-lying atolls that are 
increasingly vulnerable to the effects of rising sea levels. 
Overfishing threatens marine resources and hits hard in the Pacific, 
because these island states depend on fish stocks not only for the 
sustenance, but as a major source of government revenue. We are also 
working with Pacific countries to help save coral reefs and protect the 
marine environment from invasive species. If confirmed, I will work 
with Pacific nations to help make them green economies based on 
environmentally sustainable policies and adopting renewable energies, 
including solar, wind, and wave, to advance our common interests.
    A key partner in this effort is the Secretariat of the Pacific 
Community (SPC). I have had the pleasure of working with several SPC 
leaders, and if confirmed, I would look forward to our continued 
collaboration in such areas as maritime security; the fight against 
diabetes and other public-health concerns; women's issues; biosecurity; 
natural resource conservation; and economic development. In addition, 
if confirmed, I will implement initiatives to spread to the Pacific 
community the economic and employment opportunities related to the 
multibillion dollar relocation of United States forces from Okinawa to 
Guam.
    As in other parts of the world, Peace Corps volunteers in the 
Pacific make a tremendous difference in so many lives. Simply put, they 
are among America's most effective ambassadors. The Peace Corps plays 
an essential role in enhancing our people-to-people relations in the 
region. I have worked closely with Peace Corps staff and volunteers 
during the past 2 years and in my previous posts. If confirmed, I will 
build on these close relationships to ensure the health and safety of 
volunteers, and consult with key stakeholders on the possibility of 
expanding the Peace Corps' presence in the region.
    I would like to take a few moments to address a number of pressing 
bilateral issues the United States faces in the region, beginning with 
Fiji. This list is by no means exhaustive. In December 2006 the Fiji 
military, led by Commodore Voreqe Bainimarama, overthrew the country's 
lawfully elected government. This was the Fiji's fourth coup in 19 
years. The coup has created a prolonged political and economic crisis 
in Fiji. In accordance with the Foreign Operations Assistance Act, the 
United States suspended military and some foreign assistance programs 
in Fiji because of the coup, and those restrictions will not be relaxed 
until Fiji returns to democracy. We have also imposed visa sanctions 
and taken other measures directed against coup leaders and their 
supporters. We have taken these steps in close coordination with our 
allies and partners in the region to underline the urgency to restore 
democracy and to bolster the efforts of the Pacific Islands Forum. 
Recently, Fiji's interim government withdrew its pledge to Pacific 
leaders to hold free and fair elections no later than March 2009. If 
confirmed, I will work with all elements of Fijian society and regional 
partners to quickly restore the rule of law, strengthen civil society, 
and rebuild democratic institutions in Fiji.
    Nauru's once bountiful phosphate mines are almost exhausted. Per 
capita income in that country has plummeted from among the world's 
highest to near subsistence levels. Tuvalu, one of the world's smallest 
nations, has 9 atolls only a few feet above sea level. The Government 
of Tuvalu has expressed concern that any rise in sea level associated 
with climate change may completely engulf Tuvalu and necessitate the 
relocation of its entire population. Kiribati generally manages its 
affairs responsibly but has severely limited prospects for economic 
development. This year's legislative elections showed that Tongans have 
a strong desire for democratic reform, and Tongan King George Tupou V 
has agreed that democratic reforms are needed in the country. If 
confirmed as ambassador, I would work closely with our long-standing 
friends of the United States to address these economic, political, and 
social issues.
    Many nations have significant interests in the South Pacific. 
Australia and New Zealand have strong cultural, political, historical, 
and security ties with the region, and the United States works most 
closely with these two countries in coordinating policies and programs 
throughout the area of Embassy Suva's responsibility. If confirmed, I 
will work with my counterparts in Australia and New Zealand to achieve 
our common objectives.
    China is rapidly expanding ties throughout the Pacific in its 
pursuit of seeking resources and commercial opportunities. China's 
competition with Taiwan for diplomatic recognition and influence plays 
out directly in Embassy Suva's area of responsibility: Kiribati, Nauru, 
and Tuvalu recognize Taiwan, while Fiji and Tonga recognize China. If 
confirmed, I will engage with both China and Taiwan to press for 
responsibility, accountability, and transparency in development 
programs to ensure that their assistance supports good governance and 
the rule of law.
    Fiji, Kiribati, Nauru, Tonga, and Tuvalu occupy a strategically 
important place in the Pacific. As our partners in addressing critical 
global and regional issues, it is in the United States interest to 
remain fully engaged with these countries. If confirmed, I will do my 
best to promote excellent relations between the United States and each 
of these five countries and the territories within my consular 
district. Working together we can achieve our common goals for a more 
peaceful and prosperous Pacific region.
    Again, I applaud the committee's efforts to address challenges 
confronting the Pacific region. At this time I would be pleased to 
respond to any questions you may have.

    Senator Murkowski. Thank you, Mr. McGann.
    And finally, we will turn to Carol Rodley for your 
statement. Thank you.

STATEMENT OF CAROL ANN RODLEY, NOMINEE TO BE AMBASSADOR TO THE 
                      KINGDOM OF CAMBODIA

    Ms. Rodley. Madam Chairman, Senator Murkowski, members of 
the committee, I am honored to appear before you today as 
President Bush's nominee to be the Ambassador of the United 
States to the Kingdom of Cambodia, and am grateful to the 
President and to Secretary of State Rice for their trust and 
confidence in sending my name forward for your consideration. 
If confirmed, I look forward to working closely with you and 
other interested Members of Congress to advance United States 
interests in Cambodia.
    I would like to introduce my husband, David Newhall, and my 
son, Niles Lashway, who are in the audience. Two other children 
of mine are tied up with the demands of law school and organic 
chemistry and are unable to join us today, but are rooting for 
me from afar. The career I have had in public service has been 
a great privilege, but it has demanded sacrifices of my family 
and I would like to acknowledge their great partnership and 
unfailing support and thank them for that.
    Senator Murkowski. We thank them.
    Ms. Rodley. The United States reestablished relations with 
Cambodia in 1993, following one of the largest U.N. 
peacekeeping operations ever mounted. Although the effects of 
Khmer Rouge rule still linger and Cambodia's road to democracy 
has been a difficult one, today the country is at peace. Its 
economy is growing rapidly, and Cambodians express more 
confidence in their future than they have in the past. 
Throughout this transition, the United States has been a proud 
beacon of support for democracy and human rights in Cambodia. A 
vibrant Cambodian NGO community today flourishes with our moral 
and financial support and has taken the lead in advancing the 
causes of political freedom, democratic governance, justice, 
and respect for human rights. This year, the Khmer Rouge 
Tribunal is scheduled to hold its first trial for crimes 
against humanity, a significant milestone on the path to 
justice and reconciliation. Cambodia, once the beneficiary of 
U.N. peacekeeping, today has troops deployed in southern Sudan 
and its demining experts have served honorably in Afghanistan.
    While much work remains to be done to strengthen the rule 
of law, democratic institutions, and respect for human rights, 
Cambodia and Cambodians have come a very long way from the dark 
days of Pol Pot's evil reign. If confirmed, I look forward to 
advancing United States interests in Cambodia by promoting 
freedom and greater openness, pressing for justice, standing up 
for and speaking out for human rights and the rule of law 
whenever possible, safeguarding United States citizens, 150,000 
of whom live in or travel to Cambodia every year, advocating 
for United States business interests, and working hard to 
achieve the fullest possible accounting for United States 
personnel still missing from the Vietnam War.
    Thank you, Madam Chairman, Senator Murkowski. I am happy to 
answer any questions you might have.
    [The prepared statement of Ms. Rodley follows:]

            Prepared Statement of Carol Ann Rodley, Nominee 
              to be Ambassador to the Kingdom of Cambodia

    Madam Chairman, Senator Murkowski, members of the committee, I am 
honored to appear before you today as President Bush's nominee to be 
the Ambassador of the United States to Cambodia. I am grateful to 
President Bush and Secretary of State Rice for their confidence and 
trust in sending my name to the Senate for your consideration. If 
confirmed, I look forward to working with the committee and other 
interested Members of Congress to advance United States interests in 
Cambodia.
    I would like to introduce my husband, David Newhall, and two of my 
children, Alice and Steven, who are in the audience. Another son, 
Niles, is away at school in West Virginia. The career I have had in 
public service has been an enormous privilege, but it has demanded 
sacrifices from my family and I want them to know how much I appreciate 
their partnership and unfailing support.
    In my 28 years in the Foreign Service, I have served in a number of 
countries, including Cambodia and Afghanistan, which have suffered from 
political strife, ethnic conflict, post-conflict challenges, and 
insurgencies. It has been an honor and a privilege to serve and 
represent my country and I have always sought challenging assignments, 
both abroad and at home, where I believed I could make a difference. I 
am recently back from a year in Afghanistan, where I worked on 
coordination of civilian and military counterinsurgency efforts and 
reform of Afghan security forces. That experience reinforced for me the 
importance of an integrated approach to the complex problems that face 
us and our foreign partners.
    The United States reestablished relations with Cambodia in 1993, 
following one of the largest U.N. peacekeeping operations ever. 
Although the effects of Khmer Rouge rule still linger and Cambodia's 
road to democracy has been a difficult one, the country is at peace and 
its economy is growing. National Assembly elections in July took place 
peacefully and with a significant voter turnout, and Cambodians 
themselves are more confident of their future than they have been in 
the past. Throughout this time, the United States has been a beacon of 
support for democratic development and protection of human rights in 
Cambodia. A vibrant Cambodian NGO community flourishes with our 
financial and moral support and has taken the lead in advancing the 
causes of political freedom, democratic governance, justice, and 
respect for human dignity. This year, the Khmer Rouge Tribunal, 
established to bring the senior leaders of the Khmer Rouge to justice, 
and which I worked to establish during my previous service in Cambodia, 
is scheduled to hold its first trial--a significant milestone on the 
path to reconciliation and justice. Cambodia, once the beneficiary of a 
U.N. peacekeeping operation, today has deminers deployed in southern 
Sudan, and other Cambodian demining experts have shared their expertise 
on mine action coordination and victim assistance in Afghanistan.
    While much work still needs to be done to strengthen rule of law, 
democratic institutions and respect for human rights, Cambodia and 
Cambodians have come a long way from the dark days of Pol Pot's evil 
reign. If confirmed, I would continue to emphasize that support for 
democracy, human rights, and the rule of law remain cornerstones of 
United States policy in Cambodia.
    The United States and Cambodia share many common interests and our 
bilateral relationship is also growing closer. Cambodia has cooperated 
with us for years in helping achieve the fullest possible accounting of 
Americans missing from the Vietnam War. More recently, law enforcement 
and counterterrorism cooperation between our two nations has increased, 
as has our military-to-military engagement. Cambodia has also made 
significant progress in combating trafficking in persons and deserves 
praise for its support of religious freedom. Cambodia continues to 
improve its business and foreign investment climate, and its economy is 
growing. However it remains one of the poorest countries in Asia and is 
wracked with corruption that both inhibits development and threatens 
much of the progress that has been made. As I alluded to earlier, 
Cambodia's democratic institutions are still fragile and need our 
support.
    If confirmed, I look forward to advancing our interests in 
Cambodia, promoting freedom, pressing for justice, standing up for 
human rights and the rule of law, safeguarding the 150,000 Americans 
who live in or travel to that country each year, and advocating for 
American business interests.
    I would like to mention the progress Cambodia has made in the area 
of child welfare, which I know is of interest to many members of this 
committee. Intercountry adoption from Cambodia has been suspended since 
2001, when widespread corruption and trafficking in children was 
discovered. Since then, Cambodia has ratified the Hague Convention on 
Intercountry Adoption and is working to establish the capability to 
meet its Convention obligations. If confirmed, I will work closely with 
Cambodian counterparts to develop a system that respects both Cambodian 
and United States law and provides safeguards for vulnerable children, 
birth parents, and adoptive parents.
    I believe my 28 years in the Foreign Service, including my recent 
service in Afghanistan as Counselor for Political/Military Affairs, my 
years as Principal Deputy Assistant Secretary of State for Intelligence 
and Research, and my previous service as Deputy Chief of Mission in 
Cambodia have prepared me well for this assignment. I would certainly 
draw on this experience to ensure that our embassy uses its resources 
wisely, that we intensify our engagement on important issues that 
affect U.S. national security, and that the safety and security of 
American citizens remains a top priority.
    Thank you, Madam Chairman, Senator Murkowski, and members of the 
committee. I will be happy to answer any questions you may have.

    Senator Boxer [presiding]. Thanks. I have asked Senator 
Murkowski to run the hearing, and I am going to ask my 
questions first. I just have three things happening all at the 
same moment in my life, which is what happens in the Senate.
    I wanted to talk to you, Mr. Kim, about where we are today. 
I do not want to assume anything and I do not want to ask you 
some question that you really cannot answer, given the 
instability there. Do you feel that the Six Party Talks process 
will move forward regardless of who is at the helm in North 
Korea?
    Mr. Kim. Thank you very much, Madam Chairman.
    We, of course, have no information to confirm the press 
reports.
    Senator Boxer.. Yes.
    Mr. Kim. But we are continuing to monitor the situation 
very closely. We are also in close contact with all of our Six 
Party partners about the situation in Pyongyang.
    It is difficult to speculate, but in terms of the Six Party 
process, we of course remain fully committed to the Six Party 
process, and we hope that whatever the leadership situation is 
in North Korea, that the North Koreans also realize that it is 
in their interest to continue to work with us toward the goal 
of the denuclearized Korean Peninsula and the Six Party 
process.
    Senator Boxer. It is so key.
    I have some other questions, but I am going to ask you to 
answer them in the next few days. There is nothing tricky for 
the others.
    Mr. Kim. Thank you.
    Senator Boxer. So we will leave open the record.
    I am just very pleased at these nominations. I just want to 
make sure that Senator Murkowski knew that. She has graciously 
agreed to chair the rest of the hearing and ask the questions. 
And I wish you every good wish, and I am so happy that some of 
the families are here to give you the support that you deserve. 
And we thank you for everything you have given to your country 
and will continue to give into the future.
    Senator, thank you so much for taking the chair for me.
    Senator Murkowski [presiding]. Thank you, Senator Boxer.
    Mr. Kim, let me just continue in the same line that Senator 
Boxer has mentioned. We are not quite certain the status of Kim 
Jong Il. We can do a lot of speculation here in terms of how 
the talks will proceed, but moving from that, we recognize that 
some of the other countries in the Six Party Talks are also 
looking at some changes. How will the resignation of Japan's 
Prime Minister impact the Six Party Talks, or will it?
    Mr. Kim. The Japanese Government has been a very good 
partner in the Six Party process, and we fully expect that 
their participation in the process will continue through the 
transition.
    They, of course, as you know, Senator have had serious 
concerns about the abductions issue, and we have pressed the 
North Koreans repeatedly to address Japan's concerns. And in 
fact, we were cautiously encouraged when the North Koreans and 
the Japanese reached an agreement on a set of modalities for 
resumption of investigations into that issue. I understand that 
investigation has been put on hold pending the transition in 
Tokyo, and I would urge the North Koreans to proceed with the 
resumption of investigations as soon as possible.
    Senator Murkowski. We recognize from Japan's perspective 
and from our perspective as a friend and ally of Japan that 
that aspect is something that we know needs to be addressed.
    What do you make about North Korea's statement that it 
would consider steps to restore the operations at Yongbyon?
    Mr. Kim. North Korea is known to issue unhelpful 
statements, and I am afraid that is one example. Any move to 
restore Yongbyon, I think, would be a serious mistake. We have 
noticed that they have begun to take some steps that would 
indicate restoration of Yongbyon, but these are relatively----
    Senator Murkowski. Such as what?
    Mr. Kim. Such as they removed some disabled equipment that 
had been placed in storage. They took them out and brought them 
into operational areas. But at the moment, we have not detected 
any serious step to restore the operation of the Yongbyon 
facilities. In fact, we have been talking to all of our Six 
Party partners about the current situation, and I think all of 
our partners share our deep concern that any move to reverse 
disablement at Yongbyon would be a serious mistake.
    Senator Murkowski. So you think at this point in time that 
it is just talk by North Korea and that they do not intend--or 
you have indicated that there may be some signals out there 
that they could be serious about restoring the operations.
    Mr. Kim. Yes, Senator. It is always difficult to figure the 
North Koreans out. It remains one of the most opaque societies 
and government.
    What we have, of course, noticed is the statements, as you 
have cited, and some movement in Yongbyon that might indicate 
that they would move toward restoring Yongbyon, but these steps 
have been limited. And what we would like them to do is focus 
on getting a verification protocol done so that the 
verification of their declaration can move forward. I think 
that is the most urgent task. Any move to reverse disablement I 
think detracts from the work of the Six Party process, and I 
think it is something that they should not consider.
    Senator Murkowski. Are you seeing good cooperation then by 
our partners in the Six Party Talks on the issue of 
verification?
    Mr. Kim. Yes, Senator, we have. We have continued to work 
very closely with the Chinese and all of our other Six Party 
partners in developing a strong and robust verification 
protocol that would help guide the verification activities on 
the ground in North Korea.
    Senator Murkowski. Good. Well, I thank you for your 
responses. Again, for all the efforts and your good work with 
regard to the Six Party Talks and all that you are doing, we 
appreciate it greatly.
    Mr. McGann, you had mentioned the economic issues and 
associated matters and made reference to the coup in Fiji. With 
the coup and the subsequent pledge by China for continued 
foreign assistance and then the riot in Tonga in relation to 
China's economic infrastructure there, are there any other hot 
spots that we should be looking at in the Pacific islands as 
the China and Taiwan economic diplomacy plays out? Anything 
else you might be aware of that you could share?
    Mr. McGann. Senator Murkowski, I believe that we have to 
work closely with China to make sure that China's approach 
toward development and assistance in the Pacific does not 
undermine our own efforts to promote good governance and rule 
of law. In the past few years, we have been engaged with China 
to try and move them away from what we call these white 
elephant projects, you know, building stadiums, building 
residences, and move in a direction that we are trying to move 
and that is focusing on capacity building, training, and 
technical assistance to the Pacific islands. We think we are 
hearing a responsive chord in China in that they are willing to 
listen to us. In that regard, while we are mindful that China 
has not altered its assistance to Fiji, again we are constantly 
talking with them about making sure that their efforts do not 
stray from our principal goal in Fiji which is the quick 
restoration of democracy and the legitimate government based on 
the existing constitution.
    I would also like to add that we have often spoken with 
Taiwan officials about their responsibility as a donor in the 
Pacific region and that Taiwan should not focus on diplomatic 
recognition but, in fact, continue to focus on building friends 
in the Pacific. I might add that Taiwan has collaborated with 
the United States in the Pacific on very good issues such as 
polio eradication. Taiwan has also donated portable solar-
powered generators to some Pacific islands. We think this is 
the right direction for Taiwan to take and that if we can 
continue to keep the focus on the real assistance needs of the 
Pacific region and move it away from this unnecessary 
competition over diplomatic recognition between Beijing and 
Taipei, then we can eliminate the concern about their provoking 
or contributing inadvertently to creating hot spots in the 
Pacific.
    Senator Murkowski. Now, in the past or traditionally, 
Australia and New Zealand have been the very close partners 
certainly to Fiji. Is that still the case, or have China and 
India overtaken them in terms of those partnerships?
    Mr. McGann. No, they have not. Australia and New Zealand 
are members of the Pacific Island Forum. Both Australia and New 
Zealand give substantial assistance to the Pacific region, not 
just Fiji alone. And we work very closely with both Canberra 
and Wellington to make sure that our policies in the region are 
complementary.
    Although the United States is not a member of the Pacific 
Island Forum's group, which Australia and New Zealand and other 
Pacific island countries participate in, we are a Pacific 
nation, and we have increased our engagement over the past few 
years simply because we understand that there is an urgency in 
the Pacific, an urgency for us to address issues such as how to 
deal with noncommunicable diseases such as diabetes, how to 
address the food and energy concerns of the Pacific, which is 
why we are focusing on trying to direct the Pacific countries 
toward renewable energies. We believe that by continuing our 
engagement, the United States can work in a complementary 
fashion as a Pacific nation with all of our partners in the 
region to move toward our common goals which, as I said, are 
good governance, sustainable development, maritime security, 
and reaffirming the rule of law.
    Senator Murkowski. Very good. Well, thank you. We 
appreciate your statements here.
    Ms. Rodley, I had mentioned in my very brief remarks about 
Cambodia's recently discovered oil and gas reserves. Can you 
tell me how far along they are in their development and whether 
or not you believe that the opportunity for increased revenues 
impact the government and whether or not they have already 
spent the money before it has come to them? Just give me a 
status on what is going on there, please.
    Ms. Rodley. Thank you, Senator Murkowski, and I especially 
appreciate the heads-up at the beginning that that question was 
coming.
    There are two points that I would like to make about the 
oil and gas reserves.
    The first one is that the most promising offshore tracts 
are in the area where the territorial claims of Cambodia and 
Thailand overlap, and Cambodia and Thailand have made very 
little progress to date in resolving those overlapping claims 
so that they can be exploited for the benefits of both 
countries. That is something that needs to be paid attention to 
and to be really stepped up.
    The second concern that I have is that Cambodia has a lot 
of work to do still to reduce corruption, official corruption 
and all kinds of corruption, so that when those resources come 
on line eventually, it will benefit all of the people of 
Cambodia, that all of the people will benefit from those 
resources rather than just a few elites.
    Senator Murkowski. How about an update on adoptions? Are we 
any closer to seeing adoptions from Cambodia resumed?
    Ms. Rodley. The Cambodian Government has become a signatory 
to the Hague Convention which is a major step in that 
direction. Right now they are in the process of drafting 
domestic legislation to implement the Hague Convention. Once 
that legislation is passed, the next step and perhaps the 
hardest will be to establish the domestic institutions that 
will discharge their Hague responsibilities. And if I am 
confirmed as ambassador, the U.S. embassy will stand ready to 
assist them with that task.
    Senator Murkowski. We appreciate that.
    And then one final question just about the latest election. 
What should we take away from that?
    Ms. Rodley. The election was the freest election that 
Cambodia has ever had. We believe the results of the election 
express the will of the Cambodian people. The U.S. embassy sent 
monitors freely throughout the country observing the polling 
and followed carefully the proceedings of the national election 
committee in resolving complaints and allegations of fraud 
after the election. While there were some isolated incidents of 
fraud and there may have been pockets of more systematic fraud, 
we believe that the election reflects the will of the Cambodian 
people.
    Senator Murkowski. Well, I thank you for that.
    That concludes the questions that I had of the three of 
you. I appreciate your statements, and I echo Senator Boxer's 
comments in recognizing the caliber and the quality of 
individuals that we have before us. Your names submitted by the 
President for these respective positions--truly I think you 
will do great service to our country as you clearly have in the 
past. And we wish you well as you move through the process.
    I too want to thank and recognize your families, whether 
they are here with you in person and missing school or whether 
they are viewing this on TV. We truly do appreciate the support 
that the families allow our public servants as they represent 
our country in various capacities, and it is so very fitting 
that we give them a little special thank you here this 
afternoon. So with that, I thank you so very much and best 
wishes to you all.
    With that, we stand adjourned.
    [Whereupon, at 2:45 p.m., the hearing was adjourned.]


                              NOMINATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 11, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Hook, Brian, to be Assistant Secretary of State for 
        International Organization Affairs
Lebedev, Gregori, to be Representative of the United States to 
        the United Nations for U.N. Management and Reform, and 
        to be Alternate Representative of the United States to 
        the Sessions of the General Assembly of the United 
        Nations
Reynolds, Matthew, to be Assistant Secretary of State for 
        Legislative Affairs
                              ----------                              

    The committee met, pursuant to notice, at 9:00 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bill Nelson 
presiding.
    Present: Senators Nelson and Corker.

             OPENING STATEMENT OF HON. BILL NELSON,
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning, everybody. If the officer at 
the door would close the door for a moment, we are going to 
observe a moment of silence in recognition of those who lost 
their lives when we were attacked on September 11.
    [A moment of silence was observed.]
    Senator Nelson. Thank you.
    We are going to, as the committee, consider the nomination 
of three individuals for key leadership positions at the 
Department. We are also joined by several distinguished 
colleagues who will introduce our nominees, Senator Grassley, 
Senator Robb, Congressman Dreier. I want to welcome you all.
    Mr. Brian Hook has been nominated to be Assistant Secretary 
of State for International Organization Affairs.Mr. Gregori 
Lebedev has been nominated to be representative of the United 
States to the United Nations for U.N. Management and Reform, 
and that is with the rank of Ambassador, and to be Alternate 
Representative of the United States to the Sessions of the 
General Assembly of the U.N. And I will be seeing you up there 
because I am going to be representing the Senate Foreign 
Relations Committee.
    Mr. Matthew Reynolds has been nominated to be Assistant 
Secretary of State for Legislative Affairs.
    And so what I would like to do now--you all have been told 
ahead of time that I am not going to have you read your 
statements. Your written statement is going to be entered in 
the record and we will just get right into questions.
    [The prepared statements of Mr. Hook, Mr. Lebedev, and Mr. 
Reynolds follow:]

Prepared Statement of Brian H. Hook, Nominee to be Assistant Secretary 
            of State for International Organization Affairs

    Thank you Mr. Chairman and distinguished members of the committee 
for the opportunity to appear before you today as the President's 
nominee to be Assistant Secretary of State for International 
Organization Affairs. I am grateful to President Bush for nominating me 
to this position, Secretary Rice for her support, and I thank Chairman 
Nelson and Senator Vitter for convening this hearing during a very busy 
time.
    If confirmed, I look forward to continuing the good work of my 
predecessor in advancing U.S. interests before the United Nations, its 
affiliated bodies, and other international organizations to which the 
United States is a party. United States leadership in multilateral 
organizations has never been more important. Many of the challenges we 
face today are international in scope and require action on a 
multilateral level. These challenges include international terrorism, 
nuclear proliferation, the protection of human rights, promotion of 
democracy and good governance, poverty eradication, disease prevention 
and treatment, and food security. Working constructively within the 
United Nations, through the U.N. Security Council, the U.N. General 
Assembly, and the many U.N. agencies, we are better able to address 
constructively many of these challenges. Of course, any such success 
requires not only the shared commitment of our international partners, 
but also rigorous oversight of the agencies in question to ensure 
effective, efficient, transparent, and accountable outcomes.
    If confirmed, I will apply what I learned while serving at the U.S. 
mission to the United Nations for 2 years. During that time, I was the 
ambassador's lead negotiator on Security Council resolutions imposing 
sanctions on Iran, Sudan, al-Qaeda, and the Taliban. I also helped to 
negotiate the resolution authorizing deployment of the U.N./AU 
peacekeeping mission in Darfur.
    I believe it is necessary to further strengthen U.S. leadership in 
the United Nations and to facilitate the necessary reforms to the 
organization.
    Of course we face many challenges throughout the world, but we 
should also recognize progress in a number of key areas, including:

  <bullet> In March we adopted Security Council Resolution 1803, which 
        imposed legally binding Chapter VII sanctions on Iran for its 
        failure to comply with its prior U.N. Security Council 
        obligations. This is the third time that the council acted to 
        impose Chapter VII sanctions on Iran since the IAEA reported 
        Iran's noncompliance to the council in February 2006, and 
        Secretary Rice has expressed her commitment to a fourth 
        resolution should Iran continue to act in defiance of council's 
        directives.
  <bullet> Last fall the U.N. General Assembly adopted a resolution on 
        the elimination of rape and other forms of sexual violence in 
        conflict situations, as well as a resolution on women, peace, 
        and security during our Council Presidency in June. Both these 
        resolutions call attention to states that condone the use of 
        rape by their own forces or surrogate militias as a weapon of 
        war.
  <bullet> The last General Assembly also adopted United States 
        cosponsored resolutions condemning the human rights records of 
        Iran, Belarus, the DPRK, and Burma, communicating to these 
        regimes and to their victims that the international community 
        will not countenance such blatant disregard for the fundamental 
        rights and freedoms of their people.
  <bullet> The World Food Program delivered 3.3 million metric tons of 
        food aid to more than 86.1 million people in 80 countries last 
        year. The United States provided approximately $1 billion, or 
        roughly 40 percent of the resources needed to accomplish this. 
        The World Food Program continues to reach those in need quickly 
        and effectively, despite physical and political obstacles. A 
        recent example of this was its response to Cyclone Nargis in 
        Burma.
  <bullet> U.N. peacekeeping operations continue to successfully 
        facilitate the difficult transitions to stability and 
        democratic governance underway in Haiti, Liberia, the Congo, 
        and Timor-Leste.

    While we can point to such notable achievements, we must be frank 
in acknowledging failures and the continuing challenges the U.N. faces.
    Russia's recent military actions in Georgia and recognition of the 
Georgian regions of South Ossetia and Abkhazia as independent states 
are inconsistent with previous Security Council resolutions reaffirming 
Georgia's sovereignty and territorial integrity. We are closely engaged 
with our colleagues to promote a constructive role for the council in 
addressing this crisis, but that will ultimately depend on Russia's 
willingness to play a constructive role in any council decisions.
    At times, the U.N. has neglected to act with the moral clarity that 
defined its establishment. The U.N. Human Rights Council, for example, 
was established in 2006 as a replacement for the discredited former 
Commission on Human Rights. The council was intended to promote 
universal respect for and observance of human rights and fundamental 
freedoms. Unfortunately, it has consistently failed to address grave 
and ongoing human rights violations in countries such as Zimbabwe and 
Iran, and has protected notorious human rights abusers from scrutiny. 
In its first year the council eliminated the special rapporteurs on the 
situations of human rights in Cuba and Belarus. Furthermore, it has 
taken only weak and ineffective action on Sudan, while a political 
agenda has led to the passage of 20 unbalanced resolutions and other 
actions against a single country--Israel. Regrettably, in its first 2 
years the Human Rights Council has proved to be even worse that its 
predecessor, and we are now focused on ways to correct the council's 
deficiencies, including its membership structure, when its mandate and 
functions are renewed by the UNGA no later than 2011.
    We are also disappointed that the U.N. plans to hold a second World 
Conference against Racism, Racial Discrimination, Xenophobia, and 
Related Intolerance in Geneva in April 2009. The United States withdrew 
from the first antiracism conference in Durban, South Africa, in 2001 
due to the pervasive anti-Semitism that characterized the conference 
itself, as well as the inclusion of anti-Israeli language in the Draft 
Declaration and the Program of Action. We have no confidence that the 
second conference will avoid the anti-Semitic undertones that plagued 
the conference in Durban. Accordingly, and in compliance with section 
695 of the 2008 Foreign Operations Act, we will withhold from our 
regular U.N. budget assessment an amount equivalent to the U.S. share 
of funding for the Human Rights Council and the Durban review 
conference.
    The work of the U.N. has also been hampered in some cases by 
systemic weaknesses in the organization. Many U.N. programs are 
outdated, irrelevant, or ineffective. As we have pressed the U.N. for 
greater oversight, accountability, and transparency, serious problems 
have come to light that need greater attention by U.N. management, 
including cases of sexual misconduct by U.N. peacekeepers and 
management failures in the United Nations Development Program.
    Such failures underscore the need for continued efforts to reform 
the U.N. to ensure the organization is prepared to confront directly 
and effectively the great problems of our time. There is widespread 
recognition that the U.N. is not living up to its full potential.
    If confirmed, my central focus will be to advance reform and 
facilitate substantive progress in the following areas:
                     management and administration
    We will continue to work for a United Nations that meets the 
highest standards of integrity. The United States has launched the U.N. 
Transparency and Accountability Initiative (UNTAI) to encourage action 
to improve oversight, transparency, and accountability at the U.N. 
specialized agencies, funds, and programs. We will continue to 
reinforce this initiative. Within the U.N. Secretariat, we are working 
to strengthen the independence of the Office of Internal Oversight 
Services (OIOS) and will continue to demand responsible and effective 
stewardship of limited U.N. resources.
                              human rights
    Due to the regrettable record of the U.N. Human Rights Council and 
in light of the United States longstanding commitment to the promotion 
and protection of human rights, the United States has decided that it 
can no longer participate as an active observer in the council. We will 
further intensify our efforts in the U.N. General Assembly's Third 
Committee, which has jurisdiction over human rights and related issues, 
and will continue to pursue constructive interaction with the Office of 
the U.N. High Commissioner for Human Rights and with the U.N. Special 
Rapporteurs on country-specific and thematic human rights questions.
                              peacekeeping
    We will work to achieve full troop deployment of the joint United 
Nations-African Union Mission in Darfur (UNAMID) and continue to call 
on all U.N. member states to provide full support for the peacekeepers. 
Simultaneously, we will support the U.N. Mission in Sudan (UNMIS) 
peacekeeping operation in its efforts to facilitate the Comprehensive 
Peace Agreement between North and South Sudan, as a means to promote 
long-term reconciliation and an end to Sudan's suffering. We will 
continue to rally international diplomatic support for U.N. operations 
that are rebuilding peace and stability in transitioning countries such 
as Liberia, Haiti, and the Democratic Republic of Congo.
                            nonproliferation
    The proliferation of weapons of mass destruction remains the 
preeminent threat to U.S. national security. We will work within the 
U.N. Security Council, the International Atomic Energy Agency (IAEA), 
and other international organizations to strengthen the barriers 
against access to WMD, associated technology, and their means of 
delivery.
                             democracy fund
    We believe the U.N. should take a more active role in promoting 
democracy around the world through such mechanisms as the U.N. 
Democracy Fund. The Fund is the U.N.'s only entity devoted solely to 
democracy promotion primarily by supporting civil society. While other 
U.N. organizations such as UNDP typically regard host governments as 
their primary development partners, the Democracy Fund supports civil 
society directly--making it possible for the U.N. to fund democracy 
promotion regardless of whether it is a priority for the host 
government. In only 2 years of programming, the fund has already made 
important contributions in countries around the world, particularly for 
those most in need. We anticipate that the fund will take action on its 
second round of grants during the month of September. This will include 
funding for projects in China, Zimbabwe, and Venezuela, among others.
                              development
    We will work with the U.N. to help developing countries eradicate 
poverty and hunger. This goal, along with the other Millennium 
Development Goals (MDGs), can only be achieved and sustained through a 
strategy of economic growth. The United States is proud to be the 
world's largest contributor of development assistance, but our focus 
and that of the U.N. must be more on the quality and effectiveness of 
our efforts than on the quantity of our contributions. Development 
requires national responsibility, good governance, openness to trade 
and investment, and a free and robust private sector.
                               terrorism
    The U.N. provides a unique venue for member states to take 
collective action against terrorism, particularly those that may be 
reluctant to cooperate openly with the United States bilaterally. We 
will work with our allies to ensure that U.N. counterterrorism bodies 
and programs are streamlined and that they engage with each other and 
with other international bodies to ensure maximum efficiency and 
systemic coherence. We will also continue to work toward ensuring that 
the Global Counterterrorism Strategy and Plan of Action, adopted by the 
U.N. General Assembly in September 2006 to enhance national, regional, 
and international efforts to counter terrorism, is implemented 
effectively.
    Mr. Chairman, it is a great honor to be here today, and I hope that 
I have the privilege of working with you and your colleagues in the 
future. I would be happy to respond to the committee's questions.
                                 ______
                                 

Prepared Statement of Gregori Lebedev, Nominee to be Representative of 
the United States to the United Nations for U.N. Management and Reform, 
with the Rank of Ambassador, and to be Alternate Representative of the 
  United States to the Sessions of the General Assembly of the United 
                 Nations, During His Tenure of Service

    Thank you, Mr. Chairman, Senator Vitter, and distinguished members 
of the committee for the opportunity to appear before you today as the 
President's nominee to be the U.S. Representative to the United Nations 
for Management and Reform. I am grateful to President Bush and to 
Secretary Rice for their confidence and support.
    For nearly 30 years, I have worked in the foreign affairs 
community--as State Department Assistant Inspector General for Foreign 
Assistance, as Deputy Assistant Secretary of State for Security and 
Consular Affairs, as Executive Vice President for International Policy 
at the United States Chamber of Commerce, as a senior partner in a 
global consulting firm whose clients included multilateral 
organizations, and currently as chairman of the Center for 
International Private Enterprise, one of the four institutes of the 
National Endowment for Democracy.
    During that same period, I also acquired considerable experience in 
management and finance, having served as a CEO, a COO, and a CFO of 
industry associations; provided consulting advice to public and private 
as well as foreign and domestic organizations about management, 
financial structures, and human resources; evaluated economic and 
military assistance programs as a State Department Assistant Inspector 
General; and have spoken frequently about public corruption and its 
corrosive effects upon private enterprise. I believe these experiences 
have provided me with uniquely relevant insights which will permit me 
to effectively address the challenges of the position for which I have 
been nominated.
    Mr. Chairman, if confirmed, I will focus on our shared interest in 
improving the management and governance structures of the United 
Nations, and thereby heighten the efficiency and effectiveness of this 
important institution. The time I will spend at the U.S. mission will 
measurably contribute to the continuity of attention on governance and 
management reform--the linchpin to any broader institutional 
initiatives that may be pursued. To be sure, without the requisite 
measure of accountability, transparency, and fiscal discipline the U.N. 
will forever be unable to meet the high expectations that we, and other 
member states have for this critically important multilateral 
organization.
    Filling the currently vacant position of U.S. Representative to the 
United Nations for Management and Reform is key to meeting America's 
commitment to U.N. reform and fiscal stewardship. Placing a seasoned 
policy and management professional in this role sends a very clear 
signal to the international community that the United States, as the 
U.N.'s largest contributor, has not turned away from its fiduciary duty 
to advance the changes that are needed. To be sure, to leave this post 
vacant--and thus dim the spotlight on reform--would weaken the ability 
of the administration to continue to achieve much-needed improvements 
in the U.N. system.
    In his 2007 speech to the General Assembly, the President spoke to 
the critical mission of the United Nations and its role in the 
liberation of people from four universal enemies: tyranny and violence; 
hunger and disease; the chains of illiteracy and ignorance; and poverty 
and despair. Progress can be made toward the realization of these long-
term objectives, but only if the U.N. and its affiliated bodies are 
effective, transparent, and accountable. Our belief in the importance 
and value of the United Nations is enduring, but our commitment is not 
unconditional. Reports of scandal, mismanagement, and dishonesty shake 
the confidence of donors and cast doubt on the organization's ability 
to deliver results to those in need. Consequently, if confirmed, I 
intend to devote much of my attention and energy to the following 
areas:
    Transparency and Accountability Initiative--In 2007, the United 
States launched a U.N. Transparency and Accountability Initiative 
(UNTAI) to apply common governance standards throughout the U.N. 
system, including independent internal oversight, disclosure of 
internal audits, ethics protocols, whistle-blower protections, and 
financial disclosures by staff. This initiative came about in the wake 
of abuses by the North Korean Government while a beneficiary of U.N. 
humanitarian and development activities. UNTAI<plus-minus> draws upon 
existing practices within the U.N. Secretariat, and seeks to have them 
implemented in the U.N. Funds and Programs--in particular UNDP and 
UNICEF in New York, as well as all the other programs and specialized 
agencies throughout the U.N. system. If confirmed, I will work to 
continue our progress on this important program of work.
    UNDP Accountability--There have been serious concerns about U.N. 
Development Program (UNDP) operations and the lack of internal controls 
in several countries, most recently in North Korea where U.N. auditors 
discovered that UNDP had violated U.N. rules. We have similar concerns 
about UNDP as an implementing agent for the Global Fund to Combat HIV, 
Malaria, and Tuberculosis in Burma.
    The Department of State has been working with senior UNDP officials 
in an effort to help that organization meet the standards of the U.N. 
Transparency and Accountability Initiative, and to begin to more 
aggressively disclose audit and programmatic information, promote 
ethical behavior, and protect whistle-blowers. If confirmed, I will be 
forceful but fair in working with UNDP to improve the quality of the 
oversight of its programs.
    Budget Issues--If confirmed, I will also be a strong advocate for 
fiscal responsibility within the U.N. The General Assembly approved an 
initial budget for 2008-2009 of $4.2 billion; however, this did not 
include approximately $1.1 billion in budgetary add-ons identified last 
fall but about which U.N. members decided to defer action rather than 
face tough decisions. The United States rightly objected to the 
adoption of this budget because this piecemeal approach clearly 
undercuts any rational process for fiscal planning. If confirmed, I 
will be actively involved in negotiations this fall to limit any 
increases to only those that are most vital to U.S. goals and 
interests.
    While there have been a number of positive achievements in the U.N. 
reform arena, we are not yet satisfied with the progress that has been 
made throughout the U.N. system. Certainly, more work remains to be 
done. Although, I would not suggest that the tasks that remain could be 
completed over the next few months, I believe we must continue to 
advance our initiatives without interruption in order to bridge the gap 
between this and the next administration. I look forward to this 
opportunity and challenge.
    In summary, the diversity of my experience is uniquely relevant to 
the challenges presented by the U.S. agenda for U.N. management and 
reform, and if confirmed, I look forward to working with you, the 
members of this committee and all those who are committed to making the 
U.N. a more effective and efficient organization.
    Thank you, Mr. Chairman, and I will be pleased to answer any 
questions you may have at this time.
                                 ______
                                 

               Prepared Statement of Matthew A. Reynolds 
       to be Assistant Secretary of State for Legislative Affairs

    Mr. Chairman and members of the committee, thank you for allowing 
me to appear before you today in regard to my nomination as Assistant 
Secretary of State for Legislative Affairs. I would like to thank 
President Bush and Secretary of State Rice for the confidence placed in 
me. I am honored by this opportunity to serve.
    I would also like to thank my former chairman, mentor, and friend, 
Representative David Dreier, for introducing me before the committee 
today. While the U.S. Senate is solely responsible for confirmations--
and I hope to achieve the Senate's approval through this hearing--the 
Bureau of Legislative Affairs serves both chambers of Congress and I 
value Mr. Dreier's endorsement as a representative from the House.
    I have spent most of my professional career directly serving U.S. 
Senators and Representatives. Over my 18 years working in Congress, I 
gained a wide range of experience managing both Members' personal 
offices and standing committees of Congress. One of my most rewarding 
assignments was serving as a professional staff member of this 
committee. Indeed, Mr. Chairman, it is good to be back, though it is a 
bit more intimidating now sitting at the witness table than it was 
enjoying the relative anonymity of the staff bench behind you.
    For the past 5 years, I have been at the State Department in the 
Bureau of Legislative Affairs gaining knowledge and appreciation of the 
responsibilities and capabilities of the agency. With this firsthand 
understanding of both Congress and the Department, if confirmed, it 
will be my highest priority to further strengthen the already solid 
relationships between the State Department and the Congress and with 
this committee, in particular.
    Mr. Chairman, as you know, the State Department's Bureau of 
Legislative Affairs has three major responsibilities:

First, is to be responsive to your concerns and to requests for 
        information from you and your staff, as well as to assist your 
        constituents on consular and other matters. This is a customer 
        service bureau and this Congress is its customer.
Second, is to consult with you--as well as with other committees that 
        have oversight responsibilities for foreign affairs--to ensure 
        that your views are considered in the State Department's policy 
        formulation process.
Third and finally, is the responsibility to articulate, to explain, and 
        to defend the positions, policies, and financial requests of 
        the Department of State.

    As this is the end of an administration, I also recognize that the 
position of Assistant Secretary has another important responsibility 
that arises only periodically, and this is one of those times. Namely, 
the task of facilitating a smooth and seamless transition with the new, 
incoming administration. If confirmed, I plan to carry out this mission 
to the highest level of success and professionalism possible to ensure 
the continuity of quality service.
    Mr. Chairman and members of the committee, thank you for this 
opportunity to be here today. I would be pleased to respond to any 
questions that you may have.

    Senator Nelson. But as a courtesy I want to get to Senator 
Grassley, Senator Robb, and Congressman Dreier. We will let the 
three of you go first and then you can excuse yourselves, if 
you would so desire, and then we can get on with the hearing.
    Okay. Senator Grassley?

              STATEMENT OF HON. CHARLES GRASSLEY,
                     U.S. SENATOR FROM IOWA

    Senator Grassley. Thank you, Mr. Chairman, Senator Nelson. 
I am very pleased to have an opportunity to introduce a friend 
and also a fellow Iowan to this Senate Foreign Relations 
Committee. Of course, I congratulate all the witnesses on their 
nominations, and I thank you, Chairman Nelson, this late in the 
session, for taking time to hold this hearing.
    I have known Brian Hook for many years, and I strongly 
support his nomination to be Assistant Secretary of State for 
International Organizations. I had the opportunity to first 
meet Brian way back in 1991 when, obviously--he is still young, 
but very young then when he was an advisor to former Iowa 
Congressman Jim Leach.
    When he returned to Washington in 2000, after attending law 
school at the University of Iowa, I became better acquainted 
with him as he became a weekly jogging partner of mine. We 
would always have breakfast afterwards, and my wife Barbara and 
I have come to know Brian and his wife Amy very well.
    Brian comes from an Iowa family with a tradition of public 
service that goes back generations. His great, great 
grandfather was a Member of Congress who represented the 3rd 
District of Iowa during Teddy Roosevelt's presidency. One of 
Brian's grandfathers was mayor of DeWitt in Clinton County. His 
other grandfather was a civic leader in the Quad Cities, and 
Brian's father was President of the Bettendorf School board. So 
it is no surprise that Brian continues this tradition of public 
service.
    During his career, Brian has served as an advisor to a 
Member of Congress, an advisor to a Governor of Iowa, an 
advisor to an assistant attorney general, advisor to the U.S. 
Ambassador to the United Nations, the Secretary of State, and 
the President.
    Brian has extensive foreign policy experience, negotiated 
difficult Security Council resolutions on a range of issues at 
the top of our foreign policy agenda relating to Iran, al-
Qaeda, the Taliban, North Korea, Darfur, Zimbabwe, and Georgia. 
He has also worked to advance U.N. reforms, human rights, and 
humanitarian relief.
    The President has placed great trust in Brian by nominating 
him to this position, and I know that his trust is well placed. 
Brian brings great energy to his work. He has a strong work 
ethic and he believes in getting results. I know that Brian 
believes in building up a stronger, more effective U.N. to help 
advance our foreign policy goals and the ideals of the U.N. 
Charter.
    So, Mr. Chairman, thank you for this opportunity to 
introduce Brian to the committee. I support his nomination, 
obviously, and ask that it move as quickly as possible and will 
look forward then to endorsing his confirmation to the full 
Senate. Thank you.
    Senator Nelson. Thank you, Senator Grassley.
    Senator Robb, welcome back.

STATEMENT OF HON. CHARLES ``CHUCK'' ROBB, FORMER MEMBER, UNITED 
                         STATES SENATE

    Senator Robb. Thank you, Mr. Chairman. I am delighted to be 
able to join you and your members in absentia this morning to 
introduce Mr. Greg Lebedev to be the U.S. Representative to the 
United Nations for U.N. Management and Reform.
    I had a little trouble finding out what exactly the job 
description was for this particular post. As I understand it, 
if confirmed, Ambassador Lebedev would be the lead U.S. 
diplomat on U.N. management, finance, and reform. He would 
represent all U.S. interests surrounding the $4.2 billion 
regular U.N. budget, as well as the $7 billion for peacekeeping 
missions. He would address the various integrity lapses such as 
Oil for Food, and he would advance the U.S.-initiated reform 
agenda, i.e., work to persuade a reluctant U.N. to embrace a 
series of government principles and procedures involved in 
transparency, ethics standards, whistle-blower protections, and 
the like.
    I have known Greg Lebedev for about 3 years, and I believe 
he is about as qualified as anyone possibly could be to 
undertake some of these often thankless tasks. I first got to 
know him in his capacity as senior advisor to the Robertson 
Foundation, a fund which is dedicated to supporting talented 
men and women wishing to pursue government careers in national 
security and in national affairs.
    He has a very impressive background in the areas covered in 
this appointment: senior advisor to Adelphi Capital; Chairman 
of CIPE, the publicly funded Center for International Private 
Enterprise that promotes free market institutions and emerging 
economies throughout the world. He has been the President and 
CEO of the American Chemistry Council, Chief Operating Officer 
and Executive Vice President for International Policy and 
National Security Affairs for the U.S. Chamber of Commerce; 
President of the Center for Corporate Citizenship; Senior Vice 
President for Management and Finance at the ATA; Senior Vice 
President of IPAC where he helped direct projects in the 
reconstruction of Kuwait following the first gulf war. Until 
1990, he was the senior partner of the Hay Group where he 
directed all business and international sector consulting 
contracts with major work in South Africa and the Middle East. 
President Ford appointed him Assistant IG of Foreign Assistance 
at the Department of State. He served on the White House staff. 
President Bush 41 nominated him to be IG of the DOD right at 
the end of his term, which did not continue, so he did not have 
a chance to serve in that particular post.
    He is a seasoned internationalist. He has spent almost 30 
years in and around the international community. He has highly 
relevant experience in management, finance, and government. And 
he is also a respected lawyer and an engaging 
conversationalist.
    Mr. Chairman, I hope it will be the pleasure of this 
committee to approve his nomination quickly and get him to work 
as soon as possible. Anyone who thinks the U.N. could not use a 
little help in sorting through some of their daunting 
challenges probably has not spent much time at the institution.
    With that, Mr. Chairman, unless you have any questions for 
me, in keeping with established tradition, I will asked to be 
excused and leave Mr. Lebedev to the tender mercies of this 
distinguished committee. And I thank you.
    Senator Nelson. Thank you, Senator Robb.
    Congressman Dreier, welcome back.

                STATEMENT OF HON. DAVID DREIER,
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Mr. Dreier. Well, thank you very much, Mr. Chairman, 
Senator Corker. I appreciate the warmup that my friends, Chuck 
Robb and Chuck Grassley, have provided, and I hope you will be 
equally as kind.
    I want to say that Senator Corker will some day learn what 
it is like to see very, very young, diligent, hardworking staff 
members emerge to prominent positions. I have heard the fact 
that people have known the individuals they are introducing for 
periods of time. Actually I have known Matt Reynolds for 20 
years. I was just recalling that in 1988, when he was working 
as a staff member for my former California colleague, Bob 
Lagomarsino, who at that time was the Chairman of the National 
Endowment for Democracy's International Republican Institute. 
We had the chance to engage in some very, very interesting and 
important travel. In fact, I recall our being the first 
congressional delegation following the liberation of Kuwait in 
1991 to go to that country. And Matt Reynolds was a very, very 
important part of that.
    When our colleague, Congressman Lagomarsino, left the 
Congress, Matt continued to work on Capitol Hill, and I was 
very pleased that he came to work when I had the privilege to 
serve as Chairman of the House Rules Committee. And he just 
reminded me that 7 years ago at this moment, we were all 
together in the House Rules Committee, and what a challenging 
time that was for us.
    And I cannot help but think as we have all of these 
potential public service individuals before you, Mr. Chairman, 
how important the efforts in dealing with diplomacy are. A very 
important part of that diplomacy, of course, exists between the 
Department of State and the first branch of Government, that 
being us. The job that Matt Reynolds is actually serving--
acting in right now and did in 2005 is such an important one 
because we all know what that separation of powers consists of. 
And while Matt works for the executive branch, he has had such 
a distinguished career working in the legislative branch.
    And I will say that while he will continue to work for the 
executive branch, after you do what I certainly hope you will 
do, Matt is one who does understand--and please do not tell 
everyone this--that Article I happens to be the first among 
equals. And so his experience here, I think, will lead him to 
do the very important things that his job consists of.
    His name is Matt Reynolds, but we often refer to him as 
Map, M-a-p, Reynolds because of the tremendous knowledge that 
he has of circumstances that exist throughout the world. And I 
am convinced, Mr. Chairman, that he is going to continue to do 
the superb job that he has in this very important work as we 
deal with the many challenges that exist around the world and 
within the United States Congress. Just as my colleagues have, 
I encourage you to proceed as expeditiously as possible with 
his confirmation.
    And thank you very much for including me.
    Senator Nelson. And we are going to proceed expeditiously. 
Thank you, gentlemen.
    The ranking member's opening statement will be entered in 
the record, as are your written testimonies. So let us get 
right to the questions.
    [The prepared statement of Senator Nelson follow:]

                Prepared Statement of Hon. Bill Nelson,
                       U.S. Senator From Florida

    Before we begin, I would like to take this opportunity to recognize 
the significance of this day, September 11. I propose that we observe a 
moment of silent reflection to commemorate the lives we lost on that 
tragic day 7 years ago, as well as remember those who have made the 
ultimate sacrifice in the defense of our great Nation.
    Today, the committee meets to consider the nominations of three 
individuals for key leadership positions at the Department of State.
    Mr. Brian H. Hook has been nominated to be Assistant Secretary of 
State for International Organization Affairs.
    Mr. Gregori Lebedev has been nominated to be Representative of the 
United States of America to the United Nations for U.N. Management and 
Reform, with the rank of Ambassador, and to be Alternate Representative 
of the United States of America to the Sessions of the General Assembly 
of the United Nations.
    Mr. Matthew A. Reynolds has been nominated to be Assistant 
Secretary of State for Legislative Affairs.
    I would like to recognize and welcome the nominees' family and 
friends who are with them today. We are also joined by several 
distinguished colleagues who will introduce our nominees--Senator 
Charles Grassley, former Senator Chuck Robb, and former Congressman 
David Dreier. Welcome, gentlemen.
    Mr. Hook, you are currently serving as the acting Assistant 
Secretary for International Organization Affairs and recently testified 
as the administration witness at the subcommittee hearing I held on 
U.N. peacekeeping. Since you have had a few months to settle into your 
role as head of the bureau and to manage our complex relationship with 
the U.N. you already know the challenges you face.
    The United Nations is an imperfect body, but over 60 years after 
its founding, it is still the only multilateral body in the world in 
which all 192 countries can consult over the most important issues of 
our time--war and peace, poverty and development issues, HIV/AIDS and 
malaria, and climate change among other topics. Next week the United 
Nations General Assembly will begin in New York. I look forward to 
hearing the administration's priorities for this important session.
    Mr. Reynolds, you are currently serving as acting Assistant 
Secretary of State for Legislative Affairs. You too are well-acquainted 
with your duties--to serve as the principal advisor to the Secretary of 
State on legislative matters and as the Department's principal liaison 
with Congress.
    If confirmed, your long service as a professional staff member in 
the U.S. Congress will serve you well as you manage this important 
relationship.
    Mr. Lebedev, you have been nominated to serve as Representative of 
the United States to the U.N. for Management and Reform as well as to 
serve as Alternate Representative to the General Assembly. If confirmed 
you would become the point person in trying to achieve an important, 
but thus far elusive, United States priority: reform at the U.N.
    Thanks to all three of you for testifying today and for your 
willingness to serve our country in these important positions within 
the Department of State.

    Mr. Hook, we have got this coming session that is going to 
open up in another week. Senator Corker and I will be 
representatives of this committee up there in New York. What do 
you think are the top priorities for the United States at this 
session?
    Mr. Hook. We are very pleased that you are going to be 
representing the United States as delegates for the 63rd 
General Assembly. This will be President Bush's last 
opportunity at the GA. It will also be Secretary Rice's last 
opportunity.
    So it is going to be a little bit of an opportunity to take 
stock in terms of all the progress that I think we have made at 
the United Nations in a range of issues. When you look at 
advancing freedom and democracy, curbing nonproliferation, 
humanitarian assistance, addressing threats to international 
peace and security, protecting human rights, these are all 
categories I think where we have made a lot of progress over 
the last 7 or 8 years.
    And for the 63rd General Assembly, we will be certainly 
working on a number of resolutions in the General Assembly that 
would speak to human rights abuses that are taking place around 
the world. Some of them will be introduced by the United 
States. Some will be introduced by other countries. We did do 
an Iran resolution last year to shine a spotlight on the human 
rights abuses that are taking place there. That only passed out 
of the third committee by one vote.
    One of the things that I have been working on--and I am 
making it a priority for this General Assembly--is changing the 
rate of voting coincidence among countries with respect to the 
United States. In 2002, it was around 30 percent, and now it is 
around 18. I just made a trip down to Central America and met 
with a number of foreign ministers. These are countries where 
we have very strong bilateral ties, and yet when we go into the 
United Nations, somehow there are more disagreements than there 
are agreements on some of these General Assembly votes which, 
when I read it, did not make a lot of sense to me because we 
agree in so many areas, the areas that I just talked about.
    And so I am going to be making a focused effort on trying 
to change some of the voting outcomes in the General Assembly. 
It is not acceptable to me, I think, for us to have--at the 
United Nations where we play a leadership role, in overall 
voting in the GA, we are only at 18 percent voting coincidence 
with the United States. I think that number needs to improve. 
And that is something which I will looking at across the board 
if we are doing resolutions on Iran or Zimbabwe. I am sure 
there will be thematic resolutions. I would like to see our 
voting improve in the General Assembly.
    I do know that during the time that you are up there, 
Burkina Faso will be doing a Security Council meeting, a 
thematic debate on mediation and settlement of conflicts. That 
will be on Tuesday when the President addresses the General 
Assembly. It is sort of helpful for Burkina Faso because they 
happen to be presiding over the Security Council at the time 
when all the heads of state are in town. And so I think there 
will be some focus on that issue.
    But that is broadly what I am hoping to focus on in the 
63rd.
    Senator Nelson. Have you thought about what you ought to do 
with the U.N. peacekeeping force in Haiti, given the fact that 
Haiti has been racked by these recent hurricanes?
    Mr. Hook. Mr. Chairman, after we had our hearing in July, I 
went and visited Haiti. I was there 2 weeks ago and I met with 
the head of MINUSTAH, Heddi Annabi, whom I knew when I served 
up in New York at the U.S. mission. I think MINUSTAH is doing a 
very good job. In the last 2 years, it had very good leadership 
under Mullet, and now under Heddi Annabi who was the number two 
official in DPKO, he is now heading up MINUSTAH. And I met at 
length with Heddi, and he briefed me on sort of some of the 
strengths and weaknesses of MINUSTAH. But I think on balance, I 
think we are seeing more strengths than weaknesses.
    There is no doubt in my mind, in light of the devastation 
of three hurricanes and a tropical storm, that they are 
stretched. I did ask them, because we have a mandate renewal 
coming up for MINUSTAH, if they would like to see any change in 
their mandate, and they do not want to see any change.
    Now, in light of these hurricanes, which have really been 
devastating, I will be getting back in touch with him. I do not 
want to sort of get in the way of him doing his job, but I 
think when things settle down a little bit, I will be in touch 
with Mr. Annabi to ask him, in light of the hurricanes, do we 
need to enhance the mandate to help it accomplish its duties a 
little more effectively.
    When I was in Haiti--actually I was there the day that 
Hurricane Gustav hit and had to be evacuated through the 
Dominican Republic. But I had said before leaving that I 
thought MINUSTAH was expanding the space for political progress 
and economic development. Safety in the hierarchy of human 
needs is first, and it also happens to be the prerequisite for 
economic development. And I think MINUSTAH is doing a good job 
of that. It is then important for the government to take 
advantage of this space that I think MINUSTAH is helping to 
expand so that we can make some progress, I think, on economic 
development.
    Senator Nelson. Were you able to travel freely throughout 
Cite Soleil?
    Mr. Hook. Cite Soleil I was planning on visiting on 
Tuesday, and that is when the hurricane hit, and so it was on 
my schedule but we ended up having to cancel it. There was not 
going to be any problem with traveling freely through the city. 
There were no security concerns raised.
    Senator Nelson. What about the vetting of the national 
police? That started about 2 years ago trying to expel the 
corrupt. What do you observe there?
    Mr. Hook. Well, I think they are doing, I think, good work 
on--you have corruption issues and you have human rights 
abuses. And I believe that MINUSTAH is doing a good job of 
changing both categories. And they are graduating more police 
from their training programs. I saw a number of the police 
while I was in Haiti. I met with the U.N. police chief, who I 
think is doing a very good job. I think the head of the police 
operation and then the general I met with, the general of 
MINUSTAH--I was astonished at how well they worked together. 
They are a great team. And I left feeling fairly inspired about 
the work they are doing.
    But you have been to Haiti and it just breaks your heart to 
see the kind of poverty and challenges they face, but I think 
we have the right people in place and I think they are doing a 
good job on policing. There is a lot more to do. We are trying 
to get to a goal of 14,000. That is the goal, to get to 14,000 
police. You know, it is interesting in Haiti you have got a 
population about the size of New York City, and New York City 
has about 35,000 police. I think Haiti is somewhere around 
9,000 or less. They are trying to get to a goal of about 14,000 
under the U.N. training program. So I strongly encourage that 
because, again, it gets to this issue of creating more sort of 
safety and security so that then we can make progress in other 
places.
    Senator Nelson. Senator Corker.
    Senator Corker. I will follow on and welcome both of you. 
Thank you for your service.
    And I would agree with you. The general who is heading up 
MINUSTAH in Haiti is most impressive. So we are speaking of 
something that I think in that particular specific regard is 
going well from the standpoint of the United Nations.
    In general, though, as you look--and I realize I have no 
idea how long you guys will be in these positions, you know, 4 
months, 5 months, maybe a long, long time. Who knows? So some 
of these questions may be fair and some unfair.
    But as you look at what the U.N. does well and you look at 
what the U.N. does not so well, give me sort of an outline of 
those areas that you think they do an exceptionally good job 
and those that you think really are gross failings or need 
improvement.
    Mr. Hook. Thanks for your question, Senator.
    I would probably break it down by agency. We often refer to 
it as ``the U.N.,'' this monolith, but it is, in fact, this 
organization. The org chart is really something to behold for 
the United Nations. But I think in some programs, especially 
the ones where our funding is voluntary, you see, I think, 
pretty effective work being done.
    The World Food Program. We are the biggest donor to the 
World Food Program. They do a fantastic job of getting aid out 
the door and into the hands of people who need it.
    The Food and Agriculture Organization does not have--I 
think they have had a lot of management problems. We think this 
food security--the crisis we are going through is a real chance 
for them to reform. We have been leading reform in the Food and 
Agriculture Organization.
    On human rights, the Human Rights Council, deeply 
disappointing. We certainly did everything we could to create a 
body that would be worthy of its name. Now we have a body that 
is, in fact, curtailing I think its focus on a lot of human 
rights abuses that are occurring around the world, particularly 
in Cuba and Belarus.
    The U.N. Security Council. I think the end of the cold war 
allowed for a great deal more cooperation on peacekeeping 
operations. We now have 20 around the world. At the end of the 
cold war, we did not have nearly that number. There is a 75 
percent coupon people talk about when we have U.N. peacekeeping 
operations go out because we are able to do it--you know, if we 
send the military out, it is 75 percent sort of more expensive 
than if you would send a U.N. peacekeeping--because you are 
sharing the burden. And I think some peacekeeping operations 
have been successful. Others, as the chairman knows from our 
hearing, talking about the 60th anniversary of peacekeeping 
operations, some have been there for a very long time. But I 
think there have been successes in peacekeeping.
    Today we have challenges in the Security Council. We think 
it is very important for the credibility of the Security 
Council to effectively address threats to peace and security. 
And I think that has been a mixed record.
    Senator Corker. I get the feeling in dealings with the 
United Nations, either being there or being in front of 
testimony here, that it is a really--it is more than a feeling. 
I think a fact. I mean, it is a place where change is very 
difficult to occur. I mean, the issues of transparency, of 
ethics.
    I know that you have been there for a while in an assistant 
position. But what are the real obstacles there to causing the 
organization to handle itself in a way that is appropriate for 
all the donors and for those involved in the organization?
    Mr. Hook. We certainly use our contribution--we are the 
leading funder of the U.N., as you know. We try to leverage our 
financial support to effect the reforms that are necessary. I 
remember at the end of Oil for Food, Chairman Volcker's report 
talked in the U.N. about a culture of inaction, which is what 
you just sort of were referencing in the beginning of your 
remarks. It is a body of 192 member states, and progress can be 
grindingly slow.
    I think the U.N., because of our leadership over the last 7 
or 8 years, is improving on transparency and accountability. 
Our UNTAI initiative, which we launched just a couple of years 
ago, I think is helping. On a lot of these funds and programs, 
especially with UNDP, we need to see internal audit reports. 
There ought to be whistle-blower protection. There ought to be 
accounting standards which hew to sort of the highest possible 
standard.
    Senator Corker. So you ought to. And there are probably not 
many people who would disagree. So why is that not the case? 
Why is that not just the case tomorrow?
    Mr. Hook. Well, I have often said to some folks I have been 
discussing at the U.N. that we should not be having an argument 
about transparency and accountability. But the U.N. is a system 
that is very resistant to change, and we certainly do 
everything we can. I raise it at every opportunity in my 
meetings with U.N. officials.
    But as I said, we are one member of 192. We are its leading 
funder. We leverage that as best we can, but much of it depends 
on the will of the body to change itself. And we cannot make it 
change itself. We can only sort of make the best arguments why 
it should, and when there is corruption in violation of U.N. 
rules, we shine a spotlight on it.
    Senator Corker. Is there any sense with this resistance to 
change? Let me go back and say that certainly we as an 
institution, just the way we operate here in Congress and just 
in our Federal Government, have not changed with the times 
enough to meet the needs. And I think we all realize that. But 
the U.N. seems to me to be continually, because of that lack of 
change, in many ways losing relevance as it relates to solving 
some of the major issues that we have. I wonder if you could 
give any editorial comment.
    Mr. Hook. Well, I have made exactly that point in my 
conversations, that in order for the United Nations to be 
credible and relevant in terms of meeting the very high 
obligations that the U.N. Charter imposes on it, it needs to be 
accountable and transparent to its member states. And some of 
the problems we have are with member states themselves who do 
not share our vision for reform.
    I think Secretary-General Ban Ki Moon has got a commitment 
to reform. I think he is doing the very best he can. It is a 
very hard job pleasing 192 different member states.
    Senator Corker. Does the Secretary-General really have a 
position of power, or is it more of an anarchical kind of 
organization?
    Mr. Hook. Well, the funds and programs do report to the 
Secretary-General, but they have a certain independence which 
they protect robustly. And some of the challenges that we face 
are that the Secretary-General can agree with us, but then we 
also had to have that same conversation with funds and programs 
who may be in a different place than the Secretary-General. And 
in some cases, like I said, like the World Food Program, 
UNICEF, they are I think doing a very good job.
    We have other organizations which we think have had enough 
of a history in terms of either not following the kinds of 
ethical standards that are necessary to maintain its 
credibility. It is very hard to get it to move. It is like 
sometimes it feels like turning a battleship, but I am 
committed to it.
    Senator Corker. I will let the chairman resume and I may 
resume after, or he may adjourn. I do not know what he is 
planning.
    Senator Nelson. China and Russia are fueling the arms going 
into the Sudan, and I am getting ready to introduce a 
resolution to strengthen that arms embargo. What is going to be 
the action that the United States is going to take in the U.N. 
Security Council on the Sudan?
    Mr. Hook. Mr. Chairman, we are willing to pursue additional 
sanctions against Sudan not just sort of against the 
government, but against all the parties to the conflict.
    When I was in New York advising a U.S. Ambassador, I had 
negotiated the Security Council resolution that imposed 
targeted sanctions against some individuals who are responsible 
for committing genocide or promoting hostilities.
    The arms embargo is something which--you know, expanding 
the arms embargo could be a very effective tool. We also face a 
circumstance where some on the P5 engage in robust military 
trade with Sudan. So we need nine votes and no vetoes to pass a 
resolution that would impose an arms embargo.
    We have an arms embargo on Sudan but it is not complete. It 
is partial. We all know that arms are getting into Darfur, so 
the U.N. arms embargo, the existing one, could very well be 
strengthened. Doing it in the Security Council I think will be 
a challenge in light of the military trade that some members of 
the council are engaging in.
    Senator Nelson. Some of that P5 you are talking about is 
Russia and China.
    Mr. Hook. Yes.
    Senator Nelson. What has been the impact of the 
International Criminal Court deciding to charge Bashir?
    Mr. Hook. The indictment referral, or at least the referral 
from Ocampo to the ICC, has actually had a very positive effect 
in terms of improving President Bashir's behavior. Right after 
the referral was made to the judges, suggesting an indictment, 
we saw enhanced cooperation in a number of areas.
    We are not a party to the ICC, but many members of the 
council are. We think that from what I have heard from folks on 
the ground, that it is having a salutary effect. The 
indictments, if they are issued by the ICC judges--it may be 
some time before we see them. Ocampo made the referral. He made 
the recommendation, but we seen any indictments yet, only the 
recommendation that he be indicted for war crimes and genocide. 
But it has had a positive effect on the ground so far.
    Senator Nelson. Well, that is good to hear.
    The 2009 administration budget request underfunds the U.S. 
contribution to the U.N. by about $600 million. So I know you 
are not the head of Office of Management and Budget, but I 
would like to know your opinion on how do we justify continuing 
to short change the peacekeeping budget while continuing to 
vote for additional peacekeeping missions in the U.N.?
    Mr. Hook. Mr. Chairman, we want to continue to work with 
Congress to pay our bills in full and to meet our assessed 
contributions. You know, at this time last year, I do not think 
we could have predicted that UNMIH would cease to exist, nor 
could we have predicted that the operation in Georgia, UNOMIG, 
would be in the kind of limbo that we are experiencing in terms 
of the conflict in Georgia. It is a very dynamic set of 
circumstances that we have to assess. We look at it. Obviously, 
as you know, it is considered in the context of the overall 
budget, and we do the best we can without the benefit of a 
crystal ball and also trying to do this in the context of the 
larger budget. But I certainly recognize the concern and we do 
want to pay our bills in full, do what we can to meet our 
obligations.
    Senator Nelson. Well, I want to continue to work with you 
on that because basically the next President is going to have 
to straighten out this inconsistency.
    Senator Corker. Because you brought it up and the currency 
of the issue, I was just in Georgia a couple weekends ago 
looking at what had happened in Gori and some of the other 
places that talk about the status of what we are doing in 
Abkhazia and with the U.N. and how you see that evolving with 
the present conflict.
    Mr. Hook. The U.N.'s role on this has been fairly limited 
so far. In Georgia, we have about 130 or so monitors that are 
part of the U.N. We have some police who are there, as well. 
They are there to monitor the cease-fire in Abkhazia. There are 
no U.N. officials in South Ossetia. And so to date the U.N.'s 
role has been limited.
    I know that we have been working with the OSCE. We have 28 
monitors who are in Georgia. Eight of them have been able to 
get into South Ossetia. We are looking to have a total of 100 
OSCE monitors. The EU looks like it is going to be deploying 
200 monitors into Georgia.
    The real key is going to get Russia to permit the kind of 
access that is necessary into South Ossetia and Abkhazia. And 
Russia needs to meet its obligation to withdraw its forces 
prior to their deployment on August 7, and once the Russian 
forces withdraw, you then, I think, can have an opportunity for 
monitors or observers or peacekeepers to be in South Ossetia 
and Abkhazia. But for the time being, we actually have not even 
reached that issue because of the difficulty of getting these 
monitors into South Ossetia and Abkhazia.
    The 130 U.N. observers that I spoke of in Abkhazia are 
going to be up for renewal on October 15, and that will be, I 
think, an important vote because Russia has voted in favor of 
all of the UNOMIG resolutions, and all of those resolutions 
affirm the territorial integrity and sovereignty of Georgia. 
And it is something that we will insist on.
    And so we are in discussions up in New York looking ahead 
to the October 15 renewal to see whether it is possible to 
renew it, to see if Russia is going to vote in favor of it. We 
certainly hope they do. We would like to see, I think for now 
anyway--I know circumstances are changing daily, but we would 
like to see the U.N. stay in Abkhazia.
    Senator Corker. Mr. Chairman, I can tell by the body 
language we may be coming to a close in this hearing. I 
wondered if Mr. Lebedev or Mr. Reynolds wanted to say something 
since there is a microphone in front of them, and I just feel 
like there may be some family members who might have joined----
    Senator Nelson. Senator Corker, I have not gotten to them.
    Senator Corker. Okay. [Laughter.]
    I may have sensed incorrectly.
    Senator Nelson. You have.
    Senator Corker. All right.
    Senator Nelson. Mr. Reynolds, you are the acting Assistant 
Secretary now. One of the things that you ought to be preparing 
for is a swift confirmation process for the upcoming high-level 
appointees in the Department of State for the next President. 
So tell me what you are doing to set that in motion.
    Mr. Reynolds. Thank you, Mr. Chairman.
    One of the key objectives that we are looking at, 
particularly in the Bureau of Legislative Affairs, is a very 
smooth and successful and professional transition, very akin to 
perhaps--we have all watched the Olympics recently. It is a 
relay race, and if confirmed, I hope to be the runner behind 
that is passing a baton to a new runner who will run very 
strong, as well. And part of that is winning that race and 
getting a lot of new high-level nominees confirmed, for 
example.
    We have already started the process in the Bureau of 
Legislative Affairs on a couple of grounds. Number one, if 
confirmed, we will have a new Principal Deputy Assistant 
Secretary who is actually here today, Ambassador Mike Polt, who 
has served in the bureau before and has actually done quite a 
few transitions, moved the embassy in Bonn to Berlin, so is 
quite familiar with change and working that, as well. So we 
have started that process and are part of a team in the 
building at the Department as a whole that is working to make 
sure that there is a smooth transition as some individuals 
leave and new ones come in.
    Within the bureau itself, we are also in the process of 
upgrading all of our databases, both hardware and software, to 
take us from the 20th century into the 21st century, which will 
very much help in that process in terms of doing not only 
research for the new nominees, but also perhaps answering the 
inquiries and the questions from the committee a bit faster as 
well.
    Senator Nelson. Are you past this nonsense of partisanship 
so that no matter who the next administration is, that you are 
going to try to see a smooth hand-off?
    Mr. Reynolds. Sir, our objective is to have a very smooth, 
successful, and professional hand-off of the baton. From my own 
personal experience, I have done two transitions myself here on 
the Hill with Members who are not returning, and it was their 
opponent who actually won. And I am proud to say that in both 
cases I was publicly acknowledged for having done a good job of 
making sure the constituents of those offices were not left 
behind and that projects and so on for those districts were 
handed over in a way that kept that success going, and if 
confirmed, I would intend to do the very same here at the 
Department.
    Senator Nelson. Well, generally State and Defense are 
pretty good in the hand-off. It has been the nonsense in the 
White House that we have seen in going from one administration 
to the next that needs to stop. And that is why I asked the 
question.
    Tell me, as you look back on lessons learned from the 
passport debacle in 2007, particularly with regard to the lack 
of communication between the Congress and the State 
Department--and that lack of information was coming from the 
State Department to the Congress because we were here crying 
for action in this debacle--what are the lessons learned?
    Mr. Reynolds. Well, Mr. Chairman, there were a number of 
internal lessons learned by the Bureau of Consular Affairs, and 
I would have to defer to my colleagues there to describe to you 
some of the technical parts of----
    Senator Nelson. I am talking about the congressional 
relations, your bailiwick.
    Mr. Reynolds. But in terms of communications, we learned 
very quickly, sir, being at the front lines of the interaction 
with Congress to try and get more information to the Hill much 
faster and in a much more comprehensive way. While the bureau 
is small, we could have deployed and should and will in the 
future deploy more individuals in that process.
    One of the things that would be very helpful that helped us 
very much in the House of Representatives and we would like to 
have here in the Senate is a liaison office right here. A lot 
of the work that is done, particularly with passports and 
consular issues, is done by our liaison office for the Hill 
which resides presently in the Rayburn Building. While the 
workload has gone up considerably--and I think that has really 
helped the communications--unfortunately, we have seen the 
percentages of Senate inquiries go way down. So 80 percent of 
the workload is now with the House.
    We have already engaged in some very positive discussions 
with the Senate Rules Committee about trying to get space here. 
We appreciate that it is a cyclical process, so we kind of have 
to wait until the end of the Senate when you have the movements 
happening to be able to get a facility here in the Dirksen or 
in the Russell Building or in the Hart Building. But we think 
that would also be a very, very, very helpful way to keep in 
touch, not only with the Senators but with your staff, on a 
daily--hourly basis.
    Senator Nelson. Why has there been one in the House and not 
in the Senate in the past?
    Mr. Reynolds. When it was originally established, if I 
recall from my predecessors, both chambers were approached. At 
the time, there just physically was not space available in the 
Senate. In the House, the House Administration Committee 
actually carved out and put some new walls in part what was the 
VA liaison office. So we have a very small space in the Rayburn 
Building that was literally carved out of a liaison office.
    Since that time, we have been approaching the Senate and, 
as I said, I personally had very good conversations with 
Chairwoman Feinstein's staff director about the need and the 
importance of having an office space here. And they have agreed 
with that need, and we hope when the Senate does its changes of 
office space and so on, that we will be accommodated.
    Senator Nelson. When Congressman Dreier introduced you, he 
was talking about your role in the past where you served as 
part of the staff to the Congress. Is that correct?
    Mr. Reynolds. Correct, sir. I spent 18 years here in the 
House and the Senate.
    Senator Nelson. And what was that last position that you 
served in?
    Mr. Reynolds. The last position was staff director of the 
House Committee on Rules.
    Senator Nelson. Well, then you understand. You ought to be 
sensitive to the fact that we need to have this communication, 
and one of you all mentioned--I think it was Dreier--about what 
is Article I of the Constitution. At times, I do not think we 
have had that in the past. And we need to change that. So it 
sounds like that you are someone very suitable by your 
background to understand the sensitivities for keeping the 
communication going between these two branches of Government.
    Mr. Reynolds. Thank you, Mr. Chairman. If confirmed, I 
would intend to very much do that. Having been one of the back-
benchers, actually right behind you, sir, at times with this 
committee, firing some of those same questions from the Article 
I perspective, I certainly appreciate that need and would like 
to strengthen it and build a better relationship.
    Senator Nelson. Senator Corker.
    Senator Corker. I will ask one last question, and my body 
language may indicate I am leaving.
    Senator Nelson. I see that you are trying to hurry this 
hearing up.
    Senator Corker. I think we have three very, very qualified 
people that we are fortunate to have going into these 
positions.
    Mr. Lebedev, some of the management reforms we were talking 
about earlier with Mr. Hook--I understand there is sort of a 
dynamic that exists between the developed countries and the 
undeveloped countries as it relates to those reforms and 
creates the sort of paralysis that exists regarding those. 
Could you enlighten us a little bit as it relates to those?
    Mr. Lebedev. Well, Senator, I think going back to your 
earlier conversation with Mr. Hook on why is there inertia 
within the institution, what is the reluctance to change, to 
use Senator Robb's expression, I think you have hit upon it. 
There is a different set of perspectives that are held by a 
community of developing countries, of whom there are many, and 
a community of the industrialized states, of whom there are 
few.
    The developing world tends to see the United Nations as a 
unique opportunity for them to exert influence, to have a voice 
that they do not normally have on a bilateral basis. Many are 
small, poor countries who, rightly or wrongly, perceive that 
they do not have standing in many courts. This is a large court 
that was, in fact, designed to give them a voice. And in 
exercising that voice, they see or perceive, rightly or 
wrongly, any number of the initiatives under the rubric of 
reform, as we call them, as steps taken by that industrialized 
community to limit their influence, to possibly silence their 
voice, to take away their ability to do the things that they 
believe they can only do within the United Nations. So at the 
root of much of this is that dynamic and is that perception or 
that misperception, but regardless, it is one that, to your 
earlier point, creates a context in which change is greeted 
cautiously.
    Senator Corker. And are there ways to bridge that so that 
the voices are still heard and yet the organization itself 
evolves to where it is far more relevant and being effective in 
some of the issues that it deals with?
    Mr. Lebedev. Well, I would argue, as I suspect this 
committee would argue and has argued in the past, that the 
reforms that the United States has put forward over the last 
several years in the transparency area, with respect to 
accountability, all of the things that we regard as relatively 
conventional mechanisms of good governance, whether you are in 
the public or the private sector, we believe that, if 
instituted, these concepts make the institution more effective 
and efficient. Very simply. And we would hope that with our own 
nudging, our own promotion, the energies that we put into bring 
these into a state of activity within the U.N. will ultimately 
be seen as not impeding those voices, but as ultimately 
strengthening the institution in which they have so much faith.
    So we believe that these are not just U.S. ideas that give 
us some advantage. We are the largest single shareholder in 
this company, and we have, in effect, a fiduciary duty, like 
any sizable shareholder, to make it the most efficient, the 
most effective enterprise around. When we do that, when we 
accomplish that set of objectives, I think these other nations 
who might be skeptical right now will also see that the 
enterprise at large is a far more effective institution for 
their interests as well as ours.
    Senator Corker. Mr. Chairman.
    Senator Nelson. What kind of reform do you want to see in 
the U.N. before inauguration day, January 20?
    Mr. Lebedev. Senator, I will borrow from Mr. Reynolds' 
metaphor of the relay race. Things move slowly at the U.N., but 
progress can be made in increments. And what I would certainly 
hope to address in the fall and for whatever period of time we 
have beyond that--several initiatives to move them down that 
path.
    We have got a couple of things that are of serious concern 
in the reform arena. OIOS, which is their inspector general, 
terribly important in any institution where you are going to 
have valid and credible oversight. OIOS has been in existence 
since about 1994. It has, over that period of time, grown in 
stature and accomplishment. It is doing pretty good work. 
However, for whatever set of reasons, it is not financially 
independent. It has never been given enough resources to give 
it the latitude to explore every area that needs exploration, 
to kick every tire that needs to be kicked, to the point that 
when they will identify a target investigation, in many 
instances they do not have the funding to permit them to do it, 
and they must go to the institution that, in fact, they wish to 
investigate to see if they will help fund this initiative. And 
you and I can well imagine that on many instances, the target 
of the investigation just is going to come up a little short on 
that funding. We need to continue to focus on that deficiency 
and see if we can create that financial independence within 
that enterprise.
    Also in the OIOS arena, which is in my view as an old IG, 
if you will, a centerpiece of any sort of reform initiative in 
any institution, is the fact that the Secretary-General last 
year made a very curious proposition, and that proposition was 
that the investigations function, now housed in OIOS, should be 
removed and it should be decentralized so that everybody in the 
various funds and programs that Mr. Hook was referring to 
should have their own IG, so to speak. They do not, however, 
have any of the expertise. They do not have any of the 
separational procedures to maintain an integrity on a 
decentralized basis.
    We worry that if you take the ability to investigate away 
from investigators, you have not got much left. And rather than 
building the stature and credibility and effectiveness of OIOS, 
those two conditions alone, the absence of an independent 
financial base and the potential loss of its investigation 
function, can do severe damage to its credibility and set back, 
very frankly, the ability of the institution to usefully 
oversee its own initiatives. So OIOS, Mr. Chairman, is one area 
where we think we can incrementally move that ball down the 
field.
    I will also take some time to address the matter of ethics 
reform. As this committee knows, the U.N. Ethics Committee has 
been--the ethics initiatives have been decentralized so that 
there are ethics offices throughout the U.N., throughout the 
funds and programs. One of the things that is going on right 
now is the initiative by the U.N. Ethics Committee or the 
Ethics Office to create a set of uniform standards for all of 
these ethics operations. I think it is in our interest to 
continue to promote a very, very rigorous set of standards that 
should be commonly applied throughout the institution. Again, I 
see this as a short-term initiative. I see it as something that 
we can accomplish during the fall session.
    Those are three things that are top of mind, Mr. Chairman.
    Senator Nelson. You said that the Secretary-General wants 
to decentralize. Do I understand your answer that you do not 
think that that would be a good move?
    Mr. Lebedev. That is correct, Mr. Chairman.
    Senator Nelson. So what do we need to do to get the 
Secretary-General to support the increased funding, which was 
your first suggestion?
    Mr. Lebedev. I think we have to continue to build those 
coalitions of like-minded member states to bring the point home 
that the world watches this institution every day, and over 
recent years, they have had some bad moments in terms of public 
standing and credibility by the events that this committee is 
well aware.
    To take steps like this, sends a very bad signal to the 
other members and to the public and to large investors like us 
that we are not taking this institution in the right direction. 
And that is of concern to us because we value the institution. 
This is an institution in which we place great faith and great 
hope, and we ask it to do many, many things. And we know that 
because we fund it at a very severe level. So we think that we 
will continue to rally a community of interested parties to 
make the point that this is not in the long-term interests of 
this institution.
    Senator Nelson. Do you plan personally to go talk to the 
staff of the Secretary-General about this?
    Mr. Lebedev. Yes, Mr. Chairman, I do.
    Senator Nelson. I want to visit with you up there.
    Tell me what you think about transparency in the 
peacekeeping operations.
    Mr. Lebedev. Well, I think we have made, over the last 
couple of years since Secretary-General Annan in, I think, 2003 
brought into the open the issues of the sexual abuse and 
exploitation problems that have plagued the peacekeeping 
apparatus--I think over time that, followed by Prince Zaid's 
call for reform, and the fact that the members, in fact, 
embraced many, many reforms, I think those sets of steps that 
have brought us down to today have created a transparency 
within and around the peacekeeping operations. As this 
committee knows, we have now a number of action steps that are 
open and are well known with respect to the training of 
peacekeepers, whether it is things called conduct and 
discipline teams and also train peacekeepers once in country 
and do a very good job of informing local populations of the 
rules and the expectations with respect to those peacekeepers.
    So I think at some level, we can say that there is clearly 
greater transparency, and we are pleased with the progress to 
date under the rubric of prevention of that continuing problem 
of sexual abuse and exploitation. I think it is a longer 
conversation, Mr. Chairman, that we might have about the open 
question of punishment and what happens when you do have an 
event and what are the appropriate follow-ons that occur.
    Senator Nelson. Are you a chemist?
    Mr. Lebedev. I am not. My father was a chemist, and when I 
assumed the position to lead the Chemistry Council, he was both 
pleased and appalled. [Laughter.]
    Senator Nelson. And what had you done before that?
    Mr. Lebedev. Early in my career when I came to Washington, 
I worked at AID. I worked at the White House. Then I had the 
good fortune to be the youngest Deputy Assistant Secretary of 
State under Dr. Kissinger. I also served as the Assistant 
Inspector General for Foreign Assistance at the State 
Department, a post that no longer exists but had an oversight 
function of foreign military assistance, aid, that sort of 
thing. And I went into the private sector for 10 years, 
Senator, was a senior partner in a management consulting firm, 
but had a very large international portfolio and worked with a 
variety of multilateral institutions and the State Department 
as well, and then went into the trade association world where I 
was a COO of the U.S. Chamber of Commerce, also headed up 
international policy in that institution, CFO as the chief 
financial officer at the American Trucking Association, and the 
CEO at the American Chemistry Council. I currently am the 
chairman of the Center for International Private Enterprise, 
which is one of the four institutes of the National Endowment 
for Democracy.
    Senator Nelson. Senator Corker.
    Senator Corker. I think we have had a great hearing, and I 
think we have some folks that I look forward to working with 
when both of you and I begin our work at the United Nations 
this year. I hope that not only will you continue to focus on 
the things that you have talked about today in these hearings, 
and I hope that that is for a long enough time for you all to 
have the kind of impact you want to have. At the same time, I 
ask you that as we come and as we become more involved in the 
United Nations, that you also help us in ways that you see fit 
and help us to have the kind of impact I think each us want to 
have.
    But we thank you and we thank your families. I do not know, 
Mr. Chairman, if they would like to introduce their families, 
if they are here. It typically occurs. If not, I want to thank 
you for your service, for offering yourself, and certainly look 
forward to working with you.
    Senator Nelson. The record will duly note that the family 
members that I have already met are here.
    And if there are no other questions, the meeting is 
adjourned.
    [Whereupon, at 10:00 a.m., the hearing was adjourned.]


                              NOMINATIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
Cretz, Gene A., to be Ambassador to Libya
Jeffrey, James F., to be Ambassador to the Republic of Turkey
                              ----------                              

    The committee met, pursuant to notice, at 2:38 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. John Kerry, 
presiding.
    Present: Senators Kerry [presiding] and Menendez.
    Also Present: Senator Warner.

             OPENING STATEMENT OF HON. JOHN KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Good afternoon. I apologize for being a few 
moments late. Welcome to this hearing on two very important 
nominations. We're delighted always to welcome a senior and 
unfortunately departing colleague, Senator Warner. Let me just 
make a few statements if I can and then, since there are only 
two of us here, I'll turn to Senator Menendez, and then we'll 
invite our colleague to make his introductory comments.
    We particularly join in welcoming any family members who 
are here. We are grateful that you can join us, and 
particularly so in the case of two distinguished career foreign 
service officers. Ambassador James Jeffrey, the nominee to be 
Ambassador to Turkey, I'm pleased to say is a native of 
Melrose, Massachusetts, a graduate of Northeastern and Boston 
University. So we're happy to welcome a fellow Bay Stater here. 
You start way ahead of the game. In fact, let's just pass you 
out right now. [Laughter.]
    Senator Kerry. You've had a very distinguished career in 
the foreign service, currently serving as Assistant to the 
President and Deputy National Security Adviser, with previous 
postings in Iraq, Kuwait, Bosnia, Germany, Bulgaria, Tunisia, 
as well as serving as our ambassador to Albania. He's also 
served previously in Turkey three times, most recently as the 
chief of mission from 1999 to 2002. So he obviously brings a 
great deal of experience which would serve very well in this 
important post.
    Gene Cretz, the nominee to be our Ambassador to Libya, has 
also had an equally impressive career, spanning over 25 years 
in the foreign service. Mr. Cretz knows the Middle East well, 
currently serving as Deputy Assistant Secretary for the Bureau 
of Near Eastern Affairs, and has previously served as the 
deputy chief of mission in Israel, the charge d'affaires and 
deputy chief of mission to Syria, and minister-counselor in 
Egypt.
    One important note that I am compelled to address right up 
front with respect to Ambassador-nominee Cretz--and he's well 
aware of this--we're holding this hearing despite the fact that 
as of now Libya has yet to make full payment to the 
Humanitarian Settlement Fund which was set up under the recent 
bilateral agreement to resolve terrorism-related claims, legal 
claims.
    It's essential that Libya ensure that these payments are 
made right away. The committee cannot discharge Mr. Cretz, as 
much as we might like to on his credentials, and the Senate 
will not be confirming him, as much as it would on his 
credentials, until those payments have been made in full.
    Mr. Cretz, I know you know this has absolutely nothing to 
do with you personally and we look forward to Libya fulfilling 
that component of the agreement so that your qualifications can 
be put to use and we can move forward with this important shift 
in our relationship.
    At this point I need to read a brief portion of a statement 
of Senator Lautenberg, who particularly wanted this brought to 
ours and your attention. He has long fought for the rights of 
American terrorism victims and been particularly active on this 
issue. The balance of his remarks will be placed in the record, 
but this much I would like to quote from his record: ``Libya 
has not yet satisfied its obligations to U.S. victims of its 
terrorist acts and I''--Senator Lautenberg--``will object to 
this nomination moving forward until those victims receive 
justice. I know many of these families and I know the long 
journey they have taken to find answers and closure. While I 
welcome the recent progress on settling these claims, process 
is not complete. We cannot let Libya off the hook and leave 
U.S. victims with no assurance that they will achieve justice.
    ``I hope that today's hearing will be an opportunity to 
seek answers on when we can expect Libya to live up to its 
responsibilities under the settlement agreement.''
    [The prepared statement of Senator Lautenberg follows:]


          Prepared Statement of Senator Frank R. Lautenberg, 
                      U.S. Senator From New Jersey

    Mr. Chairman, Thank you for the opportunity to present my statement 
before this Committee. I would like to express my strong opposition to 
the President's nomination of a U.S. Ambassador to Libya. But I want to 
make clear that my opposition is not personal or based on this 
particular nominee's qualifications. Rather, it is based on my deeply 
held belief that we cannot legitimize our future with nations that have 
committed terrorist acts against Americans until and unless they 
fulfill their obligations to our citizens. Libya has not yet satisfied 
its obligations to U.S. victims of its terrorist acts and I will object 
to this nomination's moving forward until those victims receive 
justice.
    In 1988, 270 people perished in the bombing of Pan Am Flight 103 
over Lockerbie, Scotland. Thirty-eight New Jersey families lost a loved 
one that day. I know many of these families and I know the long journey 
they have taken to find answers and closure. They weren't the only 
ones. In 1986, the bombing of the Labelle Discotheque in Berlin, 
Germany killed two American service members and left many more injured. 
These heinous attacks and others like them, which were sponsored by the 
Libyan government exemplify why Libya was forced into a two-decade long 
isolation by the international community.
    In 2003, Libya accepted responsibility for the Pan Am bombing, 
renounced terrorism and agreed to dismantle its weapons of mass 
destruction. This put the country on the path to normalizing its 
relationship with the U.S. Unfortunately, although the U.S. lived up to 
its end of the bargain in 2006 by removing Libya from the State 
Department's list of State Sponsors of Terrorism, Libya failed to 
complete the payments it owes to the families of the Pan Am victims. 
Libya also went back on its word with the Labelle Discotheque victims, 
backing out of a negotiated settlement. It was up to Congress to hold 
up the normalization process and hold Libya accountable.
    For the past two years, we have been pressing for these cases to be 
resolved in order to provide justice for U.S. victims and families. 
Earlier this year, my legislation for victims of terrorism was signed 
into law as part of the Fiscal Year 2008 National Defense Authorization 
Act. This law reaffirmed the rights of plaintiffs to sue state sponsors 
of terrorism; allowed the seizure of hidden commercial assets belonging 
to terrorist states; and limited the number of appeals that a terrorist 
state can pursue in U.S. courts, among other provisions. Congress also 
prohibited U.S. government assistance to Libya, and the Senate has 
continued to delay the confirmation of a U.S. Ambassador to Libya.
    Over the past few months there have been significant developments 
on our effort to bring the justice victims have been seeking for 
decades. The first was passage of the Libyan Claims Resolution Act. 
This legislation contributed to the creation of a comprehensive claims 
settlement agreement for Libya to compensate U.S. victims of Libyan 
terrorism, including the victims of the 1988 Pan Am 103 bombing, 
victims of the 1986 bombing of the Labelle discotheque, and other cases 
involving U.S. victims of Libyan-sponsored acts of terrorism. The next 
development was the signing of the U.S. Libyan claims agreement on 
August 14th in Tripoli and the establishment of a compensation fund 
that suggested that Libya is serious about moving ahead with the U.S.-
Libya relationship.
    While I welcome the recent progress on settling these claims, the 
process is not complete. The compensation fund must now be paid in full 
by the Libyans. We cannot let Libya off the hook and leave U.S. victims 
with no assurance that they will achieve justice. I hope that today's 
hearing will be an opportunity to seek answers on when we can expect 
Libya to live up to its responsibilities under the settlement 
agreement.
    Secretary of State Condoleezza Rice recently traveled to Libya. She 
was the first high-level diplomat to visit Libya in 50 years. I was 
disappointed that this visit came before the Libyans paid the full 
settlement amount they owe, and accordingly Senator Carl Levin and I 
sent Secretary Rice a letter urging her to make the victims' 
compensation a priority of her discussions.
    No U.S. ambassador will make that same trip to Tripoli until these 
claims are settled. For this reason, I will continue to block 
consideration of this nomination in the full Senate and I would ask 
this committee to withhold any further action as well. Our bilateral 
relationship can truly move ahead only when U.S. victims of Libyan 
terrorism are fully compensated. Thank you, Mr. Chairman.


    Senator Kerry. Mr. Cretz, if we're able to confirm you, you 
will be the first U.S. ambassador to serve in Tripoli in over 
35 years. This would represent a very important milestone in 
the gradual process of normalizing U.S.-Libyan diplomatic 
relations that has been taking place since 2003. The Libyan 
government then renounced its weapons of mass destruction and 
agreed to stop supporting terrorist groups, and we all hope 
that Libya can serve as a model for a potential rapprochement 
with other states with similar histories.
    The recent visit of Secretary Rice to Tripoli seems to have 
brought us to the bring of a long-awaited new era in our 
relationship, in which we could realize the potential for 
greater cooperation and counterterrorism, military, and 
economic matters. It's my expectation that Libya will soon make 
these payments so that we can truly move ahead with this new 
chapter.
    At the same time, we must note that Libya's human rights 
practices remain an area of deep concern. Libya's political 
system remains authoritarian and undemocratic. Opposition 
groups are marginalized or in exile and the regime is generally 
suspicious of dissidents. Torture and arbitrary arrest 
reportedly rank among continuing abuses. Freedoms of speech, 
press, assembly, and association are curtailed, and several 
prominent political prisoners, including Fathi El-Jahmi, have 
yet to be freed by the government of Muammar Qadhafi. These are 
important issues that must be addressed as we go forward.
    Turkey is, we all know, a key NATO ally, playing an 
increasingly important role in attempting to resolve some of 
the world's most critical issues. I was recently in Turkey this 
February at meetings with President Gul, Prime Minister 
Erdogan, Foreign Minister Babajan and I was deeply impressed 
with Turkey's commitment to advancing our mutual interests. One 
couldn't help but be impressed by the level of activity, 
economic and otherwise, and outreach that Turkey is making 
within the region. They've taken the lead in efforts to improve 
relations between Pakistan and Afghanistan. They've served as 
host to an international summit on Iraq and most recently 
mediated dialogue between Israel and Syria.
    They're also playing a critical role as our partner in 
Afghanistan, where they've been a very significant contributor 
to NATO efforts, and in supporting our troops in Iraq, where 
Turkey serves as the conduit for some 70 percent of the air 
cargo supplying our forces.
    I was in Turkey the day they sent troops across the border 
into Iraq to deal with the PKK and I believe strongly that we 
need to continue to work closely with Turkey to address this 
threat in an appropriate manner.
    Turkey also does have some important issues that still need 
to be resolved, starting with Armenia. I was a co-sponsor along 
with many of my colleagues and with Senator Bob Dole of 
legislation introduced over 20 years ago that recognized the 
events of 1915 as genocide. I know this remains a sensitive and 
very difficult issue. It is an emotional issue as well.
    But almost a century later, it's in the best interests of 
the modern states of Turkey and Armenia to resolve this issue 
as part of a process of normalizing diplomatic relations. It's 
encouraging that both sides recently took important steps 
toward improving relations when Armenian President Serzh 
Sargsian and Turkish President Gul attended a soccer match 
together in Armenia. In addition, there are currently bilateral 
meetings between Turkey and Armenia and trilateral talks with 
Azerbaijan going on in New York. The United States should be 
prepared to do whatever we can to help move these important 
efforts at reconciliation forward.
    We also hope to see further progress in the coming months 
in resolving the dispute with Greece over Cyprus. The leaders 
of the Greek and Turkish Cypriot communities in Cyprus are 
currently engaged in direct talks, with a goal of ending the 
division and reunifying the island and its people. I understand 
it's the policy of the United States to support the current 
process under the auspices of the United Nations to find a 
Cyprus settlement that would lead to a bizonal, bicommunal 
federation. I'd be interested to hear from Mr. Jeffrey about 
the role the United States could play in moving that forward.
    So with that, let me turn to Senator Menendez for any 
opening comments he has, and then I'd turn to Senator Warner.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. I'll be brief 
because I'd like to have a little flexibility on the questions. 
So I'll keep this time very short.
    Let me congratulate both of you on your nominations and 
thank you for the service you have provided to our country to 
date. I want to echo the chairman's comments, Mr. Cretz, about 
our position on Libya. My colleague from New Jersey Senator 
Lautenberg has been at the forefront of this issue and neither 
he nor I will yield on it until Libya does the right thing and 
meets its obligations to Americans who were victims of the Pan 
Am bombing.
    That has nothing to do with your background, but it is a 
reality of the process. It's our only way to get the Libyans to 
pay final attention and make the payments that they need to 
make under the agreement that we agreed to in fact and 
expedited with an understanding. Yet that understanding remains 
void.
    Secondly, with reference to Ambassador Jeffrey, I have a 
series of questions about our U.S. relations with Turkey. It is 
a very important NATO ally, but I don't believe that gives us 
carte blanche--or I should say, gives Turkey carte blanche. 
That means I have serious questions about Armenia-Turkey 
relations. I have serious questions about issues of genocide. I 
have serious questions about religious freedom, and of course 
the continued occupation of northern Cyprus, to mention a few. 
And I look forward to hearing your answers to those questions.
    Thank you, Mr. Chairman.
    Senator Kerry. Senator Warner, thank you, sir. You honor us 
and the nominees by being here and we appreciate your presence 
enormously. Thank you.

                STATEMENT OF HON. JOHN WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Chairman Kerry, Senator Menendez, I thank 
you very much for this opportunity. It's one I looked forward 
to. I have been in this room many, many times over my 30 years 
and this represents my last appearance. I just calculated that, 
probably 100 times.
    But it ends with the nomination of someone I've come to 
know through the years and have enormous admiration for and 
think the President has chosen very wisely, this eminent public 
servant and career diplomat to take responsibilities 
representing the United States in Turkey. As was mentioned by 
you, Senator Menendez, it's a NATO country, both of you. And I 
enjoyed your dissertation and your historic background on the 
region, Senator.
    I too have visited Turkey a number of times, and 
particularly in the context that we have our NATO air 
headquarters in that nation. You're fully aware of that, and 
that's pivotal to our operations.
    I wonder if it's time that the nominee could be invited by 
the chair to introduce his family.
    Senator Kerry. Absolutely, it's a great time for that.
    Ambassador Jeffrey. Senator, I'd like to introduce my wife 
Gudrun, daughter Julia, son Jahn, and daughter-in-law Darbana 
Kruka.
    Senator Kerry. Thank you. We welcome you all. I was a 
foreign service brat for about 10 years, so I'm always admiring 
what the families put up with in the process, and we thank you.
    Senator Warner. I thank the chair.
    You have given a very important observation here with 
regard to his distinguished career of some 31 years as a public 
servant. I first met him while he was deputy chief of mission 
and charge d'affaires to Iraq in trips that I made there during 
2004 and 2005. That was my first impression of this 
distinguished gentleman.
    During our CODEL visit I remember to Baghdad on one 
occasion, we had the opportunity to discuss the situation in 
Iraq and the U.S. role there in great detail, and you briefed 
the delegation that I was heading at that time. I was indeed 
deeply impressed, as I am today, with your professional grasp 
of knowledge.
    You've covered a good deal of his background, having spent 
time in Turkey as deputy chief of mission '83-'87 and 1999 to 
2002. Currently, however, he is serving in a very key position 
with the National Security Council and working closely with 
Steve Hadley, the Assistant to the President. As a matter of 
fact, in Mr. Hadley's absence he is often the stand-in acting 
chief of that section.
    He served in the Army from 1969 to '76, with posts in 
Germany and Vietnam, and his academic credentials are equally 
impressive. You have covered those.
    I mentioned the importance of Turkey as a NATO ally and an 
ally in many other ways in that region. I'd like to thank 
Ambassador Ross Wilson, whom I've also known, the current U.S. 
Ambassador to Turkey, and his family for their service and we 
wish them well as he continues his legacy of public service. 
Following in the footsteps of Ross Wilson, I can think of no 
one better qualified or suited than Jim Jeffrey.
    I'm pleased to be the one who's given him whatever value a 
Senator contributes. Each of the times that I've been here I've 
said the same thing as I conclude: You're on your own.
    Senator Kerry. Well, Senator, before you get up and leave, 
which we know you have to do, and respect the schedules around 
here, if Senator Biden were here I know he would want this 
committee to be on record and I'm going to take the liberty of 
just putting it on the record how unbelievably grateful we are 
for your service. You have been just an extraordinary 
colleague. We have a bad habit sometimes around here of blowing 
smoke at each other, but I'll tell you, our relationship goes 
way back to 1970-whatever, but here in the Senate since '85. 
And there is nobody whose word is more reliable, nobody who 
more calmly and thoughtfully reaches out across the aisle, 
nobody who consistently puts country's interests ahead of 
party's interests and works to secure our Nation.
    It's been just an extraordinary pleasure to have you as a 
colleague.
    Senator Menendez. Mr. Chairman, I just want to join you in 
those sentiments. I am privileged that I got to the Senate in 
time to serve with John Warner. I really do not believe that 
this will be the last time that we will see you in this hearing 
room. You may be a nominee, and we will be judging on whether 
or not--I think it will be an easy confirmation. But 
nonetheless, I have no doubt that somehow your service to this 
country is not just finished.
    But we are honored by the time we have had here to serve 
with you.
    Senator Warner. Well, I thank you. Give my very best to 
Senator Lautenberg. He's an old crony. There are five of us 
left in the Senate who served in World War II. He served with 
far greater distinction. But the chairman is too remiss--not 
remiss, but too modest to say that we served together during 
the Vietnam period. He was on the front line serving with 
distinction with the Navy and I was back as Secretary in my 
swivel chair. But I did visit your region on a number of 
occasions.
    I wish you both well. And I'd like to thank the staff of 
this committee, particularly that gentleman in the back room 
whose hair is about the same color as mine. He has always 
greeted me, as well as other members of the staff of this 
committee. This committee has served the Senate magnificently, 
and really the eyes of the world have focused here so often on 
the issues that come before this committee to be resolved.
    I thank you.
    Senator Kerry. Thank you so much, Senator Warner. We 
appreciate it. Thank you.
    Senator Warner. Oh, by the way, by pure coincidence, I 
brought my wife with me today and I'm glad she heard what you 
had to say. [Laughter.]
    Senator Kerry. There you go.
    Gentlemen, thanks so much. Ambassador Cretz, why don't you 
begin. Do you want to lead off, and then we'll go to Ambassador 
Jeffrey. Thanks.

STATEMENT OF GENE A. CRETZ, NOMINATED TO BE AMBASSADOR TO LIBYA

    Mr. Cretz. Mr. Chairman and Senator Menendez: I am deeply 
honored to appear before you today as President Bush's nominee 
to be Ambassador to Libya, the first in 36 years. I want to 
express my profound gratitude to the President and Secretary of 
State Rice for the trust and confidence they have shown in 
nominating me for this challenging position.
    With your permission, Mr. Chairman, I would like to 
introduce my wife Annette, a registered nurse from Union City, 
New Jersey, Senator, who has helped manage the health care of 
several of our embassy communities overseas. My daughter 
Gabrielle is a graduate of James Madison University and works 
in the private sector. My son Jeffrey, a captain in the United 
States Air Force Reserves who has honorably served his country 
in two combat deployments to Afghanistan.
    Senator Kerry. Thank you very much for that.
    Mr. Cretz. Without my family's love, support, sacrifice, 
and spirit of adventure, shown through our 27 years in foreign 
service, I would not be here today.
    Mr. Chairman, Secretary Rice's just completed historic 
visit to Libya marks a milestone in our relationship. She is 
the first sitting Secretary of State to visit Libya since 1953. 
Most importantly, her visit included the most senior and only 
cabinet-level meeting with Libyan leader Colonel Muammar 
Qadhafi since he took power in 1969.
    Libya is in the midst of an historic process of reengaging 
with the broader world after nearly 30 years of isolation. It 
is in our national interest to do all we can to help Libya and 
its people transition back into the international community. 
Over the past 5 years our bilateral relationship, as well as 
Libya's place in the international community, has drastically 
changed. Libya is now a vital partner in the common effort 
against terrorism. It is a leader on the African continent and 
a non-permanent member of the UN Security Council.
    We had an extremely contentious relationship with Libya for 
several decades owing to its past acts, namely its involvement 
in acts of terrorism that took the lives of hundreds of 
Americans and others, which led to the imposition of U.S. and 
UN sanctions and its designation as a state sponsor of 
terrorism. As Libya has turned away from terrorism and the 
pursuit of WMD, we have worked hard over the past 5 years to 
turn a new page in our bilateral relationship.
    The comprehensive claims agreement provides a process 
through which outstanding claims pending against Libya for past 
acts of terror can be resolved and bring a measure of justice 
for the many American families who have been waiting for this 
outcome for over 20 years. It will constitute a milestone event 
in our relationship and will provide a clear signal of this 
administration's commitment to fulfill its pledge to our 
citizens.
    Together, the Secretary's visit, the claims settlement, and 
Libya's historic 2003 decisions to voluntarily rid itself of 
its WMD program and foreswear terrorism facilitated the 
country's reintegration into the international community and 
have opened the door to broader and deeper engagement with 
Libya and its people.
    All of these efforts were taken to advance Libya's 
interests. We continue our important and significant 
cooperation on counterterrorism, further strengthening regional 
efforts to combat al Qaeda's presence in North Africa. We are 
beginning a defense relationship so that we can work toward a 
more stable and peaceful African continent. We will continue to 
work closely with the international community to ensure that 
Libya complies with its WMD obligations and are providing 
technical assistance to help it do so.
    In Libya today there are calls for political reform. We 
will closely observe how calls for the opening of further 
political space and greater respect for human rights will be 
implemented and how they will affect the Libyan people. We 
believe a strong civil society and greater political space 
would also contribute to these efforts to strengthen Libya.
    As we do with all nations, the United States will maintain 
an open and honest dialogue with Libya to discuss human rights 
and good governance. This dialogue will be a necessary element 
of our future relations with Libya. We continue to call for the 
immediate release of all political prisoners, including the 
unconditional release of Fathi El-Jahmi and the group of self-
described regime critics led by Dr. Idriss Boufayed, as it 
constituted an important part of the Secretary's visit.
    Libya is in the midst of a major infrastructure development 
initiative and has undertaken economic reforms. We have begun 
technical assistance programs in the banking sector and are 
committed to helping Libya grow its economy for the wellbeing 
of its people and the region.
    Our commercial ties are growing and the majority of U.S. 
exports to Libya are outside the hydrocarbon sector. U.S. 
companies have won sizeable contracts for infrastructure and 
construction projects and are competing for contracts in other 
sectors, such as communications and aviation.
    As our relationship deteriorated in the 1980s, our ties 
with the Libyan people were all but severed. Rebuilding these 
links is an integral part of our re-engagement with Libya, 
whether through USG-sponsored public diplomacy program or 
promoting private initiatives between our two peoples.
    Since 2003, the breadth and depth of our bilateral 
relationship with Libya have expanded greatly, but the 
resources we have committed to support those efforts have, 
frankly, not kept pace. I commend the women and men serving at 
Embassy Tripoli. One of my key priorities as ambassador if 
confirmed will be to oversee efforts to build a new and secure 
embassy and to identify the appropriate human and material 
resources to meet our critical mission goals.
    Mr. Chairman, we have come a long way in this relationship 
with a former adversary. Acting in accordance with its own 
national interests, Libya has in fact said yes to the United 
States on the critical issues of abandoning its WMD 
aspirations, renouncing terrorism, and implementing the claims 
agreement. In that regard, Libya affords a potentially positive 
model for other countries that might make similar choices. If 
confirmed as ambassador, I look forward to the challenge of 
setting a firm foundation for future relations with this 
important country. We have a Libyan government and populace 
that are eager to engage with the United States and we should 
immediately seize on that opportunity. It is in the interest of 
both sides to do so.
    Thank you very much.
    [The prepared statement of Mr. Cretz follows:]


 Prepared Statement of Gene A. Cretz, Nominee To Be Ambassador to Libya

    Mr. Chairman, and members of the committee, I am deeply honored to 
appear before you today as President Bush's nominee to be Ambassador to 
Libya, the first in 36 years. I want to express my profound gratitude 
to the President and Secretary of State Rice for the trust and 
confidence they have shown in nominating me for this challenging 
position.
    With your permission, Mr. Chairman, I would like to introduce my 
wife, Annette, a registered nurse, who has helped manage the health 
care of several of our embassy communities overseas. My daughter, 
Gabrielle, is a graduate of James Madison University and works in the 
private sector. My son, Jeffrey, a captain in the United States Air 
Force Reserves, has honorably served his country in two combat 
deployments to Afghanistan. Without my family's love, support, 
sacrifice, and spirit of adventure shown throughout 27 years in the 
Foreign Service, I would not be here today.
    Secretary Rice's just-concluded historic visit to Libya marks a 
milestone in our relationship. She is the first sitting Secretary of 
State to visit Libya since 1953. Most importantly, her visit included 
the most senior and only cabinet-level meeting with Libyan Leader 
Colonel Muammar Qadhafi since he took power in 1969.
    Mr. Chairman, Libya is in the midst of a historic process of 
reengaging with the broader world after nearly 30 years of isolation. 
It is in our national interest to do all we can to help Libya and its 
people transition back into the international community.
    Over the past 5 years, our bilateral relationship, as well as 
Libya's place in the international community, has drastically changed. 
We started with no relationship, and now we are well on the way to 
normal diplomatic relations. We had no presence in Libya, and now we 
have an embassy that is creating new ties with the Libyan Government 
and its people while advancing critical American interests. Libya is 
now a vital partner in the common effort against terrorism. It is a 
leader on the African continent and a nonpermanent member of the U.N. 
Security Council.
    We had an extremely contentious relationship with Libya for several 
decades owing to its past acts--namely, its involvement in acts of 
terrorism that took the lives of hundreds of Americans and others--
which led to the imposition of United States and U.N. sanctions and its 
designation as a state sponsor of terrorism. As Libya has turned away 
from terrorism, and the pursuit of WMD, we have worked hard over the 
past 5 years to turn a new page in our bilateral relationship. The 
comprehensive claims agreement provides a process through which 
outstanding claims pending against Libya for past acts of terror can be 
resolved and bring a measure of justice for the many American families 
who have been waiting for this outcome for over 20 years. It will 
constitute a milestone event in our relationship and will provide a 
clear signal of this administration's commitment to fulfill its pledge 
to our citizens. Together, the Secretary's visit, the claims settlement 
and Libya's historic 2003 decisions to voluntarily rid itself of its 
WMD program and forswear terrorism facilitated the country's 
reintegration into the international community and have opened the door 
to broader and deeper engagement with Libya and its people.
    All of these efforts were taken to advance United States interests, 
and they have cemented Libya's important and significant cooperation on 
counterterrorism, further strengthening regional efforts to combat al-
Qaida's presence in North Africa. We also anticipate beginning to 
develop military-military lines of communication and expect to conclude 
a Defense Contacts and Cooperation Memorandum of Understanding for that 
purpose soon so that we can discuss how to work toward a more stable 
and peaceful African continent.
    We will continue to work closely with the international community 
to ensure that Libya complies with its WMD obligations, and are 
providing technical assistance to help it do so. We are cooperating 
with Libya to engage its former WMD scientists into peaceful and 
economically viable pursuits such as water management and desalination, 
to convert its former chemical weapons factory into a pharmaceutical 
plant and to transform nuclear reactor facilities previously fueled 
with weapons-grade uranium into centers for scientific research with no 
such proliferation risk. Additionally, we are partnering with Libya to 
establish a regional nuclear medical center. The center is a tangible 
example of the type of cooperation that would not have been possible 
before Libya's historic 2003 decision.
    In Libya today, there are calls for political reform. We will 
closely observe how calls for the opening of further political space 
and greater respect for human rights will be implemented and how they 
will affect the Libyan people. We note that Libya has identified prison 
reform and relaxing of press restrictions as focus areas for political 
reform. We will work cooperatively with the Libyan Government and 
people to support these initiatives. We believe a strong civil society 
and greater political space would also contribute to these efforts to 
strengthen Libya. As we do with all nations, the United States will 
maintain an open and honest dialog with Libya to discuss human rights 
and good governance. This dialog will be a necessary element of our 
future relations with Libya. We continue to call for the immediate 
release of all political prisoners, including the unconditional release 
of Fathi El-Jahmi and the group of self-described regime critics led by 
Dr. Idriss Boufayed, as it constituted an important part of the 
Secretary's visit.
    Libya is in the midst of a major infrastructure development 
initiative and has undertaken economic reforms. We have begun technical 
assistance programs in the banking sector, and are committed to helping 
Libya grow its economy for the well-being of its people and the region.
    Our commercial ties are growing, including those outside the 
hydrocarbon sector. United States-Libyan trade in 2007 grew over 17 
percent from the previous year and the majority of United States 
exports to Libya are outside the hydrocarbon sector. U.S. companies 
have won sizable contracts for infrastructure and construction 
projects, and are competing for contracts in other sectors, such as 
communications and aviation. With respect to the oil sector, Libya, 
which has the largest proven oil reserves on the continent of Africa, 
hopes to increase its daily production from 1.7 million barrels per day 
to 3 million barrels per day with the help of United States expertise.
    Our relationship with Libya is as old as our republic. With the 
Barbary States, during Italian colonization, through the travails of 
World War II, the subsequent period of cooperation and in the cold war 
era we engaged with Libya on important issues of security and commerce 
while building bridges of understanding with the Libyan people. At one 
time during the 1970s, there were over 4,000 Libyan students studying 
at American universities, many of whom are now senior Libyan Government 
officials and business leaders. However, as our relationship 
deteriorated in the 1980s, these ties were all but severed. Rebuilding 
these links is an integral part of our reengagement with Libya whether 
through USG-sponsored public diplomacy programming or promoting private 
initiatives between our two peoples. Today, over 1,000 Libyan students 
are studying at United States universities, and that number continues 
to grow. To promote greater engagement between the American and Libyan 
people, our two countries have been working on a Protocol on 
Educational and Cultural Cooperating to facilitate the exchange of 
individuals and ideas. This is one way we are reconnecting with the 
Libyan people after a 24-year hiatus that was previously characterized 
by animosity, mistrust, and misinformation.
    Since 2003, the breadth and depth of our bilateral relations with 
Libya have expanded greatly, but the resources we have committed to 
support those efforts have frankly not kept pace. I commend the men and 
women serving at Embassy Tripoli. Their hard work, dedication, and 
sacrifice have made our relationship what it is today and they have 
done so in trying circumstances. The embassy, initially established in 
a hotel, has only recently moved into a collection of houses that 
serves as an interim embassy site. One of my key priorities as 
ambassador, if confirmed, will be to oversee efforts to build a new and 
secure embassy and to identify the appropriate human and material 
resources to meet our critical mission goals.
    Mr. Chairman, we have come a long way in this relationship with a 
former adversary. Acting in accordance with its own national interests, 
Libya has in fact said ``yes'' to the United States on the critical 
issues of abandoning its WMD aspirations, renouncing terrorism, and 
implementing the claims agreement. In that regard, Libya affords a 
potentially positive model for other countries that might make similar 
choices. If confirmed as ambassador, I look forward to the challenge of 
setting a firm foundation for future relations with this important 
country. We have a Libyan Government and populace that are eager to 
engage with the United States, and we should immediately seize on that 
opportunity--it is in the interests of both sides to do so.


    Senator Kerry. Thank you very much, Mr. Cretz.
    Mr. Jeffrey?

STATEMENT OF HON. JAMES F. JEFFREY, NOMINATED TO BE AMBASSADOR 
                   TO THE REPUBLIC OF TURKEY

    Ambassador Jeffrey. Thank you very much, Mr. Chairman, 
Senator. I am honored to appear before you today as President 
Bush's nominee to serve as ambassador to the Republic of 
Turkey. I am grateful to both President Bush and Secretary Rice 
for their trust and confidence in me. I have submitted a 
statement for the record and what I would like to do with your 
permission now is to summarize briefly my points.
    Sir, let me begin with Turkey's role in relation to our 
foreign policy priorities. Turkey was very quick to respond to 
the crisis in Georgia, for example, and was vocal in its 
support for Georgia's territorial integrity. As was mentioned, 
Turkey is our close partner in working for success in Iraq. 
Turkey understands that success or failure there will have an 
immediate impact on its security.
    As you mentioned, Mr. Chairman, Turkey along with Iraq and 
the United States are engaged in joint efforts against the PKK 
terrorist organization, which has cost the lives of some 30,000 
Turks since the 1984 outbreak.
    Our military ties with NATO ally Turkey, as was mentioned, 
remain very strong and very important. I want to thank the 
Turkish people for the hospitality that they have shown entire 
generations of American military men and women.
    In Afghanistan, Turkey has sent large contingents from the 
very beginning of the International Security Assistance Force 
and has been a leader in both the civilian and the military 
side of that mission, and has also been a major assistance 
contributor.
    Turkey is concerned as well as we are with the situation in 
Iran, particularly Iran's pursuit of nuclear enrichment, and it 
supports the IAEA's efforts to investigate this nuclear 
program. We support Turkey's efforts to normalize its relations 
with its neighbors and thus have been encouraged new 
developments in Cyprus and Armenia. As you have mentioned, Mr. 
Chairman, we were very, very pleased to see the courageous 
invitation by President Sargsian of Armenia to President Gul to 
travel to Armenia and we were very pleased with his courageous 
decision to accept that.
    The election of a new president in Cyprus has given a new 
impetus to the discussions between the two sides there and we 
are hopeful to contribute to that. You asked what we're doing. 
We're working with both sides, and this would be one of my most 
important priorities, sir, were I confirmed.
    We strongly urge Turkey to work with Armenia to establish 
diplomatic relations, to open the border, and to have an open 
and honest dialogue concerning the tragic events at the end of 
the Ottoman Empire.
    The United States also supports Turkey's aspirations to 
join the European Union. We think this is very important also 
for our own relations, although it's a decision for the two in 
the end to take themselves. To its great credit, the current 
ruling Justice and Development Party is implementing the 
reforms necessary for eventual EU membership. We encourage 
Turkey, in doing so, to protect the civil rights of all 
religious and ethnic groups, such as by opening the Ecumenical 
Patriarchate's Halki Seminary.
    Our economic cooperation with Turkey would be a key 
priority were I confirmed, Mr. Chairman. In particular, the 
United States and Turkey are working closely together on oil 
and gas pipeline projects that will help both Europe and Turkey 
respond to the very significant energy shortages and energy 
dependency that we see in the future if we don't develop new 
sources.
    Mr. Chairman, Senator, many Americans, including my family 
and me, have had wonderful experiences living and working in 
Turkey, and in the case of our daughter graduating from a 
Turkish high school. It would be an honor to return to Ankara 
to represent our Nation.
    Thank you.
    [The prepared statement of Ambassador Jeffrey follows:]


          Prepared Statement of James Jeffrey, Nominee To Be 
                  Ambassador to the Republic of Turkey

    Mr. Chairman and members of the committee, I am honored to appear 
before you today as President Bush's nominee to serve as ambassador to 
the Republic of Turkey. I am grateful to Secretary Rice and President 
Bush for their trust and confidence in me. With me today are my wife, 
Gudrun, daughter, Julia, son, Jahn, and daughter-in-law, Dardana Rruka. 
During my 31-year career in the Foreign Service, my family and I have 
had the pleasure of serving in Turkey three times previously, most 
recently as the deputy chief of mission from 1999 to 2002. I have seen 
firsthand the remarkable transformations in Turkey over the last few 
decades as it has become more democratic, more open, and more 
economically vibrant. If confirmed, I look forward to working with you 
and your colleagues on how best to advance the many shared interests of 
the United States and Turkey in the years ahead. In doing so, I would 
keep constantly in mind the heavy responsibility I would assume as 
ambassador responsible for this critically important and very complex 
relationship.
    Throughout my career, during the times I was not working in Turkey, 
I was often working with Turkey--on Iraq, Iran, Greece, Bulgaria, and 
Albania. Turkey is a key friend and strategic partner of the United 
States in the Middle East, the Caucasus, the Balkans, Central Asia, and 
beyond, and a crucially important member of our NATO alliance. For 
decades, Turkey has worked with the United States on issues such as 
regional stability, trade, democracy promotion, energy security, and 
counterterrorism cooperation. The events over the past 2 months in 
Georgia underscore Turkey's importance as a democratic bulwark, a 
military partner, and a strategic ally in a dynamic and challenging 
region.
    Even among close allies, however, there are occasional differences. 
While Turkey and the United States have shared values and goals, our 
tactics and methods are not always the same and have caused some 
misunderstandings. Our diplomatic and military exchanges were strained 
when the Turkish parliament failed to approve, in March 2003, the 
United States request to use Turkey to launch operations into Iraq. 
Starting in 2004, after several years of a cease-fire, the Kurdistan 
Workers Party (PKK) terrorists once again began attacking Turkish 
soldiers and civilians, both from its safe haven in northern Iraq and 
from inside Turkey. Turkey was frustrated by what it perceived as 
American hesitation concerning its plight in a struggle that has cost 
more than 30,000 Turkish lives over the last few decades. The 
unfortunate result of these differences was that the Turkish public, 
according to the 2007 and 2008 Pew Global Attitudes Surveys, had the 
lowest favorable opinion of the United States out of all the countries 
that were surveyed.
    Thankfully, we started to see important improvements in our 
bilateral relations in 2007. First, Turkey's democracy was tested when 
challenges to its Presidential election led to early parliamentary 
elections. These elections ultimately led to a strengthened mandate for 
Prime Minister Erdogan's ruling Justice and Development Party. Second, 
the United States responded to the growing PKK threat to the region 
when President Bush pledged last November to provide assistance to help 
Turkey defend itself against this terrorist organization, a common 
enemy of Turkey, Iraq, and the United States. Now Turkey, Iraq, and the 
United States are working together more closely than ever before to 
root out the PKK. Turkish public opinion of the United States is also 
now improving. If I am confirmed as ambassador, I will do everything 
possible to maintain and enhance this momentum and build stronger ties 
with this strategic partner.
    Let me describe Turkey's role in relation to our foreign policy 
priorities. Turkey has been quick to respond to the crisis in Georgia 
and vocal in its support for Georgia's territorial integrity, 
independence, and sovereignty. Prime Minister Erdogan carried that 
message to both Moscow and Tbilisi and has been working to garner 
regional support for Georgia. The Turkish Red Crescent provided needed 
humanitarian assistance with tents, food, and water, and the Turkish 
Government has assisted the United States in approving the transit of 
our naval vessels that have delivered assistance to alleviate the 
suffering of the Georgian people. We are looking to Ankara for its 
thoughts on how its Caucasus stability initiative can integrate with 
efforts by the Euro-Atlantic community to advance peace, prosperity, 
and freedom in Georgia.
    Turkey recognizes that our success or failure in Iraq will directly 
impact Turkey's domestic and economic security. Turkey is helping to 
ensure Iraq's progress, including by hosting the second Enlarged 
Ministerial Neighboring Countries Meeting in Istanbul November 2-3, 
2007. Turkey, in fact, was instrumental in starting the Neighbors 
Process. Turkey also provides political party and military training, 
assists with reconstruction, and is helping to develop Iraqi oil and 
electricity infrastructure. We have seen increasing dialog between 
leaders in Ankara and Baghdad, including critically important visits of 
PM Erdogan to Baghdad and Iraqi President Talibani to Turkey in 2008, 
opening the way to further regional contacts with Iraqi democratic 
leaders. We are seeing, as well, growing contacts between Ankara and 
officials in the Kurdistan Regional Government. Finally, over 70 
percent of the air cargo for our mission in Iraq transits Incirlik Air 
Base, which is also the primary refueling stop for flights to 
Afghanistan. Our military ties with Turkey remain vital to both 
countries, and I thank Turkey for its long tradition of hospitality to 
our military men and women. In short, Turkey is setting an example for 
the region.
    Turkey's soldiers have been in Afghanistan since the beginning of 
the International Security Assistance Force. Turkey currently retains 
about 800 troops there, has a provincial reconstruction team in Wardak, 
and just upped its original $100 million humanitarian assistance during 
the Paris Conference, for a total now of $200 million in aid. Turkish 
firms have invested $1.5 billion in projects in Afghanistan since 2002, 
including schools and mosques, hospitals and health clinics, bridges 
and water wells. Turkey has also worked to facilitate talks between the 
leaders of Afghanistan and Pakistan and to press for greater 
cooperation in rooting out terrorism emanating from the Federally 
Administered Tribal Areas of Pakistan.
    Turkey has been a partner in the search for a comprehensive peace 
in the Middle East. Ankara hosted Israeli President Peres and 
Palestinian Authority President Abbas for an historic joint address to 
the Turkish Parliament just before the Annapolis Conference, which 
Turkey also attended and actively supports. Turkey followed up at the 
Paris Conference with a $150 million pledge for Palestinian institution 
building to be used in 2008-2010. Most recently, Turkey began 
facilitating peace talks between Israel and Syria. We welcome Turkey's 
constructive engagement and hope the talks bear fruit.
    Turkey is concerned, as well, about Iran's efforts to develop 
nuclear enrichment capabilities in direct violation of Iran's 
obligations in three Chapter VII U.N. Security Council resolutions, and 
Turkey supports the IAEA's ongoing investigation of Iran's nuclear 
program. While we understand Turkey's desire to maintain good relations 
with its neighbor, we work with Turkey to ensure full enforcement of 
all of U.N. Security Council resolutions, and to pressure Tehran to 
comply with international obligations. Turkey implements all relevant 
UNSCRs (1737, 1747, and 1803), which help stem Iran's nuclear and 
missile proliferation efforts. One concern I will emphasize in Ankara, 
if I am confirmed, is Iran's hydrocarbon sector, and our legislative 
obligations to oppose foreign investment of over $20 million in it.
    The United States strongly supports Turkey's aspirations to join 
the European Union. To its great credit, the ruling Justice and 
Development Party is implementing political and economic reforms 
necessary for EU membership, and we hope that process continues. We, 
like the EU, want to see Ankara expand further its democratic and human 
rights reforms. We welcomed recent changes to Article 301, the 
provision of the Turkish penal code that criminalized ``insulting 
Turkishness,'' and amendments to expand non-Turkish broadcasting, 
including in Kurdish. We encourage Turkey to protect civil rights of 
all religious and ethnic groups, such as by reopening the Ecumenical 
Patriarchate's Halki Seminary as a vocational school. Turkey and the 
United States share the values of democracy and the rights of 
individuals, and we continue to see that reflected in the reforms that 
Turkey is undertaking.
    We support Turkey's efforts to normalize relations with its 
neighbors and have been encouraged by new developments concerning both 
Cyprus and Armenia. The election of the new Cypriot President has led 
to talks between the two sides and a willingness to renew efforts with 
the U.N. on a bizonal, bicommunal federation. Turkish leaders welcomed 
their new counterparts after the Armenian elections, and President Gul 
just made a historic visit to Yerevan at Armenian President Sargsian's 
invitation. We strongly urge Turkey to work with Armenia to reestablish 
diplomatic relations and to have an open and honest dialog about the 
tragic events at the end of the Ottoman Empire.
    Our economic cooperation with Turkey would be a key priority, were 
I confirmed, with emphasis on supporting United States firms and 
investment. The United States recently ratified a Peaceful Uses of 
Nuclear Energy agreement with Turkey, which should provide new 
opportunities for United States businesses to invest in Turkey. The 
United States and Turkey are also working together on oil and natural 
gas pipelines, including the Baku-Tbilisi-Ceyhan, Turkey-Greece-Italy 
Interconnector, and the Nabucco pipelines, to develop a new generation 
of infrastructure that will help both Turkey and Europe secure and 
diversify their energy supplies. One of my proudest accomplishments on 
my last tour in Turkey was to help move the Baku-Tbilisi-Ceyhan oil 
pipeline forward, paving the way for these further efforts benefiting 
both Turkey and global consumers.
    Many Americans, including my family and me, have had wonderful 
experiences living and working in Turkey and, in the case of our 
daughter, graduating from a Turkish high school. It would be an honor 
to return to Ankara to represent our Nation, promote U.S. interests, 
and ensure that we are providing needed services for American citizens 
in Turkey. If confirmed for this post, I will ensure all members of 
United States mission Turkey work effectively to advance United States 
goals in Turkey and the region, do our utmost to support our private 
American community, and remain safe in the face of terrorist threats.
    Mr. Chairman, if confirmed as ambassador, these are only a few of 
the many items that would be on my agenda in Turkey. If confirmed, I 
hope I can count on the help and advice of you and your colleagues. I 
look forward to working with you and urge you to travel to this 
beautiful and fascinating country.
    Thank you.


    Senator Kerry. Well, thank you, both of you, very, very 
much. I appreciate it.
    We'll just run--Bob, is 10 minutes okay? We'll do 10-minute 
rounds and sort of bounce back and forth here.
    Let me begin by asking just a couple pro forma questions. 
Do either of you have any conflicts of interest which have 
required you to divest of anything that we should be aware of 
in the performance of the responsibilities in either of your 
assigned countries? Ambassador Cretz?
    Mr. Cretz. No, I don't, sir.
    Senator Kerry. Ambassador Jeffrey?
    Ambassador Jeffrey. No, sir.
    Senator Kerry. Is there any issue on which either of you 
would have to recuse yourself because of any potential conflict 
of interest?
    Ambassador Jeffrey. No.
    Mr. Cretz. No, Mr. Chairman.
    Senator Kerry. Thank you. Thank you both.
    Mr. Jeffrey, with respect to the PKK, what would you--how 
would you characterize the current state of relations between 
Turkey and the Kurdish regional government?
    Ambassador Jeffrey. The Kurdish regional government and the 
Iraqi government both acknowledge the PKK is a terrorist 
organization and they're working with both us and the Turks to 
deal with that. There have been some strains and tensions, as 
you mentioned, at the beginning of the cross-border operation. 
There were some concerns from the Iraqi side, including from 
the side of the Kurdistan regional government. The Turks have 
been working both with the folks in Irbil in the Kurdistan 
regional government and in Baghdad to smooth over these 
concerns and I think that they have made considerable progress, 
particularly with Prime Minister Erdogan's recent visit to 
Baghdad and President Talabani's visit earlier this year to 
Ankara.
    It requires constant exchanges, but we are seeing progress, 
sir, and I think that the two sides understand better now what 
the purpose of these operations are and the limits of these 
operations.
    Senator Kerry. Where do you understand the Turkish 
government's influence and position with respect to any Kurdish 
independence issues?
    Ambassador Jeffrey. The Turkish government, sir, like we 
and like the Iraqi government, supports the territorial 
integrity of Iraq as laid out in UN Resolution 1546 and 
subsequent ones. We're very strong on this, as are the Turks.
    Senator Kerry. So you would see the problem as really one 
of self-defense and legitimate national security concern with 
respect to the PKK trans-boundary initiatives?
    Ambassador Jeffrey. Yes, sir, very much so. President Bush 
met with Prime Minister Erdogan in November of last year and 
agreed to provide a variety of intelligence and other support 
for the Turkish operations and we do so fully cognizant that 
this is a self-defense operation, it is not designed for 
anything else, and the Turks have lived up to that, sir.
    Senator Kerry. Fair enough.
    With respect to the Turkish initiative regarding Syria and 
Israel, there have been no direct talks yet between Syria and 
Israel. President Assad is pushing those off pending, needless 
to say, U.S. engagement in some more direct way. How would you 
characterize the state, sort of what the accomplishment to date 
would be of that initiative, and where do you see it playing 
out?
    Ambassador Jeffrey. First of all, sir, the United States, 
this administration, supports this effort. We encourage Turkey 
to continue what it's doing. The talks, as you said, have been 
at some distance, with the Turks functioning as an 
intermediary. The subjects are borders, security, water, and 
overall political-diplomatic relations between the two.
    We think that this is a very important step in an overall 
comprehensive solution to the Arab-Israeli conflict and we hope 
that this effort continues. We are encouraging both the 
Israelis and the Turks to continue.
    Senator Kerry. Do you see a role that we could play more 
proactively?
    Ambassador Jeffrey. We review this from time to time, 
Senator. We are--at this point we're comfortable where we are 
in terms of reaching out to Syria.
    Senator Kerry. Well, I'm not going to push you on that 
because I know that's a policy being made at a higher level, 
but one that the committee has had some concerns about, as I 
think you know.
    Many of us on this committee are deeply concerned about how 
we move Turkey and Armenia to resolve the outstanding issues, 
including the opening of the border, the Nagorno-Karabakh, 
obviously the events of 1915, and so forth. How would you 
assess the progress made in the recent diplomatic initiatives, 
beyond the soccer initiative? How would you assess that?
    Ambassador Jeffrey. Sir, looking back at where I was I was 
last in Turkey from 1999 to 2002, we've seen considerable, 
albeit not yet sufficient, progress. For example, a few years 
ago the Turks began issuing essentially immediate 90-day visas 
for Armenians traveling to Turkey. There are some 70,000 
Armenians living and working in Turkey today. There are weekly 
commercial flights between Erevan and Istanbul. There are 
contract flights between Erevan and Antalya during the summer. 
During the Georgian crisis the Turks opened up the air space 
between the two countries, and there's about 60 to $120 million 
in annual trade between the two.
    There are also, beyond the fairly dramatic events of last 
month, sir, with President Gul's trip, there are also 
diplomatic exchanges at various levels. The Armenians have a 
diplomat in the Black Sea Cooperation Council in Istanbul and 
there have been a variety of talks at other levels. However, we 
have not achieved yet what we need, which is, as I said, the 
establishment of diplomatic relations and the opening of the 
border.
    Senator Kerry. Let me go to one of the sort of tricky 
questions here. I'm not trying to, literally not trying to trip 
you up or anything. I'm just trying to get the record as clear 
as we can going forward. At a House Foreign Affairs Committee 
hearing on June 18, 2008, Assistant Secretary of State Dan 
Freid stated, quote, that the brutality against the Armenians 
starting in 1915 was, quote, ``extraordinarily well 
documented,'' and that the assessment of former Ambassador to 
the Ottoman Empire Henry Morgenthau, who documented the 
Armenian genocide, was, quote, ''accurate, that is there is no 
question the intent was not to remove people in a peaceful 
way.``
    In a letter dated this year, July 29, Assistant Secretary 
of Leg Affairs Matt Reynolds wrote to Chairman Biden saying, 
quote: ``Our goal in bringing archivists from Turkey and 
Armenia to the United States for training is not to open a 
debate on whether the Ottomans committed these horrendous acts. 
It's to help preserve the documentation that supports the truth 
of those events.''
    Reynolds further added, quote: ``The administration 
recognizes that the mass killings, ethnic cleansing, and forced 
deportation of over 1.5 million Armenians were conducted by the 
Ottoman Empire. We indeed hold Ottoman officials responsible 
for those crimes.''
    That is the administration's position. Based on those 
statement--I'm not going to go into the historical details, but 
based on those statements can you assure the committee that the 
administration is not supporting rhetorically, financially, or 
otherwise an effort to convene a commission to settle an 
historical debate that in effect is not a debate?
    Ambassador Jeffrey. Mr. Chairman, as you've indicated, the 
administration recognizes and mourns and is very, very, very 
concerned about the historical facts, which include, as you 
said, the mass killing and the forced exile of up to 1.5 
million Armenians at the end of the Ottoman Empire. We support, 
as President Bush made clear in his recent statement on March 
24, the open effort by both sides to get to the bottom of the 
historical facts and to move forward as part of a 
reconciliation process both to establish closer and eventually 
full relations and to work out these dark chapters in the past.
    Senator Kerry. So do I interpret that as, are you in fact 
going farther than Assistant Secretary for Legislative Affairs 
Reynolds did? Are you in effect saying that we are supportive 
of the historical commission itself and its goal, or are we 
supportive of simply maintaining the historical record?
    Ambassador Jeffrey. We are supportive of anything that the 
two sides mutually agree on, sir. And as part of any process, 
we think that there should be a full and open review of the 
events of that time.
    Senator Kerry. Providing its mutually agreed on?
    Ambassador Jeffrey. Providing its mutually agreed on.
    Senator Kerry. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Let me first say to Mr. Cretz, now that I know your wife is 
a Union City native and as a Union City native, we've just got 
to get the Libyans to put their money up really quick so you 
can go there.
    I mentioned the Pan Am bombing victims, of course. There's 
the LaBelle victims and others as well. So we look forward to 
the Libyans meeting their responsibility and hopefully your 
opportunity once you're there after they meet their 
responsibility to continue to engage in that respect.
    Ambassador Jeffrey, I'm dismayed as I heard your answer to 
Senator Kerry because that puts us before where we were when we 
had the ambassador-designee to Armenia being interviewed, and 
the statements that Senator Kerry read to you are the response 
to this committee and to Chairman Biden from the State 
Department because of great angst that was created as a result 
of her testimony. Now you've taken us back to where we were 
before, when you say we support whatever the commission does to 
get to the bottom of the historical facts.
    Well, that's not what the administration has said to us. 
The administration in their letter--unless we're not to believe 
letters sent to this committee now. The administration in their 
letter said: ''Our goal is not to open a debate on whether the 
Ottomans committed these horrendous acts. It is to help 
preserve the documentation that supports the truth of those 
events.``
    That letter by Assistant Secretary of Legislative Affairs 
Mr. Reynolds further went on: ``The administration recognizes 
that the mass killings, ethnic cleansing, forced deportation of 
over 1.5 million Armenians were conducted by the Ottoman 
Empire. We indeed hold Ottoman officials responsible for those 
crimes.''
    Now, what I heard you respond to the question is quite 
different. So do you want to clear it up for me or are you 
sticking with your statement that we support whatever it is to 
get to the bottom of the facts? The historical facts as I see 
it have now been admitted to by the State Department and 
clearly stated as such. And I don't get a sense that's what 
you're telling us, so that puts a complication in this process. 
Maybe you can help us.
    Ambassador Jeffrey. I'll try, Senator. Certainly everything 
that Assistant Secretary Reynolds wrote is U.S. Government 
policy and we stand by it. What I was trying to communicate was 
it's also important for Turks and Armenians to move forward on 
a joint effort to work on these issues and to come to some kind 
of, to the extent they can, common view of the historical 
facts.
    Senator Menendez. Well, if in fact we already have come to 
the conclusion that the historical facts as outlined by Mr. 
Reynolds on behalf of the State Department in July of this year 
are that we indeed hold Ottoman officials responsible for those 
crimes, why would we support an initiative that ultimately 
doubts whether those are the historical facts? If the Turks 
seek to do it that's one thing, but why would we be supportive 
of an effort that ultimately undermines the very position that 
our State Department has?
    Ambassador Jeffrey. In conflicts such as this, Senator, we 
believe that as a general rule--and we apply this across the 
board in the many conflicts that I've been involved in--we 
have--and it's our obligation to our own citizens and to the 
historical record to have--our own views, but it's also 
important to try to encourage the various sides on a dispute, 
be it this one, be it others, to try to come to some sort of 
joint understanding of the past and a joint way forward for the 
future.
    Senator Menendez. Let me ask you one last question on this. 
Would you then as the ambassador be someone who would advocate 
rhetorically, financially, or otherwise that the commission 
should be constituted and move forward?
    Ambassador Jeffrey. Senator, every effort that can be taken 
for people to review openly the facts of that period would be 
supported by me.
    Senator Menendez. Let me ask you, do you believe that--
despite some painful legacy of the Armenian genocide, continued 
illegal Turkish blockade, Armenia has repeatedly offered to 
open diplomatic relationships with Turkey without 
preconditions. Do you believe that Turkey should accept 
Armenia's offer to establish full diplomatic and economic 
relations without any precondition?
    Ambassador Jeffrey. We believe that Turkey should establish 
relations with Armenia, sir, that is correct.
    Senator Menendez. Without any preconditions?
    Ambassador Jeffrey. Without any preconditions.
    Senator Menendez. Thank you. Let me ask you with reference 
to the State Department's international religious freedom 
report. One of my concerns reading from the report is minority 
religious groups, particularly the Greek and the Armenian 
Orthodox communities, have lost numerous properties to the 
state in the past and continued ongoing efforts from the state 
to expropriate properties.
    Most particularly, the Ecumenical Patriarchate, the 
spiritual leader of 6 million Christians here in the United 
States and 300 million in the world, finds themselves 
constrained, having his church's properties confiscated--you 
mentioned the Halki school--not being able to have new 
ordinations of priests at that location, and most recently U.S. 
citizens who are affiliated with the church, the Greek Orthodox 
Archbishop of America Demetrius, Metropolitan Isaiah of Denver, 
Metropolitan Nikitas from San Francisco, and others who 
attended the holy synod in Istanbul, were ultimately treated in 
a way in which we would want no United States citizen to be 
treated.
    What is it that you would intend to do as our ambassador to 
Turkey to get Turkey to understand the importance of religious 
freedom and the respect of the Ecumenical Patriarchate, which 
represents the spiritual leader of millions of Americans here 
at home?
    Ambassador Jeffrey. Senator, we would continue the progress 
and continue the pressing that we have done in the past. This 
was one of the biggest issues when I was there last time. It's 
something that I know that Ambassador Wilson and his 
predecessors have put a lot of time and effort into. We have 
seen some success. In 2002 the Turks changed the property law 
to allow the foundations for the Greeks, the Armenians, and the 
Jewish groups in Turkey to purchase property. That was a step 
forward, but not an adequate one. They changed the law again in 
2006. Unfortunately, it was found unconstitutional and it is 
back being reviewed.
    We need to move forward on that law consistent with the 
Turkish constitutional system and we need to take further 
steps. This is something that I will, if confirmed, put a great 
deal of effort into because I believe that it is absolutely 
essential for the kind of relationship that we want to continue 
to have.
    In the case of the synod, we were pleased that non-Greek 
members of the synod were appointed in 2004 and we hope that 
they can exercise their full rights as members of the synod.
    Senator Menendez. Are you aware of the European Court of 
Justice's unanimous determination last July----
    Ambassador Jeffrey. Yes, sir.
    Senator Menendez:--which condemns Turkey's confiscation of 
the orphanage of the Ecumenical Patriarchate? Are you aware of 
that?
    Ambassador Jeffrey. Yes, sir. This is the Kachuk Adaf 
Orphanage. It is another of the lines of operation, if I will, 
if I can, that we are pursuing. One of the reasons that we urge 
Turkey to establish closer relations with the European Union is 
to help folks resolve these sorts of problems that complicate 
both our relationship, as you pointed out, with Turkey, but 
also the European Union's.
    Senator Menendez. Let me ask you this. On Cyprus there are 
currently more than 40,000 Turkish troops in Northern Cyprus 
occupying that part of the country. Since 2003 when I was one 
of the first people to cross from the Greek Cypriot side into 
the occupied side, there have been more than 13 million free 
crossings from the occupied area to the Cypriot government and 
vice versa.
    Is that not a clear repudiation of the Turkish position 
that you need to have 40,000, the most militarily--in terms of 
square footage, the most militarily occupied part of any part 
of the world?
    Ambassador Jeffrey. We would be delighted to see any step 
towards reconciliation, any step to further defuse that 
situation, Senator, including withdrawals of troops. The 
previous effort in 2004 had a very significant withdrawal of 
foreign troops from the island as part of the Annan plan. We 
fully support a comprehensive solution and we think that any 
comprehensive solution would deal successfully and effectively 
with the troop issue.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Kerry. Thank you, Senator Menendez.
    Mr. Cretz, what's your understanding at the moment of the 
Libyan contributions to the fund?
    Mr. Cretz. Currently, Mr. Chairman--first I would point out 
that the agreement was signed on August 15 between the United 
States and the government of Libya. On September 3 the fund 
that will receive the contributions was established.
    Right now my understanding is that contributions to the 
fund are being solicited and that we expect that the fund will 
be capitalized in the near future.
    Senator Kerry. Do you have any expectation on the time 
frame?
    Mr. Cretz. I can't give you a definite date, Mr. Chairman, 
but we believe that it will be in the very near future.
    Senator Kerry. When you say funds are being solicited, do 
you know where they're being solicited from
    Mr. Cretz. This is a humanitarian fund which is open to 
anyone who wants to contribute. I do not know myself what the 
actual sources of the funds will be.
    Senator Kerry. Do you--is there any expectation that 
American businesses anxious to secure contracts or do business 
may contribute to the fund?
    Mr. Cretz. Mr. Chairman, we have had three clear red lines 
with respect to the solicitation or the capitalization of the 
fund: number one, that there will be no United States taxpayer 
dollars involved; number two, that we will not pressure U.S. 
companies to contribute to the fund; and number three, that we 
will not tolerate any pressure being brought to bear on any 
U.S. companies to contribute to the fund.
    Senator Kerry. Pressure is to be distinguished from an 
invitation?
    Mr. Cretz. Since the fund is----
    Senator Kerry. Or request?
    Mr. Cretz. Yes, I would say that it is. If U.S. companies 
wish to make a contribution, just as any other companies, 
Libyan companies, European companies wish to make a 
contribution to that, it's certainly up to them. We have 
offered that, if asked, we would facilitate any contact with 
them about contribution with the Department of Justice with 
respect to any regulations and laws that might apply.
    Senator Kerry. Have you been briefed on or do you have any 
concerns yourself as an incipient ambassador with respect to 
the arms sales and potential nuclear agreements between France 
and Libya?
    Mr. Cretz. I have not, Mr. Chairman.
    Senator Kerry. And you have no opinion with respect to 
them? You don't have to. I'm just curious.
    Mr. Cretz. I don't have an opinion on that.
    Senator Kerry. What abut potential natural gas cooperation 
between Libya and Russia?
    Mr. Cretz. I think as we--if we are able in fact to expand 
our relationship with the Libyans, we would hope that as part 
of that there would be more investment in the exploitation of 
Libyan oil as well as Libyan natural gas, not only for the 
benefit of the United States Government and people at some 
point, because it offers perhaps more stability in the oil 
markets, but also because it would--as we look at the situation 
with respect to Europe and the need to diversify sources of oil 
and gas, I think we would look on that as--we would look on the 
contacts between the Europeans and Libya as positive, as a way 
to diversify from any one source of oil and gas which they have 
now, and perhaps the Russians is a good example of that.
    Senator Kerry. Do you expect the United States to try to--
is there any discussion that you're aware of of our offering 
similar kinds of deal opportunities or engaging in discussions, 
regarding either arms sales or energy production?
    Mr. Cretz. With respect to energy production, we know that 
our companies are involved in that. We know that several 
American companies would like to gain further business with 
Libya, especially with respect to oil recovery techniques. We 
know that the Libyans would welcome further American investment 
in this area.
    With respect to arms, with respect to our own potential 
arms sales to Libya, I would say that we hope that once we 
overcome--once the problem with respect to the claims is 
overcome fully and satisfactorily, that we will be able to 
begin a defense relationship with Libya at some point. This 
would be a relationship that would be based on--as we begin to 
see the prospects of whether or not we would be able to sell 
arms to Libya, it would be done on a case by case basis and in 
response to positive Libyan behavior, as we have seen in the 
past in what it's done with respect to WMD, renunciation of 
terrorism, and we hope with the fulfillment of the claims 
agreement.
    Senator Kerry. To what degree does Libya's opposition to 
the presence of non-African military forces, i.e., AFRICOM, 
presence complicate that? And how do we anticipate their being 
cooperative in those efforts that we obviously face on the 
continent with respect to counterterrorism, and yet they're 
opposed to the AFRICOM presence?
    Mr. Cretz. When the Secretary was in Libya for her historic 
visit a few weeks ago, she actually did engage in a discussion 
with the Libyans with respect to AFRICOM. I think that we 
discovered in that discussion that what they thought our intent 
was with respect to AFRICOM was really quite mistaken. I think 
the Secretary told the Libyans that we needed to do more work 
with respect to explaining to them that this was not only a 
security-based United States effort in Africa, but in fact it 
was an effort to help Africans help themselves, especially with 
respect to countering terrorism on the continent, and also to 
helping Africans help themselves with respect to maintaining 
and fostering political stability.
    So we have work to do in that area, but I think the 
Secretary's visit went at least some measure in terms of 
dispelling what we thought--what appears to be a misconception 
on the Libyans on the part of AFRICOM.
    Senator Kerry. Does that play out in some positive way with 
respect to conflicts in Chad or Darfur, Niger, and-or the other 
regional sort of concerns that we have?
    Mr. Cretz. Mr. Chairman, I think that we in the past, where 
we might have seen elements of adventurism with respect to 
Libya's actions in Africa, I think we've had a pretty good 
indication over the past few years of a willingness by the 
Libyan government to play a very favorable and positive role in 
the conflicts in Africa, specifically in Darfur and most 
recently as a participant, Libya's participant as a member of 
the Dakar Accords with respect to the conflict between Sudan 
and Chad.
    While we may have had a difference of opinion at times with 
Libya with respect to tactics in bringing these conflicts to 
resolution, I think that the overall goal that we share with 
the Libyans is similar in those cases. So I think that Libya--
one of the reasons I think that we want to settle the claims 
agreement fully and satisfactorily is that we see a lot of 
areas of potential cooperation with Libya in the future, 
specifically with respect to counterterrorism and certainly 
with respect to conflicts on the continent.
    I would note also that Libya has been helpful in 
establishing a humanitarian corridor to allow goods to Darfur, 
and my understanding is that they have also opened up routes to 
help refugees in the Sahel as well.
    Senator Kerry. Those efforts, obviously we appreciate them 
and they're important, but how do you square those--what 
leverage do we have to address some of the internal abuses that 
I cited, the human rights issues internally? Obviously, we 
always have to try to prioritize some of these things, but we 
never turn away from that no matter what our priorities. How do 
we leverage that?
    Mr. Cretz. Mr. Chairman, I think that first of all we 
recognize, we should recognize, that we have not had a high 
level dialogue or any dialogue basically with the Libyans for 
almost 25 years. So I think that we need to--as we move forward 
with the Libyans, I think we have made it clear that the--and 
they have in fact expressed a willingness to engage in a human 
rights dialogue with us.
    When the Secretary was in Tripoli she specifically raised 
the case of Fathi El-Jahmi and she also told the Libyans that 
we would be eager to engage on a human rights dialogue on the 
basis of mutual respect. I think that if confirmed as 
ambassador I certainly would take a lead from what the 
Secretary did. I think that we have an opportunity to start a 
human rights dialogue on a high level.
    Also I would note that Colonel Qadhafi's son himself, Seif 
al-Islam, has also publicly spoken about the need to reform 
parts of Libyan society. I think it will be an evolutionary 
process, but I think that it's one that could yield fruit in 
the future if we engage at with the proper means, the proper 
attitude, and the proper time.
    Senator Kerry. Thank you, Mr. Cretz.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Ambassador Jeffrey, I focused on--you have a big charge. 
It's a big country. It's very important to us, and there's a 
whole host of issues. So that's why I'm focused on getting a 
good sense of what your thinking is on some of these.
    If Turkey were to recognize the Armenian genocide, would 
the United States be willing to do so?
    Ambassador Jeffrey. We would have to see at that time, 
Senator. I can't commit the administration to any future 
action.
    Senator Menendez. No, I realize you can't. But would you as 
the U.S. Ambassador to Turkey say to the administration, 
whoever that is in the next administration, that in fact we 
should recognize it as well?
    Ambassador Jeffrey. We constantly review. We constantly 
review many things in our foreign policy processes. This one, 
because of the great interest in the American public and 
Congress, is one that gets reviewed all of the time. That would 
certainly be a very major factor in any review if the two sides 
could come to an agreement on that particular term or other 
issues related to the past, sir.
    Senator Menendez. Well, if Turkey on its own came to the 
evolution that in fact it made a decision that, yes, a 
previous, not even Turkey as we know it today but the Ottoman 
Empire, did what the State Department says it has and said, 
yes, there was a genocide, would it not be in the interests of 
the United States to recognize what Turkey itself has 
recognized?
    Ambassador Jeffrey. It would be, as I said, Senator, a very 
important factor. But aside from being concerned about 
committing this or the future administration to a specific 
course of action or predicting it, there would be other factors 
that would have to be weighed, such as our general approach to 
other conflicts and taking positions.
    The relationship between Turkey and Armenia is a major 
factor in the policies we take, the words we use. But there are 
other factors as well, sir.
    Senator Menendez. When you take the oath, should you be 
confirmed by the Senate as the Ambassador of the United States 
to Turkey, do you know what that oath says?
    Ambassador Jeffrey. Yes, sir.
    Senator Menendez. Does that oath speak to an administration 
or does it speak to the country?
    Ambassador Jeffrey. It speaks to the country, Senator.
    Senator Menendez. In that respect, one of the things that I 
look when we have nominees here is that when we have our--
understanding fully that the State Department to a large degree 
is going to, and whatever administration you work for is going 
to, define your parameters. But when I have an ambassador here 
I want to be able to get straight talk so that in fact I know 
and can make judgments as one member of the United States 
Senate and of this committee, and I can't get that straight 
talk if I hear a constant constrainment of what is the truth or 
the realities and the opinions you might have in a country as 
it relates to questions being posed to you by members of this 
committee.
    So I hope that we recognize that the oath is to the country 
and this is an institution of the country at the end of the 
day.
    So let me ask you this question. There are a series of 
media accounts--I won't take them all here--that reported that 
Under Secretary of State Edelman and Assistant Secretary of 
State Dan Fried traveled to Turkey in October of 2007 to, 
quote, ``express regret'' over the adoption of the Armenian 
genocide resolution by the U.S. House Foreign Affairs 
Committee, one that I sat in at one time.
    Is it your view, should you ultimately be approved by the 
Senate as an ambassador, to express regret of what an 
institution of the United States Congress does?
    Ambassador Jeffrey. Senator, I never have and I never will 
express regret. This is an independent and equal organ of the 
United States Government. It deserves the respect of everyone 
in the world.
    Senator Menendez. I appreciate that answer.
    Let me ask you one last, two last questions, and I may 
submit some for the record, but not to belabor your appearance 
here today. You know, I have spent a lot of time on the 
question of Cyprus and Turkey and reunification of the island. 
Many New Jerseyans are of descent from that country, American 
citizens now.
    Overwhelmingly in the years that I have spent focused on 
this, probably the better part of 16 years in the Congress, 
there is a very deep belief that the solution is not between 
Greek and Turkish Cypriots, although that's what we would 
desire it to be, but that a lot of this has to do with what 
goes on in Ankara, and particularly the military in Ankara. How 
do you see your role as the United States Ambassador in trying 
to help what is clearly an interest of the United States to 
have a country that is now part of the European Union, the 
unoccupied part, but also that accepted our citizens when we 
were finding the difficulties that were taking place when our 
citizens had to be evacuated from Beirut in Lebanon, and 
accepted them with open arms and helped us--how do you see 
playing a role to try to move that in the right direction?
    Ambassador Jeffrey. Certainly, sir. As one who was working 
that evacuation, I do want for the record to thank again the 
people of Cyprus for taking on thousands of Americans. It was a 
magnificent and immediately crucial effort.
    Sir, on the issue of Turkey, Turkey is a major player 
obviously in this. Both Turkey and Greece are technically 
guarantor powers under the 1960 set of accords. But far more 
importantly, they're both political players in this. In the 
case of Turkey, which is where if confirmed I would focus my 
efforts, it would be my job, as it has been the job of my 
predecessors in various positions there, to convince the Turks 
that it is in their own interest to find a solution to that, 
that their own relations, not just with us, importantly with 
us, but also with Greece, not with Cyprus, of course, but with 
the European Union, and with the region would be helped.
    The more the Turks move closer to their neighbors, the 
better their relations, the better their trade. We see this 
with Greece, where, while there are still some issues, they've 
recently had very high-level exchanges. They have now a gas 
pipeline between Turkey and Greece. They have possibilities of 
joint military units. This is exactly what we want to see 
happening with Cyprus, with Armenia as well, Senator.
    Senator Menendez. A final question if I may. I read your 
statement, your full statement, and your 5-page statement, 14 
paragraphs, has 2 that talk about all these challenges combined 
together, particularly in the context of Turkey's desire to 
enter the European Union and how there are obstacles to that.
    If you were to receive the support of the Senate and be 
confirmed, can you give me a sense, within the myriad of issues 
that you will be facing, as to what type of import, attention 
of your time and calibration will you give to the issues that 
I've raised with you
    Ambassador Jeffrey. Senator, in my last job in Turkey the 
issues you raised occupied a very large part of my, if you 
will, policy time, the time we spend into diplomatic contacts 
with the Turks, certainly on the order of 20, 30, 40 percent. 
The crisis of the day--as you pointed out, it's a large 
country; it borders on a lot of problem areas--sometimes push 
the press of business to the side. But this has been and if 
confirmed it will be very important elements of our policy, 
sir.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Kerry. Thank you for a set of important, good 
questions, Senator.
    Just a couple more if I can. How would you characterize, 
Mr. Jeffrey, the relationship right now between the AK Party 
and the military establishment that's so important in Turkey?
    Ambassador Jeffrey. Senator, I know enough about Turkey to 
say that a question of that detail requires on-the-ground 
talking with all of the people. If confirmed, that would be one 
of my priorities, and I wouldn't want to go into it in detail 
now. I would simply like to sketch out a few guideposts, if you 
will.
    First of all, there was the recent constitutional court 
decision concerning the AK Party and the concerns that many in 
Turkey had about whether it was going too far in challenging 
the secular basis of the Turkish constitution and state. The 
outcome was to fine the party but not challenge the party's 
rule. I think that that is--the European Union has greeted that 
decision and, while we don't get into constitutional decisions 
in any real detail, I think that that portends well for stable 
relations between the various key elements of Turkish society, 
including between the military and this party.
    Senator Kerry. Do you think that that relation--is that 
relationship tricky with respect to the ability of the Cyprus 
issue to be resolved?
    Ambassador Jeffrey. Senator, my bias is almost everything 
involving Turkey is tricky to one or another degree. But I 
would have to say that it is a--that has always been in the 
past when I was involved in this an issue of some concern. As 
in many other cases of countries with important national 
security demands, challenges, and issues, the Turkish military 
has a say in political decisions, and that's something that we 
have to work with all of the actors.
    Senator Kerry. Is it your judgment that Turkey would accept 
the withdrawal of its forces in exchange for the unification of 
the island?
    Ambassador Jeffrey. Turkey supported in----
    Senator Kerry. In a bizonal, bicommunal, federated concept?
    Ambassador Jeffrey. Turkey accepted in 2004, sir, the Annan 
plan, which called for the withdrawal of most of the forces. I 
think they would go down to roughly 6,000 on each side. I think 
that if you could find a, as you said, bizonal, bicommunal 
federal solution that both sides could agree to, I think that 
Turkey as a whole would go along with it, as it was ready to do 
in 2004.
    Senator Kerry. And UE accession? What's your sense of the 
status of that?
    Ambassador Jeffrey. Sir, I didn't catch the beginning?
    Senator Kerry. The EU accession.
    Ambassador Jeffrey. Right now--there are 35 chapters that a 
country has to work its way through, and it often takes 10 or 
15 years. Turkey has eight chapters opened. They have eight 
chapters closed. Again, as in many other cases, because of the 
Cyprus situation the Turks do not open their ports to Cypriot 
trade. They have their own arguments on why, based upon what 
they have explained is EU commitments before the Annan 
referendum on the island in 2004 concerning the Turkish 
Cypriots.
    But in any case, the EU has decided to freeze those eight 
chapters. The EU is also very concerned about the 
constitutional court case. Because of the way that that case 
came out, I think, and because of the new movement on Cyprus, 
we would hope and expect that there would be a new impetus to 
moving forward on the EU.
    Senator Kerry. Mr. Cretz, are you satisfied with the 
current state of the consular relationship between us and 
Libya, both the rate of travel, rate of visas, etcetera?
    Mr. Cretz. Mr. Chairman, I think there needs to be an 
improvement on both sides with respect to the consular issues. 
Because of lack of facilities, we've only been able to offer 
official visas in Libya, and in fact Libyans have to travel to 
Tunis to get their U.S. visas adjudicated. We hope that as our 
facility is able to that we can offer that at some point to the 
Libyans.
    At the same time, I would hope, and certainly if confirmed 
as ambassador, to convince the Libyans to open up with respect 
to the issuance of visas for Americans and to facilitate 
certainly in a more productive way our official people who are 
going there to do certain kinds of work, and also with respect 
to tourism.
    Senator Kerry. Are there any--have there been any closings 
with respect to any deals, either cultural or science or 
otherwise?
    Mr. Cretz. Mr. Chairman, in February I believe we signed a 
science and technology agreement. But as of right now we have 
several agreements pending, including cultural exchange 
agreement, a defense relationship framework agreement, a 
potential trade and investment framework agreement. So all 
these agreements in effect are in certain stages of being 
resolved, and I expect that if confirmed as ambassador I would 
hopefully oversee the conclusion of these agreements in the 
next several months, pending of course the----
    Senator Kerry. We want you obviously to do that, and I 
think that progress in those areas could be awfully important. 
So that could be helpful to the rest of the process.
    Let me just take one minute on process here. I want to 
check on something. [Pause.]
    Senator Kerry. I'm just trying to work through, because 
obviously there's a good chance we're going to finish this deal 
on the economic deal and be out of here in a few days. 
Obviously, we're concerned with the notion of being able to try 
to move the nominations, though yours, Mr. Cretz, depends on 
Libya, if Libya can move rapidly.
    If we're in a pro forma session here, which we may well be, 
then it would be possible to try to do this in an expedited 
fashion. I think, Mr. Jeffrey, our plan is to try to discharge 
you almost immediately, and then see how we can pull the pieces 
together in the following days.
    Therefore, what I will do is I think I'll leave the record 
open for 24 hours only and we'll close the record out tomorrow. 
If there are any additional questions in writing, it'll have to 
be done in that time. Then I hope Libya is listening and can 
write a big check quickly and transfer money by wire and get an 
ambassador.
    But we're very grateful, we're very grateful to both of 
you. Again, I regret, Mr. Cretz, but obviously it's beyond our 
control.
    Let me thank you both again and your families. This is a 
tough time to be abroad for anyone in the foreign service at 
any level, may I add. This committee is particularly sensitive 
to that and has a lot of respect for everything that people 
have to put up with in that effort. We are trying--yesterday we 
passed out of the committee an effort to try to equalize the 
pay for foreign service officers, particularly in those areas 
where families don't follow them because their families are 
back here and they're paying Washington prices at lower scale. 
We need to address those kinds of inequities of we're going to 
continue to ask people to serve in these kinds of complicated 
places and times.
    But the committee is deeply grateful to you and obviously I 
think the committee, both bipartisanly, has expressed deep 
concerns about a number of policies that have made life more 
complicated for the members of our foreign service and we're 
very hopeful that over the course of the next months, either 
way, that that's going to change. We look forward to continuing 
to work at that.
    So we thank you for your presence. We thank you for your 
willingness to serve, and I am confident in the willingness of 
the Senate to confirm both of you. It's really a matter of 
scheduling.
    We stand adjourned. Thank you.
    [Whereupon, at 3:58 p.m., the hearing was adjourned.]

                                    



</pre></body></html>
